<html>
<title> - NOMINATIONS OF THE 110TH CONGRESS</title>
<body><pre>[Senate Hearing 110-777]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 110-777
 
            NOMINATIONS OF THE 110TH CONGRESS--FIRST SESSION 

=======================================================================

                                HEARINGS



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED TENTH CONGRESS



                             FIRST SESSION



                               ----------                              

                  JANUARY 30 THROUGH DECEMBER 19, 2007

                               ----------                              



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html





































            NOMINATIONS OF THE 110TH CONGRESS--FIRST SESSION








































                                                        S. Hrg. 110-777

            NOMINATIONS OF THE 110TH CONGRESS--FIRST SESSION

=======================================================================

                                HEARINGS



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED TENTH CONGRESS



                             FIRST SESSION



                               __________

                  JANUARY 30 THROUGH DECEMBER 19, 2007

                               __________



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

48-267 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



































                COMMITTEE ON FOREIGN RELATIONS          
                110th CONGRESS--FIRST SESSION          

           JOSEPH R. BIDEN, Jr., Delaware, Chairman          

CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 JOHN E. SUNUNU, New Hampshire*
BARACK OBAMA, Illinois               GEORGE V. VOINOVICH, Ohio
ROBERT MENENDEZ, New Jersey          LISA MURKOWSKI, Alaska
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Pennsylvania        JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   DAVID VITTER, Louisiana
              Antony J. Blinken, Staff Director          
       Kenneth A. Myers, Jr., Republican Staff Director          

*Note: Reassigned to Committee on Finance January 24, 2008.

                          ----------          

                COMMITTEE ON FOREIGN RELATIONS          
                110th CONGRESS--SECOND SESSION          

           JOSEPH R. BIDEN, Jr., Delaware, Chairman          

CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 GEORGE V. VOINOVICH, Ohio
BARACK OBAMA, Illinois               LISA MURKOWSKI, Alaska
ROBERT MENENDEZ, New Jersey          JIM DeMINT, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
ROBERT P. CASEY, Pennsylvania        DAVID VITTER, Louisiana
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming*
              Antony J. Blinken, Staff Director          
       Kenneth A. Myers, Jr., Republican Staff Director          

*Note: Appointed February 12, 2008.

                             (ii)          

  



























                            C O N T E N T S

                              ----------                              

    [Any additional material relating to these nominees may be found
              at the end of the applicable day's hearing.]

                              ----------                              

                       Tuesday, January, 30, 2007

                                                                   Page

Negroponte, John D., to be Deputy Secretary of State.............     6
                                 ------                                

                      Thursday, February 15, 2007

Crocker, Ryan C., to be Ambassador to the Republic of Iraq.......    79
Wood, William B., to be Ambassador to the Islamic Republic of 
  Afghanistan....................................................    75
                                 ------                                

                       Tuesday, February 27, 2007

Fox, Sam, to be Ambassador to Belgium............................   130
Phillips, Stanley Davis, to be Ambassador to the Republic of 
  Estonia........................................................   127
                                 ------                                

                         Tuesday March 13, 2007

Almquist, Katherine, to be Assistant Administrator of the U.S. 
  Agency for International Development for Africa................   166
Bonicelli, Paul J., to be Assistant Administrator of the U.S. 
  Agency for International Development for Latin America and the 
  Caribbean......................................................   163
Chin, Curtis S., to be U.S. Director of the Asian Development 
  Bank...........................................................   178
Debevoise, Eli Whitney, III, to be U.S. Executive Director of the 
  International Bank for Reconstruction and Development..........   181
Kunder, James R., to be Deputy Administrator of the U.S. Agency 
  for International Development..................................   158
Lundsager, Margrethe, to be U.S. Executive Director of the 
  International Monetary Fund....................................   177
Menarchik, Douglas, to be Assistant Administrator of the U.S. 
  Agency for International Development for Europe and Eurasia....   160
                                 ------                                

                        Thursday, March 15, 2007

Khalilzad, Zalmay, to be Representative to the United Nations, 
  with the rank and status of Ambassador, and the Representative 
  in the Security Council on the United Nations, and to be 
  Representative to the Sessions of the General Assembly of the 
  United Nations during his tenure of service as Representative 
  to the United Nations..........................................   212
                                 ------                                


                                 (iii)
                        Thursday, March 22, 2007

Fraker, Ford M., to be Ambassador to the Kingdom of Saudi Arabia.   261
                                 ------                                

                       Wednesday, April 18, 2007

Carter, Phillip, III, to be Ambassador to the Republic of Guinea.   284
Garvey, Janet E., to be Ambassador to the Republic of Cameroon...   282
Marquardt, R. Niels, to be Ambassador to the Republic of 
  Madagascar and the Union of Comoros............................   280
                                 ------                                

                         Tuesday, May 22, 2007

Hughes, Miriam K., to be Ambassador to the Federated States of 
  Micronesia.....................................................   311
Hume, Cameron R., to be Ambassador to the Republic of Indonesia..   305
Huso, Ravic R., to be Ambassador to the Lao People's Democratic 
  Republic.......................................................   317
Keith, James R., to be Ambassador to Malaysia....................   308
Klemm, Hans G., to be Ambassador to the Democratic Republic of 
  Timor-Leste....................................................   314
                                 ------                                

                         Tuesday, June 12, 2007

Jeffery, Reuben, III, to be Under Secretary of State for 
  Economic, Energy, and Agricultural Affairs.....................   340
                                 ------                                

                         Tuesday, June 19, 2007

Cook, Frederick B., to be Ambassador to the Central African 
  Republic.......................................................   373
Garvelink, William John, to be Ambassador to the Democratic 
  Republic of the Congo..........................................   360
Green, Mark, to be Ambassador to the United Republic of Tanzania.   352
Nesbitt, Wanda. L., to be Ambassador to the Republic of Cote 
  d'Ivoire.......................................................   376
Nolan, Robert B., to be Ambassador to the Kingdom of Lesotho.....   357
Parker, Maurice S., to be Ambassador to the Kingdom of Swaziland.   355
Perry, June Carter, to be Ambassador to the Republic of Sierra 
  Leone..........................................................   370
                                 ------                                

                   Wednesday, June 20, 2007, Morning

Brownfield, William R., to be Ambassador to the Republic of 
  Colombia.......................................................   408
Duddy, Patrick Dennis, to be Ambassador to the Bolivarian 
  Republic of Venezuela..........................................   413
McKinley, Peter Michael, to be Ambassador to the Republic of Peru   411
                                 ------                                

                  Wednesday, June 20, 2007, Afternoon

Ereli, Joseph Adam, to be Ambassador to the Kingdom of Bahrain...   452
Norland, Richard Boyce, to be Ambassador to the Republic of 
  Uzbekistan.....................................................   454
Patterson, Anne Woods, to be Ambassador to the Islamic Republic 
  of Pakistan....................................................   446
Powell, Nancy J., to be Ambassador to Nepal......................   450
Seche, Stephen A., to be Ambassador to the Republic of Yemen.....   457
                                 ------                                

                        Thursday, June 21, 2007

English, Charles L., to be Ambassador to Bosnia and Herzegovina..   494
Kennedy, J. Christian, to be Special Envoy for Holocaust Issues..   497
Moore, Roderick W., to be Ambassador to the Republic of 
  Montenegro.....................................................   501
Munter, Cameron, to be Ambassador to the Republic of Serbia......   499
Withers, John L., II, to be Ambassador to the Republic of Albania   492
                                 ------                                

                    Tuesday, July 24, 2007, Morning

John, Eric G., to be Ambassador to the Kingdom of Thailand.......   537
Michalak, Michael W., to be Ambassador to the Socialist Republic 
  of Vietnam.....................................................   540
                                 ------                                

                   Tuesday, July 24, 2007, Afternoon

Fore, Henrietta Holsman, to be Administrator of the U.S. Agency 
  for International Development..................................   559
                                 ------                                

                      Wednesday, September 5, 2007

Brinker, Nancy Goodman, to be Chief of Protocol..................   646
Kimmitt, Mark, to be Assistant Secretary of State for Political-
  Military Affairs...............................................   642
Siegel, Ned L., to be Ambassador to the Commonwealth of the 
  Bahamas........................................................   646
Thomas, Harry K., Jr., to be Director General of the Foreign 
  Service........................................................   646
                                 ------                                

                      Tuesday, September 18, 2007

Egan, Christopher F., to be Representative of the United States 
  to the Organization for Economic Cooperation and Development, 
  with the rank of Ambassador....................................   698
                                 ------                                

                     Wednesday, September 19, 2007

Boulware, Mark M., to be Ambassador to the Islamic Republic of 
  Mauritania.....................................................   719
McGee, James D., to be Ambassador to the Republic of Zimbabwe....   725
McMullen, Ronald K., to be Ambassador to the State of Eritrea....   727
Nigro, Louis J., to be Ambassador to the Republic of Chad........   729
Sanders, Robin R., to be Ambassador to the Federal Republic of 
  Nigeria........................................................   714
Wells, Barry L., to be Ambassador to the Republic of The Gambia..   716
                                 ------                                

                      Tuesday, September 25, 2007

Fannin, P. Robert, to be Ambassador to the Dominican Republic....   763
Johnson, David T., to be Assistant Secretary of State for 
  International Narcotics and Law Enforcement Affairs............   755
Simons, Paul E., to be Ambassador to the Republic of Chile.......   766
                                 ------                                

                       Wednesday, October 3, 2007

Mathieu, Gail D., to be Ambassador to the Republic of Namibia....   801
Mozena, Dan, to be Ambassador to the Republic of Angola..........   803
Reddick, Eunice S., to be Ambassador to the Gabonese Republic, 
  and to serve concurrently and without additional compensation 
  as Ambassador to the Democratic Republic of Sao Tome and 
  Principe.......................................................   797
Steiger, William R., to be Ambassador to the Republic of 
  Mozambique.....................................................   806
                                 ------                                

                      Wednesday, October 17, 2007

Obsitnik, Vincent, to be Ambassador to the Slovak Republic.......   833
Speckhard, Daniel V., to be Ambassador to Greece.................   827
Stephenson, Thomas F., to be Ambassador to the Portuguese 
  Republic.......................................................   830
                                 ------                                

                       Tuesday, October 30, 2007

Heath, Daniel D., to be U.S. Alternate Executive Director of the 
  International Monetary Fund....................................   858
Kennedy, Patrick F., to be Under Secretary of State for 
  Management.....................................................   851
Mulvaney, Sean R., to be Assistant Administrator for Management 
  of the U.S. Agency for International Development...............   855
                                 ------                                

                      Wednesday, December 19, 2007

Glendon, Mary Ann, to be Ambassador to the Holy See..............   892
Larson, Charles W., Jr., to be Ambassador to the Republic of 
  Latvia.........................................................   894


                              NOMINATIONS

                              ----------                              


                       TUESDAY, JANUARY 30, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
Negroponte, John D., to be Deputy Secretary of State
                              ----------                              

    The committee met, pursuant to notice, at 9:35 a.m., in 
room SD-216, Dirksen Senate Office Building, Hon. Joseph Biden 
(chairman of the committee) presiding.
    Present: Senators Biden, Lugar, Hagel, Coleman, Corker, 
Obama, Menendez, Voinovich, Murkowski, Cardin, Casey, Webb, 
Isakson, and Vitter.

            OPENING STATEMENT OF HON. JOSEPH BIDEN,
                   U.S. SENATOR FROM DELAWARE

    The Chairman. The hearing will come to order, please. We're 
delighted this morning to have Ambassador Negroponte back 
before us. We're equally delighted to have Senator Stevens and 
Senator Lieberman. We're told by staff you folks have a full 
morning and a lot going on in your committees, so Senator Lugar 
and I will forego our opening statements and yield immediately 
to you, Senator Stevens, for your introduction and then to 
Senator Lieberman. Then we will make our opening statements and 
invite Ambassador Negroponte to make his, if that meets your 
needs.
    Senator Lieberman. That's very gracious of you.
    Senator Stevens. Thank you so much. Let me put my statement 
in full in the record and just summarize----
    The Chairman. Without objection, it will be.

                 STATEMENT OF HON. TED STEVENS,
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Mr. Chairman and Senator Lugar, I'm 
pleased to be back again before your committee. Ambassador 
Negroponte and I have been friends from at least 1977, when he 
was Deputy Assistant Secretary of State for Oceans and 
Fisheries. I'm delighted he's joined today by his wife, Diana, 
and Maria and George and Sophia behind us.
    John came to Alaska in that capacity many times and he 
handled the fisheries agreements that were important to our 
young State. He negotiated in 1978, the landmark accord, which 
protected Alaska's salmon stocks from Japanese high sea 
fisheries and those benefits continue through today.
    Over the years, I have worked with John in many positions. 
I'm sure you all know his background but he has been Ambassador 
to four countries: Honduras, Mexico, The Philippines, Iraq. He 
has been a permanent representative to the United Nations and 
Director of National Intelligence. I think--I don't know any 
man who has had more positions in my time here. He has been one 
who has had great success, particularly in his most recent 
assignment where he has brought together this massive 
intelligence concepts of our Federal Government and coordinated 
them and done an excellent job and I think everyone realizes 
what a great job he's done.
    He now seeks to go back to the Department of State. As we 
all know, that is where his heart has been and he has stated 
himself that all his life, he has wanted to do this kind of 
this work and this position he's going to take now is extremely 
important to us and our country.
    Winston Churchill once observed that the price of greatness 
is responsibility, and John has been willing to accept 
responsibility on many occasions. So I hope the committee will 
quickly recommend his confirmation as the Deputy Secretary of 
State and I know of no man who can do a better job.
    The Chairman. Thank you very much, Senator Stevens. I do 
understand you may have to leave, and thank you for making the 
effort to be here.
    Senator Stevens. I'll turn it over to my colleague to 
finish his comments.
    The Chairman. Senator Lieberman.

              STATEMENT OF HON. JOSEPH LIEBERMAN,
                 U.S. SENATOR FROM CONNECTICUT

    Senator Lieberman. Thank you. Thanks Mr. Chairman, Senator 
Lugar, Senator Coleman, and other members of the committee.
    I'm greatly honored to appear before you and to have been 
asked, along with Ted Stevens, to introduce John Negroponte to 
this committee and to ask you to confirm him for the high 
position of Deputy Secretary of State. He is enormously well 
qualified for this position.
    Ted said he went back to 1977 in knowing John. I would like 
to say that we go back to the sixties. We were both at Yale. We 
may have crossed as he left in 1960 and I entered there by 
trying to subtly indicate that he is older than I am. I am much 
more distinguished. [Laughter.]
    There, it struck me that we swore allegiance at the end of 
our alma mater to God, Country and Yale. I think John and I 
both thought that was in descending order of importance, God, 
Country and Yale and in fact, like so many at that time, he was 
committed to a life of public service and went right from 
college to the Foreign Service and has served our Nation with 
the highest honor and greatest positive effect in a number of 
posts that are part of his record, which I will not enumerate, 
since that time, including being Ambassador to Iraq during a 
very difficult period where he, I thought, was very effective 
and advanced the cause of both stability and freedom to the 
best of his ability.
    When he was nominated for this post, John said, and I 
quote, ``Whether in Baghdad, Kabul, Kosovo, or elsewhere, these 
dedicated professionals, that is the--his fellow members of the 
Foreign Service are on the front line of advancing America's 
commitment to freedom.''
    And I agree with that and I appreciate his commitment to 
those who with him, have served as Foreign Service officers, 
the cause of our Nation abroad and I think it gives him an 
extra measure of understanding of effectiveness as he comes to 
this high position.
    I would add just one more experience that I've had with 
John that I think speaks well for his ability to take on what 
is not only a diplomatic assignment but also an administrative 
assignment.
    As my colleagues know, the Senate asked our Senate 
Committee, then known as the Senate Committee on Governmental 
Affairs, now Homeland Security and Governmental Affairs, to 
take up the task of considering and recommending to the Senate 
the legislation recommended by the 9/11 Commission and then 
seeing it through the Senate and the House to passage.
    Obviously, that Commission recommended and we in Congress 
created the new position of Director of National Intelligence, 
the DNI, to essentially bring together these disparate entities 
within our American Intelligence community, which had not been 
working well together. So to make a long story short, had not 
connected the dots, if you will.
    This was a challenge that required not only a strong 
administrative hand, if I may say so, but all the diplomatic 
skills that John Negroponte learned in his many diplomatic 
assignments, which is negotiating among and coalescing the 
disparate groups within the American Intelligence community. He 
has done, I think, an extraordinarily good job at that.
    The work goes on because it's enormous work but he has 
brought us, in a short period of time, to a point where we are 
quite simply, because of his work, better protecting the people 
of America and preventing a reoccurrence of the nightmare that 
we all experienced on 9/11.
    I can think of no one who is better able, at this moment, 
to assist Secretary Rice, both in the management of the 
Department of State and in the implementation of its 
responsibilities throughout this challenging world.
    So I'm honored to have been asked to introduce Ambassador 
Negroponte to you. I recommend him to you and I hope you'll be 
able to confirm him unanimously.
    Thank you very much.
    The Chairman. Gentlemen, thank you very much. Both of you 
being here speaks loudly for Ambassador Negroponte. I 
appreciate you being here.
    As indicated earlier, I'll proceed now with a brief opening 
statement and Senator Lugar will have an opening statement, and 
we'll turn it over to the Ambassador with our hope and 
expectation that he'll introduce his family to us again and 
make his statement. Then we'll go to questions.
    Today, as is obvious, the committee considers the 
nomination of John Negroponte to be the Deputy Secretary of 
State. It has been over 7 months since Deputy Secretary 
Zoellick announced he was leaving the Department, and in doing 
so, the administration has set a dubious record--the longest 
period without a Deputy Secretary of State since the position 
was created in 1972. So we're happy, and the reason why we 
moved this as quickly as we could is to rectify that situation.
    Ambassador Negroponte is well known to us all. I will not 
take the time of the committee nor the nominee to go through 
his long record of service, some of which has been referenced 
already. Senior officials must have good judgment, and they 
must be forthcoming with the Congress and the American people 
about the difficulties we face in Iraq and elsewhere. I would 
say respectfully, Mr. Secretary, that Deputy Secretary 
Armitage, from my position, was just such a person. I would 
urge you to take a look at him as a model, in my view, for 
dealing with the committee.
    Last week, General Petreus, the new military commander in 
Iraq, told the Committee on Armed Services that the situation 
in Iraq was ``dire.'' The Iraq Study Group, whose leadership 
will appear before this committee this afternoon, called the 
situation ``grave and deteriorating.'' Because it has been 
reported that you, Mr. Ambassador, will be taking a leading 
role in Iraqi policy, as I indicated to you in the ante room, 
I'm going to ask you to give your assessment of the situation 
in Iraq. How is Iraq different than when you served there? Do 
you believe the President's surge policy will succeed? What are 
the elements of a workable political solution that the 
President says is needed and we all say is needed, in order to 
end the sectarian violence? What are the elements of that 
solution?
    If you are confirmed, I hope you will not confuse the 
Senate's endorsement of you as an endorsement of the policies 
of the administration that has nominated you. After 3 weeks of 
hearings in this committee, I am more convinced than ever that 
surging our forces into the midst iof a cival war in Iraq is a 
tragic mistake. I'm equally convinced that our only chance to 
leave Iraq with our interest intact, rests on a political 
solution that ends the sectarian violence and the cycle of 
revenge. It seems to me that can only be accomplished by 
empowering strong regional governments, as the Iraqi 
constitution provides for, giving the Sunnis a fair share of 
the oil revenues, and bringing in the neighbors in support of 
such a political settlement.
    If we do that, we still have a chance, at least a chance of 
avoiding having traded a dictator for chaos. If we're going to 
surge anywhere, Mr. Ambassador--you will probably hear from 
some of the committee beyond me but you'll clearly hear on the 
Senate floor--we think that surge should be Afghanistan, not 
Iraq, where the Taliban appears to be making a serious 
comeback. So there may be some questions about Afghanistan, as 
well.
    Every Deputy Secretary takes on duties assigned to him by 
the Secretary of State, so I will ask you, Mr. Ambassador, to 
outline the areas of responsibility that you expect to have as 
Deputy Secretary and to give us your assessment of the major 
policy questions facing us in each of those areas.
    I'd like to specifically request that you give your views 
on Darfur, which was a major responsibility undertaken by 
Deputy Secretary Zoellick, which seems to have fallen from the 
priority list.
    The administration has rightly called Darfur genocide but 
those words have not matched our deeds thus far to stop it, and 
I'd like your assessment as well on North Korea, which I 
understand will be part of your job description.
    So let me now, again welcome you but turn this over to 
Senator Lugar for any remarks he may have. Then we'll hear from 
you, and I hope you'll introduce your family.

                STATEMENT OF HON. RICHARD LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Thank you, Mr. Chairman. It's a pleasure to 
welcome John Negroponte again to this committee. As a result of 
his distinguished career in government, most recently as the 
Nation's first Director of National Intelligence and his 
earlier assignments as our Ambassador to Iraq and our 
Ambassador to the United Nations, he is well known to many of 
us.
    We admire his accomplishments and we are thankful for the 
cooperation he has provided to our committee in the past. We 
know that you share the committee's view that the State 
Department has a leadership role to play in addressing the 
urgent international challenges facing our country. We need a 
diplomatic core that can shape complex bilateral relationships, 
repair and build alliances, and pursue United States policy 
through a labyrinth of foreign languages and cultures.
    We need ambassadors who can lead our interagency teams 
overseas, negotiate successfully with host governments, and 
speak authoritatively as the President's personal 
representatives.
    We need foreign aid programs run by professionals who know 
how to encourage democratic practices and boost economic 
development, even in the toughest environments--and we need 
communications experts who can get our message across to 
foreign audiences.
    The wars in Iraq and Afghanistan, the challenges of North 
Korea and Iran, crises in Darfur and Somalia, consume both time 
and energy at the Department and of this committee. A host of 
other issues, including international energy security, the 
spread of HIV/AIDS and other diseases, the Arab/Israeli peace 
process, our developing relationships with emerging giants in 
China and India, and our outreach in our own hemisphere require 
daily attention.
    But we must also strengthen the Department itself. The 
Deputy Secretary has traditionally handled key management 
problems before they reach the Secretary, refereeing internal 
squabbles, and overseeing the right mix of tools, people, and 
resources to address whatever crisis is brewing next. Thus, you 
must be concerned not only with the Department's direction but 
also with its capabilities.
    This committee has worked enthusiastically to bolster these 
capabilities. In 2003, we embarked on an effort to improve the 
capacity of the Department to deal with stabilization and 
reconstruction emergencies. Last June, the Senate unanimously 
passed legislation that Senator Biden, Senator Hagel, and I 
sponsored to authorize a crisis response fund, the State 
Department's Reconstruction and Stabilization Office and a 
Rapid Response Corp. The President's call in his State of the 
Union speech for the creation for such a civilian corp is a 
breakthrough for this concept. We should work to translate the 
President's enthusiasm into funding personnel and 
responsibility.
    This committee has been instrumental in efforts to boost 
the Department's capability in other ways. We have worked with 
our Senate colleagues to foster support for multiagency 
contributions to the building of safe embassies. We have worked 
to maintain the Department's primacy in determining which 
countries will receive the United States foreign assistance and 
how much they should receive. We are working to back up the 
authority of ambassadors as they oversee the United States' 
campaign against terrorism.
    We continue to argue for a foreign policy budget that 
reflects the pivotal roles of the State Department, USAID, and 
the Millennium Challenge Corporation. All of these efforts are 
works in progress and we need you as a partner in pursing them.
    One other area where I hope you can make improvements is in 
the timely filling of key policy positions. The position for 
which you have been nominated has been vacant since July 7, 
2006. The Department is without a Counterterrorism Coordinator. 
The Under Secretary for Economic Affairs--a portfolio which 
includes critical international energy issues--is soon to 
depart for the World Food Program. The Stabilization and 
Reconstruction Office went without a permanent coordinator for 
some 8 months before John Herbst arrived. The Political 
Military Bureau is losing its leader, and there are a number of 
other top posts that are being vacated.
    We should be seeking the best people to fill posts as 
attrition occurs. We're a Nation at war in two countries, and 
every gap in civilian leadership is felt.
    With a Foreign Service career that has spanned decades, you 
have a unique understanding of the Department's shortcomings as 
well as the vital contributions its employees make to building 
a peaceful and prosperous world. I am grateful that you are 
undertaking this task and I look forward to working with you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator. Mr. Ambassador, the floor 
is yours. Thank you.

    STATEMENT OF HON. JOHN NEGROPONTE, NOMINEE TO BE DEPUTY 
                       SECRETARY OF STATE

    Mr. Negroponte. Thank you very much, Chairman Biden and 
Senator Lugar and members of the committee. It is a privilege 
to appear before you as the President's nominee for the 
position of Deputy Secretary of State.
    I am accompanied this morning by my wife, Diana, and to her 
right is my daughter, Sophia, and to her right is my daughter, 
Marina, and to her right is my son, George.
    Chairman Biden. Welcome. This is getting to be an old habit 
for you guys. Welcome back. It's delightful to have you here.
    Mr. Negroponte. Thank you, sir, and I also have a daughter, 
Alejandra, who may show up later in the hearing. She had an 
engagement that she had to attend earlier this morning.
    Let me say at the outset how much I appreciate Senators 
Stevens and Lieberman taking time from their busy schedules to 
present me to the committee. Over the year, they have offered 
me a great deal of wise counsel, support, and not the least, 
warm friendship.
    Mr. Chairman, as someone who started his career as a young 
Foreign Service officer on October 5, 1960, I welcome my 
nomination to be Deputy Secretary of State as an opportunity of 
a lifetime. During my tenure in the Foreign Service, I have 
been a Vice Consul, a Consul, a Consul General, an Assistant 
Secretary of State, and an Ambassador. These positions have 
enabled me to serve at a one-officer post in Hue, in South 
Vietnam, and as Chief of Mission of one of our largest 
embassies in Mexico City.
    Both assignments were challenging and rewarding as were the 
many others in Asia, Latin America, Europe, and the Middle East 
and of course, here in Washington.
    If I am confirmed by the Senate, the experience overseas 
and at home will help Secretary Rice promote the 
transformational diplomacy that is the cornerstone of her 
leadership of the Department of State.
    Globalization is bringing many challenges to the world, 
empowering a host of new international actors. Nonetheless, 
constructive diplomatic relations between and among nations 
remains central to preserving international stability and 
security and expanding opportunities for economic and cultural 
interactions.
    Diplomacy helps us pursue peaceful cooperation in regions 
threatened by conflict. It helps us bolster the international 
rule of law and ensure respect for human rights. It gives the 
opportunity to support weak and failing states and build 
coalitions to stabilize and strengthen them and it enables us 
to protect our citizens, advance our economic interests and 
promote our image as a Nation defined by its democratic values.
    I have appeared before this committee for confirmation 
hearings seven times. The first occasion, 30 years ago, when my 
responsibilities focused on oceans, fisheries, and law of the 
sea, and most recently, when the President nominated me----
    The Chairman. I don't mean to interrupt, but we're still 
looking for that treaty.
    Mr. Negroponte. Well, that's why I stuck that in here, Mr. 
Chairman. I was hoping you might say that. [Laughter.]
    And most recently, when the President nominated me to be 
United States Ambassador to the newly sovereign Iraq, I 
volunteered to go to Baghdad because I believed and still 
believe that it is possible for Iraq to make a successful 
transition to democracy. I believed and still believe that 
failure in Iraq would be a disaster for Iraqis, for our friends 
in the region, and for the United States. If confirmed, I 
expect to devote considerable time and effort to the 
implementation of our policies in Iraq.
    Supporting our Nation's security on the frontlines of this 
new century, the men and women of the Department of State face 
great challenges. The United States must maintain a full-time 
diplomatic presence in many parts of the world where conditions 
are demanding, harsh, and often dangerous. It is a tribute to 
the courage and dedication of our Foreign Service that the 
Department already has filled 84 percent of its positions in 
Iraq for the summer of 2007, and 96 percent of the positions 
programmed for Afghanistan.
    The Secretary's vision of transformational diplomacy goes 
beyond the special needs we must address in Afghanistan and 
Iraq, however. The Department of State is a critical component 
of national security and I hope the Department will be viewed 
that way in terms of its mission and budget. We have well over 
100 hardship posts around the world and 22 posts where 
restrictions limit or prohibit accompaniment by family members. 
The Department's senior leadership has a great responsibility 
to support and protect all its personnel abroad, just as it has 
an obligation to develop our future generations of diplomatic 
leaders.
    If the Senate confirms me, I would hope that in addition to 
Iraq, I could make a strong contribution to our foreign policy 
in those parts of the world where I have spent the most time in 
my career: Asia and Latin America. As Deputy Secretary, I will 
face challenges in many other areas, too numerous to list in 
full, from promoting America's economic business and energy 
interests overseas to supporting our programs in public 
diplomacy.
    Mr. Chairman, I have always consulted closely with this 
committee and any Members of Congress who have an interest in 
issues for which I am responsible. I will remain available to 
you and seek your counsel and again, I want to say that I 
regard this nomination as a great honor and I am grateful to 
President Bush and Secretary Rice for the confidence that they 
have placed in me.
    I would welcome the committee's questions. Thank you.
    [The prepared statement of Mr. Negroponte follows:]

            Prepared Statement of Hon. John. D. Negroponte, 
                Nominee to be Deputy Secretary of State

    Chairman Biden, Senator Lugar, members of the committee, it is a 
privilege to appear before you as the President's nominee for the 
position of Deputy Secretary of State.
    Let me say at the outset how much I appreciate Senators Stevens and 
Lieberman taking the time from their busy schedules to present me to 
the committee. Over the years, they have offered me a great deal of 
wise counsel, support, and, not the least, warm friendship. Senator 
Stevens, Senator Lieberman, I am in your debt. Thank you very much.
    As someone who started his career as a young Foreign Service 
officer on October 5, 1960, I welcome my nomination to become Deputy 
Secretary of State as an opportunity of a lifetime.
    During my tenure in the Foreign Service, I have been a vice-consul, 
consul, consul general, assistant secretary of state, and ambassador. 
These positions have enabled me to serve at a one-officer post in Hue, 
South Vietnam, and as chief of mission of one of our largest embassies 
in Mexico City. Both assignments were challenging and rewarding, as 
were the many others in Asia, Latin America, Europe, the Middle East, 
and of course, here in Washington. If I am confirmed by the Senate, my 
experience overseas and at home will help Secretary Rice promote the 
transformational diplomacy that is the cornerstone of her leadership of 
the Department of State.
    Globalization is bringing many changes to the world, empowering a 
host of new international actors. Nonetheless, constructive diplomatic 
relations between and among nation states remain central to preserving 
international stability and security, and expanding opportunities for 
economic and cultural interactions.

  <bullet> Diplomacy helps us pursue peaceful cooperation in regions 
        threatened by conflict, bolster the international rule of law, 
        and ensure respect for human rights;
  <bullet> It gives us the opportunity to support weak and failing 
        states and build coalitions to stabilize and strengthen them; 
        and
  <bullet> It enables us to protect our citizens, advance our economic 
        interests, and promote our image as a nation defined by its 
        democratic values.

    I have appeared before this committee for confirmation hearings 
seven times--the first occasion 30 years ago when my responsibilities 
focused on oceans, fisheries and law of the sea, and most recently when 
the President nominated me to be United States Ambassador to the newly 
sovereign Iraq. I volunteered to go to Baghdad because I believed and 
still believe--that it is possible for Iraq to make a successful 
transition to democracy. I believed and still believe--that failure in 
Iraq would be a disaster for Iraqis, for our friends in the region, and 
for the United States. If confirmed, I expect to devote considerable 
time and effort to the implementation of our policies in Iraq.
    Supporting our Nation's security on the front lines of this new 
century, the men and women of the Department of State face great 
challenges. The United States must maintain a full-time diplomatic 
presence in many parts of the world where conditions are demanding, 
harsh, and often dangerous. It is a tribute to the courage and 
dedication of our Foreign Service that the Department already has 
filled 84 percent of its positions in Iraq for the summer of 2007 and 
96 percent of the positions programmed for Afghanistan.
    The Secretary's vision of transformational diplomacy goes beyond 
the special needs we must address in Iraq and Afghanistan, however. The 
Department of State is a critical component of national security, and I 
hope the Department will be viewed that way in terms of its mission and 
budget. We have well over 100 hardship posts around the world and 22 
posts where restrictions limit or prohibit accompaniment by family 
members. The Department's senior leadership has a great responsibility 
to support and protect all its personnel abroad, just as it has an 
obligation to develop our future generations of diplomatic leaders.
    If the Senate confirms me, I would hope that, in addition to Iraq, 
I could make a strong contribution to our foreign policy in those parts 
of the world where I have spent the most time in my career--Asia and 
Latin America. But as Deputy Secretary I will face challenges in many 
other areas too numerous to list in full from promoting America's 
economic, business, and energy interests overseas to supporting our 
programs in public diplomacy.
    Mr. Chairman, I have always consulted closely with this committee, 
and any Member of Congress who has an interest in issues for which I am 
responsible. I will remain available to you and seek your counsel.
    Again, I regard this nomination as a great honor, and I am grateful 
to President Bush and Secretary Rice for the confidence they have 
placed in me.
    I welcome the committee's questions. Thank you very much.

    The Chairman. Thank you very much, Mr. Secretary. Your 
experience is so broad and your recent assignments have been so 
significant, I suspect all of us have an awful lot of 
questions.
    I will take you at your word that you will make yourself 
available to the committee so we won't have to pursue every one 
of them today. And again, I welcome your family. With the 
permission of the Chairman, I'd like to suggest 8-minute 
rounds. Let me begin by asking you, Mr. Secretary, do you 
support or oppose a dialog with Iran and Syria now, regarding 
Iraq?
    Mr. Negroponte. I believe that both Syria and Iran have not 
been doing what they could do to support a peaceful course of 
events in Iraq and I think that they know what they need to do. 
As far as dialog is concerned--and I refer specifically with 
regard to Syria, to allowing 40 to 70 foreign fighters to flow 
into Iraq through Syria every month. That's the intelligence 
communities' estimate and Iran's support amongst other things, 
for extremist Shia elements in Iraq.
    As far as dialog is concerned, as you know, Senator, we 
have an embassy in Syria so there has been no lack of 
opportunity to exchange views if the Syrians had chosen to 
dialog with us constructively and that door is always open to 
them.
    The Chairman. In other words, we're waiting to hear from 
them.
    Mr. Negroponte. There's a channel, I would say.
    The Chairman. But they must initiate the channel. That's 
what your saying?
    Mr. Negroponte. I don't think that our people in our 
embassy in Damascus are adverse to initiating a discussion with 
the Government of Syria.
    The Chairman. But have they?
    Mr. Negroponte. I haven't reviewed all the diplomatic 
traffic of late but my point is that that diplomatic channel 
exists at the Charge d'Affaires----
    The Chairman. I'm not trying to be confrontational. I'm 
trying to make sure I understand. We've haven't had an 
ambassador in there since last summer, and I'm trying to get a 
straight sense of what the administration's position is. They 
point out, accurately, that they know what our concerns are, 
quote unquote. But my specific question is, do you believe that 
at your level, the level of the Secretary of State, do you 
think there should be an initiation of discussions with Syria 
and with Iran relating to Iraq? Not whether they can come to 
us. Should we initiate discussions?
    Mr. Negroponte. I think the view at this time, Mr. 
Chairman, is that they know what they need to do. I would never 
want to say never with respect to initiating a high-level 
dialog with either of these two countries but that's the 
position as I understand it at this time. The one other point 
I'd like to make with respect to Iran is that we have, I think, 
made what I would consider at least, to be a very interesting 
and attractive offer to them in exchange for suspension of 
their nuclear enrichment program, which is now something that 
has been demanded unanimously by the Security Council, that 
would open the door to a dialog with us and that as Secretary 
Rice has said on a number of occasions, if they were to do 
that, she would be more than prepared to have discussions with 
the Government of Iran.
    The Chairman. In the jargon of ordinary Americans, that's a 
precondition, correct?
    Mr. Negroponte. A precondition but it is not a unilateral 
precondition, Mr. Chairman. It's one that, in fact, is demanded 
by the international community through a unanimously adopted 
Security Council resolution.
    The Chairman. Well, that's correct but it might be 
misleading. Our European friends, as I talk to them, think we 
should be having dialog, separate and apart. So it's misleading 
to suggest that there is a unilateral view among our allies in 
the United Nations, that they should cease and desist. That 
view is separate and distinct from what leaders at our level in 
European capitals are saying to me, why aren't you? We have 
urged the administration, on a separate track, to have direct 
dialog relative to Iraq. Is that not true?
    Mr. Negroponte. I'm sure there are European countries that 
would urge us.
    The Chairman. Well, I'm sure you know that, right? I mean, 
you know that to be a fact. You head up the entire intelligence 
community. Is there any doubt about what I just said?
    Mr. Negroponte. I just can't name for you----
    The Chairman. No, I'm not asking you to name----
    Mr. Negroponte [continuing]. At the moment, which 
countries----
    The Chairman. But you don't doubt that at all?
    Mr. Negroponte. No, I don't doubt it whatsoever.
    The Chairman. So it's just slightly misleading to suggest 
that there is a uniform view from Europeans and the Security 
Council. Let me move on.
    What is the administration's view or your view about the 
development that appears to have taken hold that Saudi Arabia 
and Iran are really brokering Lebanon now? Is that a good 
development or a bad development?
    Mr. Negroponte. Well, I think it is a reflection of the 
fact that countries in the region have a strong interest in 
what is happening in Lebanon. Iran, of course, has been a 
significant player in that country, indirectly at least, for a 
number of years through its support for Hezbollah. Saudi 
Arabia, I think, is a little bit concerned, if I might 
characterize it that way, at the upsurge or the rising 
influence of Shia Islam in the Middle East and since they have 
a number of Sunni friends in Lebanon and that they have 
provided a certain amount of economic assistance. In fact, 
after us, I think they were the second--made the second largest 
pledge at the recent assistance conference.
    The Chairman. I believe that's correct.
    Mr. Negroponte. Right. So I think both of those countries 
have--I believe they have some role to play in the situation in 
Lebanon.
    The Chairman. Are the newspaper accounts accurate, that the 
Saudis and the Iranians are talking with one another as well as 
the parties in Lebanon?
    Mr. Negroponte. I believe that there is some recently 
initiated dialog between Saudi Arabia and Iran.
    The Chairman. The only point I'm making is I know of no 
country that has a greater concern about the rise of Iran, with 
the possible exception of Israel, than Saudi Arabia, and the 
Saudis have concluded that they have a mutual interest, it 
appears, in making sure that Lebanon doesn't evolve into a 
civil war again. So they're talking, which really makes it even 
more confusing to me why we're not initiating discussions on a 
single track or with no preconditions, with those two 
countries.
    I have 30 seconds left, so I'll yield to my friend from 
Indiana. Thank you.
    Senator Lugar. Thank you very much, Mr. Chairman. I'm 
heartened by your initial testimony, Secretary Negroponte, that 
you favor a Law of the Sea Treaty. We've been working on this, 
as you know, for a while and it hasn't happened yet but I would 
be hopeful that the chairman would initiate work on the 
situation. Would you just affirm again the administration's 
position?
    Mr. Negroponte. Well, I'm grateful that you asked the 
question and I put the reference to Law of the Sea in my 
opening statement because I spent a number of years working on 
related questions and there must be literally hundreds of 
individuals in this town and throughout the United States who 
at one point or another, over the past 30 or 35 years, have 
worked on the Law of the Sea and you will recall, Senator, back 
in the 1970s, this was considered one of the defining issues in 
negotiations between us and the Third World. I think it is a 
treaty that is very much in the national interest and in the 
national security interest. I understand it has been voted out 
of the committee one time and sent to the floor. I've also been 
advised that given the time that has elapsed, it may be 
desirable--but this would be at your own--this would be up to 
the Senate and your committee to have another hearing on the 
issue of the Law of the Sea before sending it back.
    But I do think that a very strong case can be made that 
this is a treaty that is in the national interest. It protects 
our economic and national security interests.
    Senator Lugar. Thank you for that affirmation. It was 
interesting, Senator Stevens was here to introduce you this 
morning, and he related your long association on issues related 
to the Low of the Sea and that, of course, enthused Senator 
Stevens as they do us.
    I want to use this hearing to inquire, not that you're able 
to solve these problems, but perhaps you can alleviate them. 
I'm just concerned after briefings we've had with Chris Hill, 
our ambassador to talks with the North Koreans, 6-party talks, 
that for example, just the other day, before the meeting in 
Berlin with Ambassador Hill and representatives of North Korea. 
There was a meeting involving administration officials, 
including State Department officials, to discuss proliferation 
finance with some of our major allies. On the margin of the 
meeting, some American officials reportedly raised the prospect 
of imposing a travel ban on key North Korean leaders as 
provided under a United Nations resolution that gives them that 
ability. Unhappily, of course, this came just as Ambassador 
Hill was preparing to try to get North Korean leaders to meet 
with him in Berlin. So he was able to allay that but it's 
startling that our administration people were even making that 
suggestion. Now the State Department has raised that all the 
time, sort of month after month but nevertheless, right on the 
threshold of having the potential for six-power talks again, 
why we want to censure the North Koreans and maybe properly so. 
We're not doing enough to account for their funds. This could 
have been done in July, August, September, and October, but 
right before we come once again to the threshold--all I'm 
asking, and this will be an internal problem, I suspect, for 
you and Secretary Rice, to find who in the administration is 
orchestrating these countervailing situations. They are not 
helpful and without gaining any assent from you because you've 
not been involved, I would just say that we take it seriously 
in the committee as you do. This is a very, very important set 
of negotiations.
    Let me just ask affirmatively, however, on January 11, 
President Bush signed legislation that Senator Obama and I had 
authored on proliferation interdiction assistance. This deals 
with weapons that are other than weapons of mass destruction. 
In one tour, we discovered large stashes of weapons. We 
discovered Europeans were working in Ukraine, for example, to 
try to get MAN-PAD missiles under control and various other 
weapons of terror. So the law has been passed, but will you 
work to try to make certain that there is some funding and 
planning and effective administration of our participation with 
Europeans and others who could be involved in attempting to 
control these weapons?
    Mr. Negroponte. I certainly intend to look into that, 
Senator. I hope you'll indulge me. I still have a day job and I 
continue to be the Director of National Intelligence so I 
haven't been able to master every one of these subject matters 
as well as I would have liked.
    Senator Lugar. I appreciate that but I'm just highlighting 
it on the screen.
    Mr. Negroponte. But I will certainly put that on my radar 
screen.
    Senator Lugar. And on the same subject, present 
interdiction efforts--including the Proliferation Security 
Initiative--are moving ahead but how are these effectively 
coordinated within the State Department? And if you have not 
researched that, please do so. It seems to me this is another 
area in which a number of our authorities are trying to do a 
lot of good but it's not evident that everybody is on the same 
page and it's important that they get there. The State 
Department does have quite a role in this and we've had Bob 
Joseph and others testifying from time to time but I'm hopeful 
that all these proliferation efforts succeed because currently, 
there is a great deal of accounting in the press for what 
seemed to be failures or holes in the system. The Department of 
Defense has a role here, too, and the National Security people, 
but clearly, your coordination of this, your mastery of many 
parts, would be extremely important.
    Mr. Negroponte. I think Under Secretary Joseph has done 
some excellent work in this regard and the intelligence 
community has been very supportive, of course, of the 
Proliferation Security Initiative and I think there have been 
some interesting and significant successes over the past couple 
of years in that regard.
    Senator Lugar. Perhaps at some point later we'll have a 
chance to review with you as you survey the situation, how we 
can be effective.
    Finally, let me just say that I sent a number of our staff 
members to 20 embassies to look at coordination between the 
State and the Defense Departments in the campaign against 
terror. They've written a very good report. It's been widely 
commented on in the press as well as the official circles. I 
don't know whether you've had a chance to review the study but 
I hope that you'll do so. We had direct testimony as to various 
embassies in which the ambassador was not necessrily completely 
clueless with regard to what the Defense Department was doing, 
but very frequently not wholly informed, and it offends people. 
We're a bit lax in cluing our ambassador in.
    Now, having all of these activities going on in a country--
you've served as an ambassador to various countries--can be 
rather unnerving, if you're the ambassador and you do not 
really know what other parts of your government are doing, 
particularly as conspicuous as the Department of Defense. Now 
without getting into interagency warfare here, let me just say, 
this is a serious problem, and we tried in a tactful way by 
visiting 20 embassies, to try to bring testimony of specifics. 
I hope that you will study that and work to coordinate those 
problems.
    Mr. Negroponte. I will, indeed, Senator, and I do want to 
say here I think it is important to state for the record that 
I'm a strong believer in the country team system. I'm a strong 
believer that our ambassadors abroad are the coordinators of 
the entire United States Government effort in particular 
countries except in the case of military commands, and I 
believe that it is the responsibility of ambassadors to be 
intimately familiar with the activities of all agencies 
operating in their country of assignment.
    Senator Lugar. Thank you.
    The Chairman. Thank you very much.
    Senator Cardin.
    Senator Cardin. Thank you very much, Mr. Chairman, 
Ambassador Negroponte. It's nice to have you before the 
committee. I particularly want to thank you for your years of 
public service. I had the opportunity to be with you in Iraq 
when you were our ambassador and I must tell the committee, I 
was very much impressed by the manner in which you gave us 
access to information during that period of time, and your 
frank assessments during that period that I was there. So I 
applaud you for your years of public service.
    I want to ask, if I might, just a couple questions that 
perhaps you're prepared to answer now. If not, I'm sure we'll 
have a chance later to talk about these. As I visit embassies 
around the world, U.S. Embassies, I'm always concerned about 
the support that we give--budget support to the various 
missions. There always seems to be not enough dollars 
available, which is true in all agencies, but it's particularly 
concerning to me because of the increased expectations we have 
about our embassies' work around the world.
    I'm just wondering what your budget priorities would be in 
the agency, to help in our field missions around the world, as 
to whether you--you know there are going to be tight budgets. 
You know you're not going to get all the dollars you need. But 
whether you have a game plan so that we can better meet our 
needs around the world.
    Mr. Negroponte. I think that I'd have to defer, Senator, in 
terms of giving you any specifics with respect to budget 
priorities at this time, particularly since the budgets have 
just been submitted and we're really not--I'm not in a position 
at this point, I don't think, at any time soon, to be helping 
shape the 2008 or 2007 supplemental budgets.
    Senator Cardin. But you have served as ambassador at 
several posts.
    Mr. Negroponte. Yes, sir.
    Senator Cardin. You know the frustrations that are out 
there in the field.
    Mr. Negroponte. I do and I think that as somebody who has 
been a career Foreign Service officer all my life, I tend to 
put, in my own mind, the highest priority on providing 
recruiting and supporting the best qualified possible personnel 
so I think human resource issues are going to be a very high 
priority for me and then of course, supporting these people 
adequately in the field. I think that one large part of that 
budget you're talking about, Senator, is of course the security 
requirements, which have risen. I won't say astronomically but 
they've risen very significantly over the years in terms of the 
kinds of monies that have to be spent to be able to protect our 
embassies and consulates overseas.
    Senator Cardin. Thank you. I want to go to an area that I 
consider the highest priority on the short-term and that's the 
Sudan and Darfur. I have been--this Nation has played a 
critical role in bringing world attention to the problems in 
the Sudan. We have not gotten the type of help internationally 
to stop the genocide. There have been conversations about a 
Plan B although I'm not certain what a Plan B is. I'm just 
interested in your assessment of what we need to do in Darfur 
and your commitment to make sure this receives the highest 
priority within the Department of State.
    Mr. Negroponte. I'm certainly conscious, Senator, of the 
importance of Darfur. I had an opportunity to work on that 
issue some when I was the Ambassador to the United Nations. I 
also think it is important that the President selected Mr. 
Andrew Natsios to be the Special Negotiator, the Special Envoy 
for Darfur, and I think that has been a very positive 
development. I think he brings a lot of energy to that issue 
and as Director of National Intelligence, we have quite 
significantly increased the priority we attached to collecting 
intelligence and information on what is happening in the Darfur 
region. But as you quite, I think, correctly suggest in your 
question, we're not there yet. The rebel groups still have not 
been brought into--a number of them have not been brought into 
the agreement. There are still problems with the government not 
wanting to allow a U.N. force into the country and I think that 
Darfur is going to require continued or continue to require a 
sustained effort on the part of our Government.
    Senator Cardin. I thank you for that. I agree with that and 
I think we need to look at effective ways to bring an end to 
the genocide.
    I'm just curious, as Director of National Intelligence, 
you've played a critical role in trying to coordinate 
intelligence gathering and analysis among the different 
agencies, particularly concerns that we've had within the 
Department of State and Department of Defense. Is your position 
going to change now that you're moving from the Director to the 
State Department?
    Mr. Negroponte. I'd like to think not, Senator. I think 
that in my experience during these almost 2 years as Director 
of National Intelligence, what we've really worked toward is to 
try to integrate the intelligence community as much as possible 
so that you have a sort of seamlessness among all the different 
agencies and I think we've built up a much greater degree of 
collegiality and integration than existed previously.
    Senator Cardin. Well, we'll see whether your position stays 
consistent now that you're changing roles. Let me just touch 
upon an issue that is going to be critical and that is how 
we're dealing with Iran and how we're dealing with Syria, under 
what conditions should we engage in direct talks with those 
countries and what role they play in trying to resolve what's 
happening in Iraq and in the region. I just welcome your 
thoughts as to how we are going to be effective in policies in 
Iran and also in Syria.
    Mr. Negroponte. First, I'd like to say, Senator, that I 
think Iran has--its behavior has been emboldened in the past 
couple of years. I think back in 2003, their behavior was not 
as bold as it has been recently in terms of their assertiveness 
in Iraq, where I mentioned earlier, they've been providing this 
lethal equipment to Shia extremists in Lebanon, in the 
Palestinian territories. I think that just generally speaking, 
Iran has played a more assertive role than it did previously. I 
think Syria also has not played a constructive role. The 
situation in Lebanon, the assassination of President Hariri. We 
still haven't got to the bottom of that and there are concerns 
in that regard and their failure to take adequate measures to 
stop the flow of foreign fighters across their border and into 
Iraq. I was mentioning earlier--I don't know if you were here--
to Senator Biden that we have diplomatic relations with Syria 
and we have an avenue for dialog although we have not initiated 
high-level talks with them and we have been discussing the Iran 
issue with our European friends and the Security Council and in 
the context of the nuclear issue, there has been a dialog with 
Iran, albeit indirectly. But the view at the moment is that we 
are reluctant to initiate a high-level diplomatic dialog with 
Iran until there has been some progress on this nuclear issue.
    Senator Cardin. Thank you. Thank you, Mr. Chairman. I 
appreciate it.
    The Chairman. Thank you. Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you and welcome, Mr. 
Ambassador. As you know, you have many admirers and supporters 
here in the Congress that is a result of the respect that you 
have achieved over many years of service to this country. I 
believe--and I have told you this--that in my opinion, you are 
one of the preeminent diplomats of our time and we are grateful 
that you and your family have agreed to take on another 
challenging assignment. We'll miss you as Director of National 
Intelligence and you and I have had an opportunity to work 
closely on that issue. But the experience that you will bring, 
in addition to your other experiences, to the new job at State 
will be important and they will relate directly as you know 
better than almost all of us--it will relate directly to what 
you will be dealing with. And to your family, thank you, for 
your continued sacrifices. I know you are very proud of your 
father and your husband, as you should be.
    I want to pursue the diplomatic course since that's what 
you are and that's what you will be working on in the portfolio 
that you will take responsibility for and in your testimony, 
you note and I quote, ``Diplomacy helps us pursue peaceful 
cooperation in regions threatened by conflict, bolster the 
international rule of law, and ensure respect for human 
rights,'' and I think there is rather wide agreement on that 
point up here.
    The two primary authors of the Baker-Hamilton Commission, 
the Iraqi Study Group Commission, will appear before this 
committee this afternoon and we will get into some detail on 
their 79 recommendations, some of them very much focused on 
what we have talked about this morning to some extent, Iran and 
Syria. And if you recall, one of the most significant 
contributions, I believe, recommendations surely, that was made 
by that Commission of 10 individuals of various political 
philosophies, all I think qualified to study a critical issue. 
But one of their most important recommendations, at least in my 
mind, was their focus on a regional diplomatic strategy on Iraq 
that includes engagement with Iran and Syria.
    Now, judging from your testimony and what your life has 
been about, the Baker-Hamilton Commission focused on diplomatic 
engagement and I think most of us have some general agreement 
that the future of Iraq will be determined by some diplomatic 
framework, some political accommodation, resulting in a 
political resolution. It won't be decided by the military--
nothing ever is.
    Now, we heard what you said in response to direct questions 
about Iran and Syria and I first would ask you, do you agree 
with the Baker-Hamilton Commission report? That again, there 
must be a regional diplomatic strategy and focus on Iraq that 
includes engagement with Iran and Syria--without going into the 
specifics but would you agree with that general concept?
    Mr. Negroponte. I would agree that the regional actors have 
a role to play in the stability and security of Iraq. I would 
depart from that proposition and that, of course, would include 
Syria and Iran. But then if you go to the next question as to 
where would you concentrate your diplomatic activity as a 
matter of priority and initially, then I think opinions might 
differ as to exactly how you would focus that but certainly one 
area where I think everybody is comfortable advocating 
diplomacy is in trying to shore up support for the Government 
and the country of Iraq by its neighbors and we've certainly 
approached other countries in the region--Saudi Arabia, Jordan, 
Egypt, and so forth, but you've heard my answer on the Iran and 
Syria question.
    Senator Hagel. But if diplomacy is important as you have 
noted here and I believe in your words, you talk about peaceful 
cooperation in regions--regions--your words--and it was noted 
regions in the Baker-Hamilton report, then wouldn't it follow 
that some framework is going to have to be presented, built, 
that would include the regional powers. I mean, that's my 
comprehension of what you said and what the Baker-Hamilton 
report----
    Mr. Negroponte. Right.
    Senator Hagel. Again, understanding that there are 
differences in how you do that. But my question to you is, do 
you think that regional framework is important to solve or 
start to resolve the chaos, the problem that we have in Iraq?
    Mr. Negroponte. I think it--first of all, I think it is 
important that there be an understanding by the different 
countries of the region, including Syria and Iran, for example, 
as to what kind of behavior is expected from them and what kind 
of behavior could help contribute to stability in Iraq. I would 
not say that as a matter of priority, one would have to go 
right to a regional-type conference or regional-type diplomatic 
scenario although I don't think that that should be ruled out. 
It was used with respect to Afghanistan with all the neighbors 
of Afghanistan. You may remember the six-plus-two formula.
    Senator Hagel. As you know, you were there and of course, 
with your intelligence assignment the last year and a half, you 
know, of course, that the Iraqi Government, the Prime Minister, 
the President have made trips to Tehran. The Iraqi Government 
is dealing with the Iranian Government, directly, at the 
highest level, between the President and the Prime Minister. Is 
there some contradiction there? Do you believe that we won't 
deal with those countries? But yet our Iraqi allies, who we are 
supporting with our blood and our treasure and our reputation, 
we are not on the same page there? Is there some conflict to 
that in your mind?
    Mr. Negroponte. I wouldn't want to suggest that we're not 
aware of what Iran thinks on various subjects. I wouldn't want 
to suggest that we're completely cut off from understanding 
what their positions are because certainly in the negotiations 
at the United Nations with respect to the nuclear program, 
we've learned through the Europeans in some detail, we're in 
contact with the many different friendly countries to us that 
have diplomatic representation in Iran. We learn a lot. We have 
our own interest section, the Swiss Embassy in Tehran handles 
our interests in Tehran. So we're not devoid of diplomatic 
possibilities although I would be the first to concede that 
it's not the same thing as having full--blown direct diplomatic 
contact.
    Senator Hagel. Do you think we are drifting toward a 
military confrontation with Iran?
    Mr. Negroponte. I don't think that has to be, Senator. I 
think we would strongly prefer that the issues between us and 
Iran be resolved peacefully.
    Senator Hagel. Thank you. Mr. Chairman, thank you.
    The Chairman. Thank you.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman. I want to join 
the chorus of voices that have spoken about your outstanding 
service to our country and admire and appreciate it. I enjoyed 
our conversation about several different aspects and looking 
forward, I want to say, Ambassador, that in that context, 
however, if at the end of the day, I support your nomination, 
which I likely will, unless you answer questions today in a way 
that confounds me, which I doubt--that doesn't, however, 
express a support for the President's policies because I 
believe the President is headed in the wrong direction. So 
having said that, let me just ask you a couple of questions.
    Do you agree with the assessment of the situation on the 
ground in Iraq that the Iraq Study Group put out at the time of 
its report?
    Mr. Negroponte. Well, I was anticipating questions on Iraq, 
Senator. I prepared a few remarks here that I think are 
responsive to that, because I expect it will be transmitting 
the national intelligence estimate on Iraq to Congress the 
first thing next week, by Monday at the latest. Of course, I 
want the NIE to speak for itself, but what I would like to say 
is that my belief that success in Iraq remains possible is 
based on my experience in dealing with Iraq as United States 
Ambassador to the U.N. and Ambassador to Iraq and as Director 
of National Intelligence, and I don't think I'm at variance 
with the intelligence community in my judgments and here's what 
I would say.
    Iraq is at a precarious juncture. That means the situation 
could deteriorate, that there are prospects for increasing 
stability in Iraq and achieving increased stability will depend 
on several factors. Among them, the extent to which the Iraq 
Government and political leaders can establish effective 
national institutions that transcend sectarian or ethnic 
interests and within this context, the willingness of Iraqi 
security forces to pursue extremist elements of all kinds.
    It will also depend on the extent to which extremists, most 
notably al-Qaeda in Iraq can be defeated in their attempts to 
foment intersectarian struggle between Shia and Sunnis and 
lastly, the extent to which Iraq's neighbors stop the flow of 
militants and ammunitions across their borders. So I think that 
progress is possible in these dimensions, laying the 
foundations for success.
    Senator Menendez. I appreciate that answer but let me be 
more specific. Let me read some excerpts and tell me whether 
you agree or disagree: violence is increasing in scope, 
complexity, and lethality.
    Mr. Negroponte. I think over the past year, that's been 
true.
    Senator Menendez. That, in fact, in the political context, 
the national government does not act as a national government 
but looks at it in its own sectarian interests.
    Mr. Negroponte. I think that's been a challenge. I think 
that has been difficult for the Prime Minister but I do think 
that there are some encouraging indicators in that regard, that 
there has been very little effort to promote national 
reconciliation as a result of those sectarian viewpoints. 
Again, I think that--I'm hopeful of some progress in that area, 
that corruption is pervasive within the existing Iraqi 
Government. Corruption is a serious problem.
    Senator Menendez. My concern, Ambassador, is that while we 
have focused on the escalation of the war the President 
promotes, a whole host of things critical to the very success 
in Iraq that you say in your opening statement that is so 
important to the Nation, to our Nation, are not about an 
escalation of the war but are about a whole host of diplomatic 
efforts to achieve the Iraqis moving forward and it seems to me 
that without benchmarks that have a real consequence to them, 
which I have seen the administration reject so far; certainly 
when the Secretary was here, I asked her those questions and 
she largely rejected them. Without benchmarks to have a real 
sense that we are moving forward on all of these different 
categories, among others: oil, distribution of resources for 
the nation. It seems to me that all of that is a much more 
monumental challenge at the end of the day and that's the very 
essence of what the State Department should be at the forefront 
of and I think largely we have failed to see significant 
progress in that respect and my question is, therefore--I heard 
your statement but my question is therefore what is it? Give 
the outline of when you're confirmed, what you'll be doing with 
the Secretary to change the very essence of moving the Iraqis 
in a much different direction that they have been recalcitrant 
to move. Because before sending 20,000 more of our sons and 
daughters on the roll of a dice and the hope that some of these 
things would move in a different direction, it seems to me we 
have to know what your plan is to actually accelerate the pace 
and the surge of diplomacy that will move the Iraqis to a 
better place than they are now because without that, none of 
this is going to succeed.
    Mr. Negroponte. First of all, Senator, I think there is an 
enormous amount of diplomacy that already goes on with the 
Government of Iraq, starting with frequent conversations 
between the President of the United States and the Prime 
Minister and then of course, the Secretary and our ambassador 
out there. I think you're right to say that we are very 
challenged but I do think that there are benchmarks, if you 
will, that ought to be pursued and I think you've alluded to a 
couple of them. One is certainly the national reconciliation 
process and the passage of a law regarding de-Baathification. 
Another has to do with oil revenues--and these are all issues 
that are being worked in the Iraqi National Assembly at the 
moment. Then I think another important one is that we hope that 
local elections and regional elections will be carried in the 
country of Iraq during the course of 2007, where hopefully some 
of the different groups that have been underrepresented, such 
as in the Sunni areas, can regain some of their representation 
in those elections that take place during the coming years.
    Senator Menendez. So those are examples of some of the 
kinds of benchmarks that we'll be looking at--I hope we'll 
consider consequences to benchmarks and last, since my time is 
about to expire--this is on a different topic--I do hope that 
with your experience in Latin America, that while you're 
obviously going to be spending a great deal of your time on 
Iraq, that we look to expand what is our view of United States 
policy in Latin America. Trade is important and narcotics 
interdiction is important but when half of the people in the 
hemisphere live below the poverty level, it creates a whole 
host of challenges for us here, domestically. The things we 
debate about often relate to that and when we have--the only 
place in the world that we have, for the last 3 years, cut 
development assistance to under the budget of the 
administration is Latin America and the Caribbean--not in the 
national interests of the United States, not in the national 
security interests of the United States--and I hope we can have 
a more robust policy because it's in the vacuum of having a 
more robust policy that the Chavez's of the world get to play a 
bigger role than they should be playing.
    Thank you, Mr. Chairman.
    The Chairman. With permission of the committee, I'd read on 
page 60 of the Iraq Study Group report--there's a line--``It 
should be unambiguous that continued U.S. political, military, 
and economic support for Iraq depends on the Iraqi Government 
demonstrating political will and making substantial progress 
toward the achievement of milestones on national 
reconciliation, security, and governance.''
    Senator.
    Senator Corker. Mr. Chairman, thank you. I appreciate it. 
Ambassador, it is great to have you here with your family. I 
know your son and daughters have probably had a most unique 
life not without sacrifice. I'm sure they're thinking about a 
lot of things right now other than our questions and are 
looking for this to end, and thank you to your wife for being 
here and supporting you in this way.
    I know that your role as Deputy will be to really generally 
supervise the Department of State, and that you, in your 
opening comments, talked about transformational diplomacy. I 
was with Secretary Rice earlier today and I know that came up. 
Could you articulate for us, since you will be making that, if 
you will, work throughout the Department, exactly what 
transformational diplomacy is in your mind?
    Mr. Negroponte. Well, I think the principle feature of it, 
Senator, is to redeploy if you will, adjust the deployment of 
our diplomatic efforts and our diplomatic establishments around 
the world, more toward some of the hot spots and the more 
challenging geographic areas of the world. I think that there 
has been a tendency, over the years, to be overrepresented, if 
you will, diplomatically in the highly developed countries of 
the world and less represented in the less developed parts. 
There is the additional fact that you have a lot of new states 
in the world, particularly on the periphery of the Soviet 
Union. So I think that the main notion of Secretary is to get 
our people out into these difficult hot spots. In addition to 
that, to try to increase our representation through having 
these so-called presence posts, which would be very small, 
maybe one officer in some locations of interest around the 
world. And I think the Secretary felt that my type of Foreign 
Service career, where I spent virtually all of it serving in 
less developed parts of the world, in the Third World, if you 
will, was one of the qualifications that interested her in my 
background.
    Senator Corker. What exactly does that mean to the 
Department as far as upheaval, change--when you talk about 
transformational--what does that really mean throughout the 
entire State Department?
    Mr. Negroponte. Well, I haven't looked at the details of 
what it would mean. What I do know is that at the present time, 
there is the thought of moving a couple of hundred positions 
from Western Europe, for example, to other diplomatic posts in 
the farther reaches of the world but I haven't had an 
opportunity to study in detail all the implications that these 
moves would have.
    Senator Corker. You were in intelligence, obviously are 
still today, as a matter of fact. You've been in the State 
Department, have been around the world, and I think are very 
qualified to address an issue that has come before this 
committee and that is, in looking at the things that have 
occurred over the last 4 or 5 years and some of the breakdowns 
that have occurred that have caused judgments to be made based 
on information, based on things that may or may not have been 
the case. There tends to be a concern about just our country's 
readiness, if you will, to deal with the world as it is today--
the State Department, the Department of Defense, Intelligence. 
I know that this has really maybe not so much to do with your 
confirmation but you are in a unique position to assess that 
and I'm just wondering what you might say as it relates to our 
country's readiness to really deal with the world that really 
is transforming, that does no longer--we're no longer in the 
cold war and obviously, the types of challenges that we have 
are most unique. How do you assess our readiness in general?
    Mr. Negroponte. If you were asking me that question from a 
point of view of intelligence and whether we're prepared 
sufficiently with regard to the threats that are out there, 
Senator, I would say that there have been substantial 
improvements since 9/11 in terms of our preparedness, in terms 
of having increased our intelligence capabilities, of having 
integrated our efforts better and of having improved 
information sharing between the different agencies. If you ask 
me the question, is our diplomatic establishment as well 
prepared as it can be, with the greater variety of problems 
that we have to deal with in this world, when you think about 
the fact that we no longer face just one monolithic threat, if 
you will, as we did during the cold war, that we face a wide 
range and diversity of problems on this planet, I think there 
is still a lot of work to be done.
    Senator Corker. It seems to me that as it relates to 
actually a number of comments, that the activities that we have 
on the ground through civilians, through the State Department, 
are equally important to what we're doing, maybe more so, to 
what we doing militarily in Iraq right now. It seems to me that 
one of the big issues we've had is a real lack of working 
together, of communicating, of having a coherence there on the 
ground. I'm wondering if you can address that and how you think 
that might be changing with what is occurring at present in 
Iraq--the ability to get money out, the ability to really 
coordinate efforts in an appropriate manner, to lessen our need 
for military involvement down the road.
    Mr. Negroponte. I mean, I do think our efforts are fairly 
well coordinated in terms of ambassadors and military 
commanders working well in the field. I think there is an issue 
of resources. It is, as a general rule, it's probably easier to 
obtain resources that are directly supportive of our military, 
whereas sometimes investment in foreign assistance or support 
for the security forces of another country, for example, could 
be a more cost effective way of going about things. So I guess 
what I would say in reply to you, Senator, is that as we carry 
out our policies in countries like Iraq and Afghanistan, we 
need to be mindful of the important contribution that the 
civilian component of our national security effort can make.
    Senator Corker. You've had an extensive background in the 
Western Hemisphere and South America and we see a lot of 
developments taking place there. I know our country fixates a 
great deal on the Middle East, just in reference to oil and 
energy supplies and how that affects the world but in many 
ways, South America is equally or more important to us in that 
regard. I'm wondering if you can just give a general assessment 
of the developments you see taking place, socialism, anti-
Americanism that is there and the type of efforts you think 
need to be undertaken in the State Department to make sure that 
our economic security down the road as it relates to energy 
supplies and trade, stay intact.
    Mr. Negroponte. Thank you, Senator. I think Latin America 
has been a mixed picture in the past couple of years. There 
have been a lot of elections, I think, in a number of places--
democratic regimes have been elected. I think that in Mexico, 
in Peru, they were recently elections--Ecuador and Nicaragua 
and so forth. I think that one of the trends that we need to be 
concerned about is kind of a frustration among some of the 
populations of Latin America that democracy is not necessarily 
delivering the kinds of results that people had hoped for and 
that has, in turn, given rise to a certain amount of populism. 
I guess that is most clearly symbolized by Mr. Hugo Chavez, the 
president of Venezuela and I do not think he has been a 
constructive force in the hemisphere so I think countries like 
Bolivia, among others, have been under the influence of Mr. 
Chavez, who has been trying to export his kind of radical 
populism and I think that his behavior is threatening to 
democracies in the region but by and large, I think that 
democracy is doing quite well in the hemisphere and I guess the 
last point I would make is that the situation in Columbia is a 
critical one to our interests and I think it is very, very 
important that we continue to support the Government of 
Columbia and its efforts to bring that country under control 
and to finally put an end to the guerilla activity that is 
taking place in that country.
    Thank you.
    The Chairman. Senator Obama.
    Senator Obama. Thank you very much, Mr. Chairman. Mr. 
Secretary, thank you. I look forward to your continued service 
and I suspect, more time before this committee over the next 
couple of years. I've got two very different sets of questions.
    The first relates to Iran. There has been a lot of 
speculation in the press lately with regard to United States 
policy toward Iran. Administration sources, although unnamed, 
have been fairly explicit in indicating that the administration 
is attempting to send some shots across the bow with respect to 
Iran, both regarding its interference in Iraq but also its 
nuclear program. You've got carrier groups being amassed in the 
region. You've got a policy that appears to be purposely 
somewhat ambiguous in terms of how the administration is going 
to pursue Iranians who are on Iraqi soil.
    This has led to grave concern on the part of many observers 
that we are stumbling into a more aggressive posture with 
respect to Iran. I would like to get some sense from you as to 
what exactly our Iran policy is right now and are we coupling 
the issue of Iraq with the very legitimate concerns with 
respect to Iran's nuclear program--do we see those as related? 
Do we see those as separate? Because I know the chairman has 
talked about this. I think it's very important from this 
committee's perspective that there is clarity and transparency 
in terms of U.S. policy so that we don't repeat some of the 
mistakes that have been made in the past with respect to our 
Middle Eastern policies. So do you want to address that very 
briefly?
    Mr. Negroponte. I think first I would start from the 
premise I mentioned earlier that Iran has been emboldened in 
its behavior during the past couple of years and has played a 
more assertive role and that certainly manifests in Iraq where 
we have increasing evidence that they have been providing 
lethal assistance to extremist Shia groups in that country and 
that's destabilizing behavior as far as Iraq is concerned. With 
respect to their nuclear program, of course, they have been 
adamant, it seems, in their desire to pursue an enrichment 
program and the intelligence community's assessment is--
continues to be and it has been for a couple of years, that 
Iran is determined to acquire nuclear weapons. I would 
characterize our policy as desirous of resolving any issues we 
have with Iran by peaceful means, but at the same time we don't 
believe that their behavior, such as supporting Shia extremists 
in Iraq, should go unchallenged. So it's a balance, if you 
will, but if they feel that they can continue with this kind of 
activity with impunity, that will be harmful to the security of 
Iraq and to our interests in that country.
    Senator Obama. Let me just be clear. I think it is entirely 
appropriate for United States forces to do whatever we need to 
do to protect United States troops and if there are Iranian 
aggressors inside Iraq that are aiding in attacks on United 
States troops or making our troops more vulnerable, then within 
Iraq, I think, action is appropriate. I also think that with 
respect to the nuclear program, I don't know anybody on this 
panel who does not believe that that would create great danger 
for the region and the world and that we should take every step 
possible to make sure that they don't obtain nuclear weapon 
capability and that we should keep all options on the table in 
pursuing that. What I think many of us are concerned about is 
that we stumble into active hostilities with Iran without 
having aggressively pursued diplomatic approaches, without the 
American people understanding exactly what is taking place and 
so, I just want to suggest that in your important role as 
Deputy Secretary of State that you, Secretary Rice, and others 
are mindful that this committee is going to be paying attention 
and that we do not want to see precipitous actions that have 
not been thought through, have not been discussed, have not 
been authorized.
    Let me just change the subject real quick in the time that 
I have remaining. This is an issue that actually seems somewhat 
parochial but I think, as you'll see, is of concern across the 
world. About a year ago, the Chicago Tribune ran a three-part 
investigative series on mercury contamination in the fish that 
we eat and the Tribune series found a stunning level of mercury 
in fish, not just in saltwater fish like tuna or swordfish but 
in fresh water fish that our constituents, particularly around 
the Great Lakes region, might catch in their favorite local 
lakes. As I'm sure you know, mercury is a potent neurotoxin, 
particularly for pregnant women and children. The problem is 
that with respect to mercury, it doesn't matter where on the 
globe it is used because while half of it dissipates locally, 
the other half can deposit itself on the other side of the 
world. So no matter how vigilant we are in the United States 
about mercury use, we need to monitor what's happening abroad. 
Currently, the U.S. sells large quantities of mercury to the 
developing world where tracking and environmental laws are lax 
and where mercury is still used in thermometers and thermostats 
and gold mining, although there are plenty of affordable 
substitutes for mercury. There is no real reason for developing 
countries to switch as long as we keep selling our mercury 
overseas, which brings me to the matter I want to raise with 
you.
    Next week, the State Department representatives will attend 
a U.N. meeting in Kenya to decide the next steps in worldwide 
mercury reduction strategies. The European Union has already 
committed itself to stop selling mercury overseas by 2012. 
Secretary Lugar and I--Senator Lugar and I--I'm giving you a 
promotion there, Senator Lugar.
    The Chairman. From a legislative standpoint, that doesn't 
sound like a promotion.
    Senator Obama. Senator Lugar and I sent a letter last month 
to Secretary Rice asking about the U.S. strategy for this 
important meeting. Yesterday, I received a letter. Senator 
Lugar may have received the same letter that said the State 
Department still hasn't decided what to do at the meeting. Now 
these meetings occur every 2 years. The next one is next week. 
So I was a little stunned that the State Department didn't yet 
have a plan on this issue. The State Department letter did 
suggest that it had a preference for using nonbinding voluntary 
partnerships with other countries instead of binding treaties 
and agreements to reduce mercury around the world. Now, 
obviously, the State Department has got a lot on its plate 
between Iraq, Iran, North Korea, and so on. This is an issue of 
importance to my constituents though, and I wanted to find out, 
No. 1, given the importance of this issue, why the State 
Department isn't advocating a tougher approach to the problem 
and second, the European Union has committed itself to stop 
selling mercury by 2012. Would you support the United States 
adopting a similar ban on mercury sales abroad? I know you may 
not have prepared for this question but I'm wondering if you 
have some thoughts on it and if not, then I'd like to get a 
formal response from the State Department to follow up on the 
letter that we've already received.
    Mr. Negroponte. We'll certainly arrange for that. I'm not 
personally familiar with that issue, although I was once a 
representative on the Great Lakes Fisheries Commission.
    Senator Obama. So you know a little bit about it.
    Mr. Negroponte. And I was Assistant Secretary of State for 
Oceans Environments so I am certainly familiar with dealing 
with that type of issue. I'd be pleased to look into it.
    Senator Obama. Good. I would like you to.
    Thank you, Mr. Chairman.
    The Chairman. Senator Voinovich.
    Senator Voinovich. Thank you, Mr. Chairman. First of all, 
I'd like to thank you very much for your willingness to 
continue to serve our country at what I consider to be one of 
the most critical times in our Nation's history in dealing with 
our national security and in terms of world peace. And I want 
to thank your wife and your children for the sacrifice that 
they've made so that your husband and father could serve his 
country. It's very much appreciated and I'm sure you were all 
worried when he went into Iraq. I know when he came to the 
office to talk about it, I said he was taking his life in his 
hands going in there. Thank you so much.
    As you know, Mr. Negroponte, I've been interested in a 
couple of areas--No. 1, anti-Semitism and Muslim-phobia and 
we've been trying for 4 years to get the OSCE to fund out of 
their core budget, the Office of Democratic Institutions and 
Human Resources, which is a part of the OSC in terms of dealing 
with human rights and religious things.
    I would just like to underscore how important I think that 
decision in putting it in the core budget is, because if you 
look at the long-term war on terror--and it's going to be with 
us a long time--how we deal with the human relations 
infrastructure in the various countries in terms of anti-
Semitism and in terms of the Muslim world, particularly Muslims 
and dealing with modernity, are going to have a big impact on 
whether or not we're successful or not in the long run on this 
war on terror.
    The second one deals with Serbia and Kosovo. Again, I want 
to congratulate the State Department in terms of not setting an 
artificial date for the finishing of those negotiations. I 
appreciate the outreach to Serbia. They've been--if we're 
successful, the forces of democracy won but the issue between 
how--the final status in Kosovo is still something that is up 
in the air and I would hope that as it moves to the Security 
Council that we stay on top of it so we don't end up having 
another conflict in that part of the world.
    When you were in the office, we talked about management and 
I have another hat that I wear, now Ranking Member of the 
Oversight of Government Management and the Federal Workforce, 
and the fact of the matter is that we have been receiving, and 
I think Senator Lugar made reference to it in his opening 
statement, we've got some tremendous management problems today 
in the State Department, and for the record I would like to 
have the record of the last 2 years in terms of retirement, in 
terms of key positions that are open and not filled. I remember 
when Colin Powell took over. He talked about the team. He 
really instilled some new esprit de corps in the Department and 
from what I understand right now, it has sagged quite a bit. 
And I'd just like to know from you in terms of the role that 
you've been asked to play, what you are going to do about 
trying to get a handle on that and see if we can't quiet things 
down, stabilize it and bring back the feeling in the Department 
so that we just don't keep hemorrhaging as we have in the past.
    Mr. Negroponte. Well, we'll certainly provide the 
information about the key positions and the vacancies and I 
think some of this is simply part of a normal rotational cycle 
that will happen during the course of any 8-year 
administration, Senator. But as far as how I visualize my own 
role in the Department, I think I can be of assistance to the 
Secretary in helping lead the Department, both here in 
Washington and abroad, the Foreign Service. I would like to 
think that one particular strength I can bring to the 
Department is my knowledge of how the Foreign Service works and 
my relationships with many Foreign Service officers, so I would 
like to build on that and strengthen the sense of satisfaction 
and enthusiasm for the work that they are doing. I want to be 
supportive to the Secretary and her efforts to carry out this 
transformational diplomacy that we were talking about earlier.
    Senator Voinovich. Well, you are a career Foreign Service 
person. I suspect that everybody is kind of excited that you're 
coming back to the State Department. I really think you ought 
to talk to Secretary Rice about maybe spending a little time 
there in the Department, bucking people up and letting them 
know that there is going to be some fresh wind, new water 
coming into the State Department because the whole operation 
really depends on the motivation of the people that work in the 
Department and I think it is really important that it be paid 
attention to at this time.
    [Disruption in background.]
    The Chairman. Would you please cease? I'd ask the police to 
escort our visitor from the room. I would suggest that proves 
the acoustics in the room are good. I thank the Capital Police. 
We're going to have to clear the room. We can talk about this 
later. I would ask you to please leave the room and let the 
witness testify.
    Senator Voinovich. Mr. Chairman, will you add a minute and 
a half to my time?
    The Chairman. No. Yes, I will. Add a minute and a half to 
your time. So we'll just let you go over a minute and a half. 
Don't reset the clock.
    Senator Voinovich. This gets to Iraq. Many of us feel and 
the Iraq Study Task report came back and talked about engaging 
people in the region to try and get them to help provide a 
political solution to the situation. The question I have is, 
should we be convening a group of people and you've mentioned 
Saudis, the Syrians--not the Syrians necessarily but the 
Egyptians and the Jordanians to come together and basically say 
to them, if we ultimately move out of here and this place blows 
up, it's going to have a very detrimental impact on the region 
and you ought to be interested in helping us stabilize the area 
or stabilize Iraq. The question I have is, why haven't we done 
that or in the alternative, why hasn't Maliki reached out to 
these people and called them together and said, hey guys, 
things are pretty bad here. Some of you are meddling in this 
situation. If this thing blows up, what impact is it going to 
have in terms of refugees? Saudis, if Sunnis start to be 
massacred, you're going to be probably asked to get involved in 
this and we could have a real blow-up. Where are we with this 
and why aren't we moving in that direction right now? Or at 
least, why isn't Maliki moving in that direction?
    Mr. Negroponte. Well, first of all, Senator, I would agree 
with you that the role that countries in the region could play 
could be positive, although I think in the past, at least, and 
certainly in the time I was there and in my observation, there 
has been a reluctance on the part of a number of countries to 
be proactive with respect to Iraq and certainly been reluctant 
to establish a diplomatic presence in that country because of 
the security situation so I think that they've been a bit 
hesitant. I think today, you're starting to see a shift in that 
situation and countries like Saudi Arabia and Jordan, maybe 
also Egypt--more concerned than they were previously. So I 
think that could lead to some positive outcomes.
    With regard to the Government of Iraq, I think they try. 
They try quite hard. Both Prime Minister Maliki and President 
Talabani, and particularly President Talabani, have traveled 
quite extensively throughout the region and I think that needs 
to be encouraged.
    They've probably not gotten as far as they would like in 
terms of interest and acceptance and recognition in the region 
as they would have preferred but they have to continue trying 
to do that. For example, there are countries that could provide 
debt relief to Iraq that haven't done so yet. I would say Saudi 
Arabia and Kuwait as examples of that, but that would be just 
one example of the kind of contribution they could make to 
helping the situation in that country.
    Senator Voinovich. Well, I'll just finish up that I hope 
that they understand that there is some real concern in this 
country about what we're doing and if they look at the tea 
leaves, we're going to be out of there over a period of time--
how much we're still not sure. They'll be some presence and I 
would hope that somebody underscores to them how necessary it 
is for them to get involved in the situation. I think it is 
also very important that the American people know that some 
attempt has been made at that because from our perspective, it 
really hasn't been made. I know the Secretary has moved around 
and talked to this group and that group, but in other instances 
we've brought together countries that had strategic interests. 
We did that in North Korea. We've done that, to a certain 
extent, with Iran. We've done that to a certain extent in 
Lebanon--you know, bring all the folks together and talk about 
it. I would really urge you and the Secretary to give serious 
thought to formalizing this--maybe not. Maybe we ought not to 
do it. Okay? But somebody should do it.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Casey.
    Senator Casey. Mr. Chairman, thank you very much. Mr. 
Ambassador, thank you as well and I want to reiterate what a 
number of my colleagues said about your public service and your 
contribution and obviously the commitment of your family, which 
is a big part of what you've done and we're grateful.
    I'm going to try to cover maybe four areas, if I can. I'll 
try to do them rather quickly, starting with, of course, Iraq 
and Iran. I want to pick up on some of what Senator Voinovich 
spoke to a moment ago about the region. One of the points the 
Iraq Study Group made, among others, and I think this is 
pertinent to this afternoon's hearing but I know of your 
experience in the region and in particular, with regard to 
Iraq.
    At one point, the Iraq Study Group made the following 
assertion. It said, Saudi Arabia and the Gulf States, for the 
most part, have been passive and disengaged. And I wanted to 
get your perspective on that. A, whether you agree with that 
assessment and B, if you do agree, how you think this country 
and this State Department, under your leadership and Secretary 
Rice's leadership, can change that dynamic, if you believe that 
to be true, on being passive and disengaged.
    Mr. Negroponte. I think that I perhaps would state it 
slightly differently. I think they've not been as engaged as we 
would like them to be. I think the possibility of them being 
more engaged is increasing as they watch developments in the 
region, namely both the situation in Iraq and also the 
emboldened behavior of Iran that we've been talking about, 
which I think is a cause of concern for them. And if I could 
just add one point, I think, in reply to both Senator 
Voinovich's and your question, I think regional diplomacy and 
regional efforts can play an important part--there's no doubt 
about it--but I do think we need to be clear that the large--
the preponderance of the problems that Iraq faces are internal 
in nature.
    Senator Casey. With regard to Iran, we've heard a lot today 
and you spoke to it directly. I guess I want to focus on two 
areas. One is, I'll deal with the press question first. There 
was a story today in the New York Times about the concerns 
about the European Union--the European Nations not working with 
our Government with regard to Iran, and concerns about whether 
or not they'll agree to any kind of restrictions or policies 
that will impact economically on how we deal with Iran. What 
can you tell us about the thrust of that story, A, and B, if 
the premise of that story is correct in your judgment, what do 
you think you must do and the Department must do?
    Mr. Negroponte. Well, I read the story and I haven't had a 
chance to check back with the office and look at it in depth, 
but what struck me about the story is that it sounded a little 
bit premature to me because we're just--we're waiting for a 
report from the International Atomic Energy Agency. If I'm not 
mistaken, it's supposed to come sometime during February and it 
is after that report that then the countries will have to 
decide what else to do before the Security Council in light of 
Iran's decision to press ahead with its centrifuge program. So 
I think it may be a little bit early to talk about what kind of 
actions countries are prepared to take. Having said that, 
countries have had differing views on what types of sanctions 
should be applied. I think the important point is that the last 
Security Council resolution on Iran was adopted unanimously and 
I think that from an intelligence community point of view, our 
assessment is that that resolution had some impact on the 
internal dynamics in Iran and the dynamics of the debate that 
is being carried out in the political elite in that country, 
and some of the people in Iran may now be beginning to wonder 
what kind of difficulties and what kind of complications is the 
pursuit of their enrichment program bringing to that country.
    Senator Casey. And just a broader question with regard to 
Iran, I think what you see today around the country--I 
certainly hear it in Pennsylvania. We've lost over 140 lives in 
Iraq. There is a lot of discussion about and speculation about 
the Bush administration taking steps with regard to Iran that 
reminds people about mistakes made with regard to Iraq. I 
realize you can't compare the two, necessarily, but what I 
think a lot of people need to hear from this administration, 
and certainly from the State Department, is that when this 
administration approaches the gravity of the question of Iran, 
a much bigger country, much bigger threat militarily, obviously 
than Iraq has been, with all the problems we've had in Iraq, 
what I need to hear and I think what a lot of people need to 
hear is what is the--set aside the military strategy--what is 
the diplomatic strategy in the next 6 months, say. Let's limit 
it to that--from what you can gather, of this administration 
and certainly by way of the State Department, to deal just 
diplomatically with Iran, because I think people need some 
assurance. It seems to me, this may be only a perception that 
is not accurate but it always seems to me and to many others, I 
believe, around the country, that even as the administration 
says that it has every option on the table, it seems that the 
military option always is put forth first and seems most of the 
time the administration spends considering options, most of the 
time and effort and focus is on a military option instead of 
discharging or considering every possible other option, 
including one of sustained and robust diplomacy, but I'd just 
like to have your thoughts on that.
    Mr. Negroponte. Well, I guess the first thought I would 
offer, Senator, is that of course, diplomacy and other elements 
of national strategy just have to work hand in hand. They don't 
operate in an isolated fashion, so that for diplomacy to be 
effective, it is also important that we have a robust national 
security posture. I don't think there is any doubt about that. 
But with respect to Iran, first of all, I'd reiterate what I 
said earlier, which is that we would like to resolve the issues 
that confront us with respect to Iran by peaceful means. I 
would state that there are two main concerns. There are others 
as well but the two principle ones are the enrichment program 
and there is actually a substantial diplomatic effort underway 
through both the United Nations and working with the European 
Union, vis-a-vis Iran, and we've also indicated that we would 
be prepared to broaden our diplomatic activity with Iran if 
they were to take that first step of stopping their enrichment 
program. And the other main concern is, of course, Iraq and the 
support that they provide to Shia extremists in that country 
and they certainly know our position on that score.
    Senator Casey. I have many more but I'm out of time. Thank 
you.
    The Chairman. Thank you very much. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman and thank you, 
Ambassador, for your willingness to continue to serve, and to 
your family for their support so that you can do just that. We 
greatly appreciate it.
    Most of the questions this morning certainly and fairly 
have been focused on the situation in Iraq, a fair amount on 
Iran, as well, but as we discussed when I had the opportunity 
to sit down with you for a few moments, your portfolio is quite 
broad and we had a chance to talk a little bit about the task 
that you will have in the Far East--China, North Korea, South 
Korea, Japan--certainly areas that I have been very involved 
with on the subcommittee that I had chaired and now ranking, on 
this committee.
    Let me ask you about the situation in North Korea, the dual 
track that is proceeding. I understand that today, in fact, we 
are resuming the second round of talks on the financial 
restrictions that the United States has imposed against 
Pyongyang. Can you just very briefly give me your assessment as 
to where we are and how you see us proceeding with North Korea 
in view of the six-party talks?
    Mr. Negroponte. I think the key thing, Senator, is we're of 
course concerned by the fact that they tested their Taepodong 
missile last summer and that they also had this--more recently, 
this nuclear explosion. And our main objective is to achieve a 
denuclearized Korean Peninsula and we are pursuing that 
objective along with the other parties to the six-party talks. 
So our main focus is to try to get North Korea committed to 
putting a freeze on its nuclear program, which would mean 
freezing their nuclear reactor and their reprocessing facility 
and subjecting those activities to international inspection. So 
that's the main purpose of these diplomatic efforts that are 
underway at this time.
    Senator Murkowski. And in view of the effort that we all 
agree on, which is a Korean Peninsula free of a nuclear threat 
there, but also recognizing that we have the United States 
sanctions issue, the financial sanctions that from North 
Korea's perspective is saying, that's a different matter, 
that's a different issue. There are some who have suggested 
that that is forwarding the efforts for the six-party talks to 
be successful. I guess my question to you is, in view of how we 
are doing this dual track, are we on track, in your opinion? 
Are we making the progress necessary to get to the final goal, 
which is to see the Korean Peninsula free of nuclear weapons?
    Mr. Negroponte. Well, it's a very difficult issue and I 
wouldn't want to raise false hopes here but I do think there 
are some grounds for optimism that we can move that issue 
forward. And as far as the sanctions are concerned, while some 
might argue that it's a disruptive factor, I think others might 
make the case and perhaps even equally or more plausibly that 
those kinds of sanctions can provide a bit of leverage in these 
discussions. But I think there are a number of factors at 
work--that must be at work on the thinking of the North 
Koreans. There again, I think the United Nations has played a 
role. The fact that the Security Council adopted a unanimous 
resolution, which placed North Korea, for the first time, at 
odds with their traditional friend, China. It must have given 
them pause about the situation that they have created for 
themselves. So I suspect there are a number of different facts 
that are influencing their thinking at this time.
    Senator Murkowski. Do you support or would you support 
sending Chris Hill to Pyongyang for the discussions? Do you 
think that would be helpful?
    Mr. Negroponte. I think that would have to be a tactical 
decision that the Secretary would have to make in the context 
of whatever diplomatic development is taking place at that 
particular time. I certainly wouldn't rule it out.
    Senator Murkowski. In several conversations that I have had 
with some of our friends over in Japan on a multitude of 
issues, I'm reminded that Japan has been our firm and constant 
ally for many years and that some feel that relationship can 
almost be taken for granted. They're not a trouble maker in 
that corner of the world and there's almost a sense that 
sometimes, unless you're in a hot spot, you don't get the 
attention from the United States that they would hope to 
receive and when issues come up that are perhaps their priority 
but not a priority of the United States, there can be some 
issues, there can be some friction there. Recognizing that your 
portfolio is going to include most of Northeast Asia, do you 
anticipate that you're going to be spending some time over 
there? What kind of message do you anticipate that you will 
bring as you reach out to some of our friends and neighbors 
over there?
    Mr. Negroponte. Well, first, yes I do expect to spend time 
working on Northeast Asia, including the whole question of the 
longer-term structures for peace in that region. I think that's 
a subject that we need to be giving some thought to, although 
obviously within the time frame of this administration, there 
is not enough time to bring that to some kind of an end state. 
But second, also, I would expect to devote an important amount 
of time to our relationship with Japan and for me, as someone 
who started my career in East Asia more than 45 years ago, our 
relationship with Japan has always been a cornerstone of our 
policy toward East Asia. I don't think we should take the 
relationship for granted. I think it needs to be nurtured and 
Japan remains one of our most important allies in the world.
    Senator Murkowski. Well, I appreciate the lengthy 
relationship you have built over there and I think that will 
only help us in our efforts.
    One more question about the region there. Over the weekend, 
Taiwan President Chen Shui-Bian called for a new constitution 
for Taiwan. Do you--what is the State Department's view on 
President Chen's remarks or comments?
    Mr. Negroponte. The State Department view is that we 
support a one-China policy and the foundation documents that 
three different communiques with regard to the unity of China 
and we believe that it would be unwise to do anything that 
might be in cross purposes with those three communiques.
    Senator Murkowski. So do you think that a new constitution 
would be at cross-purposes?
    Mr. Negroponte. I would want to study the implications but 
it certainly strikes me that that would be a distinct 
possibility.
    Senator Murkowski. I've got time for one more quick one. 
Last week at the Senate Energy and Natural Resources Committee, 
I heard some testimony about the structure in the world in 
terms of our oil and gas resources and at that hearing, it was 
reported that 75 percent of the world's oil and natural gas 
resources are now controlled by state-owned oil companies. As 
we recognize our increased dependence on foreign sources of 
energy, how does this--the fact that we're dealing with state-
controlled entities--how does this impact our policy choices, 
really our relationship with our allies? We're dealing with the 
countries for an energy source that we deem absolutely 
critical. What does this mean?
    Mr. Negroponte. Well, I think it makes access to energy 
more challenging, particularly for those parts of our private 
sector that are interested in exploration and exploration 
because they have to deal with these state-owned corporations 
who very frequently--more often than not, I think, are not 
willing to let out exploitation contracts to private 
investment.
    On the other hand, I have noted, certainly in countries 
that I've served in, such as Mexico, among others, which do 
have large state-owned oil corporations, that they also 
confront a challenge, which is how as a state-owned oil 
corporation, can you mobilize sufficient investment to do the 
necessary exploration and exploitation. So I think that sooner 
or later, a number of these state-owned oil corporations around 
the world are going to have to face up to the reality that 
private investment from investors around the world can be a 
very, very helpful factor to them in increasing their 
production. So there is the basis for some kind of a bargain 
there, it would seem to me.
    Senator Murkowski. Thank you, Mr. Chairman.
    The Chairman. Thank you very much. Mr. Ambassador, I have 
to take a phone call. I expect to be back before the committee 
finishes but since, at this moment, we only have two more 
Senators to question, I'm going to ask the chairman, if I am 
not back by then, to adjourn the hearing. We've consulted very 
briefly, and it is my hope and intention that we will move to a 
rapid consideration and executive session of your nomination. I 
expect that it will be favorable. and I would expect that we'll 
try to get this to the floor as soon as possible. Seven months 
is a long time to have this post vacant, so we'll do our best 
to accommodate that.
    I hope to be back before it finishes, but I must take this 
call so I recognize Senator Webb.
    Senator Isakson. Mr. Chairman, I'm going to have to leave 
because I've got some people who have been waiting on me so I 
would like to state for the record that I am very supportive of 
the nomination of Mr. Negroponte to this position.
    The Chairman. Well, okay, thank you.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    The Chairman. It may be shorter than I thought.
    Senator Webb. Ambassador Negroponte, I'm sorry I missed a 
good portion of your hearing. We've got two confirmation 
hearings going on at the same time, one up in the Armed 
Services Committee, where I also serve. I have a great regard 
for the contributions that you've made to our country over the 
years.
    [Senator Webb speaks a Vietnamese phrase.]
    You don't have to translate that. That was a little bit of 
Vietnamese. Ambassador Negroponte is quite proficient in 
Vietnamese.
    During this committee's hearing with Secretary of State 
Rice on January 11, I asked her a very straightforward question 
on the administration's policy regarding military action 
against Iran and this is a quote: I asked, is it the position 
of this administration that it possesses the authority to take 
unilateral action against Iran in the absence of a direct 
threat, without Congressional approval? It has been nearly 3 
weeks since I asked that question and I followed up with a 
letter and this is basically a yes or no question regarding an 
urgent matter affecting our Nation's foreign policy and 
particularly as we watch some of these incidents that have been 
occurring over the past couple of weeks. I would pose the same 
question to you today. Is it the position of this 
administration that it possesses the authority to take 
unilateral action against Iran in the absence of a direct 
threat without Congressional approval?
    Mr. Negroponte. Senator, I think you put me in a bit of a 
difficult position. If the Secretary hasn't sent a reply back 
to you, I think I'd be reluctant to substitute mine for hers. 
But let me just reiterate what I said earlier in reply to a 
number of questions that we wish to resolve any differences we 
have with Iran by peaceful means. We don't rule out other 
possibilities but our focus at the moment is on resolving these 
issues by peaceful means.
    Senator Webb. Would you pass on to the Secretary my request 
that the written question be replied to in a reasonably rapid 
manner, like soon. I appreciate that.
    I caught the tail end of your response with respect to our 
relations with Japan and I, like a number of people, including 
you, I think, have a long relationship with Japan and view 
Japan as probably our greatest long-term ally in the region 
with all the things that are going on. I have a pretty strong 
concern about our relations with China. And I'm concerned 
principally that because of the attention on the Middle East, 
we have not paid sufficient attention to China, other than the 
economic side. There is a whole laundry list that I won't go 
through in terms of where I believe, as a Nation, we are 
becoming disadvantaged in our relationships. But specifically, 
I'm curious as to your thoughts on this relationship, 
particularly when we see the economic disadvantage on the one 
hand and, clearly, on the other, an increased build-up to the 
expansion, which some would say inevitable, of Chinese 
interests in this hemisphere and also in Africa.
    Mr. Negroponte. Senator, China is a very important country 
and it is going to be for the century ahead of us. I think it 
is in our interests to engage China. I was involved in the 
first outreach to China, back in the early 1970s. I went with 
Dr. Kissinger there in 1972, shortly after President Nixon's 
historic visit there. I think we need to engage China. I think 
we--on all levels and I think that ought to be our approach to 
that country, not one of confrontation but engagement, and 
Deputy Secretary Zoellick had conducted a senior dialog with 
them on political matters, which I expect to be able to resume 
at the level of Deputy Secretary of State. And I look forward 
to doing that and I look forward to consulting with you about 
our approach and how we go about that.
    Senator Webb. Would you agree that there is something of a 
parallel in the sense in the early opening up to China that you 
participated in. We had a situation rather similar to Iran's 
today, not a direct parallel but certainly a similar situation 
where China was a rogue nation with nukes, had an American war 
on its border, was known to have been providing supplies to 
people who we were fighting on the battlefield, and yet we did 
aggressively engage them, diplomatically, and arguably over a 
period of decades, we have been very instrumental in bringing 
them into the international community.
    Mr. Negroponte. I see what you're driving at. The one major 
difference, of course, is that China is just such a larger 
factor. It's so much larger a country and it's more than a 
billion people whereas Iran is 70 or 80 million people so we're 
not talking exactly about the same kind of dimensions here. But 
I see your point.
    Senator Webb. But in terms of potential impact, when we 
look at the emergence of Iran and the difficulties that we're 
going to be having with Iran in that region, it would seem to 
me that without giving up any of the deterrent issues that we 
have and without giving up our position on such issues as 
recognition of Israel or Iran's nuclear program, that an 
aggressive engagement with Iran over the long-term could be 
beneficial in the same way that this relationship with China 
has been beneficial.
    Mr. Negroponte. We've had some discussion earlier about the 
question of engagement with Tehran and that doesn't seem to be 
in the cards at this particular point in time, but one other 
pretty significant difference I think I want to highlight is 
that Iran, if anything, I'd say is more of a rogue nation. If 
you think of their support for international terrorism and 
their effort to prevent reconciliation between the Arabs and 
Israelis at all costs, and their state sponsorship for 
terrorism, which they, I think, quite brazenly use as a tool in 
their national security policy.
    Senator Webb. Well, I certainly wouldn't disagree with you 
on the nature of the rhetoric and some of the actions that have 
come out of Iran. At the same time, they did cooperate with 
respect to Afghanistan, after the 2001 invasion. It just would 
seem to me that we need to be looking at both ends of the 
diplomatic scale and I look forward to having further 
discussions about that and I thank you for your time.
    Senator Lugar. Thank you very much, Senator Webb. Do you 
have any further questions?
    [No response.]
    Senator Lugar. Let me just thank you on behalf of the 
chairman and the committee. We appreciate you being here, your 
responses to our questions. Let me just say as a matter of 
business here, all questions for the record should be submitted 
before the close of business tomorrow and the record will be 
kept open for that purpose. There have been some questions 
raised and so we want to complete the record. As the chairman 
has pointed out, it is his intent and I agree to that, to try 
to have an Executive Session to take action upon your 
nomination at the earliest possible moment. We realize the 
urgency of filling the post and having an Under Secretary on 
the job.
    We thank you very much for your appearance and that of your 
family and the committee stands adjourned.
    [Whereupon, at 11:42 a.m., the hearing was adjourned.]
                              ----------                              


             Questions and Answers Submitted for the Record


          Responses of John Negroponte to Questions Submitted 
                      by Senator Richard G. Lugar

    Question. In last week's hearing, Dr. Ed Luttwak emphasized the 
differences between Iraqi Shiites who are Arab and Iranian Shiites who 
are Persian. He also said, ``The United States is a great power. The 
Iranians are a puny power. Their importance in that area is temporary 
based on the fact that the people of that area, the leaders, don't see 
a coherent policy from the United States of America.'' Do the Iranians 
hope eventually to dominate Iraq? Could they prevail, given the natural 
rivalries?

    Answer. Tehran has legitimate national interests related to its 
neighbor, Iraq. After the fall of Saddam Hussein, the Iranians, not 
surprisingly, have attempted to play a role in Iraq's political 
process. They developed ties with many current Iraqi Government 
officials who, during their years of opposition to Saddam, lived in 
Iran.
    Iran can and should play a constructive role in supporting 
Baghdad's efforts to establish security. Unfortunately Tehran's 
activities have been detrimental to the internal democratic development 
and security of the Iraqi people. The provision of material support and 
training to Shia militias and other groups has resulted in the deaths 
of United States troops, coalition forces, and Iraqi citizens. Iran's 
motivations in carrying out these actions are not clear, but our 
experience with similar Iranian involvement with Shia Arab groups 
elsewhere in the region, especially Lebanon, suggests that the Iranians 
use local surrogates to advance Iranian agendas at the expense of 
legitimate local interests.
    The United States remains committed to a stable and democratic 
Iraq, and the Iraqi leadership has affirmed its commitment to 
discouraging Iranian interference in its internal affairs. The United 
States has confidence that our partnership with the Iraqi Government, 
coupled with assistance from friends and allies in the region, will 
prevail against harmful Iranian meddling.

    Question. What is your reaction to another comment of Dr. 
Luttwak's: ``When generals say we don't need more troops in Iraq, it's 
not that they were patsies or playing along with the administration 
policy at the time, it's that you don't know how to employ them, 
because you cannot patrol without intelligence. And, unfortunately, 
Central Intelligence doesn't provide it. We have raiding forces in 
Iraq, which are tremendously effective. They're hardly ever used 
because, to make a raid, you need intelligence . . . That's why, even 
if you knew nothing of the politics or the strategy or the theater 
strategy, purely at the tactical level you would say: Don't send me 
troops. Reduce them.''

    Answer. I respectfully disagree with the assertion that our 
military ``don't know how to employ'' their forces in Iraq because the 
United States intelligence community does not provide adequate 
intelligence. The United States intelligence effort in Iraq is robust, 
and I have devoted considerable attention to this issue as Director of 
National Intelligence. There is strong civilian-military interagency 
coordination and cooperation to provide our forces with the best 
information possible to support their operations. Tactical level 
civilian-military cooperation has been particularly effective against 
al-Qaeda in Iraq, as demonstrated by the successful effort against Abu 
Musab Al Zarqawi last summer, among other operations. I would be 
pleased to arrange a classified briefing through appropriate channels 
to provide further details.

    Question. How long do you anticipate that the surge of troops will 
need to be sustained? Many have suggested that the Iraqi military will 
not be able to do what we expect them to do in the near future. How 
soon will we have a clearer picture as to Iraqi capabilities and 
political will?

    Answer. The President noted in his January 10 address to the Nation 
that the Iraqi Government plans to take responsibility for security in 
all of Iraq's provinces by November of this year.
    The transfer of particular provinces to Provincial Iraqi Control 
(PIC) and transfer of the Iraqi army to the command and control of the 
Iraqi Ground Forces Command (IGFC) are expected to occur once Iraqi 
forces and command relationships have developed sufficiently to allow 
the Iraqis to be in the lead as opposed to a supporting role. To date, 
three provinces have PIC'ed and five Iraqi army divisions are under 
IGFC control.
    As MNF-I and Iraqi forces achieve success in establishing security 
for the Iraqi population, a primary goal of the surge, in addition to 
building their forces and command relationship, the United States would 
then be in a position to reevaluate its force structure in Iraq.
    General Patraeus stated in his Senate testimony that by late summer 
we expect to have an assessment of the success of the Baghdad Security 
Plan.

    Question. Can a surge in civilian reconstruction and stabilization 
take place when the security situation is so dire?

    Answer. The security situation in Baghdad and other parts of Iraq 
is serious, and does complicate our efforts to implement programs. We 
are addressing this concern in two ways.
    First, in places like Baghdad and Anbar where security is currently 
a challenge, Iraqi forces, supported by and embedded with American 
forces, are working to secure parts of those provinces so that 
reconstruction and civilian life can resume. The areas that are secured 
will be expanded and the population protected. This is why it is 
important to have resources in the Department's budget for civilian 
programs in order to carry out the programs needed to show Iraqis that 
they have a stake in their neighborhoods being peaceful and secure.
    Second, there are areas that are secure enough for civilian 
programs addressing long-term political stability to be carried out. 
These areas include locations in which support for moderates over 
extremists demonstrates the benefits of working out their disputes 
through a peaceful political process rather than through fighting. A 
core objective of the President's new strategy is to empower moderates, 
defined as those Iraqis who renounce violence and pursue their 
interests peacefully, politically, and under the rule of law. This will 
be an important role for our Provincial Reconstruction Teams.

    Question. State has met its staffing needs in Iraq, but only 
through the Secretary's involvement and that of other senior officers, 
including yourself when you were an ambassador there. Other agencies 
and departments have not been as successful.
    (A) Challenges in meeting staffing targets stem from both budgetary 
(no international emergency line items in their budgets) as well as 
legal restrictions (the President cannot order civilians to war, they 
must volunteer, adding to the time it takes to deploy). Is the 
President seeking changes to these authorities? Will State begin 
directed assignments?
    (B) What is the Department's vision for adding 300 new personnel to 
the Iraq mission? Will these be contractors, grantees, NGO operatives?
    (C) Will the U.N. or other international organizations ramp up? 
What is the contractor and NGO presence in Iraq today?

    Answer. (A) Fully staffing our most critical posts, including 
Baghdad and the Provincial Reconstruction Teams (PRTs) in Iraq, is one 
of the State Department's highest priorities. The Department has made 
changes to its bidding and assignments process and offered a generous 
incentive package to entice bidders to volunteer for service in Iraq. I 
am proud to report that State Department employees have willingly 
responded to these calls for service and have volunteered to serve at 
even the most difficult and dangerous posts abroad.
    In the current assignments cycle, we have already filled 89 percent 
(156 positions out of 176) of Foreign Service positions in Iraq for 
summer 2007. For Embassy Baghdad, we have committed candidates for 117 
out of 128 jobs. For the Iraq PRTs, we have 39 committed candidates for 
48 jobs. The Bureau of Human Resources, the Bureau of Near Eastern 
Affairs, and other senior leaders in the Department are reaching out to 
potential candidates to fill the remaining positions. We also are 
looking at qualified civil service employees or eligible family members 
to fill some positions in Iraq on limited noncareer appointments. I am 
confident that these positions will be filled.
    To date, the Secretary has not had to utilize directed assignments 
to meet our staffing needs in Iraq. We are prepared to direct the 
assignment of Foreign Service members should that become necessary. Our 
goal, however, is to fill the positions in Iraq and in all of our 
missions around the world with qualified, willing employees who can 
carry out our crucial United States foreign policy objectives overseas.
    At this time, the Department is not seeking any additional 
authorities related to assignments. The administration has sought 
various legislative changes to improve the incentives for overseas 
service. A number of these incentives were included in H.R. 4939 and 
passed by the 109th Congress, but others, such as the Foreign Service 
Modernization provisions in H.R. 6060, were not approved in 2006. The 
Department will continue to pursue Foreign Service modernization to 
reduce the 18.6 percent pay gap for overseas service. Indeed, I was 
amazed to learn that an officer can be paid more for serving in 
Washington than in many hardship and danger posts. Other proposals may 
also be forthcoming, as we reevaluate the existing incentives for 
hardship service and determine if other legislative changes are needed 
to support and compensate our employees who serve in the most difficult 
posts overseas.
    (B) The Department is identifying an additional 10 senior officers 
to lead new PRTs in Iraq. These teams will work directly with military 
brigade combat teams (six in Baghdad, three in Anbar, and one in North 
Babil). We intend to use a mixture of personnel from DoD, USAID, other 
civilian agencies, and State, in addition to contractors, to fully 
staff the PRTs. These civilian specialists will provide the kind of 
professional knowledge not normally found in diplomatic missions, such 
as expertise in animal husbandry, small business formation, medical 
administration, and cooperative marketing.
    (C) As of January 16, 2007, there were 320 United Nations staff on 
the ground in Iraq, including approximately 221 U.N. security guards. 
Due to security concerns, the U.N. has redeployed international staff 
from Baghdad to Amman, Jordan, and to Kuwait. We believe that the U.N. 
has a vital role to play in Iraq's development and want the U.N. to 
maintain a strong staff and geographic presence to assist the Iraqi 
people.
    The World Bank has two international staff in Baghdad's 
International Zone and is in the process of strengthening its presence 
there to enhance the policy dialog with the Iraqi Government and 
improve donor coordination.
    The International Republican Institute (IRI) and the National 
Democratic Institute (NDI) are the primary recipients of United States 
funding for NGOs in Iraq. Through staff based in Iraq, both NGOs 
support political party development and outreach on constitutional 
issues. Other international NGOs present in Iraq include Community 
Habitat and Finance (CHF) International, Mercy Corps, the International 
Organization of Migration (IOM), the International Medical Corps (IMC), 
International Relief and Development (IRD), Counterpart, ACDI/VOCA 
(Agricultural Cooperative Development International and Volunteers in 
Overseas Cooperative Assistance), and the International Red Cross.

    Question. Provincial Reconstruction Teams:

  <bullet> Some PRTs have been very effective, while others have had 
        significant challenges primarily stemming from security and 
        staffing. What is the plan going forward?
  <bullet> What are the political trends outside Baghdad? Have the PRTs 
        been effective in empowering moderate parties? Is that a part 
        of the mandate?
  <bullet> There is no PRT in Najaf now, a key location for its 
        prominence in Shia politics. Will one of the new PRTs be placed 
        there?

    Answer. Under the expanded PRT program, launched by the President 
in the ``New Way Forward,'' we will double the number of PRTs from 10 
to 20, through a three-phase roll-out program. Nine new PRTs--the 
immediate priority--will be co-located with Brigade Combat Teams 
engaged in security operations in Baghdad and Anbar Province.
    In the next two phases, we will add a new PRT in North Babil and 
augment existing PRTs with specialized civilian technical personnel. 
Security for the PRTs in Basrah, Dhi Qar, Irbil, and Babil will 
continue to be provided by diplomatic security. Staffing the expansion 
will be an interagency, fullcourt-press effort. Within the next 3 
months, State, DoD, and USAID will deploy nine, four-person core-teams 
to the new PRTs in Baghdad and Anbar, each including a senior-level 
State Department team leader. We have identified 10 candidates for 
these positions. After deployment of the core teams, we will also send 
specialists to augment the effort. Staffing for the other PRTs is an 
ongoing process. Most will be specialists in fields such as rule of 
law, economic development, engineering, and agribusiness and, 
therefore, may be contractors and temporary excepted civil service 
direct hire employees with targeted expertise.
    The President has decided to expand the size and reach of the PRTs 
due to their success in building Iraqi capacity and self-sufficiency 
to-date. Since 2005, PRTs have:

  <bullet> Conducted extensive training in governance and municipal 
        planning for provincial, district, and subdistrict offices;
  <bullet> Served as a focal point for coordinating international 
        assistance;
  <bullet> Worked with Provincial Reconstruction Development committees 
        to improve the provincial governments' ability to 
        systematically identify and prioritize the reconstruction and 
        development needs of their provinces and to improve the 
        delivery of essential services;
  <bullet> Facilitated better working relationships between provincial 
        leaders and their counterparts in the central government, 
        improving their ability to secure funds from the center to pay 
        for provincial projects; and
  <bullet> Reached out to local and provincial leaders (including 
        grass-roots groups) who want to make a difference in making 
        Iraq's democracy work.

    A core objective of the President's new strategy is to empower 
moderates, defined as those Iraqis who renounce violence and pursue 
their interests peacefully, politically, and under the rule of law. The 
expanded PRT program will be central to that effort. PRTs will support 
local, moderate Iraqi leaders through targeted assistance, such as 
microloans and grants to foster new businesses, create jobs, and 
develop provincial capacity to govern in an effective, sustainable 
manner.
    Political trends outside of Baghdad vary from province to province. 
Parts of Iraq, such as the Kurdistan region, enjoy relative security 
and prosperity. Ninewa, Tamim (Kirkuk), and Salah al-Din have 
occasional acts of terrorism, but political life continues despite such 
acts. In Anbar and Diyala, acts of violence are disrupting political 
life. In south-central Iraq, sectarian violence is negligible, but 
there have been sporadic episodes of Shia-on-Shia violence between Badr 
Organization and Jaysh al-Mandi elements, or involving fringe groups 
such as the Soldiers of Heaven just outside of Najaf. In Basrah, 
militias and political disputes have a negative impact on the political 
development of that province.
    I agree that Najaf is a key location. In 2006, the State Department 
established a Provincial Support Team for Najaf, which is housed with 
PRT Babil in Hillah. The State Department and the Department of Defense 
are exploring the possibility of a full PRT based close to Najaf.

    Question. What assurance can we have that the $10 billion in Iraqi 
funds pledged for reconstruction in the coming year will be 
forthcoming? How much of it will be spent by the central government 
versus by the provinces?

    Answer. The Government of Iraq (GOI) included $10 billion in 
investment expenditure in its draft budget for 2007. This planned level 
of funding is therefore an Iraqi initiative and reflects the policy 
goals of the GOI. Over the last 2 years, some Iraqi ministries have had 
difficulty expending their capital budgets.
    The GOI is tackling this problem of budget execution with strong 
support from an Embassy Baghdad task force that provides technical 
assistance to Iraqi ministries. As President Bush indicated on January 
10, helping Iraq resolve these issues will be one of our top priorities 
this year. Ambassador Tim Carney, the new Coordinator for Economic 
Transition in Iraq, will focus in this challenge.
    Iraq has already taken some steps. New rules in the Iraqi budget 
law, if passed, would call for the reallocation of money from 
underspending ministries per a mid-year review, thereby enhancing near-
term incentives to spend. The Ministry of Finance also plans to send a 
budget execution status update detailing capital expenditure rates of 
each ministry to the Council of Ministers, the Prime Minister, and the 
media, starting in March 2007. These measures will help ensure that the 
$10 billion in reconstruction funding is forthcoming.
    Although the 2007 Iraqi budget is still being considered by the 
Council of Representatives, current versions of the budget allocate 
$2.4 billion to Provincial Councils for investment projects. In 
addition, of the $4.7 billion allocated to Kurdistan region for 
government functions and investment, $1.6 is provisionally destined for 
investment. Therefore, approximately $4 billion of the $10 billion in 
Iraqi funds for reconstruction will be spent by the provinces, subject 
to caveat that the Iraqi budget is still being formulated.

    Question. The Iraq Study Group and many of our witnesses have 
emphasized reinvigorated regional diplomacy. Other than statements of 
concern, what concrete actions steps have we seen from regional actors 
indicating that they understand what is at stake? What can we expect 
from Iraqi outreach to its neighbors, especially those the 
administration is reticent to engage?

    Answer. We have urged the Iraqi Government to reach out to its 
neighbors. While progress has been made in terms of regional engagement 
over the past year, more efforts need to be made. With respect to Syria 
and Iran, we support Iraqi direct dialog with Damascus and Teheran--
focused on building relationships based on the principle of full 
respect for Iraqi sovereignty and support for a peaceful, stable Iraq.
    Iraq's neighbors have been involved significantly with the United 
Nations-Iraq sponsored International Compact with Iraq (ICI) from its 
inception. Under the ICI, Iraq commits to a series of primarily 
economic reforms that will allow it to become self-sufficient over the 
next 5 years. In exchange, its international partners will support Iraq 
through new assistance, debt forgiveness, and investments. The compact 
provides a framework for Iraq's economic transformation and integration 
into the regional and global economy.
    As members of the Preparatory Group to the ICI, countries such as 
Saudi Arabia, Kuwait, and the UAE have helped shape the ICI. Both 
Kuwait and the UAE have hosted Preparatory Group meetings.
    We have pressed Iraq's neighbors, especially the Gulf Cooperation 
Council states along with Egypt and Jordan (GCC+2), to enhance the 
level of their representation in Baghdad and to take further steps to 
support the Iraqi Government. In particular, Secretary Rice recently 
traveled to Cairo, Riyadh, and Kuwait, where she met with the GCC and 
Egyptian and Jordanian foreign ministers. Nevertheless, we need to do 
more work with Arab states to win their complete endorsement of the ICI 
and the Maliki government, through such steps as debt reduction and 
delivering on their assistance pledges. This is a major focus of both 
the Secretary's monthly engagement with the GCC+2 ministers and with 
Deputy Secretary of Treasury Kimmitt's work in the region.

    Question. As one of the most experienced diplomats in the United 
States, you know that diplomacy is often about talking with 
adversaries. There are many things to be gained through such talks even 
if all points are not resolved in one's favor and full agreement cannot 
be reached. To what extent does the administration's decision not to 
bring Syria and Iran into discussions about Iraq reflect a lack of 
confidence in diplomatic endeavors, in general, and in the Department, 
in specific?

    Answer. We encourage all of Iraq's neighbors to be responsible 
partners in supporting and assisting the Iraqi Government. 
Unfortunately, we have seen no evidence that the Iranian and Syrian 
regimes are willing to abandon their destabilizing policies in Iraq.
    Syria continues to harbor former regime elements and has made 
insufficient progress in dealing with the transit of foreign fighters 
across the Syrian-Iraqi border. Syria knows what it needs to do to 
support Iraq, based upon extensive dialog earlier in this 
administration. The Iraqis recognize this threat, which is why they are 
trying to implement with Syria a memorandum of understanding to deal 
with terrorism and border control. Time will tell whether the Syrians 
will be able to live up to their pledge to the Iraqis.
    Likewise, Iran continues its destabilizing activities in Iraq--and 
indeed, across the Middle East. The Iranian regime remains the world's 
leading state sponsor of terrorism, and there are no indications the 
regime seeks to abandon its support for extremist actors in Iraq, or 
elsewhere.
    We are not opposed to a wide-ranging dialog with Iran. In fact, the 
Secretary has stated she would lead such an effort. Our only 
requirement is that Iran suspend its nuclear enrichment and related 
efforts, which the international community, IAEA, and U.N. Security 
Council all fear may be aimed at developing nuclear weapons, during 
that dialog.

    Question. State's Iraq team has been hampered by unfilled 
vacancies. There has not been a Deputy Assistant Secretary for some 
months. Where DoD and the military leans forward and provides 
information for oversight purposes and to inform our opinions, State 
has taken months to respond to QFRs. When testifying, State officials 
are not cleared to speak freely on important issues involving judgment 
and opinions. What can be done to rectify this situation?

    Answer. I respectfully disagree that the State Department's Iraq 
team is hampered by unfilled vacancies. For example, State has filled 
at present 96 percent of the positions it has in Iraq, with 98 percent 
of the positions filled for PRTs--all volunteers. In fact, State's job 
assignment policy in the present assignments cycle was to emphasize 
filling unaccompanied and limited accompanied posts, including Iraq and 
Afghanistan, and then turn to assignments to other non-hardship posts 
overseas. And while we still have some positions to fill for summer 
2007, we are well ahead of schedule in making summer 2007 assignments 
compared to where we were this time last year. We believe that this 
policy has been very successful at meeting our staffing goals for Iraq.
    Ambassador Lawrence Butler assumed the Deputy Assistant Secretary 
position this month. In the Department's view, tolerating a vacancy for 
a limited time in order to assign the best and most qualified person 
for the job is preferable to simply filling the slot. However, delays 
in filling key positions are not unprecedented nor are they always 
unavoidable, particularly given the unique assignment rules of the 
Foreign Service.
    I understand that sometimes our responses to QFRs are not as swift 
as they should be. On many occasions, the Department must coordinate 
responses with our embassy and other entities in order to provide 
Congress with the most accurate account of facts on the ground, which 
sometimes delays the Department's ability to respond as quickly as it 
would like. I understand that State has taken internal steps in order 
to improve its response times.
    In the Department's view, our officials do speak their minds and 
offer their opinions when testifying on the Hill. Most recently, 
Secretary Rice, as well as the Senior Advisor to the Secretary and 
Coordinator for Iraq, Ambassador David Satterfield, and Ambassador 
Khalilzad, provided frank, candid testimony and briefings, and they 
will continue to do so.

    Question. A robust FMS program should be put in place to equip 
Iraqi forces. This would replace NSPD 36 authorities given to CENTCOM 
and give full advantage of the services available under FMS and the 
expertise and capabilities of DoD logistic organizations (and U.S. 
contractors). Such a change would provide a sound legal framework for 
the program as well as important Congressional oversight mechanisms. 
Will State be implementing such a program for Iraq this year? If not, 
why not? How can the information flow about training and equipping be 
improved?

    Answer. The Multinational Security Transition Command-Iraq (MNSTC-
I) is working with the Government of Iraq to move toward a traditional 
bilateral security assistance relationship. A critical part of this 
transition is Iraqi participation in the Foreign Military Sales (FMS) 
system. Their participation began in earnest in 2006 when the Iraqis 
committed over $2.34 billion of Iraqi national funds to support 
procurement of equipment for the Iraqi armed forces. As the Iraqi armed 
forces develop into a professional and modern military, we will 
consider the appropriate funding and support for its continued long-
term development. The State Department fully supports transition of the 
Government of Iraq to a normalized security assistance relationship 
when ministerial capacity permits transitioning MNSTC-I 
responsibilities to an Office of Security Cooperation-Iraq.

    Question. While United States-South Korean Free Trade Agreement 
(FTA) negotiations are ongoing, South Korean officials have not engaged 
in meaningful negotiations for the full resumption of exporting United 
States beef products to that country. The major issues to be resolved 
include: (1) Establishing a tolerance for bone fragments in boneless 
product; (2) advancing market access for bone-in products; and (3) 
market access for products from animals regardless of age.
    It has been almost a year since the United States and Korean health 
officials agreed on initial conditions to resume trade. Unless 
restoration of the beef trade occurs prior to the conclusion of FTA 
talks, some in the Congress will likely object to a free trade 
agreement. Many are hoping that resumption of the beef trade is at the 
forefront of any economic discussion with Korea. What are the prospects 
for having this problem resolved in a timely way?

    Answer. Resumption of normalized trade in United States beef is one 
of our highest priorities in our economic discussions with Korea. 
United States beef is safe, and we have made it clear to Korea that 
while our beef discussions are not technically a part of the Korea-
United States Free Trade Agreement (KORUS FTA) negotiations, if the 
beef issue has not been adequately addressed by the time the agreement 
is considered by Congress, it will be hard to gain sufficient 
stakeholder and legislative support and could jeopardize the 
agreement's passage.
    USTR and USDA are actively working to find a commercially viable 
solution to the difficulties our exporters have experienced in trying 
to get United States beef back in the Korean market. Upcoming technical 
talks, scheduled for early February, are a positive step toward the 
normalization of the beef trade with Korea.

    Question. During the past 6 years, strongly competing views over 
North Korea policy within the State Department, and throughout the 
administration, have contributed to inconsistent actions and mixed 
messages from United States officials.
    As one example, a few days before Assistant Secretary Hill's recent 
Berlin meeting with North Korean officials, United States 
administration and other State Department officials were in Paris to 
discuss proliferation finance with some our major allies. On the 
margins of this meeting, some American officials reportedly raised the 
prospect of imposing a travel ban on key North Korean leaders, as 
provided under a United Nations resolution condemning Pyongyang's 
nuclear test. Please review this report to verify accuracy, determine 
who was involved, and also, who authorized this issue being raised only 
a few days before Assistant Secretary Hill was meeting with North 
Korean leaders?
    Separately, State Department officials informed the committee last 
week that the United States was calling for the suspension of all UNDP 
programs in North Korea, until an outside audit has been conducted on 
those programs.
    Apparently some in the administration believe that North Korean 
leaders may be redirecting UNDP funding to other than intended 
projects, and that the UNDP is not doing enough to account for their 
funds. Administration officials contend they have to force the issue at 
this time because the UNDP is in the process of a once-every-3-years 
review of its programs in North Korea. However, this has reportedly 
been a matter of long-standing interest to the Department, and a recent 
letter expressing United States' concern with the UNDP publicly 
appeared the same week that Mr. Hill was meeting with North Korean 
officials in Berlin.
    Although the President and Secretary Rice have repeatedly affirmed 
their decision that Assistant Secretary Hill should pursue a negotiated 
solution with North Korea, actions have been taken that on the surface, 
appear intended to subvert that process.
    What will you do, as Deputy Secretary, to ensure conformity with 
the President's approach to North Korea on the part of all State 
Department officials?

    Answer. As the President and the Secretary have noted clearly and 
repeatedly, we seek a peaceful, negotiated resolution to the North 
Korea nuclear issue, and we believe that the Six-Party Talks are the 
best vehicle for getting us to such a resolution. At the same time, the 
President and Secretary Rice have been clear that UNSCR 1718 should be 
implemented fully and effectively.
    Our policy on North Korea involves a dual-track approach in which 
our efforts at the negotiating table are accompanied and enhanced by 
defensive measures. These defensive measures, which target the DPRK's 
proliferation and other illicit activities, are intended, primarily, to 
defend the United States against the very real threats posed by these 
activities. Our defensive measures are also intended to make clear to 
the DPRK the cost of its dangerous and illicit activities in contrast 
to the benefits it stands to gain through a negotiated end to its 
nuclear programs.
    A dual-track approach, such as the one we have been employing with 
respect to North Korea, requires the strongest of interagency 
cooperation and coordination. I intend to ensure that all concerned 
participants understand and meet the policy goals set by the President 
and the Secretary.
    The Paris meeting appears to be a reference to G-7 meetings the 
previous week. During a bilateral working-level meeting, United States 
and French officials discussed developing a common list of individuals 
for travel ban to submit to the UNSCR 1718 Committee in New York. At 
that meeting, U.S. officials did not pass any proposed list of names 
for travel ban under 1718. The United States is not seeking to impose a 
travel ban on the DPRK's diplomatic officials. United States efforts to 
implement UNSCR 1718's requirements in reference to travel bans will 
center on individuals associated with North Korea's nuclear and missile 
programs and entities previously designated under E.O. 13382.
    Regarding UNDP, we welcome UNDP's recent decision to audit its 
operations in North Korea. Management reform, in particular the 
establishment of credible and effective systems of internal controls 
and accountability, is a primary goal of our policy toward the U.N. 
system. We have repeatedly urged the management of UNDP to improve its 
internal controls and accountability in development programs worldwide, 
to include providing greater transparency to member states. We are 
working with UNDP and executive board members to improve monitoring and 
management controls to ensure funds for all UNDP programs, not just in 
the DPRK, are used for their intended purpose.

    Question. In view of the recent announcement of a $10.6 billion 
supplemental emergency appropriation request for Afghanistan, of which 
$2 billion is intended for reconstruction, it is important to 
understand fully the expectations being set for such a significant 
request. It is also extremely important that the American people 
understand why, more than 5 years since our direct engagement following 
9/11, the United States is still committed to the purpose of rebuilding 
the region.
    Can you put this supplemental request in context with your efforts 
to date in Afghanistan and the expectations for our continued 
engagement there? What are the primary areas of U.S. engagement? What 
are the expectations of our international partners and the Government 
of Afghanistan?

    Answer. ``Rebuilding'' is really the wrong word; the right word 
would be ``building.'' In 2001, there was no Government of Afghanistan. 
There were no institutions, and there was no physical infrastructure 
upon which to build. Our challenge has been helping the Government of 
Afghanistan to stand up its institutions, build its security forces, 
and develop the infrastructure it needs to extend its control 
throughout the country.
    Remarkable progress has been achieved in Afghanistan since 2001. 
For example, 6 million students are now in school, including 2 million 
girls, and 83 percent of the population has access to healthcare, 
compared to only 8 percent in 2001. We must now consolidate our gains. 
Continued security challenges in 2006 demonstrated that the new 
Afghanistan is still fragile and that the threat of the Taliban, al-
Qaeda, and other extremist groups has not disappeared. Much more 
remains to be done to make Afghanistan a stable, democratic, prosperous 
country that will never again be a safe haven for terrorists. Last 
year, we conducted a strategic review of our policy which concluded 
that the international community, including the United States, needs to 
increase its level of support in the political, economic, and military 
spheres to defeat the revitalized Taliban insurgency and al-Qaeda 
terror.
    As a result, Secretary Rice announced that the administration will 
request $10.6 billion in new assistance over the next 2 years: $2 
billion for reconstruction and $8.6 billion for the Afghan National 
Security Forces. This significant funding request comes on top of the 
over $14.2 billion the United States has already provided in 
reconstruction and security assistance since 2001. The new United 
States commitments--financial, military, and political--do not signal a 
change in our goals for Afghanistan. Building on the results of our 
previous efforts they will enable us, through a comprehensive approach, 
to secure our successes for the long run.
    Should Congress appropriate the new funds requested by the 
President, our primary areas of engagement for stabilizing the country, 
supporting the economy, and extending the reach of the Afghan 
Government will be: the Afghan National Security Forces; roads; 
electric power; rural development; counternarcotics; and governance.
    Afghan National Security Forces: In the past 5 years, we have 
trained and equipped an Afghan National Army which is now about 30,000 
strong. We expect the total number of military personnel to eventually 
reach 70,000. The army has proved its capabilities fighting alongside 
Operation Enduring Freedom and International Security and Assistance 
Force troops. The new funding of $8.6 billion will help us 
significantly accelerate the military training effort. Police training 
will also continue to be a priority. Over 49,000 police have been 
trained and equipped so far by the United States and Germany, expanding 
toward a ceiling of 82,000. More work remains to be done to improve 
performance and retention. Developing and sustaining capable Afghan 
security forces is critical to our success and is essential to 
eventually relieving the burden on our own forces.
    Roads: In the past 5 years, about 75 percent of Afghanistan's 
national ring road--1,400 miles long--has been completed by the United 
States and our allies, and the remainder will be finished by 2010. The 
United States has also completed over 900 kilometers of secondary and 
district roads. A United States-constructed two-lane bridge connecting 
Afghanistan to Tajikistan over the Pyanj River will be completed in 
2007. With new funds, we would support further construction on 
strategic provincial and district secondary roads, particularly in the 
south and east.
    Power: Several multinational projects are underway to build 
Afghanistan's hydro and electrical power systems. These include the 
multidonor Northern Electrical Power System. With new funds, the 
Northern Electrical Power System is scheduled to be finished in 2009, 
and is expected to provide Kabul and northern cities with electricity 
imported from Central Asia. We also intend to push ahead with 
construction at the Kajaki hydropower dam site and the Southern 
Electrical Power System to bring more electricity to Kandahar and other 
areas in the south.
    Rural Development: Over the past 5 years, about 5 million boys and 
girls have returned to school, and hundreds of schools and health 
clinics have been built or rehabilitated. With new funds, we would 
invest in rural development through rural roads, credit, improved 
seeds, basic health services, primary education, irrigation systems, 
and alternative crops. Continuing efforts to deliver quality basic 
education would be complemented by programs that will increase the 
technical and managerial capacity of Afghans in both the public and 
private sectors.
    Counternarcotics: We will expand our efforts to reduce the amount 
of poppy cultivation and trafficking. After a decrease in poppy 
cultivation in 2005, Afghanistan produced a record poppy crop in 2006. 
To fight back, we have started to implement a comprehensive five-pillar 
strategy that includes: a counternarcotics public information campaign; 
an alternative livelihoods program; poppy elimination and eradication 
efforts coordinated with governors and local officials; law enforcement 
and interdiction efforts; and reform of the law enforcement and justice 
systems. This strategy must be pursued rigorously and be given time to 
work.
    Governance: We plan to continue strengthening national, provincial, 
and local governance through training, construction of district 
administrative centers, and assistance with drafting and implementing 
needed commercial and criminal legislation. We intend to work to 
strengthen the justice sector through training programs for judges and 
prosecutors, construction of courthouses, and other programs to expand 
the rule of law.
    Our international partners and the Government of Afghanistan expect 
the United States to lead the way in the stabilization and 
reconstruction of Afghanistan. The strong, long-term United States 
commitment that we display is having a significant effect on the morale 
of our allies and of the Government of Afghanistan. Critical to our 
efforts, this commitment also creates trust within the Afghan 
population.

    Question. There have been three attempts to rebuild and reform the 
police sector in Afghanistan. The first was a German program under the 
multi-pillared international partnership. The second effort, led by 
State, was designed to train police by the hundreds rather than by the 
dozens, but was still considered too slow. A third effort by Department 
of Defense came subsequent to a waiver permitting Department of Defense 
to run police training as an element of larger security sector reform. 
This third effort was declared a ``failure'' by the current commander 
who revamped it after his arrival early in 2006. The supplemental 
request of $8.6 billion contains a sizable sum for security reform: 
What is the role of the State Department in the latest Department of 
Defense effort to train police?

    Answer. Police training is a coordinated effort with the Department 
of Defense. Combined Security Transition Command-Afghanistan helps 
execute police training programs with State's Bureau of International 
Narcotics and Law Enforcement Affairs, but all police training efforts 
fall under the policy guidance and general oversight of the Ambassador.
    The senior embassy and military leaders have excellent relations 
and work together to administer and improve the police program. In 
fact, contracted Bureau of International Narcotics and Law Enforcement 
Affairs trainers and the military often work jointly in the field on 
police training.

    Question. How can we be assured that this effort will meet with 
greater success than previous programs? Are there unique difficulties 
to training police in Afghanistan? Do you believe they are finally able 
to be overcome?

    Answer. The program to train and equip the Afghan National Police 
is generally well-conceived and well-executed, but it is important to 
recognize that the training is a work in progress. We are building a 
62,000-member force and increased Taliban activity in 2006 has made the 
job even more difficult. Unlike the Afghan army, the police must be 
dismantled and then rebuilt from the top down in order to extract 
corrupt leaders and unravel structures based on tribal and ethnic ties, 
rather than professional criteria. It will take a sustained effort over 
several years to institutionalize the police force and establish a 
self-sustaining program, let alone adequately assess the program.
    The interagency security effort has adapted to meet the changing 
security and relative funding needs to ensure the success of the Afghan 
security forces. We will further improve that situation with the 
allocation of $2.5 billion in new funds for training and equipping the 
Afghan National Police. This is not just a question of funding 
training, which remains flat at about $325 million, but also of 
ensuring that recruits are equipped with the tools to carry out their 
mission, which is where the remaining $2.2 billion in police funds 
would largely go. Training and equipping efforts augment and enforce 
each other. Training will not help a recruit who is outmanned, 
outgunned, and underpaid. We must look comprehensively at all the 
factors that will lead to success for the Afghan police and move 
forward on all fronts.
    The difficulties establishing the Afghan police are similar to the 
difficulties in any post-conflict environment with a total breakdown of 
institutions, law, and economy. We encounter many of the same problems 
in other countries, such as Haiti, Bosnia, and Iraq: corruption, 
illiteracy, low pay, and an insecure environment. These difficulties 
have developed over many years and will require a sustained effort over 
many years to resolve.

    Question. How will this program be monitored? Are there 
measurements other than number of trainees successfully graduated? Is 
the professionalism of trainees tracked after they graduate?

    Answer. The graduation of trainees is only the first step in the 
establishment of a professional, competent police force. After that 
initial training, we use our nearly 400 U.S. police officer mentors on 
the ground to monitor the police at both the unit and individual level 
to determine if they are using the skills they have been taught. When 
deficiencies are found, the mentors act to correct them, whether this 
means additional training, correcting substandard behavior, or, in 
extreme situations, changing personnel.

    Question. When the NATO International Security Assistance Force 
assumed control of security throughout Afghanistan they made clear 
their intent to increase the reconstruction effort as a key to 
progress.
    Is there political support within NATO countries to increase 
support for reconstruction? What will that mean for NATO forces 
deployed throughout the country? What percentage of international 
assistance flowing to Afghanistan is non-United States and what recent 
new commitments have been made?

    Answer. At both the Riga Summit in November 2006 and at the 
informal NATO Foreign Ministerial in January 2007, NATO International 
Security Assistance Forces allies reaffirmed their strong commitment to 
the mission in Afghanistan and to the reconstruction and development of 
that country. All allies have embraced the concept of a ``comprehensive 
approach,'' where security operations are coordinated with 
reconstruction and development. Due to International Security 
Assistance Forces allies' support for this comprehensive approach, NATO 
forces deployed throughout Afghanistan are encouraged to coordinate 
with the U.N. and Government of Afghanistan-chaired Joint Coordination 
and Monitoring Board to ensure that security efforts are followed-up 
with reconstruction and development initiatives.
    Since 2001, the United States has provided over $14.2 billion in 
aid: nearly $9 billion in security assistance and $5.2 billion in 
reconstruction, humanitarian, and governance assistance. This is 
approximately 45 percent of total donor assistance to Afghanistan. With 
our request for an additional $10.6 billion for the next 2 years, we 
will continue to be the largest contributor to infrastructure 
reconstruction and the development of the Afghan National Security 
Forces.
    At the informal NATO Foreign Ministerial, several allies announced 
new donor assistance commitments. To provide a few examples: Canada 
pledged $8.5 million for victims assistance, and $10 million for police 
salaries (Afghanistan is Canada's No. 1 aid recipient); Norway has 
pledged to increase its assistance by 50 percent in 2007 (making 
Afghanistan the No. 2 recipient of Norwegian aid); and the European 
Union has pledged =150 million annually over the next 5 years.

    Question. A significant amount of information from a variety of 
sources indicates that continued instability in Afghanistan, especially 
in the south and east, is due to the unconstrained flow of persons and 
resources across the Afghan-Pakistan border.
    How can the State Department and the supplemental appropriation 
improve the essential Afghan-Pakistan relationship? Are there new 
efforts to enlist Pakistani help in engaging and capturing the Taliban? 
Do the Pakistanis themselves have new ideas that should be pursued?

    Answer. To meet the challenge of violent extremism, the 
administration is advancing a three-pronged strategy that leverages 
political, military, and economic tools. The administration supports 
the Pakistan Government's new Frontier Initiative, a developmental, 
security, and governance strategy to deny safe haven to the Taliban and 
al-Qaeda along Pakistan's Afghan border--including in the Federally 
Administered Tribal Areas and parts of Balochistan. The Pakistani 
Government has already planned and allocated resources to this effort 
and has asked the United States for additional support for the 
security, services, and development sectors required to transform this 
region. Immediate United States technical assistance and training for 
the Tribal Area Development Authority and the Tribal Areas Secretariat 
would greatly increase Pakistani capacity to design, plan, manage, and 
monitor programs in the tribal areas, and would bring immediate 
benefits in the form of nonterrorist alternatives for employment to the 
population at risk for recruitment by al-Qaeda and the Taliban.
    The State Department is exploring ways to support two initiatives 
designed to strengthen Pakistan's capability to eliminate terrorist 
safe havens and strengthen control of the border with Afghanistan. The 
first initiative will enhance the capacity of local security forces 
such as the Frontier Corps, the Frontier Constabulary, and tribal 
levies. The second initiative, Pakistan's Sustainable Development Plan 
for the tribal areas, is a program of economic and social development 
and governance reform intended to meet the needs of the local 
population and render them more resistant to the appeal of violent 
extremists such as al-Qaeda and the Taliban. Robust support for these 
two initiatives is expected to improve the security environment in the 
frontier areas, whose Pashtun population spans the Pakistan-Afghanistan 
border, and to contribute greatly to creating an environment 
inhospitable to violent extremism.
    The United States has strongly encouraged Pakistan and Afghanistan 
to strengthen their bilateral relationship. We have actively 
facilitated cross-border communication through military and civilian 
channels. Military communications are facilitated through radio 
communications and face-to-face meetings by tactical commanders along 
the border, as well as Tripartite Commission (Pakistan, Afghanistan, 
and the International Security Assistance Force/U.S. military) working 
groups and meetings at both the operational and strategic levels. On 
the civilian side, we have encouraged Pakistan to host talks on border 
security management and a conference for civilian law enforcement 
agencies of both countries. U.S. diplomats are also facilitating 
initiatives to establish institutionalized parliamentary exchanges and 
to promote media exchanges.
    To facilitate economic development in Afghanistan and the border 
areas of Pakistan, President Bush announced his intention to seek 
Congressional approval for the Reconstruction Opportunity Zones 
program. The Reconstruction Opportunity Zones are a critical economic 
component of our development strategy and offer a vital opportunity to 
improve livelihoods, promote good governance, and extend and strengthen 
the writ of the Afghan and Pakistani Governments. Establishment of 
Reconstruction Opportunity Zones will help to kick-start industrial 
production and bring benefits to these targeted economies along with 
greater cooperation between Afghanistan and Pakistan. Consultations 
with Congressional staff and industry as well as the Governments of 
Afghanistan and Pakistan are currently on-going and the State 
Department and United States Trade Representative will present an 
outline of legislation to Congress soon.
    The International Security Assistance Force-led military coalition 
in Afghanistan works closely with the Pakistani military through the 
Tripartite Commission. On their side of the border, Pakistani security 
forces are engaged in denying al-Qaeda, Taliban, and other militants 
safe haven on Pakistani territory. Raids by Pakistani security forces 
on hideouts and training areas have disrupted the insurgents' 
operations, prompting retaliatory strikes that have killed and wounded 
Pakistani forces, government officials, and civilians. The Government 
of Pakistan currently maintains more than 900 monitoring posts along 
the 2,300 km border with Afghanistan. The Pakistani Government recently 
announced stringent new measures to tighten security along the border. 
Pakistan has also announced plans to close several lawless refugee 
camps in the border region, repatriating the residents to Afghanistan.

    Question. How has the justice sector been incorporated into a 
coherent reconstruction and reform plan to improve basic governance 
across Afghanistan from the ministry to the local police?

    Answer. Justice benchmarks were incorporated into the Afghanistan 
Compact agreed to in London in January 2006. Reforming the justice 
sector--in the context of competing formal and informal systems, 
widespread corruption, and an active insurgency--is a formidable 
challenge. By creating a Rule of Law Coordinator on the U.S. Embassy 
staff, we plan to intensify and focus our engagement on justice sector 
issues with Afghan officials and the international community (led by 
Italy) on meeting these benchmarks.
    President Karzai's appointments of an activist Attorney General and 
a reformist Chief Justice of the Supreme Court offer a window of 
opportunity for United States and international efforts to bear fruit 
in improving the delivery of real justice to the Afghan people.
    Our ongoing commitment to support justice, governance, and the rule 
of law in Afghanistan is reflected by the $2 billion administration 
request in new assistance announced January 26. Those funds will help 
strengthen governance at all levels (national, provincial, and local) 
through a comprehensive and coordinated web of U.S.-supported programs. 
Some examples include construction of district administrative centers, 
assistance with drafting and implementing commercial and criminal 
legislation, training and mentoring of judges, prosecutors, and defense 
attorneys, police-prosecutor training programs, nationwide corrections 
training and infrastructure support, and other programs to expand the 
rule of law. Provincial reconstruction teams will provide training, 
infrastructure, and equipment required to improve provincial and 
district governance. Parliamentarians will be trained in legislative 
research, drafting, and constituent outreach. Civil society groups, 
including the media, will receive training and other support.
    Police training is a coordinated effort with the Department of 
Defense, so there are no separate efforts. Combined Security Transition 
Command-Afghanistan helps execute police training programs with the 
Department of State's Bureau of International Narcotics and Law 
Enforcement Affairs, but all police training efforts fall under the 
policy guidance and general oversight of the ambassador. Senior embassy 
and U.S. military leaders work together to administer and improve the 
police program and Bureau of International Narcotics and Law 
Enforcement Affairs-contracted trainers and the military often work 
jointly in the field on police training.
    The interagency effort has been underfunded relative to the 
challenge. The allocation of $2.5 billion in new funds for training and 
equipping the Afghan National Police will improve the situation. This 
is not just a question of funding training, which remains flat at about 
$325 million. The remaining $2.2 billion in police funds would largely 
ensure that recruits are equipped with the tools to carry out their 
mission. Training and equipping efforts augment and enforce each other. 
Training will not help a recruit who is outmanned, outgunned, and 
underpaid. We must look comprehensively at all the factors that will 
lead to success for the Afghan police and move forward on all fronts.

    Question. The United States has provided significant resources to 
Pakistan as a partner in countering terrorism. This assistance has 
included economic, development, and security assistance. The embassy is 
a hardship post and under great pressure from a security standpoint, as 
seen on Friday by the terror bomb attack at a hotel in Islamabad and 
the rough treatment of a New York Times reporter in the Frontier 
Territories.
    Due to the high level of security for United States officials and 
the necessity for extreme care in the conduct of business, what 
measures is State taking to ensure that such a significant level of 
assistance to Pakistan is being effectively managed and monitored? How 
is the impact of this assistance being measured given limited access to 
parts of the country where it is being carried out?

    Answer. Embassy officials take exceptionally strict security 
measures in Pakistan, particularly in the Federally Administered Tribal 
Areas; they are able to access most, but not all, projects and sites. 
The Bureau of International Narcotics and Law Enforcement's Narcotics 
Affairs Section programs are regularly visited and monitored in the 
border areas by the Narcotics Affairs Section team, which includes 
Foreign Service officers, Foreign Service nationals, as well as 
international and domestic contractors. Ambassador Crocker and 
Assistant Secretary Patterson have also visited border outposts.
    Projects monitored directly by the section team include road 
construction projects and the construction of border outposts. Embassy 
officials have not been able to monitor programs firsthand in North and 
South Waziristan and parts of Khyber Agency in the tribal areas, but 
have established reliable alternate verification procedures to continue 
a limited number of programs. Narcotics Affairs Section programs, for 
example, are very successful in the tribal areas.
    In addition to programmatic visits to the tribal areas and 
Balochistan, there is a Narcotics Affairs Section team dedicated to 
monitoring the use of the millions of dollars of commodities provided 
to Pakistani agencies. The agencies have been grateful for these 
commodities and are meticulous in monitoring their use. Each agency 
provides quarterly reports that list the condition of each set of 
night-vision goggles, Motorola radios, and vehicles, and also provides 
specific examples where this equipment was used. For example, the night 
vision goggles have been used in investigating drug syndicates and 
tracking Taliban fighters in the tribal areas. Through interagency 
ground monitoring and aerial surveys, Pakistan and the United States 
Government confirmed that Pakistan's poppy cultivation levels continue 
to decline. It is expected that Pakistan will achieve poppy-free status 
in the next few years.
    Agreements applicable to the transfer or sale of defense articles 
to Pakistan allow for United States officials to access such articles 
whereby the officials may check both inventory controls and technical 
security measures. Despite the difficult security environment, the 
embassy's Office of Defense Representative-Pakistan is able to monitor 
the use and storage of all such defense articles transferred to 
Pakistan. The Office of Defense Representative-Pakistan also monitors 
and validates expenses reimbursed by Coalition Support Funds.
    With respect to economic and development assistance, the USAID 
mission employs a variety of approaches to ensure accountability. USAID 
works closely with approximately 40 partner organizations that have 
direct responsibility for implementing USAID-funded programs in the 
field, including regular office visits and periodic site visits. While 
security constraints are sometimes formidable, United States and local 
staff can travel to many parts of Pakistan where activities are 
underway. Access is most limited in parts of Balochistan and the 
Northwest Frontier Province bordering Afghanistan. To a large extent, 
the monitoring of projects in Balochistan and the Federally 
Administered Tribal Areas is done with the help of USAID's Pakistani 
counterparts. In contrast, access is very good across the entire 
earthquake-affected region, where USAID makes frequent helicopter 
visits even to the most remote construction sites.
    As is typically the case at USAID missions across the world, 
monitoring and evaluation concerns are addressed through a variety of 
mechanisms, including annual reports to Washington, periodic (usually 
quarterly) contractor and grantee reports, and site visits. A highly 
skilled national staff makes an important contribution toward managing 
and monitoring programs in the field. USAID's staff of 10 Foreign 
Service officers and 5 other long-term American employees is 
occasionally supplemented by short-term expatriate staff. At least one-
third of the long-term United States staff presently stationed in 
Islamabad speak Urdu, providing an important level of knowledge and 
understanding of the local situation.
    Disbursement of annual budget support (2005-2009) is guided by the 
Shared Objectives, a set of goals mutually agreed between Pakistan and 
the United States, focusing on Growth and Macroeconomic Stability, 
Investing in Human Capital and Private Sector Development, and 
Earthquake Relief and Reconstruction (including ensuring transparency 
of funding). Providing Pakistan with balance of payments, budget, and 
policy reform support has been critical to Pakistan's stability in a 
time of increasing demands on Pakistan for cooperation in the war on 
terror and in support of coalition activity in Afghanistan. Pakistan 
provides the United States embassy a summary of the relevant portions 
of its current overall budget for the fiscal year, and states how its 
spending will be modified with the addition of the Pakistani rupee 
equivalent of $200 million. USAID in Pakistan monitors these funds at 
the national budget level to help verify United States Government 
contributions are used in accordance with the contract agreements. The 
United States Government meets annually with the Pakistani Ministry of 
Finance to review Pakistan's progress on the Shared Objectives.

    Question. The President's Emergency Plan for AIDS Relief, or 
PEPFAR, is a 5-year program that faces reauthorization next year. What 
is your assessment of the program's successes and challenges thus far? 
How is the administration working with other governments and 
multilateral efforts to maximize our ability to fight the AIDS 
pandemic?

    Answer. The U.S. President's Emergency Plan for AIDS Relief 
(Emergency Plan/PEPFAR) is a $15 billion, multifaceted initiative to 
combat HIV/AIDS around the world. Established in 2003, PEPFAR is the 
largest commitment ever by any nation towards an international health 
initiative dedicated to a single disease.
    The emergency plan's 5-year global strategy focuses on implementing 
bilateral programs in 15 of the most affected countries (Botswana, Cote 
d'Ivoire, Ethiopia, Guyana, Haiti, Kenya, Mozambique, Namibia, Nigeria, 
Rwanda, South Africa, Tanzania, Uganda, Viet Nam, and Zambia), which 
together comprise 50 percent of the global pandemic. PEPFAR also 
consolidates and coordinates initiatives in more than 100 countries 
where the United States has bilateral programs, and amplifies the 
effects of other global interventions by partnering with and 
contributing to the Global Fund to Fight AIDS, Tuberculosis, and 
Malaria (the Global Fund). Additional international partners include 
the World Bank, the United Nations Joint Program on HIV/AIDS (IJNAIDS), 
other national governments, and a growing number of businesses and 
foundations in the private sector.
    All U.S. Government bilateral HIV/AIDS programs therefore are 
developed and implemented within the context of multisectoral national 
HIV/AIDS strategies, under the host country's national authority. 
Programming is designed to reflect the comparative advantage of the 
United States Government within the host government national strategy, 
and it also leverages other resources, including both other 
international partner and private sector resources. For example, given 
the magnitude of the United States Government investment in the Global 
Fund (in the first 3 years of PEPFAR, the United States contributed 
$1.9 billion to the Global Fund or approximately 30 percent of all 
Global Fund resources) and the commitment of the United States 
Government to working collaboratively with other international partners 
and multilateral institutions, bilateral programs provide support to 
Global Fund grantees; help to leverage Global Fund resources, when 
necessary; and bring successful programs to scale.
    Recognizing that country ownership is key, PEPFAR works closely 
with host governments, program partners, and people living with HIV/
AIDS in the local communities, to implement evidence-based HIV 
interventions that meet locally identified needs and conform to each 
country's national priorities. PEPFAR also focuses upon the needs of 
women and families, including orphans and vulnerable children. Through 
an expanding network of integrated, multisectoral programs, the 
emergency plan has positioned itself to reach its goals of supporting 
treatment for 2 million HIV-positive people, preventing 7 million new 
infections, and supporting care for 10 million people living with and 
affected by HIV/AIDS.
    When President Bush unveiled the emergency plan in 2003, only an 
estimated 50,000 people in sub-Saharan Africa were receiving treatment 
for HIV/AIDS. Through September 2006, 822,000 people in PEPFAR's 15 
focus countries were receiving treatment supported by United States 
Government bilateral programs.
    Treatment services are being scaled up at a carefully monitored but 
rapid rate. In 2006, across PEPFAR's 15 focus countries, on average 93 
new antiretroviral therapy (ART) sites came online and the number of 
sites providing treatment has increased from 800 in fiscal year 2005 to 
1,912 in fiscal year 2006. By the end of fiscal year 2006, 50,000 more 
people were put on life-saving ART every month. In order to ensure that 
treatment is being provided for children and women, PEPFAR tracks ART 
clients by age and gender. These records indicate that approximately 61 
percent of those receiving PEPFAR-supported treatment in fiscal year 
2006 were women and almost 9 percent were children.
    Through fiscal year 2006, PEPFAR provided care for nearly 4.5 
million HIV-positive people around the world, including approximately 2 
million HIV orphans and vulnerable children. This is a good start--but 
countless more HIV-positive people are not receiving the treatment and 
care they need, in part because they do not know they are HIV-positive. 
One major barrier to identifying HIV status is the absence of routine 
testing in medical settings; to address this problem, PEPFAR supports 
provider-initiated ``opt-out'' testing in selected health care 
settings. In pilot studies, implementing the opt-out policy raised HIV 
testing rates dramatically.
    HIV/AIDS also places a growing strain on already stressed health 
care systems and workers in PEPFAR countries where systemic weaknesses 
in areas such as health networks and infrastructure are persistent 
obstacles to building human resource capacity and expanding health 
systems. In response, in fiscal year 2006, at least 25 percent of 
PEPFAR's total resources were devoted to capacity-building in the 
public and private health sectors--such as supporting physical 
infrastructure, healthcare systems, and workforce development. Eighty-
three percent of PEPFAR partners were indigenous organizations, and the 
emergency plan supported training or retraining for more than 842,600 
service providers (with individuals being trained in multiple areas in 
certain cases) and supported approximately 25,100 service sites in the 
focus countries.
    Moreover, the emergency plan and its host country partners support 
national strategies with innovative approaches to training and 
retention; broadening of policies to allow for task-shifting from 
physicians and nurses to clinical officers, health extension workers, 
and community health workers; and the use of volunteers and twinning 
relationships to rapidly expand the number of local service providers 
required to respond to this disease. This focus on strengthening 
networks provides a base from which to build institutional and human 
resource capacity, in order to rapidly expand prevention, treatment, 
and care services.
    In order for comprehensive HIV/AIDS programs to be sustained, a 
continuous inflow of high-quality medicines and supplies is needed. In 
concert with in-country partners, the United States Government is 
supporting host nations' efforts to build the necessary supply chain 
systems. In 2005, the emergency plan partnered with leaders in the 
international supply chain management field, including four African 
organizations, to establish PEPFAR's Supply Chain Management System 
(SCMS). The mission of SCMS is to strengthen supply chain systems to 
deliver an uninterrupted supply of high-quality, low-cost drugs, lab 
equipment, testing kits, and other essential medical materials that 
will flow through a transparent and accountable system.
    While PEPFAR's focus is and will remain HIV/AIDS, program 
implementers coordinate with a number of international partners with 
related global health programs, including global TB and malaria 
initiatives. In addition, PEPFAR's capacity-building initiatives have 
positive spillover effects: Upgrading health systems and strengthening 
the health workforce serve to improve healthcare delivery overall. In 
addition to strengthening infrastructure, expanding health services, 
and stimulating economic growth, such improvements also enable 
developing countries to cultivate good governance and build freer and 
more stable societies. It is a mistake to think of HIV/AIDS in terms of 
health alone. It is among the most serious economic development and 
security threats of our time--precisely why the President and PEPFAR 
host nations have made addressing it such a high priority.

    Question. In September 2005, President Bush announced the 
International Partnership on Avian and Pandemic Influenza, and the 
Department of State has hosted international conferences with 
representatives of foreign governments on avian flu. Can you please 
tell us about the latest activities of the international partnership? 
How many countries have joined this initiative? In addition, how much 
money has the United States pledged to combat avian flu and prepare for 
a possible pandemic? On what programs is this money being spent?

    Answer. The International Partnership on Avian and Pandemic 
Influenza met in Washington, DC, on October 6-7, 2005, and again in 
Vienna, Austria, on June 6-7, 2006. Representatives from 93 country 
delegations, 20 international organizations, and some nongovernmental 
organizations attended the Vienna meeting. The Government of India will 
host the next meeting of the international partnership in the last 
quarter of 2007.
    President Bush's initiative, which emphasizes core principles such 
as transparency and sharing of flu samples, has served to raise high-
level political awareness, to galvanize nations both to combat the 
spread of avian influenza and to prepare for a possible human pandemic, 
and to help coordinate donor spending plans.
    At international pledging conferences in Beijing, China (January 
2006) and Bamako, Mali (December 2006), the United States Government 
led all bilateral donors with pledges totaling $434 million in 
international assistance for avian and pandemic influenza. Funds 
pledged by the United States are going to a variety of activities to 
prevent and respond to avian and pandemic influenza threats, including 
the following:

  <bullet> Nearly $138 million for bilateral assistance activities;
  <bullet> Almost $64.5 million for regional programs including 
        regional disease detection sites;
  <bullet> Close to $44.5 million for support to international 
        organizations;
  <bullet> $66.6 million for stockpiles of non-pharmaceutical supplies;
  <bullet> More than $40 million for international technical and 
        humanitarian assistance and international coordination;
  <bullet> Over $9 million for wild bird surveillance and international 
        research (including vaccines and modeling of influenza 
        outbreaks);
  <bullet> $8.6 million for global communications and outreach;
  <bullet> $5.7 million for global contingencies, including emergency 
        response; and
  <bullet> $10 million for building vaccine production capacity.

    The collective efforts of the U.S. Government, foreign governments, 
and international organizations have reaped results. For example, the 
United States has helped train 15,000 animal health workers, 3,000 
human health workers, and nearly 500 veterinarians in outbreak 
response. These workers will strengthen the emergency response 
capabilities of many nations and will enable the world to have better 
information on animal outbreaks and an actual pandemic, should it 
occur.

    Question. The wars in Afghanistan and especially Iraq have diverted 
State Department and USAID resources and personnel from the rest of the 
world. Does the Department have a means of measuring the impact of what 
is being called in the Foreign Service ``the Iraq tax?'' Is it having a 
negative effect on the Secretary's ``transformational diplomacy'' 
initiative? Is this a problem that you see as one of your 
responsibilities to address?

    Answer. To meet our staffing needs in Iraq, the Department used 
many positions originally intended to fund language proficiency 
training as part of our Diplomatic Readiness Initiative. These 
positions would have created a ``training float'' to allow for long-
term training, without creating staffing gaps overseas. Our fiscal year 
2008 budget submission includes 104 positions to help close the 
training gap due to positions that were diverted to Iraq. In addition, 
in order to fully staff the positions in Iraq, we have removed some 
lower priority positions from the bid list. Approximately 140 domestic 
and overseas positions were affected in the current assignments cycle.
    While some lower-priority positions have not been filled and some 
training has been deferred, our efforts to shift internal resources and 
positions to quickly ramp up our operations in Iraq have not had a 
negative impact on the Secretary's Transformational Diplomacy 
Initiative and the related global repositioning of State Department 
personnel. As Deputy Secretary, I would certainly take an active 
interest in strategic decisions related to the positioning of State 
Department personnel, be it to support our goals in Iraq or Afghanistan 
or to implement the Secretary's vision of transformational diplomacy.

    Question. The current Foreign Service compensation system provides 
mid- and entry-level officers stationed in the United States with 
annual ``locality pay'' increases that are not given to similarly-
ranked officers stationed abroad. Over the years, this has had the 
unintended consequence of compensating officers at a higher salary when 
they are stationed in the United States than when they are stationed 
overseas. Before the 109th Congress adjourned, a bill that addressed 
this inequity and, at the same time, instituted a pay for performance 
system in the Foreign Service, was in the process of final completion. 
What will be the Department's view on that bill? Will it press for 
passage in the new Congress?

    Answer. Foreign Service modernization for the nonsenior ranks 
continues to be a top legislative priority in the management area. We 
look forward to continuing discussions this year with Congress, OMB, 
the other Foreign Affairs agencies and our colleagues at the American 
Foreign Service Association to amend the Foreign Service Act of 1980 
and modernize the Foreign Service pay system.
    The purpose of Foreign Service modernization is to close the 
overseas pay gap for FS-01s and below and bring all Foreign Service 
members under a pay-for-performance system similar to the one that 
exists for the Senior Foreign Service. A crucial component of a pay-
for-performance system for personnel who are recruited in one central 
location and who rotate frequently between overseas and domestic 
locations is a worldwide pay scale ensuring that performance overseas 
is not valued less than in Washington. The 18.6 percent difference in 
base salary when serving abroad undercuts post differentials and 
allowances, especially those for hardship and danger, and remains a 
significant financial deterrent to service overseas.
    Foreign Service modernization would cover all foreign affairs 
agencies that are governed by the Foreign Service Act, including 
Agriculture, Commerce, AID, Peace Corps, BBG, and State. Other agencies 
that regularly send employees overseas for extended missions, such as 
the CIA and the Department of Defense, have already dealt with the 
locality pay disparity and do not face the same pay gap for overseas 
service. The CIA pays equal overseas and domestic base salaries, and 
the military never used locality pay at all, awarding their members the 
full annual pay adjustment without a portion being devoted to locality 
pay. As we ask our employees to take on more challenging and dangerous 
assignments overseas, the Department needs Foreign Service 
modernization to effectively compete with other Government agencies and 
the private sector and to fully compensate our employees for their 
service abroad.

    Question. We understand that over a million dollars has been 
collected privately in response to the State Department's request for 
financial assistance to create a diplomacy center including a museum of 
the history of American diplomacy. Can you tell us what progress is 
being made on this project? What is your view of the effort?

    Answer. We acknowledge your long-standing support for a U.S. 
Diplomacy Center (USDC) and museum, one that will be devoted not only 
to the to the history of U.S. diplomacy, but also to the immense 
contributions that current diplomacy makes to our security, prosperity, 
and freedom.
                              fundraising
    The Department of State's non-profit partner for the U.S. Diplomacy 
Center, the Foreign Affairs Museum Council (FAMC), has raised over $1.3 
million toward the museum. Senator Mathias is the chairman and 
Ambassador Steve Low is President.
                                support
    All major Foreign Service organizations including the Council of 
American Ambassadors and American Foreign Service Association have 
signed a letter of support.
                         progress on the museum
    In late 2005, a design team was selected through GSA's Design 
Excellence program to work with the Department. Throughout 2006, the 
design team worked to develop a concept plan which was presented to 
Secretary Rice last September. The next step is to begin a capital 
campaign.
    I share Secretary Rice's enthusiasm for what she termed a ``smart'' 
project for the Department.

    Question. On January 11, President Bush signed legislation 
containing provisions that Senator Obama and I authored relating to 
proliferation interdiction assistance and the safeguarding or 
elimination of dangerous stockpiles of conventional arms.
    Will you work to ensure that funding, consistent planning, and 
effective implementation are provided to carry out these provisions of 
Public Law 109-472, the State Department Authorities Act of 2006?

    Answer. Yes. The State Department appreciated the cooperative 
efforts of the Foreign Relations Committee to develop this legislation 
and take our concerns into account. The new law will support our 
efforts to develop international cooperation to detect and interdict 
WMD-related shipments through the Proliferation Security Initiative 
(PSI) and other means. Coordinating the variety of U.S. technical 
assistance programs that help international partners develop relevant 
interdiction capabilities will be an important aspect of our 
international capacity building.
    The aspects of the bill relating to the elimination of dangerous 
stockpiles of conventional weapons will advance the Department's 
efforts in support of humanitarian demining, unexploded ordnance 
clearance, removal of abandoned weapons, and destruction of excess and 
obsolete munitions, small arms, and light weapons.
    The Department looks forward to cooperating with the committee on 
these important issues.

    Question. Do you believe that all present U.S. interdiction 
efforts, including through the Proliferation Security Initiative, are 
effectively coordinated within the interagency? Do our interdiction 
partners have the necessary equipment and training or access to U.S. 
assistance to effectively carry out interdiction activities?

    Answer. The PSI has been an important organizing principle, not 
only for the United States, but also for our international partners. 
All PSI activities are conducted via an extensive interagency 
coordination process under the overall direction of a policy 
coordination committee chaired by National Security Council (NSC) 
staff, with clearly defined strategy documents that describe agency 
roles, responsibilities, and common goals.
    The Department of State is responsible for conducting diplomatic 
activities relating to the PSI, including interfacing with foreign 
governments as appropriate to undertake an interdiction. The Department 
of Defense is responsible for developing operational capacity among PSI 
states and undertaking interdictions that involve military assets. 
Interagency communications are well established and continuous. The 
agencies involved include the Departments of State, Defense, Energy, 
Treasury, Commerce, and Justice, multiple components of the Department 
of Homeland Security, and the Intelligence community. Such broad 
interagency cooperation allows the United States to leverage the 
capabilities and resources of these agencies effectively.
    Capacity building and assisting states in developing the political 
will, legal basis, and capability to undertake interdiction and 
prevention actions is a key goal of the PSI. The Department of State's 
Export Control and Related Border Security (EXBS) program is an 
important tool in assisting governments to develop capacity to 
undertake a PSI interdiction. EXBS funds U.S. efforts to work with 
states to strengthen export controls, improve legal and regulatory 
frameworks and licensing processes, develop border control and 
investigative capabilities, improve outreach to industry, and enhance 
interagency coordination.
    In addition, the Preventing Nuclear Smuggling Program (PNSP) 
coordinates the U.S. Government response to nuclear smuggling events 
worldwide and addresses priority antinuclear smuggling needs through a 
combination of international and U.S. financing and assistance 
programs, including proliferation detection and interdiction 
activities.

    Question. I sent a number of our staff to some 20 embassies to look 
at the coordination between the State and Defense Departments in the 
campaign against terror and report back to me their observations and 
recommendations. One of the recommendations is that the Secretaries of 
State and Defense sign a global memorandum of understanding that makes 
explicit the role of the ambassador in overseeing military activities 
in-country. Is this something that you agree should be
pursued?

    Answer. I have reviewed your staff's report and found it quite 
useful. The report highlights a number of very important issues 
regarding our embassies' operations and the relationship between the 
State Department and the Defense Department overseas. I agree with the 
report's emphasis on the need for ambassadors to exercise strong 
leadership and oversight of all activities in their country that fall 
under chief of mission authority.
    Our ambassadors overseas generally have a very good working 
relationship with the combatant commanders in their area in dealing 
with these issues as they arise. As Deputy Secretary of State, I will 
support efforts to ensure that chiefs of mission and combatant 
commanders work effectively together.
    As I understand it, the possibility of developing a global MOU 
between State and Defense to cover in-country military activities has 
been under consideration but no decisions have yet been made on this 
issue. If confirmed as Deputy Secretary, I plan to examine this issue 
in greater detail. But, in the first instance, I will place emphasis on 
the importance of chiefs of mission fully exercising their authorities 
and oversight responsibilities.

    Question. Last year, this committee approved the nomination of 
Ambassador Randall Tobias to be the Administrator of USAID and to serve 
simultaneously as the first Director of Foreign Assistance, a newly 
created position within the Department of State. In this capacity, 
Ambassador Tobias is charged with managing and coordinating U.S. 
foreign assistance programs. What is your assessment of the progress of 
the Office of the Director of Foreign Assistance in achieving these 
objectives? Are further adjustments needed? Will Secretary Rice 
continue to make this a priority for the Department, as part of her 
``transformational diplomacy'' strategy?

    Answer. The Office of the Director of Foreign Assistance is making 
good progress. In the time since it was stood up, the office has 
launched fiscal year 2007 operational planning, a fiscal year 2007 
supplemental, and has prepared the fiscal year 2008 budget. The fiscal 
year 2008 budget is transparent, accountable, and justified. I believe 
that the Secretary will continue to make this a priority for the 
Department as a part of ``transformational diplomacy.'' To ensure 
transformational diplomacy objectives are met, it is essential that we 
ensure that foreign assistance is used as effectively as possible to 
build and sustain democratic, well-governed states. If confirmed, one 
of my priorities will be to become more familiar with the activities of 
the Director of Foreign Assistance, so as to better enable me to 
personally evaluate the effectiveness of this new office.

    Question. I have opposed the granting of authority to the 
Department of Defense to organize and implement its own foreign 
assistance programs. Nonetheless, the Department of Defense has 
received authority from Congress to pursue its section 1206 train and 
equip program, albeit with the ``concurrence'' of the Secretary of 
State. Do you agree that it is preferable that the Secretary of State 
maintain primacy in all foreign assistance programs, even in cases 
where Department of Defense funding is involved?

    Answer. The State Department appreciates the need for select new 
DoD authorities as an essential means of addressing rapidly evolving 
security challenges posed by, among other things, the global war on 
terror. This is particularly true in environments where U.S. forces are 
present. The Secretary has expressed support for such authorities in 
many cases, contingent upon the explicit preservation of her statutory 
role with respect to foreign assistance, through DoD's exercise of 
these authorities ``with the concurrence of the Secretary of State,'' 
and in some cases through joint development procedures. In sum, any new 
authorities should be tailored toward the common goal of providing for 
closer integration of the administration's foreign assistance efforts, 
consistent with the Secretary's responsibility for the overall 
supervision and general direction of U.S. foreign assistance.

    Question. With the Director of Foreign Assistance, Randy Tobias, 
reporting directly to the Secretary, what role will you play in foreign 
assistance planning in countries other than Iraq and Afghanistan?

    Answer. The Director of U.S. Foreign Assistance, who serves 
concurrently as Administrator of USAID, has authority over all 
Department of State and USAID foreign assistance funding and programs 
in all countries and is charged with developing a coordinated U.S. 
Government foreign assistance strategy and directing consolidated 
foreign assistance policy, planning, budget, and implementation 
mechanisms. The consolidation of these foreign assistance authorities 
under a single umbrella has heightened accountability and the alignment 
of activities within countries and across regions, and will ultimately 
make us better stewards of public resources.
    If confirmed as Deputy Secretary, I will have the opportunity to 
work closely with Ambassador Tobias. I am impressed with the work that 
Ambassador Tobias has done with the fiscal year 2008 budget, and, if 
confirmed, I do look forward to our close collaboration.

    Question. Last fall, Secretary Rice created the new position of 
International Energy Coordinator at the State Department. It is an 
action similar to that which Senator Biden and I are calling for in 
legislation, specifically in the Energy Diplomacy and Security Act.
    What authorities in the budget have been given to the new Energy 
Coordinator?
    The Energy Coordinator has been placed below the Under Secretary 
for Economic, Business, and Agricultural Affairs, yet energy and 
environmental programs are also undertaken through the Under 
Secretaries for Political Affairs, Democracy and Global Affairs, and 
Arms Control and International Security. Do you believe that placement 
of the coordinator within EB is sufficient for formulating policy and 
effectively coordinating the programs spread among the jurisdiction of 
these four Under Secretaries?
    Does the Department support passage of the Energy Diplomacy and 
Security Act? If not, why not?

    Answer. The creation of the position of Special Advisor to the 
Secretary and International Energy Coordinator did not impact the 
structure of reporting responsibilities of offices in the Department 
involved in energy policy, and required no new authorities. Resources 
for the Special Advisor to the Secretary and International Energy 
Coordinator are provided by the office of the Under Secretary for 
Economic, Energy and Agricultural Affairs.
    The coordinator reports to the Secretary through the Under 
Secretary for Economic, Energy, and Agricultural Affairs, who is the 
senior State Department official responsible for energy issues. The 
placement of the position is not within EB (now EEB--Bureau of 
Economic, Energy, and Business Affairs). The coordinator provides 
strategic oversight, develops new policy approaches and initiatives, 
and integrates energy issues into the decision making process at senior 
levels of the Department. Toward that end, the coordinator works 
closely with the Department's regional and functional bureaus, and with 
the offices of the other Under Secretaries, to address the multitude of 
foreign policy-related energy challenges we face.
    The administration shares your concerns over energy security and 
also recognizes it to be a priority for U.S. diplomacy and national 
security. The Department appreciates Congressional input into this 
critical area of foreign policy, and we want to continue to work with 
you to accomplish this goal. Though the administration does not yet 
have a formal position on the Energy Diplomacy and Security Act, we 
note that it lays out thoughtful and useful ideas on how to bolster 
energy security, and the Department is already pursuing many of these. 
In addition to the creation of the position of Special Advisor to the 
Secretary and International Energy Coordinator, through the 
Department's efforts the International Energy Agency has
provided China and India access to its meetings to expose them to 
greater market-based energy security mechanisms. The Department has 
chosen to combat the recent wave of resource nationalism in the Western 
Hemisphere indirectly by supporting, interalia, Mexico's Mesoamerica 
energy initiative, which seeks to harmonize Central American 
electricity grids and promote regional economic and energy integration. 
The Department has also increased its public diplomacy efforts in the 
region.

    Question. What are the State Department's priorities for 
international energy activities? Are those priorities shared throughout 
the Department? How do they differ from priorities pursued by other 
agencies in the Federal Government?

    Answer. State's energy priorities rest on three pillars designed to 
further the President's energy agenda: (1) Increase and diversify 
production, sources, types, and security of energy supply and 
infrastructure; (2) manage energy demand growth; and (3) accelerate the 
development and deployment of energy technology. Our approach focuses 
U.S. Government resources, leverages--wherever possible--the capital 
and management talent of the private sector, and targets those geo-
strategic opportunities that will yield the greatest benefit. We are 
engaged in regional efforts to increase cooperation on biofuels 
production and technology in Latin America,
Europe, and Asia. We continue to diversify and increase global oil and 
natural gas supplies in West Africa, North America, and the Caspian. We 
are pursuing an ambitious United States-European Union agenda to 
accelerate the development and deployment of alternative energy 
technology across the Atlantic and into the developing world. We 
continue to engage bilaterally and multilaterally with China and India 
to improve their energy efficiency, accelerate their adoption of 
renewable energy technology, and expand their use of civilian nuclear 
power. We also continue to make progress through the International 
Energy Agency (IEA) toward a cooperative relationship with China on 
emergency response and market-based energy strategies. In addition, we 
have planned nearly 100 collaborative activities with China, India, 
Japan, Korea, and Australia through the Asia-Pacific Partnership on 
Clean Development and Climate.
    Our efforts are coordinated within the Department, and we work 
closely with other agencies, especially the Department of Energy, on 
these initiatives. Our energy priorities are coordinated with and 
consistent with those of other agencies. If confirmed as Deputy 
Secretary, I will ensure that this remains the case and devote further 
senior-level attention to international energy issues.

    Question. Do you believe that current global energy trends pose a 
threat to U.S. national security? If so, do you believe that current 
U.S. programs are sufficient to meet that threat? As Deputy Secretary, 
what would you do to enhance programs related to energy security?

    Answer. From 2003 to 2006, we witnessed unprecedented growth in 
world demand for oil, which, coupled with a lack of world excess 
production capacity, resulted in an increase in the world price of oil 
over the same period. We are starting to see some relief given demand 
growth levels in the OECD. However, high revenues associated with high 
prices have emboldened some producing countries to pursue foreign 
policies that conflict with our national security interests. The 
physical security of critical energy infrastructures is also of 
concern.
    I do believe that current U.S. programs are sufficient to meet 
these concerns. The Secretary has taken important steps to increase the 
Department's focus on energy policy and capacity to address energy 
security concerns. Last October, the Secretary established a new 
position of International Energy Coordinator and Special Advisor to the 
Secretary, reporting through the Under Secretary for Economics, Energy, 
and Agricultural Affairs. The coordinator is working to provide 
strategic oversight, to develop and promote new policy approaches and 
initiatives, and to better integrate energy policy considerations at 
the highest levels of Department decision-making. He is working closely 
with the Department's regional and functional bureaus and other 
agencies involved with energy policy. If confirmed as Deputy Secretary, 
I would maintain the Secretary's emphasis on this issue and seek 
further initiatives to enhance the security of supply as well as the 
investment climate and transparency of oil producers.

    Question. Do you believe the prospect of global climate change 
poses a threat to U.S national security? If so, do you believe that 
current U.S. programs are sufficient to meet the threat? As Deputy 
Secretary, what would you do to enhance programs related to climate 
change?

    Answer. I believe it is critical that our efforts to address 
climate change are undertaken in the context of overall national 
interests, including promoting economic growth and increasing energy 
security, as well as reducing pollution and providing access to energy. 
These objectives affect the security of our people and all nations.
    The United States has a comprehensive set of policies and programs 
in place that generate tangible results in both the short and the long 
term to address climate change at home and abroad, and the United 
States is collaborating with countries around the world in that effort. 
If confirmed as Deputy Secretary, I would work to strengthen that 
cooperation.
    A core element of President Bush's international engagement on 
climate has been an emphasis on the creation and commercialization of 
transformational technologies that will help countries address climate 
change while maintaining economic growth. An example of this is our 
Asia-Pacific Partnership on Clean Development and Climate (APP). APP is 
one of our most important programs because it generates results where 
they matter most--in the countries that are the world's major emitters 
of greenhouse gases. In each APP country, governments and the private 
sector have forged partnerships to develop and deploy clean, efficient 
energy technologies.
    The APP is just one of the many international partnerships that the 
United States has initiated since 2002 to promote development and 
deployment of new, cleaner technologies. They include partnerships to 
collect and reuse methane--a powerful greenhouse gas; to capture and 
safely store carbon dioxide; to develop and deploy clean, safe nuclear 
energy technologies; and to develop cost-effective hydrogen and fuel 
cell technologies.
    In addition, we have launched 15 bilateral climate change 
partnerships with countries and regional organizations that, together 
with us, represent over 80 percent of the world's emissions.
    The United States is also addressing climate change at home. In 
2002, the President set an ambitious goal to reduce the greenhouse gas 
intensity of the U.S. economy by 18 percent by 2012. We have a diverse 
portfolio of policy measures--and results to show for them. Our 
emissions performance since 2001 has been among the best in the OECD.

    Question. Please describe the division of responsibility between 
the Departments of State and Energy in formulating and implementing 
international energy policy. How does the need to reduce our dependence 
on foreign oil for national security reasons get factored into 
interagency discussions on energy? Should the role of the State 
Department in interagency discussions be strengthened?

    Answer. The Department of State is responsible for the foreign 
policy aspects of U.S. energy security. Energy security is inextricably 
linked to foreign policy and State ensures that these aspects are fully 
reflected in the policy making process and in our overseas diplomacy. 
State cooperates very closely in this with the Department of Energy, 
which brings great technical resources and expertise to help formulate 
and implement international energy policy, as well as with other 
agencies on related issues of climate change and sustainable 
development. State is the face of energy policy interaction with the 
governments of most countries through U.S. embassies around the world. 
The Department of Energy works with State in representing United States 
positions in multilateral bodies including the International Energy 
Agency, Asia Pacific Economic Community, Asia Pacific Partnership for 
Clean Development and Climate, and the International Energy Forum, 
among others.
    Interagency discussions of ways to reduce domestic U.S. dependence 
on foreign oil include scientific research and technical and regulatory 
issues, which are largely the purview of the Department of Energy, 
Department of Agriculture, and a number of other domestic agencies. The 
Department of State provides guidance on the international aspects of 
these discussions. The impact of oil imports on U.S. national security 
also depends significantly on reducing oil dependence in other major 
oil consuming countries, as well as on cooperative relations with major 
oil producing countries. These international relationships are areas of 
State lead in close cooperation with the Department of Energy and 
others.

    Question. Do you believe that all present U.S. international energy 
and environment efforts are effectively coordinated within the 
Department of State?

    Answer. Yes. Energy and environmental policies and programs are 
largely managed by the Bureaus of Economic, Energy, and Business 
Affairs (EEB) and Oceans, International Environmental and Scientific 
Affairs with support from the Department's Special Advisor to the 
Secretary and International Energy Coordinator. These actors work 
together closely, permitting the Department to carry out a wide array 
of activities designed to fuel the engine for global development and 
prosperity that is the U.S. economy, while at the same time promoting 
environmental protection and the sustainable use of the world's natural 
resources.

    Question. Do you believe that all present U.S. international energy 
and environment efforts are effectively coordinated within the 
interagency?

    Answer. The interagency community is working more closely together 
than ever in executing the President's energy and environmental 
policies and programs. From the working level to the most senior 
decision makers, representatives of the Departments of State, Energy, 
Treasury, Defense, Transportation, Commerce, Agriculture as well as the 
EPA, USAID, NSC, CIA, Council for Environmental Quality and other 
agencies meet and communicate regularly to coordinate their efforts in 
addressing complex international energy and environmental issues.

    Question. Will the President's call in his State of the Union 
speech for the creation of a civilian response corps be reflected in 
the President's budget for the Office of the Coordinator of 
Reconstruction and Stabilization at the State Department?

    Answer. We are requesting 57 positions in the fiscal year 2008 
budget for the Office of the Coordinator for Reconstruction and 
Stabilization to help regularize current temporary, detailed, and 
contracted staff, and to augment them. This is critical to improve 
State's civilian surge capacity.
    In the State of the Union, the President also called for the 
development of a Civilian Reserve Corps. The corps would provide the 
country with a vital resource--trained civilian experts with skills the 
U.S. Government does not currently have in adequate numbers for 
reconstruction and stabilization efforts, such as police trainers, 
prosecutors, economists, health practitioners, and urban planners--and 
in a way that is more cost-effective and flexible than bringing on 
full-time government employees. How this corps would be designed, 
established, and funded needs to be determined, following close 
consultation with Congress and with key interagency partners.

    Question. The President did not mention the State Department's lead 
role in this effort (the civilian reserve corps)--are alternatives 
being considered?

    Answer. We believe that it is key for the State Department to have 
the lead role in developing this effort, which would follow the 
December 2005 Presidential Directive empowering the Secretary of State 
to improve U.S. Government preparation of, planning for, and conduct of 
post-conflict operations. The State Department's Office of the 
Coordinator for Reconstruction and Stabilization has made progress 
strengthening civilian response capacity, including laying the 
groundwork for a civilian reserve. That said, the administration would 
like to consult closely with Congress on this issue, and welcomes your 
ideas on how to most effectively move this initiative forward.

    Question. Describe the diplomatic efforts taken by the United 
States to prevent an escalation of tension between Turkey and the 
Kurdistan Regional Government of Iraq over Kirkuk and the PKK. Has the 
United States made any inquiries or statements to Turkey about these 
issues? What role is General Ralston playing? How is this being 
coordinated? Is he reporting through the ambassador, or through the 
CENTCOM Commander?

    Answer. General (Ret.) Joseph Ralston, appointed as the Secretary 
of State's Special Envoy for Countering the PKK last August, is leading 
the State Department's diplomatic efforts to fight the terrorist 
Kurdistan Workers Party (PKK). The General is working closely with his 
Turkish counterpart, General Baser, and Iraqi counterpart, Minister al-
Waeli. Since his appointment as Special Envoy, General Ralston has 
traveled repeatedly to the region and has engaged productively with 
both sides.
    General Ralston reports directly to Secretary Rice, but he has also 
coordinated each step of the initiative with officials at the 
Department of Defense, National Security Council, and other Washington 
agencies, as well as our embassies in Baghdad and Ankara. He has kept 
in close touch with both the U.S. European and Central Commands.
    General Ralston has engaged the Turkish and Iraqi Governments as 
well as officials of the Kurdistan Regional Government. His 
conversations have focused on building confidence between Turkey and 
Iraq and obtaining cooperation to fight against the PKK, which is using 
northern Iraq as a base of operations for attacks against Turkey. He 
has not addressed the status of Kirkuk in his conversations. The status 
of Kirkuk is an issue for the sovereign Government of Iraqi, and the 
process for resolving the status of Kirkuk is codified in the Iraqi 
Constitution. That being said, we support all efforts that will lead to 
a peaceful resolution of Kirkuk's future.
                                 ______
                                 

     Responses of John Negroponte to Follow-Up Questions Submitted 
                      by Senator Richard G. Lugar

    Question. Your response to my question on how long the surge will 
need to be sustained included an assertion made by President Bush that 
the Iraqi Government plans to take responsibility for security in all 
of Iraq's provinces by November of this year. This runs contrary to an 
assessment of the intelligence community, which stated: ``Iraqi 
society's growing polarization, the persistent weakness of the security 
forces and the state in general, and all sides' ready recourse to 
violence are collectively driving an increase in communal and insurgent 
violence and political extremism. Unless efforts to reverse these 
conditions show measurable progress during the term of this estimate, 
the coming 12 to 18 months, we assess that the overall security 
situation will continue to deteriorate at rates comparable to the 
latter part of 2006.''
    In light of the NIE, how long do you estimate that surge level 
reinforcements are going to be needed in Iraq? How does this affect 
your civilian manning estimates?

    Answer. There are four major factors that the Multinational Forces-
Iraq (MNF-I)--Iraqi Joint Committee for Transfer of Security 
Responsibility (JCTSR) takes into consideration when recommending 
whether or not a province/city transfers to Provincial Iraqi Control 
(PIC)--the security situation is one of these factors, but there are 
other factors as well, such as the capacity of provincial governments 
to deliver services. All must be viewed together and weighted according 
to the situation in that province. The final decision on transfer is 
made by the Iraqi Prime Minister via the Ministerial Committee for 
National Security.
    The four factors are: (1) Provincial threat assessment; (2) Iraqi 
Security Forces capability assessment; (3) Iraqi Provincial Governance 
assessment; and (4) MNF-I capability to support the ISF and respond to 
requests for assistance.
    This is the process that has led to the transition of three 
provinces (Muthanna, DhiQar, and Najaf) from MNF-I control to 
Provincial Iraqi Control over security. We expect other provinces will 
follow this same process.
    The end date for the surge is dependent upon the security situation 
on the ground in Iraq and will be determined by the President in 
consultation with General Petraeus and his military commanders. 
Civilian manning is only partly driven by the surge; we continue to 
plan for a civilian presence in Provincial Reconstruction Teams for as 
long as there is a demonstrated need, cooperation from the Iraqi 
Government, and funding from Congress.

    Question. Is part of a PRT's function to empower moderate political 
forces in the provinces? As we look to possible provincial elections in 
2007, do we have a sense of what political sea changes will be 
solidified? While they are provided for under the Iraqi constitution, 
is this something we are advocating, as well as prepared to support 
with financial and logistical resources?

    Answer. A core objective of the President's new strategy is to 
empower moderates, defined as those Iraqis who renounce violence and 
pursue their interests peacefully, politically, and under the rule of 
law. The expanded PRT program will be central to that effort. PRTs will 
support local, moderate Iraqi leaders through targeted assistance, such 
as microloans and grants to foster new businesses, create jobs, and 
develop provincial capacity to govern in an effective, sustainable 
manner.
    Provincial elections provide another key means of empowering local 
leaders and ensuring more representative local government. It is too 
early to say what political trends or changes will solidify in the 
lead-up to those elections. However, we support the idea of holding 
provincial elections later this year, and will continue to target our 
assistance toward the development of the necessary institutions. To 
that end, the President's 2007 supplemental and 2008 budget includes 
requests for continuation and expansion of existing democracy programs, 
implemented by the National Democratic Institute and the International 
Republican Institute and new programs such as the National Institutions 
Fund, the Political Party Participation Fund, and media reform 
programs, as well as for programs to support civic advocacy and 
democratic development activities, business associations, labor unions, 
and other political actors. The central goal of all these efforts will 
be to empower moderates and counter the destructive influence of 
extremists who are using violence to achieve their aims.

    Question. This fails to provide an understanding about what the MoD 
is capable of now, or when such a program will be put in place. One of 
our concerns is our ability to oversee these transfers in a traditional 
fashion. How can the information flow about training and equipping be 
improved? Please be specific and cite examples.

    Answer. The Multinational Security Transition Command-Iraq (MNSTC-
I) is working with the Government of Iraq to move toward a traditional 
bilateral security assistance relationship. A critical part of this 
transition is Iraqi participation in the Foreign Military Sales (FMS) 
system which began in earnest in 2006 when the Iraqis committed over 
$2.34 billion of Iraqi national funds to support procurement of 
equipment for the Iraqi armed forces. The information flow on equipment 
for the Iraqi security forces procured through FMS has already begun, 
such as with the congressional notification of the sale of a $250 
million logistic support package for helicopters, vehicles, and weapons 
in September 2006. In December, congressional notification was made for 
the sale of 522 High Mobility Multipurpose Wheeled Vehicles (HMMWV), 
light armored vehicles, light utility and cargo trucks for an estimated 
cost of $463 million. However, due to the urgency of the Iraqi Security 
Forces requirements, neither of the sales were included in the calendar 
year 2006 Javits report due to the time criticality of the events. 
Similarly, the 20-day notification requirement is occasionally waived 
to expedite the sale of U.S. manufactured material. During his 
nomination hearing, General Petraeus stated his intent to increase the 
information flow to Congress regarding the training and equipping of 
Iraqi security forces through monthly briefing updates. As Iraqi 
procurement practices mature and the security environment improves a 
more normal processing of FMS cases should be possible. For further 
details regarding the training and equipping of the ISF, the State 
Department defers to the Department of Defense.
                                 ______
                                 

          Responses of John Negroponte to Questions Submitted 
                        by Senator Norm Coleman

    Question. Hmong graves issue: A large group of Hmong refugees 
living in the ground of the Wat Tham Krabok in Thailand were recently 
resettled in the United States, including about 5,000 in Minnesota. The 
U.S. Government did, in my opinion, the right and honorable thing in 
finding a home for the living members of the Hmong community in Wat 
Tham Krabok. Now we need to treat the deceased members of this 
community in a similarly honorable fashion.
    For some time, the Thai Government has been exhuming and cremating 
these bodies. While I understand the Thais supposedly have health 
concerns relative to these bodies, the current situation is not 
tenable. The Thais have reportedly offered to transfer bodies to their 
family members (for a fee), but these are refugees who cannot travel, 
there are problems with identifying bodies, and it is not difficult to 
imagine disputes over bodies. Cremation is also a big problem from a 
Hmong cultural standpoint. Unfortunately, it is difficult to chart a 
path forward. One possibility would be for the Hmong community in the 
United States to coalesce behind a group of individuals who could 
travel to Thailand in their name and relocate the remaining bodies to a 
more agreeable location.
    If confirmed, will you work with me, the Hmong community, and the 
Government of Thailand to resolve this matter in a culturally 
respectful manner?

    Answer. I look forward to working with you to resolve this matter. 
The State Department was made aware of the exhumation and cremation of 
Hmong remains bur-
ied in the Wat Tham Krabok in Thailand and subsequently took steps to 
help resolve this matter. The U.S. embassy was first informed of this 
situation in November 2005, by which time most of the exhumations had 
already taken place. Nonetheless, the United States embassy in Thailand 
reached out to the Royal Thai Government to explain the concerns of the 
United States Hmong community and to encourage a mutually agreeable 
solution. We understand that the Thai authorities, including temple 
officials, are willing to work with the families of the deceased that 
wish to claim exhumed remains that have not yet been cremated. If 
confirmed, I will continue the State Department's efforts to work with 
all interested parties to reach a mutually acceptable solution.

    Question. Restoration of democracy to Thailand: On a somewhat 
related note, 14 years of democratic rule in Thailand came to an end 
last September with a military coup. The military-installed government 
insists that it is committed to restoring democracy, but it continues 
to impose martial law in much of the country, restrict press freedom, 
and limit activity by political parties.
    Are you satisfied that the military government is moving fast 
enough to restore democracy? Are you considering any additional 
measures to encourage the government to move faster to restore 
democracy?

    Answer. The Thai interim government continues to take concrete 
steps to restore democracy, although the pace of lifting martial law 
has been more deliberate than we would like. The senior Thai military 
leader reiterated in an interview with western journalists on January 
31 the leadership's strong commitment to hold democratic elections 
before year's-end, which we welcome. Nonetheless, the State Department 
and our embassy continue to urge Thai authorities to move as 
expeditiously as possible to return Thailand to democratic rule, 
including full restoration of civil liberties.
    In immediate response to the September 19 coup, the U.S. Government 
suspended $29 million in bilateral assistance to Thailand and continues 
to carefully review all significant interactions with Thailand, 
including military exercises, on a case-by-case basis. In discussions 
with the Thai Government, we continue to strongly emphasize that a full 
restoration of bilateral relations, to the excellent levels we enjoyed 
prior to the coup, is contingent upon Thailand's quick return to 
democracy. If confirmed, I will emphasize the importance of restoring 
democracy in Thailand.

    Question. Recent events in East Africa have created a window of 
opportunity to bring security and humanitarian relief to the 
impoverished and war-weary people of Somalia.
    If confirmed, how will you seek adequate troops to replace the 
Ethiopians who currently occupy the capital?
    What steps must the United States take to foster political 
stability and how will you implement a strategy for Somalia if 
confirmed as Deputy Secretary of State?
    Our ability to craft a productive Somalia policy is limited by the 
lack of a United States ambassador in Mogadishu. I have called for the 
appointment of a special envoy. Will you dedicate State Department 
resources to day-to-day management of this situation?

    Answer. The rapid deployment of an African stabilization force in 
Somalia is one of three priority United States initiatives in Somalia. 
While supporting efforts to achieve rapid deployment of this 
stabilization force, the United States continues to encourage a process 
of inclusive political dialog between the leadership of the 
Transitional Federal Government (TFG) and other key Somali 
stakeholders, as well as to work with its international and regional 
partners to mobilize donor assistance to help build the governance 
capacity of the TFG.
    Our most immediate objective is to stabilize the situation in 
southern Somalia and help establish a secure environment for political 
dialog through the deployment of an African stabilization force to 
Somalia. Uganda has offered to deploy 1,500 troops to Somalia pursuant 
to United Nations Security Council Resolution 1725. The African Union 
(AU) is also planning for a broader AU Mission in Somalia (AMISOM), 
which was approved by the AU Peace and Security Council (PSC) on 
January 19, and is actively engaged in seeking additional troop 
contributions for this effort. In January, Kenyan Foreign Minister 
Raphael Tuju traveled to several African countries to explore 
additional troop contributions. Following the recent African Union 
Summit in Addis Ababa, other African countries, including Ghana, 
Nigeria, and Burundi expressed a desire to offer troops. The United 
States is actively supporting this effort. We have made $10 million 
available immediately to provide airlift and equipment for the Ugandan 
deployment and we are taking steps to make additional resources 
available.
    Most important is the path to peace, reconciliation, and stability. 
The key to long-term stability in Somalia now lies in a process of 
inclusive dialog and reconciliation. To a great extent, the ability to 
achieve reconciliation will be determined by the willingness of the TFG 
leadership to reach out and create an inclusive political process. As 
part of the administration's strategy to promote political stability in 
Somalia, the United States continues to urge the TFG leadership to move 
forward with a process of political dialog leading to a sustainable 
political solution and the formation of an inclusive government of 
national unity based on the framework of the Transitional Federal 
Charter. If confirmed as Deputy Secretary of State, I will ensure that 
the United States' strategy for Somalia continues to emphasize the need 
for a lasting political solution and that United States representatives 
are actively engaged in supporting a Somali-led process of inclusive 
dialog.
    Adverse security conditions currently prevent the establishment of 
a full-time United States diplomatic presence or any formal 
international diplomatic presence inside Somalia; however, the United 
States continues to engage with Somali interlocutors through the United 
States embassy in Nairobi, Kenya, which is responsible for United 
States engagement in Somalia. If confirmed as Deputy Secretary of 
State, I will seek dedicated resources to support effective United 
States engagement in Somalia.

    Question. One of my constituents, Ms. Bree Schuette, has been 
fighting a custody battle with her former husband, a Russian citizen, 
Mr. Mikhail Yurievitch Slobodkine. After many years of abuse and the 
death of their son under mysterious circumstances, Ms. Schuette fled 
Russia for the United States, leaving behind her daughter, Veronika, a 
dual Russian/American citizen. On April 29, 2005, Ms. Schuette won from 
Russian courts full custody and place of living for Veronika, and the 
custody decision was upheld by the Russian Appeals Court in August 
2005. Despite all of Ms. Schuette's legal victories, her rights under 
Russian law continue to be violated. Mr. Mikhail Yurievitch Slobodkine, 
Veronika's father, has refused to obey the court order and give up 
Veronika. Ms. Schuette has not seen Veronika in 2 years, and her ex-
husband has essentially vanished with the child, possibly to the 
Volograd region. Monday was Veronika's seventh birthday.
    If confirmed as Deputy Secretary of State, will you raise this case 
with appropriate Russian officials and press them to seek the return of 
Veronika to her mother?

    Answer. Yes, if confirmed, I will pursue this case with appropriate 
Russian officials. Senior United States Government and State Department 
officials, including Attorney General Gonzales, Ambassador William 
Burns, Assistant Secretary Harty, and the Principal Officer in St. 
Petersburg have raised this case with the Russian Government on 
repeated occasions. We will continue to press the Russian authorities 
to locate Veronika and enforce the Russian court order awarding custody 
to Ms. Schuette.

    Question. Due to the military engagement last summer, the United 
States embassy in Lebanon remains backlogged in its consular section. 
Because of instability last summer, many relatives petitioned for 
immigrant visas. Their petitions are now approved, but not scheduled. 
My understanding is that the consular section is fully scheduled for 
the entire month of February and still has 400 cases in the queue for 
an appointment. With the continuing potential for instability in that 
region, we would be well advised to work through this backlog in the 
near-term, so we can assuage families who have done everything 
according to the rules so far.
    How does the State Department intend to work through this visa 
backlog at the United States embassy in Beirut?

    Answer. The consular section in Beirut has been working hard to 
address the backlog of immigrant visa cases in the queue. Between 
September and the end of 2006, Embassy Beirut successfully reduced the 
immigrant visa appointment backlog by nearly half. At the same time, 
the embassy also eliminated the 2-month build-up of missed appointments 
caused by the suspension of services during the war.
    Recent changes in the immigrant visa process will likely allow 
Embassy Beirut to permanently increase its appointment capacity by 25 
percent. Based on current workload assumptions, we anticipate 
eliminating the backlog of cases held domestically at the National Visa 
Center within approximately 12 weeks. Once cases arrive in Lebanon, 
they should be processed in a matter of weeks. We are hopeful that 
Lebanon will be current in its processing of IV cases by the summer. I 
will be sure to look into this situation again after I am confirmed.
                                 ______
                                 

          Responses of John Negroponte to Questions Submitted 
                        by Senator Barack Obama

    Question. Why isn't the State Department advocating a tougher 
approach to reducing mercury contamination around the world?

    Answer. The United States is advocating a partnership approach that 
we believe fosters the most effective use of human and financial 
resources to address risks associated with international mercury 
pollution. We believe that partnerships are a positive and effective 
way to engage countries that might otherwise be unresponsive to 
approaches that put them immediately on the defensive. Partnerships 
enable us to tailor our approach to immediate problems in priority 
areas and countries and achieve near-term results. In our view, 
partnerships are more practical and effective than protracted treaty 
negotiations that may or may not produce future results--but impose 
significant opportunity costs here and now.

    Question. The European Union has committed itself to stop selling 
mercury by 2012; would you support the United States adopting a similar 
ban on mercury sales abroad?
    Answer. The issue of a ban on mercury sales abroad is multifaceted, 
and we need to know more than we do today about the potential impacts, 
particularly the unintended impacts, of such a ban. For example, those 
who support an export ban argue that it would increase the price of 
mercury and thereby decrease demand, particularly in developing 
countries. Others argue that a ban on exports could lead to an increase 
in primary mining of mercury in developing countries, whereas United 
States mercury exports come from environmentally preferable sources 
(recycled mercury or mercury obtained as a by-product from mining other 
metals such as gold). Still others are concerned that long-term storage 
options for quantities of mercury from decommissioned chlor-alkali 
plants and State recycling programs have not yet been adequately 
addressed, such that an export ban now would not be pragmatic.
    Any effort to restrict trade in commodity mercury thus should 
carefully consider all potential impacts so that conditions among the 
world's most vulnerable populations are not exacerbated. We believe 
that further study is needed of the potential impacts, particularly 
unintended impacts, of such a ban, and that the issue of long-term 
storage needs to be addressed.

          Responses of John Negroponte to Questions Submitted 
                     by Senator George V. Voinovich

    Question. When you were in the office, we talked about management. 
And I have another hat that I wear; I'm now ranking member of the 
oversight of Government management and the Federal workforce. And the 
fact of the matter is that we have been receiving--and I think Senator 
Lugar made reference to it in his opening statement--we've got some 
tremendous management problems today in the State Department. And for 
the record, I would like to have the record of the last 2 years in 
terms of retirement, in terms of key positions that are out--open and 
not filled.
    I remember when Colin Powell took over. He talked about the team. 
He really instilled some new esprit de corps in the Department, and 
from what I understand right now it's sagged quite a bit. And I'd just 
like to know from you, in terms of the role that you've been asked to 
play, what you're going to do about trying to get a handle on that and 
see if we can't quiet things down and stabilize it and bring back the 
feeling in the Department so that we just don't keep hemorrhaging as we 
have in the past.

    Answer. Following, per your request, is a list of key personnel 
vacancies at the State Department. As I noted during my confirmation 
hearing, filling these vacancies will be a personal priority and I look 
forward to working with the Secretary, Congress, and the White House on 
this issue.
------------------------------------------------------------------------
            Position                    Vacated             Status
------------------------------------------------------------------------
Deputy Secretary of State.......  June 2006.........  Deputy Secretary
                                                       Designate
                                                       Negroponte had
                                                       his hearing on 1/
                                                       30/07; awaiting
                                                       confirmation.
Coordinator for Counterterrorism  Jan. 2007.........  Vacant.
 (S/CT).
Under Secretary for Arms Control  Feb. 2007.........  White House has
 and International Security                            announced intent
 Affairs (T).                                          to nominate John
                                                       Rood.
Assistant Secretary Political-    Jan. 2007.........  Vacant.
 Military Affairs (PM).
Ambassador-at-Large To Combat     Dec. 2006.........  Vacant.
 Trafficking in Persons (G/TIP).
Permanent Representative to the   Dec. 2006.........  White House has
 United Nations.                                       announced intent
                                                       to nominate
                                                       Ambassador Zalmay
                                                       Khalilzad.
------------------------------------------------------------------------

    And I think some of this is simply part of a normal rotational 
cycle that will happen during the course of any 8-year administration, 
Senator.
    But as far as how I visualize my own role in the Department, I 
think I can be of assistance to the Secretary in helping lead the 
Department, both here in Washington and abroad--the Foreign Service. I 
would like to think that one particular strength I can bring to the 
Department is my knowledge of how the Foreign Service works and my 
relationships with many Foreign Service officers. So I would like to 
build on that and strengthen the sense of satisfaction and enthusiasm 
for the work that they are doing, and I want to be supportive to the 
Secretary in her efforts to carry out this transformational diplomacy 
that we were talking about earlier.
                                 ______
                                 

          Responses of John Negroponte to Questions Submitted 
                          by Senator Jim Webb

    Question. Is it the position of this administration that it 
possesses the authority to take unilateral action against Iran, in the 
absence of a direct threat, without congressional approval?

    Answer. In the President's January 10 address to the Nation on The 
New Way Forward in Iraq, he made clear that Iran was providing material 
support for attacks and interrupting the flow of support from Iran and 
Syria and that such action is unacceptable. The President also noted 
our intention to seek out and destroy the networks that are providing 
the advanced weaponry and training that threaten our forces in Iraq.
    The administration believes there is clear authority for United 
States operations within the territory of Iraq to prevent further 
Iranian-supported attacks against United States forces operating as 
part of the Multinational Force-Iraq (MNF-I) or against civilian 
targets. Such attacks directly threaten both the security and stability 
of Iraq and the safety of our personnel; they also continue to 
undermine the region's security and stability. United States military 
operations in Iraq are conducted under the President's constitutional 
authority and the Authorization for Use of Military Force Against Iraq 
Resolution of 2002 (P.L. 107-243), which authorizes the use of armed 
force to defend the national security of the United States against the 
continuing threat posed by Iraq and to enforce all relevant United 
Nations Security Council resolutions regarding Iraq. The United Nations 
Security Council has authorized all necessary measures to contribute to 
the maintenance of Iraq's security and stability, which encompasses 
MNF-I conducting military operations against any forces that carry out 
attacks against MNF-I or Iraqi civilian and military targets.
    This question asks what authority might be relevant in connection 
with a hypothetical military operation in Iran. As the administration 
has said, we are not planning to invade Iran. For over 2 years, we have 
actively pursued a diplomatic strategy to address Iran's nuclear 
program, and we remain committed to resolving our concerns with Iran 
diplomatically. Of course, the Constitution charges the President to 
protect the United States and the American people. As Commander in 
Chief, he must be able to defend the United States, for example, if 
U.S. forces come under attack. Whether and how to do so in any specific 
situation would depend on the facts and circumstances at that time. 
Administration officials communicate regularly with the leadership and 
other Members of Congress with regard to the deployment of U.S. forces 
and the measures that may be necessary to protect the security 
interests of the United States and will continue to do so.

    Question. Do you agree with Under Secretary of State Burns that the 
United States is ``upping the ante'' to send a message to Iran with the 
President's military deployments?

    Answer. The United States remains committed to a diplomatic 
solution in the standoff with the Iranian regime, and we continue to 
call upon the regime to fully and verifiably suspend all nuclear 
enrichment and reprocessing activities as a precursor to direct talks. 
The passage of United Nations Security Council resolutions 1696 and 
1737 reflects our efforts to encourage international diplomatic 
cooperation in applying pressure on the Iranian regime to change its 
destabilizing behavior. Together with our partners in the international 
community, we have moved against Iranian banks that are aiding the 
proliferation of weapons of mass destruction and financing terrorism.
    Likewise, in response to Iran's threatening behavior in the region, 
as evidenced by Tehran's call for the complete destruction of Israel 
and its support for Hizballah, Hamas, and Iraqi militant groups, we 
have moved a second carrier battle group into the gulf. Our regional 
allies support this move, which is not to provoke the Iranian regime, 
but to reinforce a longheld United States foreign policy objective: 
gulf security. Our expanded military presence in the gulf helps ensure 
the free flow of oil and other resources, protects our interests in 
Iraq, reassures our regional allies, and helps stabilize the Middle 
East.
    We are also responding to illegitimate and destabilizing Iranian 
action in Lebanon and Iraq, and calling attention to Iran's involvement 
in multiple terrorist attacks across the globe. These various steps are 
all fully integrated components of our often stated ``priority to 
diplomacy'' policy in dealing with the threat Iran poses.

    Question. Does the United States have a concerted strategy to make 
Iran suffer consequences for its actions?

    Answer. Our strategy with Iran is aimed at pressuring the regime 
to: (1) Abandon its pursuit of nuclear weapons; (2) end support for 
terrorism; (3) end destabilizing activities in Lebanon, Afghanistan, 
Iraq, the Palestinian territories, and throughout the Middle East; and 
(4) respect the rights of its citizens who would like to see greater 
democratic freedoms. Our most urgent task lies in curbing the regime's 
nuclear ambitions.
    On June 6, 2006, China, France, Germany, Russia, the United Kingdom 
(U.K.), and the United States presented Iran with a generous package of 
incentives providing economic, political, and technological benefits 
for the Iranian people following a successful conclusion of 
negotiations aimed at resolving international concerns regarding Iran's 
nuclear program. Equally significant, Secretary of State Rice announced 
on May 21, 2006, that the United States would join our European allies 
in directly engaging the Iranian regime if it verifiably suspended its 
uranium enrichment-related and reprocessing activities. In announcing 
this offer, Secretary Rice also reaffirmed the United States' support 
for the Iranian people's right to enjoy the benefits of peaceful, civil 
nuclear energy. The Iranian regime, however, rejected this historic 
opportunity to reintegrate into the international community, and has 
instead continued along a path of confrontation and isolation by 
refusing to abandon its pursuit of nuclear weapons.
    Following Iran's failure to comply with UNSCR 1696, which required 
that Iran suspend all enrichment-related and reprocessing activities by 
August 31, 2006, the United States engaged in several months of 
consultations with the other permanent members of the Security Council 
and Germany, which culminated in the unanimous passage of UNSCR 1737 on 
December 23, 2006. Resolution 1737 requires Iran to suspend its 
proliferation-sensitive activities and cooperate fully with the 
International Atomic Energy Agency (IAEA) to resolve all outstanding 
issues related to its nuclear program. It imposes sanctions under 
article 41 of chapter VII of the U.N. Charter and obligates member 
states to freeze assets of several entities and individuals who are 
listed in the resolution's annex due to their association with Iran's 
nuclear and/or missile programs. We are working with other nations--
including the U.K., France, Germany, India, Egypt, Brazil, Japan, and 
Australia--to promote and ensure swift implementation and monitoring of 
UNSCR 1737. The IAEA Director General will report back to the UNSC by 
February 21, 2007, regarding Iran's compliance with UNSCR 1737. 
Following receipt of his report, the UNSC may pursue additional chapter 
VII actions directed at the Iranian regime if it is found to be in 
continued noncompliance.
    Outside of the United Nations, we are also increasing pressure on 
Tehran. In November 2006, we successfully convinced the IAEA Board of 
Governors to reject an Iranian-requested technical cooperation project 
that may have aided its construction of a heavy-water research reactor 
at Arak capable of producing significant quantities of high-quality 
plutonium.
    As part of our efforts to stymie Iranian progress toward improved 
ballistic missile delivery and other military capabilities, we are 
taking measures to strongly enforce the Iran, North Korea, and Syria 
Nonproliferation Act (INKSNA).
    Efforts to block Iranian access to the international financial 
system are perhaps our best tool for pressuring the regime. Under 
Executive Order 13382, the United States has designated 11 individuals 
and entities associated with Iran's weapons of mass destruction (WMD) 
and missile programs. Once designated, entities cannot conduct business 
in U.S. dollars and assets currently held by U.S. banks are frozen. 
Citing ties to WNID proliferation activities, the Department of the 
Treasury has also used domestic authorities to terminate the access of 
Iran-based Bank Sepah and Bank Sepah International to the U.S. 
financial system.
    The international community has affirmed that an Iranian nuclear 
weapons capability is unacceptable. As we go forward, we will seek to 
maintain international consensus regarding the steps that Iran must 
take to comply with its obligations.

    Question. Do you agree that by taking such actions in the Persian 
Gulf, the United States creates conditions that are dangerously 
unpredictable?

    Answer. Our current and any future actions in the gulf do not and 
will not create conditions that are dangerously unpredictable. It is 
precisely the Iranian regime's behavior that creates instability and 
unpredictability in the region. The U.S. presence in the region is seen 
by all the gulf countries as stabilizing, as shown by their manifold 
concrete support for our military presence. Our policy of supporting 
gulf security has been a cornerstone of our Middle East engagement for 
over six decades, and the Iranian regime must understand that it cannot 
destabilize the region without a reaction from moderate Arab states and 
the United States.

    Question. Would it not be preferable for the United States to carry 
out its diplomatic initiatives beyond today's half measures by seeking 
a broader international diplomatic resolution of the war in Iraq that 
would include participation by all nations in the region, including 
Iran and Syria?

    Answer. We encourage all of Iraq's neighbors to act responsibly in 
supporting and assisting the Iraqi Government. To that end, we continue 
to call on Iran and Syria to suspend their destabilizing activities. 
Unfortunately, we have seen no evidence indicating that they wish to 
play a responsible role. Like Iraq's other neighbors, Iran and Syria 
must respect the sovereignty and territorial integrity of Iraq and act 
in a manner that supports a stable and democratic future for the Iraqi 
people. We support Iraqi direct dialog with Damascus and Teheran--
focused on building relationships based on the principle of full 
respect for Iraqi sovereignty and support for a peaceful, stable Iraq.
    We have made many efforts in the past to engage the Syrian 
Government. Former Secretary Powell visited Damascus in May 2003 to 
discuss post-conflict Iraq. Following that, in September 2004, then-
Assistant Secretary of State for Near Eastern Affairs, William Burns, 
met with President Asad; former Secretary Powell met again with then-
Syrian Foreign Minister Shara'a at the UNGA in late September and in 
Sharm el Sheikh in November 2004; and former Deputy Secretary Armitage 
visited Damascus in January 2005. In each of these efforts, the Syrians 
promised to take action against the flow of foreign fighters into Iraq, 
end its support for former regime elements living in Syria, and end its 
sponsorship of terrorism. We have yet to see any response to our 
efforts to engage in the last 4 years, and believe this track record 
does not demonstrate Syria to play a positive role in the region.
    The President made clear in his January 10 speech to the American 
people on the administration's New Way Forward in Iraq, that Iranian 
support to armed groups who want to harm United States forces and 
perpetrate violence in Iraq would not be tolerated. The President also 
noted our intention to seek out and destroy the networks that are 
providing the advanced weaponry and training that threaten our forces 
in Iraq, including those involving Iranian assistance. As well, during 
recent meetings in Saudi Arabia, Egypt, and Kuwait, regional partners 
expressed their strong concern over the growth of negative Iranian 
involvement in Iraq and al-Qaeda terror.
    We are actively pursuing a comprehensive diplomatic strategy to 
address Iran's nuclear program and destabilizing activities throughout 
the region. As the President, Secretary Rice, and other senior 
officials have publicly stated, we are committed to resolving our 
concerns with Iran diplomatically, but have yet to see the same 
commitment by Iran.
                                 ______
                                 

          Responses of John Negroponte to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. How do you see your role as Deputy Secretary? Have you 
discussed your role with the Secretary? How do you expect to divide 
your time between organizational and policy issues? Are there specific 
issues or regions on which the Secretary expects you to take a lead 
role?

    Answer. If confirmed as Deputy Secretary of State, I will assist 
Secretary Rice in the conduct of U.S. foreign policy and function as 
the Chief Operating Officer of the Department. The Deputy Secretary 
position has many varied responsibilities, including administrative 
oversight of the Department, coordination and supervision of U.S. 
Government activities overseas, representing the Department's position 
before Congress, and managing key foreign policy issues on the 
Secretary's behalf. How I might divide my time among these 
responsibilities would depend on the circumstances and most pressing 
issues of the moment, but I expect to focus on all of these critical 
areas.
    In my discussions with Secretary Rice, we also have discussed the 
need for me to devote considerable time and effort to the 
implementation of our policies in Iraq. In my previous assignment 
before becoming Director of National Intelligence, I volunteered to 
serve as United States Ambassador to the newly sovereign Iraq because I 
believed--and still believe--that it is possible for Iraq to make a 
successful transition to democracy. Failure in Iraq would be a disaster 
for the Iraqis, for our friends in the region, and for the United 
States. I anticipate devoting a considerable amount of time to this 
complex, challenging, and vital national security issue, if confirmed 
as Deputy Secretary of State.
    If confirmed, I would hope that, in addition to Iraq, I could make 
a strong contribution to our foreign policy in those parts of the world 
where I have spent the most time in my career--Asia and Latin America. 
The Secretary and I have specifically discussed my taking 
responsibility for diplomacy related to security in North Asia and for 
our political dialog with China. We have also talked about how I could 
help her advance our agenda in this hemisphere. Moreover, I expect to 
help Secretary Rice promote America's economic, business, and energy 
interests overseas as well as the transformational diplomacy that is 
the cornerstone of her leadership at the Department of State.

    Question. Based on your extensive experience in the State 
Department, what initiatives do you believe are necessary to improve 
management at the Department?

    Answer. As a career Foreign Service officer, I am intimately aware 
of the sacrifices and benefits of Foreign Service life. A Foreign 
Service career is much more than a 9 to 5 job; it's a commitment to 
devote your life, and that of your family, to advancing U.S. interests 
abroad. The same principle holds true for the Department's dedicated 
civil service employees and the 37,000 locally employed staff in U.S. 
missions overseas, many of whom work for the U.S. Government at great 
personal risk.
    This level of commitment and sacrifice from employees requires an 
absolute pledge from the Department's senior leaders to support and 
defend the needs and interests of State Department personnel. As Deputy 
Secretary, I will reinforce the Secretary's efforts to bolster the 
Department's resources and secure the funding we need to train, 
protect, and reward our employees. Our highest priority should be 
taking care of our people.
    In particular, I look forward to working with the Congress and the 
White House to minimize vacancies in senior positions at the 
Department. While some vacancies are an inevitable result of our 
nomination system and political cycles, the number and length of those 
vacancies should be kept to a minimum.

    Question. During President Bush's first term, Secretary Rumsfeld 
and the Department of Defense were widely perceived as having played a 
prominent, if not dominant, role in shaping U.S. foreign policy in 
critical areas. Do you believe there has been a significant expansion 
of the role played by the Defense Department in foreign policy? If so, 
what impact do you believe this has had on the conduct of U.S. foreign 
policy? How would you help Secretary Rice in ensuring that the State 
Department takes the lead on important foreign policy issues?

    Answer. We are at a critical juncture in our foreign relations with 
key and potential allies, faced with challenges in all corners of the 
world from terrorists and insurgents. All agencies of the U.S. 
Government are working together to best meet these challenges. 
Bureaucratic barriers between agencies do not serve our interests, and 
collaboration between U.S. agencies on planning, budgeting, and 
operations results in stronger foreign relations overall. In this 
regard, the Defense Department has an important role to play in the 
development of our national security policy and on our interactions 
with foreign governments, although the Secretary of State is the 
President's lead advisor on the development and execution of U.S. 
foreign policy and the cabinet official responsible for the day-to-day 
conduct of U.S. foreign relations.
    Having said that, in my last two assignments as Ambassador to Iraq 
and as Director of National Intelligence, I developed excellent working 
relationships with the Pentagon and the uniformed services. If 
confirmed, I expect to build on my extensive past experience in dealing 
with the Department of Defense.

    Question. What steps is the administration planning to take to 
address the continued conflict in Darfur? Has the administration begun 
to implement the so-called ``Plan B'' that the special envoy to Sudan 
described to committee members last year? What exactly does Plan B 
entail? Do other partners in the international community support this 
plan?

    Answer. One of the top diplomatic priorities of the United States 
in Africa is the peaceful end to the conflict and humanitarian crisis 
in Darfur. Part of our strategy is the rapid transition of the African 
Union Mission in Sudan to a more robust U.N./A.U. hybrid peacekeeping 
operation in Darfur. Such a force is vital to our effort to stabilize 
the security situation, ensure access for humanitarian assistance, and 
protect internally displaced persons and refugees. There are also 
ongoing discussions about complementary U.N. peacekeeping forces in 
Chad and the Central African Republic to protect refugees and other 
civilians. We are working closely with our partners in the A.U., U.N., 
and especially with those with influence on Sudan such as Egypt, 
Russia, China, and the E.U., to support the U.N. effort. The special 
envoy to Sudan recently traveled to China to explain the United States' 
position on Darfur and to encourage the Chinese to use their influence 
to stop the atrocities.
    We are also working actively to bring those rebel groups that did 
not sign the May 2006 Darfur Peace Agreement into negotiations to join 
an enhanced agreement. In doing so, the special envoy recently traveled 
to Chad where he met with many rebel leaders from varying parties, 
heard their views, and pushed for their united participation in a 
peaceful political process led by the U.N. and the A.U.
    On peacekeeping in Darfur, we have been pressing Sudan and the A.U. 
to finalize agreement with the U.N. on the three-phased peacekeeping 
plan reached on November 16, 2006 in Addis. On December 23, 2006, the 
U.N. began implementation of the U.N. light support package to the 
African Union Mission in Sudan (phase I). The A.U. and U.N. have 
reached agreement on the elements of the heavy support package (phase 
II), and have sent a letter to President Bashir requesting his full 
cooperation for the deployment. Detailed discussions between the A.U. 
and U.N. on the modalities for the hybrid force are ongoing. We are 
encouraging all the parties to move rapidly, and are reaching out to 
encourage countries to contribute personnel and troops to these 
efforts.
    If, however, we determine that the regime in Khartoum is 
deliberately acting to prevent peace from being achieved in Sudan, 
including efforts to delay or otherwise deter implementation of the 
Addis Agreements, we will adopt a more coercive course of action. We 
cannot discuss Plan B publicly, but Andrew Natsios, the President's 
special envoy to Sudan, would be happy to meet with you to discuss the 
plan privately. Our goals remain the deployment of a robust U.N./A.U. 
hybrid force with the authority to use force to protect civilians, the 
achievement of a peaceful political process that ultimately brings all 
rebel groups into the Darfur Peace Agreement (DPA), and continued 
access for necessary humanitarian work.

    Question. How would you evaluate the status of the implementation 
of the Comprehensive Peace Agreement between north and south Sudan? Is 
there any cause for concern? What should the U.S. Government be doing 
to support improved implementation of the peace agreement?

    Answer. Since the signing of the Comprehensive Peace Agreement 
(CPA) on January 9, 2005, much has been accomplished. The Government of 
Southern Sudan (GOBS) has been fully established, over $1.5 billion in 
oil revenues has been transferred to the GOBS, and the U.N. reports 
that the redeployment of northern troops from the south is on schedule. 
However, the issues that remain are some of the most challenging.
    The ruling National Congress Party (NCP) has failed to introduce 
transparency in accounting for oil revenues, and the GOBS is likely 
entitled to much more than it is currently receiving. The overall 
progress on withdrawing northern troops from the south masks the nearly 
complete lack of redeployment from the oil-rich Upper Nile region. The 
NCP has also moved slowly to support the work of demarcating the North-
South border.
    Meanwhile, northern backed militias continue to operate in the 
south and create instability. In Abyei, home to Sudan's most productive 
oil field, the NCP has refused to accept the Abyei Boundaries 
Commission report.
    Moving forward on CPA implementation will require continued high-
level engagement from the United States. Our diplomatic missions in 
Khartoum and Juba, the special envoy to Sudan and the Assistant 
Secretary for African Affairs have dedicated extensive efforts to the 
CPA, including recent trips by the special envoy to Juba, Malakal, and 
Abyei in the south. The United States has helped to establish the 
Assessment and Evaluation Commission, and we are its most vocal member. 
We have taken the lead on efforts to turn the Sudan Peoples' Liberation 
Movement/Army (SPLM/A) into a responsible political party capable of 
governing, with a regular army that can ensure peace and security. We 
also work with United Nations Mission in the Sudan (LTNMIS), which 
plays an important role in supporting the CPA. The United States was 
the first country to establish a full-time diplomatic mission in 
Southern Sudan, and we continue to be the largest donor to the recovery 
and development of the region. The United States will continue to help 
the south create a more level playing field within the Government of 
National Unity (GNU) and demand full implementation of the CPA. This is 
the only way to foster the establishment of a strong and united Sudan 
that is stable and at peace with its neighbors.

    Question. What, if any, supplementary medical coverage and long-
term disability benefits do PRT members in Iraq and Afghanistan 
receive? What about contractors? Is the Department working on improving 
these health benefits?

    Answer. Both civil service and Foreign Service employees of the 
State Department employees serving in Provincial Reconstruction Teams 
(PRTs) in Iraq and Afghanistan are eligible a generous package of 
medical and disability benefits. State employees can choose from 10 
group health insurance plans available to all Federal employees. 
Employees assigned to the PRTs can utilize the medical units at the 
embassies in Kabul or Baghdad, if needed. Embassy Baghdad has a full-
time social worker who has traveled extensively to the PRTs as well. An 
Amman-based regional psychiatrist also visits Iraq periodically and has 
visited employees stationed outside of Baghdad.
    Employees in PRTs also have access to mental health services, if 
requested, through the State Department's Office of Medical Services 
Employee Consultation Service. Employees and eligible family members 
can also take advantage of a 24 hour-a-day, 7 day-a-week support 
hotline coordinated by the Department's Family Liaison Office and 
offered through the Managed Health Network.
    State employees are eligible for workers' compensation benefits, 
should they be injured in the line of duty. Long-term disability 
benefits are offered under worker's compensation. Generally, Personal 
Service Contractors (PSCs) are eligible for Federal Government workers' 
compensation benefits. Independent contractors are not eligible for 
benefits and would apply for workers' compensation benefits though 
their employers.
    We are continuously evaluating the existing incentives for hardship 
service and determining if changes are needed to further support and 
compensate our employees who serve in the most difficult posts 
overseas. The Department does not have any plans at this time to 
propose changes to the existing health benefits package.

    Question. As you know, Senator Lugar and I have introduced S. Res. 
30, which calls for the United States to take an active role in 
international climate change negotiations under the U.N. Framework 
Convention on Climate Change, with the objective of securing U.S. 
participation in binding agreements that establish commitments by all 
major emitters of greenhouse gases and further achieve a significant 
long-term reduction in global greenhouse gas emissions. Does the 
administration have a position on our resolution, and what is the 
administration's current position on negotiations under the Framework 
Convention, on an agreement to cover the period after 2012, post-Kyoto? 
Shouldn't we be working now on those next steps?

    Answer. The administration shares your views that engaging 
developing countries, implementing clean energy technologies, and 
protecting U.S. economic interests are of paramount importance to 
addressing climate change.
    The United States is taking an active role in the United Nations 
Framework Convention on Climate Change (UNFCCC). In addition to 
vigorously engaging in the issues negotiated under the convention, we 
are also its largest donor nation. Regarding an agreement to cover the 
period after 2012, the United States does not support an approach that 
would harm our economy, and we believe that a prescriptive targets and 
timetables framework is inconsistent with the need for a global 
response to climate change since developing countries reject binding 
emissions caps.
    The United States believes that international climate actions must 
accommodate diverse national circumstances and approaches, and that 
climate actions should be considered in tandem with economic and other 
sustainable development goals. Countries in the developing world are 
focused on economic growth and providing for the needs of their 
citizens.
    We believe that climate policies should recognize and complement 
these priorities. We are pursuing an approach through a range of 
collaborative approaches that focus on practical results.
    Our flagship climate initiative, the Asia-Pacific Partnership on 
Clean Development and Climate (APP), is one example of this approach. 
The APP is one of our most important programs because it generates 
results where they matter most--in the countries that are the world's 
major emitters of greenhouse gases.
    The APP brings together Australia, China, India, Japan, South 
Korea, and the United States to tackle complementary energy, economic, 
and environmental goals. In each partner country, governments and the 
private sector are collaborating to implement clean, efficient energy 
technologies and practices.
    The APP is just one of the many international partnerships that the 
United States has initiated since 2002. They include partnerships to 
collect and reuse methane--a powerful greenhouse gas; to capture and 
safely store carbon dioxide; to develop and deploy clean, safe nuclear 
energy technologies; and to develop cost-effective hydrogen and fuel 
cell technologies. In addition, we have launched 15 bilateral climate 
change partnerships with countries and regional organizations that, 
with us, represent over 80 percent of global greenhouse gas (GHG) 
emissions.
    Our emissions performance since 2001 has been among the best in the 
OECD. From 2000 to 2004, for example, U.S. energy-related carbon 
dioxide emissions increased by only 1.7 percent, while those in Europe 
grew by 5 percent. The results of our climate policy underscore the 
fact that there are diverse yet complimentary approaches to addressing 
climate change.

    Question. Given your January 11 testimony before the Senate Select 
Committee on Intelligence that al-Qaeda operates from ``their leaders' 
secure hide-out in Pakistan,'' what new approaches toward Pakistan will 
you pursue to end half a decade of safe haven given to Bin Laden and 
his cohorts?

    Answer. While we do not know Osama bin Laden's precise whereabouts, 
al-Qaeda continues to exploit parts of the tribal areas of western 
Pakistan. It is not accurate, however, to say that the Pakistan 
Government is granting them safe haven as a matter of policy. In fact, 
Pakistan has been a vital partner in our fight against al-Qaeda. 
Pakistan's military operations against al-Qaeda and other foreign 
militants in the tribal areas since 2004 have cost it hundreds of 
casualties but have not succeeded in breaking foreign extremist 
networks in areas that are essentially outside government control. 
Militant extremism in the Federally Administered Tribal Areas and the 
Northwest Frontier Province is perceived in Islamabad as a major threat 
to Pakistan's internal security.
    We are pleased that the Government of Pakistan continues to take 
forceful measures against all terrorist groups, including al-Qaeda, but 
we recognize that purely military solutions are unlikely to succeed. 
While President Musharraf remains committed to rooting out violent 
extremist elements from Pakistan, we support his efforts to adopt a 
more comprehensive approach to combating terrorism and countering 
insurgency.
    The State Department is exploring ways to support two initiatives 
designed to strengthen Pakistan's ability to eliminate terrorist safe 
havens and strengthen control of the border with Afghanistan. The first 
will enhance the capacity of local security forces such as the 
indigenous Frontier Corps, Frontier Constabulary, and tribal levies 
groups that carry most of the responsibility for security in those 
areas. The second, Pakistan's Sustainable Development Plan for the 
tribal areas, is a program of economic and social development and 
governance reform intended to meet the needs of the local population 
and render them more resistant to violent extremists such as al-Qaeda 
and the Taliban. Robust support for these two initiatives would improve 
the security environment in the frontier areas, whose population spans 
the Pakistan-Afghanistan border, and contribute greatly to creating an 
environment inhospitable to violent extremism.
    Meanwhile, I believe it is essential that the situation in the 
Pakistan-Afghanistan border area be the subject of constant high-level 
dialog between us and the leaders of both countries.

    Question. Some administration figures seem intent on playing Sunni 
and Shia Muslims against each other, in the Middle East and elsewhere 
in the world. Do you approve of this, or do you see such a policy as 
presenting grave dangers to America from both Sunnis and Shia?

    Answer. Our foreign policy toward the Middle East is not based on 
religion or ethnicity, but seeks to encourage moderation and minimize 
extremism. The United States has worked hard to promote reconciliation 
and national unity--across the historical divide of Sunni-Shia 
relations--in places like Iraq, Lebanon, and Afghanistan. Today those 
governments are more multiethnic and confessionally mixed than ever 
before. Playing off religious or ethnic differences is a recipe for 
increasing, not taming, violence in this region.
    We are concerned about Iranian regime's support for terrorism 
throughout the region, specifically its support for both Shia and Sunni 
extremists (Hizballah and Hamas, respectively) and its destabilizing 
activities in Iraq. However, our differences with Iran lie with illicit 
behavior and dangerous ambitions of the Iranian regime, and not with 
the legitimate aspirations and interests of the Iranian people, or the 
Shia in general. Our strategy is to counter the threats posed by the 
Government of Iran while expanding our engagement and outreach to the 
Iranian people. More broadly, we support the empowerment and dignity of 
all the people in the region, regardless of ethnicity or religious 
belief, and we condemn extremism in all forms.

    Question. The administration has proposed $2 billion in 
reconstruction funds for Afghanistan. Two billion dollars spread over 2 
years does not represent an increase in reconstruction funding, despite 
the fact that General Eikenberry and General Jones have requested a 
significant increase in reconstruction funding. Is the proposed amount 
of funding sufficient? What is our strategy for strengthening the 
implementation of reconstruction programs?

    Answer. The amount of funding is sufficient given the limited 
capacity in Afghanistan to implement projects quickly. What is 
important is that we maintain a consistent and substantial level of 
funding over a period of time long enough to enable the Afghan economy 
to gain traction on its own.
    Our strategy for strengthening the implementation of our 
reconstruction programs centers around capacity building in both the 
public and the private sectors, to increase the quality of Afghan firms 
and the capacity of the Government of Afghanistan to provide basic 
services, effective governance, and efficient administration of public 
funds.
    Building capacity of Afghan firms to deliver goods and services is 
critical. Where applicable, our programs incorporate private sector 
capacity building components. In the infrastructure sector, for 
example, we are training Afghans to build and maintain the road assets 
United States assistance has funded. A vocational training
program currently underway in Nangarhar is providing construction, 
electrical, plumbing, and other building trade skills to improve the 
skills of the local workforce employed by Afghan firms. We also provide 
credit, business skills training, and other assistance to enable Afghan 
firms to increase their competitiveness and profitability. This 
assistance, combined with regulatory, administrative, and other 
technical assistance is helping the Government of Afghanistan become an 
enabler of private sector activity.
    For the government's line ministries in Kabul as well as the 
provincial capitals, we will be implementing the Afghan Building 
Capacity program, which provides technical training in pubic 
administration skills and scholarships for advanced degrees and 
technical training in Afghanistan and abroad. We will concurrently 
improve the quality of education delivered by Afghan universities to 
help build the technical skill base needed for a modern economy and 
state.

    Question. The administration has proposed $8.6 billion in security 
funds for Afghanistan. Both General Karl Eikenberry and General James 
Jones have noted the need for an improvement in the use of security 
funding (according to the Inspectors General of State and Department of 
Defense, current police training has already cost $ 1.1 billion 
dollars, yet it has resulted in a nonfunctional police force). What 
will be done with the $8.6 billion that addresses this concern? Do your 
plans for using this money represent a true change of course?

    Answer. The $8.6 billion requested for security assistance will be 
used to further train and equip the Afghan National Security Forces. 
Our plans for using these funds reflect an urgent need to augment our 
work to train effective and legitimate security forces that can protect 
the Afghan people from extremists and insurgents.
    For the police, the course is well-charted regarding training, and 
we expect it to remain the same. We expect, however, to increase 
emphasis on police equipment and infrastructure. Training and equipping 
efforts augment and reinforce each other. We must look comprehensively 
at all the factors that will lead to success for the Afghan police. It 
will take a sustained effort over several years to institutionalize the 
police force and establish a self-sustaining program, let alone 
adequately assess the program.
    We also intend to boost our efforts to train and equip the Afghan 
National Army. In fiscal year 2007, we plan to intensify our efforts to 
train this force so the Afghan Government can address security 
concerns. The Afghan army is currently fighting alongside NATO 
International Security Assistance Forces, and is an integral component 
of our efforts to take on the Taliban and extend the reach of the 
Government of Afghanistan's authority. At the moment, the army is in 
need of more soldiers and more equipment to meet the current security 
challenges. The $8.6 billion in requested security assistance funds 
will help us reach our goal of a well-trained and effective Afghan 
army.

    Question. In addressing the illicit opium poppy cultivation in 
Afghanistan, does the administration intend to press the Government of 
Afghanistan to accept a program of aerial eradication of poppy?

    Answer. The Government of Afghanistan has decided not to use 
spraying of herbicides to eliminate poppy cultivation this year, but 
will implement a robust manual and mechanical eradication program to 
eradicate illicit poppy fields. We will focus on making manual and 
mechanical eradication efforts as effective as possible, without ruling 
out the future use of other options, such as ground-based or aerial 
spraying of herbicides.
    The United States remains prepared to assist the Government of 
Afghanistan--if requested--in using herbicides to eradicate poppy. For 
many years the United States has assisted the Government of Colombia 
and other governments around the world in using herbicide to control 
illicit narcotics crops. Herbicide offers a safe and effective method 
for eliminating illegal crops, and it may be an appropriate tool for 
Afghanistan to use in future years.
    The United States Government will continue to provide assistance to 
Afghan law enforcement institutions that eradicate poppy crops, 
including the Ministry of Interior's Afghan Eradication Force.
    While President Karzai did not approve the use of herbicide, he 
recognizes that poppy cultivation poses a grave risk to Afghanistan's 
security. We welcome his renewed focus on developing a strong 
eradication program this year and will continue to work with 
Afghanistan to eliminate poppy cultivation.

    Question. In the next few months, the issue of Kosovo's future 
status will likely come before the United Nations Security Council. If, 
as has been threatened, Russia uses its veto to block Security Council 
approval of Kosovo's independence, would you still support the United 
States recognizing Kosovo as an independent state?

    Answer. We strongly support the settlement terms prepared by U.N. 
Special Envoy Martti Ahtisaari. This package creates the conditions 
under which Southeast Europe can have stability and certainty in its 
future, Kosovo can govern itself democratically, and Kosovo's 
minorities can receive generous protection. We expect that Ahtisaari's 
proposal, once finalized, will be discussed in the U.N. Security 
Council and that we will consult closely with Russia and other Security 
Council members on the best way forward. We are working to ensure a 
successful conclusion to the Kosovo status process established by the 
UNSC and believe we should refrain from speculating about hypothetical 
developments in the Security Council.

    Question. What do you see as the proper role for NATO in promoting 
global peace and security? As the alliance moves forward, how inclusive 
or exclusive do you believe it should be in its mission and membership?

    Answer. NATO plays a vital role in promoting peace and prosperity 
and advancing freedom and democracy. We strongly support the 
aspirations of countries within the Euro-Atlantic area that seek 
membership.
    NATO remains the essential forum for action and dialog on 
transatlantic security and its primary responsibility is to provide 
security for its members. September 11 and the Madrid and London train 
bombings demonstrated that the key security issues facing the allies 
have changed fundamentally since the cold war. NATO has evolved with 
the times. The alliance is increasingly outward looking because the 
challenges to our common security are increasingly transnational and 
global--for example, terrorism, proliferation of nuclear weapons, and 
insecurity of energy sources.
    Our partnerships with non-NATO countries leverage and enhance 
NATO's effectiveness and benefit the alliance. In Afghanistan, for 
example, in addition to all 26 NATO Allies, we have over 11 
contributing countries, including Australia, New Zealand, Sweden, and 
Finland.
    At NATO's Riga Summit in November 2006, the allies agreed to 
support a partnership initiative that will ensure that non-NATO 
countries that share our values and are willing to commit personnel and 
resources to a common purpose with NATO will have a more structured 
operational relationship with the alliance that facilitates seamless 
planning and execution.
    This is not the same as saying that the alliance has no borders or 
that its collective defense provisions apply to partners. The alliance 
is anchored in the North Atlantic Treaty and the Article 5 commitment. 
The Riga declaration is recognition by allies of the vital role being 
played by NATO's partners who are committing troops and resources in 
places of mutual concern like Afghanistan and Kosovo.

    Question. Policy analysts and scholars have noted that Latin 
America has not received the attention that was anticipated at the 
beginning of President Bush's first administration. Given your 
experience in the region, what recommendations do you have for the 
administration to increase attention toward the region? What specific 
issues need to be addressed more effectively? How would you work in 
your capacity as Deputy Secretary of State to do this?

    Answer. The administration has, in fact, devoted considerable 
attention and resources to the region. In the area of foreign 
assistance, resources dedicated to the Western Hemisphere have nearly 
doubled from 2001 to 2007--even without including the Millennium 
Challenge account funds that already have been made available to 
Nicaragua and Honduras, and that are about to be made available to El 
Salvador.
    The President himself has traveled through the region 10 times 
since taking office, and his visits have been complemented by numerous 
visits by cabinet-level officials from a variety of Departments. He is 
planning another trip to the region in March.
    All that is not to say that we should be content with the status 
quo. While all but one of the governments of the hemisphere were 
elected democratically and economic indicators have been positive, 
democratic institutions remain weak and under assault in several 
countries, in part because governments have not been able to deliver on 
the promise of democracy that is security and prosperity for all 
citizens.
    We aim to focus our efforts and our resources to help governments 
respond to their citizens by consolidating democracy, promoting 
prosperity, investing in people, and helping protect the security of 
the democratic state. If confirmed, I look forward to my own 
involvement with the region as Deputy Secretary, if confirmed, and the 
opportunity to draw on my many years of experience dealing with our 
hemisphere.

    Question. Given the wave of presidential elections that have taken 
place in the region over the past year, can you discuss the status of 
democracy in the region? How can United States democracy and foreign 
assistance programs be more effective in supporting political stability 
in Latin America? What was the level of support that we provided to 
Latin American countries in the previous fiscal year for democracy 
promotion?

    Answer. Some two decades have passed since Latin Americans in 
country after country rejected authoritarian models in favor of 
democracy. Every country except Cuba has held national elections to 
elect its President. On the whole, these have been relatively free 
elections resulting in unprecedented continuity in the region as 
leaders have served out their terms and handed power peacefully over to 
the next elected leader.
    The wave of elections in the Americas (17 in total) over the last 
year is testimony to the durability of this process in most countries. 
However, democracy can be
challenged where a personalistic populism threatens to overwhelm 
democratic institutions in countries where those institutions are weak. 
If citizens perceive that democratically elected regimes fail to 
address their most important needs, then democracy itself may be 
imperiled. That is why we are working to strengthen democratic 
governance so that citizens receive the benefits of good governance. 
Latin Americans have a right to expect their democratic governments to 
be responsive and accountable. Access to economic opportunity and the 
social mobility that it creates are fundamental components of social 
justice and are necessary to ensure that democracy continues to 
flourish.
    Our democracy and foreign assistance strategy recognizes the 
transformational power of democracy. Both bilaterally and in 
collaboration with such entities as the Organization of American States 
(OAS) and other institutions of the Inter-American System, we are 
working to attack inequality, political marginalization, and exclusion. 
In order to consolidate democracy, the United States will continue to 
work together with our regional neighbors throughout the hemisphere. We 
support efforts to create competitive and inclusive political systems 
so that all citizens have access to political power. With greater 
competition, less corruption, greater accountability of elected 
officials, and better stewardship of state resources, citizens of the 
region can enjoy an improved quality of life. To achieve this, we will 
strengthen judicial independence and capacity, internal controls, and 
effective prosecution of corruption and other complex crimes. We will 
seek to strengthen institutions of representative democracy, such as 
political parties, legislatures, executive agencies, media, and civil 
society.
    The United States provided $174,698 million in foreign assistance 
to Latin American countries in fiscal year 2006 to contribute to the 
objective of governing justly and democratically.

    Question. How do you anticipate that the new U.N. Secretary-General 
will address reform at the United Nations in his first year? In your 
role as Deputy Secretary, do you anticipate working on U.N. reform?

    Answer. The arrival of Secretary-General Ban and his new team 
offers member states an opportunity to reinvigorate the U.N. management 
reform process and foster a climate of ethical conduct. We are pleased 
that Secretary-General Ban led by example by making public his own 
financial disclosure statement. We are also pleased that he has called 
for a system-wide audit of U.N. funds and programs. In the near future 
we would like to see Secretary-General Ban take the following steps:

  <bullet> Ensure full operational effectiveness of the U.N. Ethics 
        Office;
  <bullet> Effectively exercise his budgetary discretion;
  <bullet> Implement International Public Sector Accounting Standards; 
        and
  <bullet> Achieve greater efficiencies in the use of existing 
        resources.

    While there are some actions the Secretary-General can take 
independently, most of the burden for reform falls on the member states 
themselves and in the coming months, we expect member states to 
consider the following items:

  <bullet> Progress on review of U.N. mandates;
  <bullet> Activation of the Independent Audit Advisory Committee;
  <bullet> Strengthening the Office of Internal Oversight Services and 
        ensuring its operational independence;
  <bullet> Strengthening U.N. procurement processes; and
  <bullet> Improving U.N. human resources management policies and 
        practices.

    If confirmed as Deputy Secretary of State, I will work with my 
colleagues in the Department and at our mission to the United Nations 
to emphasize the continued importance of high ethical standards at the 
U.N.

    Question. United Nations peacekeeping operations have increased 
markedly in the past few years, now totaling over 80,000 troops 
globally with new missions in countries such as Lebanon, Liberia, 
Sudan, and Haiti. Can you comment on the value of U.N. peacekeeping 
operations in supporting and advancing U.S. interests? Beyond paying 
the dues assessed by the United Nations, does the United States provide 
any other support to U.N. peacekeeping missions? Do you know of areas 
in which we should be providing such support?

    Answer. U.N. peacekeeping serves U.S. national interests. We have a 
stake in the outcome of events in every region of the world. U.N. 
peacekeeping missions engage and commit the international community to 
seek solutions to violence and instability. Through our ability to draw 
upon global resources through a U.N. peacekeeping mission, we are able 
to address urgent international needs without committing U.S. forces. 
U.N. peacekeeping operations cost the U.S. approximately a quarter of 
what we would pay if we were asked to deploy American forces. I am 
personally a very strong believer in the utility of U.N. peacekeeping 
operations and was impressed by the demonstrated effectiveness of these 
operations during my tenure as ambassador to the U.N. in countries such 
as Sierra Leone, the Democratic Republic of the Congo, and Liberia.
    In the U.N. Security Council and through our contributions to the 
U.N., the United States ensures that U.N. peacekeeping mandates are 
clear, credible, and limited to what is achievable. We use our voice 
and vote to ensure that these missions are consistent with U.S. 
national interests. The United States has been in the lead in efforts 
to ensure that U.N. peacekeepers are properly prepared and equipped to 
defend themselves and to fulfill their mandate.
    Direct U.S. participation in U.N. peacekeeping operations is 
limited but important. The U.S. currently has 298 police officers and 
26 military officers deployed in 8 U.N. peacekeeping missions. In 
addition, the United States from time-to-time provides direct support 
for U.N. operations. For instance, the Department of Defense arranged 
for the November 2006 deployment of an Indonesian battalion to 
participate in the U.N. mission in Lebanon.
    Given even greater force generation requirements for peacekeeping 
in the foreseeable future, an important area of United States support 
for peacekeeping is through our Global Peace Operations Initiative 
(GPOI), including its African sub-component, the African Contingency 
Operations Training and Assistance (ACOTA) program. GPOI programs 
enable willing partners to build the capabilities to help meet the 
growing U.N. demand for competent peacekeepers. U.N. and African Union 
missions in Africa and Lebanon already benefit from ACOTA-trained 
units. In addition, GPOI initiatives are helping Indonesia, Mongolia, 
and several Central American countries build their capacity to 
participate in U.N. peacekeeping operations. Continued GPOI support is 
essential to help the international community as a whole meet the 
increased demand for peacekeeping.


                              NOMINATIONS

                              ----------                              


                      THURSDAY, FEBRUARY 15, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
Crocker, Ryan C., to be Ambassador to the Republic of Iraq
Wood, William B., to be Ambassador to the Islamic Republic of 
        Afghanistan
                              ----------                              

    The committee met, pursuant to notice, at 9:19 a.m., in 
room SD-628, Dirksen Senate Office Building, Hon. John F. Kerry 
presiding.
    Present: Senators Kerry, Feingold, Menendez, Cardin, Casey, 
Jr., Webb, Lugar, Hagel, Coleman, Corker, Isakson, and Vitter.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. This hearing will come to order.
    Good morning, everybody, thank you for being here.
    We have a couple of votes at 10:30, and so we're going to 
try to move as expeditiously as possible. Senator Lugar will be 
here in a little while.
    It's my privilege to convene this hearing. We welcome both 
Ambassador Wood and Ambassador Crocker here to take part in it.
    Needless to say, you've both been nominated for incredibly 
challenging, and important, posts. And I'm absolutely 
convinced, and indeed comforted by the fact that both of you 
have extensive experience. We're lucky to have individuals with 
your depth of background who are prepared to undertake these 
kinds of difficult tasks and in dangerous and complicated 
places. And we all, on this committee, trust the experience 
that you bring to the table, will serve you and the country 
well.
    The wars in Iraq and Afghanistan are obviously vital to 
America's national security interests. Certainly the war in 
Iraq, if not initially so, now is because of the implications 
on the down side.
    Many of us on this committee have expressed opinions, and 
feel very strongly that the war in Iraq has had disastrous 
consequences for our national security. We've seen more than 
3,000 of our bravest young men and women make the ultimate 
sacrifice, and we've spent over $350 billion of taxpayers' 
money on a war that, it is hard not to conclude, has made us 
less safe, has made the region more volatile, has, in fact, 
strengthened some of our antagonists, and particularly made 
more complicated the relationship with Iran, Hamas, and radical 
Islam.
    The administration's mistakes and miscalculations have made 
a difficult situation in Iraq even more complicated. But the 
fact is, that we now owe it to our troops, to their families, 
and most importantly, to the country to find, not just a new 
way forward in Iraq, but the right way forward.
    That will start with recognizing that there is no military 
solution to the violence in Iraq. The only hope for stability 
is a sustainable political solution that resolves the 
fundamental differences between the primary stakeholders.
    The Sunni-Shia conflict that has erupted into civil 
conflict in Iraq, and now spread throughout the region, and 
beyond the region--it goes back over 1,300 years. As we 
discussed, Ambassador Crocker, right now both sides believe 
that they can win, and that's a dangerous equation.
    The Sunni have to recognize that they will no longer be 
running the country in the way that they were, and agree to put 
down their arms and join the political process. And the Shia 
must move beyond their longstanding fears of Sunni domination 
and agree that they have to share power and come to some 
agreement with respect to the resources and the fundamental 
structure regarding the country.
    The issues of oil revenues, federalism, de-Baathification, 
and the militias are essential to ending the violence.
    In the absence of this political solution, I think it's the 
majority view of this committee, and the majority view of the 
Senate, and Congress when ultimately expressed, that sending 
more than 21,000 additional troops is not going to solve the 
fundamental problem. It may provide a little more security, it 
may not. But it is not going to solve the fundamental problem.
    And so, we need to encourage that political solution, and I 
know that members of the committee will have questions 
regarding that as we proceed forward.
    We also have to recognize that we cannot solve the problems 
in Iraq alone, I know, Ambassador, you share that view. Any 
sustainable solution has to involve Iraq's neighbors, and the 
international community. And, perhaps most incomprehensible is 
the failure of this administration to engage in the broad-based 
international diplomacy, and also the regional diplomacy.
    In each of the trips I've made in the last several years, I 
have been struck by the plea of leaders of the neighboring 
countries for a more robust diplomatic effort on our behalf, 
which has yet to materialize. Iraqis need to take 
responsibility for Iraq, and your challenge, Ambassador, will 
be obviously, to help encourage that, and to try to help create 
the framework and structure to empower it.
    I happen to believe that a deadline is essential. Because 
there's been a lack of accountability in their behavior. And, I 
think it was 6 months ago that General Casey, and Ambassador 
Khalilzad both said that the Iraqi Government had about 5 or 6 
months to make the critical decisions, or else.
    The ``or else'' has come, and passed. The 5 or 6 months has 
come, and passed. And the violence is higher, and the situation 
more grave. So, clearly there is an enormous challenge in front 
of us.
    In addition, we've reached a critical juncture in 
Afghanistan. For several years now, I--and a few others--have 
been arguing that we needed a more robust presence in 
Afghanistan, and that we were taking our eye off the real 
conflict, which was in Afghanistan, where Osama bin Laden 
launched the attacks, and the Taliban is now somewhat 
resurgent.
    So, there is an additional challenge there--the accumulated 
affects of violent terrorist insurgent attacks, corruption, 
inefficient social resources, and growing income disparities 
are taking their toll. A point could be reached at which the 
government becomes relevant to the people, and that is, indeed, 
the greatest challenge that we have is to maintain the 
credibility of the government that we helped give birth to.
    So, America is facing extraordinary challenges in both Iraq 
and Afghanistan. And the coming months are going to be critical 
to both countries, and critical to our country as well, in 
terms of our larger interests in the region.
    So, I had hoped that Senator Lugar would be here--he's not 
here yet. When Senator Coleman gets here, he's the ranking 
member on the committee, I'll recognize him for an opening 
statement, but we'd like to proceed--given the vote pressure--
to your statements, and then we'll get around to questioning as 
rapidly as we can.
    So, if you would like to start off, Ambassador Wood.

STATEMENT OF HON. WILLIAM B. WOOD, NOMINEE TO BE AMBASSADOR TO 
              THE ISLAMIC REPUBLIC OF AFGHANISTAN

    Mr. Wood. I thank you very much, Senator Kerry.
    I am grateful to the Senate for having confirmed me to be 
Ambassador to Colombia, and I am honored to appear before you 
again, as President Bush's nominee to be Ambassador to the 
Islamic Republic of Afghanistan.
    The United States has been closely involved in Afghanistan 
since 2001, and rightly, since the Taliban regime served as the 
launching pad for al-Qaeda's savage attack on our cities that 
year.
    Afghanistan is struggling to find its way to the path of 
responsive popular government and economic development that was 
interrupted in 1978 by a coup, then by invasion, then by 
internal strife. In Afghanistan, the United States is pursuing 
a comprehensive solution that combines the push of security and 
law enforcement, with the pull of economic opportunity, 
humanitarian aid, and peaceful reintegration.
    Since 2001, the United States has provided $14.2 billion in 
assistance, of which $9 billion was to train and equip Afghan 
security and police forces, and $5.2 billion was for 
reconstruction. If confirmed, my job would be to support every 
aspect of this comprehensive strategy.
    Our assistance already has produced an impressive record of 
accomplishment. In the words of Assistant Secretary of State, 
Richard Boucher, in Berlin last month, compared to last year 
and previous years, this year there is more army, more police, 
more government, more roads, more development, more economic 
opportunity, more legitimate economy, and more pressure on the 
Taliban from all sides, including Pakistan.
    Now, the administration is seeking assistance of $10.6 
billion over 2 years, of which $8.6 billion is for police and 
security assistance, and $2 billion for reconstruction, and 
other economic aid.
    The major categories of our economic and reconstruction 
assistance include economic growth, democracy, governance, 
roads, electricity, health and education, and food aid.
    Special programs are aimed at the south, traditionally the 
poorest region in Afghanistan, and a center for opium poppy 
cultivation, and insurgent activity.
    An estimated one-third of the Afghan economy is based on 
the heroine trade. That share is declining steadily as 
legitimate economic activity grows faster. But poppy 
cultivation is well-defended by those who profit from it, 
including the supposedly spiritual Taliban.
    Techniques to fight the drug trade differ from country to 
country, but continuation of the violence and corruption of the 
drug trade feeds the Taliban and puts a low ceiling on 
everything the Afghans and their friends can hope to 
accomplish. My job would be to try to forge a consensus, both 
inside and outside Afghanistan, about how to end the drug 
trade, and then make it work.
    One challenge is the probability of increased violence in 
the spring by the Taliban, as there has been for the last 
several years. Although the Taliban probably poses no strategic 
threat to the Government of Afghanistan at this time, it is 
important that the Afghan Government, local leaders, internal 
security forces, and ISAF forces prepare for such attacks. I 
would consider it a critical part of my job to support them, 
however possible. These are impressive challenges, worthy of 
our best efforts.
    For my part, I bring 30 years of experience in the Foreign 
Service to the task. In my current assignment, I have led one 
of our largest embassies in the world, with more than 2,200 
personnel, and 40 offices and agencies in an environment of 
terrorism and narcotics trafficking.
    I am enormously proud of the work of the embassy team over 
the last few years, and of the accomplishments of our 
partnership with the government of President Uribe. In this 
regard, I would like to note that 2 days ago, February 13, 
marked the fourth anniversary of the capture by the FARC terror 
organization of Mark Gonsolves, Keith Stansell, and Thomas 
Howes. They are America's longest-held hostages. In the 
embassy, we think about them every day, as we think about their 
families. Their safe return is not just a matter of policy for 
us, it is personal. We are grateful for the splendid 
cooperation of the Uribe Government in the matter, and we hold 
the FARC responsible for their well-being and immediate safe 
return.
    Although the issues and solutions are different in 
Afghanistan, I would hope to bring to our new assignment the 
same focus on mission, teamwork within the embassy, and with 
our military colleagues, on international cooperation, and on 
partnership with the government of President Karzai.
    Finally, I would like to renew the promise I made in my 
confirmation hearings in 2003, to embrace a full dialog with 
this committee, and with the Congress as a whole, to answer 
your questions fully and honestly, to welcome your visits, and 
above all, to cooperate to achieve our common goals in 
Afghanistan.
    Thank you.
    [The prepared statement of Mr. Wood follows:]

       Prepared Statement of Hon. William B. Wood, Nominee to be 
               Ambassador to the Republic of Afghanistan

    I am grateful to the Senate for having confirmed me to be 
Ambassador to Colombia and I am honored to appear before you again as 
President Bush's nominee to be Ambassador to the Islamic Republic of 
Afghanistan. I want to thank the President and Secretary Rice for their 
confidence in me.
    In both countries we have a completely positive agenda, helping 
governments that deserve our help to overcome decades-long problems and 
provide peace, rule of law, economic opportunity, and responsive 
government to their people. In both countries, we and our allies also 
face an acute threat from insurgency, terrorism, and illicit narcotics 
trafficking.
    The United States has been closely involved in Afghanistan since 
2001, and rightly, since the Taliban regime served as the launching pad 
for al-Qaeda's savage attack on our cities that year.
    Afghanistan is struggling to find its way to the path of responsive 
popular government and economic development that was interrupted in 
1978 by a coup, then by invasion, and then by internal strife.
    After the ouster of the Taliban by Afghan forces in 2001 with 
strong United States support, in January 2004 Afghanistan adopted a 
liberal constitution that opened the door to national healing and 
effective, honest, inclusive government.
    In October 2004 the Afghan people elected President Hamid Karzai in 
open, popular elections with the participation of some 15 candidates 
and more than 10.5 million registered voters. After his victory, 
President Karzai, who had been interim President since December 2001, 
named a multiethnic cabinet to confront the challenges and 
opportunities of the new Afghanistan, and to develop a new cooperation 
between the central government and local leadership. In 2005, a 
multiethnic, nationally representative Parliament was elected into 
office by the Afghan people. Twenty-seven percent of the 
Parliamentarians are women.
    In Afghanistan, the United States is pursuing a comprehensive 
solution which combines the ``push'' of security and law enforcement, 
with the ``pull'' of economic opportunity, humanitarian aid, and 
peaceful reintegration. Since 2001, the United States has provided 
$14.2 billion in assistance, of which $9.0 billion was to train and 
equip Afghan security and police forces, and $5.2 billion for 
reconstruction.
    That assistance already has produced an impressive record of 
accomplishment. In the words of Assistant Secretary of State Boucher in 
Berlin last month, ``. . . compared to last year and previous years, 
this year there is more army, more police, more government, more roads, 
more development, more economic opportunity, more legitimate economy, 
and more pressure on the Taliban from all sides, including Pakistan.''
    Now the administration is seeking assistance of $10.6 billion over 
2 years, of which $8.6 billion is for police and security assistance 
and $2.0 billion for reconstruction and other economic aid. If 
confirmed, my job will be to spend all funds effectively and 
transparently, to achieve the ends they were destined to serve in the 
best possible way.
    The major categories of our economic and reconstruction assistance 
include economic growth, democracy and governance, roads and 
electricity, health and education, and food aid. Special programs are 
aimed at the south, traditionally the poorest region of Afghanistan and 
a center for opium poppy cultivation and insurgent support.
    If confirmed, I expect to have the satisfaction of marking the 
completion of the road system from Kabul to Herat, which will open up 
new commercial possibilities and help knit the country together. The 
United States Government has completed 715 kilometers of the ring road, 
and has constructed almost 2,300 kilometers of secondary and tertiary 
roads. I would also expect to see major improvements in the power 
system. The Kajaki dam hydropower system and the southern power grid 
should come fully on line in 2008, to get electricity to Kandahar and 
the south.
    I would work to accelerate provision of alternative livelihoods to 
opium production, including agricultural, livestock, and business 
assistance, particularly to the southern provinces that are the center 
of both poppy production and the insurgency. Part of my job would be to 
coordinate and advance this assistance, and a host of other projects 
that are moving forward under the auspices of the ``Afghanistan 
Compact'' adopted by Afghanistan and more than 60 donor countries and 
international organizations in London a year ago.
    An innovative aspect of international work in Afghanistan is the 
Provincial Reconstruction Teams, which provide a local international 
presence, advance provincial development, governance, and security, and 
help ensure these efforts are coordinated at the national level. U.S. 
diplomats and USAID field officers work side by side with their 
military colleagues at 12 U.S.-led PRTs and 10 PRTs led by other ISAF 
countries. The United States is playing an important role in these 
teams and I would expect to make that a big part of my work.
    An estimated one-third of the Afghan economy is based on the heroin 
trade. That share is declining steadily as legitimate economic activity 
grows faster. But poppy cultivation has existed in Afghanistan for 
years, and is well-defended by those who profit from it, including the 
supposedly spiritual Taliban.
    Techniques to fight the drug trade differ from country to country. 
But one thing is clear: Continuation of the violence and corruption of 
the drug trade feeds the Taliban and puts a low ceiling on everything 
the Afghans and their friends can hope to accomplish there. In this 
regard, my job would be to try to forge a consensus both inside and 
outside Afghanistan about how to deal with the drug trade, and then 
make it work.
    The region is a critical, difficult one, filled with hopeful news 
and with daunting challenges. If confirmed, my job will be to help a 
developing and democratic Afghanistan serve as a bridgehead of 
stability for its neighbors, and be part of their solution, not part of 
their problem. In return, the United States will expect that
Afghanistan's neighbors do everything in their power to isolate that 
Taliban, dismantle its insurgency, and counter its support for the 
heroin trade. I would intend to continue the practice of my predecessor 
and Ambassador Crocker to maintain the closest possible dialog and 
cooperation between embassy Kabul and Embassy Islamabad. I note that 
Secretary of Defense Gates had successful talks with the Pakistani 
Government last weekend, in which the subject of Afghanistan figured 
prominently.
    One challenge is the probability of increased violence in the 
spring by the Taliban, as there has been for the last several years. It 
is important that the Afghan Government, local leaders, internal 
security forces, and ISAF forces prepare for such attacks. I would 
consider it a critical part of my job to support them however possible. 
But it is also important that we not overemphasize what the Taliban is 
capable of. As General Eikenberry, outgoing commander of the Combined 
Forces Command in Afghanistan, said last month in Berlin: ``The enemy 
is not strong. The challenge of Afghanistan is that the institutions of 
the state remain weak. . . . There have been no areas of Afghanistan 
where this extremist enemy has been able to take an existing presence 
of the Government of Afghanistan--with good security, with good social 
services--and push that out. There are no examples of that. It's the 
areas of weak governance where the enemy has been able to gain 
strength.'' I agree.
    If confirmed, my job--more than any other--will be to cooperate 
with ISAF to maintain security, and to advance as rapidly as I can the 
strengthening of national and local Afghan institutions and the 
provision of new economic opportunity to the Afghan people.
    These are impressive challenges, worthy of our best efforts. For my 
part, I bring 30 years of experience in the Foreign Service to the 
task. In my current assignment, I have led one of our largest embassies 
in the world--with more than 2,200 personnel and 40 offices and 
agencies--in an environment of terrorism and narcotics trafficking. Our 
core task was to support Colombia's popular government and strengthen 
its democratic institutions in order to better confront these 
challenges. The fight is not over and there is much more to be done. I 
am enormously proud of the work of the embassy team over the last few 
years, and of the accomplishments of our partnership with the 
government of President Uribe.
    In this regard, I would like to note that 2 days ago, February 13, 
marked the fourth anniversary of the capture by the FARC terror 
organization of Marc Gonsalves, Keith Stansell, and Thomas Howes. They 
are America's longest-held hostages. In the embassy we think about them 
every day, as we think about their families. Their safe return is not 
just a matter of policy for us; it is personal. We are grateful for the 
splendid cooperation of the Uribe Government in the matter. And we hold 
the FARC responsible for their well-being and immediate safe return.
    Although the issues and solutions are different in Afghanistan, I 
would hope to bring to my new assignment the same focus on mission, on 
teamwork within the embassy and with our military colleagues, and on 
cooperative partnership with the government of President Karzai.
    Finally, I would like to renew the promise I made in my 
confirmation hearings in 2003: To embrace a full dialog with this 
committee and with the Congress as a whole, to answer your questions 
fully and honestly, to welcome your visits, and above all to cooperate 
to achieve our common goals in Afghanistan.
    Thank you.

    Senator Kerry. Thank you very much.
    Ambassador Crocker.

STATEMENT OF HON. RYAN C. CROCKER, NOMINEE TO BE AMBASSADOR TO 
                      THE REPUBLIC OF IRAQ

    Mr. Crocker. Thank you, Mr. Chairman.
    Senator Lugar, distinguished members of the committee----
    Senator Kerry. Let me, excuse me Ambassador Crocker, I see 
Senator Lugar has joined us. Let me turn to Senator Lugar and 
see if he has an opening statement first, and then we'll 
proceed.

              STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Mr. Chairman, I do have a short opening 
statement. Let me deliver a part of it, and then leave the rest 
for the record.
    I just simply wanted to join you, Mr. Chairman, in 
welcoming our distinguished nominees, Ambassadors William Wood 
and Ryan Crocker. The posts they will soon occupy are among the 
most consequential ambassadorships in American history. They 
will be at the epicenter of our efforts to secure and 
reconstruct Afghanistan and Iraq, and help provide those 
governments with the best opportunity to achieve nationhood.
    What happens in these countries in the coming months will 
deeply affect, and perhaps, determine whether the Middle East 
will move forward more productively and in peaceful conditions 
beyond the grip of terrorist influences and sectarian violence.
    Two weeks ago, before this committee, former Secretary of 
State Henry Kissinger recalled a half-century of United States 
involvement in the Middle East. He argued that this history was 
not accidental. We have been deeply involved in the region, 
because we have enduring vital interests at stake, and 
protecting those interests cannot be relegated to a political 
timeline. We may make tactical decisions about the deployment 
or withdrawal of forces, but we must plan for a strong, 
strategic position in the region for many years to come.
    We need to be prepared for a whole array of United States 
forces to defend oil assets, target terrorists, deter 
adventurism by Iran, provide a buffer against regional 
sectarian conflict, and generally reassure friendly governments 
that the United States is committed to the Middle East and 
South Asian security.
    With so much at stake, I am pleased the President has 
nominated veteran diplomats and experienced managers to lead 
the American presence in Afghanistan and Iraq.
    Mr. Chairman, I would ask that the rest of my statement be 
entered in the record, and I thank you for giving me this 
opportunity.
    Senator Kerry. Thank you very much, Senator Lugar. Without 
objection, it will be made part of the record.
    Ambassador Crocker, thank you.
    [The prepared statement of Senator Lugar follows:]

                Prepared Statement of Richard G. Lugar, 
                       U.S. Senator From Indiana

    I join in welcoming our distinguished nominees, Ambassadors William 
Wood and Ryan Crocker. The posts they would occupy are among the most 
consequential ambassadorships in American history. They will be at the 
epicenter of our efforts to secure and reconstruct Afghanistan and Iraq 
and to help provide those governments with the opportunity to achieve 
nationhood.
    What happens in these countries will deeply affect--and perhaps 
determine--whether the Middle East will move toward more productive and 
peaceful conditions beyond the grip of terrorist influences and 
sectarian violence.
    Two weeks ago, before this committee, Secretary of State Henry 
Kissinger recalled a half-century of United States involvement in the 
Middle East. He argued that this history was not accidental. We have 
been deeply involved in the region because we have enduring vital 
interests at stake. Protecting these interests cannot be relegated to a 
political timeline.
    We may make tactical decisions about the deployment or withdrawal 
of forces, but we must plan for a strong strategic position in the 
region for years to come. We need to be preparing for how we will array 
U.S. forces to defend oil assets, target terrorists, deter adventurism 
by Iran, provide a buffer against regional sectarian conflict, and 
generally reassure friendly governments that the United States is 
committed to Middle East and South Asian security. With so much at 
stake, I am pleased that the President has nominated veteran diplomats 
and managers to lead the American presence in Afghanistan and Iraq.
    It is also vital that the Bush administration move quickly to fill 
the ambassadorial post in Pakistan being vacated by Ambassador Crocker. 
Our relations with that country also are important to U.S. national 
security. Ambassador Wood's efforts in Afghanistan will be heavily 
impacted by what happens across the border, and we must ensure that 
there is no prolonged absence in Islamabad at such a critical time for 
the region.
    Today, we look forward to a thorough discussion with Ambassadors 
Wood and Crocker about their perspectives on Afghanistan and Iraq and 
their plans for providing leadership to our embassies. We recognize the 
deep personal commitment necessary to undertake these difficult 
assignments, and we are grateful that leaders of their stature and 
experience are willing to step forward.

    Mr. Crocker. Thank you, Mr. Chairman.
    Mr. Chairman, may I begin by introducing members of my 
family who are with me today?
    Senator Kerry. Absolutely.
    Mr. Crocker. My wife, Christine.
    Senator Kerry. Welcome, delighted to have you here.
    Mr. Crocker. Christine and I met in Baghdad in 1979, and 
we've deployed together ever since. To Beirut twice, to 
Afghanistan, and now to Pakistan.
    Sitting next to Christine are my sister-in-law, Cindy Hall, 
and my niece, Cameron Hall. They have been our home front 
throughout these many years, and I'm delighted they're here 
today.
    Senator Kerry. Well, we're delighted to welcome them, thank 
you.
    Mr. Crocker. Mr. Chairman, it's an honor and a privilege to 
appear before you today as the President's nominee to be 
Ambassador to Iraq. I thank you for this opportunity, and for 
your consideration.
    Mr. Chairman, the picture is not a pretty one. Iraq today 
is in the grip of terrorist, insurgent, sectarian, and criminal 
violence that threatens the country's future. This violence, 
particularly in Baghdad, has spiraled out of control. Daily 
life for ordinary Iraqis in Baghdad is dangerous and difficult.
    The only way to give political and economic progress in 
Iraq a chance, to give the Iraqi people a chance, is for the 
Iraqi Government, with our help, to wrest the power on the 
street away from violent groups.
    In an ideal world, the Iraqis would be able to do the job 
themselves. However, it takes time to build this capability, 
and this is why the United States needs to help.
    But it is the Iraqis, Mr. Chairman, who must lead this 
effort, and Prime Minister al-Maliki has pledged to go after 
anyone who perpetrates sectarian or political killing, 
regardless of sectarian affiliation.
    There are other problems as well. The hard political 
reality is that the average Iraqi still does not feel that the 
government's actions have brought about an improvement in 
security or the quality of life. They say much the same thing 
about the actions of the Coalition.
    Not enough jobs is a problem, corruption is a problem. So 
are the lack of electricity, and the inability of the 
government to spend its own budget.
    Despite all of the problems Iraq faces, there are also some 
encouraging developments. Iraq, since 2005, has held two 
national elections. The Iraqi people drafted and approved a 
constitution. Iraq is moving toward local and provincial 
elections, which should legitimize local political leaders, and 
broaden the representation of groups that did not participate 
in the past.
    On the economic front, Iraqis are debating a hydrocarbon 
law that we hope will create new investment, and most 
important, reinforce the principle that all Iraqis will share 
in the future wealth of the economy. Iraq has made progress 
toward concluding an international compact, which, when 
completed, will commit Iraq to a comprehensive economic reform 
package and return for assistance and incentives by the 
international community.
    All of this said, Mr. Chairman, it is security that remains 
the greatest challenge that Iraq faces. The President has laid 
out a new way forward. Containing the violence, particularly in 
Baghdad and Anbar, is the immediate imperative, but it is not 
the full solution.
    The President's plan to augment our forces by more than 
20,000 troops, also calls for a doubling of the number of 
provincial reconstruction teams, and PRTs, as well as 
strengthening the existing 10 PRTs to help with economic and 
political development at the provincial and local level.
    A successful strategy for Iraq, as you've said, Mr. 
Chairman, must go beyond military operations. The two efforts, 
military and civilian, go hand-in-hand. The one cannot succeed 
without the other.
    Mr. Chairman, I have spoken to General Petraeus, and I can 
assure you that if I am confirmed by the Senate, there will be 
full unity of effort by the civilian and the military 
components of the government.
    Iraqis must see that military operations are accompanied by 
visible and enduring improvements in their lives, and to do 
this, we need resources. Our military has to be resourced to 
support Iraqi forces to clear and to hold. Adequate funding for 
the civilian agencies is equally important, if we are to 
accomplish the critical third element of that equation, to 
build.
    Mr. Chairman, as the President has told Prime Minister 
Maliki, the patience of the American people is not unlimited. 
It will require hard work, and hard decisions on the part of 
the Iraqis. If you confirm me, I intend to deliver that message 
clearly to Iraq's leaders. The Iraqis have to make some tough 
choices, and then follow through on them. We need to help them 
to do so.
    Their success will be ours, in Iraq, in the region, and 
beyond. But similarly, failure would feed the forces of terror 
and extremism well beyond Iraq's borders. We would all pay the 
price.
    Finally, Mr. Chairman, I would like to pay tribute to the 
extraordinary men and women of the State Department, USAID, and 
the other civilian agencies who join our military forces in 
serving our Nation. They have volunteered for difficult duty in 
Iraq, and elsewhere, as we fight this long war, at a cost to 
their family lives and often at great personal risk.
    We have no shortage of volunteers for Iraq, a tribute to 
the loyalty and patriotism of those who serve the State 
Department and its sister agencies.
    Mr. Chairman, without question, we are in a very hard 
fight. The one assurance I can give you is that, if I am 
confirmed, I will draw on all of my experience, and all my 
ability, to provide the best leadership I can for our mission 
in Iraq, and in support of the Iraqi people.
    Thank you, sir.
    [The prepared statement of Mr. Crocker follows:]

       Prepared Statement of Hon. Ryan C. Crocker, Nominee to be 
                   Ambassador to the Republic of Iraq

    Mr. Chairman, Mr. Lugar, distinguished committee members, ladies 
and gentlemen,
    It is an honor and privilege to appear before you today as the 
President's nominee to be the next United States Ambassador to the 
Republic of Iraq. Thank you for this opportunity and for your 
consideration. It is an honor to have the chance to continue to serve 
our great Nation. And it is a particular privilege to have the 
opportunity to work with the brave men and women of the U.S. State 
Department and our other civilian agencies who serve alongside our 
military personnel.
    Mr. Chairman, I first served in Iraq in the late 1970s when Saddam 
Hussein consolidated his hold on power. I next worked on Iraq issues 
from 2001 to 2003, when I was Deputy Assistant Secretary in the Bureau 
of Near Eastern Affairs. In 2003, I was the first Director of 
Governance for the Coalition Provisional Authority in Baghdad.
    Mr. Chairman, Iraq today is in the grip of insurgent, terrorist, 
sectarian, and criminal violence that threatens the country's future. 
The central provinces of Baghdad, Anbar, and Diyala, in particular, 
face violence from many sources: Al-Qaeda in Iraq, sectarian Shia 
militias, Sunni insurgents, foreign jihadists, organized criminals, and 
groups backed by Iraq's neighbors that seem intent on spreading harm 
and chaos. This violence, particularly in Baghdad, has spiraled out of 
control. Daily life for ordinary Iraqis in Baghdad is dangerous and 
difficult.
    The only way to give political and economic progress in Iraq a 
chance--to give the people a chance--is for the Iraqi Government, with 
our help, to wrest the power on the street away from these violent 
groups by directly confronting the sources of the violence. In an ideal 
world, the Iraqis would be able to do the job themselves. 
Unfortunately, it takes time to build this kind of capability. And this 
is why the United States needs to help. The Iraqi people need friends 
and allies to help them stop those in Iraq who are using violence to 
win power, but as the President and the Secretary have said repeatedly, 
we must see the Iraqis themselves leading this effort and delivering on 
their promises with concrete action.
    Prime Minister Nuri al-Maliki has pledged to go after anyone who 
perpetrates sectarian or political killing, regardless of sectarian 
affiliation. As he said himself last week, progress is slower than he--
or we--would like. The leaders of some networks of insurgents and 
militias have been detained or killed. However, there is much, much 
more that needs to be done by the Iraqi Government. The government must 
also deal with corruption as well as its inability to spend its own 
budget for reasons that make sense to individual Iraqi bureaucrats but 
make no sense in the face of the urgent need to provide security, 
develop an economy, and reestablish the Rule of Law. Security is, and 
will remain, the greatest and most immediate challenge we will face.
    Mr. Chairman, on the economic and political fronts, we also face 
some very real challenges. The reality of Iraqi politics is that the 
average Iraqi still does not feel that the government's actions have 
brought about an improvement in security or the quality of life. They 
say the same thing about the actions of the coalition. The lack of jobs 
is a problem. Corruption is a problem. So is the lack of electricity. 
The legacy of more than 20 years of Saddam's misrule is coupled with a 
violent insurgency that began in April 2003 to increase the 
tribulations of the people of Baghdad and Iraq.
    Despite all the problems Iraq faces, there are signs of hope. It is 
no small feat that Iraq since 2005 has held two national elections. The 
Iraqi people drafted and approved a constitution. In 2006, they formed 
a National Unity Government. And Iraq is moving closer to holding local 
and provincial elections, which could take place as early as this fall. 
Such elections should legitimize local political leaders and broaden 
the representation of groups that did not participate in the past. 
Although steps have been taken to start a process of reconciliation, 
visible progress remains to be seen. Iraqis have taken steps forward on 
reforms to the de-Baathification laws--but there is a long way to go 
before there is a law that everyone can accept.
    In the region, Iraq's top leaders are now reaching out to their 
neighbors to normalize diplomatic and economic relationships. Iraq is 
also openly and directly confronting and engaging Syria and Iran on 
their unhelpful interference in Iraq's political and security 
situations, and trying to urge them to play more constructive roles.
    On the economic front, Iraq is also moving toward a hydrocarbon law 
that we hope will create new investment that will benefit the Iraqi 
people and the world economy as well as reinforce the principle that 
all Iraqis will share in the future wealth of the country. Iraq has 
made steady progress toward concluding an international compact, which, 
when completed, will commit Iraq to a comprehensive economic reform 
package in return for assistance and incentives by compact donor 
countries. Again, like everything else, there will be massive amounts 
of work to be done, which will require the full commitment of the Iraqi 
Government to achieve.
    Mr. Chairman, in support of these efforts, the President, on 
January 10, laid out a new way forward in Iraq. Containing the 
violence, particularly in Baghdad and Anbar, is the immediate 
imperative, but it is not the full solution. This is why the 
President's plan to augment our forces by 21,500 troops also includes a 
considerable civilian support reinforcement of the Provincial 
Reconstruction Teams--PRTs--to help with economic and political 
development at the provincial and local level. The President's plan 
calls for a doubling of the number of PRTs as well as strengthening the 
existing 10 PRTs. A successful strategy for Iraq must go beyond 
military operations. The two efforts--civilian and military--go hand in 
hand. The one cannot succeed without the other. Iraqis must see that 
military operations are accompanied by visible and enduring 
improvements in their lives. To do this, we need resources. Our 
military has to be resourced to clear and hold. Adequate funding for 
the civilian agencies is equally important if we are to accomplish the 
critical third element of the equation--building.
    Mr. Chairman, as the President told Prime Minister Maliki, the 
patience of the American people is not unlimited. It will require hard 
work--and hard decisions--on the part of the Iraqis. If you confirm me, 
I intend to deliver that message clearly to Iraq's leaders. At the same 
time, the United States is not the kind of country that abandons its 
friends in their darkest hour. To do so now in Iraq would unleash a 
series of destructive consequences not just in Iraq, but for the entire 
region and for our own vital interests. The Iraqis have to make some 
hard choices and then follow through on them. We need to help them do 
so.
    Mr. Chairman, before I close, I would like to pay tribute to the 
extraordinary men and women of the State Department, USAID, and the 
other civilian agencies serving our Nation. They have volunteered for 
difficult duty in Iraq and elsewhere as we fight this long war, at a 
cost to their family lives and often at great personal risk. We have no 
shortage of volunteers for Iraq, a tribute to the loyalty and 
patriotism of those who work for the State Department and our sister 
agencies. I would also like to take the opportunity to express my 
profound respect for our Foreign Service Nationals who help staff our 
embassies worldwide. They are dedicated, courageous colleagues who 
deserve a great deal of recognition. In Iraq, many of our local staff 
work under hardship, including threats to themselves and their 
families, in support of building a better world for them and for us.
    Mr. Chairman, without question, we are in a very hard fight. The 
one assurance I can give you is that if confirmed, I will draw on all 
my experience and ability to provide the best leadership I can for our 
mission in support of the Iraqi people.

    Senator Kerry. Thank you very much, Ambassador Crocker.
    Let me just say to my colleagues, that we're under the gun, 
here, in terms of a vote coming up, so I'm going to limit 
everybody--myself included--to a 5-minute question period. I 
hope, I know we all chafe under the time we get, and it's 
difficult. Normally, I'd love to do more, but during the votes, 
for those who have extended questions, we can cycle through in 
a way that will give people a little more time to be able to 
ask questions if they want to.
    Again, let me emphasize how lucky we are, I think, to have 
professionals of your caliber willing to take on this task. You 
are taking on probably two of the most important posts in the 
entire diplomatic field today, and certainly, two of the most 
challenging. And, so it's really important to us to be able to 
have the right people there.
    Three of us here on this committee--Senator Webb, who's not 
here, Senator Hagel, and myself--were once young soldiers, 
plunked down in the middle of a civil war. And we learned, 
firsthand, how really difficult it is when you don't speak the 
language, and you're trying to sort through culture and 
history. And, so I think we're particularly sensitive to what 
our young soldiers are being asked to do over there. And we 
understand their enthusiasm, and their courage, and their 
commitment to the mission.
    The issue really is, Ambassador Crocker, no matter what we 
do on the ground militarily, the fundamental struggle there is 
a struggle for power, with deep cultural and historical beliefs 
on both sides.
    Sunni have mostly run the country. Not always, there have 
been some instances of a kind of, you know, meeting of the 
minds, but by and large they've run it, and the most modern 
history, the Shia uprising of the early 1990s was met with a 
brutal--tens of thousands of Shia murdered--response. That 
memory, and my conversations with Shia over there, when I've 
been over there, is large.
    The Sunni, on the other hand, are not only fearful in the 
neighboring countries--King Abdullah, President Mubarak, the 
Saudis--about the rise of Shiism, and the connection to Iran, 
but they are also, within Iraq, operating with a deep-rooted 
belief that they were born to run the show. And they believe 
they're going to return.
    Those of us who have been watching this struggle now for 
these past few years are confounded by the absence of an Iraqi 
commitment to resolving those fundamental differences. We're 
now 4 years into it, we're several years into a sort of 
diplomatic, quote, effort. We still don't have an oil law. We 
still don't have a resolution of the fundamental structure of 
the federalism, and how that would play out.
    So, would you share with the committee your vision of, sort 
of, the order of priorities, and what you see as the 
possibilities of your ability to affect that, and leverage it, 
and do you agree that that is the essential ingredient? Not 
what General Petraeus does, but in fact, Prime Minister 
Maliki's conference--which we have yet to see materialize--and 
the diplomatic, political resolution?
    Mr. Crocker. Mr. Chairman, I agree completely, that the 
core of the problem--and therefore the core of any possible 
solution--is political. Military--successful military action--
can provide the space, and set the stage for political 
solutions, but it is only political solutions that can resolve 
the conflict.
    That said, sir, the violence that we see every day on our 
TV screens, and that the Iraqis live through every day, has now 
dominated, in my view, the political discourse. It is hard for 
me to see how Iraqis can act on some of the other critical 
elements that you identified, in this atmosphere of violence.
    And, that is why--in my view--the Baghdad security plan, 
led by Iraqis, supported by us, is a critical undertaking.
    Senator Kerry. But, let me just ask you about that, 
quickly. In Israel, where the security has been intense, where 
for years the military has had super-training, there's a 
cohesiveness, there's a national state--there's been little to 
prevent somebody from walking into a restaurant, or a crowded 
bus, and blowing it up. It seems to me that, unless you, sort 
of--I mean, would you speak to that? I mean, isn't there even--
with less security, less cohesiveness, greater divergency of 
different interests and militias, that ability to create 
violence, absent the political solution--no matter how many 
troops you put in, it seems to me--is going to loom large.
    Mr. Crocker. And that would lead me, Mr. Chairman, to 
approach this issue with the sense that we don't start with a 
list of priorities, one, two, three--we've got a series of 
urgent priorities.
    If the surge effort is able to bring down violence, then 
that will quickly have to be reinforced, first on the ground, 
in these neighborhoods where it's taking place. That is the 
importance, I think, of the Provincial Reconstruction Teams. 
We've already chosen the core leadership for those teams. They 
will be going through training beginning in a couple of weeks 
and they will be on the ground before the end of March.
    The hope, Mr. Chairman, would be that a combination of a 
dampening down of violence, reinforced by political and 
economic activity on the ground, could then create an 
atmosphere in which we and the Iraqis are able to leverage some 
of the more strategic issues that you mentioned. Getting the 
hydrocarbon law through, reforming the de-Baathification 
process, moving ahead with a constitutional reform process. On 
the economic side, moving toward budget implementation, so that 
Iraqi resources are actually expended by the Iraqi people. I 
see this as all linked together.
    I think we have to see if a dynamic can be started there. 
Prime Minister Maliki's initiative for a regional conference 
that Iraq would host, I think, is an excellent step in this 
direction, to bring in all of Iraq's neighbors. Some have been 
supportive, some have been neutral, some of have been 
destructive. They all play a role, and that role needs to be 
shaped to be better.
    So, I think this is a good initiative, and if this kind of 
regional diplomatic activity is accompanied by some positive 
steps on the ground, I think it will be more possible to get 
Iraq's neighbors to step forward in a constructive way.
    Then one can take it a final circle out, to the 
international effort. The international engagement, through the 
international compact with Iraq can reinforce all of this, and 
be reinforced by progress at the center. So, I would see these 
as interlocking imperatives--we've got to move on all of them, 
we've got to do it, pretty much in real time, but the violence 
is--if there was one that stands out, it is the violence, and 
the need to temper that down. And, I think we're starting in 
the right place.
    Senator Kerry. Thank you, Ambassador. I have other 
questions, but I'll wait until we come back for the next round.
    Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman.
    Ambassador Wood, I have two areas I'll ask, to begin with, 
and then let you use up the--my allotted time.
    First of all, you have mentioned experience in Colombia 
with the drug trade. Would you trace what parallels there might 
be between that experience in Colombia, and what you may find 
in Afghanistan? And, furthermore, how involved can the American 
ambassador, or the American presence be in governing and 
bringing to a halt the drug trade? Or, is the situation so 
self-sustainable that, regardless of our efforts, or of others, 
it is bound to be, and you simply try to temper it and live 
with it?
    Second, arguably, the new supplemental that we're seeking 
has a sizable portion for security reform. Now, this would be 
the fourth attempt at police reform in Afghanistan, one by the 
Germans, two by us--none very sustainable thus far, or very 
comprehensive. And yet, this is tremendously important for the 
governance of the country, leaving aside the drug trade, 
governance in general, and the presidency of Hamid Karzai.
    Would you give your thoughts--as you reflected upon the 
drug trade and police training in Afghanistan?
    Mr. Wood. I thank you very much, Mr. Chairman.
    Regarding, there are some parallels between the situation 
in Colombia, but there are also many differences. From a 
technical point of view, the predominant drug in Colombia is 
cocoa, which is a shrub, which is difficult to eradicate, 
because you have to get the root system, as well as what's 
above the surface. And in Afghanistan, the predominant drug is 
opium poppy, which is a flower which you can kill simply by 
breaking the stem.
    Colombia has a year-round growing season, Afghanistan only 
has one growing season a year. Possibly, for me, frankly, the 
principle difference is that virtually all of the cocoa grown 
in Colombia goes to the United States. Which means it directly 
affects our citizens, and a conservative estimate is that 3,000 
United States citizens die a year from cocaine produced in 
Colombia. That's more Americans than died in the World Trade 
Towers. So, Colombian drugs represent a World Trade Tower 
tragedy every year.
    In Afghanistan, only about an estimated 10 percent of the 
heroine reaches the United States, and the other 90 percent is 
in Europe, and Russian, and elsewhere.
    That said, as I said in my statement, one thing that was 
completely clear in Colombia was that illicit narcotics trade 
corrupts everything it touches--good governance, clean 
governance, honorable livelihood in the countryside are all 
impossible where there is a flourishing drug trade. We think of 
terrorists as the lowest form of human life, because they 
target innocents. In Colombia, we've seen terrorists corrupted 
by the drug trade, to give up even the vestige of ideology, in 
favor of serving that perverse industry.
    So, as we support the Government of Karzai, as we support 
good governance, both centrally, and in the provinces, and 
where the people live--more local level, and sort of a valley-
by-valley governance, destroying the opium poppy cultivation 
and the drug trade inside of Afghanistan is absolutely 
fundamental to achieving all of other goals--security, 
political, social, economic, developmental, humanitarian.
    I think the United States can play a role--a very important 
role--in forming a consensus which currently does not exist, 
either inside Afghanistan, or amazingly, among the countries 
whose citizens are the primary victims of the heroine trade 
from Afghanistan. Again, the techniques may be different from 
those of Colombia, but it's absolutely crucial that we reach a 
consensus, and move out against this corrosive cancer.
    Senator Lugar. How about police reform?
    Mr. Wood. Police reform--police reform is absolutely 
fundamental. Policemen talk about the golden thread, which 
unites policemen with the communities they serve. And, if the 
communities don't trust the police, if the police don't feel a 
sense of responsibility to those communities, then it's not a 
police force, it's a internal, repressive force.
    We are working very hard, I am having meetings with our--I 
have had meetings with our, our--people in charge of our 
police-training program, both on--in the State Department and 
in the Defense Department, which has the lead in the program 
for us. It's not easy. I think we can do it, and I can only say 
that it's one of my highest priorities.
    Senator Kerry. Senator Feingold.
    Senator Feingold. Thank you very much, Mr. Chairman.
    And thank you both for being here today. You're both going 
to be, obviously, taking on some of the most challenging 
assignments in our government. And I want to join the Chairman 
and all our colleagues in thanking you for your service.
    I'd like also to take this opportunity to share with you my 
admiration and appreciation for the men and women who are 
serving in our embassies in Kabul and Baghdad, and for those 
serving in the Provincial Reconstruction Teams throughout each 
country. These are incredibly brave and committed individuals, 
and we so rarely hear about the sacrifices they make and the 
dangers they face as they do their work. So, I hope you'll both 
communicate that to the many people that you'll be working 
with.
    Ambassador Crocker, it was good to see you this week, and I 
want to ask you if you're confident that sending more United 
States troops to Iraq--according to the President's new plan--
will help address the increasing sectarian violence, as 
civilian fatalities, bombings, strengthen the sectarian 
militias, and the number of foreign fighters entering Iraq.
    Mr. Crocker. I think that the Baghdad security plan is an 
essential endeavor, if the tide is going to turn in Iraq. It 
will not, in itself, be sufficient, as I said earlier, but it 
is necessary, in my view, if the Iraqis are going to get to a 
better place in a number of areas.
    The Iraqis are the main force in this effort, and I--as I 
look at the situation at this time, if I do go to Iraq, if I am 
confirmed by the Senate--I see this as an important transition 
period, in which the Iraqis simply must take the lead. They 
must take the lead in security, they must take the lead in 
doing what only Iraqis can do, which is broker political 
solutions--they must take the lead in driving their own 
economy.
    Senator Feingold. I certainly agree with that, but let me 
get back to the question of whether the troop surge will help. 
The data this committee has reviewed shows that regardless of 
the size of United States troops' presence in Iraq, Iraqi 
civilian fatalities, estimated strength of the insurgency, 
strength of the Shia militias, daily average of interethnic 
attack and the estimated number of foreign fighters have all 
risen during the past 3 years, without fail. Given that we 
can't, from this data, draw a connection between U.S. troop 
levels, and any of these important indicators, how can you be 
confident that sending in more U.S. troops will actually have a 
positive impact? And, I've heard your other disclaimers, but, 
what is it about this particular troop increase that you have 
any confidence in believing it will affect those factors?
    Mr. Crocker. There are several factors. First, and again, 
the most important is the commitment of Iraqi forces. As I 
understand it, 18 brigades of Iraqi forces committed to the 
Baghdad security plan. Previous efforts, again, as I understand 
it have not succeeded as had been hoped, because of limited 
forces. This time, the Iraqis are committed to providing very 
substantial forces.
    That said, it seems to me that our role in support is going 
to be fairly crucial. They are not yet ready to undertake 
something as enormously challenging--and you've described the 
challenge--on their own. So, the--approximately five brigades 
of U.S. forces that we would commit to this, I think, play a 
critical, supporting role in increasing the chances for success 
of this entire endeavor.
    And, this is a different mission than we have seen in the 
past. In this case, the explicit mission statement is to 
provide security for the Iraqi people. That's the ``hold'' part 
of the operation, clear and then hold. In the past, we have not 
had the forces, or even necessarily the mission, to do the 
hold.
    Senator Feingold. Ambassador, thank you.
    Mr. Crocker. There's no guarantee of success, sir.
    Senator Feingold. Let me quickly--I understand you wanted 
to answer more, but I only have a few more seconds to ask 
questions of Ambassador Wood, but I obviously enjoyed our 
conversation.
    And, I also enjoyed our meeting, Ambassador Wood. Given 
that security conditions have continued to deteriorate, 
particularly in southern Afghanistan, tell us what specific 
changes the United States Government is making to react and 
respond effectively to the new conditions on the ground. What 
are we going to do differently?
    Mr. Wood. As you know, Senator Feingold, we've just had a 
change of command, and a restructuring of the ISAF leadership 
in Afghanistan. We recently decided to ask a brigade of the 
10th Mountain Division to extend its stay, and the Pentagon 
announced yesterday that the 173rd Airborne Division--Airborne 
Brigade--would be moving to Afghanistan.
    We are, and the President has requested $10.6 billion in 
new funding. So, we in the United States are trying to do our 
part to beef up security, and beef up the social, economic, and 
other programs that form the counterpart of security, and a 
necessary counterpart. At the same time, Secretary Gates met in 
Seville with our NATO allies, urging them to increase their 
participation, and equally importantly, increase the 
aggressiveness of their deployment. More than 60 nations are 
contributing on the economic, and developmental, and 
humanitarian side--I think that we are sharpening our efforts. 
I don't think we're changing our efforts, but I think we're 
sharpening them, and focusing them better.
    Certainly, the first thing, the first question I will be 
asking myself, if confirmed, upon arrival in Kabul is, ``Is the 
mix right?'' It looks to me like it's right at the moment, it 
looks to me like it's a good balance. But certainly, I think 
over the last month, just last month, we've seen a substantial 
refocusing and reenergizing of our efforts in Afghanistan. 
Thank you.
    Senator Kerry. Thank you, Ambassador.
    Thank you, Senator Feingold.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    Gentlemen, welcome. We are grateful that each of you has 
agreed to take on a new assignment, a difficult assignment, but 
has been noted here this morning, the two of you represent two 
of the most highly regarded, experienced diplomats we have in 
our Government. And again, we are grateful that you agreed to 
take on new challenges.
    Christine, thank you for your continued role in all of 
this, and we are very mindful of the fact that you began your 
career alongside the Ambassador, and it will be, what, 28 years 
since you met in Baghdad. I'm not sure it's a reunion, but 
nonetheless, you will be going back together, and thank you for 
doing what you're doing.
    I'd like to focus on Iran with each of you for a moment. 
Headlines for papers across the world today are filled with 
headlines like the Washington Post, ``Iranian Aid Forces in 
Iraq, Bush Alleges,'' ``President Denies Seeking Pretexual War 
With Iran,'' there's another story, ``Eleven Elite Iranian 
Troops Killed in Bombing, U.S. Role Alleged.'' It has been much 
the topic, Iran, our role, Iran's role in Iraq the last few 
days. And I want to get your, each of you, your sense of a 
couple of things.
    One, I'm sure you both are aware of a July 2004 report that 
was offered by now-Defense Secretary Robert Gates, as well as 
the former National Security Advisor, Zbigniew Brzezinski, who 
just recently testified before this committee. They cochaired 
this report, underwritten by the Counsel on Foreign Relations, 
entitled, ``Iran, Time for a New Approach.'' And they says some 
things, as I'm quoting from the Gates-Brzezinski report, ``The 
current lack of sustained engagement with Iran harms U.S. 
interests in a critical region of the world.'' They went on to 
say, ``Iran could play a potentially significant role in 
promoting a stable, pluralistic government in Baghdad.'' They 
went on to say, ``It is in the interest of the United States to 
engage selectively with Iran to promote regional stability.''
    Since Iran is going to dominate much of your lives, as 
already it does with you, Ambassador Crocker, as you are 
Ambassador, currently, to Pakistan, and certainly Ambassador 
Wood will be dealing with Iran in his new capacity. My question 
to each of you--do you agree with what Secretary Gates and Dr. 
Brzezinski said in their report, that we should engage Iran, 
and I would also note--as you have both read, the 79 
recommendations of the Baker-Hamilton report, which they also 
focus on new diplomatic initiatives with Syria and Iran.
    We'll start with you, Ambassador Crocker.
    Mr. Crocker. Thank you, Senator Hagel.
    I began my career in Iran, before the Revolution and I have 
some lingering sense of the complexities of that country and 
civilization.
    Sir, I believe that Iran should be engaged. I think, in the 
context of Iraq, that engagement should focus between Iraq and 
Iran--I think, that's where the emphasis needs to be. The Iraqi 
Government has reached out to Tehran and, as you know, the 
Prime Minister and the President have visited, and there have 
been senior Iranian visitors in Baghdad. We, in no way, oppose 
this.
    Similarly, Prime Minister Maliki's initiative to convene a 
conference of neighbors that would include Iran, I think, is 
important. Iran is a neighbor. Iraq's largest and longest land 
border is with Iran, that geography doesn't change. Iran is 
currently playing a, not only unhelpful, but I think a deeply 
disturbing role in Iraq. We would obviously like to see that 
change. At this juncture, I am not persuaded that we, 
ourselves, could be the agent of that change.
    The Iranians understand us, I think, pretty clearly. 
Perhaps through engagement in a regional context they will take 
another look at what their long-term interests in the region 
are, and vis-a-vis Iraq are, and shift course. But, my own view 
is that this is the vector on which we should proceed.
    Senator Hagel. Thank you. If I could ask Ambassador Wood to 
respond.
    Thank you, Ambassador Crocker.
    Mr. Wood. Thank you, Senator Hagel.
    Just very briefly, of course, Iraq and Afghanistan bracket 
Iran, so for both of us, Iran is an important--fundamentally 
important issue. And, in the case of Afghanistan, the United 
States and Iran have a number of interests in common. There are 
a number of areas where we could, profitably, work together if 
we could begin a process of engagement. Iran is strongly 
counter-drug, for instance. They have one of the highest 
numbers of heroine addicts in the world. And their efforts to 
fight the heroine trade is extraordinary.
    At the same time, we have to get past the issue of weapons 
of mass destruction, solve it, and we--indeed, if, as some 
reports are indicating--there is some involvement by Iran in 
providing weapons to people who are shooting at Americans, that 
becomes an enormously complicating factor.
    I completely agree with Ambassador Crocker, and 
engagement--a constructive engagement with Iran would be to 
everyone's benefit. But I think the decision lies in Tehran 
more than it does in Washington.
    Senator Hagel. Thank you.
    Mr. Chairman, thank you.
    Senator Kerry. Thank you, Senator Hagel.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Let me just say, I am reticent to support either one of 
you. Not because of your abilities, or your qualifications--I 
think you're imminently qualified. But it seems that every time 
we support one of the President's nominees for one of these 
critical positions in Iraq or Afghanistan, then we hear from 
the President that--he uses it as a criticism for us not 
supporting his policies. And, as far as I'm concerned, if I do 
end up supporting your candidacies for these nominations, it 
won't be because I support his policies. And I would urge the 
White House to reconsider that tact, because I think they're 
going to put some very imminently qualified candidates, that 
would serve the country well, in peril, if that continues to be 
the course under which the administration criticizes those of 
us who vote for their nominees that are qualified, but 
ultimately is used as a criticism, subsequently, for not 
supporting the President's policies.
    Having said that, let me ask both of you, when you take 
your oath, who is it to?
    Mr. Wood. The Constitution.
    Mr. Crocker. To the Constitution of the United States; to 
support and defend the Constitution of the United States, sir.
    Senator Menendez. Mr. Ambassador.
    Mr. Wood. Exactly, the Constitution.
    Senator Menendez. And that means, being honest and 
forthright when you come before the Senate, is that not true? 
As part of that oath?
    Mr. Crocker. Yes, sir.
    Mr. Wood. Absolutely.
    Senator Menendez. So, because I ask that question, because 
I think we need some honest and straightforward talk, 
particularly from those who are going to be our ambassadors in 
Iraq, in Afghanistan, because I'm not particularly sure that 
we've always heard that.
    Let me ask you, Ambassador Crocker, when you were in 
Baghdad from May to August in 2003 as the first Director of 
Governance with the Coalition Provisional Authority, helping to 
create Iraq's governing council, there was an article in the 
Washington Post which read, ``Crocker has spent the summer of 
2003 helping to form Iraq's governing council, left the 
country, frustrated, at the CPA's reluctance to reach out to 
the minority Sunnis.
    Is that a correct statement?
    Mr. Crocker. Not exactly, sir. First, I in no way 
contributed to that article.
    Senator Menendez. It's not quoting you. I'm asking you 
whether the paraphrasing of the statement, is that correct?
    Mr. Crocker. It is not correct.
    Senator Menendez. Is the Sunni population adequately 
represented in the current Iraqi Government?
    Mr. Crocker. No, sir. I was frustrated by our inability to 
identify in that period of time, Sunnis that had the leadership 
stature that we could find in the other communities. It was not 
that anyone prevented me from making that effort. It was, in 
those initial months, the tangle of post-Saddam/Sunni 
politics--was such that it was very, very difficult to identify 
Sunni leaders of weight and consequence. That I found 
frustrating. And I still do.
    Senator Menendez. Isn't it essential for greater Sunni 
participation, if we're to have any hope of the type of 
government with national unity that we hope for?
    Mr. Crocker. Sir, it is one of a number of essential steps 
that have to be taken. It's really two things, the Sunnis have 
to be permitted to play a full role, and they have to be 
prepared to step forward to do it. And I'm not sure that either 
is the case right now.
    Senator Menendez. In the same article, it says, ``Even 
before the invasion, he''--referring to you--``wrote a blunt 
memo for then-Secretary of State Colin Powell, warning of the 
uncontrolled sectarian and ethnic tensions that would be 
released by the overthrow of Saddam Hussein.'' Can you tell me 
about that memo?
    Mr. Crocker. Sir, what I can say is that as serving as a 
Foreign Service Officer of more than 35 years now, I consider 
it my obligation to offer the best advice I can to my 
superiors, to argue my points of view, whatever they may be, 
whatever the issue is. And then, once decisions are taken, it 
is my obligation to support those decisions. That would be my 
answer.
    Senator Menendez. Was the memo appropriately characterized 
by that statement that I read to you?
    Mr. Crocker. Sir, again, in this period, I put forward a 
range of views. I'd really prefer not to characterize the 
internal advice that I give to my own superiors. Decisions were 
taken, and I supported those policies.
    Senator Menendez. Well, let me just close by saying, that's 
why I asked you who your oath is to. We would appreciate the 
essence of your candid advice. And that's far more helpful than 
deviating from answering the question. And it's in that context 
that I hope--that if you ultimately achieve these positions, I 
know you've got to respond to the administration--but when 
you're here before the Senate, I hope you're going to give us 
some candid advice, not colored by what you feel you have to 
say because of the administration's policies.
    Thank you, Mr. Chairman.
    Senator Kerry. Thank you, Senator Menendez.
    Senator Coleman.
    Senator Coleman. Thank you, Mr. Chairman.
    First, I want to say, I'm thrilled to support these 
nominees. I had the pleasure of serving as Chairman of the 
Western Hemisphere subcommittee, my first 4 years in office 
here, and worked closely with Ambassador Wood in Colombia. He's 
an extraordinary, extraordinary public official who is--gives 
so much and takes on tough assignments. Colombia was very 
tough. And, I think we've seen transformation there, I think 
Uribe's been a great leader. A lot more to be done, but I am 
deeply impressed with the ability, the integrity, the energy 
that Ambassador Wood brings to the process.
    Ambassador Crocker and I had a chance to be in Pakistan. I 
was in Pakistan when he served there--another tough, tough, 
tough assignment. And now, moving over to a tougher assignment. 
And, I think the President has really picked among the best and 
the brightest and the most talented to take on what is a 
challenge.
    Iraq is a challenge. Iraq is a mess. And we've got to 
change things. Afghanistan, which when I was in Kabul a couple 
of years ago, it was bustling. Very different from Baghdad, it 
was bustling. And now we see challenges. And so, I want to 
applaud the President for his leadership and vision in choosing 
these ambassadors. These are some very tough assignments.
    Let me focus on two issues, I do want to follow up from my 
colleague from Nebraska. Ambassador Crocker, you've indicated, 
and I think your quote was that you were, that Iran is playing 
a deeply disturbing role in Iraq. They're also playing a deeply 
disturbing role in Lebanon, aren't they?
    Mr. Crocker. Without question, sir. It's a role they've 
played since 1982.
    Senator Coleman. And they're playing a deeply disturbing 
role, I think, in Gaza, with Hamas?
    Mr. Crocker. Yes, sir.
    Senator Coleman. And our allies, I believe that--one, I 
believe we have to have a realistic assessment of what we get 
out of discussion with Iran. I think we should be talking to 
the Iranians, particularly in the context of a regional 
discussion. I don't think we should be negotiating with them, 
unless they recognize that they are playing a deeply disturbing 
role, and are prepared to change that.
    But one of the concerns I have is our allies--the 
Egyptians, the Saudis, the Jordanians--they have a stake in 
stability in Iraq, don't they?
    Mr. Crocker. Very much.
    Senator Coleman. And is it fair to say that Iran's 
involvement there is one of the barriers, and one of the 
challenges we have to more fuller engagement from some of our 
other allies to play the kind of role that we need them to play 
in Iraq?
    Mr. Crocker. Sir, that's a very important observation. I'd 
just make two points. First, as I understand it, the reasons 
put forward by some of our Arab friends in the region for not 
engaging more fully with the current Iraqi Government is their 
concern that it is sectarian in nature and in action. Clearly, 
the Maliki Government needs to show the contrary--that it is a 
government of all of the Iraqi people, and that's why their 
performance in the security plan is going to be so closely 
watched, and so critical.
    It is also the case, in my view, that if Iraq's Arab 
neighbors are concerned over Iranian involvement and influence 
in Iraq, then they are far better served by engaging 
themselves, constructively, with the Maliki Government, and 
with the Iraqi people, being present on the scene, and 
therefore, being a counterweight to Iranian influence in Iraq.
    Iranian influence does not lessen if Iraq's Arab neighbors 
refrain from playing a constructive role.
    Senator Coleman. And I would take it, by making that 
statement here, that that's the same kind of statement you're 
going to make in discussions with our allies who have an 
interest in greater stability in the Middle East. They're not 
playing the roles that need to be played now, and the other 
side of that is, some of us have doubts about Maliki's ability 
to do what has to be done. There is concern that the ties with 
Iran are such that, is he willing to step forward. And a lot of 
us are concerned about that. So, I hope that what we're hearing 
here is what you will be expressing with great passion when 
you're confirmed.
    Mr. Crocker. That would be my intention, sir, again to both 
audiences, the Maliki Government, and Iraq's Arab neighbors.
    Senator Coleman. Ambassador, how important is it that 
Musharraf fulfill a commitment he made to us when we were in 
Pakistan, with Senator Frist, leader at that time, a number of 
my colleagues, he met us, I think it was in uniform, but he 
said he was going to take off the uniform in a couple of years. 
There's an election supposed to be taking place, and he made a 
commitment to democratic principles. He talked about the 
importance of moderation in the Middle East, and he wanted to 
be a voice for that. How important is it for him to fulfill 
that commitment? To, in fact, move from military with a uniform 
to nonuniform, and have some measure of democracy, in fact. How 
important is it for civilian Afghanistan for that to occur in 
Pakistan?
    Mr. Wood. Senator Coleman, first, thank you very much for 
your kind words with reference to me, and I look forward to 
continuing to work with you.
    Second, I think that the concept of democracy, the concept 
of civilian democracy, the concept of responsive government, 
the concept of government that is accountable directly to the 
voters is a central issue, everywhere in the world. And, 
obviously, we support it completely.
    Frankly, regarding a more detailed answer to your question, 
I'm a little reluctant to answer a question about Pakistan, 
sitting next to the sitting Ambassador in Islamabad. So, Ryan, 
I don't----
    Mr. Crocker. Feel free. [Laughter.]
    Mr. Wood. I don't know if you'd like to elaborate on my 
answer.
    Senator Kerry. Thank you very much, Senator Coleman.
    Senator Coleman. I do hope that both of you have a lot of 
conversation. Obviously, what happens in Pakistan is critically 
important to stability in Afghanistan.
    Senator Kerry. Senator Cardin.
    Senator Cardin. Thank you very much, Mr. Chairman.
    And let me also take this opportunity to thank both of you 
for your career of service to our country. You have served our 
country with distinction, and we're proud of your service. And 
you're prepared to take on a very challenging assignment.
    I just want to underscore what Senator Menendez said, I 
think it's extremely important that, in the information that 
you give to us individually, and to our committees, that you be 
as candid as possible. Because it's important that this country 
speak with the strongest voice possible on foreign policy 
issues, with the executive branch and the legislative branch 
working as closely as we can together. And, I think you can 
play a critical role in that regard.
    I'm one of those who believe that in Iraq, the United 
States did not give diplomacy the appropriate attention before 
using military force in Iraq. I mention that because Senator 
Hagel brought up Iran, and Iran has been in the headlines, and 
I think many of us are concerned as to whether the use of force 
will be an opinion used in Iran, prior to exhausting the 
diplomatic arena. And, that concerns many of us. Iran's a 
very--it's a country of great concern to America. It's a great 
concern to us for many reasons that have been mentioned here 
today. And it certainly will effect both Afghanistan and Iraq, 
whatever happens in Iran.
    So, I just want to get your view as to the risk that we 
run? Obviously, we need to deal with Iran's support for 
terrorism, its support of nuclear weapons program, and we need 
to engage internationally and I agree with Senator Coleman, 
there are different ways of engaging internationally. It does 
not--and we have to be very careful in the manner in which we 
use engaging Iran. But, I do think that we need to be extremely 
active on the diplomatic front in that region, and with our 
allies, as it relates to Iran, and I would like to get your 
views as to the risks that we had in our foreign policy 
judgments as it relates to Iran.
    Mr. Crocker. Sir, if I could begin.
    Iran is a central issue, there is no question about it, 
Iraq and Afghanistan, regionally and internationally, as they 
pursue a nuclear weapons program. The President, the Secretary 
of State, and other senior officials, I think, have all been 
clear--we, in no way, seek a military confrontation with Iran 
on any of these issues. These are problems to be solved 
politically, but it will require a different course of action 
on the part of Iran.
    I think that statements such as you've seen in the last 
couple of days where we've brought forward the evidence that 
the government has of the Iranian involvement in supplying 
weapons and munitions that are being used to kill our soldiers, 
is an important part of this process. To make it clear to the 
Iranians that we know what they're doing, that, in my view, is 
probably the best way to get them to consider the consequences 
of their actions, and choose different courses.
    But again, I would emphasize, I've been around the Iran 
issue now for a number of years--it is not the intention of the 
administration to seek conflict with Iran, it is precisely the 
opposite.
    Senator Cardin. Ambassador Wood, if you want to comment 
briefly, I want to ask one more question, so if you could be 
brief.
    Mr. Wood. I would only add that in my work in New York at 
our mission before the United Nations, I had the opportunity to 
work with Iranian diplomats. We didn't agree often, but when we 
agreed we were able to put those agreements into operation for 
the benefit of both countries.
    The question is can--right now, Iran doesn't seem to want 
to work with us. And, right now, Iran seems to be taking 
positions in some really fundamental areas--weapons of mass 
destruction, and support for--or at least tolerance of support 
for groups--that are, that don't contribute to stability in a 
large part of the world, an important part of the world.
    So, we have this sad dichotomy on the one hand--we know 
that if we could find a bridge, through acceptable policies in 
Iran, both Iran and the United States could benefit. But, we 
have this gap in the bridge. And the gap in the bridge is on 
some very fundamental things.
    Senator Cardin. Thank you, Mr. Chairman.
    Senator Kerry. Thank you very much, Senator Cardin.
    Let me just say to everybody, we've got three votes now, 
coming up shortly. So, if we can, I think, stay on this 
schedule, we ought to be able to get every Senator in before 
we're under the gun there.
    So, Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    And I want to thank both of you for your service. I know 
you're extremely qualified, and I look forward to supporting 
your nomination. I want to thank your families, too, for being 
here, and for what they do.
    I met with General Petraeus, like many of us did 
individually when he was being confirmed, and I think a lot of 
us look to him to be someone who will have the strong 
leadership and the enterprising ability to actually do the 
things that need to be done on the ground in Iraq.
    But, as I was talking with him, he said, ``Look, you can 
confirm me and I'm important. But the most important person 
that needs to be in Iraq is Ambassador Crocker. He needs to be 
confirmed, and needs to be on the ground there, because what is 
happening on that side of the equation actually, in many ways, 
is more important than what we're doing militarily.''
    So, I have two questions. One is--and one of the things I 
asked General Petraeus was--Are you fully supported by the 
Administration? Are you getting everything you need? And will 
you tell us if you're not? Because, I think many of us wonder 
whether there's somebody here, in Washington, waking up every 
day, making sure that that is the case.
    And I guess my first, my first question to you is, do you 
feel totally supported and explain to us a little bit the line 
of communication and who you work with daily, here, to make 
sure that you have the things on the ground there that are most 
important in solving our problems in Iraq.
    Mr. Crocker. In terms of communications, Senator Corker, I 
expect I will have direct access to the Secretary of State, to 
the National Security Advisor, among others, and direct access 
to the President, as necessary. There is no higher priority for 
this administration. It's been made clear to me in my 
consultations within the administration that if I am confirmed 
and go out there, that whatever I see that needs attention, I 
need to get it back to the the appropriate level, and the 
phones I call will answer. So, I go out with the confidence 
that I will have the access I need, and as a result of that, 
the support I need.
    Senator Corker. The action on the ground, and you know, you 
obviously are involved in diplomacy, but obviously there's 
tremendous operational aspects to what you're doing, and 
rebuilding a country there, and I heard you mention about the 
core leadership groups being selected, and that people are 
being trained, and at the end of March many of them will be on 
the ground.
    One of the things that truly is hard to understand. 
Unemployment is a huge factor there. One head of household 
there supports 13 people in Iraq, so it's much different than 
here in America, and ultimately, maybe even more important, in 
some ways.
    But it seems to me the timing--I know that all of us are 
looking for tremendous changes to occur over the next 6 months. 
And it seems to me the timing of what you have to accomplish is 
going to be slower, possibly, than necessary to tie in, the way 
it ought to tie in, to the military action today in Baghdad. I 
wonder if you could respond to that?
    Mr. Crocker. As I understand the timeline, Senator, none of 
this happens overnight. Not just on the civilian side, but not 
on the military side, either. This notion of a surge, it may 
almost be a misnomer, because it implies something big and 
immediate--this will be phased in over time, as I'm sure you 
heard when you spoke to General Petraeus. And, in terms of 
effects, I believe it is his judgment that it's going to be in 
the late--in the mid- to late-summer period--that we'll see 
those. So, the clear and the hold part of this operation will 
be phased in and built up over time. We're just not going to 
have one of those instant moments when you can say, ``It 
worked, it's a great success,'' or ``It's an absolute 
failure.'' That is going to be a judgment based on some period 
of time.
    I'll have to make, obviously, my own direct assessments on 
the ground if I'm confirmed by the Senate. But my understanding 
now of the timelines to staff the PRTs, the 10 new PRTs, is 
that the combination of core staff, and then individuals 
identified in certain specialties by DoD, largely from 
reservists, should enable the PRTs to be ready to engage on the 
ground in the build effort, as soon as that ground is, in fact, 
held. That's the connection we have to make, and clearly, if 
I'm confirmed, that will be a top priority in my discussions 
with General Petraeus.
    Senator Corker. Thank you. I know the time is up. Thank 
you, sir.
    Senator Kerry. Thank you very much, Senator Corker.
    It looks like we're going to make it, here, so, Senator 
Casey.
    Thank you.
    Senator Casey. In the short time we have, to both 
Ambassadors, I want to thank you for being here today. Your 
extraordinary public service and your valor--people forget that 
the work that you do involves a risk, a personal risk, as 
well--and we're grateful.
    In the limited time we have, let me just ask about two 
questions--I hope--two or three.
    First of all, Ambassador Crocker, I want to direct your 
attention to the President's plan, which I think is an 
escalation. Others use the term ``surge,'' but in particular, 
I'm concerned about--and I know you are, and all of America is 
concerned about--the ability of the Iraqi Security Forces to do 
what they must do. Not just long-term, but especially in these 
early engagements in the streets and the neighborhoods in 
Baghdad--extraordinarily dangerous circumstances.
    I really have my doubts, based upon the history, but also 
based upon some recent stories. There are several stories in 
the press--two that I am looking at in the New York Times. I 
know the Washington Post had one. New York Times, January 25 
and January 30, you've seen these. We've referred to these 
before, but ``the air of a class outing, cheering and 
laughing''--these are Iraqi forces--showing up late, not doing 
the job. The American forces having to do a lot more than they 
have to do. When we use the term ``embedded forces,'' that 
sounds good until you see the reality of these articles.
    So, I don't want to dwell on the details of this, but it's 
clear from some of the earlier reports that it's going to be 
extraordinarily difficult for the Iraqi Security Forces to do 
what they must do, which undergirds this strategy.
    And, I'd ask you in the context of your work, but also in 
the context of what I see in Pennsylvania. Pennsylvania is now 
at the 150-mark. Third highest death toll in terms of soldiers 
who have perished in Iraq. I just want to ask you about your 
assessment of that, currently. The ability of the Iraqi 
Security Forces to do what they must do in this new engagement.
    Mr. Crocker. Sir, you're absolutely right to put the 
emphasis where you have, that was the point I was trying to 
make earlier in saying that we are transitioning. This is now a 
period in which the Iraqis carry the main effort. And that is 
as true in security as it is anywhere else.
    There's a lot of discussion of benchmarks, and I think 
there are some very important benchmarks out there, along the 
lines you just described. First, will the Iraqi forces show up 
for the engagement in the time and in the numbers that they're 
committed to? Second, will they perform professionally and 
evenhandedly, going after perpetrators of violence, regardless 
of their political or sectarian affiliation? These are going to 
be very key tests that they are going to have to meet and pass.
    The command structure that I understand they've 
established, I find encouraging. The Lieutenant General in 
overall command, who enjoys a good professional reputation, 
happens to be a Shia. His two deputies--to Major Generals, one 
police, one regular army--are both Sunnis. So, it looks to me 
like they're putting the right kind of balanced command 
structure in place that would indicate that, at least they 
understand some of the problems in the past, and are prepared 
to meet them.
    But, ultimately, it will be what happens on the ground.
    Senator Casey. Well, I urge you--and I know you will do 
this anyway, but I think it's important to repeat it--to hold 
our government accountable for enforcing the kind of discipline 
and the kind of benchmarking, and any other measuring tool that 
we use to make sure Iraqi Security Forces are doing what they 
must do, promptly.
    I know I have, maybe, another minute, but for both 
Ambassadors, because you both, obviously, play a role in the 
past and the future of this. The relationship between General 
Musharraf and Mr. Karzai, in terms of where that relationship 
is now, and especially in the context of President Bush 
bringing them together in September of 2006. Where is it, is it 
a positive relationship, or has it deteriorated? What can you 
tell us about that?
    Mr. Wood. In the meeting with the tri-apartheid supper with 
President Bush, plans were made for a jirga, an assembly of 
some nature, between Afghan and Pakistan leaders. It was hoped 
that that gathering could be held--would have already been 
held--it is still very much on the agenda, and we're hoping, 
we're hoping to see the two sides come together in a matter of 
months, to exchange their own views.
    Going beyond that, I think that the relationship between 
Pakistan and Afghanistan is a complicated one. Both sides are 
contributing to help the--each is helping the other--each often 
wonders if the other could be doing more. I think that, I think 
that this is a process that will continue, I think it will get 
better. I can only say that it would be my intention to 
continue the practice of Ambassador Crocker and, if confirmed, 
my predecessor, Ambassador Newman to maintain absolutely 
seamless communication between Embassy Kabul and Embassy 
Islamabad. So, that we can work together to help President 
Karzai and President Musharraf work together.
    Senator Casey. Thank you.
    Senator Kerry. Thank you very much, Senator Casey.
    Just a really quick question as we wrap up here--and we are 
going to wrap up--sometimes the Senate stands in the way of 
progress. Today it's somehow facilitating this hearing and 
liberating you people early, letting you off the hook.
    I'm going to leave the record open for a week, since we're 
out of session, and that way it won't interrupt our ability to 
be able to expedite these nominations, which we want to do, but 
it will also allow for any questions of any colleagues who want 
to follow up in writing during that period of time.
    In addition, let me just ask you, as a matter for the 
record--do either of you have any conflicts of interest, or 
issues from which you might have to recuse yourself, with 
respect to the performance of your responsibilities?
    Ambassador Crocker.
    Mr. Crocker. I do not, sir.
    Senator Kerry. Ambassador Wood.
    Mr. Wood. I have none, sir.
    Senator Kerry. Okay.
    And another quick question. Is the criticism of the 
Afghanis of President Karzai--both of you might comment on 
this, since you're currently there--is it legitimate with 
respect to the harboring of Taliban fighters within Pakistan, 
and also, obviously, the question that looms large to every 
American, is the al-Qaeda refuge? Do you want to both comment 
on that?
    Mr. Crocker. Yes, sir, if I could start.
    As you know, Mr. Chairman, Pakistan has been in this fight 
since right after 9/11. They have lost hundreds of their 
soldiers, a number of their civilian officials, many 
progovernment tribal leaders in that tribal belt engaged 
against both al-Qaeda and a resurgent Taliban. So, in my 
judgment, their commitment is not in question on this.
    The challenge they face, and President Musharraf has 
acknowledged this, is one of capacity. For example, there are 
several million Afghan refugees in Pakistan, many of them 
concentrated in large refugee camps, over which the Pakistani 
Government has no control, and in some cases, not even access. 
So, their ability in some cases, particularly against the 
Taliban, I think, is limited.
    But, I've worked with him for over 2 years, closely on 
these issues. I believe President Musharraf is firmly committed 
to this fight.
    Senator Kerry. Ambassador Wood.
    Mr. Wood. Senator, only to echo what Ambassador Crocker 
said.
    Certainly my briefings here in Washington indicate that 
there is no intention, no policy of the Government of Pakistan 
to tolerate a Taliban presence, to lend support to Taliban or 
other terrorist groups in that region.
    Pakistan also faces an insurgency in Balukistan, which 
Pakistan has also not been able to resolve, physically. So, 
there is a parallel example, not related to the Taliban, and 
not related to Afghanistan, of the lack of capacity of Pakistan 
to deal directly and conclusively with the problem. But we 
don't think it's a question of will.
    Senator Kerry. Thank you.
    Senator Coleman.
    Senator Coleman. Just for the record, I think it was the 
hope that we could move these nominations forward, perhaps 
voice vote them today, so that they could be on the ground very 
quickly.
    Does your keeping the record open preclude that? In other 
words--?
    Senator Kerry. Well, it would if we were going to do that. 
I was not aware that Senator Biden was planning to do that. If 
he is, obviously, we don't want to interrupt that.
    I'm correct, it's going to happen at the next business 
meeting. So, it'll be the issue of, I think, the 1 week, since 
we're not here. So, it'll have to be the next business meeting.
    In that case, obviously, unless Senator Biden changes--I 
think these are the last votes coming up--and so I don't think 
it's going to be possible for us to have a quorum between now 
and then, which is why I left that open. But I'd make that 
contingent on--if there were to be a business meeting to be 
able to be scheduled--then the record will not stay open that 
period of time.
    Senator Coleman. Thanks, Mr. Chairman.
    Senator Kerry. I appreciate your calling it to our 
attention.
    Well, thank you very much, gentlemen. You've heard praise 
from everybody here, for obvious reasons. We're confident you 
will be confirmed, overwhelmingly, as rapidly as possible, and 
we look forward to getting you out there.
    And again, we want to thank your families. This is not easy 
on anybody, we understand that, and we're very grateful to 
everybody for being willing to take this on.
    Thank you, we stand adjourned.
    [Whereupon, at 10:43 a.m., the hearing was adjourned.]
                              ----------                              


             Questions and Answers Submitted for the Record


          Responses of William B. Wood to Questions Submitted 
                      by Senator Richard G. Lugar

    Question. Since the 1947 partition of India, Pakistani and Afghan 
relations have been at odds about India's activities in Afghanistan. 
According to the World Food Program, the Government of Pakistan 
prohibits the transit of Indian aid bound for Afghanistan.
    (A) What role do you see India playing in Afghanistan, as well as 
what role does it play in the tensions between Pakistan and 
Afghanistan?
    (B) To what degree is a broader regional diplomatic approach 
necessary to sustainable stability and development in Afghanistan?
    (C) How will you and your staff engage with the United States 
embassy in India?
    (D) What other international institutions working in Afghanistan 
recognize and address India's role in the region?

    Answer. (A) I understand that India has played a constructive role 
in Afghanistan and is considering expanding its activities there. There 
are four Indian consulates in Afghanistan plus an embassy in Kabul. It 
is the eighth largest donor overall and does important infrastructure 
work, mainly in roads and power. The Indians are also considering 
assistance to help provide training to Afghan bureaucrats. Three 
Indians have been killed while working on reconstruction projects. In 
addition, last November, India hosted the Regional Economic Cooperation 
Conference on Afghan Reconstruction. Both India and Afghanistan 
consider their relationship to be a close and important one.
    The Afghan-Indian relationship does cause tension in the region. 
The Indians are frustrated by Pakistan's refusal to allow direct 
overland transit from India across Pakistan and into Afghanistan. The 
Pakistanis express concerns over Indian's growing presence in 
Afghanistan.
    (B) The United States is pursuing a broad regional approach in 
Central and South Asia that will bind the two regions together and help 
secure Afghanistan's future. The objective is to link energy-rich 
Central Asia with energy-poor South Asia via an Afghan ``land bridge'' 
that will encourage stability and promote economic development.
    (C) The staff of Embassy Kabul cooperates closely with our 
colleagues in New Delhi over the variety of issues important to United 
States' interests as they relate to Afghanistan and India. If 
confirmed, I will participate fully in this dialog.
    (D) A variety of international organizations, including the U.N. 
and NATO, recognizes India's work in Afghanistan, and work with India 
to achieve their common goals.

    Question. Afghanistan's Governments have never recognized the 
Durand Line between the two countries as an international border and 
have made claims on areas in the Pashtun and Baluch regions of 
Pakistan.
    Is the issue of the Durand Line an important element of the current 
Afghan-Pakistan tension?

    Answer. The Durand Line continues to be an unresolved issue between 
Afghanistan and Pakistan. The status of the line is not an active issue 
and neither the Pakistani nor Afghan Governments is pressing for it to 
be resolved immediately.

    Question. Afghanistan has long been considered a ``buffer'' state 
to its neighbors who have manipulated politics, commerce, and 
governance. With the demise of the Soviet Union, the Central Asia 
nations have exerted more influence, although not always independently, 
as has China.
    What significant, positive and negative activities and roles have 
China, Tajikistan, Uzbekistan, Turkmenistan, and Iran each taken in 
regard to Afghan stabilization and reconstruction from the United 
States' perspective?

    Answer. Regional stability, counterterrorism, energy security, 
trade and economic growth, and antinarcotics production and trafficking 
are common themes in Afghanistan's relationship with China, Tajikistan, 
Uzbekistan, Turkmenistan, and Iran, and in this regard these countries 
have more of a stake in each other's prosperity than at any other time 
in history. All five of these regional neighbors have participated in 
the two Regional Economic Cooperation Conferences on Afghanistan, the 
first held in Kabul in December 2005 and the second in New Delhi in 
November 2006.
    The Afghan Government is in the process of negotiating bilateral 
power purchase agreements with Tajikistan, Turkmenistan, and Uzbekistan 
as part of Afghanistan's Northern Electrical Power System (NEPS) 
project, which aims to bring reliable, unimpeded power to Kabul by 
2009. Each country involved clearly recognizes the economic benefits 
that will come from cooperation. We remain confident in the ultimate 
success of this initiative.
    Tajikistan and Afghanistan have a particularly strong bilateral 
relationship. A United States-funded bridge between Tajikistan and 
Afghanistan, due to be completed in summer 2007, will revitalize 
regional trade routes and serve as a symbol of positive change.
    Iran and Afghanistan share antinarcotic and border security 
objectives, and near Herat, Afghanistan's largest western city, Iran 
has built multilane highways and provided uninterrupted electricity. 
Iran has invested over $300 million in Afghanistan over the past 5 
years. There are concerns, however, over the influence of Iranian 
economic assistance in certain parts of the country. We need to remain 
vigilant about Iranian activities in Afghanistan.
    China has also played a low-key role in Afghanistan. Since 2001, 
China has pledged $210 million in bilateral assistance for development 
projects, although we understand that very little has actually been 
distributed due to security concerns. China shares our concerns about 
cross-border extremism, narcotics production and trafficking, and the 
destabilization that Taliban-style radicalism could produce in Central 
Asia, including in nearby regions of China. China has sponsored the 
Shanghai Cooperation Organization, which is a regional grouping 
designed to enhance political and economic cooperation.

    Question. A significant amount of information from a variety of 
sources indicates that continued instability in Afghanistan, especially 
in the south and east, is due to the unconstrained flow of persons and 
resources across the Afghan-Pakistan border, thus fueling insurgent 
efforts to destabilize Afghanistan's Government.
    How will you and your entire embassy engage with Ambassador 
Crocker, until he departs, and our United States mission in Islamabad 
to moderate the negative influences across that border and encourage 
mutual support?

    Answer. The staff at the United States embassy in Kabul is in 
frequent contact with its counterparts at the United States embassy in 
Islamabad. I intend to continue that close cooperation, including 
through regular informal exchanges of views, frequent visits, and 
occasional joint calls on our host governments. I will work with 
Ambassador Crocker and his successor to ensure that our messages to 
senior officials in the Pakistani and Afghan Governments and to our 
allies in NATO's International Security Assistance Force are mutually 
reinforcing. In the past, Embassies Kabul and Islamabad have 
periodically sent groups of their staff to the other capital in order 
to meet with their embassy counterparts, as well as with host 
government officials. If confirmed, I will seek to continue this 
practice.

    Question. You have specifically highlighted the importance of our 
Provincial Reconstruction Teams across the country as a critical link 
for the central government, and that you intend to concentrate on their 
activities. It appears that significant resources have been shifted 
from the north and west to the highly volatile south and east. Though 
these resources are necessary in the south and east, the rationale to 
reduce resources elsewhere that are prone to following the same path of 
increasing violence and instability appears misguided.
    (A) Are resources being reduced in the still volatile western and 
northern regions?
    (B) How will you ensure that neglect does not precipitate a target 
for those being squeezed out of the south and east, as the poppy 
production has so easily done?
    (C) To what degree have NATO nations backed up their call for 
increased reconstruction funds to accompany their security efforts 
since taking over security responsibility in November at International 
Security Assistance Force?

    Answer. (A-B) I am committed to protecting the gains made 
throughout Afghanistan since 2001, particularly in the north and west. 
There has not been a significant shift of resources from the north and 
west to the south and east. Rather, we are adding resources--and asking 
allies to do the same--in the areas where they are most needed to 
accomplish our mission.
    The increase of 3,500 United States troops in eastern Afghanistan, 
announced on February 9, will not reduce forces and engagement 
elsewhere in Afghanistan. Together with our allies, we will continue to 
ensure that the necessary capabilities and resources are allocated to 
accomplish our mission throughout all of Afghanistan.
    Nor are we reducing our commitment to Provincial Reconstruction 
Teams in the north and west as a result of our efforts to augment 
efforts in the south and east. Sweden and NATO allies, Norway and 
Hungary, stepped in to lead Provincial Reconstruction Teams in the 
north and west when the British and Dutch moved assets from northern 
Provincial Reconstruction Teams to the more volatile south in 2005 and 
2006. Thanks to this coordination among NATO allies, there has been no 
reduction of Provincial Reconstruction Team presence in the north and 
west.
    (C) The international community--including NATO allies who took 
responsibility for security throughout Afghanistan in October 2006--has 
shown commitment and staying power in Afghanistan, both in security and 
development. Since 2001, NATO allies and others in the international 
community have made multiyear reconstruction and security assistance 
pledges to Afghanistan totaling over $31.8 billion (through 2013), more 
than enough to cover all recurrent budgetary expenditures and put the 
country well on its way to meeting the 5-year operating (recurrent and 
development) target of $20 billion established in the 5-year (2006-
2011) Afghan National Development Strategy.

    Question. Significant United States resources have been expended in 
concert with the international community since 2001 in removing the 
Taliban government, dispersing al-Qaeda, establishing an elected 
government, stabilizing, and helping to rebuild Afghanistan. The 
Government of Afghanistan has continued to call for the use of a common 
fund for reconstruction and development that is administered by the 
Afghan Government in order to empower its ministries and reduce 
competition for human and financial resources.
    (A) Describe how United States funds flow to projects in 
Afghanistan, bilateral and multilateral assistance. Show these flows 
for the last 2 years.
    (B) Why are the funds provided in this way and what is U.S. policy 
regarding the common international funding vehicle?

    Answer. (A) I am committed to effective, efficient, and timely 
implementation of all United States and multilateral assistance in 
Afghanistan. Total United States assistance to Afghanistan stands at 
over $14.2 billion from fiscal year 2001 to fiscal year 2007. This 
assistance cuts across U.S. Federal agencies, with roughly 65 percent 
coming from the Department of Defense, 30 percent coming from the 
Department of State and U.S. Agency for International Development, and 
another 5 percent coming from other Departments (Justice, Treasury, 
etc.). In fiscal year 2006, total United States security and 
reconstruction assistance to Afghanistan exceeded $3.3 billion, and in 
fiscal year 2007 stands at over $2.7 billion. In February, the 
administration requested an additional $6.9 billion (combined 
Department of Defense and Department of State) in assistance for 
Afghanistan through a fiscal year 2007 supplemental.
    Department of State and U.S. Agency for International Development 
funds--constituting roughly 30 percent of all United States aid to 
Afghanistan--are implemented through a variety of mechanisms, including 
procurement contracts, grants to nongovernmental organizations, 
technical assistance to the Afghan Government, and several U.N. and 
World Bank-administered programs and trust funds (Afghan Reconstruction 
Trust Fund, Law and Order Trust Fund of Afghanistan, Counter-Narcotics 
Trust Fund, and the National Solidarity Program). If confirmed, one of 
my first tasks will be to review implementation mechanisms for our 
projects, and coordination with other bilateral and multilateral 
donors.
    (B) Increasing aid effectiveness was a major theme at the 2006 
London Conference and figures prominently in the Afghanistan Compact 
adopted by over 60 nations. The Afghan Government asked that donors 
channel foreign assistance directly through it, both to strengthen the 
role of the government and to provide cost-effective and efficient 
means of disbursing aid.
    Assistance covers a wide spectrum--including institutional reform, 
policy formulation, human resources management, budgetary preparation 
and execution, technical expertise, procurement, and other topics. 
USAID is also performing assessments of line ministries--through the 5-
year, over $200 million Afghans Building Capacity program (ABC) to 
identify where there are gaps in the ability to execute procurements, 
manage budgets, and provide effective oversight (internal and external 
to the ministry)--key elements required for the Government of 
Afghanistan to be able to more effectively execute projects on behalf 
of the people. The program will also provide technical assistance to 
the ministries to help build their capacity.
    I am committed to increasing the Afghan Government's ability to 
efficiently disburse donor assistance, build its physical 
infrastructure, and develop institutional safeguards against 
corruption.
    In the meantime, we have augmented our long-term capacity-building 
efforts with contributions totaling over $500 million to the various 
international funding vehicles that channel assistance directly through 
the Afghan Government. The United States is the largest contributor to 
the Law and Order Trust Fund for Afghanistan, and is the second largest 
contributor to the Afghanistan Reconstruction Trust Fund. We have also 
made significant contributions to the National Solidarity Program and 
Counter-Narcotics Trust Fund.

    Question. Nongovernmental organizations have played a significant 
role in Afghanistan since well before the Taliban arrived.
    What will your priorities be with regard to working with the 
nongovernmental organization community?
    Where do you see the nongovernmental organization community in the 
larger picture of aid to Afghanistan?

    Answer. If confirmed, I intend to establish a close dialog with 
nongovernmental organizations on human rights including women's rights, 
humanitarian issues, and the host of social and technical issues in 
which they are active. Nongovernmental organizations play a vital role 
in helping Afghanistan recover from the post-conflict devastation 
brought on by three decades of war and violence. Many of the State 
Department and U.S. Agency for International Development assistance 
programs in Afghanistan are channeled through United States and Afghan 
nongovernmental organizations who are working on the front lines of 
reconstruction.
    Nongovernmental organizations work in all 34 Afghan provinces and 
help us reach remote corners of the country where our assistance would 
otherwise be limited. In addition, some organizations have longstanding 
ties to Afghanistan, providing a critical history of trust in a society 
that strongly values enduring relationships.
    Nongovernmental organizations are also helping local communities 
strengthen their capacity and move beyond the traumatic Taliban period 
by emphasizing women's empowerment. Over 50 percent of United States 
funds provided to local Afghan nongovernmental organizations are either 
women-led or provide services that directly assist women and girls.
    I will continue to coordinate closely with nongovernmental 
organizations as a priority partner in Afghanistan's reconstruction.

    Question. The current supplemental request of $8.6 billion contains 
a sizable portion for security sector reform, including a portion for 
the fourth attempt at police training in Afghanistan. In the November 
2006 Inspectors General Report for the Department of State and the 
Department of Defense entitled ``Interagency Assessment of Afghanistan 
Police Training and Readiness,'' Appendix J--a letter from Commander 
CENTCOM--indicated their concern that State did not appreciate their 
``legal and official role'' as the official lead for police train and 
equip. This ambiguity raises concern over effective oversight and 
management of the program.
    (A) What is the State Department's response to the report and what 
has State done to ensure the recommendations made have been implemented 
or considered for implementation?
    (B) What recommendations have been adopted by State and other 
actors in the program?
    (C) How will you ensure the State Department maintains its proper 
role in police training and equipping and assure full and effective 
oversight and policy guidance?
    (D) What measures of effectiveness will be used in this new effort 
to train police to ensure that reconstruction resources are having more 
than just a superficial effect?
    (E) How will this program be monitored to ensure that the policy of 
building a security sector capacity is more than just a spreadsheet 
calculation of output and rather a true measure of its effectiveness in 
meeting Afghans expectations and its institutional responsibilities?

    Answer. (A) The State Department is pleased with the conclusion of 
the Inspector General Report that the Afghanistan Police Program is a 
well-executed program. State also agrees with the report's assessment 
of the challenges involved in effecting reform in an insecure 
environment.
    All of the recommendations made by the report have either already 
been carried out or are in the process of being implemented. State has 
already increased the strength of the mentor program by more than 50 
percent from 252 mentors at the time the report was drafted, to nearly 
400 field mentors, 40 executive and professional mentors, and 80 
training advisors present in Afghanistan today. We also continue to 
work with our international partners to encourage additional 
contributions and coordinate accordingly, particularly as the European 
Union (EU) works to develop and implement plans for an upcoming EU 
mission to Afghanistan. The EU anticipates providing up to 160 police 
advisors who will complement existing mentoring and reform efforts 
undertaken by Germany and the United States.
    State has also created and filled a permanent Contracting Officer 
Representative position at Embassy Kabul and provided copies of the 
relevant contracting documents to both the embassy and Combined 
Security Transition Command-Afghanistan (CSTC-A, the military 
organization responsible for oversight of security assistance programs 
in Afghanistan). State is also working with CSTC-A and Embassy Kabul to 
draft the strategic documents recommended in the report and has already 
begun implementing the first phase of a regionally based joint justice/
police integration project to address the need identified by the report 
for linkages between the two sectors.
    (B) Please see previous answer.
    (C) State fully appreciates its leadership role in implementation 
of the Afghan Police Program and continues to work closely with 
Defense, Embassy Kabul, and CSTC-A to ensure that all elements of 
execution of this critical program are well coordinated, executed, and 
properly monitored. In addition to the contracting personnel mentioned 
above, State also has dedicated teams of expert police advisors 
embedded within Embassy Kabul and within CSTC-A to provide oversight 
for all elements of the program for which State has responsibility.
    The CENTCOM letter referenced in the question (Appendix J) states 
only that the report ``should be closely reviewed and amended to ensure 
that it accurately states the legal and official responsibilities and 
authorities related to the police train and equip mission,'' 
articulating a concern that the report be fully accurate in its 
description of the roles and responsibilities of each implementer--
something both Defense and State had highlighted as a concern.
    (D) Departments of State and Defense work closely together to 
ensure we are monitoring the program effectively using appropriate 
metrics. While we continue to monitor the number of police trained and 
deployed, we also work with CSTC-A to assess the capability of Afghan 
police, unit by unit, to assume responsibility for the internal 
security of Afghanistan. Such monitoring is accomplished through use of 
the field mentors who report regularly on the qualitative progress of 
the ANP they mentor.
    (E) Please see previous answer.

    Question. International observers and human rights defenders note 
serious discrepancies between the Afghan Government's declared support 
for international human rights standards and the activities of Afghan 
officials at the provincial and district levels.
    How would you characterize those observations?
    If confirmed, what initiatives would you undertake to help 
Afghanistan's Government better promote and protect human rights in all 
regions of the country?

    Answer. Although Afghanistan has made important human rights 
progress since the fall of the Taliban in 2001, Afghanistan's human 
rights record remains poor. This is mainly due to weak central 
institutions, a deadly insurgency, and an ongoing recovery from 2\1/2\ 
decades of war.
    In its annual Country Reports on Human Rights Practices for 
Afghanistan, the United States Department of State documented numerous 
cases of arbitrary arrests and detention, extrajudicial killings, 
torture, and poor prison conditions. Prolonged detention, often due to 
a severe lack of resources and pervasive corruption in the judicial 
system, is a serious problem. There are also cases of official impunity 
and abuse of authority by local leaders.
    Afghans also frequently turn to the informal justice system, which 
does not always protect human rights principles. As reported in the 
U.S. Department of State's Annual Report on International Religious 
Freedom, freedom of religion, although provided for by the national 
constitution, is restricted in practice.
    Afghanistan has, however, made historic progress toward democracy 
and the protection of human rights since the fall of the Taliban in 
2001. The new Afghan Constitution includes broad human rights 
protections for all Afghans and recognition of Afghanistan's 
international human rights obligations. In accordance with the 2002 
Bonn Agreement, the government established the Afghan Independent Human 
Rights Commission, which now has nine regional offices throughout the 
country, has resolved numerous complaints of human rights violations, 
and closely monitors the overall human rights situation, as well as 
individual cases.
    In the January 2006 Afghanistan Compact, the Government of 
Afghanistan committed to: Strengthen its capacity to comply with and 
report on its human rights treaty obligations; adopt corrective 
measures including codes of conduct and procedures aimed at preventing 
arbitrary arrest and detention, torture, extortion, and illegal 
expropriation of property; strengthen freedom of expression, including 
freedom of media; include human rights awareness in education 
curricula; promote human rights awareness among legislators, judicial 
personnel and other government agencies, communities, and the public; 
monitor human rights through the government and independently by the 
Afghan Independent Human Rights Commission; and support the commission 
in the fulfillment of its objectives with regard to monitoring, 
investigation, protection, and promotion of human rights by end-2010.
    The Government of Afghanistan also committed in the Afghanistan 
Compact to implement the Peace, Reconciliation, and Justice Action plan 
by end-2008. This transitional justice plan identified five areas for 
action, including strengthening the credibility and accountability of 
state institutions.
    If confirmed, I will press the Afghan authorities, at all levels, 
on these issues and emphasize that good governance, respect for human 
rights including women's rights, and the rule of law are essential. 
Together with our allies and partners, and the United Nations, I will 
also encourage initiatives that consolidate a stronger sense among all 
Afghans that they have a stake in building a democratic government that 
respects human rights.

    Question. The Karzai government has included known warlords and 
other individuals suspected of criminal activities in its 
administration. This risks a further loss of credibility for the new 
Government of Afghanistan and an inability to hold government officials 
accountable or effectively pursue the rule of law in general.
    How is the United States dealing with such appointments? Is the 
administration (U.S.) looking into this issue?
    What steps is it considering to try to address the negative impact 
this is having on the rule of law?

    Answer. The United States is watching closely the historic 
transition of Afghanistan from civil war and a legacy of severe human 
rights abuse toward democracy and the protection of human rights. We 
support the Action Plan on Peace, Reconciliation, and Justice; the 
reconciliation of insurgents through the Program Takhim-e-Soh (PTS); 
the work of the Afghan Independent Human Rights Commission; and reform 
and strengthening of the judicial system.
    Specifically, we strongly encourage the Afghan Government's 
implementation of the 3-year Action Plan on Peace, Reconciliation, and 
Justice, adopted in December 2005 and launched by President Karzai on 
December 10, 2006. The plan has five key elements: Acknowledging of the 
suffering of the Afghan people; strengthening the credibility and 
accountability of state institutions; establishing the truth about 
atrocities committed between the Revolution in April 1978 and the fall 
of the Taliban in late 2001; promoting reconciliation; and establishing 
a proper accountability mechanism to investigate and prosecute 
individuals who committed war crimes and other egregious human rights 
abuses. All five components are important.
    We also encourage a determined fight against corruption inside the 
Afghan Government. In 2006, President Karzai appointed an Attorney 
General and a Chief Justice who are focusing intensely on corruption. 
The Afghan Government has also taken a number of steps against corrupt 
governors and officials, and several governors have been removed over 
the past 12 months. Additionally, the Afghan Government initiated rank 
and pay reform to remove police officers involved in human rights 
violations and high-level corruption. The reform resulted in the 
removal of more than 70 senior-level officers. International support 
for recruiting and training of new Afghan National Police is also 
conditional upon new officers being vetted in a manner consistent with 
international human rights standards. We will make sure that these 
policies are continued and fully implemented.
                                 ______
                                 

           Responses of Ryan Crocker to Questions Submitted 
                      by Senator Richard G. Lugar

    Question. You may remember our meeting during June 2003, on my trip 
to Baghdad, where we sat in a poorly lit, somewhat air-conditioned 
conference room meeting with three clerics, a Sunni, a Shiite, and a 
Christian who waxed at length about their vision for Iraq and how it 
was under Saddam. Some have suggested the winner-take-all sectarian 
nature to Iraqi affairs occurred much later, or was created by the 
United States' unseating of Saddam. What is your view?

    Answer. The majority of Iraqis still express gratitude for their 
liberation from Saddam Hussein's tyrannical regime. Circumstances 
afterwards, however, have undermined the conditions necessary to 
provide Iraqis with the security and stability they deserve. Since 
2003, the combination of insurgent and al-Qaeda in Iraq (AQI)-led 
attacks on Iraqi civilians, often based on their sectarian affiliation, 
has led to increased tension between Iraq's Sunni and Shia populations. 
The most damaging was an attack on one of the most holy Islamic Shia 
sites, Al-Askariya Mosque, in February 2006. As a result, sectarian 
tensions burst into the open.
    The Government of Iraq is currently committed to a new Baghdad 
Security Plan that is focused on quelling sectarian violence and 
protecting the population. A key component of this strategy is Prime 
Minister Maliki's commitment to pursuing all perpetrators of violence 
regardless of their sect or party affiliation. We are supporting the 
Government of Iraq in these efforts.

    Question. The National Intelligence Estimate (NIE) mentioned a 
``bottom up approach'' could help reverse the negative trends. Would 
you care to comment?

    Answer. The NIE defined a ``bottom-up approach'' to reversing 
negative trends in Iraq as one which promotes neighborhood watch groups 
and establishment of grievance committees. It is certainly true that 
any mechanism that empowers ordinary citizens to solve their problems 
according to a rule of law process, vice the force of violence, is a 
step in the right direction as part of a larger process of national 
reconciliation.
    We believe that a coordinated set of actions at both the national 
and local level need to proceed simultaneously to help reverse the 
negative trends the NIE identified. At the local level, Provincial 
Reconstruction Teams are charged with strengthening moderates, 
marginalizing extremists, and otherwise empowering local governments to 
deliver goods and services to an electorate that will hold them 
accountable.
    This is one way in which we are implementing a bottom-up approach. 
Much of the efforts to empower local Iraqis to solve their problems 
will have to be implemented by the Iraqis themselves. A new provincial 
powers law is being debated in the Council of Representatives, which 
will help, though the task of implanting it will be a challenge. A host 
of reconciliation initiatives have been proposed. The process of 
mending frayed relationships will be one of which Iraqis will need to 
work for many years to come.

    Question. I am hopeful Congress will begin meaningful debate soon 
on 2007 Supplemental Appropriations, which you will need to execute 
your mission. It has some $824 million to operate the embassy and PRT's 
and another $966 million for economic support programs, rule of law, 
democracy, migration and refugee assistance, and USAID operating 
expenses. Will this be sufficient to leverage the Iraqis to action on 
their budget execution?

    Answer. The fiscal year 2007 Supplemental request level of $2.34 
billion is critical to building Iraqi self-reliance and to expanding 
our current efforts to improve the institutional capacity of key Iraqi 
ministries to address the needs of the Iraqi people. We will focus on 
developing the Iraqi Government's critical management capabilities, 
such as budget formulation and execution, which will improve services 
and enhance the governance capacity of Iraq's executive branch. With 
these funds, project management units will be established to help Iraqi 
ministries execute their budgets. Iraq has signaled its intent to 
improve its capital budget spending in 2007 by including a provision in 
the budget law passed by parliament that permits the Ministries of 
Finance and Planning and Development Cooperation to transfer capital 
investment funds from those ministries and provincial governments 
failing to spend 25 percent of their capital budgets by the midpoint of 
the fiscal year to ministries with better prospects for executing 
projects with those funds.
    This funding will also expand the presence of Provincial 
Reconstruction Teams (PRTs). One of the main missions of PRT's is to 
work with local governments to improve their capacity, including their 
ability to design programs and request money from the central 
government. We are encouraged that the 2007 Iraqi budget includes over 
$2 billion for regional governments.
    On January 10, the Secretary named Ambassador Tim Carney as the 
Coordinator for Economic Transition in Iraq. Ambassador Carney, who is 
based in Baghdad, reports directly to the ambassador and will work 
closely with Iraqi officials to ensure that Iraq's considerable 
resources are brought to bear on the task of rebuilding Iraq. One of 
the issues he will focus on is helping the Iraqis better execute their 
budgets, particularly on capital spending for investments to improve 
essential services and promote economic development.
    USAID operating expenses are not included in the fiscal year 2007 
Supplemental request, but have been included in the fiscal year 2008 
GWOT Costs request.

    Question. To what extent can private sector solutions be expanded 
effectively in Iraq? How can we structure our assistance to improve 
that effort?

    Answer. Private sector solutions can and should be expanded 
effectively in Iraq. Iraq has a tradition of over 4,000 thousand years 
of entrepreneurship and commerce. Today, private sector-led growth 
could energize the Iraqi economy. This is especially true for such 
critical sectors as banking and microfinance, which could meet an 
enormous pent-up demand for credit, an economic force multiplier.
    We have worked hard to support private-sector solutions in Iraq. 
Under the Iraq Relief and Reconstruction Fund (IRRF), we have supported 
a program to expand microfinance institutions to provide small- and 
medium-sized companies with the capital they would not otherwise be 
able to borrow. The goal of these programs is to help establish these 
institutions, which will then serve as models for other Iraqi 
institutions, including commercial banks, to emulate. To date, USG 
support has enabled six microcredit institutions to extend over 29,000 
loans. We are also providing technical assistance programs to help Iraq 
enact the kinds of laws and regulations that will make it easier to 
register companies, conduct trade, and access credit. We have requested 
funds under the fiscal year 2007 supplemental to continue these 
activities until Iraqi institutions can fill this void.
    It is also worth noting that DoD's effort to restart idle State 
Owned Enterprises (SOEs) and other manufacturing entities in Iraq has 
privatization as a long-term goal.

    Question. Are our policies encouraging Iraqi Government officials 
to continue to reduce subsidies, reduce the public distribution system 
to a means tested entitlement for the poorest Iraqis, and provide the 
commercial legal framework to stimulate not only agriculture, but 
canning and other agribusiness?

    Answer. As part of Iraq's Stand-By Arrangement (SBA) with the IMF, 
the GoI has agreed to phase out the PDS and replace it with a targeted, 
means-tested system to protect Iraq's most vulnerable citizens. We 
support GoI's efforts to phase out the PDS and have provided the GoI 
with a comprehensive analysis of the cost of the PDS and 
recommendations for how to eliminate this system. The Iraq 
Reconstruction and Management Office (IRMO) has an officer at the 
Ministry of Trade who monitors the PDS to make sure that food is 
getting to the various parts of Iraq. Also, the United States 
Department of Agriculture has an officer in Iraq who monitors food 
imports, including for the PDS.
    In 2003, under the CPA, the Ministry of Trade promulgated a rule 
stating that anyone could register to receive their PDS benefits at a 
new location as long as they had their ration card. However, there are 
reports that the pre-2003 practice of de-registering at one's former 
food distribution point and registering at the food distribution point 
in one's new neighborhood is now being reinstituted. It is not certain 
that the GoI is redirecting food from areas with net population losses 
to areas with net population gains to ensure adequate supplies.

    Question. The international community is gearing up to help with 
the refugee and IDP population, but what is the Iraqi Government doing?

    Answer. The response to the IDP situation within the Government of 
Iraq rests on the Ministry of Displacement and Migration (MODM). The 
ministry, which was created in 2003, has branches in each of the Iraqi 
provinces, except the three Kurdish provinces. MODM periodically 
distributes food and nonfood items and collects data on the number of 
displaced persons.
    For a third consecutive year, the U.S. Government has funded a 
capacity building program to train MODM staff and assist it to develop 
its mandate, operating procedures and policies, and its coordinating 
role with nongovernmental organizations assisting IDPs. The Iraqi 
Government, United States Government, and the United Nations High 
Commissioner for Refugees (UNHCR), the United Nations' focal point for 
refugees and IDPs, will continue to work with MODM to strengthen its 
capacity to coordinate assistance to IDPs and refugees.
    UNHCR is increasing its staff in the region to help with the 
increased numbers of IDPs and refugees.
    The Ministry of Trade provides all Iraqis, including IDPs, monthly 
food rations. The Ministry of Social Affairs provides rent subsidies to 
a small percentage of IDPs (around 10 percent).

    Question. Who in the embassy will you charge with the refugee and 
IDP issue? What is the military role in this matter?

    Answer. We have a political officer designated as the Refugee 
Coordinator at our embassy in Iraq. The Refugee Coordinator works 
closely with counterparts at the State Department, particularly those 
in the Bureau of Population, Refugees, and Migration and USAID/OFDA, as 
well as with counterparts at United States embassies in the region, 
such as Amman and Damascus. The Refugee Coordinator also works with the 
Multi-National Force in Iraq to address protection issues relating to 
Iraqi IDPs and refugees. I would refer you to the Department of Defense 
for more specific information on the role of the military in this 
matter.

    Question. The old oil-for-food food ration system is still in 
place--but I understand that Iraqis cannot access it if they have fled 
from their homes. Can we help the Iraqis construct a more flexible 
distribution to help feed IDPs?

    Answer. To date, the overwhelming majority of Iraqi internally 
displaced persons (IDPs) have sought shelter with host families. United 
States Government agencies are actively providing protection and 
assistance to IDPs and their host communities in Iraq, including 
distribution of food and other necessities. With additional resources, 
including funds in the fiscal year 2007 supplemental request, we will 
expand our assistance program activities to reach more IDPs and host 
communities.
    Since fiscal year 2003, the Agency for International Development's 
Office of Foreign Disaster Assistance (OFDA) has contributed more than 
$194 million to provide humanitarian assistance to vulnerable 
populations in Iraq. In fiscal year 2006, OFDA's program assisted 
175,000 IDPs. In fiscal year 2007, OFDA plans to increase the number of 
beneficiaries to 300,000.
    OFDA's partner organizations fund rapid response mobile teams and 
provide emergency food assistance and relief commodities, including 
winterization supplies. OFDA's partners are also improving IDPs' access 
to safe drinking water and adequate sanitation facilities, supporting 
small-scale community infrastructure, and providing water by tanker 
truck where necessary. In addition, they oversee livelihood programs 
providing income generation and cash-for-work opportunities, as well as 
vocational training.
    In addition, the State Department, in partnership with the U.N. 
High Commissioner for Refugees and the International Committee of the 
Red Cross, provides substantial relief to IDPs in Iraq, including 
supplying food and household items to 50,000 vulnerable families.
    Neither the United States Government nor other entities directly 
advise the Government of Iraq (GoI) on the Public Distribution System 
(PDS). As part of Iraq's Stand-By Arrangement (SBA) with the IMF, the 
GoI has agreed to phase out the PDS and replace it with a targeted, 
means-tested system to protect Iraq's most vulnerable citizens. We 
support the GoI's efforts to phase out the PDS. We have provided the 
GoI with a comprehensive analysis of the cost of the PDS and 
recommendations for how to eliminate this system.
    In 2003, under the CPA, the Ministry of Trade promulgated a rule 
stating that anyone could register to receive their PDS benefits at a 
new location as long as they had their ration card. However, there are 
reports that the pre-2003 practice of requiring Iraqis to de-register 
at their former food distribution point and re-register at the food 
distribution point in their new neighborhood is now being reinstituted.

    Question. How much does it cost to train an Arabic speaker to 3:3 
capability? What percentage of Arabic speakers in the Foreign Service 
have served at least a year in Iraq? Please be as detailed as you can 
in responding to this.

    Answer. The Arabic course at the Foreign Service Institute (FSI), 
which is designed to bring an individual from a 0/0 (zero) level of 
proficiency to a 3S/3R (General Professional Proficiency in speaking 
and reading), is a 2-year program. The first year, in Washington, DC, 
is designed to bring an individual from 0 to 2S/2R (Limited Working 
Proficiency) and estimated instructional costs are about $28,000 for 44 
weeks of training (based on fiscal year 2006 tuition rate). The second 
year, overseas at FSI's field school in Tunis, typically brings these 
individuals to a 3S/3R and estimated instructional costs are about 
$32,000 (based on fiscal year 2006 cost recovery formulation). 
Instruction cost estimates do not include nontraining expenditures, 
such as employee salaries and benefits, post allowances, per diem (in 
Washington), travel and POV shipping, post-housing and post-
support.State Department recruiters specifically target schools and 
organizations with language programs to increase the recruitment of 
Arabic and other critical needs language speakers. Since 2004, the 
Department has given bonus points in the hiring process to Foreign 
Service candidates with demonstrated proficiency in languages such as 
Arabic, Urdu, and Farsi, among others. These bonus points materially 
increase the chance of receiving a job offer for candidates who have 
passed the written examination and oral assessment.
    The Department of State requires Arabic speakers to demonstrate a 
score of S2/RO (Limited Working Speaking Proficiency/No Reading 
Proficiency) or above to meet tenure requirements. As of December 31, 
2006, there were 676 Foreign Service generalists and specialists with a 
tested Arabic proficiency of S2/RO or higher, including employees 
trained by FSI and employees who already spoke Arabic before joining 
the Department. These Arabic speakers fill critical language designated 
positions at more than 20 embassies and consulates throughout Near East 
Asia.
    Of the 676 Arabic speakers, 74 Foreign Service employees (11 
percent) have served in Iraq for at least 1 year. Twenty-nine of those 
employees speak Arabic at a proficiency level of S3/R3 or above and 45 
employees speak Arabic at a level less than S3/R3. When the initial 
deployment for Iraq began in 2003, most personnel were sent for 6-month 
assignments. Eighty-seven of the Foreign Service's Arabic speakers (13 
percent) have served in Iraq for a 6-month assignment, with 41 
employees at a proficiency level less than S3/R3 and 46 employees at 
S3/R3 or above. If 6-month and 1-year tours in Iraq are considered 
together, 161 of the Foreign Service's Arabic speakers (24 percent of 
the total) have served in Iraq since 2003.

    Question. Secretary Gates said that he engaged the cabinet in this 
issue, but have you had opportunity to engage other cabinet agencies 
who have been slow to provide needed expertise? What else can be done 
to ensure we get the most qualified individuals on the job?

    Answer. NSPD 36 directed cabinet agencies to encourage their 
employees to take assignments in Iraq on a nonreimbursable basis. In 
response, some highly qualified United States Government employees from 
a number of Federal agencies have served with distinction in Iraq. But, 
in other cases, equally talented employees have found it difficult to 
volunteer for Iraq service, because their parent agencies do not have 
the necessary budget for overseas travel, danger pay, and other 
extraordinary personnel costs. In the fiscal year 2007 supplemental, we 
have requested funding to reimburse other agencies for these extra 
costs for employees going to serve in Iraq. We believe this funding 
will make an appreciable difference in the ability of all cabinet 
agencies to contribute directly to our mission in Iraq.
                                 ______
                                 

          Responses of William B. Wood to Questions Submitted 
                        by Senator Barbara Boxer

    Question. On December 26, 2006, the Los Angeles Times published an 
article entitled ``Heroin From Afghanistan Is Cutting a Deadly Path.'' 
According to the article, ``supplies of highly potent Afghan heroin in 
the United States are growing so fast that the pure white powder is 
rapidly overtaking lower-quality Mexican heroin, prompting fears of 
increased addiction and overdoses.''
    Can you please review this article in detail and comment on its 
assertions? How much Afghan opium has entered the United States each 
year since 2000? Has it increased on a yearly basis? Is there a 
significant difference between Afghan and Mexican opium?

    Answer. The United States Drug Enforcement Administration (DEA) has 
no reports that can verify the article's suggestion that Afghan heroin, 
as a percentage of the United States market, has doubled from 7 to 14 
percent. Though DEA does not break down heroin by country of origin 
(except for Mexico), DEA believes that the United States' market share 
of Afghan heroin is approximately 8 percent, and asserts that it has 
not seen a spike in the United States. Further, the Department of 
Homeland Security Contraband Smuggling Unit reports that it has not 
seen anything indicating that there is an increase in Afghan heroin in 
the United States. The reporter for this article used Heroin Signature 
Program numbers for Southwest Asian heroin as the basis for his story. 
This number encompasses more than just Afghanistan and is not the 
overall measure of heroin in the United States. Moreover, local law 
enforcement also is not in a position to be able to determine where the 
heroin is sourced from; only DEA analyzes and categorizes this 
information through lab analyses and its Heroin Domestic Monitoring 
Program (ROMP). The HDMP reported that in calendar year 2005, only 3 
percent of the samples purchased and analyzed was identified as 
Southwest Asian heroin. South American heroin accounted for 56 percent 
and Mexican heroin for 40 percent of the samples purchased and 
analyzed.
    The difference between Afghan heroin and Mexican heroin is in its 
purity levels. Afghan heroin can have purity levels of up to 90 percent 
while Mexican black tar heroin is of low quality, with purity levels of 
less than 35 percent. Mexican brown tar heroin purity can range from 
50-70 percent. Many of the deaths due to overdoses have been attributed 
to Fentanyl, a synthetic heroin with very high purity levels, which may 
be confused with heroin from Southwest Asia.
    The Center for Disease Control's Epidemic Intelligence Service 
reports that the increase in the number of deaths cannot be attributed 
specifically to heroin as the statistics used from the International 
Classification of Diseases (ICD-10 codes) indicate deaths from a broad 
range of drugs.

    Question. S.147--the Afghan Women Empowerment Act--would provide 
resources where they are much needed in Afghanistan, to Afghan women-
led nongovernmental organizations, empowering those who will continue 
to provide for the needs of the Afghan people long after the 
international community has left.
    S. 147 would provide $30 million to women-led nongovernmental 
organizations to specifically focus on providing direct services to 
Afghan women--services such as adult literacy education, technical and 
vocational training, and health care services. In addition, it would 
authorize the President to appropriate $5 million to the Afghan 
Ministry of Women's Affairs and $10 million to the Afghan Independent 
Human Rights Commission.
    How could such funds benefit the women of Afghanistan?

    Answer. In fiscal year 2006, $50 million was provided specifically 
to support programs and activities benefiting women and girls. 
Activities funded include microfinance, and small- and medium-
enterprise loans for women; vocational training and employment 
opportunities to women, especially in areas of poppy production; 
comprehensive programs for maternal and child health; community 
education for girls in remote areas; literacy and textbooks for girls; 
support to the Women's Teacher Training Institute and the Women's 
Dormitory at Kabul University; access to justice systems for women; 
gender advisor for economic governance and private sector 
strengthening; support to the Afghan Women's Business Federation and 
Arzu Carpets; capacity building for the Ministry of Women's Affairs; 
and support for recurrent operations and maintenance costs related to 
women programs of the Government of Afghanistan's budget.
    The United States agrees that women-led and women-focused 
nongovernmental organizations are critical to Afghanistan's 
advancement. Should the $30 million specified in S. 147 be made 
available, we would provide technical assistance and other resources 
benefiting women-led nongovernmental organizations, as is planned under 
the mission's new, comprehensive capacity building program known as 
Afghans Building Capacity, or ``ABC,'' which, among other things, 
focuses on teaching nongovernmental organization-specific skills to 
develop, implement, and monitor effective projects. Women-led 
nongovernmental organizations are lacking. This intense capacity 
building effort will help.
    With additional funding we would intend to pursue the following 
implementation steps:

Sec.   <bullet> Outreach--Strengthen and diversify our outreach to 
        women-led/focused organizations. Although we have grants with 
        five women-led organizations today and work closely with the 
        Afghan Women's Network's 80 members, we are looking to include 
        others.
  <bullet> Capacity Building--As noted above, we would provide training 
        and technical assistance to women-led and women-focused 
        nongovernmental organizations as well as to entities that 
        interact with the nongovernmental organizations, such as the 
        various ministries, universities, businesses and local 
        government offices. This training and assistance will 
        specifically target the design, implementation and monitoring 
        of projects. It also aims to build skills among women-focused 
        and women-led nongovernmental organizations so that they may 
        better involve communities in program development, 
        implementation, and monitoring.

    Question. Pakistan is currently one of the largest recipients of 
United States foreign aid. In fact, funding to reimburse Pakistan for 
its support of United States-led counterterrorism operations is 
currently estimated at $80 million per month. However, the Afghan 
Government and many other experts argue that Pakistan has done little 
to stop the flow of weapons and fighters into Afghanistan, and in fact 
may even be aiding the insurgency. What can be done to produce stronger 
results from Pakistan?

    Answer. Pakistan is a vital partner in our fight against the 
Taliban and al-Qaeda. The Government of Pakistan is committed to the 
war on terror and is taking strong measures to eliminate the threat 
posed by both the Taliban and al-Qaeda. Pakistan has lost hundreds of 
its soldiers, a number of its civilian officials, and dozens of pro-
government tribal leaders in the tribal belt who have engaged in 
combating the Taliban and al-Qaeda.
    As President Musharraf has acknowledged, Pakistan does not have 
enough security forces to control the rugged 1,500 mile border with 
Afghanistan. Several million Afghan refugees live in Pakistan, many of 
them concentrated in large refugee camps; the Taliban has used these 
camps as hideouts. The Government of Pakistan also perceives militant 
extremism in the Federally Administered Tribal Areas as a major threat 
to the nation's internal security. However, President Musharraf has 
undertaken military operations against terrorists on Pakistani soil in 
spite of domestic opposition.
    We continue to urge the Government of Pakistan to take forceful 
measures against all terrorist groups, including the Taliban. We also 
support President Musharraf's efforts to adopt a more comprehensive 
approach to combating terrorism and countering insurgency.
    I understand that the State Department plans to support an 
initiative to enhance the capacity of local security forces in the 
border regions, such as the indigenous Frontier Corps, Frontier 
Constabulary, and tribal levies. We will also support Pakistan's 
Sustainable Development Plan for the tribal areas for economic and 
social development and governance reform intended to meet the needs of 
the local population and render them more resistant to violent 
extremists such as al-Qaeda and the Taliban.
    For my part, if confirmed, I intend to work daily not only with the 
Government of Afghanistan but also with our embassy in Islamabad to 
strengthen Afghan-Pakistani cooperation along the border and effective 
action against terrorists and their supporters there.

    Question. There have been reports that many Afghans feel that their 
country is not a high priority for the United States. What will you do 
to change this perception?

    Answer. Polling data shows that the United States continues to 
enjoy the confidence of the Afghan people. Even in less secure areas of 
the country, a 60 percent majority continues to express confidence in 
the U.S. mission (ABC News Poll, October 2006). Nationwide, the trend 
is even better. A large majority of Afghan citizens view the United 
States' influence as positive, and 74 percent of Afghans have a 
favorable view of the United States (ABC News Poll, October 2006). The 
Taliban is facing the opposite scenario. It has a national approval 
rating of 7 percent--its lowest since 2004. Over 90 percent of Afghans 
disapprove of Taliban attacks on Afghan citizens--whether military or 
civilians (ABC News Poll, October 2006).
    Afghans continue to consider electricity, jobs, roads, and security 
as their top priorities. Our assistance program--over $14.2 billion 
since 2001, with an additional $10.6 billion requested for fiscal year 
2007 and fiscal year 2008--is addressing these concerns, which is one 
reason why a majority of Afghan citizens continue to be hopeful for the 
future.
    If confirmed, I will work hard to ensure that United States efforts 
in Afghanistan receive the support of the Afghan people and that they 
in turn understand the extent of their efforts and do their part to 
ensure success.

    Question. International observers and human rights defenders note 
serious discrepancies between the Afghan Government's declared support 
for strong human rights and the activities of Afghan officials at the 
provincial and district levels. Do you believe these characterizations 
are accurate? If confirmed, what specific initiatives would you 
undertake as ambassador to help Afghanistan's Government better promote 
and protect human rights in all regions of the country?

    Answer. Although Afghanistan has made important human rights 
progress since the fall of the Taliban in 2001, Afghanistan's human 
rights record remains poor. This is mainly due to weak central 
institutions, a deadly insurgency, and an ongoing recovery from 2\1/2\ 
decades of war.
    In its annual Country Reports on Human Rights Practices for 
Afghanistan, the United States Department of State documented numerous 
cases of arbitrary arrests and detention, extrajudicial killings, 
torture, and poor prison conditions. Prolonged detention, often due to 
a severe lack of resources and pervasive corruption in the judicial 
system, is a serious problem. There are also cases of official impunity 
and abuse of authority by local leaders. Afghans also frequently turn 
to the informal justice system, which does not always protect human 
rights principles. As reported in the United States Department of 
State's Annual Report on International Religious Freedom, freedom of 
religion, although provided for by the national constitution, is 
restricted in practice.
    Afghanistan has, however, made historic progress toward democracy 
and the protection of human rights since the fall of the Taliban in 
2001. The new Afghan Constitution includes broad human rights 
protections for all Afghans and recognition of Afghanistan's 
international human rights obligations. In accordance with the 2002 
Bonn Agreement, the government established the Afghan Independent Human 
Rights Commission, which now has nine regional offices throughout the 
country, has resolved numerous complaints of human rights violations, 
and closely monitors the overall human rights situation, as well as 
individual cases.
    In the January 2006 Afghanistan Compact, the Government of 
Afghanistan committed to: Strengthen its capacity to comply with and 
report on its human rights treaty obligations; adopt corrective 
measures including codes of conduct and procedures aimed at preventing 
arbitrary arrest and detention, torture, extortion, and illegal 
expropriation of property; strengthen freedom of expression, including 
freedom of media; include human rights awareness in education 
curricula; promote human rights awareness among legislators, judicial 
personnel and other Government agencies, communities, and the public; 
monitor human rights through the government and independently by the 
Afghan Independent Human Rights Commission; and support the commission 
in the fulfillment of its objectives with regard to monitoring, 
investigation, protection, and promotion of human rights by end-2010.
    The Government of Afghanistan also committed in the Afghanistan 
Compact to implement the Peace, Reconciliation, and Justice Action plan 
by end-2008. This transitional justice plan identified five areas for 
action, including strengthening the credibility and accountability of 
state institutions.
    If confirmed, I will press the Afghan authorities, at all levels, 
on these issues and emphasize that good governance, respect for human 
rights including women's rights, and the rule of law are essential. 
Together with our allies and partners, and the United Nations, I will 
also encourage initiatives that consolidate a stronger sense among all 
Afghans that they have a stake in building a democratic government that 
respects human rights.

    Question. The significant rise in attacks against schools in 
Afghanistan--particularly against girls' schools--is of grave concern. 
What more can be done to ensure that children can safely attend school 
in Afghanistan? Is there any truth to recent reports that the Taliban 
is working to re-open girls' schools in the south?

    Answer. I share your concerns about attacks against schools and 
teachers in Afghanistan. Education for all young people and training 
for those who lost their school years during the last two decades of 
conflict are key to Afghanistan's future stability and development.
    Afghan law makes education up to the secondary level mandatory, and 
provides for free education up to the college, or bachelor's degree, 
level. According to the Ministry of Education there were 9,033 basic 
and secondary schools operating in Afghanistan in 2006. School 
enrollment increased from 4.2 million children in 2003 to over 5.2 
million during the year 2006. Of these, in primary school, 
approximately 35 percent are girls.
    Violence, however, continues to impede access to education in some 
parts of the country where Taliban and other extremists threaten or 
physically attack schools, officials, teachers, and students, 
especially in girls schools. The majority of school-related violence in 
2006 occurred in 11 provinces in the south. The Ministry of Education 
reported that 20 teachers were killed, 198 schools were attacked, and a 
total of 370 schools were closed temporarily during the year owing to 
attacks, preventing almost 220,000 students from receiving an 
education.
    The Afghan Government is prosecuting individual cases of attacks 
against teachers, students, and schools. In some districts, the local 
population has organized to protect their schools. Full access to 
education, however, will only be achieved through improved security. 
The United States is training and equipping Afghan National Police and 
Afghan National Army troops to help.
    We have no reason to believe that the Taliban are working to re-
open girl schools in the south.
                                 ______
                                 

           Responses of Ryan Crocker to Questions Submitted 
                      by Senator Richard G. Lugar

    Question. You may remember our meeting during June 2003, on my trip 
to Baghdad, where we sat in a poorly lit, somewhat air-conditioned 
conference room meeting with three clerics, a Sunni, a Shiite, and a 
Christian who waxed at length about their vision for Iraq and how it 
was under Saddam. Some have suggested the winner-take-all sectarian 
nature to Iraqi affairs occurred much later, or was created by the 
United States' unseating of Saddam. What is your view?

    Answer. The majority of Iraqis still express gratitude for their 
liberation from Saddam Hussein's tyrannical regime. Circumstances 
afterwards, however, have undermined the conditions necessary to 
provide Iraqis with the security and stability they deserve. Since 
2003, the combination of insurgent and al-Qaeda in Iraq (AQI)-led 
attacks on Iraqi civilians, often based on their sectarian affiliation, 
has led to increased tension between Iraq's Sunni and Shia populations. 
The most damaging was an attack on one of the most holy Islamic Shia 
sites, Al-Askariya Mosque, in February 2006. As a result, sectarian 
tensions burst into the open.
    The Government of Iraq is currently committed to a new Baghdad 
Security Plan that is focused on quelling sectarian violence and 
protecting the population. A key component of this strategy is Prime 
Minister Maliki's commitment to pursuing all perpetrators of violence 
regardless of their sect or party affiliation. We are supporting the 
Government of Iraq in these efforts.

    Question. The National Intelligence Estimate (NIE) mentioned a 
``bottom up approach'' could help reverse the negative trends. Would 
you care to comment?

    Answer. The NIE defined a ``bottom-up approach'' to reversing 
negative trends in Iraq as one which promotes neighborhood watch groups 
and establishment of grievance committees. It is certainly true that 
any mechanism that empowers ordinary citizens to solve their problems 
according to a rule of law process, vice the force of violence, is a 
step in the right direction as part of a larger process of national 
reconciliation.
    We believe that a coordinated set of actions at both the national 
and local level need to proceed simultaneously to help reverse the 
negative trends the NIE identified. At the local level, Provincial 
Reconstruction Teams are charged with strengthening moderates, 
marginalizing extremists, and otherwise empowering local governments to 
deliver goods and services to an electorate that will hold them 
accountable.
    This is one way in which we are implementing a bottom-up approach. 
Much of the efforts to empower local Iraqis to solve their problems 
will have to be implemented by the Iraqis themselves. A new provincial 
powers law is being debated in the Council of Representatives, which 
will help, though the task of implanting it will be a challenge. A host 
of reconciliation initiatives have been proposed. The process of 
mending frayed relationships will be one of which Iraqis will need to 
work for many years to come.

    Question. I am hopeful Congress will begin meaningful debate soon 
on 2007 Supplemental Appropriations, which you will need to execute 
your mission. It has some $824 million to operate the embassy and PRT's 
and another $966 million for economic support programs, rule of law, 
democracy, migration and refugee assistance, and USAID operating 
expenses. Will this be sufficient to leverage the Iraqis to action on 
their budget execution?

    Answer. The fiscal year 2007 supplemental request level of $2.34 
billion is critical to building Iraqi self-reliance and to expanding 
our current efforts to improve the institutional capacity of key Iraqi 
ministries to address the needs of the Iraqi people. We will focus on 
developing the Iraqi Government's critical management capabilities, 
such as budget formulation and execution, which will improve services 
and enhance the governance capacity of Iraq's executive branch. With 
these funds, project management units will be established to help Iraqi 
ministries execute their budgets. Iraq has signaled its intent to 
improve its capital budget spending in 2007 by including a provision in 
the budget law passed by parliament that permits the Ministries of 
Finance and Planning and Development Cooperation to transfer capital 
investment funds from those ministries and provincial governments 
failing to spend 25 percent of their capital budgets by the midpoint of 
the fiscal year to ministries with better prospects for executing 
projects with those funds.
    This funding will also expand the presence of Provincial 
Reconstruction Teams (PRTs). One of the main missions of PRT's is to 
work with local governments to improve their capacity, including their 
ability to design programs and request money from the central 
government. We are encouraged that the 2007 Iraqi budget includes over 
$2 billion for regional governments.
    On January 10, the Secretary named Ambassador Tim Carney as the 
Coordinator for Economic Transition in Iraq. Ambassador Carney, who is 
based in Baghdad, reports directly to the ambassador and will work 
closely with Iraqi officials to ensure that Iraq's considerable 
resources are brought to bear on the task of rebuilding Iraq. One of 
the issues he will focus on is helping the Iraqis better execute their 
budgets, particularly on capital spending for investments to improve 
essential services and promote economic development.
    USAID operating expenses are not included in the fiscal year 2007 
supplemental request, but have been included in the fiscal year 2008 
GWOT costs request.

    Question. To what extent can private sector solutions be expanded 
effectively in Iraq? How can we structure our assistance to improve 
that effort?

    Answer. Private sector solutions can and should be expanded 
effectively in Iraq. Iraq has a tradition of over 4,000 years of 
entrepreneurship and commerce. Today, private sector-led growth could 
energize the Iraqi economy. This is especially true for such critical 
sectors as banking and microfinance, which could meet an enormous pent-
up demand for credit, an economic force multiplier.
    We have worked hard to support private-sector solutions in Iraq. 
Under the Iraq Relief and Reconstruction Fund (IRRF), we have supported 
a program to expand microfinance institutions to provide small- and 
medium-sized companies with the capital they would not otherwise be 
able to borrow. The goal of these programs is to help establish these 
institutions, which will then serve as models for other Iraqi 
institutions, including commercial banks, to emulate. To date, United 
States Government support has enabled six microcredit institutions to 
extend over 29,000 loans. We are also providing technical assistance 
programs to help Iraq enact the kinds of laws and regulations that will 
make it easier to register companies, conduct trade, and access credit. 
We have requested funds under the fiscal year 2007 supplemental to 
continue these activities until Iraqi institutions can fill this void.
    It is also worth noting that DoD's effort to restart idle State 
Owned Enterprises (SOEs) and other manufacturing entities in Iraq has 
privatization as a long-term goal.

    Question. Are our policies encouraging Iraqi Government officials 
to continue to reduce subsidies, reduce the public distribution system 
to a means tested entitlement for the poorest Iraqis, and provide the 
commercial legal framework to stimulate not only agriculture, but 
canning and other agribusiness?

    Answer. As part of Iraq's Stand-By Arrangement (SBA) with the IMF, 
the GoI has agreed to phase out the PDS and replace it with a targeted, 
means-tested system to protect Iraq's most vulnerable citizens. We 
support GoI's efforts to phase out the PDS and have provided the GoI 
with a comprehensive analysis of the cost of the PDS and 
recommendations for how to eliminate this system. The Iraq 
Reconstruction and Management Office (IRMO) has an officer at the 
Ministry of Trade who monitors the PDS to make sure that food is 
getting to the various parts of Iraq. Also, the United States 
Department of Agriculture has an officer in Iraq who monitors food 
imports, including for the PDS.
    In 2003, under the CPA, the Ministry of Trade promulgated a rule 
stating that anyone could register to receive their PDS benefits at a 
new location as long as they had their ration card. However, there are 
reports that the pre-2003 practice of de-registering at one's former 
food distribution point and registering at the food distribution point 
in one's new neighborhood is now being reinstituted. It is not certain 
that the GoI is redirecting food from areas with net population losses 
to areas with net population gains to ensure adequate supplies.

    Question. The international community is gearing up to help with 
the refugee and IDP population, but what is the Iraqi Government doing?

    Answer. The response to the IDP situation within the Government of 
Iraq rests on the Ministry of Displacement and Migration (MODM). The 
ministry, which was created in 2003, has branches in each of the Iraqi 
provinces, except the three Kurdish provinces. MODM periodically 
distributes food and nonfood items and collects data on the number of 
displaced persons.
    For a third consecutive year, the U.S. Government has funded a 
capacity building program to train MODM staff and assist it to develop 
its mandate, operating procedures and policies, and its coordinating 
role with nongovernmental organizations assisting IDPs. The Iraqi 
Government, United States Government, and the United Nations High 
Commissioner for Refugees (UNHCR), the United Nations' focal point for 
refugees and IDPs, will continue to work with MODM to strengthen its 
capacity to coordinate assistance to IDPs and refugees.
    UNHCR is increasing its staff in the region to help with the 
increased numbers of IDPs and refugees.
    The Ministry of Trade provides all Iraqis, including IDPs, monthly 
food rations. The Ministry of Social Affairs provides rent subsidies to 
a small percentage of IDPs (around 10 percent).

    Question. Who in the embassy will you charge with the refugee and 
IDP issue? What is the military role in this matter?

    Answer. We have a political officer designated as the Refugee 
Coordinator at our embassy in Iraq. The Refugee Coordinator works 
closely with counterparts at the State Department, particularly those 
in the Bureau of Population, Refugees, and Migration and USAID/OFDA, as 
well as with counterparts at United States embassies in the region, 
such as Amman and Damascus. The Refugee Coordinator also works with the 
Multi-National Force in Iraq to address protection issues relating to 
Iraqi IDPs and refugees. I would refer you to the Department of Defense 
for more specific information on the role of the military in this 
matter.

    Question. The old oil-for-food food ration system is still in 
place--but I understand that Iraqis cannot access it if they have fled 
from their homes. Can we help the Iraqis construct a more flexible 
distribution to help feed IDPs?

    Answer. To date, the overwhelming majority of Iraqi internally 
displaced persons (IDPs) have sought shelter with host families. United 
States Government agencies are actively providing protection and 
assistance to IDPs and their host communities in Iraq, including 
distribution of food and other necessities. With additional resources, 
including funds in the fiscal year 2007 supplemental request, we will 
expand our assistance program activities to reach more IDPs and host 
communities.
    Since fiscal year 2003, the Agency for International Development's 
Office of Foreign Disaster Assistance (OFDA) has contributed more than 
$194 million to provide humanitarian assistance to vulnerable 
populations in Iraq. In fiscal year 2006, OFDA's program assisted 
175,000 IDPs. In fiscal year 2007, OFDA plans to increase the number of 
beneficiaries to 300,000.
    OFDA's partner organizations fund rapid response mobile teams and 
provide emergency food assistance and relief commodities, including 
winterization supplies. OFDA's partners are also improving IDPs' access 
to safe drinking water and adequate sanitation facilities, supporting 
small-scale community infrastructure, and providing water by tanker 
truck where necessary. In addition, they oversee livelihood programs 
providing income generation and cash-for-work opportunities, as well as 
vocational training.
    In addition, the State Department, in partnership with the U.N. 
High Commissioner for Refugees and the International Committee of the 
Red Cross, provides substantial relief to IDPs in Iraq, including 
supplying food and household items to 50,000 vulnerable families.
    Neither the United States Government nor other entities directly 
advise the Government of Iraq (GoI) on the Public Distribution System 
(PDS). As part of Iraq's Stand-By Arrangement (SBA) with the IMF, the 
GoI has agreed to phase out the PDS and replace it with a targeted, 
means-tested system to protect Iraq's most vulnerable citizens. We 
support the GoI's efforts to phase out the PDS. We have provided the 
GoI with a comprehensive analysis of the cost of the PDS and 
recommendations for how to eliminate this system.
    In 2003, under the CPA, the Ministry of Trade promulgated a rule 
stating that anyone could register to receive their PDS benefits at a 
new location as long as they had their ration card. However, there are 
reports that the pre-2003 practice of requiring Iraqis to de-register 
at their former food distribution point and re-register at the food 
distribution point in their new neighborhood is now being reinstituted.

    Question. How much does it cost to train an Arabic speaker to 3:3 
capability? What percentage of Arabic speakers in the Foreign Service 
have served at least a year in Iraq? Please be as detailed as you can 
in responding to this.

    Answer. The Arabic course at the Foreign Service Institute (FSI), 
which is designed to bring an individual from a 0/0 (zero) level of 
proficiency to a 3S/3R (General Professional Proficiency in speaking 
and reading), is a 2-year program. The first year, in Washington, DC, 
is designed to bring an individual from 0 to 2S/2R (Limited Working 
Proficiency) and estimated instructional costs are about $28,000 for 44 
weeks of training (based on fiscal year 2006 tuition rate). The second 
year, overseas at FSI's field school in Tunis, typically brings these 
individuals to a 3S/3R and estimated instructional costs are about 
$32,000 (based on fiscal year 2006 cost recovery formulation). 
Instruction cost estimates do not include nontraining expenditures, 
such as employee salaries and benefits, post allowances, per diem (in 
Washington), travel and POV shipping, post-housing and post-support.
    State Department recruiters specifically target schools and 
organizations with language programs to increase the recruitment of 
Arabic and other critical needs language speakers. Since 2004, the 
Department has given bonus points in the hiring process to Foreign 
Service candidates with demonstrated proficiency in languages such as 
Arabic, Urdu, and Farsi, among others. These bonus points materially 
increase the chance of receiving a job offer for candidates who have 
passed the written examination and oral assessment.
    The Department of State requires Arabic speakers to demonstrate a 
score of S2/R0 (Limited Working Speaking Proficiency/No Reading 
Proficiency) or above to meet tenure requirements. As of December 31, 
2006, there were 676 Foreign Service generalists and specialists with a 
tested Arabic proficiency of S2/R0 or higher, including employees 
trained by FSI and employees who already spoke Arabic before joining 
the Department. These Arabic speakers fill critical language designated 
positions at more than 20 embassies and consulates throughout Near East 
Asia.
    Of the 676 Arabic speakers, 74 Foreign Service employees (11 
percent) have served in Iraq for at least 1 year. Twenty-nine of those 
employees speak Arabic at a proficiency level of S3/R3 or above and 45 
employees speak Arabic at a level less than S3/R3. When the initial 
deployment for Iraq began in 2003, most personnel were sent for 6-month 
assignments. Eighty-seven of the Foreign Service's Arabic speakers (13 
percent) have served in Iraq for a 6-month assignment, with 41 
employees at a proficiency level less than S3/R3 and 46 employees at 
S3/R3 or above. If 6-month and 1-year tours in Iraq are considered 
together, 161 of the Foreign Service's Arabic speakers (24 percent of 
the total) have served in Iraq since 2003.

    Question. Secretary Gates said that he engaged the cabinet in this 
issue, but have you had opportunity to engage other cabinet agencies 
who have been slow to provide needed expertise? What else can be done 
to ensure we get the most qualified individuals on the job?

    Answer. NSPD 36 directed cabinet agencies to encourage their 
employees to take assignments in Iraq on a nonreimbursable basis. In 
response, some highly qualified United States Government employees from 
a number of Federal agencies have served with distinction in Iraq. But, 
in other cases, equally talented employees have found it difficult to 
volunteer for Iraq service, because their parent agencies do not have 
the necessary budget for overseas travel, danger pay, and other 
extraordinary personnel costs. In the fiscal year 2007 supplemental, we 
have requested funding to reimburse other agencies for these extra 
costs for employees going to serve in Iraq. We believe this funding 
will make an appreciable difference in the ability of all cabinet 
agencies to contribute directly to our mission in Iraq.


                              NOMINATIONS

                              ----------                              


                       TUESDAY, FEBRUARY 27, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    Fox, Sam, to be Ambassador to Belgium
Phillips, Stanley Davis, to be Ambassador to the Republic of 
        Estonia
                              ----------                              

    The committee met, pursuant to notice, at 2:50 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Barack Obama 
presiding.
    Present: Senators Obama, Kerry, Cardin, Coleman, Voinovich, 
and DeMint.

            OPENING STATEMENT OF HON. BARACK OBAMA,
                   U.S. SENATOR FROM ILLINOIS

    Senator Obama. This hearing will please come to order. This 
is the hearing of the Senate Foreign Relations Committee. 
Today, the committee will consider the nominations of Mr. 
Stanley Davis Phillips to serve as Ambassador to Estonia and 
the nomination of Mr. Sam Fox to serve as Ambassador to 
Belgium.
    I welcome both gentlemen and their families to our hearing.
    Now, I know we have a busy agenda. There are a number of 
witnesses who are wishing to present what I will--what I'm sure 
will be glowing testimony of both nominees. Because we've got a 
lot of people who wanted to speak, we're going to try to keep 
things moving, and I ask that everybody try to keep their 
comments as brief as possible. And I will try to lead by 
example.
    The ambassadorial posts for which Mr. Phillips and Mr. Fox 
have been nominated are important ones, and there are 
significant U.S. interests at stake in both relationships. 
Estonia has been a leader in efforts to establish more 
democratic, accountable governments in eastern Europe; the 
country's troops have also served alongside U.S. forces in 
numerous international peacekeeping missions. Belgium is a 
founding member of NATO and the European Union, and the host 
country to both these institutions. Belgium's relationship with 
the United States provides the diplomatic backdrop for most 
high-level discussions on transatlantic cooperation, so it's 
clearly critical that we have capable, qualified individuals in 
these two positions.
    I see that we have a number of Members of the Senate, and 
former Members of the Senate, who are interested in introducing 
the nominee, so, in the interest of time, I will stop here and 
turn to my good friend Senator DeMint, ranking member of the 
European Affairs Subcommittee, for his opening statement. And 
following that, we'll proceed to introductions and opening 
statements from the witnesses.
    Senator DeMint. Thank you, Mr. Chairman.
    Out of deference to Senator Coleman, since he was here 
first, if he would like to make an opening statement, I'll 
yield to him first.
    Senator Coleman. Mr. Chairman, I'll yield to the ranking 
member at this time. And I know a number of my colleagues--I'm 
sure their schedules are full, so I would hold my statement and 
comments until after the ranking member and my colleagues have 
had a chance to do their introductions.
    Senator Coleman. Thank you. And, Mr. Chairman, I'll try to 
be brief.

                 STATEMENT OF HON. JIM DeMINT,
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. And thanks for holding this hearing and 
moving the process forward.
    Good afternoon, Mr. Fox and Mr. Phillips. I appreciate your 
being here today and your willingness to serve our Nation as 
ambassadors.
    Today, the role of an ambassador is daunting. Without a 
doubt, there are many challenges and opportunities in Europe, 
and you will both be in very crucial positions to help foster 
the transatlantic relationships between the United States and 
Europe. Your willingness to be good listeners and advocates are 
vital to U.S. foreign policy.
    Often, we hear European leaders express how the United 
States and Europe share a common set of values. I agree with 
them. We have a long history of shared values that include the 
ideals of freedom and economic opportunity. We're committed to 
the idea of free markets and free societies. However, if we 
truly share these values, we all must believe they contain the 
answers to the challenges that confront us. European societies 
and their economies currently face many of the demographic 
problems we will face in the near future. There are lessons we 
can learn from them, but there are also ideas that we can 
share. The ideas of free marks and free societies can unleash 
creative solutions.
    I believe European nations have incredible capability and 
potential to grow and to be more productive; however, it 
requires a willingness on the part of Europe's leaders to draft 
policies that unleash their people and trust what they're 
capable of.
    As ambassadors, it's important you share and advocate the 
values that serve as a foundation to our prosperity. With your 
influence, Europe can be an even larger driving force in the 
world, economically and socially, and that would benefit 
everyone.
    I also hope you will spend more of your time outside the 
embassy and government offices. The American culture is loved 
in Europe, but the same is not always true of American policy. 
However, the two cannot be conveniently separated, as many 
Europeans believe. And successful diplomacy is no longer an 
activity just between heads of state, but between the people of 
each nation. Much of this can be accomplished through and 
economic ties. If you're committed to changing perceptions and 
wish to be successful American advocates, you will need to 
deliver your messages to the people directly.
    The best days of Europe are still ahead, and you both can 
play a role in making this a reality. I thank you both again 
for being willing to serve.
    And thank you, Mr. Chairman, I'll yield back.
    Senator Obama. Thank you, Senator.
    At this point, what I'd like to do is welcome my colleagues 
from North Carolina who are here to introduce Mr. Phillips. And 
we're going to go in order of both seniority and 
attractiveness----
    [Laughter.]
    Senator Burr. Leave me out of it.
    Senator Obama [continuing]. With Senator Dole, and then 
we'll proceed to Senator Burr.

               STATEMENT OF HON. ELIZABETH DOLE,
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Dole. Thank you, Mr. Chairman, Senator DeMint, 
Senator Coleman. It's a great privilege to introduce Dave 
Phillips, who has been nominated by the President to serve as 
the sixth United States Ambassador to the Republic of Estonia.
    I'm honored to come before this committee to 
enthusiastically express my support for this nomination. Dave 
and his wife, Kay, have been dear friends through many years. 
Dave is one of the finest government and business leaders that 
North Carolina has known, and is more than qualified to join 
the ranks of our diplomatic corps.
    Our country is blessed, indeed, to have such talented and 
experienced people who are willing to serve in our embassies 
overseas. I'm confident that Dave will serve with great 
distinction as the primary liaison between the United States 
and Estonia.
    If confirmed, Dave Phillips will be responsible for 
promoting and protecting United States interests in Estonia, 
ever more important to the region as a whole since the collapse 
of the Soviet Union in 1991. Since then, the country has been 
able to develop economic and political ties with western 
Europe, and, in just the past few years, has joined NATO, the 
European Union, and the World Trade Organization. Estonia is a 
success story, how a former Soviet bloc country can transition 
to a democracy and modern market economy.
    Just last September, President Bush visited Estonia to 
underscore the importance of free-market democracies and what 
they demonstrate to countries pursuing the same goals. Without 
question, Dave Phillips is the right person to serve as our 
chief representative to this country at this time. He's been 
involved in international commerce his entire professional 
life. As an international businessman, he promoted American 
furniture and textile businesses abroad. As Secretary of 
Commerce for North Carolina, he built relationships with other 
countries and is responsible for North Carolina's offices in 
Hong Kong, Tokyo, Mexico City, Frankfurt, and London. He led 
trade missions around the world and interfaced with business 
and government leaders, alike.
    For all of Dave's international achievements, his most 
stellar accomplishment may have been here at home. He served as 
chair of the World Games of the Special Olympics in 1999, 
which, I'm proud to say, were held in North Carolina. At those 
games, he was able to bring together represents from 150 
countries for a spectacular event.
    Mr. Chairman, with his vast business and government 
expertise, Dave Phillips possesses the critical diplomatic and 
leadership skills needed to succeed in this important position. 
He will make a first-rate United States Ambassador.
    Before I conclude, let me commend Aldona Wos for her 
service as United States Ambassador to the Republic of Estonia 
these past 2 years. Our country's relationship with Estonia, 
economically, politically, socially, and militarily, is better 
off because of Ambassador Wos's efforts.
    I'd also like to acknowledge Sam Fox, who has been 
nominated by the President to serve as United States Ambassador 
to Belgium. Sam has been a close personal friend of Bob and 
Elizabeth Dole for many years, and I have known him to be 
unparalleled in his commitment to philanthropy and education. 
He and his wife, Marilyn, do so much to better communities here 
at home and abroad. He will make an excellent United States 
Ambassador.
    Mr. Chairman, you have two outstanding nominees before you 
today.
    Thank you very much.
    Senator Obama. Thank you very much.
    Senator Burr.

                STATEMENT OF HON. RICHARD BURR,
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Mr. President--I mean, Mr. Chairman--excuse 
me----
    [Laughter.]
    Senator Obama. That's okay. [Laughter.]
    Senator Burr. That was a good Carolina suck-up there. 
[Laughter.]
    Mr. Chairman, thank you. To my colleagues, thank you for 
the opportunity for Senator Dole and me to come in and talk 
about, one, a dear friend, but, two, somebody who's eminently 
qualified. He's an extraordinary individual. He brings the 
qualifications that the United States needs in our embassies 
abroad. And I know he will do an outstanding job as the 
Ambassador to the Republic of Estonia.
    The United States and Estonia have had relations since 
1922. That relationship grew into a deep friendship when the 
United States continued to recognize Estonia's mission to the 
United States even while their homeland suffered 51 years of 
Soviet occupation. Indeed, this formed a solid foundation on 
which the United States and Estonia relations have flourished 
ever since, and Dave Phillips is the right man at the right 
time to continue to enhance those already strong ties.
    As an accomplished businessman, philanthropist, and father, 
Dave has, in fact, been performing the duties of an ambassador 
for many years, and we, from North Carolina, are so proud to 
call him our own.
    As you heard my colleague say, Dave represented the United 
States as the chair of the Special Olympics World Games here in 
Washington, and abroad, as a member of the board of the 
Smithsonian Institute, meeting and carrying America's message 
to leaders all over the world.
    United States relations in Europe are more important today 
than they've been since the fall of the Berlin Wall. Once 
again, we see a familiar Russia seeking to exert its influence 
throughout eastern Europe and the Baltics. This crucial time is 
why we need a man like Dave Phillips, with his deep 
understanding of business and commerce, to cement the United 
States/Estonia relationship and to reassert the United States 
support for a free and democratic Europe.
    I urge my colleagues strongly to support Dave Phillips' 
nomination.
    I, as my colleague Senator Dole has done, am also here to 
highlight the great nomination of Sam Fox. I know there are 
others here to speak for him, but I believe that, when you know 
somebody well, there are not enough people that can stand up 
and speak to your character and your ability. Today I am 
convinced we have two of the finest nominees in front of us 
that--the nominations could be made--to serve this country in 
our embassies abroad.
    I thank the Chair.
    Senator Obama. Thank you very much, Senator Burr.
    We, next, are going to get introductions for Mr. Fox. The 
senior Senator from Missouri is Senator Bond, but I understand 
that Senator McCaskill is supposed to be presiding in 15 
minutes. Senator Bond, would you be willing to let Senator 
McCaskill go first?
    Senator Bond. It's a pleasure to be here with my current 
colleague and former colleague, sir----
    Senator Obama. Absolutely.
    Senator Bond [continuing]. And I will pass the microphone 
delicately over to----
    Senator McCaskill. Thank you, Senator Bond.

              STATEMENT OF HON. CLAIRE McCASKILL,
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. Thank you, Mr. Chairman. And it is an 
honor to be here today with, also, Senator Danforth. He is--was 
a incredibly leader for our State and embodies so much of what 
we should be about in the United States Senate, and that is 
working across party lines to try to find that elusive middle 
ground that is good for all America.
    I am here today to embrace and endorse Sam Fox as the 
nominee of the President to Ambassador to Belgium. I think many 
people would maybe want to dwell on the fact that he is a--at 
his essence, a self-made man, the sixth child of immigrant 
parents, grew up in very modest surroundings, with no indoor 
plumbing. And the fact that he has made a wildly successful 
business--and, I think, for many in America, that is the 
American dream--I would like to just briefly credit Sam Fox for 
the part of the American dream that we don't spend enough time 
talking about, and that's the way he has grown his family of 
five children, and his grandchildren, and the way he has taught 
them all to look beyond self to the community. Through his 
foundation, he and his family give to over 150 different 
charities. St. Louis has been very lucky to receive the 
generosity of the Fox family in many different ways, whether 
it's Washington University, the Boy Scouts, or the Art Museum. 
He really is somebody that understands that we need to give 
tribute to the country that gives us so much by giving back to 
other people. And that, I think, is really the essence of the 
American dream.
    It is who he is as a man. He is a good man. He would be a 
great ambassador. I think he would make our country very proud. 
I think it is important right now that we send ambassadors 
around the world that make our country proud. I think Sam Fox 
would do that.
    And I would like permission to put my written statement in 
the record on his behalf.
    And I thank you for allowing me to speak briefly so that I 
may go do my freshman duty of presiding over the Senate.
    [The prepared statement of Senator McCaskill follows:]

              Prepared Statement of Hon. Claire McCaskill,
                       U.S. Senator From Missouri

    Mr. Chairman and fellow Senators, it is a privilege for me to join 
you today to present to the committee a distinguished citizen of the 
great State of Missouri, Sam Fox, who has been nominated by President 
Bush to be Ambassador to Belgium.
    Sam Fox represents much that is good about America and is an 
excellent choice to represent our country to the state of Belgium. The 
youngest child of immigrant parents, Sam is the quintessential self-
made man. As a small boy, growing up in a home that for many years 
lacked indoor plumbing, Sam realized that hard work, good ideas, and 
perseverance could take a person a long way. He put these values to use 
and worked his way into college, the first in his family to attend, and 
then worked his way straight through school. Twenty-five years after 
graduating, he founded the Harbour Group, a business that now has over 
$1.5 billion in annual revenues. Many would say that Sam Fox has lived 
the American dream--I would agree.
    But Sam Fox is not just characterized by his business success, but 
by his embracement of American values--hope, hard work, a sense of 
duty, an entrepreneurial spirit and--among our most revered values--a 
dedication to giving back to the community. Sam and his wife, along 
with their five children, contribute to over 150 charities through the 
Sam Fox Foundation. He has served as president of the Greater St. Louis 
Council of Boy Scouts and president of the Board of the St. Louis Art 
Museum. He has given extensively to his alma mater, Washington 
University, in St. Louis. He has been recognized with the Woodrow 
Wilson Award for Corporate Citizenship and the Marco Polo Award for his 
humanitarian and economic work involving China.
    Ninety-three years ago Sam's father, Max Fox, landed on Ellis 
Island so that he could provide a better life and a better future for 
his family. I recommend that this committee support Max's sixth child, 
Sam Fox, for the position of United States Ambassador to Belgium, where 
Sam can represent the great American story, the greatness of American 
values, and the great potential of the American dream.

    Senator Obama. Thank you very much, Senator.
    Senator Bond.

         STATEMENT OF HON. CHRISTOPHER S. ``KIT'' BOND,
                   U.S. SENATOR FROM MISSOURI

    Senator Bond. Thank you very much, Mr. Chairman, Senator 
DeMint, Senator Coleman, Senator Voinovich. It's an honor to 
join with fellow Missourians in supporting the nomination of 
the President of Sam Fox to be Ambassador to Belgium.
    Sam is a wonderful man, as you've heard already. We are 
delighted that he's accompanied by his marvelous family--his 
wife, Marilyn, and children, Cheryl, Pamela, Jeffrey, Greg, and 
Steven--whom I trust he will introduce.
    It's already been said, he has a distinguished record of 
service to the American people at the national, State, and 
community level, and I've had the pleasure of knowing Sam for 
many years, and know, as my colleague said, that he is a 
dedicated man who's spent his life pursuing projects that 
enrich our communities and our families.
    Professionally and morally, Sam is eminently qualified to 
hold the post for which he has been nominated. He does 
exemplify the American dream, born in Desloge, Missouri, a 
small town, he earned a bachelor's degree from Washington 
University, and proudly served in the U.S. Navy. In 1976, he 
founded the Harbour Group, a privately owned operating company 
specializing in the acquisition and development of 
manufacturing companies. His dedication and hard work has made 
Harbour Group one of the most successful companies of its kind 
in America.
    He's often frank and candid with his colleagues and his 
friends, but Sam's optimism and enthusiasm have made him a 
leader in the business community and will make him a valuable 
addition to the United States diplomatic corps in Europe.
    Sam's best known for his tireless advocacy of those in 
need. The son of Jewish immigrants, Sam remembers his parent 
were not wealthy, but they always sought to give back to the 
community that had given them hope for a new beginning. 
Following in this tradition, Sam and his wife, Marilyn, created 
the Fox Family Foundation over 20 years ago. Each year, the Fox 
Foundation supports up to 150 different organizations in the 
St. Louis area, to provide--including providing basic human 
needs, such as food and shelter, to those in need. However, 
Sam's efforts don't stop there. He's an exemplary citizen who 
has been extremely active in a wide variety of civic affairs. 
He's served in key leadership roles with the United Way, the 
Boy Scouts, the St. Louis Science Center, Civic Progress, and 
Barnes-Jewish Hospital. The communities Sam supports have 
recognized his contributions to the common good, as evidenced 
by the numerous awards he has received, including Woodrow 
Wilson Award for Corporate Citizenship and the St. Louis 
Citizen of the Year.
    Sam Fox's business achievement and philanthropic work leave 
no doubt in my mind that he has the ability to represent 
effectively the best interests of the United States. His 
understanding of complex issues that impact our national and 
international interests will stand him and the administration 
in good stead as we face the endless array of emerging 
challenges bound to emerge in the days, months, and years 
ahead.
    Sam's a good man, dedicated to his family, his community, 
and his country. As I stated previously, it's an honor to 
recognize his many contributions to our common good. Most of 
all, I'm proud to call him a friend. I know he'll serve the 
best interests of the United States ably and faithfully.
    Thank you, Mr. Chairman.
    Senator Obama. Thank you, Senator Bond.
    We will proceed, then, with Senator Lieberman, Senator 
Specter, and we will end with the distinguished Senator 
Danforth, from Missouri.
    Senator Lieberman.

             STATEMENT OF HON. JOSEPH I. LIEBERMAN,
                 U.S. SENATOR FROM CONNECTICUT

    Senator Lieberman Thank you. Senator Danforth can offer not 
only an endorsement, but a benediction. [Laughter.]
    Mr. Chairman, I'm honored to be here to join with Senator 
McCaskill, Senator Bond, Senator Specter, and our dear friend 
and former colleague Senator Danforth in urging this committee 
to report favorably on the nomination of Sam Fox to be 
Ambassador to Belgium.
    I suppose that the array--what I can add to this 
distinguished group of colleagues is to prove that Sam not only 
has bipartisan, but tripartisan, support----
    [Laughter.]
    Senator Lieberman [continuing]. For his nomination, and to 
say--just to echo, and really speak briefly--Sam Fox represents 
what America's all about. And that's why he will be, when 
confirmed, an extraordinary ambassador.
    It's been said, but these are wonderful stories. Somebody--
child of immigrants, born in very modest means, just had the 
dream that, in America, if you work hard and play by the rules, 
you can make it. And that's what he did, and he made it; and, 
when he did, he gave back to the community and the country in a 
thousand different ways.
    Sam is an extraordinary philanthropic person. If I may be 
more colloquial, he's one of the softest-touches in America. 
This guy doesn't say no to somebody who comes and asks for 
help. And he has given enormous--made an enormous amount of 
good things happen for people.
    I'd say just a word, that I don't mean to be parochial, but 
I say, as a Jewish American, that I'm proud to be supporting 
Sam Fox. As a proud Jewish American himself, he will bring that 
experience to Belgium, to the center of Europe, at a time when 
there is some division and suggestions of bias rising again. 
And Sam, from his own experience about the openness and mutual 
respect that he found in America, and that, in turn, he has 
given to this fellow Americans, I think, can have an 
extraordinarily positive effect. I'm honored to call Sam Fox my 
friend. I appreciate his friendship, and I am honored to ask 
you to send him to Brussels as our next ambassador.
    Thank you very much.
    Senator Obama. Thank you, Senator Lieberman.
    Senator Specter.

                STATEMENT OF HON. ARLEN SPECTER,
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Specter. Mr. Chairman, other distinguished members 
of this panel, I am proud to join this very distinguished array 
of introducers.
    I would ask unanimous consent that my full statement be 
made a part of the record, because I'm going to have to return 
to the Appropriations Committee, which is hearing----
    Senator Obama. Without objection.
    Senator Specter [continuing]. Secretary of State 
Condoleezza Rice and Secretary of Defense Bob Gates.
    I've known Sam for the better part of 20 years, and I 
associate myself with the remarks which have been made here.
    In conclusion, Mr. Chairman, if you had this much support, 
you'd be a shoo-in. [Laughter.]
    Senator Obama. Thank you.
    Senator Specter. Good luck, Sam.
    Mr. Fox. Thank you very much.
    Senator Specter. I don't think you need a whole lot of 
luck.
    [The prepared statement of Senator Specter follows:]

               Prepared Statement of Hon. Arlen Specter,
                     U.S. Senator From Pennsylvania

    I am pleased to attend today's Senate Foreign Relations Committee 
hearing in order to provide an introduction for Mr. Sam Fox of 
Missouri, who has been nominated to be Ambassador of the United States 
to Belgium.
    Mr. Fox was born and raised in Desloge, Missouri. He graduated with 
honors from Washington University in Saint Louis in 1951 and served in 
the U.S. Naval Reserve from 1951-1955.
    As the founder, chairman, and chief executive officer of the 
Harbour Group, Mr. Fox has helped the company earn an outstanding 
national reputation for its record of success in acquiring and building 
high quality companies.
    Mr. Fox has been extremely active in civic affairs, serving in key 
leadership roles in cultural, educational, and charitable institutions 
throughout the St. Louis area, including the Saint Louis Symphony 
Orchestra; the Opera Theatre of Saint Louis; Barnes-Jewish Hospital; 
the Saint Louis Science Center; Civic Progress; the Boy Scouts; the 
Saint Louis Art Museum; and the United Way.
    Mr. Fox has also been a major supporter of Washington University. 
From 1999-2001, Mr. Fox served as the vice chairman of the University's 
Board of Trustees. From 1998-2004 he served as the chairman of the 
Campaign for Washington University, helping raise over $1.5 billion. In 
2004, he became the only Lifetime Trustee elected in the University's 
history. In October 2006, the University showed its appreciation for 
his longtime service and support by dedicating the new Sam Fox School 
of Design and Visual Arts in his honor.
    Washington University is not alone in its praise for Mr. Fox. In 
2003, he was named Saint Louis Citizen of the Year, an annual award 
given to a community leader who demonstrates concern for Saint Louis' 
growth and vitality. That same year, he was a recipient of the Woodrow 
Wilson Award for Corporate Citizenship, which is given to those 
executives who recognize the role they can play in improving society in 
general, while at the same time advancing the long-term interests of 
their firms, employees, and shareholders. In 2005, he received the 
Horatio Alger Award, which recognizes Americans of modest roots who 
achieve success through hard work, honesty, and perseverance.
    I have traveled to Belgium seven times during my tenure in the 
Senate and have seen the work done by the United States Ambassador in 
Brussels firsthand. I am confident the embassy will be in good hands 
with Mr. Fox at the helm. I urge my colleagues on the Foreign Relations 
Committee to report his nomination favorably.
    I look forward to casting my vote in favor of Mr. Fox's nomination 
in the Senate.

    Senator Obama. And finally, Senator Danforth, who we thank 
not only for his service to the State of Missouri, but also for 
his service as United States Ambassador to the U.N., and, 
particularly timely, his outstanding work as a Special Envoy in 
Sudan. We very much appreciate your efforts on behalf of the 
country and the world.
    Please proceed.

                STATEMENT OF HON. JOHN DANFORTH,
               FORMER U.S. SENATOR FROM MISSOURI

    Senator Danforth. Mr. Chairman, thank you very much for the 
opportunity of speaking on behalf of my friend Sam Fox.
    I am not going to dwell on his biographical information. 
That is now well-known to the committee. I'm simply going to 
speak about a person I know, and I know well.
    I have been in Sam's home. He has been in mine. My 
daughter, Mary, is a very close friend of two of Sam's sons and 
their families. My grandchildren go to school with Sam's 
children. This is a long family connection, and I can say, if 
there is any way, Mr. Chairman, that you can wangle an 
invitation to go fishing with Sam Fox, accept that invitation. 
[Laughter.]
    He, as has been said, grew up in Jefferson County, 
Missouri. It's the same county that gave us Bill Bradley, as a 
matter of fact. He is a self-made man. I did not know him in 
Jefferson County, and I do not know him in the world of 
business. I simply know Sam Fox as a human being. And I know 
what he means to me as a person, and I know what he means to my 
hometown of St. Louis. As a person, he is very bright, he is 
very energetic and warm. I would call him ebullient. And, above 
all, as you heard, particularly from Senator Lieberman, he is 
generous. As I think Senator Lieberman said, he's a soft touch. 
The other side of that is that after you touch him, he touches 
you, and you learn, after a while, that, when you get an 
envelope in the mail from the Harbour Group, your heart sinks, 
because you can't----
    [Laughter.]
    Senator Danforth [continuing]. Say no to Sam Fox. He has 
been involved in so many good causes in St. Louis. Washington 
University, which is such a stellar academic institution, the 
St. Louis Art Museum, the Boy Scouts, the United Way, and the 
list goes on and on. And, as Senator Bond pointed out, he's 
been recognized for what he means to our town by being named 
Citizen of the Year.
    After Sam--after the announcement was made that Sam was--
had been nominated for Ambassador to Belgium, I was speaking to 
my brother, Bill, about the nomination, and my brother said, 
``You know, this is a huge loss for St. Louis.'' And I said, 
``Well, it'll probably only last a few years,'' and he said, 
``It's a huge loss for St. Louis.'' I think it's a gain for our 
Government and our country and our relationship with Europe. 
But Sam really means a lot to St. Louis, and there's no doubt 
about that.
    I'd just like to add one other point, Mr. Chairman. Sam is 
the nominee of a Republican President, and the Senate is no 
longer Republican, alas. But--so, I thought that I'd just meet 
head-on, you know, why would a Democratic Senate want to 
confirm Sam Fox, other than to get him out of the way? But I 
think that the reason is just the kind of person he is and what 
he would bring to the job of ambassador. He would bring the 
same energy, he would bring the same personal qualities, the 
same spirit of generosity, the same kindness, the same decency 
that are right at the heart of Sam Fox. And so, he would make 
an outstanding ambassador.
    But I--when I was preparing my thoughts for today's 
meeting, I thought, well, I won't just--I won't just speak for 
myself. So, last Friday I spoke on the phone with the leading 
Democrat in our State, my former colleague and my good friend, 
Tom Eagleton. And he started to dictate to me exactly what he 
wanted me to say about Sam. And then, with absolutely no 
confidence in my stenographic skill, he put it in writing, and 
he sent me this following quote, which he asked me to read to 
the committee. Tom Eagleton said, ``I am enthusiastically for 
Sam Fox to be Ambassador. He is a generous, concerned citizen 
of St. Louis. He is the epitome of a humanitarian.'' And, as 
usual, Senator Eagleton puts it more eloquently than I can.
    So, Mr. Chairman, thank you very much for the opportunity 
to support my friend before this committee.
    Senator Obama. Thank you, Senator.
    We'd like to now proceed to opening statements.
    Mr. Phillips, we'd like you to begin. You can proceed with 
your opening statement. If you'd like to introduce the members 
of your family, please feel free to do so. I've had the 
opportunity to meet them. They seem like a wonderful family.
    In the interest of time, if it's possible for you to 
summarize your opening testimony, that would be wonderful, 
because what we can then do is include your full testimony in 
the record. But, obviously, if you feel more comfortable 
reading the entirety of the testimony, you can certainly do so.

 STATEMENT OF STANLEY DAVIS PHILLIPS, NOMINEE TO BE AMBASSADOR 
                   TO THE REPUBLIC OF ESTONIA

    Mr. Phillips. Mr. Chairman, thank you very much.
    Members of the committee--Senator Cardin, Senator DeMint, 
Senator Coleman, Senator Voinovich--I'm honored to appear 
before you today as President Bush's nominee to be the next 
Ambassador of the United States to Estonia.
    I would like to express my gratitude to the President and 
to Secretary Rice for the confidence and trust they have placed 
in me. I would also like to thank Senator Dole and Senator Burr 
for introducing me, and very much appreciate their help and 
guidance.
    It would be a great privilege for me to be allowed the 
opportunity to serve the United States. Throughout my life, I 
have traveled internationally, and think there is nothing more 
important than to learn about the world and mankind.
    I began traveling internationally when I was in high 
school. In 1961, as a member of one of the first student 
exchange programs between America and the Soviet Union, I 
attended the University of Moscow and then, for 2 months, 
traveled by plane, train, and boat to some regions that have 
since taken their place as independent countries, such as 
Georgia and the Ukraine. It was an incredible experience.
    I have been involved, for my entire professional life, in 
international commerce, for more--30 years, I promoted American 
business by financing accounts receivable of foreign companies 
by building showrooms for foreign exhibitors in High Point, 
North Carolina, for the international furniture market, and by 
manufacturing textiles in North America that were exported 
globally.
    During the 1990s, I served as Secretary of Commerce for 
North Carolina for Governor Jim Hunt, and had the opportunity 
to establish trade and business recruitment offices and lead 
many trade missions to diverse nations in Europe, Asia, and the 
Middle East. I also had the unique experience to meet with many 
different heads of state and governments, including Prime 
Minister Rabin of Israel, Prime Minister Murayama of Japan, 
President Mandela of South Africa, President Zedillo of Mexico, 
and even President Mugabe of Zimbabwe.
    However, the most exciting international involvement of my 
life was chairing the World Games of the Special Olympics in 
1999. One hundred and fifty countries participated, with 10,000 
athletes and coaches visiting North Carolina, and more than 
36,000 citizens volunteering their services over 10 days of the 
games.
    Most recently, I was responsible for organizing and leading 
a trip to India with the Smithsonian National Board. We 
experienced an incredible country, visiting many different 
cities and meeting with fascinating people, such as the Dalai 
Lama.
    These cross-cultural exchanges have taught me the vital 
importance of people-to-people contacts to improve mutual 
understanding and build trust and friendship.
    Now, let me turn now to our bilateral relationship with 
Estonia. The United States and Estonia have already--are 
already true partners and close allies. President Bush's visit 
last November, as the first sitting American President to visit 
Estonia, highlighted the strength of our relationship. He and 
his Estonian host discussed how our nations are cooperating 
around the world to achieve common objectives and promote 
common values.
    A small country of only 1.3 million people, Estonia is 
nonetheless a world actor with a large footprint. In just 15 
years since reestablishing its independence, Estonia made a 
very successful transition to democracy, and its economy was 
the second fastest growing in Europe in 2006. It became a NATO 
member, and a member of the European Union in 2004, and it is 
now sharing its democratic experience and free-market 
principles with countries still in transition.
    For example, Estonia is helping to train leaders, 
government officials, and law enforcement officers in the 
Ukraine, Georgia, Moldova, Armenia. Estonia has an amazing e-
governance program allowing citizens and leaders to communicate 
and do business easily and quickly. Estonia's cabinet room has 
gone paperless. Ministers review documents on computers and can 
even vote and send comments remotely. Estonia has helped many 
countries understand and implement e-governance projects to 
improve government efficiency and transparency.
    Estonia's vital contributions to peace and stability are 
not limited to countries in Europe. We stand side by side in 
Iraq and Afghanistan. In Afghanistan, Estonians are serving 
part of NATO's International Security Assistance Force and 
helping in Helmand province, a dangerous province in the south, 
where the Taliban is very active. Estonia has made a long-term 
commitment to Afghanistan, both by contributing troops and by 
prioritizing development assistance, including poppy 
eradication.
    The Estonian troops in Afghanistan are serving with no 
national caveats, meaning that NATO commanders have full 
freedom to use them when and how they see fit. Estonian troops 
are also serving bravely in Iraq, having suffered two combat 
deaths and several wounded since deploying in 2003. Estonia is 
committed to the effort, and recently extended its troop 
mandate for another year.
    If confirmed, I would do my best to maintain and develop 
our close relationship with Estonia.
    In closing, I would like to acknowledge my wife, Kay, who 
is going to be my partner in this endeavor, and thank her for 
her love and her dedication. I would also like to thank our 
four daughters, three of whom are with us today--Lil, Bo, and 
Lucy; and Kate, who now lives in London. We are filled with 
pride for their accomplishments and want to thank all of them 
for their love and support.
    Thank you for granting me this opportunity to appear before 
you this--before this distinguished committee. And, Mr. 
Chairman, I'll be glad to answer any questions.
    [The prepared statement of Mr. Phillips follows:]

      Prepared Statement of Stanley Davis Phillips, Nominee to be 
                 Ambassador to the Republic of Estonia

    Mr. Chairman, members of the committee, I am honored to appear 
before you today as President Bush's nominee to be the next Ambassador 
of the United States to Estonia. I would like to express my gratitude 
to the President and Secretary Rice for the confidence and trust they 
have placed in me. I would also like to thank my Senators--Senator Dole 
and Senator Burr--for introducing me, and very much appreciate their 
help and guidance.
    It would be a great privilege for me to be allowed the opportunity 
to serve the United States. Throughout my life I have traveled 
internationally and think there is nothing more important than to learn 
about the world and mankind.
    I began traveling internationally when I was in high school. In 
1961, as a member of one of the first student exchange programs between 
America and the Soviet Union, I attended the University of Moscow and 
then for 2 months traveled by plane, train, and boat to some regions 
that have since taken their place as independent countries, such as 
Georgia and Ukraine. It was an incredible experience.
    I have been involved for my entire professional life in 
international commerce. For more than 30 years, I promoted American 
business by financing accounts receivables of foreign companies, by 
building showrooms for foreign exhibitors in High Point, North Carolina 
for the International Furniture Market, and by manufacturing textiles 
in North America that were exported globally.
    During the 1990s I served as Secretary of Commerce for North 
Carolina and had the opportunity to establish trade and business 
recruitment offices and lead many trade missions to diverse nations in 
Europe, Asia, and Middle East. I also had the unique experience to meet 
with many different heads of state and government, including Prime 
Minister Rabin of Israel, Prime Minister Murayama of Japan, President 
Mandela of South Africa, President Zedillo of Mexico, and even 
President Mugabe of Zimbabwe.
    However, the most exciting international involvement of my life was 
chairing the World Games of the Special Olympics in 1999. One hundred 
fifty countries participated with 10,000 athletes and coaches visiting 
North Carolina and more than 36,000 citizens volunteering their 
services over the 10 days of the games.
    Most recently, I was responsible for organizing and leading a trip 
to India for the Smithsonian National Board. We experienced an 
incredible country, visiting many different cities and meeting with 
fascinating people, such as the Dalai Lama. These cross-cultural 
exchanges have taught me the vital importance of people-to-people 
contacts to improve mutual understanding and build trust and 
friendship.
    Let me turn, now, to our bilateral relationship with Estonia. The 
United States and Estonia are already true partners and close allies. 
President Bush's visit last November as the first sitting American 
President to visit Estonia highlighted the strength of our 
relationship. He and his Estonian hosts discussed how our nations are 
cooperating around the world to achieve common objectives and promote 
common values.
    A small country of only 1.3 million people, Estonia is nonetheless 
a world actor with a large footprint. In just 15 years since 
reestablishing its independence, Estonia made a very successful 
transition to democracy, and its economy was the second fastest growing 
in Europe in 2006. It became a NATO member and a member of the European 
Union in 2004, and it is now sharing its democratic experience and free 
market principles with countries still in transition.
    For example, Estonia is helping to train leaders, government 
officials, and law enforcement officers of Ukraine, Georgia, Moldova, 
and Armenia. Estonia has an amazing e-governance program, allowing 
citizens and leaders to communicate and do business easily and quickly. 
Estonia's cabinet room has gone paperless; ministers review documents 
on computers and can even vote and send comments remotely. Estonia has 
helped many countries understand and implement e-governance projects to 
improve government efficiency and transparency.
    Estonia's vital contributions to peace and stability are not 
limited to countries in Europe. We stand side-by-side in Iraq and 
Afghanistan. In Afghanistan, Estonians are serving as part of NATO's 
International Security Assistance Force in Helmand province, a 
dangerous province in the south where the Taliban is very active. 
Estonia has made a long-term commitment to Afghanistan, both by 
contributing troops and by prioritizing development assistance, 
including poppy eradication. The Estonian troops in Afghanistan are 
serving with no national caveats, meaning that NATO commanders have 
full freedom to use them when and how they see fit. Estonian troops are 
also serving bravely in Iraq, having suffered two combat deaths and 
several wounded since first deploying in 2003. Estonia is committed to 
the effort and recently extended its Iraq troop mandate for another 
year.
    If confirmed, I would do my best to maintain and develop our close 
partnership with Estonia.
    In closing, I would like to acknowledge my wife, Kay, who is going 
to be my partner in this endeavor, and I thank her for her love and 
dedication. I would also like to thank our four daughters, three of 
whom, Lil, Bo, and Lucy, are with us today, and Kate who lives in 
London. We are filled with pride for their accomplishments and want to 
thank them for all of their love and support.
    Thank you for granting me the opportunity to appear before this 
distinguished committee. I will be pleased to answer any questions.

    Senator Obama. Thank you.
    Mr. Fox, you can proceed with your opening statement. And, 
again, if you'd like to introduce your family, feel free to do 
so. And if you'd like to summarize your testimony, that's--
would be terrific; but, otherwise, please proceed.

              STATEMENT OF SAM FOX, NOMINEE TO BE 
                     AMBASSADOR TO BELGIUM

    Mr. Fox. Thank you, Mr. Chairman and members of this 
committee.
    At the outset, I'd like to express my personal appreciation 
to Senators Kit Bond, Claire McCaskill, Joe Lieberman, Arlen 
Specter, and Jack Danforth, for coming here today to speak in 
my behalf. I am truly honored by their remarks.
    I'm also grateful to you, Senator Obama, for chairing this 
session today.
    I will make my full statement available for the committee 
record, and I will summarize in as short a period as I can.
    Mr. Chairman and distinguished members of this committee, 
it's a tremendous honor to appear before you today as President 
Bush's nominee to serve as the United States Ambassador to the 
Kingdom of Belgium. I'm grateful to the President and to 
Secretary of State Rice for their confidence in me, and to this 
committee for its consideration. If confirmed, it would be a 
privilege to serve as our country's representative to a valued 
ally in Europe.
    Before I go any further, please permit me, if you will, to 
introduce a special team, my family, that are here with me 
today. First and foremost, that beautiful young lady sitting 
here behind me, Marilyn, my partner for more than 53 years--I 
might say, my managing partner, at that. And we have here--as I 
call their names, if you would please acknowledge yourself--I 
have my daughter, Cherrie, my daughter, Pamela; I have my son-
in-law, Allan Clayman; I have my son, Jeff, his wife, Lota, 
three children, Elizabeth, Catherine, and Cici; my son, Greg, 
his wife, Merle, sons, Matthew, Peter, Megan; son, Steven, his 
wife, Nancy, and their daughter, Sophia.
    Now, I'm a little short here. We don't have the team 
completed, because I'm missing one son-in-law, and I'm missing 
at least six grandchildren. [Laughter.]
    Senator Obama. I notice you did that without notes, though, 
which is very----
    [Laughter.]
    Senator Obama [continuing]. It's very impressive.
    Mr. Fox. But ask me for birthdays. [Laughter.]
    Senator Obama. All right.
    Mr. Fox. Mr. Chairman, as this committee knows, our 
country's relations with Belgium are a vital part of our 
dealings with all of Europe, and increasingly with the rest of 
the world.
    Belgium is important, not only in its own right but also as 
the seat of the European Union and of the NATO Alliance. If 
Europe were to have a capital city, I'm convinced it would most 
likely be Brussels.
    Today, relations between Belgium and our country are robust 
and highly effective, and it's a tribute to the tremendous work 
of our most recent Ambassador, Tom Korologos, and the talents 
of our fine diplomatic staff there. The first responsibility of 
any American Ambassador in Brussels is to maintain that 
relationship. And, if confirmed, I would take up this 
assignment in the only way I know how, by working tirelessly to 
build on the successes of those who have come before me.
    Mr. Chairman, if confirmed, high on my list of goals as 
Ambassador to Belgium will be, first, to ensure the safety and 
the welfare of all American citizens, including the employees 
under my care and those working and visiting in Belgium; 
second, to seek Belgium's closer partnership in our fight 
against international terrorism; third, to strengthen our 
partnership with the Belgian Government; fourth, to increase 
Belgium's support of United States positions in NATO and the 
European Union; fifth, to expand U.S. exports and expand 
business investment by both nations; and sixth, to be a good 
and faithful steward of the taxpayers' dollars.
    I hope that the committee will find my own life and career 
have prepared me for these responsibilities. I bring to this 
position the management skills that have served me well all of 
my life. I feel that I've been in training for this 
ambassadorship for a long time. My background has taught me how 
to emphasize common interests above points of disagreement, how 
to assert one's own interests while respecting the views and 
the interests of the others. And, if confirmed, these are some 
of the skills that I would put to use as Ambassador to Belgium.
    Mr. Chairman, I've also learned a few things about hard 
work, about team work, about running businesses, about managing 
organizations, and about meeting new challenges. And I'll 
regard this chance to serve my country as one of the greatest 
challenges in a life full of challenges. The assignment 
requires hard work and complete commitment on the part of the 
American Ambassador in Brussels. You have my pledge, sir, with 
the confidence of this committee, with the consent of the 
Senate, I will give it my very best.
    I want to thank all the members of this committee for your 
very, very kind attention. And now, Mr. Chairman, I welcome 
your questions.
    [The prepared statement of Mr. Fox follows:]

                    Prepared Statement of Sam Fox, 
                  Nominee to be Ambassador to Belgium

    Good afternoon, Mr. Chairman, and members of this committee.
    At the outset, I would like to express my personal appreciation to 
Senators Kit Bond, Claire McCaskill, Joe Lieberman, Arlen Specter, and 
Jack Danforth for coming here today to speak on my behalf. I am 
honored, sir, by their remarks.
    I am also grateful to you, Senator Obama, for chairing this session 
today.
    Mr. Chairman and distinguished members of this committee, it is a 
tremendous honor to appear before you today as President Bush's nominee 
to serve as the United States Ambassador to the Kingdom of Belgium. I 
am grateful to the President and to Secretary of State Rice for their 
confidence in me, and to this committee for its consideration. If 
confirmed, it would be a privilege to serve as our country's 
representative to a valued ally in Europe.
    Before I go any further, please permit me to introduce some very 
special people who have also joined me here today. First and foremost, 
the very lovely woman seated behind me is my wife, Marilyn. For the 
past 53 years, Marilyn has been my partner--my managing partner, I 
might add. If I am fortunate enough to be confirmed, Marilyn will be a 
gracious and dignified representative of our country to the people of 
the Kingdom of Belgium. I am also pleased to introduce my other family 
members.
    Mr. Chairman, as this committee knows, our country's relations with 
Belgium are a vital part of our dealings with all of Europe and 
increasingly with the rest of the world. Belgium is important not only 
in its own right, but also as the seat of the European Union and the 
NATO Alliance. If Europe were to have a capital city, most likely it 
would be Brussels. Today, relations between Belgium and our country are 
robust and highly effective--a tribute to the tremendous work of our 
most recent Ambassador, Tom Korologos, and the talents of our fine 
diplomatic staff there. The first responsibility of any American 
Ambassador in Brussels is to keep them that way. If confirmed, I would 
take up this assignment in the only way I know how--by working 
tirelessly to build on the successes of those who have come before me.
    Mr. Chairman, if confirmed, high on my list of goals, as Ambassador 
to Belgium, will be:

  <bullet> First, to ensure the safety and welfare of all American 
        citizens--including the employees under my care and those 
        working and visiting in Belgium;
  <bullet> Second, to seek Belgium's closer partnership in our fight 
        against international terrorism;
  <bullet> Third, to strengthen our partnership with the Belgian 
        Government;
  <bullet> Fourth, to increase Belgium's support of United States 
        positions in NATO and the European Union;
  <bullet> Fifth, to expand U.S. exports and expand business investment 
        by both nations; and
  <bullet> Sixth, be a good and faithful steward of the taxpayers' 
        dollars.

    Most people of my generation first came to know of Belgium and its 
people in the war years. And it's true that the heroic pursuits and 
democratic values that made us allies in those days--as well as the 
memory of the United States relief effort in Belgium during World War 
I--are still the basis of a lasting friendship. We recall how the 
Belgian people warmly welcomed American veterans to the 60th 
anniversary of the Battle of the Bulge in Bastogne in 2004. And again 
in 2006, when Prime Minister Verhofstadt dedicated a Battle of the 
Bulge memorial provided by the people of Belgium and Luxembourg at 
Arlington National Cemetery.
    But it's much more than nostalgia that makes Belgium the close and 
valued partner of America today. In the post-war years, Belgium helped 
to build the framework for the West's lasting security as a founding 
member of both the European Union and NATO. Today, Belgium is working 
hard to bring the allies even closer together--at NATO, the European 
Union, and in many other settings--in defense of our freedom and human 
rights. Belgium backs up its talk with action--troops on the ground in 
Afghanistan, the Balkans, and Lebanon. In the Democratic Republic of 
the Congo, Belgium has also labored hard to end conflict and to build 
democracy.
    Belgium, in short, is a force for good in the world, and as much as 
ever our nations are joined by great and enduring interests--by ties 
forged on the battlefield in pursuit of lasting peace, and in our 
shared commitments to global prosperity. The United States and Belgium 
are united against terrorist threats that recognize no boundaries. And, 
if confirmed, I will work to expand this cooperation to protect our 
country and our friends from this gravest of dangers.
    In economic terms, our two nations trade at a value of more than 
$30 billion a year, and we share a common interest in expanding both 
trade and investment. If confirmed, I will encourage Belgium to 
continue to improve its investment climate to attract business.
    As with every other diplomatic outpost, America's Ambassador in 
Brussels must also be a firm advocate for the fundamental values and 
ideals of our country--chief among them, freedom.
    I have long been in awe of the commitment made by those men and 
women who choose the Foreign Service as a way of life. We entrust in 
them the highest of honors--to serve as beacons of democracy around the 
world. Peace and understanding guide their noble efforts--their 
successes rarely make front page news.
    I hope that the committee will find that my own life and career 
have prepared me for these responsibilities. I would bring to this 
position the management skills which have served me well all my life. 
In fact, I feel that I have been training for this ambassadorship for a 
long time.
    My background has taught me how to emphasize common interests above 
points of disagreement--and how to assert one's own interests--while 
respecting the views and interests of others. If confirmed, these are 
skills I would put to full use as Ambassador to Belgium.
    Mr. Chairman, I've learned a few things about hard work--about 
teamwork--about running businesses--about managing organizations--and 
about meeting new challenges. And I regard this chance to serve my 
country as one of the greatest challenges in a life full of challenges. 
The assignment requires hard work and complete commitment on the part 
of the American Ambassador in Brussels. And you have my pledge, sir--
that with the confidence of this committee--with the consent of the 
Senate--I will give it my very best.
    I thank all of the members of this committee for your very kind 
attention, and now, Mr. Chairman, I welcome your questions.

    Senator Obama. Thank you very much, Mr. Fox.
    I will start off with some questions, Mr. Phillips. Some of 
the issues were raised by your testimony.
    And, by the way, we're going to--if it's acceptable to the 
members of the committee we'll do 10-minute rounds, and we'll--
if people have additional questions after that, then we'll be 
willing to extend the time somewhat.
    So, let me start with you, Mr. Phillips. You know, Estonia 
faces a number of challenges with its--with respect to its 
relationship to Russia. You know, the two countries are on 
different sides of whether the Soviet occupation of Estonia was 
illegal. The Kremlin's objected to NATO planes patrolling 
Baltic airspace. Recently, Estonia has expressed concerns about 
Russian plans to construct an undersea gas pipeline that would 
give Moscow greater control over Estonia's energy supplies.
    So, I'm wondering if you've given thought to the 
relationship between Russia and Estonia. If confirmed, what 
actions would you take to address some of the issues that may 
be arising between those two countries?
    Mr. Phillips. Mr. Chairman, the relationship between Russia 
and Estonia is very sensitive and very difficult. It goes back 
to World War II, where the Soviet troops came in and occupied 
Estonia. Their version is that they liberated Estonia from 
Naziism, so this contentious discussion has taken place since 
that time. With the fall of the Soviet Union in 1991, Estonia 
declared their independence and that--since that time, this 
debate has continued as to the terminology. It has found its 
way into all kinds of situations, even symbolism of the bronze 
statue, the debate over the border. But the energy issue seems 
to be the one that everybody is most concerned about, and that 
is, Can Estonia evolve and deal with their energy requirements? 
It's interesting to note that imported oil and gas is only 30 
percent of their energy requirements. Estonia has enormous 
resources of oil shale; therefore, they are able to have--
approximately 95 percent of their electrical needs are self-
produced. It's intriguing that they export electricity. They 
have recently put a line to Finland. So, they are in very good 
shape from an electrical standpoint. Oil and gas, they have the 
strategy of building a nuclear plant in the future, with the 
other Baltic states and Poland. They have the opportunity of 
going into liquified natural-gas terminal, where they could 
receive that type of supply. So, they are well aware, we are 
well aware, that energy is a major concern in the future of 
Estonia. But it seems, right now, with 30 percent of their 
energy needs only coming from Russia itself, that they 
understand the necessity of diversity, but they are in pretty 
good shape.
    Senator Obama. Okay, good. Just a quick follow-up on that, 
if we can answer this briefly. You know, obviously Estonia's 
Government's played an important role in consolidating 
democracy in eastern Europe, the transition from the cold war. 
And you had mentioned the work that was done on e-government. 
Do you see the potential for you to support Estonian 
initiatives in establishing more transparency, greater 
accountability in their government, and--do you see that as 
having an influence in what other countries in the region do?
    Mr. Phillips. Well, it's a remarkable country. It's ranked 
seventh in the Heritage Foundation of Freedom--the Freedom 
Index, higher than United States of America. Their transparency 
is incredible. They are truly a beacon in Europe, and maybe 
around the world. They have done an incredible formulating e-
governance. The technology that's come out of that country is 
truly remarkable.
    It's interesting to note that Hotmail, a major part of 
Microsoft's initiative, was created in Estonia. Skype, that was 
recently bought by eBay here in America for $2.5 billion, was 
created in Estonia. So, their technology is truly remarkable, 
and that they have permeated their government with this type 
openness and transparency, and they are talking to other 
emerging countries in the world, and especially in central 
Europe, to do the same thing.
    Senator Obama. Good. Thank you.
    Mr. Fox, you mentioned your managerial skills. And I think 
those'll certainly come to play, in part because Belgium is the 
seat of not only your ambassadorship, but also missions to NATO 
and the European Union. So, I'm wondering, were you to be 
confirmed, how would you ensure that all the U.S. missions in 
the country coordinated their efforts to maximize their impact 
on foreign policy? And is this something that you've given some 
thought to?
    Mr. Fox. Yes, thank you. Thank you, Mr. Chairman.
    As you know, we have a United States mission to European 
Union, and we also have a United States mission to NATO. And 
both of those have ambassadors, Ambassador Neuland to NATO and 
Ambassador Gray to the European Union. Both of those missions 
have the primary responsibility for that--for the respective 
relationships. However, I do believe that it is the 
responsibility of the United States mission to Belgium and the 
ambassador to help promote and to persuade the Belgian 
Government toward United States views with respect to both the 
European Union and to NATO. And if I am fortunate enough to be 
confirmed, it is my intention to have regular meetings with 
both of those ambassadors, because they're doing very, very 
important work.
    And I'd go beyond that, sir. I would want to make sure that 
the staff of our embassy at all of their levels and in all of 
their departments, establish and maintain good relationships 
with their counterparts in those two missions.
    Senator Obama. Good. Now, Belgium was one of the leading 
critics of United States policy during the run-up to the war in 
Iraq. I'm wondering what your assessment is of the current 
status of United States/Belgian cooperation on security issues. 
Belgium doesn't spend a lot of money on defense, is suspicious, 
at times, of United States military actions abroad. How would 
you approach those conversations with the Belgian Government?
    Mr. Fox. Well, to answer the last question, ``How?'' I've 
had a lot of experience, Mr. Chairman, in negotiations and 
diplomacy. And we've built plants all around the world. We've 
maintained operations all around the world; as a matter of 
fact, all across Europe. So, I've had a little bit of 
experience with that. One of the first things you learn is, 
there's very little you can do until you build relationships. 
And it would be very important for the United States Ambassador 
to first understand the players in Belgium, and then go about 
systematically getting to understand those players and making 
sure that there is mutual respect that's created between the 
United States Ambassador and his counterpart in the Belgian 
Government. So, that, I think, is step one.
    You ask about terrorism. I think that the Belgian 
Government has done a lot in counterterrorism. First of all, if 
you go to Antwerp, the Megaport Initiative, and also the 
Container Initiative, they are No. 1 in the world. They spent 
something like $50 million to install the kind of equipment 
that will pick up weapons of mass destruction or nuclear 
materials. They've passed a number of laws recently that have 
got some real teeth in them that--and they've arrested a number 
of people. They've convicted a number of people. I think 
they're doing a good job. And I think counterterrorism is high 
on their agenda. There was a meeting here in Washington in 
November on that very subject.
    Insofar as defense is concerned, as you now, they were one 
of the founding members of NATO. And during the cold war, they 
were right there with us, tremendously. They had an armed force 
of something like, oh, 130,000 troops. One thing that is a 
little disappointing today is the amount of money that they are 
spending on defense. NATO's guidelines would be 2 percent of 
gross domestic product. They presently are 1.1 to 1.3 percent. 
So, I think one of our goals should be to try to get them to 
get that budget up a bit.
    Senator Obama. Thank you very much.
    Senator DeMint.
    Senator DeMint. I want to thank you two gentlemen. And from 
what we hear, you're both very qualified to represent our 
country, and I look forward to assisting you in any way you 
can--we can here.
    I would like to hear both of you just talk briefly about 
trade and the ability of you, as ambassadors, of encouraging 
business relationships between our country and those countries 
that you will be working with. And I know both of you have 
extensive business experience, but, as you know--as, Mr. Fox, 
you just mentioned--building relationships is key. Doing 
business is one way, sports, like Special Olympics, another 
way, bring countries together so that we can work together 
beyond what governments do. And that helps us get through 
government-to-government crises. And we've certainly found that 
in South Carolina, doing business with BMW and Michelin. It 
doesn't matter how much Washington fights with France and 
Germany, we're doing business with them, and it doesn't bother 
us that much. But I'd love to hear you both talk about how you, 
as ambassadors, can extend trade relations in this country.
    And, Mr. Fox, I'll start with you.
    Mr. Fox. Well, your question has to do, as I understand it, 
about the ability of the ambassador to assist in trade. I'll 
tell you this, that Belgium is an excellent trading partner. 
They're only 10 million in population, but yet, they are our 
12th largest market, 12th largest trading partner. They're very 
business-oriented. We've got 900 American companies in Belgium. 
And our exports to Belgium are $20 billion. We import $15 
billion for them. We have a $5 billion trade surplus. And, as a 
businessman, I would do everything that I could to try to 
develop trade more by working with the United States 
Government--United States companies in Belgium, as well as 
those in America, who have products that they are exporting, or 
could be exported, to Belgium.
    They--the Belgian people are very oriented toward business, 
and the--they're situated in such a place that 70 percent of 
their--70 percent of the population of the European Union is 
within 300 miles of Belgium, and they've got great waterways, 
roads, and so forth. So, in addition to what we can do with 
Belgium, there's a lot that we can send through the port of 
Antwerp to other parts of Europe.
    Senator DeMint. Excellent.
    Mr. Phillips.
    Mr. Phillips. Presently, there are approximately 100 
American companies with a presence in Estonia. I made 
reference, a few minutes ago, to one that's very high profile, 
but the impact on Estonia was enormous, that--their creativity 
of Skype and $2.5 billion of purchase power going in to 
Estonia. It shows you what's going on in Estonia.
    They still have manufacturing, they still have agricultural 
ass well as manufacturing. There are furniture companies. And 
being from North Carolina--and the furniture capital of the 
world is High Point--they are companies that do import 
furniture from Estonia. They're still in the textile business. 
We are aware of certain companies in North Carolina dealing 
with them in the textile business. This is happening all over 
America. So, these relationships are ones that exist, but I 
would like very much to nurture and bring in more 
relationships. I think it's very important. This is what I did 
for years for the State of North Carolina all over the world, 
trying to bring companies, but also to export products to these 
countries, and that--I would like to do the same thing for 
Estonia.
    Senator DeMint. Excellent.
    Senator Obama. Senator Coleman.
    Senator Coleman. Thank you, Mr. Chairman.
    We have two extraordinary nominees here. I was actually 
hoping that I could participate in the introduction of Sam Fox, 
but I couldn't find a seat at the table, so I'm----
    [Laughter.]
    Senator Coleman [continuing]. Glad to be up here.
    These are two extraordinary individuals. So, I just want to 
thank you for your willingness to serve.
    I had a meeting this morning with Tim Shriver, from Special 
Olympics. We did Special Olympics in St. Paul, Minnesota, where 
I was a mayor for 8 years. And it's extraordinary, the things, 
by the way, that they are doing. But your service, your 
business success, has done what--actually, Mr. Fox, I think his 
quote was that, ``My life and career has prepared me well for 
this experience.'' I believe that to be true of both of you.
    Senator Lieberman said that Sam Fox represents what 
America's all about. I would say that--I'd change that a little 
bit, amend it to say Sam Fox represents the best of what 
America is all about. Father came to Ellis Island from a shtetl 
in the Ukraine, with his clothes on his back, and--talk about 
the American success story, Horatio Alger's story, that's 
really what we have in front of us. And I know Mr. Fox better, 
but that's what he's all about. He--I had a chance--Senator 
McCaskill talked about family--I had a chance to be Jerusalem 
to have dinner with his daughter, and not just his daughter; it 
was the Sabbath dinner, Mr. Chairman, and there were a number 
of American students, young Jewish Americans who were kind of 
tapping into their culture, into their heritage. And it was 
just--it was extraordinary to be part of that. I think the 
daughter is a reflection of the father and of the mother and of 
the family that really understand what it is to give back, what 
it is to nurture and to grow. I think Mr. Fox adheres to what I 
call the ``manure theory of money.'' If you just kind of pile 
it up, it doesn't smell too good, but if you spread it around, 
it fertilizes and it grows. And Sam has been growing a lot of 
things in his community, in this country.
    And so, I believe the President has made some extraordinary 
choices, individuals whose life experience has prepared them 
for this moment, individuals who are learned, who understand 
this global economy in which we participate. So, I look forward 
to supporting this nomination, Mr. President--Mr. Chairman.
    Thank you.
    Senator Obama. Thank you very much.
    Senator Kerry just joined us.
    Senator Kerry.
    Senator Kerry. Thank you, Mr. Chairman.
    I'd like to welcome both our nominees, and thank you very 
much for appearing here with us today. I apologize for not 
being here the whole time, but I did hear part of the testimony 
in my office.
    Mr. Fox, you come here with an extraordinary number of 
distinguished introducers, and some of them good friends of 
mine and people for whom I have great respect. And I have 
received a number of phone calls from people who vouch for your 
tremendous civic engagement, which is obvious for all to see. 
And I certainly respect the career that you have--that brings 
you to this position. I think I saw you had won the Horatio 
Alger Award at some point. And, as one of the introducers said, 
you really are sort of the quintessential American Horatio 
Alger story. So, I tip my hat to the life you have led and to 
the contributions you have made back to the community, which 
are really significant. And I can understand why St. Louis and 
Missouri are proud of you, and why those who have come here are 
proud of you.
    I think you know that I have some concerns, which I will 
touch on a little. But I want to explore a few things, if I 
may.
    Let me ask you a generic question about America's position 
in Europe, and Europe's view of us that you will be walking 
into if you were to go into this job. What is your sense of 
where American foreign policy overall is with respect to the 
European community? And do you face any particular challenges 
at this point in time that might be unique to this moment as an 
ambassador?
    Mr. Fox. Thank you, Senator, for giving me the opportunity 
to address that subject.
    I have several thoughts. Well, first of all, as an 
ambassador, you know, I represent--I would--if confirmed, I 
would represent the United States Government. And it's the 
United States Government agenda that I would be expected to 
carry out. Having said that, I think we have a lot of work cut 
out for us, particularly in Europe, and--because I think that--
I think there's a lot that can be done, and should be done, to 
improve the image of America in Europe. And I would hope that I 
would be able to contribute to that.
    Senator Kerry. What do you think's happened to the image of 
America in Europe?
    Mr. Fox. Well, I don't know any more than what I read in 
the papers, but I think that there's a lot of concern about 
America, and I think the war in Iraq is not well received in 
Europe, particularly. And I think that has affected opinion 
about Americans.
    Senator Kerry. Are there other issues? What would you say 
has been the Belgian level of concern about the war on terror 
itself, the way it's been prosecuted?
    Mr. Fox. Well, I don't have any firsthand information on 
that. The only information that I have is what I have been 
provided by the State Department. And from what I have received 
from the State Department, it seems as if their war on 
terrorism has been very good, very cooperative. I mentioned, 
before you came in, earlier, Senator, that there was a very 
high-level meeting here, that you probably know about, in 
November, on counterterrorism. They've passed a number of laws 
internally. And there's more coming. They have really taken a 
very strong position in being able to find terrorist groups and 
prosecuting them and putting them in jail. I mentioned, also, 
the wonderful job that they did in Antwerp, the Megaport 
Initiative and the Container Initiative, which is designed to 
identify weapons of mass destruction and also nuclear materials 
and so forth.
    So, what--everything I have learned from the State 
Department is that they're doing a very good job. But, having 
said that, you know, it's never enough, because we do face a 
real threat. Terrorism is not just a problem for America, it's 
a problem for the entire world.
    Senator Kerry. So, you have no knowledge, outside of what 
the State Department's told you, about any concerns or issues 
that Belgians may have about the way we've prosecuted the war 
on terror?
    Mr. Fox. Other than the newspapers, I haven't, no. I don't 
believe so.
    Senator Kerry. Are you familiar with the SWIFT consortium, 
the bank consortium?
    Mr. Fox. Yes.
    Senator Kerry. Didn't they express concerns about privacy 
issues?
    Mr. Fox. Yes. The--as you know, Senator, SWIFT is a private 
organization that is involved with the financial 
telecommunication of information, and they're quite large, 
they're extensive. They represent some 8,000 banks in 200 
countries. And with counterintelligence, one of the most 
important things is to follow the money. And in trying to 
follow the money, there's a very thin line to follow. And that 
is, following the money without overstepping it and violating 
the privacy laws of European individuals, or individuals 
anywhere. And that has been a concern. And my understanding is 
that there's a number of high-level meetings taking place at 
this time in order to really tighten up those controls.
    Senator Kerry. Is it also fair to say that there's a 
tension between the Belgians and us with respect to that flow 
of information?
    Mr. Fox. I have no personal knowledge of that, sir.
    Senator Kerry. Do you know of any efforts that are being 
made to try to harmonize United States and European data-
protection standards?
    Mr. Fox. I'm sorry?
    Senator Kerry. Do you know of any efforts that are being 
made to try to harmonize European and United States data-
protection standards?
    Mr. Fox. Not other than the information that I received 
concerning the SWIFT organization and the negotiations that are 
taking place in that respect.
    Senator Kerry. But the commission made a judgment faulting 
the government for, in fact, sharing information with us, 
correct?
    Mr. Fox. I'm not sure--I'm not sure what the allegations 
were. I just know what the issue is. And the issue, sir, has to 
do with what I said before; that is, on the one hand, trying to 
track the money, trying to get the information that's 
necessary, and yet do so without violating----
    Senator Kerry. Well, do you know what the state of 
relationship is between us and Belgium on this? Does the Bush 
administration dispute the assessment of the commission?
    Mr. Fox. I understand from public information that under 
the U.S. Treasury Department's Terrorist Finance Tracking 
Program (TFTP), SWIFT has produced certain financial 
transaction records in response to lawful subpoenas served on 
SWIFT's U.S. operating center. European data privacy 
authorities have raised questions about SWIFT's practice of 
maintaining global data in the United States, where it is 
subject to U.S. Law enforcement authorities. We certainly 
expect that SWIFT like any other multinational entity would 
follow the applicable laws in the countries in which it 
operates. The Treasury Department is working with the European 
Union and its member states to try to resolve concerns, so as 
to allow this important counterterrorism program to continue in 
a responsible way.
    Senator Kerry. Do you know when the elections are going to 
be held in Belgium?
    Mr. Fox. Well, they must be held before October of 2007, 
and there's speculation it may be as early as June.
    Senator Kerry. What do you see as potential outcome of that 
election? And what is the impact of that on our relationship?
    Mr. Fox. The--well, it's very difficult to say. I think, 
from what I have heard, most people believe that the Socialist 
Party in Flanders and the Liberal Party in Flanders, together 
with the Socialist Party in Wallonia and the Liberal Party of 
Wallonia, will continue to form the government. By the same 
token, the Christian Democracy in Flanders has become more 
popular, and they're middle-of-the-road, as you know. The 
Liberal Party is more to the right, and the Socialists are more 
to the left. The Christian Democracy--Democratic Party is more 
in the middle. And so, they could have a little bit of an 
impact. Insofar as the far right political party, Vlaams 
Belang, I--it doesn't appear as if they're going to have much 
traction. And, even if they do, it's my understanding that the 
other political parties there would not be interested in 
forming a government with them.
    Senator Kerry. Do you believe that one outcome or another 
has an impact on our current ability to cooperate with respect 
to NATO and European Union issues?
    Mr. Fox. I'm sorry, I missed your first--I'm sorry, sir.
    Senator Kerry. I'll speak up. Do you believe that the 
outcome of that election would have an impact on our ability to 
pursue our interests with respect to either European Union 
defense issues or NATO?
    Mr. Fox. I've not heard anyone express that. No, sir.
    Senator Kerry. What about----
    Senator Obama. Senator----
    Senator Kerry. I'm sorry, my time is up.
    Senator Obama. Your time is up. So, what I'd like to do 
is----
    Senator Kerry. I'll come back.
    Senator Obama [continuing]. Give the opportunity for 
Senator Coleman, if he has a second round of questions. I do 
not. Senator----
    Senator Coleman. I'll----
    Senator Obama [continuing]. Coleman----
    Senator Coleman [continuing]. Yield to Senator Kerry, let 
him finish his question.
    Senator Obama. Okay.
    Senator Kerry. I'm happy to--you want to----
    Senator Coleman. I have no questions at this time.
    Senator Obama. Good.
    Why don't we start a new round.
    Senator Kerry.
    Senator Kerry. Thank you, Mr. Chairman. I appreciate that.
    In your view, is there a role that Belgium's royal family 
might be able to play in managing relations between Flemings 
and Walloons?
    Mr. Fox. The--you know, you have a constitutional monarchy 
there with King Albert II, but that's mostly ceremonial. And to 
the best of my knowledge, they're really not involved 
politically and with governmental matters, other than that.
    Senator Kerry. So, you would say no role with----
    Mr. Fox. Well, I----
    Senator Kerry [continuing]. Respect to----
    Mr. Fox. I would not be aware of any role.
    Senator Kerry. What about the prospect of a split between 
the two communities? I understand recently there was--I think 
it was a radio show or something that was meant to be joke, and 
turned out to send serious alarm bells through the community. 
What's your readout on that?
    Mr. Fox. Right. It certainly did. Well, I think everyone's 
kind of amazed as to how Wallonia and Flanders can make up a 
country when they're so different. They're different languages. 
They have their own parliaments. But yet, it somehow seems to 
work. And Belgium--or Brussels is right in the middle of all of 
that.
    I--from everything I've heard, there--the consensus of what 
I've heard is that there is not going to be a breakup. Now, 
could there be? You know, certainly. But I haven't heard 
anything that would make it appear that that sort of a breakup 
was on the horizon.
    Senator Kerry. What is your judgment about where we are 
today in our leverage in Europe, relative to where we were 6 
years ago? Would you say it's improved or diminished?
    Mr. Fox. I don't--that's difficult to say. I would say 
that, as I--as earlier, the question about the feeling in 
Belgium toward Americans, about America, I think that that's 
probably true across--all across Europe. And I think we've got 
a lot of work to do. As a matter of fact, Karen Hughes, who is 
now Under Secretary of State, that's her whole job, to try to 
develop that. And she's come up with a number of ways to help 
those relationships. One is to----
    Senator Kerry. I think he wants you to pull the mike a 
little closer, Mr. Fox.
    Mr. Fox. Closer?
    Senator Kerry. Yeah. Just pull the whole thing. There you 
go. You can even pull it closer, if you want.
    Mr. Fox. Even closer than that?
    Senator Kerry. Sure. I think it helps him out here.
    Mr. Fox. Okay.
    Senator Kerry. Thanks.
    Mr. Fox. And I think Karen Hughes' position is that we need 
to be able to more clearly articulate American views and why, 
the background. She also feels that we need to try to make 
other countries know that terrorism is a worldwide matter, and 
we're all subject to it, and we're really partners. It's a 
problem for all of us. And she feels, I believe--and I don't 
want to speak for her, this is just what I've read--that we 
need to do a better job of articulating that.
    Senator Kerry. Have you ever been to Belgium?
    Mr. Fox. Oh, yes, sir.
    Senator Kerry. How many--for business or----
    Mr. Fox. Business and pleasure. As a matter of fact, I--in 
the middle 1970s, I built an operation in Ireland, in the north 
of Ireland, and then, in the south of Ireland, we brought a new 
industry there. And one of our large markets was Belgium.
    Senator Kerry. This was under which banner, which company, 
that----
    Mr. Fox. That was Synthetic Industries.
    Senator Kerry. Okay. And what do you think--I mean, looking 
at these challenges that we've just articulated, in terms of 
where we stand in Europe today and, sort of, the problem of 
Iraq and the others issues that are extant, you obviously have 
a lot of community skills. And I don't question your business 
acumen. But you don't have government experience. Do you 
believe--or foreign policy experience--do you--sort of, help 
the committee to understand what special skills you believe you 
bring to the table at this point with respect to the needs of 
this relationship.
    Mr. Fox. Yeah, well, first of all, as I said before, I've 
been a businessman all of my life, and it's kind of in my 
blood. And the--I think managing relationships is not much 
different than--in the government--than it is managing 
relationships in business, because human beings are involved, 
and you have to build mutual trust and understanding between 
individuals so that you can then communicate. The--I've had a 
lot of--a lot of experience teaching organizations, you know, 
how to think as one, how to work as a team. I've had a lot of 
experience in teaching organizations and people how to think 
strategically, how to set objectives, how to measure results. 
And I think I know what it takes to build character and 
integrity into organizations, and create a reputation for fair 
dealing. And I think it's the latter that is so very, very 
important in building a relationship with counterparts in a 
government.
    I've had--because we--our businesses are located all around 
the world, and have been for a long time, I've had a fair 
amount of experience dealing with foreign governments and their 
agencies. So--well, Europe, for instance, I've made more than 
100 business trips to Europe. And so, I think that that 
experience will help me. I certainly hope it will.
    Senator Kerry. Well, that's impressive. That's a lot more 
than some people bring to this table. So, I think it is 
important.
    The Belgian Prime Minister has called for the 
transformation of the European Union's security and defense 
policy into a real military force that could cooperate 
independently of NATO. What do you see as the principal 
strategic tensions between the ESDP and NATO?
    Mr. Fox. Well, I had--again, as a United States Ambassador, 
I would be looking for this Government to come to their 
conclusions on that, and it would be up to me, then, to push 
that agenda.
    Senator Kerry. So, you don't want to put forward any 
independent views on that, at this point.
    Mr. Fox. I don't think my independent views are that 
important in the role of ambassador.
    Senator Kerry. What about the charge that you've--have you 
been specifically charged with respect to that effort? Have you 
been briefed with respect to it?
    Mr. Fox. No, sir----
    Senator Kerry. Do you have an opinion?
    Mr. Fox [continuing]. I have not.
    Senator Kerry. No?
    Mr. Fox. No.
    Senator Kerry. Let me ask a few questions that go to 
something that I think is important, which is the question of--
both a combination of citizenship and judgment, if you will, is 
the way I might phrase it. And I want to try to ask these 
questions as fairly as possible. I'm not trying to play some 
kind of gotcha game here, I assure you. But it's important to 
me, in thinking through this issue of judgment, to explore this 
a little bit.
    I assume that you believe that the truth in public life is 
important.
    Mr. Fox. Yes, sir.
    Senator Kerry. And might I ask you what your opinion is 
with respect to the state of American politics, as regards the 
politics of personal destruction?
    Mr. Fox. Senator, I am on record, more than one time--
several times--being interviewed by the press, and particularly 
the St. Louis Post Dispatch. And I am very concerned with the 
amount of money that's going into politics. And I'm more 
concerned about the fact that politics has become mean and 
destructive. And when I was interviewed in 2000, I said that I 
was very--I was for campaign finance reform, because I felt 
that if less money was going into politics, it would turn the 
whole volume down. I want to turn the volume down. I would hope 
there would be less meanness and destructiveness. When 527s 
came along, I had the very same thing to say about them. So, 
I--that's the way I feel.
    And, Senator, let me just say this. I'm against 527s. I've 
always been against 527s. I think, again, they're mean and 
destructive. I think they've hurt a lot of good, decent people. 
And, Senator Kerry, I very much respect your dedicated service 
to this country. I know that you were not drafted, you 
volunteered, you went to Vietnam, you were wounded, highly 
decorated. Senator, you're a hero. And there isn't anybody or 
anything that's going to take that away from you. But you had 
527s try to. And, by the same token, on the other side of the 
aisle, 527s--one 527 went so far as to compare the President of 
the United States with Adolf Hitler. So, I am on public record 
as being against 527s because of all the meanness, and I'm 
against the amount of money that goes into political campaigns, 
for that reason, the same reason--not once or twice, but three 
or four times. And I would just--I wish that Congress could 
find a way to either ban 527s or at least regulate them.
    Senator Obama. Senator Kerry, I just want to point out, 
we've gone through another 10-minute round.
    Senator Kerry. Yeah.
    Senator Obama. I'm sure that you want to continue this line 
of questioning. I don't have any more questions. I feel obliged 
to make sure that Senator Coleman----
    Senator Coleman. Let Senator Kerry----
    Senator Obama. Okay.
    Senator Kerry. If I could----
    Senator Obama. Let's just----
    Senator Kerry. Thanks. I apologize to my colleagues.
    Senator Obama. Thanks. Go ahead.
    Senator Kerry. I just want to explore this a little bit.
    I certainly appreciate the comments you just made, Mr. Fox. 
And I'm not looking for anybody to call me a hero. I think most 
of the heroes died, and do die. And those of us who are lucky 
enough get out of here are lucky.
    But notwithstanding the comments you made, you did see fit 
to contribute a very significant amount of money in October to 
a group called Swift Boat Veterans for Truth, correct?
    Mr. Fox. Correct.
    Senator Kerry. Why would you do that, given what you just 
said about how bad they are?
    Mr. Fox. Well, Senator, I have to put it into the proper 
context, and bear with me.
    Marilyn and I have lived the American dream. There is no 
question about it. My father came here with the clothes on his 
back, and the Fox family and the Widman family have truly lived 
this--the American dream, and it's been very, very good to us.
    I heard a couple of--mention here that we gave to 150 
charities. I actually went back and had my staff count. In 
2005-2006, we made more than 1,000 contributions. More than 100 
of those were political, 900-and-some-odd were charitable and 
to institutions and--of learning and so forth. A great deal of 
those had to do with basic human needs. I think it was Senator 
Danforth mentioned, every time he got a letter that had Harbour 
Group on it, that he shuddered, because it was going to cost 
him money. Marilyn and I both raise a lot of money for a lot of 
people.
    The point I'm making is this. We ask a lot of people for 
money, and people ask us for money. And, very fortunately, 
we've been blessed with being successfully financially. And 
when we're asked, we generally give, particularly, you know, if 
we know who gave it.
    Senator Kerry. Who asked you to give to the SBVT?
    Mr. Fox. I can't tell you specifically who did, because I--
you know, I don't remember. I--as a matter of fact, if I----
    Senator Kerry. You have no recollection of why you gave 
away $50,000?
    Mr. Fox. I gave away $50,000 because I was asked to.
    Senator Kerry. But you have no recollection of who asked 
you to give away $50,000?
    Mr. Fox. No. No, sir. I've given away sums much larger than 
that to a lot of other places, and I can't tell you 
specifically who asked me, no.
    Senator Kerry. Well, you don't think that it's important, 
as a citizen who doesn't like 527s, to know where your money is 
going and how it's going to be spent?
    Mr. Fox. Well, I think, with most contributors--and, as a 
matter of fact, you know, if you go to other side of the 
political campaign, and we give to individual candidates, we 
don't know how they're going to use that money and how it's--
you know, we don't----
    Senator Kerry. Well, at least it's accountable to an 
individual candidate for whom people have to vote or not vote. 
As you said, 527 is mean and ugly and not accountable.
    Mr. Fox. I agree with that. I absolutely agree with that. 
And I----
    Senator Kerry. So, why would you give----
    Mr. Fox [continuing]. Accountability would put it----
    Senator Kerry [continuing]. $50,000 to a group that you 
have no sense of accountability for?
    Mr. Fox. Well, because if 527s were banned, then it's 
banned for both parties. And so long as they're not banned----
    Senator Kerry. So, two wrongs make a right?
    Mr. Fox. Well, I don't know. But if one side is 
contributing, the other side ought to----
    Senator Kerry. But is that your judgment? Is that your----
    Mr. Fox. I'm sorry?
    Senator Kerry [continuing]. Judgment that you would bring 
to the ambassadorship, that two wrongs make a right?
    Mr. Fox. No, I didn't say that two wrongs made a right, 
sir.
    Senator Kerry. Well, why would you do it, then?
    Mr. Fox. Well, I did it, because politically it's necessary 
if the other side's doing it.
    Senator Kerry. Well, let me ask--did you ever see, on 
August 20, 2004, a St. Louis Dispatch editorial wrote the 
following, ``The smear campaign was funded and orchestrated by 
a coterie of Texans with strong ties to the Bush family and the 
President's political director, Karl Rove. The President should 
disown the ads and tell his friends that he wants them to stop. 
Mr. Bush can't wash his hands of the Swift Boat Veterans smear 
because of his close personal connections with the principals. 
The Swift Boat Veterans on Mr. Kerry's boat, including the man 
he pulled from the river, support Mr. Kerry's version of 
events. So to the records documenting the medals Mr. Kerry 
received. The attack ads, by contrast, are riddled with 
inconsistencies. For example''--and it goes on.
    That was in your own newspaper in your hometown. But, a 
month later, you, nevertheless, contribute to that very group 
that is smearing and spreading lies.
    Mr. Fox. Yes, sir. All of the 527s were smearing lies and--
--
    Senator Kerry. So, you see no responsibility, as an 
individual citizen, to try to guarantee that you're not going 
to support that kind of politics of personal destruction.
    Mr. Fox. I think if one side is giving to, the other side 
almost has to. And I think that the real responsibility should 
rest with the Congress to either ban 527s or to, certainly, 
curtail and regulate them. That's the problem.
    Senator Kerry. So, you do believe ``anything goes'' in a 
political campaign.
    Mr. Fox. I'm sorry?
    Senator Kerry. You do believe that ``anything goes'' in a 
political campaign.
    Mr. Fox. No, sir, I don't--in fact, I do not involve----
    Senator Kerry. Well, if you don't believe it, why would you 
not----
    Mr. Fox. No----
    Senator Kerry [continuing]. Not fund it?
    Mr. Fox. I'm sorry, sir. I have never gotten involved on 
the campaign side. I'd raise money, I'd contribute money. I've 
never gotten involved on the campaign side, and I've never 
gotten involved in the 527 side of looking at script or any of 
that.
    Senator Kerry.Well, let me ask you, as a matter of 
judgment, as a citizen, don't you think individuals ought to 
take some responsibility for making sure they know what they're 
giving money to?
    Mr. Fox. Mr. Senator, when we ask lots of people for lots 
of money--and we're asked by people for lots of money--we just 
generally give. I mean, we know generally what it's used for, 
but that's it.
    Senator Kerry. And you don't know who asked you.
    Mr. Fox. No, sir, I really don't. I do not know who asked 
me. I couldn't--if the--if you were to take our thousand 
contributions and go right down the list, I'd bet you I 
couldn't give you 5 percent of them--of who asked me.
    Senator Kerry. Do you recall whether it was somebody in 
Missouri or somebody--was it in person? Was it a--by telephone?
    Mr. Fox. I have no recollection.
    Senator Kerry. No recollection of how that came about.
    Mr. Fox. No, sir.
    Senator Kerry. Do you recall thinking about it at all?
    Mr. Fox. No more than that somebody must have asked, and I 
gave.
    Senator Kerry.Well, no wonder so many people are here to 
embrace your--what about now? How do you feel about it now, 
knowing what you know today?
    Mr. Fox. Mr. Senator, let me say this. Be it 527 or 
anything else, if I thought what they were printing was not 
true, I would not contribute to it. But I personally have no 
way of knowing, generally, when I give.
    Senator Kerry. Well, let me ask you about that. On August 
5, 2004, John McCain called the SBVT, quote, ``completely 
nauseating, dishonest, and dishonorable.'' McCain pointed out 
it was ``the same kind of deal that was pulled on me'' when he 
ran against Bush in 2000.
    On August 15, John Warner, Republican chairman of the Armed 
Services Committee and former Navy Secretary, said, quote, ``I 
can speak to the process, that we did extraordinary careful 
checking on that type of medal, a very high one, when it goes 
through the Secretary, so I'd stand by the process that awarded 
Kerry that medal, and I think we'd best acknowledge that his 
heroism did gain that recognition. I feel he deserved it.'' He 
was then, incidently, in the Navy. He signed my award.
    August 8, 2004, General Tommy Franks called the smear boat 
attacks, quote, ``vitriolic and hyperbole.''
    On August 7, 2004, Mike Johanns, Republican Governor of 
Nebraska, says the ads were trash.
    Now, these are Republican leaders. These are the leaders of 
your own party. President Bush said that he thought that my 
service was honorable and they shouldn't be questioning it. 
Yet, even when your own candidate does that, you saw fit to put 
$50,000 on the line to continue the smear.
    My question to you is, Why? When you say you couldn't have 
known, these were people very publicly condemning it. How could 
you not have known?
    Mr. Fox. I just--Mr. Senator, when I'm asked, I just 
generally give.
    Senator Kerry. So, again, I ask you the question, Do you 
think, now, that you and others bear a responsibility for 
thinking about where we put money in American politics and what 
we're saying, what we present to the American people. Is truth 
important, or isn't it?
    Mr. Fox. Senator, if I had reason to believe, and if I were 
convinced, that the money was going to be used to--in any 
untruthful or false way, knowingly, I would not give.
    Senator Kerry. Well, sir, let me ask you this question. Did 
you or did you not in any of the public comments being made at 
the time, which I assume you're following, hear or read of any 
of the public statements at that point in time with respect to 
the legitimacy of these charges and these smears?
    Mr. Fox. Mr. Senator, I can say this.
    Senator Kerry. I mean, did you miss this? In September of 
2004, the Vice Admiral Route, the Navy inspector general, wrote 
a memo to the Secretary of the Navy that was made public--New 
York Times, Washington Post, every major newspaper of the 
country carried--saying their examination found the existing 
documentation regarding my medals was legitimate.
    Mr. Fox. Yeah.
    Senator Kerry. Did you miss that, too?
    Mr. Fox. I don't remember those. But I'm certain, at the 
time, that I must have read them.
    Senator Kerry. Do think this should matter to me?
    Mr. Fox. I'm sorry?
    Senator Kerry. Do you think this should matter to me?
    Mr. Fox. Yes, I do. I do.
    Senator Kerry. Do you think it should matter to everybody 
here, who's a Senator?
    Mr. Fox. Absolutely. And, as a matter of fact, going back 
to the time that--when I said I was on record, when I was 
interviewed a number of times about campaign finance reform and 
about less money going in, I said one of the reasons--one of 
the big reasons was not just the nastiness and so forth 
associated with it, but the abuse that candidates had to take 
to run for public office. I think it's disgraceful. I think 
it's terrible. But that's the world we live in. That's what 
it's come to. It's unfortunate. I don't know of a campaign--a 
political campaign or a 527 that's ever had anything but that 
as part of it. And I think it's terrible. I do. I wish there 
was some way it could be changed. And I think the best way to 
change it is to restrict the amount of money that can go into 
campaigns, and to restrict the amount of money that can go into 
527s, and regulate both of them even more.
    Senator Kerry. Well, we've been trying to do that for the 
22 years I've been here. And one of the most effective ways to 
do it would be for people like yourself and others who write 
the checks to know what they're giving to, and to care about 
it.
    So, you know, there's a question here, obviously, of 
judgment. I'm not going to try and be unreasonable about it. 
I'm not trying to--you know, sometimes you go to these 
hearings, and Senators rant and rave and scream. And I'm not a 
screamer. But I do think this is important. And I know your 
family is here. I'm sure they're sitting there saying, ``Why 
are they giving my dad a hard time right now?'' And I 
understand that. I'm sympathetic to it. But I hope you know, 
it's not going to make a difference in the outcome where I am, 
but it's important to the future. I think it is robbing this 
country of legitimate dialog, of real discussion of important 
issues that we face. And, you know, it's a tragedy that the 
American people have to put up with that. The last week, alone, 
in the State of Ohio, $4 million was spent on those ads. Four 
million dollars.
    So, it has profound impact, sir.
    Mr. Fox. Yeah.
    Senator Kerry. And I think it's a question of judgment, a 
question of whether we are fighting the status quo or whether 
we're part of the status quo. So, I'm not sure where this goes 
with respect to this, but I certainly thought it deserved to be 
properly vetted.
    And, Mr. Chairman, I appreciate your indulgence, and that 
of my colleague.
    Senator Obama. Senator Coleman----
    Senator Coleman. Thank----
    Senator Obama [continuing]. You'd like a couple of minutes?
    Senator Coleman. Just a couple of minutes, Chairman. I just 
want to note to my colleague from Massachusetts, this should 
matter to all of us. And it's not just a personal thing with 
Senator Kerry, but it's ugly out there, and we--I would hope 
we'd figure out a way to deal with it, because it's hurtful and 
it's destructive. So, I think it should matter to us.
    My concern, as we sit here today, is that I think it would 
be a terrible shame if we were to disqualify folks from service 
because they contributed. I presume, at some point in time, 
there'll be a Democrat President, and, unless we change this, 
we'll have folks of also great generosity and great 
accomplishment and great experience who can add much to--in 
their service to their country, who probably have contributed 
to similar 527s on the other side. And I hope that--first, I 
hope that we fix it. If we can't fix it, then we look at those 
individuals and their life experience and what they've done and 
what they've built, and then we judge them on that. But 
clearly, this should matter to all of us.
    I just have one question for you, Mr. Fox. Did you have 
anything to do with the messaging of--any involvement in the 
messaging of the Swift Boat ads?
    Mr. Fox. No, absolutely none. As a matter of fact, the 
other side--political campaigns--no, I've never gotten involved 
in the campaign part at all. Only giving money or raising 
money.
    Senator Coleman. Again, I could imagine a time when we have 
nominees from the other party who have also been very generous 
and contribute a range of things, and I would hope that we'd be 
able to judge them on their life experience, on what they've 
built and what they have contributed. And I do think we have 
before us two outstanding nominees here.
    So, thank you, Mr. Chairman.
    Senator Obama. Thank you, Mr. Coleman.
    Let me just take my prerogative as chairman of this 
subcommittee to just make a comment. I think Senator Coleman is 
right that we get a lot of ambassadorial nominees before us who 
have made political contributions. And political campaigns are 
ugly, and we don't expect every single person who's made a 
contribution to be held accountable for everything that's said 
in the course of a campaign.
    I have to note that the Swift Boat ads were of a different 
degree, even in the ugly arena of politics. They were 
extraordinarily well publicized, that there was essentially a 
fraud being perpetrated on the American people. It had a 
profound impact on the election. And I have to say, you know, 
sitting here, Mr. Fox, I found your statement somewhat 
unsatisfying, to say that you gave because it's ugly out there 
and people--somebody asked you to give. I mean, it sounds to me 
like you were aware that this was not the best of political 
practices, and you thought it was okay to go ahead and 
contribute to them. And, you know, I just would like to make a 
personal note of the fact that--you know, politics is a rough 
business, and I think we understand that. And no side is pure 
in this process. There was something particularly insidious and 
destructive about these ads. By the time you contributed, it 
was pretty widely noted--it would have been hard for you to 
miss the fact that there was something particularly nasty and 
insidious about these ads. It had been well publicized at this 
point. It strikes me that--I don't think you necessarily 
crafted the message, but you certainly knew, at that point, 
what the message was. And, you know, I think it's important for 
all of us in public life to take note of that and to examine 
our hearts and to think about what lessons we draw from that.
    I would have preferred you saying, you know, ``In 
retrospect, looking back, contributing to this--the Swift Boat 
campaign was a mistake, and I wish I hadn't done it.'' That 
would have been, I guess, the message I would have preferred to 
hear. I--obviously, I'm not responsible for your statements. 
But I think it's worthwhile to reflect on that, particularly 
should you get confirmed to an ambassadorship, because part of 
our task is, I hope, in the war on terrorism and in our efforts 
to secure this Nation--part of that task is to project our 
ideals and our values. And I can say, knowing a lot of people 
overseas, that those Swift Boat ads did nothing to enhance the 
world's view of American politics. And, you know, the--I think 
it's important for all of us to be mindful that when we're 
given these positions of responsibility, that we're carrying 
forward not just our own reputations, but also the reputations 
of the people that we hope to serve.
    So, I'd like to thank the witnesses for testifying today. I 
thank their patience. I thank the families' forbearance. You 
know, these are always fun, sometimes, but also can be lengthy. 
I appreciate both of you gentlemen's willingness to serve this 
country and to present yourselves for these positions.
    The record will remain open for 1 day so that the committee 
members may submit additional questions to the nominees. I ask 
that the nominees respond expeditiously if any questions are 
presented to you. I'm sure that the State Department would 
provide you assistance in responding to those questions.
    If nobody has any additional comments, the hearing is 
adjourned.
    [Whereupon, at 4:30 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


              Responses of Sam Fox to Questions Submitted 
                        by Senator John F. Kerry

    Question. Who asked you to become a member of the Bush Rangers for 
the 2004 presidential campaign?

    Answer. No one asked me to become a member. I became a member of my 
own volition.

    Question. Please identify any individual or organization who 
contacted you, or whom you contacted, with respect to making a donation 
to Swift Boat Veterans for Truth.

    Answer. I don't recall.

    Question. Please describe any and all conversations, meetings, or 
communications regarding the Swift Boat Veterans for Truth that you had 
with any of the following individuals: Karl Rove, Ken Mehlman, or any 
official or consultant of Bush-Cheney 2004 and/or the Republican 
National Committee; John O'Neill; Ann Wagner; and William Franke.

    Answer. I don't know a John O'Neill nor a William Franke. Insofar 
as any of the others, to the best of my recollection I have never had 
any conversations, meetings, or communications with any of the listed 
individuals or organizations regarding Swift Boat.

    Question. Did you receive any acknowledgement or thank you for your 
contribution to the Swift Boat Veterans for Truth? If so, from whom?

    Answer. To the best of my knowledge I have never received any 
acknowledgement or thank you for my contribution to the Swift Boat 
Veterans for Truth.

    Question. Do you have any evidence that any of the allegations made 
by the Swift Boat Veterans for Truth about Senator John Kerry are true? 
If so, please provide that evidence to the committee.

    Answer. I have no personal knowledge or evidence as to the accuracy 
of the claims made in the Swift Boat ads. As I testified at the 
hearing, I did not make an attempt to verify the factual basis of the 
ads at the time I was solicited for my contribution. As I further 
testified, my wife and I made over a thousand charitable and political 
contributions in a 2-year period and it's simply impractical for me to 
do any significant due diligence on that many contributions.
                                 ______
                                 

        Responses of Sam Fox to Additional Questions Submitted 
                        by Senator John F. Kerry

    Question. You testified that you do not recall who asked you to 
contribute to Swift Boat Veterans for Truth (SBVT). At the time of your 
donation, what was your understanding as to what your money would be 
used for? What did you understand SBVT's purpose at that time to be?

    Answer. I assumed that my contribution would be used for the SBVT's 
general purposes, including administrative expenses, fundraising, 
advertising, but did not have any understanding whatever as to how my 
contribution would be spent.

    Question. At the time of your donation, did you know, for example, 
that SBVT would be airing TV ads? Did you know that these would attack 
Senator Kerry?

    Answer. I was aware that SBVT aired TV ads and that the content of 
such ads dealt with Senator Kerry.

    Question. You indicated that 527's were supporting ``parties'' on 
both sides. What did you mean by this? At the time of your donation, 
what relationship did you understand SBVT to have had with the RNC, the 
Bush campaign, or any other Republican party, officeholder, or 
candidate?

    Answer. I meant that I believed that there were 527's that were 
supporting and opposing the candidates of both the Democratic and 
Republican parties. At the time of my donation, I did not understand 
SBVT to have any relationship with the RNC, the Bush campaign, or any 
other Republican party, officeholder, or candidate, and believed it to 
be an independent organization operating under section 527.

    Question. At the time of your donation to SBVT, what was your 
understanding as to the purpose of 527 organizations? What was your 
understanding as to their legality and the place they fit within the 
campaign finance system?

    Answer. At the time of my donation to SBVT, I had a general 
understanding that 527 organizations legally existed as issue advocates 
that were permitted to solicit funds for that purpose. I had a general 
understanding that 527 organizations were separate and distinct from 
political parties and candidate campaign committees.

    Question. At the time of your donation, did you understand that 
SBVT would use your funds in connection with a particular election? For 
example, did you understand that it would use your funds to influence 
the 2004 Presidential election? If not, what did you understand the 
purpose of the organization to be?

    Answer. I had no understanding as to SBVT's use of my donation. I 
assumed that SBVT's purposes were to do what it could to publicize the 
issues that it had been pursuing.

    Question. Have you ever been contacted, formally or informally, by 
the Federal Election Commission regarding your donation to SVBT or for 
any other purpose?

    Answer. No.

    Question. After the election, were you contacted by counsel or 
other representatives of SVBT or the Bush campaign regarding your 
donation to SBVT or any other 527 organization that you may have 
contributed to?

    Answer. No.

    With respect to Question 5 of the prior list of Questions for the 
Record, submitted on March 2, 2007, to wit:

    Question. Did you receive any acknowledgement or thank you for your 
contributions to the Swift Boat Veterans for Truth? If so, from whom?

    Answer. After my assistant checked my records, we found the 
attached acknowledgement of my contribution.
    [The information referred to follows.]

                             Swift Boat Veterans for Truth,
                                  Alexandria, VA, November 2, 2004.
Mr. Sam Fox
Clayton, MI.
    Dear Mr. Fox: Thank you very much for your recent contribution in 
the amount of $50,000.00 to the Swift Boat Veterans for Truth. The only 
way we can get the truth out about John Kerry is with the help of 
Americans such as you.
    We are proud to have you with us.
            Very truly yours,
                                        Weymouth D. Symmes,
                                                         Treasurer.


                              NOMINATIONS

                              ----------                              


                        TUESDAY, MARCH 13, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
Almquist, Katherine, to be Assistant Administrator of the U.S. 
        Agency for International Development for Africa
Bonicelli, Paul J., to be Assistant Administrator of the U.S. 
        Agency for International Development for Latin America 
        and the Caribbean
Chin, Curtis S., to be U.S. Director of the Asian Development 
        Bank, with the rank of Ambassador
Debevoise, Eli Whitney, III, to be U.S. Executive Director of 
        the International Bank for Reconstruction and 
        Development
Kunder, James R., to be Deputy Administrator of the U.S. Agency 
        for International Development
Lundsager, Margrethe, to be U.S. Executive Director of the 
        International Monetary Fund
Menarchik, Douglas, to be Assistant Administrator of the U.S. 
        Agency for International Development for Europe and 
        Eurasia
                              ----------                              

    The committee met, pursuant to notice, at 3:05 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez presiding.
    Present: Senators Menendez and Lugar.

           OPENING STATEMENT OF HON. ROBERT MENENDEZ,
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. This hearing of the Committee on Foreign 
Relations will come to order.
    Today, the committee will consider the nominations for four 
administrators at the United States Agency for International 
Development, and three U.S. representatives at international 
financial institutions. I want to welcome the nominees, as well 
as their families who may be here, to the hearing.
    I'm happy to be joined by the ranking member of the full 
committee, Senator Lugar, and also thank Senator Hagel, who is 
the ranking member of the Subcommittee on International 
Development, Foreign Assistance, Economic Affairs, and 
International Environmental Protection--I wish I could get a 
dollar for every time I had to say that, who is unable to join 
us today.
    I know we have a busy agenda, so I will recognize myself 
for an opening statement.
    While today's hearing is technically a nominations hearing, 
in my mind it also is a forum to discuss the broader issue of 
U.S. foreign assistance. Yes, we're going to examine the 
qualifications of all of these nominees, but, in my mind, 
equally as important, we'll be asking the question, ``Is each 
nominee the best candidate for a position where they will be in 
charge of a key aspect of our United States foreign assistance 
program?''
    ``Why does U.S. foreign assistance matter?'' I was asked 
earlier today in an interview. It's because we care that, 
globally, 10.6 million children are still dying from 
preventable diseases every year. It is because we care that 
nearly 2.7 billion people live on less than $2 a day. It's 
because we care that every 5 seconds, a child dies from a 
hunger-related cause. Yes, it's also because it is in our 
national interest and our national security interest to help 
create a stable and secure world around us.
    As President Kennedy said when he signed the Foreign 
Assistance Act in 1961, creating USAID, he said, quote, ``In 
enacting this legislation, Members of the Congress, of both 
parties, have, again, demonstrated their understanding that it 
is in our national obligation and in our national interest and 
security to work for a world in which there is a chance for 
national sovereignty and national independence.'' That's why 
this hearing is so important. That's why I plan to carry out a 
vigorous oversight of our foreign assistance programs as 
chairman of the subcommittee. Our subcommittee has been tasked 
with the job of looking at every aspect of U.S. foreign 
assistance, from the Millennium Challenge Corporation to USAID 
and the international financial institutions. Today's hearing 
will be the first in a series of hearings that take a close 
look at these programs.
    As we talk with these nominees, and as we proceed in the 
months to come, I hope to examine at least four major concerns 
that I have with our foreign assistance programs. First, the 
President has created a vision for transformational 
development, with the head of USAID also acting as the head of 
all U.S. foreign assistance inside the State Department. And, 
while I generally support the idea of coordinating all of our 
foreign assistance to avoid duplication, I am concerned that 
there may be unintended consequences from such a 
reorganization. I am also concerned that the new policy of 
graduating countries from U.S. assistance, and the new 
framework with a focus on shorter-term strategic issues, may 
take away from some of our long-term core development goals, 
such as poverty reduction.
    My second question is, What's the future of USAID? By all 
accounts, the power and influence of USAID, the principal U.S. 
agency for foreign development aid, is slowly being chipped 
away, and I look at that through a series of signs. The head of 
USAID now sits at the State Department, not USAID. The 
Millennium Challenge Corporation is clearly taking money, 
prestige, and power away from USAID. And, if you look at the 
total foreign aid budget, State and USAID only had about 53 
percent of the total budget in 2005, with other agencies 
managing the rest. It seems to me that we're in the process of 
decimating an agency that clearly has had bureaucratic 
problems, but that is also full of many, many qualified and 
talented people who actually know a great deal about 
development. And these challenges--changes, I should say, 
warrant greater security.
    I am also concerned about the Department of Defense's new 
role in development. According to the Congressional Research 
Service, in 2005 the DoD disbursed about 24 percent of the 
development budget, mostly in Iraq and Afghanistan. I question 
why the Defense Department is playing such a large role in 
development, particularly when the record in Iraq and the 
reports from the special inspector for Iraq reconstruction have 
shown they have done a poor job of it.
    Finally, an issue I plan to examine at great length is the 
administration's foreign assistance budget. Although I support 
the general concept and goals of the Millennium Challenge 
Account, I am alarmed that the core development accounts have 
been cut as we pursue the MCC. A study last year from the 
Center for Global Development found that MCA-eligible and 
compact countries have experienced unequivocal reductions in 
the development assistance account at the U.S. development aid. 
We were promised that MCC would be additive, but, once again, 
the administration has proposed to cut funding for those core 
development accounts. I know the administration keeps touting 
the increase in the overall international affairs budget, yet 
their budget for fiscal year 2008 actually cuts funds from the 
core development accounts across the world.
    In closing, I believe our nominees, if confirmed, will 
become a key part of the foreign assistance agenda. It is the 
President's job to propose America's foreign policy agenda, but 
it is Congress's job to appropriate funding and provide 
oversight for our development and foreign assistance programs. 
But it's ultimately going to be your job to implement those 
initiatives on the ground.
    If confirmed to your respective posts, the four of you, as 
well as the three nominees in the second panel, will have a 
great responsibility of determining priorities, working with 
neighboring countries, representing the United States in vital 
endeavors. And I know none of you take that position lightly. I 
also would remind each of you that you have a responsibility 
not only to implement the President's policy, but also to 
report honestly and completely to Congress.
    I look forward to learning more about your past experience. 
I've had an opportunity to speak to each and every one of you, 
and I appreciate those opportunities and they were very 
helpful. Your visions for the future of America's role in these 
important development programs and financial institutions.
    And I will, before I turn to the distinguished ranking 
member, welcome you all formally so that, after Senator Lugar's 
statement, we can go directly to your testimony.
    Mr. James Kunder is the nominee for the USAID Deputy 
Administrator. He is acting in that position currently. He 
previously served as Assistant Administrator for Asia and the 
Near East.
    Dr. Edward Menarchik is the nominee for USAID Assistant 
Administrator for Europe and Eurasia, and is acting in that 
position currently. He previously served as Assistant 
Administrator, Bureau for Policy and Program Coordination for 
USAID.
    Dr. Paul Bonicelli is the nominee for USAID Assistant 
Administrator of Latin America and the Caribbean. He currently 
serves as the Deputy Assistant Administrator for the Bureau of 
Democracy, Conflict, and Humanitarian Assistance of USAID.
    And Ms. Katherine Almquist is the nominee for USAID 
Assistant Administrator for Africa. She is currently serving as 
the USAID Mission Director for the Sudan.
    Let me now recognize the distinguished ranking member, 
Senator Lugar, for his opening statements.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman. I 
thank the Chairman, and I add my welcome to two impressive 
panels of nominees, as well as family members and friends who 
have accompanied you.
    Today, the committee will have discussions with nominees 
for important positions at USAID. The United States has strong 
national security and humanitarian interests in alleviating 
poverty, and promoting development around the world. The 
efforts of USAID are central to this mission, and each of our 
nominees will play a key role in formulating policies that will 
impact U.S. standing in their regions of responsibility.
    I would take this opportunity to express my hope that the 
Senate will move forward quickly on the nomination of Mr. James 
Kunder to be Deputy Administrator of USAID. Mr. Kunder would be 
responsible for assisting Ambassador Randall Tobias, the 
current Administrator of USAID, in executing U.S. foreign 
assistance programs. In addition, he would be charged with 
assisting the Administrator in the supervision of all personnel 
at the Agency in the United States and overseas.
    Mr. Kunder currently is the Agency's Acting Deputy 
Administrator and continues to serve as the Assistant 
Administrator for Asia and the Near East. In this capacity, Mr. 
Kunder overseas some of USAID's largest and most important 
projects.
    Mr. Kunder's nomination came before the committee last 
September, and he has been patient and thorough in addressing 
questions from Senators related to his nomination. He was asked 
to provide answers to nearly 100 detailed questions about 
reconstruction efforts in Afghanistan. In addition, he was 
asked to provide photographs of clinics and schools being 
constructed, or reconstructed, in Afghanistan.
    Mr. Kunder's responses are contained in three voluminous 
binders consisting of some 1,500 pages. The responses 
incorporate photographs and maps of virtually all USAID 
projects in Afghanistan, including clinics and schools. I 
appreciate the serious attention that Mr. Kunder and his staff 
have given to congressional concerns. In fact, I cannot 
remember a nominee under the jurisdiction of this committee who 
has provided a greater volume of useful information about the 
projects and programs under his direction. The materials in 
these binders provide an excellent tutorial for any Senator who 
wants to know more about Afghanistan or the functions of USAID. 
The binders have been deposited with the committee staff and 
are available to any members or staff who might wish to review 
them.
    Ambassador Tobias needs a deputy who is well-versed in the 
Agency's workings. He strongly supports Mr. Kunder's nomination 
to the position. I am hopeful we will move forward so that Mr. 
Kunder can more fully contribute to USAID's vital mission.
    I would also note that this hearing follows a very 
interesting hearing on Afghanistan held last week by this 
committee. There were several points raised at that hearing 
that I would ask Mr. Kunder to consider.
    First, one of the witnesses observed that, unlike in Iraq 
and Bosnia, there is no civilian contact group in Afghanistan. 
Such a group might be a useful tool in advocating our goals in 
Afghanistan.
    Second, we discussed whether a coherent United States 
program could be developed for providing United States foreign 
assistance directly to eastern Afghanistan and the federally 
administered tribal areas in Pakistan, including Waziristan. 
Such a program would acknowledge the ethnic and tribal 
realities of the area. Obviously, this would not be an easy 
mission, but we should explore whether United States foreign 
assistance could make an impact in that region, given its 
importance to the outcome in Afghanistan.
    On our second panel, we will hear from nominees to be U.S. 
executive directors to international financial institutions. 
During the past 4 years, our committee has held six hearings on 
the operations of the multilateral development banks. Those 
hearings contributed to the committee's understanding of both 
the value of the banks' work and problems with their operation.
    In 2005, building on this work, I introduced Senate bill 
1129, the Development Bank Reform and Authorization Act. Most 
of the provisions of this bill were enacted into law in 
November 2005. With passage of this legislation, Congress made 
a strong statement that recognized the critical role of MDBs in 
achieving development goals around the world, but also that the 
operations of these banks must be transparent and free of 
corruption.
    The U.S. Government must work hard to ensure that this 
money is spent efficiently, both because of our responsibility 
to American taxpayers and because inefficiency and corruption 
undermine the basic humanitarian and foreign policy objectives 
of our participation in MDB financing.
    I congratulate all of the nominees, and I thank the 
Chairman for the opportunity to make this statement.
    Senator Menendez. Thank you, Senator.
    We are pending a vote, and we hope to get through at least 
your testimony before that vote, before questions. So, we'll 
start with Mr. Kunder. And the same process, you're free to 
make your presentation. We'd ask you to limit it to 5 minutes. 
Your full statement will be included in the record. Should any 
of you have family members here, please introduce them. And if 
you summarize your testimony, we'll get through all of you, and 
then, hopefully, we'll have an opportunity for questions before 
the vote and be able to move on.
    So, we'll go from Mr. Kunder, moving from right to left. 
That's not an ideological statement, it's just simply physical 
reality----
    [Laughter.]
    Senator Menendez [continuing]. At the table.
    And, with that, Mr. Kunder, you are welcome to present your 
testimony.

    STATEMENT OF HON. JAMES R. KUNDER, NOMINEE TO BE DEPUTY 
 ADMINISTRATOR OF THE U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Kunder. Thank you, Mr. Chairman. It's an honor to be 
before the committee today as President Bush's nominee to be 
Deputy Administrator at USAID.
    I would like to introduce to the panel my wife, Robbin, who 
is also a USAID employee, and my son, James, who is here 
primarily to collect Senatorial autographs for Ms. Eaton's 
class at St. Stephen's School in Alexandria. He's also the 
beneficiary----
    Senator Menendez. A worthy cause.
    Mr. Kunder [continuing]. Of the Squirms that I picked up in 
your office the other day.
    We very much appreciate this panel's serious attention to 
USAID, the extensive oversight that the panel has provided, and 
also the leadership that the Committee has provided to looking 
at the questions of how the U.S. Government can be better 
organized to manage conflict and post-conflict situations on 
the civilian side of the government. This is an area that 
Senator Biden and Senator Lugar have worked on extensively. We 
very much appreciate that ongoing work, and, if confirmed, I 
very much look forward to continuing that discussion with the 
committee so that we can do the kind of serious work that the 
taxpayers expect from us when our soldiers are deployed 
overseas.
    I won't go through my biography, sir. I worked at USAID 
previously, and served as director of the Office of Foreign 
Disaster Assistance there. I've also served in Afghanistan, 
deploying there soon after our troops chased the Taliban from 
Kabul. I also would like to mention that I have worked in the 
private not-for-profit sector as vice president of Save the 
Children Federation, so I've had the opportunity to look at 
these issues of foreign assistance, and U.S. taxpayer support 
for foreign assistance, from several different perspectives. 
I've also had the opportunity to serve as an infantry officer 
in the United States Marine Corps, so that I'm able to, I 
think, deal effectively with our military colleagues when we 
work with them, which is often, these days.
    I think USAID has very important contributions to make to 
U.S. foreign policy. First, it is, as the Chairman said, an 
important tool in our national security arsenal. And, second, 
it meets the taxpayers' strong interest in a humanitarian 
presence overseas. I think it's this unique combination of 
roles that makes USAID an important part of the U.S. foreign 
policy establishment.
    I also want to note that, having worked at USAID now for 
almost 10 years in two different iterations, that the men and 
women of USAID are among the most competent professionals and 
courageous individuals with whom I have had the opportunity to 
serve. They work in dedicated fashion in some of the most 
difficult places on the face of the Earth, and they are an 
extraordinarily important part of the U.S. Government's effort 
overseas.
    I do hope that I have the opportunity to serve in this 
position, if confirmed, in order to help Ambassador Tobias move 
his reform agenda forward. We are very interested, as the 
Chairman has stated, in keeping alive the concept of long-term 
development--making contributions to long-term human progress. 
What Ambassador Tobias is very much interested in doing is 
establishing a system that shows, in concrete terms, to the 
Senate and to the American public, that we are making 
measurable progress toward the human progress for which we all 
strive.
    I just want to make one other personal comment, in closing, 
sir. I hoped my parents were able to travel from Pennsylvania, 
but they were not able to come down. I mention in my statement 
that my father, who's a World War II veteran and a steelworker, 
has done his duty over the years as a volunteer fireman, as a 
civic leader. My mother, who is an immigrant from Italy, who 
came here not speaking a word of English, served in the 
Pentagon during World War II and also was a community leader in 
our community in Pennsylvania. And I just noted in my statement 
that I hope, if confirmed by the Senate, I will be able to 
carry out my duties as well as they carried out theirs.
    Thank you.
    [The prepared statement of Mr. Kunder follows:]

   Prepared Statement of Hon. James R. Kunder, Nominee to be Deputy 
     Administrator of the U.S. Agency for International Development

    Mr. Chairman, it is an honor to appear before the committee today 
as President Bush's nominee to serve as Deputy Administrator of the 
U.S. Agency of International Development (USAID).
    I have had the honor to serve as the Acting Deputy Administrator 
for the past 6 months. This experience has made me acutely aware of the 
development challenges facing the U.S. Government and the intense 
interest of the committee in meeting them. I have devoted much of my 
time as Acting Deputy Administrator to assisting Administrator Tobias 
administer the foreign assistance reforms--reforms necessary to meet 
the 21st century's unprecedented challenges and opportunities. I am 
excited to be part of this change to leverage USAID strengths to 
support foreign assistance as an element of U.S. foreign policy.
    Prior to serving as Acting Deputy Administrator, I was the 
Assistant Administrator of the Asia and Near East region, which 
stretches from Morocco to Mongolia, is home to millions of impoverished 
human beings, and is on the front lines in the global battle against 
terror, and against those conditions that allow terrorism to flourish. 
The U.S. Government's foreign assistance programs are an important 
weapon in the fight against terror, poverty, illiteracy, inequality, 
and instability. If confirmed by the Senate, I pledge that I will do 
everything in my power--in full consultation with the Congress--to 
assist Ambassador Tobias and Dr. Rice in furthering the goals of 
transformational diplomacy, and to ensure that U.S. Government 
development and reconstruction programs are carried out effectively, 
equitably, and with the oversight that the taxpayers have every right 
to demand.
    From 1991 to 1993, I served at USAID as Director of U.S. Foreign 
Disaster Assistance. In January 2002, I returned to USAID to reopen the 
USAID Mission in Kabul immediately after the fall of the Talaban. 
Subsequent to serving as the Director of Relief and Reconstruction in 
Afghanistan for 5 months, I served as Deputy Assistant Administrator 
and then Assistant Administrator of the Asia and Near East Bureau, 
where I had the privilege to work on a wide range of issues in support 
of Iraq, West Bank and Gaza, Lebanon, and the countries affected by the 
2004 tsunami and 2005 earthquake in Pakistan.
    From these experiences I have learned that designing and 
implementing sustainable development and reconstruction processes in 
transitioning nations is a daunting, but critically important 
challenge. I look forward, if confirmed, to continuing to benefit from 
the committee's guidance and consultations in USAID's work.
    If confirmed, Mr. Chairman, I will take very seriously my role in 
representing the agency in the many interagency deliberations in which 
U.S. support for international economic, governance, and social 
programs are discussed. Under the direction of Ambassador Tobias, we 
understand now better than ever the key importance of our relationship 
with the Department of State, and our respective staffs are making 
great efforts to ensure optimal coordination. If confirmed, I expect to 
devote significant time to addressing questions of budget, strategic 
priorities, and funding levels with colleagues at the Department of 
State and other U.S. Government agencies.
    I also recognize that we within the U.S. Government do not have a 
monopoly on knowledge of what transforms societies. Having worked in 
both the for-profit and not-for-profit sectors, I look forward to a 
fruitful dialog with all elements in the development community, 
including but not limited to the NGOs, universities, and the business 
community, since activities in all these sectors impact human progress.
    After 20 years of working in the development and reconstruction 
field, I remain an optimist about America's role in the world, and I 
firmly believe in the importance of the role assigned to the U.S. 
Agency for International Development. Working to build democracy and 
economic prosperity in the poorest countries in the world, countries 
that are in the strategic interest of the United States, as well as 
those countries that are simply deprived, suffering, or experiencing a 
humanitarian crisis, is one of the most inspiring missions of the U.S. 
Government. If confirmed, I look forward to working with you, Mr. 
Chairman, other members of the committee, and your staff, in order to 
help steer this work in the right direction and ensure that each tax 
dollar is used to make a real impact in the world.
    On a personal note, Mr. Chairman, I had hoped that my parents, Jim 
and Virginia Kunder, from Rochester, PA, would be able to join me here 
today, but they were not able to make the trip. As they have been an 
inspiration to me, I wanted to note their contributions. Over 63 years 
ago, my father was pushing across the beaches at Normandy. Subsequently 
as a steelworker, volunteer firefighter, and community leader, he has 
continued to serve his country well. My mother was one of those 
millions of Americans who came here as a child from a far country, 
speaking not a word of English. She pulled herself up by her 
bootstraps, worked in the Pentagon during World War II, forged a career 
in the nonprofit world, and led numerous civic organizations. I would 
be proud if I am able to execute my duties half as well as they 
executed theirs.
    This concludes my testimony, Mr. Chairman. I would be happy to 
answer any of your or the committee's questions.

    Senator Menendez. Thank you.
    Mr. Menarchik.

 STATEMENT OF HON. DOUGLAS MENARCHIK, NOMINEE TO BE ASSISTANT 
ADMINISTRATOR OF THE U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT 
                     FOR EUROPE AND EURASIA

    Dr. Menarchik. Thank you, Mr. Chairman and members of the 
committee, for this opportunity to appear as President Bush's 
nominee for Assistant Administrator of the Bureau for Europe 
and Eurasia in the United States Agency for International 
Development.
    I am pleased today to have my family with me, my wife of 38 
years, Debbie Menarchik; my son, Lieutenant Commander Jason 
Menarchik, who has recently returned from a 1-year tour in 
Iraq, and is about to deploy to the Pacific theater aboard the 
Blue Ridge; my daughter, Heidi; my sister, Denise Stepanik; my 
brother-in-law, James Stepanik; and my sister, from Fairchance, 
Pennsylvania, Dede Cole.
    I have submitted a written statement for the record and 
will provide a very brief oral statement.
    I have been confirmed previously before this committee as 
the Assistant Administrator for Policy and Planning 
Coordination, about 2\1/2\ years ago, and, if confirmed again, 
I would join this USAID team at a critical time in the global 
war on terrorism and the critical time for foreign assistance 
as we work to better synchronize U.S. defense, diplomacy, and 
development efforts to attain our foreign policy objectives.
    Europe and Eurasia remains a critical region in advancing 
America's frontiers of freedom. USAID has accomplished much 
there, but much remains to be done, with critical challenges to 
democracy in Russia, remaining instability in the Balkans and 
the Caucasus, and complex development and strategic challenges 
in Central Asia. I pledge that I will continue to work with 
Congress to meet these challenges head-on.
    These past few years with USAID and international 
development have been, in many ways, the most challenging and 
interesting of my 39 years of public service. As Assistant 
Administrator for Policy and Programs Coordination, I have a 
unique strategic priority and budget-setting position for 
transformational development and an understanding of the need 
to reform our system. My career has been both broad and deep in 
a variety of sectors--national security, foreign policy, 
military operations, international development, and executive 
leadership positions in both academia and business. I have 
served in the White House, the Pentagon, the National Archives, 
at USAID, and lived and traveled widely overseas. I have spent 
much time in the Europe/Eurasia region, and have done much 
thinking about it.
    Many of my graduate students from the Marshall Center are 
now serving in senior leadership roles. I met with some of them 
last month on my trip to the Caucasus and Turkmenistan, and 
discussed international development issues with them.
    I am proud to be nominated for this position with USAID, 
and I'm eager to serve the President and to work with Congress 
in carrying out our joint State/USAID strategy.
    Mr. Chairman, thank you for providing me this opportunity 
to present my qualifications for this position and my views on 
the future of the Bureau for Europe and Eurasia.
    This concludes my oral testimony, and I would be pleased to 
answer any questions, sir, you may have.
    [The prepared statement of Dr. Menarchik follows:]

 Prepared Statement of Hon. Douglas Menarchik, Nominee to be Assistant 
  Administrator of the U.S. Agency for International Development for 
                           Europe and Eurasia

    Thank you, Mr. Chairman and members of the committee for this 
opportunity to appear as President Bush's nominee for Assistant 
Administrator of the Bureau for Europe and Eurasia (E&E) in the United 
States Agency for International Development (USAID).
    If confirmed, I would join the USAID team at a critical time for 
foreign assistance as we work to better synchronize U.S. defense, 
diplomacy, and development efforts to attain our foreign policy 
objectives. The Director of Foreign Assistance and USAID Administrator, 
Ambassador Tobias, has instituted major reforms at the Department of 
State and USAID to more closely align our strategy and budget processes 
to achieve President Bush's and Secretary Rice's transformational 
diplomacy goals. USAID is also expanding collaboration with the 
Department of Defense (DoD) in civil-military planning, training, and 
operations to assure optimal use of the development tool within the 
national security framework.
    United States assistance is particularly critical to achieving 
United States Government foreign policy goals and in advancing United 
States national security in the Europe and Eurasia region and beyond. 
USAID programs contribute significantly to United States foreign policy 
goals of consolidating democratic gains throughout the Europe and 
Eurasia region; furthering integration into Euro-Atlantic institutions; 
promoting stability in the Balkans; achieving a peaceful settlement of 
Kosovo's future status without isolating Serbia; encouraging Russia to 
be a responsible member of the global community, supporting democratic 
institutions and the rule of law; and, in Central Asia, furthering 
regional integration through energy, infrastructure, and trade 
linkages, as well as economic diversity and exposure to democratic 
values.
    As the Assistant Administrator (AA) for the E&E region, I would 
energetically support the efforts of Secretary Rice and Ambassador 
Tobias to achieve these goals. In particular, I will assist Ambassador 
Tobias in implementing his reform agenda at USAID, ensuring that 
assistance is focused on the highest priority U.S. objectives and that 
it is implemented in a cost-effective and efficient manner, both in 
Washington and in our field missions.
    I would also like to build on past efforts at USAID to define a 
vision and identify the steps and benchmarks that will lead to the 
eventual phasing out of U.S. assistance in the region, while leaving 
behind key institutions to ensure that U.S.-assisted reforms are 
sustained. I recognize that some countries are nearer to this goal than 
others, but I believe that planning for this eventuality will help us 
achieve it.
    I am also keenly interested in deepening USAID's engagement with 
the Department of Defense. We need to coordinate our planning to 
enhance security, stabilization, transition, and reconstruction. 
Working together, we can ensure that USAID assistance in social, 
political, and economic sectors contributes as effectively as possible 
to security, stability, and counterterrorism success in the Balkans, 
Caucasus, and Central Asia.
    If confirmed, I will bring to this position a strong background in 
the foreign and security policy arena that will provide an 
understanding of the strategic context in which USAID works. My almost 
2\1/2\ years as USAID's Assistant Administrator for Policy and Programs 
Coordination gave me a unique strategic priority and budget setting 
position for transformational development, and an understanding of the 
need to reform our system. I will also bring the experience and 
knowledge gained from operating in complex and crisis settings. 
Building a cooperative working relationship in the interagency process 
is vital to the success of USAID's mission, and I believe my previous 
experience will serve me well in this effort.
    Mr. Chairman, I have been a public servant my entire adult life. I 
believe public service is both a noble and high calling. My career has 
been both broad and deep in a variety of sectors--national security, 
foreign policy, military operations, international development, and 
executive leadership positions in both academia and business. In the 
White House, I served as then-Vice President Bush's military assistant 
in the 1980s, and was specifically involved in Middle Eastern, African, 
terrorism, and general Defense Department issues. While at the White 
House, and later as Assistant for Terrorism Policy in the Defense 
Department in the 1990s, I helped draft several white papers on 
terrorism when the public and the Government were less focused on this 
threat. I believe this background makes me keenly aware of the 
challenges USAID faces in keeping its employees and partners safe in 
areas of danger and instability.
    In addition, during my 3 years as a professor at the George C. 
Marshall Center for Security Studies in Germany, I worked with the 
Partnership for Peace countries of the former Eastern Bloc and those of 
Central Asia. I taught senior officials from the former Soviet Union 
how to operate a military in a democratic society. Many of my graduates 
are now in senior positions in the Europe and Eurasia region. I met 
with some of them last month on my trip to the caucasus, and discussed 
international development issues with them.
    I have seen the devastation and ruin left behind from failed 
economic systems and dictatorships. And I have seen firsthand the 
benefits of training others in democracy and free market systems.
    Finally, my post-graduate education in both international relations 
and religion has prepared me well for work on the world stage. I 
believe that I have the skills necessary to oversee the allocation of 
foreign aid budget resources in an efficient and objective manner, 
while remaining sensitive to a region's religions and cultures. All of 
these experiences as a military commander, director of a civilian war 
college at the National Defense University, presidential library 
director, and senior executive within USAID, have enhanced my 
leadership skills.
    I am well-traveled and have lived and worked in many different 
areas both in and outside the United States. I have seen the ravages of 
war in Vietnam as a pilot, and the devastation left behind from fallen 
political regimes. I know how to start up organizations, how to fix 
broken organizations, and how to make organizations run effectively, 
efficiently, and purposefully. I had been specifically hired in my last 
four jobs to perform these difficult tasks. Should I be confirmed, I 
believe that my diverse operational, foreign policy, international 
development, and academic and executive leadership positions would 
serve me well in this important USAID position.
    In conclusion, I am proud to be nominated for this position with 
the U.S. Agency for International Development, and am eager to serve 
the President and work with the Congress in carrying out our joint 
State-USAID Strategy.
    Mr. Chairman, thank you for providing me this opportunity to 
present my qualifications for this position and my views on the future 
of the Bureau for Europe and Eurasia. This concludes my testimony, and 
I would be pleased to answer any questions you may have.

    Senator Menendez. Thank you.
    Dr. Bonicelli.

  STATEMENT OF DR. PAUL J. BONICELLI, NOMINEE TO BE ASSISTANT 
ADMINISTRATOR OF THE U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT 
              FOR LATIN AMERICA AND THE CARIBBEAN

    Dr. Bonicelli. Thank you, Mr. Chairman. It's indeed an 
honor and privilege to appear before you and the committee 
today, with my colleagues, as President Bush's nominee. I thank 
you for considering my nomination to serve as Assistant 
Administrator for the Latin America and Caribbean Bureau at 
USAID.
    In my current capacity as Deputy Assistant Administrator in 
the Bureau for Democracy, Conflict, and Humanitarian 
Assistance, I have become quite familiar with the challenges 
we, as a government, face in promoting development around the 
world. Should I be confirmed, I would look forward to returning 
my attention once again to this hemisphere, as I have in the 
past during my academic career and during my time here at the 
Congress working for the House International Relations 
Committee.
    Throughout my career, I have considered this hemisphere to 
be of utmost importance to the United States. We are neighbors 
not only because of geography, but also because of the 
centuries of strong and, even now, strengthening ties of 
commerce, family, friendships, and, importantly, a shared 
commitment to the democratic way of life. While the region 
continues to battle poverty and other development challenges, 
we have, together, enjoyed many successes, not least of which 
is that there are elected leaders in all but one country in the 
hemisphere. Moreover, the region boasts several countries that 
have made great strides toward self-sufficiency. Nevertheless, 
I believe that our task is to redouble our efforts, to 
consolidate gains, and to achieve more in the hemisphere. This 
is especially true now that democracy is being questioned by 
those who have not yet seen the material gains that are the 
very real results of democracy. We should counter that trend 
toward instability, populism, and isolationism, which is 
evident in some quarters, with concrete actions that inspire 
hope for long-term development.
    I believe we are better able to do this now, because we are 
embarking on an historic reform of our foreign assistance 
program. With the first-ever U.S. Director of Foreign 
Assistance, Ambassador Randall Tobias, we are crafting the 
tools to assure that State and AID resources are fully 
integrated both in Washington and in the field. This is a 
strategic change that is creating a more rational budgeting 
process. Having been involved with development and 
democratization throughout my career, I can say that this is 
what is needed to help us better fight the scourges of poverty, 
illiteracy, tyranny, instability, terrorism, and narcotics 
trafficking. If confirmed, I pledge to do everything in my 
power, and in consultation with the Congress, to ensure that 
U.S. assistance to our neighbors is carried out effectively, 
equitably, in coordination with our partners around the world, 
wherever possible, and with concern for fiscal responsibility 
that are the taxpayers due.
    Over the years that I have been involved with this work, 
Mr. Chairman, I have come to believe that the goal of our 
development work must be to assist countries in their 
transition to stable, well-governed, and prospering 
democracies. I want to emphasize that I believe all those terms 
are important, but none more important than democracy. It is 
the democratic society that can best promote and sustain 
development. In short, there is no development without good 
governance, but there can be no good governance without 
democracy. A government that does not have to worry about 
losing power will not have to really care whether poverty, 
inequality, illiteracy, disease, and violence are remedied. To 
think otherwise, I submit, is to put too much trust in the 
goodness of a given set of leaders to do the right thing. By 
saying this, I do not mean that some of our programs are more 
important than others. For example, promoting democracy without 
concern for socioeconomic needs is a losing enterprise. I mean 
only to say that development should be seen as a holistic 
enterprise founded on the idea that dysfunction in any sector 
is often caused by, certainly compounds and is sustained by, 
dysfunction in the body politic.
    We can no longer spend our foreign assistance dollars on 
various efforts without appreciating the need to encourage 
transformation in all sectors so that improvements in health or 
education or the rule of law can be sustained for the long term 
by the societies receiving our aid; indeed, so that citizens 
who have an interest in these things can demand that they be 
sustained or get themselves new leadership that is competent 
and cares about them.
    Further, democracy encourages the outside world to have 
confidence in a particular society, which increases capital 
flows and mutually beneficial ties between citizens of 
different countries. Democratization is a catalyst for 
development, especially when accompanied by assistance in the 
socioeconomic arena.
    I am heartened by the fact that this administration and 
this Congress appreciate the role that development has in 
furthering our national interests. We help people around the 
world, and in doing so, we are part of making the world better 
for all nations. USAID and its very talented staff of technical 
experts is the primary implementer of U.S. foreign assistance 
programs, and therefore has a special role to play, 
particularly in the Western Hemisphere, where we have been at 
work for many years and have learned many lessons.
    It is a great honor for our country to be asked to aid our 
friends in the region as they build democracy and economic 
prosperity, not simply because it's in the strategic interest 
of the United States, but also because of the many ties between 
our peoples that I referred to at the outset. We have 
accomplished much, each nation on its own, and much by working 
together.
    If confirmed, I look forward to working closely with you, 
Mr. Chairman and the committee, in order to help continue this 
work for the benefit of all Americans.
    Please allow me to conclude my testimony by taking a moment 
to honor my parents and grandparents, who sacrificed so much 
that I might be able to serve our country, Louis and Ernestine 
Bonicelli, Robert and Dorothy Ramsey, and Elizabeth Patterson. 
Only my mother survives, and she is not able to be here. They 
survived the Great Depression, served in two world wars, and 
had a son who cost them seemingly endless education bills. They 
are prime examples of our country's good people who invest in 
others. They and my brother, Matt, and his family have always 
supported me.
    I'd also like to thank my friends and former students, who 
have been a constant source of encouragement for me, and many 
of them are here at the hearing. I imagine the former students 
will especially like your questioning me. [Laughter.]
    I'd be happy to answer any questions, Mr. Chairman.
    Thank you.
    [The prepared statement of Dr. Bonicelli follows:]

 Prepared Statement of Dr. Paul J. Bonicelli, Nominee to be Assistant 
  Administrator of the U.S. Agency for International Development for 
                    Latin America and the Caribbean

    Mr. Chairman, it is indeed an honor and privilege to appear before 
you and the committee today with my colleagues as President Bush's 
nominee. I thank you for considering my nomination to serve as 
Assistant Administrator for the Latin America and Caribbean Bureau of 
the U.S. Agency for International Development (USAID).
    In my current capacity as Deputy Assistant Administrator in the 
Bureau for Democracy, Conflict, and Humanitarian Assistance, I have 
become quite familiar with the challenges we as a government face in 
promoting development around the world. Should I be confirmed, I would 
look forward to returning my attention once again specifically to this 
hemisphere as I have in the past during my academic career and during 
my time here at the Congress as a professional staff member of the 
House. Throughout my career I have considered this hemisphere to be of 
utmost importance to the United States. We are neighbors not only 
because of geography, but also because of the centuries of strong and 
even now strengthening ties of commerce, family, and friendships, and 
importantly, a shared commitment to the democratic way of life. While 
the region continues to battle poverty and other development 
challenges, we have together enjoyed many successes, not least of which 
is that there are elected leaders in all but one country in the 
hemisphere. Moreover, the region boasts several countries that have 
made great strides toward self-sufficiency. Nevertheless, I believe our 
task is to redouble our efforts to consolidate gains and to achieve 
more in the hemisphere. This is especially true now that democracy is 
being questioned by those who have not yet seen the material gains that 
are the very real results of democracy. We should counter the trend 
toward instability, populism and isolationism--evident in some 
quarters--with concrete actions that inspire hope.
    I believe we are better able to do this now because we are 
embarking on an historic reform of our foreign assistance program. With 
the first-ever U.S. Director of Foreign Assistance, Ambassador Randall 
Tobias, we are crafting the tools to assure that State and USAID 
resources are fully integrated both in Washington and the field. This 
is a strategic change that is creating a more rational budgeting 
process. Having been involved with development and democratization 
throughout my career, I can say that this is what is needed to help us 
better fight the scourges of poverty, illiteracy, tyranny, instability, 
terrorism, and illegal narcotics trafficking. If confirmed, I pledge to 
do everything in my power, and in consultation with the Congress, to 
ensure that U.S. assistance to our neighbors is carried out 
effectively, equitably, in coordination with our partners around the 
world whenever possible, and with concern for fiscal responsibility 
that the taxpayers are due.
    Over the years that I have been involved with this work, I have 
come to believe that the goal of our development work must be to assist 
countries in their transition to stable, well-governed and prospering 
democracies. I want to emphasize that I believe all of those terms are 
important, and none more important than democracy, for it is the 
democratic society that can best promote and sustain development. In 
short, there is no development without good governance, but there can 
be no good governance without democracy.
    A government that does not have to worry about losing power does 
not have to really care whether poverty, inequality, illiteracy, 
disease, and violence are remedied. To think otherwise, I submit, is to 
put too much trust in the goodness of a given set of leaders to do the 
right thing. By saying this I do not mean that some of our programs are 
more important than others--for example, promoting democracy without 
concern for socioeconomic needs is a losing enterprise. I mean only to 
say that development should be seen as a holistic enterprise founded on 
the idea that dysfunction in any sector is often caused by--and is 
definitely compounded and sustained by--dysfunction in the body 
politic. We can no longer spend our foreign assistance dollars on 
various efforts without appreciating the need to encourage 
transformation in all sectors so that improvements in health or 
education or the rule of law can be sustained; indeed, so that the 
citizens who have an interest in these things can demand that they be 
sustained or get themselves new leadership that is competent and cares. 
Further, democracy encourages the outside world to have confidence in a 
particular society, increasing capital flows and mutually beneficial 
ties between citizens of different countries. Democratization is a 
catalyst of development, especially when accompanied by assistance in 
the socioeconomic arena.
    I am heartened by the fact that this administration and this 
Congress appreciate the role that development has in furthering our 
national interests. We help people around the world, and in doing so, 
we are a part of making the world better. USAID and its very talented 
staff of technical experts is the primary implementer of U.S. foreign 
assistance programs and therefore has a special role to play, 
particularly in the Western Hemisphere where we have been at work for 
many years.
    It is a great honor for our country to be asked to aid our friends 
in the region as they build democracy and economic prosperity, not 
simply because such is in the strategic interest of the United States, 
but also because of the many ties between our peoples I referred to at 
the outset. We know each other as buyers and sellers of goods and 
services; we know each other as allies in the defense of democracy. But 
millions of us in this hemisphere know each other on a personal, 
cultural, and sometimes familial basis, with some of those ties 
stretching back to our common and successful struggle to win our 
independence. We have accomplished much, each nation on its own, and 
much by working together. If confirmed, I look forward to working 
closely with you, Mr. Chairman, and the committee, in order to help 
continue this work for the benefit of all the Americas.
    Please allow me to conclude my testimony by taking a moment to 
honor my parents and grandparents for all that they sacrificed so that 
I might be in a position to serve our country: Louis and Ernestine 
Bonicelli, Robert and Dorothy Ramsey, and Elizabeth Patterson; only my 
mother survives and she is not able to be here. Surviving the Great 
Depression, service in two wars, and a son who cost them seemingly 
endless education bills, they are prime examples of our country's good 
people who invest in others. They and my brother Matt and his family 
have always supported me. I'd also like to thank my friends who have 
constantly encouraged and uplifted me, some of whom attended the 
hearing today.
    Mr. Chairman. I would be happy to answer any questions that you or 
the Senators might have for me.

    Senator Menendez. Those must have been the anonymous 
questions I got. [Laughter.]
    Ms. Almquist.

  STATEMENT OF KATHERINE J. ALMQUIST, NOMINEE TO BE ASSISTANT 
ADMINISTRATOR OF THE U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT 
                           FOR AFRICA

    Ms. Almquist. Thank you, Mr. Chairman and distinguished 
members of the committee. I'm grateful for this opportunity to 
appear before you as the President's nominee for Assistant 
Administrator for Africa at the U.S. Agency for International 
Development.
    I would like to thank President Bush and Ambassador Tobias 
for the honor of this nomination.
    If confirmed, I will be fully committed to working with 
this committee and the Congress to ensure greater results and 
accountability for our programming of foreign assistance 
resources in Africa.
    I'm thrilled to be able to share this occasion today with 
my parents, Ken and Janell Almquist. I would like to 
acknowledge their role in raising me to care deeply about the 
world, to appreciate the importance of public service, and to 
understand the responsibilities we shoulder as citizens of this 
great nation.
    I have had the privilege of working at--with USAID for the 
past 6 years, first as senior policy advisor to former 
Administrator Natsios, then as Deputy Assistant Administrator 
for Africa, and, most recently, as Sudan Mission Director.
    I am proud of the efforts and accomplishments of the 
hundreds of dedicated professionals serving in Africa and here 
in Washington that I have witnessed during this time; and, if 
confirmed, supporting their work will be my highest priority.
    The perspectives and management experiences that I have 
gained at both the agency and bureau headquarters level, as 
well as from the on-the-ground reality of reopening and running 
the largest bilateral mission in Africa, I believe have 
prepared me for the challenge of stewarding the agency's bureau 
for Africa.
    In addition, my 7 years of service with one of the world's 
largest nonprofit international relief and development 
organizations working extensively on African issues gives me an 
appreciation for the nongovernmental partners we rely on to 
implement so many of our programs in Africa.
    If confirmed, I look forward to working not only with the 
nongovernmental sector, but also with the private sector and 
other elements of civil society in the United States that care 
deeply about Africa.
    Mr. Chairman, I have been a student of Africa for the 
better part of 17 years, and it has taught me many things. 
Africa has taught me to appreciate the great country that is 
ours and the freedom that most Americans take for granted. It 
has taught me the true value of the system of democratic 
governance that gives us not only the right, but also the 
ability to hold our Government accountable to the people who 
elect it. Africans, too, deserve to have leaders and systems of 
governance that are credible, capable, and responsive to the 
needs of the people, rather than regimes which prey upon their 
people and exploit their resources for the benefit of a few.
    My experiences in Africa have also taught me to appreciate 
the depth and breadth of diversity that is Africa, to move 
beyond stereotypes and cliches, to see wisdom and value in 
cultures that are foreign to our way of living. The lesson that 
has perhaps been the most difficult of all, particularly as one 
coming from a nation used to solving problems, is to accept 
humility in not always being able to do so. Our responsibility, 
my responsibility, if confirmed, will be to contribute to 
marshalling the resources at our disposal, and to use them in 
partnership with Africans, who must bear ultimate 
responsibility for solving the problems of Africa.
    That said, I firmly believe that we have never known a more 
favorable time than the present to build upon and consolidate 
the progress being made on the continent. Africa offers rich 
development potential, along with huge challenges, including 
widespread poverty, illiteracy, hunger, disease, environmental 
degradation, conflict, and poor governance. Addressing the 
challenges facing Africa is critical to U.S. security and 
regional stability. It is a region of great strategic 
importance to the United States, both in terms of emerging 
markets and as a front in our efforts to stem and reverse the 
threat of terrorism.
    Mr. Chairman, as you know, under the leadership of 
Secretary Rice and Ambassador Tobias the State Department and 
USAID have undertaken a series of reforms designed to improve 
the effectiveness of our foreign assistance programs and make 
it easier for us to coordinate our assistance and track 
results. Of course, the nations of sub-Saharan Africa vary 
widely in terms of their relative state of development. If 
confirmed, I will ensure that assistance strategies support 
United States Government foreign policy objectives, are 
grounded in the context of the specific country in question, 
are developed collaboratively with those who have the most at 
stake in their success or failure, our African counterparts, 
and, most importantly, I will ensure that our programs achieve 
results and reach the poorest and the most vulnerable.
    In the words of President Bush, ``We share with Africans 
themselves a visions of what the continent can become, a model 
of reform, a home to prosperous democracies, and a tribute to 
the strong spirit of the African peoples.'' This vision is 
necessary, realistic, and already on its way to achievement.
    If confirmed, Mr. Chairman, I would like the committee to 
know that I will work tirelessly to make this vision a reality. 
I would look forward to working with the Congress and my 
colleagues at USAID and other agencies in carrying out our 
foreign assistance strategy in Africa.
    Mr. Chairman, I would like to thank you and the committee 
for considering my nomination, and I would be happy to answer 
any questions you may have.
    [The prepared statement of Ms. Almquist follows:]

 Prepared Statement of Katherine J. Almquist, Nominee to be Assistant 
   Administrator of the U.S. Agency for International Development of 
                                 Africa

    Mr. Chairman and distinguished members of the committee, I am 
grateful for this opportunity to appear before you as the President's 
nominee for Assistant Administrator for Africa at the U.S. Agency for 
International Development (USAID), and I would like to thank President 
Bush and Ambassador Tobias for the honor of this nomination. If 
confirmed, I will be fully committed to working with this committee and 
the Congress to ensure greater results and accountability from our 
programming of foreign assistance resources in Africa. I am thrilled to 
be able to share this occasion with my parents, Ken and Janell 
Almquist. I would like to acknowledge their role in raising me to care 
deeply about the world, to appreciate the importance of public service, 
and to understand the responsibilities we shoulder as citizens of this 
great Nation.
    I have had the great privilege of working with USAID for the past 6 
years, first as senior policy advisor to former Administrator Natsios, 
then as Deputy Assistant Administrator for Africa, and most recently as 
Sudan Mission Director. I am proud of the efforts and accomplishments 
of the hundreds of dedicated professionals serving in Africa and here 
in Washington that I have witnessed during this time and, if confirmed, 
supporting their work will be my highest priority. The perspectives and 
management experiences that I have gained at both the Agency and bureau 
headquarters' level, as well as from the on-the-ground reality of 
reopening and running the largest bilateral mission in Africa, I 
believe, have prepared me for the challenge of stewarding the Agency's 
Bureau for Africa.
    In addition, my 7 years of service with one of the world's largest 
nonprofit international relief and development organizations, working 
extensively on African issues, gives me an appreciation for the 
nongovernmental partners we rely on to implement so many of our 
programs in Africa. If confirmed, I look forward to working not only 
with the nongovernmental sector, but also with the private sector and 
other elements of civil society in the United States that care deeply 
about Africa.
    Americans are perhaps more aware than ever of events taking place 
in Africa, whether as a result of the intense spotlight currently 
focused on Darfur, or due to the interest of celebrities in improving 
the lives of African children. The challenges and opportunities present 
in Africa today are far greater than we can respond to, even with the 
generous level of official United States assistance to Africa provided 
by American taxpayers. As a result, working with all sectors of 
American society with an interest in improving the lives of Africans is 
a must. Mr. Chairman, if confirmed, I will see my role as Assistant 
Administrator as one of building bridges
between the United States and Africa, working closely with Assistant 
Secretary Frazer, not only to represent the interests of the United 
States to the people and Governments of Africa, but also to represent 
the issues and concerns of Africa to the American people.
    Mr. Chairman, I have been a student of Africa for the better part 
of 17 years, and it has taught me many things. Africa has taught me to 
appreciate the great country that is ours and the freedom that most 
Americans take for granted. It has taught me the true value of the 
system of democratic governance that gives us not only the right but 
also the ability to hold our Government accountable to the people who 
elect it. Africans, too, deserve to have leaders and systems of 
governance that are credible, capable, and responsive to the needs of 
the people, rather than regimes which prey upon their people and 
exploit their resources for the benefit of the few. Democratic 
elections were held recently in the Democratic Republic of the Congo, 
Liberia, Benin, Mali, and Senegal, bringing the total number of 
countries in sub-Saharan Africa witnessing a peaceful, democratic 
transition to 33, or about two-thirds of the total. Over the past 10 
years, civil liberties have improved markedly in 21 sub-Saharan African 
countries; and political rights have shown substantial gains in 15 
countries. Yet more work remains to be done.
    My experiences in Africa have also taught me to appreciate the 
depth and breadth of diversity that is Africa, to move beyond 
stereotypes and cliches, to see wisdom and value in cultures that are 
foreign to our way of living. The lesson that has perhaps been most 
difficult of all, particularly as one coming from a nation used to 
solving problems, is to accept humility in not always being able to do 
so. Our responsibility--my responsibility, if confirmed--will be to 
contribute to marshalling the resources at our disposal and use them in 
partnership with Africans who must bear ultimate responsibility for 
``solving'' the problems of Africa. Africa must chart its own course; 
we must determine how best to partner with the people of Africa to end 
the unspeakable tragedies and advance the limitless possibilities 
inherent on the continent.
    In this regard, the emergence of the African Union (AU), a 
considerably more dynamic and forward-looking institution than its 
predecessor, the Organization of African Unity, is one of the most 
important developments in Africa in recent decades. Along with the 
Regional Economic Commissions, the Africa Union is providing a forum 
for the development of African policies, programs, and strategies to 
address African problems. Africans are also increasingly willing and 
able to hold themselves accountable, as evidenced by the slow but 
steady progress of the African Peer Review Mechanism (APRM). These and 
other institutions are gradually making a major contribution toward 
assisting African countries to develop the good governance and 
stability needed to ensure that their people can enjoy the fruits of 
democracy, peace, and prosperity.
    Mr. Chairman, as you are well aware, Africa is a region of extreme 
need and great promise. I firmly believe that we have never known a 
more favorable time than the present to build upon and consolidate the 
progress being made on the continent. Africa offers rich development 
potential, along with huge challenges, including widespread poverty, 
illiteracy, hunger, disease, environmental degradation, conflict, and 
poor governance. Addressing the challenges facing Africa is critical to 
United States security and regional stability. Africa is the world's 
second largest and most populous continent, after Asia, and is a region 
of great strategic importance to the United States, both in terms of 
emerging markets and as a front in our efforts to stem and reverse the 
threat of terrorism.
    In addition, the United States shares a unique heritage and 
cultural bond with the people of sub-Saharan Africa. For these reasons, 
the United States has assumed a leading role in meeting the commitments 
to Africa the G-8 nations made in 2005 at Gleneagles, Scotland. The 
United States is making meaningful progress in several areas critical 
to the continent's development such as education, food security, trade 
promotion, environment, and protection of women. In particular, the 
United States Government has committed significant resources and 
support to fight two of the greatest challenges in Africa, HIV/AIDS and 
malaria.
    Mr. Chairman, as you know, under the leadership of Secretary Rice 
and Ambassador Tobias, the State Department and USAID have undertaken a 
series of reforms designed to improve the effectiveness of our foreign 
assistance programs and make it easier for us to coordinate our 
assistance and track results. Our shared transformational development 
goal is to ``help build and sustain democratic, well-governed states 
that respond to the needs of their people, reduce widespread poverty, 
and conduct themselves responsibly in the international system.'' Of 
course, the nations of sub-Saharan Africa vary widely in terms of their 
relative state of development. Consequently, USAID's strategies begin 
by taking country context into consideration in each of our strategic 
objectives, with the goal of helping countries advance along the road 
of development in each crucial sector. If confirmed, I will ensure that 
assistance strategies support United States Government foreign policy 
objectives, are grounded in the context of the specific country in 
question, and are developed collaboratively with those who have the 
most at stake in their success or failure, our African counterparts. 
Most importantly, I will ensure that our programs achieve results.
    While we are making progress, there is still so much to be done in 
sub-Saharan Africa to build upon our accomplishments; we can do even 
more to address the startling needs of the continent, while, at the 
same time, take bold steps to increase the security and well-being of 
our citizens here at home. In the words of President Bush: ``We share 
with Africans, themselves, a vision of what the continent can become--a 
model of reform, a home to prosperous democracies, and a tribute to the 
strong spirit of the African peoples.'' This vision is necessary, 
realistic, and already on its way to achievement.
    If confirmed, Mr. Chairman, I would like the committee to know that 
I will work tirelessly to make this vision a reality. I would look 
forward to working with the Congress, and my colleagues at USAID and 
other agencies to carrying out our foreign assistance strategy in 
Africa.
    Mr. Chairman, this concludes my testimony. I would like to thank 
you and the committee for considering my nomination, and I would be 
pleased to answer any questions you may have.

    Senator Menendez. Thank you very much.
    Thank you all for your statements. Since we have a large 
panel here today, I'm going to start, at least in the first 
round--I don't see other members, but we don't know if they'll 
arrive, and the time will expand to 7 minutes, and then if, in 
fact, there are other questions, I'm sure Senator Lugar will be 
able to pursue that, based upon how many people show up and--
with votes on the floor. So, I'll start with myself.
    Mr. Kunder, I had the opportunity to talk to you about some 
of the issues I am concerned about, and you have addressed some 
of them. I want to build upon our discussion and ask you, In 
the process--you had a unique opportunity in Iraq 
reconstruction, looking at Afghanistan, as well--in that 
process, when the reconstruction phase started in Iraq, what 
role did USAID play in overseeing programs? Was there 
collaboration between the Department of Defense and USAID? And 
were USAID officials who had experience in development 
consulted on these major reconstruction initiatives?
    Mr. Kunder. Well, first of all, as you well know, General 
Garner went out to Irac during the early stages, and it was 
assumed that we were going to have a more or less classic 
relief and recovery operation, and, during that phase of the 
operation, the coordination with USAID, I would say, was 
excellent. Once the Coalition Provisional Authority system was 
established, the USAID team which was on the ground in Baghdad 
continued to play some part in that operation, but clearly the 
central planning was done by the Coalition Provisional 
Authority, with strong backstopping here from the Department of 
Defense.
    I think our opinions were solicited in many cases, and 
listened to in some cases, but the model that was established 
at the time seemed to make sense in the context of the time. 
This was before the insurgency really started getting some 
traction, and the model was that we were going to take a whole-
of-government approach. It was not going to be a classic State 
Department lead, USAID do most of the reconstruction; rather, 
we were going to get a lot of departments and agencies 
involved, and it was going to look more like General McArthur's 
reconstruction of Japan at the end of World War II.
    So, I would say we played a role, but it was a relatively 
small role during the----
    Senator Menendez. And the reason I asked you that is 
because, after having sat down with the special inspector 
general for Iraq reconstruction, I'm not sure that that was the 
appropriate role. What lessons do you think we learned from it?
    Mr. Kunder. We learned the lesson--primary lesson, I 
believe, sir, is that the civilian side of the U.S. Government 
needs to have a standing capacity with the kind of technical 
experts we need to respond quickly if our forces are deployed 
overseas. We have learned an important lesson, I believe, at 
USAID, in establishing the Office of Foreign Disaster 
Assistance. There was a time when we did not have such a 
natural-disaster response capability, and the U.S. Government 
tended to operate on a pick-up basis when there was a natural 
disaster. Now we have a group of people that are on standby. If 
there is flooding in Africa tomorrow morning, our teams will 
deploy quickly and we will draw resources from the warehouses 
we have around the world. In my view--and this is something 
that Senator Biden and Senator Lugar have been pushing--we need 
to have a similar standby capacity to respond in conflict 
situations. We don't need to be drawing people from the 
civilian sector right in the middle of the crisis. We need 
these folks on standby.
    Senator Menendez. Let me build upon that with a question to 
you, Mr. Menarchik. In your testimony, you mentioned that 
you're keenly interested in deepening USAID's engagement with 
the Department of Defense. And, while I certainly encourage 
collaboration, I'm concerned, in light of the Department of 
Defense's reconstruction efforts in Iraq, whether that is 
always in the best interest. And so, how do you, if you are 
confirmed, how do you envision that cooperation? How do you 
envision expanding, specifically, USAID's engagement with the 
Department of Defense?
    Dr. Menarchik. Thank you for that question, sir. In fact, 
USAID and the Defense Department have been working for decades 
together very closely, especially in humanitarian assistance/
disaster assistance activities. Oftentimes, however, these were 
pick-up games. USAID would arrive, DoD would arrive, bring in 
the assets and attempt to work together. I argue that we need 
to be able to set up plans, practice together, work together, 
train together in the humanitarian assistance and disaster 
assistance arenas. We have been developing that capability over 
some time now. I argue it needs to be institutionalized.
    Within the conflict and post-conflict situations, as Mr. 
Kunder has explained, I argue that we need a standing capacity 
on the civilian side to be able to engage in reconstruction 
efforts in a conflict and post-conflict area. Again, we have a 
pick-up game in the midst of a crisis, bringing elements from 
the civilian community together, inserting them into a 
situation in which I believe they are not adequately prepared.
    In order to develop this, we should identify folks, train 
people who are specialized in conflict and post-conflict 
situations; work with, train with, all elements of the 
government who would be deployed in these circumstances so that 
we have a crisis response development capacity.
    My own experience was looking back in the days of Vietnam, 
when we had USAID and the CORDS program, when, in fact, we had 
3,000 to 4,000 USAID development folks stationed in Vietnam. 
They were linguists. They were able to deliver development on 
the ground in the midst of a conflict. They were able to work 
with our military counterparts. I would argue that that kind of 
a model is something we should be looking at.
    Senator Menendez. I think our challenge is improving 
coordination, but, at the same time, not sacrificing 
independence or integrity in the process. And how one achieves 
that is incredibly important.
    Dr. Bonicelli, I enjoyed when I was in the House 
International Relations Committee, working with you. The 
President is in Latin America right now, as we speak, so I 
won't get into a full discussions of my views about that, in 
terms of Latin America. But you're going to head a very 
important part of the world. Our problem is, is that it seems 
to me the Millennium Challenge Account, while very worthy, 
moves us in a direction in which it only takes--at least as it 
relates to Latin America--4 percent of Latin America's poor, 
which means that nearly 213 million go untouched by the 
Millennium Challenge Account. And yet, some of our core 
development funding in this respect continues to get cut. How 
does one meet that challenge in the process of heading the 
Latin American and Caribbean division?
    Dr. Bonicelli. Yes, Senator. I think the challenge is to 
respect that the Millennium Challenge Account, that the 
compacts, make all the difference in the world for 
sustainability--that is the goal--but to make sure that the 
core AID budget is focused on those countries that are making 
gains, making progress, can be ready for threshold programs, 
can then be ready for compacts. That has been the purpose over 
this last year for the fiscal year 2008 budget process, is to 
find where gains have been made, where countries are close to 
being able to move into another category so that a different 
kind of targeting of aid can be done, resources can be focused 
on consolidating gains, and keeping them. In large measure, 
many of these countries, it is--it's consolidating the gains in 
democracy more than anything. The OECD indicators have been 
encouraging in several of these countries, in many areas, 
except for governance. And so, that's why there is an increase 
in governance in 2008, a 5 percent increase, to get them ready 
to go further.
    The process has been to look for gaps where they need core 
development funds to keep moving them.
    Senator Menendez. It is clearly an enormous part of the 
world in which domestic interests on undocumented immigration, 
on the questions of narcotics trafficking, on the questions of 
creating greater markets for U.S. services and products, on the 
question of making sure that we don't continue to see the 
devastation of the Amazon and its rainforest, in terms of 
global warming. Incredibly important part of the world, and we 
look forward to working with you.
    Ms. Almquist, my time is up for the moment, so my lack of a 
question to you is not out of disinterest. We had a very good 
conversation and I am very impressed with your background. But 
I'll yield to Senator Lugar, and then, if we have time, I have 
a question for you.
    Senator Lugar. Thank you very much, Mr. Chairman.
    Mr. Kunder, please describe the role of USAID in 
reconstruction in southern Sudan, and humanitarian efforts in 
Darfur. I ask this, because I want some idea of how 
coordination works with the State Department Office of 
Reconstruction and Stabilization, or, for that matter, with 
other agencies. We have an outpouring of American citizens who 
are very hopeful that our Government can be successful in 
bringing relief to the people there. You are in a good position 
to describe where the procedure is currently, organizationally, 
because it is multifaceted.
    Mr. Kunder. Specifically as to CRS, sir?
    Senator Lugar. Yes, but--in any other agency that----
    Mr. Kunder. Yes.
    Senator Lugar [continuing]. You see intersecting with your 
mission.
    Mr. Kunder. Well, sir, I feel a little hesitant, because I 
know you know a great deal about this topic, but--what the U.S. 
Government recognized when it created the Office of the 
Coordinator for Reconstruction and Stabilization at the State 
Department several years ago was that many aspects of the U.S. 
Government have contributions to make in a humanitarian crisis 
or in a post-conflict situation. I mean, clearly we deliver 
food assistance, but the United States Department of 
Agriculture has something to contribute. We work on democracy 
and governance issues, but the Justice Department and its 
ICITAP police training program has much to contribute, as 
well--our Commerce Department, our Department of Health and 
Human Services, as well as, of course, many bureaus within the 
State Department. And I think the widely held perception was 
that these organizations came together in a somewhat ad hoc 
fashion, that there were neither established coordination 
structures nor standard operating procedures to guide how they 
came together.
    And I should say, in tribute to many dedicated civilian 
employees of the U.S. Government, in all these institutions it 
was not always a catastrophe; people found each other in the 
middle of a crisis, they developed ad hoc, but sometimes 
effective, ways of working together. But the underlying 
principle in the Office of the Coordinator for Reconstruction 
and Stabilization was that one entity would be established 
within the State Department to provide ongoing coordination. 
The State Department was seen to be the logical place, because 
that's also where we have the institutional ties to the U.N. 
and to the international organizations for the diplomatic 
aspects of crisis management.
    I think, at this point, there has been a very great deal of 
progress made in the last 10 years, in terms of better 
interagency training, certainly between the civilian and the 
military side of the U.S. Government. But I do not yet believe, 
sir, that we have achieved the objectives and the vision that 
we had when we created the CRS office several years ago.
    Senator Lugar. Now, how does this pertain to Darfur?
    Mr. Kunder. Specifically in Darfur, now on the ground, 
we've got excellent--and, of course, I'm sitting next to the 
expert on Darfur here, Kate Almquist--but we have excellent 
coordination between the Africa Bureau of the State Department 
and our own USAID Africa Bureau, with Kate on the ground in 
Khartoum. CRS has begun to do some work there, but CRS is not, 
at this point, providing the overall coordination in Darfur and 
Sudan that I think was envisioned when it was created several 
years ago.
    Senator Lugar. Let me ask for the aid of Ms. Almquist on 
Darfur. What iss happening in Darfur, and what should we do 
about it?
    Ms. Almquist. Well, Darfur continues to be a very grave 
situation, as the many daily press reports, I think, back here 
in the United States, tell the story. We are providing massive 
humanitarian assistance right now inDarfur. We're the largest 
bilateral donor, by a longshot, and our food assistance and our 
nonfood assistance are critical to ensuring that the 3 million, 
or more, conflict-affected people in Darfur continue to 
survive. We're actually--somewhat contrary to the news reports, 
frequently we're surprised by the humanitarian indicators in 
Darfur, which show a better situation for more people in Darfur 
than in some other parts of the country which don't have the 
same dynamic going on, in terms of the conflict, but also 
receives less attention in terms of assistance. Eastern Sudan, 
for instance, has worse statistics of malnutrition than Darfur 
does, and that's thanks, in large part, due to this massive 
international humanitarian response, largely funded by the 
United States. So, that, of course, is critical to continue for 
as long as this crisis exists.
    But we haven't yet begun the reconstruction phase in 
Darfur. We are still not post-conflict. And, in fact, we'll 
have a donor meeting next week, called the Sudan Consortium, 
where Darfur's reconstruction will be on the agenda, the 
possibility of it. But the planning has, in essence, been 
stopped, because of the worsening security situation last 
summer and through the fall.
    As soon as the security situation can be improved--and 
there is much work being done by the Special Envoy and the 
State Department on that front--and as well as on the political 
process in Darfur, then the reconstruction planning can go 
forward.
    CRS has been critical in filling gaps for the Embassy, in 
particular, in Darfur. They have provided surge capacity in the 
form of their Active--I think it's their Active Response 
Corps--ARC, I believe, is the acronym they have. And they have 
had officers on the ground in Darfur supporting the Embassy's 
efforts, in terms of covering the political process and the 
reality, working alongside of our Darfur field officers from 
USAID. So, we're working very hand-in-hand out in El Fashir and 
Nyala, on a regular basis in these regions of Darfur, and that 
will be important as we proceed into reconstruction planning.
    But critical right now: humanitarian response, stepping up 
the political process to bring more people onboard with the 
Darfur Peace Agreement, and, of course, solving the security 
situation through the efforts to improve the peacekeeping on 
the ground, and to bring all the rebels and parties into the 
cease-fire. Those are the three main things.
    Senator Lugar. Thank you very much, Mr. Chairman.
    Senator Menendez. Thank you, Senator.
    I have one or two more questions. Then, if Senator Lugar 
has any more after that--Ms. Almquist, I want to pursue Senator 
Lugar's line of questioning. In a published report last week, 
``A high-level mission from the Human Rights Council to address 
the human rights situation in Darfur and the needs of the Sudan 
described a grave and deteriorating situation.'' And a 
conclusion--part of the conclusion of their study states, 
``Even after the signing of the Darfur Peace Accords, war 
continues, the human rights situation has further deteriorated, 
millions are displaced, at least 200,000 are dead, and conflict 
and abuse are spilling over into the border into Chad. Making 
matters worse, humanitarian space continues to shrink, 
humanitarian and human rights actors are increasingly targeted, 
killings of civilians remains widespread, including in large-
scale attacks.''
    Now, you've been the Mission Director in the Sudan, and 
you've had the unique experience of working with the region 
firsthand. Do you have the same view as their conclusion?
    Ms. Almquist. Senator, I think that's a very accurate 
depiction of the situation on the ground. I do think that it's 
very much a roller coaster, and security goes up and down, and 
we go through phases where it's much, much worse, and then we 
go through phases where it calms down, for a variety of 
different factors, whether on the rebel side or the Government 
of Sudan side. We've just had another visit of the Special 
Envoy in the past week or so, and we traveled extensively 
through Darfur. I accompanied him while he was there. And we 
heard that the situation at that point was calm, but tense. We 
did intersect with this panel of experts in El Fashir, and had 
an opportunity to exchange notes with them. I think, overall, 
they've characterized it very well. But it does fluctuate and 
move up and down.
    The question of humanitarian space for our partners on the 
ground that we rely on to deliver assistance is vital, at the 
moment. And so, while we've got a very successful humanitarian 
operation, if the--this humanitarian space--meaning, the 
bureaucratic impediments to their working and operating in 
Darfur--continues to close, that situation will reverse quite 
quickly, and then we will have a much more significant 
humanitarian disaster on our hands.
    Senator Menendez. Let me talk one more dimension of this, 
with reference to neighboring eastern Chad.
    Ms. Almquist. Yes.
    Senator Menendez. There's over 100,000 displaced Chadians, 
food assistance is being imperiled by a surge in violence and 
banditry. Most people in the volatile border area with the 
Sudan have been completely cut off from aid. And a U.N. 
statement released said, ``If the situation continues, the 
humanitarian operation and welfare of the population it aims to 
support will be irreversibly jeopardized.'' Is that situation 
truly irreversible?
    Ms. Almquist. I'm sorry----
    Senator Menendez. Is that situation truly----
    Ms. Almquist. In eastern Chad?
    Senator Menendez [continuing]. Yes--irrevocable?
    Ms. Almquist. It's not truly irreversible, in my opinion. I 
think, again, things ebb and flow, and if we're not steadfast 
in pushing back on the different factors that are limiting our 
ability to get humanitarian assistance out, some things we can 
affect, like the bureaucratic impediments that the governments 
impose on humanitarian actors; some things are much more 
difficult to get at: the behavior of the so-called bandits, the 
Arab militias, the Chadian rebels, the Darfurian rebels. 
There's a multiplicity of actors--more and more, it feels like, 
every day, in terms of who's causing the insecurity in which 
region, whether it's in eastern Chad, just across the border in 
western Darfur; the situation in north Darfur and south Darfur 
each have their own dynamics. I think it is very serious, but I 
don't think it's hopeless, so we can certainly still get 
significant amounts of aid to most of the people who need it.
    Senator Menendez. Senator Lugar.
    Senator Lugar. I have no more questions, Mr. Chairman.
    Senator Menendez. With that, we thank you all for your 
appearance before the Committee, and I'm sure that the Chairman 
will be holding a business meeting of the committee for the 
purposes of reporting your nominations out.
    We thank you all, and we wish you good luck in the process. 
Thank you. With that, you're dismissed.
    The second panel--let's turn to our second panel, with 
nominees to serve as U.S. directors at various development 
banks and multilateral financial institutions.
    As we talk about America's role in reducing poverty, we 
should recognize that our foreign assistance also extends to 
supporting multinational institutions that will improve the 
economies of other countries and directly aid in development. 
And that's why I believe that America has to continue to play a 
strong part in the major development banks and multilateral 
financial institutions that work towards this goal.
    In this hearing, we look forward to specifically discussing 
the work of the International Monetary Fund, the Asian 
Development Bank, and the World Bank, as well as what our 
nominees intend to contribute to these institutions.
    Let me--as our other nominees leave the room with their 
guests, let me welcome these nominees: Eli Whitney Debevoise, 
currently as senior partner at Arnold & Porter, who has been 
nominated to be the U.S. executive director tothe International 
Bank for Reconstruction and Development; Meg Lundsager, 
currently the alternative executive director of the 
International Monetary Fund, who has been nominated to be the 
U.S. executive director of the International Monetary Fund; and 
Mr. Curtis Chin, currently working as a managing director for 
the international communications firm, Burson Marsteller, who 
has been nominated to be the U.S. director of the Asian 
Development Bank.
    And I would recognize Senator Lugar, if he has any comments 
he'd like to make at this time.
    Senator Lugar. No, Mr. Chairman, I think we should proceed.
    Senator Menendez. Absolutely.
    With that, we'll change the process here, and we'll start 
with Ms. Lundsager. And if you would--you have up to 5 minutes 
to make a statement. Your full statement will be included in 
the record. If you have anyone you want to introduce who's with 
you, we're happy to welcome them. And we will go straight down 
the line with the panel, in that direction.
    Ms. Lundsager.

   STATEMENT OF HON. MARGRETHE LUNDSAGER, NOMINEE TO BE U.S. 
     EXECUTIVE DIRECTOR OF THE INTERNATIONAL MONETARY FUND

    Ms. Lundsager. Thank you very much, Chairman Menendez and 
Ranking Member Lugar.
    First of all, I'd like to introduce my family, who's here 
with me today. My husband, John Baker, and my two children, 
Andrew and Eva Baker, who are out of school early today to join 
us here, so they're very pleased with that. My son is home from 
college. And my sister, as well, is here, Hanne Denney. I very 
much appreciate that she's taken off from her job to come join 
me here. And I would also very much like to thank my parents, 
who brought me to this great country many years ago, as you, 
Senator, and very pleased that I have now been nominated by 
President Bush to represent the United States at the 
International Monetary Fund.
    If confirmed, I promise to work with this committee, the 
full Congress, the Secretary of the Treasury, Secretary 
Paulson, and the rest of the administration, in furthering U.S. 
foreign economic policy goals.
    After many years at the Treasury Department, I am now 
serving as the alternate executive director at the IMF. In this 
capacity, I've sought to achieve U.S. foreign economic policy 
goals, and, if confirmed, will continue to pursue those reforms 
at the IMF that are a priority for the United States.
    As you know, the mission of the IMF is to promote 
international monetary cooperation and to facilitate the growth 
of trade in order to generate high levels of employment and 
income in its member nations. Toward this end, the IMF has an 
important role in encouraging increased transparency and public 
policy, supporting market-based reforms to generate sustained 
growth and development, and advancing sound fiscal and monetary 
policies to strengthen government accounts and reduce the risk 
of crisis. With its near-global membership, the IMF is in a 
position to promote best practices in these areas. A good deal 
has been accomplished in the past few years. A strong IMF with 
a firm U.S. voice is important to continuing this work.
    At the present time, the IMF is also undergoing fundamental 
change as it looks to revise its own tools for assessing a 
country's economic and monetary policies, including a country's 
exchange-rate policy. The United States strongly supports this 
effort; and, if confirmed, I look forward to working with my 
colleagues to realize these important reforms.
    Mr. Chairman, throughout my Treasury career I've had the 
opportunity to see, firsthand, the dedication of administration 
officials and congressional leaders to strengthening the U.S. 
economy through our own domestic policies and our global 
efforts to foster growth and financial stability in other 
countries. There is much we can still do to strengthen the 
global economy, and, if confirmed, I will seek to do my part at 
the International Monetary Fund to achieve further reforms in 
IMF policies and practices.
    I would be very pleased to answer your questions.
    Thank you.
    [The prepared statement of Ms. Lundsager follows:]

  Prepatred Statement of Hon. Margrethe Lundsager, Nominee to be U.S. 
         Executive Director of the International Monetary Fund

    Chairman Menendez, Ranking Member Hagel, and members of the 
committee, thank you for the opportunity to appear before you today. I 
am honored that President Bush has nominated me to serve as the United 
States Executive Director at the International Monetary Fund, and if 
confirmed, I pledge to work with this committee, the full Congress, 
Secretary Paulson, and the rest of the administration in furthering 
U.S. foreign economic policy goals.
    After many years at the Treasury Department, I am now serving as 
the Alternate U.S. Executive Director at the IMF. In this capacity, I 
have sought to achieve U.S. objectives and if confirmed, will continue 
to pursue the reforms that are a priority to the United States.
    As you know, the mission of the IMF is to promote international 
monetary cooperation and to facilitate the growth of trade in order to 
generate high levels of employment and income in its member nations. 
Toward this end, the IMF has an important role in encouraging increased 
transparency in public policy, supporting market-based reforms to 
generate sustained growth and development, and advancing sound fiscal 
and monetary policies to strengthen government accounts and reduce the 
risk of crisis. With its near global membership, the IMF is in a 
position to promote best practices in these areas. A good deal has been 
accomplished. A strong IMF with a firm U.S. voice is important to 
continuing this work.
    At the present time, the IMF is also undergoing fundamental change 
as it looks to revise its own tools for assessing a country's economic 
and monetary policies, including a country's exchange rate policy. The 
United States strongly supports this effort and, if confirmed, I look 
forward to working with my colleagues to realize these important 
reforms.
    Mr. Chairman, throughout my Treasury career I have had the 
opportunity to see firsthand the dedication of administration officials 
and Congressional leaders to strengthening the U.S. economy, through 
our own domestic policies and our global efforts to foster growth and 
financial stability in other countries. There is much we can still do 
to strengthen the global economy, and if confirmed, I will seek to do 
my part at the IMF to achieve further reforms in IMF policies and 
practices. I would be pleased to answer your questions. Thank you.

    Senator Menendez. Thank you.
    Mr. Chin.

STATEMENT OF CURTIS S. CHIN, NOMINEE TO BE U.S. DIRECTOR OF THE 
      ASIAN DEVELOPMENT BANK, WITH THE RANK OF AMBASSADOR

    Mr. Chin. Thank you, Mr. Chairman, Senator Lugar.
    It's really an honor to be here today to be considered for 
confirmation as the U.S. executive director of the Asian 
Development Bank. I am, of course, also extremely honored to 
have been nominated by President Bush to serve our Nation at 
the ADB.
    And I would actually like to take you up on the offer to 
introduce a couple of members of my family and friends who are 
here. Specifically, I'd like to recognize my father, Moy. He's 
a retired career U.S. Army officer, originally from the State 
of Washington, now working in healthcare. And my mom, Ethel, 
originally from Maryland, a retired nurse and, of course, long-
time military wife and mom, who, with my dad, helped manage our 
ever-moving household from California to Arizona to Virginia 
and overseas U.S. postings in Taiwan, Thailand, and Korea.
    Also here are my sister, Lisa, and her husband, my brother-
in-law, Sam. Of particular note, Sam is a U.S. Army soldier. He 
arrived last Wednesday from his deployment with the 19th 
Engineer Battalion Headquarters Support Company in Iraq. I 
thank him for taking up one of his afternoons on, no doubt, a 
well-deserved 2-weeks leave before returning to Iraq next week.
    Not here in person is my brother, Mark. He's also career 
U.S. military, who recently retired as deputy commander for 
administration at Evans U.S. Army Community Hospital in Fort 
Carson, Colorado.
    Each of them have, in their own way, set an example of 
service to all of--for our communities and our country.
    If confirmed to the post of U.S. executive director of the 
ADB, I look forward to continuing that tradition of service.
    Over the many years that I have lived and worked in Asia, I 
saw, firsthand, the challenges posed by the tremendous poverty 
that continues to persist in the region. I also saw, as today's 
headlines from Afghanistan, India, Indonesia, Pakistan, and 
elsewhere, continue to show, how what happens in Asia can have 
tremendous consequences across the Pacific here in the United 
States. Strong continued engagement and involvement in Asia by 
the United States is vital and underscores the importance of a 
region that, while growing and dynamic, is still home to the 
vast majority of the world's poor, and still continues to face 
daunting challenges ahead.
    The ADB's core mission is straightforward: promote 
sustainable, economic growth and eradicate poverty in the 
region. It must do this through economic programs that advance 
human development, private-sector growth, good governance, 
transparency, and the environment. The impact of the ADB, 
however, extends far beyond its basic mission of alleviating 
poverty and promoting economic development. The bank has played 
a significant role in promoting and financing economic 
revitalization and institutional development in Afghanistan. 
With U.S. support, it has also been instrumental in responding 
to natural disasters, serving not only as a financier, but as 
regional coordinator of recovery efforts from such devastating 
events these last 2-plus years as the tsunami in Asia and a 
major earthquake in Pakistan. In both cases, ADB efforts to 
rebuild and restore local economic activity have been vital to 
reconstruction efforts. Additionally, the ADB has provided 
assistance on anti-money-laundering practices in ways that 
counter the financing of terrorism. The ADB also has been 
working to combat human trafficking, especially of women and 
children.
    If confirmed, I will bring the breadth and depth of my 
regional knowledge and management skills to support and advance 
the goals of the United States at this important regional 
financial institution. These goals include ensuring that the 
ADB is results-oriented, achieving measurable responsible 
development outcomes, as well as increasing transparency and 
accountability in the ADB's operations.
    Mr. Chairman, Senator Lugar, thank you for the privilege of 
appearing before the Committee today. I would be pleased to 
answer any questions you or other members of the Committee 
have.
    Thanks.
    [The prepared statement of Mr. Chin follows:]

 Prepared Statement of Curtis S. Chin, Nominee to be U.S. Director of 
        the Asian Development Bank, With the Rank of Ambassador

    Thank you, Mr. Chairman, Ranking Member Hagel, and members of the 
committee. I am honored to be able to come before this esteemed 
committee to be considered for confirmation as the U.S. Executive 
Director of the Asian Development Bank (ADB). I am, of course, also 
extremely honored to have been nominated by President Bush to serve our 
Nation at the ADB, and I welcome this chance to answer any questions 
you have.
    Before proceeding, and with the Chairman's permission, I wanted to 
take a brief moment to thank the many family members and friends who 
have provided me support and guidance through my years in both the 
public and private sectors. Some of them are here today. In particular, 
Mr. Chairman, with your indulgence, I wanted to recognize some of my 
family present. First, my parents: my father, Moy--a retired career 
U.S. Army officer originally from the State of Washington, now working 
in health care--and my mother, Ethel, originally from Maryland, a 
retired nurse and of course longtime military wife and Mom who, with my 
Dad, helped manage our ever-moving household from California to Arizona 
to Virginia and overseas U.S. postings in Taiwan, Thailand, and Korea. 
Also here are my sister Lisa and her husband, my brother-in-law, Sam. 
Of particular note, Sam, a U.S. Army soldier, arrived last Wednesday 
from Iraq where he is deployed with the 19th Engineer Battalion, 
Headquarters Support Company. I would particularly like to thank Sam 
for joining us this afternoon and giving up a day of his no doubt well-
earned leave before returning next week to Iraq. Not here in person but 
offering support from afar is my brother Mark, also career U.S. Army, 
who recently retired as Deputy Commander for Administration of Evans 
U.S. Army Community Hospital in Fort Carson, Colorado. All of them in 
their own way have set an example of service to our communities and our 
country.
    If confirmed for the position of U.S. Executive Director to the 
ADB, I look forward to continuing that tradition of service. Over the 
many years that I have lived and worked in Asia, I saw firsthand the 
challenges posed by the tremendous poverty that continues to persist in 
the region. I also saw--as today's headlines from Afghanistan, India, 
Indonesia, Pakistan, and elsewhere continue to show--how what happens 
in Asia can have tremendous consequences across the Pacific here in the 
United States. Strong, continued engagement and involvement in Asia by 
the United States is vital and underscores the importance of a region 
that while growing and dynamic is still home to the vast majority of 
the world's poor and still continues to face daunting challenges ahead.
    The ADB's core mission is straightforward: Promote sustainable 
economic growth and eradicate poverty in the region. It must do this 
through economic programs that advance human development, private 
sector growth, good governance, transparency, and the environment.
    But the impact of the ADB extends far beyond its basic mission of 
alleviating poverty and promoting economic development. The Bank has 
played a significant role in promoting and financing economic 
revitalization and institutional development in Afghanistan. With 
United States support, it has been instrumental in responding to 
natural disasters, serving not only as financier but as regional 
coordinator of recovery efforts from such devastating events these last 
2 years as the tsunami in Asia and a major earthquake in Pakistan. In 
both cases, ADB efforts to rebuild and restore local economic activity 
have been vital to reconstruction efforts. Additionally, the ADB has 
provided assistance on anti-money laundering practices and ways to 
counter the financing of terrorism. And, the ADB has been working to 
combat human trafficking, especially of women and children.
    If confirmed, I will bring the breadth and depth of my regional 
knowledge and management skills to support and advance the goals of the 
United States at this important regional financial institution. These 
goals include ensuring that the ADB is results-oriented--achieving 
measurable, responsible development outcomes--as well as increasing 
transparency and accountability in the ADB's operations.
    Mr. Chairman, thank you for the privilege of appearing before this 
committee today. I would be pleased to answer any questions you or the 
members of the committee have.

    Senator Menendez. Thank you.
    Mr. Debevoise

   STATEMENT OF ELI WHITNEY DEBEVOISE II, NOMINEE TO BE U.S. 
EXECUTIVE DIRECTOR OF THE INTERNATIONAL BANK FOR RECONSTRUCTION 
                        AND DEVELOPMENT

    Mr. Debevoise. Thank you, Mr. Chairman and Senator Lugar. I 
am grateful for the opportunity to appear before you today.
    I do not have a long list of family members to present. 
Unfortunately, my wife and children couldn't be here, but my 
wife's family is represented through Spencer Dickerson, who's 
an in-law of my wife's.
    If confirmed to this job, I hope to continue a tradition of 
public service in my family. My grandfather worked for John 
McCloy as his chief legal counsel in the American sector of 
Germany after the war. And my father served as attorney general 
of the State of Vermont.
    I'm honored to have been nominated to serve as U.S. 
executive director at the International Bank for Reconstruction 
and Development. If confirmed, I will have the great privilege 
and responsibility to represent the United States at the World 
Bank Group institutions. I look forward to the opportunity to 
work with Secretary Paulson, the Treasury Department, and other 
executive branch agencies represented in and working through 
the Office of the U.S. Executive Director.
    The World Bank Group is a global leader in economic 
development and poverty reduction both through its loans, 
credits, grants, guarantees, and investment insurance, and 
through its development knowhow and policy advice. If 
confirmed, I intend to strive to hold the bank to high 
standards, and to help the bank develop a strong institutional 
framework and ethos to make those high standards sustainable.
    In my professional life, I have grappled with the 
challenges of economic development, whether through the lens of 
sovereign finance, international trade, cross-border lending 
and investment, debt-reduction operations, infrastructure 
finance, housing finance, development of domestic capital 
markets, or investor/state disputes. I've also worked to combat 
corruption. For my successful global efforts to recover the 
ill-gotten gains of corruption, I was awarded a Brazilian 
medal, the Order of Rio Branco.
    Finally, I have experience with the International Center 
for the Settlement of Investment Disputes, an important forum 
for the resolution of investor/state disputes.
    If confirmed, I will apply the lessons learned from these 
experiences at the World Bank institutions.
    At a time when United States leadership in multilateral 
institutions is an important as ever, I look forward to the 
opportunity to represent the bank's largest shareholder. I also 
look forward to building a strong working relationship with 
this committee as I commit my energy and experience to the 
mission of economic development and poverty reduction in all 
corners of the globe.
    Thank you, Mr. Chairman and Senator Lugar. I would be 
pleased to answer any questions you may have.
    [The prepared statement of Mr. Debevoise follows:]

  Prepared Statement of Eli Whitney Debevoise, II, Nominee to be U.S. 
  Executive Director of the International Bank for Reconstruction and 
                              Development

    Mr. Chairman and members of the committee, I am grateful for the 
opportunity to appear before you today.
    I am honored to have been nominated to serve as U.S. Executive 
Director at the International Bank for Reconstruction and Development. 
If confirmed, I will have the great privilege and the responsibility to 
represent the United States at the World Bank Group institutions. I 
look forward to the opportunity to work with Secretary Paulson, the 
Treasury Department, and other executive branch agencies represented in 
and working through the Office of the U.S. Executive Director.
    The World Bank Group is a global leader in economic development and 
poverty reduction, both through its loans, credits, grants, guarantees, 
and investment insurance and through its development know-how and 
policy advice. If confirmed, I intend to strive to hold the Bank to 
high standards and to help the Bank develop a strong institutional 
framework and ethos to make those high standards sustainable.
    In my professional life I have grappled with the challenges of 
economic development, whether through the lens of sovereign finance, 
international trade, cross-border lending and investment, debt-
reduction operations, infrastructure finance, housing finance, 
development of domestic capital markets, or investor-state disputes. I 
have also worked to combat corruption. For my successful, global 
efforts to recover the ill-gotten gains of corruption, I was awarded a 
Brazilian medal, the Order of Rio Branco. Finally, I have experience 
with the International Centre for the Settlement of Investment 
Disputes, an important forum for the resolution of investor-state 
disputes. If confirmed, I will apply the lessons learned from these 
experiences at the World Bank institutions.
    At a time when United States leadership in multilateral 
institutions is as important as ever, I look forward to the opportunity 
to represent the Bank's largest shareholder. I also look forward to 
building a strong working relationship with this com-
mittee as I commit my energy and experience to the mission of economic 
development and poverty reduction in all corners of the globe.
    Thank you, Mr. Chairman. I would be pleased to answer the 
committee's questions.

    Senator Menendez. Thank you, all.
    Let me start with Ms. Lundsager. The--there have been 
questions by some countries, suggesting that the IMF have a few 
richer countries not being responsive to the concerns or needs 
of other countries. And there's been some initial changes that 
the managing director has promoted, and others that have been 
talked about. The administration has said it would support, on 
an ad hoc--increases, if there's real reform over the overall 
governance system.
    I would love to hear your sense of where future options for 
change goes, what steps that you think you would support. And 
do you think the concerns of the developing countries are being 
addressed at the IMF?
    Ms. Lundsager. Thank you, Mr. Chairman.
    As you know, we have been seeking to achieve fundamental 
reform in the IMF. The first step was taken last fall, in late 
summer--excuse me--in Singapore, where we agreed to an ad hoc 
quota increase for four of the most underrepresented countries 
in the IMF. But part of our commitment in doing that was to 
achieve further fundamental reform in the governance structure 
of the IMF. And what we are seeking to do is to change the 
ownership shares, the structure of the board, and the 
membership to give the fast-growing emerging markets a larger 
voice, a larger share of the IMF. Doing this, of course, is not 
an easy process, because when you negotiate with a group of a 
hundred-and--over 180 members, and you're seeking to increase 
the shares of some, naturally there will be some whose shares 
then, out a hundred, will be going down. This is the 
difficulties--some of the issues we're facing now, as to how to 
structure a system for determining membership shares that would 
fairly represent countries, represent their role in the global 
economy--we think it's best represented by a nation's gross 
domestic product--and to have enough countries agree, because 
we do need 85 percent of the membership to agree to any change 
in quotas so that we could have a more reflective board of 
directors, a more reflective set of membership shares. I think 
that the United States has received a lot of welcome 
recognition from the developing world for taking this position. 
Certainly in Singapore, there was much appreciation from many 
of the other countries, that we were willing to take the step, 
because, of course, we had to approve this, given our veto 
power over quota increases. And so, being an early advocate of 
this, and being a very constructive participant in these 
discussions last summer--and they will continue this year, as 
well, as we try and reach agreement among the membership; I 
hope, sometime this year or by early next year.
    Thank you.
    Senator Menendez. Let me ask you about debt relief. Since 
1996, the IMF has been participating in the Heavily Indebted 
Poor Countries. There are some--that were heralded as a 
positive thing. There are critics now raising concern about the 
success of debt-relief programs. What do you believe are the 
successes and failures of the program?
    Ms. Lundsager. Mr. Chairman, I think the program has been a 
very big success in a number of the countries that have 
benefited from it, because it has freed up domestic resources 
that, instead of paying back the international institutions, or 
paying back bilateral governments, they have used to devote 
increasing their domestic spending on a lot of basic human 
needs: health, education, other very important services for 
their own citizens.
    At the same time, as part of the HIPC initiative, we look 
to countries to undertake a number of reforms. And I think what 
has benefited a number of them is the measures they have taken 
along the way as they've been trying to achieve--get to the 
completion point and achieve the full measure of the debt 
relief. They've undertaken a number of domestic reforms, in 
terms of how they prepare their domestic budget. Countries have 
to prepare a Poverty Reduction and Strategy Program, where they 
reach out to the various segments of their population to 
develop a national strategy that various members of the 
population agree on, in terms of how they will prioritize 
domestic spending, how they will allocate domestic resources, 
as well as the resources provided by the major donors. It's 
also been a vehicle for helping donors to coordinate better. 
This has been a difficulty in a number of countries, having 
donors coordinate. And so, it's--I think it's been an anchor 
for many of us, and I think we have achieved quite a bit.
    At the same time, we're facing the challenge now as 
countries--we have--as we have greatly reduced the debt in a 
number of countries--is to try and make sure that they don't 
build up the debt again. Once the debt has been reduced, they 
certainly appear to be a good credit risk. And so, in many 
countries, we've tried, through persuasion and, of course, 
those countries that are still on IMF programs, to greatly 
limit, if not totally forego, any kind of commercial debt--debt 
on commercial terms--and also to be very careful about even 
concessional debt they undertake so that we don't end up back 
in another highly indebted situation where we're then asked to 
reduce the debt again.
    So, this is a very complex effort that we have to work with 
a lot of the other creditors on, so--and the IMF and the World 
Bank have worked closely together in coming up with an agreed 
debt sustainability analysis strategy so that countries can 
more effectively say to other creditors, ``No, we can't 
undertake that project with that kind of financing. Can you 
please reconsider and make it concessional financing or grant 
financing?''
    So, this is the challenge, going ahead, is making sure that 
the benefits we've reaped in the HIPC initiative are not lost 
and countries build up debt again.
    Thank you.
    Senator Menendez. Mr. Debevoise, if you are confirmed, the 
sole voting position, as I understand it, for the United States 
at the World Bank, so it's obviously rather important. And this 
always happens when people who come from the private sector, 
you know, are asked to perform public service. There are some 
challenges in that process. I understand that you have 
performed legal services for many foreign countries and 
entities. And I also understand you pledge to try to take 
actions to make sure that all of the ethical and legal 
processes are cleared in that process. Have you considered 
how--certainly, as being the only voting member, how you're 
going to avoid the perceptions of personal biases towards 
countries which you have a longstanding relationship with? 
Let's say, Brazil, as an example. Have you given that thought, 
as you move forward?
    Mr. Debevoise. Thank you, Mr. Chairman.
    Yes, I have certainly given that considerable thought. And 
I think it's important that the nature of the financing work 
I've been doing for some countries is understood. It basically 
consists of writing rather detailed descriptions of their 
economies in disclosure documents that are publicly filed with 
the Securities and Exchange Commission. But, yes, I'm going to 
abide by all of the requirements. And there is a procedure in 
place for an alternate to vote the shares of the United States 
in those few cases where I may still be subject to a 
restriction.
    Senator Menendez. A lot of people may not know that the 
bank has actually worked somewhat in Iraq. I don't know if 
you've been briefed on it, but I was wondering about some of 
the reconstruction projects that the bank has undertaken in 
Iraq. There's been some criticism about it as being too slow, 
the bank should be doing more. I was wondering if you had a 
view of that, if you've had an opportunity to formulate a view 
on that.
    Mr. Debevoise. Thank you, Mr. Chairman.
    Obviously, that is a critical country, which has many 
economic development needs. And, if confirmed, I look forward 
to looking further into what the bank is doing there. My 
current understanding is that the bank manages a trust fund, 
which was established to receive funds from donors, and that it 
is involved in managing those resources, as, in fact, the bank 
does in many other post-conflict situations.
    Senator Menendez. Mr. Chin, I have questions for you, but 
I'm going to yield to Senator Lugar first, and I'll come back 
afterwards.
    Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman.
    Mr. Lundsager, my understanding is that the IMF currently 
is running at a loss. What should the IMF do to improve its 
revenues or reduce its costs? Why does it matter? What is the 
nature of the IMF with regard to profit or loss or cash flow? 
Can you describe the current predicament?
    Ms. Lundsager. Thank you. Yes, I can, Senator.
    The IMF is in a situation where you might say it's a victim 
of its own success, where, because so many countries that were 
borrowing from the fund previously, and, therefore, paying us 
interest, that enabled us to earn the income we needed to pay 
our administrative expenses to cover our budget. Well, since 
many countries have greatly improved their debt situations, 
have been able to reaccess capital markets for years now, and 
turn to more domestic forms of debt, they have paid back the 
fund. And some of them have paid back early. So, we have very 
low levels of credit outstanding right now; and, therefore, the 
income we're taking in from loans is less than our 
administrative expenses, this current fiscal year. So, we are 
running at a loss, this fiscal year, a small loss. And, as a 
result, we are going to be drawing on our reserves.
    Now, during the past several years, while the IMF was 
lending, it built up reserves, retained earnings of $10 
billion. So, we're in a very comfortable position to cover any 
losses, for the time being, the next or two, while we sort out 
what the situation is. Will these countries maintain the good 
policies that have enabled them to avoid borrowing from the 
fund, or will they come back to the fund in the future? We 
don't know yet, so we'll have to see how that turns out.
    And then, at the same time, we're undertaking a very 
important effort, a number of the members of the fund, to try 
and contain the expenditure side. And the managing director has 
been running a very tight budget. I expect, in the next few 
years, it'll have to be even tighter so that administrative 
expenses, the increase, is kept at a very low level. As a 
matter of fact, they're going to--there's going to be a bit of 
a real contraction at the fund over the next couple of years. 
But, for the time being, due to a very high reserves, it won't 
be a problem, and then we'll have the time to sort out, over 
the longer term, what the right solution is.
    Thank you.
    Senator Lugar. Well, it's an extraordinary situation that 
most observers had not predicted. For example, the Russians 
have made extraordinary payments to the IMF, and are very proud 
of that fact, that revenues from energy resources have changed 
the whole complexion of that. It is fascinating that because 
all of this money was paid back unexpectedly, suddenly the 
revenues you had anticipated from the interest are gone, and 
your----
    Ms. Lundsager. Exactly.
    Senator Lugar [continuing]. Portfolio has been reshuffled 
drastically. I appreciate your response regarding the 
availability of reserves.
    Ms. Lundsager. Right.
    Senator Lugar. Let me ask you, Mr. Chin. This committee, as 
perhaps you know, in discussing the Asian Development Bank, has 
cited specific cases in which we believe there had been 
substantial corruption. Witnesses have traced the situation in 
which monies would have gone to projects, but, in fact, the 
road didn't get built or the river was not dredged or whatever. 
How do you plan to keep a sharp eye out on this? Has the 
situation materially changed, in your judgment? And, if not, 
how can leadership from the United States, through your person, 
make a difference?
    Mr. Chin. Thank you, Senator Lugar, for that question.
    Indeed, corruption and fighting corruption are critical 
issues that we're going to have to continue the push forward. 
You know, if confirmed, that's clearly an issue that I'm going 
to keep focused on. You know, today I've been briefed by some 
of the people at Treasury, as well as the previous positions in 
the role that, if confirmed, I would take up, including 
Ambassador Speltz, who clearly spoke about some of the issues 
that he testified before you and the committee on previously. 
That's clearly a critical issue. It will remain a priority for 
me, should I be confirmed for this job.
    Senator Lugar. Well, thank you very, very much.
    I'm going to yield to you, Mr. Chairman. I know the vote 
has commenced on the floor, and perhaps you have additional 
questions.
    Senator Menendez. Thank you, Senator.
    Mr. Chin, I want to pursue the questions that I pursued 
with Mr. Debevoise, because I just, for the record's purposes, 
want to make sure we have it clear. You, in your role--as a 
managing director in your present role, I understand that you 
have worked in, and are working, on a team that serves Hong 
Kong among other items promoting Hong Kong's commercial 
reputation and encouraging foreign investment. I also 
understand you are currently registered as a foreign agent for 
Hong Kong as part of that work. And I also understand that 
contract's going to close at the end of March and that you're 
taking steps to deal with both the legal and ethical issues 
that may be involved with that. And I presume you will do all 
the correct things in that respect.
    Now, having said that, how will your past work, promoting 
the economy and tourism of Hong Kong, be perceived, in your 
mind, by others in the bank? And how will you manage the 
relationship with Hong Kong in order to avoid being perceived 
as having a bias in that context?
    Mr. Chin. Thank you, Mr. Chairman, for that question.
    Yes, indeed, I am part of a team now, at Burson Marsteller, 
serving the Hong Kong Economic and Trade Office, a contract 
that does end this March--the end of March. I have been in 
conversations with both the committee members, staff, as well 
as the ethics officer, and the steps I'll be taking will 
include recusing myself for a year on all matters related to 
the Hong Kong Government. Also, as a further step, my 
alternate, if confirmed, Paul Curry--we've also spoke--and he 
will be addressing any issues that would come up related to 
Hong Kong, should they be--come before the board.
    Senator Menendez. Let me ask you--I'm glad to hear that--
let me ask you, with reference to your very significant resume. 
I'm trying to see the connection between the development field 
and your resume. And so, why don't you share with the committee 
some of your insights as to how you believe you'll be able to 
meet the challenges of the U.S. director at the Asian 
Development Bank, because obviously its mission is to use the 
bank's wherewithal to create development opportunities inside 
of Asia.
    Mr. Chin. Absolutely. Thank you, Mr. Chairman.
    If you look at my resume--and I would--just to share a 
couple of highlights of what I--the skills I think I will 
bring, if confirmed to the post, will include a very good 
understanding of the Asia-Pacific region, as well as the 
management skills that are very important, particularly in 
pushing our U.S. policy objectives with regards to good 
governance, anticorruption efforts. Some of the specific 
efforts I've been involved with in my present job include work, 
in terms of rollout of codes of conduct, corporate governance 
issues, and particularly leading our efforts in the area of 
corporate responsibility, exploring that nexus of public-sector 
and private-sector goals and needs, and where do they come 
together. This work has ranged from development issues in Asia 
to development issues based here in the United States, dealing 
with Asian issues.
    Senator Menendez. And I have one last question for you. In 
your written statement, you mention the firsthand challenges 
posed by the tremendous poverty that continues to persist in 
the region. In your mind, as you move to this position, what's 
the greatest challenge to addressing the poverty plaguing many 
of the people leaving--living in Asia and the Pacific? And how 
do you see the role of the bank coming into play in meeting 
that challenge?
    Mr. Chin. Clearly, Mr. Chairman, any dollar that, because 
of corruption, does not go to help address some of these 
development issues, is a dollar wasted, a dollar lost. And I 
think the--a key role of the exec director, if I were confirmed 
for that post, is really to drive that issue. Where is the 
money going? And is the ADB being accountable to where that 
money goes? Really, I think that will be my--one of my key 
focuses, if I were confirmed as this position.
    Senator Menendez. So you see that as one of the major 
challenges for development taking place in the region?
    Mr. Chin. Absolutely. Absolutely. A dollar wasted, you 
know, does not get to where we want it to be, in terms of 
either spurring private-sector investment or ensuring a system 
in place that will allow for development dollars to go----
    Senator Menendez. And after that--
    Mr. Chin [continuing]. Where they need to be.
    Senator Menendez [continuing]. What would you say is the 
next biggest challenge?
    Mr. Chin. One of the challenges also is the issue of 
cooperation across borders. And one of the things that the 
United States has been pushing for is greater regional 
integration initiatives in the region so that, again, that 
money isn't spent to duplicate issues, whether one institution 
is funding something and another one could also be funding.
    Senator Menendez. Senator Lugar, do you have anything else?
    Senator Lugar. No, thank you.
    Senator Menendez. All right.
    Let me thank you, all, for testifying before the committee 
and, of course, your willingness to serve the country. These 
are important positions.
    The record will remain open for 2 days so that committee 
members may submit additional questions to this panel of 
nominees, as well as to the previous panel of nominees. And we 
would certainly ask, if any member chooses to submit such 
questions, that the nominees would respond expeditiously to 
those questions.
    Senator Menendez. With that, with no additional comments, 
the hearing is adjourned. Thank you very much.
    [Whereupon, at 4:30 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


       Responses of Katherine J. Almquist to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

                              rule of law
    Over the past decade, we've seen massive human rights violations 
across sub-Saharan Africa. With some notable recent exceptions, these 
crimes have gone uninvestigated--much less prosecuted--leading to a 
climate of impunity that encourages future abusers.

    Question. What can USAID do to strengthen the rule of law in 
Africa? What type of support are we providing in the justice and rule 
of law sectors in countries to enhance their capacity to investigate 
and prosecute crime?

    Answer. Rule of law is essential to democracy and representative 
government. Laws provide the infrastructure that limits the absolute 
power of the state, ensure equal treatment of all citizens, and 
guarantee rights, such as freedom of speech, that are essential to the 
democratic process. For these reasons, USAID focuses on strengthening 
the rule of law in several key African countries. In Liberia, Nigeria, 
and Ethiopia, for example, USAID works with local universities and bar 
associations to expand legal education for judges, prosecutors, and 
lawyers, as well as supporting mobile courts and legal resource centers 
to provide citizens with greater access to justice. In South Africa, 
USAID has facilitated public-private partnerships between key companies 
and the court system to crack down on white-collar crime. USAID also 
supports the Zimbabwe Lawyers for Human Rights in providing legal 
protection and counseling for hundreds of victims of torture, violence, 
and other forms of state-sponsored intimidation by the Mugabe regime.
    In addition, USAID collaborates closely with other United States 
Government agencies to deliver rule of law programs in Africa. Most 
notably, USAID is implementing components of the Women's Justice and 
Empowerment Initiative (WJEI), under the leadership of the Department 
of State and in collaboration with the Department of Justice. The WJEI 
seeks to raise awareness about gender-based violence, strengthen legal 
frameworks and judicial systems to enforce women's rights, and provide 
care and treatment for victims of violence and abuse in four African 
countries: Benin, Kenya, South Africa, and Zambia. USAID expects to 
issue competitive solicitations for the awareness raising and victim 
support components in April. USAID also collaborates with the State 
Department to combat trafficking in persons in Africa, as well as 
administer the Democracy and Human Rights Fund, a small grants program 
that provided financial support to approximately 200 African human 
rights organizations in fiscal year 2006.
                                 ______
                                 

          Responses of James R. Kunder to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. In your current role as Acting Deputy Administrator, what 
are your major responsibilities?

    Answer. The Office of the Administrator sets the policy and 
management agenda for the U.S. Agency for International Development's 
economic and humanitarian assistance programs, and ensures successful 
implementation of the agency's goals. The office is responsible for 
providing leadership, strategic direction, and management for the 
agency, which is managing more than $14 billion in United States 
foreign assistance programs in Latin America, Europe, Asia, Africa, and 
the Pacific region. My specific responsibilities as Acting Deputy 
Administrator are to assist the administrator in day-to-day management 
of USAID. In my Acting capacity, I represent the agency at interagency 
meetings, such as National Security Council meetings on issues ranging 
from Sudan, Kosovo, and Afghanistan to avian influenza and PEPFAR. 
Representing the administrator, I chair the Senior Management Group, 
which oversees the selection and placement process for Senior Foreign 
Service officers at USAID. At the direction of the administrator, I 
convene senior managers to discuss agency priorities and mechanisms to 
implement these priorities.

    Question. What are the most important management concerns facing 
the agency, and how are you trying to address them?

    Answer. The U.S. Agency for International Development must both 
respond to major reconstruction and humanitarian challenges, like 
Afghanistan and the Sudan, while maintaining a high priority on 
sustaining long-term development programs in more stable environments. 
At the direction of the administrator, I have been engaged in ensuring 
that program and personnel resources are correctly balanced between 
these two priorities. USAID is also reorganizing many internal 
procedures to ensure the agency is structurally aligned to meet the new 
foreign aid priorities established by the administrator in his role as 
Director of Foreign Assistance. In this regard, I have been working 
closely with Ambassador Tobias to examine, in consultation with the 
Congress, the optimal structures for human resources, budgeting, and 
office structure overseas. Finally, it is likely that USAID will 
continue to be called upon to manage humanitarian, reconstruction, and 
stabilization activities in conflict countries, and ensure the agency 
has the staff capacity and skill sets to meet these challenges. I have 
been working closely with colleagues at the Department of State 
(including the Office of the Coordinator for Reconstruction and 
Stabilization), the Department of Defense, other U.S. Government 
agencies, nongovernmental organizations, and international 
organizations, on how best to meet the challenges USAID faces in 
conflict and post-conflict environments.

    Question. How would you rate morale at the agency? If you consider 
that it is not good, what measures are being taken to improve morale?

    Answer. After 20 years of working in the development and 
reconstruction field, I remain an optimist about America's role in the 
world, and about the importance of the role assigned to the U.S. Agency 
for International Development. Most of my USAID colleagues feel the 
same way. According to the 2006 Federal Human Capital Survey, 88.8 
percent of USAID respondents believe the work they do is important, and 
83.3 percent like their work. There is, however, a certain level of 
anxiety among agency employees at this time, related to the many 
changes the agency is experiencing in the context of ongoing foreign 
assistance reforms. One of my first areas of emphasis since being 
appointed Acting Deputy Administrator has been, at the administrator's 
direction, to focus on human resources (HR) reform. Upgrading USAID's 
major HR systems is a priority, both to improve morale and to build the 
agency to better meet the challenges of the 21st century. In addition 
to institutional reforms, I have been focused on better communicating 
to USAID personnel, both in Washington and overseas, information on the 
current reform process, and its impact on planning, designing, 
budgeting, and monitoring foreign assistance programs.

    Question. What are your strengths and weaknesses as a manager? What 
steps are you taking to improve areas where you consider that you have 
weaknesses?

    Answer. In terms of strengths, I would bring, if confirmed, nearly 
20 years of development and international crisis management to this 
position. Eleven of these years are with USAID, 3 years with an 
international nongovernmental organization, and 3 years as a consultant 
to international organizations. This diverse experience provides useful 
perspectives on the problems I am likely to encounter. In addition, my 
service as an officer in the U.S. Marine Corps provides useful 
background for the frequent contact USAID encounters with U.S. military 
forces. Among my management strengths, I care deeply about USAID's 
mission as part of the U.S. foreign policy process, and about USAID's 
staff, many of whom work in most trying circumstances. In terms of 
weaknesses, I need to understand more thoroughly the financial 
accountability systems in place at USAID, to ensure the taxpayers' 
dollars are being carefully programmed and accounted for. I have been 
working diligently to understand these systems in more detail and, if 
confirmed, plan to devote additional effort to mastering these systems. 
In addition, although I believe I appropriately delegate 
responsibilities, I need to ensure I provide clearly documented work 
objectives to subordinate managers. If confirmed, I plan to invest 
additional time in utilizing USAID's annual evaluation form system to 
ensure work objectives for those I manage are clear, achievable, and 
measurable.

    Question. In the past decade, the agency has become more reliant on 
contractors and had fewer direct hires. Is this a positive development, 
in your judgment? What measures is the agency taking to ensure that 
contractors are fulfilling administration and congressional policy 
objectives?

    Answer. As noted in the question, USAID has limited direct hire 
resources. In the early 1960s and 1970s USAID's budget and staffing 
were aligned to allow the direct hire workforce to actually implement 
programs in developing countries. More recently, realignment of U.S. 
Government budget and program priorities has led to a reduction in our 
direct hire workforce implementing programs, and the increased use of 
contracts, grants, and American Personal Services Contractors. USAID 
aims to strike a balance between limited resources and required 
expertise with our mix of direct hires and contract staff. Our 
contractors provide cutting edge technical knowledge and surge capacity 
to address increasingly complex and urgent problems in increasingly 
dangerous areas. Our direct hire workforce continues to be responsible 
for inherently governmental duties, such as policy making and spending 
decisions.
    USAID follows broader Federal procedures on rule-making and policy 
development that assure transparency and consultation with the public. 
Policy is promulgated to our workforce through general notices and 
training, reinforced with vigilance from general counsel, contracting 
officers, controllers, and our technical and program staff. Contractor 
compliance is assured by the monitoring of contractor performance and 
compliance. We also follow up and assess through an Evaluations 
Division in our Office of Acquisition and Assistance. Our ombudsman is 
available to contractors and grantees to respond to their concerns. As 
a final check, auditors review costs incurred and compliance as part of 
an annual review and through the close-out process.
    In implementing OMB Circular A-76, USAID is examining whether 
specific outsourcing arrangements continue to effectively and 
efficiently serve our implementation needs. The administrator has 
recently required a review of Washington-based institutional contracts 
and is requiring implementation of efficiency measures as these 
contracts come up for renewal.

    Question. What do you believe is the role of labor programming in 
advancing the promotion of democracy?

    Answer. Labor programming can promote democracy in the following 
ways:

  <bullet> By building the capacity of civil society organizations such 
        as labor rights groups, legal advocacy networks, trade unions, 
        and labor nongovernmental organizations (NGOs) to promote and 
        monitor core labor standards, which strengthen the rule of law 
        and access to justice.
  <bullet> By strengthening the capacity of government institutions 
        such as labor ministries and inspectorates, and labor courts to 
        promote and monitor core labor standards and adjudicate labor 
        grievances, which contributes to good governance and the rule 
        of law.
  <bullet> By strengthening the capacity of democratic, independent 
        labor unions and organizations for policy analysis, advocacy, 
        organizing, coalition-building, internal democratic governance, 
        and membership representation and services; and improving 
        organizational and financial capacity to ensure sustainability 
        of these capacities.
  <bullet> By supporting the mobilization and organizational activities 
        of trade unions to empower people to take their own decisions, 
        ensuring that the voice of the working poor is heard when 
        decisions which affect their lives are made, and empowering 
        workers to be active citizens with rights, expectations, and 
        responsibilities.
  <bullet> By strengthening the democratic culture of labor unions to 
        act as incubators of democratic values, practices, and 
        behaviors, including tolerance, inclusion, electing and holding 
        accountable union leaders, demanding and exercising voice in 
        policy, and other decisions which affect the membership.
  <bullet> By supporting free and fair elections and political 
        processes through workers' awareness and voter turnout 
        campaigns, disseminating information, education, and promoting 
        public debate, especially among women and other disen-
        franchised groups; participating in observation, monitoring, 
        and external oversight of elections and other political 
        processes; communicating with, contacting, and interacting with 
        political parties toward gaining their endorsement of workers' 
        interests.
  <bullet> By supporting the interaction of democratically elected 
        trade union leaders with national and local government 
        officials in representative and participative processes 
        (especially tripartite processes) designed to effectively 
        identify and respond to workers' preferences for government 
        services and policy positions.

    Question. The President's budget request for fiscal year 2008 
shifts funds from the DA account to the ESF account, and also shifts 
alternative development funding in the Andean region from the ACI 
account to the ESF account. What is the rationale for this shift? What 
will be the effect of the Nethercutt amendment related to the 
International Criminal Court, if it is enacted as part of the fiscal 
year 2008 appropriations act?

    Answer. In the fiscal year 2008 budget request, we sought to 
maximize the use of account authorities and establish clear priorities 
in support of effective implementation of foreign assistance programs. 
We, therefore, matched accounts with country circumstances and the 
priorities the county categories are designed to address.
    This means that, overall, funding for Development Assistance (DA), 
which has traditionally supported poor countries that demonstrate 
performance or a commitment to development, has been prioritized to 
Developing and Transforming countries. Economic Support Funds (ESF), 
which focus primarily on providing economic support under special 
economic, political, or security conditions, has been prioritized to 
support activities in the Rebuilding and Restrictive Country 
Categories.
    The intent in shifting funds from DA to ESF is to draw cleaner 
lines around their use, as identified by country characteristics. These 
cleaner lines allow us to justify to Congress why we have requested 
amounts for each account. The shift is in no way reflective of a 
reduced prioritization of development activities. To the contrary, 
total funding in the three objectives supporting long-term development 
increased by approximately $100 million from fiscal year 2006 levels in 
the fiscal year 2008 budget request.
    In the fiscal year 2008 budget request, we have allocated $192.5 
million in ESF for Alternative Development, which was previously funded 
with the Andean Counterdrug Initiative (ACI) account. This shift 
provides a clearer distinction between the uses of funds for ``hard 
side'' (ACI-funded) and ``soft side'' (ESF-funded) activities in 
support of our counternarcotics objectives in the Andes.
    If the Nethercutt amendment appears in the fiscal year 2008 
appropriations act, we will carefully examine programs that might be 
affected and we will make recommendations to the President to waive 
this prohibition where necessary. In accordance with this provision, we 
will notify Congress of the exercise of any waiver authority.

    Question. What is your view on the importance of competition in 
contracting? Please provide information on the percentage of contracts 
that were subject to full and open competition in fiscal years 2004, 
2005, and 2006.

    Answer. Full and open competition is the standard for USAID 
contracting. Competition ensures that USAID programs benefit from the 
best products and services offered at competitive market prices. On 
occasion, the standard of full and open competition cannot be met due 
to the urgent nature of the technical program requirement. However, in 
all such cases, USAID requires justification for the level of 
competition used, most frequently accompanied by review and approval by 
higher management in accordance with law and regulation.
    The percentage of contracts, expressed in percent of total dollars, 
subject to full and open competition in fiscal year 2004 was 93 
percent, and in fiscal year 2005, 94 percent. We are still gathering 
data on figures for fiscal year 2006.
                                 ______
                                 

       Responses of Katherine J. Almquist to Questions Submitted 
                      by Senator Richard G. Lugar

                       foreign assistance reform
    There has been considerable effort to positively transform the 
foreign assistance budget process in the last year. This effort, 
spearheaded by Ambassador Randall Tobias--the administrator for the 
Agency for International Development as well as the Director of Foreign 
Assistance--is intended to ensure the experience and assessments of our 
embassy staff in the field is effectively incorporated in the budget 
development cycle. Given that this is a new and ongoing reform process:

    Question. What has been your experience with the transformation and 
reform effort from the field? How might it be improved?

    Answer. Senator Lugar, as Sudan Mission Director during these early 
stages of the reform process, I have already witnessed better policy 
coherence and budget integration as a result of the foreign assistance 
reform effort.
    United States Charge d'Affaires in Sudan, Cameron Hume, appointed 
me as the overall coordinator of the fiscal year 2007 Sudan Operational 
Plan. In that capacity, I managed the integration of most State and 
USAID resources into one plan--informed by one set of priorities--that 
the Embassy Khartoum country team shaped in detail and ultimately the 
Charge and I both approved. The process helped to identify what United 
States Government assistance is doing in Sudan (the vast majority of 
which is programmed by USAID or State). We have already seen further 
efficiencies in program management and more strategic targeting of 
assistance around the overall objectives of consolidating the 
Comprehensive Peace Agreement and stabilizing Darfur.
    This is the first time both Washington and the field have gone 
through this operational planning exercise, and there is still room for 
improvement. In my experience, the foreign assistance reforms provide 
Washington an opportunity to shape country strategies and put in place 
country programs that better promote our foreign policy and foreign 
assistance goals and objectives. At the same time the country teams at 
Post have a greater voice in determining what assistance is given, 
whether Washington- or field-managed, and to what end. In the case of 
Sudan, and I believe many other countries in Africa, this first round 
of fiscal year 2007 planning brought the country teams in Washington 
and the field closer together in understanding the issues and 
priorities for United States Government assistance. I believe the 
process can be refined and expanded to ensure that our assistance is 
targeted, but still responsive to locally identified priorities and 
realities.

    Question. How do you expect this reform to affect United States 
development initiatives in Africa over time?

    Answer. I fully expect that the reforms we are undertaking will 
increase the effectiveness of our investments. We are already seeing a 
greater focus on strategic priorities, a more rational way of 
allocating resources toward those priorities, and a more comprehensive 
and comprehensible system for tracking and reporting results.
    Because the new integrated budget planning model is based on the 
totality of USAID and State Department resources, it allows us to be 
more strategic and targeted in our assistance decisions. For example, I 
believe that the reform further enhances our ability to focus our 
resources on key rebuilding countries, like Sudan, Liberia, and the 
Democratic Republic of Congo, which are emerging from long periods of 
conflict, and key regional anchor states like Ethiopia, Kenya, South 
Africa, and Nigeria.
    We must tailor development programs to the unique needs of each 
recipient country in reaching the transformational diplomacy goal. This 
focus on country circumstances is important as we implement programs 
around the continent. As I discussed in my testimony, I believe that 
Africans must bear the ultimate responsibility for ``solving'' the 
problems of Africa. I am, therefore, encouraged by the focus on 
individual country progress. The ultimate goal of transformational 
diplomacy is to support recipient country efforts to move from a 
relationship defined by dependence on traditional foreign assistance to 
one defined by full sustaining partnership status. To achieve that goal 
under the new Strategic Framework for Foreign Assistance, resources 
were allocated to the areas that would best support individual country 
progress. The result was a country-driven allocation for the fiscal 
year 2008 budget. Africa is not homogenous, and I greatly look forward 
to working in partnership with other donors and African nations as we 
move forward with our development programs.

    Question. How has USAID mobilized to ensure this reform effectively 
addresses recognized weaknesses in the coordination and cooperation of 
U.S. Government agencies in the implementation of our foreign 
assistance?

    Answer. Under the leadership of the Director of Foreign Assistance, 
we have developed an integrated budget and operational planning system 
that brings all USAID and State Department players together to program 
resources and plan and coordinate our implementation efforts.
    In most cases, I believe that ambassadors turned to USAID mission 
directors for guidance and advice in planning and implementing 
assistance. In the field, mission directors were recognized as the 
experts and were given an opportunity to shape our strategic plans in 
each country.
    To improve coherence across all U.S. Government foreign assistance, 
the fiscal year 2008 budget submission was formulated in consultation 
with the Millennium Challenge Corporation and the Office of Global Aids 
Coordinator. We took their estimated fiscal year 2008 disbursements 
into account in our country levels to ensure that our activities 
complement theirs.
    With respect to the rest of the U.S. Government, Ambassador Tobias 
has been working with the Department of Defense (DoD) to improve 
communications and coordination. In addition, our field missions have 
just finished writing their fiscal year 2007 operational plans, which 
describe how they will spend their fiscal year 2007 funding and the 
results they expect to receive. Posts have been requested to account 
for all U.S. Government resources in-country in these plans, which 
gives us the first-ever comprehensive look at U.S. Government programs 
in a given country. In Washington, as the operational plans are 
undergoing reviews, DoD is participating on a case-by-case basis.
    As the reform solidifies, it is my hope that the interagency 
coordination will increasingly focus on our common goal, using a common 
framework and common definitions.
                                africom
    Question. The Department of Defense has directed that their agency 
begin to develop a new regional command called AFRICOM. Although its 
ultimate home is yet to be determined, the makeup of this command is 
mooted to be more innovative--to include expertise from other non-DoD 
agencies.
    What coordination has occurred between USAID and DoD/LTSAID and 
State on the development of AFRICOM? What is planned?

    Answer. The Department of Defense invited USAID to participate in 
the planning for U.S. Africa Command (AFRICOM) in November 2006. I 
understand that within several days, the agency dedicated several staff 
to work with the AFRICOM Implementation Planning Team in Washington, 
DC. At present, we have several staff working on the AFRICOM Transition 
Team in Stuttgart, Germany, and we have additional staff providing 
``reach back'' support from Washington. The Department of Defense has 
been very supportive of USAID participation. I believe that our staff 
has been able to effectively represent development issues and 
objectives in Africa.
    This process builds on ongoing cooperation with DoD in the areas of 
humanitarian assistance, disaster response, and security sector reform.

    Question. How might the establishment of an AFRICOM facilitate or 
hamper your assistance efforts in African countries?

    Answer. As the principal United States agency extending assistance 
to countries recovering from disaster, trying to escape poverty, and 
engaging in democratic reforms, USAID recognizes that AFRICOM can play 
a supporting role for foreign assistance objectives in Africa. We also 
recognize that the establishment of such a command and USAID engagement 
is consistent with the U.S. National Security Strategy (March 2006), 
which clearly reiterates that, ``Development reinforces diplomacy and 
defense, reducing long-term threats to our national security by helping 
to build stable, prosperous, and peaceful societies.''
    In particular, it is our understanding that an established AFRICOM 
will include interagency civilian positions of substance and 
responsibility to ensure future coordination and collaboration. 
Although the planning is still in the early stages, our staff is 
working closely with our colleagues in the Department of Defense and 
Department of State to ensure that the eventual command has an 
efficient integrating mechanism for interagency staff. An effective 
organizational structure and full-time opportunities for USAID staff 
can provide an opportunity to enhance coordination in Africa; increase 
overall coherence; leverage resources for greater impact; improve 
communication; and share best practices. For example, when fully 
capable, AFRICOM will provide an ideal platform, when needed, for USAID 
regional disaster officers to coordinate military support to 
humanitarian crises on the continent resulting in a more rapid and 
focused U.S. Government response.
    If confirmed, I will work closely with AFRICOM to ensure that our 
activities are coordinated as we all work together toward the goal of 
transformational diplomacy in Africa.
                                 ______
                                 

           Responses of James Kunder to Questions Submitted 
                      by Senator Richard G. Lugar

                    afghanistan and pakistan regions
    Question. Given the limited development on both sides of the 
Afghan-Pakistan border, what United States development and humanitarian 
assistance is targeted at the border regions including the Federally 
Administered Tribal Areas (FATA) in Pakistan?

    Answer. The United States has developed an integrated strategy for 
the development of Pakistan's Federally Administered Tribal Areas 
(FATA).
    The U.S. mission in Islamabad believes very strongly that all new 
development assistance focused on FATA should be consolidated as part 
of the ``peace and security'' objective within the current operational 
plan. However, despite the close coordinating with the GOP on the 
current program, USAID has been careful not to lay down an overly 
prescriptive set of requirements, as these would adversely affect our 
broader strategic aims. The GOP is central to the success of these 
initiatives. The attached fact sheet gives an overview of current 
activities in the FATA.

    [Note. The information referred to appears at the end of this set 
of questions and answers.]

    In addition to these activities, USAID believes an additional 
amount of $150 million a year will be available for the next 5 years--
pending Congressional approval. If so, the following interventions in 
the FATA, with the exception of item four, will represent major 
expansions of our current development activities in that region. The 
capacity building of the FATA Development Authority and FATA 
Secretariat would be new activities to facilitate more efficient and 
transparent provision of services to the FATA by the GOP.

  <bullet> Education.--Increasing scholarships and expanding the school 
        construction program.
  <bullet> Health.--Expansion of current maternal and child health 
        interventions and HIV/AIDS as appropriate.
  <bullet> Economic Growth.--Expansion of the current micro-credit 
        programs and small-scale economic activities such as 
        horticulture or jewelry manufacture.
  <bullet> Capacity Building of the FATA Development Authority and FATA 
        Secretariat.

    Question. Does it make sense to consolidate United States 
assistance in the Afghanistan-Pakistan border areas to more 
realistically address cross-border infrastructure requirements such as 
roads, and greater area development in what is a very ethnically 
homogenous zone?

    Answer. Although the border region is ethnically Pashtun, there are 
a number of fissures within this group--based along tribal and clan 
loyalties, as well as regional perspectives. Even the language spoken 
on both sides of the border is different--Pakistani Pashto shows a 
strong Urdu influence, while Afghan Pashto incorporates that country's 
lingua franca, Dari. The language also has two major dialects--eastern 
and southern variants. Thus, what may appear to be a homogenous group 
of people is often subtly or very obviously fractured. Although there 
are people who have relations or connections on both sides of the 
border, one cannot assume that this is true for the majority of the 
population.
    Political considerations--especially the strained relationships 
between the countries--are also a factor in mounting effective cross-
border programs. Differing customs and regulatory laws as well as 
competing national agendas may preclude undertaking certain economic 
activities.
    Despite these social and cultural challenges, USAID, in both 
Pakistan and Afghanistan, is maximizing the effect of its development 
programs by implementing, on each side of the border, activities in 
education, health, economic growth, and capacity building. The 
practical effect is that these programs complement each other.
    Based on lessons learned over the last several years about 
implementing development programs in the region, USAID is working to 
maximize the effect of the U.S. Government effort in the current 
circumstances, and we are anticipating that this approach will help to 
pave the way for consolidation of the region's development effort. This 
is our goal.
                       foreign assistance reform
    Question. What has been your experience with the transformation and 
reform effort from Washington? How might it be improved?

    Answer. In my time as assistant administrator (AA) for the Asia and 
Near East Bureau (ANE), and then as acting deputy administrator, I have 
observed increased policy coherence, budget integration, and an 
elevated seat for development at the policy table. For the first time 
under the reforms initiated by Ambassador Tobias, State, and USAID 
officials sat at the same table to plan each stage of the fiscal year 
2008 budget. Input was sought at both the staff and senior management 
levels. Secretary Rice herself ran the final reviews of the budget by 
region. In my previous experience in leadership roles at USAID, the 
level of involvement of USAID staff and leadership has never been as 
integrated as it was in setting the fiscal year 2008 budget request.
    As one would expect, the first time around in any process has kinks 
and areas that can be improved. A thorough ``after-action review'' is 
currently underway to assess areas where the process may be improved 
for fiscal year 2009. If confirmed, I look forward to working closely 
with Ambassador Tobias and members of the committee to improve the 
process.

    Question. How do you expect this reform to affect U.S. development 
initiatives in general around the world and over the long-term?

    Answer. One of the primary goals of the reform is to focus on 
country progress. It is my hope that, in the future, U.S. development 
initiatives will be more grounded in country need, expected results, 
and sustainability. One of the ways we are working to achieve this is 
through the development of the Foreign Assistance Framework, the 
standard program structure and definitions, and the common indicators. 
These tools will allow us to track consistently across USAID and State 
the outputs of our foreign assistance efforts. Our ability to provide 
details about who is spending U.S. Government funds, what they are 
spending it on, and what results we expect to achieve will allow me, if 
confirmed, to have greater oversight of our programs around the world 
and to measure what is working, what isn't, and the opportunity costs 
of shifting funds among programs.
    Our end goal is to work ourselves out of a job. As Ambassador 
Tobias often says, ``It is about them, not about us.''

    Question. How has USAID mobilized to ensure this reform effectively 
addresses recognized weaknesses in the coordination and cooperation of 
U.S. Government agencies in the implementation of our foreign 
assistance?

    Answer. Interagency cooperation is essential to the success of 
implementing foreign assistance. Certainly, we have come a long way in 
the past couple of years. Under Ambassador Tobias' leadership, the 
fiscal year 2008 budget request was developed as an integrated process 
(both USAID and the Department of State) and in consultation with the 
Millennium Challenge Corporation.
    One of the primary tools we are using to improve coordination and 
ensure accountability under the reform is the operational plan. Our 
field missions have just finished writing their fiscal year 2007 
operational plans, which describe how they will spend their fiscal year 
2007 funding and the results they expect to receive. Missions have been 
requested to account for all U.S. Government resources programmed by 
all U.S. Government agencies in-country in these plans, which gives us 
the first-ever comprehensive look at U.S. Government programs in a 
given country. MCC is also participating in the reviews where they have 
key programs, with the intent of assuring linkages.
    USAID has an Office of Military Affairs, created to liaise with the 
Department of Defense (DoD). As an agency, we are trying to ensure 
that, despite many organizational and cultural differences, we are able 
to communicate effectively and coordinate with our colleagues at DoD. 
Additionally, Ambassador Tobias has been working with DoD very closely 
on a number of issues at a high level.
    One recent development that I believe will greatly enhance the 
coordination among U.S. Government agencies is the strategic alignment 
of S/CRS and the Office of the Director of Foreign Assistance (DFA). 
The alignment of S/CRS and DFA is an opportunity to streamline roles, 
reduce duplication, and strengthen the mandate of S/CRS. By combining 
the S/CRS coordinator's reconstruction and stabilization planning and 
operational mandate with the funding authorities of the DFA, he will 
better ensure that activities and programs are appropriate and 
coherent.

    Question. How will this process affect the ability of Congress to 
conduct its oversight of foreign assistance, particularly that 
assistance administered by USAID?

    Answer. Under the leadership of Ambassador Tobias, we have 
developed one standard ``development dictionary'' that links activities 
to Secretary Rice's goal of transformational diplomacy. Common 
indicators have been developed for each of the programs defined and 
these indicators track, for the first time, consistently across USAID 
and State the outputs of our foreign assistance funds.
    The definitions and indicators are captured in one system that 
tracks funding, programs, and indicators that will be able to tell us 
who the implementing partner(s) are, what program is being implemented, 
and what result USAID expects.
    It is my hope, and that of Ambassador Tobias, that these new 
systems and new transparency of information will allow the Congress to 
more easily perform its oversight role.

    Question. How is the fiscal year 2008 budget different from 
previous foreign assistance budgets because of the new strategic 
framework utilized by the Office of the Director of Foreign assistance? 
How do you think these changes will improve our ability to meet our 
foreign assistance goals?

    Answer. The fiscal year 2008 request reflects a different approach 
to building the budget from previous years' methods. Most notably, for 
the first time ever, the $20.3 billion of U.S. foreign assistance under 
the authority of State and USAID were integrated into one joint budget 
submission. This year, USAID delivered its complete justification to 
the Hill just one week after the President released the budget. There 
are six principles that governed the prioritization of the fiscal year 
2008 budget request.
We integrated planning based on the totality of U.S. Government 
        resources
    Over 100 interagency teams, organized by country, were tasked with 
ensuring that all State and USAID resources were coordinated, mutually 
supportive, and targeted to the achievement of shared objectives. Every 
member of each team had a clearly laid out goal: To allocate funds to 
programs that would best advance the transformational diplomacy goal--
to help build and sustain well-governed states that meet the needs of 
their people, reduce widespread poverty, and conduct themselves 
responsibly in the international system.
    The teams looked at the totality of resources available to a 
country's budget and made determinations about appropriate and fiscally 
responsible use of funds to support priorities. Investments from the 
President's Emergency Plan for AIDS Relief and the Millennium Challenge 
Account were taken into account when allocating resources.
We focused on country progress
    The ultimate goal of transformational diplomacy is to support 
recipient country efforts to move from a relationship defined by 
dependence on traditional foreign assistance to one defined by full, 
sustaining partnership status.
    In past budget years, much of the budget was built not by country, 
but by sector. Therefore, what drove many country programs wasn't the 
specific country need as much as a set global amount for a sector that 
needed to be met. This year, the country teams were given an overall 
target number for each country, rather than by account or sector.
    These teams had at their disposal data on the status of country 
progress against independent indicators assessing poverty, human 
capacity, life expectancy, governance, and barriers to economic growth. 
They had the new strategic framework for U.S. foreign assistance, which 
outlines interventions according to countries' common development 
situations. They were asked to allocate funds for objectives and 
programs that would best advance individual country progress. The 
result was a country-driven allocation for the fiscal year 2008 budget.
We invested in states critical to long-term regional stability and 
        prosperity
    In the fiscal year 2008 budget request, 51 percent of Department of 
State and USAID program assistance resources are concentrated in 
rebuilding and developing countries. These are the countries that are 
farthest away from sustaining partnership status as measured by 
instability, poverty, human capacity, life expectancy, governance, and 
barriers to economic growth. These states can be either critical 
barriers to regional stability and success in the global war on terror 
or states that, with continuing progress, can serve as anchors for 
regional stability and prosperity. We need to work with these 
governments to help them strengthen their institutions to make their 
progress permanent.
We focused on demand-driven interventions that are critical levers for 
        sustainable progress and transformation
    Funding is increased to programs targeted to improving governance 
and democratic participation, programs mitigating diseases that 
threaten the human and economic capacity of countries to progress on 
their own, programs that expand access to and improve the quality of 
education, and programs that enhance economic opportunity and the 
skills needed to participate in the global economy. The request is the 
result of a demand-driven process that asked experts to prioritize 
limited resources on the basis of the most significant levers that will 
help countries progress--and to focus our resources so we can achieve 
real impact. When we can focus our resources, we enhance the ability of 
a country to gain enough strength and stability in one area to sustain 
further progress on its own.
We allocated funds intended for country programs to country-level 
        budgets
    To empower our mission directors and ambassadors to design and 
implement programs that would have an effective and sustainable impact, 
the reform process maximized resources implemented at the country level 
into country-level budgets. Resources within global or regional budgets 
that had been planned for specific countries were accordingly shifted 
to those countries' budgets and planned together with other country-
based support.
    Recognizing that not all foreign assistance is most effectively 
implemented on a country basis, and that issues that transcend a single 
country's borders are best addressed as part of a global or regional 
strategy, significant funds remain in regional and global accounts, 
but, across State and USAID, these accounts see an average 35 percent 
decrease from this process.
We matched accounts with country circumstances and the priorities the 
        county categories are designed to address
    In the fiscal year 2008 budget request, we sought to maximize the 
use of account authorities and establish clear priorities in support of 
effective implementation of foreign assistance programs.
    This means that, overall, funding for development assistance, which 
has traditionally supported poor countries that demonstrate performance 
or a commitment to development, has been prioritized to developing and 
transforming countries. Economic Support Funds (ESF), which focus 
primarily on providing economic support under special economic, 
political, or security conditions, have been prioritized to support 
activities in the rebuilding and restrictive country categories.
    The intent in shifting funds from DA to ESF is to draw cleaner 
lines around their use, as identified by country characteristics. These 
cleaner lines allow us to justify to you why we have requested amounts 
for each account. The shift is in no way reflective of a reduced 
prioritization of development activities. To the contrary, total 
funding in the three objectives supporting long-term development 
increased by approximately $100 million from fiscal year 2006 levels in 
the fiscal year 2008 budget.
    In summary, the fiscal year 2008 budget request reflects a more 
integrated, systematized approach to the budget than that developed in 
previous years. I believe that the result will significantly enhance 
our ability to both identify and meet foreign assistance goals.

    Question. Although the Director of Foreign Assistance has authority 
over all State Department and USAID aid programs, some programs, such 
as the Millennium Challenge Corporation (MCC), remain outside the scope 
of the Director's responsibility. How does USAID coordinate its efforts 
with those of the MCC? To what extent will USAID country objectives and 
projects change in MCC compact countries? How have they changed in the 
past?

    Answer. In the fiscal year 2008 budgeting process, State and USAID 
country teams took into account projected fiscal year 2008 MCC Compact 
disbursements when considering the totality of individual country 
budgets and to make determinations about appropriate and fiscally 
responsible use of funds to advance the transformational diplomacy 
goal.
    In countries with MCC Compacts, USAID resources have been 
reprioritized to ensure complementary programs with the MCC Compact and 
amplify results. The process is specific to each country. For example, 
in Honduras, funds for economic growth activities have increased, 
particularly in trade, investment, and private sector competitiveness 
in order to complement the MCC program. In Ghana, funds have been 
shifted to enhance the capacity of local government responsible for 
implementing MCC compact programs.
    In countries that qualify for the MCC Threshold Program, USAID 
plays the leading role in the design and implementation of programs 
approved by the MCC Board of Directors, in close coordination with MCC. 
USAID and MCC work very closely and collegially throughout this process 
and are currently implementing 11 Threshold Country Programs together.

    Question. I am concerned about the decline in funding for 
development-oriented food aid under Public Law 480 title II, and about 
our priorities for food assistance overall. How will the new strategic 
framework implemented by the Office of the Director of Foreign 
Assistance affect our food assistance programs?

    Answer. Due to the unpredictable, but large number of major 
emergencies, we have not always been able to fund fully ongoing Public 
Law 480 title II nonemergency programs. However, in fiscal year 2006 we 
increased funding for Public Law 480 title II nonemergency programs. 
The new foreign assistance framework will help achieve these goals by 
bringing U.S. foreign assistance resources together in a strategic and 
integrated fashion at the country level, thereby helping to better 
integrate Public Law 480 title II with other U.S. foreign aid funding 
sources, allowing for more effective and multisectoral interventions 
that address the overlapping themes of poverty and hunger and the 
underlying factors that cause them. The broader set of development 
programs can thus be more comprehensive in scope and complementary in 
nature, with food aid serving as only one tool of many working together 
to address the chronic causes of poverty and hunger in the most food-
insecure countries.
               women's justice and empowerment initiative
    Question. In 2005, President Bush announced the launch of the 
Women's Justice and Empowerment Initiative, which would set aside $55 
million over 3 years to fight violence against women in four African 
countries. What is the status of this initiative? How much money has 
either been obligated or expended for this program?

    Answer. The Women's Justice and Empowerment Initiative (WJEI) is 
overseen by the Department of State's Bureau of African Affairs (AF) 
with support from the Bureau for International Narcotics and Law 
Enforcement Affairs (INL), and implemented by the Department of Justice 
(DOJ) and USAID. For the first year's implementation, $21.9 million has 
been identified from prior year reprogrammed funds. USAID and the DOJ 
are making progress on solidifying their program designs and strategic 
priorities in the four WJEI countries of Benin, Kenya, South Africa, 
and Zambia.
    INL and DOJ have begun expending WJEI program funds in support of 
joint assessments to all four WJEI countries. INL is finalizing 
bilateral letters of agreement with host countries on criminal justice 
and prosecutorial assistance and training programs developed as a 
result of these assessments.
    USAID expects to issue competitive solicitations for increasing 
awareness and victim support in April. The $5.4 million currently 
available to USAID will be obligated once the competitive solicitation 
is complete in early summer.
    We are confident that all of the program components will soon be in 
place to meet WJEI program expectations for fiscal year 2007 and fiscal 
year 2008.
                                 ______
                                 

               Overview of Current Activities in the FATA

                               education
School construction and furnishing
    USAID is helping increase school enrollment by constructing and 
furnishing 65 primary, middle, and high schools in five agencies within 
the FATA. With 21 schools completed, 31 schools are currently under 
construction in the agencies of Khyber, Bajuar, Kurram, Mohmand, and 
Orakzai. Construction of 13 remaining schools is scheduled to begin in 
April 2007. Sanitary and drinking water facilities are added by a grant 
from the U.S. Department of Defense for $800,000. The Embassy of Japan 
has partnered with USAID and is responsible for constructing an 
additional 65 schools using USAID's design. USAID has provided $6.5 
million to the Pakistani firm, Associates in Development, to construct 
and furnish these boys and girls schools. (Beginning Date: May 18, 
2004-End Date: May 31, 2007)
Scholarships for pre-service teacher education
    Forty scholarships are being awarded to females from the FATA to 
attend a 1-year pre-service teacher education program in Khyber agency. 
This program is expected to help provide trained teachers for girls' 
schools located in the FATA. The Research Triangle Institute (RTI) was 
awarded $60,000 to administer the 2006/2007 scholarship program. Last 
academic year, 17 USAID-financed female teachers graduated the 1-year 
program. (Beginning Date: September 1, 2005-End Date: September 30, 
2007)
                            economic growth
Micro-credit
    Through Khushalibank (KB), USAID is establishing stand-alone bank 
branches in all seven agencies within the FATA. To date, two bank 
branches are operational, one in Khyber agency and one in Kurram 
agency. KB's expansion into the FATA is a 5-year, $4 million program 
that also includes the provision of approximately 80 small 
infrastructure schemes as community development projects valued at 
approximately $2,500 each; higher education opportunities through the 
provision of 30 scholarships for master's degrees in business and/or 
management; and, the provision of 50,000 loans valued at approximately 
$250 each. (Beginning Date: September 30, 2005-End Date: September 30, 
2010)
Competitiveness support
    USAID is providing technical support to private sector-led working 
groups in the marble and granite sector to improve production and 
increase profits. The program also helps the industry identify and 
implement workforce development initiatives through Common Training 
Facility Centers. Khyber and Mohmand agencies are benefiting from the 
project which is implemented by the U.S. firm Nathan/J.E. Austin. 
(Beginning Date: February 8, 2006-End Date: February 6, 2008)
Reconstruction Opportunity Zones (ROZs)
    An assessment to help inform decision makers on the possible scope 
and feasibility for future ROZ opportunities in the FATA has been 
completed. ROZs are proposed to bring investment, employment, and 
economically viable livelihoods to Pakistan/Afghanistan border areas 
(FATA, Azad Jammu Kashmir, Balochistan, and North West Frontier 
Province). ROZs may also provide an incentive for Pakistan to 
contribute to regional stability while providing a unique opportunity 
for the two governments to work collaboratively on economic investment.
                                 health
Child health
    USAID is improving the quality and availability of child health 
services throughout all seven agencies within the FATA by enhancing the 
knowledge and skills of health care providers as well as strengthening 
existing facility-based and community-based child health facilities. 
Additionally, USAID is increasing community knowledge and acceptance of 
key child health services and behaviors through introducing behavior 
change and communication strategies. Resource centers at agency 
headquarter hospitals will be established in the agencies of Mohmand 
and Khyber beginning in March 2007, with roll out to remaining agencies 
over the coming months. In September 2006, Save the Children, U.S. was 
awarded $11.5 million to implement this 3-year program. (Beginning 
Date: October 1, 2006-End Date: September 30, 2009)
Water/sanitation
    USAID is improving water and sanitation facilities in 190 girls' 
schools in Khyber and Mohmand agencies. In addition, activities are 
underway to provide hygiene and sanitation education to community 
members and parent teacher associations to increase knowledge, 
attitudes, and practices at the school and household levels. In October 
2005, UNICEF was awarded $400,000 to implement this 2-year program. 
(Beginning Date: October 1, 2005-End Date: December 31, 2007)
    USAID is also partnering with the Government of Pakistan to 
implement President Musharraf's Clean Drinking Water Initiative in the 
agencies of Bajaur, Mohmand, and Kurram. With the government 
responsible for construction of water treatment plants, USAID will 
support these efforts through capacity building and training in 
operations and management of the plants, water resources management, 
cost-recovery schemes, water quality testing technologies, and the 
promotion of good hygiene behavior and safe sanitation practices. In 
October 2006, Abt Associates was awarded $16.5 million for this 
nationwide, 3-year program. Implementation within the FATA is 
anticipated for mid-2007. (Beginning Date: October 1, 2006-End Date: 
September 30, 2009)
Infectious disease control and prevention
    As part of a national polio eradication program, USAID supports 
both UNICEF and WHO to implement their polio immunization campaigns and 
surveillance in all seven agencies of the FATA.
                                 ______
                                 

          Responses of James R. Kunder to Questions Submitted 
                     by Senator Russell D. Feingold

                    fiscal year 2008 budget request
    Question. In your last hearing, you said that you believed 
Ambassador Tobias had ``a clear cut understanding of both the need to 
meet immediate U.S. foreign policy challenges, but also long-term 
development challenges'' in the USAID and State restructuring process. 
Since your hearing, the President has released his budget request for 
USAID and State and we have seen what the new budget structure actually 
looks like. Do you believe that the budget adequately addresses the 
immediate and long-term investments that need to be made to enhance our 
national security?

    Answer. I believe the fiscal year 2008 budget attempts to strike an 
appropriate balance among development objectives to address immediate 
and long-term investments to enhance our national security.
    As you are aware, the new Strategic Framework for Foreign 
Assistance categorizes each country receiving U.S. foreign assistance 
based on common traits and places them on a trajectory to measure their 
development progress against standardized indicators. The country 
categories are largely explained by their category name: rebuilding, 
developing, transforming, sustaining partnership, and restrictive.
    In the fiscal year 2008 budget request, 51 percent of Department of 
State and USAID program assistance resources are concentrated in 
rebuilding and developing countries. These are the countries that are 
farthest away from sustaining partnership status, as measured by 
instability, poverty, human capacity, life expectancy, governance, and 
barriers to economic growth--all critical barriers to regional 
stability and success in the global war on terror.
    We have seen the risks that ``ungoverned spaces'' can pose to our 
national security and to their regional neighbors; we are also very 
aware of the costs of these ``ungoverned spaces'' to their own 
citizens. States like Somalia, Afghanistan, Sudan, and the Democratic 
Republic of the Congo are among the poorest in the world. Their 
citizens are among the least able to access basic needs--including 
security.
    At the same time, to transform the development landscape, we need 
to focus on developing states such as Nigeria, Ukraine, Georgia, 
Pakistan, Jordan, and Indonesia--states that are on the cusp of 
transitioning to economic, political, and social self-sustenance, and 
that, with continuing progress, can serve as anchors for regional 
stability and prosperity. We need to work with them to help them 
strengthen their institutions to make their progress permanent.

    Question. How is USAID preserving the humanitarian and poverty 
alleviation focus of its work while under the new budget and structure?

    Answer. The focus of the Secretary's transformational diplomacy 
agenda is to concentrate our diplomatic and foreign assistance 
resources on helping to build and sustain democratic, well-governed 
states that respond to the needs of their people, reduce widespread 
poverty and conduct themselves responsibly in the international system. 
Explicit in the goal is the United States' commitment to reducing 
widespread poverty and addressing other barriers to fulfilling human 
potential, while recognizing the central role that good and responsive 
governance plays in addressing these concerns sustainably. In the 
fiscal year 2008 budget request, funding for the three objectives that 
support long-term development--governing justly and democratically, 
investing in people, and economic growth--increases by 20 percent over 
fiscal year 2006 levels, the last year for which we have completed 
allocations. When humanitarian assistance is added, the collective 
goals represent 65 percent of the fiscal year 2008 budget, whereas in 
fiscal year 2006, they represented only 61 percent of the fiscal year 
2006 foreign assistance budget. We are doing more than preserving the 
humanitarian and poverty alleviation focus of our work under the new 
budget and structure; we are enhancing it.
                     top-down vs. bottom-up design
    Question. The fiscal year 2008 Congressional Budget Justification 
states that USAID intends to focus on demand-driven interventions, but 
also lists five strategic priorities to guide U.S. assistance. How will 
you reconcile the desire to pursue U.S. objectives with a respect for 
each individual country's own main concerns?

    Answer. Outsiders cannot, with sustainability, secure citizens' 
health and safety, educate a critical mass, or create the conditions 
needed for economic growth--all of which are necessary for development, 
and all of which are primarily the responsibilities of a nation's own 
government. The transformational diplomacy goal's emphasis on 
sustainability heightens the necessity of the on-the-ground 
coordination that is done every day by our embassies and missions with 
the host government, other donors and local groups. Based on the new 
country-driven process, we have prioritized resources to the areas that 
we believe will promote and sustain long-term country progress. In the 
fiscal year 2008 budget request, funding is increased to programs 
targeted to improving governance and democratic participation, programs 
mitigating diseases that threaten the human and economic capacity of 
countries to progress on their own, programs that expand access to and 
improve the quality of education, and programs that enhance economic 
opportunity and the skills needed to participate in the global economy. 
These resource allocations reflect the wisdom of our interagency teams 
of country experts.
    In areas where there is not agreement between the U.S. foreign 
assistance goals and the host government priorities, most notably in 
restrictive countries in democracy programs and media freedom programs, 
an effort is made to work with local community groups to build host 
country capacity.
                        post-conflict assistance
    Question. During your nomination hearing in the 109th Congress, you 
said that we need to strike a balance between State, USAID, and the 
Department of Defense in the area of post-conflict work. I would be 
interested to hear more about what you think that balance looks like. 
Specifically, what does USAID need to do to remain an equal partner in 
post-conflict assistance efforts?

    Answer. USAID is pleased that development is receiving the emphasis 
it deserves in the post-conflict arena. This is in recognition of the 
fundamental role of economic, social, and institutional development in 
promoting stability and combating conflict, including insurgency. To 
remain an equal partner, it is critical that USAID participate at all 
levels of the U.S. Government civilian-military assistance effort from 
budget formulation and strategy development through operational 
planning in the field. USAID has a particular perspective on economic 
and social reconstruction as well as institutional strengthening that 
we can only leverage if we are at the table where these decisions are 
made.
                             agency overlap
    Question. The House report of the fiscal year 2007 Foreign 
Operations Appropriations bill (H.R. 5522) expressed concern that the 
Office of Military Assistance's (OMA) responsibilities would ``overlap 
. . . with other components of the United States Government, including 
the Office of the Coordinator for Reconstruction and Stabilization at 
the Department of State.'' Please comment about this concern and what 
you'll do to ensure OMA efforts don't overlap with other offices.

    Answer. USAID is part of the overall U.S. Government response that 
may be coordinated by S/CRS. Per the guidance of the Secretary of 
State, S/CRS has primary responsibility among the civilian agencies for 
coordination with the Department of Defense, particularly with regard 
to larger-scale crisis response. However, USAID has a particular 
requirement for day-to-day coordination with the DoD in program 
implementation.
    The Office of Military Affairs (OMA) was created to focus on 
specific tasks: training of USAID personnel in preparation for 
assignment to conflict areas where there is a significant military 
presence; adapting USAID policy and guidance to serve the requirements 
of National Security Presidential Directive-44 spell out; coordinating 
USAID participation in military exercises and joint training; and 
facilitating DoD linkages with field missions in program 
implementation. Each of these tasks is carried out in close 
coordination with our S/CRS colleagues and the functions of the two 
offices do not overlap.
                                  oti
    Question. As I've mentioned before in this committee, I am a strong 
supporter of the Office of Transition Initiatives (OTI). It provides 
fast, flexible, short-term assistance targeted at key political 
transition and stabilization needs and in my mind delivers a 
significant value for the small level of resources we give it. I'm 
concerned that we don't use OTI enough, though, particularly given the 
nature and number of countries facing transition. What will you do to 
make sure OTI--and other parts of USAID--can respond to opportunities 
to facilitate successful transitions to stability around the world?

    Answer. The Office of Transition Initiatives (OTI) has played a 
crucial role in the United States Government response to urgent 
political transitions in countries all over the world, including Iraq, 
Afghanistan, Sudan, and Haiti.
    When it was created in 1994, it was meant to be a small and agile 
mechanism through which the United States could positively influence 
transitions in key countries. It has lived up to its mandate, and we 
are seeing growing utilization of OTI and the creative programming it 
has developed. In addition to managing the Transition Initiatives 
account, OTI itself has been asked to manage three times more
program dollars, on average, over the past 5 years--from accounts 
including the Economic Support Fund, Development Assistance, and 
International Disaster and Famine Assistance, among others. This should 
be seen as a reflection of substantial reliance on this critical 
office.
    With regard to the larger USAID response to democratic transitions 
around the world, there has been a united approach to bolster the 
agency's overall capacity to respond to these new challenges. As part 
of this effort, OTI created effective programming (we need an example--
see below) that the USAID missions have highly valued and adopted into 
their own portfolios upon OTI's departure. In fiscal year 2006, for 
example, OTI handed over six programs or mechanisms it had created to 
USAID missions, allowing the work to continue in post-conflict 
environments. In Iraq, the OTI program included targeting community 
improvement work projects in poor neighborhoods that had been fertile 
grounds for recruitment by insurgents. The program design, which 
engaged susceptible youth in productive activity and thus reduced the 
likelihood of them participating in violence, was adopted as a general 
strategy by the mission when OTI left in 2006. In Haiti, OTI 
programming focused on Port-au-Prince neighborhoods that had 
experienced high rates of gang-related violence. The OTI activities 
fostered better community ties among local citizens and with the 
government, and had a direct impact on reducing local violence and 
buying time for democracy to take root. The USAID mission adopted the 
OTI program upon its completion in 2006, and continues community-
building activities in order to reduce gang-related violence in 
vulnerable neighborhoods in and around Port-au-Prince.
                                 ______
                                 

        Responses of Katherine Almquist to Questions Submitted 
                     by Senator Russell D. Feingold

                       u.s. assistance for africa
    Question. While I am pleased that this administration is following 
through on its promise to substantially increase United States 
assistance to Africa, I am concerned that nearly all of the almost $2 
billion increase between fiscal year 2006 and fiscal year 2008 is going 
toward health initiatives, specifically PEPFAR and the President's 
Malaria Initiative. These additional funds come at the expense of other 
``investments in people'' as you call them--such as education, social 
and economic services, and protection for vulnerable populations. How 
will you ensure that United States assistance remains balanced to meet 
the needs of specific African countries and populations?

    Answer. One of the primary goals of the foreign assistance reform 
is to focus on country progress. We must tailor development programs to 
the unique needs of each recipient country in reaching the 
transformational diplomacy goal. The aim of transformational diplomacy 
is to support recipient country efforts to move from a relationship 
defined by dependence on traditional foreign assistance to one defined 
by full sustaining partnership status. To achieve that goal under the 
new Strategic Framework for Foreign Assistance, resources were 
allocated to the areas that would best support individual country 
progress. The result was a country-driven allocation for the fiscal 
year 2008 budget.
    In past budget years, much of the budget was built not by country, 
but by sector. Therefore, what drove many country programs wasn't the 
specific country need as much as an overall funding level for a sector 
that had to be met. This year, the country teams were given an overall 
target number for each country, rather than by account or sector. As 
you have noted, some programs like the President's Emergency Plan for 
AIDS Relief (PEPFAR) and the President's Malaria Initiative (PMI) have 
established funding levels designed to achieve specific important 
public health targets. Most funding, however, was subjected to the new, 
country-driven allocation process so that the mix of sectors deemed 
most suitable by those in the field could be identified for 
programming.

    Question. Similarly, health investment in Africa will be 
unsustainable if it does not include local capacity-building. How will 
you support the development of national heath programs and 
infrastructure?

    Answer. USAID views local capacity building as a critical part of 
all USAID programs. In the new Foreign Assistance Framework, all health 
program elements contain sub-elements that focus on the development of 
national health programs and infrastructure. All USAID missions support 
capacity building by promoting workforce training, strengthening 
procurement distribution and management information systems, promoting 
quality assurance, improving financing and financial management, and 
strengthening surveillance systems. The PMI, for example, works to 
strengthen national malaria control programs, within the context of 
Ministries of Health National Health Plans, and builds capacity for 
country ownership of malaria control efforts. The PMI will soon launch 
the Malaria Communities Program to build independent, sustainable 
malaria-control projects in Africa by providing grants to African Non-
Governmental Organizations (NGOs) and faith-based groups to support 
their malaria-control work. PEPFAR supports similar programs.
                            interagency role
    Question. You have expressed a commitment to interagency 
cooperation to ensure that U.S. assistance is consistent and 
productive. What do you see as USAID's comparative advantage within 
this structure and what potential threats do you foresee to USAID's 
effectiveness in these areas?

    Answer. Under the leadership of the Director of Foreign Assistance, 
we have developed an integrated budget and operational planning system 
that brings all USAID and State Department players together to program 
resources and plan and coordinate our implementation efforts.
    In most cases in the field, ambassadors turned to USAID mission 
directors for guidance and advice in planning and implementing 
assistance. Mission directors were recognized as the development 
experts and were given an opportunity to shape our assistance plans in 
each country.
    With respect to the rest of the U.S. Government, Ambassador Tobias 
has been working with the Department of Defense (DoD) to improve 
communications and coordination. In addition, our field missions have 
just finished writing their fiscal year 2007 Operational Plans, which 
describe how they will spend their fiscal year 2007 funding and the 
results they expect to receive. Posts have been requested to take into 
consideration all U.S. Government resources in-country in these plans, 
giving us the first-ever comprehensive look at U.S. Government programs 
in a given country. In Washington, as the Operational Plans are 
undergoing reviews, DoD is participating in many Africa reviews, and 
the Millennium Challenge Corporation is also participating in the 
reviews where they have key programs, with the intent of assuring 
linkages.
    As mentioned above, I believe USAID's comparative advantage is our 
experience on the ground as the premier development agency of the U.S. 
Government. It is imperative that USAID stays on the cutting edge, 
remains committed to results, and continues to change and develop with 
world events. If confirmed, I intend to commit the Africa bureau to 
these goals.
                       beneficiary concentration
    Question. Fifty-six percent of the fiscal year 2008 budget request 
will go to just eight African countries; please explain the reasoning 
behind this rising concentration of U.S. assistance to a few countries 
singled out as being ``critical to long-term regional stability and 
prosperity?''

    Answer. Senator, as I understand it, the fiscal year 2008 budget 
request was indeed prioritized to states critical to long-term regional 
stability and prosperity. In Africa, the budget request reflects a 
strategic focus on rebuilding states that are emerging from crisis, 
that present critical barriers to regional stability, and that have 
strategic importance to the region and to the U.S. Government. After 
Sudan and Liberia, other key rebuilding states such as the Democratic 
Republic of Congo and Somalia were given priority. Additional focus was 
given to regional anchor states: Ethiopia, Kenya, South Africa, and 
Nigeria. These eight countries, as you note, make up 56 percent of the 
budget request.
    I believe that foreign assistance in the past has been too diffuse. 
With a thousand agendas embedded in our foreign assistance programs, 
our development impact was often diluted and unfocused. It is important 
to note that we do a great deal of good with our development portfolio. 
Someone, some community, always benefits from the services we provide. 
But that is not the point. The real question is, whether we are 
achieving sustainable impact. We are attempting to give people what 
they need to sustain further progress on their own.

    Question. Do you expect this trend to continue?

    Answer. In consultation with Congress, we've made a strategic 
decision to focus our resources for maximum impact. I believe it is 
appropriate for us to channel the greatest proportion of our assistance 
toward countries that are key U.S. Government priorities, ensuring that 
we achieve significant results in those key countries.
                            good governance
    Question. In countries where the ruling government is corrupt and/
or undemocratic, how do you intend to balance the competing priorities 
of fulfilling humanitarian needs while encouraging good governance?

    Answer. USAID distributes humanitarian assistance to save lives in 
emergency situations without regard to the political performance of the 
government of the affected country. Through USAID and its partners, the 
U.S. Government remains the largest donor of humanitarian assistance to 
Africa. For example, in fiscal year 2006, USAID distributed over $1.043 
billion in emergency food aid to Africa, including more than $370 
million to Sudan. USAID channels most of its humanitarian assistance 
through reputable international NGOs or through U.N. disaster relief 
agencies, such as UNICEF and the World Food Program.
    Over the longer term, USAID also works to improve governance and 
promote democratic reforms in many of the same countries that receive 
humanitarian assistance. Often operating against a backdrop of civil 
strife, USAID programs have provided support for the development and 
restoration of civil liberties and human rights by strengthening the 
role of civil society, political parties, independent media, and other 
nongovernmental actors to advocate for reform and hold their 
governments accountable. These goals are compatible with the delivery 
of humanitarian assistance through NGO or multilateral partners. 
Humanitarian assistance sometimes creates opportunities for dialog with 
the host country, and allows the U.S. Government to operate in 
countries where our good governance activities would not otherwise be 
welcomed.
                                 sudan
    Question. After being involved in the negotiation of the 
Comprehensive Peace Agreement, you were tasked with supporting the 
monitoring and implementation of this accord on behalf of the USAID. 
While there has been notable progress, many of the most central 
premises of the agreement remain unfulfilled due to the obstinacy of 
the National Congress Party. How have you sought to press officials in 
Khartoum to abide by their commitments under the CPA?

    Answer. Although the Department of State has the lead in handling 
diplomatic initiatives with the Government of Sudan and the National 
Congress Party (NCP), as the United States Government representative to 
the Assessment and Evaluation Committee (AEC), I, along with other 
donor representatives on the committee, have sought to hold the NCP to 
its commitments under the CPA by engaging in frank discussions with 
representatives of the government on the committee, and by using the 
AEC as a means to openly and regularly discuss delays in implementation 
and other challenges to continued progress in CPA implementation. In 
addition, the international community has used the annual convening of 
the Sudan Consortium to take stock of progress on the CPA.
    The consortium met last week for the second time, bringing together 
38 delegations from the international community and civil society. At 
the meeting, participants raised concerns over the slow pace of CPA 
implementation, specifically pointing toward the lack of clarity with 
respect to the border separating North and Southern Sudan, and the 
national elections in 2009. Through USAID's assistance program to 
Southern Sudan, we have sought to strengthen the ability of the Sudan 
People's Liberation Movement (SPLM) to be a viable partner in the CPA 
and to be an effective advocate for the agreement in its role both as 
the party of the Government of Southern Sudan and in its power-sharing 
role with the NCP in the Government of National Unity. While the 
international community, including the United States, can and will 
continue to highlight violations, obstructions, and other challenges to 
the implementation of the CPA, in the long run the most effective force 
for change will be the Sudanese people themselves. We believe that it 
is critical to strengthen countervailing forces such as the SPLM, 
helping them to fulfill their role and bring peace to Sudan.


NOMINATION OF HON. ZALMAY KHALILZAD TO BE REPRESENTATIVE TO THE UNITED 
NATIONS, WITH THE RANK AND STATUS OF AMBASSADOR, AND THE REPRESENTATIVE 
IN THE SECURITY COUNCIL OF THE UNITED NATIONS, AND TO BE REPRESENTATIVE 
 TO THE SESSIONS OF THE GENERAL ASSEMBLY OF THE UNITED NATIONS DURING 
     HIS TENURE OF SERVICE AS REPRESENTATIVE TO THE UNITED NATIONS

                              ----------                              


                        THURSDAY, MARCH 15, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
Khalilzad, Zalmay, to be Representative to the United Nations, 
        with the rank and status of Ambassador, and the 
        Representative in the Security Council on the United 
        Nations, and to be Representative to the Sessions of 
        the General Assembly of the United Nations during his 
        tenure of service as Representative to the United 
        Nations
                              ----------                              

    The committee met, pursuant to notice, at 9:40 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bill Nelson 
presiding.
    Present: Senators Nelson, Kerry, Feingold, Obama, Menendez, 
Casey, Webb, Lugar, Hagel, Coleman, Corker, Voinovich, DeMint, 
and Isakson.
    Also present: Senator Lieberman.

             OPENING STATEMENT OF HON. BILL NELSON,
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Welcome to the nomination hearing for 
Ambassador Khalilzad to assume the extremely important post of 
U.S. Ambassador to the United Nations.
    We want to welcome you, Mr. Ambassador, and your family. 
He's again being called by his country to serve in a critical 
post at a critical time. The United Nations is so important 
that we have the best and the brightest to represent us. With 
all of the international challenges that we have today, his 
diplomacy will be essential as we tackle all of the things that 
are facing us in Iraq, Afghanistan, and Sudan, as well as the 
transnational threats of terrorism, poverty, global warming, 
and you can go on down the list.
    We've moved quickly to fill this post that he is vacating 
in Baghdad. Ambassador Crocker is assuming that. In the 
meantime, we're going to turn our attention to the United 
Nations, now in its 61st year under the leadership of the new 
Secretary General. And this Ambassador is going to be at the 
forefront of our efforts to defuse international crises, not 
the least of which are the challenges facing us with a 
nuclearized North Korea, and a nuclear-ascendant, Iran. The 
Security Council's actions contributed to North Korea's recent 
decision to return to the negotiating table. We're finally 
seeing progress in these negotiations.
    Iran is a huge challenge, but it's essential that we are 
successful, and it's going to take a round of tougher sanctions 
from the Security Council, and our Ambassador's going to be 
right in the middle of that, with all his diplomatic skill, 
bringing pressure on Iran to come to their senses.
    Recent controversies, such as the Iraq Oil-for-Food 
Programme, the allegations of sexual abuse by U.N. 
peacekeepers, the instances of waste, fraud, and abuse by U.N. 
staff, have led many in the international community to support 
reforms in the United Nations. Progress has been slow, but I 
expect this Ambassador to continue that push for a reform 
agenda as an urgent priority. The United Nations is limited by 
its own internal inefficiencies and failures. And, until these 
are corrected and reformed, the U.N. is going to be hampered.
    We are the No. 1 contributor to the United Nations, paying 
22 percent of the regular budget. It's just under a half a 
billion dollars in fiscal year 2008. Obviously, our voice 
should carry significant weight. We have a big responsibility 
to the American taxpayer to ensure that that money is spent 
wisely. And that's just another one of the challenges, Mr. 
Ambassador, that you will assume.
    There are currently 100,000 U.N. peacekeepers deployed in 
more than 18 countries, and despite this presence, the U.N. 
peacekeeping operations face serious challenges. I just 
returned from Haiti, where we have another one. It is finally 
having some of the success that we wanted, but it's taken a 
long time. It's been over a year with that U.N. peacekeeping 
force. And we expect you, Mr. Ambassador, to focus on improving 
the quality of those peacekeepers and furthering their effort 
to be successful in this time of crisis. I believe that you are 
the best and the brightest to be representing us in this world 
community of nations. And I think you're a nominee that we can 
be proud of.
    We want to have a thorough discussion of the nominee. I 
want to turn to our ranking member before we turn to our 
colleagues who will make the introduction.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman. I 
join you in, once again, welcoming our friend, Zalmay 
Khalilzad, who's been nominated by President Bush to be our 
Ambassador to the United Nations.
    This post is unique among diplomatic assignments, in that 
its occupant is responsible not only for conducting diplomacy 
on many of the most critical foreign policy issues of the day, 
but also for U.S. stewardship of a multilateral institution, 
and plays a central role in global affairs.
    This committee and others in Congress have spent much time 
examining how the United States can work cooperatively with 
partners at the U.N. to streamline its bureaucracy, to improve 
its transparency, make it more efficient as it undertakes vital 
missions. We all hope for a United Nations that can fulfill its 
potential as a forum for international problem solving and 
dispute resolution.
    Often, the United Nations has fallen short of our hopes, 
but we cannot afford to be discouraged. The new Secretary 
General, Ban Ki-moon, of South Korea, has an opportunity to 
implement reforms outlined by the Gingrich-Mitchell report and 
countless other studies. To date, Secretary General Ban has put 
forward some important reforms that would raise the 
accountability of the organization and better enable the United 
Nations to shift resources and personnel to initiatives 
requiring immediate attention. Additionally, he has set an 
early example of transparency by releasing his personal 
financial documents. But, as the Foreign Relations Committee 
knows well, United Nations reform is not an easy task, and many 
diplomats and bureaucrats in New York see almost any structural 
reform of the U.N. as an attempt to diminish their 
prerogatives. The next U.S. Ambassador must be dedicated to 
building on President Bush's efforts to support meaningful 
reform at the U.N.
    Performance of the U.N. Human Rights Council in Geneva 
continues to be a source of concern in the Congress and among 
the American people. Regrettably, recent sessions of the 
Council have focused almost exclusively on Israel. The United 
States rightfully continues to seek modifications to the Human 
Rights Council. Much less well-known is the role of the United 
Nations Social, Humanitarian, and Cultural Affairs Committee in 
New York, which has voted to condemn the deplorable human 
rights situations in Iran, North Korea, Belarus, and Burma, 
countries which the Human Rights Council in Geneva has 
inexplicably ignored. I would be interested in knowing what 
options the nominee sees at this stage for improving the 
structure and the credibility of human rights advocacy at the 
United Nations.
    Even with these difficulties, the United Nations remains a 
key component of U.S. foreign policy. In particular, United 
States peacekeeping missions are a cost-effective method of 
enforcing peace and helping shattered nations rebuild. The 
ability of U.N. peacekeeping missions to be a force-multiplier 
was underscored by a 2006 Government Accountability Office 
analysis of the U.N.'s peacekeeping mission in Haiti. The GAO 
concluded, and I quote, ``The U.N. budgeted $428 million for 
the first 14 months of that mission. A U.S. operation of the 
same size and duration would have cost an estimated $876 
million.'' The report noted that the United States' 
contribution to the Haiti peacekeeping mission was, in fact, 
$116 million, roughly one-eighth the cost of a unilateral 
American operation.
    With this in mind, I was perplexed to see that the 
administration's fiscal year 2008 budget request for 
approximately $300 million less for peacekeeping than in the 
previous year has been put forward. Little evidence was 
presented to explain why the current 16 missions would suddenly 
require less funding than in previous years. Moreover, 
additional peacekeeping missions may arise in Chad and Darfur, 
further straining the peacekeeping budget. I would welcome the 
nominee's thoughts on this situation, which require further 
explanation by the administration.
    The diplomatic challenges that face our nominee include the 
nuclear confrontations with Iran and North Korea, the spread of 
HIV/AIDS and other diseases, refugee crises related to Iraq, to 
Darfur and other locations, and numerous problems that confront 
the United Nations every day. I am pleased, and I join the 
Chairman in saying, that the President has nominated a diplomat 
with such wide experience to be our next Ambassador to the 
United Nations. Ambassador Khalilzad has been in charge of two 
of the toughest assignments in American diplomacy, our 
embassies in Kabul and Baghdad. His experiences in these posts 
will enhance our ability to work with the United Nations on 
issues pertaining to Afghanistan, Iraq, and bolster our 
international diplomacy aimed at stabilizing those nations.
    I welcome the nominee and thank him for his continued 
distinguished service to our country.
    Thank you, Mr. Chairman.
    Senator Nelson. I'd like our two colleagues to introduce 
the nominee, and since Senator Hagel is also a member of the 
committee, Senator Hagel, you go first, and then we'll have 
Senator Lieberman.

                 STATEMENT OF HON. CHUCK HAGEL,
                   U.S. SENATOR FROM NEBRASKA

    Senator Hagel. Mr. Chairman, thank you, and to you and all 
of my colleagues on the committee.
    It is my privilege to introduce Ambassador Zalmay 
Khalilzad, along with my friend and colleague Senator 
Lieberman. This time, for me, is a third time to introduce 
Ambassador Khalilzad. In October 2003, I introduced the 
Ambassador as the President's nominee to be the U.S. Ambassador 
to Afghanistan. In June 2005, I introduced him as the 
President's nominee to be the U.S. Ambassador to Iraq. As has 
been noted, two easy jobs. Today, following his distinguished 
service in Kabul and Baghdad, Ambassador Khalilzad returns to 
the committee as the President's nominee to be the next U.S. 
Permanent Representative to the United Nations.
    It is not surprising that the President has chosen 
Ambassador Khalilzad to lead our efforts at the United Nations 
at this most critical time. In recent years, he has filled two 
of the most difficult diplomatic posts in our Nation's history. 
As Ambassador to Iraq and Afghanistan, Ambassador Khalilzad 
served under conditions that could have easily overwhelmed even 
the most gifted diplomat. Instead, he has earned a reputation 
as an agile and credible mediator in a region complicated by 
tribal, religious, and sectarian divisions. His deep 
understanding of the Middle East has been a vital asset to this 
country and the world, and we are grateful for that past 
service.
    Though the challenges of Iraq today are daunting and in--
its future still deeply uncertain, Ambassador Khalilzad's 
tenure in Iraq was marked by important milestones. And I think, 
Mr. Chairman, it is important that we review a couple of those 
accomplishments.
    After arriving in Baghdad in June of 2005, Ambassador 
Khalilzad led our efforts to help the fledgling Iraqi 
Government move forward in the political reconciliation 
process. He was central in facilitating the tough compromises 
that led to the ratification of Iraq's constitution in October 
of 2005, and a successful national election in December of that 
same year.
    At the end of his tenure, Iraq's Council of Ministers 
approved a national oil law that, if adopted by the Iraqi 
Council of Representatives, will play a key role in Iraq's 
future. Ambassador Khalilzad's accomplishments in Afghanistan 
were equally impressive. During his tenure, Afghanistan held 
its first national free and fair elections in the nation's 
history and established a new government. He led United States 
efforts to help establish Afghan security forces and oversaw 
United States reconstruction assistance, allowing the Afghan 
people hope for new economic opportunities.
    Ambassador Khalilzad will now fill a critical role as 
Ambassador to the United Nations. As members of this committee 
are much aware, having been noted already this morning, the 
United Nations has its limitations and is imperfect. Over the 
past year, some improvements, such as stronger internal 
oversight capacity and the establishment of a U.N. Ethics 
Office, have been made. But further reform is needed. 
Institutional reform, with the goal of making the U.N. more 
effective and credible, should be one of the top priorities of 
our new Ambassador. It will require building durable consensus 
among member states. This is difficult. It's hard work, and it 
takes time. But it will not be accomplished without strong, 
wise, determined, and respected U.S. leadership.
    Mr. Chairman, I am also very proud of the fact that the 
Ambassador's oldest son is here today, and he will be 
introduced by the Ambassador, I'm sure, but I take some pride 
and personal privilege in recognizing him, as well, since he 
served as an intern in my office a few years ago, and he has 
gone off to do astounding things. I take no credit for his 
shaping and molding. I think his parents had much more to do 
with that than any of us here.
    But I am proud of this nominee, as we all are. I am proud 
of his family. I am proud of his accomplishments. We are also 
pleased that his living conditions will be significantly 
improved----
    [Laughter.]
    Senator Hagel [continuing]. As to the new position he takes 
in New York.
    So, Mr. Chairman and my fellow committee members, I 
strongly, enthusiastically endorse Ambassador Khalilzad's 
nomination to be the next U.S. Ambassador to the United 
Nations, and enthusiastically recommend him to this committee.
    Thank you.
    Ambassador Khalilzad. Thank you.
    Senator Nelson. Senator Lieberman, we welcome you to the 
committee. Thank you very much for taking the time to offer 
your comments.

             STATEMENT OF HON. JOSEPH I. LIEBERMAN,
                 U.S. SENATOR FROM CONNECTICUT

    Senator Lieberman. Thank you very much, Mr. Chairman, 
Senator Lugar, members of the committee.
    It really is a great personal honor and privilege to join 
my friend and colleague Chuck Hagel in introducing Ambassador 
Zal Khalilzad to this committee and to urge the committee to 
favorably consider President Bush's nomination of Zal to be our 
Ambassador to the United Nations.
    It has been said that the American Ambassador to the United 
Nations is, in effect, America's Ambassador to the world. And I 
cannot think of anyone more qualified or more appropriate to 
serve in that role than Ambassador Khalilzad, because he 
represents the best of America. He is a true American-Dream 
success story. Born in Afghanistan, in the city of Mazar-i-
Sharif. When he finished 8th grade, his family moved to Kabul. 
By the 10th grade, so I hear from reliable sources, he was the 
top student in his class. I have not been able to personally 
verify that, but----[Laughter.]----I have it on pretty good 
source.
    He was given, as a result, a chance to be an exchange 
student in a small town in California, not far from Modesto. He 
went back home, and eventually enrolled in Kabul University. 
He, while there, attended a Fourth of July party at the home of 
the American Ambassador to Afghanistan, and was urged to take a 
test to enter the American University in Beirut. He claims that 
he did that partly as a prank, and intended not to go. He took 
the test, he was accepted, and completed his undergraduate 
education in Beirut, at the American University. He then went 
from there to pursue a doctorate in political science at the 
University of Chicago. Quite a remarkable story. Stayed in 
America, and became an American citizen in 1984, going on to 
serve with great distinction and effect. This is in the Reagan 
administration. Zal is no stranger to difficult assignments. 
While serving in the Reagan administration, he had an important 
role in American policy, both with regard to the Iran-Iraq war 
and with regard to the war going on in Afghanistan as a result 
of the Soviet invasion, and managed both with remarkable skill. 
He then spent some period of time at RAND, and then was called 
back into public service.
    Over the 5 years since the September 11 attacks, Ambassador 
Khalilzad has been, in my opinion, quite literally America's 
indispensable diplomat. In assignment after assignment, he has 
demonstrated that diplomacy is about more than just talk. It is 
about building personal relationships of trust that lead to 
concrete accomplishments that advance America's security and 
American ideals.
    I have heard it said very often that, in the struggle that 
we are involved in today in the world against Islamist 
extremism, ultimately our best weapon is America, is the 
American ideal, American values, the American way of life. And 
Zal, as a Muslim American, as an immigrant who came here, and, 
by virtue of his own extraordinary skills and hard work, has 
achieved such success, is the personalization of the best 
response to the challenge we face today, and, if I may also 
add, is a shining example of the increasingly important role 
that Muslim Americans are playing in all phases of American 
society.
    He has shown, in the words that Ben Bradley once used to 
described President Kennedy, ``special grace,'' which is to say 
courage under pressure and under fire, performing, as has been 
said, in two of the most difficult and most dangerous 
diplomatic assignments in the world today, in Kabul and in 
Baghdad. At the time of--at this time, in our country, of 
bipartisan divisions and disagreement over America's role in 
the world, Ambassador Khalilzad has won the respect and 
admiration of foreign policy doers and thinkers and politicians 
across the political spectrum. He is quite a remarkable human 
being, a great intellect, an informed sense of history, 
tremendous interpersonal skills, and on top of all that, a 
wonderful sense of humor, which, believe it or not, is 
occasionally necessary in the life of a diplomat.
    I just leave you with this impression that I share. The 
last time I was in Baghdad with a congressional delegation, we 
were honored at a dinner hosted by President Talibani. There 
are the dinner were representatives of all the various factions 
of Iraqi Government and political and societal life. And it was 
quite something to watch Zal, if I may use a term from our 
political world, as opposed to the diplomatic world, ``work the 
room.'' It was obvious that, not only did everybody know him, 
everybody trusted him, everybody liked him, everybody was glad 
to interact with him, as America's Ambassador, quite a 
remarkable range of talents that he will now bring to the 
United Nations. I hope that the President and the 
administration will keep Zal as he--when he goes to the U.N., 
at the center of the administration's foreign policy operation 
and occasionally, if I may respectfully offer some counsel, 
which I probably don't have to offer, call on him to perform 
special missions, because he has developed a range of personal 
contacts and trusting relationships around the world, and 
particularly in the most significant and combative parts of the 
world today, that I don't think any other American has.
    So, it is really a great honor, and with a sense of 
gratitude to Zal Khalilzad for all that he has contributed to 
our country, and a sense of confidence about all that he will 
contribute to America in the years ahead, that I proudly urge 
this committee to confirm him as our Ambassador to the United 
Nations.
    Thank you very much.
    Senator Nelson. Thanks to you, Senator Lieberman and 
Senator Hagel, for your personal comments.
    Mr. Ambassador, we have your statement. We will enter it as 
a part of the record. We would, of course, prefer that you give 
us a condensed version, so that we can get right to the 
questions. I understand you have a member of your family here, 
and I'd like you to introduce that member.
    Mr. Ambassador.

       STATEMENT OF HON. ZALMAY KHALILZAD, NOMINEE TO BE 
REPRESENTATIVE TO THE UNITED NATIONS, WITH THE RANK AND STATUS 
 OF AMBASSADOR, AND THE REPRESENTATIVE IN THE SECURITY COUNCIL 
OF THE UNITED NATIONS, AND TO BE REPRESENTATIVE TO THE SESSIONS 
OF THE GENERAL ASSEMBLY OF THE UNITED NATIONS DURING HIS TENURE 
       OF SERVICE AS REPRESENTATIVE TO THE UNITED NATIONS

    Ambassador Khalilzad. Thank you very much, Mr. Chairman, 
distinguished members. Good morning.
    I would like to introduce my older son, Alex. Alex is my 
joy and pride. He is a law student at Stanford, second year. 
Unfortunately, my wife, Cheryl, and my other son, Max, could 
not be here with us today. But I'm delighted that Alex could 
make it.
    Mr. Chairman and distinguished members, it's a great honor 
to come before you as the President's nominee to serve as the 
U.S. Permanent Representative to the United Nations. I want to 
thank the President for his confidence in nominating me for 
this mission. I wish to thank Secretary Rice, and look forward 
to continuing to work with her, should I be confirmed.
    I also want to take a moment to express my deep gratitude 
to the many great Americans, civilian and military, and 
coalition partners, who have served at all levels in our 
efforts in Afghanistan and Iraq. I have been inspired by them. 
I wish to honor their sacrifice, particularly of those who have 
been wounded or lost their lives.
    Finally, I wish to thank my wife, Cheryl, and my two sons, 
Alex and Max, for their love and support, as well as their 
patience during the past 4 years that I've spent abroad.
    Mr. Chairman, the United Nations is an important and 
valuable institution. It has been the most successful 
collective security body in history. Standing up to aggression 
in Korea in 1950, undertaking scores of peacekeeping 
operations, endorsing decisions--endorsing decisive action to 
liberate Kuwait in 1991, and supporting the toppling of the 
Taliban Government after the attacks of September 11. An 
effective United Nations is in America's interest.
    From my experience as U.S. Ambassador in Afghanistan, I 
personally know that the United Nations can make a profoundly 
positive impact if it has the right mandate and if it is 
properly employed. Our partnership with the United Nations 
supported the Afghans as they created an interim government at 
the Bonn Conference, convened two Loya Jirgas, adopted a sound 
and enlightened constitution, and held national elections for 
president and parliament. None of this was easy, yet all of it 
was under--all of it was made easier by working in partnership 
with the United Nations.
    Compared to its role in Afghanistan, where it ran the Bonn 
process to establish the new government, the United Nations 
played a more limited role in the political reconstitution of 
Iraq. Nevertheless, when I arrived as U.S. Ambassador, in 2005, 
I consulted with the U.N. Special Representative, starting 
during the drafting of the Iraqi constitution, and extending 
through the national elections in 2005, the formation of the 
Government of National Unity and the negotiations of key 
internal agreements on the path toward national reconciliation. 
I believe that changing circumstances are creating 
opportunities for the United Nations to play a larger role in 
contributing to progress in Iraq.
    At the same time, Mr. Chairman, the United Nations has 
limitations. When members of the Security Council cannot come 
to agreement, action is stymied or watered-down. The United 
Nations has struggled to cope with new realities that put 
respect for state sovereignty in tension with the imperative to 
address security threats emanating from failed states or 
transnational networks or the humanitarian consequences of 
massive violations of human rights by the governments on their 
own people. There has been a lack of appropriate dealings, with 
massive human rights violations, by the United Nations Human 
Rights Council. Also, the United Nations itself has had recent 
failures, including the Oil-for-Food scandal, instances of 
peacekeeping forces sexually abusing members of the local 
population that they are supposed to protect, and weaknesses in 
management and accountability.
    The challenge for the international community is to 
strengthen the United Nations in those areas where it has 
proven effective, and to address shortcomings in the areas 
where its performance has been poor. If confirmed, I will work 
with the representatives of other countries and the new 
Secretary General to increase the contributions of the United 
Nations, to addressing the central security issues of our time, 
and to make the U.N. itself a more effective institution 
through much-needed reforms.
    The United States, like all countries, faces the challenge 
of how best to make common cause with others in support of our 
goals. No one should doubt the legitimacy of U.S. decisions to 
act unilaterally when taken through our own democratic 
processes and in accordance with our rights under international 
law. Yet, collective action is often the preferable course to 
take, particularly to achieve burden sharing. Also, we can 
enhance the legitimacy of our actions in the eyes of others by 
enlisting friends and allies to work with us and/or by securing 
endorsement of our actions through the United Nations.
    Though events will drive a good deal of the work of the 
United Nations, I will place priority on five key issues, Mr. 
Chairman.
    First, increasing efforts to stabilize and strengthen 
Afghanistan, Iraq, and Lebanon as immediate objectives in the 
longer-term transformation of the broader Middle East, which is 
the defining challenge of our time.
    Second, achieving compliance with Security Council actions 
with respect to Iran's and North Korea's nuclear programs.
    Third, ending the massive humanitarian crisis in Darfur in 
order to save the lives of innocents and fulfill the commitment 
of the United States and the international community to a 
responsibility to protect peoples from atrocities and genocide.
    Fourth, strengthening the capability of the United Nations 
to undertake and manage peacekeeping operations effectively.
    And fifth, promoting effective approaches to address 
climate and clean energy objectives in a way that supports 
economic growth in the coming decades.
    If confirmed, I will pursue these objectives through two 
means. The first is through the formal channels of U.N. 
decision making. I believe that there is great scope for 
constructive, collaborative action through results-oriented 
partnership involving allies and other countries, as well as 
the U.N. Secretariat. I will explore ways to increase 
cooperation among the world's democracies through the Democracy 
Caucus. I will also reach out to friends, as well as encourage 
like-minded countries to reach out to their friends, in the 
Non-Aligned Movement and the Group of 77 to discuss how we 
might make common cause on issues of mutual importance.
    The second means to advance our national security goals 
with regard to these issues comes by the virtue of the presence 
of the representatives from around the world, a setting that 
enables extensive informal engagement in an opportunity that I 
will take advantage of to work selected key issues proactively.
    I would now like to turn to the issue of U.N. reform. If 
confirmed, one of my principal goals will be to promote 
effective, efficient, transparent, accountable, and ethical 
management of the United Nations. I wish to applaud the key 
role that members of this committee, as well as members of the 
House of Representatives, have played in identifying needed 
reforms and in supporting our mission at the United Nations as 
it pursues change. If confirmed, I look forward to working with 
you in pursuing further reform.
    It is vital for the U.S. taxpayers to have confidence that 
we are receiving value for the money we pay in dues and 
assessments. I believe that the United States should pay its 
dues in full and on time. However, unless the United Nations 
takes affirmative steps to overcome the legacy of corruption 
from the Oil-for-Food scandals, and improves its accountability 
and transparency, the U.N. will lose support among the American 
people. Reform is imperative.
    I am gratified that the Secretary General, Ban Ki-moon, has 
pledged to make U.N. reform its prime goal. We should support 
him to make the changes he believes are necessary. I look 
forward to working with him in partnership to advance an 
ambitious reform agenda.
    I will also, Mr. Chairman, take a fresh look at our 
mission, the USUN mission, and come back to you for assistance 
for the changes that might be needed to make our mission an 
effective partner in multilateral discussions and negotiations 
to advance our interests in the United Nations. If confirmed, 
I'll take an approach at the United Nations that's similar to 
the way I've worked in Kabul and subsequently in Baghdad. I'll 
focus sharply on the interests of the United States; at the 
same time, I am ready to engage, to listen, and to work with 
others in a cooperative spirit. I will pursue our goals by 
understanding the interests and the concerns of others and by 
working patiently and persistently and in common to find a way 
forward. I will be results-oriented, and I will give it my all.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Khalilzad follows:]

      Prepared Statement of Hon. Zalmay Khalilzad, Nominee to be 
   Representative to the United Nations, With the Rank and Status of 
   Ambassador, and the Representative in the Security Council of the 
United Nations, and to be Representative to the Sessions of the General 
    Assembly of the United Nations During His Tenure of Service as 
                  Representative to the United Nations

    Mr. Chairman, and distinguished members of the committee, it is a 
great honor to come before you as the President's nominee to serve as 
the U.S. Permanent Representative to the United Nations. I want to 
thank the President for his confidence in nominating me for this 
mission. I wish to thank Secretary Rice and look forward to continuing 
to work with her, should I be confirmed. I would like to express my 
appreciation to the leaders of Afghanistan and Iraq, with whom I have 
worked during the past 4 years in the pursuit of our common interests.
    I also want to take a moment to express my deep gratitude to the 
many great Americans, civilian and military, and coalition partners who 
have served at all levels in our efforts in Afghanistan and Iraq. I 
wish to honor their sacrifices, particularly of those who have lost 
their lives or have been wounded. I also want to recognize the 
sacrifices of their families, who have to endure long separations and 
the worries of having their loved ones deployed in dangerous 
circumstances.
    Finally, I wish to thank my wife, Cheryl, and my two sons, Alex and 
Max, for their support, as well as their patience, during the past 4 
years that I have spent abroad.
                  the vital role of the united nations
    The United Nations is an important and valuable institution. 
Historically, the challenge of creating an effective collective 
security organization has bedeviled mankind. The United Nations, which 
was a signal achievement in the great period of international 
institution building after the Second World War, stands as the most 
successful collective security body in history. No other such 
organization has been able to undertake peace enforcement actions 
comparable to the one in Korea in 1950, to lead scores of peacekeeping 
missions over the course of decades, to achieve consensus on endorsing 
such strong actions as the liberation of Kuwait in 1991 or the toppling 
of the Taliban regime in Afghanistan in 2001. In light of this record, 
I agree with the view of the Gingrich-Mitchell report that an effective 
United Nations is in America's interest. As one of the principal 
architects of the United Nations, the United States placed at the 
foundation of the U.N. certain fundamental purposes and values--
preserving peace, promoting progress, and advocacy of human rights. It 
is therefore vital for the United States to enable this institution to 
make the greatest possible contribution to advance those founding 
objectives.
    From my experiences as U.S. Ambassador in Afghanistan, I personally 
know that the United Nations can make a profoundly positive impact if 
it has the right mandate and if it is properly employed. I worked 
closely with the U.N. Special Representative for Afghanistan, Lakhdar 
Brahimi, and his successor, Jean Arnault. We continuously consulted and 
worked out common approaches as we advanced an ambitious agenda, with 
the United Nations supporting our interests in stabilizing Afghanistan 
and helping Afghans set out on a path toward democracy. Our partnership 
supported the Afghans as they created an interim government at the Bonn 
Conference, convened two Loya Jirgas, adopted a sound and enlightened 
constitution, and held national elections for president and parliament. 
We worked with the Afghan Government on such key steps as the disarming 
and reintegrating of militias. The United Nations played a central role 
in enabling the return of millions of Afghans to their homeland in what 
has become the largest voluntary repatriation of refugees in history. 
It also helped Afghans establish a human rights commission. None of 
this was easy. Yet, all of it was made easier by working in partnership 
with the United Nations.
    In Iraq, the United Nations played a more limited role, due to the 
history of the United Nations and the Iraq issue--rooted in 
disagreements among the members of the Security Council--and the 
resulting narrow mandate for U.N. operations in Iraq. Nevertheless, 
when I arrived as U.S. Ambassador in 2005, I frequently consulted with 
the U.N. Special Representative, Ashraf Qazi, starting during the 
drafting of the Iraqi constitution and extending through the national 
election in 2005, the formation of the government of national unity, 
and the negotiation of key internal agreements on the path toward 
national reconciliation. Tomorrow, the Iraqi Government and the United 
Nations will take another step toward concluding the International 
Compact for Iraq, an agreement under which Iraq commits itself to key 
reforms and international donors commit to needed support. I believe 
that changing circumstances are creating opportunities for the United 
Nations to play a larger role in contributing to progress in Iraq.
    At the same time, the United Nations has limitations, resulting 
from the nature of the U.N. Charter, the failure of the members of the 
Security Council to come to agreements on all issues, and the 
unwillingness or inability of the U.N. system to confront the problems 
of corruption and inefficiency. When members of the Security Council 
cannot come to agreement, action is stymied or watered down. The 
organization, formed at a time when direct aggression was the principal 
security concern, has not always found effective means to deal with 
aggression undertaken through insurgency or terrorism. It has also 
struggled to cope with new realities that put respect for state 
sovereignty in tension with the imperative to address security threats 
emanating from failed states or transnational networks or the 
humanitarian consequences of massive violations of human rights 
inflicted by governments on their own peoples. The U.N.'s actions have 
sometimes been driven by coalitions with a myopic focus on a single 
issue or applying double-standards in judging the actions of states, 
particularly in the area of human rights. Also, the United Nations 
itself has had recent internal failures, including the Oil-for-Food 
scandal, instances of peacekeeping forces sexually abusing members of 
the local populations that they are supposed to protect, and weaknesses 
in management and accountability.
    The challenge for the international community is to strengthen the 
United Nations in those areas where it has proven effective and to 
address the shortcomings in areas where its performance has been poor. 
If confirmed, I will put the weight of U.S. influence toward this end. 
Working with the representatives of other countries and the Secretary 
General, I will seek to increase the contribution of the United Nations 
to addressing the central security issues of our times and to make the 
U.N. itself a more effective institution through needed reforms.
    effectively advancing u.s. objectives through the united nations
    The United States, like all countries, faces the challenge of how 
best to make common cause with others in support of our goals. No one 
should doubt the legitimacy of U.S. decisions to act unilaterally, when 
taken through our own democratic processes and in accordance with our 
rights under international law. Yet, collective action is often the 
preferable course to take. Some problems cannot be solved alone. Others 
are too costly to solve alone. In still other cases, when we could act 
alone, we can take advantage of the possibility for burden sharing. 
Also, we can enhance the legitimacy of our actions in the eyes of 
others by enlisting friends and allies to work with us. We can 
strengthen this legitimacy still further if decisions taken through the 
United Nations endorse our actions.
    Though events will drive a good deal of the work of the United 
Nations, I will place priority on several political and security 
issues:

  <bullet> Increasing efforts to stabilize and strengthen Afghanistan, 
        Iraq, and Lebanon as immediate objectives in the transformation 
        of the Middle East, which is the defining challenge of our 
        time.
  <bullet> Achieving Iran's compliance with Security Council and IAEA 
        requirements regarding its nuclear programs and supporting 
        international efforts to achieve the complete, verifiable, and 
        irreversible abandonment by North Korea of its nuclear 
        programs, thereby preventing the spread of dangerous weapons 
        and associated technologies to other state or non-state actors.
  <bullet> Ending the massive humanitarian crisis in Darfur in order 
        not only to save the lives of innocents but also to fulfill the 
        commitment of the United States and the international community 
        to a ``responsibility to protect'' peoples from large-scale 
        atrocities and genocide.
  <bullet> Strengthening the capability of the United Nations to 
        undertake and manage peacekeeping operations effectively.
  <bullet> Refocusing the U.N. commitment to human rights--one of its 
        core precepts enshrined in the Universal Declaration of Human 
        Rights--to address the most egregious cases of human rights 
        violations.
  <bullet> Promoting effective approaches to address climate and clean 
        energy objectives in a way that supports economic growth in the 
        coming decades.

    If confirmed, I will pursue these objectives through two means. The 
first is through the formal channels of U.N. decision making in the 
Security Council and other fora. I believe that there is great scope 
for constructive, collaborative action through results-oriented 
partnership, involving allies and other countries as well as the U.N. 
Secretariat. I will also explore the possibilities of new ways of 
working within the United Nations. The world's democracies could 
increase their influence if they work more closely together through the 
Democracy Caucus. I will engage those democratic countries that see 
promise in this approach and develop with their representatives a 
common agenda and political strategy to achieve our shared goals. I 
will also reach out to friends, as well as encourage like-minded 
countries to reach out to their friends, in the Non-Aligned Movement 
and the Group of 77 to discuss how we might make common cause on issues 
of mutual importance. Finding new ways of working with the countries in 
these blocs will be a priority during my tenure.
    The second means to advance our national security goals with regard 
to these issues comes by virtue of the presence of representatives from 
around the world--a setting that enables extensive informal engagement 
and that represents an opportunity that I will take advantage of to 
work selected key issues proactively. Because most countries send 
senior representatives who have substantial authority to transact 
business, we can engage in discussions at the United Nations in ways 
that the obstacles of time and distance make more difficult in other 
channels, particularly when resolving issues requires regional 
approaches. I will seize the opportunity inherent in the setting of the 
U.N. to explore how we might make progress on these issues.
        increasing the effectiveness of the u.n. through reform
    As we discuss the need for reform, it is important to recognize 
that many organizations and agencies within the United Nations system 
carry out vital work and produce results. U.N. vaccination programs 
have helped to stem the spread of diseases such as polio and measles. 
The World Health Program led the global effort to eradicate smallpox, 
helped contain SARS, and focused early on the threat of a human 
pandemic of avian flu. The World Food Program is at the forefront of 
combating hunger and malnutrition and was instrumental in providing 
relief supplies to millions of victims of the Indian Ocean tsunami and 
the earthquakes that have recently struck South Asia. In Darfur, U.N. 
agencies are providing food, water, shelter, and healthcare. The U.N. 
Democracy Fund has made a promising start in supporting democracy 
promotion and civic society organizations.
    At the same time, we should recognize that every organization needs 
to adapt in response to a dynamic environment. This typically requires 
adjustments to ensure that the organization maintains mastery of its 
core business, which involves defining the mission in the right way and 
keeping a sharp focus on performance. It also means ensuring that the 
organization has the right means to achieve its mission, particularly 
in terms of personnel, management practices, decision making processes, 
and creating an appropriate balance between ends and means. Only then 
can an organization produce the expected results and use resources in 
the most efficient possible manner. In this regard, the United Nations 
is no exception: It needs to evolve in order to keep its focus on the 
most pressing challenges and to reform internally to improve its 
efficiency and effectiveness.
    Adapting to a changing environment. The world has changed 
tremendously since the founding of the United Nations. While the core 
mission continues to be security, the nature of the principal security 
challenges has changed. Today's threats emanate less from the risk of 
wars among the great powers but rather from instability in the Middle 
East, the proliferation of weapons of mass destruction, the 
consequences of state failure, and the rise of non-state actors. Though 
the United Nations has made significant adaptations to meet these 
challenges, its evolution must continue to ensure its relevance to the 
most pressing challenges of the day. In terms of structural change, the 
United States is open-minded about considering adjustments in U.N. 
structures to ensure that these reflect current realities, particularly 
in terms of the distribution of effective power.
    Reforming internal processes. If confirmed, one of my principal 
goals will be to promote effective, efficient, transparent, 
accountable, and ethical management of the United Nations. In preparing 
for this appointment, I have read many well-documented and -reasoned 
critiques of the United Nations. These highlighted problems in its 
personnel system, ethics and internal oversight, management structure, 
mission as expressed in mandates, and professionalism and discipline in 
the area of peacekeeping. I wish to applaud the key role that members 
of this committee, as well as members of the House of Representatives, 
have played in identifying needed reforms and in supporting our mission 
at the U.N. as it pursued change. If I am confirmed, I look forward to 
working with you in pursuing further reform.
    It is vital for the U.S. taxpayer to have confidence that we are 
receiving value for the money we pay in dues and assessments. I believe 
that the United States should pay its dues in full and on time. 
However, unless the United Nations takes affirmative steps to overcome 
the legacy of corruption from the Oil-for-Food scandals and improves 
its accountability and transparency, the U.N. will lose support among 
the American people. In turn, this will understandably erode their 
willingness to remain one of the principal funders of the organization. 
Reform is imperative.
    The optimal approach, in my view, is to focus on two or three 
discrete but meaningful reforms, build consensus for these changes, and 
implement them before moving on to the next ones, rather than to pursue 
a long list of major changes all at once. If confirmed, I would seek to 
consult with interested members of this committee with respect to the 
best starting point and would continue to seek your advice as we 
proceed. In this sense, reform should be viewed as a continuing, 
rolling process, not an action taken at a single point in time.
    My initial thinking is that we should select our first priorities 
for action from the following areas:

  <bullet> Ensuring that professional merit is the standard by which 
        candidates are chosen within the personnel selection processes, 
        while continuing to ensure geographic diversity;
  <bullet> Strengthening ethics rules and oversight to root out and 
        deter corruption and to establish accountability and 
        transparency;
  <bullet> Bringing U.N. management practices up to modern standards, 
        particularly in terms of structuring decision making, strategic 
        planning, and measuring and assessing performance;
  <bullet> Streamlining U.N. mandates to focus the organization on its 
        core missions and to avoid diffusion of effort and resources; 
        and
  <bullet> Strengthening professionalism and discipline in U.N. 
        peacekeeping forces, particularly by building on the 
        preliminary steps taken over the past 2 years to eliminate the 
        sexual abuse of members of local populations by soldiers 
        serving in those forces.

    I am gratified that Secretary General Ban Ki-Moon has pledged to 
make U.N. reform his prime goal. He has made welcome initial 
statements, including his willingness to make a personal financial 
disclosure and his intent to authorize an external audit of U.N. funds 
and programs. He will have a particularly good chance to follow up on 
these statements with strong actions during the first months of his 
tenure. We should support him to make the changes he believes are 
necessary. I look forward to working in partnership to advance an 
ambitious reform agenda.
    If confirmed, I will engage like-minded countries to develop 
political strategies that will achieve results. We should examine the 
lessons, or underlying logic, behind the successful performance of many 
U.N. agencies and explore how these might be carried over in other 
areas. We should examine the reasons motivating some countries to 
oppose needed changes and explore ways that their legitimate interests 
can be addressed in the context of reform. Progress will require 
persistent efforts at persuasion and coalition-building, as well as a 
willingness to bargain for incremental steps.
    The question will inevitably arise about whether and how we should 
use the leverage we have as a major contributor to the U.N. budget. 
There is a tension here. On the one hand, there are missions that we 
wish the U.N. to perform, which means that paying our dues is not only 
our obligation but in our interest. On the other hand, we cannot be 
indifferent to a failure to step up to needed reforms. This is 
particularly true because the support of the American people for 
funding the U.N. will diminish unless changes take place. If confirmed, 
I will work with Congress to examine how we can best use our leverage, 
financial and otherwise. I will also work to find the right balance 
between supporting U.N. activities through assessed and voluntary 
contributions.
            increasing the effectiveness of the u.s. mission
    If I am confirmed, I will take a fresh look at how we conduct 
business at the U.S. Mission to the United Nations--how well we are 
organized to engage in multilateral diplomacy, what priorities we have 
set, whether we are attracting the most talented personnel, and other 
issues. I will ensure that we are setting clear goals, prioritizing 
among them, developing realistic strategies, and funding those 
strategies adequately. I may need the help of the committee, as well as 
your counterparts in the House of Representatives, to take steps that 
make service at the United Nations more attractive, thus ensuring that 
we get the best possible personnel for the mission.
    If confirmed, I will take an approach at the United Nations that is 
similar to the way I worked in Kabul and Baghdad. I will focus sharply 
on the interests of the United States. At the same time, I am ready to 
engage, to listen, and to work with others in a cooperative spirit. I 
will pursue our goals by understanding the interests and concerns of 
others and by working patiently and persistently--and in common--to 
find a way forward. I am hopeful that this approach can also produce 
results at the U.N.
    If confirmed, I will work hard to advance the values of the 
American people. In my previous assignments, I have found that while 
cultures differ, people around the world yearn for certain universal 
values. I will seek to advance an agenda to promote those common 
interests--a world in which we can take collective action against 
threats to security, in which freedom and democracy are expanding, in 
which the rule of law becomes more widespread, and in which all nations 
enjoy economic prosperity. I will seek to make the United Nations as 
effective as possible in this mission. I will be results-oriented and 
give it my all.

    Senator Nelson. Thank you, Mr. Ambassador.
    As a courtesy to my colleagues, I will defer my questions 
until the end.
    Senator Kerry. Mr. Chairman, could I just--I can't--I 
don't--I'm not able to stay and ask any questions. Could I just 
have 60 seconds?
    Senator Nelson. Of course.
    Senator Kerry. I appreciate it.
    I just wanted to welcome Ambassador Khalilzad. I wanted to 
thank him and congratulate him on his service in two, now, of 
the toughest posts in the diplomatic service. And, while I 
can't stay to ask questions, I appreciate the time he took to 
come and visit personally. I think he is going to be a terrific 
representative of our country at the United Nations. For all of 
us who have traveled to Iraq, and it's most of the people on 
this committee, I'm confident my colleagues have had the same 
experience I've had. He was always direct, up front, candid 
about the difficulties, honest about his assessments. And I 
think that's exactly what we need in the Diplomatic Corps in 
our representatives abroad. So, I'm very grateful to you for 
that.
    Yet, while we disagreed, in many cases, on policies that 
you have to implement, I think you did a very skilled and able 
job of carrying out those policies, and we look forward to 
working with you at the United Nations. And I thank you for 
your service, sir.
    Ambassador Khalilzad. Thank you, Senator. I very much 
appreciate that.
    Senator Nelson. Let's do 7 minutes in the first round.
    Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman.
    Ambassador, I want to ask you to discuss what is reasonable 
to expect that the U.N. can do in playing a role in Iraq, 
Afghanistan--and as you have mentioned, also, the importance of 
the U.N. in Lebanon? And, although the Security Council is 
still wrestling with Darfur, that seems to be on the horizon. 
Four extraordinarily difficult situations in which the U.N., 
for a variety of reasons, has not been a major factor, although 
you, from your experience, could probably illuminate the role 
that it's played, and you--give credit to that. But just 
following along your term, ``results-oriented partnership,'' 
and you will be engaged with the members of a Security Council, 
the Group of 77, with others. One of the great hopes, I think, 
of all of us for your ambassadorship is your unique experience 
as our Ambassador in Afghanistan, and Iraq, most recently--but, 
likewise, the engagement that you have had in thoughts about 
Lebanon and the rest of the Middle East, and, increasingly, as 
we take a look at Africa--that your diplomacy here may fulfill 
numerous roles. As has been suggested, we already have you out 
doing special diplomacy, well beyond this ambassadorship, 
simply because of your unique qualifications.
    Now, having said all of that, I added, in my opening 
comment, that our Government, at least initially, appears to be 
calling for less money for the peacekeeping budget, at the very 
moment that we're discussing with you how the United Nations 
might become more successfully engaged. The peacekeeping budget 
also then raises the question, once again, of how rapidly we 
pay our bills to the U.N., what kinds of disputes you have 
behind the scenes among others who you're calling upon to 
become engaged in ways they have not been, multilaterally, and 
their suggestion that it would be very helpful if, in fact, we 
paid on time, or we paid more. And that, of course, intersects 
in the business of management. But I'll not go into that, for 
the moment. I think the American people would also like to know 
if more nations would be involved in the stability of Iraq and 
Afghanistan and likewise in Lebanon and Darfur. While you're 
trying to get to that situation, what kind of budget support 
are you going to require? And if you want budget support, are 
you prepared to come to us, to help as advocates of this? In 
other words, how, within the administration, can you make these 
foreign policy goals real, but, at the same time, have the 
resources to be convincing with your colleagues?
    Ambassador Khalilzad. Well, thank you very much, Mr. 
Chairman.
    First, with regard to resources, I believe that in order to 
be successful, not only we need to have clear goals, not only 
we need to have a strategy, and not only we need to have a 
plan, but we need the resources to be able to be successful. 
And with regard to the United Nations peacekeeping operations 
that you mentioned, we vote for those. Without our support, 
affirmative support, they cannot go forward, given our role in 
the Security Council. So, therefore, I believe that we ought to 
take a close look at each of the proposed--looking to the 
future--peacekeeping operations, making sure that the goals are 
clear, that the--there is a good strategy, there is a good 
plan, that the tasks that need to be performed are clearly 
identified, and then that there is a good relationship between 
the means and the end. And I believe that we want--we should 
pay our fair share of that.
    And, therefore, I favor the removal of the cap, of the 25-
percent cap that has been imposed, and I favor asking for the 
resources by the administration in relation to those 
peacekeeping operations, since we have supported them.
    So, I will be careful about selection of the operations. 
I'll be careful about how the plans are being put together. But 
I also, once we support that, I'll be an advocate for the 
resources that are needed.
    Now, with regard to Iraq--of the other issues that you 
mentioned, I will comment on Iraq--I think there is great 
opportunity for the U.N. to do more. I want to point out that 
tomorrow the United Nations is hosting a meeting, along with 
the Iraqi Government, of the Iraqi International Compact, 
bringing people--countries together to move forward with the 
International Compact, where the Iraqis are committed--
committing themselves to a set of reforms on the economic, 
political, and security track in exchange for support from the 
international community. I applaud the U.N. for that.
    But I think they could do more, in the coming weeks and 
months, with regard to the constitution. There was an agreement 
on a frontloaded amendment process. The U.N., based on its 
experience in Afghanistan and elsewhere, can bring Iraqis 
together. They need to make progress on the constitution to 
make that constitution a true national compact for success in 
Iraq. And the U.N. is, I think, the right instrument to assist 
with that. They are already involved. I think they could do 
more. They can do more on the issue of the local elections. 
They can do more with regard to dealing with militias. They 
have a lot of experience. I worked with them in Afghanistan in 
a decommissioning demobilization and reintegration program 
there. They can also, with the agreement of others, play an 
important role in the area of Kirkuk, which is an important 
issue, and the constitution recognizes a potential role.
    So, I believe the circumstances are moving in the direction 
where they can play an important role. And, if I have the 
opportunity, I will comment on some of the other issues that 
you raised, Mr. Chairman.
    Senator Lugar. Well, thank you very much. My time is 
consumed, but I just thank you for your answer, because, in my 
illustration at the beginning, we're paying about one-eighth of 
the cost of Haiti. If we did not have international partners, 
it would be eight-eighths, $700 million more. Now, that's--
could be applied again and again in these basic situations. And 
the burdens upon our taxpayers, if we are involved in a 
unilateral situation, are going to be exorbitant. And to the 
extent to that your diplomacy is able to bring others to help 
us, that could be a significant difference.
    Thank you very much.
    Senator Nelson. Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Mr. Ambassador, as you know, this is an enormously busy 
time in the Congress right now, and many of us do have other 
hearings we have to go to, but I wanted to make sure that I was 
present here to convey my congratulations to you for this 
appointment, and my appreciation for all the service that you 
have given. You're truly a national asset, with your background 
and with the positions that you've held.
    I was also really gratified to hear your comments about 
your commitment to bringing a more positive tone to our 
representation at the United Nations, and also the way that you 
described your approach to advancing national security goals 
through constructive, cooperative acts, along with other 
national leaders. Given your two positions, one thing that 
occurred to me as you were talking was the difference in the 
diplomatic approaches that have been taken immediately after 
the invasion of Afghanistan, as opposed to Iraq. In 
Afghanistan, we did convene regional consortia, including the 
participation of Iran; but we postponed this for quite some 
time, in the Iraqi situation. And mindful of your experience in 
both areas, and also that we did make what I was gratified to 
see as some of the first efforts with respect to dialog, 
bringing in Iran and Syria in this conference last week in 
Baghdad, how you see the difference in approaches that we made, 
and what your thoughts are about the follow-on to the 
conference that took place last week.
    Ambassador Khalilzad. Well, thank you, Senator. I 
appreciate what you said about me.
    With regard to the two approaches, in the case of 
Afghanistan, as you know--and I was involved right from the 
beginning--after the overthrow of the Taliban, we supported the 
effort to form a government, an Afghan Government, immediately. 
And I was there, in Bonn, and worked closely with the U.N. 
Representative to bring the various Afghan factions together, 
as well as interested countries with influence and concern with 
regard to Afghanistan. And within a couple of weeks of that--
convening that meeting in Bonn, we succeeded--the Afghans 
succeeded, with our support, to form an interim government led 
by President Karzai. And I think the Afghans selected well. 
President Karzai played a--and continues to play--a very 
important role in unifying Afghanistan, and at representing 
Afghanistan well. And so, that was the approach that was taken.
    With regard to Iraq, I was involved there at the beginning, 
as well, and I convened a set of meetings in London, in Salah 
al-Din, in Iraq, and then in--right after our forces went to 
Baghdad and Iraq, arranged for meetings in Nazariah, and then 
in Baghdad. But then, of course, a decision was made that, 
rather than going for an interim government form, to go for an 
alternative model, declaring our presence/occupation, and 
sending Ambassador Bremer as the CPA, Coalition Provisional 
Authority; in effect, us becoming the government for a period, 
making decisions. So, that was a different model, and I was 
then, before--when Ambassador Bremer was appointed, I was sent 
as--nominated to go to Afghanistan as Ambassador, since I was 
heavily engaged in the--with the effort there, as well.
    With regard to the conference that we had a few days ago, 
and I participated in that, it was a good conference, from my 
perspective, as a conference, with the Permanent 5, neighbors, 
U.N. And three committees were formed, as you know, working 
groups to prepare for a ministerial meeting. We have concerns 
with regard to the behavior of some of the neighbors. We'll 
have to see, on the ground, what happens. I was frank with 
regard to our concerns. But I believe that a combination of 
pressure with regard to issues of concern, with an openness to 
engage, with the intent to change behavior, to affect behavior, 
is the right mix, and those two elements of pressure and 
engagement don't have to be equal in weight. They can vary, 
depending on the circumstances that is available. But I believe 
those are among--in the toolbox of diplomacy, and we need to 
have as many tools as we can have, so I believe that engagement 
is one tool. And, as I said, doesn't have to be tools to other 
tools, but it can be--I don't think it needs to be taken off 
the table.
    Senator Webb. Well, I would agree with you that engagement 
is one tool, but I would also venture that, in that particular 
situation, you can have a lot of tools in your toolbox, but if 
you don't have that one, we are never going to have harmony in 
that region, and we're never going to get our combat troops out 
of Iraq. It's sort of the ultimate tool, in my opinion.
    I'm running out of time. I want to wish you the best. And I 
hope that we can, in fact, have the right kind of cooperative 
and harmonious relationships in the United Nations from this 
point forward that are equal to the way that our reputation has 
historically been around the world.
    Thank you very much, and good luck.
    Ambassador Khalilzad. Thank you, Senator.
    Senator Nelson. Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    And, again, Mr. Ambassador, welcome. I have expressed 
myself, earlier, on my feelings about your nomination, and 
about your service to our country, and my enthusiastic support 
of this nomination, and thank you again.
    I'd like to pursue the line of conversation you were having 
with Senator Webb on the regional security conference last 
week. What can you tell the committee specifically about 
interaction that you, representatives of our Government--
Ambassador Satterfield, anyone else who represented us at that 
conference--interaction with Iran and Syria?
    Ambassador Khalilzad. Thank you, Senator Hagel.
    We did have across-the-table discussions on issues, the 
agenda of the conference, with the Iranian representatives. We 
did shake hand and had short conversation with them, in--
conversation of a general nature. We did--there were groups of 
representatives at informal discussions when there was a 
disagreement on the issue of the next set of meetings that--the 
language of the final statement, or the Chairman's statement, 
we--the Iranians were there, as well as our representatives, 
myself and others, saying, ``What about this?'' kind of 
considering different options. So, my overall comment is that, 
as a meeting--as far as a meeting goes, a first meeting, it was 
a good first step.
    But I want to emphasize that, while this was a good first 
step, what we will be looking for is--in terms of the impact of 
the conference and subsequent meetings, is the impact on the 
ground. Will they stop supplying EFPs to Iraqis, extremists who 
use those against our forces? Will they stop supporting 
militias, training them, providing them with resources? Will 
they encourage the groups that they have influence over towards 
reconciliation? Those will be the kind of indicators that I 
would look to, in terms of the real impact.
    But, I think, at the meeting, I think, it was a good first 
step.
    Senator Hagel. Thank you.
    Where do we go from here with Iran and Syria, as to the 
follow-on from that conference? Are we looking at bilateral 
follow-on meetings? I know we are looking at a ministerial 
level, a follow-on conference, which, if you have some 
specifics on where we are on that, we would welcome that 
information. But I'm particularly interested in where we go 
now, in context of Syria and Iran.
    Ambassador Khalilzad. Well, with regard to Iran, as you 
know, Senator, the President granted me the authority that I 
had in Afghanistan last year, which is to engage Iran in 
discussions bilaterally in the presence of, perhaps, Iraqis, if 
we thought it was going to be useful to advance the agenda for 
success in Iraq. And we are open-minded on that issue. If we 
think it would be useful, we're willing to consider that.
    With regard to the conference itself, the next step is the 
ministerial meeting, in a formal sense. But there will be 
preparatory steps before the ministerial conference, in terms 
of the meetings of the working groups to prepare for issues--
with regard to security, borders, with regard to energy, oil 
and electricity, with regard to refugees--for the ministers, so 
there will be discussions among the neighbors and--who are the 
statutory members, if you like, of this group, and we could get 
invited to participate in those by them. But the next step is 
the working groups.
    Senator Hagel. What about Syria?
    Ambassador Khalilzad. Well, on Syria, we did talk with 
them, as well.
    Senator Hagel. Did they indicate that they had interest in 
a follow-on or a follow-up----
    Ambassador Khalilzad. They did express--they did express--
of course, they're a member of the regional grouping--they did 
express an interest, should we be interested, in a bilateral 
set of discussions, as well.
    Senator Hagel. And are we?
    Ambassador Khalilzad. Well, that--I have not had an 
opportunity to discuss this issue with the President and with 
the Secretary of State. I mentioned the issue of Iran, because 
that is an issue that was dealt with last year, when I asked 
for the authority, and that authority has been there.
    Senator Hagel. Do you believe it's important that we see 
the--whether it's bilateral or multilateral--engagement in a 
complete arc, a comprehensive arc, of interests in Syria, Iran, 
the regional concept, when we are talking about Iraq?
    Ambassador Khalilzad. Well, yeah, I--I know the Secretary 
of State----
    Senator Hagel. Which would include Syria.
    Ambassador Khalilzad [continuing]. And the President 
approved this regional engagement in the follow-up to the 
Hamilton-Baker recommendations to do this regional conference 
with P5, plus, now, in the next one, the possibility of adding 
some--the G-8 countries to it, as well, and to engage with 
neighbors, other regional countries, other P5 countries, U.N., 
and G-8, with regard to helping Iraq succeed.
    Senator Hagel. But you're saying that that would include 
the Syrian area and Iran----
    Ambassador Khalilzad. Yes, they are----
    Senator Hagel [continuing]. Relationship.
    Ambassador Khalilzad [continuing]. If you like, statutory 
members of the regional--the neighbors group. Yes, Mr. Hagel.
    Senator Hagel. Okay. If you wouldn't mind--and I know you 
are going to be focusing on other interests, but, for the time 
being, as we all know, you're still our Ambassador to Iraq, and 
you have a most capable successor coming behind you--but if it 
would be--if it would be important to you--and I think it is to 
the committee--if you could provide the committee an answer to 
the question on where we are with follow-up on Syria, 
especially in regard to my particular question, ``Did the 
Syrians ask us for bilaterals for follow-ups?'' And you 
mentioned you had not yet had an opportunity to visit with the 
President on this. But we would appreciate a follow-up, when 
you have that.
    Ambassador Khalilzad. Yes, sir. But I can tell you right 
now that they did express an interest in a bilateral, should we 
be interested.
    Senator Hagel. No, I----
    Ambassador Khalilzad. I can say that.
    Senator Hagel [continuing]. But I'm interested in what our 
response is.
    Ambassador Khalilzad. Right. Yes, sir. Yes, Senator.
    Senator Hagel. Thank you.
    Senator Nelson. When was that talk with Syria that you just 
mentioned to Senator Hagel?
    Ambassador Khalilzad. This was on Saturday, last Saturday, 
Senator, in Baghdad, in a--the conference that was at the 
initiative of the Iraqis, inviting the neighbors, plus regional 
countries. The reason I say ``regional,'' because Egypt was 
also there, and, as you know, Egypt is not an immediate 
neighbor. And Bahrain was also there, and Bahrain is not an 
immediate neighbor. So--and the Permanent 5--permanent members 
of the Security Council and the United Nations, and the 
Organization of the Islamic Conference, they were all there. 
And, in that context, the discussions involving us and others, 
including Syria and Iran, took place with regard to helping 
Iraq succeed. And the three committees that I mentioned were 
agreed to working groups on those three issues that I 
mentioned.
    Senator Nelson. Was that the first time that you or your 
office had had contact with Syria?
    Ambassador Khalilzad. With regard to Iraq, since I've been 
Ambassador to Iraq, in a--in Baghdad, yes, that is--that's 
right.
    Senator Nelson. Senator Coleman.
    Senator Coleman. Thank you very much, Mr. Chairman.
    First, I want to applaud the President for offering this 
nomination. Ambassador, you have provided this country with 
tremendous service, skilled service. You have a unique ability 
to generate, I think, kind of, the highest level of credibility 
for America in dealing with a very tough region. And I've 
watched you in action in Baghdad, and I've been with you at the 
United Nations. And I've--strongly support this nomination and 
look forward to working with you when you are confirmed.
    I have three areas, during the short time I have, that I 
want to touch upon. One is U.N. reform, which--I think the 
steam has gone out of that. Second has been Darfur, in which 
the U.N. has been rather toothless in the face of genocide, and 
we need to move forward more aggressively. And third is the 
question of Iran and how we deal with that.
    Both at the U.N., and perhaps in addition to the U.N., are 
there other, kind of, layers or avenues in which we can deal 
with the Iranian situation? You mentioned, for instance, Egypt 
being at the conference. Clearly, a number of the Sunni 
countries in the region have as deep a concern about Iran's 
hegemony and their activities as we do, as anyone else does. 
And so, in addition to the United Nations, are there other 
avenues?
    Let me just touch upon the U.N. reform. First, I appreciate 
your strong statement in--opening statement, where you said, 
``Unless the United Nations takes affirmative steps to overcome 
the legacy of corruption from the Oil-for-Food scandals and 
improve its accountability and transparency, the U.N. will lose 
support among the American people. In turn, this will 
understandably erode their willingness to remain one of the 
principal funders of the organization. Reform is imperative.'' 
Yet reform doesn't seem to be happening. The Secretary General 
has stepped forward, but the G77 does not--at this point, is 
clearly not committed to reform. So, when you have an 
organization structurally which has that one country, one vote, 
but G77 has great power, and they have consistently resisted a 
vote that Secretary General Annan's as well as Secretary 
General Ban's efforts to reform, can you move them forward 
without the hammer of funding? And, second--two questions--
should we be clear about the hammer of funding, to say what you 
just said, so that the G77 understands that, whether it's us or 
the Brits or others, that unless reform takes place, there are 
going to be consequences?
    Ambassador Khalilzad. Well, first, Senator, I will work 
very hard with the Secretary General, who--as the new Secretary 
General has an opportunity to persuade members, this period of 
honeymoon and--it could be--it should be, in my view, used to 
advance the reform agenda. Two, I will work with the like-
minded nations, especially the democratic allies, the 
democratic Caucus, to see how we can work together to influence 
the Group of 77, and work with friends within the Group of 77--
not only our friends, but friends of the other democracies--to 
use their influence, as well as the Secretary General, to 
advance the agenda of reform. I believe absence of reform is a 
mortal threat to the United Nations, and United Nations is a 
common interest to all of its members. I believe that the issue 
of funding, based on analysis, facts of the situation with 
regard to the American people, if there is no reform, the 
attitude could change in a way that will make funding 
increasingly difficult, and that's not in the interest of the 
institution. And, therefore, I believe the issue of funding had 
to be on the table, but it has to be, in my judgment, a kind of 
last resort, to--but the reality of the connection between 
reform and funding is a reality that I will be pointing to and 
making use of in my interactions with others. But, as I said, 
this is something that I would look at as a kind of a last-
resort issue.
    Senator Coleman. Well, I agree with the ranking member, of 
the cost-effectiveness of U.N. peacekeeping. We need 
multilateral support. The U.N. should be a forum for doing 
that, but----
    Ambassador Khalilzad. Right.
    Senator Coleman [continuing]. We haven't done anything, and 
mandate review----
    Ambassador Khalilzad. Right.
    Senator Coleman [continuing]. A thousand U.N. mandates, and 
move forward on that----
    Ambassador Khalilzad. Right.
    Senator Coleman [continuing]. Oversight accountability, 
procurement----
    Ambassador Khalilzad. Sure.
    Senator Coleman [continuing]. You've got a full plate, 
Ambassador.
    Ambassador Khalilzad. Sure. May I say something?
    Senator Coleman. Please.
    Ambassador Khalilzad. I'm sorry to interrupt. But I do 
think that, while quite a long list of reforms have been 
identified, I also will do one other thing. And I will be very 
much in touch with you, Senator, in particular, on this issue. 
If we could choose two or three to go after first, and, having 
accomplished those, then to agree to another two or three that 
we ought to go after, might also be useful as part of our 
approach to advance the reform agenda. Sorry to interrupt you.
    Senator Coleman. No, I appreciate it. And I do believe, by 
the way, Secretary Ban is a breath of fresh air. And I'm 
hopeful that his intentions can be converted into action.
    Short time left. Talk to me about Darfur. It is very 
frustrating. Genocide is going on. We've said that. The 
Secretary of State has said that. And the U.N. seems incapable 
of overcoming Darfur--Sudan's resistance. Can we get something 
done? What's it going to take?
    Ambassador Khalilzad. Well, it may take other--additional 
more coercive measures, vis-a-vis the Government in Khartoum, 
to get it to cooperate. I think it is unacceptable, the 
position that government has taken, the back-and-forth with 
regard to it's commitment to cooperate. So, I believe that this 
is very important that progress is made on this front. And I 
will--should I be confirmed, will work with the Secretary of 
State and others here, as well as other nations and--to look at 
options for increasing the pressure with the intent to change 
the attitude of the government.
    Senator Coleman. My time is just about expired. Just one 
comment, and that is, the prospect--I believe that the prospect 
of Iran getting a nuclear weapon is the single greatest threat 
to peace, to stability in the Middle East and the world. And 
they keep moving in that direction, and the U.N., at least, is 
one form, Security Council. But, if not, there needs--we cannot 
allow Iran to have a nuclear weapon. So, I--at some other time 
and some other place, we need to have that conversation.
    Ambassador Khalilzad. Yes, sir. I look forward to that.
    Senator Coleman. Thank you, Mr. Ambassador.
    Ambassador Khalilzad. Thank you.
    Senator Coleman. Mr. Chairman.
    Senator Nelson. What are some of those pressures that you 
can place on the Government of Sudan with regard to Darfur?
    Ambassador Khalilzad. Well, the range of options, of 
course, is considerable. There are the sanctions with regard to 
the people in the government, sanctions with regard to 
institutions in the government, as--sanctions with regard--more 
broadly, and so on. We can slice it in a variety of ways. But I 
don't want to be too specific, in terms of which ones I will 
work for, because, as you know, I've been very focused on Iraq. 
I just got back. And, if I am confirmed, I'd like to have the 
opportunity to go up there and talk to others, consult with 
others. But I think, having said that, there is absolute need 
to consider additional options to bring about a change in the 
attitude. And that is my judgment with regard to the situation, 
Senator.
    Senator Nelson. In your opinion, why haven't we done that 
before?
    Ambassador Khalilzad. Well, I--as I said, in that--from 
what I have read, the State Department, the Secretary of State 
and others, have stated that we need to look at additional 
options to bring about a change in behavior. And the government 
has been, sometimes, sending positive signals, the Khartoum 
Government, and, therefore, delaying the consideration of 
additional options. And I think now the signals are going in 
the opposite direction, pointing to going back on commitments 
made before. So, I think, we, in turn, need to look at our 
options for increased pressure to bring about compliance.
    Senator Nelson. Senator Corker.
    Senator Corker. Thank you, Mr. Chairman. I appreciate it.
    And I want to say, it was quite an opportunity for me to 
meet with you and Deputy Prime Minister Salih in Iraq, about 
3\1/2\ weeks ago. And, upon hearing that you were going to the 
United Nations, I will say that, on one hand, I knew we were 
going to be represented very, very well; at the same time, I 
kind of hated to see you leave, when you were actually causing 
things to happen. I know you're entering a different arena 
where that may be a little bit more difficult.
    So, I have two questions. The first is, we're focusing a 
lot right now on General Petraeus and what's happening in 
Baghdad. And there have been a lot of dates talked about. 
Midsummer we'll know whether we've been able to turn what has 
been a downward spiral into an upward spiral. And yet, so much 
of that is dependent upon what happens by the government there, 
by Maliki, Salih, al Zawbai, what happens there on the ground. 
I'm wondering if you could help us think through, with the 
tremendous experience you've had on the ground there, just what 
the timetables you think are--what the realistic timetables 
are, as far as the actual implementation of the hydrocarbons 
agreement and money actually hitting the streets, if you will, 
the actual spreading around of the $10 billion that's going to 
help create jobs there, and the actual real final agreements on 
de-Baathification reform.
    And then, second, if we have time, I'd love for you to talk 
about--you're obviously going into a different arena, much like 
I've just done, and--talk a little bit about how you truly 
cause, as one representative going to the U.N., the type of 
things to occur there. You've been in a different position, 
where you've been able to hands-on negotiate and really create 
the energy behind the things that are happening in Iraq on the 
ground. Talk to us a little bit about how you actually go about 
implementing some of the changes that my colleagues at the U.N. 
have referred to.
    Ambassador Khalilzad. Thank you, Senator, for what you said 
about me. I appreciate that.
    With regard to the decisions by the Iraqi leaders, I think 
one of the challenges that remain is how to incentivize them to 
do the right thing for themselves. And I know that they are 
facing very, very big and difficult issues. And their sense of 
time is not the same as ours, really. We tend to be very 
impatient. And these processes and issues that they are dealing 
with, by historic standards, takes--take a long time. If you 
look at the history of other nations, Europe, when you've had 
different groups coming together for the first time to try to 
figure out how to put a nation and a state together. So, while 
I appreciate the difficulties--the enormity of the challenges 
that the Iraqi leaders face, I do believe that we need to 
continue to incentivize them to move at a faster pace.
    Now, on--there have been, in recent weeks, some progress. I 
think the budget was passed by the Assembly, of $40 billion. 
This is one of the good things about Iraq. They have a lot of 
resources. Where, in Afghanistan, unfortunately, where I served 
beforehand, they didn't have that, the amount of resources that 
Iraq has. They have put $10 billion into the development 
account. They have given, I am advised, the--10 percent of the 
budget already has been disbursed, I am advised. They have--we 
are helping them to do better, in terms of budget execution. 
They have been good at executing the budget with regard to 
paying salaries and retirement and subsidies, but not as good 
with regard to investing in projects and--in development 
projects.
    Now, on the hydrocarbon law, they have agreed, in the 
Cabinet--it was a very important agreement, and it was a--it's 
a good law, in my view. They have--the Assembly has to approve 
it. And I believe the timeline for that is the next--they have 
said until May 31 is the timeline they have given themselves 
for approval. So, our encouragement that they are setting 
deadlines and targets to be--to incentivize them to move 
forward.
    De-Baathification, that's the issue I was working on with 
them when I left, to get them to--the presidency representing 
Kurd, Shia, and Sunni--the president, two vice presidents--to 
come to a compromise agreement to balance reconciliation with 
accountability, and to adjust the de-Baathification law that 
Ambassador Bremer had imposed, was--which was, in my judgment, 
too draconian and too broad to refer those who have committed 
crimes to a judicial process, and then to turn and--to 
reconciliation with regard to the rest. And I hope that, in the 
coming couple of weeks, the presidency will offer that 
compromise agreement. But it will require us to work with them, 
continue to encourage them to make the compromises that they 
need to make with each other. And ultimately, of course, it's 
the constitution and issues such as what to do with militias--
those are also critical issues that remain for the government 
and the Iraqi leaders to deal with. And, as I said, it will 
take effort to continue to incentivize them to move in the 
direction that they need to move.
    Senator Corker. Do the people on the ground in Iraq feel a 
sense of forward movement that's causing them to be encouraged 
that their government is actually going to deliver on making 
these things happen?
    Ambassador Khalilzad. I believe that there is some 
optimism--increased optimism in recent weeks with the 
combination of the new security plan for Baghdad--the 
indications are, in the conversations from others talking to 
Iraqis from the mission, and my own conversation with some of 
the leaders, that there is a more positive attitude. And if the 
security situation improves, if the government makes the 
decision that they need to make, that would obviously further 
increase optimism. But people are wary and uncertain, and 
they've heard a lot of declarations before, so they want to see 
changes on the ground. So, I don't think one can say there is a 
groundswell of optimism that has happened, but there is 
increased--I think I would say, compared to 2 months ago or 3 
months ago, there is greater optimism on the streets in parts 
of Baghdad than was the case earlier.
    Senator Corker. Thank you, Mr. Chairman.
    Thank you.
    Senator Nelson. Senator Feingold, I understand you have a 
time problem?
    Senator Feingold. I certainly appreciate being--having the 
chance to speak, and I'll try to be brief.
    Thank you, Ambassador Khalilzad, for your service and for 
your willingness to work in some of the most challenging and 
difficult positions in the U.S. Government. I am pleased that 
the administration has chosen such a qualified and talented 
candidate for this position.
    As you are well aware, should you be confirmed, you'll be 
taking one of the most visible ambassadorships in the United 
States and the world. Your leadership in the U.N. not only 
affects how the American public views the U.N., but how the 
world perceives the United States.
    Unfortunately, I fear that your predecessor did little to 
advance international understanding of the United States or 
American of the U.N. The U.N. is facing major challenges right 
now as it tries to reform itself to meet new global objectives 
and overcome emerging threats that are beyond the reach of any 
single country. At this pivotal time, strong leadership from 
the United States is more important than ever. I had hoped that 
the Human Rights Council could bring about a new era of 
accountability for human rights crimes and abuses, and I have 
been disappointed in the lack of U.S. commitment to ensuring 
that it is robust and effective. We are also failing to provide 
adequate financial support for U.N. peacekeeping missions at a 
time when the United States is relying more and more on 
multilateral cooperation to act as a force multiplier in ending 
and resolving conflicts throughout the world. So, it strikes me 
as contradictory that the United States should call for more 
and stronger U.N. peacekeeping missions, but fail to provide 
the necessary financial resources to ensure that these 
missions, which are in our national interest, are successful.
    So, I strongly encourage you, Ambassador, to make these 
issues a priority as soon as you are confirmed. Of course, 
these are only a few of the many issues facing you that are 
important to the long-term security of the United States. I do 
look forward to working with you again in this context to 
improve the U.N. while protecting U.S. foreign policy and our 
national security interests.
    Ambassador, as the long-time chairman and ranking member of 
the Africa Affairs Subcommittee, I've been--become increasingly 
aware of the impact that developments in Africa can have on 
American interests and national security, as well as regional 
security there. Recognizing that your focus has been on the 
middle--on Middle East issues, I would like to hear what you, 
at this point, consider to be the U.N.'s top immediate and 
longer-term priorities on--in the African continent.
    Ambassador.
    Ambassador Khalilzad. Well, thank you, Senator Feingold, 
for your comments about me.
    With regard to Africa, the immediate focus will be on, 
dealing with the situation in Darfur and connected with Chad 
and Central African Republic, to bring about a change in the 
behavior of the Government in Khartoum to allow for the U.N., 
the hybrid force that has been discussed to be deployed to stop 
the killing of the innocent in Darfur and to contain the 
conflict from spreading.
    There are other priorities, as well, of course. We need to, 
based on our conversation yesterday, look at the mandate for 
Congo and see how that needs to be adjusted. There is issues 
with regard to--HIV/AIDS issues that some U.N. organizations--
international organizations are involved with. That remains a 
consistent concern, as does the whole issue of development of 
the continent.
    But, security-wise, I would think that the two immediate 
areas of focus, with Somalia also being there very much, is 
Sudan, Somalia, and the post-election period in Congo, whether, 
and how, the mandate and the presence of the forces might 
change. So, those would be----
    Senator Feingold. Thank you.
    Ambassador Khalilzad [continuing]. My response, Senator.
    Senator Feingold. I thank you for that answer, Ambassador.
    You've already mentioned, a couple of times, the U.N.-
sponsored 2001 Bonn Agreement that established a framework for 
post-Taliban Afghanistan, that included Iran, Russia, Pakistan, 
and India, as well as the United States. Doesn't Bonn provide 
lessons about how, through diplomacy rather than bluster, we 
can get the U.N. to act in our best interests?
    Ambassador Khalilzad. Well, I think that the U.N., as I 
said in my statement, can play, and has played, an important 
role, in several crises, that have served our interests. So, I 
believe that it's in our interest for the U.N. to be effective 
and for us to strengthen the U.N. and to work with it in 
dealing with problems. I mentioned----
    Senator Feingold. But specifically on Bonn, though, were 
United States interests compromised by negotiating with Iran at 
Bonn?
    Ambassador Khalilzad. No, they were not.
    Senator Feingold. How did the U.N. framework for post-
Taliban Afghanistan help you as U.S. Ambassador?
    Ambassador Khalilzad. Oh, I--we were--along with the U.N., 
the architect of the Bonn framework--I was, myself, in Bonn at 
that time, from the National Security Council, there, working 
with Lakhdar Brahimi. So, it was very much of a good road map 
that was developed, a good interim authority, led by a good 
leader, President Karzai was selected in Bonn. And the U.N. 
played a very, very positive role----
    Senator Feingold. So, it helped you, it did not hinder you.
    Ambassador Khalilzad. It helped me----
    Senator Feingold. Well----
    Ambassador Khalilzad [continuing]. It helped the United 
States a great deal, yes.
    Senator Feingold. I hope that your involvement in these 
efforts in Afghanistan mean that you will--that you understand, 
as I think you do, that we can negotiate with Iran and other 
nations with which we have serious disagreements, and that, 
notwithstanding what the administration told us in the lead-up 
to the war in Iraq, our national security interests are often 
best served through multilateral efforts.
    As you know, we held a hearing on Afghanistan last week and 
examined Unites States efforts to stabilize the country. And, 
given your tremendous familiarity with Afghanistan, which I've 
seen in person in Afghanistan, I would like to hear your 
thoughts as to whether the United States is providing enough 
assistance, and where the U.N. needs to increase its security, 
stabilization, and reconstruction assistance. What do we need 
to do?
    Ambassador Khalilzad. Well, I believe success in 
Afghanistan is critical. And I believe we--along with our 
European allies, particularly the NATO allies, who will also 
now have a lot at stake, with their own forces being engaged, 
and their reputation and, one might say, even the future of 
NATO being engaged, do all that we can to help the Afghan 
Government succeed, not only in the military domain, but also 
in terms of building their economic and--situation improving 
that--building the capacity of the government, rule of law, 
extending the authority of the government. But, at the same 
time, I think it's critical for success that we work together 
to improve relations between Afghanistan and Pakistan, and to 
pursue that in a persistent way. I think that's in our 
interest.
    With regard to details of how much we ought to do more of, 
if you would permit me, I will be glad to come back after I've 
had time to reengage. I've been focused on Iraq, and I've not 
followed, in detail, the level of our assistance in--with 
regard to particular areas in the budget. So, I'll be more than 
happy to get back to you on that.
    Senator Feingold. Thank you, again, Mr. Ambassador, and 
good luck.
    Ambassador Khalilzad. Thank you.
    Senator Nelson. Senator Casey.
    Senator Casey. Thank you, Mr. Chairman.
    Mr. Ambassador, we want to thank you for your testimony 
today, and especially for your public service. You've taken on 
tough assignments, and we're grateful for that commitment to 
the country and to public service.
    When you were in my office the other day, we had a chance 
to cover a couple of different areas, one of them being a 
question, which I guess speaks more to the person and the 
environment within which they're working--in any field of 
government, at any level--and that was the question of personal 
leadership style and how you approach the opportunity that 
you'll have to serve as U.N. Ambassador. The question I have 
is, even as you--in that position--even as you support, 
obviously, and uphold, broad principles of American foreign 
policy and our diplomatic strategy and tactics, I would hope 
that you'd also remain flexible to be able to implement a 
strategy that'll be best for the country, even if it deviates 
from a preordained or even an ideological point of view. And I 
think we've had, in the past, unfortunately, too much of the 
latter, more of a unilateral go-it-alone approach. And I think 
it's high time those days end and that we have a different 
approach.
    And I know, from your experience, and from your service, 
that you've approached problems that way, and I just wanted to 
have you comment on that, in terms of leadership style, 
especially with regard to this important position, which is on 
a world stage, in more ways than one. If you could just comment 
on that, and how you approach that.
    Ambassador Khalilzad. Well, thank you, Senator.
    Based on on-the-ground experience in Afghanistan and Iraq, 
I believe, to achieve our goals, engagement with others, 
finding common ground to advance our agenda, and listening to 
others, being in the mode of seeking to solve problems that we 
face, not assuming that we always have the answers, that others 
may come up with approaches that can also work, have been the 
guideline for my--the way I operate. As you say, very much 
committed to the objectives that we seek. And that would be my 
style in the United Nations, as well. I'm going there to--with 
the aim of making progress on issues of concern, both in terms 
of dealing with real security problems of this new era, but 
also to help the institution be more effective in carrying out 
its mission, and to engage together with others, be respectful, 
and to listen, but also not shy away from pointing out why we 
think the way we do, and to be persistent, not to give up, not 
to be discouraged in the face of complexity and difficulty. And 
I hope to have a team with me--because, you know, I'm just one 
person--to--that would be able to be effective contributors, 
along with me, in advancing our agenda, and that's why I would 
come back to you, as I mentioned to you when we met, and that I 
would like to go take a look at our mission and see how we 
could organize ourselves or attract the kind of talent that we 
need to attract to be as effective as possible, because I think 
there is a great opportunity, if we are effective in the United 
Nations, to advance our agenda, generally.
    Senator Casey. Thank you.
    And with regard to your two previous assignments, both in 
Iraq and Afghanistan--first of all, Iraq, when you look 
forward--and I know--you're looking to be confirmed and to be 
at the United Nations, but I'd ask you to look forward, in 
terms of Iraq, and, in the next 6 months to the next year--what 
do you think is the main diplomatic objective when it comes to 
doing everything possible, not just to have a military strategy 
that works, but all--and a political strategy--but also just in 
terms of diplomacy? What would--if you were remaining the next 
6 months or the next year----
    Ambassador Khalilzad. Senator, it's critical that we can 
incentivize the Iraqis to do the right thing, to make progress 
on the political issues that divide the Iraqis. The agenda will 
be completing the oil law, because we're talking about 
trillions of dollars of resources which Iraq has. How would 
they share that, develop that in a way that unites the various 
communities? I think a positive step was taken in the Cabinet's 
approval. That needs to be brought to completion within the 
timeframe that you talked about.
    There has to be a good reform of de-Baathification, 
accountability, and reconciliation--accountability going to a 
judicial process, taking away from a political process, which 
is--which it is now--to a judicial process, but also 
reconciliation, welcoming people who have not committed crimes 
and were not very senior in the hierarchy of the Baath Party, 
into the fold. Also, to deal with--to have a demobilization, 
decommissioning, reintegration plan put forward by the 
government with regard to militias, and set a date for the 
election of--provincial elections, and amend the--to be ready 
with amendments to be voted on in the constitution, to make the 
constitution a true national compact.
    Each of the other things that I talked about, the--if they 
are done, that will make the constitutional referendum--making 
the constitution a compact will be made a lot easier, because 
those are the issues that the Iraqis, with additional one or 
two issues, are the key issues on which they are divided. So, I 
would think that is very important.
    Also, I believe we have--another diplomatic challenge is 
how to get the neighbors to play a positive role, to be helpful 
to Iraq, not to seeing the difficulties of one's neighbor 
opportunities, but, rather, to think in new way with them 
pursuing common--developing a set of relationship where they 
are more helpful than some of them have been. And that will be 
the other big challenge, I think, a diplomatic challenge for 
us.
    Senator Casey. I am over time, but, just very quickly, if 
you can address this briefly. In light of what you just said 
about Iraq, going forward, what do you think, if any--of an 
expanded role by the U.N., what should that be, if you can 
define that quickly?
    Ambassador Khalilzad. Well, I think the U.N. can play an 
important role with regard to the constitution, with regard to 
elections, with regard to the issue of Kirkuk, I mentioned, 
that's also a timeline beyond the 6 months. I think it's--by 
the end of the year, there has to be a referendum, see the 
preparations with that referendum, that it takes place in a way 
that is successful, in terms of keeping Iraqis together, that 
that doesn't become another fault line, this one between Arabs 
and Kurds. So, I think the situation is evolving in Iraq, in 
terms of issues that are becoming important, that is a great 
opportunity for enhanced U.N. role, and that will be one of my 
objectives, if I am confirmed, when I go up to New York.
    Senator Casey. Thank you.
    Senator Nelson. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Ambassador, welcome, and thank you for your service to 
our country. You have taken on some tough assignments, and we 
appreciate that.
    I'd like to lay out my questions and then hear your 
answers, so I can get them all in. There are four different 
ones.
    One is about Iraq. It seems to me that unless we have a 
date-certain that the Iraqis understand that they have to make 
the hard choices, compromises, negotiations necessary for a 
Government of National Unity to be achieved, that it is 
possible--and the rest other world understands that we are not 
there indefinitely; it continues to be seen as America's war, 
not the world's interest--and so, in your new role that you 
will hopefully have, the question is, How do we get--the 
tipping point has not seemed to come in which other countries 
believe that they have to be engaged, in meaningful ways, in 
trying to create stability in Iraq, both regionally and beyond 
the region--how will you pursue that, as the United States 
Ambassador to the United Nations?
    Second, with reference to Iran, I am glad to see that among 
your priorities is compliance with Security Council actions. 
You know, the greater the success that you and we have at the 
United Nations, through the multilateral efforts, the less 
likely that we will ever have to consider military options. The 
less success that we have at the United Nations, the greater 
the chances come for that. The question is, How do we move 
other countries to more fully enforce the existing Security 
Council actions? And, as we try to make those actions more 
pervasive, how do you intend to try to use all of the 
resources--your diplomatic skills, of course, whatever 
persuasiveness, showing other countries their own interests in 
pursing this, but also other options we have; we have economic 
levers here to pull, as well--how do we get them to understand 
that containing Iran's nuclear ambitions is one in which there 
is common cause and we have greater success in its enforcement?
    Third, last year I was successful in working with others--
Senator Obama and others--at getting--Senator Brownback--an 
additional $60 million included in the supplemental 
appropriations to fund a peacekeeping mission in Darfur. I've 
heard some of the answers you've given to that previously. But 
I'd like to see how do you intend to, again, and use the wide 
array of options that exist for us to actually get President 
al-Bashir to submit to what he has gone back on, which is a 
hybrid A.U./U.N. peacekeeping force. People continue to die. We 
talk about it, we anguish about it, but we seem to not be able 
to move forward. I find it incredible.
    And then, lastly, we haven't had a lot of discussion on 
this, but this is one of my major concerns, and that is the 
Human Rights Council. I know that the Council was supposed to 
be an element of reform. When Cuba and China, some of the 
biggest human rights abusers, are on the Council, I just quite 
can't understand it. But I am concerned that our absence from 
it at the same time, while a statement that we don't believe it 
has reformed the way it should, also leaves--cedes the ground 
to others in some of the most consequential issues, people who 
languish in countries in the world, who look to the United 
States as a beacon of light, of freedom and democracy, and of 
respect for human rights--when that voice is absent in that 
respect, I'm not quite sure that we're promoting our interests 
or giving those people who we want to see take the chance to 
struggle in their own countries to move toward democracy in 
their own countries, and human rights, a type of hope and 
opportunity that they want. And so, I'd like to hear how you're 
going to be pursuing that course, as well.
    It's a big agenda, but that's what the U.N. job is all 
about, and I look forward to your answers on those four topics.
    Ambassador Khalilzad. Thank you, Senator.
    With regard to Iraq, I believe that that is a delicate 
balancing that--in our approach--that needs to be considered, 
in my view. On the one hand, I think it's imperative that we 
incentivize Iraqis to move forward, to take on more 
responsibility and to make the decisions that they need to 
make. And that means there are benchmarks. On the other hand, I 
also believe we need to be careful that we don't do things that 
could unravel the situation altogether. And, therefore, not to 
tie our force levels to a particular event happening, or not, 
in a particular time. So, impatience and--a sense of direction, 
I think, is good. Timeline with regard to benchmark is good. 
But I believe that some flexibility so that we--whether we can 
judge that this--if a timeline has not been met, it's not 
because of a set of other things that brings us to a judgment 
that they are not going to make the decisions that are needed, 
and, therefore, that will lead one to one conclusion, that 
perhaps we ought to be looking at some other way of doing 
business with them. But if, on the other hand, they are making 
progress, but yet, they have missed a deadline because of good 
reasons--I mean, we all are familiar with missing deadlines--
because of the complexities of the process, because the issues 
are difficult, then I wouldn't, sort of, judge that we ought to 
enforce what we said we would do because we have set a deadline 
earlier. So, I would like to give the people who are in a 
position of responsibility, such as yourselves, a sense of why 
the progress has not been made. Is it on a single item, or is 
it part of a pattern?
    And I also want you to--want us to be aware that--and take 
into account--that if we--we shouldn't do something that gives 
control to people who want us to fail, and they say, ``Aha. If 
we can cause a particular deadline not to be met, then the 
United States will do certain thing that brings about a less 
desirable situation.''
    I appreciate the--what you all have to go through and--to 
balance things, as political leaders, representing our people, 
and the impatience of our people out there. So, I appreciate 
that. But from my experience, I'd like to also think--for your 
consideration, I would put forward that the complexity, in 
terms of the balancing that needs to be taken into account.
    Now, I'm sorry I've taken a long time on your first 
question.
    Senator Menendez. Actually, you commented on what was a 
comment. My question was, How do you get other countries in the 
world----
    Ambassador Khalilzad. Yes.
    Senator Menendez [continuing]. To understand that it is 
their interest to engage in Iraq.
    Ambassador Khalilzad. Oh. I'm sorry. I thought you said in 
setting a date-certain----
    Senator Menendez. Well, I----
    Ambassador Khalilzad [continuing]. So I was----
    Senator Menendez [continuing]. Mentioned that----
    Ambassador Khalilzad [continuing]. I was talking to----
    Senator Menendez [continuing]. As an observation----
    Ambassador Khalilzad. Yes.
    Senator Menendez [continuing]. Of my own.
    Ambassador Khalilzad. Yes.
    Senator Menendez. But my question was----
    Ambassador Khalilzad. Yes.
    Senator Menendez [continuing]. How do you get other 
people----
    Ambassador Khalilzad. Well----
    Senator Menendez [continuing]. In the world----
    Ambassador Khalilzad. Well, other--I think we have to 
engage them. We have to take their interests into account. We 
have to use our friends that work with us to also engage on our 
behalf. That's why, within the U.N., I'm very much--the 
preparations that I've done in the past few days has intrigued 
me with the concept of working and operationalizing the 
Democratic Caucus there. I will be very focused on how we can 
get that caucus to be effective. And I believe that we ought to 
also use our friends and relationship of our friends with--our 
friends in the NAM and G7. I will engage with them. I think the 
engagement is a tool. It's not an end in itself, but it's a 
tool that can shape behavior. But you have to take interests of 
others into account. And in Iraq, I believe, in particular, 
there is a lot that we--of countries that should have common 
interests with us there, because Iraq is a rich country in a 
critical region of the world, and its oil resources is of a 
global interest for the future of energy security. And making 
sure that Iraq doesn't become a place where terrorists can use 
to operate against the world is a common interest of everyone. 
Keeping Iraq together as a single nation is a common interest 
of others. So--and this Shia/Sunni conflict, not spreading to 
engulf the entire region, is a common interest of others and 
ourselves. So, I think what we have done, in terms of this 
regional conference with P5 and now bringing G-8, is a--it's a 
good adjustment to engage others. And I will, in the United 
Nations, work through the Security Council, with other 
colleagues, and with the regional states, to continue to seek 
cooperation of others, based on common interests, but also 
listening to others' ideas and suggestions, as well.
    Senator Menendez. Very good.
    Senator Nelson. Mr. Ambassador, you talk about----
    Senator Menendez. Mr. Chairman, if I may, could I----
    Senator Nelson. Yes. I want to follow up on that point.
    Senator Menendez. Sure.
    Senator Nelson. You talk about the engagement with the 
other nations, but we have been hearing this for 4 years. So, 
what are you going to do different for engagement?
    Ambassador Khalilzad. Well, Mr. Chairman, I told you one, 
in that I'll try to--with--in the U.N., should I be confirmed--
work proactively with the Secretary General, the new one. He's 
new, and I will be new, and we both have a task of looking 
around, seeing what's wrong, what's working, how do we move 
forward on fixing things that are not right.
    Two, to get the group of democracies that are there to 
activate that, to make it an effective instrument.
    And, three, to also engage with the NAM and Group of 77.
    I also believe that the presence of the diplomats from 
around the world, and many of whom come very well regarded and 
well connected, provide an opportunity not only to deal with 
issues in a formal sense with--that are on the agenda of the 
U.N., but, otherwise, also provide an opportunity to advance 
our agenda, otherwise. For example, on how to help the Afghan/
Pakistan relationship, because that's critical for success of 
Afghanistan; or how to get the regional countries to be more 
positively engaged in Iraq.
    These are ideas, at this point, Mr. Chairman. And, should I 
be confirmed, I'll go and see which ones I think, of these 
options, will be the most effective. And I have promised that, 
if you will give me the opportunity, that, after I spend a bit 
of time there and I've had my mind engaging the problems and 
tactics and the strategy that work, that I'd be more than happy 
to come back, should I be confirmed, a month or 6 weeks later, 
to tell you, now, based on kicking the tires around, talking to 
people, what I think is going to be likely to be more 
effective. At this point, I----
    Senator Nelson. We'll take you up on that, Mr. Ambassador.
    Ambassador Khalilzad. Thank you.
    Senator Menendez. Mr. Chairman, I know I asked the 
Ambassador four questions. And I know Senator Obama's waiting. 
So, if you could give us, in writing, your answers to the other 
three--I asked you about Iran, Darfur, and the U.N. Human 
Rights Council----
    Ambassador Khalilzad. I'd be happy to.
    Senator Menendez [continuing]. In an expeditious fashion, 
so----
    Ambassador Khalilzad. I'll do it right away.
    Senator Menendez [continuing]. Before I have to cast a 
vote. But I----
    Senator Nelson. Senator Menendez, if you want to, let's let 
Senator Obama go, and we'll continue with your questions.
    Senator Menendez. If I can, Mr. Chairman--I have a Budget 
Committee markup that's marking up the budget, and I may have 
to be there to cast some votes, so I will hang as long as I 
can.
    Thank you.
    Senator Obama. Mr. Chairman.
    Senator Nelson. Senator Obama.
    Senator Obama. Thank you very much.
    Mr. Ambassador, good to see you again. I'll try to be 
relatively brief. I know a lot of the issues that I was 
interested in have already been discussed, and I won't have you 
repeat them. I'll look at the transcript of the hearings.
    Senator Menendez, who's been very active on issues of human 
rights, has raised some important questions about Darfur. There 
actually is, right now, an unfolding crisis. It's a--it's been 
an ongoing crisis, but one that's been in the news recently, 
and that's the situation in Zimbabwe. You know, President 
Mugabe's regime has been repressive for some time, has been 
divisive for some time, but, since Sunday, what we've seen is 
not even the pretense of respecting the rights of opposition 
leaders. You've got 50 Zimbabweans, who were attending a 
peaceful prayer meeting outside Harare, being brutalized; a 
protester, shot and killed. You've got the leader of the 
Movement for Democratic Change being badly beaten and severe 
head injuries. So, I'm wondering whether the administration has 
some plan in the United Nations, what other countries are 
thinking about how we might put more pressure on the Mugabe 
regime. And this speaks, I think, to a larger question, and 
that is, you know, what's the appropriate role for the United 
States in advancing human rights issues at a time when our 
stock around the world appears to have fallen?
    Ambassador Khalilzad. Thank you, Senator. It's great to see 
you again.
    One, with regard to human rights, generally, this is one of 
the core missions of the United Nations. Security, conflict 
prevention, being number one. Number two being progress, 
economic development. And third being human rights. And I said, 
before you came, with regard to Darfur, that we need to look at 
options for incentivizing the government in Khartoum to 
cooperate, including more forceful options, from sanctions 
against elements in the--people in the regime, to institutions, 
to government as a whole, to other issues. Which ones of those 
I would favor, again, if you would allow me, Senator, I've been 
back 3 or 4 days from Iraq, I promise to get back with you, if 
I am confirmed, as to, among the options, talking to our 
experts, see what would produce the desired results, and which 
ones we can do effectively, because some of these will require 
cooperation from others, as well.
    On Zimbabwe, I believe that there is important human rights 
and other considerations with regard to Zimbabwe. As to what 
the administration is doing, if you permit me, I--to provide 
that for the record, as to what the approach is at the present 
time, and if you permit, again----
    Senator Obama. I'm going to be----
    Ambassador Khalilzad [continuing]. I have been--I go up 
there, and engage my own mind, and then I look forward to 
having a conversation with you.
    Senator Obama. I'm happy to get responses in writing to 
those questions, after you've conferred with the State 
Department and others in the administration.
    Senator Obama. You may feel the same way about this next 
question, because it's a broad one, but, I think, one that's 
vital and that touches on the other--one of the other core 
missions of the United Nations, one you've mentioned, and 
that's security. It's my view that the Non-Proliferation 
Treaty, and the structure that we've set up in the past, is 
fraying rather badly. I think everybody's in agreement that the 
NPT needs updating. We've got regional proliferation problems, 
like Iran and North Korea, but we've also got some broader 
questions arising out of the treaty with India, the desire for 
a variety of nations to look at nuclear power as an option to 
deal with their energy needs. We still need to make more 
progress on securing nuclear materials and enhancing 
international interdiction efforts. So, I'm just wondering, do 
you have, at this stage, any thoughts, in terms of how the 
administration would approach strengthening that regime? Is it 
something that you've already discussed? Is it something that 
you'd like to get back to us on?
    Ambassador Khalilzad. I would like to get back to you with 
regard to initiatives that the administration may be 
considering. But I believe that the issue of proliferation is 
one of the defining--another defining challenge of our time. 
And the relationship between peaceful nuclear activity--
civilian nuclear program and military nuclear program, is an 
issue that I have had a lot of experience with earlier in my 
career. I worked a lot on how to prevent countries to get 
legitimately very close to nuclear weapons without violating 
any rules, because of our earlier Atoms for Peace programs. And 
I think some adjustments were made in our approach, on a 
bipartisan basis. But, moving forward from here on with 
adjustments to the NPT or other nonproliferation regimes on the 
nuclear issue, in terms of the administration's thinking or 
approaches, if you don't mind, I will provide that for the 
record, Senator.
    Senator Nelson. And when you do, Mr. Ambassador, give us 
information on your opinion of China and Russia, supportive of 
your efforts in the U.N. Security Council on sanctions.
    Ambassador Khalilzad. I believe--with regard to Iran, I 
will do that, but I was briefed that good progress has been 
made in the last 24 to 48 hours with regard to the next step in 
relation to Iran, in New York. But I'll be happy, Mr. Chairman, 
to provide a more detailed answer for the record.
    Senator Obama. Thank you very much, Mr. Ambassador.
    Ambassador Khalilzad. Thank you, sir.
    Senator Nelson. Well, speaking of that, do you support the 
agreement recently reached with North Korea on the steps toward 
lessening proliferation?
    Ambassador Khalilzad. I know that the administration 
supports it, and--I know that the administration, Chairman, 
supports it, and I have not examined the document in detail, 
but I don't see any reason why I would not support it. Yes, I 
associate myself with the administration, of course.
    Senator Nelson. Why would the former Ambassador be opposed 
to it?
    Ambassador Khalilzad. I'm--I wanted to make sure that you 
know that I have not read the details of the agreement, but the 
administration supports it, and, therefore, of course, I 
support it, as well.
    Senator Nelson. Well, I think it's just curious that the 
former Ambassador to the United Nations is now coming out 
opposing the very agreement that the administration has 
reached.
    Ambassador Khalilzad. I--you will have to ask him, Mr. 
Chairman.
    Senator Nelson. Let me quote--you had made reference to the 
Iraq Study Group Report that had been embraced by the 
administration in a answer to a previous question. And let me 
quote from page 16 of the executive summary, ``By the first 
quarter of 2008, subject to unexpected developments in the 
security situation on the ground, all combat brigades not 
necessary for force protection should be out of Iraq. At that 
time, U.S. combat forces in Iraq could be deployed only in 
units embedded with Iraqi forces, in rapid-reaction and 
special-operations teams, and in training, equipping, advising, 
force protection, and search and rescue. Intelligence and 
support efforts would continue. A vital mission of those rapid-
reaction and special-operations forces would be to undertake 
strikes against al Qaeda in Iraq.''
    Do you generally support that statement by the Iraq Study 
Group?
    Ambassador Khalilzad. In my view, Mr. Chairman, the desire 
to get the U.S. role in combat, sectarian combat between Iraqi 
groups, and to have Iraqis to take on more of a responsibility 
in that area, is a desirable goal, but it has to be done in a 
way that is workable. And, therefore, while I support the 
sentiment, my concern is that not making that condition-based, 
but making it absolute, is potentially risky, because the 
circumstances may be such that they're--that the Iraqis might 
not be able to do that, and I'd rather give our leaders the 
flexibility to see--to evaluate the circumstances. But the--but 
I know what's motivating them, is to provide incentives for 
Iraqis to increase their capability in this area as quickly as 
possible. As the recommendation of a study group, I appreciate 
that. But, as a policy embraced by the President, and by our 
congressional leaders and the administration together, I would 
want, in my judgment at least, for it to--there has to be some 
flexibility for evaluating, rather than sort of tying our hands 
a year ahead of time, in terms of circumstances that we may not 
be able to anticipate at this time.
    Senator Nelson. And, of course, that was one of the 
qualifiers that I just read----
    Ambassador Khalilzad. Yeah.
    Senator Nelson [continuing]. Here. But, as a general road 
map, that's a pretty good road map.
    Ambassador Khalilzad. To--as I said before, it's very 
important for us to continue to incentivize Iraqis to take on 
more responsibilities, to do the things that they need to do. 
I'm--as a diplomat, being in Baghdad, I have often made use of 
such recommendations and statements by congressional leaders, 
to communicate to the Iraqis that they need to move. But, as I 
said, at the same time, I would like to maintain the 
flexibility for the--for our military leaders--of course, the 
Commander in Chief--to be able to make decisions, adjustments, 
based on the circumstances.
    Senator Nelson. Well, as a diplomat, you have a unique 
background and experience with which to advise us.
    Reflect upon the United States entry and subsequent 
withdrawal, in the early 1980s, in Lebanon, as to how we may 
draw upon that experience in what we are experiencing now in 
Iraq.
    Ambassador Khalilzad. Well, I believe, Senator, that that 
was not handled well--Lebanon--as a student of the history of 
that region, and a student of strategy. On the one hand, I 
believe we declared Lebanon to be vital, which meant that we 
would do whatever is necessary to succeed; and, on the other, 
in face of terrorist attacks, we were--we had to withdraw--we 
decided to withdraw, which, unfortunately, encouraged some of 
our opponents in that region to assume that we cannot take 
casualties, and, therefore, behave in a way that made our 
diplomacy less effective, and, therefore, had to cause the use 
of force, because they miscalculated, thinking we would not use 
force, that we would not be--given the pattern in Lebanon. So, 
I believe it's very important that we are careful in how we 
pronounce ourselves, and that when we--that that is a--
objectives are clear and there is a good relationship between 
ends and means, and the strategy is a good one, and the 
planning is good one, tasks are specified, the resources, 
political resolve, and all that, is there. So, I regard the 
Lebanon incident as a--as having had a very negative effect, in 
terms of subsequent developments, in terms of assessment of 
U.S. resolve and staying power in that region.
    Senator Nelson. So, the experience of the U.S. in Lebanon, 
back in the early 1980s, we did not succeed.
    Ambassador Khalilzad. I believe that defining in the way 
that I did, it--I would say that that was not a successful 
exercise and use of force on our part, I agree with that.
    Senator Nelson. Would your conclusion be drawn, in part, 
from the fact that the United States was perceived to have 
sided with one faction, one sector, in the use of its force? In 
Lebanon.
    Ambassador Khalilzad. I will have to provide that for the 
record, now, because so long ago. But I was just--what remains 
with me as a kind of a--as an overall strategic sense was the 
declaration of Lebanon as being vital for us, and then the 
attacks and the withdrawal that happened, and the perception 
that I--as it clearly remains with me, around that region, that 
we cannot take casualties, we cannot sustain. And, therefore, I 
think, encouraging people to draw the wrong lessons that--I 
think that's the one that I recall. But, in terms of in the 
politics of Lebanon at that time, how we were perceived with 
the--and the role of Syria and Israel and the various Lebanese 
factions, if you don't mind, I don't want to say something 
without checking on the situation at that time, so I'll be 
happy to provide that for the record, Mr. Chairman.
    Senator Nelson. Well, I think that the reading of history 
would show that it was when we started using our firepower on 
behalf of one particular group, it was--I can't remember the 
name of the group--that the perception of the United States as 
being a neutral party went out the window in Lebanon. And I 
would be curious about your ideas, from the experience of that, 
in and around 1984 Lebanon. Are we getting into a situation 
now, in Iraq, where we're being perceived of basically doing 
the ethnic cleansing of Sunnis for the dominant Shiites?
    Ambassador Khalilzad. I understand your point, Mr. 
Chairman. You have to know--I think I agree with your point, if 
I understand it correctly, that you know--you have to know what 
is the situation, what's the mission. And if the mission is 
one--as it is, in significant part, now in Iraq--one of 
sectarian conflict, particularly in Baghdad and some of the 
other areas, that we understand that they are sectarian, and I 
think we do, because that, we think, is the biggest issue, 
competition over political and economic power with regard to 
the future of that region, of that--of Iraq. We understand 
that. And if we didn't understand that, in a situation that 
that existed, and we thought it was a situation of extremism 
versus moderation, but, while, in fact, it was a situation of 
sectarian and ethnic rivalry, then our remedy may be not the 
right remedy. But I think we understand, in the case of Iraq, 
that--that is not the exclusive issue, because it is also al 
Qaeda that continues as a problem, then there is the issue of 
insurgents who are against the presence of the coalition, then 
there is the issue of Shia-on-Shia issues. But I think a core--
perhaps the most important issue is the sectarian issue. And 
that's why we're working very hard, during the period that I 
have been there, to get an agreement, that compact between 
them, on political and economic power, oil issue, as I've 
described, the constitution issue, the de-Baathification issue, 
and that we have got an agreement from the Prime Minister that 
he will be enforcing the law in a balanced way against all 
those who break the law. But this is an issue that's important, 
and I understand your point quite clearly, that we need to be 
very attentive to and make sure that that complexity informs 
our objectives and our strategy and our plan. And I appreciate 
that.
    Senator Nelson. With regard to the sectarian strife, you 
are uniquely qualified, by virtue of your background and 
experience, to explain to the committee how, given the schism 
that occurred in the battle of Karbala of 680 A.D. and the 
hostilities that have occurred over the centuries between 
Sunnis and Shiites, of which we see that playing out, as we 
speak, today, in Iraq, particularly in Baghdad, how the United 
States is suddenly going to get all of these groups to lay down 
their arms and participate in democracy, when they've been at 
it for 1,327 years?
    Ambassador Khalilzad. I believe, Senator, that, 
doctrinally, there has been, as you say, a difference, dating 
back over 1,000 years. And you're absolutely right about that. 
But I believe that Sunnis and Shias across the Middle East, for 
the most part in the history since Karbala, have lived 
relatively harmoniously, although there have been periods of 
discrimination of one by the other. And in recent past, there 
has been a period of Shias asserting themselves, and that has 
been linked with the rise of Iran. But, in the case of Iraq, 
Mr. Chairman, there has been a history of intermarriage between 
Sunni and Shia. There are tribes that are half Sunni, half 
Shia. But, in the current circumstances, there have been a 
concerted effort to exploit that fault line that exists, 
sectarian-wise, for political purposes. The terrorist al-Qaeda 
saw that as a fault line and exploited that successfully, 
especially after the attack on Samarra mosque, to increase 
sectarian tension, and then to offer itself as a protector of 
Sunnis. I believe the countries in the area are concerned, on 
the one hand, about the rise of Iran, but also worried about 
the sectarian tensions that exist, and that's one of the issues 
that could bring people together, because if they don't come 
together on this, there is a danger that it could destabilize 
and fragment the entire region, and that, I think, is an area 
for diplomacy on our part.
    Working with others, I don't think this is something we can 
do alone, given what you mentioned. It's something that we can 
assist, but it has to be largely done by the leaders of the 
area and the sort of a regional engagement that takes into 
account Lebanon, takes into account Iraq, takes into account 
the other countries of the area we need to focus on. I believe, 
as I've said repeatedly, that what happens to this region is 
now the key issue for the shape of the future of the world, as 
the European balance of power was in the early 20th century, 
and the containment of the Soviets. So--and it's going to take 
time, and it's going to require a concerted effort on our part 
and on the part of others to assist this region that's going 
through a difficult crisis, to come out of it in a way that is 
good for them and good for the world, as Europe came out of its 
crises in a way that now it's good for them and good for the 
world. This is the issue that is the defining issue for us at 
the present time.
    Senator Nelson. In other words, you're going to have to be 
Merlin the Magician----[Laughter.]----as Ambassador, to help 
bring this about. What do you think would happen if we had a 
phased redeployment out of the cities into a perimeter, say, 
more into the countryside, still doing these things that the 
Iraq Study Commission--if we did that, and pulled out of 
Baghdad----
    Ambassador Khalilzad. Right.
    Senator Nelson [continuing]. As an example, what do you 
think would happen between the Sunnis and the Shiites?
    Ambassador Khalilzad. Well, it depends in what context. If 
the Iraqi forces were able to control the situation, and all 
sides considered those forces to be neutral and enforcing the 
law, then that's a very natural adaptation and adjustment that 
you've described--in an orderly fashion, and that's what we 
ought to consider doing. But if the security forces are not 
able to control the situation, or--and they are seen as being 
motivated by a sectarian agenda, then what you described, 
should it happen in that context, it would escalate the level 
of violence. And, frankly, it's a personal observation that is 
at the--the risks of kind of things happening that I, frankly, 
do not know whether we and others would be able to look the 
other way to let it happen, in terms of humanitarian crises, 
the level of violence inflicted. Given our role, particularly 
in terms of the situation in Iraq with the change, I think we 
have geopolitical issues from an intensified sectarian violence 
regionally, but also I believe that we have a moral 
responsibility, given our role, that we do what we can to avoid 
that.
    And so, I would say my comments would depend, in terms of 
the context, what's going on otherwise, Senator.
    Senator Nelson. Well, as our Ambassador in Iraq, what is 
your observation of the Iraqi Government being able to be 
successful over the course of the next 6 to 9 months in such a 
redeployment out of the city?
    Ambassador Khalilzad. Well, I believe that within the next 
few months, I think the--it would be difficult for it to cope 
with it by itself. Now, I believe if they make the political 
decision that we discussed earlier in the next few months, and 
the Iraqi forces are--increase in numbers and capability, which 
is part of the plan, and the government continues with its 
commitment to treat all Iraqis the same and no preferences 
because of sectarian identity or political affiliation, then 
the prospects for implementing this plan that you talked about 
in a few months would improve. But it very much depends on what 
happens in the next few months, on the political calendar, and 
also in terms of the capabilities of Iraqis to make the 
improvements that we are committed to helping them make.
    I am cautiously optimistic, but it's a very contingent 
optimism, assuming on these decisions that I talked about, that 
these decisions are made.
    Senator Nelson. In your opinion, do you think there is 
political will in the Maliki government to get such a unanimity 
of purpose so that the various factions can come together? Do 
you think Maliki has the will?
    Ambassador Khalilzad. I believe that he would like to do 
that--Mr. Maliki. I see an improvement in his approach in the 
last several months. And it's not only him, however, because 
it's a parliamentary system that they have, and the 
government's a unity government. Other leaders also have to 
rise to the occasion, and that's why I keep repeating our role, 
to keep incentivizing them to do the right thing, work with 
them. Ambassador Crocker will have his work cut out for him to 
keep being very proactively engaged with them. And, at the same 
time, I think the regional role is important, because some of 
these groups are also influenced by some of the neighbors. And 
that's why I support this adjustment of the last week, to get a 
more active diplomatic engagement, keep pressing the neighbors 
to do what's needed, to be a forceful, encouraging compromise, 
rather than encouraging extremism, militancy, and sectarianism.
    Senator Nelson. I don't want to belabor the point, and, of 
course, you're constrained on a number of things as to what you 
can say, but you bring a rich background of experience to the 
committee, and we appreciate it very much. You have said that 
you think, in the next few months, it would give us the 
indication of whether or not, to put it in the vernacular, the 
Maliki government is getting it together.
    Ambassador Khalilzad. Right.
    Senator Nelson. Now, that's what Secretary Gates said to us 
in his confirmation hearing, in January.
    Ambassador Khalilzad. Right.
    Senator Nelson. And now it is the middle of March.
    Ambassador Khalilzad. Right.
    Senator Nelson. He also said, and--not in January, in 
December, his confirmation hearings, and then his testimony to 
us again in January, as the Secretary of Defense----
    Ambassador Khalilzad. Right.
    Senator Nelson [continuing]. He said 2 months, that we 
ought to know. Well, we're at the 2-months point.
    Ambassador Khalilzad. Yeah.
    Senator Nelson. And we keep hearing statements like yours 
and other people, ``Well, in the next several months.''
    Ambassador Khalilzad. Right.
    Senator Nelson. So, when are we going to know?
    Ambassador Khalilzad. Well----
    Senator Nelson. Against the backdrop----
    Ambassador Khalilzad. Right.
    Senator Nelson [continuing]. Obviously, the American people 
are losing patience with the Iraqi Government getting it 
together.
    Ambassador Khalilzad. Right. Right. I very much appreciate 
that factor, the patience, the lack of patience, patience 
running out. My message and response, Senator, is twofold. One, 
that the Iraqis are facing very difficult issues, and they're 
not an island, unfortunately; they're also in a very difficult 
neighborhood, where there are people who do not wish them well 
and do not want them to succeed. Second, that the last couple 
of months, things have improved politically, in my, view, 
although big challenges remain. So, that's why I'm--I evaluate 
the last 2 months, positively. A key issue, the government 
decision to treat all sides on an evenhanded way, even allowing 
movement against Jaysh al-Madhi, which had been an issue, a 
problem, in an earlier phase. Second, the agreement on 
hydrocarbon among the political groups, this is a very big 
issue--as I said, trillions of dollars involved for them to 
agree. Passing the budget, a 40-billion-dollar-plus budget, 10 
billion for economic reconstruction, spend--already, I am 
informed, spending--10-percent distribution of that. So, I--and 
I think if this momentum is maintained, and the decisions--the 
oil law is ratified by the Assembly next, de-Baathification is 
done. Constitutional amendment process is done. A date is set. 
Then, I think, we can build. But I think if there--if you 
wanted to take these 2 months, whether it's discouraging or 
encouraging, I would put the 2-months evaluation as 
encouraging, cautiously optimistic, and it's--again, I would 
also emphasize that it's not only Maliki, but others, too, have 
to be reminded, other leaders, because it's a parliamentary 
system, it's a unity government made of four or five different 
forces. We need to engage all of them, because sometimes we 
overstate how much Maliki alone can do, thinking perhaps it's 
like our system, with our President is--has got the kind of 
authority based on our political system. Their political system 
is a little different, and it--for him to succeed, it requires 
cooperation of some of the other key blocs in the government.
    Senator Nelson. Over and over, we hear the statement that, 
``It's going to take a political solution, not''----
    Ambassador Khalilzad. Yes.
    Senator Nelson [continuing]. ``A military solution.''
    Ambassador Khalilzad. Right.
    Senator Nelson. One of the items on the table is a 
political solution that the regional powers would all support--
--
    Ambassador Khalilzad. Right.
    Senator Nelson [continuing]. Which would basically be to 
start segregating----
    Ambassador Khalilzad. Right.
    Senator Nelson [continuing]. The very--communities, and let 
them have autonomy in the conduct of their own affairs.
    Ambassador Khalilzad. Right.
    Senator Nelson. Kurds in the north, Sunnis in the middle, 
Shiites in the south. What do you----
    Ambassador Khalilzad. Right.
    Senator Nelson [continuing]. You think of that?
    Ambassador Khalilzad. Well, the issue of federalism is an 
issue that is available as an option for Iraqis, based on their 
constitution. The Kurds have exercised that option. They have 
their--three provinces have become a region and a federal unit, 
and they have a--the constitution allows for substantial degree 
of authority at the regional level. It foresees for Iraq a 
decentralized system, a federal system. There is an issue 
between the Arabs--among the Arabs of Iraq. Some support the 
idea of federalizing the rest. Everyone agrees on 
decentralization, broadly. Some favor federalism, some do not. 
And this is one of the issues with regard to building this 
compact, and I think that's an option of federalizing the rest 
of Iraq for Iraqis to decide on.
    Where I would be cautious, Mr. Chairman, would be that it 
shouldn't be seen as an American imposition for them, how to 
organize their units inside Iraq. There are some who see that 
are--that suspect our motives as having come in to divide Iraq, 
an important Arab country, into mini states. That's why I would 
be wary of us saying, ``Well, this is what we think is the 
solution, and we're going to impose it.'' But this is an option 
that's available to them. They are talking about it. They're 
discussing it openly and behind the scene among the leaders as 
to where they will come out. I would not rule that out as a 
possibility for them, assuming they come to that decision 
themselves.
    Senator Nelson. For those who criticize that concept by 
saying, ``Well, you can't do it. You have these mixed 
neighborhoods,'' as a practical matter, are the mixed 
neighborhoods now segregating because of the violence?
    Ambassador Khalilzad. There has been a degree of 
segregation that has happened, unfortunately, during the past 
several months. But the government is very much committed to 
bringing--encouraging people to come back to the areas from 
which they left. We will have to see what happens, but one of 
the key features of the new Baghdad security plan is to 
encourage a return of refugees to their homes.
    Senator Nelson. You described the constitution as a ``true 
national compact.''
    Ambassador Khalilzad. Not yet. It has to become so. And for 
it to become so, I believe, Senator, these amendments that they 
are discussing among themselves, they are--has to be in 
agreement with regard to those.
    Senator Nelson. And the amendments could accommodate the 
federalism that we have just been talking about----
    Ambassador Khalilzad. Right.
    Senator Nelson [continuing]. In general.
    Ambassador Khalilzad. An agreement on that.
    Senator Nelson. Uh-huh.
    Ambassador Khalilzad. As one of the issues. And there is 
oil. I think that pillar of the amendment process has been 
agreed to now, at the Cabinet level. The constitution kicked 
the can down the road on that one, so--and left it to future 
agreements, and that's what we have.
    Senator Nelson. I have a number of other questions which 
I'm not going to go into, and I'll submit them for the record, 
with regard to Venezuela, with regard to the United Nations 
peacekeeping force in Haiti. I would just suggest to you, as 
you go to your new post, that we just have a handful of 
American police officers who are Creole-speaking on that force, 
and they are as valuable as gold, and that there ought to be 
some increase of that capability in the MINUSTAH force there. 
I'll submit comments with regard to the peacekeeping forces in 
other parts of the world--and Darfur and so forth.
    You've been very, very kind in all of your questions here, 
and very thorough, and I appreciate it. And I appreciate the 
delicacy of your answers, which have been most diplomatic, 
which our Representative in the United Nations has to be. So, I 
want to thank you very much.
    The record is going to remain open for 2 business days so 
that members of the committee can submit additional questions. 
And, naturally, we would like for you to respond quickly to 
those.
    Senator Nelson. Thank you very much. And the meeting is 
adjourned.
    [Whereupon, at 12:15 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


         Responses of Zalmay Khalilzad to Questions Submitted 
                         by Senator Chuck Hagel

    Question. Did the Syrians approach the United States in the context 
of the March 10 regional conference in Baghdad? Did the Syrians 
indicate what issues they would like to discuss? What was the U.S. 
response at the time? Did any bilateral discussion occur during the 
conference? If so, what was the substance?

    Answer. During the Iraq Neighbors Conference hosted by the Iraqis 
in Baghdad on March 10, the Syrians expressed interest in holding 
bilateral discussions with the United States in Damascus. There were no 
bilateral discussions during the conference itself. We responded that 
we would get back in touch regarding the possibility of bilateral 
meetings.

    Question. What are the administration's intentions for following up 
on Syria's stated interest for bilateral discussions? When and at what 
level would such discussions occur?

    Answer. Whether or not we will meet with the Syrians in a bilateral 
forum is yet to be determined. We have made clear that we wish to see 
the Syrian Government cease its destabilizing policies in the region 
and demonstrate a serious behavior change with respect to Iraq, 
Lebanon, terrorism, and domestic civil society.

    Question. What would be the primary issues the United States would 
raise in such discussions?

    Answer. No decisions have been made on the content of any such 
discussions. Our Charge and Embassy in Damascus communicate presently 
with the Syrian Government on a range of issues. Assistant Secretary of 
State Sauerbrey was recently in Damascus for bilateral discussions with 
the Syrians limited to the subject of assisting the Iraqi refugee 
population.
                                 ______
                                 

         Responses of Zalmay Khalilzad to Questions Submitted 
                         by Senator Bill Nelson

    Question. What, in your view, are the major factors influencing 
effective U.S. participation in the United Nations? What, in your view, 
is the perception of the U.S. at the U.N.? Can you talk about how you 
intend to build coalitions, and work with other member states to 
advance U.S. interests?

    Answer. Collective action is often the preferable course to take, 
particularly to achieve burden sharing. Also, we can enhance the 
legitimacy of our actions in the eyes of others by enlisting friends 
and allies to work with us, or by securing endorsement of our actions 
through the United Nations. The United Nations offers a forum where 
diplomats from around the world are present, including many who are 
very well regarded and well connected. This provides an opportunity not 
only to deal with issues in a formal sense, if they are on the U.N. 
agenda, but also an opportunity to advance our agenda in a setting that 
enables extensive, informal engagement.
    For the most part, other countries' perceptions of the United 
States at the U.N. reflect the nature of our relationships with those 
countries generally. There are exceptions to this, mainly involving 
countries that take leading roles in the Group of 77 and the Non-
Aligned Movement (NAM), which claim to speak for a wide array of 
countries. I will make a point of working with like-minded nations, 
especially democratic allies, to see how we can work together to 
influence the Group of 77 and the NAM. Finding new ways of working with 
the countries in these blocs will be a priority during my tenure.
    My guidelines for building coalitions and working with other member 
states to advance U.S. interests include: engaging with others to find 
common ground to advance our agenda, being respectful and listening to 
others, but not shying away from pointing out why we think the way we 
do, and being open to others who might come up with approaches that 
work. If we do this, we will be perceived accurately as offering 
leadership. I intend to be persistent, not to give up, and not to be 
discouraged in the face of complexity and difficulty. Specifically, I 
will engage democratic countries to increase their influence by working 
more closely together through the Democracy Caucus, and develop with 
their representatives a common agenda and political strategy to achieve 
our shared goals. I intend to try to help the U.N. be more effective in 
carrying out its mission, in ways that help us achieve our objectives.

    Question. I recently visited Haiti and met with the leadership of 
the U.N. mission there--MINUSTAH. Will the United States continue to 
support MINUSTAH and its elevated force levels? How many Americans 
participate in MINUSTAH?

    Answer. MINUSTAH remains critical to the establishment of a stable 
and secure environment in Haiti, one of the highest peacekeeping 
priorities for the United States. On February 15, 2007, the United 
States supported a United Nations Security Council Resolution renewing 
the mandate of the U.N. Stabilization Mission in Haiti (MINUSTAH) for 
an 8-month period with no change in the authorized force levels of 
7,200 troops and 1,951 U.N. police. Given the ambitious 5-year U.N. 
plan to reform the Haitian National Police (HNP) that commenced in 
December 2006, it is essential that we, along with the other 44 troop-
contributing countries in MINUSTAH, continue to assess the mission's 
force level and mandate in accordance with Haiti's progress in assuming 
greater control over its security. Our goal and that of our 
international partners remains to field a credible U.N. force to assist 
Haiti in consolidating its restored democracy.
    Fifty-three American military and police officers currently serve 
in MINUSTAH. Three U.S. military officers currently serve on the 
MINUSTAH military staff and 50 U.S. police officers serve as United 
Nations police. In addition, a number of American citizen civilians are 
hired directly by the U.N. to serve on the MINUSTAH staff.

    Question. I would like to support more American participation in 
MINUSTAH--particularly Creole-speaking United States police officers. 
Will you support me in this effort?

    Answer. The United States is committed to continued participation 
in the civilian, military, and police components of MINUSTAH and will 
continue to work to meet requests from the United Nations for 
candidates for any of these functions. Working through our contractor 
for the recruitment and deployment of U.S. police officials in U.N. 
peacekeeping operations, the United States would certainly welcome 
expressions of interest from qualified Creole-speaking officers.

    Question. How does the United States leverage U.N. peacekeeping 
operations, such as MINUSTAH in Haiti, to address our foreign policy 
concerns? In your view, what is the value of U.N. peacekeeping missions 
to supporting U.S. interests? Could the U.N. do more in places like 
Haiti to promote stability and address humanitarian concerns?

    Answer. U.N. peacekeeping can, and often does, serve U.S. national 
interests. We have a stake in the outcome of events in every region of 
the world. U.N. peacekeeping missions engage and commit the 
international community to seek solutions to violence and instability. 
They cost the United States a quarter of what we would pay if we were 
asked to deploy American forces. In the Security Council and through 
our contributions to the U.N., the United States ensures that U.N. 
peacekeeping mandates are clear, credible, and limited to what is 
achievable, and that peacekeepers are properly prepared. We use our 
voice and vote to ensure that these missions are consistent with U.S. 
national interests.
    Demands for U.N. peacekeeping have grown substantially in recent 
years. The U.N. Department of Peacekeeping Operations is currently 
responsible for around 100,000 peacekeepers (military, civilian, and 
police) deployed in 16 peacekeeping operations and two political 
missions around the world. Since October 2003 the Security Council has 
authorized five major operations--Liberia, Cote d'Ivoire, Haiti, 
Burundi, and Sudan--and has substantially expanded the missions in 
Lebanon and the Democratic Republic of the Congo.
    During the same time we have seen increasing responsibilities for 
post-conflict programs built into peacekeeping mandates, with experts 
in elections, rule of law, human rights, disarmament, security sector 
reform, and other such critical elements being added to what were once 
mainly military operations in support of peace agreements. This 
multidimensional approach is in close step with the creation of the new 
Peacebuilding Commission. The mission in East Timor is a good example 
of the new integrated mission, bringing a number of U.N. functions 
under the Special Representative of the Secretary-General, and serving 
a post-conflict need, which is a step farther than traditional 
peacekeeping responses to crisis. Mandates are often extended at least 
a year past elections to allow new governments to establish roots. 
There is a growing trend to following a peacekeeping mission with a 
political mission to ensure continuing international attention to 
countries emerging from crisis.

    Question. In our March 13 meeting, you said you were not certain 
that all the forces dedicated to the surge would be used, but mentioned 
GEN Petraeus's preference to have them there.
    (a) What do you think about the 20,000-30,000 additional troops we 
are talking about today?
    (b) How long do you give the surge to succeed? What are the 
benchmarks or milestones that we should expect to be met in the next 2 
months?
    (c) How can we better leverage the interests of Iraq's neighbors?

    Answer. (a) In addition to the build-up of 21,500 troops 
(approximately five brigades) announced by the President in January, 
Secretary of Defense Gates announced on March 7 his request for 
approximately 2,400 military support personnel and 2,200 additional 
U.S. military police to assist with detainee requirements. The last of 
nine additional Iraqi battalions and the second of the five U.S. 
brigades are now operating in Baghdad. These additional forces are 
needed to partner with Iraqi units in this Iraqi-led operation. The 
purpose of this partnership is to increase the capabilities of ISF 
through combined operations and mentoring. Over 45 Joint Security 
Stations are being established among the 10 security framework 
districts to facilitate cooperation between Coalition and Iraqi forces 
and to build trust and confidence with the local population. This 
Iraqi-led effort is clearing focus districts and, with Coalition 
support, is working to provide a 24-hour presence in the city to 
protect the population from hostile reinfiltration. This represents a 
critical shift away from operating out of forward-operating bases. We 
fully support the Department of Defense in its decisions about troop 
levels to ensure the success of Operation Fardh al-Qanoon.
    (b) While some initial results from Operation Fardh al-Qanoon have 
been favorable, it is too soon to assess or extrapolate a timeline for 
the military operation only in its second month. We are closely 
monitoring Iraq's progress. Factors being assessed include trends in 
violence, whether Iraqi army units are showing up and performing in a 
nonsectarian manner, whether or not there is Iraqi political 
interference in military decisions, and whether or not Iraq is making 
progress on key political issues, such as passage of a national 
hydrocarbon law, preparations for provincial elections, and reform of 
the de-Baathification laws. We also are examining the extent to which 
Iraq is investing its resources in its own economic future and taking 
the steps necessary to effectively execute its budget.
    While the United States Government will continue to help Iraq, we 
have made it clear to the Iraqi Government that our commitment is not 
open-ended. That said, while we expect to see progress in the 
aforementioned areas, we are not setting deadlines. To do so would in 
some cases give a veto power to political forces in Iraq that are 
opposed to progress in some of these areas. Thus, while we can 
encourage the Iraqi Government and make our views known about the 
importance of making continued progress, and we are confident progress 
will continue, we are not in a position to set arbitrary deadlines, nor 
should we.
    (c) As part of the President's New Way Forward, and in line with 
the Iraq Study Group recommendations, we have been engaged in a robust 
``diplomatic offensive'' to boost international and regional support 
for Iraq. To this end, the United States participated in the 
subministerial Neighbors Conference in Baghdad on March 10, and the 
Secretary intends to participate in a follow-on ministerial in the 
region in April. The March 10 Neighbors Conference established working 
groups, which will give the United States a seat at the table alongside 
Iraq's neighbors in negotiating concrete assistance to help Iraq deal 
with pressing issues such as refugees, fuel supplies, and security 
(including border security).
    Furthermore, our diplomatic efforts include Secretary Rice's 
intensified dialog with the Gulf Cooperation Council through GCC+2 
(Egypt and Jordan) at the Foreign Minister level. We have similarly 
stepped up our dialog with the Arab League to garner more support for 
the Iraqi Government. We also note our positive engagement and progress 
on the International Compact with Iraq, which the Iraqi Vice President 
finalized and presented to U.N. ambassadors on March 16 in New York. 
The Compact enables the Iraqi Government to work directly with its 
neighbors, the international community, the World Bank and U.N. 
institutions on a 5-year economic development plan that will bolster 
civilian reconstruction and development efforts crucial to Iraq's 
success. Finally, we continue to engage with Iraq's neighbors and other 
regional players to ensure that Iraq receives the support it needs to 
succeed.

    Question. Venezuela barely lost its bid to win a seat on the U.N. 
Security Council. How can the United States increase our influence in 
the U.N. and counteract President Chavez's influence? What will you do 
to prevent him from derailing multilateral diplomatic efforts with his 
antics?

    Answer. The best way to counteract the obstructionist policies of 
Venezuela is through constructive, collaborative, and results-oriented 
partnerships with allies and other countries as well as the U.N. 
Secretariat. I will work with other democracies to increase our 
influence, and the influence of other responsible democracies, through 
a reinvigorated Democracy Caucus. I will work with representatives of 
democratic countries that see promise in this approach to develop a 
common agenda and political strategy to achieve our shared goals. I 
will also reach out to our friends and encourage like-minded countries 
to reach out to their friends in the Non-Aligned Movement and the Group 
of 77 to discuss how we might make common cause on issues of mutual 
importance. Finding new ways of working with the countries in these 
blocs will be critical to minimizing the disruptions caused by 
Venezuelan antics.

    Question. Do you support the agreement reached in February with 
North Korea? Why would your predecessor oppose the deal?

    Answer. I support our North Korea policy. President Bush has said 
that the Six-Party Talks represent the best opportunity to use 
diplomacy to address North Korea's nuclear programs and reflect the 
common commitment of the participants to a Korean Peninsula that is 
free of nuclear weapons.
    I am not in a position to speak for Mr. Bolton, except to note that 
as a private citizen he is entitled to his opinion.

    Question. What is the status of negotiations at the U.N. Security 
Council on a new resolution with tougher sanctions? Are China and 
Russia supportive of these efforts?

    Answer. Last week, the governments of the P-5 (China, France, 
Russia, United Kingdom, and the United States) plus Germany reached 
agreement on a draft second sanctions resolution, which imposes 
additional sanctions on Iran. The resolution was introduced to the full 
U.N. Security Council for its consideration on March 15; member states 
are now consulting capitals. We look forward to the rapid adoption of 
the resolution by the full U.N. Security Council and are confident that 
the U.N. Security Council will continue to make clear to the Iranian 
regime that there are costs for its continued defiance.
    As Secretary Rice has reiterated many times, the generous P5+1 
package remains on the table, including the United States' offer to 
engage in direct discussions with Iran. Iran's continued refusal to 
suspend enrichment--despite the generous incentives package--is a 
missed opportunity. We urge the Iranian regime to abandon its current 
confrontational course, comply with its international obligations, 
cooperate fully with the IAEA, suspend its enrichment-related 
activities, and enter into constructive negotiations.

    Question. You agreed that United States intervention in Lebanon in 
the 1980s was not a successful exercise. I suggested the failure was 
due to a perception of U.S. bias in siding with the Maronite Christians 
at the time.
    What lessons can we take away from our historical experience in 
Lebanon? How can we avoid a similar situation in Iraq, as regards 
sectarian rivalries and allegations of United States complicity in 
ethnic cleansing?

    Answer. While there are major differences between Lebanon in the 
1980s and Iraq in the 21st Century, our Lebanon experience makes clear 
that while military intervention may sometimes be necessary in the face 
of a crisis, long-term stability can best be achieved through 
development of a strong, functioning democracy in which every 
individual has a voice. Applying that lesson to Iraq, it means that we 
must build on our military successes and press all sides to engage in 
meaningful reconciliation, compromise, and mutual understanding to 
ensure that the disaffected recognize the ability of Iraq's democratic 
system to secure their safety, rights, and legitimate participation in 
the political process. In this effort, the United States Government 
does not side with any sectarian or ethnic group in Iraq against any 
others, and is morally opposed to ethnic cleansing in all its forms, 
whether in Lebanon, in Iraq, or in any other country.

    Question. What will the United States do in the U.N. to help the 
people of Darfur?

    Answer. The appointment of Special Envoy Natsios, intensified 
diplomatic engagement at the U.N. and in Khartoum, and our efforts to 
encourage a political solution in Darfur while working towards a more 
robust peacekeeping operation demonstrate continued United States 
commitment to Darfur. Our first objective in Darfur is to achieve a 
durable peace through a political settlement that is agreed to by all 
parties voluntarily, and then is actually implemented. The United 
States believes that the U.N. and the African Union, under Special 
Envoys, Jan Eliasson and Salim Salim, should take the lead in mediating 
a political agreement between the rebels and the Sudanese Government, 
and the United States will do everything possible to support them in 
this process. We also will continue to push for the deployment of the 
three-phase plan for U.N.-led peacekeeping in Darfur and also support 
the potential deployment of U.N. peacekeepers in Chad and the Central 
African Republic.
    The United States Government remains the leading international 
donor to Sudan and as of March 2007 has contributed over $2 billion for 
humanitarian programs in Sudan and eastern Chad. In fiscal year 2007, 
the United States will provide more than $1.2 billion in funds for the 
provision of humanitarian, development, and peacekeeping assistance to 
Sudan. In fiscal year 2008, we have requested a comparable level of 
funding, and thus look to provide more than $2 billion in assistance 
over the next 2 years. We have contributed over $350 million to the 
African Union Mission in Sudan (AMIS) since its inception, including 
base camp construction, equipment, logistics, and airlift, in addition 
to the provision of training and logistical support.
    We will continue to impose domestic sanctions and support U.N. 
sanctions against the individuals (Government of Sudan and rebels) 
responsible for the violence or for impeding the peace in Darfur, and 
against the entities that are owned or controlled by the Government of 
Sudan. We are engaged diplomatically with the Sudanese Government to 
urge its full acceptance of the A.U.-U.N.-hybrid force under U.N. 
command and control, which the Government of Sudan agreed to in Addis 
Ababa. We have also continued discussions of ``Plan B,'' which would be 
a series of more coercive measures aimed at pressuring the Government 
of Sudan, with our international partners, and made clear to the 
Sudanese Government that we are prepared to use stronger measures in 
the event the Government of Sudan continues to defy the will of the 
international community.

    Question. How will the United States delegation deal with Chinese 
and Russian opposition to sanctions and denunciations against the 
Sudanese Government?

    Answer. We have begun a dialog with Security Council members on 
next steps. We hope that President Bashir will, despite his March 6 
letter to the Secretary General, back the heavy support package and the 
U.N.-led hybrid force in Darfur and cooperate with its deployment 
immediately. Absent such an indication, we believe President Bashir has 
made it clear to the international community that it is time to 
consider coercive actions to pressure Sudan to implement the Darfur 
Peace Agreement (DPA) and accept deployment of the vitally-needed U.N. 
peacekeeping operation in Sudan. We believe that Security Council 
members have found common ground, together with the A.U., in collective 
impatience with President Bashir's intransigence, to call for new 
measures. We will impose additional domestic targeted sanctions against 
those who are impeding the peace and encourage our international 
partners to speedily support U.N. sanctions against the offending 
parties until there is peace in Darfur. We will continue working with 
China and Russia to pursue tough and effective measures in Darfur, 
since they are aware that the international community and world opinion 
expect effective leadership from the Security Council and its members.
                                 ______
                                 

         Responses of Zalmay Khalilzad to Questions Submitted 
                       by Senator Robert Menendez

    Question. And then last--and we haven't had a lot of discussion on 
this, but this is one of my major concerns, and that is the Human 
Rights Council. I know that the Council is supposed to be an element of 
reform. When Cuba and China, some of the biggest human rights abusers, 
are on the Council, I just quite can't understand it. But I am 
concerned that our absence from it at the same time, while a statement 
that we don't believe it has reformed the way it should, also leaves--
cedes the ground to others on some of the most consequential issues. 
People who languish in countries in the world who look to the United 
States as a beacon of light, of freedom and democracy, and of respect 
for human rights--when that voice is absent in that respect, I'm not 
quite sure that we're promoting our interests or giving those people 
who we want to see take the chance to struggle in their own countries 
to move toward democracy in their own countries and human rights the 
type of hope and opportunity that they want. And so I'd like to hear 
how you're going to be pursuing that course as well.

    Answer. We will continue to be a forceful advocate in the promotion 
of human rights around the world and will bring attention to those 
areas where respect for human rights is lacking. We will work to 
promote human rights in all U.N. bodies, such as the U.N. General 
Assembly (UNGA) Third Committee, and where appropriate, the U.N. 
Security Council.
    The Human Rights Council (HRC) has been a disappointment. The HRC 
has dealt repeatedly with the one issue of Israel, and only weakly with 
Sudan. The HRC has not proven a capacity--as called for in UNGA 
resolution 60/251--to address urgent and serious human rights 
situations without bias. As you note, we did not run for the Council 
last year and recently announced we will not run again this year, but 
remain as a highly active observer in Geneva, led by our Permanent 
Representative, Warren Tichenor. We believe that the Council should 
expand its focus from beyond issues related to Israel and examine 
continuing situations of real concern, such as Sudan, Burma, North 
Korea, and Cuba, or the recently emerging crisis in Zimbabwe.
    In the final months of its first year, we are committed to building 
a more effective institution. We will continue working with our 
democratic allies in Geneva to change the course of the Council. This 
means pushing firmly for: (1) a balanced agenda that does not include a 
permanent item singling out Israel and not any other nations; (2) any 
experts appointed to roles in the Council to be unbiased and chosen 
based on their qualifications and not elected by the HRC; (3) renewal 
of the mandates of all of the country-specific Special Rapporteurs; 
and, (4) increased emphasis on the Office of the U.N. High Commissioner 
for Human Rights' field activities rather than politicized conference 
work in Geneva.

    Question. How do we move other countries to more fully enforce the 
existing Security Council actions? And as we try to make those actions 
more pervasive, how do you intend to try to use all of the resources--
your diplomatic skills, of course, whatever persuasiveness, showing 
other countries their own interests in pursuing this, but also other 
options we have? We have economic levers here to pull as well. How do 
we get them to understand that containing Iran's nuclear ambitions is 
one in which there is common cause and we have greater success in its 
enforcement?

    Answer. We are responding to Iran's pursuit of a nuclear weapons 
capability, hegemonic aspirations, support for terrorism, and 
destabilizing activities with a comprehensive strategy that relies on 
American diplomatic leadership and a strong multilateral coalition. 
First and foremost, we have made clear to Tehran that its provocative 
and destabilizing policies will entail painful costs, including 
financial hardship for its leaders, diplomatic isolation, and long-term 
detriment to Iran's prestige and fundamental national interests. 
Second, and equally important, we have worked to alter the regime's 
behavior and to convince it that a cooperative, more constructive 
course that would better serve its interests is available.
    In December 2006, the United Nations Security Council unanimously 
adopted Resolution 1737, imposing Chapter VII sanctions targeting 
Iran's nuclear and ballistic missile programs and demanding that Iran 
completely and verifiably suspend enrichment and reprocessing 
activities, heavy water-related projects and cooperate fully with the 
IAEA. In light of the IAEA Director General's February 22, 2007 report 
confirming Iran's noncompliance with UNSCR 1737, we worked with the 
permanent five members of the UNSC and Germany on a second draft U.N. 
sanctions resolution to signal to Iran the costs of its defiance. That 
resolution is now before the full Security Council, with adoption 
expected soon.
    We are also working bilaterally with major governments to curtail 
business transactions with Iranian companies and individuals tied to 
Iran's nuclear activities and support for terrorism. The Department of 
the Treasury has used its authority under the International Emergency 
Economic Powers Act (IEEPA) to sanction Iranian Bank Sepah for 
providing support and services to entities involved in Iran's missile 
programs. Additionally, the Department of the Treasury cut Iranian 
state-owned Bank Saderat off from all access to the United States 
financial system because of its support for terrorism. Banks worldwide 
have begun to recognize the serious risk associated with Iranian 
business with some beginning to scale back their Iran portfolios.
    We are also working with France, Saudi Arabia, Egypt, Jordan, and 
others to signal our strong support for Prime Minister Siniora's 
democratically elected government in Lebanon and to prevent Iran and 
Syria from rearming Hizballah. We have stationed two carrier battle 
groups in the Gulf to reassure our friends in the Arab world that it 
remains an area of vital importance to us. And at the regional level, 
Secretary Rice last autumn launched a series of ongoing discussions 
with our Gulf Cooperation Council partners, as well as Egypt and 
Jordan, regarding issues of shared concern, including Iran.
    While we are acting vigorously to isolate the Iranian Government, 
we are also offering to it a diplomatic way forward. Secretary Rice has 
agreed to join her P5+1 colleagues in direct discussions with Iran 
regarding the nuclear and other issues ``at any place and at any 
time,'' provided Iran verifiably suspends its enrichment-related and 
reprocessing activities.
    If we continue our skillful diplomatic course and have the patience 
to see it play out over the mid- to long-term, we are confident we can 
avoid conflict with Iran and see our strategy succeed. Our strong hope 
is that Iran will accept the offer to negotiate with the United States 
and our P-5 partners so that we can achieve a peaceful end to Tehran's 
nuclear weapons ambitions.

    Question. But I'd like to see how do you intend to, again, use the 
wide array of options that exist for us to actually get President al-
Bashir to submit to what he has gone back on, which is a hybrid A.U.-
U.N. peacekeeping force?

    Answer. We are strongly encouraging the international community, 
including Sudan's major allies, to pressure Sudan for full acceptance 
of a hybrid A.U.-U.N. peacekeeping force. Sudan agreed to this force in 
November, although in a March 6 response to U.N. Secretary-General Ban 
Ki-moon's letter, President Bashir backed away from this commitment. 
The United States and other members of the international community 
found the response letter unacceptable and expect Sudan to honor its 
prior commitments. The letter is an affront to the A.U. and the U.N., 
as it reneges on agreements with both groups. We, therefore, are moving 
forward to implement additional sanctions against individuals and 
entities, and will continue to examine other coercive options. We will 
work closely with the international community to ensure maximum 
pressure on Khartoum. We continue to call on Sudan to immediately 
reverse its position on U.N. deployment, end bureaucratic constraints 
that hinder the critical efforts by international humanitarian workers, 
and fully cooperate with the A.U.-U.N. led political process.
                                 ______
                                 

         Responses of Zalmay Khalilzad to Questions Submitted 
                        by Senator Barack Obama

    Question. I'm wondering whether the administration has some plan in 
the United Nations, whether other countries are thinking about how we 
might put more pressure on the Mugabe regime.

    Answer. We are deeply concerned about the tragic events that are 
occurring in Zimbabwe. The United States has strongly condemned the 
recent atrocities committed by the Government of Zimbabwe against a 
leader of the opposition Movement for Democratic Change and other 
opposition activists.
    We are seeking action on the Zimbabwe situation at the U.N. Human 
Rights Council and support the British request at the U.N. Security 
Council for the Secretariat to provide a report on Zimbabwe. We have 
discussed the issue with the African Union, which has issued a strong 
statement. We are encouraged that so many nations and organizations 
around the world have condemned the atrocities in Zimbabwe and have 
called on the Zimbabwean Government to respect the rights of its own 
people. We are also exploring means for broadening our financial and 
travel sanctions, which are targeted at those leaders who are 
oppressing the people of Zimbabwe.

    Question. You may feel the same way about this next question, 
because it's a broad one, but I think one that's vital and that touches 
on the others. One of the other core missions of the United Nations--
well, you mentioned--and that's security--it's my view that the Non-
Proliferation Treaty and the structure that we've set up in the past is 
fraying rather badly. I think everybody's in agreement that the NPT 
needs updating. We've got regional proliferation problems like Iran and 
North Korea, but we've also got some broader questions arising out of 
the treaty with India, the desire for a variety of nations to look at 
nuclear power as an option to deal with their energy needs. We still 
need to make more progress on securing nuclear materials and enhancing 
international interdiction efforts. So I'm just wondering, do you have 
at this stage any thoughts in terms of how the administration would 
approach strengthening that regime? Is it something that you've already 
discussed?

    Answer. President Bush has a broad strategy for nuclear 
nonproliferation, as set out in the National Strategy to Combat WMD 
Proliferation. The National Strategy to Combat WMD is the first of its 
kind--a broad strategy uniting all the elements of national power 
needed to counter the full spectrum of WMD threats. Previous U.S. 
approaches had focused almost exclusively on nonproliferation. The Bush 
administration has dramatically expanded U.S. nonproliferation efforts 
to prevent acquisition of WMD, related materials, and delivery systems 
by rogue states or terrorists. The three pillars in the National 
Strategy of nonproliferation, counterproliferation, and consequence 
management do not stand alone, but rather come together as seamless 
elements of a comprehensive approach.
    The Nuclear Non-Proliferation Treaty (NPT), which entered into 
force in 1970, provides the international legal basis for preventing 
the spread of nuclear weapons and is the essential foundation for 
global nuclear nonproliferation. Additionally, the United States 
supports many programs to increase our ability to prevent, detect, and 
deter the proliferation of nuclear materials. U.S. assistance to other 
countries to reduce and prevent the proliferation of weapons of mass 
destruction and delivery vehicles--through DOD's Cooperative Threat 
Reduction (CTR) program, the Department of Energy's nuclear 
nonproliferation programs, and the smaller but nonetheless important 
State Department programs--has been at record funding levels. The 
President has committed an average of $1 billion a year to these 
critical efforts; we greatly welcome the consistent, strong support of 
the committee for these essential programs. Moreover, with the proposal 
in 2002 for the G-8 Global Partnership Against the Spread of Weapons 
and Materials of Mass Destruction, the President successfully called on 
our foreign partners to commit their fair share to the effort to meet 
what is a global responsibility.
    The United States also has led the way to strengthen the 
International Atomic Energy Agency's ability to detect nuclear 
proliferation. We instituted a successful effort to increase the IAEA's 
safeguards budget. We have strongly supported the IAEA Additional 
Protocol, to strengthen the agency's ability to uncover clandestine 
nuclear programs. The President also successfully urged the creation of 
a new special committee of the IAEA Board of Governors to examine ways 
to strengthen the agency's safeguards and verification capabilities.
    In addition to the President's proposals to strengthen the IAEA 
institutionally, he challenged the international community to rectify 
the greatest weakness in the nuclear nonproliferation system: the 
ability of states to pursue nuclear weapons under the cover of peaceful 
energy programs. The lesson of Iran and North Korea is clear: Some 
states will cynically manipulate the provisions of the Nuclear 
Nonproliferation Treaty to acquire sensitive technologies to enable 
them to pursue nuclear weapons capabilities--the very capabilities the 
treaty is intended to deny. To close this loophole, the President has 
proposed that uranium enrichment and plutonium separation 
capabilities--the two primary paths to acquiring fissile material for 
nuclear weapons--be limited to those states that already operate full-
scale, fully-functioning facilities. In return, he called on the 
world's nuclear fuel suppliers to assure supply, in a reliable and cost 
effective manner, to those states which forego enrichment and 
reprocessing. We are working with other fuel provider states and with 
the IAEA to put in place assurances that will convince states with 
power reactors that their best economic interest is not to invest in 
expensive, and proliferation risky, fuel cycle capabilities.
    The Department of Energy plays a critical part in developing these 
Presidential initiatives and working with other nations to bring them 
to fruition. The Global Nuclear Energy Partnership (GNEP), led by DOE, 
offers the promise for the longer term of enhancing global access to 
nuclear energy while strengthening nonproliferation. An important 
emphasis of the initiative is to provide a basis for states to benefit 
from civil nuclear power while avoiding the costs and challenges of 
enriching fresh fuel on the front end of the fuel cycle and disposing 
of spent fuel on the back end. The Department of State is working 
closely with DOE to engage international partners to participate 
actively in GNEP.
    In addition, the United States has led the way in the U.N. Security 
Council to broaden the international requirements on nonproliferation. 
The United States spearheaded United Nations Security Council 
Resolution (UNSCR) 1540. In adopting UNSCR 1540, the Security Council--
for only the second time since its founding--invoked its Chapter VII 
authorities to require nations to act against a general, as opposed to 
a specific, threat to international peace and security. In particular, 
UNSCR 1540 requires all states to prohibit WMD proliferation 
activities, such as we witnessed with the A.Q. Khan network. It further 
requires that states institute effective export controls, and enhance 
security for nuclear materials on their territory. We also have led the 
U.N. Security Council in adopting U.N. Chapter VII resolutions 1718 and 
1737, targeting North Korea and Iran, respectively.
    We have worked to strengthen our counterproliferation efforts to 
ensure that we have the capability to work with states around the world 
to interdict shipments of proliferation concern, and to impede the 
finances of proliferation. The Proliferation Security Initiative (PSI), 
announced by President Bush on May 31, 2003, has been endorsed by more 
than 80 nations. This global initiative seeks to have all nations use 
their existing legal authorities--national and international--to defeat 
proliferation and applies intelligence, diplomatic, law enforcement, 
and other tools at the disposal of nations to impede transfers of WMD-
related items to countries and entities of concern.
    Additionally, we have worked closely with the Department of 
Treasury to enhance our ability to prevent proliferators from accessing 
the international financial system. President Bush augmented U.S. 
efforts in this area when he issued in July 2005 a new Executive Order 
13382, which authorizes the U.S. Government to freeze assets and block 
transactions of entities and persons, or their supporters, engaged in 
proliferation activities. Currently, entities from North Korea, Iran, 
and Syria have been the focus of our efforts under the Order. These 
actions have assisted in further isolating these regimes from the 
international community.
    Another key effort of the United States has been the development of 
international cooperation to combat nuclear terrorism. President Bush 
has described this threat as the central national security challenge of 
our era. The Global Initiative to Combat Nuclear Terrorism, launched 
last year by Presidents Bush and Putin, is the first initiative of its 
kind, one that takes a comprehensive approach to dealing with all 
elements of the challenge. The initiative is consistent with, and 
builds on, existing legal frameworks such as the Nuclear Terrorism 
Convention and U.N. Security Council Resolutions 1540 and 1373. It 
provides a flexible framework that will enable sustained international 
cooperation to prevent, detect, and respond to the threat of nuclear 
terrorism. The central objective of the Global Initiative to Combat 
Nuclear Terrorism is to establish a growing network of partner nations 
that are committed to taking effective measures to build a layered 
defense-in-depth that can continuously adapt to the changing nature of 
the threat. While many individual programs and efforts have approached 
one element or aspect of the nuclear terrorism threat, the Global 
Initiative provides a capacity building framework for establishing new 
partnerships with those nations that wish to take similar action. In 
carrying out this new initiative, we will also cooperate with the IAEA 
and invite them to participate.


                               NOMINATION

                              ----------                              


                        THURSDAY MARCH 22, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
Fraker, Ford M., to be Ambassador to the Kingdom of Saudi 
        Arabia
                              ----------                              

    The committee met, pursuant to notice, at 10:35 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John Kerry 
presiding.
    Present: Senators Kerry, Lugar, Sununu, and Isakson.

             OPENING STATEMENT OF HON. JOHN KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. This is a hearing to hear the views of Ford 
Fraker to be Ambassador of the United States of America to the 
Kingdom of Saudi Arabia. And we welcome you, Mr. Fraker. Thank 
you very much for being willing to do this, and we look forward 
to a conversation this morning that shouldn't take that long.
    We understand that this post is unaccompanied, and I gather 
that unaccompaniment has already begun this morning. 
[Laughter.]
    The members of your family are scattered around with spring 
vacations and other obligations. We understand that, but we're 
grateful to them for their willingness to see you go off to 
this complicated part of the world for a year or so. And, we 
understand, obviously, and are grateful for the sacrifices that 
families make in this process.
    Needless to say, the position that you've been nominated 
for, Ambassador to Saudi Arabia, is a very important one to our 
country, and a very challenging one. Our relationship with 
Saudi Arabia is one of the most significant, and complex 
relationships that we have anywhere in the world.
    I was personally gratified to hear that you have such 
extensive experience in the region, that you speak the 
language, which is an enormous benefit to any ambassador going 
anywhere, but particularly, this part of the world.
    Saudi Arabia, obviously, has played and continues to play a 
vital role in our relationship and throughout the region. When 
it comes to stabilizing Iraq, when it comes to dealing with 
radical extremism within Islam, when it comes to dealing with 
global terrorism, conflict in Lebanon, or forging a lasting 
peace between Israel and the Palestinians, no country is more 
important than Saudi Arabia.
    In all of these areas, Saudi Arabia has made important 
contributions and significant progress, but we all understand 
there's also more that can be done, and must be done. Iraq is 
at the top of everybody's agenda, at this particular moment, 
and for rightful reasons, but it is also part of a larger and 
complicated series of concerns in the region. The Saudi 
Government, I might say, made it clear at the beginning that 
they did not support the decisions, the administration's 
decision to invade Iraq. And the Iraq Study Group concluded 
that Saudi Arabia and the other Gulf States have been, 
``passive and disengaged since then.''
    I have personally traveled to the region, while not to 
Saudi Arabia in the last couple of years, but other countries 
in the region and that is indeed the conclusion that I would 
also come to.
    Regardless of what's happened in the past, we all share an 
interest in bringing stability to Iraq. Any successful strategy 
is going to require strong support from other countries in the 
region, and Saudi Arabia must play an assertive and positive 
role in that effort.
    We need to help them and they need to help us in convincing 
Sunni politicians to make the tough compromises necessary for 
the political solution. That is the only solution to the 
violence. And also, their help in cracking down on support for 
Sunni insurgents coming into Iraq from their country. We must 
also encourage them to step up in terms of debt relief and 
reconstruction assistance.
    But, it's important to remember that Iraq is only one part 
of the broader Sunni-Shia rift that goes back some 1,300 years. 
We're all aware of the concerns expressed by the Saudis, and 
other Sunni leaders about the Shia revival and Iran's growing 
influence. The Saudis can play a key role in our emerging 
efforts to create a regional security structure that will help 
to contain Iran and, to that end, the administration has 
approved over $9 billion in potential arms sales to Saudi 
Arabia.
    At the same time, we need to work with our Sunni allies in 
a way that does not exacerbate the Sunni-Shia conflict or give 
support to Sunni extremist groups, who may one day, turn 
against us and everyone else.
    We've recently seen the Saudis step up their efforts to 
play a mediating role in resolving conflicts throughout the 
Middle East. They've worked to bring about a peaceful 
resolution to the impasse in Lebanon. I know that's been 
constructive because I was recently in Lebanon and heard first-
hand from different leaders there of the role they were 
playing. And, that is a crucial assistance in promoting 
democracy and strengthening the moderates in the region.
    Also, the Saudis willingness to try to resolve the conflict 
between Israel and the Palestinians through the Peace 
Initiative proposed by Crown Prince Abdullah in March of 2002, 
now King Abdullah, which has been getting renewed attention, 
both in Israel and the United States, is commendable.
    At the same time, the recent Mecca agreement, that laid the 
groundwork for the new Palestinian Unity Government, we must 
note, failed to meet the key requirements of the quartet and 
Israel. And we know that Saudi Arabia continues to participate 
in the primary boycott of Israel.
    When it comes to fighting terrorism, the Saudis, have 
again, made some important progress, but more remains to be 
done. The 9/11 Commission put it this way--Saudi Arabia has 
been, ``A problematic ally in combating Islamic extremism.'' We 
know that counterterrorism cooperation has increased 
significantly since Saudi Arabia was itself attacked in 2003, 
and that's not gone unappreciated. But, concerns remain, 
especially about the role of Saudi money in financing terrorist 
organizations and exporting and extremists' ideology. One area 
of particular concern, was the role of Saudi-based charities 
funding groups that were linked to al-Qaeda and terrorist 
organizations in the Middle East, including one prominent 
charity that apparently used Arab bank branches in the 
Palestinian territories to provide funds directly to the 
families of suicide bombers.
    The Saudis have taken steps to address this problem, 
including creating National Commission to ensure that 
charitable contributions don't wind up in the wrong hands. But, 
that has not yet become operational and the Saudis still need 
to follow through on pledges to crack down on contributions 
from individuals.
    So, finally, Saudi Arabia's made steps toward 
democratization, including holding municipal elections in 2005. 
We do have to note, however, that women were not permitted to 
vote in those elections and the State Department's report on 
international religious freedom, still lists Saudi Arabia as a 
country of particular concern.
    So again, while there has been progress in bringing about 
reforms, there is still a distance to travel.
    So, Mr. Fraker, as Ambassador, these are most of the 
difficult important challenges that you'll be facing. I look 
forward to discussing them with you here this morning and 
hearing what your thoughts are and what the State Department's 
thoughts are now, about how you should approach them.
    Let me turn to Senator Sununu, and I note the ranking 
member, Senator Lugar is here, so, I'll let you guys sort out 
who goes first.
    Senator Sununu.

               STATEMENT OF HON. JOHN E. SUNUNU,
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Sununu. By previous agreement, Senator Lugar has 
allowed me to go first, but I'll try to condense my remarks so 
that he has ample time.
    I'd like to welcome Mr. Fraker. As you've indicated, Mr. 
Chairman, this is an important--a very important--position of 
great significance, not just to the United States, but to the 
region, because of the role Saudi Arabia plays in regional 
economics, in politics, the influence that they have on all the 
moderate and leading Arab States in the region.
    There are a series of challenges that Mr. Fraker will have 
to deal with in his post as Ambassador. But, I would like to 
note and underscore a few of the items that you mentioned.
    In particular, the recent leadership role played by the 
Kingdom and trying to move a framework and a process forward on 
negotiating peace between the Israelis and the Palestinians, 
support for participation in recent meetings in Iraq of all of 
the regional players that have a responsibility to help ensure 
territorial integrity in Iraq, and the movement of weapons, and 
financing for terrorists in the region. And, I hope that that 
regional framework can continue to play an increasing role in 
improving the situation, not just in Iraq, but throughout the 
region.
    And the third issue I would underscore is that of terrorism 
financing. I think Saudi Arabia and a number of other countries 
in the Gulf have played a very constructive role in dealing 
with some of the principal institutional mechanisms through 
which financing has moved terrorists throughout the region. 
But, there's obviously more opportunity for improvement and, in 
particular, the experience that Mr. Ford Fraker brings to this 
role, coming out of the financial services community, coming 
out of the banking community, having extensive experience in 
both global banking and in the Mideast region, provides a great 
opportunity to further improve the degree to which we've been 
able to stop the flow of funds to terrorists in the Middle 
East, and around the world.
    So, I think by background, by experience, we have a great 
candidate here, maybe even a slightly unconventional candidate, 
but given the frustration many of us have felt about progress, 
and process in the Middle East, I think that a different 
approach, different experience, different perspective will be, 
would be very welcome, not just as a member of the diplomatic 
corps, but also welcome within the region.
    I look forward to the testimony of Mr. Fraker and I'm happy 
to yield the floor to the Senator from Indiana.
    Senator Kerry. Thanks, Senator.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Thank you very much, Mr. Chairman.
    I thought your opening statement was very important as a 
comprehensive compilation of the many ways in which our 
relationship is so important. And, likewise, Senator Sununu has 
added to that.
    I would just echo the thought that this is an extremely 
important relationship. Our committee has had testimony that 
is, that resources in the hundreds of millions of dollars have 
been spent for decades, largely to make certain there was 
security for oil resources that would come from Saudi Arabia 
and adjoining countries to the rest of the world, indeed, to 
ourselves. That relationship has had profound significance in 
terms of war and peace throughout the area. Your sophistication 
on the ground has informed you of much of that, and your 
personal history.
    But, the current situation is one, just as my colleagues 
have pointed out, of intense consultation. A group of Senators 
met with the President and the Vice-President, Secretary of 
State yesterday about Latin American affairs, following the 
President's trip to Latin America. But, the President informed 
us that, as he was concluding the meeting, that he was going to 
be visiting with Prince Bandar. And that, obviously we were 
intrigued about that conversation, as we have been about 
conversations with Prince Bandar and his intercession in our 
affairs and of our consultation in the past.
    I mention this because this is a time in which Secretary 
Rice's trip to the area is, once again, crucial. Not only in 
the Israeli-Palestinian process, but given Saudi diplomacy, and 
the very large role the Saudis have played in trying to find 
other openings. Is there going to be help from Saudi Arabia in 
perfecting the situation so there can be proper recognition of 
Israel and some hope for a two-state solution?
    So, we look forward to your testimony and the opportunity 
for questions this morning. We welcome you to the committee.
    Senator Kerry. Senator, thank you, for all of those 
observations and also your wisdom and leadership on these 
issues. We appreciate it.
    Mr. Fraker, it's your chance now, to share with the 
committee your statement. We welcome it, and you can either put 
the whole thing in the record and summarize, or go with it as 
you please.

 STATEMENT OF HON. FORD M. FRAKER, NOMINEE TO BE AMBASSADOR OF 
  THE UNITED STATES OF AMERICA TO THE KINGDOM OF SAUDI ARABIA

    Mr. Fraker. Thank you, Mr. Chairman.
    Mr. Chairman, and members of the committee, I come before 
you today both honored and humbled by the trust placed in me by 
President Bush and Secretary Rice. If confirmed as Ambassador 
to Saudi Arabia, I will endeavor to carry out the President's 
mandate and represent our great Nation to the best of my 
ability.
    For over 30 years, I have been a banker in the Middle East. 
I have lived in Beirut, Dubai, and Bahrain, and have traveled 
to the region often and extensively ever since. My experiences 
as a banker during this time have included being shot at in 
Beirut, bombed in Riyadh, spat upon in Iran, and interrogated 
by border guards in Syria.
    I have driven the road from Baghdad to Kuwait City, trekked 
in the mountains of Yemen and Oman, and camped in the deserts 
of Saudi Arabia and the UAE. Over this period, I have come to 
know and appreciate the countries, cultures, people, and 
language of the region. More importantly, I have also come to 
know how to effectively communicate with, and work with, many 
Arab groups.
    At a time when diplomacy becomes increasingly vital for 
safeguarding and furthering American interests in the region, I 
believe it is critical that America's diplomats know about the 
countries, cultures, and people they are working with.
    While living in the Gulf as a senior U.S. banker, I met and 
conducted business with various rulers and royal family 
members, as well as government officials, bankers, and 
businessmen at the highest levels. One lesson I learned quickly 
was, that to be effective, it is necessary to establish 
relationships on a personal level. Once trust and respect are 
gained, it is then possible to achieve specific objectives. 
This is especially true in Saudi Arabia, where we must sustain 
and deepen a vitally important partnership.
    In my 30-year career as a banker, I have developed many 
personal relationships in the Kingdom. I believe these 
relationships, and my hard-won knowledge, will strengthen my 
ability to effectively represent the interests of the United 
States.
    The United States and Saudi Arabia have maintained a strong 
and important relationship since President Franklin D. 
Roosevelt met with King Abdulaziz aboard the USS Quincy on his 
way back from Yalta in 1945. Though tested since the tragic 
events of 9/11, our relationship has remained strong, as 
together we confront the threats of violent extremism, 
international terror, and regional instability.
    Saudi Arabia has been, and will continue to be, one of our 
key regional partners as together we face the challenges in the 
region. Securing and maintaining Saudi support will be critical 
to our success in realizing many of our regional objectives.
    In recent years, our cooperation in military, law 
enforcement, and security has deepened. We have supported the 
Saudis as they have confronted their own domestic terror threat 
from al-Qaeda. The Saudis have made, and continue to make, 
substantial progress fighting terror. Hundreds of terrorists 
have been arrested and killed in the last 3 years. I believe 
the Saudis have come to understand the need to address the 
roots of extremism that underlie terrorism; especially the need 
to aggressively deny financial support for terrorist 
organizations.
    If confirmed, I will be committed to expanding and 
deepening our efforts in these critical areas.
    We continue to be concerned with the restrictions on 
religious freedom in Saudi Arabia. Saudi Arabia is proud of its 
responsibility as custodian of Islam's holy sites of Mecca and 
Medina. However, it must also work to ensure that moderation 
and tolerance triumph over extremism and hatred. Working 
closely with Ambassador at Large for Religious Freedom, John 
Hanford, Ambassadors Jordan and Oberwetter have both made the 
promotion of religious freedom a priority, and progress has 
been achieved. If confirmed, I am determined to build on their 
efforts and to press for more improvement.
    To defeat extremism, it is important that Saudi Arabia take 
the lead in pursuing economic, political, and social reforms to 
ensure long-term stability. These include the pursuit of 
increased opportunities for Saudi citizens--especially women--
to participate in government and all aspects of society; 
economic reforms that will make the private sector an engine 
for growth and job creation; and education reforms that prepare 
Saudi youth for the demands of a modern society. If confirmed, 
I look forward to working on these critical issues.
    The United States-Saudi Strategic Dialog has become an 
effective mechanism for promoting America's regional and 
bilateral interests, including reform, and, if confirmed, I 
will work to strengthen this important partnership initiative.
    Saudi Arabia has approximately 25 percent of the world's 
oil reserves. In order to sustain U.S. and global economic 
prosperity, a steady and reliable supply of energy is 
essential. Saudi Arabia plays a key role in ensuring the 
stability of world oil markets. Saudi Arabia is also an 
important trading partner for the United States in many other 
areas, and I will be a strong advocate for United States 
business in all sectors.
    There is no responsibility more important in the work of 
our missions abroad than assisting American citizens in 
distress or need. If confirmed, I will place the highest 
priority on the security of the personnel at the United States 
mission, and on protecting the safety and welfare of all our 
citizens in Saudi Arabia. I will also work to ensure that 
American children who have been wrongfully taken from their 
parents may return home, and that any adult American woman may 
freely depart from Saudi Arabia, at any time.
    In conclusion, if confirmed as Ambassador, I will use the 
skills and knowledge I have developed during my career in the 
Middle East to serve the best interests of my country. I will 
keep your concerns and questions firmly in my mind while I 
carry out my responsibilities. I hope you will visit the 
Kingdom, so that together we can continue to strengthen this 
vital strategic relationship.
    Thank you for considering my nomination.
    [The prepared statement of Mr. Fraker follows:]

 Prepared Statement of Ford M. Fraker, Nominee to be Ambassador of the 
        United States of America to the Kingdom of Saudi Arabia

    Mr. Chairman and members of the committee, I come before you today 
both honored and humbled by the trust placed in me by President Bush 
and Secretary Rice. If confirmed as Ambassador to Saudi Arabia, I will 
endeavor to carry out the President's mandate and represent our great 
Nation to the best of my ability.
    For over 30 years, I have been a banker in the Middle East. I have 
lived in Beirut, Dubai, and Bahrain, and have traveled to the region 
often and extensively ever since. My experiences as a banker during 
this time have included being shot at in Beirut, bombed in Riyadh, spat 
upon in Iran, and interrogated by border guards in Syria. I have driven 
the road from Baghdad to Kuwait City, trekked in the mountains of Yemen 
and Oman, and camped in the deserts of Saudi Arabia and the UAE. Over 
this period, I have come to know and appreciate the countries, 
cultures, people, and language of the region. More importantly, I have 
also come to know how to effectively communicate with and work with 
many Arab groups. At a time when diplomacy becomes increasingly vital 
for safeguarding and furthering American interests in the region, I 
believe it is critical that America's diplomats know the countries, 
cultures, and people they are working with.
    While living in the Gulf as a senior U.S. banker, I met and 
conducted business with various rulers and royal family members, as 
well as government officials, bankers, and businessmen at the highest 
levels. One lesson I learned quickly was that to be effective it is 
necessary to establish relationships on a personal level. Once trust 
and respect are gained it is then possible to achieve specific 
objectives. This is especially true in Saudi Arabia, where we must 
sustain and deepen a vitally important partnership. In my 30-year 
career as a banker, I have developed many personal relationships in the 
Kingdom. I believe these relationships and my hard-won knowledge will 
strengthen my ability to effectively represent the interests of the 
United States.
    The United States and Saudi Arabia have maintained a strong and 
important relationship since President Franklin D. Roosevelt met with 
King Abdulaziz aboard the USS Quincy on his way back from Yalta in 
1945. Though tested since the tragic events of 9/11, our relationship 
has remained strong as together we confront the threats of violent 
extremism, international terror, and regional instability. Saudi Arabia 
has been, and will continue to be, one of our key regional partners as 
together we face the challenges in the region. Securing and maintaining 
Saudi support will be key to our success in realizing many of our 
regional objectives.
    In recent years, our cooperation in military, law enforcement, and 
security issues has deepened. We have supported the Saudis as they have 
confronted their own domestic terror threat from al-Qaida. The Saudis 
have made, and continue to make, substantial progress fighting terror.
    Hundreds of terrorists have been arrested and killed in the last 3 
years. I believe the Saudis have come to understand the need to address 
the roots of extremism that underlie terrorism; especially the need to 
aggressively deny financial support for terrorist organizations. If 
confirmed, I will be committed to expanding and deepening our efforts 
in these critical areas.
    We continue to be concerned with the restrictions on religious 
freedom in Saudi Arabia. Saudi Arabia is proud of its responsibility as 
custodian of Islam's holy sites of Mecca and Medina. However, it must 
also work to ensure that moderation and tolerance triumph over 
extremism and hatred. Working closely with Ambassador at Large for 
Religious Freedom, John Hanford, Ambassadors Jordan and Oberwetter have 
both made the promotion of religious freedom a priority and progress 
has been achieved. If confirmed, I am determined to build on their 
efforts and to press for more improvement.
    To defeat extremism, it is important that Saudi Arabia take the 
lead in pursuing economic, political, and social reforms to ensure 
long-term stability. These include the pursuit of increased 
opportunities for Saudi citizens especially women--to participate in 
government and all aspects of society; economic reforms that will make 
the private sector an engine for growth and job creation; and education 
reforms that prepare Saudi youth for the demands of a modern society. 
If confirmed, I look forward to working on these critical issues.
    The United States-Saudi Strategic Dialog has become an effective 
mechanism for promoting America's regional and bilateral interests, 
including reform, and, if confirmed, I will work to strengthen this 
important partnership initiative.
    Saudi Arabia has approximately 25 percent of the world's proven oil 
reserves. In order to sustain U.S. and global economic prosperity, a 
steady and reliable supply of energy is essential. Saudi Arabia plays a 
key role in ensuring the stability of world oil markets. Saudi Arabia 
is also an important trading partner for the United States in many 
other areas, and I will be a strong advocate for United States 
business.
    There is no responsibility more important in the work of our 
missions abroad than assisting American citizens in distress or need. 
If confirmed, I will place the highest priority on the security of the 
personnel at the United States mission and on protecting the safety and 
welfare of all our citizens in Saudi Arabia. I will also work to ensure 
that American children who have been wrongfully taken from their 
parents may return home, and that any adult American woman may freely 
depart Saudi Arabia at any time.
    In conclusion, if confirmed as Ambassador, I will use the skills 
and knowledge I have developed during my career in the Middle East to 
serve the best interests of my country. I will keep your concerns and 
questions firmly in mind while I carry out my responsibilities. I hope 
you will visit the Kingdom so that together we can continue to 
strengthen this vital strategic relationship.
    Thank you for considering my nomination.

    Senator Kerry. Thank you very much, Mr. Fraker. We 
appreciate it and again, I think you are enormously qualified 
on paper, and certainly in experience. And, we hope you're able 
to have an impact on each of the areas that you've talked 
about.
    Let me begin by asking you, has the Department, has the 
Secretary of State, or the administration, specifically charged 
you with respect to any one component of the portfolio? Have 
they said to you, ``This is our first priority,'' or ``Here's 
where we'd really like you to put your major focus?''
    Mr. Fraker. Well, Mr. Chairman, I think the statement that 
my No. 1 priority and concern is the safety and welfare of 
Americans in the mission and American Saudi Arabians in 
general, is top of the list and that is emphasized in all the 
meetings that I have.
    Senator Kerry. That's a normal--every ambassador in every 
place is charged with that. Is there something special, with 
respect to the peace process, or with respect to Iraq and the 
regional security that has been articulated to you?
    Mr. Fraker. Not specifically, other than to say that there 
are a range of highly important issues, all of which I will be 
expected to address, with counterterrorism being the one that 
comes up most frequently in discussions.
    Senator Kerry. You mentioned in your testimony, you say 
that the threats of violent extremism, international terror, 
and regional instability are things we need to work on 
together, and you hope to advance the relationship with respect 
to those issues. How do you anticipate doing that?
    Mr. Fraker. Working very closely with our Saudi 
colleagues--regional stability and security is critical to both 
the U.S. and Saudi Arabia. The attacks in Kingdom in 2003 and 
2004 made that crystal-clear to the Saudis, and I believe 
cooperation in this area has been intense and effective.
    Having said that, there's more to be done. We've touched on 
the area of terrorist financing. That's a particular area, 
given my background, I believe I can add value to, if 
confirmed, and look forward to working with the Saudis on that, 
specifically.
    Senator Kerry. Do you have an area where you have a sense 
from your own experience that there's a particular opportunity 
for progress?
    Mr. Fraker. I do, I have a particular area that I'm focused 
on, have been throughout my career and, if confirmed, would 
like to spend a lot of time on, and that's the area of 
education. I firmly believe that, that we best address the 
underlying issues of extremism and radicalism by, by getting to 
the students at an early age. And, encouraging exchange 
programs amongst young students, Saudis coming here, Americans 
going there, I think is the best way to address that. And, if 
confirmed, that is an area I'll be focusing on.
    Senator Kerry. How would you describe the degree to which 
the Saudis have concerns about Iran, and how do you see them, 
how do see that particular component of their relationship and 
ours also, sort of dovetailing, or not, over the course of the 
next months?
    Mr. Fraker. Historically, the relationship between Iran and 
Saudi Arabia--they've been adversaries. And, I think that 
continues. The Saudis have publicly decried the Iranian efforts 
to, their nuclear program, they've publicly said that they're 
against that. They've criticized the Iranians for meddling in 
Iraq and Lebanon. I think the Saudis will prove to be a good 
partner for us in those issues and in facing off against Iran.
    Senator Kerry. Do you believe that if Iran pursues its 
nuclear ambitions, the Saudis are likely to also?
    Mr. Fraker. I don't know. I do know that the GCC has 
publicly stated their interest in exploring the possibility of 
developing peaceful nuclear technology. I don't know if that's 
a shot across Iranian bows or not. It's something that I'd like 
more information on.
    Senator Kerry. What do you make of the meeting in Mecca, 
which obviously left the Quartet feeling less than satisfied, 
but on the other hand, within the Arab world, the word I hear 
is, sort of, don't make too much noise about it, this can help 
begin to move the process forward.
    Mr. Fraker. I believe that the United States and Saudi 
Arabia both believe that the Palestinians should be speaking 
with one voice, if ever there's going to be a chance of 
reconciliation. And, that the Mecca conference was an important 
step towards trying to get a one-voice Palestinian, heard.
    The State Department position is that it's probably still 
early days yet to judge exactly how this unity government will 
behave. Obviously, we were disappointed that the Quartet 
principals weren't embraced. But, I think many people in the 
Middle East will see this, actually, as a constructive first 
step in a process to achieve this one-voice from the 
Palestinians.
    Senator Kerry. If the Saudis are, indeed, intent on trying 
to advance that process, why do they continue the boycott of 
Israel?
    Mr. Fraker. Well, there's a long history here and I think 
that the Saudis should be judged on their efforts to encourage 
the moderate Palestinian element, in playing a constructive 
role in this whole process. And, I think that we will, we'll 
have some success in that area and if confirmed, that's very 
much an approach I would like to take with the Saudis. To have 
them continue to play this moderate role and encourage the 
moderates on the Palestinian side.
    Senator Kerry. And a couple of pro-forma questions. Is 
there any interest that you have, financial or otherwise, that 
might require you to recuse yourself from any issue dealing as 
an ambassador?
    Mr. Fraker. The only, the only issue is with regard to a 
letter of undertaking I've signed because I have a pension plan 
that is managed by a bank in London, actually by a U.K. pension 
fund in London where the Saudi Government has a 40 percent 
interest in the bank, even though the bank has no interest in 
the pension fund.
    Senator Kerry. Is there any interest you have or asset that 
you have that might present a conflict of interest with respect 
to any of the positions you have to represent in Riyadh?
    Mr. Fraker. No.
    Senator Kerry. Thank you very much, Mr. Fraker, I 
appreciate it.
    Senator Sununu.
    Senator Sununu. Thank you, Senator Kerry.
    You spoke a little bit about education. You mentioned a 
good mechanism for improving that level of education and 
exposure are exchange programs. Any other mechanisms that--or 
opportunities that you see--to improve that exposure, education 
to a broader set of ideas?
    Mr. Fraker. the United States-Saudi Strategic dialog has 
presented a very useful framework for dealing with a whole 
range of issues. One of them is, is reform and under that 
heading, education, as well. There's significant focus on the 
schools and the mosques, in terms of trying to eliminate 
extremist language, and in the schools, specifically the 
textbooks. And, that's a--that's an effort and an initiative 
that we should pursue very vigorously and one that, if 
confirmed, I would like to spend a lot of time focusing on.
    Senator Sununu. What about the American institutions in 
Lebanon and Egypt, specifically, American University of Beirut, 
Lebanese-American University, and American University in Cairo? 
Those are institutions with very lengthy histories, in which I 
assume, in different ways you've come across in your work, both 
in Lebanon, and throughout the region.
    What has been your personal experience with students from 
those institutions, and to what extent have students from the 
Kingdom of Saudi Arabia taken advantage of their strengths?
    Mr. Fraker. In fact, when I lived in Beirut, I lived right 
next door the American University in Beirut, so I almost feel 
like I went to college at AUB. I got to know a number of the 
students there.
    Senator Sununu. But, my first question was really an 
opportunity for you to, for you to emphasize the strength of 
the institutions. Obviously, you've got great personal 
experience. Go ahead.
    Mr. Fraker. Just to say, these are terrific institutions 
for furthering dialog and interaction between Americans and 
Arabs, whether they're Egyptians or Lebanese, or wherever. All 
this, in my view, should be significantly encouraged.
    Senator Sununu. Do you know to what--they have students 
from all over the region--do you know to what extent their 
student body includes students from Saudi Arabia, and, can that 
be improved?
    Mr. Fraker. I don't know precisely. I do know that there 
are Saudi students at AUB, and also American University in 
Cairo. It's been a traditional college destination for many of 
them.
    Senator Sununu. In the area of terrorist financing, are 
there any particular areas of the Saudi Arabian or Middle East 
banking system that you think are particularly vulnerable, 
right now?
    Mr. Fraker. We're--I think we're in the early days, to some 
extent, given the number of initiatives that have happened 
recently. For example, in Saudi Arabia, the Saudis have 
increased oversight over charities in the Kingdom, but there 
are real gaps in terms of their ability to manage and oversee 
the foreign branch operations of many of these charities. 
Similarly, foreign charities with branches in Saudi Arabia--
there are difficulties in oversight there, so, that's a 
specific area where things can be tightened up.
    They have recently enacted some money-laundering laws, and 
laws that target cash transfers, as well. All of this needs to 
be, to be looked at very carefully and tightened up. It's only 
just begun to happen.
    So, there are a whole range of areas that, good first steps 
have been taken, but we should be on them and very aggressive 
in pursuing how they, how they enact the laws they've passed.
    Senator Sununu. From your perspective, or your experience 
in banking and finance, how would you assess the strengths and 
the weaknesses in the current economy in Saudi Arabia?
    Mr. Fraker. Well, the Saudi economy at the moment is 
booming. Oil prices where they are have generated enormous 
amount of liquidity and cash. Locally, the Saudis are investing 
that in local industry. They have an infrastructure that's now, 
maybe 20 years old. They're going to have to reinvest a lot of 
money upgrading that. So, it's quite an exciting time in terms 
of being a member of SAMO, or the central bank, trying to 
manage, manage this economy because it is booming.
    Senator Sununu. What has been the recent posture of the 
Saudi Arabian Government toward United States investment in the 
country and which sectors of the economy, do you think, hold 
the most promise for investment by U.S. firms?
    Mr. Fraker. The government has recently opened up the 
economy for, for more outside investment. And this is a 
significant event. And we've recently seen two major U.S. 
financial institutions, Morgan Stanley and Goldman Sachs, enter 
into joint venture arrangements in the Kingdom, JP Morgan, 
Chase as well. So, I think you will see a rush of financial 
institutions into the Kingdom.
    I think on the manufacturing side, as well, there will be 
real opportunities, and it's one of the areas, if confirmed, I 
will, I envision myself spending a lot of time on, because I 
think there'll be terrific opportunities for trade and 
business.
    Senator Sununu. Thank you.
    Thank you, Mr. Chairman.
    Senator Kerry. Thank you very much.
    Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    You bring extraordinary qualifications in the banking area 
to this position. And, my questions really come down to, really 
the special talents that you have here.
    You've touched upon the fact that there is greater 
oversight, presumably by the Saudi Government on contributions 
to charities, contributions coming from others to charities, 
and money laundering. One of the great questions about Saudi 
wealth and banks and transfers, and so forth, is the degree of 
distribution to al-Qaeda or to others who are associated with 
terrorism, not only in the Kingdom, but elsewhere, and the 
ability of the Saudis, or the willingness, the political will 
to monitor this, and indeed to stop it.
    As an American banker, you may have had some experience in 
your previous calling with this type of activity, but what do 
you believe you are going to be able to do, from the standpoint 
of the United States working with strong Saudi allies to 
curtail these flows, which are critical to the support of 
terrorist groups?
    Mr. Fraker. Thank you, Senator.
    As I've said, some important steps have been taken--initial 
steps have been taken--both in terms of laws that have been 
passed, and a focus on a greater oversight in a number of 
areas. The Saudi economy, traditionally, has been a cash 
economy. And, regulating cash is a difficult, is a difficult 
process. Also regulating--any country has difficulty regulating 
their private sector. And if you have a private sector running 
around with lots of cash, it's even more difficult to regulate.
    Having said that, one of the laws they have recently passed 
addresses, specifically, the issue of cash in and out of the 
country. And, it really comes down, as you said, to their 
willingness, the political will to really address the problem, 
as well as the practical problems in a country with enormous 
borders and enormous traditional trade traffic back and forth 
across these borders. So, it really comes down to pressure, 
applying the laws that are in place, and following through on 
them.
    From my standpoint, the big plus here is that, the laws are 
in place. So, you do have a mechanism for measuring 
performance. You can hold them accountable to a set of 
criteria, and I think that's a big step. And, if confirmed, 
that's an area that I have experience in and would relish the 
opportunity to focus on.
    Senator Lugar. Well, that's why I raised the question. I 
think it is a special qualification that you have and it comes 
at a time in which our diplomacy has been informed a great deal 
by such situations. For example, the North Korean negotiations, 
many feel, have progressed largely because of a treasury 
situation with the Macao Bank, and the interdiction of funds or 
pursuit of fraudulent activity there.
    Likewise, it is suggested that this may be one of the more 
effective sanctions available when compared to cutting off vast 
amounts of trade in the banking system. The flow of, for 
example, money from China to Sudan has been suggested as maybe 
a critical area, unlike almost any other.
    That brings me to the second part of my question. Do you 
have a personal acquaintance with members of the royal family, 
with the previous Saudi Ambassador to the United States, or 
with any of these figures who have come back and forth through 
our public life informing our Presidents, Democratic and 
Republican, over many years?
    Mr. Fraker. I have met a number of the members of the royal 
family as a commercial banker in the region. However, we were 
taught at a very early age to stay away from most of them, for 
commercial reasons. But, I look forward to developing those 
relationships, if confirmed.
    I should also say, that in the last few weeks I've had the 
opportunity to meet with Secretary Polson, National Security 
Advisor Hadley, and FBI Director Muller, specifically, to 
address the terrorist financing issue. And, I was pleased to be 
able to hear some of the testimony yesterday from 
Undersecretary Burns and Levey to the Banking Committee, where 
they specifically addressed their efforts with regard to 
Iranian financing, as well.
    Senator Lugar. Please, while you are still here in 
Washington, enlarge even that circle so that all of the players 
in our Government are well acquainted with you, and you with 
them, and therefore the team effort is likely to be enhanced.
    On the other hand, have you also been briefed or have you 
had experience with the many different agencies that work for 
you in the Embassy there in Saudi Arabia? Presumably, as well, 
you are comfident that as the ambassador, you are going to have 
a look-see into all of that activity as the management 
principal on behalf of our interests.
    Mr. Fraker. I've just finished the two-week Ambassadorial 
seminar where I was introduced to the range of agencies and 
activities in the Embassy, and have had a chance to have 
meetings outside that environment, as well, with people. So, 
I'm looking forward, again, if confirmed, I'm looking forward 
very much to getting on the ground and really understanding how 
things are operating, on the ground.
    Senator Lugar. Well, this committee has been helpful, I 
think, to Ambassadors and to the State Department in suggesting 
that activities of our Government ought not proceed 
independently of our ambassadors, and their knowledge of those 
activities in whatever context they may be. I think there's a 
recognition of the importance of that principle, but I was 
curious as a new ambassador in the meetings that you've had, 
that this came through.
    Mr. Fraker. I've been assured by all the agencies that as 
chief of mission, these are my responsibilities.
    Senator Lugar. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Kerry. Thank you, Senator Lugar very much.
    Just following up on Senator Lugar's line of inquiry with 
respect to these efforts on the money, a long time ago I was on 
the Banking Committee and this was a major focus of mine. In 
fact, I wrote some of the laws requiring some of the 
transparency and accountability.
    It seems to me that unless the Secretary of State and the 
President make it clear, and are prepared to leverage, that 
your ability as an ambassador is going to be somewhat limited, 
frankly, to lift. I mean, you can go in and you can deliver a 
demarche, or you can have these conversations with your 
ministries and they will sit there, look at you, and say, 
``Yes, you're right, we have to do this.'' And the heads will 
nod, but the situation won't change that much, to be honest 
with you, unless you have assurances that the administration's 
really going to back you, and that this is real. Do you have 
that sense? I mean, has this been put to you in a way that 
you're convinced that you're not going to be, sort of, you 
know, sense of us pushing the rock up the hill.
    Mr. Fraker. I believe I do. I've had discussions both with 
the President and the Secretary of State and they've assured me 
of their support, specifically in these areas. My meeting with 
National Security Advisor Hadley, was a result of the previous 
discussions with a clear intent to have me onboard with the 
effort.
    Senator Kerry. Good. And, that's obviously very important. 
Do you believe we have some levers, beyond those that we've 
used, in order to help guarantee the kind of response that we 
need to get?
    Mr. Fraker. One of the things that I believe is that my 
value-add in this process is very much in the private sector 
and with the financial institutions. I know the bankers, I know 
the banks, I know most of the major merchants. And, I believe 
that an outreach to them, very specifically, could pay real 
dividends in this effort. I believe, up until now, most of the, 
most of the focus has been getting government signing on to do 
what's needed to be done. But, again, it's what's happening on 
the ground that will determine our success in this area and, if 
confirmed, that's very much where I'd like to be focused.
    Senator Kerry. We certainly wish you well with that. You're 
about to enter a different world. We obviously hope that those 
relationships produce something, and in some cases they may 
produce information and they may produce some efforts here and 
there, and everything to the plus is positive.
    But, the bottom line is, and I think my colleagues would 
join me in saying this, you're about to enter a world where 
there are some big cultural and historical and even political 
motivations at play. And, the best intentions will not move 
some of those, unless they feel it's in their interest.
    So, we wish you well on it, but I think that it's going to 
be important for you to quickly report back to the State 
Department and to this committee, the reality of your 
perceptions about those responses, because nothing is more 
critical than trying to cut off the terroroist funding and 
begin to send a message of the serious alternative course, 
that'd be important.
    Just very quickly, I don't want to prolong this, but a last 
question. Do you have any sense of how the Saudis view the Iraq 
situation, at this point, and what play they might, you know, 
whether you can have an impact on that?
    Mr. Fraker. Well, the Saudis, as you know, are a charter 
member of the Iraq Compact. And, the price to join that elite 
group is a commitment of $450 million to Iraq. The Saudis, I 
believe, have stepped up with a commitment of $1 billion. 
There's also about $39 billion worth of debt to be negotiated. 
The Saudis have indicated a willingness to forgive that debt. 
So, I believe there's a real, there's a very positive impact 
they can play on the financial side with regard to helping 
Iraq. And, I know also, that they have encouraged the Sunni 
elements to participate in the political process in Iraq from a 
regional stability standpoint. It's been made clear to us and 
clear to them, it's in nobody's best interest to have a 
fractured Iraq on their border. And, so I think they will be a 
positive force in helping that.
    Senator Kerry. Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman. In light of my 
tardiness, I'm not going to run the risk of being repetitive in 
questions, but I welcome the nominee here today and appreciate 
the opportunity to come, albeit late.
    Senator Kerry. Well, we're glad to have you here. We 
appreciate it. Thank you very much.
    Senator Kerry. Do any other colleagues have any other 
questions?
    Mr. Fraker, this could prove unbelievably easy to get over 
there, and difficult once you get there. So, we appreciate your 
coming before the committee. I think it's a tribute to the 
qualifications you bring to the table that people are anxious 
to get you over there. And, I'm confident the Senate will move 
as rapidly as possible to confirm you. And, so we look forward 
to getting you there, and we look forward to seeing you over 
there.
    Mr. Fraker. Thank you very much.
    Senator Kerry. Good luck to you, sir. Thank you. We stand 
adjourned.
    [Whereupon, at 11:25 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


 U.S.-Saudi Discussions on Religious Practice and Tolerance Submitted 
                    by Senator Joseph R. Biden, Jr.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 

          Responses of Ford M. Fraker to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. If confirmed, what will you do to encourage religious 
freedom in Saudi Arabia and ensure that the country's religious 
minorities are protected?

    Answer. I plan to make religious freedom a priority during my 
tenure and will encourage visits by U.S. officials to press for 
improvements in tolerance and religious practice. The policies put 
forth by the Saudi Arabian Government regarding religious practice and 
tolerance are public policies, and if confirmed, I will assess the 
government's record on promoting religious freedom and tolerance based 
on its record on implementing its stated policies.
    If confirmed, I look forward to hosting a planned visit by the 
United States Commission on International Religious Freedom in late 
spring. I will also continue the practice of raising our concerns over 
the plight of both non-Muslim and Muslim religious minorities with 
senior government officials. Additionally, I will continue the program 
of exchanges that brings Saudis to the United States to experience 
firsthand American institutions, societies, and values, including 
religious freedom.

    Question. To date, what progress has been made in each of the three 
areas: (a) stop using government channels or funds to export or promote 
textbooks, literature, or other materials that advocate intolerance 
globally; (b) remove intolerant elements in its textbooks and 
curriculum inside the Kingdom within 1 to 2 years; and (c) protect 
private worship by curbing interference by the religious police?

    Answer. We continue to raise all of these issues at the highest 
levels of the Saudi Government.
    The Saudi Government has told the Department of State that it has 
ceased sending materials around the world, even when countries ask for 
such materials, except to the 20 official Saudi Academies located in 
various countries. Textbooks used at these schools are undergoing a 
complete revision along with the textbooks used in the Kingdom. 
Teachers will be retrained and screened for extremist ideologies.
    The Saudi Government has said it is also implementing a regulatory 
system for all of the 72,000 mosques in the country. The Ministry of 
Islamic Affairs requires all imams to undergo training to ensure they 
have a proper religious education, or in some cases, retraining if they 
are currently espousing intolerant messages.
    We continue to press the Saudi Government to guarantee and protect 
private worship, and to ensure that the religious police do not 
interfere with people's right to worship. There were several incidents 
of apparent violations of this policy in the latter half of 2006 which 
we learned of early this year, and we have expressed our concern to the 
Saudi Government. There is some indication, based on the decreased 
number of arrests last year, that the Saudi Government is taking steps 
to curb violations of private worship by the religious police.

    Question. What do you plan to do to make sure that the Saudi 
Government complies with its commitments? How do you plan on monitoring 
these reforms? Is there a timetable for implementation?

    Answer. I intend to monitor Saudi policies to improve religious 
freedom closely and press for their implementation. In this effort I 
will work closely with Ambassador at Large for International Religious 
Freedom, John Hanford, to continue our serious discussions with the 
Saudi Government on improving religious freedom. Our interest and goal 
is to achieve sustained progress toward religious freedom. The policies 
put forth by the Saudi Arabian Government regarding religious practice 
and tolerance are public policies, and if confirmed, I will also 
encourage others concerned with the state of religious freedom in the 
Kingdom to assess the government's record on its stated policies. 
Additionally, the Department will continue to monitor the government's 
actions through the Annual Report on International Religious Freedom, 
and the Country Reports on Human Rights Practices.

    Question. How will the Saudi public be able to determine if genuine 
progress is being made?

    Answer. The opinions of Saudi citizens living in the Kingdom are 
the best indicator of whether the government is making progress on 
religious freedom. The United States Mission regularly reaches out to 
Saudi citizens and will continue to make public diplomacy and outreach 
on this issue an important part of its presence in the Kingdom. One 
positive sign is that the level of debate about religious freedom or 
sensitive religious topics in Saudi newspapers has increased over the 
last few years. For instance, parts of the 2006 Annual Report for 
International Religious Freedom on Saudi Arabia were printed in Al-
Watan newspaper. The full report on Saudi textbooks by the Center for 
Religious Freedom was also featured in Al-Watan.

    Question. If confirmed, what steps will you take to promote the 
equality of women?

    Answer. Women's inferior status, including restrictions on their 
rights and opportunities, is a serious problem in Saudi Arabia, and a 
key issue on the United States Government's human rights agenda with 
Saudi Arabia.
    If confirmed, I will press the Saudi Government to increase 
opportunities for all Saudi citizens, including women, to participate 
in the political process. I will also urge the Saudi Government to 
increase private sector opportunities for women, and remove legal 
obstacles that prevent women from fulfilling their potential. I will 
also look for opportunities to mobilize expertise from the U.S. public 
and private sectors in support of women's empowerment.

    Question. In 2004, Saudi Arabia held a ``National Dialog'' on 
women's issues which made a number of recommendations, endorsed by then 
Crown Prince Abdullah. Which if any recommendations have been 
implemented?

    Answer. The third meeting of Saudi Arabia's National Dialog took 
place June 12-14, 2004, in Medina, and focused on women's rights. Since 
that event, there has been progress in opening new employment and 
educational opportunities for women, and in creating greater public 
awareness and discussion of the challenges Saudi women face.
    The Saudi Government has allowed women to play a more active role 
in business, and has opened new job sectors to women, such as law and 
engineering. Women's empowerment is a key part of the Saudi 
Government's 2005 5-year plan. In 2005, women participated in the 
Jeddah Chamber of Commerce elections, winning two elected seats and 
being appointed to two others. However, they were not allowed to 
participate in municipal council elections.
    On March 19-20, 2007, in Jeddah, Saudi Arabia held its first 
conference on women's empowerment, under the patronage of the King's 
daughter, Princess Adela, and with the involvement of Saudi Arabia's 
best-known businesswoman, Lubna al-Olayan. One thousand women 
participated in the meetings, which highlighted challenges women 
confront in education, employment, and the legal system. Princess Adela 
urged that more economic sectors be opened to women, and that women be 
given a greater role in ``the decision-making process.''
    Much more must be done. Indeed, according to the 2006 World 
Economic Forum Gender Gap Report, Saudi Arabia ranked last in a group 
of 115 countries in terms of economic opportunity and participation, 
and political empowerment. Our human rights report highlights the 
continuing legal and societal discrimination and violence against 
women.

    Question. Have there been instances in your banking career in the 
Middle East where considerations of human rights and/or democracy have 
influenced your decisions? What were the impact of these decisions?

    Answer. I believe that Americans and American companies doing 
business abroad play an important role in representing America's 
values. As bankers, we take many factors into consideration when 
setting country credit policies, evaluating business proposals such as 
loan applications, and making business decisions. One factor is an 
evaluation of the overall political situation, which implicitly 
includes human rights and democracy issues as these bear on the 
political future of a country.

    Question. Beyond women's rights and issues of religious freedom, 
what are the most pressing human rights issues in Saudi Arabia? What 
are the most important steps you expect to take--if confirmed--to 
promote human rights and democracy in Saudi Arabia? What do you hope to 
accomplish through these actions?

    Answer. Since coming to the throne in 2006, King Abdullah has 
pursued incremental reforms that have led to some improvements on key 
human rights issues. However, as noted in the Department's 2006 Human 
Rights Report, there continue to be substantial problems with human 
rights in Saudi Arabia. Several of the most pressing human rights 
issues include reports that some authorities practiced physical abuse 
and torture; a lack of popular participation in Government; denial of 
fair, public trials; lack of a transparent and consistent judicial 
system; and significant restrictions on civil liberties.
    I will forcefully advocate for reform and convey the message that 
the United States places the highest emphasis on improvements in human 
rights and holds the Saudi Government accountable for its commitment to 
improve human rights. The United States Government has an active 
exchange program with Saudi Arabia that brings Saudis to the United 
States for firsthand experience on many issues, including religious and 
press freedom, human rights, and more. I will continue efforts under 
the United States-Saudi Strategic Dialog to promote political, 
economic, and legal reform.
    Some elements of Saudi society are conservative and have strongly 
resisted efforts at modernization and reform. However, the Kingdom 
continues to slowly change from the inside, and it is important to 
strengthen actors that support reform. To this end, I will promote 
programs that expand and strengthen civil society in Saudi Arabia, 
encouraging efforts to expand Saudi political participation and 
compliance with international human rights standards.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Saudi Arabia in 
advancing human rights and democracy in general?

    Answer. While there are reform-minded individuals, both in 
government and in society, some elements of Saudi society have 
historically been uncomfortable with and suspicious of change. In the 
past, the Saudi Government has implemented new policies, such as girls' 
education, often in the face of strong protests from conservatives. 
This opposition has led the Saudi Government to move slowly and 
cautiously, strive for consensus across different societal groups, and 
avoid policies that might provoke a negative reaction.
    Nevertheless, Saudi Arabia must pursue reform and improve its 
record on human rights if it is to defeat extremism and achieve genuine 
stability and security over the long term. It will be my challenge to 
engage with Saudi society to demonstrate that human rights and reform 
are not a threat to Saudi society or traditions but, rather, will 
strengthen society by offering more opportunities to wider sections of 
Saudi society. Such change will also enable Saudi Arabia to meet the 
challenges of the 21st century with the goodwill and active support of 
the international community.

    Question. In your new position, what steps will you take to ensure 
that promotion of human rights objectives will be an integral part of 
post/bureau activities? If confirmed, what steps will you take to 
ensure that Foreign Service officers who engage in human rights 
activities are encouraged and professionally rewarded for superior 
service?

    Answer. The advancement of human rights has been, and will continue 
to be, a priority for the U.S. Government. I will ensure that advancing 
human rights in Saudi Arabia remains a key goal in our annual Mission 
Strategic Plan, which will guide our in-country activities throughout 
the year. The mission will identify goals, strategies, and benchmarks 
for improving human rights in Saudi Arabia through increased and 
positive engagement with the government, civil society, and the Saudi 
public. This process allows an objective review of the mission's 
relative success in achieving our goals. We will also continue to use 
the Human Development Working Group of the United States-Saudi 
Strategic Dialog as a framework to engage the Saudi Government on human 
rights and reform-related issues.
    The mission will also continue to devote substantial efforts to the 
production of required annual reports on various human rights issues, 
including the Human Rights Report, the International Religious Freedom 
Report, and the Trafficking in Persons report. Across the mission, 
there are several officers with primary responsibility for monitoring 
and reporting on human rights issues, but reporting on human rights 
issues is an important element of the annual work effort of many other 
officers of the mission, including mission leadership. Those who 
perform well in their duties receive recognition in their annual 
evaluations, and for exceptional performance, the Department offers a 
variety of awards. I will continue to encourage the best use of our 
existing administrative tools to recognize and reward superior 
performance of duties, including on issues related to human rights and 
reform.

    Question. Will you commit to meeting regularly with activists, 
reformers, and nongovernmental organizations in the United States and 
in Saudi Arabia who are working to promote human rights?

    Answer. The United States continues to strongly promote respect for 
human rights around the world, and I fully support our efforts in doing 
so. It has always been the policy of the United States Mission in Saudi 
Arabia to meet with a broad range of individuals on all aspects of the 
United States-Saudi bilateral relationship, including advocates for 
human rights and reform. Staff from the embassy and the Consulates 
General meet regularly with concerned individuals and organizations on 
the topic of human rights. Department officials also meet with human 
rights activists and NGOs in the United States. I support this policy, 
and it will continue to be the policy of the mission in the future.

    Question. In the aftermath of the May 12, 2003, terrorist attacks 
in Riyadh which killed more than 30 people, including at least eight 
American citizens, did Saudi Arabia establish a victims compensation 
fund?
    If yes, are American victims and other foreign nationals eligible 
to participate?
    Would we consider urging the Kingdom to establish a fund similar to 
the September 11 Victims Compensation Fund?

    Answer. The Department of State has no information regarding the 
existence of a victim's compensation fund for those killed in the May 
12, 2003, terrorist attacks in Riyadh. There have been no discussions 
between the United States Government and the Government of Saudi Arabia 
on this issue, and none are planned at this time.
    I believe the tragic events of May 12, 2003, were important in 
pushing the Saudi Government to recognize that extremism in general, 
and al-Qaeda in particular, represented a major domestic threat in 
Saudi Arabia. It also led to much closer United States-Saudi 
counterterrorism cooperation--cooperation that continues today.
                                 ______
                                 

          Responses of Ford M. Fraker to Questions Submitted 
                        by Senator F. John Kerry

    Question. What specific programs has the U.S. Government 
implemented to prevent the use of financial institutions to finance 
terrorist organizations and prohibited activities by foreign 
governments?

    Answer. The U.S. Government has a variety of tools at its disposal 
to combat terrorism finance under authorities provided in the 
International Emergency Economic Powers Act (IEEPA), E.O. 13224, and 
the USA PATRIOT Act, among others. Under these authorities, the 
Departments of State and Treasury have established a list of Specially 
Designated Global Terrorists, whose assets are blocked, thus preventing 
U.S. persons, including financial institutions, from conducting 
transactions with designated individuals.

    Question. Is it the U.S. Government's position that any financial 
institutions and/or other private entities that have aided and abetted 
terrorist organizations or prohibited activities by foreign governments 
should be sanctioned, and that private parties should be able to pursue 
all available legal remedies against such entities?

    Answer. Sanctions are one of several tools available to punish and 
deter abuses of the international financial system in support of 
terrorist organizations. Others include diplomatic pressure and law 
enforcement action. The decision on which tool or combination of tools 
to use depends on a variety of factors, and is based on a thorough 
review of the circumstances of each case. The availability of legal 
remedies to private parties depends upon the particular claims and 
circumstances of each case. This issue can involve complex legal 
issues, and some of these issues have been raised in cases now working 
their way through the courts. As it would be inappropriate for me to 
comment on pending litigation, I don't think I should comment further 
on the last part of your question.

    Question. Is it true that no Saudi Arabian financial institutions 
have to date been designated by the United States Government for Office 
of Foreign Asset Control sanctions?

    Answer. The Department of State believes that this statement is 
correct, but would refer you to the Department of the Treasury for a 
definitive answer.

    Question. What is the United States Government's policy regarding 
Saudi Arabian nationals in cases where the United States Government has 
solid intelligence that such persons have given donations or otherwise 
provided financial support to al-Qaeda or affiliated organizations? 
Have all such persons been designated for OFAC sanctions?

    Answer. The United States and Saudi Arabia have an ongoing and 
robust dialog on a full range of counterterrorism issues, including 
regular high-level discussion and working-level collaboration on 
terrorism finance issues. When appropriate, we pursue designations of 
Saudi nationals under pertinent domestic and international laws. The 
United States and Saudi Arabia have cooperated on over 20 designations 
of terrorist supporters at the United Nations.

    Question. When the United States Government has solid information 
that a Saudi Arabian Government official has condoned or ignored the 
activities of Non-Governmental Organizations and/or NGO representatives 
that support terrorist or extremist groups, are such individuals always 
designated for OFAC sanctions? In cases where they are not sanctioned, 
what are the policy reasons for not listing them?

    Answer. United States-Saudi terrorism finance cooperation is 
generally good, and encompasses a wide range of activities, including 
designations when appropriate. We regularly raise information on 
terrorism finance issues with all levels of the Saudi Government, and 
press for action on a number of fronts. When the U.S. Government comes 
into possession of solid information that an individual or organization 
has acted to support terrorism, we can draw from a number of options, 
such as designation or law enforcement actions.

    Question. When the United States Government has solid information 
that a Saudi Arabian financial institution has repeatedly acted to 
handle funds for Islamic terrorist or extremist groups is it United 
States policy to impose sanctions on that financial institution? In 
cases where the institution is not sanctioned, what are the policy 
reasons for not listing it?

    Answer. Our strong cooperation with Saudi Arabia on terrorism 
finance issues has resulted in numerous examples of public designations 
of individuals and entities, as well as less public actions to address 
our concerns. When the U.S. Government comes into possession of solid 
information that an individual or organization has acted to support 
terrorism, we can draw from a number of options, such as designation or 
law enforcement actions.
    We note that in August 2004 the executive director of the Eastern 
Province (Saudi Arabia) Branch of the International Islamic Relief 
Organization (IIRO), as well as IIRO branches in Indonesia and the 
Philippines, were designated as terrorist supporters by the United 
Nations and the United States.


                              NOMINATIONS

                              ----------                              


                       WEDNESDAY, APRIL 18, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
Carter, Phillip, III, to be Ambassador to the Republic of 
        Guinea
Garvey, Janet E., to be Ambassador to the Republic of Cameroon
Marquardt, R. Niels, to be Ambassador to the Republic of 
        Madagascar and the Union of Comoros
                              ----------                              

    The committee met, pursuant to notice, at 9:30 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Russell D. 
Feingold presiding.
    Present: Senator Feingold.

         OPENING STATEMENT OF HON. RUSSELL D. FEINGOLD,
                  U.S. SENATOR FROM WISCONSIN

    Senator Feingold. Thank you all for being here. This will 
be interrupted in a few minutes for a couple of votes and I'll 
go as quickly as I can, come back and we'll continue the 
hearing.
    In any event, I'd like to begin by thanking our three 
nominees for being here today and more importantly, for you 
many years of service and for your willingness to work in some 
of the more demanding positions in U.S. Government. The 
countries to which you have been appointed, Guinea, Cameroon, 
Madagascar, and Comoros, face distinct, but equally difficult 
challenges.
    There are also many opportunities, that--if confirmed--I 
hope you'll be able to seize upon and develop. If you are 
confirmed, I look forward to working closely with you and hope 
you look to the Senate as a resource and to this committee as a 
source of support and guidance during your tenure at your 
respective posts. I'd also like to offer a warm welcome to you 
families and friends who have stood by you and whose ongoing 
support will be necessary as you set off to these new 
positions.
    As an Ambassador to the United States, you will undoubtedly 
have to juggle conflicting priorities. Security will be a top 
concern, and growing awareness of Africa's strategic 
significance means facilitating national and regional 
counterterrorism will be an important element of your job. It 
is essential, however, that these security concerns are not 
used to justify or exacerbate restrictions on civil liberties 
or violations of human rights. The principals of democracy and 
rule of law are not always entrenched in many African 
countries, including those you have been assigned to. So, you 
will need to be consistent and persistent advocates of good 
governments and human rights.
    As you are all aware, diplomacy is an essential component 
of our efforts to define and defend America's interests and 
ideals abroad, particularly in countries where the United 
States does not have a long history of engagement or much 
institutional knowledge. Building solid relationships, not just 
with government officials, but also with business, religious, 
civil society, and other community leaders is critical to 
forming and implementing an effective U.S. policy. If 
confirmed, I trust that each of you will take that 
responsibility very seriously. I'm looking forward to hearing 
your testimonies and engaging each of you in a brief discussion 
about your qualifications and expectations going into these 
important positions.
    So, I think we will start the testimony. If Senator Sununu 
comes, he will make his opening remarks. He may be choosing to 
vote first and then come here. But, let's begin with Mr. 
Marquardt, to be Ambassador to the Republic of Madagascar and 
Union of Comoros.
    Mr. Marquardt.

STATEMENT OF HON. R. NIELS MARQUARDT, NOMINEE TO BE AMBASSADOR 
   TO THE REPUBLIC OF MADAGASCAR AND THE UNION OF THE COMOROS

    Mr. Marquardt. Thank you, Mr. Chairman. Before I begin, I'd 
just like to introduce my daughters, Kaia and Kelsey, who have 
come up from the University of Tampa to join me today. Some 
dear friends, Ambassador Ruth A. Davis directly behind me, 
Ambassador Linda E. Watt, John and Jean Lang, and the 
Ambassador of Cameroon, who's become my friend over the last 
several years.
    Senator Feingold. Thank you. Welcome all.
    Mr. Marquardt. Mr. Chairman, I am deeply honored to appear 
before you today as President Bush's nominee to be the United 
States Ambassador to the Republic of Madagascar and the Union 
of the Comoros. I am grateful for the confidence and trust that 
the President and Secretary Rice have placed in me.
    Mr. Chairman, if confirmed by the Senate, my highest 
priority will be the protection of Americans and American 
business interests, including mission personnel, living and 
traveling in Madagascar and the Comoros. We will open a new 
Embassy compound in 2010. Until then, I will work to make our 
existing Embassy as safe as possible.
    Under President Ravalomanana's leadership, Madagascar, 
while starting from a low baseline, stands out among African 
countries in making simultaneous progress in consolidating 
democracy, developing as a free market economy, combating 
corruption and trafficking in persons, fighting HIV/AIDS before 
it takes hold, and protecting its unique environment. In 
recognition of these accomplishments, Madagascar was the first 
country to sign a compact with the Millennium Challenge 
Corporation, MCC, exactly 2 years ago today, and was selected 
in 2006 as a target country for the President's Malaria 
Initiative. Madagascar also has benefited significantly from 
trade preferences under the African Growth and Opportunity Act, 
AGOA. However, all of these advances are fragile and 
susceptible to setbacks in a country of heartbreaking poverty 
and shallow-rooted democratic traditions.
    Mr. Chairman, if confirmed, I will continue to bolster good 
governance in Madagascar. I will also continue our leadership 
in protecting the environment. I think we all know that 
Madagascar is a global biodiversity treasure and the United 
States must help to preserve it.
    Madagascar is also a supporter in the war on terrorism and 
needs continued assistance to prevent exploitation by terrorist 
networks.
    As a returned Peace Corps volunteer myself, I'm proud that 
Madagascar has one of the most successful Peace Corps programs 
in the world. The Malagasy people embrace the volunteers in 
their communities, reflecting the deep friendship between our 
two countries. Should I be confirmed, I will continue to 
support a strong Peace Corps presence in the region.
    The Union of the Comoros is a small, poor island country 
that has recently embraced democracy. Its government and people 
appear determined, finally, to overcome the country's history 
of instability. Last May, President Sambi won a free and fair 
election, while campaigning on a platform of economic 
development and clean government. He is interested in working 
with the United States to improve the quality of life for his 
citizens. The Comoros' balance between the hope of emerging as 
a responsible member of the Community of Nations and the risk 
of slipping back into instability. If confirmed, I will seek to 
help the people of Comoros achieve the former outcome.
    The Comoros is notorious as the birthplace of Harun Fazul, 
the alleged mastermind of the Embassy bombings in Kenya and 
Tanzania. If confirmed, I will work with the Government of 
Comoros to combat terrorism as a top priority and play a 
positive role in this fragile, but friendly, Muslim nation.
    Mr. Chairman, I believe that my prior experience, over 27 
years in the Foreign Service, has prepared me well to serve as 
Ambassador to Madagascar and the Union of the Comoros. If 
confirmed by the Senate, I look forward to working closely with 
you and with all the other members of the committee and the 
Senate and would hope to welcome you to my region during my 
tenure.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Marquardt follows:]

Prepared Statement of Hon. R. Niels Marquardt, Nominee to be Ambassador 
       to the Republic of Madagascar and the Union of the Comoros

    Mr. Chairman and members of the committee, I am deeply honored to 
appear before you today as President Bush's nominee to be the United 
States Ambassador to the Republic of Madagascar and the Union of the 
Comoros. I am grateful for the confidence and trust that the President 
and Secretary Rice have placed in me.
    Mr. Chairman, if confirmed by the Senate, my highest priority will 
be the protection of Americans and American business interests, 
including mission personnel living and traveling in Madagascar and the 
Comoros. The security of our personnel has a direct impact on our 
ability to represent the United States, protect other Americans in the 
country, and advance American interests in Madagascar and the Comoros. 
We expect to open a new embassy compound in early 2010. Until then, I 
will work with the members of the embassy's security team to make our 
existing embassy as safe as possible.
    Under President Marc Ravalomanana's leadership, Madagascar, while 
starting from a low baseline, stands out among African countries in 
making simultaneous progress in consolidating democracy, developing as 
a free market economy, combating corruption and trafficking in persons, 
fighting HIV/AIDS before it takes hold, and protecting its unique 
environment. In recognition of these accomplishments, Madagascar was 
the first country to sign a compact with the Millennium Challenge 
Corporation (MCC) in 2005 and was selected in 2006 as a target country 
for the President's Malaria Initiative (PMI). The Millennium Challenge 
Account (MCA) program is already assisting the rural poor by providing 
titles to their land, easier availability of credit, more diverse 
agricultural products and better access to markets. The PMI will be 
formally launched in Madagascar at the start of the next fiscal year, 
but energetic preparations are underway to ensure its success. Finally, 
Madagascar has benefited from trade preferences under the African 
Growth and Opportunity Act. However, all of these advances are fragile 
and susceptible to setbacks in a country of heartbreaking poverty and 
shallow-rooted democratic traditions.
    Mr. Chairman, if confirmed, I will continue to bolster good 
governance in Madagascar as one of our top priorities, seeking funds to 
support anticorruption efforts, civic education, and reform of the 
electoral code. I will also continue our leadership in protecting the 
environment: Madagascar is a global biodiversity treasure and the 
United States must help to preserve it.
    Madagascar is also a supporter of the global war on terrorism. Like 
many developing countries, it needs continued assistance to build the 
law enforcement and military capacity required to prevent exploitation 
by terrorist networks.
    As a returned Peace Corps volunteer, I am proud that Madagascar has 
one of the most successful Peace Corps programs in the world with over 
130 volunteers working in health, education, and the environment. The 
Malagasy people embrace our volunteers in their communities, reflecting 
the friendship between our two countries. Should I be confirmed, I will 
continue to support a strong Peace Corps presence in the region.
    The Union of the Comoros is a small, poor, island country that has 
recently embraced democracy. Its government and people appear 
determined, finally, to overcome the country's history of instability. 
Former President Azali Assoumani came to power in the Comoros' 19th 
coup in 1999, but he later won election and last year oversaw the first 
democratic transfer of power in the nation's history. In May 2006, 
Ahmed Abdallah Sambi won a free and fair election while campaigning on 
a platform of economic development and clean government. He is 
interested in working with all countries, including the United States, 
to improve the quality of life for his citizens. As an impoverished 
developing country with a long history of instability and only recent 
signs of promise, the Comoros is balanced between the hope of emerging 
as a responsible member of the community of nations, and the risk of 
slipping back into instability. If confirmed, I will seek to help the 
people of the Comoros achieve the former outcome.
    The Comoros is notorious as the birthplace of Harun Fazul, the 
alleged mastermind of the embassy bombings in Kenya and Tanzania. 
However, the people of the Comoros widely reject Fazul and his 
extremist ideology. If confirmed, I will continue to work with the 
Government of the Comoros to combat terrorism as a top priority, 
including maintaining our cooperation in the Rewards for Justice 
Program. The Comoros offers few opportunities for its young people; if 
confirmed I look forward to working with the Government of the Comoros 
to play a positive role in this fragile but friendly Muslim nation.
    Mr. Chairman, I believe that my prior experience over 27 years in 
the Foreign Service has prepared me well to serve as Ambassador to 
Madagascar and the Comoros.
    If confirmed by the Senate, I look forward to working closely with 
you and other members of the committee, and would hope to welcome you 
during my tenure. I welcome your questions.
    Thank you.

    Senator Feingold. Thank you, Mr. Marquardt, very much.
    And, now we will turn to Janet E. Garvey, who's been 
nominated to be Ambassador to the Republic of Cameroon.

STATEMENT OF HON. JANET E. GARVEY, NOMINEE TO BE AMBASSADOR TO 
                    THE REPUBLIC OF CAMEROON

    Ms. Garvey. Thank you, Mr. Chairman. I am honored to appear 
before you as the President's nominee to be the U.S. Ambassador 
to the Republic of Cameroon. I am pleased to be joined here 
today by my friends and colleagues.
    Unfortunately, my family could not join us today, but my 
Foreign Service career has been as important and special to 
them as it has been to me and they will be supporting me fully.
    Mr. Chairman, the United States has important interests to 
protect and to advance in Cameroon. These include: Promoting 
democracy, respect for human rights, and the rule of law, 
protecting American citizens, advancing American business, 
promoting sustainable economic and social development, 
protecting the tropical environment, combating infectious 
diseases, especially malaria and HIV/AIDS, ensuring our energy 
security, and fighting terror.
    If confirmed by the Senate, and following in the footsteps 
of my colleague and esteemed predecessor, Mr. Marquardt, I will 
seek to expand and improve our bilateral cooperation and 
dialog. Relative to much of the rest of sub-Saharan Africa, 
Cameroon has been stable and it has a fairly educated 
population, a decent infrastructure, natural resources, strong 
agriculture, a growing business base, many environmental 
treasures, and a government which wishes to have even closer 
ties to the United States. If confirmed by the Senate, I will 
work to deepen existing relationships and seek energetic new 
partnerships in government, business, and civil society.
    Cameroon has parliamentary and local elections scheduled 
for July. These elections offer a new opportunity to prepare 
for the important Presidential elections in 2011. After these 
July elections, and during my entire tour in Cameroon, should I 
be confirmed, we will continue to encourage a democracy that is 
inclusive, pluralistic, transparent, and free of intimidation.
    The Chad-Cameroon Oil Pipeline has been in operation for 
some years now and is continuing to contribute to government 
revenues. This, along with debt relief savings, was evident in 
the latest government budget, probably the most transparent 
ever. As public awareness about revenues and expenditures 
grows, so will budget planning and transparency.
    If confirmed, I will encourage this process, to help 
Cameroon eradicate its endemic corruption. Transparency will 
materially improve the business and investment climate, 
particularly for American firms. We want to be certain that 
American companies investing in Cameroon can compete in an open 
environment under the rule of law that respects contracts and 
can, when necessary, seek redress through the courts.
    Cameroon is rich in natural resources and biodiversity, and 
its ancient tropical forests are home to unique plant and 
animal species. If confirmed, I will continue to pursue 
opportunities to support local and regional environmental 
issues within the Congo Basin Forest Partnership and as part of 
USAID's regional programs.
    Mr. Chairman, I have spent most of my career serving as a 
public diplomacy officer. I am convinced that people-to-people 
diplomacy is among the most important task for our embassies 
and is something that I would strongly continue to pursue. I 
look forward to learning more about Cameroonian culture and 
working to strengthen ties between cultural and educational 
institutions in the United States and Cameroon.
    Finally, I look forward to ensuring that the United States 
Embassy in Cameroon will provide the best possible service on 
behalf of the American people, and I am honored and excited 
about the prospect of applying my experience and knowledge to 
my new assignment.
    Thank you.
    [The prepared statement of Ms. Garvey follows:]

         Prepared Statement of Janet E. Garvey, Nominee to be 
                 Ambassador to the Republic of Cameroon

    Mr. Chairman and members of the committee, I am honored to appear 
before you as the President's nominee to be U.S. Ambassador to the 
Republic of Cameroon. I am pleased to be joined here by my friends and 
colleagues. My family could not join us today, but my Foreign Service 
career has been special to them as well as to myself, and they will be 
supporting me fully.
    The United States has important interests to protect and to advance 
in Cameroon. These include: promoting democracy; respect for human 
rights and the rule of law; protecting American citizens; advancing 
American business; promoting sustainable economic and social 
development; protecting the tropical environment; combating infectious 
diseases, especially malaria and HIV/AIDS; ensuring our energy 
security; and fighting terror.
    If confirmed, following my esteemed predecessor, I will seek to 
expand and improve our bilateral cooperation and dialog. Relative to 
much of the rest of sub-Saharan Africa, Cameroon has been stable, and 
it has a fairly educated population, a decent infrastructure, natural 
resources, strong agriculture, a growing business base, many 
environmental treasures, and a government which wishes to have even 
closer ties to the United States. If confirmed by the Senate, I will 
work to deepen existing relations and seek energetic new partnerships 
in government, business, and civil society.
    Cameroon has parliamentary and local elections scheduled for July. 
These elections offer a new opportunity to prepare for the Presidential 
election in 2011. After these July elections, and during my entire tour 
in Cameroon, we will continue to encourage a democracy that is 
inclusive, pluralistic, transparent, and free of intimidation.
    The Chad-Cameroon Oil Pipeline has been in operation for some years 
now and is contributing to increased government revenues. This, along 
with debt relief savings, was evident in the latest government budget, 
probably the most transparent one ever. As public awareness about 
revenues and expenditures grows, so will budget and planning 
transparency. If confirmed, I will encourage this process, to help 
Cameroon eradicate its endemic corruption. Transparency will materially 
improve the business and investment climate, particularly for American 
firms. We want to be certain that American companies investing in 
Cameroon can compete in an open environment under the rule of law that 
respects contracts, and can--when necessary--seek redress through the 
courts.
    Cameroon is rich in natural resources and biodiversity, and its 
ancient tropical forests are home to unique plant and animal species. 
If confirmed, I will continue to pursue opportunities to support local 
and regional environmental issues within the Congo Basin Forest 
Partnership and as part of USAID's regional programs.
    I have spent most of my career serving in public diplomacy. I am 
convinced that people-to-people diplomacy is among the most important 
tasks for our embassies. I look forward to learning more about 
Cameroonian culture and working to strengthen ties between cultural and 
educational institutions in the United States and Cameroon.
    Finally, I look forward to ensuring that the United States Embassy 
in Cameroon will provide the best possible service on behalf of the 
American people, and I am excited about the prospect of applying my 
experience and knowledge to my new assignment.
    Thank you.

    Senator Feingold. Thank you very much, Ms. Garvey.
    And, finally we turn to Phillip Carter, III, to be the 
Ambassador to the Republic of Guinea.

STATEMENT OF HON. PHILLIP CARTER, III, NOMINEE TO BE AMBASSADOR 
                   TO THE REPUBLIC OF GUINEA

    Mr. Carter. Thank you, Mr. Chairman, for the honor of 
appearing before you today. In addition to my two colleagues 
sitting with me at this table, I am also here with my wife 
Amanda, and my two sons Justin and Andrew. Their love and 
support has been a source of strength for me professionally, as 
well as personally. I can think of no better time or occasion 
than now to thank them for putting up with me as I've dragged 
them around the world for the last 26 years.
    Mr. Chairman, I would also like to take this opportunity to 
thank the President and Secretary Rice for the trust and 
confidence placed in me as the nominee for Ambassador to the 
Republic of Guinea. I am both humbled and honored by the 
prospect of this assignment and the challenges it represents.
    I am aware of these challenges because in my current 
position, as Director of the Office of West African Affairs, I 
work closely with our Embassies in the subregion to promote 
democracy, good governance, economic growth, and socioeconomic 
development.
    I've also had the privilege to work with the excellent team 
at the United States mission in Conakry to ensure a peaceful 
resolution to the crisis that gripped Guinea during the first 
part of this year. Though the general strike and civil unrest 
brought Guinea's economy to a halt and security forces 
responded with violent repression, there is cause for cautious 
optimism. These tumultuous events signal, in my opinion, the 
beginning of a democratic political transition, a journey in 
which the Guineans have taken their first steps.
    It is the task of the United States and mine, if confirmed 
as Ambassador, to support their efforts. A key part of this 
task will be to continue to work with the regional and broader 
international community to maintain attention on Guinea at this 
critical juncture. As a result of the Guinean people's historic 
movement, the new government under Prime Minister Lansana 
Kouyate, was, for the first time, formed through consultations 
with that country's unions and civil society.
    Looking forward, we hope to work with the new government on 
its stated priorities of promoting youth employment, judicial 
independence, macroeconomic stability, political dialogue, and 
good governance. I believe that engaging Guineans as friends 
and coequal partners in their democratic journey has been the 
key element to our successful diplomatic efforts in Guinea. 
And, if confirmed as Ambassador, I would continue that 
partnership.
    Despite the recent political turbulence, Guinea has seen 
some welcome economic developments over the last few years, 
however. The recent investments by the United States and other 
international companies represent both opportunities to develop 
that country's long-ailing economy, as well as support U.S. 
business and economic interests. With rich reserves of bauxite, 
gold, diamonds, and timber, as well as tremendous agricultural 
and hydroelectric potential, even greater opportunities to 
further our common goals remain.
    If confirmed as Ambassador to Guinea, I would continue the 
mission's efforts to help the new government meet the demands 
of the people for more representative, democratic, and 
transparent governance. In addition, I would reinforce our 
efforts to help the people of Guinea benefit from the fruits of 
broad-based economic growth. Finally, I would stand ready to 
help Guinea harness its rich natural resource base in a 
sustainable way to serve the needs of current and future 
generations.
    Thank you again, Chairman Feingold, for today's hearing. 
And, with your permission, I would like to submit my fuller 
written testimony to the record.
    [The prepared statement of Mr. Carter follows:]

       Prepared Statement of Phillip Carter, III, Nominee to be 
                  Ambassador to the Republic of Guinea

    Mr. Chairman, members of the committee--thank you--Chairman 
Feingold, Ranking Member Sununu, and the members of the committee for 
the honor of appearing before you today. I am not alone. With me are my 
wife, Amanda, and my sons, Justin and Andrew. Their love and support 
has been a source of strength for me professionally as well as 
personally. I would also like to thank the President and Secretary Rice 
for the trust and confidence placed in me as the nominee for Ambassador 
to the Republic of Guinea. I am both humbled and honored by the 
prospect of this assignment and the challenges it represents.
    Over the course of my 26-year career as a Foreign Service officer, 
I have had the distinct privilege and pleasure of representing the 
people and Government of the United States in Mexico, Canada, Malawi, 
Bangladesh, Madagascar, and Gabon. In my previous Washington 
assignments, I have had the opportunity to promote U.S. economic 
policies bilaterally and multilaterally, working with colleagues at 
Treasury, USAID, the World Bank, and the IMF on such issues as the 
Caribbean Basin Initiative (CBI), The Africa Growth and Opportunity Act 
(AGOA), and the Heavily Indebted Poor Country (HIPC) debt program. In 
my current position as Director of the Office of West African Affairs, 
I have worked closely with our embassies in the subregion in the 
promotion of democracy, good governance, economic growth, and 
socioeconomic development. I have also had the privilege to work with 
the excellent team in the United States mission in Conakry to ensure a 
peaceful resolution to the recent crisis that can move Guinea toward 
greater democratic governance.
    Though the general strike and civil unrest brought Guinea's economy 
to a halt, and the security forces responded with violent repression, 
there is cause for cautious optimism. These tumultuous events may 
signal the beginning of a democratic political transition which has 
also created an opportunity for transformational diplomacy--that is to 
use ``America's diplomatic power to help foreign citizens better their 
own lives and to build their own nations and to transform their own 
futures.'' Guineans have taken the first steps on this journey. It is 
the task of the United States and mine--if confirmed as Ambassador--to 
support their efforts. A key part of this task will be to continue to 
work with the regional and broader international community to maintain 
attention on Guinea at this critical turning point.
    Until the recent political unrest, Guinea was often described as a 
``bulwark of stability'' in a volatile subregion. Guinea opened its 
borders to refugees from neighboring Liberia and Sierra Leone, both of 
which are only now emerging from bitter civil conflicts. Guinea's 
achievable challenge is to regain its previous reputation for stability 
and to ensure long-lasting peace in the subregion.
    In the 49 years since independence, Guinea's leadership has failed 
to mobilize the country's abundant natural resources to the benefit of 
its people. Guinea's history of autocratic rule under Presidents Sekou 
Toure and Lansana Conte has left the country without strong democratic 
institutions that can address the rampant corruption and mismanagement, 
which have decimated the economy.
    For the first time since independence Guineans have organized en 
masse to demand political change from the nation's leadership. As a 
result of their historic movement, the new government under Prime 
Minister Lasana Kouyate was--for the first time--formed through 
consultations with that country's unions and civil society. Looking 
forward, we hope to work with the new government on the stated 
priorities of promoting youth employment, judicial independence, 
macroeconomic stability, political dialog, and good governance. I 
believe that engaging Guineans as friends and coequal partners in their 
journey toward achieving these goals has been the key element to our 
successful diplomatic efforts in Guinea. If confirmed as Ambassador, I 
will continue this partnership.
    Guinea faces a tough road ahead as the economy recovers from the 
unrest and 2-month standstill. To halt the violence temporarily, the 
previous government agreed to economic concessions on rice and fuel 
which may further skew Guinea's terms of trade. If Guinea is to succeed 
in normalizing its strained relations with the international financial 
institutions, Guinea's international partners must engage the country's 
leadership in a frank, open, and honest discussion about the impact of 
such policies. The recent crisis has also highlighted the fragility of 
Guinea's delivery systems for health, food, and physical protection. If 
confirmed, I will build upon the excellent efforts of my predecessor to 
help build the capacity of Guinea's authorities to deliver the benefits 
of economic and political good governance to the people.
    Despite a turbulent political environment, Guinea has seen some 
welcome economic developments in the last few years. The recent, and in 
some cases long-term, investments of United States and United States-
invested companies such as Alcoa, Global Alumina, Hyperdynamics, and 
others represent both opportunities to develop Guinea's long ailing 
economy, as well as to support United States business and economic 
interests. With rich reserves of barite, gold, diamonds, and iron, as 
well as tremendous agricultural and hydroelectric potential, even 
greater opportunities to further our common goals remain.
    If confirmed as Ambassador to Guinea, I will continue the mission's 
efforts to help the new government meet the demands of the people for 
more representative, democratic, and transparent governance. The United 
States has an important role to play in Guinea, as a friend, to help 
the people benefit from the fruits of broad-based economic growth. 
Moreover, we stand ready to help Guinea harness its rich natural 
resource base in a sustainable way that serves the needs of current and 
future generations.
    Thank you again, Chairman Feingold and Ranking Member Sununu, for 
today's hearing. I will be happy to answer any questions that you may 
have.

    Senator Feingold. Without objection. All of you can submit 
longer statements if you wish. Thank you very much, all of you, 
for your testimony. I'll begin the questioning with Mr. 
Marquardt.
    Mr. Marquardt, what experiences and lessons from your 
tenure as Ambassador to Cameroon will you take with you to your 
new post?
    Mr. Marquardt. Well, during my time in Cameroon we focused 
a lot on building democracy and promoting good governance, 
particularly fighting corruption. Cameroon has been an aspiring 
Millennium Challenge Account country. We've used that, I think, 
as leverage to reinforce changes that the government would like 
to promote, in any case. And, I think they're moving forward on 
all of these different issues.
    Madagascar seems to be in a different place, with respect 
to most of these issues. Democratization, of course, is a 
success story with the President having been elected twice, 
most recently in December. And, so I would say that my 
experience in Cameroon has given me some insights into the 
difficulties involved in these, in these issues, but in a 
different environment.
    With respect to fighting corruption, I think, again, 
Madagascar is further along, having established institutions 
that are in place that have a proven track record that we can 
support.
    Senator Feingold. Excuse me. Have you ever visited 
Madagascar or Comoros?
    Mr. Marquardt. No, I never have.
    Senator Feingold. As you know, unlike in Cameroon, the 
United States mission in Madagascar is responsible for a large 
USAID mission, as well as United States programs funded by the 
President's Malaria Initiative and the Millennium Challenge 
Account. Do you have experience overseeing and coordinating 
such diverse projects?
    Mr. Marquardt. Well, I think, Mr. Chairman, that you've 
identified the single greatest challenge that awaits me if I am 
confirmed, in Madagascar. Indeed, we do have a large and 
diverse aid program. I think tallying up all the different 
programs that we have, including the Millennium Challenge 
Account Program, it comes to over $60 million a year.
    Cameroon has a much more modest program, but I was very 
much engaged in overseeing the activities of USAID, of the 
Ambassador Self-Help Program, the Girls Scholarship Fund, and 
every other program that we had in Cameroon. But, I do see this 
as a challenge to, kind of, go up to the next level and engage 
with my AID Director and the Millennium Challenge Corporation 
people that are on site. I look forward to that challenge.
    Senator Feingold. How will you ensure that U.S. resources 
contribute to key U.S. policy objectives and do not fall prey 
to mismanagement or corruption?
    Mr. Marquardt. One of the first things that I'll be paying 
attention to is how the new foreign assistance coordination 
process that Ambassador Tobias has put into place will play out 
in the ground. As you know, Mr. Chairman, the objective of this 
new approach is to better align foreign policy objectives with 
the development objectives. It's new and, of course, in 
Madagascar we have the very first MCC country. So, there will 
be certain, certain experiences there that will be playing out 
for the first time anywhere in the world, in Madagascar, and 
I'll be doing my best to make sure that we do that successfully 
and carefully.
    With respect to the challenge of preventing--avoiding 
corruption and making good use of resources, I think it's a 
matter of vigilance, asking questions, holding people 
accountable, turning over the rocks, if you will. You can count 
on me to do that if I'm confirmed.
    Senator Feingold. Thank you.
    As you know, the suspected mastermind behind the 1998 
bombings of the United States Embassies in Kenya and Tanzania 
was from Comoros. Could you please provide a brief overview of 
the cooperation between the United States and Comoros and can 
you discuss what Comoros' geographic location means for this 
cooperation? Would you like to alter or amend this cooperation?
    Mr. Marquardt. Well, I think we are in a period of 
opportunity with respect to the Comoros. It is a new Muslim 
democracy. The country is, I think, 99 percent Muslim. The 
President was elected in a free and fair election. He has 
reached out to us here in the United States and in his capitol. 
In fact, this week, we have our very first-ever bilateral 
policy dialog going on between the Ambassador and the Director 
of East African Affairs on the one hand and, I believe, one of 
the President's key advisors on the other, to discuss 
opportunities.
    Presently we have--our assistance is limited to a $280,000 
education program, and then we also have FMF support that's 
designed exactly to bolster their capacity to deal with 
counterterrorism challenges in the Mozambique Channel between 
Tanzania, Mozambique, and Madagascar. I've become aware that 
the combined Joint Task Force of the Horn of Africa is 
operating across the lines of PACOM, UECOM, and CENTCOM very 
effectively in the area, including involving Comoran officials 
in understanding, sort of, the state of the art of combating 
terrorism on a regional basis.
    So, there's a start there, but I'm afraid that we're going 
to have to do a lot more with, in view of the potential for 
other countries that don't share our democratic and free market 
values, stepping in if we do not.
    Senator Feingold. Fair enough. What potential is there for 
the growth of a radical militant Islam in Comoros?
    Mr. Marquardt. Well, it's a deeply impoverished country and 
to the extent that terrorism has its roots in poverty, there's 
definitely a need to engage in health and education programs 
that the population will see as responsive to their most, most 
pressing needs. I don't think, however, that Harun Fazul is 
representative of the people of the Comoros. He seems to have, 
as many Comorans that have sought education have done, he's 
left, he left the country at an early age and his 
radicalization took place elsewhere.
    Senator Feingold. Thank you very much.
    The committee will stand in recess until I'm able to return 
from the votes and resume questioning.
    Thank you.
    [Recess at 9:50 a.m.]
     [On the record at 10:25 a.m.]
    Senator Feingold. I call the committee back to order and 
thank you for your patience as we got through those two votes. 
And, thank you, Mr. Marquardt.
    Now, I'll turn to Ms. Garvey. I see that you have extensive 
experience working in public diplomacy for the United States 
and you spent a lot of time in former Soviet countries. Can you 
explain to me how that experience will assist you in managing 
the United States mission in Cameroon?
    Ms. Garvey. Thank you, Mr. Chairman. I believe that my 
experience will be helpful in a number of ways. First, most of 
the countries I have been in have gone through or are going 
through transitions. They are countries that, as you said, do 
not have deeply established roots of democracy, countries that 
need to work harder on promoting human rights and transparency 
in government, countries that are in need of improving their 
attractiveness to foreign investors. I think these are the 
kinds of things that will be important, should I be confirmed, 
in Cameroon as well.
    I also have had the great good fortune of serving in South 
Africa during the time when President Mandela became President, 
and I remain deeply inspired by that experience. Watching 
Africans take control of their destiny and a commitment to 
democracy that I think exceeds many other countries where I 
have served.
    I did run an Embassy in Budapest that was lucky enough to 
have USAID mission and other programs that will also be present 
in Cameroon. So, I believe that experience will help me as 
well.
    Senator Feingold. Thank you.
    Although Cameroon, as you've indicated, is relatively 
stable, its neighbors, particularly Chad and the Central 
African Republic, are decidedly less so. In fact, the unrest in 
Chad and the CAR has sent an estimated 30,000 refugees fleeing 
into Cameroon whose shared border with the two countries 
stretches 125 miles. What skills and experiences do you have 
that could assist you in dealing with the humanitarian needs 
and conflict-related situations should the circumstances in CAR 
and Chad persist or worsen?
    Ms. Garvey. First, I would seek to work with the Government 
of Cameroon to make sure that they have the ability and the 
resources at hand to help, should they need to house these 
refugees. I know that UNHCR has been involved in setting up 
some facilities for refugees.
    I have in the previous post, in Bosnia for example, worked 
with displaced persons and with refugees and believe that, 
although the situation is very different for these particular 
people, that the trauma of being forced to leave your home and 
having to live, for sometimes a very long time, in these 
makeshift facilities is very hard. And, I believe that I will 
be able to work with our colleagues in Cameroon and also the 
international community to do what we can to help alleviate 
some of that suffering.
    Senator Feingold. How could Cameroon play a positive role 
in the region? What initiatives will you undertake to help 
Cameroon achieve its potential as a stabilizing force?
    Ms. Garvey. I think that is a very good question, Mr. 
Chairman. I believe that Cameroon is ready and I would like to 
see us encourage Cameroon to step up to play a more active 
role. I would like to see us working with the Cameroonian 
Government and military to place a larger role in peacekeeping 
in Africa. I believe that we have some resources where we can 
help with training to make sure their, their troops are able to 
carry out that process.
    I also believe that the experience Cameroon has had with 
Nigeria in solving the Bakassi Peninsula issue peacefully, is a 
good model and a way for them to show to their neighbors that 
there are ways to resolve differences peacefully.
    Senator Feingold. To what degree do you believe that public 
sector corruption--which has long been reported to be a problem 
in Cameroon--still persists?
    Ms. Garvey. I believe that the problem has not been solved. 
I believe that there is still a lot of work to be done. I have 
been very inspired by Ambassador Marquardt's work at raising 
that issue. I think that the Government of Cameroon itself has 
acknowledged that this is an issue. They are working to 
establish institutions and agencies that will help address this 
problem. I also think it's important that we work with the 
media to help develop skills to uncover this, these issues and 
to make sure that they do it in a way that represents 
responsible coverage of public officials.
    Senator Feingold. Well, how effective has the government's 
anticorruption efforts been and what is the impetus behind 
these efforts?
    Ms. Garvey. A couple of things, I think, Mr. Chairman. I 
think that it's a good start. I don't think that we can say 
that we are, have completed the process yet. I think we have 
seen some good first steps. I would like to see the government 
continue with some of the prosecutions that it has begun. I 
think that that sends an important signal to, both the people 
of Cameroon and to other potential officials who might think of 
corruption as a way enrich themselves.
    I also think that we need to continue to hold out the 
possibility of joining the Millennium Challenge Account 
Program. These, this gives us some standards that we would like 
to see Cameroon reach. And, I know that they're interested in 
achieving that so, I think it's a good way for us to encourage 
them to continue on this path.
    Senator Feingold. Thank you for your answers, Ms. Garvey.
    Mr. Carter, can you outline for me the current United 
States priorities in Guinea and whether they've changed with 
the recent appointment of Prime Minister Kouyate? Do you think 
his appointment was a step in the right direction, and if so, 
why?
    Mr. Carter. Thank you, Mr. Chairman, for the question. 
Essentially, our priorities in Guinea are rather clear cut in 
light of what we see with the events over the past several 
months. Primarily, our focus is to improve governance, to 
improve the sense of political dialog that is developing in the 
country, and to reinforce the momentum that has been developed 
over the past few months as a result of this movement by the 
Guinean people to address problems of corruption, poor 
governance, and the inability of government to deliver 
services. Our priority will be and has been to reinforce that, 
has been to reinforce that process. And, if confirmed, I would 
continue that, that effort.
    In addition, it's the, tying the issue of governance to 
other sectors is also what we are looking to do. For example, 
regarding the provision of health services, the poor service 
delivery has constrained what that country can achieve, in 
terms of reducing problems of illness, child morbidity, and 
innfant mortality. The problem of poor education, the lack of 
infrastructure or transportation, areall of these things, these 
problems are derived from the lack of governance that has 
existed in that country for a number of years.
    We'll also look at improving husbandry of the country's 
natural resources, looking toward greater accountability by the 
Government and the private sector in the utilization and 
exploitation of those resources, as well as looking at 
environmental protection.
    Senator Feingold. Thank you.
    Mr. Carter. Thank you.
    Senator Feingold. I feel very strongly that the United 
States has to be more forward-thinking in developing strategies 
to prevent, or at least respond, to crises abroad. What steps 
will you take as ambassador to proactively address growing 
public dissatisfaction in Guinea and help officials here in 
Washington think through what might be needed to assist Guinea 
at this pivotal time?
    Mr. Carter. That's a difficult question. If confirmed as 
Ambassador, I would look to open the channels of communication. 
What I have seen in the context of crises, not just within 
Guinea, but in other parts of West Africa and East Africa, is 
that much of the challenge in resolving these conflicts is the 
lack of communication. An American Ambassador can play a 
pivotal role in making sure that all parties in a conflict 
understand and appreciate the objectives of the other side. 
That is something that I would, if confirmed, would try to, try 
to foster.
    In addition to that, communicating back to Washington, 
providing a three-dimensional picture of the situation there 
that goes beyond what people may pick up from local or 
international media and press. The three-dimensional image is 
important to convey because, as you understand, if we look at 
questions of human rights violations, they have to be addressed 
within a context that also looks at the capacity of the 
Government to respond, the ability of civil society to engage, 
as well as the ability of the people themselves to communicate 
through an unfettered media.
    Senator Feingold. What do you see as the worst-case 
scenario that could befall Guinea.
    Mr. Carter. Well, Guinea is in a period of transition right 
now, Mr. Chairman. The greatest crisis would be if the momentum 
of the reform movement that is present now would be stalled. 
The result of which would be an eruption of violence, and 
probably, a military coup that would simply halt any further 
political dialog in the country.
    Senator Feingold. And of course, related to that, the 
neighborhood in which Guinea is located is extremely fragile, 
with Sierra Leone and Liberia recently emerging from brutal 
civil wars, while instability continues to plague Cote 
d'Ivoire. What mechanisms exist for you to monitor regional 
stability and what would you like to see put in place?
    Mr. Carter. Well, I think I bring somewhat of a unique 
perspective to that, having served as the Director for West 
African Affairs at the State Department. I see the issues as 
they interconnect. What I would like to do is foster greater 
communication with colleagues at the other American Embassies 
in the region. I would look not just in the Mano River Union 
Region, but also Mali, for example, as well as places which do 
not necessarily share a border, such as Senegal, to gain a 
greater sense of perspective of what my colleagues in other 
Missions are facing, and to try to see if there is a common 
thread. In that way perhaps, via in my engagement with 
Washington, if confirmed, I could provide a clear justification 
of the kind of resources that can be brought to bear within the 
context of Guinea which also has a regional impact.
    Senator Feingold. I know that for several years now, the 
United States Mission in Guinea has managed a military 
assistance program and that more than $330,000 has been 
allocated to support military training for the Guinean Army in 
2007. Given the inexcusable brutality the Army displayed in 
response to the strikes earlier this year, I'd like to know 
more about the scale and nature of United States military 
assistance to the Guinean armed forces and whether this 
includes human rights training? Do you think you could talk a 
bit about that?
    Mr. Carter. Yes, Mr. Chairman, and thank you for the 
question. We have been looking at this issue quite closely, 
particularly following the violence that occurred in January. 
Our IMET International Military Education and Training program 
is there to assist and to develop a better understanding of 
civil-military relations.
    The type of seminars and training that we've provided to 
the military have been to underscore the importance of a 
military that remains apolitical, that remains in their 
barracks, and does not necessarily see itself as a political 
institution. Believe it or not, that type of, those seminars 
over the past 3 or 4 years have been increasingly important 
within the military. We've been seeing a greater participation, 
increased interest by the military, to participate in these 
seminars.
    In addition, we have provided professional training to 
military officers. Within that context, human rights training 
is fully integrated, both in terms of the civil-military 
relations seminars and in terms of some of the professional 
training that we provide under IMET. The program is limited to 
about $500,000 currently, but one of the things we will 
continue to do--and what we are taking stock within the Bureau 
of African Affairs and my office particularly, and what our 
Embassy is looking at--is how do we move forward, given what 
has happened in January? To ensure that participants are fully 
vetted, and that those individuals who perpetuated the violence 
are held accountable.
    Senator Feingold. Thank you, Mr. Carter.
    I thank all of you for your answers to my questions, and 
your patience, and I congratulate you on your nomination. We 
will try to move this along as quickly as we can and wish you 
well in your new posts, should you be confirmed by the full 
committee and the U.S. Senate.
    That concludes the hearing.
    [Whereupon, at 10:40 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


       Responses of Phillip Carter, III, to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. Increasingly frequent reports have revealed that Guinean 
security forces are responsible for widespread abuses against the 
civilian population, including rape, robbery, torture, and more than 
110 killings from mid-January to mid-February 2007. The Guinean 
Government seems either unable or unwilling to control the country's 
security forces. If confirmed, what steps will you take to see that the 
Guinean security forces respect the country's obligations under 
international law and that appropriate action against perpetrators of 
abuses is taken?

    Answer. The response of the Guinean security forces to the recent 
public protest was unacceptable and the Department of State joined the 
international community in condemning those actions publicly. If 
confirmed as Ambassador, I would continue the efforts of the United 
States mission in Conakry to push the Government of Guinea to conduct a 
credible and transparent investigation into the violence and to hold 
accountable those individuals responsible for the violence, 
irrespective of their position in the security forces or civil 
administration. I would also give attention to broader allegations of 
abuse and impunity by members of Guinean security forces.
    The recent events have demonstrated the need for continued and 
increased United States engagement with Guinea's military. If confirmed 
as Ambassador, I would continue to emphasize the need for Guinea's 
security forces to heal the rift in civil-military relations, which the 
recent events have created. Since 2004, the U.S. mission has held a 
series of seminars to promote civil-military dialog. The objective of 
United States military assistance in Guinea is to encourage the 
development of a military leadership that manages operations honestly 
and effectively and that understands and promotes the appropriate role 
of the military in a democracy. Through the International Military 
Education and Training (IMET) program, the U.S. mission is providing 
Guinean military officers with training that encourages professional 
development, leadership, and transparent personnel/resource management, 
and emphasizes appreciation for rule of law and human rights.

    Question. Civil society was once thought to be a weak voice for 
change in Guinea, but that seems to be changing. Since last February, 
the country has been paralyzed on three occasions by nationwide general 
strikes initiated by trade unions and other civil society groups 
against corruption, bad governance, and deteriorating economic 
conditions, culminating most recently in the appointment of a new Prime 
Minister. What steps can you take to further strengthen civil society 
in Guinea and its ability to serve as a watchdog against the corruption 
and impunity that plague the country?

    Answer. The appointment of Prime Minister Kouyate was a victory for 
Guinea's nascent civil society, which successfully articulated the 
demands of the Guinean people for government transparency, 
accountability, and effectiveness. However, civil society in Guinea 
continues to lack the capacity to participate actively and effectively 
in governance. If confirmed as Ambassador, I would increase the 
mission's focus on democracy promotion and continue to integrate 
democracy and anticorruption efforts with the mission's work in the 
education, health, and natural resource management sectors. By focusing 
on anticorruption and consensus building mechanisms at the local, 
regional, and national levels, the mission will have the flexibility to 
support programs relevant to the changing political environment in 
Guinea. Depending on the evolving circumstances, these efforts may 
involve support for multistakeholder dialogs and institutional 
development assistance for executive, legislative, judicial, and 
independent institutions. Specific actions the mission may take would 
include leadership and management training for civil society leaders, 
strengthening the National Communication Council, providing technical 
assistance and start-up grants to community radio stations and 
supporting national advocacy campaigns that promote citizen 
participation and democratic governance. In 2006, the U.S. Government 
trained and strengthened over 748 community-based organizations. If 
confirmed, I will continue these efforts and increase the number of 
community-based organizations trained.

    Question. When he recently came into office, Prime Minister Lansana 
Kouyate indicated that one of his highest priorities was strengthening 
the judicial sector, a sector that has traditionally lacked 
independence from the executive and suffered from allegations of 
widespread corruption. Indeed, the judicial sector is in very bad 
shape. Most courthouses lack a single computer. The accused often 
languish for years in prison while waiting for a trial. In many cases, 
those waiting for trial are being held based on a confession extracted 
under torture. What steps can you take to help strengthen the judicial 
sector, this fundamental pillar of the rule of law?

    Answer. Guinea's judiciary is subject to rampant corruption and 
undue executive influence. It was President Conte's interference in the 
legitimate judicial proceedings against alleged corrupt public 
officials that helped spark the recent protests. Moreover, the 
government and the judiciary have yet to hold accountable those 
responsible for the bloody response of the security forces to the 
public protest in June 2006 and early 2007.
    To maximize the impact of U.S. assistance on the judicial system, I 
would focus the mission's efforts on anticorruption to support 
activities such as technical assistance and training for civil society 
and government agencies in advocacy and oversight, institutional 
strengthening for the national anticorruption agency; and capacity-
building for judicial institutions focused on corruption.
    If confirmed as Ambassador, I would also continue the mission's 
work to combat torture and other human rights abuses in prisons. The 
mission has funded programs, which focus on the judicial process. 
Through our partnerships with local and international nongovernmental 
organizations (NGOs), under my leadership the mission would bring 
attention to the plight of individuals in the prison system and develop 
partnerships between the Ministry of Justice, prosecutors, attorneys, 
and judges to improve case load administration and accelerate the 
adjudication of cases involving pretrial detention.

    Question. What, in your view, are the most pressing human rights 
issues in the Republic of Guinea? What are the steps you expect to 
take--if confirmed--to promote human rights and democracy in the 
Republic of Guinea? What do you hope to accomplish through these 
actions?
    If confirmed, what are the potential obstacles to addressing the 
specific human rights issues you have identified in your previous 
responses? What challenges will you face in the Republic of Guinea in 
advancing human rights and democracy in general?
    In your new position, what steps will you take to ensure that 
promotion of human rights objectives will be an integral part of the 
U.S. Embassy's activities? If confirmed, what steps will you take to 
ensure that Foreign Service officers who engage in human rights 
activities are encouraged and professionally rewarded for superior 
service?

    Answer. Guinea's human rights situation remains poor. Security 
forces unlawfully killed, abused, and arbitrarily arrested civilians. 
Despite continued efforts to improve its capacity to combat trafficking 
in persons, the problem remains. Though the government took significant 
steps to improve freedom of the press by implementing a 2005 media 
liberalization decree, private media was targeted during the recent 
violence of January and February 2007. While the new government has 
expressed a commitment to human rights, they have yet to hold 
accountable those members of the security forces responsible to the 
January/February losses of life.
    If confirmed as Ambassador, I would continue to call publicly and 
privately for the restoration of democracy and the respect for human 
rights. The United States mission in Guinea is uniquely positioned to 
approach the Government of Guinea, as a friend, in a frank, open, and 
honest dialog about the human rights deficiencies and successes in 
Guinea. As Ambassador, I would continue the efforts of my predecessor 
to further the political dialog among the government, opposition, civil 
society, and the military. Through USAID Development Assistance, the 
Democracy and Human Rights fund, and military assistance, the mission 
should build upon the progress Guinea has made in media freedoms and 
focus efforts on improving Guinea's judiciary, accountability, and 
provision of basic services.
    Despite the installation of the new government, significant 
challenges to human rights remain. The United States mission must 
continue to encourage that Guinea's political transition remain 
democratic, civilian-led, and peaceful. Through our dialog with the 
government, opposition, civil society, and unions, we must work to show 
Guinea's political elite that sustained and substantive political 
reform are in the best interests of all Guineans. Of particular concern 
in this regard is to ensure that Guineans' political rights, including 
their right to choose their own government, are protected.
    As Ambassador, I would ensure that the Mission Operational and 
Mission Strategic Plans continue to reflect an integrated, 
multisectoral approach to promoting democracy, human rights, and 
accountability. To ensure that all of the relevant personnel in the 
mission are encouraged and professionally rewarded for superior 
service, I would include a focus on human rights and democracy 
promotion in the work requirements of Foreign Service officers as well 
as certain locally employed staff. To recognize outstanding 
achievements in the promotion of democracy and human rights, I would 
work to ensure that qualified candidates in the mission received the 
fullest consideration for the awards the Department offers.

    Question. What are the most significant actions you have taken in 
your career to promote human rights and democracy? Why were they 
important? What was the impact of your actions?

    Answer. Between 1989-1992, I served in Malawi during the last years 
of President Hastings Banda, a dictator who had run the country as a 
one-party state since its independence. Using State funding, I helped 
develop that country's legal aid society and several local democracy 
NGOs. I also supported the development of underground opposition 
parties and helped initiate a movement that led to multiparty elections 
in 1994.
    As Charge d'Affaires at the United States Embassy in Antananarivo, 
Madagascar, I was the lead foreign diplomat that urged the government 
of President Ratsiraka to hold free and fair presidential elections. 
When his regime attempted to manipulate the election, I led a group of 
donors to respond in a coordinated manner. When Ratsiraka refused to 
accept his loss and sought to split the country via civil war, I led 
the donor community in its efforts to mediate the crisis. Ratsiraka 
finally accepted the polls' results and fled the country the day after 
the U.S. Government recognized Mark Ravalomanana as the legitimate head 
of state. When the Ravalomanana administration held parliamentary 
elections the following year, I led the U.S. Government mission in a 
multidonor support effort that provided financial and technical 
assistance.
    As Director of West African Affairs, I have supported the effort to 
have democratic elections in Liberia, Benin, Guinea, Senegal, Mali, 
Mauritania, Nigeria, and Sierra Leone. I also participated as an 
observer in the Liberian presidential runoff election that brought 
Ellen Johnson Sirleaf, Africa's first female President, to office.
                                 ______
                                 

          Responses of Janet E. Garvey to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. There continue to be reports of slavery and trafficking 
of children for the purposes of forced labor in the Republic of 
Cameroon. If confirmed, what concrete steps will you take to address 
these issues? What do you hope to accomplish through these actions?

    Answer. Cameroon has criminalized child trafficking for all 
purposes and child slavery since 2005, and police have made some 
arrests in the past 2 years. But statistical data is lacking, and 
prosecution and conviction efforts are weak. Local and national police 
agencies lack professionalism and investigative capacity. The 
government operates shelters in all 10 provincial capitals and has an 
ongoing prevention campaign, though its funding is sporadic. If 
confirmed, one of my key goals will be to maintain pressure on the 
government to continue its prevention campaign and to step up 
enforcement, particularly by increasing its efforts to protect victims 
and encourage them, where appropriate, to cooperate with law 
enforcement to track down their traffickers. As noted above, 
prosecution efforts are weak and I will encourage the government to 
accept training and education programs for the judiciary to improve 
sensitivity to trafficking issues. I also believe it necessary to find 
ample funding, including U.S. assistance, to continue and augment the 
level of awareness campaigns aimed at potential victims and their 
families. Ultimately, this may prove more effective in the long run, 
although short-term results may be obtained by investigating plantation 
abuses of children.
    I believe such prevention efforts, coupled with constant, steady 
pressure on the government to step up its enforcement mechanisms will 
ultimately generate real and measurable decreases in child trafficking.

    Question. Beyond the issue addressed in the previous question, what 
do you view as the most pressing human rights issues in the Republic of 
Cameroon? What are the steps you expect to take--if confirmed--to 
promote human rights and democracy in the Republic of Cameroon? What do 
you hope to accomplish through these actions?

    Answer. Fortunately, the embassy's current Mission Performance Plan 
has promoting and strengthening democracy and human rights as its top 
objectives. This gives me the advantage of stepping into an area to 
which the embassy staff is already committed. The most pressing human 
rights issues are the government's lack of consistent support of free 
speech, including freedom of the press, and its intolerance of 
political opposition. If confirmed, these would be my highest personal 
priorities in the area of human rights.
    Also, the Cameroonian Government has not always given its minority 
populations equal rights, and I would push officials, both publicly and 
privately, as my predecessor has done, to realize that this cannot 
continue if Cameroon is serious about seeking closer relations with the 
United States. The government must consistently respect the rights of a 
free press. I will continue the embassy's programs providing 
information and training sessions to local reporters and editors, 
focusing on building capacity and improving journalistic 
professionalism, accuracy, and impartiality.
    I firmly believe that, if I am confirmed, I will have some success 
in moving the Government of Cameroon to be more tolerant of the basic 
civil rights of free speech and free press. This will, in turn, help 
the battle against corruption and lack of transparency in overall 
governance.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous answers? What challenges will you face in the Republic of 
Cameroon in advancing human rights and democracy in general?

    Answer. If confirmed, I believe my biggest obstacles in 
implementing better efforts to fight child trafficking will be twofold: 
The lack of professionalism and investigative capacity of law 
enforcement agencies, and the lack of consistent funding to support 
government prevention and victim protection efforts. As for promotion 
of democracy and human rights, there is the difficulty of overcoming 
the unwillingness of the Biya administration to take controversial 
actions, even when the President sincerely believes they are the right 
thing to do. Another major obstacle is the government's tendency to 
view press reporting as irresponsible, libelous, or seditious, and 
hence seeks to repress freedom of speech and press.
    With regard to democracy and human rights in general, I believe my 
biggest challenges, if I am confirmed as Ambassador, will be to achieve 
cooperation from the government to loosen its constant unwillingness to 
take risks that are necessary to actively advance human rights and 
democracy. My predecessor has done this very well, and I will continue 
in his tracks, adapting my approaches as the situation dictates.
    I also believe that there are more direct efforts we can make to 
overcome resistance to free and fair elections in Cameroon, possibly 
the biggest obstacle to democratic progress. The upcoming July 
elections are important, but there are indications that only about one-
half of the voting age population is registered, and they are mostly in 
areas considered friendly to the current administration. If confirmed, 
I will make sure that the embassy does everything in its power to take 
the lessons learned from the upcoming elections to assure a better 
Presidential election takes place in 2011.

    Question. In your new position, what steps will you take to ensure 
that promotion of human rights objectives will be an integral part of 
the U.S. Embassy's activities? If confirmed, what steps will you take 
to ensure that Foreign Service officers who engage in human rights 
activities are encouraged and professionally rewarded for superior 
service?

    Answer. As for the first question, I am fortunate that the Embassy 
in Yaounde is already solidly grounded in the importance of human 
rights promotion, and the concept of strengthening democratic systems 
is the No. 1 goal as formally outlined in the Mission Performance Plan. 
If confirmed, I will ensure the problems and issues remain high on the 
agendas for appropriate team and individual meetings.
    To ensure that all of the relevant personnel in the mission are 
encouraged and professionally rewarded for superior service, I would 
include a focus on human rights and democracy promotion in the work 
requirements of Foreign Service officers as well as certain locally 
employed staff. To recognize outstanding achievements in the promotion 
of democracy and human rights, I would work to ensure that qualified 
candidates in the mission received the fullest consideration for the 
awards the Department offers.

    Question. What are the most significant actions you have taken in 
your career to promote human rights and democracy? Why were they 
important? What was the impact of your actions?

    Answer. Human rights promotion and protection has been a vital part 
of my career in the Foreign Service.
    In Hungary, I supervised our efforts to promote Roma integration 
into Hungarian society. Roma remain subject to significant 
discrimination, and we targeted much of our small assistance program 
and some of our public diplomacy funding to help improve the status of 
Roma in Hungary. As a result of programs funded and run by the embassy, 
we promoted training for young Roma journalists to help ensure that the 
image of Roma in Hungarian media was fair and accurate. We also worked, 
through USAID grants, to improve the health conditions for Roma women 
and children.
    In Bosnia and Herzegovina, I implemented a wide-ranging program of 
civic education, CIVITAS, throughout the school systems. We created a 
program that helped introduce students to their rights as citizens of a 
new democracy. We used the CIVITAS program to promote interethnic 
cooperation and to encourage young Bosnians to lobby their 
governments--at all levels--to ensure greater transparency and more 
responsible government.
    In South Africa, we implemented a wide range of programs in 
townships to promote local democratic efforts. We supported local radio 
and other media to help promote a free and independent press. We 
encouraged educational reform to enable all South Africans to benefit 
from economic opportunities through education. We also worked with the 
Truth and Reconciliation Commission to support its efforts to document 
the true history of the apartheid regime. We brought a number of legal 
and judicial experts to work with the commission as it completed its 
important work.
                                 ______
                                 

        Responses of R. Niels Marquardt to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. The 2006 Country Report on Human Rights Practices noted 
several areas in which civil rights are routinely violated in the 
Republic of Madagascar. These violations include the use of excessive 
force by security forces to disperse demonstrators, the arbitrary 
arrest of demonstrators, and harsh prison conditions. If confirmed, 
what actions will you take to encourage respect for freedom of speech 
and the rights of demonstrators in the Republic of Madagascar?

    Answer. The embassy already hosts a monthly Human Rights Working 
Group with civic organizations to provide a regular forum to discuss 
human rights topics. The group includes several NGOs and community 
leaders. The embassy often invites Malagasy officials to participate, 
thus improving communication between government and civil society.
    If confirmed, I will continue my predecessor's practice of 
privately and publicly making clear to the Government of Madagascar 
that the United States expects it to honor its obligations to protect 
civic rights including freedom of speech and assembly. In my contacts 
with the President, Prime Minister, and cabinet, I will emphasize that 
human rights abuses damage Madagascar's international reputation as a 
democracy. In public speeches and written statements, I will call on 
the Malagasy public to hold their leaders to a high standard on human 
rights.
    The State Department's annual Human Rights Report already catches 
the attention of Malagasy authorities; I am told the Office of Good 
Governance at the Presidency includes progress in key human rights 
areas, as covered in our report, to be performance indicators for their 
work. If confirmed, I will reinforce this powerful and explicit 
advocacy tool, both calling attention to chronic problems and 
highlighting successes when they are accomplished.

    Question. Beyond the issue addressed in the first question, what do 
you view as the most pressing human rights issues in the Republic of 
Madagascar? What do you view as the most pressing human rights issues 
in the Union of Comoros? What are the steps you expect to take--if 
confirmed--to promote human rights and democracy in both of these 
countries? What do you hope to accomplish through these actions?

    Answer. In Madagascar, while force and detention directed at 
demonstrators are significant human rights violations, I would identify 
prison conditions as the most pressing human rights issue. Overcrowded 
prisons are in deplorable conditions; many prisoners are malnourished 
and some actually die of starvation. More than half are incarcerated in 
pretrial detention, denied due process. The International Committee of 
the Red Cross (ICRC) had to suspend its work in prisons in 2006 due to 
inadequate cooperation from the government. Political ``will'' and 
statements are not sufficient. Concrete actions to provide humane 
conditions for all prisoners must be taken on an urgent basis. The 
backlog of pretrial detainees must be cleared to reduce overcrowding 
and to provide due process to alleged criminals. As a democracy and a 
responsible nation, Madagascar must meet its responsibilities to its 
citizens who have been accused of breaking the law.
    I have learned that Malagasy public opinion does not support 
efforts to improve prison conditions; that traditionally prisoners 
``get what they deserve in the popular view.'' If confirmed, I will 
embark on a public diplomacy campaign, with our Human Rights Working 
Group and via the media, to educate the population as to why it is 
important to treat criminals (and the accused) with decency and within 
the rule of law. A domestic constituency for prisoner's rights, NGOs, 
and church groups, will reinforce the international community's 
pressure on the government.
    In Comoros, fragile democracy has just begun to take hold since the 
May 2006 inauguration of President Sambi. The basic human right to a 
stable, representative government has been elusive for most of Comoros' 
30-year history since independence. Given adequate bilateral resources, 
I will work, together with multilateral organizations like the United 
Nations and World Bank, with the Comorans to establish and strengthen 
basic democratic institutions that are accountable to the people. 
President Sambi has already identified the fight against corruption as 
a top priority for his administration; U.S. assistance and advocacy 
must support his efforts.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous responses? What challenges will you face in the Republic of 
Madagascar and in the Union of Comoros in advancing human rights and 
democracy in general?

    Answer. In both countries, abject poverty, inadequate government 
resources, and lack of capacity are routinely cited as a justification 
for inaction. While partially true, these claims also reflect 
insufficient political will to take tough steps to reform entrenched 
practices, demand accountability, and insist that all government 
officials from Minister to clerk and police officer, be held to a high 
standard.

    Question. In your new position, what steps will you take to ensure 
that promotion of human rights objectives will be an integral part of 
the U.S. Embassy's activities? If confirmed, what steps will you take 
to ensure that Foreign Service officers who engage in human rights 
activities are encouraged and professionally rewarded for superior 
service?

    Answer. The only Superior Honor Award granted in Madagascar in 
recent years went to an officer in recognition of her work advancing 
human rights and combating trafficking in persons. The award 
acknowledged the effectiveness of that officer, but also reflected the 
high priority the mission assigns to all work in promoting human rights 
objectives. Beyond formal awards, I will create professional 
development opportunities for staff in promoting human rights. These 
would include a range of public outreach activities, public speaking, 
and travel throughout the country.
    If confirmed, I will also lead by example, dedicating a significant 
amount of my own time to advancing human rights issues. I can take part 
in outreach activities at the launching of Human Rights and Trafficking 
in Persons Reports. With small grants for human rights and combating 
human trafficking, we support local NGO efforts--I will participate 
often in these events with my staff.

    Question. What are the most significant actions you have taken in 
your career to promote human rights and democracy? Why were they 
important? What was the impact of your actions?

    Answer. The promotion of human rights has been an important 
activity throughout my career. As Ambassador to Cameroon and Equatorial 
Guinea, my team and I consistently raised human rights issues publicly 
and privately, including at the highest levels of both governments. 
Direct results included strong, new laws on trafficking in persons in 
both countries.
    As Special Coordinator for Diplomatic Readiness 2001-2004, I 
contributed indirectly but measurably to our capacity to advance human 
rights and other key policy objectives by overseeing the largest hiring 
program in State Department history. Without this effort, we simply 
would not have had the human resources necessary to promote human 
rights.
    As Minister-Counselor for Economic Affairs in Germany 1996-1998, I 
contributed significantly to securing German support for the OECD Anti-
Bribery Convention, which now governs member country anticorruption 
standards vis-a-vis the developing world.
    As Labor Attache in Bangkok 1987-1990, I was the embassy's point 
person in combating child labor and sensitizing the Thai Government and 
public opinion to worker rights issues. As Thailand at that time had 
the fastest growing economy in the world, it was important to signal 
publicly and privately the importance of appropriate balance between 
promoting economic growth and protecting human rights.
                                 ______
                                 

        Responses of R. Niels Marquardt to Questions Submitted 
                      by Senator Richard G. Lugar

    Question. As Ambassador to Cameroon in October 2006, you 
participated in a EUCOM regional ambassadors' conference for Africa in 
Stuttgart, Germany. Please describe the purpose and value of this 
conference to United States foreign policy coordination and your role 
as ambassador.

    Answer. The conference was an opportunity for Chiefs of Mission 
(COMs) in West and Central Africa to meet and coordinate with newly-
arrived General William Ward, the Deputy EUCOM Commander, and key 
senior EUCOM staff; to exchange ideas and perceptions both with EUCOM 
leadership and with regional counterparts; and to help shape EUCOM 
plans and capabilities. Both my Defense Attache, who also attended the 
conference, and I found the conference valuable in meeting these and 
other objectives.

    Question. Is there any comparable conference or other vehicle for 
regional discussions held by the Assistant Secretary for Africa, or 
another office or bureau in the State Department? What are they, where 
are they held, and how often do they take place?

    Answer. Since 2004, I have attended an annual Africa Chiefs of 
Mission (COM) Conference each October in Washington hosted by the State 
Department Africa Bureau Assistant Secretary.

    Question. Is there any comparable conference or other vehicle for 
regional discussions of interagency actors in the region held by any 
other U.S. Government agency? What are they and how often are they 
held?

    Answer. The annual Africa COM Conference has also been the venue 
for subregional discussions, such as among Gulf of Guinea or Central 
African COMs, on policy issues of common concern. Speakers from other 
agencies are frequently invited to the COM of conferences.

    Question. As Ambassador to Cameroon, did you have the resources to 
participate in this conference or was your participation funded by the 
Department of Defense?

    Answer. The Africa COM and EUCOM Conferences were coordinated and 
sequential, allowing me to attend both during a single trip from 
Cameroon. Travel was funded from the State Department budget.

    Question. Describe the video-teleconferencing capacity you had in 
Cameroon and the ability to VTC with other embassies in Africa, with 
the State Department, or with other agencies. Will you have the 
capability to VTC when you arrive in Madagascar?

    Answer. Embassy Yaounde has a nonsecure video-teleconferencing 
capability, which we use for communication both with Washington and 
within the region. In Madagascar, Embassy Antananarivo provides secure 
video-teleconferencing capacity.

    Question. As Ambassador to Cameroon, how would you characterize the 
resources available to most effectively support and implement United 
States policies in the region?

    Answer. In Cameroon, I found I had adequate staffing and 
operational funds (including travel and representation) to achieve our 
mission with distinction. However, I could have utilized additional 
program funding to exploit fully opportunities to advance key 
objectives, such as promoting democratization, the rule of law, the 
fight against corruption, and advancing human rights. Any additional 
funding made available could easily be put to effective use within the 
overhead constraints of the mission, without requiring any additional 
staffing.

    Question. Since 2001 there has been a significant increase in 
attention to Africa by the United States Government, for a variety of 
reasons, including dealing with United States interests in 
international security, economic, and social development, as well as 
health and humanitarian response.
    Given your long experience in Africa, including as Special 
Coordinator for Diplomatic Readiness, how would you describe the 
overall changes in the level of attention devoted to Africa across the 
United States Government?

    Answer. The overall level of United States Government attention 
being devoted to Africa clearly has increased dramatically over my 30-
year association with the continent. Presidents, Secretaries of State, 
and other cabinet members regularly visit Africa today. United States 
Government resources devoted to Africa have increased threefold during 
the Bush administration alone. In terms of staffing, I am pleased to 
report that Mission Cameroon is 100 percent staffed at the authorized 
level with qualified, at-grade personnel. I believe that this change 
reflects, in part, the positive impact of the 2001-2004 Diplomatic 
Readiness Initiative funded by the U.S. Congress.

    Question. Have the resources available to the State Department and 
the allocations within the State Department adequately met the level of 
increased United States interest and policy implementation in Africa? 
Are they appropriate to the leadership/partnership role expected by 
other agencies engaging in Africa?

    Answer. In Cameroon, I found that staffing and program resources 
were adequate to meet fully the leadership/partnership role expected of 
me and my staff by other agencies. Where I would argue for more 
resources is in our small but effective assistance programs--such as 
the Ambassador's Self-Help Fund and the Democracy and Human Rights 
Fund, and with respect to ESF for policy objectives like 
democratization and conservation.

    Question. Can you identify areas that you would consider 
underserved or under-resourced that would otherwise improve State 
Department leadership in our foreign policy-making, interagency 
coordination, or policy implementation in Africa?

    Answer. Additional staff resources and the flexibility to place 
staff in emerging priority areas would enable the State Department to 
bring its expertise to bear more quickly and effectively. Funding to 
permit travel with appropriate security support to dangerous yet 
priority environments would improve United States leadership in Africa.
                                 ______
                                 

       Responses of Phillip Carter, III, to Questions Submitted 
                      by Senator Richard G. Lugar

    Question. As Director of the State Department Office for West 
African Affairs in October 2006, you participated in a EUCOM regional 
Ambassadors' conference for Africa in Stuttgart, Germany.
    Please describe the purpose and value of this conference to United 
States foreign policy coordination and your role as Director of the 
Office for West African Affairs.
    Is there any comparable conference or other vehicle for regional 
discussions held by your current office, the Assistant Secretary for 
Africa, or another office or bureau in the State Department? What are 
they, where are they held, and how often do they take place?
    Is there any comparable conference or other vehicle for regional 
discussions of interagency actors in the region held by any other U.S. 
Government agency? What are they and how often are they held?
    As Director for West Africa, did you have the resources to 
participate in the EUCOM conference or was your participation funded by 
another office or agency? If so, which one?
    Describe the video-teleconferencing capacity in your office and 
that of the African Affairs Bureau, as well as at each United States 
Embassy in West Africa. How does the availability and capability to VTC 
in West Africa compare with other United States Embassies in Africa as 
well as other United States Embassies around the world? Are you aware 
of the ability of EUCOM to teleconference?

    Answer. The EUCOM conference for American ambassadors assigned to 
West and Central African states served as a forum for EUCOM to present 
its perspective toward developments in Africa and to outline a variety 
of proposed programs in Africa. The conference was extremely useful in 
working toward integration of EUCOM operations even more closely into 
United States foreign policy priorities for West and Central Africa. 
The conference resulted in much greater communication between my office 
and EUCOM at both the policy and operational level. As Director, I 
utilized the travel budget resources allocated to the Office of West 
African Affairs (AF/W) by the Africa Bureau's executive directorate. 
Only State funds were used for my travel and per diem to this useful 
conference.
    The Africa Bureau (AF) holds digital video conferences on a routine 
basis (every 4-6 weeks) at the working level with EUCOM and West 
African posts that are part of the Trans-Sahara Counter-Terrorism 
Partnership (TSCTP). The Office of West African Affairs (AF/W), the 
Africa Office for Regional and Security Affairs (AF/RSA) and the Office 
of the Counter-Terrorism Coordinator (S/CT) participate in those DVCs. 
In addition, AF and S/CT have cohosted a meeting in Dakar, Senegal with 
our ambassadors in TSCTP-participating countries and plan to host a 
similar meeting in June. Moreover, the Africa Bureau hosts an annual 
Chiefs of Mission
conference with interagency participation. AF/W also chairs a weekly 
interagency discussion group on issues pertaining to West Africa. I am 
unaware of any other interagency forum on West Africa that is held by 
another agency.
    The Africa Bureau has VTC capacity with most of our posts in West 
Africa. VTC equipment is located within my office. The quality of VTCs 
varies from post to post and is largely dependent on telecommunications 
infrastructure in the country. EUCOM has provided virtually each 
ambassador in West Africa with a teleconference device, though this 
device does not function fully at every post.

    Question. Since 2001 there has been a significant increase in 
attention to Africa by the United States Government, for a variety of 
reasons, including dealing with United States interests in 
international security, economic and social development, as well as 
health and humanitarian response.
    Given your long experience in Africa, both in the field and here in 
Washington, how would you describe the overall changes in the level of 
attention devoted to Africa, and West Africa in particular, across the 
United States Government?
    Have the resources available to the State Department and the 
allocations within the State Department adequately met the level of 
increased United States interest and policy implementation in Africa? 
Are they appropriate to the leadership/partnership role expected by 
other agencies engaging in Africa?
    Can you identify areas that you would consider underserved or 
under-resourced that would otherwise improve State Department 
leadership in our foreign policy-making, interagency coordination, or 
policy implementation in Africa?

    Answer. Having worked on African issues for nearly 20 years, I know 
of no other occasion when Africa has drawn so much attention from the 
United States Government and our leadership. The Bush administration 
has tripled United States assistance to Africa and is a major, if not 
the principal, bilateral donor on important health issues such as HIV/
AIDS and malaria prevention. The creation of the Millennium Challenge 
Corporation (MCC) has brought significant economic resources to several 
well-performing African countries. The ongoing development of the 
Africa Command (AFRICOM) is another example of how Africa looms much 
larger on America's foreign policy agenda than ever before.
    The foreign assistance resources for Africa reflect the increased 
attention to this continent. However, the tripling of United States 
assistance to Africa has not witnessed a concomitant increase in 
personnel (both domestically and in the field). United States missions 
in Africa tend to be small posts with relatively junior staffs. To take 
full advantage of increased attention and assistance to Africa, greater 
human resources are required.
    Improved technological resources and capabilities to facilitate 
communication between the bureau and posts as well as among posts would 
be helpful. For example: The ability to conduct classified and 
unclassified instant-messaging discussions among ambassadors in a 
particular region would prove very helpful. Greater attention and 
resources for language training in specific African languages (Hausa, 
Ligala, Somali, Swahili) as well as Arabic would help increase our 
ability to engage local populations and civil society throughout the 
continent.


                              NOMINATIONS

                              ----------                              


                         TUESDAY, MAY 22, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
Hughes, Miriam K., to be Ambassador to the Federated States of 
        Micronesia
Hume, Cameron R., to be Ambassador to the Republic of Indonesia
Huso, Ravic R., to be Ambassador to the Lao People's Democratic 
        Republic
Keith, James R., to be Ambassador to Malaysia
Klemm, Hans G., to be Ambassador to the Democratic Republic of 
        Timor-Leste
                              ----------                              

    The subcommittee met, pursuant to notice, at 10:00 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Barbara Boxer 
presiding.
    Present: Senators Boxer and Feingold.
    Also present: Senator Murkowski.

            OPENING STATEMENT OF HON. BARBARA BOXER,
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Good morning. The hearing of the Foreign 
Relations Committee will come to order. We are very pleased 
today to consider five excellent nominees for U.S. 
Ambassadorial posts throughout East Asia and the Pacific.
    As chairman of the subcommittee on East Asian and Pacific 
Affairs, I am very pleased to have this opportunity to chair 
this full Committee hearing and congratulate each of our 
nominees for making it to this point, and I predict smooth 
sailing for each of you.
    Because of our many interests and deep longstanding ties in 
the region, it's critical for the United States to be fully 
engaged throughout East Asia and the Pacific. Coming from 
California, I absolutely feel very strongly about this.
    If we are to remain the region's leading power, the 
effectiveness of our diplomatic efforts must match our strong 
military presence. As we've learned in Iraq, even our most 
powerful military leaders say that diplomacy is the answer, so 
we cannot turn our back on our diplomatic efforts anywhere in 
the world.
    On Sunday, foreign policy expert James Mann wrote in the 
Washington Post: ``Over the past decade, U.S. foreign policy 
has been dominated by a school of thought that emphasizes 
military power, and has tied the spread of democracy to the use 
of force. Not only has this failed, it has also undermined 
support for democracy.''
    He went on to say that, ``As the United States has been 
bleeding popularity and influence around the world, China has 
been gaining both.''
    So in order to compete with the growing influence of China, 
it seems to me the United States must employ a diplomatic surge 
in East Asia and the Pacific to win the battle of ideas and 
reassure our allies that we are truly committed to the region.
    So I am pleased that the administration has nominated five 
individuals with impressive credentials to serve as U.S. 
Ambassadors.
    Cameron Hume, the President's nominee to be the U.S. 
Ambassador to Indonesia, has more than three decades of 
diplomatic experience, most recently as the Charge in Khartoum. 
That's not an easy assignment. Prior to serving in Sudan, he 
was the Deputy Inspector General of the Department of State.
    James Keith, the President's nominee to be the U.S. 
Ambassador to Malaysia, is the current Deputy Special 
Representative on Avian and Pandemic influenza. Prior to this 
assignment, he served as the U.S. Consul General in Hong Kong. 
Mr. Keith has been working on matters relating to East Asia for 
more than 25 years.
    Miriam Hughes, the President's nominee to be the U.S. 
Ambassador to the Federated States of Micronesia, currently 
serves as U.S. Deputy Representative to the Economic and Social 
Council of the U.S. Mission to the U.N.
    Prior to this, she served as Director of the Office of 
Policy, Public, and Congressional Affairs in the Bureau of 
International Organization Affairs at the State Department. 
Earlier in her career, she served as Chief of the Consular 
Section in Mexico City.
    Hans Klemm, the President's nominee to be the U.S. 
Ambassador to East Timor, currently serves as the Minister-
Counselor for Economic Affairs at the U.S. Embassy in Tokyo. He 
joined the Foreign Service in 1981.
    Finally, Ravic Huso, the President's nominee to be the U.S. 
Ambassador to Laos, currently serves as Political Advisor to 
the Commander of the United States Pacific Command.
    Prior to this, he served as Deputy Chief of Mission in 
Bangkok, Thailand. Earlier in his career, he served as Senior 
Director of the National Security Council.
    I want to thank each of our nominees for their willingness 
to serve our Nation, and I look forward to hearing their 
testimony.
    This is where I will stop. Now, when Senator Murkowski 
joins us, and perhaps Senator Feingold, I'm going to give them 
an opportunity to make an opening statement, if they so choose. 
But in the meantime, I'm very interested in hearing from all of 
you.
    Let's see. Why don't we start with the Honorable Cameron 
Hume to be Ambassador to the Republic of Indonesia? Again, to 
all of you, my deepest thanks for your commitment to our 
country.
    Ambassador?
    Mr. Hume. Thank you very much.
    Senator Boxer. I already called you Ambassador. That shows 
you where I am on this hearing. Go ahead.

STATEMENT OF HON. CAMERON R. HUME, NOMINEE TO BE AMBASSADOR TO 
                   THE REPUBLIC OF INDONESIA

    Mr. Hume. It's a great honor to be here this morning as the 
nominee of President Bush to be Ambassador to Indonesia, and if 
confirmed by the Senate, I promise to serve to the best of my 
ability.
    I think those qualifications are those of a career Foreign 
Service officer. After university, I was in the Peace Corps in 
Libya, and then I joined the State Department, and I had a 
number of assignments, both in the Arab world and in Italy.
    I picked up several languages along the way. I consider 
myself fortunate to have had those experiences. I've since 
served three times as Chief of Mission in Algeria in the late 
1990s, when that country was turning away from exceptional 
violence and toward greater respect for the rule of law.
    Then in South Africa, which again was a country which I 
think was on the mend, I spent a lot of time there working on 
HIV/AIDS and trying to promote saner policies in that area. 
Now, for the last 18 months in Sudan, which I think was a 
difficult and challenging place to serve.
    Indonesia is a vast and strategically important country. I 
approach this opportunity with a sense of considerable 
humility. It's a country that has known a tumultuous past, but 
fortunately, over the last 10 years, gradually its record has 
gotten better.
    Economic growth has gone back to about 6 percent currently. 
They've had a series of elections which Freedom House 
considered to be free and fair. They were able to broker an 
apparent solution to the problem in Aceh, which is so far being 
respected.
    So I think one looks at that--I'm fortunate at this time to 
be going to a country which is on the mend. The United States 
has important interests there, whether it's a cooperation in 
the war on terrorism, an area where, again, Indonesia's made 
some progress.
    We have supported the formulation of a group in the police 
called Detachment 88, which has done good work in arresting 
people involved with terrorist acts.
    We also have interest in seeing their economy and growth 
and stability continue. We have an aid program of about $150 
million in a number of different areas.
    I think Indonesia, as the world's largest Muslim population 
nation, is a key when we look at solving some of the 
geopolitical problems that we confront. How are we able to 
cooperate with a government which is now formed by a free 
election, and a majority Muslim, and spreading influence, both 
in its region and elsewhere?
    They contributed a battalion to the peacekeeping operation 
in Lebanon this year. So those are the--that's sort of a 
general abbreviated picture of the issues that will have my 
concern. I realize some of them will be difficult to deal with. 
Questions of rule of law, questions of trying to calibrate the 
right balance in what relationship we have with Indonesia in 
the security area.
    But I promise that if confirmed, you'll get my best 
efforts.
    Thank you very much.
    [The prepared statement of Mr. Hume follows:]

       Prepared Statement of Hon. Cameron R. Hume, Nominee to be 
                Ambassador to the Republic of Indonesia

    Thank you, Madame Chairman, and members of the committee. It is a 
great honor to come before this committee today as nominee for 
Ambassador to Indonesia. I would like to express my appreciation to 
President Bush and to Secretary Rice for the trust they have placed in 
me by making this nomination. If confirmed by the Senate, I promise to 
represent this country to the best of my abilities.
    My qualifications for this position are those of a career Foreign 
Service officer. Immediately upon completion of university studies, I 
joined the Peace Corps as a volunteer and taught in Libya, my first 
experience in a developing country with a Muslim population. Shortly 
after departing Libya, I joined the Department of State. Early 
assignments gave me the opportunity to learn several languages and to 
serve in interesting posts, including Italy, Syria, Tunisia, Lebanon, 
and the Holy See. For several years I worked at the U.S. Mission to the 
United Nations, first with responsibility for human rights and then for 
work in the Security Council.
    Since 1997 I have been fortunate to represent the United States as 
chief of mission three times. Algeria was a country suffering from a 
tragic conflict in which the victims were ordinary civilians rather 
than the protagonists in the Islamist dissident forces or in the 
Algerian military. In part because the United States promoted 
reconciliation, democracy, and respect for the rule of law, the 
situation gradually improved. Service in South Africa brought new 
challenges. In particular, finding ways the United States could 
encourage South Africa to confront the scourge of HIV/AIDS. I would 
like to pay tribute to many colleagues in USAID, the Centers for 
Disease Control and Prevention, the National Institutes of Health, and 
the Department of Defense for the ground-breaking work they did to put 
in place programs that helped South Africa to confront this challenge.
    For the past 2 years I have served as Charge d'Affaires in Sudan. 
Again I had the chance to witness, and a unique opportunity to 
participate in, the programs of the United States Government that aim 
to consolidate the peace in southern Sudan, to end the killing and to 
bind the wounds of the people of Darfur, and to support the emergence 
of a New Sudan. I cannot and would not claim more than partial success 
in any of these efforts, but I know that resources and efforts from the 
United States are having a significant, positive impact.
    With these experiences in mind, I approach the challenge of 
representing the United States in Indonesia with a sense of humility. 
Indonesia is the fourth most populous nation and the third largest 
democracy. It has the world's largest Muslim population. It is a 
founding member of the Non-Aligned Movement and of ASEAN, and it is 
currently a member of the U.N. Security Council. It is a vast country 
sitting astride strategic sea routes. By any standard, the relations 
between the United States and Indonesia are of vital importance.
    Since independence, Indonesia has enjoyed years of encouraging 
growth and suffered years of tumult. The political and economic 
indicators are all rising, particularly since the election of President 
Susilo Bambang Yudhoyono in 2004, and Indonesia is becoming a real 
success story. Problems and challenges remain, and, if confirmed, I 
would give them my priority attention. But it is worthwhile to recall 
some of the positive indicators:

  <bullet> Economic growth has been gradually rising toward the level 
        of 6 percent annually, a substantial improvement since the 
        Asian financial crisis of the last decade but not enough to 
        create the jobs needed by an expanding workforce.
  <bullet> Following the 2004 national election and subsequent 
        elections at the regional and municipal levels, and substantial 
        gains for civil society and the media, Freedom House has moved 
        Indonesia into the category of Free.
  <bullet> Government and military reform have moved forward, including 
        such steps as the separation of the Indonesian National Police 
        from the armed forces, the adoption of anti-corruption 
        measures, and the devolution of power to regional and local 
        governments.

    Today bilateral relations are improving. Indonesia is playing a 
more assertive role on the world stage, and is working as a force for 
international peace and stability; its commitment of troops to the 
UNIFIL deployment in Lebanon and vote for Security Council Resolution 
1747 on Iran are notable recent examples. If confirmed, I'll work to 
enhance Indonesia's support for our key foreign policy priorities, 
including ensuring Iran does not develop nuclear weapons, advancing the 
Middle East peace process, and promoting a democratic transition in 
Burma. Indonesia's leadership is committed to the fight against terror 
within its borders, as the arrests and prosecutions of hundreds of 
terrorists in the past few years demonstrates. There have been no major 
terrorist incidents in Indonesia since October 2005, a huge achievement 
for a country that had been devastated by attacks every year since the 
Bali bombing in 2002. Working with the United States, Indonesia is 
vastly improving its ability to protect vital sea lanes from terrorists 
and piracy.
    Perhaps most remarkable this past year was the election of a former 
rebel leader as governor in Aceh, a province that had been wracked by 
armed separatist conflict for decades. Today we are helping the 
Acehnese ensure a lasting peace and to recover fully from the deadly 
tsunami that struck its shores in December 2004.
    While we still have serious concerns with human rights in 
Indonesia, I would be remiss without acknowledging the dramatic and 
broad progress the country has made here too. Notably, in November of 
last year, a court sentenced the ringleader of the deadly attack that 
killed two Americans and one Indonesian in 2002 in Timika, Papua, to 
life in prison. In this case Indonesia's criminal justice system worked 
closely with our own law enforcement in building and prosecuting the 
case, and the sentence was just. Despite encouraging developments in 
Indonesia's efforts to build a strong criminal case in the murder of 
human rights activist Munir, this crime has not been fully resolved. If 
confirmed, I will make it a priority to continue to press the 
government for a fair accounting of past human rights abuses committed 
by security forces in East Timor and elsewhere.
    U.S. partnership and friendship can help this critically important 
country in the medium- and long-term. The assistance funds Congress 
provides address some of Indonesia's greatest needs, such as education, 
so tomorrow's generation will have the critical thinking skills that 
democratic citizens need. Our dollars go to economic and justice sector 
reform because Indonesia still needs to attract more investment, 
provide more jobs, and build the institutions and respect for rule of 
law that we hope will provide its democracy with a rock-solid 
foundation. They improve health care critically by reducing the spread 
of infectious diseases. The new Millennium Challenge Corporation 
program launched this year aims to strengthen the anticorruption 
efforts Indonesia has underway and to provide immunizations. And we are 
providing security assistance that aids in the fight against terror and 
contributes to the creation of a professional, civilian-run force.
    In less than 10 years, Indonesia has travelled an astonishing 
distance: from the ruin of the Asian financial crisis and fall of a 
dictatorship to a vibrant democracy with solid economic growth. In many 
ways, though, these gains are fragile. If confirmed, I look forward to 
working with the Congress and the full array of U.S. Government 
agencies to promote the success of our policies and of Indonesia's 
democracy.
    I would welcome the opportunity to answer questions.

    Senator Boxer. Thank you very much, Mr. Hume. I really 
respect your history, and I think you gave us a very insightful 
look at what you're going to do.
    I think its summed up very well in your testimony in the 
last paragraph, where you say: ``In less than 10 years, 
Indonesia has traveled an astonishing distance, but in many 
ways, these gains are fragile, and if confirmed, I look forward 
to working with the Congress to promote the success.'' I think 
that gives me a sense that this is an important time there, and 
you get that, and I appreciate it.
    If you notice, we do have a 5-minute clock we're all living 
by, so try to keep your statement under that limit. You left us 
with plenty of extra time. At this point, I would ask Senator 
Murkowski if she'd like to make an opening statement.

               STATEMENT OF HON. LISA MURKOWSKI,
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Madame Chair. I don't have an 
opening statement this morning, other than to welcome each of 
you gentlemen and Ms. Hughes, welcome you to the subcommittee 
this morning, and to thank you for your willingness to serve in 
the respective areas.
    Very impressive backgrounds and credentials that we have in 
front of us this morning, certainly in some very key parts of 
the globe, as we look to whether it's political activities that 
are taking place in the region or just the economic activities.
    So again, I welcome you to the subcommittee, and thank you 
for your willingness to serve in this capacity.
    Thank you, Madame Chair.
    Senator Boxer. Thank you so much, Senator Murkowski. You 
know, I neglected to ask each of you to introduce the relatives 
that you may well have brought with you. So why don't I go back 
to Mr. Hume. Would you like to introduce anyone?
    Mr. Hume. No, I'm here alone today.
    Senator Boxer. Okay.
    Mr. Keith, before you start, do you have anyone you'd like 
to introduce?
    Mr. Keith. Madame Chairman, I do, thank you. Since my whole 
family isn't here, I'll be able to keep to the 5-minute rule.
    Senator Boxer. Okay.
    Mr. Keith. I'd like to introduce my wife, Jan, who's----
    Senator Boxer. Jan, stand up, please. We want to see you. 
Yes.
    Mr. Keith. My son Andrew is sitting to her left, and my son 
John is to her right.
    Senator Boxer. Hi.
    Mr. Keith. My daughter Elizabeth and my daughter Emily are 
all here today. I have two other sons, Jason and Scott, who 
can't be here. Jason is a Staff Sergeant in the U.S. Army, 
serving at Walter Reed Army Medical Center, married to an Army 
veteran, Annie, and our granddaughter, Lily, 5 weeks old.
    Senator Boxer. Congratulations on that.
    Mr. Keith. Thank you.
    Senator Boxer. Well, Mr. Keith, why don't you proceed for 
up to 5 minutes? We'll put all of your statements into the 
record.

   STATEMENT OF JAMES R. KEITH, NOMINEE TO BE AMBASSADOR TO 
                            MALAYSIA

    Mr. Keith. Madame Chairman, thank you. I'm honored to be 
here, and thank the committee for considering my nomination. 
Because you have my statement, I'll just briefly summarize.
    I'm looking forward, with high aspirations, to going to 
Malaysia. High aspirations for what we can achieve with a 
country that has come a long way, but still has, in many 
respects, a distance to go.
    I'm pleased to report that we have very good cooperation 
with the Malaysians from both law enforcement and military 
perspectives in countering terrorism in the region. Like 
Indonesia, Malaysia is a majority Muslim country, and it's 
important that we share objectives, both in the region and in 
multilateral fora, including in the U.N.
    I also have very high aspirations for what we can achieve 
in Malaysia with regard to balancing the benefits of our trade. 
I think that the American market is absolutely critical to 
Malaysia's economic success, and I believe we have 
opportunities to further our trade, given the market-oriented 
focus in Malaysia.
    Our American business opportunities, financial 
opportunities, in particular, in the services sector, I would 
hope that we would be able to expand our interaction and 
cooperation.
    I think we have not only important security and trade 
interests in Malaysia, in particular, given its strategic 
location on the Strait of Malacca, but also important people to 
people ties, which I'll do my best if confirmed to advance.
    About 150,000 Malaysians, more than 150,000, have studied 
in the United States over the years. That number has gone down 
year by year, and I'd like to find ways for us to increase our 
interaction along those lines.
    For example, in many areas in Asia, American educational 
institutions have local programs, such as MBA programs. Others 
are doing this in Malaysia. The American institutions are not 
there yet, but I'd like to promote that.
    We have six American corners throughout Malaysia also. 
These are the areas of focus for our people to people 
interaction. I'd like to make sure that, if confirmed, that 
both I and my staff at the embassy take advantage of those 
centers so that we can get outside the capital and increase 
people to people exchanges.
    I think America and Malaysia share a lot, but we have some 
differences, too, and I certainly will be forthright, if 
confirmed, in speaking about some of those differences, and 
helping the Malaysians, whether it's more in the technical 
areas, such as export control, where we can help with training 
courses and model legislation, or on a broader cultural front 
and political front, including electoral reform.
    So I look forward to a very exciting time. This is a 
dynamic region, and Malaysia is part of the fluid situation and 
change there, and could be, I think, more a part of leadership, 
both in regional organizations, as well as globally.
    So I thank you for your consideration of my nomination, and 
would be happy to answer your questions.
    [The prepared statement of Mr. Keith follows:]

          Prepared Statement of James R. Keith, Nominee to be 
                         Ambassador to Malaysia

    Madam Chairman, members of the committee, I am deeply honored to 
appear before you today. It is a privilege to be the President's 
nominee as the United States Ambassador to Malaysia. I am grateful to 
the President and Secretary Rice for the trust and confidence they 
invested in me as the nominee for this position. I am also honored to 
be in the company of a group of distinguished nominees for important 
posts in the East Asian and Pacific region.
    Madam Chairman, I am a senior member of the Foreign Service with 
the rank of Minister-Counselor. I have, over the course of my 27 years 
of public service, held senior positions at the State Department and 
the National Security Council in Washington, including as Deputy 
Assistant Secretary for East Asian and Pacific Affairs dealing 
primarily with China. Overseas I was our Designated Chief of Mission 
and Consul General in Hong Kong and I have served at embassies in 
Northeast and Southeast Asia.
    Prime among the resources that the Department of State and other 
agencies and departments have to offer in any embassy abroad is our 
people. I look forward, if confirmed, to working with a capable and 
experienced country team at our embassy in Kuala Lumpur. We have an 
active and productive Mission comprising eight U.S. Government agencies 
and Departments working together to cement ties between our two 
nations. We are establishing a one-officer American presence post in 
Kota Kinabalu in Malaysian Borneo and have expanded our embassy staff 
in several key areas over recent years to advance our shared security 
interests. If confirmed, I will take as a priority directing this 
dedicated team in support of American citizens traveling, working, and 
residing abroad.
    Malaysia is prominent in the region and globally. It will 
celebrate, later this year, the 50th anniversary of its independence 
from Britain as well as the 50th anniversary of United States-Malaysia 
diplomatic relations. It is an important voice for key constituencies 
that matter to the American people. Malaysia is a moderate majority-
Muslim democratic state and has successfully managed economic 
globalization and a multifaith, multiethnic society. It has served over 
the years in leadership positions in the Organization of the Islamic 
Conference, the Non-Aligned Movement, the Association of Southeast 
Asian Nations, and the Asia Pacific Economic Cooperation forum, among 
others.
    The United States and Malaysia have sometimes had policy 
differences that required public expression in strong terms. In recent 
years, Prime Minister Abdullah Badawi has set a path forward that 
promises an increasingly productive relationship and greater congruence 
between the interests of America and Malaysia. If confirmed, I will 
devote my energies to improving and strengthening United States-
Malaysia relations, while openly discussing issues on which we differ.
    One example of our differing perspectives involves our respective 
views of Iran. We remain opposed to foreign investment in Iran's oil 
and gas sector, as a matter of law and policy. If confirmed, I will 
continue to make clear our concerns about such investment, and to 
emphasize that we are vigorously opposed to business as usual with Iran 
and want other nations to join us in dissuading Teheran from pursuing a 
nuclear weapons program.
    Far too few Malaysians hold positive views of the United States. 
One of my goals, if confirmed, would be to build on the embassy's 
ongoing public outreach throughout the country to provide an accurate 
basis from which the Malaysian people can form opinions about the 
American people, our values, and our goals in the world. It will be 
critical, in this context, for my country team and for me to speak 
forthrightly about our commitment to fundamental values, including 
those enunciated in the U.N.'s Universal Declaration of Human Rights. 
We want to be Malaysia's essential future partner, and we need to 
communicate effectively that sentiment to the Government and people of 
Malaysia. We should deepen and broaden mutual understanding by 
promoting people-to-people contacts, expanding upon the more than 
175,000 Americans who visit each year, and increasing from 5,500 the 
number of Malaysians who study in the United States. These direct 
personal interactions represent an invaluable platform for advancing 
U.S. interests.
    Our trade and investment ties, already a key component of the 
relationship, offer great promise for further development. We are and 
have been for more than 40 years Malaysia's No. 1 market and we lead 
the world in total foreign direct investment in Malaysia. Malaysia buys 
more than $13 billion of American exports each year. We are seeking to 
deepen these trade ties even further through a Free Trade Agreement and 
other mechanisms. Our agenda is ambitious, as befits a relationship 
with our 10th largest trading partner. We have much work to do, but 
remain committed to promoting the best interests of all Americans. 
Agriculture, the environment, labor, intellectual property--these are 
complex sectors that will engage our best efforts. If confirmed, I will 
work closely with our cabinet members and their senior advisors to 
ensure the most productive possible outcomes for the American people.
    One clear area of common interest is the growing cooperation 
between our officials working on security and law enforcement issues. 
Southeast Asia is an important front in the war on terror and we depend 
on Malaysia to be an effective and cooperative player in the region's 
vital counterterrorism programs. Malaysian authorities have responded 
vigorously to the threat posed by Jemmah Islamiya and Abu Sayyaf 
groups, contributing to the security and prosperity of both our 
nations.
    Our bilateral military cooperation is growing and includes 
exchanges of visits and training, equipment sales, combined exercises, 
and, increasingly, naval ship visits. Our attention in the region is 
focused in particular on the Strait of Malacca, an area of vital 
national interest as it is a major conduit for the world's commercial 
shipping. We need to assist littoral states through intelligence 
sharing and capacity-building to take on the primary task of protecting 
the strait. If confirmed, I look forward to working closely with our 
senior uniformed and civilian military leaders, including my colleagues 
at the Pacific Command in Hawaii, to advance our security ties with 
Malaysia.
    I would also like to mention the ``Heart of Borneo'' initiative and 
related bilateral environmental programs. The island of Borneo, shared 
by Malaysia, Indonesia, and Brunei, is one of the most biologically 
diverse habitats in the world. We are working with those three 
governments, NGOs, and others to preserve vast tracts of forest and 
promote sustainable development in Borneo.
    Madam Chairman and members of the committee, I will not attempt an 
exhaustive list of every priority in United States foreign policy that 
is embedded in the United States-Malaysia relationship. I will commit 
to you, however, that if confirmed I will do my utmost to ensure that 
you are kept informed and that your concerns are addressed. If 
confirmed, I would be delighted to greet you and your staff members in 
Kuala Lumpur to further our work together to advance the interests of 
the American people.
    I am convinced our longstanding relationship with the Malaysian 
people will continue to flourish in the years ahead. If confirmed by 
the Senate, I will commit myself to promoting United States interests 
by deepening ties to the leadership and people of Malaysia to the 
benefit of both our nations.
    Thank you again for granting me the honor of appearing before you 
today. I would be pleased to respond to your questions.

    Senator Boxer. Thank you so much, Mr. Keith.
    Now, Ms. Hughes, do you have anyone you'd like to introduce 
before you make your opening statement?

  STATEMENT OF MIRIAM HUGHES, NOMINEE TO BE AMBASSADOR TO THE 
                 FEDERATED STATE OF MICRONESIA

    Ms. Hughes. Yes. Thank you very much, Madame Chairman. My 
daughter, Jordana Hughes Tynan, has driven down from New York 
to be with me today. I'm very, very honored.
    Jordana has been with me in all of my Foreign Service 
assignments, including Mexico City, Santo Domingo, Quito, 
Bangkok, London, and Thessaloniki, at some sacrifice. It's 
always a little bit harder for the dependents. So it's a huge 
honor today. Thank you.
    Regarding--I thought maybe mine would be better as a 3-
minute rule, since, if confirmed, I'll go to the littlest 
country, and I've just chosen to highlight a few parts of the 
statement that will be entered for the record.
    Madame Chair and Senator Murkowski, it is a privilege to 
appear before you today to discuss my nomination. In my current 
assignment at the U.S. Mission to the United Nations, I head a 
section that is dedicated to the full range of economic, 
social, and humanitarian affairs that consume more than 70 
percent of the U.N.'s regular budget.
    The global issues that we debate and negotiate particularly 
concern developing countries. If confirmed, I would look 
forward wholeheartedly to leading our efforts in Micronesia, to 
implement and practice key objectives that we discuss 
conceptually at the U.N., including sustainable development, 
good governance, and environmental protection and management.
    On a map, the Federated States of Micronesia appear as 
specks of far-flung islands in the vast Pacific Ocean. This is 
one of the smallest countries in the world. Nevertheless, it 
has sovereignty over more than a million square miles of ocean 
in a strategic region.
    The United States has committed to defend Micronesia as if 
it were part of our own territory. Micronesians serve in the 
U.S. military, and many have made the ultimate sacrifice in 
Iraq and Afghanistan. The friendship, above all, of this nation 
is vital.
    If confirmed by the Senate, I would look forward to working 
with the members of this committee, and others in the Congress, 
who seek to invigorate our relationship with Micronesia across 
a range of interests. Our ties go back over centuries.
    We have recently entered into a challenging new phase in 
U.S./Micronesian relations. To promote self-reliance, the U.S. 
Congress approved an amended compact of free association, which 
went into effect in 2004. This amended compact, or Compact 2, 
targets U.S. resources on key areas that are building blocks 
for economic self-sufficiency, including education, health 
care, infrastructure, environmental protection, and private 
sector development.
    The U.S. Embassy in Kolonia has a special responsibility to 
work with the Department of Interior to ensure that this 
compact is well-implemented. Strong leadership and management 
skills are essential. The embassy needs to coordinate with some 
40 other U.S. Government agencies.
    Many of them are legacies from the days of trust territory 
status, and their programs continue to touch every aspect of 
Micronesian life. Respect and partnership will be the 
cornerstones of our success.
    Madame Chairman and Senator Murkowski, it would be a 
profound honor to represent the President and people of the 
United States of America in the Federated States of Micronesia. 
If confirmed, I would work diligently to promote friendship and 
a comprehensive partnership to build capacity in a unique and 
valuable region.
    You can be assured of my full cooperation with the 
Congress, and of course, I would be happy to answer your 
questions.
    Thank you.
    [The prepared statement of Ms. Hughes follows:]

         Prepared Statement of Miriam K. Hughes, Nominee to be 
            Ambassador to the Federated States of Micronesia

    Madam Chairwoman and members of the committee, it is a privilege to 
appear before you today to discuss my nomination to serve as United 
States Ambassador to the Federated States of Micronesia (FSM). It is 
also an honor to introduce my daughter, Jordana Hughes Tynan, who came 
from New York to be with me on this momentous day. Jordana accompanied 
me on all my overseas assignments, which was not always easy for a 
child. She made many sacrifices and adjustments on my behalf.
    During a 29-year career in the Foreign Service, I have learned, 
worked, and grown through assignments at our United States posts in 
Mexico City, Santo Domingo, Quito, Bangkok, London, and Thessaloniki. 
My specialty has been consular management, but I additionally sought 
broader experience. In Bangkok, I monitored and reported on conditions 
in U.N. refugee camps for Cambodians and Vietnamese. The post I headed 
in Thessaloniki, Greece, focused on efforts to promote United States 
business opportunities and analyze the human rights mosaic in the 
Balkans.
    In my current assignment at the U.S. Mission to the United Nations, 
I head a section that is dedicated to the full range of economic, 
social, and humanitarian affairs that consume more than 70 percent of 
the U.N. regular budget. The global issues that we debate and negotiate 
particularly concern developing countries. If confirmed, I would look 
forward wholeheartedly to leading our efforts in Micronesia to 
implement in practice key objectives that we discuss conceptually at 
the U.N., including sustainable development, good governance, and 
environmental protection.
    On a map, the FSM appear as specks of far-flung islands in the vast 
Central Pacific Ocean. Although this nation is tiny and scattered, its 
impact is significant. We share a deep connection. Micronesia's 600 
islands encompass a total area of just 270 square miles. It is one of 
the smallest countries in the world. Nevertheless, it has sovereignty 
over more than a million square miles of ocean in a strategic region. 
The United States has committed to defend Micronesia as if it were part 
of our own territory. Micronesians serve in the U.S. military at twice 
the per capita rate of Americans, and many have made the ultimate 
sacrifice for freedom in Iraq and Afghanistan. The friendship of this 
nation is vital, particularly as we expand our engagement in the 
Pacific to meet today's transnational challenges.
    If confirmed by the Senate, I would look forward to working with 
the members of this committee and others in the Congress who seek to 
invigorate our relationship with Micronesia across a range of 
interests. Although an ocean separates us, this recently independent 
nation has a special place in the hearts of Americans. Our ties go back 
over centuries.
    In the 1800s, American whalers and missionaries entered this 
region. The American author Jack London found inspiration for some of 
his most gripping tales in the remote Pacific islands. His stories of 
voyages and adventures capture the translucent beauty of the islands as 
well as the hazards of typhoons, disease, and poverty. The inhabitants 
who London brought to life demonstrate extraordinary skill in 
indigenous methods of navigation. They are ingenious, loyal, and 
resilient. These are people who we want to keep as firm friends.
    Soon after the second world war and following severe bombing of 
some of the occupied islands of Micronesia, the United Nations 
established the Trust Territory of the Pacific Islands under the 
administration of the United States. Although discontinued in 1991, the 
trusteeship system remains enshrined in the U.N. Charter as a means to 
promote peace, progressive development, and eventual self-government. 
Under American tutelage, Micronesia fulfilled these aims. The FSM 
adopted a constitution in 1979. The nation emerged as a sovereign 
democracy in 1986. A Compact of Free Association with the United States 
helped Micronesia make a smooth transition. This month, Micronesians 
chose their seventh President in a free and fair electoral process.
    We have entered a challenging, new phase of United States-
Micronesian relations. To promote self-reliance, the U.S. Congress 
approved an Amended Compact of Free Association, which commenced in 
2004. The Mirconesians themselves participated in compact negotiations, 
and they help review its annual performance. The amended compact 
targets U.S. resources in key areas that are building blocks for 
economic self-sufficiency, including education, health care, 
infrastructure, environmental protection, and private sector 
development. Compact aid will decrease progressively every year and 
transfer to a capitalized trust fund, which is intended to ensure 
Micronesia's transition to economic independence in 2024.
    The United States' Embassy in Kolonia has a special responsibility 
to work with the Department of Interior to ensure that this compact is 
well implemented. Strong leadership and management skills are 
essential. The embassy needs to coordinate with some 40 other U.S. 
Government agencies--many of them legacies from the days of the Trust 
Territory--whose programs continue to touch every aspect of Micronesian 
life. Respect and partnership will be the cornerstones of our success.
    From my experience as a Foreign Service consular manager in some of 
our largest and most complex overseas consular sections, I learned to 
improve efficiency and accountability based on collaborative 
strategies. One must engage and train the participants, ensuring that 
they become part of the process, buy into the goals, and indeed refine 
and adapt them and make them their own. Once engaged, they will 
dedicate their best efforts, teaching a leader in return and finding 
creative, new ways to achieve mutual objectives.
    If I am confirmed, I will devote my energies to fostering 
relationships of equality and pragmatism with our Micronesian friends. 
I would also strengthen cooperation with regional and multilateral 
partners and civil society representatives. Such a comprehensive 
approach must be based upon a clear vision of how to nurture a 
sustainable future in a small island nation that is isolated and 
potentially vulnerable. To be effective at the United Nations, one 
learns to listen carefully and to focus on priorities. The majority of 
U.N. members are developing countries. They teach us the paramount 
importance of respect for diversity and principles of national 
ownership. At the same time, the United States has led efforts to 
establish global acceptance of the responsibility of governments to 
meet the needs of their own people by creating an enabling architecture 
for a just rule of law and growth that is stimulated by economic 
freedom.
    Madam Chairwoman and members of the committee, it would be a 
profound honor to represent the President and people of the United 
States of America in the Federated States of Micronesia. If I am 
confirmed, I would work diligently to promote friendship and a 
comprehensive partnership to help build capacity in a strategic region. 
You can be assured of my full cooperation with the U.S. Congress.
    I will be happy to answer your questions.

    Senator Boxer. Thank you very much.
    Mr. Klemm, would you like to introduce any family here 
before you speak?
    Mr. Klemm. Regrettably, Madame Chair, my wife, Mari, could 
not join us today----
    Senator Boxer. Okay.
    Mr. Klemm [continuing]. Due to her professional 
responsibilities.
    Senator Boxer. I understand. Send our best.

  STATEMENT OF HANS G. KLEMM, NOMINEE TO BE AMBASSADOR TO THE 
               DEMOCRATIC REPUBLIC OF TIMOR-LESTE

    Mr. Klemm. Thank you. Madame Chair, Senator Murkowski, I'm 
very honored to have the privilege of appearing before you 
today as President Bush's nominee as Ambassador to the 
Democratic Republic of Timor-Leste. I'm grateful for the trust 
and confidence that President and Secretary Rice have shown in 
nominating me.
    I would also like to thank your staff. They have been 
especially helpful and gracious to me during this process.
    Madame Chairman, as you mentioned, I joined the Foreign 
Service some 25 years ago, and have directed large programs, as 
well as management offices, at the Department here in 
Washington, as well as serving at our missions abroad in 
Germany, Korea, and in other small, developing, oil-rich 
country, Trinidad and Tobago.
    East Timor achieved its independence on May 20, 2002, 
becoming the first new nation of the 21st century. As a friend 
of long standing, the United States wants East Timor to succeed 
in its transition to a stable democratic state.
    The United States supports the strengthening of multiparty 
democracy in East Timor on a foundation of security and the 
rule of law. We support the protection of human rights, 
including freedoms of speech, press, and assembly.
    We support the development of a free-market economy. We 
support our allies in the United Nations, who have committed 
both human and financial resources to assist East Timor's 
democratic development, and to recover from the turmoil of the 
past year.
    We welcome the progress that East Timor has made in recent 
months toward consolidating its democratic institutions, 
including its organization of the first sovereign national 
election for president.
    The East Timor Government must now redouble efforts to 
ensure that parliamentary elections, to be held next month, are 
free, fair, and transparent, and provide the Timorese people 
with an opportunity to choose a new government with a mandate 
to move the country forward.
    Security remains essential to restoring political stability 
and building a foundation for a more prosperous future. The 
police and armed forces need to become cohesive, accountable 
organizations that earn the trust of the Timorese people.
    If confirmed, I will work with other donor nations and 
organizations to provide training and assistance to these 
institutions to promote professionalism in accordance with 
principles of human rights.
    The violence and unrest that engulfed East Timor last year 
underscored the urgent need to foster good governance. The 
crisis flowed from institutional weaknesses, such as 
politicized security forces, an inadequate system of justice, 
widespread absence of reliable information, and a disaffected 
population.
    If confirmed, I will work with the government and the 
international community to remedy these serious shortcomings. I 
will also continue to press for addressing accountability for 
the violence of 2006 and the crimes against humanity committed 
in 1999.
    Recent events also highlight the need to promote economic 
growth, with a particular focus on job creation. If confirmed, 
I will assist the government of East Timor to improve its 
economic policy environment and best utilize the country's 
potentially significant natural resource wealth.
    Madame Chairman, I firmly believe that the successful 
establishment of democratic institutions and vibrant free 
markets in East Timor will send a tremendously important signal 
to the world.
    East Timor is a country that inspired the global community 
with its longing for self-determination, freedom, and 
democracy. This shared commitment to the highest ideals for 
government makes East Timor a natural friend of the United 
States, and an example to others around the world.
    Madame Chairman, Senator Murkowski, thank you again for 
giving me the opportunity to appear before you today. I would 
be happy to answer any questions.
    Thank you.
    [The prepared statement of Mr. Klemm follows:]

          Prepared Statement of Hans G. Klemm, Nominee to be 
          Ambassador to the Democratic Republic of Timor-Leste

    Madame Chairwoman, members of the committee, I am honored to have 
the privilege of appearing before you today as President Bush's nominee 
as Ambassador to the Democratic Republic of Timor-Leste (East Timor). I 
am appreciative of the trust and confidence the President and Secretary 
Rice have shown in nominating me and grateful for the opportunity to 
serve in this position.
    Madame Chairwoman, I am a member of the Senior Foreign Service 
currently assigned as Minister-Counselor for Economic Affairs at our 
embassy in Tokyo, Japan. I have previously served overseas at our 
missions in Germany, Korea, and Trinidad and Tobago. At the Department 
of State, I have served as the director of large management and policy 
program offices within the Bureaus of Human Resources and Economic and 
Business Affairs. If confirmed by the Senate, I will work to the best 
of my ability to advance United States' interests in East Timor and the 
Southeast Asian region and look forward to working with the members of 
this committee and others in Congress to achieve our objectives.
    East Timor achieved its independence on May 20, 2002, becoming the 
first new nation of the 21st century. With the firm backing of the 
international community, the Timorese people set out on a path toward 
freedom and democracy. Even at that time, everyone understood that the 
country would have to overcome many obstacles.
    Fortunately, East Timor has many partners willing to assist in 
times of need. As a friend of long standing, the United States wants 
East Timor to succeed in its transition to a stable democratic state. 
The United States has supported both the deployment of international 
forces and the establishment of the U.N. Integrated Mission in East 
Timor (LJNMIT<plus-minus>) in response to the political crisis and 
violence of 2006. The United States also supported the international 
community's humanitarian efforts by providing food and non-food 
assistance to address the immediate needs of the tens of thousands of 
internally displaced persons, many of whom remain in camps around the 
country.
    We support the strengthening of multiparty democracy on a 
foundation of security and the rule of law. We support the protection 
of human rights, including freedoms of speech, press, and assembly. We 
support the development of a free-market economy. We believe that 
democracy, good governance, and economic growth offer the best chance 
for East Timor to succeed. We support our allies in the region who have 
committed both human and financial resources to assist East Timor to 
recover from the turmoil of the past year. A stable and prosperous East 
Timor will not only fulfill the aspirations of its people arising from 
the country's long struggle for independence; but it will also serve as 
an inspiration to other peoples around the world.
    We welcome the progress that East Timor has made in recent months 
toward consolidating its democratic institutions. The Government has 
completed the first step, organizing its first sovereign national 
election for president, with assistance from the U.N. Integrated 
Mission in East Timor and other donors. Our Embassy in Dili supported 
these efforts by publicly promoting peaceful, free, and fair elections 
in coordination with other diplomatic missions in-country. The 
parliamentary election scheduled for this summer should provide a 
farther opportunity for the Timorese people to choose a government with 
a mandate to move the country forward. I look forward to continuing our 
support for the Timorese in their effort to put democratic government 
on a solid footing.
    Security remains essential to restoring political stability and 
building a foundation for a more prosperous future. The police and the 
armed forces need to become cohesive, accountable organizations that 
earn the trust of the Timorese people. We are working with other donor 
nations and organizations to provide training and assistance to these 
institutions to promote professionalism and functional expertise in 
accordance with principles of human rights. If confirmed, I will 
continue to press the Timorese Government and international donors on 
the need for security sector reform that is achievable and results in 
the growing stability of the state and its institutions.
    The violence and unrest that engulfed East Timor in 2006 
underscored the urgent need to foster good governance. The crisis 
flowed from institutional weaknesses that will continue to generate 
problems if left unremedied. These include weak state institutions, 
politicized security forces, an inadequate system of justice, 
widespread absence of reliable information, and a disaffected 
population. The challenge in addressing these issues goes beyond 
restoring peace and requires laying a solid foundation for good 
governance in the future. I look forward to supporting our foreign 
assistance programs that seek to redress these root causes. More must 
also be done to promote the rule of law. If confirmed, I will continue 
to press for addressing accountability for the violence of 2006 as well 
as the crimes against humanity committed in 1999.
    Recent events also highlight the need to promote economic growth, 
with a particular focus on job creation. Democracy is often at risk 
when there is no economic opportunity, and lackluster economic 
performance underlies much of the popular frustration in the country. 
We will assist the Government of East Timor to improve the economic 
policy environment and best utilize the country's potentially 
significant natural resource wealth. For example, if confirmed, I look 
forward to supporting ongoing initiatives to improve the security of 
property rights, vitalize the private sector and increase economic 
opportunity. These programs promise to encourage private investment and 
improve private sector agricultural performance, where 80 percent of 
Timorese make their living.
    The Government of East Timor has done commendable preparatory work 
since the country became eligible to propose a compact with the 
Millennium Challenge Corporation (MCC) in 2005. The Government could 
complete its compact proposal as early as the end of this calendar 
year, if the Timorese are able to complete detailed analyses on program 
elements, maintain compact eligibility, and conduct serious 
consultations with civil society and other stakeholders. Early drafts 
of the proposal suggest that it will focus on much-needed 
infrastructure projects. I understand that after MCC completes due 
diligence on the proposal, a compact could be signed and implementation 
could begin as early as 2009.
    I look forward to continuing our efforts to reach out to like-
minded international partners to reaffirm to the Timorese authorities 
what they must do to lay the foundation for a better future. Australia 
leads the military peacekeeping force in East Timor. Other nations, 
such as New Zealand, have also contributed. We have close working ties 
with the U.N. Mission in East Timor, which includes over 1,600 U.N. 
police. Portugal, Japan, the European Union, Brazil, Malaysia, and 
other nations also have a significant diplomatic presence in East 
Timor.
    Madame Chairwoman, I firmly believe that the successful 
establishment of democratic institutions and vibrant free markets in 
East Timor will send a tremendously important signal to the world. East 
Timor is a country that has inspired the global community with its 
longing for self-determination, freedom, and democracy. This shared 
commitment to the highest ideals for government makes East Timor a 
natural friend of the United States and an example to others around the 
world.
    There are many ways the United States, and particularly our Mission 
in Dili, can help East Timor. Currently over 140 people make up the 
Mission staff, including 14 Americans, and over 120 Foreign Service 
nationals. I look forward to leading this team as we meet the 
challenges ahead.
    Madame Chairwoman and members of the committee, thank you again for 
granting me the honor of appearing before you today. I am happy to 
answer any questions you may have.

     Senator Boxer. Thank you so very much.
    Mr. Huso.

STATEMENT OF RAVIC R. HUSO, NOMINEE TO BE AMBASSADOR TO THE LAO 
                  PEOPLE'S DEMOCRATIC REPUBLIC

    Mr. Huso. Madame Chair, thank you very much. My wife, 
Barbara, who I met when we were both Peace Corps volunteers in 
Senegal a number of years ago, unfortunately could not come 
today. She's home with my daughter, Natalie, in Hawaii. I do 
have some dear old friends, Sherman and Jill Hinson, who are 
standing in for my family.
    Madame Chair, Senator Murkowski, thank you very much for 
the opportunity to appear before the committee today. It's a 
great honor to be nominated by President Bush to be the U.S. 
Ambassador to the Lao People's Democratic Republic.
    If confirmed as Ambassador to Laos, I look forward to 
working with the committee and other members of Congress to 
advance United States interest in Laos.
    The United States and Laos have many shared interests, and 
have cooperated closely in a number of key areas, such as the 
recovery of the remains of our service members missing in Laos 
during the Vietnam War, and removing unexploded ordnance 
leftover from that fighting.
    In recent years, our bilateral cooperation has broadened to 
include combating international threats, such as the traffic in 
drugs, the traffic in persons, and avian influenza, more 
recently. We're also slowly seeing increased opportunities for 
some trade and investment between our two countries.
    The United States Government has made a solemn commitment 
to achieving the fullest possible accounting for the Americans 
still missing from the war in Southeast Asia. I deeply respect 
that commitment, and if confirmed, I will devote my full 
attention to this important humanitarian endeavor.
    Despite the recent progress we've made in our relationship, 
we do have significant concerns regarding the Lao Government's 
inability to fully adhere to internationally recognized 
standards for human rights and religious freedoms.
    I appreciate and I share the concerns of the many thousands 
of Americans who trace their origins to Laos, in particular, 
the Hmong Americans, over the Lao Government's treatment of 
ethnic minorities. I will make it a priority, if confirmed, to 
encourage the Lao Government to protect the rights of its 
minority ethnic groups.
    Finally, Madame Chair, the welfare and safety of American 
citizens traveling or working in Laos will always be a top 
priority, if I'm confirmed.
    In conclusion, I believe that sustained engagement with the 
Lao Government, supported by a strong public diplomacy program, 
offers the best prospects for achieving progress on the array 
of issues important to United States interests and to the Lao 
people.
    Madame Chair, Senator Murkowski, thank you again for the 
opportunity to appear today, and I look forward to your 
questions.
    [The prepared statement of Mr. Huso follows:]

          Prepared Statement of Ravic R. Huso, Nominee to be 
           Ambassador to the Lao People's Democratic Republic

    Madam Chairwoman and members of the committee, it is a great honor 
to be nominated by President Bush to be the U.S. Ambassador to the Lao 
People's Democratic Republic. I am grateful for the President's 
confidence and to Secretary Rice for her support of my nomination. 
Thank you for the opportunity to appear before the committee today. If 
confirmed, I look forward to working with the committee and other 
interested Members of Congress to advance United States' interests in 
Laos.
    Madam Chairwoman, I have served my country as a Foreign Service 
officer since 1980 and before that as a Peace Corps volunteer. As the 
son of a Foreign Service officer, I was brought up with a deep sense of 
the responsibilities associated with representing the United States 
abroad and pride in being afforded that opportunity. I also developed a 
profound appreciation for the characteristics that make the United 
States a beacon of democratic freedom and economic opportunity.
    As a Foreign Service officer, I have always looked for the most 
challenging assignments, those that offered the most opportunity to 
make a difference. If confirmed, I will devote myself to encouraging 
the Lao people and their Government to pursue a path of positive 
engagement with friends and neighbors leading to enhanced respect for 
individual freedoms and rights and shared economic prosperity.
    The United States' relationship with Laos has developed steadily 
since the restoration of full diplomatic relations in 1992. The United 
States and Laos have many shared interests and have cooperated closely 
in a number of key areas, such as the recovery of the remains of our 
service members missing in action from the Southeast Asia war, removing 
unexploded ordnance from the war, and in reducing the scourge of drugs. 
In recent years, bilateral cooperation has broadened to include 
combating avian influenza and trafficking in persons. We are also 
slowly seeing increased opportunities for trade and investment. 
However, despite the recent progress in our relationship, we still have 
significant concerns regarding the Lao Government's inability to fully 
adhere to internationally recognized standards for human rights and 
religious freedoms.
    If confirmed, I pledge to devote myself to strengthening our 
existing partnerships and exploring new opportunities for cooperation. 
I also am prepared to address our differences directly and 
constructively. I believe that sustained engagement with the Lao 
Government--supported by a strong public diplomacy effort--offers the 
best prospects for achieving progress on the array of issues important 
to United States interests and the Lao people.
    I am encouraged by progress in several important areas. The United 
States Government has made a solemn commitment to achieving the fullest 
possible accounting for the Americans still missing from the war in 
Southeast Asia. I deeply respect that commitment and, if confirmed, I 
will devote my full attention to building on the long history of 
successful cooperation on this important humanitarian endeavor that has 
been at the foundation of our bilateral relationship. I believe that we 
can achieve even more through increased flexibility in the conduct of 
joint field recovery activities and renewed efforts to examine all 
available sources of relevant information.
    This collaborative work has also laid the foundation for taking the 
first steps in a process of building military-to-military ties through 
English-language training, educational exchanges, and civic action 
projects. I believe a phased and graduated approach to greater contacts 
between our militaries has the potential to improve mutual 
understanding and also benefit the Lao people.
    The Congress took a major step in 2004 toward helping Laos to 
achieve sustainable, free market-based economic development by 
approving normal trade relations (NTR) status. Laos is among the 
poorest nations in Asia but also has significant economic potential and 
untapped natural as well as human resources. American investors and 
companies can play an important role in helping Laos to prosper and to 
diversify its economic and trade relations. If confirmed, I will not 
only assist United States businesses seeking to trade with or invest in 
Laos but will also look for ways to help the Lao Government fully 
implement our Bilateral Trade Agreement and undertake the reforms 
necessary to strengthen the essential underpinnings of a market 
economy: good governance and rule of law.
    I also assess a commitment by the Lao Government to work together 
toward solving challenges of mutual concern. The United States and Laos 
have a common interest in combating transnational threats such as 
terrorism, trafficking in narcotics and persons, money laundering and 
other financial crimes, pandemic diseases and environmental 
degradation. Laos has made great progress in reducing the production of 
opium and the illicit cross-border trade in heroin but is faced with a 
rapidly growing new threat--the use and trafficking of 
methamphetamines--known locally as yaa baa or ``crazy drug.'' I will do 
my utmost to sustain the progress made against opium and while also 
broadening our focus to address the methamphetamine challenge.
    Earlier this year, Laos suffered an outbreak of avian influenza, 
resulting in its first-ever human infections and deaths from this 
disease. I will pay close attention to bolstering United States and 
international efforts to assist the Lao to develop their capabilities 
to detect, isolate, and control such outbreaks and reduce the threat of 
human pandemic influenza.
    Porous borders and weak state institutions make Laos potentially 
vulnerable to terrorist activity. I will also urge the Lao Government 
to work closely with the United States and other partner countries, as 
well as within the Association of Southeast Asian Nations (ASEAN) 
framework, to take concrete measures to reduce the threat of 
international terrorists using Laos as a base or a target for their 
crimes.
    If confirmed, I would undertake this position with an overall sense 
of real opportunity to interact with the Lao Government to effect 
positive change and further expand the solid basis for cooperation. At 
the same time, I am attuned to and intend to forthrightly address the 
Lao Government's poor record regarding human rights.
    In particular, I appreciate and fully share the concerns of the 
many thousands of Americans who trace their origins to Laos--in 
particular, the Hmong-Americans--over the Lao Government's treatment of 
ethnic minorities. Many of the Hmong in Laos, especially those who live 
in remote areas in often difficult conditions, are regarded with 
suspicion and sometimes hostility by officials who suspect they may be 
associated with antigovernment activities. Significant numbers of Hmong 
have entered Thailand in search of economic opportunities or, in some 
cases, out of well-founded fear of persecution, and are now in 
detention awaiting a determination as to their future. I will make it a 
priority, if confirmed, to work with the Lao and Thai authorities and 
appropriate international agencies to find durable solutions to the 
plight of the displaced Hmong. I will also work steadfastly to 
encourage the Lao Government to respect the rights of its minority 
ethnic groups and provide those who may return as well as those who 
have stayed with the protection and assistance they need to integrate 
fully into Lao society. At the same time, I will be guided by 
longstanding United States policy that we do not support or condone 
groups or individuals who advocate or take actions aimed at 
overthrowing or destabilizing the Lao Government.
    More broadly, if confirmed, I intend to sustain the United States 
commitment to human rights and democratic principles as my primary 
vehicle for encouraging positive change in Laos. I will press the Lao 
Government on human rights issues and encourage them to adhere to 
international human rights standards. I will also devote particular 
effort to building on the progress made in recent years by the Lao 
Government in meeting international standards for religious freedom and 
tolerance.
    Finally, the welfare and safety of American citizens traveling or 
working in Laos will always be a top priority if I am confirmed. I will 
ensure that the United States mission in Laos provides accurate and 
timely information on any risks American may face in Laos along with 
advice on precautions they should take. I also intend to see through 
the construction of a new embassy that meets current security standards 
and provides a safe working environment for the dedicated and highly 
capable American and Lao staff of the United States mission.
    Madam Chairwoman and members of the committee, thank you for this 
opportunity to address you. I am prepared to respond to any questions 
you may have.

    Senator Boxer. Thank you very much.
    I think I will ask unanimous consent to go with seven 
minutes of questions, and then give the same to Senator 
Murkowski. If Senator Feingold joins us, then he'll be 
recognized for an equal amount of time.
    First of all, I want to thank all of you for your very 
good, to the point testimony, and as you know, I'm supporting 
all of you, so there's no trick questions here.
    But I do have one question that I think sort of shows in 
another light what I was trying to get at in my opening 
statement about the need for very aggressive, strong diplomacy 
and not a reliance on the military as a way to make friends. 
It's not working.
    One of the things, Mr. Keith, I'd like to discuss is 
something you touch on in your writings. I've read some of your 
writings. They're very strongly supportive of the war in Iraq 
in as late as 2003, and I'm not asking in any way to debate 
that with you. That was your right, and you did rely on Colin 
Powell's very aggressive testimony at the U.N., which he has 
since disavowed.
    But what has happened to us in the world as a result of 
this military-centric policy, and neglect, in my view, of 
diplomacy, is that we're more unpopular than we've ever been in 
the history of our Nation, as far as I can tell, just looking 
through all the past polling results.
    I want to talk about something wonderful that this country 
did in 2006, and give you a sense of what I'm talking about. In 
mid-2006, the U.S. Naval Ship, Mercy, a floating hospital ship, 
was deployed on a 72-day humanitarian mission to Indonesia, 
Bangladesh, the Philippines, and Timor-Leste--countries home to 
some of the largest Muslim populations in the world.
    The Navy worked closely with the State Department and NGOs 
to identify and treat approximately 61,000 patients. Everything 
from dental and eye care to surgery for sick patients was 
provided.
    The effort was undertaken, in part, to win the hearts and 
minds of the local populous. It appears to have had an impact. 
Shortly after the trip, an organization known as Terror Free 
America--excuse me, Terror Free Tomorrow conducted polling. 
Fifty-three percent of Indonesians said that the activities of 
the Mercy made their opinion of the United States more 
favorable.
    Terror Free Tomorrow also conducted polling in Indonesia 
after United States aid was delivered to tsunami victims. The 
percentage of Indonesians who reported an unfavorable view of 
the United States dropped from a high of 83 percent in 2003 to 
41 percent, and the percentage of Indonesians expressing 
confidence in bin Laden dropped from 58 to 12 percent.
    These results were clearly noticed by the Department of 
Defense. Officials involved in drafting the 2006 National 
Military Strategic Plan for the war on terrorism said that 
``The American military's effort to aid tsunami victims in 
Southeast Asia did more to counter terrorist ideology than any 
attack mission.''
    This is the military, folks. So I guess what I'd want from 
each of you is just a response to this. I'm trying to get at 
how strongly you agree with that statement of the U.S. 
military, that when we get out there and we really help people, 
not at the point of a gun, but it works. Even though I would 
say sometimes we have to use a military approach.
    I'm not--I voted to go get bin Laden. I voted to go to war 
in Afghanistan. So where I'm coming from is, yeah, sometimes 
you clearly have to go strongly in that direction.
    But that aside, the fact that we're not being attacked, all 
else being equal, can you comment on this amazing comment by 
the American military, that it did more to counter terrorist 
ideology than any attack mission?
    I'll start with you, Mr. Hume.
    Mr. Hume. Thank you very much. First, I'd say that my 
initial takeaway from that is a positive one, and it is that, 
yes, we do have some problems out there, in terms of public 
diplomacy and public relations, but also, yes, we can do things 
about it.
    I've been fortunate enough to spend a fair part of my 
career in places where we've had real difficulties, and I've 
been able to see that by engaging people, we've been able to 
get a positive view of the United States. I can tell you that 
in the last 18 months, every time I went to Darfur, every 
person I met with thanked me.
    Senator Boxer. Thank you. No, that helps, because, well, 
you've obviously chosen to go into diplomacy, because I'm sure 
you share these sentiments, but I just wanted to get them out.
    Mr. Keith.
    Mr. Keith. Thank you, Madame Chairman. I think you raise a 
critical point, and recalling a phrase you used earlier, I 
think a diplomatic surge is the kind of thing that we've been 
talking about in Asia and that is necessary. Looking back, you 
raise the public diplomacy environment over recent years.
    I think we all run the risk of having to take a step back 
and realize that we might have used platforms that, as you 
mentioned with then-Secretary Powell, we have to explain.
    I think we're better off taking that risk and managing the 
public environment than allowing others to put words in our 
mouth. So it was my commitment and remains my commitment that 
we need to be out in front of the camera, so to speak, in 
print, and making our case to the world as best we can.
    We certainly need to be forthright, if we've taken a step 
in the wrong direction. I think that's part of how I dealt with 
this when I was Consul General and Designated Chief of Mission 
in Hong Kong, was to explain to people, when bad news came up, 
that the American way of handling this was transparent, that we 
would never say that we don't make mistakes, but that we handle 
them in a way that I think encourages people to see the best of 
America, and that when we make a mistake, we are quite open and 
honest about it, and therefore, can learn by it.
    I certainly believe, looking forward, that in Asia, as we 
anticipate the coming Olympics in China and a number of 
diplomatic events that will appear, including in Malaysia, the 
50th anniversary of diplomatic relations with the United 
States, as well as the 50th anniversary of Malaysia's 
independence, that we have opportunities and we need to use 
them to convey our fundamental beliefs, and to use everything 
at our disposal to try to advance American interests.
    I would enlarge also on the point that you made with regard 
to the Mercy. I think clearly, the pollings show that across 
Asia, we did very well after the tsunami not to dwell on 
something that was clearly tragic for those involved, but we 
responded in a way that showed, I think, the best of America.
    My commitment to you and to the committee would be to try 
to follow-up on that momentum in every way I possibly can.
    Senator Boxer. Good.
    Yes, Ms. Hughes.
    Ms. Hughes. Madame Chairman, I think most of us joined the 
Foreign Service because we felt we had a mission of friendship. 
In some countries, that's not always easy. It's not always easy 
at the United Nations, quite frankly, where we're dealing with 
191 other countries and a lot of power politics.
    But even when we disagree, if we can listen and engage, 
that's what's exciting about our work. I am fortunate to be 
going to a country, Micronesia, if confirmed, that already has 
a very deep bond of friendship with the United States, but it's 
going to enter a difficult time, because we're trying to nudge 
it toward modernization.
    In that sense, we look at the military for what it can do 
in a very constructive and practical way in a country like 
this. That can be search and rescue missions by the Coast 
Guard, training of the people so they can develop better law 
enforcement techniques of their own. The Pacific Command can do 
humanitarian assistance projects. That's how we relate to the 
military, I hope, and that would certainly be my intention, if 
I'm lucky enough to go to Micronesia.
    Senator Boxer. I think that's a good point, how we can use 
the military, which clearly, we did in these cases.
    Yes, Mr. Klemm.
    Mr. Klemm. Thank you, Madame Chairwoman. You mentioned the 
Mercy visit to the Southeast Asia region last summer. The stop 
in Timor was actually added at the end of its stay in the 
region. It took place just after the breakdown in law and order 
that occurred in April and May of last year.
    Not only was the visit very, very welcome because of the 
assistance that the ship was able to provide the Timorese 
people, who suffer from very, very serious health problems 
across the population, but also, given the timing, it showed 
the United States commitment to East Timor to our continued 
intent to assist that country as it consolidates its democratic 
institution, and gets its economy started, as well as ensuring 
security and political stability there.
    We have a pretty robust aid program in East Timor, due to 
the generosity of the Congress and the people of the United 
States. Our aid is focused on improving East Timor's 
governance, as well as improving economic conditions in the 
country, where the Millennium Challenge Corporation continues 
to negotiate with East Timor and hopes once the elections are 
completed this summer to redouble the negotiations on a 
possible Compact Agreement with the country.
    All these things, in terms of the soft power tools that we 
have available, I think we've used them very effectively in 
East Timor. Our popularity there, as I understand it, is very, 
very strong.
    I don't want to draw too tight of a correlation on this, 
but as you're aware, our military to military relationship in 
East Timor is actually at a very, very low level, largely due 
to the accountability problems that arose, both in 2006 and 
1999.
    Senator Boxer. Mr. Klemm, thank you for your answer. I 
don't want to get too far afield from the question, which is 
the way we can use diplomacy. I think you've laid out a series 
of issues to boost our popularity in the region. I think you 
did touch on that.
    Mr. Huso, I just--because this is really my only question. 
I'm going to throw you a little curve here. Answer that, but 
also, if you will, in December 2005, reports surfaced that a 
group of 26 ethnic Hmong children and their adult guardian had 
been detained by Thai authorities, and forcibly deported to 
Laos, a country that has committed horrific human rights 
violations against the Hmong people for the past three decades.
    In response to significant outcry on the issue, including 
from my home State of California, I wrote Secretary Rice in 
2006 and asked our Government to take all appropriate steps to 
secure their release, and to work with the United Nation's High 
Commission of Refugees to identify a durable solution for the 
children.
    So could you please provide a report on the current status 
of these Hmong children? What is being done? If confirmed, will 
you provide me periodic updates on this and other issues 
related to human rights abuses against the Hmong?
    Mr. Huso. Thank you, Madame Chairwoman. With your 
permission, I'll answer the first question.
    Senator Boxer. Surely. Surely.
    Mr. Huso. As you pointed out, I'm currently the Political 
Advisor at U.S. Pacific Command, and I was present during the 
tsunami.
    When the U.S. Pacific Command responded to that disaster, 
it was clearly recognized that we were facing a disaster on a 
scale that was unprecedented, and that only a quick military 
response was going to be able to deliver the relief and the 
assistance that was necessary in a timely manner.
    There was also a recognition, but it wasn't the primary 
motivation, that a U.S. military-led effort of that nature 
could, in fact, provide benefits to us, in terms of how the 
U.S. military was perceived. But in essence, it was a 
humanitarian endeavor.
    After the fact, of course, as you pointed out, the polls 
indicated there was a great deal of support for the action that 
we took, and views of America were changed.
    I see this opportunity to cooperate with other countries in 
the region on humanitarian assistance and disaster relief, as a 
very important one. It's one way that the military can support 
our diplomatic efforts in the region, and begin to change 
perceptions of how we operate there.
    To answer your second question, Madame Chairwoman, my 
understanding is that of the 26 individuals that you mentioned, 
21 of them were returned to their villages by the Lao 
Government in April of this year. There's a remaining five, who 
I believe are all boys, and one adult, whose whereabouts I do 
not know. As far as I know, the State Department has not been 
able to ascertain it.
    I certainly will keep you and your staff informed of any 
developments that may take place in this case, and will follow-
up diligently if confirmed.
    Senator Boxer. Thank you so much, Mr. Huso.
    Senator Murkowski.
    Senator Murkowski. Thank you, Madame Chair. I will kind of 
pick up a little bit with the public diplomacy theme that you 
have started here. It was a very good question, and I 
appreciated the responses from each of you.
    This is directed to you, Mr. Keith, and to you, Mr. Hume, 
recognizing that Indonesia and Malaysia, as two moderate 
Islamic nations, can play an important role in being a bridge 
to the Islamic community for the United States.
    What steps have you seen from these countries that they are 
willing to be that bridge, and how can we work to improve the 
relationships, work with these nations to do so? Any 
suggestions or thoughts, Mr. Keith, Mr. Hume? Go ahead.
    Mr. Keith. Senator, if I may, I'll go first. Thank you for 
your question. I think it's one of the most important issues 
that I'll have to think about on my way to post and after I'm 
there.
    I know that within the Department, Karen Hughes has 
designated Malaysia as one of the pilot countries where we need 
to focus our resources in public diplomacy, precisely for the 
reasons that you've raised.
    I think what we see with Indonesia and regional--I'm sorry, 
with Malaysia, and regional for, in particular, in ASEAN, in 
APEC, and in the Organization of the Islamic Conference, the 
voice that you spoke of a moderate forward-looking perspective 
influenced by a market-oriented perspective on the economy at 
home is one that we can work with, and that we ought to be able 
to find a way to amplify and in some ways accelerate.
    I think the opportunities will come, and we need to be 
alert to them and take advantage of them. For example, I 
mentioned a moment ago the upcoming 50th anniversary of 
Malaysia's independence and our diplomatic relations.
     This is the kind of opportunity, it seems to me, where we 
ought to, for the Malaysian people and through them, to other 
members of ASEAN, find ways to communicate our fundamental 
themes in the region.
    I think also, working with Malaysia in multilateral for, 
such as the U.N. and its organizations, we can find ways to 
bring that moderate perspective to bear in the World Health 
Organization, in the Food and Agricultural Organization.
    These are all areas where north-south and third-world kinds 
of issues do arise. We can be working with Malaysia ahead of 
time and throughout the development of breaking or developing 
perspectives on issues including avian influenza and how 
samples are shared, or biodiversity and how genetic resources 
are taken care of.
    These kinds of cutting-edge issues, I think, lend 
themselves to Malaysia's pragmatic approach, which we see in 
many instances.
    Senator Murkowski. Thank you.
    Mr. Hume.
    Mr. Hume. Thank you very much, Senator. I think I would 
start from a hope that the Indonesian Government is successful 
at home as a democracy, helping to meet the needs of the 
Indonesian people. I think in that kind of a context, with 
respect for the rule of law, Indonesia will be a stronger 
partner for us, dealing with the questions of extremism and 
issues elsewhere.
    I look at the progress that's been made recently. The 
dispatch of a battalion, for example, to be part of the 
peacekeeping force in Lebanon is a positive example.
    In the briefings I received over the past several weeks, 
one of the points that was talked about that sticks in my mind, 
we have a very active exchange program with Indonesia, and the 
Voice of America began a program of interviewing some of the 
students who were in the United States, and then sharing those 
programs with local stations in Indonesia, which has become a 
positive and popular program to listen to for many Indonesians.
    I think that that type of mixed exchange and outreach and 
sharing against a backdrop of a country which is generally 
improving is the right track, in order to be sure that we have 
a partner for counteracting extremism and a kind of rage and 
dissatisfaction.
    Thank you very much.
    Senator Murkowski. Thank you. I'm going to direct a 
question to all of you here this morning, as it relates to 
energy needs, the ability to provide for energy. We've had some 
very interesting hearings in the Foreign Relations Committee on 
energy and national security and that perspective.
    In your--the respective country to which you have been 
nominated to fill this post, can you just very quickly tell me 
how you see energy issues, the needs and demands impacting each 
of the nations that you work with? I recognize that we don't 
have much time on this, so if you can try to be brief.
    Mr. Huso, we'll start with you here.
    Mr. Huso. Senator Murkowski, thank you very much. Laos is a 
very small, very poor country, and does not have a lot of 
economic activity, but they do have a lot of hydropower 
potential. As a consequence, there are a number of dam projects 
under construction in Laos that will provide electric energy to 
neighboring countries, primarily Thailand.
    So I don't see energy requirements as being a serious issue 
in Laos. To the contrary, Laos will be a net exporter of 
energy.
    Senator Murkowski. Mr. Klemm.
    Mr. Klemm. Thank you, Senator. East Timor sits on 
substantial oil and gas reserves that lie along the border with 
Australia. It's a large net exporter of energy at the present, 
and I don't see that reversing probably for the next couple of 
decades.
    American companies are involved in developing the energy 
and oil resources in East Timor.
    Senator Murkowski. Are you seeing interest from countries 
such as China, perhaps, coming--offering roads infrastructure, 
looking to perhaps tie up some of that energy reserves?
    Mr. Klemm. To be very brief, yes, Senator. The Chinese have 
diplomatic relations with East Timor. They have undertaken to 
build a new foreign ministry for the government. They're also 
building a new presidential palace in Dili, the capital.
    I'm not aware that they're branching out to other 
infrastructure projects, which are desperately needed in the 
country. But the Chinese certainly are, of course, aware of 
East Timor's oil wealth, and probably have that in mind as a 
result of their activities.
    Senator Murkowski. Thank you.
    Ms. Hughes.
    Ms. Hughes. Thank you for raising a question, Senator, that 
is absolutely critical for Micronesia. Micronesia has no fossil 
fuels. Everything is imported. When it was a trust territory, 
we used to pay for their fuel. We don't now, under the new 
compact. Their very viability, in my opinion, depends upon 
developing other sources of energy.
    If I'm confirmed, I would hope to make this a priority. 
Certainly, they have ample solar radiation, wind, water. It is 
a key to their sustainable development.
    Senator Murkowski. Do they have geothermal, do you know?
    Ms. Hughes. There appear to be some very, very rudimentary 
projects. The only thing I have come across in my reading are 
some solar energy projects in outlying islands.
    But in my opinion, this underpins everything that we're 
aiming for, in the way of economic developments. The small 
island states have a very particular need in this regard.
    Senator Murkowski. Thank you.
    Mr. Keith.
    Mr. Keith. Thank you, Senator Murkowski. Very briefly, 
Malaysia is a supplier nation, of course, and American firms 
are also involved in Malaysia in a partnership arrangement.
    I guess the one point I would emphasize, in addition to 
pursuing our commercial interests there and helping increase 
the stock of supply globally, is sustainable development.
    We're deeply engaged with the Malaysians in a project 
called the Heart of Borneo, which is an environmental 
protection project or program, in its essence, but we're also, 
as part of that, working in particular with regard to palm oil 
and its application as a biofuel, working with the Malaysians 
to ensure that their perspective is one of a country that is 
committed to sustainable development, in particular, as it's a 
transit country for logs that are brought to China across 
Malaysia.
    So there are a number of areas where natural resources are 
key to Malaysia's future economic growth, and we'd like to find 
a way to ensure that this perspective of sustainable 
development is included in their ambitious modernization plans 
between now and 2020.
    Thank you.
    Senator Murkowski. We appreciate you bringing that part of 
it up.
    Mr. Hume.
    Mr. Hume. Thank you very much, Senator. Again, briefly, 
Indonesia's the one OPEC member that has become a net importer 
of fossil fuel. So I think there, we see a number of issues. 
The one that stands out above the others is the 10 years of 
turmoil that Indonesia has seen has also been accompanied by 
underinvestment in the kind of infrastructure that leads to a 
healthy energy industry.
    I know that during President Bush's visit last fall, he and 
President Yudhoyono talked about cooperation on biofuels, but 
this is obviously an area that needs more attention.
    Thank you very much.
    Senator Murkowski. Thank you. Thank you, Madame Chair.
    Senator Boxer. Senator Murkowski, I think that was a very 
good amount of questioning from you.
    Senator Feingold, we're so happy to see you.

             STATEMENT OF HON. RUSSELL D. FEINGOLD,
                  U.S. SENATOR FROM WISCONSIN

    Senator Feingold. Thank you. I thank the Chair for holding 
this hearing, and I'd like to begin by thanking our five 
nominees for being here today, but more importantly, for your 
many years of service, and for your willingness to work in some 
of the more demanding positions in the U.S. Government.
    The countries to which you've been nominated--Indonesia, 
Malaysia, the Federated States of Micronesia, the Democratic 
Republic of Timor-Leste, and the Lao People's Democratic 
Republic--face distinct, but equally difficult, challenges.
    There are also many opportunities that I hope you'll be 
able to seize upon and develop if you are confirmed, and I do 
look forward to working with you closely. I hope you'll look to 
the Senate as a resource and to this committee as a source of 
support and guidance during your tenure at your respective 
posts.
    I would also like to offer my warm welcome to your families 
and friends who have stood by you and whose ongoing support 
will be necessary as you set off to these new positions.
    In the time I have, let me begin with Ambassador Hume, who 
was kind enough, I think, to make both of my trips to South 
Africa a success, and just did a wonderful job of briefing me 
and helping us along. So it is very good to see you again.
    I understand you were most recently the Charge in Sudan. 
Welcome back from what must've been quite a difficult and 
rather unforgiving post. Is there anything you'd like--anything 
you will take with you from your time in Sudan--and apply, if 
confirmed, to your post in Indonesia--in terms of running an 
embassy?
    Mr. Hume. Thank you very much, Senator. Pleased to see you. 
Well, I think there are a lot of things that take away from 
Sudan. In terms of running an embassy, you're dealing with 
people who are also in a difficult circumstance. You look first 
to your people, and being sure that they're safe and that they 
can get a sense of satisfaction from their work.
    In general, I think Sudan is an example to never give up. I 
know that there are huge frustrations here, not to mention the 
frustrations in Sudan at the difficulties, but I think it is a 
truth that the United States has had an enormous positive 
impact in that country over the last number of years, helping 
to negotiate the peace agreement with the South.
    People are no longer being killed in the South. That war 
went on for 25 years. We, I regret to say, we have not had the 
same success in Darfur that we had in the South, and that's 
business that remains to be done.
    Those are the type of lessons that I'd take away.
    Senator Feingold. In justifying the national security 
waiver that ended restrictions on military assistance to 
Indonesia in fiscal year 2006, the State Department wrote, ``as 
a matter of policy, the quality and quantity of our assistance 
will continue to be guided by progress on democratic reform and 
accountability, and carefully calibrated to promote these 
outcomes.'' Which elements of accountability and democratic 
reform would you assign the most weight when assessing 
progress, and what steps will you take to ensure that this kind 
of ``calibration'' actually ensures real progress?
    Mr. Hume. Thank you very much, Senator. First of all, I've 
become aware during my time in Washington that this is an issue 
which has to get my immediate and personal attention.
    First of all, we vet all of the--as required--all of the 
people who would get IMET training. Second, we have a number of 
proposals to try to encourage the Indonesians in the right path 
on military reform.
    Some steps have been taken. The separation of the police 
from the military was a positive step. The withdrawal of the 
military from civilian positions in the government was a 
positive step. But other programs, we still have to continue to 
work on. One is a question of eventual accountability for the 
problems, particularly in East Timor, but elsewhere, as well.
    The second one is to try to get the Indonesian military on 
budget, and on a budget that is reviewed and approved by their 
civilian authorities. That's something we're working on with 
them on. It hasn't gone far enough or fast enough, and that's 
something I'd hope to encourage.
    Senator Feingold. Are there any forms of military 
assistance that the United States will not provide?
    Mr. Hume. I'm sure there are many forms of U.S. assistance 
we wouldn't provide, but----
    Senator Feingold. As a matter of policy?
    Mr. Hume. I would have to take that question. I wouldn't 
want to guess.
    Senator Feingold. Fair enough. I'm extremely interested in 
Indonesia and its role in particularly our post-9/11 
circumstances, so I look forward to working----
    Mr. Hume. Yes.
    Senator Feingold. Ambassador, please.
    Mr. Hume. If I could just say something. One, I know that 
you visited fairly recently in Indonesia, but I'd like to say 
this to other members of the committee, as well. Particularly 
in an area like military reform and human rights, that's a 
message that it's important to be carried not just by the 
people in the embassy, but also by people in Congress.
    I would welcome, as I did in Sudan, visits by Members of 
Congress who I think could help us get that message across.
    Senator Feingold. Now, every ambassador nominee says this, 
but I want to highlight what he just said. We have members--I'd 
say to my Chair and I'd say to the Senator from last--we have 
members who have talked about having been to Iraq 15 times, 
which is good. But when I went to Indonesia, I was told I was 
the second senator to have visited there in 3 years. The other 
one was Senator Bond. It is the largest Islamic country in the 
world, the fourth largest population in the world, and we need 
to go there more. There's just no question. It is a fascinating 
critical place, and I wish you well. I also have strong 
feelings about Timor. Fifteen years ago, this was the first 
issue I ever sort of sunk my teeth into, fighting for the 
independence of East Timor on this committee, so I'm awfully 
pleased to see that the independence exists, that you're going 
there, but I know that there are difficulties.
    Despite its independence in 2001, security continues to be 
a critical issue in Timor-Leste, especially in relation to the 
crisis which erupted there a year ago. As I'm sure you're 
aware, the Australian-led International Stabilization Force is 
not part of the U.N. Mission, but remains in country. Having 
separate military forces results in a lack of accountability, 
unclear lines of responsibility, and poor coordination. If 
confirmed, Mr. Klemm, would you support placing the ISF under a 
unified U.N. command and would you push for this directly?
    Mr. Klemm. Well, thank you, Senator, and before I answer 
your question directly, let me also welcome you and other 
members of the committee and any other Member of Congress to 
Dili, as well. If you're in Indonesia or any place else in the 
region, it's not that far away, and your presence--your 
diplomatic presence there could be of great, great assistance 
in getting our message across.
    I want to--regarding the work that the Australian forces 
are doing in East Timor, their liaison and coordination with 
the Blue Helmets there under U.N. auspices, and our policy on 
both their ability to coordinate and their presence in East 
Timor, I would like--I probably should be prudent and take that 
question back and confirm our policy.
    It is my understanding that last summer, when the current 
U.N. resolution placing police forces--U.N. police forces--in 
East Timor was approved by the Security Council at U.N. We 
supported this division of U.N. forces and Australian forces.
    It's my understanding, if my understanding is correct, that 
continues today--that the administration's view is that the 
Australians are playing a constructive role in the capacity 
under which they're there today.
    Senator Feingold. Thank you. I look forward to your 
response when you're able to give it. My time's already gone. 
If I could----
    Senator Boxer. Would you like to have another minute?
    Senator Feingold. I just want to ask one more question.
    Senator Boxer. I'll give you three more minutes, then.
    Senator Feingold. I just want to ask Mr. Huso a question, 
because just like the Chair, I have a very strong personal 
interest, as well as constituent interest, in the relations 
with the country that you are to represent--the country that 
you're going to represent us at.
    As you're aware, the Hmong have been moving across the 
border to Thailand for years because of continued persecution 
by the Lao Government. You mentioned in your testimony that you 
will work with the Lao and Thai Governments to find ``durable 
solutions'' for this population.
    Would you expand on what this means? I'm specifically 
interested to hear about your plans to work with the Lao 
Government, given that they have a longstanding record of 
persecuting the Hmong.
    Mr. Huso. Thank you very much, Senator, for the opportunity 
to comment on that very, very important issue. As I mentioned 
in my testimony, I share your concerns. I share the concerns of 
your constituents, and many of your other Senators and 
Congressmen have constituents who are Lao Americans, and 
particularly, Hmong Americans.
    You're absolutely right, Senator. I have no illusions about 
the difficulty of the challenge of working with the government 
on this particular issue. It's one of great sensitivity to the 
Lao Government. But nonetheless, I'm committed to work on 
trying to do what I can to encourage the Lao Government to 
protect the rights of all its citizens, including the ethnic 
minorities.
    In terms of a durable solution for those who cross the 
border into Thailand, I think one of the key principles that we 
need to keep in mind is to provide those individuals access to 
the type of screening necessary to determine who among them has 
a legitimate fear of persecution.
    If that well-founded legitimate fear is established, then a 
durable solution could conceivably include resettlement in the 
United States or other countries willing to accept refugees, 
and potentially, for those who may not be found to qualify for 
refugee status, some sort of assurance of their protection in 
the event that they are returned to Laos is also extremely 
important, so I would work to achieve that goal.
    Senator Feingold. Do you foresee a successful resettlement 
of the Hmong back to Laos, and if so, by when?
    Mr. Huso. Historically, sir, that has happened. There have 
been in the past, U.N. monitored programs for the return of 
Hmong to Laos, with some success. I don't know at this point 
whether that would be possible with the group that's currently 
there now.
    I know this is a topic of discussion between the Government 
of Thailand, the Government of Laos. Its a topic of great 
interest to the United States, and also, to the international 
community.
    Senator Feingold. You've probably already figured this out, 
but I can assure you if you see any Member of Congress from 
Wisconsin, Republican or Democrat, this is not a passing 
interest.
    Mr. Huso. Yes, sir.
    Senator Feingold. This is dead serious. We're interested in 
the details. We're very concerned about this as a delegation, 
so I wish you well. I thank you for the----
    Senator Boxer. Senator, thank you, because, of course, you 
and I are experiencing similar issues in our States. I wanted 
to thank you, Mr. Huso, because my understanding is that you 
said to my staff you'd be willing to meet with some of the 
leaders of the Hmong community in California.
    Mr. Huso. Senator, that is my intention, to meet with the 
leaders of the community there and other States, so that I can 
understand their concerns and better inform myself, if 
confirmed.
    Senator Boxer. Very good. I'm going to ask unanimous 
consent to keep the record open for additional questions. Since 
I'm the only one voting, I think we will do that.
    Senator Boxer. There were two things I wanted to say to two 
of you before you leave, just to put some things on your radar 
screen. You don't have to respond to them, but they're just 
concerns coming from me.
    Mr. Keith, we do know about Malaysia's investment in Iran's 
oil and gas sector, and I share your concerns that it is 
something we have to keep our eye on. It looks like the total 
trade between Malaysia and Iran rose from $224 million in 2000 
to over $765 million in 2005.
    I just want to put on your radar screen that we will be 
having, as you know, the bilateral free trade agreement between 
the two countries, Malaysia and America. I just want you to 
know that there may be some amendments regarding this 
increasing relationship.
    Also, on antipiracy, that the Congressional International 
Antipiracy Caucus released its annual report on international 
property rights protections and found Malaysia was one of five 
countries placed on its priority watch list, singled out for 
not doing enough to protect intellectual property rights.
    So I put that on your radar screen, because you may have 
colleagues calling you and saying, ``Are you raising this 
issue?''
    Ms. Hughes, even though you are going to a small country, I 
think you have an opportunity to do some really good things.
    You mentioned one of them in response to the question of my 
colleague and friend, Senator Murkowski, in terms of energy--
and I want to read to you that last fall, the Vice President of 
the Federated States of Micronesia said the following: ``The 
sad irony is that those of us who have little to contribute to 
the causes of climate change and sea level rise are the first 
in line to suffer the consequences.''
    He went on to say, ``Exposed to the effects of extreme 
weather events, our livelihood and traditions as island people. 
In fact, our whole civilization are under greater threat than 
ever before.''
    So I know that in conversations with my staff--and by the 
way, my staff was so impressed with all of you--you had 
mentioned that we're building an embassy in Micronesia, and 
that you had suggested perhaps putting a solar roof, for 
example, on that building.
    I wanted to just push you a little more on that, because I 
think, as you pointed out, the abundance of the sun and the 
wind there can really be of great help to this little country, 
and, by the way, to our big country. There's no question about 
it.
    I think a few simple steps that you could take just in 
being a role model in that building of the embassy, once you're 
confirmed--I know you can't do much at this stage, but once we 
move these nominations, and I hope it will be very soon, if you 
just take a look at the roofs and the bulbs and fixtures and 
insulation and heating and air conditioning systems, we can cut 
so much energy use, and therefore, our carbon footprint, but 
also, save money for the taxpayers. It's a win-win for 
everybody.
    Then the other issue in Micronesia that came to my 
attention is that according to the most recent State Department 
human rights report, ``cultural factors in the male-dominated 
society limited women's representation in government and 
politics.''
    So I think your going there is a wonderful message to that 
country, a wonderful message. I can just see by your demeanor, 
you will win them over. I think in doing that, you have a 
tremendous responsibility, I think, because the women there 
will at first look at you and think, ``Gee, I wonder if she can 
really do this.''
    Of course, you will be able to do it, and I think it's 
going to send a strong message to the women, empowering them, 
as well as to the men.
    Now, another down side is that reports of spousal abuse, 
often severe, continued during the year. This is in the State 
Department human rights report. Although assault is a crime, 
there's no specific laws against domestic abuse, no 
governmental or private facilities to shelter and support women 
in abusive situations.
    So I am just laying these issues out there for you. Ms. 
Hughes, you have these two challenges--the energy challenge, 
which presents as opportunity because we're building an embassy 
there, and the fact that you're a woman, it seems to me, is an 
opportunity on this other front.
    Am I putting too much on your shoulders, or are you excited 
about this challenge?
    Ms. Hughes. I thank you, Madam Chairman, for such an 
inspirational message. It's great. I would really look forward 
to working in those particular areas, among many others.
    Regarding the notion of solar energy for the new embassy 
building, it's my understanding that ground was just broken on 
the new building last month, so it's in an early stage.
    Senator Boxer. Good.
    Ms. Hughes. What I would propose to do, if confirmed, would 
be to call on the head of the Overseas Building Office at the 
State Department, General Williams, and explore this 
possibility.
    Everything we do, but particularly in a small environment, 
is a model. I think there's a lot we can do. The Peace Corps, 
for example. There are nearly 50 volunteers in Micronesia 
recently adapted all their vehicles to use coconut oil.
    Senator Boxer. That's great.
    Ms. Hughes. Setting an example is a wonderful opportunity. 
Women may be one of the best hopes for building leadership in 
Micronesia, so I'm inspired. Thank you very much for that.
    Senator Boxer. Well, thank you. Thank you very much.
     Well, what we'll do is we'll put a call in to the General, 
and say that I raised it with you and encouraged you to move 
forward, and see if we can get some interest there so that 
you're not fighting that battle alone. Because sometimes, they 
say, ``Well, we've already done the plans.'' So let's see what 
impact we can have.
    I read an editorial the other day just saying that there is 
a lot of talk about global warming, and what are we doing? 
We're just talking about it. We have to start using the 
technologies we already have, instead of putting it off for 
another day. Because it's a problem that's going to come to a 
head very soon, and we have a window of 5 to 10 years if we 
don't act.
    So to all of you, these are little things, but you're going 
to be managers of a lot of people, and you'll have 
opportunities to do little things. If you do them, let us know 
about them, because we'll make certain that my colleagues know.
    Just in America, buildings are responsible for 39 percent 
of all greenhouse gas emissions. Buildings, 39 percent. So even 
though it may seem like a simple thing to open the curtains in 
this room and shut off these lights, apparently, we can't, 
because of the cameras. But in some cases, we can.
    There are new technologies now that as the sun comes in, 
the lights dim in the office. We're doing that in all my 
offices here as a test case. So we hope maybe you can consider 
that in all of your responsibilities, just as a--always have it 
in your mind that you can do that.
    Well, again, we're just really pleased with this group that 
sits before me. We thank you for your service, for your love of 
country, for your dedication, and we thank your families and 
your friends who have been behind you every step of the way.
    I know I couldn't do what I do without that support, and 
whether they're here or whether they're working or they're 
doing other things, we know that they're rooting for you, and 
you all accorded yourselves so beautifully, and we wish you 
every good wish.
    I will report to Senators Biden and Lugar that I hope we 
can move these nominations very, very quickly. Thank you very 
much, and the hearing is adjourned.
    [Whereupon, at 11:12 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


   Response of Cameron R. Hume to Question Submitted by Senator Lugar

    Question. What is the status of the United States Peace Corps 
establishing a presence in Indonesia? Do you envision a future Peace 
Corps presence as a helpful contribution to the overall development of 
Indonesia?

    Answer. The United States Peace Corps sent an assessment mission to 
Indonesia in February 2007. That mission concluded that the 
establishment of a Peace Corps presence in Indonesia would be fully in 
keeping with the mission of the Peace Corps and would be highly 
beneficial to Indonesia's overall development. The Department of State 
shares that view. The assessment mission also concluded, however, that 
security concerns in Indonesia precluded establishing a program at this 
time. The Peace Corps plans to revisit the results of the assessment in 
the near future, with the hope of achieving more positive results.
                                 ______
                                 

 Response of Cameron R. Hume to Question Submitted by Senator Feingold

    Question. Are there any forms of military assistance we do not 
provide to Indonesia?

    Answer. We continue to pursue a calibrated approach as we increase 
our engagement with the Indonesian military, as part of our broader 
effort to support Indonesia's reform effort and to build a strategic 
partnership with this critically important country.
    Our assistance and training has focused on developing a 
professional military, supporting the reform of the military, and on 
enhancing the Indonesian military's capacity to respond to natural 
disasters, to provide maritime security, and to engage in international 
peacekeeping efforts. To date, we have not provided lethal assistance. 
We have provided spare parts for previously-purchased F-16 fighters and 
we have provided technical assistance for previously-purchased Harpoon 
missiles to ensure the safety and success of those programs. We also 
have not engaged in any unit training with the Army Special Forces 
(KOPASSUS).
    As Indonesian democracy continues to move forward, we expect to 
expand our engagement with the Indonesian military, and will keep 
Congress informed.
                                 ______
                                 

  Response of Hans G. Klemm to Question Submitted by Senator Feingold

    Question. Would you press to put the International Stabilization 
Forces (ISF) deployed in East Timor and led by Australia under direct 
United Nations command?

    Answer. On October 27, 2006, then-Prime Minister Jose Ramos-Horta 
publicly expressed his government's view that the Australian-led 
international security force continued to be the best fit for the 
situation in East Timor. We concur that the Australian-led security 
force is the most appropriate. Under the U.N. military proposal 
considered in August, 2006, East Timor would have had only about 350 
U.N. troops, half of whom would have been assigned to protect U.N. 
staff and assets.
    In contrast, Australia has deployed about 1,000 troops to secure 
East Timor. Australia's contribution to restoring stability in East 
Timor underscores the importance of our alliance for maintaining peace 
and security in the region. If confirmed, I would engage vigorously 
with all parties to maintain clear lines of command and accountability 
for the conduct of all security forces deployed in East Timor.


 NOMINATION OF HON. REUBEN JEFFERY III TO BE UNDER SECRETARY OF STATE 
             FOR ECONOMIC, ENERGY, AND AGRICULTURAL AFFAIRS

                              ----------                              


                         TUESDAY, JUNE 12, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
Jeffery, Reuben, III, to be Under Secretary of State for 
        Economic, Energy, and Agricultural Affairs
                              ----------                              

    The committee met, pursuant to notice, at 4:25 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez presiding.
    Present: Senators Menendez and Lugar.

               STATEMENT OF HON. ROBERT MENENDEZ,
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Today, the committee meets to consider 
the nomination of Mr. Reuben Jeffery. The President has 
nominated Mr. Jeffery to be the Under Secretary of State for 
Economic, Energy and Agricultural Affairs.
    We want--as he approaches the witness table, we want to 
congratulate you on your nomination. We look forward to hearing 
from you this afternoon. I know we're, shortly, going to 
welcome our colleague Senator Chambliss, who has joined us, 
to--who will be joining us, was here a few minutes ago, and is 
wrapping up, in the Intelligence Committee, some questions that 
he has in that venue--to introduce Mr. Jeffery.
    And, as we wait for him to come back, since I know we have 
a busy agenda, let me recognize myself for an opening 
statement, then I'll recognize Senator Lugar, and, by then, we 
should have Senator Chambliss here.
    Mr. Jeffery, you've been nominated to serve as the Under 
Secretary for Economics, Energy and Agricultural Affairs. If 
confirmed, you would be the senior economic official at the 
State Department, and you will have the challenge of helping to 
lead the Department on a wide range of issues, including 
investment, finance, agriculture, trade, energy, 
telecommunications, aviation, and transportation. This broad 
portfolio requires you to work with Secretary Rice and others 
to analyze how our current policies and our relationships with 
other countries can best serve our common goals in the areas 
I've just mentioned.
    This position as Under Secretary would give you 
jurisdiction over many important issues facing the Congress and 
the country today. And so, I'd like to take a moment to touch 
on a few of these matters.
    In this era of globalization, the stability of our economy 
is intrinsically linked with our trade practices. As 
transnational business continues to expand, the Congress and 
this administration must work to establish trade policies that 
not only support our economic interests, but also ensure that 
vital labor and environmental protections are secured. It's my 
hope that, if you are confirmed, you will use your position in 
the State Department to help achieve these goals.
    As an economic powerhouse, the United States must use its 
economic weight wisely. The position that you have been 
nominated for would include work with our sanctions program in 
dealing with countries like Iran and Sudan. I am a strong 
supporter of economic sanctions as a tool of diplomacy, and I 
would expect the next Under Secretary to be actively engaged in 
this crucial issue as you work with your colleagues at the 
Treasury Department.
    Over the next 2 weeks, the Senate plans to examine new ways 
to increase our energy self-reliance and promote the 
development of alternative energy sources. As the Under 
Secretary who has jurisdiction over that area, you would have 
the responsibility of addressing the economic and political 
challenges facing our energy security. During this era of 
record gas prices and conflict in the Middle East, the 
complexity and importance of this task cannot be overstated. I 
know that the distinguished Senator, full member of--ranking 
member of the full committee, Senator Lugar, has been very 
involved in this issue, and I know that he shares my concern 
that the United States must do more to promote our energy 
security.
    And, finally, earlier today this subcommittee examined the 
issue of U.S. foreign assistance and the challenges facing the 
current reform process, referred to as the ``F'' process. If 
confirmed, you would work in collaboration with other State 
officials on matters such as developing the annual foreign 
assistance budget, setting America's development agenda, and 
advising Secretary Rice on the Millennium Challenge Corporation 
issues. The issue of U.S. foreign assistance is of importance 
to many members of this committee, certainly to me, and I am 
hoping that greater leadership will be taken on this issue in 
the future than we have seen in the past.
    Important--it's very important to reduce poverty as part of 
the work of Multilateral Development Banks, such as the World 
Bank and the IMF. These institutions face many challenges, and 
I plan to take a critical look at the role of these and other 
multilateral institutions in the near future.
    The issues that my subcommittee handles overlap greatly 
with the work of the Under Secretary for Economics, Energy and 
Agricultural Affairs, and, should you be confirmed, I hope that 
we would have a fine working relationship so as to address some 
of the issues I've just discussed.
    And, finally, Mr. Jeffery, I know that you've had a 
successful career in the private sector. You've spent the past 
few years in the public sector, and I want to thank you for 
your service. This hearing will provide an opportunity to not 
only examine your past work, but to learn more about your goals 
and vision for the position which you have been nominated. I 
appreciate having had the opportunity to speak with you in the 
past about your nomination to this post, and I look forward to 
exploring more of the issues that we previously discussed.
    With that, let me turn to Senator Lugar for whatever 
statements he may have.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman.
    I join you in welcoming Reuben Jeffery to the Senate 
Foreign Relations Committee. As a member, and former chairman, 
of the Agriculture Committee, and as a farmer, I've had an 
intense interest in the performance of the agency he currently 
heads, the Commodity Future Trading Commission. I applaud the 
work Chairman Jeffery has done on that post, and I am 
encouraged that President Bush has nominated a candidate with 
such diverse experience to be Under Secretary of State for 
Economics, Energy and Agricultural Affairs.
    The State Department post requires a range of managerial 
and substantive experience that very few candidates possess. 
The nominee would be the principal advisor to the Secretary of 
State on matters of economic energy, business, and agricultural 
policy, and would coordinate and supervise implementation of 
that policy. I've often spoken of the need to draw talented 
individuals from the private sector into public service, and, 
given the potential loss of privacy, the reduction in pay, the 
financial restrictions, the other complications, government 
service often holds little attraction for men and women who 
have built thriving careers in the private sector. As you 
pointed out, Mr. Chairman, the nominee before us is one who has 
made personal and financial sacrifices to pursue difficult 
assignments in the service of our Nation, including time spent 
in Iraq.
    Chairman Jeffery entered Government service from the 
partnership of Goldman Sachs, where his achievements included 
managing the London and Paris offices. He served as special 
advisor to the president for Lower Manhattan Development, then 
went to work for the Coalition Provisional Authority in Iraq, 
before returning to Washington as the senior director for 
International Economic Affairs on the National Security 
Council.
    Chairman Jeffery's impressive experience in the private 
sector, and the versatilities he demonstrated in his public 
service, led the President to nominate him for this position. 
In my conversations with Chairman Jeffery, he has demonstrated 
a facility for the broad range of topics related to 
international economic policy. In my judgment, United States 
strategic objectives in the world are unlikely to be achieved 
if progress is not made on the policy issues that Chairman 
Jeffery would oversee. We need progress on expanding trade 
relationships, improving the performance of the multilateral 
development banks, and bolstering international agricultural 
cooperation. These are areas where the United States should be 
leading the world to new accomplishments that strengthen global 
economy.
    Of particular importance is the energy component of the 
job. During the past 2 years, this committee has examined 
rigorously the national security threats associated with the 
U.S. dependence on foreign energy sources, and testimony from 
13 hearings in the 109th Congress pointed to the inescapable 
conclusion that our energy vulnerability threatens a broad 
range of United States foreign policy goals, including 
preventing weapons proliferation, overcoming terrorism, 
promoting international development. Governments control as 
much as 79 percent of the world's oil reserves, and production-
and-supply decisions are often made for political reasons. 
Meanwhile, high oil prices are emboldening hostile governments. 
This Congress continues to debate our future role in the Middle 
East, yet our options are limited by the fact that our economy 
is dependent on steady supplies of oil from that region.
    Despite the centrality of energy to our diplomacy, State 
Department capacity in this area has often suffered from 
inattention and split authorities across the Department. Yet, 
there is reason for optimism. I'm encouraged that the full 
Senate is now set to consider legislation I introduced in March 
2006, the Energy Diplomacy and Security Act, which aims to 
reinvigorate U.S. energy diplomacy and strengthen our security. 
Already, Secretary Rice has taken the initiative to implement a 
new international energy coordinator position contained in my 
legislation, and has embarked on valuable initiatives with 
Europe and Brazil. The next Under Secretary for Economic, 
Energy and Agricultural Affairs must play a major role in 
addressing the risks and opportunities presented by the energy 
challenges that confront us.
    I appreciate Chairman Jeffery's enthusiasm for this part of 
the portfolio, and his eagerness to work with our committee. 
I'll look forward to an excellent partnership that advances 
United States energy security and diplomacy.
    Thank you, Mr. Chairman.
    Senator Menendez. I'm pleased to welcome Senator Chambliss 
to the committee, and recognize him now for his introduction of 
Mr. Jeffery.

               STATEMENT OF HON. SAXBY CHAMBLISS,
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Chambliss. Thank you very much, Chairman Menendez 
and Senator Lugar. I appreciate the opportunity to come here 
today to introduce Reuben Jeffery III, nominee for Under 
Secretary of State for Economic, Energy and Agricultural 
Affairs.
    I've known Reuben for several years now, and I cannot think 
of an individual who is more prepared for this position than is 
Reuben Jeffery.
    He has--as both of you have alluded to, has had many 
positions in this administration, both in very high-profile 
positions, as well as just getting out there and getting work 
done, as he did with Ambassador Bremer in Iraq. And what a 
terrific job he's done everywhere he's been asked to serve.
    He was nominated to the chairmanship of the Commodities 
Futures Trading Commission by President Bush on May 17, 2005. 
This nomination was considered by the Senate Agriculture 
Committee, which I chaired at that time. I'm very pleased to 
say that Mr. Jeffery's nomination sailed through the committee, 
and he was confirmed by the Senate June 30, 2005. Senator 
Lugar, obviously, as a member of that committee, supported his 
nomination there. I'm certain this committee will also find 
every reason to move forward expeditiously to confirm this 
nomination.
    In addition to the issue--to the background that you have 
both alluded to, Mr. Jeffery also spent 18 years working for 
Goldman Sachs, where--and he was managing partner of Goldman 
Sachs in Paris.
    Now let me tell you about Mr. Jeffery, what he did, and the 
way he approached his chairmanship at CFTC.
    He had a background in the financial community, but CFTC 
operates in a very unusual way because of the commodities and 
the issues that come before the CFTC. What this guy did was to 
do his homework like no other public servant I've ever seen. 
CFTC is extremely complex, and--it doesn't deal with buying and 
selling stocks and bonds, it deals with commodities, and 
commodities, some of which Senator Lugar grows, and he knows 
how complex this--these issues of commodity trades can be. And 
not only did he have responsibility for regulating the 
commodity markets, but also to make sure that the folks who 
operated on those markets did so in a way that was fair to 
consumers, because consumers are the ultimate beneficiaries of 
the regulatory process. And this regulatory process at CFTC is 
just so complex. But Reuben Jeffery really delved into it 
immediately. He and I had numerous conversations early on, even 
prior to his confirmation, and he was already doing his 
homework then, to be prepared to take over the chairmanship of 
the CFTC. And I was just extremely pleased of the hard work 
that I saw going into place before he became chairman.
    As we had the opportunity to work together over the past 
few years, he's always had the best interest of the CFTC at 
heart, as well as the industry, when considering hearings, 
rulings, as well as other business. It's been a pleasure 
working with him, and he'll be missed at CFTC. I'll have to 
tell you, when he called me a couple of months ago, and told me 
this was in the works, I wasn't particularly excited about it 
at that time, because we're in the midst of trying to get CFTC 
reauthorized, and he has played such an integral role in 
helping negotiate and move that process through the--through 
both the House and the Senate.
    But to this position he's going to bring a broad-based, 
fair-minded perspective, serving as the Under Secretary of 
State for Economic, Energy and Agriculture. I recommend him 
highly to this committee, and I'm just very pleased that you're 
moving his nomination forward today. And I thank you for the 
opportunity to say something about a guy who's become a dear 
friend.
    Thank you very much, Mr. Chairman.
    Senator Menendez. Thank you, Senator Chambliss. That was a 
very strong recommendation.
    Unfortunately, Senator Schumer wanted to be here today, but 
is not able to be here to give his introduction, as well, of 
Mr. Jeffery, so I'd like to ask unanimous consent to add 
Senator Schumer's remarks into the record. Without objection, 
it will so be entered into the record.
    [The information previously referred to appears in the 
Additional Material Submitted for the Record section at the end 
of this hearing.]
    Senator Menendez. So, it's now time to turn to the nominee.
    Chairman Jeffery, you have an opportunity to proceed with 
your opening statement. If you have family members here, we'd 
love to have you introduce them to the committee. And, in the 
interest of time, we'd ask you to keep your testimony to about 
7 minutes. We'll include your entire statement, for the record. 
And the time is now yours.

   STATEMENT OF HON. REUBEN JEFFERY III, NOMINEE TO BE UNDER 
   SECRETARY OF STATE FOR ECONOMIC, ENERGY AND AGRICULTURAL 
                            AFFAIRS

    Mr. Jeffery. Perhaps I could--should begin, Mr. Chairman--
Mr. Chairman and Senator Lugar, members of the committee, let 
me begin by introducing my family members who are here, and 
recognizing a couple of other people.
    I'm not sure where they are, but somewhere in here is my 
wife, Robin, my son, Ben, and my father, also Reuben, and I 
thank him for being here. That's three of us here, Reubens.
    In any event--and I'd also--I'm also particularly touched 
to have with me my two fellow commissioners at the CFTC, 
Commissioner Mike Dunn and Commissioner Walt Lukken, with whom 
I've worked extensively over the past couple of years, in the 
context of our ongoing work at the Commission.
    With that, I'll begin my statement.
    Mr. Chairman, Senator Lugar, members of the committee, 
thank you for holding this hearing and inviting me to appear 
before you today. It's an honor and a privilege to be here as 
the President's nominee to be Under Secretary of State for 
Economic, Energy and Agricultural Affairs.
    I'd like to begin by thanking President Bush and Secretary 
Rice for the honor and privilege of being nominated and for the 
opportunity to serve the American people in this important 
position. And thank you also, Senator Chambliss and Senator 
Schumer, for your remarks and your friendship over the years.
    As the committee is well aware, national security and 
economic well-being are inextricably linked. Helping to develop 
and promote the conditions for economic opportunity 
internationally is critical to the creation of stable, 
peaceful, and prosperous communities around the world. Programs 
that help the world's most vulnerable and encourage economic 
and self-reliance must be a core component of U.S. foreign 
policy. This is especially crucial in vulnerable areas, such as 
Africa and Latin America, where our strong engagement can help 
break the cycle of poverty and despair.
    Prior to 9/11, I had spent my career in the private sector, 
including a decade living and working outside of the United 
States. From that experience, I came to appreciate the 
transformative power of open and competitive markets and the 
relationship between good government and economic opportunity. 
I also learned something about how to see our country through 
the eyes of others. Whether resented or respected, awed or 
envied, the economic well-being of the United States is a 
standard to which most others aspire. We are a great country, 
but--to which much has been given, but from which much is 
expected. As such, we have an obligation not only to advance 
our own economic interests overseas, but also to support the 
growth and development of others. Pursued strategically, these 
two objectives can be mutually reinforcing.
    For the past 5 years, I've had the privilege of working in 
the U.S. Government in a variety of capacities, several of 
which were referred to by Senator Lugar and Senator Chambliss 
in their very kind opening remarks. If confirmed as Under 
Secretary, I will draw upon these various experiences in the 
private sector and in Government in working with my State 
Department colleagues to focus on three principal objectives:

  <bullet> First, leverage the resources of the U.S. Government 
        and the private sector to encourage pro-growth economic 
        policies and create the conditions for economic 
        opportunity and poverty reduction around the world.
  <bullet> Second, promote prosperity and competitiveness 
        through market-expanding trade, investment, aviation, 
        and telecommunications agreements that seek to level 
        the playing field for American workers while enhancing 
        conditions for economic development in the economics of 
        our trading partners.
  <bullet> And, finally, advance U.S. and global energy 
        security by working with partner countries and the 
        private sector to diversify energy sources, manage 
        energy demand, and promote the development and use of 
        innovative, cost-efficient, and environmentally 
        respectful technologies.

    I am acutely aware that time is running short, and my job 
tenure, if confirmed, will be commensurately brief, but these 
broad policy objectives, to approve the quality of life and 
economic standing for Americans and people around the world, 
transcend party lines and administrations.
    Mr. Chairman, Senator Lugar, the job of Under Secretary for 
Economic, Energy and Agricultural Affairs carries important and 
exciting responsibilities. If confirmed, I look forward to 
working with Secretary Rice, the State--my State Department, 
and other U.S. Government colleagues, and with members of this 
committee. I can assure you that I will need, and welcome, this 
committee's ongoing support and counsel.
    I'm honored to be here before you today. Thank you, again, 
Mr. Chairman and members of the committee, for giving me this 
opportunity to be here.
    [The prepared statement of Mr. Jeffery follows:]

  Prepared Statement of Hon. Reuben Jeffery III, Nominee to be Under 
    Secretary of State for Economic, Energy and Agricultural Affairs

    Mr. Chairman and members of the committee, thank you for holding 
this hearing and inviting me to appear before you today. It is an honor 
to be here as the President's nominee to be the Under Secretary of 
State for Economic, Energy and Agricultural Affairs.
    I would like to begin by thanking President Bush and Secretary Rice 
for the honor and privilege of being nominated and for the opportunity 
to serve the American people in this important position.
    Thank you also to Senator Chambliss for that very kind 
introduction.
    I would like to introduce my wife, Robin, and our son, Ben. Our 
daughter Jocelyn just started a new job in New York and could not be 
here today. Similarly, our son, Bob, is away on a long anticipated 
post-high school graduation outing. I would be remiss in not thanking 
them all, and Robin in particular, for their inspiration, love, and 
support over these many years.
    As the committee is well aware, national security and economic 
well-being are inextricably linked. Our children's future depends both 
on ensuring prosperity at home and encouraging prosperous and growing 
societies overseas.
    Helping to develop and promote the conditions for economic 
opportunity internationally is critical to the creation of stable, 
peaceful, and prosperous communities around the world. Programs that 
help the world's most vulnerable and encourage economic self-reliance 
must be a core component of U.S. foreign policy. This is especially 
crucial in Africa and Latin America where our strong engagement and 
support can help break the cycle of poverty and despair.
    Prior to 9/11, I spent my career in the private sector, including a 
decade living and working outside of the United States. Through that 
experience, I came to appreciate the transformative power of open and 
competitive markets and the relationship between good government and 
economic opportunity.
    I also learned how to see our country through the eyes of others. 
Whether resented or respected, admired or envied, the economic well-
being of the United States is the standard to which others aspire. We 
are a great country to which much has been given, but from which much 
is expected. As such, we have an obligation not only to advance our own 
economic interests overseas, but also to support the growth and 
development of others. Pursued strategically, these two objectives are 
mutually reinforcing.
    For the past 5 years, I have had the privilege of working for the 
U.S. Government in a variety of capacities. This included helping with 
the economic recovery of lower Manhattan post-9/11 as a special advisor 
to the President, working in Iraq and at the Pentagon in support of the 
Coalition Provisional Authority, providing leadership at the NSC on 
trade and development issues, and heading the Commodity Futures Trading 
Commission as it deals with financial market regulatory matters.
    In so doing, I have had the opportunity to work alongside an 
exceptional group of dedicated public servants, both civilian and 
military. These years have been the most personally and professionally 
rewarding of my career.
    If confirmed as Under Secretary for Economic, Energy and 
Agricultural Affairs, I would draw upon these varied experiences and 
perspectives to energize and lead the State Department's team of 
Foreign Service and civil service officers who are all committed to the 
core mission of building prosperity and economic security at home and 
overseas.
    If confirmed, I will work with my colleagues to focus on four main 
objectives.

  <bullet> First--Leverage the resources of the United States and 
        international business communities to encourage pro-growth 
        economic policies and create the conditions for economic 
        opportunity and poverty reduction in support of U.S. and 
        international assistance programs.
  <bullet> Second--Promote prosperity and competitiveness through 
        market-expanding trade, aviation, telecommunications, and 
        investment agreements that seek to level the playing field for 
        American workers, businesses, farmers, and consumers while 
        enhancing conditions for economic development at home and in 
        the economies of our trading partners.
  <bullet> Third--Advance United States and global energy security by 
        working with partner countries and the private sector to 
        diversify energy sources, manage energy demand, and promote the 
        development and use of innovative, energy efficient, and 
        environmentally respectful technologies.
  <bullet> Finally--Maintain and enhance a stable financial system by 
        working with other major economies and international financial 
        institutions to implement responsible growth-oriented economic 
        policies.

    While much progress has been made in these areas under the 
excellent leadership of Secretary Rice, former Under Secretary, Josette 
Sheeran, and Assistant Secretary for Economic, Energy and Business 
Affairs, Dan Sullivan, we have the opportunity to build on those 
successes in the coming months and years.
    I am acutely aware that time is running short and my job tenure, if 
confirmed, will be commensurately brief. But these broad policy 
objectives--to improve the quality of life and economic standing for 
Americans and people around the world--transcend party lines and 
administrations.
    While I look at the next 19 months as a sprint, I would hope to 
pass the baton to the next runner having covered some significant 
ground.
    I appreciate too that this is a team effort, requiring not just the 
Department to work as one, but also necessitating constructive 
collaboration among many agencies and branches of Government. No one 
individual, department, or branch has a monopoly on good ideas, nor the 
resources to take them from conception to successful implementation.
    Mr. Chairman, the job of Under Secretary for Economic, Energy and 
Agricultural Affairs carries important and exciting responsibilities. 
If confirmed, I look forward to working with Secretary Rice, my State 
Department, and other U.S. Government colleagues, and with the members 
of this committee. I can assure you that I will need and welcome this 
committee's ongoing support and counsel.
    I am honored to be here before you today. Thank you again Mr. 
Chairman and members of the committee for giving me this opportunity to 
be here this afternoon.

    Senator Menendez. Thank you, Chairman Jeffery. And we 
welcome your family here, as well. I know it's a great day.
    And, moving forward, let me start off with some questions, 
and then I'll turn to Senator Lugar and any other committee 
member who may appear later.
    For the record, I think it's important that, before we get 
to a final vote--and I--you and I had this discussion when you 
visited me, and I appreciate that, and I would like to get your 
responses on the record on some of these things. With reference 
to the time in which you were the head of the Coalition 
Provisional Authority, in--here in Washington, DC, you held a 
great deal of responsibility, and you were involved early, 
under Ambassador Bremer's tenure, in Iraq. And I'm wondering, 
in--having gone through that experience, looking back, what 
would you have done differently during those first critical 
months of the CPA's existence?
    Mr. Jeffery. Senator, thank you for that question.
    There are many things, and many lessons learned here, but, 
within the confines of my lane, so to speak, which primarily 
involved working at the CPA's so-called Reachback Office at the 
Pentagon from the period of August 2003 through the duration of 
the existence of the Coalition Provisional Authority, I'd say 
there are two particular lessons that--and challenges--that we 
bumped into, really, on a regular basis.
    One, it's critically important--and--that this country have 
some kind of database or ability to access competent 
professional individuals who would be available to act in post-
conflict reconstruction situations. Thankfully, to many 
Americans, largely those already within the U.S. Government, 
and some volunteers from the outside, the effort in Iraq was 
staffed, but it was staffed pretty much as we were doing--over 
the course of the endeavor. The legislation that has been 
passed in the operation of the Department, within the State 
Department, related to post-conflict stability operations and 
reconstruction is a very strong initiative in this regard, 
which I--based on my experience, would wholeheartedly support.
    A second issue that we bumped into--and it's a very complex 
issue for which I have no ready answers, but needs to be 
studied at length, and that is our contracting procedures in 
wartime situations. This Congress actively enacted, on a very 
prompt basis, the supplemental, the 18.1 billion Iraq 
supplemental in, I believe, September of 2003. It was well into 
2004 between--before the funding and the contracting mechanisms 
under that supplemental could flow. All that was done pursuant 
to U.S. rules, pursuant to the FAR, the Inspector General who's 
looked at this situation, has, opined on it, generally 
favorably, but the speed and flexibility of the contracting 
mechanism from time to time did pose problems in the field.
    But those are the two areas--personnel reserve and 
contracting--as to which I think we could learn a lot from the 
Iraq experience.
    Senator Menendez. I appreciate that.
    Talking about personnel, one of the criticisms that was 
leveled against the CPA was hiring people on their political 
affiliations rather than on their relevant experience. And in 
that regard, could you tell the committee, what was your role 
in the hiring of staff? And did you think that hiring process 
was carried out fairly and effectively? And knowing what you 
know now, is there anything that you would have done 
differently?
    Mr. Jeffery. Senator, keep in mind that I--my involvement, 
again, in the Reachback Office, began in August of 2003, after 
which many of the CPA staff was long since in place. Our office 
was tasked at the time with, among many other responsibilities, 
helping with other Departments within--other operations within 
the Pentagon with organizing and structuring and scaling up and 
accelerating the CPA deployment process.
    Let me put that challenge in context. One fact, which I 
think is important to keep in mind, is that--is the one I 
mentioned in the--in responding to your prior question, Mr. 
Chairman, that there was no ready reserve to call on, there was 
no preexisting government department and agency that had people 
ready to do the--act in these sort of situations, or outside--
outside source.
    Second, in terms of the numbers of--involved, CPA staffing, 
as best I can recall, total head count was something in the 
area of 500 people, plus or minus, in the summer, early fall of 
2003. That number peaked at something in the area of 1,300 in 
the early part--the winter of 2004. In the interim, due to a 
variety of factors, including generally short duty tours and 
changing--ever changing mission requirements, there was 
relatively frequent turnover. So, the numbers of people that 
had to be deployed from their then-existing professional 
responsibilities, either in government or without, were 
significant.
    I would be remiss, however, in not taking this opportunity 
to say that, thankfully, there were many competent, 
professional--in many cases, extremely highly qualified 
individuals, largely from within the United States Government, 
but also outside, who volunteered to serve in Iraq during that 
difficult period.
    Senator Menendez. I appreciate your comment about the 
database, but certainly--the job of reorganizing Baghdad's 
stock exchange, which had not reopened, was given to a 24-year-
old, who sought a job at the White House. That certainly is not 
the database that we needed, to achieve that goal; and 
certainly, in pursuit of competency and expertise, without a 
database even, one can do much better than that. We would agree 
on that, would we not?
    Mr. Jeffery. Senator, I--it's hard to argue with----
    Senator Menendez. Yeah.
    Mr. Jeffery [continuing]. That comment. Thank you.
    Senator Lugar. Let me ask you the last question here on a 
different topic.
    Should you be confirmed, you will have a relatively short 
time to set and achieve the goals before the administration 
comes to an end. As the Under Secretary--we've talked about a 
lot of the spectrum, you're going to have a very big 
portfolio--what would be your top priorities in the post? And 
how would you envision your priorities differing from your 
predecessor?
    Mr. Jeffery. Mr. Chairman, in terms of my priorities, I 
tried to articulate them in the broadest terms in my statement; 
but, specifically, development as it relates to working with 
our in-place foreign assistance process, to work on programs 
that create economic opportunity and the prospect for economic 
growth in countries and allies that are important to the United 
States, where poverty is an issue, where there's a significant 
need, is a high priority--would be a high priority for me, if 
confirmed to this position, and with respect to which I would 
plan on working very closely with those involved directly in 
the foreign assistance department at--the foreign assistance 
process--at the State Department, USAID, and elsewhere in the 
Government, and, in particular, with the members of this 
committee.
    Second--and I'll only comment on two priorities for 
purposes of answering this question--the notion of energy 
security, which is front-burner right now on the consciousness 
of every American, and, I could tell you, every Foreign Service 
officer with whom I have spoken, is a very important part of 
the mission of the Under Secretary of State for Energy and 
Agricultural Affairs. And, in that area, I would plan to play 
an active leadership role in coalescing the effort in a variety 
of fronts.
    Senator Menendez. I appreciate those answers.
    Senator Lugar
    Senator Lugar. Thank you very much, Mr. Chairman.
    In the category of your responsibilities for agricultural 
affairs, would you comment on the impact in the ability of 
poorer nations to improve their economic conditions that our 
current agricultural subsidies have? And what impact would 
phasing out our subsidies have on the economics of those 
nations and our own international trade relations?
    Mr. Jeffery. Senator, I--talking with a Senator from the 
farm economy who knows this subject cold is an--daunting 
prospect, but I would say, Senator, that our agricultural 
programs, which are rooted in history, are designed to benefit 
American consumers, farmers, and ranchers. This administration, 
early in the year, served up a--made a proposal for the--an 
agricultural farm bill this year, which I know is under 
consideration in the Senate the committee level, and in the 
House.
    With respect to our international trade policies, the basic 
principles to which I would try to adhere, if confirmed in this 
position, working with USTR, working with the Congress, working 
with our trading counterparties, is to develop free and open 
and competitive markets on the broadest basis possible, whether 
it's bilaterally or regionally or ideally in the context of a 
Doha round, but to do so in a way that preserves, maintains a 
so-called level playing field for American farmers and workers, 
but equally so for our trading counterparties, and that firm, 
specific, understandable, and enforceable rules and sanctions 
are built in to those agreements.
    Senator Lugar. Well, I don't want to jeopardize your 
nomination by getting you embroiled in the 2007 farm bill. 
[Laughter.]
    Mr. Jeffery. Thank you, Senator.
    Senator Lugar. However, the dilemma, in terms of the State 
Department, is that the Doha round has been in some difficulty. 
If the Doha round collapses, it could have some tragic 
consequences. Central to the debate is not only our farm 
subsidies, but those of European-community friends and, for 
that matter, other countries in the world. So, I am hopeful 
that you and your colleagues involved in these multilateral 
negotiations, will have success, and perhaps our own reforms 
could be helpful in that respect.
    On energy, currently there has been great interest by 
Secretary Rice in the international aspects of energy. As 
Secretary Riceand out diplomats visits with substantial 
international actors--such as President Putin, of Russia, or 
Hugo Chavez, or others--they witness the use of energy for 
political purposes. The Department of Energy also has some 
persons who are engaged in international energy issues. But, 
recently, my encouragement and that of many members, has been 
that the State Department really needs to step up to this. And 
your role, obviously, will be to do that. Currently, there are 
persons who the Secretary has appointed to work on energy 
issues, but their duties have always seemed vague. Have you 
conferred with Secretary Rice, or do you have any idea as to 
how your activities, or those of your associates, can be 
reorganized in the Department so that there is a diplomatic 
impact, particularly vis-a-vis those who have very, sometimes, 
concrete energy objectives in those negotiations?
    Mr. Jeffery. Senator, the--as you know--and this is, in 
many respects, thanks to your initiation--the Secretary has 
established an international energy coordinator who is an 
overall coordinator for State Department activities in the area 
of energy and energy security. That coordinator reports to the 
Secretary through the Under Secretary for Economic, Energy and 
Agricultural Affairs. Importantly, as you correctly note in 
your statement, the State Department has to work, and should 
work, closely with our colleagues at the Department of Energy 
who have the technological and scientific expertise to deal 
with and understand some of the complexities of the energy 
security issues that this country faces.
    If confirmed as Under Secretary, I would work closely with 
the energy coordinator, with the relevant ambassadors around 
the world, with the interagency community, particularly the 
Department of Energy, and interested Members of Congress, on 
three broad fronts:

  <bullet> No. 1, assuring the ongoing security of traditional 
        sources of energy supply, ongoing bilateral relations 
        with major producing nations, as well as diversifying 
        routes and sources of that supply.
  <bullet> Second, working with others in the interagency 
        community--again, principally Department of Energy--on 
        energy efficiency-enhancing technologies that help us 
        manage more effectively our energy demand. The 
        President has cited a goal of a 20 percent reduction in 
        gasoline consumption in 10 years. The more we can do on 
        the demand management side, from my personal 
        perspective and professional perspective, were I 
        confirmed in this position, the better.
  <bullet> And, third, working through our diplomatic--the 
        diplomatic community at the State Department and 
        elsewhere in the Government in developing alternative 
        sources of energy supply, such as, for example, the 
        innovative United States/Brazil biofuels cooperation, 
        which I won't get into here, but offers a template for 
        Brazil and the United States and other countries to 
        adapt, to reduce their dependence on traditional fossil 
        fuels, produce energy to satisfy their own domestic 
        needs.

    Senator Lugar. I applaud the Brazil initiative, and what 
that could mean to the entire hemisphere. Likewise, I 
appreciate the beginnings of work with NATO and the European 
Union to provide at least some provisions of security for our 
friends abroad in Europe with regard to energy supplies. These 
are new areas for the State Department and for our Government, 
but extremely timely.
    So, I appreciate your taking this leadership, because I 
think you have a very large portfolio ahead, and I wish you 
every success.
    Thank you, Mr. Chairman.
    Senator Menendez. Thank you, Senator Lugar.
    You've obviously done your homework. As you know, Senator 
Lugar is the leader in this regard, and has legislation on 
this. So, I was--it's--sure it's music to his ears.
    Let me thank you, Mr. Jeffery, for being here today, for 
your forthrightness in your answers to the questions, for your 
willingness to serve our country in this most important 
position.
    The record will remain open for 1 day so that committee 
members may submit additional questions to the nominee. And, of 
course, we ask the nominee to be expeditious in response to 
those questions, should there be any.
    Senator Menendez. We look forward to a full-committee vote 
soon thereafter.
    And if no one has additional comments, the hearing is 
adjourned.
    [Whereupon, at 5:00 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


             Prepared Statement of Hon. Charles E. Schumer,
                       U.S. Senator From New York

    Good morning Mr. Chairman and Ranking Member Hagel. I would like to 
welcome my friend, CFTC Chairman Reuben Jeffery. I am proud to have an 
opportunity today to support his nomination. President Bush has 
nominated Reuben Jeffery to be the next Under Secretary of State for 
Economic, Energy and Agricultural Affairs. I think he is the right 
choice.
    Reuben Jeffery was sworn in as the 10th Chairman of the Commodity 
Futures Trading Commission. He has done a good job protecting market 
users and the public from fraud, manipulation, and abusive practices 
related to the sale of commodity and financial futures and options. He 
has also been instrumental in creating policies to foster open, 
competitive, and financially sound futures and option markets.
    I have known Reuben for many years--our daughters even attended 
nursery school together many, many years ago in Brooklyn. He is a 
smart, thoughtful, and committed person willing to give up his private 
sector career to serve his country time and time again.
    In addition to knowing him personally, I have had an opportunity as 
a member of the Senate Banking Committee to work closely with the 
chairman on capital market and futures issues and market 
competitiveness issues. And while we will miss him greatly in the 
financial services regulatory community, we know he will do an 
excellent job at the State Department.
    Reuben is highly qualified to lead the State Department efforts to 
formulate sound policies on economic, energy, and agricultural matters. 
His diverse experience has prepared him well. As you all know, prior to 
joining the CFTC Reuben was the Special Assistant to the President and 
Senior Director for International Economic Affairs at the National 
Security Council. He was previously the representative and Executive 
Director of the Coalition Provisional Authority Office (CPA) at the 
Pentagon, after having served as an advisor to Ambassador Bremer in 
Iraq. Prior to joining the CPA in May of 2003, Mr. Jeffery served as 
Special Advisor to the President for Lower Manhattan Development. In 
this capacity he helped coordinate ongoing Federal efforts in support 
of the longer term recovery and redevelopment of Lower Manhattan in the 
aftermath of September 11, 2001.
    He spent many years working on and off in New York, spending 18 
years at Goldman, Sachs & Co. At Goldman Sachs he was managing partner 
of Goldman Sachs in Paris (1997-2001) and of the firm's European 
Financial Institutions Group (1992-1997) based in London. Mr. Jeffery 
has a broad range of international capital markets, corporate finance, 
and merger and acquisition experience. And, prior to joining Goldman 
Sachs, Mr. Jeffery was a lawyer with the New York firm of Davis Polk 
and Wardwell.
    It is without question that Mr. Jeffery is a tremendously 
accomplished man and for that reason it is no surprise that he has once 
again been selected to serve the country in such an important role.
    His significant finance experience as an investment banker, and 
regulatory and Government experience at the CFTC and the White House, 
will prove invaluable to the State Department as attempts to create 
sound economic, energy, and agriculture policies. These experiences 
will make him a strong and competent Alternate Governor at the various 
multilateral development banks and as a member of the board of 
directors of the Overseas Private Investment Corporation (OPIC).
    He knows unequivocally that in order to remain competitive 
globally, the United States must continue to foster their relationships 
with its trading partners, encourage greater cooperation in the global 
agriculture and energy community, and improve the functioning of the 
world's regional development banks.
    For this reason I support his nomination. I congratulate him, wish 
him well, and believe he will be an outstanding Under Secretary of 
State for Economic, Energy and Agricultural Affairs.
                                 ______
                                 

        Responses of Reuben Jeffery III to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. Development Policy Coordinating Committee (PCC): The 
Under Secretary chairs this high-level interagency group and has used 
it in the past as a vehicle for shaping U.S. development policy. This 
is an important tool for providing senior-level guidance and direction 
on critical development issues. How do you plan to use the Development 
PCC going forward? Do you expect to raise any specific development 
issues? What is your view of incorporating environmental concerns into 
U.S. development policy? What will be your priorities for this 
committee?

    Answer. The Development PCC should provide guidance and ensure 
coordinated U.S. Government follow-up on critical development issues 
among State, USAID, and other U.S. Government agencies that handle 
development issues. Key issues that the Development PCC should maintain 
as a focus are encouraging trade capacity building, investment and 
innovation, and addressing anticorruption, transparency, and aid 
effectiveness. These are core cross-cutting themes for our efforts to 
promote sustainable economic growth in developing economies. Promoting 
public-private partnerships and business climate reforms, strengthening 
sustainable health systems, and advancing agricultural reform and food 
security are also important concerns that the Development PCC should 
address.
    Going forward, development strategy for rebuilding countries, 
including economic engagement in strategic regions, should be a new 
focus for the Development PCC. In this context, if confirmed, I would 
like to see how we can use our total economic engagement approach--
private sector trade and investment and public sector assistance and 
policy dialog--to promote development in these areas.
    As for incorporating environmental concerns into U.S. development 
policy, we are doing this in a number of ways, and I expect the 
Development PCC, which includes senior representation from State's 
environment bureau (the Bureau of Oceans and International 
Environmental and Scientific Affairs (OES)), to do so on an ongoing 
basis. U.S. assistance agencies as a matter of policy adhere to 
international best practices in ensuring environmental and social 
concerns are incorporated into U.S. development efforts. Certainly, any 
development efforts we undertake must be sustainable.

    Question. U.N. Issues: Under Secretary Sheeran took a strong 
interest in issues related to the United Nations, not only serving on a 
high-level reform panel but ultimately being named as the new Executive 
Director of the U.N. World Food Program. Do you intend to maintain a 
similar focus on U.N. issues? Would you continue to support and 
champion similar U.N. reform issues, especially those highlighted in 
the 2006 Report of the High-Level Panel on Systemwide Coherence?

    Answer. U.N. reform is a high priority for the administration. 
Therefore there are many elements of the Department of State working on 
this issue. If confirmed, I will be working closely with my colleagues 
to advance this process. Former Under Secretary Sheeran served as a 
member of the High-Level Panel on Systemwide Coherence in her personal 
capacity. As part of the State Department's work on development issues, 
if confirmed I will continue to focus on assuring that aid is cost 
effective and goes to the people to whom it is targeted. The Bureau of 
International Organization Affairs (IO) has the lead on following up 
the High-Level Panel Report, and the Secretary General is consulting 
with member states on next steps. If confirmed, I will be working 
closely with all my colleagues to continue to ensure that our 
participation in multilateral development assistance through the U.N. 
system is effective, accountable, and consistent with our 
transformational diplomacy goals.

    Question. Millennium Challenge Corporation (MCC): The Under 
Secretary is the Secretary's alternate on the MCC Board and 
traditionally attends all board meetings. Under Secretary Sheeran 
became the principal liaison between the MCC and State Department. Do 
you plan to maintain that role? What are some areas in which you would 
like to see MCC focus more attention or put in place policy changes? 
Are you concerned about the focus of the MCC's compacts? What do you 
see as the relationship between MCC and USAID?

    Answer. If confirmed, I plan to maintain the role that the previous 
Under Secretary played with respect to the Millennium Challenge 
Corporation. As you know, the MCC is run by a CEO, who reports to a 
Board of Directors, chaired by the Secretary of State. Board meetings 
are usually held quarterly, with each board member accompanied and 
advised by a ``plus one'' who follows MCC matters closely. If 
confirmed, I will be the ``plus one'' for the State Department.
    In terms of focus areas, I hope to work with MCC to deepen 
coordination and collaboration with respect to our dialog with all 
eligible and Compact partner countries about their policy performance. 
The MCC board highlighted that MCC should continue to stress that 
eligibility for MCC funding and ongoing engagement are conditional on 
countries' maintaining and improving performance.
    As to the focus of MCC Compacts, it is important that MCC stand by 
its core principle of country ownership. MCC should pursue work in 
areas targeted by host governments in meaningful and comprehensive 
consultation with their civil societies, while also ensuring that 
country-initiated proposals stand up to rigorous due diligence, 
economic rates of return analysis, environmental and social impact 
assessments, and--above all--are focused on reducing poverty through 
economic growth. Based on decades of development experience, we have 
learned that country ownership is critical to effective, sustainable 
development.
    MCC and USAID have worked well together. In the case of Threshold 
programs, USAID is currently the lead implementing agency for 13 of 
MCC's 20 Threshold programs and leading the design of all but one of 
the others. In the case of Compacts, targeted State Department and 
USAID assistance programs complement and help to augment the impact of 
MCC's sizable investments. The strategic budget allocation process led 
by the Director of Foreign Assistance is working to better integrate 
development principles in, and promote coherence of, U.S. foreign 
assistance. The Director of Foreign Assistance and his or her staff 
review MCC programs and plans to ensure they complement and/or support 
our other foreign assistance objectives to achieve our transformational 
diplomacy goals.

    Question. The Extractive Industries Transparency Initiative (EITI) 
was formed to ensure that the necessary preconditions are in place to 
translate large revenues from extractive industries into economic 
growth and poverty reduction. EITI supports improved governance in 
resource-rich countries through the verification and full publication 
of company payments and government revenues from oil, gas, and mining; 
26 of 53 resource-rich countries have either committed to or are 
actively implementing EITI in Africa, Asia, Europe, and South America. 
Today, however, the initiative is at a critical point to advance to the 
next stage of implementation and U.S. Government support is crucial to 
ensure the continued growth and success of EITI. If confirmed, what 
diplomatic and bilateral measures would you take to promote and 
strengthen EITI? What additional steps would you take to ensure 
transparency in the oil and gas sectors, a critical component of U.S. 
energy security?

    Answer. If confirmed, I will continue to promote active U.S. 
Government participation in the Extractive Industries Transparency 
Initiative (EITI) as part of our comprehensive efforts to fight 
corruption, promote transparency, and enhance international energy 
security. The U.S. Government also supports bilateral anticorruption 
efforts, many of them carried out by USAID; multilateral efforts, 
including through the World Bank and INIF; and international advocacy, 
such as through the annual G-8 summits. At the recent G-8 summit in 
Heiligendamm, G-8 leaders committed to provide continuous assistance to 
strengthen EITI, invited all stakeholders to provide support for the 
implementation of the EITI, and encouraged further countries to 
participate in EITI.
    Through its seat on the EITI Board, the U.S. Government is working 
to assist those countries pledging to implement EITI to meet their 
commitments, and to encourage nations with prominent international 
hydrocarbon activities, like China and Brazil, to join EITI as 
supporters.
    With respect to additional steps to ensure transparency in the oil 
and gas sectors, if confirmed, I will work to further strengthen the 
coordination among our efforts to foster international energy security, 
our active support for oil revenue transparency through EITI, and the 
comprehensive work by the U.S. Government to combat corruption and 
promote good governance.


                              NOMINATIONS

                              ----------                              


                         TUESDAY, JUNE 19, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
Cook, Frederick B., to be Ambassador to the Central African 
        Republic
Garvelink, William John, to be Ambassador to the Democratic 
        Republic of the Congo
Green, Mark, to be Ambassador to the United Republic of 
        Tanzania
Nesbitt, Wanda. L., to be Ambassador to the Republic of Cote 
        d'Ivoire
Nolan, Robert B., to be Ambassador to the Kingdom of Lesotho
Parker, Maurice S., to be Ambassador to the Kingdom of 
        Swaziland
Perry, June Carter, to be Ambassador to the Republic of Sierra 
        Leone
                              ----------                              

    The committee met, pursuant to notice, at 10:06 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Russell D. 
Feingold presiding.
    Present: Senators Feingold, Cardin, and Sununu.

         OPENING STATEMENT OF HON. RUSSELL D. FEINGOLD,
                  U.S. SENATOR FROM WISCONSIN

    Senator Feingold. I'll call this hearing to order.
    And I'd like to begin by thanking our seven nominees for 
being here today. But more importantly, for your many years of 
service, and for your willingness to work in some of the more 
demanding positions in the U.S. Government and in some of the 
most challenging posts in the world.
    The countries to which you have been appointed cover all 
four of sub-Saharan Africa's distinctive regions: East, West, 
Southern and Central, and are unique in the challenges and 
opportunities they currently face.
    If you are confirmed, I look forward to working closely 
with you in overcoming these challenges and developing the 
potential of these countries in an increasingly important part 
of the world.
    I would also like to offer a warm welcome to your families 
and friends, whose ongoing support will be necessary as you set 
off on these new positions.
    Given the large number of nominees this morning, I will 
forego an opening statement to allow each of you to present 
your qualifications, and objectives for your appointed position 
as an Ambassador of the United States.
    I'd like to express my sincere gratitude for your 
willingness to serve this country, and emphasize the 
significance of the role each of you--if confirmed--will play 
in U.S. foreign policy. I believe that diplomacy is a crucial 
element in America's struggle to combat extremism, defend human 
rights, and promote stability and prosperity abroad, in a way 
that is consistent with our values and our national--and 
global--security.
    At this time, I'd like to just see if my friend and 
colleague, Senator Cardin, has anything he would like to add.
    Senator Cardin. Well, Mr. Chairman, let me just also join 
you in welcoming our distinguished guests today, who all have 
distinguished careers in public service, and are prepared to 
serve in an extremely important part of the world for the 
United States. And I look forward to their testimony, and 
again, I welcome them to our committee.
    Senator Feingold. Thank you, Senator Cardin.
    At this time, I'd like to invite our first panel of 
nominees to present your statements, after which I look forward 
to engaging each of you in a brief discussion about your 
qualifications and expectations going into these important 
positions.
    Thank you, again, for being here, and for all that you do 
for our country.
    Congressman Green, it's a pleasure to welcome a fellow 
Wisconsinite and, I might add, a graduate of my older 
daughter's alma mater, University of Wisconsin Eau Claire. You 
are welcome to begin.

 STATEMENT OF HON. MARK GREEN, NOMINEE TO BE AMBASSADOR TO THE 
                  UNITED REPUBLIC OF TANZANIA

    Mr. Green. Thank you, Mr. Chairman.
    Mr. Chairman, and members of the Committee, I am honored to 
be here with you today.
    Please let me begin by thanking you, Mr. Chairman--and the 
Committee--for holding this hearing, and for inviting me to 
appear. Of course, I am grateful to the President, and to 
Secretary Rice, for the trust and confidence that they've 
placed in me as nominee for Ambassador to the United Republic 
of Tanzania.
    Mr. Chairman, I would also like to take a moment to pay 
tribute to the commitment that you have personally shown to 
American policy in East Africa. As a constituent, I'm proud of 
the many trips that you've made to the region, and I'm proud of 
the fact that you've taken the time to meet with State 
Department officers in the field for their on-the-ground 
assessments.
    This region is facing momentous times, and it needs leaders 
back here who honestly care about its future. Mr. Chairman, I 
share your great interest in this part of the world. I've been 
active in foreign policy matters for some years, and I've had 
an especially strong interest in Africa. I've had the privilege 
of serving for three terms on the House International Relations 
Committee. I was a member of the subcommittees dealing with 
Africa and human rights in both the 108th and 109th Congress. I 
played a leading role in crafting the Millennium Challenge 
Account--that historic commitment to invest in developing 
nations that are pursuing political and economic reforms. I 
played an important role in crafting the Global Access to HIV/
AIDS Prevention, Awareness and Treatment Act, and the United 
States Leadership Against HIV/AIDS, Tuberculosis and Malaria 
Act.
    I worked on legislation covering critically important 
policy areas like human trafficking. Several years ago, I 
worked with the National Democratic Institute, the 
International Republican Institute, and the State Department as 
an election observer in Kenya. Before that--along with 
Congressman Earl Pomeroy, I traveled to West Africa, with the 
Academy for Educational Development, Oxfam and Save the 
Children, to evaluate programs related to women's health and 
education in Africa.
    In many ways, though, my interest in East Africa goes back 
much further. Twenty years ago, my wife Sue--and Sue is with me 
here today, she's the cheering section--Sue and I had the great 
honor as serving as high school teachers in Kenya through a 
program called World Teach Project, which was based at Harvard 
University. Though we spent most of our time in Kenya, we had 
the chance to travel in the area of Western Tanzania--rural 
areas, as well. We lived in a small village setting, and taught 
each day at a rural school, struggling to provide rudimentary 
educational opportunities. As teachers, we faced critical 
shortages, and watched our students' families struggle with 
malaria, and malnutrition-enhanced diseases. We, ourselves, 
were afflicted with malaria and typhoid during our time there.
    In short, we saw first-hand in Kenya, some of the 
challenges that likewise face Tanzania. Just as importantly, 
like you, we saw the strength and the resilience of the people 
in that region. I know that we have to work closely with 
Tanzania to help it realize its enormous potential. That means 
working through the President's Emergency Plan for AIDS 
Relief--to lead efforts to fight the spread of AIDS, and to 
provide treatment for those who are infected. It also means 
working with government leaders and NGOs, to bring new 
development opportunities to all parts of the nation.
    As one of the original authors of the Millennium Challenge 
Act, I look forward to the opportunity to work with the 
Tanzanian Government, as it hopes to conclude an MCC compact, 
which would be the largest compact to date. I hope that our 
experience in Tanzania will serve to help us back here build on 
the MCA, and make this historic initiative stronger and even 
more effective.
    Mr. Chairman, I know that our dealings with the Government 
of Tanzania must be approached in a regional context. Tanzania 
is a crucial partner in our efforts to stop the spread of 
radicalism, extremism, and terrorism. We must work with our 
regional partners to provide real economic and educational 
opportunities for the families there. Hope and opportunity are 
the best antidotes to extremism.
    In addition to its work against terrorism, Tanzania's also 
played a constructive role in resolving regional conflicts. Its 
efforts to serve as an honest broker in peace negotiations are 
making an important contribution to East African development.
    Mr. Chairman, if confirmed, it will be an honor to serve as 
Ambassador to the United Republic of Tanzania. I promise to 
work relentlessly to strengthen and improve United States/
Tanzanian relations, as we push toward our common goals. I'm 
confident that I possess the skills and the experience 
necessary to lead our embassy in Dar Es Salaam, and to 
represent and advocate for the interests of the United States 
in Tanzania and in that region.
    Thank you, again, Mr. Chairman, and I'd be pleased to 
respond to any questions that you might have.
    [The prepared statement of Mr. Green follows:]

         Prepared Statement of Hon. Mark Green, Nominee to be 
             Ambassador to the United Republic of Tanzania

    Mr. Chairman and members of the committee, I am honored to appear 
before you today. Please let me begin by thanking you, Mr. Chairman, 
and the Foreign Relations Committee, for holding this hearing and 
inviting me to appear. And, of course, I'm grateful to the President 
and to Secretary Rice for the trust and confidence they have placed in 
me as the nominee for Ambassador to the United Republic of Tanzania.
    Mr. Chairman, I would also like to take this opportunity to pay 
tribute to the commitment you have personally shown to American policy 
regarding East Africa. As a constituent, I know you have made many 
trips to the region, and you have made it a priority to meet with State 
Department officers in the field for their on-the-ground assessments of 
the situation.
    Mr. Chairman, I share your great interest in this part of the 
world. I have been active in foreign policy matters for some years, and 
I have had an especially strong interest in our Government's policies 
toward Africa. I had the privilege of serving on the House 
International Relations Committee in the 107th, 108th, and 109th 
Congresses, and was a member of the subcommittees dealing with Africa 
and human rights in both the 108th and 109th Congress.
    I played a leading role in crafting the Millennium Challenge Act, 
America's historic commitment to invest in developing nations that are 
pursuing political and economic reforms. I played an important role in 
crafting the Global Access to HIV/AIDS Prevention, Awareness and 
Treatment Act of 2001, and the United States Leadership Against HIV/
AIDS, Tuberculosis, and Malaria Act. I've worked on legislation 
covering critically important policy areas like international terrorism 
and human trafficking.
    Several years ago, I worked with the National Democratic Institute, 
the International Republican Institute, and the State Department as an 
election observer in Kenya. Before that, along with Congressman Earl 
Pomeroy, I traveled to West Africa with the Academy for Educational 
Development, Oxfam, and Save the Children to look at and work on 
programs related to women's health and education in Africa. I have also 
traveled with the International Relations Committee to South Africa, 
Namibia, and Lesotho.
    In many ways, though, my interest in East Africa goes back much 
further. Twenty years ago, my wife, Susan, and I served as high school 
teachers in Kenya through World Teach Project, a development 
organization based at the Phillips Brooks House of Harvard University. 
Though we spent most of our time in Kenya, we had the chance to travel 
the rural areas in western Tanzania as well.
    We lived in a small village setting, and taught each day at a rural 
school struggling to provide rudimentary educational opportunities for 
its people. As teachers, we faced critical material shortages, and 
watched our students' families struggle with malaria and malnutrition-
enhanced diseases. We ourselves were afflicted with malaria and typhoid 
during our time there. In short, we saw firsthand in Kenya some of the 
challenges that likewise face Tanzania. Just as importantly, we saw the 
strength and resilience of the people in that region.
    I know that the United States has an important role to play in 
working with Tanzania to help it realize its enormous potential. That 
means working through the President's Emergency Plan for AIDS Relief 
(PEPFAR) to lead efforts to fight the spread of AIDS and to provide 
treatment for those who are infected. It also means working with 
government leaders and NGOs to help bring new development opportunities 
to all parts of that nation.
    As one of the original authors of the Millennium Challenge Act 
(MCA), I look forward to the opportunity to work with the Tanzanian 
Government as it strives to move forward from its status as a threshold 
nation to enter into an MCC compact. An important part of this progress 
will be the continuation of Tanzania's efforts to liberalize its 
economy along market lines. I hope that our experience in Tanzania will 
serve to help us build on the MCA and make President Bush's historic 
initiative even stronger and more effective.
    Mr. Chairman, I also know that our dealings with the Government of 
Tanzania must be approached in a regional context as well. Tanzania is 
a crucial partner in our efforts to stop the spread of radicalism and 
terrorism. I hope to broaden our efforts at counterterrorism in 
Tanzania and throughout this volatile region. That includes working 
with our regional partners to provide real economic and educational 
opportunities for families there. Hope and opportunity are the best 
antidotes to extremism.
    In addition to its work in counterterrorism, Tanzania has also 
played a constructive role in resolving regional conflicts. Its efforts 
to serve as an honest broker in peace negotiations are making an 
important contribution to East African development.
    Mr. Chairman, if confirmed, it will be an honor to serve as 
Ambassador to the United Republic of Tanzania. I promise to work 
relentlessly to strengthen and improve United States-United Republic of 
Tanzania relations as we push toward our common goals. I am confident 
that I possess these skills necessary to lead our Embassy in Dar es 
Salaam and to represent and advocate for the interests of the United 
States in Tanzania.
    I would be pleased to respond to any questions you might have.

    Senator Feingold. Thank you, Congressman Green, and again, 
I welcome all of you, but, we're particularly proud in 
Wisconsin of this appointment. The Congressman and I had an 
excellent working relationship when I was a Member of the 
House, and this is a very important post.
    I've long thought it was a very important post, given my 
travels and work in this area, and it turns out that 
Congressman Green--as he's indicated--has both a personal and a 
continuing professional interest in this region that is very 
genuine. So, somebody back home asked me, ``What does Mark 
Green know about this? And why is he appointed?'' And I said, 
``Actually, he knows quite a bit. And, frankly, is far more 
qualified for this post than the last two who were approved for 
this particular post.'' So, I think this is a wise nomination 
on the part of the administration, and I congratulate you.
    Our ranking member, Senator Sununu, has joined us. And I 
will now move on to Mr. Maurice Parker, Ambassador to the 
Kingdom of Swaziland.

STATEMENT OF MAURICE S. PARKER, NOMINEE TO BE AMBASSADOR TO THE 
                      KINGDOM OF SWAZILAND

    Mr. Parker. Mr. Chairman and members of the committee, it 
is an honor to appear before you as the President's nominee, as 
Ambassador to the Kingdom of Swaziland. I sincerely appreciate 
the confidence the President and Secretary Rice have placed in 
me.
    My wife, Connie, and son, Jeremy, who are here today, have 
helped me represent the interests of the United States for 
nearly 33 years.
    My Foreign Service career has been diverse. I have 
protected American citizens abroad, and secured America's 
borders. I've combated terrorism, justly enforced our 
immigration law, enhanced U.S. commercial interests, advocated 
for human rights, and provided disaster relief.
    Happily, I am no stranger to the African continent. In 
college, I participated in a Study Abroad program at the 
University of Guyana at Lagon. Years later, I served as Council 
General in Lagos, Nigeria, during that nation's arduous 
transition to civilian rule.
    United States interests and activities in Swaziland 
currently emphasize three broad areas: Assisting the Government 
and people of Swaziland in their fight against the HIV/AIDS 
pandemic, developing democratic institutions, and fostering 
economic growth.
    The Swazi governmental structure restrains these basic 
goals. The nation is led by a nearly absolute monarchy, which 
exercises powerful influence over the bicameral parliamentary 
system. The current judiciary remains untested.
    Recently, Swaziland has made progress in the 
democratization process, by signing a constitution into law in 
July of 2005. Mr. Chairman, if confirmed, one of my highest 
priorities will be encouraging responsive, inclusive, and 
democratic government for all of the people of Swaziland, 
regardless of gender or social station.
    Swaziland's HIV/AIDS rate is the highest in the world. Mr. 
Chairman, if confirmed, another major priority will be to help 
stem the Swaziland's alarming HIV/AIDS pandemic through the 
President's Emergency Program for AIDS Relief.
    Vital employment and economic opportunities are key to 
maintaining regional and domestic economic stability. If 
confirmed, I will also continue to coordinate United States 
efforts with the Swazi Government, to address issues related to 
the African Growth and Opportunities Act.
    Mr. Chairman, the United States seeks a democratic, stable, 
and healthy Swaziland. Should I be confirmed, I look forward to 
the privilege of leading a U.S. Government multiagency approach 
toward achieving humanitarian, democratic, and economic goals 
in Swaziland. Thank you for inviting me to appear before you 
today. I will be happy to address any questions you may have.
    [The prepared statement of Mr. Parker follows:]

        Prepared Statement of Maurice S. Parker, Nominee to be 
                 Ambassador to the Kingdom of Swaziland

    Mr. Chairman and members of the committee, it is an honor for me to 
appear before you as the President's nominee to serve as Ambassador to 
the Kingdom of Swaziland. I sincerely appreciate the confidence the 
President and Secretary Rice have placed in me by putting forth my name 
for your consideration.
    My wife, Connie, who is here today, has been part of my Foreign 
Service journey, helping me represent the interests of the United 
States for nearly 33 years, in six countries: Guyana, Spain (twice), 
Colombia (twice), Scotland, Mexico (twice), and Nigeria. During my 
career, I have protected American citizens abroad and secured America's 
borders; combated terrorism and narcotics trafficking; justly enforced 
our immigration law; enhanced U.S. commercial interests; advocated for 
human rights; and provided disaster relief. I have served in leadership 
positions as Principal Officer at the U.S. Consulate General in Ciudad 
Juarez, Mexico--one of the largest Foreign Service posts in the Western 
Hemisphere; Consul General at Embassy Lagos; and Principal Officer at 
the United States Consulate General in Barcelona, where I 
simultaneously served as United States Representative to the nation of 
Andorra. Additionally, I have had the pleasure of serving at the White 
House as Director of Consular and International Programs on the 
Homeland Security Council.
    My Foreign Service career has been diverse, and I am no stranger to 
the African continent. As an undergraduate at the University of 
California, Berkeley, I participated in a study abroad program at the 
University of Ghana at Legon. Years later, as previously stated, I 
served as Consul General in Lagos, Nigeria, during that nation's 
arduous transition to civilian rule. Our Nigerian experience inspired 
our son, Jeremy, to join the Peace Corps and serve 2\1/2\ years in 
Niger. I cite these family milestones, because I believe they are an 
important part of my preparation for the leadership and management 
challenges I hope to undertake in Swaziland.
    An overarching United States policy goal in Africa is the 
integration of Africa into the global economy by promoting economic 
development, democracy, and respect for human rights. Within this 
context, the United States has clear and attainable foreign policy 
goals in Swaziland. United States' interests and activities in 
Swaziland currently emphasize assisting the Government and people of 
Swaziland in effectively combating the HIV/AIDS pandemic; promoting the 
development of democratic institutions in order to protect the human 
rights of its people; and fostering economic growth by instituting 
economic reform to generate employment and improve the local investment 
climate.
    The Swazi Governmental structure restrains these basic goals. The 
nation is led by a nearly absolute monarchy, which exercises powerful 
influence over the bicameral parliamentary legislative system and local 
authority of the regional three chiefs. The current judiciary remains 
untested and the media is self-censoring.
    This governmental structure has slowed the nation's march toward 
democracy. Nevertheless, Swaziland has made recent progress in the 
democratization process by signing a constitution into law in July 
2005. The constitution took effect on February 8, 2006. Mr. Chairman, 
if confirmed, one of my highest priorities will be fostering a more 
responsive, inclusive, and democratic government for the people of 
Swaziland, regardless of gender or social station.
    At 33.4 percent, Swaziland's HIV/AIDS prevalence rate is the 
highest in the world. United States-Swazi Government cooperation in 
fighting this pandemic has been a bright spot in our diplomatic 
relations. Several sectors of the Government of the Kingdom of 
Swaziland are dedicated to fighting HIV/AIDS following the King's 
declaration of a national HIV/AIDS emergency in 1999. The United States 
has provided humanitarian assistance to Swaziland to combat the scourge 
of AIDS, through the President's Emergency Plan for AIDS Relief. Mr. 
Chairman, if confirmed, a major priority will be to help Swaziland stem 
the alarming tide of its HIV/AIDS pandemic.
    Increased employment and economic opportunities for this developing 
country are vital to maintaining regional and domestic economic 
stability. Other than its admirable people, Swaziland has not been 
blessed with vast reserves of natural resources. The local unemployment 
rate stands at approximately 40 percent. Despite these devastating 
economic conditions, the GKOS has been slow to take advantage of trade 
opportunities and regional programs to promote business-friendly 
economic reforms and to utilize the technical assistance resources 
available from USAID's regional Trade Hub. If confirmed, I will 
continue to coordinate United States' efforts with the Swazi Government 
to address issues related to AGOA and to provide credit and business 
training to Swazi small and medium enterprises.
    Mr. Chairman, The United States seeks a peaceful, democratic, and 
stable Swaziland with a healthy population. United States-Swazi 
relations have been strengthened in recent years through the United 
States Government's commitment to
humanitarian assistance programs. The United States' effort is 
multiagency, combining the talents and resources of the Department of 
State, USAID, the Centers for Disease Control and Prevention, the Peace 
Corps, the Department of Defense, and the Department of Labor. Should I 
be confirmed, I look forward to the privilege of leading a cooperative 
team approach to the pursuit of humanitarian, democratic, and economic 
goals in Swaziland.
    Thank you for inviting me to appear before you today. I would be 
happy to address any questions you may have.

    Senator Feingold. Thank you very much, Mr. Parker.
    Now we turn to Robert B. Nolan, to be the Ambassador to the 
Kingdom of Lesotho.

 STATEMENT OF ROBERT B. NOLAN, NOMINEE TO BE AMBASSADOR TO THE 
                       KINGDOM OF LESOTHO

    Mr. Nolan. Mr. Chairman, and members of the committee. I am 
honored to appear before you today. I am grateful for the trust 
placed in me by President Bush and Secretary Rice in nominating 
me to serve as the next United States Ambassador to the Kingdom 
of Lesotho. If confirmed by the Senate, I look forward to 
working closely with the committee, and others in Congress to 
advance United States interests in Lesotho.
    Mr. Chairman, I would like to acknowledge my wife, Nancy 
Wilson Nolan, as well as my daughter, Meghan, and my friend, 
Cheryl Hodge, who are here with me today. Their support, and 
that of my other children,Ryan and Colleen, and my mother, Mary 
Nolan, are a source of great strength to me.
    Since joining the Foreign Service 31 years ago, I have been 
responsible for handling a variety of management and policy 
issues. I came to the Foreign Service at the relatively young 
age of 24, in large part because of my experiences living 
overseas with my father, Bernard Nolan, also a Foreign Service 
officer, who died in Northern Yemen in 1973.
    The United States has a wonderful story to tell concerning 
the significant levels of assistance being provided to Lesotho, 
a country that is cooperating with us on many regional and 
global issues. Our assistance will help to reverse the 
devastation of the HIV/AIDS pandemic, reduce poverty, and 
achieve sustainable economic growth. It would be an honor for 
me to be a part of this American story.
    Mr. Chairman, Lesotho held in February its second 
parliamentary elections, since a troubled election in 1998 led 
to a Southern African Development Community intervention to 
restore order. International and national observers declared 
the February election peaceful and free. Parliament was seated, 
and a new government chosen.
    Lesotho has obtained much success from the advantages 
provided by the African Growth and Opportunity Act. Industries 
were attracted by sound investment policies, creating 40,000 
jobs currently, and making Lesotho the largest African exporter 
of apparel to the United States. Lesotho anticipates the 
completion of a compact with the Millennium Challenge 
Corporation in the near future. The compact is currently being 
considered for approval by the MCC Board. This investment of 
more than $300 million for the water, health, and private 
enterprise sectors will continue economic growth and poverty 
alleviation.
    Mr. Chairman, the news is not as good about public health. 
Lesotho faces an HIV/AIDS crisis with an infection rate of 
approximately 23 percent of the adult population, the world's 
third highest prevalence rate. The United States is 
transitioning from a regional platform of assistance, to a 
robust, in-country presence to manage $12.5 million in fiscal 
year 2007 for the President's Emergency Plan for AIDS relief in 
Lesotho.
    Mr. Chairman and members of the committee, if confirmed and 
privileged to serve as the United States Ambassador to Lesotho, 
I would look forward to working with you to further 
strengthening the bilateral relationship, and advance the 
mutual interests of our governments and citizens.
    Thank you for the opportunity to appear before you today, 
and I look forward to answering any questions.
    [The prepared statement of Mr. Nolan follows:]

         Prepared Statement of Robert B. Nolan, Nominee to be 
                  Ambassador to the Kingdom of Lesotho

    Mr. Chairman and members of the committee, I am honored to appear 
before you today. I am grateful for the trust placed in me by President 
Bush and Secretary Rice in nominating me to serve as the next United 
States Ambassador to the Kingdom of Lesotho. If confirmed by the 
Senate, I look forward to working closely with the committee and others 
in Congress to advance United States interests in Lesotho.
    Mr. Chairman, I would like to acknowledge my wife, Nancy Wilson 
Nolan, as well as my daughter, Meghan, and my close friend, Cheryl 
Hodge, who are here today. Their support and that of my other children, 
Ryan and Colleen, and my mother, Mary Nolan, are a source of great 
strength to me.
    Since joining the Foreign Service 31 years ago, I have been 
responsible for handling a variety of management and policy issues, 
including most recently, far-reaching reforms of the Foreign Service 
evaluation, promotion, and assignment systems. I came to the Foreign 
Service at the relatively young age of 24, in large part because of my 
experiences living overseas with my father, Bernard Nolan, also a 
Foreign Service officer, who died in Northern Yemen in 1973.
    If confirmed by the Senate, I will be totally committed to 
promoting even closer bilateral ties and cooperation between the United 
States and the Kingdom of Lesotho. I will draw upon my experience 
gained from my previous African assignments in Guinea and Madagascar, 
as well as living in Kenya and Sierra Leone as a teenager. My years of 
management experience in Washington, DC, and overseas will help me to 
be a careful steward of the resources which United States taxpayers 
have provided to help the people of Lesotho.
    The United States has a wonderful story to tell concerning the 
significant levels of assistance being provided to Lesotho, a country 
that is cooperating with us on many regional and global issues. 
Lesotho, the current chair of the Southern African Development 
Community (SADC), has demonstrated growing regional leadership on 
issues such as trade and democratization. Lesotho supports 
anticorruption policies, counterterrorism, and women's equality. Our 
assistance will help to reverse the devastation of the HIV/AIDS 
pandemic, reduce poverty, and achieve sustainable economic growth. It 
would be an honor for me to be part of this American story.
    Mr. Chairman, our relationship with Lesotho is strong. If confirmed 
as Ambassador to the Kingdom of Lesotho, I will have the privilege of 
serving in an African country that, though still poor and with many 
challenges, has chosen to pursue democratic government and economic 
development, to the benefit of all citizens. Lesotho has focused its 
efforts on developing its economy, improving the health and security of 
its citizens, and maintaining and strengthening its democracy. Lesotho 
is a clear, constructive voice in southern Africa, and is a progressive 
leader within the Southern African Development Community (SADC). It is 
a worthy partner, providing an important foundation for successful 
efforts to protect United States' national interests and security in 
this region of southern Africa.
    Mr. Chairman, Lesotho held, in February, its second parliamentary 
election since a troubled election in 1998 led to a SADC intervention 
to restore order. International and national observers declared the 
February election peaceful and free. Parliament was seated and a new 
government chosen. Disputes remain over the allocation of legislative 
seats, but are being addressed within the country's legal system. The 
governing and opposition parties have accepted mediation efforts from 
SADC aimed at resolving disagreements concerning the method to ensure 
broad opposition representation in parliament. Despite the progress in 
institutionalizing democracy, Lesotho still needs and welcomes help in 
developing its political parties, civil society, and governmental 
institutions. If confirmed, I would seek additional opportunities to 
help in these areas. Lesotho also suffers from chronic drought, and I 
will endeavor to maintain our leading role in providing food assistance 
and undertaking efforts to improve food security.
    Lesotho has attained much success from the advantages provided by 
the African Growth and Opportunity Act. Industries were attracted by 
sound investment policies, creating 40,000 jobs currently, and making 
Lesotho the largest African exporter of apparel to the United States. 
And as this workforce is predominantly female, the apparel 
manufacturing boom is empowering women. Many major United States 
companies source apparel in Lesotho, based on competitive wages and a 
sound and ethical labor environment.
    Mr. Chairman, Lesotho's democratic Government and its record of 
good governance and sound fiscal and monetary policies helped it 
qualify for participation in the Millennium Challenge Account. After 
several years of hard work, the Government submitted its compact 
proposal for review. Now, Lesotho anticipates the completion of a 
compact with the Millennium Challenge Corporation in the near future; 
currently the MCC Board is considering the compact for approval. The 
investment of more than $300 million will spur the economic growth and 
poverty alleviation started in Lesotho by the African Growth and 
Opportunity Act.
    If confirmed by the Senate, I will have the responsibility of 
working with the Government of Lesotho and the Millennium Challenge 
Corporation to implement and carry out the compact.
    Mr. Chairman, the news is not as good about public health. Lesotho 
faces an HIV/AIDS crisis, with an infection rate of approximately 23 
percent of the adult population--the world's third highest prevalence 
rate. The Government of Lesotho's response has quickened, as has our 
assistance. We are transitioning from a regional platform of assistance 
to a robust in-country presence to manage $12.5 million in fiscal year 
2007 approved for the President's Emergency Plan for AIDS Relief 
program in Lesotho. As the largest contributor worldwide to the Global 
Fund, we are also working with other donors to ensure efficient use of 
these multilateral funds to fight this disease in Lesotho. We remain 
committed to supporting the fight against the HIV/AIDS pandemic, and 
related challenges associated with widespread tuberculosis, and I would 
work to continue the excellent work of my predecessors.
    Mr. Chairman and members of the committee, if confirmed and 
privileged to serve as the United States Ambassador to Lesotho, I would 
look forward to working with you to further strengthen the bilateral 
relationship and advance the mutual interests of our governments and 
citizens.
    Thank you for the opportunity to appear before you today.

    Senator Feingold. Thank you very much, Mr. Nolan.
    And now we'll turn to William John Garvelink to be 
Ambassador to the Democratic Republic of Congo.

 STATEMENT OF WILLIAM JOHN GARVELINK, NOMINEE TO BE AMBASSADOR 
            TO THE DEMOCRATIC REPUBLIC OF THE CONGO

    Mr. Garvelink. Mr. Chairman and members of the Committee, 
it is an honor to appear before you today.
    I would like to thank President Bush and Secretary Rice for 
the trust and confidence they have placed in me as the nominee 
for the Ambassador to the Democratic Republic of Congo. I am 
honored by the prospects of this assignment, and the challenges 
and opportunities it presents.
    I am not alone here today. My wife, Linda, is present. 
Without her love and support, I would not have been able to 
undertake the Foreign Service career I have pursued for the 
past 28 years.
    Over my career in USAID, I served in Bolivia, and as the 
Mission Director in Eritrea. I served as the Deputy Director of 
USAID's Office of Foreign Disaster Assistance, and in the 
Africa section of the State Department's Bureau for Population, 
Refugees, and Migration.
    Currently, I am the Senior Deputy Assistant Administrator 
in USAID's Bureau for Democracy Conflict and Humanitarian 
Assistance. My work, mostly in Africa since the late 1980s, has 
focused on humanitarian response, and post-conflict assistance 
programs. I began in Southern Sudan, Ethiopia, and Mozambique 
in the late 1980s, I established the United States Humanitarian 
Assistance Program in Mogadishu in the early 1990s, and 
accompanied United States forces as they moved from Mogadishu 
into Southern Somalia. I led the first humanitarian assistance 
assessments in Angola, before there was a United States 
diplomatic presence in that country. I led disaster assistance 
response teams in the mid- and late-1990s into Uganda, Rwanda, 
Burundi, Eastern Congo--then Zaire. I served in Eritrea during 
the conflict with Ethiopia.
    Today I oversee extensive emergency and post-conflict 
programs in East and Central Africa, including the Democratic 
Republic of Congo.
    The Democratic Republic of Congo stands at a historic point 
today. Last year's successful elections marked the culmination 
of efforts by various African nations, led by South Africa, and 
supported by the international community, to bring sustainable 
peace for the Congo. The United States contributed to this 
effort through our active engagement in the peace process, our 
support for the United Nations mission to the Congo, our 
considerable humanitarian assistance, and our leadership in 
fostering regional dialog among former belligerents through the 
United States-facilitated Tripartite Plus Joint Commission.
    This ravaged nation continues to suffer from violence, 
human rights abuses, hunger, disease, and endemic corruption, 
and the challenges remain staggering. Last year's elections did 
not miraculously unite all of the people of Congo, but they 
marked a crucial first step in a long process of recovery and 
development. For the Congolese and their international 
partners, the hard work begins now. We need to seize the great 
opportunity before us to restore the health of a nation that 
has suffered greatly--over 4 million deaths in the last decade.
    With elections behind us, and a new government in place, 
the work has finally begun to rebuild. To avoid squandering 
Congo's rare opportunity for change, we must continue to press 
the government to protect the rights of its citizens to engage 
in open political debate, and to guarantee the free speech 
rights of those who speak out against their government.
    We also wanted to bring an end to widespread impunity and 
corruption, by fostering the rule of law, and a more vigilant 
civil society.
    I think that it takes a trusted friend to deliver, 
effectively, the frightened messages the Congolese occasionally 
need to hear. Ambassador Meece has been such a trusted friend, 
and I hope to earn the same kind of trust from the Congolese 
leadership and the Congolese people, as I work to protect 
United States' citizens and interests. Elections launched the 
nation toward political stability, though we are well aware 
that lasting stability will require the establishment of 
functional and democratic state institutions to serve the needs 
of the people and encourage economic growth.
    If confirmed, my job will be to do everything I can to 
foster a culture of democracy, accountable government, human 
rights, and sustainable economic development. I plan to place 
primary emphasis on restoring the security and stability needed 
to rebuild the nation.
    Working with our Congolese and international partners, we 
need to invest in establishing--in the establishment of 
professional military, police, and border security forces. 
Working with other partners, we need to replicate, in the 
security sector, the unprecedented donor cooperation that 
enabled last year's elections to take place. I will work to 
enable Congolese security forces to end threat of armed groups 
who continue to prey on local citizens, and exploit Congo's 
resources.
    If confirmed as Ambassador to the Democratic Republic of 
Congo, I will continue United States efforts to support the new 
government at this time of great optimism and opportunity. The 
Congo's diplomatic, democratic development and its stability 
are essential for its citizens, and critical to the stability 
of much of Africa.
    I look forward to working closely with you, Mr. Chairman, 
and with the committee in this most important endeavor. Thank 
you, again, Chairman Feingold, and members of the committee for 
the opportunity to appear here before you today, I would 
welcome any questions that you might have.
    [The prepared statement of Mr. Garvelink follows:]

      Prepared Statement of William John Garvelink, Nominee to be 
           Ambassador to the Democratic Republic of the Congo

    Mr. Chairman, Ranking Member Sununu, and members of the committee, 
it is an honor to appear before you today. I would like to thank 
President Bush and Secretary Rice for the trust and confidence they 
have placed in me as the nominee for Ambassador to the Democratic 
Republic of Congo. I am honored by the prospect of this assignment and 
the challenges and opportunities it represents.
    I am not alone here today. My wife, Linda, is present. Without her 
love and support, I would not have been able to undertake the Foreign 
Service career I have pursued for the last 28 years.
    Over my career in USAID, I served in Bolivia and as the USAID 
Mission Director in Eritrea. Most of my career has focused on providing 
humanitarian assistance in conflict situations around the world. I 
served as the Deputy Director of USAID's Office of Foreign Disaster 
Assistance, and I served in the Africa section of the State 
Department's Bureau for Population, Refugees, and Migration. Currently 
I am the Senior Deputy Assistant Administrator in USAID's Bureau for 
Democracy, Conflict, and Humanitarian Assistance.
    My work, mostly in Africa since the late 1980s, has focused on 
humanitarian response and post-conflict assistance programs. I began in 
southern Sudan, Ethiopia, and Mozambique in the late 1980s. I 
established the United States humanitarian program in Mogadishu in the 
early 1990s and accompanied United States forces as they moved from 
Mogadishu into southern Somalia. I led the first humanitarian 
assistance assessments in Angola before there was a United States 
diplomatic presence in that country. I led Disaster Assistance Response 
Teams in the mid- and late-1990s into Uganda, Rwanda, Burundi, and 
eastern Congo, then Zaire. I served in Eritrea during the conflict with 
Ethiopia. Today I oversee extensive emergency and post-conflict 
programs in East and Central Africa, including the Democratic Republic 
of Congo.
    The Democratic Republic of Congo stands at an historic turning 
point. Last year's successful elections marked the culmination of the 
efforts of various African nations, led by South Africa, and supported 
by the international community, to bring sustainable peace to the 
Congo. The United States contributed to this success through our active 
engagement in the peace process, our support for the United Nations 
Organization Mission to the Congo (MONUC), our considerable 
humanitarian assistance, and our leadership in fostering regional 
dialog among former belligerents through the United States-facilitated 
Tripartite Plus Joint Commission. Under the leadership of Ambassador 
Roger Meece, U.S. Embassy Kinshasa has played a leading role in a truly 
international effort to promote peace in a troubled region and foster 
democracy and economic growth in a nation devastated by a decade of war 
following a generation of mismanagement and decline.
    This ravaged nation continues to suffer from violence, human rights 
abuses, hunger, disease, and endemic corruption--and the challenges 
remain staggering. Last year's elections did not miraculously unite all 
of the people of Congo, but they marked a crucial first step in a long 
process of recovery and development. For the Congolese and their 
international partners, the hard work begins now. We need to seize the 
great opportunity before us to restore the health of a nation that has 
suffered tragically--over 4 million deaths in the last decade. With 
elections behind us and a new government in place, the work has finally 
begun to rebuild. To avoid squandering Congo's rare opportunity for 
change, we must continue to press the Government to protect the right 
of its citizens to engage in open political debate and to guarantee the 
free speech rights of those who speak out against their government. We 
also want to bring an end to widespread impunity and corruption by 
fostering the rule of law and a more vigilant civil society. I think 
that it takes a trusted friend to deliver effectively the frank 
messages the Congolese occasionally need to hear. Ambassador Meece has 
been such a trusted friend. I hope to earn the same kind of trust from 
the Congolese leadership and the Congolese people as I work to protect 
United States citizens and interests.
    Elections launched the nation toward political stability, but we 
are well aware that lasting stability will require the establishment of 
functional and democratic state institutions to serve the needs of the 
people and encourage economic growth. If confirmed, my job will be to 
do everything I can to foster a culture of democracy, accountable 
governance, human rights, and sustainable economic development. I plan 
to place primary emphasis on restoring the security and stability 
needed to rebuild a nation. Working with our Congolese and 
international partners, we need to invest in the establishment of 
professional military, police, and border security forces. We have made 
a start with the training we are providing to military brigade staff 
officers, and we know that the rebuilding of professional security 
forces will take time. Working with other partners, we need to 
replicate in the security sector the unprecedented donor cooperation 
that enabled last year's elections to take place. I will work to help 
enable Congolese security forces to end the threat of armed groups who 
continue to prey on local civilians and exploit Congo's resources. 
Consistent with my own professional background, I will continue to 
place emphasis on assisting refugees and internally displaced persons 
to reestablish homes and restore livelihoods.
    If confirmed as Ambassador to the Democratic Republic of Congo, I 
will continue United States efforts to support the new government at 
this time of great optimism and opportunity. The Congo's democratic 
development and its stability are essential for its citizens and 
critical to the stability of much of Africa. I look forward to working 
closely with you, Mr. Chairman, and with the committee in this most 
important endeavor.
    Thank you again Chairman Feingold and the members of the committee 
for the opportunity to appear before you today. I would welcome any 
questions that you might have.

    Senator Feingold. Thank you, Mr. Garvelink. This is a 
particularly important post in which I have a lot of interest, 
so I look forward to pursuing some of these issues with you.
    I thank all of you.
    I'll now begin a 10-minute round for this panel, starting 
with Congressman Green.
    Congressman, how will you cooperate and coordinate your 
efforts with other United States agencies and officials 
operating in Tanzania?
    Mr. Green. Mr. Chairman, my view is that one has to operate 
as a team. We have to recognize that, in so many parts of a 
country like Tanzania, the face of our nation, the face of 
American foreign policy may be, for example, the Peace Corps 
volunteer working in that village, working in that clinic, or 
writing up at the chalkboard. It is extraordinarily important 
that our efforts are coordinated and supported amongst each of 
the programs and agencies that are present in Tanzania.
    So, I will work closely, by being in constant dialog with 
the leaders of each of these programs, and making sure that I 
am giving them the resources and the help that they need to be 
successful. Because if they don't succeed, then our overall 
mission doesn't succeed.
    Senator Feingold. Congressman, I visited Tanzania in the 
wake of the 2002 elections, and was concerned about the fraud 
and violence that had characterized the polls and by the 
subsequent opposition demonstrations, particularly in Zanzibar.
    At his confirmation hearing, current Ambassador Michael 
Retzer assured me that he would make it a United States 
priority to improve and defend the enfranchisement of all 
Tanzanian people.
    Unfortunately, the 2005 elections were, again, marred by 
widespread allegations of voting irregularities and 
intimidation of opposition groups. What steps will you take to 
raise respect for democratic principles and practices 
throughout Tanzania?
    Mr. Green. Thank you, Mr. Chairman. I think it's a very 
important question.
    The good news is that with the election of President 
Kikwete, we have seen the third successive, peaceful transfer 
in Tanzania, as a whole. But, as you pointed out, with respect 
to the elections, particularly in Zanzibar, there were 
widespread irregularities reported by the National Democratic 
Institute. The opposition party has refused to recognize the 
election results, and has said that unless there is negotiated 
settlement of some kind, they will boycott the elections in 
2010.
    President Kikwete has said that reconciliation in Zanzibar 
is his highest domestic priority. I happen to agree that, in 
many ways, unless there is some reconciliation, unless we 
strengthen the democratic process in Zanzibar, it will hold 
back the potential of Tanzania.
    On top of that, with respect to the nation as a whole, 
while there's certainly some very positive signs in democratic 
development, it's still true that the country is largely 
governed by one party. It's also true that an enormous amount 
of power is concentrated in the executive branch. And so I 
think for a democracy to be vibrant, we need to work with the 
administration to ensure that there are sufficient checks and 
balances.
    I'm aware of the project of the National Democratic 
Institute is undertaking right now in Tanzania. I support that, 
I think the early results and early reports are very 
interesting, and I think we should work with them, and work 
with the administration in Tanzania to try to implement some of 
the reforms and suggestions, so that democracy truly is vibrant 
and widespread.
    Senator Feingold. Thank you very much, Congressman.
    Mr. Parker, what programs and policies does the United 
States support in helping Swaziland address the AIDS pandemic? 
And are United States efforts complementary to Swaziland's 
national plan? And, if not, in what areas do they differ, and 
why?
    Mr. Parker. That is a very good question, Mr. Chairman.
    The U.S. Government has been very appreciative of the funds 
that have been made available through the President's Emergency 
Program for AIDS Relief. This very important program has 
infused almost $5 million--$7 million into USAID's budget. And, 
it is combined with USAID, the Center for Disease Control and 
Prevention, the U.S. Department of Defense, and the U.S. 
Department of Labor. Together, they have been able to develop 
extremely effective prevention, awareness, and treatment 
programs, and also palliative care for people who are suffering 
from this disease. And they are also working hard, particularly 
with the Peace Corps, to develop programs to destigmatize the 
scourge of AIDS, because many people are afraid to come forward 
and receive testing for fear of being an outcast.
    Fortunately, one of the great programs that we have--one of 
the great successes that the United States Government has 
experienced recently in Swaziland, has been the work that we 
have been able to do with the Swazi Government.
    In 1999, the King who--as I mentioned before is an absolute 
ruler--declared a national health emergency in Swaziland, due 
to the HIV/AIDS pandemic. As late as January of this year, the 
King made a national appeal to the public on television, 
requesting and advising all Swazi people to be tested for the 
AIDS virus. This was a major step forward.
    The Ministry of Health has been working very closely with 
our embassy, and we find that where--that this is probably the 
one area where the United States Government, and the Swazi 
Government, are working most closely together to ensure that we 
are able to fight this scourge of AIDS in Swaziland.
    Senator Feingold. Thank you, Mr. Parker.
    Mr. Nolan, most of your career has been spent in 
administrative positions. How have you prepared for the 
managerial and public leadership role you'll be expected to 
fulfill as Ambassador to Lesotho?
    Mr. Nolan. Thank you, Mr. Chairman, for that very important 
question.
    The United States has a wonderful story to tell in Lesotho. 
Currently, we are anticipating a Millennium Challenge Account 
compact, with approximately $362 million, which will result in 
building 96 clinics, 18 HIV/AIDS emergency testing units in 
hospitals, in addition to which two hospitals will be built. 
Also, we have $12.5 million through the President's Emergency 
Plan for AIDS Relief, being spent in Lesotho in fiscal year 
2007, and we have a wonderful Peace Corps volunteer program of 
approximately 100 volunteers.
    From my managerial, as Mr. Chairman, as you mentioned, I 
have an extensive experience background in management. I view 
an important part of my role--if I am confirmed in Lesotho--to 
be the management of considerable resources being devoted by 
the United States Government and our taxpayers. And my job 
there would be, in part, to ensure that the various agencies of 
the U.S. Government, we wisely and prudently spend the 
taxpayers money there.
    I would view my management experiences to be very helpful, 
and I would plan on being--if confirmed--a very hands-on 
manager. And I would view it as a wonderful opportunity to help 
the people and the Government of Lesotho.
    Senator Feingold. As I understand it, the majority of your 
embassy staff will be locals. What experience do you have 
working closely with Africans?
    Mr. Nolan. Mr. Chairman, as I mentioned in my introductory 
statement, my father was in the Foreign Service, and as a 
teenager I was fortunate enough to live in Kenya and Sierra 
Leone. And then my first two assignments in the Foreign Service 
were in Africa--in Conakry, Guinea and Antsiranana'i, 
Madagascar--both as the management officer. In both of those 
assignments, I supervised a considerable number of Foreign 
Service nationals in our embassies in both places. And, I take 
great--I believe our Foreign Service nationals are the backbone 
of our embassies. They serve us day in, day out, in many 
difficult parts of the world, and I would view the opportunity 
to supervise them in Lesotho--the approximately 60 Foreign 
Service nationals that we have there--to be a wonderful 
opportunity, because they are committed--as are the Americans, 
official Americans there--to furthering United States policy 
objectives.
    Senator Feingold. Thank you, Mr. Nolan.
    Mr. Garvelink, for years Congo has been one of the most 
disastrous human rights crises in Africa, and perhaps, in the 
world. But at last, as you have mentioned, the fighting appears 
to be winding down. How will you keep Congo near the top of the 
Humanitarian AIDS Assistance Priority List when it's no longer 
in the headlines?
    Mr. Garvelink. Thank you, Mr. Chairman.
    I think there are a number of ways to go about that. I 
guess, first, from my background, it will be a little easier 
coming from the humanitarian community, and having extensive 
contact throughout the U.S. humanitarian community, and the 
international one, to help use those contacts to maintain the 
focus on what's going on. Not just in the Eastern Congo, but in 
Congo, in general. The conditions throughout the country are 
quite dire in other places, as well as just the Eastern Congo.
    But I will use my contacts, in confirmed, to maintain the 
high visibility of the situation that continues in the Eastern 
Congo. I think another way that we will be able to do that, and 
will, is to use our public diplomacy tools in the embassy to 
call attention to the situation, and offer solutions, and to 
identify opportunities for the international community to 
respond to the humanitarian crisis throughout the Eastern part 
of the Congo.
    Senator Feingold. Finally, given the central role that 
natural resources play in DROCs economy and development, the 
history of widespread corruption, and the risk that natural 
resources can pose to peace and security if they're not 
properly managed, how will you try to ensure that the new 
Congolese Government prioritizes the responsible and 
transparent management of natural resource reforms? For 
example, in ensuring the upcoming review of mining contracts--
making sure that that review is meaningful?
    Mr. Garvelink. Well, Mr. Chairman, I would continue the 
policies that Ambassador Meece has underway right now--he's 
working very closely with the new government as it goes through 
the review of the 60 major mining contracts. The Government of 
Congo is a member in good standing of the Kimberly Process. 
Through USAID, there's a project by the United States, NGO, 
PACT, that's working with the mining companies in Katanga to 
ensure that responsible mining occurs, and that the--some of 
the profits that emerged from those mines is used for the 
social, economic benefit of their population.
    There are some other initiatives underway, transparency 
initiatives underway by the United States in cooperation with 
the British Government, and the Government of the Congo has 
endorsed, but not signed up yet, to these sorts of activities.
    So, I think the embassy has underway a number of 
initiatives with the government to try to ensure responsible 
mining, and responsible use of the country's natural resources.
    Senator Feingold. Thank you very much.
    And, Senator Cardin, thanks for your patience. Your round.
    Senator Cardin. Thank you, Mr. Chairman. Again, let me 
thank all of our guests today for their service.
    I would daresay that most of the people in the State of 
Maryland probably know very little about the four countries in 
which you all are seeking to become Ambassador to. And, I think 
that's probably true in the United States. As I said in my 
welcome, you're choosing to serve in a part of the world that, 
I think, is very important to the United States.
    I saw that in Eastern Europe, and in Asia, the ties between 
ethnic communities and the United States and those parts of the 
world developed ties--economic ties, business ties--that help 
in the transformation of those countries and their economies. 
So, I guess my question to each of you is that, I think it's 
very important that we develop closer economic ties between the 
four countries that are represented by you and our communities. 
And that's going to take some leadership from the Ambassador, 
to get interest in the United States for--particularly smaller 
companies and communities to take an interest in the part of 
the world that you seek to represent the United States. And, 
I'm just wondering what strategies you have to develop more 
interest in the United States, in the countries that you seek 
to be the Ambassador?
    Mr. Green, we can start with you.
    Mr. Green. Thank you, Senator, thank you for the question.
    First off, I agree with the premise of your question. 
Unfortunately, I think the level of awareness in many parts of 
the country of the countries represented here, clearly isn't as 
great as we would like it to be. I agree, it happens to be a 
very important part of the world for United States interests in 
a number of ways, and on a number of fronts.
    With respect to economic ties, with respect to Tanzania, 
there are some positive developments. We have, in President 
Kikwete, a pro-Western President who has indicated publicly 
that he'd like to have even stronger, and warmer relations with 
the United States. He has publicly called for greater 
investment in Tanzania, and has made that pledge.
    If I'm confirmed, what I will do is to continue to help 
that along by helping Tanzania address some of the barriers to 
increased American investment in that country.
    For example, despite the fact that the country is committed 
to the rule of law, there are still problems with corruption in 
both the public sector and the private sector. On top of that, 
there certainly are some infrastructure challenges in Tanzania, 
particularly into the rural areas, that I think holds back 
American investment.
    Right now, the Government of Tanzania has put forward plans 
for a Millennium Challenge Act Compact, which would be the 
largest compact, to date. Many of the projects--as far as I 
know--many of the projects that are in their plans would be the 
kinds of projects that I think would help encourage American 
investment in that nation, because it is aimed at roads, at 
energy, at infrastructure, and in water--some of the very 
challenges that Tanzania is now facing.
    On top of that, while Tanzania has benefited from AGOA, 
from the African Goals and Opportunity Act, there is still 
capacity there for greater growth involvement. And so, if I'm 
fortunate enough to be confirmed, I look forward to working 
with leaders in Tanzania to help develop better use of that 
potential. So, those would be the steps that I would take.
    Senator Cardin. Mr. Parker, you're going to have a 
challenge, not only because of lack of knowledge in the United 
States, but the slowness of political reform, and concern about 
the safety of doing business. I welcome your thoughts on this.
    Mr. Parker. Thank you, Senator, and I welcome this 
question.
    There is a great deal of concern on the part of many 
American investors going into Swaziland. However, we have one 
example of success, and that is with Coca-Cola, the primary 
American investor in Swaziland, where they have been able to 
set up a factory that produces the syrup that is used at the 
bottling plants within Southern Africa.
    And we can build upon the success of this one industry to, 
hopefully, bring other investors into Swaziland. And if I am 
fortunate enough to be confirmed, I will assure you that I will 
work to make investment in Swaziland one of my priorities, but 
for United States investors.
    But, at the same--and you are also correct in stating that 
the Swazis are a very traditional and conservative people when 
it comes to business ventures. However, the Swazis have been 
very successful in taking advantage of the African Goals and 
Opportunity Act passed back in 2000.
    In 2006, Swaziland, Swazi products--United States imported 
$155 million in Swazi products into the United States, duty 
free, through the American Growth and Opportunity Act. 
According to the Department of Commerce, this is one of the 
real success stories of the Plan.
    If I am confirmed as Ambassador, I will use all of the 
resources of our embassy to ensure that we are able to expand 
and diversify the economy of Swaziland, by having the Swazis 
draw on the resources provided by the USAID trade hub in 
Gabaron, Swaziland.
    We also have another program that is AIDs-funded, known as 
the Swaziland Enterprise and Entrepreneurship Program. This is 
a 5-year, $8 million program that will work on both the 
grassroots levels, to educate children about business, and 
using American business models. And also to provide assistance 
to small and medium entrepreneurs, to ensure that they are also 
able to have seed money, in some instances, and also to teach 
them how to expand their businesses.
    If I am confirmed as Ambassador, I will use all of my 
resources to ensure--in this area--to ensure that we are able 
to find additional growth in the Swazi economy.
    Senator Cardin. Thank you, Mr. Parker.
    Mr. Nolan, the challenge might be that Americans know South 
Africa, but the country that you're seeking to represent, the 
United States, is not as well known.
    Mr. Nolan. Senator, thank you for that very important 
question. The--and I agree with your premise totally. The 
United States, the people of the United States, know the 
Republic of South Africa much better than they know the Kingdom 
of Lesotho. And one of the things I would strive, if I am 
confirmed, would be explaining the story of the United States 
in Lesotho to a broader audience of the American people.
    We have been described--the desk officer for Lesotho told 
me--that the people of Lesotho, the Government of Lesotho, 
describes the United States as their ``best friend.'' And, we 
have a wonderful story to tell there--Lesotho does not have 
strategic resources, they do not have oil, significant mineral 
resources, and very modest amount of diamonds so far have been 
discovered. And so, the face of the United States in Lesotho is 
our best face, it is the United States and our people doing 
things for humanitarian reasons, and that is a wonderful story, 
and I would like to articulate that to the American people.
    I think we have a wise investment of money through the 
African Growth and Opportunities Act. We have created 40,000 
jobs through the export of textiles to the United States. 
Lesotho is the largest exporter within Africa under AGOA, and 
those jobs are principally for females, which is critically 
important in that region.
    In addition to which, under the Millennium Challenge 
Compact, there will be approximately--as I mentioned 
previously, Senator--$360 million. Part of that money--in 
addition to helping create health clinics and HIV, President's 
Emergency Program for AIDS Relief facilities for the treatment 
of--part of that will go for creating water facilities, 
irrigation throughout the country to enable people to have 
clean water, which is obviously very important. In addition to 
which some--a smaller amount of the money will be spent on 
trying to assist the Government of Lesotho in developing the 
basic opportunities, such as check-clearing houses and an 
investment code, to help them come up to speed in terms of 
their private enterprise structure.
    We have had a wonderful Peace Corps program there since the 
mid-1960s, the Peace Corps has done a wonderful opportunity, 
has done wonderful things there, and so, Senator, I would view 
it as, we have such a fabulous story to tell there, in terms of 
Lesotho, and what our great country is doing there, and I would 
welcome the opportunity, if confirmed, to explain that to the 
American people.
    Senator Cardin. Thank you, and very briefly to Mr. 
Garvelink, let me tell you, I think the Congo not only 
represents a huge challenge, as the chairman has pointed out, 
because of the humanitarian crisis from disease and conflict, 
but the human rights violations--the failure of the government 
to deal with the human rights concerns. The failure of the 
judiciary, the use of the military--and I must tell you, I do 
look forward to strengthening the relationship between the 
Congo and the United States, but as you pointed out in your 
statement, human rights has got to be part of that.
    Mr. Garvelink. Thank you.
    Putting human rights and the humanitarian situation, and 
all of that in the context of also an opportunity for an 
increase in U.S. business is something that's very interesting 
to me. And, I think there's a real opportunity here, given the 
elections that have just taken place in the Congo--if we can 
reinforce open democratic institutions, build a vibrant civil 
society--there will be bumps along the way, this is going to be 
a very tough process--but, I think by doing that, by being open 
about the human rights violations, and dealing with them, there 
may be a greater opportunity for United States investment, a 
greater interest beyond the extractive industries that are 
already in Katanga Province, if democracy is seen to be 
working. If opportunities are there, if the basic needs of the 
general population in health and education are being met, if 
salaries are being paid, and if the embassy--and, if confirmed, 
I would work very closely with the World Bank to secure 
additional funding for basic infrastructure, so that 
agriculture can get going at its basic level.
    I think, if these things can be seen to be starting, than I 
think there begins to become a climate for more U.S. investment 
there.
    Senator Cardin. Well, thank you.
    Thank you, Mr. Chairman.
    Senator Feingold. Thank you, Senator Cardin.
    And, my congratulations to all of you, and I'm going to do 
what I can to expedite these nominations through the process. 
And I now dismiss the first panel, and ask the second panel to 
come forward.
    Welcome, the second panel, and we will begin with June 
Carter Perry to be Ambassador to the Republic Sierra Leone.
    Ms. Perry.

 STATEMENT OF HON. JUNE CARTER PERRY, NOMINEE TO BE AMBASSADOR 
                TO THE REPUBLIC OF SIERRA LEONE

    Ms. Perry. Thank you, Chairman Feingold, and members of the 
committee for the opportunity to appear before you today on 
``Juneteenth,'' which I think is a very important day in the 
history of American ethnic relations.
    I am honored to be President Bush's nominee as Ambassador 
to the Republic of Sierra Leone. I would like to thank the 
President and Secretary of State, for once again placing their 
confidence in me to serve as an Ambassador of the United 
States.
    I would also like to thank my distinguished husband, Mr. 
Frederick Perry, who is here with me today. He is a retired 
senior Foreign Service officer and without his unwavering 
support, I would not have the opportunity to be where I am at 
present.
    If confirmed, I look forward to building on the work of my 
distinguished predecessor, Ambassador Thomas N. Hull, III, to 
support Sierra Leone's heroic efforts to reconstruct society, 
to strengthen democracy, and to promote prosperity. Coming from 
the Mountain Kingdom of Lesotho, and if confirmed, going to the 
``Lion Mountain'' of Sierra Leone, I believe I can bring 
proactive diplomacy to advance United States interests, as well 
as key development sectors, as Sierra Leone approaches an 
important transition period.
    In my 24-year Foreign Service career, I have engaged the 
United Nations as Director of the Office in International 
Organization Affairs, the World Bank, universities such as 
Columbia, Boston, Harvard, and Howard, African Governments and 
civil society, to promote United States interests in Africa, 
including the advancement of human rights, working to ensure 
the effective use of United States HIV/AIDS assistance, 
quadrupling our assistance through PEPFAR in Lesotho, and 
fortunately through my 3 years of service, working extremely 
closely with our Millennium Challenge Corporation Team in 
Washington, as well as with the Government of Lesotho.
    I also had the opportunity to participate, as indicated, in 
the further development of AGOA. Certainly, in Sierra Leone, we 
look forward to promoting AGOA even further as Sierra Leone is 
scheduled to chair a panel at the AGOA forum in July.
    I have also had the opportunity, Mr. Chairman and members 
of the committee, to promote advocacy for women and children, 
and to contribute to advancing civilian authority over foreign 
militaries, effective counternarcotic measures, results-based 
economic development policies, and humanitarian assistance in 
my previous roles, not only as Ambassador, but as Deputy Chief 
of Mission in Madagascar, and in the Central African Republic.
    These issues have remained key objectives during my 
service. However, my most important responsibility has been the 
safety and security of American citizens, including the 
development of counterterrorism measures. If confirmed, I would 
bring these experiences in dealing with African development 
issues to enhance the already excellent relationship the United 
States has with Sierra Leone. If confirmed, I would also 
further enhance, through public diplomacy, our relationship.
    I noted that this week the reconstructed ship, the Amistad, 
will depart Connecticut on route to the port of Freetown. I 
would look forward, if confirmed, to using the arrival of that 
ship as a key public affairs opportunity, bringing, Mr. 
Chairman, perhaps yourself, if confirmed, as well as members of 
the committee.
    Reaching back to my private sector experience with RKO 
radio broadcasting, looking forward to bringing in media 
sources, as well as key individuals, such as we did in Lesotho 
with Bill and Melinda Gates, with former Trade Representative, 
Ambassador Robert Zoellick, with the honorable Sheila Jackson-
Lee, and working closely with our allies in the international 
community, who have shown such interest in Africa, such as 
Prince Harry and the rock star Bono.
    Five years after the end of a long and brutal civil war, 
Sierra Leone itself, stands at an important crossroads. With 
the departure of U.N. peacekeepers in 2005, the country has 
resumed control of its own security. Earlier this month, the 
Special Court for Sierra Leone began the trial of Charles 
Taylor for his involvement in the conflict. This week the court 
is expected to deliver a verdict in the trial of the former 
military hunter, the Armed Forces Revolutionary Council.
    If Sierra Leone succeeds in holding credible, free, and 
fair elections this August--a process we are actively 
supporting through the National Democratic Institute, as well 
as local nongovernmental organizations--the transfer of power 
from President Kabbah to another democratically-elected leader 
would mark an important post-conflict milestone, and pave the 
way for future success.
    Despite the positive developments, Mr. Chairman, 
significant challenges remain, that if not properly addressed, 
could again threaten the country's stability. Severe poverty 
and insufficient healthcare, especially for women and children, 
continue to push Sierra Leone to the bottom of the U.N. Human 
Development Index. Widespread youth unemployment, a root cause 
and catalyst for the civil war, continues to endanger peace. To 
address these serious issues, the Government of Sierra Leone 
must attack corruption.
    If confirmed, I would increase the United States Mission's 
focus on improving governance and expand our engagement with 
Sierra Leone's own Anti-Corruption Commission. Our efforts to 
promote transparency in the diamond industry will also continue 
to be central to our engagement. In this regard, we would draw, 
as we have done in past positions, on U.S. Government 
expertise, for example, from the Treasury Department's very 
strong anti-money laundering and anticorruption divisions, as 
well as that of nongovernmental organizations. I believe that 
promoting good governance and improving the government's 
capacity to provide basic, sustainable services would have a 
multiplier effect on our already existing health and 
agriculture assistance.
    As a former ACTION Peace Corps official and as the spouse 
of a former Peace Corps Country Director in South America and 
Deputy Director in Southeast Asia, in Malaysia, I would 
strongly support the reintroduction of a Peace Corps program in 
Sierra Leone. Looking regionally, we should focus on improving 
Sierra Leone's peace-building efforts, within the larger 
context of the Mano River subregion. With Guinea's uncertain 
political transition and Liberia's fragile peace, Sierra Leone 
finds itself in a volatile neighborhood. Porous borders and 
weak governance have created fertile ground for a narcotics and 
small arms trafficking.
    If confirmed, I would collaborate with our Ambassadors in 
Monrovia and Conakry and throughout the region, to encourage 
cooperation to improve the subregion's capacity to respond to 
instability, to programs through our various United States 
agencies that have a capacity to strengthen maritime controls, 
for example, and law enforcement border controls.
    Mr. Chairman, thank you very much for the opportunity to 
appear before you and the committee today. I look forward to 
answering any questions you may have.
    [The prepared statement of Ms. Perry follows:]

      Prepared Statement of Hon. June Carter Perry, Nominee to be 
               Ambassador to the Republic of Sierra Leone

    Thank you, Chairman Feingold and members of the committee, for the 
opportunity to appear before you today. I am honored to be President 
Bush's nominee as Ambassador to the Republic of Sierra Leone. I would 
like to thank the President and the Secretary of State for once again 
placing their confidence in me to serve as an Ambassador of the United 
States. If confirmed, I look forward to building on the work of my 
distinguished predecessor, Thomas N. Hull, III, to support Sierra 
Leone's heroic efforts to reconstruct society, to strengthen democracy, 
and to promote prosperity. Coming from the Mountain Kingdom of Lesotho 
and, if confirmed, going to the Lion Mountain of Sierra Leone, I 
believe I can bring proactive diplomacy to advance United States' 
interests as well as key development sectors, as Sierra Leone 
approaches an important transition period.
    In my 24-year Foreign Service career, I have engaged the United 
Nations, the World Bank, universities (such as Columbia, Boston, and 
Howard), African Governments, and civil society to promote United 
States' interests in Africa, including the advancement of human rights, 
working to ensure the effective use of United States HIV/AIDS 
assistance, development of Lesotho's Millennium Challenge Account, and 
promoting equity for women and children. Promoting civilian authority 
over foreign militaries, effective counternarcotics measures, and 
results-based economic development policies and humanitarian assistance 
have been key objectives during my service. My most important 
responsibility has been the safety and security of American citizens. 
If confirmed, I would bring these experiences in dealing with African 
development issues to enhance the already excellent United States-
Sierra Leone relations.
    Five years after the end of a long and brutal civil war, Sierra 
Leone now stands at an important crossroads. With the departure of U.N. 
peacekeepers in 2005, the country has resumed control of its own 
security. Earlier this month, the Special Court for Sierra Leone began 
the trial of Charles Taylor for his involvement in the conflict. This 
week, the court is expected to deliver a verdict in the trial of the 
former military junta, the Armed Forces Revolutionary Council. If 
Sierra Leone succeeds in holding credible, free, and fair elections 
this August--a process we are actively supporting--the transfer of 
power from President Kabbah to another democratically elected leader 
would mark an important post-conflict milestone and pave the way for 
future success.
    Despite the positive developments, Mr. Chairman, significant 
challenges remain that, if not properly addressed, could again threaten 
the country's stability. Severe poverty and insufficient health care, 
especially for women and children, continue to push Sierra Leone to the 
bottom of the U.N.'s Human Development Index. Widespread youth 
unemployment, a root cause and catalyst for the civil war, continues to 
endanger peace. To address these serious issues, the Government of 
Sierra Leone must attack corruption. If confirmed, I would increase the 
United States Mission's focus on improving governance and expand our 
engagement with Sierra Leone's Anti-Corruption Commission. Our efforts 
to promote transparency in the diamonds industry will also continue to 
be central to our engagement. In this regard, we would draw on U.S. 
Government expertise from the Treasury Department, and that of 
nongovernmental organizations (NGOs). I believe that promoting good 
governance and improving the government's capacity to provide basic, 
sustainable services would have a multiplier effect on our already 
existing health and agriculture assistance. As a former ACTION/Peace 
Corps official, I would strongly support the reintroduction of a Peace 
Corps program in Sierra Leone.
    Looking regionally, we should focus on improving Sierra Leone's 
peace-building efforts within the larger context of the Mano River 
subregion. With Guinea's uncertain political transition, and Liberia's 
fragile peace, Sierra Leone finds itself in a volatile neighborhood. 
Porous borders and weak governance have created fertile ground for 
narcotics and small arms trafficking. If confirmed, I would collaborate 
with our ambassadors in Monrovia and Conakry to encourage regional 
cooperation and to improve the subregion's capacity to respond to 
instability.
    Thank you, Mr. Chairman for the opportunity to appear before you 
and the committee today. I look forward to answering any questions you 
may have.

    Senator Feingold. Thank you, Ambassador. All three of these 
countries have been very complicated and often involved in 
tumultuous times in the entire 15 years that I have served on 
this subcommittee. So, I appreciate your willingness to take on 
these posts. I thank you for the connection you made between 
Juneteenth day today, an important occasion in the history of 
our country and the connection it has to what we're talking 
about today.
    Now we go to Frederick B. Cook to be Ambassador to the 
Central African Republic.

STATEMENT OF FREDERICK B. COOK, NOMINEE TO BE AMBASSADOR TO THE 
                    CENTRAL AFRICAN REPUBLIC

    Mr. Cook. Mr. Chairman, members of the committee, I am 
honored to appear before you today as the President's nominee 
to be the next Ambassador of the United States to the Central 
African Republic. I thank President Bush and Secretary Rice for 
entrusting me with this important responsibility. If confirmed, 
I will work with the committee and others in Congress to 
advance the interests of the United States in the Central 
African Republic.
    In the interest of time, with your permission, I'd like to 
ask that my statement be entered for the record.
    My wife, Denise, is with me here today, as she has been 
ever since we met many years ago in Cameroon where she was a 
volunteer with International Voluntary Service. My daughter, 
Heather, could not be here today. School may be out, but a 
school teacher's work does not end with the summer, and she is 
a school teacher in New York City. I'm pleased that my son, 
Trevor, is here from college in Florida, as is my nephew, 
Matthew Pollard of Penn, England. Matt is starting a summer as 
a Senatorial intern with the Budget Committee and has been 
selected as a participant in the Stennis Program.
    At this point, I would comment on the geographic location 
of the Central African Republic, but I have the pleasure, 
Senator, that, Mr. Chairman, that we actually previously met in 
Dire Dawa, Ethiopia, when you traveled there to meet with a 
distinguished panel of Oromo a few months ago.
    Senator Feingold. Yes, sir.
    Mr. Cook. A distinguished Somalian Oromo elders, so forgive 
a small geographic lesson. But bordered by Cameroon, Chad, 
Sudan, and both Congos, the aptly named Central African 
Republic is at the very center of the continent and faces 
almost every one of the challenges that can befall any African 
State--rebels, bandits, civil unrest, refugees flowing in and 
out, displaced persons, AIDS, other illness, illiteracy, and a 
plethora of issues involving women, children, and minorities. 
The Central African Republic has them all.
    These issues arise from a variety of causes, ranging from 
internal political discord, which goes back long before 
independence, to significant spillover from conflict in 
neighboring states, including the tragic situation in Darfur.
    There is, however, reason for guarded optimism. The 
President and Head of State were elected in elections that met 
minimal international standards. We thus have a small window of 
opportunity for the United States to engage more deeply in 
Central African Republic and work to the mutual interest of our 
two countries.
    The engagement of the United States in the Central African 
Republic has been and must be multidimensional, ranging from 
humanitarian relief for the protection of refugees and 
displaced persons, to efforts to build and strengthen civil and 
governmental and nongovernmental institutions that promote and 
protect human rights and eventually lead to serious economic 
growth. Absent economic growth, there is no prospect for the 
situation in the Central African Republic to get better any 
time soon. There is a long way to go.
    If confirmed, I will be the first United States Ambassador 
in Bangui since the end of the year 2002.
    As a second generation Foreign Service officer, I've 
devoted my entire life to the service of my country. I fully 
understand the meaning of the word service, in Foreign Service. 
If confirmed, I will endeavor to rebuild our Mission in the 
Central African Republic, so that it can better protect the 
interest of our Nation, as well as the citizens that we have 
who are resident in that country. I have a long background in 
management and a certain expertise in the design and support of 
small posts. I can assure you that we will be proper husbands 
of the Government's resources and the taxpayer's money. We will 
produce a very effective, if very small, embassy.
    Mr. Chairman, members of the committee, I thank you for the 
opportunity to appear before you today and welcome any 
questions that you may have.
    [The prepared statement of Mr. Cook follows:]

        Prepared Statement of Frederick B. Cook, Nominee to be 
               Ambassador to the Central African Republic

    Mr. Chairman and members of the committee, I am honored to appear 
before you today as the President's nominee to be the next Ambassador 
of the United States to the Central African Republic. I thank President 
Bush and Secretary Rice for entrusting me with this important 
responsibility. If confirmed, I will work with the committee and others 
in Congress to advance the interests of the United States in the 
Central African Republic.
    Joining me here today are my wife, Denise, and my son, Trevor, a 
student at college in Florida. My daughter, a teacher in New York City, 
could not be with us today. My wife and I met in Cameroon and my entire 
family has been an essential part of my Foreign Service career; without 
their love and support, I could not be here in front of you today.
    One could say that I've spent my whole life preparing for this 
moment. I was born into a Foreign Service family and spent many of my 
formative years overseas. Since joining the Foreign Service in 1972, I 
have had the fortune of serving at several posts in Africa and in Latin 
America, including Botswana, Liberia, Bolivia, and Cuba. My first 
assignment was in Cameroon, where among other duties, I forwarded cargo 
to Bangui. My most recent assignments include tours as the Foreign 
Policy Advisor to the Combined Joint Task Force--Horn of Africa in 
Djibouti, as Director of the Florida Regional Center in Fort 
Lauderdale, Florida, and as Deputy Chief of Mission in Caracas, 
Venezuela. I fully understand the ``service'' aspect of the Foreign 
Service and welcome challenging assignments.
    Mr. Chairman, the priorities of the United States in the Central 
African Republic (CAR) include rebuilding the U.S. Government presence, 
protecting civilians, refugees, internally displaced persons (IDPs), 
and humanitarian workers, and limiting the spread of the Darfur 
conflict. The essential focus of this process must be fostering 
security and stability and support for democracy and economic 
development.
    To meet these goals, we are in the process of rebuilding our 
official presence in the Central African Republic. Operations were 
scaled back after the violent coup of 1996-1997 and security concerns 
led to the closure of the embassy in late 2002. The embassy reopened in 
early 2005 with one American officer and has continued to slowly 
reestablish staffing. If confirmed, I will become the embassy's fourth 
American officer.
    The Central African Republic (CAR), like many of its neighbors, has 
a long history of instability and civil war due to a combination of 
domestic and regional factors. The country has been unable to establish 
a record of good governance, rule of law, or democracy, thus leaving it 
vulnerable to both internal instability and external interference. 
Positive gains were made, however, in 2005, when President Bozize won a 
presidential election that was determined to be free and fair by 
international observers.
    Recent events in the CAR have highlighted the country's fragile 
state. Just one week ago, Elsa Serfass, a young Doctors Without Borders 
aid worker, was killed when her clearly-marked vehicle came under fire 
near the town of Ngaoundaye in the northwestern part of the country. 
Ms. Serfass was in the area to assess health conditions after receiving 
reports that a May 30 rebel attack and retaliatory government attacks 
had destroyed the health infrastructure. Doctors Without Borders, one 
of the few international nongovernmental organizations (NGOs) operating 
in CAR, was forced to suspend operations in the region following Ms. 
Serfass' killing. Other NGOs and the United Nations (U.N.) have 
followed suit.
    The Army for the Restoration of the Republic and Democracy (APRD), 
the group responsible for the attack on Ms. Serfass' vehicle, was one 
of the rebel groups that signed a peace agreement with the government 
earlier this year. While organized rebel attacks have declined, the 
ARPD and other rebels continue to operate throughout the northwestern 
part of the country. The government, in turn, continues to have 
difficulty controlling the actions of the military and presidential 
guard when they respond to rebel attacks, resulting in collective 
punishment and impunity. These conditions have led to increased fear 
and resentment among the general population, and temporarily derailed 
the national dialog scheduled for the coming year. The United States 
remains deeply concerned by these developments.
    The U.S. response to the situation needs to be, and has been, 
multidimensional. In partnership with U.N. agencies and NGO's on the 
ground, we provide substantial humanitarian support to 212,000 IDPs, 
50,000 CAR refugees in southern Chad, and 28,000 CAR refugees in 
Cameroon, and now the recently arrived 2,600 refugees from Darfur. Our 
interventions include emergency food assistance, water and sanitation 
projects, and seeds and tools to enable Central Africans to feed 
themselves.
    In international fora, the United States has supported the mandates 
of the U.N. Peace-Building Office in the Central African Republic 
(BONUCA) and of the Multinational Force of the Central African Monetary 
and Economic Community (also known as FOMUC) in order to promote 
stability in CAR. Both BONUCA and FOMUC, while constrained by their 
small sizes and budgets, have contributed considerably to the pursuit 
of peace in CAR. We also support CAR's upcoming national dialog, in 
hopes that the CAR government, the political opposition, and the armed 
opposition will be better able to reach peace and move toward security 
in the countryside and in Bangui.
    U.S. efforts to support democracy and human rights in the CAR have 
focused on strengthening the media and the parliament, both of which 
are largely inexperienced and remain susceptible to pressure from the 
executive branch. We have also worked to provide voter education. If 
confirmed, I intend to continue our efforts to support democracy and 
human rights.
    While rebel movements in the northeastern part of CAR have been 
limited since the signing of a peace agreement in April, the recent 
influx of refugees from Darfur highlights the risk that the crisis in 
Darfur holds for the region and the need for robust peacekeeping 
forces. The U.N. and several NGOs are working under difficult 
conditions to reach and feed these refugees before the rains cut off 
roads and transport links for the summer. If confirmed, I will work 
with others in the government and international community to support 
these refugees and others who have fled the systemic violence in 
Darfur. I have read with interest the transcript of the subcommittee's 
March 20 hearing on the regional aspects of the Darfur crisis, 
particularly focusing on Chad and CAR.
    If confirmed, I will continue the work of the embassy and of my 
colleagues in Washington to support the deployment of an international 
peacekeeping operation in Chad and northeastern CAR that will focus on 
both protecting civilians and deterring cross-border attacks. The CAR 
government is supportive of such a force.
    I fully understand, and accept, my responsibilities for the safety 
and security of our staff and of the American community in CAR. The 
American community has grown substantially as more United States-based 
aid and development organizations implant themselves in the 
countryside. These organizations provide welcome relief and development 
opportunities for the population, and I look forward to working with 
and supporting these organizations as they continue to improve the 
lives and health of Central Africans throughout the country.
    Mr. Chairman, members of the committee, I thank you for the 
opportunity to appear before you, and I welcome any questions you may 
have.

    Senator Feingold. Thank you, Mr. Cook, and that was just a 
superb meeting in Dire Dawa with the leaders there. I learned a 
great deal from it and look forward to working with you.
    Now turn to Wanda Nesbitt, the Honorable Wanda Nesbitt to 
be Ambassador to the Republic of Cote d'Ivoire.

STATEMENT OF HON. WANDA L. NESBITT, NOMINEE TO BE AMBASSADOR TO 
                 THE REPUBLIC OF COTE D'IVOIRE

    Ms. Nesbitt. Mr. Chairman, members of the Committee, I 
appreciate the opportunity to appear before you today.
    Let me first express my gratitude to President Bush and 
Secretary Rice for the trust and confidence they have placed in 
me as their nominee for Ambassador to the Republic of Cote 
d'Ivoire. I am honored to be nominated to serve in this 
important West African country at such a critical time.
    Mr. Chairman, I believe my 26 years of diplomatic service 
qualifies me for this calling. I have served in a variety of 
postings abroad, including assignments in Madagascar, Rwanda, 
Tanzania, the Democratic Republic of Congo, France, and Haiti. 
As the United States Ambassador to Madagascar, I devoted 
special attention to promoting democracy and good governance, 
to environmental preservation and protection, and to increased 
respect for market-driven growth.
    I arrived in Madagascar just after a bitterly contested 
presidential election in which both candidates claimed victory. 
I worked with our partners in the international community, 
namely, the European Union, the World Bank, the IMF, and UNDP 
to help resolve the political crisis.
    If confirmed, I would work to ensure that the United States 
promotes our interest in seeing a stable, peaceful, and 
democratic Cote d'Ivoire.
    Conflict has plagued Cote d'Ivoire for years, but a peace 
agreement signed this past March gives reason for hope. It is a 
home-grown initiative, it was drafted and signed by the two key 
actors, and thus far respectable progress has been made. The 
transitional government has been named, and the Zone of 
Confidence, which divides the country in two, is gradually 
being dismantled.
    We recognize, however, that the agreement's success hinges 
on full implementation, and the political will of key Agorian 
actors to maintain their commitment to implement it.
    Currently, United States Government assistance to Cote 
d'Ivoire is restricted by section 508 sanctions. Holding free 
and fair elections would not only bring Cote d'Ivoire back into 
the international realm of democracy, it would also remove the 
strict barrier to United States aid and cooperation.
    Despite years of crisis, Cote d'Ivoire still has one of the 
largest economies in Africa. It has retained its free market 
economy, and financial and capital markets, and it continues to 
attract domestic, regional, and international capital, 
including American investments.
    If confirmed, I would work to improve the investment 
climate for American companies, while promoting an economic 
program that helps to reduce poverty, and reduces the poverty 
that fuels instability in the region.
    As a consular officer in the Foreign Service, I can never 
forget that the number one priority for our Missions overseas 
is to see to the protection of American citizens and their 
interests abroad. If confirmed, I would do everything I can to 
ensure the safety and well-being of every American citizen in 
Cote d'Ivoire, and would lead the efforts of our embassy to 
enhance homeland security and maintain the security of our 
borders.
    Thank you, Mr. Chairman and members of the committee for 
you abiding interest in America's relations with Africa, and 
thank you for giving me the opportunity to speak with you 
today. I'm happy to answer any questions you may have.
    [The prepared statement of Ms. Nesbitt follows:]

      Prepared Statement of Hon. Wanda L. Nesbitt, Nominee to be 
              Ambassador to the Republic of Cote d'Ivoire

    Mr. Chairman and members of the committee, I am honored to appear 
before you today. Let me first express my gratitude to President Bush 
and to Secretary Rice for the trust and confidence they have placed in 
me as their nominee for Ambassador to the Republic of Cote d'Ivoire. I 
am pleased to be nominated to serve in this important West African 
country at such a critical time.
    Mr. Chairman, I believe my 26 years of diplomatic service qualifies 
me for this calling. I am currently the Principal Deputy Assistant 
Secretary in the Bureau of Consular Affairs. Earlier in my career, I 
completed assignments in Madagascar, Rwanda, Tanzania, the Democratic 
Republic of Congo, France, and Haiti. As the United States Ambassador 
to Madagascar, I devoted special attention to promoting democracy and 
good governance, to environmental preservation and protection, to 
increased respect for market-driven growth for private sector 
involvement in the development of public policies to reduce poverty, 
and to girls' education. I arrived in Madagascar just after a bitterly 
contested presidential election in which both major candidates claimed 
victory. I worked with our partners in the international community, 
namely the European Union, the World Bank, the IMF, and UNDP to help 
resolve the political crisis. Thus, I have seen firsthand how critical 
credible, free, and fair elections are to the welfare of a nation. If 
confirmed, I would work to ensure that the United States promoted our 
interest in seeing a stable, peaceful, and democratic Cote d'Ivoire.
    Conflict has plagued Cote d'Ivoire for years, but a peace agreement 
signed in March gives reason for hope. I am cautiously optimistic that 
the Ouagadougou Political Agreement, although the 13th peace agreement 
since the crisis broke out in 2001, may be the best chance for lasting 
peace thus far. After all, it is a homegrown initiative; it was drafted 
and signed by the two key actors, President Laurent Gbagbo, and New 
Forces leader, Guillaume Soro; and the international community did not 
force these actors to the negotiating table. Thus far, respectable 
progress has been made: A new transitional government has been named 
with Soro as the prime minister, and the Zone of Confidence, which 
divides the country in two, gradually is being dismantled. The 
agreement's success hinges on its full implementation and the political 
will of key Ivorian actors to maintain their commitments to implement 
it.
    If a presidential election is to take place by next year, as Soro 
and the agreement's mediator, Burkina Faso's President Blaine Compaore, 
maintains that it will, then the Ivorians must move quickly to 
implement the disarmament and demobilization of militias; commence 
disarmament, demobilization, and reintegration of former combatants; 
integrate the armed forces; and reestablish civilian administration 
throughout the country. These measures will allow the government to 
move forward on the registration of voters and the organization of 
free, fair, transparent, and inclusive elections with the assistance of 
the international community. Currently, United States Government 
assistance to Cote d'Ivoire is restricted by section 508 sanctions. 
Holding free and fair elections would not only bring Cote d'Ivoire back 
into the international realm of democracies, it would also remove a 
strict barrier to United States aid and cooperation.
    Despite years of crisis, Cote d'Ivoire is still one of the largest 
economies in Africa. It has retained its free-market economy, and the 
financial and capital markets
remain open and continue to attract domestic, regional, and 
international capital, including American investments. If confirmed, I 
would work to improve the investment climate for American companies, 
while promoting an economic program that helps reduce the poverty that 
fuels instability in the region. I would also call for greater 
transparency in the natural resource sector in Cote d'Ivoire.
    If confirmed, I would also maintain the dedication of my 
predecessor, Ambassador Aubrey Hooks, in administering the President's 
Emergency Plan for AIDS Relief. Cote d'Ivoire is one of 15 priority 
countries selected for intensive United States' support. This $84 
million program has produced significant results in the fight against 
HIV/AIDS in Cote d'Ivoire, such as providing antiretroviral treatment 
for more than 25,700 people, palliative care services to more than 
44,000 people, and care and support for more than 24,000 orphans and 
other vulnerable children.
    As a consular specialist in the Foreign Service, I will never 
forget that the number one priority for our missions overseas is to see 
to the protection of American citizens and their interests. If 
confirmed, I would do everything I can to ensure the safety and well-
being of every American citizen in Cote d'Ivoire, and I would lead the 
efforts of our embassy to enhance homeland security and maintain the 
sanctity of our borders.
    Thank you, Mr. Chairman and members of the committee, for your 
abiding interest in America's relations with Africa, and thank you for 
giving me the opportunity today to speak with you. If confirmed, I look 
forward to working with you and other Members of Congress to advance 
America's interests in Cote d'Ivoire.
    I am happy to answer any questions you may have today. Thank you.

    Senator Feingold. Thank you, Ms. Nesbitt, very much.
    And now we'll begin a series of questions, and we'll start 
with Ambassador Perry.
    As you know, Sierra Leone's stability is intertwined with 
that of the neighboring Mano River Union countries, where armed 
cross-border factions continue to be a destabilizing factor in 
the subregion. How will you facilitate regional communication 
and cooperation on security issues?
    Ms. Perry. Thank you very much, Mr. Chairman, for this 
question, because it is indeed at the heart of the stability of 
the subregion.
    My colleagues and I--if I am confirmed, as they have 
already done--plan to communicate directly on a regular basis, 
concerning the border issues which I believe are extremely 
important. As we know, historically there has been a great deal 
of movement between those borders. Just recently, over 100,000 
Liberians, for example, were repatriated from Sierra Leone. We 
believe that there are about 20,000 Liberians who remain in 
Sierra Leone, and with the situation as indicated in Guinea, it 
is uncertain as to how the border situation will develop there.
    Specifically, I will draw on our international law 
enforcement academy in Gabarone, in Botswana to seek training 
for individuals--not only from Sierra Leone--but to work 
closely with my colleagues to see how we might draw on that 
resource, that very rich resource, that the United States 
Government has established in Botswana to include the 
subregion, the Mano River subregion.
    As I indicated, our communications would be, probably 
through video conferencing at some time, but we have also 
considered the idea, already, of having regular discussions 
amongst ourselves, as well as amongst the key players--
including civil society--within those three countries.
    Senator Feingold. I think I had a chance to visit the 
facility in Gabarone that you just described, and was impressed 
with what was being attempted there, and I am impressed by your 
making the connection and the possibility of using that for 
help.
    In your current post as Ambassador to Lesotho, Ms. Perry, 
you persuaded the monarchy of that kingdom to ``invest in its 
people.'' How will you seek to imbed this social consciousness 
in Sierra Leone?
    Ms. Perry. Thank you, again, Mr. Chairman.
    I have a deep belief that personal diplomacy and proactive 
diplomacy--as I indicated in my statement--is absolutely 
essential. Engaging not only the leadership, perhaps the last 
generation of the older leaders of Sierra Leone will be 
essential to developing a new mindset in that group, but 
looking forward to a younger generation, and I might indicate 
that the opposition parties, as well as the leading party, the 
SLPP, the Sierra Leone People's Party--have all three indicated 
that they have a strong youth contingent within each of those 
parties. It is expected that during the general elections in 
August that a significant number of younger leaders will be 
elected to parliament, as well as a significant number of 
women. I think it will be absolutely crucial to the success of 
Sierra Leone, and I do believe the people of Sierra Leone 
desire peace and stability at this time, to engage those young 
leaders.
    I would further seek to increase our public diplomacy and 
engagement to demonstrate that America cares in Sierra Leone, 
by increasing international visitors, by attracting Fulbright 
Scholars and by having exchange programs to take on this task, 
which will not be accomplished in a short period of time.
    Senator Feingold. Thank you, Ambassador.
    Mr. Cook, as you know, the United States Embassy in Bangui 
has been closed twice in the past decade as a result of 
concerns over the pace of political and economic liberalization 
and human rights abuses in the Central African Republic.
    As the first U.S. Ambassador to that country in 5 years, 
what do you hope to accomplish with your presence?
    Mr. Cook. Mr. Chairman, that's a very perceptive question.
    I think the United States occupies a unique position in the 
world today. By sending an Ambassador to the Central African 
Republic, hopefully our intervention can act as a catalyst. The 
United States is already working through international 
partners, multinational organizations, NGOs, nongovernmental 
organizations and the rest, to try to affect change in the 
Central Africa Republic, which has been described as the, sort 
of, ``forgotten crisis.''
    I would hope that my presence there, as an expression of 
the personal interest of the President and of the people of the 
United States, might serve to underscore and to encourage other 
nations to step up and become more committed in their 
engagement there. That engagement has suffered a reverse with 
the killing of a young volunteer from Medecins Sans Frontieres 
just last week, and the disturbing report of the execution of 
her murderer. It's unlikely that any kind of full due process 
could have been followed.
    When I was a child, and first went to the Department of 
State for 1,001 injections, I stood in front of the plaque in 
the lobby which listed our fallen colleagues. It was sobering, 
even at age 5. It's more sobering now that we've filled up at 
least three more plaques. I have no desire to add my name to 
that plaque, but I am very much aware that very little history, 
or very little foreign policy takes place within the walls of 
the Chancery.
    In Haiti, I traveled, literally, the length of the country 
to meet with opponents and supporters of President Aristide. 
I'm very proud that in the time that I was in Venezuela, I 
arranged a meeting between pro and anti-Chavez governors, 
rather mayors, and in fact, had to meet and have breakfast with 
some Congressional staffers. One of them said to me, a very 
strong Chavista, that this is the only place in Venezuela that 
I would ever meet with these people without a gun in my hand.
    I am no stranger to personal diplomacy. I will try to reach 
out and engage with every element of society, where I can, to 
try to first understand, deeply, the problems of that country 
in a way that you can only understand on the ground, and then 
to mobilize the resources of our Government to affect change 
and protect our interests.
    I acknowledge my family. I apologize I've been remiss. I 
should also acknowledge there are any number of colleagues, 
past, present, and future from the Department, from the Bureau 
of African Affairs and other parts, who are with me here today. 
I didn't know they were coming. I'm gratified that they did. 
They can expect a call.
    Senator Feingold. What's your analysis of the root causes 
driving the home-grown insurgency in the CAR.
    Mr. Cook. The CAR first enters into history about the 7th 
century as a fertile harvesting ground for slaves. That's not a 
part of any part of human history that we want to be proud of.
    Before independence, during the Colonial Period, it was 
distinguished by the excesses of various commercial companies 
on the model of what was happening in the Belgian Congo.
    Since independence, I doubt that there have been any 5 
years in which the country has had a stable, democratic 
government. It's a daunting challenge.
    Internally, there is a real traditional of good governance, 
respect for human rights, as we would understand it.
    In addition, neither matron or politics is very fond of 
vacuums. Sitting at the border of Chad, the Sudan and the 
Congos, the country faces pressure from neighbors who, may at 
times, prefer that the country be weak, and unstable, so that 
they can--it can either serve as a refuge for their rebels or 
forces, or both. It would be very nice to build enough 
stability in the Central African Republic to help them, because 
it depends on the people themselves. It would be nice to help 
them build enough stability so that their armed forces might be 
a threat to rebels, and not just to their own citizens.
    Senator Feingold. Thank you. I wanted to ask you just a 
follow up--has the Bozize Government made any good faith 
efforts to address the grievances that led to this?
    Mr. Cook. Mr. Chairman, I believe there is evidence that 
they have. Those efforts are small. It's very early to 
determine how good the faith is. In a country where the civil 
bureaucracy and the military have not been paid, or are months 
behind in their pay, it's very, very hard to hold them to the 
standard, to international standards. But that is exactly what 
we must do. We face the challenge of, on the one hand, 
denouncing violations of human rights and abuses, the impunity 
on both sides. And at the same time, trying to mobilize the 
resources, the programs that can actually lead the government 
to a state where they can meet those standards.
    Senator Feingold. Thank you, Mr. Cook.
    Ms. Nesbitt, you saw the political reconciliation coalition 
building between perpetrators and victims in Rwanda's genocide 
in the late 1990s. What did you learn from that experience that 
will help you facilitate dialog and good faith commitments by 
both sides in the wake of a 5-year civil war.
    Ms. Nesbitt. Thank you, Mr. Chairman, that's a very 
important question.
    One of the most important lessons, I think, that I learned 
through my time in Rwanda was the important role that the 
United States and other Western countries could play in terms 
of promoting the concepts of tolerance and recognition of the 
rights of minorities, as well as majorities. I am hopeful that, 
if confirmed, I would be able to carry some of those lessons 
with me to Cote d'Ivoire, where the lack of trust among the 
parties, and the lack of recognition of the rights of all 
involved, continues to be one of the major underlying sources 
of the conflict there.
    Senator Feingold. How likely is it that the current string 
of agreements between President Gbagbo, and the former rebel 
commander Guillaume Soro, will be affected?
    Ms. Nesbitt. That's a difficult question to answer. I am 
very cognizant of the fact that this is one in a long string of 
agreements that has taken place, been signed in Cote d'Ivoire 
in the last 5 years. But the fact that it is an initiative on 
the part of the President, and that it has been signed on to by 
the major protagonist, Mr. Soro, who is now the Prime Minister, 
gives us cautious optimism that they have a level of commitment 
that has not been there in the past. And so, we are hopeful 
and--as I mentioned a little earlier in my statement--there are 
some signs, already, that progress is being made, that they are 
beginning to integrate the commands of their--of the militia 
and the national forces, that there is movement to return civil 
servants to the Northern part of the country, so there are a 
number of steps in the right direction, and we hope that that 
will continue.
    Senator Feingold. Thank you, Ms. Nesbitt.
    A recent report by the nongovernmental organization, Global 
Witness documents a pattern of mismanagement of revenues, 
opaque accounts, corruption, and political favoritism in the 
cocoa sector of Cote d'Ivoire. It presents detailed evidence 
showing the diversion of more than $58 million from levies to 
the government's war effort, which raises serious security, 
economic, and governance concerns. How will you broach this 
pervasive problem with the Government of Cote d'Ivoire, and 
what specific benchmarks of progress will you be looking for?
    Ms. Nesbitt. Mr. Chairman, this is a very, very serious 
issue, and it is one that we are concerned about. As you 
mention, both sides in this conflict have used revenues from 
the cocoa industry to support their activities, and this is an 
issue of great concern to us.
    If confirmed, what I would like to do is to work with our 
partners in the international community, to put pressure on 
Cote d'Ivoire to show greater transparency, in terms of letting 
outsiders see the uses that they put their revenue to. We've 
called for greater transparency in the natural resources 
sector, in cocoa, as well as other natural resources, and we 
would like very much to convince our partners in the 
international community to tie assistance from the World Bank 
and elsewhere to greater transparency in those sectors. And, 
I'm hopeful that I will be able to work on that, if confirmed.
    Senator Feingold. Thank you, Ms. Nesbitt.
    I thank all of you and congratulate you. And, as I said to 
the first panel, I will do what I can to expedite your 
nominations, so you can get to these important posts. Thanks so 
much, and that concludes the hearing.
    [Whereupon, at 11:20 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


             Response of Mark Green to Question Submitted 
                     by Senator Christopher J. Dodd

    Question. Mr. Green, do you believe that you serve under the 
direction of the President and the Secretary?

    Answer. Yes.
                                 ______
                                 

            Responses of Mark Green to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. Tanzania held multiparty elections in 2005, but the 
country continues to experience political dominance by a single party. 
Additionally, tensions between the mainland and the Zanzibar 
archipelago remain. If confirmed, what steps can you take to strengthen 
civil society and promote political pluralism?

    Answer. With the election of President Kikwete in 2005, Tanzania 
marked its third peaceful democratic transition since it opened the 
door to multiparty democracy in 1992. These elections gave President 
Kikwete a landslide victory with more than 80 percent of the vote and 
saw the ruling Chama Cha Mapinduzi (CCM) party make significant gains 
in Parliament.
    While a number of opposition parties exist in Tanzania, the ruling 
party is dominant, and governing power is largely concentrated in the 
executive branch. Obviously, such political dominance increases the 
vulnerability of continued democratic reform. One of our key strategic 
priorities in Tanzania has been to work with all appropriate, willing 
entities--the legislature, judiciary, press, and civil society 
organizations--to strengthen democratic checks and balances. If 
confirmed, I will continue to build upon and expand my predecessor's 
advocacy for political plurality on both the mainland and on Zanzibar.
    The steps I intend to take include the following: First, in my 
contacts with President Kikwete, I will tirelessly pursue the subject 
of developing democratic checks and balances, and urge him to show 
demonstrable progress on this front.
    Furthermore, I will support the work of organizations such as the 
National Democratic Institute (NDI). NDI's current cooperative project 
with President Kikwete, in which NDI is drawing up recommendations for 
the modernization of the executive branch, shows great promise in 
helping to build a solid foundation for greater accountability in 
government administration.
    On a related front, I will support the anticorruption programs 
launched under the Millennium Challenge Corporation's Threshold Program 
that foster greater transparency in public expenditures. It is 
important to make sure that the progress made in launching such 
initiatives as the Financial Intelligence Unit does not lose steam as 
new plans are developed under the MCC Compact Program.
    In addition, I will continue the initiatives being undertaken by 
our Mission in Tanzania to train journalists in investigative reporting 
and to support NGOs that are pushing for greater freedom of the press.
    Finally, I will strongly support the civic education programs and 
courses funded by USAID that enhance public awareness of democratic 
principles and rights. As Tanzania begins to look toward the 2010 
elections, this greater awareness can help increase both political 
participation and the legitimacy of the election results.
    The political situation in Zanzibar clearly warrants special 
attention. NDI's election mission reported serious irregularities in 
the 2005 election for Zanzibar's President and House of 
Representatives. A grave political impasse has emerged from these 
elections between the ruling party and the chief opposition party, the 
Civic United Front (CUF). The CUF has refused to recognize the election 
of the Karume government, and is calling for a rerun of the elections 
and a government of national unity. The younger members of CUF, in 
particular, are frustrated by the lack of progress by the government in 
addressing what they feel are ``three stolen elections.'' We need to be 
concerned about the potential for them to turn toward more radical 
solutions.
    President Kikwete has proclaimed that political reconciliation in 
Zanzibar is his top domestic agenda item, but the progress has been 
uneven. Kikwete promised to address the ``political tensions'' in 
Zanzibar in his December 2005 inauguration speech, but it was not until 
January 2007 that reconciliation negotiations actually began. The 
President's popularity has been a double-edged sword for him. The 
Tanzanian people have high, if not unrealistic, expectations for what 
he and his administration will be able to accomplish. President 
Kikwete's first year in office was challenging, marked by a food 
shortage caused by drought and a power crisis which coincided with the 
rise of oil prices around the world, and it is not clear if he will be 
able to broker a solution in this case.
    I believe that successful talks on Zanzibar are crucial in setting 
the foundation for free and fair elections in 2010 in Tanzania. The 
opposition party in Zanzibar lacks any trust in the ruling party and 
has pledged not to participate in the 2010 election unless an agreement 
is reached through the negotiations. This would obviously be a 
significant setback in the progress that the country as a whole has 
made on the democratic path.
    I strongly support our Mission's plans to expand our public 
presence in Zanzibar, and believe that presence must include clear, 
unambiguous support for pluralism, fair elections, and peaceful 
political forums. Among other things, I support the Citizen Dialog 
Program, and would hope to expand it and programs like it, both on the 
mainland and in Zanzibar.

    Question. Hundreds of thousands of refugees from Burundi, the 
Democratic Republic of the Congo, Rwanda, and elsewhere are presently 
living in Tanzania, many in camps. In recent months, the Tanzanian 
Government has expelled persons of Rwandan and Burundian origin and 
there were reports of physical abuse and theft by officials and militia 
members. If confirmed, what steps will you take to see that the 
Tanzanian Government abides by international laws prohibiting the ill-
treatment and, pending the determination of their claims, the forced 
return of refugees?

    Answer. Traditionally, Tanzania has hosted the largest refugee 
population in Africa. As of June 1 of this year, 273,678 refugees are 
being assisted in refugee camps in mainly the northwestern part of the 
country. Another 200,000-300,000 refugees are estimated to have settled 
spontaneously (without United Nations High Commissioner for Refugees 
[UNHCR] assistance). The large majority of these refugees originate 
from Burundi and the DRC.
    Even though the assisted refugee population remains large, for the 
first time in more than a decade, it has dropped below the 300,000 
mark. This reduction is first and foremost a result of the 
implementation of repatriation operations to Burundi and the DRC in 
recent years. Local integration of refugees in Tanzania and 
resettlement to third countries are also durable solutions pursued in 
the Tanzania operation to solve the situation of the refugees still 
hosted in the country.
    As Tanzania takes steps to reduce the number of refugees and to 
prevent the migration into the country of additional refugees, we need 
to work closely with the UNT-ICR to monitor the treatment and living 
conditions of the populations involved. While Tanzania certainly has 
the right to stop illegal migrants from coming into the country, we 
must push to see that such operations do not adversely affect 
legitimate political refugees.
    The future of most of the refugees in northwestern Tanzania depends 
on the continued progress in the peace process in Burundi and the DRC, 
and the access to basic social services in the return areas. President 
Kikwete has been active in promoting an enduring, peaceful settlement 
for Burundi, and brokered an oral agreement on June 17, 2007, between 
the Burundi President and former rebel group leader who both agreed to 
resolve their differences. Kikwete's goal has been to facilitate peace 
in order to create the conditions necessary for the return of Burundian 
refugees. We are assisting these efforts both privately and publicly. 
In fiscal year 2006, the United States Government provided $18.6 
million to support Burundi refugee repatriation and $16.3 million to 
support Congolese refugee repatriation. (Note: Our fiscal year 2006 
assistance for refugees in Tanzania was nearly $10 million.)
    Our Mission in Tanzania has paid close attention to reports of 
abuse by authorities with regard to the refugees in western Tanzania 
and has followed up these reports by seeking clarification from the 
appropriate Tanzanian officials. If confirmed, I plan to pay very close 
attention to these reports and the overall refugee situation. I plan to 
visit the refugee camps myself--eyes on the ground are still the best 
way for us to not only determine the conditions that refugees are 
living in, but also to demonstrate the importance of the refugee issue 
to our government. Firsthand observations will also strengthen our 
credibility as I bring the subject up in our contacts with President 
Kikwete.
    We should also promote the cause of refugee issues in the context 
of Tanzania's growing international stature. President Kikwete has 
shown an interest in being a stronger voice in regional matters and 
conflict resolution. How refugees are treated in Tanzania will 
certainly affect the government's credibility as a legitimate partner 
as well as its international standing.

    Question. What, in your view, are the most pressing human rights 
issues in Tanzania? What are the steps you expect to take--if 
confirmed--to promote human rights and democracy in Tanzania? What do 
you hope to accomplish through these actions?

    Answer. Although the Government of Tanzania is clearly committed to 
the rule of law and the protection of human rights, there are 
continuing human rights problems in the country. Recent events probably 
make the status and condition of refugees the most pressing. My 
approach to addressing this subject is outlined above.
    One of our most pervasive human rights concerns is the criminal 
justice system and rule of law. Police and prison guards sometimes use 
excessive force against inmates or suspects, at times resulting in 
death, and police impunity is a problem; prison conditions can be harsh 
and life threatening; police routinely conduct searches without 
warrants, and at times fail to bring detained individuals before a 
judge in the specified period of time; and the judiciary suffers from 
corruption, particularly in the lower courts. We need to work with 
civil society and NGOs that are engaged in civic education, and support 
efforts to, for example, train investigative journalists.
    In a similar vein, fighting the inhuman trade of Trafficking in 
Persons (TIP) has been an important cause on the world stage, and must 
be an important part of our foreign policy. Tanzania is a ``Tier 2'' 
country, meaning it does not fully comply with the minimum standards 
for the elimination of trafficking, but is making significant efforts 
to do so. The government made progress over the preceding year in 
improving its law enforcement response to human trafficking, in 
particular through additional training of security personnel. To 
continue that progress, Tanzania should investigate and prosecute 
traffickers more vigorously, implement its plans to harmonize all 
elements of its legal code pertaining to trafficking in persons, and 
build on existing joint government-NGO efforts in education and 
awareness to result in a nationwide campaign.
    Toward this aim, the Governments of Tanzania and the United States 
signed a Memorandum of Understanding (MOU) in May 2006 in order for the 
Department of Justice to work in Tanzania for the next 2 years to 
assist the development of antitrafficking legislation, and to train 
police and prosecutors in antitrafficking procedures and techniques. If 
confirmed, I will work to see that this MOU is properly carried out, 
and that Tanzania moves firmly toward meeting international standards.
    Last, but certainly not of lesser importance, is the longstanding, 
unequal status of women. Though Tanzanian law provides for equality for 
women, inheritance and marriage laws do not consistently provide full 
equality. Discrimination against women is most acute in rural areas 
where women's careers are limited to subsistence farming and raising 
children, and they have almost no opportunity for wage employment. 
Thus, in practice, women's rights often are not respected.
    Civil society activists have reported widespread discrimination 
against women in property matters related to inheritance and divorce. 
This is especially the case in Zanzibar and parts of the mainland where 
judges bow to concessions demanded by customary and Islamic law. Women 
whose unions were not legalized under Hindu, Muslim, or Christian 
traditions, or under civil marriage laws were particularly vulnerable 
when they separated from their partners or their partners died.
    Though the ratio of boys to girls in primary and secondary school 
is nearly equal in Tanzania, there continues to be a significant gender 
gap for girls completing their schooling, particularly at the secondary 
level. Girls are often left in the position of caring for siblings, 
being forced into marriage, or becoming pregnant, leading to a greater 
attrition by females from secondary school. Ensuring that girls are 
able to more fully pursue educational opportunities is both a public 
health matter (an educated mother is more likely to have a healthy 
family) and a matter of economic opportunity. President Kikwete and his 
wife, Salma, have both emphasized the importance of education, and Mrs. 
Kikwete has been a strong supporter of girls' education. Basic 
education for girls is a cause I have pursued as a Member of Congress 
and, if confirmed, would look to strongly advocate as ambassador.
    It would be misleading and inaccurate to talk about human rights in 
Tanzania without noting that the Government of Tanzania (GOT) is making 
significant progress in a number of areas, including TIP and 
anticorruption. For example, the Tanzanian High Court recently outlawed 
the practice of ``takrima,'' or the use of hospitality gifts and favors 
to constituents during election campaigns, and the GOT established the 
Financial Intelligence Unit using MCC Threshold Program funds. Both 
actions have been important steps toward fighting corruption.
    Nonetheless, improving human rights conditions is an ongoing 
process, and if confirmed, I will continue to raise these human rights 
concerns with Tanzanian officials. In short, I will use all the tools I 
have available to me as Chief of Mission to press for continued reform 
and support solutions that make sense.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous responses? What challenges will you face in Tanzania in 
advancing human rights and democracy in general?

    Answer. Probably the broadest challenge we face in this regard is 
the lack of capacity in Tanzania to implement many of the reforms, 
legislative initiatives, and other measures the government itself 
recognizes it needs to do to improve its overall human rights 
situation. But cultural practices too, are very hard to overcome, 
particularly with respect to women. Such attitudes change slowly, 
though Tanzania is notable for the number of talented women the country 
can showcase in significant positions of power--for example, the 
appointment of former Foreign Minister Dr. Asha Rose Mtengeti-Migiro as 
U.N. Deputy Secretary General.
    These are challenges that are best addressed when our countries can 
work together as partners, with mutual respect. My background as a 
teacher in rural Kenya two decades ago certainly sensitized me to the 
need to be patient, listen, and to understand the underlying 
assumptions that were the motivating factors behind the villagers' 
actions. Likewise, finding solutions to difficult, sometimes 
entrenched, human rights issues requires not only adequate resources, 
but also excellent lines of communication between those who would be 
part of the solutions. If confirmed, I am looking forward to working 
with the Tanzanian Government and President Kikwete to find these 
solutions and implement them through the authority I will have as the 
United States Ambassador to Tanzania.

    Question. In your new position, what steps will you take to ensure 
that promotion of human rights objectives will be an integral part of 
the U.S. Embassy's activities? If confirmed, what steps will you take 
to ensure that Foreign Service officers who engage in human rights 
activities are encouraged and professionally rewarded for superior 
service?

    Answer. The most important thing that an ambassador can do to 
ensure that the promotion of human rights is an integral part of the 
embassy's activities is to lead by example. In other words, if 
confirmed, I will use my office to carefully highlight human rights 
conditions and concerns. That would range from activities such as 
taking a firsthand look at refugee camps to publicly promoting the 
cause of women's education. I believe that an ambassador needs to be 
constantly on the move . . . highlighting issues and demonstrating 
through deeds American priorities and values.
    Furthermore, as Chief of Mission, I would ensure that human rights 
issues are on the central agenda of my senior staff, and reach out to 
other officers for their ideas and observations. If confirmed, I plan 
to meet regularly with my staff and look for ways to foster their 
ingenuity and interests. Listening to their ideas, giving them the 
authority to pursue those that are in line with our Mission's strategic 
plan (which must include human rights priorities), and highlighting 
successful projects will make our embassy a stronger voice for human 
rights. While I know that Foreign Service officers do not undertake 
their work in order to receive individual recognition, I also know that 
such recognition can serve to reinforce their work in the eyes of 
others and perhaps help shape the careers of those involved.
    I also hope to support the work of Peace Corps volunteers and NGOs 
out in the field. Again, highlighting the difference that Americans 
make in the living conditions of everyday Tanzanians is a way of 
encouraging others--Americans and non-Americans--to take up the cause 
of human rights.

    Question. What are the most significant actions you have taken in 
your career to promote human rights and democracy? Why were they 
important? What was the impact of your actions?

    Answer. I have taken a number of steps in my career and throughout 
my life that have served to promote the cause of human rights and 
democracy, which is a passion that led me to public service in the 
first place.
    As a law student at the University of Wisconsin, I wrote an award-
winning commentary that examined the potential for South Africa's legal 
system to improve human rights in that country. (``What Role Can South 
African Judges Play in Mitigating Apartheid?'' 1987 Wis.L.Rev. 327 
(1987)).
    As I have mentioned elsewhere, 20 years ago, my wife, Susan, and I 
served as high school teachers in Kenya through WorldTeach Project, a 
development organization based at the Phillips Brooks House of Harvard 
University. While we spent most of our time in Kenya, we also traveled 
in the rural areas of western Tanzania, Uganda, Burundi, and Rwanda. We 
lived in a small village setting, and taught each day at a rural school 
struggling to provide rudimentary educational opportunities. As 
teachers, we faced critical material shortages, and watched our 
students' families struggle with malaria and malnutrition-enhanced 
diseases. We ourselves were afflicted with malaria and typhoid. In 
addition to our teaching, we established a library at the school with 
donations from Americans living in Kenya and from our own hometown.
    I believe that our work not only brightened the educational 
prospects of our students, but also reinforced the value of education 
in our village. When we returned to Wisconsin, we delivered a number of 
speeches about education and poverty in East Africa based on our own 
personal experience and observations.
    Our experiences in Kenya certainly shaped my political career. I 
had the privilege of serving on the House International Relations 
Committee (HIRC) in the 107th, 108th, and 109th Congresses, and was a 
member of the subcommittees dealing with Africa and human rights in 
both the 108th and 109th Congresses.
    I played a leading role in crafting the Millennium Challenge Act, 
America's historic commitment to invest in developing nations that are 
pursuing political and economic reforms. I played an important role in 
crafting the Global Access to HIV/AIDS Prevention, Awareness and 
Treatment Act of 2001, and the United States Leadership Against HIV/
AIDS, Tuberculosis and Malaria Act. I have worked on legislation 
covering critically important policy areas such as international 
terrorism and human trafficking, and was a member of the House Human 
Rights Caucus. I hope and believe that each of these initiatives will 
help lift the daily lives of millions and millions of people--
particularly in sub-Saharan Africa.
    Several years ago, I worked with the National Democratic Institute, 
International Republican Institute and State Department as an election 
observer in Kenya. I watched voting and ballot counting procedures in 
the Kakamega District of that country, and helped the foregoing groups 
report on the progress of democratization in Kenya. In at least a small 
way, I believe our work reinforced the cause of democracy in East 
Africa.
    Prior to my election monitoring efforts, I traveled to West Africa 
along with Congressman Earl Pomeroy with the Academy for Educational 
Development, Oxfam, and Save the Children to look at and work on 
programs related to women's health and education in Africa. Congressman 
Pomeroy and I then worked to dramatically increase funding levels in 
the Federal budget for U.S. support to such programs.
    I also traveled to South Africa, Lesotho, and Namibia as a member 
of a HIRC codel that, in part, examined the HIV/AIDS challenges in that 
region. We met with public health officials, and pushed leaders to 
adopt more open and more aggressive policies toward the pandemic.
    In summary, throughout my life and my career, I have worked to 
support the causes of education, democratization, and human rights in 
Africa. Whether the venue be that small village around Makhokho 
Secondary School in Kenya or on the floor of the U.S. House of 
Representatives, I have been committed to being a strong voice for 
improving the lives of everyday Africans. Whether it be in support of 
legislation fighting human trafficking, or pushing for our foreign 
policy to include strong support for gender equality in African 
education, I hope that my work has made at least a little bit of a 
difference.
    I view the incredible honor of being nominated as United States 
Ambassador to Tanzania as a unique opportunity to serve our Government 
in an area of the world I care deeply about. It also represents yet 
another step in my lifelong commitment to Africa and a way to continue 
the work I love.
                                 ______
                                 

  Responses of Mark Green and Robert B. Nolan to Questions Submitted 
                     by Senator Christopher J. Dodd

    Question. Have you read the cable ref: 04 STATE 258893--Peace 
Corps--State Department Relations?

    Answer. State 258893 was sent to all diplomatic and consular posts 
on December 4, 2004. State 78240 was sent June 7, 2007 and carries 
substantially the same message. I have read both.

    Question. Do you understand and agree to abide by the principles 
set forth in this cable?

    Answer. Yes. If confirmed as Chief of Mission in Tanzania, I 
understand these policy principles from Secretary Rice and fully intend 
to carry them out. The Peace Corps has a unique role and must remain 
substantially separate from the day-to-day conduct and concerns of our 
foreign policy.

    Question. Specifically, do you understand and accept that ``the 
Peace Corps must remain substantially separate from the day-to-day 
conduct and concerns of our foreign policy'' and that ``the Peace 
Corps' role and its need for separation from the day-to-day activities 
of the mission are not comparable to those of other U.S. government 
agencies''?

    Answer. Yes.

    Question. Do you pledge, as Secretary Rice requests in 3.B of the 
cable, to exercise your Chief of Mission ``authorities so as to provide 
the Peace Corps with as much autonomy and flexibility in its day-to-day 
operations as possible, so long as this does not conflict with U.S. 
objectives and policies''?

    Answer. Yes. As I have indicated above, should I be confirmed, it 
is my intention to follow, fully and completely, Secretary Rice's 
directions regarding the Peace Corps.
    I respect and honor the mission and activities of the Peace Corps 
as it conducts its work in developing countries all over the world. 
There are few other U.S. programs--if any--that could duplicate the 
unique character of this organization as it seeks to improve the lives 
of those less fortunate than we. Peace Corps volunteers are the face of 
America in remote corners of the world, and they reflect the best 
attributes of the American spirit: Roll up your sleeves to tackle the 
daily challenges facing the world's poor with optimism and hope. Should 
I be confirmed, that will be one of the core messages I will want my 
team in Dar es Salaam to reflect.
                                 ______
                                 

         Responses of June Carter Perry to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. Although the trial of Charles Taylor for his role in the 
armed conflict in Sierra Leone began on June 4, the process of truth 
and reconciliation in the country has largely stalled. What role do you 
see for the United States in ensuring that the process of truth and 
reconciliation in Sierra Leone move forward? If confirmed, what will 
you do to promote the inclusion of justice in this process? What do you 
see as the long-term impact of the efforts of the Special Court for 
Sierra Leone (SCSL) in general and Taylor's trial in particular? United 
States support for the SCSL has been substantial. How do you see the 
courts as strengthening rule of law and democratization in Sierra Leone 
beyond the prosecutions of the individuals on trial?

    Answer. The United States has an important role to play in 
supporting Sierra Leone's Truth and Reconciliation process. However, as 
we support the consolidation of peace in Sierra Leone, we must ensure 
that the reconciliation process remains homegrown and that there is 
sufficient political will to implement the necessary reforms. The Truth 
and Reconciliation Commission (TRC) has identified corruption and the 
breakdown of the rule of law among the primary drivers of the civil 
conflict. The establishment of the Human Rights and Constitutional 
Reform Commissions create key opportunities for the U.S. Mission to 
support the TRC recommendations. If confirmed as U.S. Ambassador to 
Sierra Leone, I would engage the Government of Sierra Leone to ensure 
that these commissions are empowered to complete their goals. In our 
direct engagement with these commissions, I would seek to identify 
areas in which greater attention is needed.
    In addition to establishing these commissions, Sierra Leone has 
recently adopted key pieces of legislation such as the gender bills and 
the child rights bills, which set the framework to address some of the 
worst abuses that occurred during the civil conflict. If confirmed, I 
would direct the United States Embassy to continue to work with the 
relevant authorities in Sierra Leone to ensure the full implementation 
of these important pieces of legislation, and the law enforcement 
training needed to support their implementation.
    The long-term impact of the Special Court for Sierra Leone reaches 
well beyond Sierra Leone, to the region and to the world as a whole. 
The Court is a clear expression that the international community will 
not tolerate the impunity of gross abuse of human rights, and that the 
reach of international humanitarian law extends as far as sitting heads 
of state, as evidenced by the court's precedent-setting 2003 indictment 
of then-President of Liberia, Charles Taylor. Additionally, the court's 
recent verdict in the case against the Armed Forces Revolutionary 
Council established new international humanitarian case law, such as 
the first-ever rulings on the crimes of recruitment of child soldiers 
into an armed conflict and forced marriage in an armed conflict. These 
important legal precedents will protect two of the most vulnerable 
classes of victims of the armed conflict that devastated Sierra Leone, 
thereby extending the court's legacy throughout the region and the 
world for future generations.
    The court's excellent outreach efforts are a commendable example of 
its contribution to strengthening rule of law and democratization in 
Sierra Leone, having helped the people of the Mano River subregion take 
part in the justice process. Additionally, over 50 percent of Special 
Court personnel are Sierra Leonean, including police officers and 
prison guards, as well as lawyers, judges, court administrators, and 
courtroom personnel. The training these personnel have received while 
employed at the court, and the experience they have gained there, will 
have an enduring impact on judicial and law enforcement practices in 
Sierra Leone, as these dedicated professionals return to their jobs in 
the country's national courts and law enforcement agencies. Looking 
forward, both the Special Court and the Government of Sierra Leone 
should enhance their efforts to use the court's presence to enhance the 
rule of law and the administration of justice in Sierra Leone. If 
confirmed as ambassador, I would encourage the court to incorporate 
into its legacy a greater emphasis on improving the delivery of justice 
in Sierra Leone.

    Question. Military rebellions and coups have historically been a 
source of instability in Sierra Leone and remain a potential threat to 
the elected government. If confirmed, what steps would you take to help 
strengthen civil society and the rule of law in the country?

    Answer. Sierra Leone already has a strong and vibrant civil society 
with which the United States Mission enjoys a strong and healthy 
cooperation. If confirmed, I would continue the U.S. Mission's efforts 
to support and to work with civil society. The key challenge to 
stability in Sierra Leone is corruption. As ambassador I would ensure 
that all U.S. Government programs emphasize transparency, 
accountability and inclusiveness. I would continue the Mission's 
strategy to promote democracy and human rights awareness to increase 
citizens' expectations of transparent, responsive government, as well 
as to build the government's capacity to deliver services at all 
levels. I would continue to direct U.S. assistance to local and 
international NGOs to facilitate programs on improving human rights and 
democracy, promoting reforms in the areas of decentralization, civic 
education, child labor, and combating human trafficking.

    Question. Diamonds played a devastating role in fueling the brutal 
civil war in Sierra Leone. Although Sierra Leone is now a member of the 
Kimberley Process, controls on the artisanal diamond mining sector 
remain weak and smuggling of diamonds remains a serious problem due to 
lack of capacity and governance problems. If confirmed, what would you 
do to help promote better controls over the diamond sector to prevent 
diamonds from fueling conflict and to ensure that diamonds benefit the 
people of Sierra Leone? How would you support government and civil 
society in these efforts?

    Answer. A recent Kimberley Process review visit concluded that 
Sierra Leone met the minimum requirements, though internal controls 
should be strengthened. If confirmed, I would target the Mission's 
development assistance to promote transparent management of the diamond 
industry, and transparent governance writ large. Diamond sector reform 
would remain the primary component of our natural resources and 
biodiversity program, aiming to create legitimate ``fair trade'' 
diamonds and the establishment of in-country cutting and polishing 
operations. Our collaboration with civil society through USAID and the 
Peace Diamond Alliance has charted new territory in Sierra Leone by 
bringing together civil society, the private sector, and local 
communities to monitor alluvial diamond mining, and to ensure that 
public revenues generated are used for public good.
    Unfortunately, diamond smuggling remains a challenge in Sierra 
Leone. The 3 percent export tax, which some have contended may motivate 
smuggling to neighboring countries, is used to fund the Diamond Area 
Community Development Fund, which aims to enhance social and economic 
development in mining communities. To address the smuggling concerns, 
USAID and the UNDP are supporting regional efforts to harmonize export 
and fiscal taxes in the mining sector to eliminate the incentive for 
smuggling; I would continue to support these efforts, if confirmed.

    Question. What would you do to promote transparent management of 
natural resources in Sierra Leone so that the revenues from these 
resources are used to promote economic development and alleviate 
poverty in Sierra Leone?

    Answer. Sierra Leone is a resource rich country, which, due to poor 
governance, has not succeeded in transforming its natural wealth into 
prosperity for its people. Sierra Leone's weak economy is heavily 
dependent on agriculture and mining, and is moving steadily toward food 
security and diversification of rising mineral exports from diamonds to 
gold, rutile, and bauxite. Fishing is another key resource, but is 
heavily impacted by illegal poaching.
    Despite expressing its intent to join the Extractive Industry 
Transparency Initiative (EITI), Sierra Leone has yet to complete the 
independent validation necessary to implement EITI's transparency rules 
fully. If confirmed, I would work with the Government of Sierra Leone, 
civil society, and our international donor partners to ensure that 
Sierra Leone's vast resources are harnessed for the good of the Sierra 
Leoneans in an open and transparent manner. Looking regionally, we 
would continue to work on tri-border forestry and wildlife management 
activities which emphasize good governance, transparency, and 
accountability.

    Question. What, in your view, are the most pressing human rights 
issues in Sierra Leone? What are the steps you expect to take--if 
confirmed--to promote human rights and democracy in Sierra Leone? What 
do you hope to accomplish through these actions?

    Answer. Abuses by the security forces, domestic and gender-based 
violence, and child labor are the most pressing human rights issues in 
Sierra Leone. The recent passage of the child's rights and gender 
equity bills has created a framework to address some of these problems. 
If confirmed, I would work with the Government of Sierra Leone and the 
country's active civil society to ensure full and proper implementation 
of these important laws. For the last several years, my predecessor, 
Ambassador Hull, has effectively used the State Department's annual 
human rights report as a tool to engage Sierra Leone's Parliament on 
human rights issues. Following his most recent presentation of the 
report, the recently established Human Rights Commission publicly 
committed to publishing its own National Human Rights reports. Members 
of Parliament have asked that the Mission increase its engagement with 
Parliament on human rights beyond presenting the final report. If 
confirmed, I would build on my predecessor's work and establish an 
ongoing dialog with the new Sierra Leone Parliament to ensure that 
human rights are given the proper attention.
    Abuse by Sierra Leone's security forces demonstrates the need for 
enhanced and continued engagement on human rights and the rule of law. 
As ambassador, I would publicly call for serious, good faith 
investigations into abuses by security forces. Through our foreign 
assistance we should provide training that enhances police capacity to 
combat crime and promote the protection of human rights. In this 
regard, I would investigate training opportunities with the 
International Law Enforcement Academy.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous responses? What challenges will you face in Sierra Leone in 
advancing human rights and democracy in general?

    Answer. Corruption is the primary obstacle to reform and the 
promotion of human rights in Sierra Leone. The Truth and Reconciliation 
Commission also identified corruption as one of the key drivers of 
Sierra Leone's decade-long civil conflict. Though the Government of 
Sierra Leone has established an Anti-Corruption Commission (ACC) to 
address official malfeasance, more must be done. To date, the ACC has 
yet to convict officials for their involvement in incidents of high-
level corruption. To complete the healing process and consolidate 
peace, Sierra Leone must address impunity. If confirmed, I would 
continue to incorporate a focus on good governance, transparency, and 
anticorruption into all the Mission's engagement and assistance to 
Sierra Leone.

    Question. In your new position, what steps will you take to ensure 
that promotion of human rights objectives will be an integral part of 
the U.S. Embassy's activities? If confirmed, what steps will you take 
to ensure that Foreign Service officers who engage in human rights 
activities are encouraged and professionally rewarded for superior 
service?

    Answer. If confirmed, I would establish a working group on human 
rights within the embassy to address our human rights promotion 
activities. In addition, I would direct Democracy and Human Rights 
Funds to support local and international human rights-focused 
nongovernmental organizations in Sierra Leone. In public fora, I would 
speak on the importance of human rights and encourage any appropriate 
legislation through the Mission's engagement with the government 
leadership.
    I would seek to recognize officers who actively promote human 
rights through Superior and Meritorious Honor Award nominations, and 
acknowledgement in the regular employee evaluations. Their work would 
be recognized not only within the Mission, but through larger events 
involving host government, civil society, and private entities.

    Question. What are the most significant actions you have taken in 
your career to promote human rights and democracy? Why were they 
important? What was the impact of your actions?

    Answer. As Ambassador to Lesotho, I worked closely with the U.N. 
Development Program Representative, a female member of parliament, as 
well as the Ministers of Gender, Local Government, Foreign Affairs, and 
Culture to encourage the passage of a Women's Equity law. I also met 
with both the alliance of local NGOs and U.S. NGOs to advocate for the 
rights of all citizens, especially women and orphaned children. Through 
organizations such as ``Save the Children Lesotho,'' we were able to 
provide Ambassador's Girl's Scholarship funds for tuition and mentors. 
I also spoke on human rights before diverse organizations such as the 
Homemaker's Association and the Lesotho College of Education. To 
develop officers, I had the Deputy Chief of Mission in 2006 address 
human rights before a religious organization and had the Public 
Affairs/Political Officer publish articles or letters in the major 
English-language daily emphasizing human rights. At the ambassador's 
residence, I hosted Martin Luther King Day programs featuring panels of 
the Minister of Justice, Besotho alumni of United States exchanges, and 
professors from the University of Lesotho. These programs resulted in 
opening frank dialog, which were especially important during the pre-
electoral period, and encouraged organizations to take advantage of 
U.S.-sponsored grants. The Mission had not received Democracy, 
Governance and Human Rights Funds for some years. We were able to 
receive an initial $10,000 and later $30,000 to address human rights.
    As Deputy Chief of Mission in Madagascar, I chaired the Human 
Rights working group and awarded grants to the Ministry of Justice to 
attain an integrated computer system that advised citizens of their 
rights. As a second tour officer in Zimbabwe, I supervised the Special 
Self-Help program, which assisted market women in establishing 
cooperatives to empower them financially. As a desk officer in the 
Department, I worked closely with USAID and NGOs such as Africare to 
establish bursaries for a total of $20 million for nonwhite South 
African students during the apartheid era. I consider that effort to be 
a major achievement as it offered an opportunity to young South 
Africans. As an office director in the International Organizations 
bureau, I was responsible for managing an office that included the 
Economic and Social Commission, the Commission on Human Rights, and the 
Commission on the Status of Women. In this position, I believe my team 
and I made a major contribution in preparing the United States position 
against Libya's bid to chair the Human Rights Commission in Geneva. Our 
statement prepared for our ambassador was covered internationally and 
clearly laid out the fundamental beliefs that a country with major 
human rights violations and terrorist links should not chair the 
commission.
                                 ______
                                 

         Responses of Wanda L. Nesbitt to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. LTNAIDS describes Cote d'Ivoire as suffering from ``a 
relatively stable but serious epidemic,'' which shows some signs of 
decline in urban areas. Cote d'Ivoire is a PEPFAR focus country. If 
confirmed, how would you lead the United States country team in 
confronting the HIV/AIDS challenge in Cote d'Ivoire? As ambassador, 
what steps would you take to promote prevention efforts and to 
strengthen effectiveness of the Lesotho Government's response to the 
epidemic?

    Answer. If confirmed, I would maintain the dedication of my 
predecessor, Ambassador Aubrey Hooks, in administering the President's 
Emergency Plan for AIDS Relief. The Cote d'Ivoire program--funded at 
$84 million for fiscal year 2007, with a proposed budget of more than 
$100 million in fiscal year 2008--has produced significant results in 
the fight against HIV/AIDS in Cote d'Ivoire, including providing 
palliative care services for more than 44,000 people, care and support 
for more than 24,000 orphans and other vulnerable children, and direct 
and indirect support for antiretroviral treatment for more than 36,300 
people. I would continue the Ambassador's support for the PEPFAR 
interagency team by providing overall leadership and guidance at the 
policy level. To strengthen prevention efforts, I would build on the 
goodwill and solid relationships established by Ambassador Hooks to 
heighten the program's visibility and reach. I would pursue a systems-
building approach and encourage the forging of new private- and public-
sector relationships to build a sustainable response to the epidemic. 
In particular, I would focus on strengthening systems of accountability 
and partnership with decentralized local government and civil society. 
I am aware that I would be inheriting a dynamic and effective program 
that is achieving significant results under difficult circumstances, 
and I intend to be a supporter and advocate for the Cote d'Ivoire 
program.

    Question. Cote d'Ivoire is the leading producer of cocoa; revenues 
from the cocoa trade have helped fuel armed conflict and corruption in 
the country. If confirmed, what steps would you take to promote greater 
transparency and accountability in the cocoa industry?

    Answer. I strongly agree with proposals made by the World Bank and 
International Monetary Fund, which call on the Government of Cote 
d'Ivoire to enhance transparency in the mobilization and use of revenue 
from the oil, coffee, and cocoa sectors and to tie the agreement to do 
so with accessing World Bank funds for the disarmament, demobilization, 
and reintegration of former combatants. I would work diligently to 
ensure that such measures would be durable, effective, and open to 
scrutiny by both the international community and the Ivorian public. I 
would also maintain regular contact with private sector entities who 
have a keen interest in this issue, such as the Chocolate Manufacturers 
Associations, to ensure that we deliver a consistent message to the 
Ivorian Government.

    Question. The U.N. and Kimberley Process reported last year that 
conflict diamonds from Cote d'Ivoire were being smuggled out and making 
their way into the legitimate diamond markets around the world. How 
will you work to help ensure that the Kimberley Process is effectively 
implemented in Cote d'Ivoire and that controls over diamond mining 
areas are enforced and revenues from diamond trade are managed in a 
transparent and accountable manner?

    Answer. The U.S. Government strongly backs the Kimberley Process, 
and if confirmed, I would uphold its principles. It is important to 
note that with the recent peace accord between factions in Cote 
d'Ivoire, there are no areas of diamond production that meet the U.N. 
definition of conflict diamonds. Therefore, I believe the key to 
preventing the production of conflict diamonds is to offer the United 
States Government's full support to the implementation of the 
Ouagadougou Political Agreement and to work with the Government of Cote 
d'Ivoire to ensure that free and fair elections, which would solidify 
that peace, take place in 2008. The Government of Cote d'Ivoire is a 
member in good standing of the Kimberley Process and has cooperated 
fully with the U.N. and the Kimberley Process to eliminate the trade in 
conflict diamonds. Thus, I would encourage the government to continue 
to take constructive steps to mitigate disputes over control of 
diamonds and to prevent diamond revenues from being used for arms 
purchases.

    Question. What, in your view, are the most pressing human rights 
issues in Cote d'Ivoire? What are the steps you expect to take--if 
confirmed--to promote human rights and democracy in Cote d'Ivoire? What 
do you hope to accomplish through these actions?

    Answer. The 2007 United States Department of State's Human Rights 
Report gives the Government of Cote d'Ivoire poor marks for its human 
rights record. Among the most pressing concerns are: a delay in holding 
presidential elections, arbitrary and unlawful killings, arbitrary 
arrests and torture, exploitative child labor, and trafficking in 
persons. Human rights violations have typically been less documented in 
the north, but the New Forces militia group has been rightly criticized 
for killings and disappearances of civilians and ad hoc justice.
    If confirmed, I would work with the government, the Ivorian 
Independent Electoral Commission, and our NGO partners to make sure 
that free, fair, and transparent elections take place in 2008. This 
would include advocating for a thorough identification and registration 
process, which would ensure voter lists are as comprehensive and 
accurate as possible. Obviously, the objective would be to have a 
government that has broad support and, therefore, greater incentive to 
respect democratic practices and human rights principles. In addition, 
I would also focus on the effort to demobilize, disarm, and reintegrate 
former combatants so that this process was more than a symbolic 
gesture. The reunification of the country and the return of civil 
administration in the north should dramatically improve human rights 
throughout Cote d'Ivoire.
    Regarding the worst forms of child labor in the cocoa sector, I 
would continue the United States Government's consultative dialog with 
NGOs, the United States cocoa industry, and the Government of Cote 
d'Ivoire. I would encourage the government to take steps to ensure 
children are given a genuine opportunity to attend school rather than 
work in potentially dangerous conditions on cocoa farms. Moreover, I 
would work with the government to meet the benchmarks laid out in the 
Harkin-Engel Protocol. The government has made significant efforts to 
combat trafficking in persons, but it falls short of meeting the 
minimal standards to eliminate the practice. I plan to work with our 
international and civil society partners to strengthen and train the 
Ivorian institutions charged with preventing trafficking in persons, 
protecting its victims, and prosecuting the perpetrators.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous responses? What challenges will you face in Cote d'Ivoire in 
advancing human rights and democracy in general?

    Answer. Voter identification and registration as well as 
demobilization, disarmament, and reintegration are inherently 
controversial issues in Cote d'Ivoire. The former gets at the heart of 
the conflict: who is entitled to Ivorian citizenship, and who is not. I 
believe that one of the biggest obstacles will be overcoming the angst 
and fear that a number of different interest groups have about a 
potential change in the balance of power if 4 million currently 
undocumented people are eventually added to the voting rolls. The 
Government of Cote d'Ivoire needs to move on both of these issues 
quickly and decisively.
    Five years of conflict have deteriorated infrastructure and 
institutions. A culture of impunity has cemented mistrust and will be 
difficult to reverse. Building rule of law, fostering reconciliation, 
and increasing transparency are long-terms goals, which I plan to 
emphasize. Other challenges I believe I would face if confirmed 
include: holding the Ivorian Government to the commitments it has made; 
promoting greater political dialog with limited United States 
Government resources; mobilizing Ivorian resources to address 
trafficking and child labor; and seeking better coordination of donor 
contributions.

    Question. In your new position, what steps will you take to ensure 
that promotion of human rights objectives will be an integral part of 
the U.S. Embassy's activities? If confirmed, what steps will you take 
to ensure that Foreign Service officers who engage in human rights 
activities are encouraged and professionally rewarded for superior 
service?

    Answer. First, if confirmed, I would be honest, open, and 
forthright with Ivorian leaders about my expectations related to human 
rights. I would make it clear that the removal of section 508 sanctions 
is dependent on Cote d'Ivoire conducting free, fair, and transparent 
elections. Cote d'Ivoire cannot fully integrate into the international 
community of democracies without holding elections, and I would 
emphasize this point regularly. Furthermore, I would take advantage of 
all opportunities to intensively engage NGOs dedicated to promoting 
human rights, and I would use public outreach opportunities to engage 
Ivorian audiences on the subject.
    Within the Mission, I would ensure that we have a good strategy for 
promoting human rights and that every member of the country team 
addresses this issue in their interaction with Ivorian officials. I 
would hold regular sessions to evaluate our progress and to make sure 
that we stay on track. The State Department has an excellent system for 
recognizing and rewarding its Foreign Service officers. I would reward 
an officer who made superior contributions in the field of human rights 
by recommending him/her for an embassy meritorious or superior honor 
award, and I would nominate an officer who made a truly exceptional 
contribution for one of the Secretary of State's Department-wide award 
competitions.

    Question. What are the most significant actions you have taken in 
your career to promote human rights and democracy? Why were they 
important? What was the impact of your actions?

    Answer. As the United States Ambassador to Madagascar, I worked 
with our partners in the international community to resolve a 6-month 
dispute over the results of a Presidential election that resulted in 
the departure from office of the individual who had ruled Madagascar 
for 26 years. The leadership role we played in that crisis gave 
Madagascar its best opportunity in a generation to put in place a 
government that is more responsive to its people. Since the transition 
took place in 2002, the country has made good progress in terms of 
improving basic infrastructure, and increasing educational and economic 
opportunity. Much remains to be done but the trend is generally 
positive.
    In Tanzania, our Mission was one of only a handful that held 
regular discussions with government officials in Zanzibar. Those 
discussions focused almost exclusively on the need for Zanzibari 
leaders to demonstrate greater respect for democracy and human rights. 
We had excellent relationships with the major opposition parties as 
well, and our open dealings with them sent a clear message to the 
general public that we were talking to--and listening to--both sides. 
Using our public diplomacy Visiting Speaker program, we were able to 
assist dialog among parties in Zanzibar. We invited a well-known 
Muslim-American academic to speak to a group of Zanzibaris that spanned 
the political spectrum. He talked about conflict resolution in an 
inspiring way. A number of attendees at the event told us it was the 
first time they had been in the same room and spoken to each other in 
several years. We succeeded in getting people to talk to each other 
even if they were not able to immediately resolve their differences.
    In my assignments in Rwanda, Tanzania, and Madagascar I have been a 
strong supporter and proponent of women's rights and girls' education. 
In Madagascar, where a very large percentage of girls still do not go 
to school, we had a vigorous program--the Ambassador's Girls 
Scholarship Program--that gave hundreds of girls the chance to get all 
the way through high school. It was a program initiated by my 
predecessor and I was delighted to continue it. Thanks to our efforts, 
hundreds of girls, who would not otherwise have had the chance, can 
read and write because of this program; I am certain that they will 
retain a positive impression of the United States and make good 
contributions to their society for years to come.
                                 ______
                                 

         Responses of Maurice S. Parker to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. Tragically, the Kingdom of Swaziland has the highest HIV/
AIDS prevalence rate in the world: An estimated one-third of its adult 
population is HIV positive. If confirmed how would you lead the U.S. 
country team in confronting this challenge? As ambassador, what steps 
would you take to promote prevention efforts and to strengthen the 
effectiveness of the Swazi Government's response to the epidemic?

    Answer. If confirmed, I would make combating the HIV/AIDS pandemic 
my top foreign policy priority, after the protection of U.S. citizens 
and their interests. The horrible HIV/AIDS scourge devastates families, 
hampers economic growth, overwhelms health-care systems, and creates 
thousands of orphans. Stemming the tide of this disease in Swaziland 
will be a long-term effort.
    I would lead the country team by working closely with the Mission's 
new office for the President's Emergency Plan for AIDS Relief (PEPFAR) 
that includes representatives of the Center for Disease Control (CDC), 
the U.S. Agency for International Development (USAID), and the State 
Department's Office of the Global AIDS Coordinator (OGAC). PEPFAR's 
increased funding for fiscal year 2008 will assist the country team in 
meeting its goals.
    I would urge greater coordination of the Government of the Kingdom 
of Swaziland's efforts against HIV/AIDS in my discussions with King 
Mswati III, the Prime Minister, the Minister of Health, and by working 
with officials at Swaziland's National Emergency Response Council on 
HIV/AIDS (NERCHA). I would stress the need for expanded prevention 
efforts, increased government capacity for addressing HIV/AIDS, 
including improved drug procurement and drug supply management, better 
palliative care, and greater access to treatment. I would emphasize the 
importance of a strong message from the King to help de-stigmatize 
those with HIV/AIDS, as well as leadership from the King and senior 
governmental officials in altering AIDS-vulnerable behavior.

    Question. As high as Swaziland's national HIV prevalence rates are, 
they are even higher among young women. If confirmed as ambassador, 
what steps would you take to help the people of Swaziland address the 
vulnerabilities of women and girls to this epidemic and to increase the 
empowerment of women in this small, conservative kingdom?

    Answer. If confirmed, I would address the special vulnerabilities 
of women and girls to HIV/AIDS in my public statements, discussions 
with governmental officials, and contact with the Mission's 20 
implementing partners on HIV/AIDS programs. I would urge the Government 
of the Kingdom of Swaziland to take rapid action in bringing to 
Parliament a draft bill currently under governmental review that 
addresses the issue of domestic violence and the protection of 
children. I would also underscore to government officials the 
importance of taking forceful steps to prevent trafficking in persons. 
In my leadership role for the Mission's PEPFAR Country Operational 
Plan, I would ensure that gender is an integral part of the Mission's 
PEPFAR programming.
    In February 2006, a new constitution came into effect that provides 
new rights for women. I understand that the U.S. Agency for 
International Development is preparing to fund a program developed by a 
local civil society organization that will reach out to women 
throughout the country to explain to them their rights under the 
constitution. I would strongly support that effort as ambassador.

    Question. What, in your view, are the most pressing human rights 
issues in Swaziland? What are the steps you expect to take--if 
confirmed--to promote human rights and democracy in Swaziland? What do 
you hope to accomplish through these actions?

    Answer. I believe that governmental restrictions on democratic 
freedoms and serious abuses by security forces are the most pressing 
human rights issues in Swaziland. Although the new constitution 
provides for many democratic rights, the people are unable to change 
their government through democratic elections. Governmental practice 
places restrictions on freedom of the press, freedom of speech, freedom 
of assembly, and freedom of association, among others. The police and 
security forces are known to act with impunity, use torture and 
excessive force, and to make arbitrary arrests. If confirmed, I would 
press the Government of the Kingdom of Swaziland to amend existing 
legislation to bring it into conformity with the constitution and their 
international human rights obligations. For example, the new 
constitution provides women with fundamental rights and freedoms and 
these need to be codified in their legislation. I would publicly extol 
the benefits of a multiparty system and political openness. I would 
speak out against police abuses and press the government to bring the 
security forces under discipline. I would like to see the incidence 
rate of police abuse of detainees reduced.
    While change comes slowly in a place like Swaziland, if confirmed, 
I would hope to effect change, ever mindful of my position.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous responses? What challenges will you face in Swaziland in 
advancing human rights and democracy in general?

    Answer. The greatest potential obstacle to addressing human rights 
issues in Swaziland is the historically entrenched attitudes and 
practices. For example, the subordinate position long held by women 
makes it hard for them to assert their rights, even though the new 
constitution specifically provides greater rights for women.
    I would like to see political parties recognized officially in 
Swaziland, yet there is a general sense among a large segment of the 
public that political parties are harmful to society. When the previous 
king banned political parties in 1973, he claimed they were divisive 
and the cause of social discord. Given the tremendous respect accorded 
the previous king, this view of political parties continues to prevail 
in some quarters.
    Civil society typically plays a crucial role in advancing human 
rights in a country. While there are numerous civil society 
organizations in Swaziland, they lack the cohesion necessary to 
facilitate their working toward a common end.
    If confirmed, I would deal with these obstacles in a constructive 
manner in seeking to advance human rights in Swaziland.

    Question. In your new position, what steps will you take to ensure 
that promotion of human rights objectives will be an integral part of 
the U.S. Embassy's activities? If confirmed, what steps will you take 
to ensure that Foreign Service officers who engage in human rights 
activities are encouraged and professionally rewarded for superior 
service?

    Answer. The United States plays a crucial role in advancing human 
rights throughout the world. If confirmed, the advancement of human 
rights in Swaziland would be one of the key objectives of my tenure. I 
would lead the Mission's work on human rights by speaking out and 
engaging the country's leadership and civil society community on the 
issues. I would encourage my staff to do the same by ensuring that 
addressing human rights is included in the work requirement statements 
of appropriate Foreign Service officers (FSO) and stressing the 
importance of that work in employee-supervisor counseling sessions. I 
would note the accomplishments in the field of human rights in annual 
FSO Personnel Evaluations and would look for opportunities to nominate 
human rights officers for Department of State and Mission awards.

    Question. What are the most significant actions you have taken in 
your career to promote human rights and democracy? Why were they 
important? What was the impact of your actions?

    Answer. Promoting democratic principals and values and advocating 
for nations to institutionalize respect for human rights has been an 
important function throughout my career.
                              human rights
    As Principal Officer/Consul General in Ciudad Juarez, Mexico, I 
promoted Human Rights by:

  <bullet> Advocating for the release from prison of an American 
        citizen and her U.S. permanent resident husband, who were 
        serving life sentences for confessing to having committed a 
        murder as a result of their being subjected to torture. I 
        personally met with the American prisoner; two consecutive 
        governors and attorneys general of the state of Chihuahua, 
        Mexico, to advocate on the prisoner's behalf; ensured that the 
        Consular Officers on my staff were always available to assist 
        the prisoner, her family members and attorneys, to conduct 
        frequent visits (despite a 300-mile distance between Ciudad 
        Juarez and Chihuahua City, where the prisoner was imprisoned), 
        and appear at all judicial hearings. I also worked with Mexican 
        NGOs and the local media, and kept U.S. congressional officials 
        informed of the status of this case. Through an effective 
        combination of our Consulate General's active efforts against 
        this blatant miscarriage of justice and a superb legal team, 
        the couple was eventually released.
  <bullet> As Principal Officer/Consul General in Ciudad Juarez, I 
        strongly advocated for the investigation of the murders and 
        disappearance, over a period of 10 years, of approximately 300 
        women in that border city. My efforts included meeting 
        personally with two consecutive governors and state attorneys 
        general to urge them to conduct intense police investigations 
        (murder in Mexico is a state, rather than federal crime) into 
        the murders. I also met with Mexican federal officials, the 
        mayor of Ciudad Juarez, and municipal chiefs of police; hosted 
        the fact-finding visits of two United States Congressional 
        delegations (Representatives Hilda Solis twice and Janice 
        Schakowsky) to Ciudad Juarez; and worked closely with Mexican 
        and American NGOs to urge all Mexican authorities to 
        investigate the murders. As a result of my efforts, I helped 
        debunk many myths regarding the murders and provided the State 
        Department, Congress, and the general public with a clearer 
        idea of the problems facing the Mexican Government, including 
        explanations of why the murders/disappearances were not solved. 
        My ongoing discussions of the problem with the mayor of El Paso 
        and the special agent in charge of the FBI for El Paso, Texas, 
        led to a local agreement to have the El Paso homicide squad 
        provide basic law-enforcement training to members of the 
        Chihuahua state and Ciudad Juarez municipal police. The 
        training included guidance on how to secure a crime scene, 
        handle evidence, and conduct a murder investigation. The 
        agreement also established a 911 emergency telephone number in 
        Ciudad Juarez for Mexican citizens to provide confidential 
        information about possible crimes directly to Spanish-speaking 
        members of the El Paso Police Department. This training has 
        resulted in more effective investigative techniques for Mexican 
        law enforcement. Unfortunately, due to the mishandling of most 
        evidence associated with the murders of the women, the fact 
        that the vast majority of cases under review were cold, and the 
        general apathy demonstrated by the Chihuahua state officials 
        responsible for the investigations, the crimes remain unsolved.
  <bullet> In addition to my specific work on behalf of the disappeared 
        and murdered women of Ciudad Juarez, I also worked closely with 
        Ester Chavez Cano and her NGO, ``Casa Amiga,'' a crisis center 
        for battered women in Ciudad Juarez. Besides offering legal and 
        practical assistance to abused women, this NGO has also 
        advocated in a broader sense for human rights and full 
        citizenship status, with accompanying protection and benefits 
        under law, for women at all levels of Mexican society. To 
        support Casa Amiga's invaluable efforts for the women of Ciudad 
        Juarez, I obtained regular funding, a vehicle, and computer 
        equipment from Embassy Mexico City's Narcotics Affairs Section, 
        part of the Bureau of Narcotics and Law Enforcement Affairs 
        (INL) at the Department of State.
  <bullet> During my assignments to Barcelona, Spain; Lagos, Nigeria; 
        and Ciudad Juarez, Mexico, I was a contributor to each 
        embassy's annual Human Rights Reports. As United States 
        Representative to the Principality of Andorra, I was 
        responsible for drafting the Human Rights Reports for that 
        newly-independent and democratic microstate.
                               democracy
    I have used the tool of public diplomacy to advance democratic 
principals during the visits of three United States Supreme Court 
Justices to my posts. In 1985, I assisted Chief Justice Warren Burger 
during his official visit to Edinburgh, Scotland, to meet with senior 
officials of the Scottish judiciary. In 1995 and 1996, I hosted 
separate visits of Associate Justices of the United States Supreme 
Court, Stephen Breyer and Ruth Bader Ginsberg, to Barcelona. During 
each visit, I used their presence overseas to meet with local 
officials, members of the judiciary, key legal officials, the media, 
nongovernmental organizations (NGO), and the public to discuss the U.S. 
Constitution, uniqueness of the American democratic system, and rule of 
law. Also, as Principal Officer in Barcelona, in cooperation with the 
post Public Affairs Officer, I helped to sponsor a highly publicized 
lecture by former U.S. Senator and Presidential Candidate, Gary Hart, 
on the U.S. Presidential electoral process. All of these events helped 
to educate some of America's closest allies about our unique democratic 
system and legal practices.
                                 ______
                                 

          Responses of Robert B. Nolan to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. Lesotho has one of the highest HIV/AIDS prevalence rates 
in the world--just under one quarter of the adult population is HIV 
positive. If confirmed, how would you lead the U.S. country team in 
confronting this challenge? As ambassador, what steps would you take to 
promote prevention efforts and to strengthen the effectiveness of the 
Lesotho Government's response to the epidemic?

    Answer. With an HIV/AIDS prevalence rate of over 22 percent, 
Lesotho has been in a head-on collision with the HIV virus for well 
over a decade. Fortunately, the Government of Lesotho recognizes this 
challenge to the nation's very existence, and has been in the forefront 
of the campaign to fight the war against HIV/AIDS, including the 
involvement of Their Majesties the King and Queen, the Prime Minister 
and First Lady, and other key leaders in the country's groundbreaking 
``Know Your Status'' campaign. Now, in my view, this campaign is an 
important step for Lesotho as it highlights knowing your status to keep 
those who are negative negative, promotes protecting those who are HIV 
positive from infecting others, and offers a gateway to care and 
treatment for those in need. That being said, Lesotho needs to scale up 
its prevention campaign and move it to the next level--including the 
inclusion of prevention messages in all current donor HIV/AIDS programs 
in Lesotho. The battle to control HIV/AIDS in Lesotho cannot be won 
until the rate of new infections drops significantly. The key in this 
regard is ensuring that the general population has access to the entire 
package of HIV prevention interventions, including: quality counseling 
and testing; the prevention of mother to child transmission; ARV 
treatment as appropriately indicated and thus lowering the risk of HIV 
transmission among those who are HIV positive; addressing cultural 
factors that drive HIV transmission such as multiple, concurrent sexual 
partners; regular access to condoms for targeted, at-risk populations; 
and recognition of and assistance with the need to formulate a national 
policy and implementation program on male circumcision. It is clear 
that there is no magic bullet for prevention, but I am confident that 
the PEPFAR program under my leadership in Lesotho can play a primary 
role in helping to assure that all of these strategies are part of the 
national response.
    If confirmed, I will work energetically with His Majesty the King 
and other members of the Royal Family, Government of Lesotho officials, 
civil society leaders, and all stakeholders to encourage them to engage 
personally in reaching out to the people of Lesotho and in ensuring 
that the entire arsenal of prevention interventions is universally 
accessible to the people of Lesotho. I will specifically highlight the 
behavioral changes needed to prevent the spread of the virus as well as 
my belief that local ownership of behavioral change messages is 
essential if Lesotho is to win this battle.
    Concerning the broader question of improving the effectiveness of 
Lesotho's response to the pandemic, I think there is a need for greater 
coordination both among the approximately one-dozen Government of 
Lesotho entities engaged in fighting HIV/AIDS and among the donors, 
NGOs, and civil society who are working to support the government's 
work. This coordination will become more necessary once implementation 
of the soon-to-be-signed MCA Compact begins. The Compact provides 
approximately $122 million for the health sector to bolster human and 
physical infrastructure. If confirmed, I will work with the government 
and others to ensure that the considerable efforts to fight AIDS in 
Lesotho, including the work done under the MCA Compact and PEPFAR, are 
complementary and mutually supportive. The challenge to fight HIV/AIDS 
in Lesotho, particularly within the context of a vast shortage of 
qualified human resources, is so great that no efforts or resources can 
be wasted.
    The United States Mission Country Team is the key to ensuring that 
United States Government resources are used to maximum advantage in 
helping the Basotho win the war against HIV/AIDS. In coming months the 
Country Team will expand greatly with the addition of resident 
representatives of CDC, USAID, and MCC. If confirmed, I personally will 
lead the Country Team in the battle against HIV/AIDS.

    Question. The rights of women in Lesotho continue to be limited as 
well as violated. Despite the advocacy efforts of national NGOs, 
domestic violence and rape remain common, a fact which compounds the 
AIDS epidemic. If confirmed, what steps will you take to address these 
issues?

    Answer. The Government of Lesotho has made important progress in 
safeguarding the rights of women. To advance its eligibility for an MCA 
Compact, Lesotho enacted ground-breaking legislation that accords 
Basotho women broad protection under the law, especially concerning 
their ability to conduct business, acquire loans, and possess land. If 
confirmed, I will direct my efforts to urge that this marriage equality 
law is fully implemented, as I know there will be considerable 
resistance from some quarters to according all women their full rights. 
I would also continue our impressive efforts to provide secondary 
education to girls from the most vulnerable sectors of society, 
especially orphans. I would continue Embassy Maseru's outreach on 
trafficking in persons issues so that Basotho women do not fall victim 
to this modern form of slavery. I would also make concerted efforts to 
support the work of some of Lesotho's leaders on women's rights, 
including the First Lady, the Speaker of the National Assembly, several 
women leaders in the government's cabinet, and many dynamic civil 
society leaders. Finally, I will encourage the PEPFAR and MCC staff to 
actively continue making linkages between lack of gender equity in 
basic social relations in Lesotho and the continuing spread of the HIV 
virus.

    Question. Lesotho is considered to be one of the foremost 
beneficiaries of the Africa Growth and Opportunity Act (AGOA), but its 
AGOA exports are made up almost exclusively of apparel. If confirmed, 
what steps would you take to promote greater economic diversity and 
enhance potential investment opportunities for United States businesses 
in Lesotho outside of the textile sector?

    Answer. The Africa Growth and Opportunity Act (AGOA) has been a 
success story for Lesotho, with 40,000 people employed in the textile 
industry. The Government of Lesotho is indeed cognizant of the 
vulnerability inherent in having its manufacturing sector wholly 
devoted to textile production.
    To promote economic diversification in Lesotho, I will work with 
USAID's Trade Hub (located in Gaborone, Botswana) to maintain critical 
job-supporting exports in the apparel sector and to increase exportable 
products from Lesotho, such as ceramics and processed food products. 
The Trade Hub plays a key role in making market linkages for exporters 
from Lesotho, both to regional markets and to the United States.
    I will also work with the Trade Hub in conjunction with other 
donors, such as the British-funded ``ComMark Trust'' based in Maseru, 
on creating a business environment that is conducive to fostering 
additional investment to promote economic diversification in Lesotho 
and to create new jobs for the Basotho people.
    The $362.5 million Millennium Challenge Compact, soon to be signed 
with Lesotho, will help the country address a key constraint to 
increased industrial development. Specifically, the Compact will 
provide funding for a highland dam project intended to resolve water 
shortages in populated areas.

    Question. What, in your view, are the most pressing human rights 
issues in Lesotho? What are the steps you expect to take--if 
confirmed--to promote human rights and democracy in Lesotho? What do 
you hope to accomplish through these actions?

    Answer. Lesotho is a constitutional monarchy and a vigorous, if 
young, democracy. As reported in the State Department's 2006 Human 
Rights Report, human rights are generally respected by the government. 
One of the most serious human rights concerns in Lesotho is 
discrimination toward women, including the prevalence of violence. The 
Government of Lesotho has made important progress in safeguarding the 
rights of women. To advance its eligibility for an MCA Compact, Lesotho 
enacted ground-breaking legislation that accords Basotho women broad 
protection under the law, especially concerning their ability to 
conduct business, acquire loans, and possess land. If confirmed, I will 
urge that this marriage equality law be fully implemented, as I know 
there will be considerable resistance from some quarters against 
according all women their full rights. I would continue our impressive 
efforts to provide secondary education to girls from the most 
vulnerable sectors of society, especially orphans, as well as our 
funding of community self-help projects, many of which empower local 
women's groups and organizations. I would also support the work of 
Lesotho's leaders on women's rights issues, including the First Lady, 
the Speaker of the National Assembly, cabinet members, and civil 
society leaders. Recent embassy activities publicizing the scourge of 
trafficking in persons and celebrating the history of the U.S. civil 
rights movement are examples we can build upon.
    I will use my position to ensure that the nation's military and 
police respect and support the Basotho people's civil and human rights. 
In this regard, robust democratization efforts, such as the confidence 
and capacity-building activities which Embassy Maseru and the National 
Democratic Institute conducted during Lesotho's February 2007 national 
assembly election, are key to the nation's continued strong human 
rights record.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous responses? What challenges will you face in Lesotho in 
advancing human rights and democracy in general?

    Answer. The greatest obstacle in overcoming lack of respect for 
women's rights in Lesotho is the difficulty of changing traditional 
attitudes in Basotho society. Fortunately, those attitudes are changing 
under the leadership of His Majesty the King, the Speaker of the 
Assembly, the First Lady, and other government and civil society women 
leaders. If confirmed, I will work with Lesotho's leaders and with 
civil society groups to help ensure women are informed of their rights 
and are able to take advantage of them. I would like to point out the 
tremendous positive impact that United States policies on women's 
issues has had in the Mountain Kingdom, such as the advocacy by the 
United States Embassy and the Millennium Challenge Corporation of 
Lesotho's ``Legal Capacity of Married Persons'' Act. Under my 
leadership, we will steadfastly continue to seek equality for Basotho 
women so that they can fully contribute to the nation's development.
    Additionally, under my leadership, the United States Embassy in 
Maseru will continue to aid the professionalization of Lesotho's 
military and law enforcement entities so that they can serve as 
defenders of the Basotho people's rights.

    Question. In your new position, what steps will you take to ensure 
that promotion of human rights objectives will be an integral part of 
the U.S. Embassy's activities? If confirmed, what steps will you take 
to ensure that Foreign Service officers who engage in human rights 
activities are encouraged and professionally rewarded for superior 
service?

    Answer. If confirmed, it would be my intention to make the 
promotion of human rights and strengthening of democracy in Lesotho key 
elements in our mission strategic plan. Moreover, I will stress to all 
personnel and agencies under my authority my belief that the 
institutionalization of basic human rights in Basotho society is a 
prerequisite for success in all other endeavors, including economic 
development and efforts to combat HIV/AIDS. I will ask all members of 
the Mission, regardless of their role, to contribute to advancing human 
rights in Lesotho. If confirmed as Ambassador to Lesotho, I intend to 
encourage and reward--through the Department's award system and 
individual performance evaluations--insightful, reporting on human 
rights and democracy, as well as on other issues. I will impress upon 
my team that we are in Lesotho to act as transformational players in 
fields such as human rights and democratization. I will also continue, 
adapt, and expand upon our recent cooperation with the National 
Democratic Institute to build local capacity and confidence among 
political stakeholders.

    Question. What are the most significant actions you have taken in 
your career to promote human rights and democracy? Why were they 
important? What was the impact of your actions?

    Answer. From 2001 until 2006, I served as the Office Director in 
the Bureau of Human Resources for the Office of Performance Evaluation 
(HR/PE). In this position, I was responsible for the management of the 
Foreign Service's performance evaluation and promotion systems.
    In HR/PE, I played a leadership role in the creation of the Career 
Development Program (CDP) for Foreign Service generalists. The CDP 
contains a road map of the assignments a generalist must take in order 
to be eligible for consideration for promotion into the Senior Foreign 
Service (SFS). In CDP, I helped to make the case that operational 
effectiveness needed to include a breadth of experience over several 
regions and functions. The CDP thus encourages Foreign Service officers 
to serve a tour of duty in the Bureau of Democracy, Human Rights and 
Labor (DRL) as a mid-level officer in order to demonstrate their 
operational effectiveness. By creating this incentive for an assignment 
in DRL, we emphasized the importance of working to support human 
rights. In addition, we believe that CDP will result in more mid-level 
employees working on human rights issues to demonstrate their breadth 
of experience in order to become more competitive for promotion into 
the Senior Foreign Service.
    While serving in HR/PE, I was also responsible for managing the 
Procedural Precepts process. The Procedural Precepts establish the 
scope, organization, and responsibilities of the Foreign Service 
Selection Boards and describe the criteria to be used by the boards in 
reaching their promotion determinations. In this HR/PE leadership role, 
I helped to emphasize the importance of human rights in the Procedural 
Precepts. For example, our 2006 Procedural Precepts specifically 
mentioned human rights as being of importance to U.S. interests as a 
global issue. The Procedural Precepts further added the comment that 
selection boards should acknowledge expertise and accomplishments of 
employees in areas such as human rights and give these employees full 
consideration for promotion. The Foreign Service promotion process thus 
helps to encourage employees to work on human rights issues.
    Since 2006, I have served as the Office Director in the Bureau of 
Human Resources for the Office of Career Development and Assignments 
(HR/CDA). In this position, I am responsible for the management of the 
Foreign Service's assignments system. In HR/CDA, I have led 
management's efforts to reform the Foreign Service assignments process. 
Specifically, we have made changes to the bidding process to improve 
the staffing of our most difficult hardship posts overseas. These 
difficult hardship posts are very often dealing with critical human 
rights issues on a bilateral or multilateral basis. By helping to make 
certain that positions at these posts are filled rather than being left 
vacant, we are ensuring that U.S. Missions overseas have the necessary 
American staffing to focus on human rights issues.
                                 ______
                                 

         Responses of Frederick B. Cook to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. The International Criminal Court announced on May 22, 
2007, that it would open an investigation into crimes committed in the 
Central African Republic by parties to the conflict in the region from 
2002-2003. What is your opinion of this decision? If confirmed, how 
will you support the peace process in CAR?

    Answer. In December 2004, the Central African Republic (CAR) asked 
the International Criminal Court to investigate crimes within the 
jurisdiction of the court committed anywhere in CAR territory since 
July 1, 2002, the date of entry into force of the Rome Statute, which 
established the court. The CAR Government referred this case to the 
court because the CAR justice system lacks the capacity to carry out 
the complex legal proceedings necessary to try this case adequately. 
The United States is not a party to the Rome Statute, but we respect 
the rights of other states to become parties and to seek the 
involvement of the ICC in addressing serious crimes in their countries 
as the CAR has done in this instance. The United States shares a common 
interest in promoting justice and accountability for mass atrocities 
and we remain a leading world voice in furthering international 
criminal justice.
    If confirmed, I will support the peace process in CAR by engaging 
with both the government and the opposition and emphasizing the need 
for a peaceful and democratic resolution to their differences. I would 
support the efforts of the United Nations Peacebuilding Office in CAR 
(BONUCA) to establish a comprehensive dialog and to mediate between 
political leaders to foster reconciliation. I would encourage the 
government and its mediators to develop peace agreements with the 
various armed rebel groups in a transparent and inclusive manner. 
Finally, I would urge the government to address some of the underlying 
issues contributing to the conflict, such as the lack of rule of law 
and uneven economic development.

    Question. The United States Agency for International Development 
does not have a development assistance program in the Central African 
Republic. Under what conditions would you favor initiating an 
assistance program?

    Answer. While the United States Agency for International 
Development (USAID) does not have a mission in the Central African 
Republic (CAR), there is a considerable amount of USAID engagement in 
the country. The majority of USAID support for CAR in fiscal year 2007, 
approximately $16 million, consists of humanitarian assistance, 
including emergency food aid, emergency relief supplies, well 
rehabilitation, nutrition assessments, and seeds and tools 
distribution.
    The remaining fiscal year 2007 USAID assistance, approximately $1 
million dollars, is targeted toward more traditional development 
programs. Projects include a program to develop property rights and 
increase transparency in alluvial diamond mining in CAR in accordance 
with the Kimberley Process as well as programs under the Central 
African Regional Program for the Environment (CARPE) to chart and 
record CAR's forest resources and to promote conservation. The property 
rights project is managed from USAID headquarters in Washington and 
CARPE is administered out of the USAID mission in Kinshasa, Democratic 
Republic of the Congo.
    Presently, the United States Embassy in CAR is not staffed 
sufficiently to directly manage large-scale USAID development 
assistance, which is why the embassy has relied on regional missions 
and Washington to manage projects. If confirmed, I would welcome a 
mission should USAID headquarters determine that adequate operational 
funding was available to establish such a mission in CAR.

    Question. What, in your view, are the most pressing human rights 
issues in the Central African Republic? What are the steps you expect 
to take--if confirmed--to promote human rights and democracy in CAR? 
What do you hope to accomplish through these actions?

    Answer. With rebel groups and bandits operating throughout the 
country, and spill over from conflicts in neighboring states, the 
greatest challenge to the promotion of human rights in the Central 
African Republic (CAR) is the deteriorating security situation. 
Hundreds of thousands of people have been driven from their homes by 
both rebel attacks and counter attacks by government forces. The 
general condition of lawlessness and impunity, including extrajudicial 
killings by government agents and rebel groups, has also subjected 
civilians to increasing acts of banditry and violence. Homes and 
property have been destroyed or stolen by both sides and children have 
been kidnapped for ransom, resulting in displacement of almost 8 
percent of the population. Displacement means greater exposure to 
disease and dangerously reduced agricultural production, which has led 
to a humanitarian crisis.
    Not only does insecurity have humanitarian consequences, but it 
undermines long-term economic development as well. Bandit attacks on 
commercial routes in the west and northwestern parts of the country 
have stifled trade and business, hindering the ability of the Central 
African people to lift themselves out of a life of poverty.
    Now that a democratically elected government heads CAR after years 
of conflict, we have a small window of opportunity to advance the cause 
of human rights in that country. If confirmed, I will attempt to engage 
all elements of society and encourage them to cooperate to bring peace 
and stability to the country.
    To the government, I will deliver the message that the promotion of 
human rights is necessary, not merely to ensure assistance from the 
international community, but to lay the foundation of a strong and 
stable republic that enjoys the support of its own people. Government 
military forces must no longer act with impunity. To foster respect for 
human rights and civil-military relations, I will urge the government 
to train its forces in these fields in addition to operational training 
that will make them more effective in securing CAR territory.
    To the rebels, I will deliver the message that their grievances can 
only be resolved through peaceful political engagement. Attempts to 
gain power or leverage by force will be condemned by the international 
community.
    To civil society, I will express U.S. support for their efforts to 
promote judicial and legislative independence and to advance 
transparency at all levels of government. These institutions must pass 
the laws and establish the procedures necessary to resolve internal 
conflict and end impunity.
    If the CAR Government and society can make the necessary changes to 
enhance security, there will be a tangible increase in human rights and 
respect for democracy which will lead to a betterment of the lives of 
the Central African people.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous responses? What challenges will you face in the Central 
African Republic in advancing human rights and democracy in general?

    Answer. As the Central African Republic (CAR) has not had a history 
of democratically elected governments that respect human rights, the 
greatest challenge to promoting human rights in CAR is the lack of a 
shared vision of responsible democratic government amongst the various 
factions, be it government, rebel groups and bandits, or even perhaps 
civil society.
    Thus, the first major challenge is to convince all of the factions 
that peaceful and democratic change is really possible. To do that, if 
confirmed, I will endeavor to meet with all elements of society 
throughout the country and will encourage my staff to do the same. We 
will, however, be constrained by our small size and the prevailing 
security conditions.
    With a population of only about four million people, the problems 
of the Central African Republic are often overshadowed by those of 
neighboring countries such as Sudan or the Democratic Republic of 
Congo. It will be a major challenge to secure adequate resources to 
support the programs and projects we have identified. This will require 
intensive engagement and coordination with our international partners 
and the nongovernmental community to both encourage continued 
engagement as well as to prevent waste or duplication of effort.

    Question. In your new position, what steps will you take to ensure 
that promotion of human rights objectives will be an integral part of 
the U.S. Embassy's activities? If confirmed, what steps will you take 
to ensure that Foreign Service officers who engage in human rights 
activities are encouraged and professionally rewarded for superior 
service?

    Answer. I see support for human rights as the cornerstone of our 
engagement in the Central African Republic. The United States Embassy 
in Bangui is extremely small, with a staff of only three United States 
citizen employees, (if confirmed, I will be its fourth) but, with 
energy and imagination, we can reach out to all elements of Central 
African society. If confirmed, I will make sure that the promotion of 
human rights remains a priority goal in the Mission Strategic Plan, the 
document in which we outline our major policy goals for each embassy. 
Similarly, as the rating or reviewing officer for every U.S. citizen 
employee at post, I will be able to assure that the promotion of human 
rights is highlighted in both the work requirements and the performance 
review of every member of the staff.

    Question. What are the most significant actions you have taken in 
your career to promote human rights and democracy? Why were they 
important? What was the impact of your actions?

    Answer. One of the most powerful elements of diplomacy is personal 
engagement. I served as Deputy Chief of Mission in Venezuela during the 
period when President Chavez was removed from office and the aftermath. 
One of our major policy goals was to work for national reconciliation. 
I undertook a long-term campaign to encourage dialog between the 
various pro- and anti-Chavez mayors of the various districts of 
Caracas. This involved office calls, repeated invitations to my home, 
and late night visits to offices full of people with guns. As one mayor 
commented to a Congressional staff delegation over breakfast on my 
patio, ``This is the only place in Venezuela where I would ever agree 
to be in the same room with these people.'' I wish I could tell you 
that my efforts achieved national reconciliation in Venezuela. I 
cannot. I do believe, however, that my personal intervention prevented 
violence on at least one occasion and I can assure you that both sides 
acknowledged, if only privately, the efforts of the United States to 
promote reconciliation.
    While serving as interim Deputy Chief of Mission in Haiti, I 
undertook a similar effort to reach out to and meet with an important 
Aristide partisan who was in hiding, thus attempting to model the kind 
of reconciliation that the Haitians themselves must eventually 
undertake. Haiti is another country where grinding poverty feeds 
political instability. When I learned that labor disputes threatened to 
close a factory on the other side of the island, near the Dominican 
border, I traveled overland to the plant and met with union members, 
the AFL-CIO representative, and the Dominican plant owner to reduce 
tensions and prevent the closure of the plant. This saved hundreds of 
Haitian jobs.
                                 ______
                                 

         Responses of William Garvelink to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. One of the many tragedies of the Democratic Republic of 
Congo's long civil war has been the widespread use of child soldiers. 
Reportedly, this practice continues, not only among rebel groups but 
also in the Congolese Army, including children who were serving as 
rebel combatants who have been integrated into the national army. The 
chief of staff of the armed forces has issued an order to his 
commanders to stop recruiting and using child soldiers, but the 
practice continues. What steps can you take to strengthen efforts to 
professionalize the military and eliminate this reliance on children 
and to assist in the rehabilitation and reintegration of former child 
combatants?

    Answer. As you noted, the Congolese armed forces banned the 
recruitment of child soldiers in 2006. Approximately 29,000 out of a 
total of 33,000 child soldiers have been demobilized in the Congo, 
largely through programs funded through the World Bank-led Multi-Donor 
Regional Project (MDRP). That said, it is unacceptable that an 
estimated 4,000 children still serve as soldiers in the Democratic 
Republic of Congo, largely in militia groups but also in Congolese 
armed forces units that have not yet been integrated. Our approach to 
this serious problem is to support the demobilization of all remaining 
child soldiers, as the first demobilization priority, as we work to 
assist in the formation of fully professional Congolese armed forces. 
We are planning programs to support the reintegration of former 
combatants, including demobilized child soldiers, both through the U.N. 
Development Program (UNDP) and directly through USAID in areas not 
covered by the MDRP or UNDP Disarmament, Demobilization and 
Reintegration (DDR) programs. We are working to raise the level of 
professionalism in the Congolese armed forces by training brigade staff 
officers. We are also planning to refurbish the Congolese military 
staff college and funding a Defense International Institute for Legal 
Studies assessment of the Congolese military justice system aimed at a 
designing a proposal for United States assistance in reforming the 
military justice sector.

    Question. Gender-based violence has been another horrific legacy of 
conflict in the Congo, as well as the disintegration of many social 
norms. If confirmed, what steps can you take to help strengthen the 
rights and security of women and girls, to strengthen the rule of law, 
and to aid the Congolese in their efforts to assist survivors of 
gender-based violence?

    Answer. Gender-based violence (GBV) is indeed a horrific problem in 
the DRC. The physical consequences of GBV are devastating, and the 
social and psychological consequences can be just as catastrophic. 
Fistula is also a serious problem for victims of sexual crimes in the 
DRC, and many lack access to appropriate treatment. In addition, an 
estimated 2 million Congolese are infected with HIV/AIDS, and there 
have been reports that as many as 60 percent of combatants are 
infected. In too many cases, victims of sexual violence will not even 
report the crime because of the social stigma associated with victims.
    If confirmed, I will work to provide counseling and treatment for 
victims, and to remove the social stigma associated with GBV victims. 
Currently, with USAID funding, including Victims of Torture and 
Trafficking in Persons funds, international organizations work with 
local nongovernmental organizations (NGOs), health structures, and 
community based organizations (CBOs) to increase their capacity to 
provide a package of support to survivors including medical, 
psychosocial, and socio-reintegration services, as well as to promote 
judicial support and referral when appropriate. Since 2002, USAID has 
assisted over 40,000 survivors of sexual violence in the eastern DRC.
    The battle against GBV must also concentrate on preventative 
action. If confirmed, I will cultivate civil society partnerships that 
can augment our effectiveness in the struggle against GBV. I will also 
work closely with the Government of the DRC to strengthen the legal 
mechanisms for bringing the perpetrators of GBV to justice. The war-
time perception that rape goes unpunished is prevalent, and the only 
way to change this perception is to reject impunity. Men must 
understand that they can and will be punished for GBV, otherwise this 
crime will continue. If confirmed, I will also work to end impunity for 
the perpetrators of crimes of sexual violence.

    Question. Given the central role that natural resources play in the 
DRC's economy and development; the history of widespread corruption; 
and the risk natural resources can pose to peace and security if not 
properly managed; if confirmed, how will you try to ensure the new 
Congolese Government prioritizes the responsible and transparent 
management of natural resource reforms?

    Answer. The natural resources of the DRC, if managed properly, have 
the potential to play a crucial role in improvements of the DRC's 
economy and the livelihood of the Congolese people. Unfortunately, as 
your question indicates, the DRC's wealth of natural resources has 
historically brought much corruption and exploitation. The elections of 
last year established a foundation of legitimacy from which we have an 
opportunity to reverse this trend, and if confirmed I will push the 
government on this issue through every possible medium.
    Recent actions in the DRC provide reason for optimism. Parliament 
recently undertook a review of 60 mining contracts in the DRC. It is my 
hope that this review reflects the will of the entire Government of the 
DRC (GDRC) to promote a legal and fair procedure for negotiating mining 
contracts. If confirmed, I will work with Parliament to develop a 
transparent and date-limited contract review process.
    President Kabila's recent actions, such as his visit to South 
Africa to promote foreign investment in the DRC, show that he is 
attempting to rebuild the economy through capitalist means. It will be 
my job, if confirmed, to work with him to ensure that increased foreign 
investment in the mining sector benefits the Congolese people. I will 
also work with those companies in the private sector that invest in DRC 
extractive industries, such as the United States-based Freeport, to 
ensure fairness in contracts and emphasize oversight. If confirmed, I 
will also work with the GDRC to enhance border control in order to 
reduce illegal resource smuggling.
    If confirmed, I hope to work with and increase cooperation among 
the GDRC, private companies, and the Congolese people. I will work to 
strengthen democratic institutions that facilitate communication and 
transparency. I would note that we are already working to foster this 
change though USAID's partnership through the NGO PACT and several 
major mining companies in the Extractive Industries Alliance. We also 
support DRC's membership in the Kimberley Process and encourage the 
completion of DRC's candidacy in the Extractive Industries Transparency 
Initiative (EITI).

    Question. What, in your view, are the most pressing human rights 
issues in the DRC? What are the steps you expect to take--if 
confirmed--to promote human rights and democracy in the DRC? What do 
you hope to accomplish through these actions?

    Answer. The DRC's human rights record remains poor. Unlawful 
killings, arbitrary arrests and detention by security forces, 
disappearances, rape, and harassment of press and human rights 
defenders continue. At the core of many of these abuses is a corrupt 
and dysfunctional justice system. The Congo suffers from the gamut of 
human rights problems, exacerbated by widespread poverty, mismanagement 
of resources, and a lack of transparency. These issues are 
interrelated. Following last year's historic elections, the time has 
come to tackle the problem of impunity and to support the development 
of democratic institutions to nurture human rights to replace the 
predatory state institutions that have weakened the Congolese society. 
My role, if confirmed, will include working with government leaders and 
parliament to ensure that appropriate internal checks and balances are 
established and respected, enhancing communication among government 
agencies, supporting the development of a free and credible media 
sector, calling for proper resource management that allows profits to 
reach the Congolese people, and pushing for enhanced governmental 
transparency.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous responses? What challenges will you face in the DRC in 
advancing human rights and democracy in general?

    Answer. As I see it, there are three key obstacles to addressing 
these human rights issues: the culture of impunity, a lack of political 
will to effect change, and corruption. While impunity and the lack of 
political will are serious issues in their own right, I believe they 
are also linked to the underlying problem of corruption. Corruption in 
the DRC is a far-reaching problem, extending throughout both the 
government and the private sector. Should I be confirmed, corruption 
will pose a serious challenge to my efforts to work with the government 
of the DRC to develop transparent and sustainable management 
strategies. If I am confirmed, I will make every effort to address 
these serious challenges. By establishing a functioning justice system 
and the fight against impunity, I believe the DRC can create a climate 
that fosters a genuine desire among the leadership to protect human 
rights.

    Question. In your new position, what steps will you take to ensure 
that promotion of human rights objectives will be an integral part of 
the U.S. Embassy's activities? If confirmed, what steps will you take 
to ensure that Foreign Service officers who engage in human rights 
activities are encouraged and professionally rewarded for superior 
service?

    Answer. I plan to make the promotion of human rights a major aspect 
of my engagement with the Congolese host government, diplomatic 
colleagues, and staff at United States Embassy-Kinshasa. My goal would 
be to lead by example to show Foreign Service officers my commitment to 
the promotion of human rights, and to make it clear to them that I 
believe professional advancement depends in large measure on one's 
commitment to advance human rights internationally. I will recommend 
rewards for those officers who are outstanding performers in this area.

    Question. What are the most significant actions you have taken in 
your career to promote human rights and democracy? Why were they 
important? What was the impact of your actions?

    Answer. Before joining USAID, I worked in the late 1970s as a human 
rights specialist for the House Foreign Affairs Committee, Subcommittee 
on International Organizations chaired by Representative Donald M. 
Fraser. My interest in human rights, particularly as it relates to 
internally displaced persons (IDPs) and refugees, continues throughout 
my career. In 2003, I led the USAID effort to draft a USAID policy 
paper on assisting IDPs. The paper linked human rights and protection 
issues with approaches to assisting IDPs and is the current guidance 
for USAID missions around the world. The paper was approved by USAID 
and endorsed by the interagency. I presented the USAID strategy to the 
international community in Geneva in 2004. It was the first donor 
policy paper that linked assistance to IDPs with human rights and 
protection issues and was applauded for that. It is the example being 
used by several other nations in designing their own approach to IDPs, 
protection, and human rights.
    Within the Bureau for Democracy, Conflict and Humanitarian 
Assistance (DCHA) where I serve as the Senior Deputy Assistant 
Administrator, I created in 2003 a Protection Unit which develops 
strategies to ensure that the rights of the IDPs and others assisted by 
USAID are properly protected. The Protection Unit implemented projects 
in Iraq on human rights and reprisal prevention. In 2004-2005, the unit 
oversaw the collection of evidence on human rights abuses in Chad and 
Darfur that supported a declaration of genocide. The unit currently 
oversees Violence Against Women projects in Darfur and Northern Uganda. 
Through the unit, I provided funding to the United Nations High 
Commission for Refugees to hire 10 additional protection officers for 
rapid deployment on human rights issues around the world.
    It is essential to integrate human rights and protection concerns 
with our humanitarian response and development activities if our 
assistance is to meet effectively the needs of the world's IDPs. The 
linkage had not been made in USAID programming decisions prior to the 
adoption of the IDP Policy Paper and the creation of the Protection 
Unit. With the policy paper, IDP assistance has become a USAID
priority. The Protection Unit within DCHA implements activities and 
provides guidance to the rest of USAID on methodologies and techniques 
for integrating protection and human rights concerns into USAID's IDP 
and refugee programs. The Protection Unit is the institutional platform 
to ensure USAID's commitment to IDPs, human rights, and protection.


                              NOMINATIONS

                              ----------                              


                        WEDNESDAY, JUNE 20, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
Brownfield, William R., to be Ambassador to the Republic of 
        Colombia
Duddy, Patrick Dennis, to be Ambassador to the Bolivarian 
        Republic of Venezuela
McKinley, Peter Michael, to be Ambassador to the Republic of 
        Peru
                              ----------                              

    The committee met, pursuant to notice, at 10:04 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Jim Webb 
presiding.
    Present: Senators Webb, Menendez, and Corker.
    Also present: Senator Collins.

              OPENING STATEMENT OF HON. JIM WEBB,
                   U.S. SENATOR FROM VIRGINIA

    Senator Webb. The committee will come to order.
    This hearing of the Committee on Foreign Relations will now 
come to order, with the precatory words that we are going to 
have some sort of a vote called during this hearing, in which 
case we will have to recess. But we're going to try to get all 
the opening statements into the record before that happens.
    The committee is meeting to consider the nomination of 
three individuals for key leadership positions in the 
administration. The President has nominated William Brownfield 
to be Ambassador to the Republic of Colombia, Dr. Peter 
McKinley to be Ambassador to the Republic of Peru, and Patrick 
Duddy to be Ambassador to the Bolivarian Republic of Venezuela.
    I want to congratulate all of you on your nominations. We 
look forward to hearing from each of you this morning. I also 
welcome my colleague, Senator Collins, who has joined us today 
to introduce Mr. Duddy.
    It's a pleasure to chair my first Foreign Relations 
Committee hearing and to consider the nominations of three 
Foreign Service officers with extensive experience to serve in 
an often overlooked region of the world. Each nominee's 
dedication and skill will undoubtedly serve our Nation well in 
their respective posts.
    With much of our Nation's attention and resources being 
taken up by the ongoing challenges in Iraq and Afghanistan, 
little concern is paid to what's going on in what has been 
called America's back yard. The United States and Latin America 
share common interests and cultures. We also share common 
problems, such as drug trafficking, transnational crime, and 
the threats of terrorism. Strengthening our relationships with 
countries in the Western Hemisphere will increase our level of 
cooperation to solve many of our shared challenges.
    All three nominees possess incredible credentials, 
training, and proven expertise. I am confident that all of you 
have the skills and dedication to represent our Nation at this 
important yet challenging time.
    I look forward to hearing about how each of you will 
approach your new assignments. I'd like to thank all of you for 
the years of service you've given our country and I commend you 
for your willingness to continue this commitment to serve in 
the future.
    I'd like now to turn to the distinguished ranking member of 
the committee, Senator Corker, for his opening statement.

                 STATEMENT OF HON. BOB CORKER,
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Well, thank you, Mr. Chairman. I want to 
welcome all three of these distinguished gentlemen and the 
distinguished Senator from Maine, who I know is going to 
introduce one of them. I tell you that I chose to be on this 
subcommittee because of the importance I see the relationship 
with Latin America, South America, Central America to be. I 
think that the roles you are getting ready to perform, 
hopefully, are roles that are very, very important to our 
country. I want to thank you for your interest in that regard.
    Dr. McKinley and I were together in Brussels about 3 weeks 
ago, meeting on issues relating to climate change, and I 
certainly was most impressed with him, and I look forward to 
getting to know the other two gentlemen during this hearing. 
But because of the time and the vote and the things that we 
have upcoming, I know that all of us want to hear from you and 
certainly the distinguished Senator from Maine.
    So Mr. Chairman, thank you and I look forward to a very 
productive hearing.
    Senator Webb. Thank you very much, Senator Corker.
    I would now like to call on Senator Collins for her 
introduction of Mr. Duddy. Welcome to the committee.

              STATEMENT OF HON. SUSAN M. COLLINS,
                    U.S. SENATOR FROM MAINE

    Senator Collins. Thank you very much, Mr. Chairman, Senator 
Corker. I am indeed delighted to appear before you today to 
introduce one of my constituents, Patrick Duddy, to be the next 
Ambassador for our country to Venezuela.
    The people of my State are proud of what this Mainer has 
accomplished during his long and distinguished career of 
service to our Nation. The United States and Venezuela have had 
a long history of friendship and cooperation, but lately that 
tradition is threatened as never before by the hostile and 
antidemocratic regime in Caracas. The deterioration of 
democratic institutions and civil liberties under President 
Chavez, the intimidation and imprisonment of political 
opponents, the corruption and the ties with such terrorism-
supporting states as Iran are all alarming developments. That 
is why it is critical that the President has nominated a 
diplomat with such extraordinary experience and skills as 
Patrick Duddy.
    This is one of the most critical diplomatic positions in 
the Western Hemisphere and the President has indeed chosen 
wisely. Throughout his 25-year Foreign Service career, Mr. 
Duddy has demonstrated a deep commitment to our relations with 
Latin America and an expert understanding of the region. In his 
current position as Deputy Assistant Secretary in the Bureau of 
Western Hemisphere Affairs, he has played a lead role in recent 
international efforts to restore democracy and the rule of law 
in Haiti. As a career minister counselor, Mr. Duddy is one of 
the most experienced senior officers in the Western Hemisphere 
Bureau, with a portfolio that includes the Offices of Brazil 
and Southern Cone Affairs, Caribbean Affairs, and Economic 
Policy and Summit Coordination.
    Immediately prior to his current assignment, Mr. Duddy 
served as Consul-General in Brazil, where he directed one of 
the largest consulates general in the world and the largest in 
the Western Hemisphere. Previously he served as Deputy Chief of 
Mission in Bolivia, where he was the chief operating officer of 
one of the largest embassies in the Americas.
    Earlier in his career, Mr. Duddy served as counselor for 
public affairs in Panama. He has also served in Chile, the 
Dominican Republic, Costa Rica, and Paraguay. It's probably not 
a surprise to this committee that Mr. Duddy is fluent in 
Spanish and Portuguese, but it may surprise you to learn that 
he is also a published poet, but I think only in English.
    Prior to this hearing, he was describing a speech that he 
had given to a group of legislators and he had talked to them 
for an hour in Portuguese.
    To anyone wondering where such energy, dedication, and 
talent come from, the answer I am proud to say is Bangor, 
Maine. After graduating from John Bapst High School, he 
received his undergraduate degree from another outstanding 
Maine college, Colby College, and a master's degree from 
Northeastern University. He is also a graduate of the National 
War College, where he received a master's degree in national 
security strategy.
    He is married and he and his wife have two children, Sarah 
and Robert. They are here today with him to give him support 
and I'm delighted that they could be with us since we all know 
it's not just the Ambassador, it's his family who serves, or 
her family, who serves as well.
    Finally, I want to inform the committee that I'm very 
fortunate that Mr. Duddy's sister-in-law heads up my Portland 
office in Maine.
    So this is a wonderful family that is very dedicated to 
public service. I strongly endorse Patrick Duddy's nomination 
to be the next United States Ambassador to the Bolivarian 
Republic of Venezuela, and I enthusiastically recommend him to 
this committee.
    Thank you, Mr. Chairman, Senator Corker, for the 
opportunity to appear before you today. I truly cannot envision 
a better qualified person for this critical diplomatic post. 
Thank you.
    Senator Webb. Thank you very much, Senator Collins.
    Welcome again to all of the nominees. We've got some really 
incredible credentials in front of the committee this morning. 
We'll attempt to keep this bipartisan and not reflect on the 
fact that a family member of his works on your staff. 
[Laughter.]
    In the interest of time, I think we should go ahead and 
move forward and see if we can get the testimony of the 
witnesses before us and into the record before this vote is 
called.
    Senator Collins. Mr. Chairman, I'd very much appreciate if 
you would excuse me at this point.
    Senator Webb. I appreciate very much having you with the 
committee this morning and thank you very much for being here.
    Senator Collins. Thank you.
    Senator Webb. I'd now like to turn to the nominees. I would 
ask that you deliver your statements in the order that you were 
introduced. If you're summarizing a statement, obviously the 
entire text of your statement would be included in the record. 
Also, as you testify, I'd be very pleased if you take the 
opportunity to introduce friends or family that you have with 
you today and we'd like to welcome them also.
    So Mr. Brownfield, if you could begin.

    STATEMENT OF HON. WILLIAM R. BROWNFIELD, NOMINEE TO BE 
             AMBASSADOR TO THE REPUBLIC OF COLOMBIA

    Ambassador Brownfield. Thank you very much, Mr. Chairman.
    Senator Webb. You may want to give Mr. Duddy a few words of 
advice in terms of the assignment that he is about to 
undertake.
    Ambassador Brownfield. Oh, Mr. Duddy and I have already had 
many, many conversations. I'll not reveal all of the contents, 
other than to say the fact that he's still here before you 
today suggests that I haven't completely terrified him.
    If I could take advantage of your offer, Mr. Chairman, I 
would like to mention a couple of people who are sitting shyly 
back in the back of this hearing room. I believe I spotted as I 
came in my long-term next door neighbor, Mr. John Sullivan, 
whose garage has housed more Brownfield-Kenney household 
effects over the last 20 years than has my own garage. I think 
seated next to him is John Kenney, my brother-in-law, brother 
of my wife of the last 700 or 800 years.
    She is not with us this morning, Mr. Chairman. She is 
actually the Ambassador to your Embassy in Manila. She told me 
this morning that she would love to come and talk to the 
members of this committee, but never ever at my side; that was 
an albatross she did not wish to have around her neck when 
talking to you.
    Senator Webb. We'll see if we can't continue to keep you in 
different hemispheres. [Laughter.]
    Ambassador Brownfield. I think she would be grateful for 
that. I for one would not.
    Mr. Chairman, may I offer you a very abbreviated version of 
my formal statement and ask that you enter my statement in the 
record in its entirety.
    Senator Webb. So ordered.
    Ambassador Brownfield. I'm honored to appear before you 
today. I am, as you may have gathered, a Latin American hand. I 
have served virtually my entire career in Latin America, most 
recently as our Ambassador to Venezuela and prior to that as 
our Ambassador to Chile.
    Mr. Chairman, the United States and Colombia have been 
friends for nearly 200 years. We have been close and 
cooperative partners for more than 8 years in combatting the 
illicit drug trade, providing security to our region, building 
economic and commercial ties, supporting judicial reform, 
providing humanitarian relief, and ensuring respect for human, 
civil, and political rights.
    We have produced real progress and real success. When we 
compare today with what we saw in 1999, I think all parts of 
the U.S. Government, legislative and executive branch alike, 
deserve recognition and congratulations for wise decisions 
skillfully implemented. The key in my judgment was our ability 
to reach agreement on issues of importance to the American 
people, assess
correctly what value we could bring to address them, provide 
the necessary resources, and work with our Colombian 
counterparts to build solutions.
    My task if confirmed by the Senate would be to build on 
successes of the past, adjust those programs and policies that 
require adjustment, and address those areas where we have 
concerns. Colombia is a sovereign state with a rich history. 
There are hundreds of bilateral issues linking our two states. 
We agree on the overwhelming majority of them. As with any two 
sovereign and independent countries, we will differ on some. 
When we do, I hope the Government of Colombia would find me to 
be an open and sympathetic friend, honestly expressing the 
views of the United States Government.
    There are two areas, Mr. Chairman, that deserve special 
mention. The first is the security of employees, their 
families, and the entire American community in Colombia. 
Colombia remains a country with serious security threats. The 
American embassy and the larger American community in Colombia 
should know that in my embassy, security is second to no other 
issue. To the families of Keith Stansell, Marc Gonsalves, and 
Thomas Howes, the three American citizens now held hostage for 
more than 4 years in Colombia, I would like to say that I will 
not rest and our Government must not rest until they have 
returned safely home.
    The other matter worth special mention is the U.S. business 
and NGO community. The United States-Colombia commercial and 
investment relationship is a 5-year success story. I hope to 
continue that story should the Senate choose to confirm, and if 
I am the next United States Ambassador to Colombia, the 
American business community should know that they will have a 
strong friend and advocate in Bogota.
    The NGO community is also a major contributor to the 
enormous progress in Colombia of the past 8 years, and that in 
turn is a product of contact and communication. My door will be 
open.
    Mr. Chairman, Senator Corker, if confirmed I look forward 
to consulting and working closely with you to advance America's 
interests in Colombia and the wider region. Your advice and 
counsel are an essential part of our effort to advance programs 
and policies in Colombia. I realize that many members of this 
committee have visited Colombia to see for themselves the 
reality on the ground and I hope that I can entice you, Mr. 
Chairman, and you, Senator Corker, to join them to visit and to 
judge for yourselves how our programs and strategy are taking 
effect.
    I appreciate the opportunity to meet with you today and 
would be pleased to answer any questions you might have. Thank 
you, Mr. Chairman.
    [The prepared statement of Ambassador Brownfield follows:]

    Prepared Statement of Hon. William R. Brownfield, Nominee to be 
                 Ambassador to the Republic of Colombia

    Mr. Chairman, members of the committee, I am honored to appear 
before you today as the President's nominee to be the next American 
Ambassador to the Republic of Colombia. I want to thank President Bush 
and Secretary Rice for their confidence in me. This is a position for 
which I hope you will find my professional experience has well prepared 
me. For most of my 28 years in the Foreign Service, I have served in 
Latin America. Most recently, I have had the honor to serve as our 
Ambassador to Venezuela, and before that, to Chile. Those two posts 
taught me something about articulating and defending U.S. interests in 
a challenging environment, as well as finding common ground between two 
nations with shared interests. In my last Washington assignments, as 
Deputy Assistant Secretary of State for International Narcotics and Law 
Enforcement, and then in the same position for the Western Hemisphere, 
I worked closely with the Colombian Government in addressing bilateral 
and regional issues of great interest to our two peoples.
    Mr. Chairman, the United States and Colombia have been friends for 
nearly 200 years. We have been close and cooperative partners for more 
than 8 years in combating the illicit drug trade, providing security to 
our region, building economic and commercial ties, supporting judicial 
reform, providing humanitarian relief, and ensuring respect for human, 
civil, and political rights. We have produced real progress and real 
success. When we compare today with what we saw in 1999, I think all 
parts of the U.S. Government--legislative and executive branch alike--
deserve recognition and congratulations for wise decisions skillfully 
implemented. The key, in my judgment, was our ability to reach 
agreement on issues of importance to the American people, assess 
correctly what value we could bring to address them, provide the 
necessary resources, and work with Colombian counterparts to build 
solutions.
    My task, Mr. Chairman, should the Senate choose to confirm me, 
would be to build on successes of the past, adjust those programs and 
policies that require adjustment, and address those areas where we have 
concern. Colombia is a sovereign state with a rich history. There are 
hundreds of bilateral issues linking our two states. We agree on the 
overwhelming majority of them. As with any two sovereign and 
independent countries, we will differ on some. When we do, I hope the 
Government of Colombia would find me to be an open and sympathetic 
friend, honestly expressing the views of the United States Government. 
Were I not to do so, I would be offering poor service to the Colombian 
Government, President Bush, the United States Senate, and this 
committee.
    May I take a moment to share with the committee my general views on 
how to manage our largest diplomatic mission in the hemisphere? I 
believe that a good Chief of Mission provides clear guidance, strategy, 
and decisions to his senior team, and holds them to high standards, but 
then allows them leeway in doing their jobs. There are dozens of United 
States Government agencies represented in Embassy Bogota. They are 
staffed by superbly qualified, highly motivated people. My message to 
them would be that I will give them clear guidance, and I will hold 
them to high standards of accountability, but I will not tell them how 
to do their jobs.
    There are two areas, Mr. Chairman, that deserve special mention. 
The first is the security of employees, their families, and the entire 
American community in Colombia. Colombia remains a country with serious 
security threats. The American Embassy and the larger American 
community in Colombia should know that in my embassy, security is 
second to no other issue. And to the families of Keith Stansell, Marc 
Gonsalves, and Thomas Howes, the three American citizens now held 
hostage for more than 4 years, I say that I will not rest, and our 
Government must not rest, until they have returned safely home.
    The other matter worth special mention is the U.S. business and NGO 
communities. The United States-Colombia commercial and investment 
relationship is a 5-year success story. I would hope to continue that 
story, should the Senate choose to confirm. And if I am the next United 
States Ambassador to Colombia, the American business community should 
know that they will have a strong friend and advocate in Bogota. The 
NGO community is a major contributor to the enormous progress in 
Colombia of the past 8 years. That, in turn, is a product of contact 
and communication. My door will be open to both.
    Mr. Chairman, members of the committee, should you choose to 
confirm, I look forward to consulting and working closely with you to 
advance America's interests in Colombia and the region. Your advice and 
counsel are an essential part of our effort to advance programs and 
policies in Colombia. I realize that many members of this committee 
have visited Colombia to see for themselves the reality on the ground. 
I hope to entice you, as well as your colleagues in the Senate and 
across the Capitol in the House, to continue to visit and judge for 
yourselves how our programs and strategy are taking effect.
    I appreciate the opportunity to meet with you today, and would be 
pleased to answer any questions you might have.

    Senator Webb. Thank you very much, Ambassador Brownfield.
    I'd like to point out that we are about 8 minutes into our 
vote right now. So I do have some questions that I would like 
to ask. I know Senator Corker also would. And we're going to 
recess here, take the rest of the testimony, and then come back 
for questions. So we'll be back as soon as we finish our vote.
    We stand in recess.
    [Recess.]
    Senator Webb. The committee will come to order and we'd 
like to continue receiving the testimony of our witnesses. We 
will again thank Mr. Brownfield for having given his and move 
on to Dr. McKinley.

    STATEMENT OF DR. PETER MICHAEL McKINLEY, NOMINEE TO BE 
               AMBASSADOR TO THE REPUBLIC OF PERU

    Dr. McKinley. Thank you, Mr. Chairman and members of the 
committee, and thank you for the kind words of introduction. I 
am honored to appear before the committee today as the 
President's nominee to serve as the next United States 
Ambassador to the Republic of Peru. I am grateful for the trust 
President Bush and Secretary Rice have placed in me.
    As you consider my nomination, I would like to underscore 
my deep commitment to representing our Nation in Peru. I was 
born and raised in Latin America, studied the region in 
university, and started my Foreign Service career there. My 
work experience since has provided valuable perspectives on the 
importance of consolidating democracy around the globe, of 
vigorously confronting the transnational threats to our 
national security, and of strongly promoting economic 
development, investment, and free trade. These objectives are 
more important than ever in our relations with Peru and with 
Latin America today.
    If I am confirmed, my highest priorities will include the 
security and protection of the 24,000 Americans resident in 
Peru, as well as the 300,000 American tourists who visit 
annually.
    Bolstering Peru's democratic institutions--with two 
democratic transfers of power and high economic growth since 
2001, Peru now has a critical opportunity to achieve a 
developmental breakthrough. Our programs to strengthen growth, 
civil society, and state institutions will help all Peruvians 
benefit from their democracy's success and help make Peru a 
model of development in the hemisphere.
    Third, stemming the production and trafficking of illegal 
drugs in close collaboration with the government of President-
elect Garcia. Peru is the world's second largest cocaine 
producer and the ties between its narcotraffickers and those 
elsewhere in Latin America are growing. Profits from the 
narcotics trade feed transnational crime and terrorist groups 
that threaten the security of Peru and of this hemisphere. 
Peru's Government is willing to confront these threats head on 
and if I am confirmed I will support their efforts to expand 
interdiction, eradication, and alternative development.
    Fourth, if confirmed, I will focus on implementing our 
bilateral trade and economic agenda, recognizing that millions 
of our citizens derive their livelihood from the export of U.S. 
products. I will work unstintingly to expand Peruvian markets 
for goods and services, which are already substantial. 
Deepening trade and economic relations with Peru will also 
support our democratic goals by advancing political and 
economic modernization. Peru's strong growth in recent years 
has been facilitated by integration into the world economy, but 
this growth is not reaching the poor in highland and rural 
areas as quickly as we and the Government of Peru wish.
    In keeping with core American values of promoting 
opportunity for all and helping the least fortunate, we will 
make it a priority to work with the Government of Peru through 
USAID to extend the benefits of growth to Peru's poorest 
people.
    If confirmed, I pledge to work closely with members of this 
committee and with your colleagues in Congress to achieve our 
objectives in Peru. Thank you again for giving me the honor of 
appearing before you today. I will be happy to answer any 
questions you may have.
    [The prepared statement of Dr. McKinley follows:]

    Prepared Statement of Dr. Peter Michael McKinley, Nominee to be 
                   Ambassador to the Republic of Peru

    Mr. Chairman and members of the committee, I am honored to appear 
before the committee today as the President's nominee to serve as the 
next United States Ambassador to the Republic of Peru. I am grateful 
for the trust President Bush and Secretary Rice have placed in me.
    As you consider my nomination, I would like to underscore my deep 
commitment to representing our Nation in Peru. I was born and raised in 
Latin America, studied the region in university, and started my Foreign 
Service career there. Since then, as Deputy Chief of Mission in 
postings in Africa and Europe, and as Deputy Assistant Secretary in the 
Department, my work experience has provided valuable perspectives on 
the importance of consolidating democracy around the globe, of 
vigorously confronting the transnational threats to our national 
security, and of strongly promoting economic development, investment, 
and free trade. These objectives are more important than ever in our 
relations with Peru and with Latin America today.
    If I am confirmed, my highest priorities will include:

  <bullet> The security and protection of the 24,000 Americans resident 
        in Peru, as well as the 300,000 American tourists who visit 
        annually.
  <bullet> Bolstering Peru's democratic institutions. With two 
        democratic transfers of power and high economic growth since 
        2001, Peru now has a critical opportunity to achieve a 
        developmental breakthrough. Our programs to strengthen growth, 
        civil society, and state institutions will help all Peruvians 
        benefit from their democracy's success, and help make Peru a 
        model of development for the hemisphere.
  <bullet> Stemming the production and trafficking of illegal drugs in 
        close collaboration with the government of President Alan 
        Garcia. Peru is the world's second largest cocaine producer and 
        the ties between its narcotraffickers and those elsewhere in 
        Latin America are growing. While the majority of Peruvian 
        cocaine still goes to Europe, the threat of diversion to the 
        United States is growing. So is consumption inside Peru. 
        Profits from the narcotics trade feed transnational criminal 
        and terrorist groups that threaten the security of Peru and of 
        this hemisphere. Peru's Government is willing to confront these 
        threats head on and, if confirmed, I will support their efforts 
        to expand interdiction, eradication, and alternative 
        development.
  <bullet> Implementing our bilateral trade and economic agenda. 
        Recognizing that millions of our citizens derive their 
        livelihood from the export of United States products, if 
        confirmed, I will work unstintingly to expand Peruvian markets 
        for our goods and services which are already substantial. 
        Deepening trade and economic relations with Peru will also 
        support our democratic goals by advancing political and 
        economic modernization. Peru's strong growth in recent years 
        has been facilitated by integration into the world economy, but 
        this growth is not reaching the poor in highland and rural 
        areas as quickly as we and the Government of Peru wish. In 
        keeping with core American values of promoting opportunity for 
        all and helping the least fortunate, I will make it a priority 
        to work with the Government of Peru through USAID to extend the 
        benefits of growth to Peru's poorest people.

    If confirmed, I pledge to work closely with members of this 
committee and with your colleagues in Congress to achieve our 
objectives in Peru. Thank you again for giving me the honor of 
appearing before you today. I will be happy to answer any questions you 
may have.

    Senator Webb. Thank you very much, Dr. McKinley.
    Now Mr. Duddy.

STATEMENT OF PATRICK DENNIS DUDDY, NOMINEE TO BE AMBASSADOR TO 
              THE BOLIVARIAN REPUBLIC OF VENEZUELA

    Mr. Duddy. Thank you, Mr. Chairman, members of the 
committee.
    Before I begin with my formal statement, I would like to 
take a moment to introduce my wife, Mary, my daughter, Sarah, 
and my son, Robert. My wife has accompanied me throughout my 
Foreign Service career. She's made many, many friends for the 
United States and I know I could not have done the work I've 
done over the years without her wise counsel and support. My 
children too have accompanied me through most of my career, 
though they will remain behind this time to finish their 
studies, and they have also been a source of great support and 
joy everywhere we've served.
    Senator Webb. We welcome your family. Nice to have you 
today.
    Mr. Duddy. Thank you very much.
    Mr. Chairman, members of the committee. I am honored and 
humbled to be President Bush's nominee to be the next United 
States Ambassador to the Bolivarian Republic of Venezuela. I'm 
deeply grateful to the President and to Secretary Rice for 
their confidence in me. If confirmed, I look forward to working 
with the members of this committee and the rest of the Congress 
to advance our interests in Venezuela and the wider region.
    Mr. Chairman, I believe my Foreign Service career has 
prepared me for the important position of United States 
Ambassador to Venezuela. As Senator Collins very kindly 
mentioned, earlier I am presently serving as the Deputy 
Assistant Secretary of State for the Western Hemisphere and I 
won't review for you again the particulars of my career, but I 
would note that if I am confirmed for this position it will be 
my eighth tour in the field in the Western Hemisphere.
    Mr. Chairman, for most of our respective histories, the 
United States and Venezuela have enjoyed strong friendly 
relations based on shared democratic values, commercial, and 
cultural ties. Venezuela's strategic location, talented people, 
and abundant resources make it a natural friend and partner of 
the United States. Venezuela and the United States still have 
an important commercial relationship. Bilateral trade totaled 
$45 billion in 2006. Venezuela is one of the top five suppliers 
of United States foreign oil imports, with significant United 
States investments in the energy sector. It is also a major 
market for U.S. exports, which totaled an unprecedented $9 
billion in 2006.
    Today, moreover, the United States is also home to over 
600,000 Venezuelans. Their contributions and accomplishments 
extend to every facet of American life, from academia, 
journalism, and business, to sports, entertainment, and even 
fashion design.
    It will not come as news to the members of this committee, 
however, that our bilateral relationship today is strained. 
This makes it all the more important for me, if confirmed as 
the next U.S. Ambassador, to redouble our efforts to build on 
the shared values that have always united our two nations--love 
of freedom and democracy, basic respect for human rights, and 
the rule of law. The Venezuelan people have time and again 
demonstrated their commitment to these values.
    Mr. Chairman, there are fundamental differences of 
principle and governing philosophy between the Government of 
the Bolivarian Republic of Venezuela and the United States. 
There are matters on which we will not agree and in some 
instances where we must agree to disagree. Still there are 
areas where it behooves our two governments to cooperate. 
Counternarcotics, counterterrorism, commerce, and energy are 
all issues that no one country can tackle independently in 
today's globalized and interdependent world. Drugs and 
terrorism endanger all of our citizens.
    Addressing these problems effectively requires cooperation. 
If confirmed, I intend to work to promote both bilateral and 
multilateral cooperation in every arena where the wellbeing of 
our citizens will be advanced by working together.
    As United States Ambassador, if confirmed, I know I will 
have no greater responsibility than ensuring the welfare and 
security of United States citizens in Venezuela. This naturally 
starts with U.S. embassy personnel and their families, who are 
essential for me to do the job for which I've been nominated. 
But this mandate also expressly includes private American 
citizens visiting, residing, or doing business in Venezuela. If 
confirmed, they will be able to count on my vigorous support.
    Similarly, United States businesses and investors who face 
challenges working in Venezuela should know that my door will 
be always open.
    Mr. Chairman, the United States views our relationship with 
Venezuela from a long-term perspective. We are mindful of the 
importance of strengthening people-to-people ties, promoting 
greater understanding of the United States. On the diplomatic 
front, the United States works with hemispheric and other 
partners, both bilaterally and multilaterally, through the 
Organization of American States and the inter-American system 
to advance our common goal of a democratic, peaceful, secure, 
and prosperous hemisphere. Indeed, our own agenda in Venezuela 
flows from the hemisphere's stated commitment to a better 
future for all of our citizens.
    Mr. Chairman, members of the committee, I would be less 
than candid if I did not acknowledge that Venezuela currently 
is a uniquely challenging post. But I believe my professional 
and personal experience has prepared me for this very important 
assignment. If confirmed, I intend to bring all of my 
experience to bear as an advocate for the values to which all 
of the hemisphere's democracies subscribe and which are 
succinctly captured by the Inter-American Democratic Charter.
    I look forward to working with you, all the members of this 
committee, now and in the future, and I thank you very much. I 
look forward to your questions.
    [The prepared statement of Mr. Duddy follows:]

       Prepared Statement of Patrick Dennis Duddy, Nominee to be 
           Ambassador to the Bolivarian Republic of Venezuela

    Mr. Chairman, members of the committee. I am honored and humbled to 
be President Bush's nominee to be the next United States Ambassador to 
the Bolivarian Republic of Venezuela. I am deeply grateful to the 
President and to Secretary Rice for their confidence in me. If 
confirmed, I look forward to working with this committee and the rest 
of the Congress to advance our interests in Venezuela and the region.
    Mr. Chairman, I believe my Foreign Service experience has prepared 
me for the important position of United States Ambassador to Venezuela. 
For the last 2 years I have served as Deputy Assistant Secretary of 
State for the Western Hemisphere, responsible for the offices of 
Caribbean Affairs, Brazil, and Southern Cone Affairs, as well as the 
Office of Economic Policy and Summit Coordination. In that capacity, I 
have been particularly involved with our substantial efforts to restore 
democracy and the rule of law in Haiti. If confirmed, Venezuela will be 
my eighth tour in the Western Hemisphere. I have served as Consul 
General in Sao Paulo, Brazil, South America's largest city, as well as 
Deputy Chief of Mission in La Paz. Earlier in my career, I also served 
in Panama, Chile, Paraguay, Costa Rica, and the Dominican Republic.
    Mr. Chairman, for most of our respective histories, the United 
States and Venezuela have enjoyed strong, friendly relations based on 
shared democratic values, and commercial and cultural ties. Venezuela's 
strategic location, talented people, and abundant resources make it a 
natural friend and partner of the United States. There is much that 
brings us together. Venezuela and the United States have an important 
commercial relationship. Bilateral trade totaled $45 billion in 2006. 
Venezuela is one of the top five suppliers of United States foreign oil 
imports, with significant United States investments in the energy 
sector. It is also a major market for U.S. exports, which totaled an 
unprecedented $9 billion in 2006. Today, the United States is home to 
over 600,000 Venezuelans. Their contributions and accomplishments 
extend to every facet of American life--from academia, journalism, and 
business to sports, entertainment, and fashion design.
    It will not come as news to the members of this committee that our 
bilateral relationship today is strained. This makes it all the more 
important for me, if confirmed as the next U.S. Ambassador, to redouble 
our efforts to build on the shared values that always have united our 
two nations: A love of freedom and democracy and basic respect for 
human rights and the rule of law. The Venezuelan people have time and 
again demonstrated their commitment to these values.
    Mr. Chairman, there are fundamental differences of principle and 
governing philosophy between the Government of the Bolivarian Republic 
of Venezuela and the United States. There are matters on which we will 
not agree, and, in some instances, where we must agree to disagree. 
Still, there are areas where it behooves our two governments to 
cooperate. Counternarcotics, counterterrorism, commerce, and energy are 
all issues that no one country can tackle independently in today's 
globalized, interdependent world. Drugs and terrorism endanger all our 
citizens. Addressing these problems effectively requires cooperation. 
If confirmed, I intend to work to promote both bilateral and 
multilateral cooperation in every arena where the well-being of our 
citizens will be advanced by working together.
    As United States Ambassador, if confirmed, I know I will have no 
greater responsibility than ensuring the welfare and security of United 
States citizens in Venezuela. This naturally starts with U.S. Embassy 
personnel and their families who are essential for me to do the job for 
which I have been nominated. But this mandate also expressly includes 
private American citizens visiting, residing, or doing business in 
Venezuela. They can count on my vigorous support. Similarly, United 
States businesses and investors who face challenges working in 
Venezuela should know that my door always will be open.
    Mr. Chairman, the United States views our relationship with 
Venezuela from a long-term perspective. We are mindful of the 
importance of strengthening people-to-people ties and promoting greater 
understanding of the United States through traditional exchanges as 
well as newer, more innovative strategies. On the diplomatic front, the 
United States works with hemispheric and other partners--both 
bilaterally and multilaterally, through the Organization of American 
States (OAS) and the Inter-American system--to advance our common goal 
of a democratic, peaceful, secure, and prosperous hemisphere. Indeed, 
our own agenda in Venezuela flows from the hemisphere's stated 
commitment to a better future for all citizens. There have been many 
successes in the region over the last 20 years, but there is still much 
to do.
    Mr. Chairman, members of the committee, I would be less than candid 
if I did not acknowledge that Venezuela currently is a uniquely 
challenging post, but I believe my professional and personal experience 
has prepared me for this very important assignment. If confirmed, I 
intend to bring all of my experience to bear as an advocate for the 
values to which all of the hemisphere's democracies subscribe and which 
are succinctly captured by the Inter-American Democratic Charter.
    I look forward to working with you during my confirmation process 
and in the future. Thank you. I look forward to your questions.

    Senator Webb. Thank you very much, Mr. Duddy, and thank all 
of you for your testimony.
    I am going to pose one general question that I would ask 
all three of you to respond to. I know Senator Corker has some 
work to do on the floor, and I am going to go ahead and yield 
to him for whatever time he might take, and then we'll go to 
Senator Menendez. Then I'll come back and ask some more 
specific questions.
    We've got a chance here with people who have extensive 
regional experience, even though you're looking to posts in 
specific countries. One of the strategic considerations of the 
United States overall has been the expansion of China, 
economically and otherwise, into this particular hemisphere. I 
would like to take this moment to benefit from some of the 
observations that all three of you would have in terms of your 
impressions of the extent of the Chinese interests in this 
region, the economic investments that have been going on, and 
other contacts, in terms of how it affects the economics of the 
region, the security of the United States, and the political 
relationships both inside that region and between the United 
States and the countries of that region.
    Ambassador Brownfield, if you'd begin I'd appreciate that.
    Ambassador Brownfield. Sure. Why don't I start, Mr. 
Chairman. I first bumped into Chinese diplomatic presence in 
Latin America when I was assigned to Buenos Aires, Argentina, 
in 1986. The Chinese embassy in Argentina at that time was what 
I would call a second rate embassy in Latin America. They had 
very little ability to speak Spanish. They did not integrate or 
operate at all well with local society. And in fact they were 
not major players.
    My counterpart today, Chinese counterpart, in Caracas is a 
first class ambassador. He is as good as any other diplomat in 
Venezuela today, your humble servant included in that group. He 
speaks the language superbly. He speaks well in public. He 
articulates well in the various sectors and communities of 
Venezuela. The Chinese have arrived in Latin America.
    Now, some of this, Mr. Chairman, I submit is perfectly 
legitimate, reasonable, and something which we not only should 
not oppose, but should welcome to a certain extent. They have a 
right to engage in commercial activity in the region. They have 
a right to express their own economic interests in the region, 
and we're going to have to accept that as their economy, their 
society, grows and expands, we are going to see more of them in 
the Western Hemisphere.
    We also have a right, I might suggest, to note to them when 
their activities are beginning to cross a line between 
legitimate normal commercial economic business activity and 
activity that is designed to have a political component and to 
produce a political result. I submit that long after I and, for 
all I know, all of the Senators in this committee have retired, 
I suspect our children and our grandchildren will be addressing 
the China issue in Latin America for many decades to come.
    Senator Webb. Thank you.
    Dr. McKinley.
    Dr. McKinley. If I can comment from the perspective of 
being in Brussels for the last 3 years, China's emergence on 
the global market is affecting all regions of the world. Just 
over the last 5 to 6 years, China has--Europe, for example, has 
overtaken the United States as the principal trading partner 
for China.
    In the context of Latin America, and specifically Peru, the 
relationship with China has been expanding quite dramatically 
in recent years. If I'm not mistaken, China has become Peru's 
second largest trading partner. Investments in the country are 
under way. China itself is becoming an important market for 
Peruvian products.
    As we look at Peru as a member of APEC and the upcoming 
summit of APEC in 2008, what may play for all of us is the 
efforts that have been under way for quite a number of years 
under the aegis of APEC to construct transparent economic 
relations in the trans-Pacific economic arena. Peru is 
certainly interested in pursuing those objectives and I think 
it will be an important feature of the November 2008 APEC 
summit.
    So in the context that you asked specifically of the extent 
of growing interest in the region, the trade and investment 
relations are growing. But as Ambassador Brownfield suggested, 
legitimate economic ties benefit all concerned. In terms of the 
impact on the United States, I think the APEC forum provides a 
good place to discuss the broader concerns we have.
    Senator Webb. Thank you.
    Mr. Duddy.
    Mr. Duddy. Mr. Chairman, as my colleagues suggest, the 
commercial presence of China in the Americans is substantially 
greater than it was. It is, I think, worth noting that China 
has become an important market for many Latin American 
economies, exporting largely commodities. Given the size of the 
Chinese internal market for consumption of commodities, this is 
not surprising and indeed has been very much welcomed by many 
in Latin America.
    As is the case with Peru, China has become one of Brazil's, 
for instance, most important markets. They're also investing in 
the Americas, but their investments, compared to U.S. 
investment stock around the hemisphere is of course very, very 
much smaller.
    That said, the Western Hemisphere Bureau has in fact 
engaged China, and Assistant Secretary Shannon traveled to 
China for consultations with his counterpart last year. We are 
following these developments. We think they're natural 
developments, predictable developments, and certainly they have 
had an economic impact around the hemisphere.
    Senator Webb. Thank you very much.
    Senator Corker.
    Senator Corker. Mr. Chairman, thank you. I think we have a 
vote at 11:15 and I'm going to try to get down to the floor and 
do something in advance. So what I'd like to do is again 
welcome you. You will have very different roles hopefully very 
soon in South America and we look forward to seeing you on site 
in your respective places, hopefully, in the very near future.
    But I want to thank you for your service. I know that 
Senator Webb has some more questions along with Senator 
Menendez. They are very bipartisan and you'll be very well 
taken care of in their hands. But thank you for your service 
here to our country. Thank you for what you're getting ready to 
do in a very important region to our country, and I look 
forward to seeing you there.
    Thank you very much.
    Senator Webb. Thank you, Senator Corker.
    Senator Menendez.

               STATEMENT OF HON. ROBERT MENENDEZ,
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman.
    Let me welcome all of our nominees. I'm particularly happy 
to be at this hearing because the Western Hemisphere is 
something that I have spent my 15 years in Congress, first in 
the House and of course in the last year and a half in the 
Senate, focusing a lot of attention on. It doesn't always get a 
lot of attention, and I think that inures to the detriment of 
the United States.
    So your service in this part of the world is incredibly 
important to our Nation. In my mind, one of my biggest 
challenges when I was in the House of Representatives was 
getting colleagues to focus on Latin America and the Caribbean, 
not just as a good neighbor, but in the national interest and 
national security of the United States. So many of the things 
that we're debating here in Congress today are intertwined with 
our relationships in this hemisphere, from undocumented 
immigration to the questions of building broader and more 
strong markets for American goods and services to the questions 
of making sure that terrorism doesn't take a foothold under the 
cover of chaos, to the questions of narcotic trafficking, to 
the questions of how do we deal with global warming and the 
Amazon rain forest, and the list goes on and on.
    These are all questions in the national interest and 
security of the United States, not even about being a good 
neighbor. So your services in these countries are going to be 
incredibly important and we certainly salute you for your 
willingness to pursue them.
    I have a couple of country-specific questions, so let me 
start with Venezuela. We have the benefit of having the present 
Ambassador to Venezuela and the soon to be one. So since one 
may have greater flexibilities than the other in the pursuit of 
the answers to the questions, let me start, Ambassador 
Brownfield. I know that this is where you're leaving, but maybe 
not what you want to be talking about.
    But I am concerned, and of course while I ask the question 
of Ambassador Brownfield to start, Mr. Duddy, I hope you'll be 
listening. I am concerned about where Hugo Chavez is taking 
Venezuela. He, in my mind, continues to erode democratic 
institutions under the cover of constitutionality, but uses the 
majorities he has in the congress to change the constitution 
and therefore erode the very essence of democracy in Venezuela, 
and to have a cloak of legitimacy in the process of doing so.
    That is a very dangerous proposition, not only for 
Venezuela but throughout the hemisphere that that's the way in 
which you ultimately achieve absolute power. Freedom House 
lists Venezuela as only partially free. It ranks it four in 
political rights out of seven. We have seen President Chavez 
have new laws enabling him to pass laws by decree; he plans to 
eliminate the autonomy of the central bank, changing the 
constitution allowing him to be reelected indefinitely, to 
nationalize the country's largest telecommunications companies 
and electricity companies, and to not renew the broadcasting 
license of Radio Caracas Television.
    Then when you see that and you see the opposition that has 
generated to RCTV's, the pulling of that license, and you see 
the response by students, which is not the traditional 
opposition within Venezuela, and you see the polls that Gatos 
put out of 600 Venezuelans across social class that said 56 
percent of them supported the students in this respect, and yet 
you see President Chavez say they are trying to create a soft 
revolution fired by the United States. I look at all of that, I 
look what Venezuela is using with its petrodollars in the 
hemisphere to try to influence the hemisphere's policy and 
largely to try to turn the hemisphere against the United 
States, and I say this is a very significant challenge to our 
national interests and our national security.
    So, Ambassador Brownfield, as someone who is in the post 
and leaving, how do you respond to these concerns? How would 
you advise your successor, if you were to give him some free 
advice, to deal with these issues? What's the U.S. role in this 
conflict as Chavez continuously moves in a way that is 
undemocratic, but under the cloak of constitutionality?
    Ambassador Brownfield. Thank you for this opportunity, 
Senator, this unexpected opportunity.
    Senator Menendez. We'll get to Colombia.
    Ambassador Brownfield. May I open by saying--and I want to 
be very clear on this--not only that I do not disagree with 
anything you have said, but rather that I agree with every 
single word you have just articulated. My position over the 
last 3 years both in public and in private has been to say that 
there are some fundamental deep-seated differences and 
disagreements between the United States of America and the 
Bolivarian Republic of Venezuela that go to the heart of 
concepts such as democracy, philosophy, model, vision for the 
21st century.
    We do not agree with many of these fundamental issues and 
we not only have a right, I would say we have an obligation to 
explain and articulate those differences clearly at every 
appropriate opportunity.
    Then I pause and I say we both exist. The United States of 
America exists and will continue to exist for the foreseeable 
future. The Bolivarian Republic of Venezuela exists. We have to 
deal with that reality.
    My suggestion over the last 3 years, which has not fallen 
on particularly carefully listening ears down there, has been 
let us disagree in these important fundamental areas, but see 
if we can at least establish some sort of dialog, some sort of 
progress in areas that history and common sense suggest we 
ought to be able to cooperate on--drugs, terrorism, 
international crime, energy, bilateral commerce.
    I will tell you honestly and somewhat humbly, Senator, that 
so far my success in that has been roughly equivalent to that 
of the Baltimore Orioles proceeding to win the World Series 
this year, which is very close to zero.
    Senator Menendez. So I take that President Chavez is not 
interested in finding areas of common ground where we might at 
least have common interests?
    Ambassador Brownfield. Senator, obviously I cannot speak as 
to exactly what is in President Chavez's mind, although he 
shares his views with us quite frequently and quite publicly. I 
will say that I have obviously been unsuccessful in getting him 
to accept that some sort of pragmatic dialog should be possible 
even in an overall negative relationship.
    My own personal view is that it is difficult for that 
gentleman to separate the criticism that he receives from us on 
fundamental issues--democracy, free press, freedom of religion, 
freedom of protest, freedom of expression--and our willingness 
to engage in pragmatic dialog in the other area; that at least 
so far it has not been possible to bridge, if you will, that 
difference between being negative on one side but still being 
able to have a positive relationship on the other.
    Senator Menendez. Mr. Chairman, my time is up. I'll wait 
for the next round.
    Senator Webb. Would the Senator care to get the views of 
the prospective Ambassador on this before we proceed?
    Senator Menendez. I'd be happy to.
    Senator Webb. Okay, sure.
    Senator Menendez. You know, Mr. Duddy, I understand----
    Senator Webb. Let the record show that the outgoing 
Ambassador has a rather pessimistic outlook on United States-
Venezuelan relationships.
    Senator Menendez. You're going to try to make the Baltimore 
Orioles win in your new term. My question is, as you approach 
this, having heard from our outgoing Ambassador, what do you 
see the United States Ambassador's role in Venezuela beyond the 
norm? I know what our roles are and when we send someone to 
represent our country abroad it's diplomatic, it's economic, 
it's political. It has all of these different elements.
    But this is a very unique case, in which not only is our 
bilateral relationship at stake, but I would argue that 
increasingly the multilateral relationships within the 
hemisphere are being affected by Chavez. So how do you see 
dealing with this in your new role should you be confirmed by 
the committee?
    Mr. Duddy. Thank you, Senator, and thank you, Mr. Chairman.
    I think I would say in the first instance, returning to 
something I mentioned earlier, we do see this as a long-term 
relationship. The current situation is very difficult. 
Nevertheless, if confirmed I think I would have a particularly 
important role to play in publicly articulating our values and 
in looking to build, especially with the Venezuelan people, an 
appreciation for not only our historic ties, but the way those 
ties are reinforced and have developed on a basis of shared 
values.
    The reality is in the hemisphere right now that, 
notwithstanding some difficulties, we have the Inter-American 
Democratic Charter which articulates in very specific ways the 
commitments of the hemisphere's democracies. And we've seen 
most recently, for instance, in Haiti, the hemisphere coming 
together in support of those values.
    I think it falls to me or it will fall to me if I am 
confirmed to be a spokesman for those values, an advocate for 
democracy, an explicator of U.S. policy, which is frequently 
either distorted or misunderstood in some quarters. I think I 
can be a valid interlocutor on that front. And as in the case 
of my predecessor, I think it falls to us to try and induce 
cooperation in those areas where it is plainly in the interests 
of both Venezuela and the United States to cooperate, and to 
build from the shared perceptions of dangerous threats as well 
as opportunities. Things like counterterrorism and 
counternarcotics resonate with the peoples of both of our 
nations.
    Senator Menendez. Do you think it's--Mr. Chairman, I 
appreciate your indulgence.
    Do you think it is appropriate for the United States 
Ambassador to engage with those elements of civil society 
within Venezuela who are seeking to preserve and promote 
democracy within their country?
    Mr. Duddy. Senator, I think it's not only appropriate but 
essential that we engage them, as we would in any country in 
the world.
    Senator Menendez. So you wouldn't be reticent to do that?
    Mr. Duddy. No, sir.
    Senator Menendez. Mr. Chairman, thank you. I'll wait for 
the next round.
    Senator Webb. Thank you, Senator Menendez.
    Ambassador Brownfield, we've spent $5 billion over the past 
6 years following the start of Plan Colombia, which promised to 
cut by half the production of coca, and the amount of coca 
under cultivation is essentially unchanged and we are told that 
the price on the street has actually dropped. Do you agree with 
others in the United States Embassy on Bogota who say that this 
program is going well, and specifically, do you believe that 
aerial spraying of herbicides, which is costing hundreds of 
millions of dollars a year, can substantially reduce the 
production of coca?
    Ambassador Brownfield. Mr. Chairman, the truth is I do 
believe our support for Plan Colombia, as it's universally 
referred to, has in fact been an overall success story, a 
success story for Colombia, a success story for the region, and 
a success story for the United States of America.
    I would argue that back in 1999 and 2000 when we up here, 
both you in the legislative branch as well as those of us in 
the executive branch, examined the threats emanating from 
Colombia that would affect the United States of America--drugs, 
security, and a collapsing economy that was producing pressure 
on hundreds of thousands of Colombians to come to the United 
States in an undocumented manner, I think we reached an 
agreement as to what was the best way for us as a government, 
as a Nation, as a people, to address these threats.
    Seven, going on 8 years have now gone by. I was in Colombia 
on short visits in the 1990s and I can assure you that is a 
different country today than it was in 1999. Security on the 
streets is much better. The economy is booming. Unemployment is 
down. Jobs are being created. Security, even in the 
countryside, is far better now than it was then.
    Drug production, is it about the same, down a little, up a 
little? I have seen studies that would support any of those 
three conclusions. But I have seen no study that suggested it's 
continuing to explode the way it was through the 1990s.
    Do we need to, could we, should we, review our support for 
Plan Colombia, adjust it in some areas, fine-tune it in some 
ways, including the issue of eradication, spraying, or in 
essence how we are attacking the issue of drug cultivation 
itself? Of course it should. I think we should do that on a 
regular systematic basis. And perhaps, if this is your 
decision, naming a new ambassador is a good opportunity to do 
that in a careful, collective, ideally by consensus manner, I'm 
all in favor of it.
    But before I would say let's eliminate this part of the 
program, I'd want to make sure we had that conversation, both 
up here in Washington and down there in Colombia, so that we 
would have a clear understanding of what the impact of that 
decision would be and what we would try to replace it with if 
we made that decision.
    Senator Webb. Thank you.
    Dr. McKinley, I'd like to ask you some questions about the 
U.S. free trade agreement which is going to be considered by 
Congress this year more than likely. What is your view of how 
the ratification of that agreement would affect the relations 
between the United States and Peru? Are you of the belief that 
the current labor provisions in the agreement are adequate?
    If the United States Congress does not approve this 
agreement, do you have thoughts on what impact that would have 
on our relations?
    Dr. McKinley. Obviously, bringing the negotiation on the 
United States-Peru trade promotion agreement to a conclusion is 
an important priority for the administration. In terms of how 
the agreement as it stands would impact on relations, I would 
note first that economic ties between Peru and the United 
States have been growing at a very significant pace since 2001, 
with United States exports to Peru doubling in that time frame 
and 17 of our United States, in particular, seeing a doubling 
or a tripling or quadrupling of their trade and export ties 
with Peru.
    So already there is an undercurrent of a strong and growing 
economic relationship with Peru. What the agreement would 
introduce is a reciprocal basis for trade relations between the 
United States and Peru. It would open Peruvian markets more 
generally to American products. Something like 80 percent of 
U.S. manufactured goods, for example, would enter immediately 
without duty and something like two-thirds of U.S. agricultural 
products.
    Under the current Andean trade preference agreement, 
Peruvian agricultural products already do have--sorry--exports 
already do have considerable access to the United States, but 
the advantage of the agreement under consideration now is its 
reciprocal nature. The ITC estimates are that the benefits for 
American business would be an increase of over a billion 
dollars by 2011 or 2012 in increased exports.
    The trade and environmental provisions of the FTA have 
obviously been of considerable concern. These to my 
understanding have been worked on. USTR, I think, has been in 
negotiation and close discussion with Congressional committees 
and are trying to reach a point where adequate labor provisions 
are worked into the agreement. And in any case, as we look to 
if Congress were to approve the agreement to the implementation 
phase, there would be a strong emphasis on ensuring that 
implementation was completed before enforcement began.
    So while I'm not conversant with the specifics at this 
stage of the labor provisions, there is the suggestion that we 
would have both through the negotiations that USTR is having 
with Congress, with the agreement of the Peruvian Congress, and 
an implementation phase to address the labor concerns that are 
there.
    In the event of the agreement being approved, I would 
rather not speculate at this stage. I would note that we do 
have a strong relationship, that free trade agreements, 
strengthening of trans-Pacific market is important. Supporting 
Peru's evolution toward free markets and as a model for the 
Andean region on how free market and trade can lead to growth 
which trickles or provides support for broader swaths of the 
population all underscore the importance of focusing on the 
mechanisms for producing sustained economic growth as we look 
at our goals, not just in Peru but in the region and Latin 
America in general.
    Senator Webb. I thank you for that very comprehensive 
response.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    I have one more Venezuelan question. I am concerned about 
Venezuela's engagement with Iran. It has signed an agreement 
for $200 million to finance joint investments in projects in 
building a series of oil explorations in the Orinoco River 
belt. They also have announced recently when President 
Ahmadinejad came in mid-January that they would use a $2 
billion investment fund to fund projects in both countries and 
other countries as well.
    Should the United States be concerned with Venezuela's 
growing relationship with Iran?
    Mr. Duddy. Thank you, Senator. Certainly we are following 
developments with Iran very closely and it is a source of 
concern to us. For the last 2 years, the administration has 
characterized Venezuela as not cooperating fully in the war on 
terror. The expanding ties with Iran certainly are a matter 
that we follow very closely and is a source of concern for the 
administration.
    Senator Menendez. We have two countries in the world that 
have a great deal of oil supplies, both at this point in time 
who have adverse interests to the United States. It seems to me 
that within the context of the hemisphere itself to have such a 
relationship, not that we can necessarily stop it, but 
ultimately is of concern to us and something that I hope we pay 
a lot of attention to.
    Ambassador Brownfield, I want to follow up on the 
chairman's comments about Colombia. I have supported Plan 
Colombia. I voted for it when in the House of Representatives. 
I've been a big supporter. But I am growing skeptical as I 
don't see the results adding up.
    If we looked at the Office of National Drug Control Policy 
2006 survey of cultivation in Colombia, it indicates that 
statistically there's no change in the amount of coca being 
grown between 2005 and 2006. Even if there is no decrease, I 
fail to see the status quo as success, especially when 
considering how much U.S. money is being spent. And I'm not 
interested in caveats to numbers such as, quote, ``confidence 
intervals.'' The numbers in the end need to point to progress 
and not to what works best, and personally I'm not seeing 
progress.
    I can hear myself echoing these remarks and comments when I 
sat in the House on Plan Colombia in 2005. I look at that and I 
look at a briefing before the Senate where we were told that 70 
percent of fields had been reconstituted within 6 months of 
spraying, to the most recent State Department verification 
mission. I think that's a serious problem.
    So my question is how we avoid sitting here 2 years from 
now after you've been down there asking the same questions when 
faced with the same facts. How do you feel that our current 
counterdrug programs in Colombia are succeeding? Do you have a 
sense of why this number on reconstituting is so high, and how 
can we say that aerial eradication is successful when 70 
percent gets reconstituted?
    Last, to keep it all in a package here, you know, one of 
the problems is if you want poor coca farmers to turn away from 
coca you need to give them sustainable development alternatives 
so that they can sustain their families. I have a problem when 
in fact not only have we not seen an increase in alternative 
development to complement our drug eradication and interdiction 
program, but the alternative development institution-building 
program in the ACI account has gone from $130 million to zero--
to zero.
    Now, I know some will say, well, we put it in ESF, but ESF 
doesn't guarantee that it's going to go for that purpose.
    So with that as a package, with the realities that we're 
not moving numbers ahead, that the fields are getting 
reconstituted to the tune of 70 percent, and that we're going 
in the opposite direction in terms of alternative development 
programs, how are we going to claim that Plan Colombia is a 
continuing success? How are you going to get people like me to 
continue to be supportive as I have in the past?
    Ambassador Brownfield. Well, let me try right here, 
Senator.
    Senator Menendez. Well, I'm glad you're smiling, to start 
off with. That was a smile of positive thinking, that's for 
sure.
    Ambassador Brownfield. That was a smile of departure. Now 
I'm giving you the smile of arrival.
    Let me try to----
    Senator Webb. He's smiling because he's happy to leave the 
other place. [Laughter.]
    Ambassador Brownfield. Let the record reflect that it was 
not the nominee himself who uttered those words.
    Senator, let me offer you first 15 seconds of the macro and 
then address specifically the issue that you raise. I said 
during my statement, I said in response to the chairman's first 
question to me, and I repeat now, that as we take a look at the 
entire package that Plan Colombia was designed by us, by you in 
the Senate and at that time in the House and by us in the 
executive branch. What it was designed to address, I state 
again, it has been to date successful. It has delivered a 
better Colombia on all of these fronts--security, narcotics, 
economic, social justice, human rights, administration of 
justice. Go down the line, the difference between Colombia in 
1999 and Colombia in 2007 is notable and visible in all of 
those areas, thanks largely or at least in large part to our 
support by the United States Congress, by this Senate and that 
House for this program.
    Now, you have correctly pointed out that one area, 
specifically drug production, does not show the numbers that 
people like me were saying to you back in 2000, 2001, we should 
be seeing now, 6 or 7 years later. What has happened? First, 
there's no such thing as a perfect plan. A plan has to be 
changed, adjusted, revised on a regular basis, and that clearly 
would fall within the responsibility of whoever you should 
decide to confirm as the next Ambassador to Colombia.
    Second, those people who engage in narcotics trafficking 
are neither stupid nor stationary. They also are changing, 
adjusting. As they see what is being thrown at them, they are 
trying to accommodate to keep their business going.
    Third, people move. In areas that we were focused on in 
2000, 2001, 2002, we now find perhaps are fairly secure, fairly 
calm, but move 200 or 300 miles to the east or to the north, to 
the west, depending upon what your starting point is, and you 
find you've got a brand new area.
    The solution in my opinion is let's work on the plan. I 
have absolutely no problem, no objection whatsoever, to the 
United States Congress telling us, you had better rework this 
plan, you had better start reflecting the new realities and 
delivering some results and some outcomes. I cannot do that 
overnight. I cannot do that for you by breakfast tomorrow. But 
I think I should be--in fact, I think you should require me to 
tell you on a fairly regular, systematic basis what are we 
doing to change this current plan so that we are going to 
address what you have described.
    I believe if we do it that way we'll actually accomplish 
what we all want to accomplish, reduce the production of 
cocaine in Colombia and reduce the amount of cocaine that is 
coming into the United States of America.
    Senator Menendez. Well, Mr. Chairman, I'll make a final 
remark. The chairman's been very generous with his time.
    Let me just say two things. One is reconstitution has 
nothing to do about moving to different areas. Reconstitution 
is about reconstituting the same area that has been eradicated. 
And that's a problem.
    I appreciate your response insofar as both making you 
responsible should you be our ambassador, and I think you will 
be. Second, having some reporting to the Congress, because 
those of us who have been supportive--and I agree with you, 
Plan Colombia is more than about eradication. But when you look 
at the whole element of eradication and interdiction and when 
you look at the sustainable development alternatives which we 
are not pursuing and when you look at the latest set of 
circumstances as we talk about a trade agreement with Colombia, 
with some of the things that have been happening in that 
respect, where some of the administration's closest allies in 
the region have government ties with right-wing paramilitaries 
that have violated human rights, it's not the perfect picture 
that some in the administration would like to promote.
    I think those are serious questions and I hope that, as 
someone who has supported President Uribe, I hope he 
understands that there is still some response necessary here 
for continuing large investments of the United States and a 
trade agreement.
    Then finally, Dr. McKinley, I didn't want you to feel 
slighted that I didn't have any questions for you, but I will 
say this. I think Peru's an incredibly important part of our 
relationship in this hemisphere. I know they are planning the 
free trade agreement and the chairman asked about it. I want to 
tell you this: The Peruvians have to understand that arbitrary 
and capriciousness in their tax laws in SUNAT and others is not 
going to serve them well in the promotion of a free trade 
agreement.
    I have New Jersey companies that made investments 
legitimately in Peru, that did it under their rule of law, that 
followed their tax policies, and then the Peruvians arbitrarily 
and capriciously had in essence a confiscation. Well, that's 
not the type of country I want to be dealing free trade 
agreements with, and I hope the Peruvians, and I hope you'll be 
part of that if you ultimately, and I believe you will, become 
our ambassador, make a very clear statement to the Peruvians 
that it's in their own interests--forgetting us, protecting 
United States companies and interests, which we should--it's in 
their own interest at the end of the day to have transparency 
to make sure that the rule of law is observed, because 
otherwise nobody's going to go and invest in Peru if their 
investments are going to be taken.
    So I hope we'll have another opportunity at another time to 
talk about that.
    Mr. Chairman, thank you very much.
    Senator Webb. Thank you, Senator Menendez.
    I'd like to note for the record that another vote has been 
called on the floor. We have about 11 minutes on the vote. I 
have one other question and then, Senator Menendez, if you have 
any others, and then we can wrap this up.
    For the record, again, Ambassador Brownfield, you're aware 
that 4 years ago three Americans were taken hostage in Colombia 
by forces that are by definition hostile to the interests of 
the United States. Proof of life has been established. Can you 
provide us an update on where that situation is?
    Ambassador Brownfield. Sure, Mr. Chairman. As you know--and 
let me restate it here for the record--recent proof of life was 
offered within the past 2 months. It was offered by a Colombia 
national police officer who had also been seized by the FARC 
and held for many years, escaped a little over a month ago, 
finally found his way home, and in debriefings both with the 
Government of Colombia and with the United States Government 
personnel did provide sufficient detail and evidence to 
convince both us and the Colombia counterparts that he had in 
fact seen Mr. Stansell, Mr. Howes, and Mr. Gonsalves alive 
within the last 2 months.
    That's good news because the previous last proof of life we 
had received was nearly 4 years old.
    Let me just make the same simple statement that I made in 
my opening statement. Mr. Chairman, we all have a solemn 
obligation, you, me, and quite frankly everyone in this room, 
and that obligation is to do whatever we can to get these three 
United States citizens seized, held against their will, in 
captivity for 4 years and I believe now 4 months, to get them 
home safely to their families.
    That I take as my responsibility. I am open to considering 
any option, any possibility to accomplish that mission. My door 
will be open to the families, to friends, to anyone who can 
offer information that would help us accomplish that objective. 
In my opinion it is an absolute outrage that an organization 
would hold three innocent men as hostages for more than 4 years 
without offering them the opportunity of returning to their 
families.
    Senator Webb. Thank you very much, and I'd like to thank 
all of the nominees for your testimony today, for your 
willingness to serve our country in these important positions. 
I expect from the testimony and from all the preparation that 
you will all soon be proceeding to your new positions and I 
look forward to working with all of you to work toward solving 
some of these problems and addressing others that over a time 
period probably can't be solved, but can at least be mitigated.
    The record will remain open for 2 days so that committee 
members can submit additional questions for the record, and I 
ask that the nominees respond expeditiously in the event that 
there are such questions.
    If no one else has any additional comments, I thank you for 
your time. I thank you for your full careers, all three of you 
in this area. I think it's tremendous that our Government can 
produce people with these sorts of backgrounds to address the 
issues that we have, and I look forward to working with you in 
the future.
    We are now adjourned.
    [Whereupon, at 11:31 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


       Responses of Patrick Dennis Duddy to Questions Submitted 
                      by Senator Richard G. Lugar

    Question. President Chavez has called the students demonstrating 
against the denial of a license to Radio Caracas Television (RCTV), 
without any due process even through the Government of Venezuela's own 
communications authorities, ``pawns'' of the United States. Did the 
United States play any role in those demonstrations? Has the United 
States had any contact with the student protestors?

    Answer. The United States has played no role in the student 
demonstrations that arose in reaction to the closure of Radio Caracas 
Television (RCTV). In the normal course of diplomatic activities the 
United States Embassy in Caracas has routine interaction with many 
parts of civil society, including students. The United States did not, 
however, have contact with the student organizers in connection with 
the demonstrations.

    Question. President Chavez says he is a champion of the people. To 
the best of your knowledge, what do current polls reveal about Chavez's 
popularity in Venezuela since the closure of RCTV?

    Answer. A June poll by the Venezuelan survey research firm 
Hinterlaces showed 41 percent of those surveyed had a favorable rating 
of President Chavez's administration or ``gestion.'' In November 2006, 
the same pollster found 49 percent of Venezuelans surveyed had a 
favorable opinion.
    Another poll taken in June by the firm Datos found that over 66 
percent of those surveyed disapprove of the closure of RCTV. Over 55 
percent disapprove of the government's handling of the issue and 
matters dealing with freedom of expression, and its reaction to the 
student protests.

    Question. Doesn't article 23 of the Venezuelan Constitution suggest 
that the Government of Venezuela is bound by treaties it has signed, 
and that issues of freedom of expression that relate to human rights 
are under Venezuela's Bolivarian Constitution, properly the subject of 
scrutiny by bodies such as the OAS, the United Nations, or other bodies 
whose enabling legislation in the form of treaties has been signed and 
agreed to by the Government of Venezuela, thereby giving those bodies 
proper jurisdiction in this area?

    Answer. Venezuela and all the democracies of the hemisphere are 
signatories to international instruments that set forth principles and 
obligations regarding human rights and democratic governance.
    In addition, article 23 of the Constitution of the Bolivarian 
Republic of Venezuela states that ``Treaties, pacts and conventions 
relating to human rights that have been signed and ratified by 
Venezuela have constitutional rank and priority in the domestic sphere 
in so far as they contain norms on the enjoyment and exercise of [human 
rights] which are more favorable than those established in the 
Constitution and the laws of the Republic, and [such norms] are 
immediately and directly applicable by the tribunals and other organs 
of the Republic.''
    In her remarks before the OAS General Assembly in Panama on June 4, 
Secretary Rice raised the closure of RCTV and the growing threats to 
freedom of
expression in Venezuela. She echoed the United States Senate's call in 
Senate Resolution 211 for OAS leadership and action. ``. . . [T]he 
members of the OAS must defend freedom where it is under siege in our 
hemisphere and we must support freedom wherever and whenever it is 
denied.''
    On June 19, we sent OAS Secretary General Insulza a diplomatic note 
formally reiterating the Secretary's request that the Secretary General 
make ``every effort to visit Venezuela to consult in good faith with 
all interested parties in the case of Radio Caracas TV (RCTV), or 
consider other actions to address the situation, and to make a full 
report to the foreign ministers through the Permanent Council at the 
earliest opportunity.''
    The administration and, if confirmed, I will make every effort to 
encourage sustained OAS attention to this matter. The OAS can and 
should play a key role in actively promoting the rights and freedoms 
enshrined in the Democratic Charter and the Universal Declaration of 
Human Rights.
    The United States and all member states should support and, when 
necessary, instigate its proper involvement.

    Question. Given Venezuela's importance as an energy supplier to the 
United States, can you provide the latest data on the number of barrels 
of oil shipped to the United States from Venezuela over the last 5 
years? Can you please explain whether the Government of Venezuela has 
increased or decreased its shipments? If production has decreased, what 
are the reasons for this decrease? Do you regard Venezuela as a 
reliable energy supplier to the United States?
    Answer. According to the Department of Energy's Energy Information 
Administration (EIA), Venezuela's total gross exports to the United 
States since 2001 were:

               VENEZUELA OIL EXPORTS TO THE UNITED STATES
                       (Thousand barrels per day)
------------------------------------------------------------------------
                                                  Refined
               Year                 Crude oil     products      Total
------------------------------------------------------------------------
2001.............................        1,291          262        1,553
2002.............................        1,201          198        1,399
2003.............................        1,183          193        1,376
2004.............................        1,297          258        1,555
2005.............................        1,241          288        1,529
2006.............................        1,138          270        1,408
------------------------------------------------------------------------

    Exports to the United States peaked in 2004 and have declined 
since, although the United States continues to receive over 60 percent 
of Venezuela's production in direct shipments. In addition, Venezuela 
ships roughly 300,000 barrels per day to a refinery in St. Croix, 
United States Virgin Islands.
    The Energy Information Administration assesses Venezuelan 
production at approximately 2.4 million barrels of crude oil per day, 
or more than 500,000 barrels per day less than production before the 
December 2002-February 2003 oil workers strike. Private sector sources 
estimate oil production to be between 2.1-2.3 million barrels per day. 
This decrease has been caused by a number of factors including the 
strike that effectively stopped all production by the state oil 
company, PDVSA; production cuts ordered by PDVSA to comply with OPEC 
quota reductions in late 2006; and difficulties in transitioning the 32 
fields operated by international oil companies under ``operating 
service agreements'' to new joint venture companies in 2006.
    Another factor is what we believe is a long-term structural decline 
in production from Venezuela's mature oil fields.
    Venezuela has been a long-term and reliable supplier of oil to the 
United States. PDVSA's current 5-year plan indicates that the company 
plans to maintain its exports to the United States at current levels in 
2012.

    Question. Venezuela has shipped oil at discounted prices to various 
parts of the world, including the United States. Can you tell us what 
Venezuela's posture has been in the Organization of Petroleum Exporting 
Countries (OPEC) relative to energy prices, and what role Venezuela has 
played regarding oil prices in the market? Could you provide 
information regarding where Venezuela is providing discounted oil? 
Please provide information regarding where Venezuelan Government-owned 
refineries are around the world. And please provide an estimate of how 
much money has been lost as a result. Please provide updated 
information regarding reports that the Government of Venezuela is 
interested in selling CITGO, a wholly owned subsidiary of Petroleos de 
Venezuela Sociedad Anonima (PDVSA). If reports are true, who are the 
interested buyers?

    Answer. Under the Chavez administration, Venezuela has been a price 
hawk in OPEC, seeking to maintain high oil prices. The December 2002-
February 2003 oil strike resulted in the loss of both production and 
spare capacity.
    The decline in Venezuela's production capacity prompted the 
government to intensify its calls for a higher OPEC target price band 
in order to offset the fall in revenue resulting from lower export 
volumes.
    Venezuela is currently providing subsidized oil shipments to Cuba 
as well as to members of the PetroCaribe oil alliance. The PetroCaribe 
signatory nations include Antigua and Barbuda, Belize, Cuba, Dominica, 
the Dominican Republic, Grenada, Guyana, Haiti, Jamaica, St. Kitts and 
Nevis, Saint Vincent and the Grenadines, and Suriname. In fact, 
however, only Cuba, the Dominican Republic, and Jamaica have received 
fairly steady shipments from Venezuela, while other countries have 
received sporadic or no shipments. Private sector sources have 
indicated that Venezuela may also be providing subsidized oil shipments 
to China.
    Strictly speaking, Venezuela does not lose money on its financed 
shipments of oil and refined products. Since OPEC rules do not allow 
members to sell at a discount, Venezuela instead offers generous 
financing terms. These nations pay a certain percentage up front and 
the remainder can be paid through a 25-year financing agreement at 1 
percent interest. Venezuela carries significant currency risk in these 
payment terms and may lose money on interest-rate differentials. In 
addition, it carries risk related to recipient countries' ability and 
willingness to pay these debts.
    Besides the refineries it operates domestically, Venezuela's state 
oil company, PDVSA, currently has the following refinery investments 
internationally:

  <bullet> CITGO, PDVSA's wholly owned U.S. subsidiary, operates three 
        product refineries in Lake Charles, Louisiana; Corpus Christi, 
        Texas; and Lemont, Illinois.
  <bullet> CITGO also has two asphalt refineries in the United States 
        in Paulsboro, New Jersey; and Savannah, Georgia.
  <bullet> PDVSA also has a 50 percent stake in ExxonMobil's Chalmette, 
        Louisiana refinery, as well as certain units at ConocoPhillips' 
        Sweeny, Texas refinery.
  <bullet> PDVSA has a 50 percent stake in the Hovensa refinery in St. 
        Croix, United States Virgin Islands and leases the Emmastad 
        refinery in Curacao.
  <bullet> PDVSA participates in two joint refining ventures in Europe: 
        A 50 percent stake in AB Nynas, a Swedish company that operates 
        five refineries; as well as a 50 percent stake in Ruhr Oel, 
        which has ownership stakes in five German refineries.

    Over the past few years, Venezuelan Government officials have made 
contradictory statements about their intent to sell the CITGO 
refineries in the United States. Last year, former CITGO CEO, Felix 
Rodriguez, said that the Government of Venezuela did not plan to sell 
off the company's assets. Despite this, the company does seem to be 
seeking a buyer for its two asphalt refineries. Rumors of the potential 
sale of other CITGO assets continue to circulate, but we have not seen 
any concrete information about such plans nor who the potential buyers 
would be.

    Question. Please indicate the frequency and character of engagement 
between the United States Government and the Government of Venezuela on 
energy issues. Who is representing the United States Government to the 
Government of Venezuela on energy issues? What are the U.S. Government 
priorities in the bilateral energy relationship?

    Answer. While there has been a reduction in contacts between the 
Government of Venezuela and the United States Government on energy 
issues, we continue to look for opportunities to discuss a range of 
issues.
    The United States Ambassador to Venezuela serves as the principal 
link to the Venezuelan Government, although the current ambassador has 
not been able to meet with the Energy Minister despite our requests. In 
the past, lower-level United States Government officials in Washington 
and Caracas have maintained contacts with Venezuelan Government 
officials on energy issues. However, Venezuelan Government officials 
have not responded to repeated requests for appointments by lower-level 
embassy officials in recent months.
    Venezuela, traditionally, has been a reliable supplier and the 
United States a dependable consumer. If confirmed, I will work to 
ensure this relationship continues to benefit both our nations.

    Question. How much of the Government of Venezuela's spending is 
financed through oil and natural gas exports? How has that level 
changed over the past 8 years? What amount of future income from oil 
and natural gas exports is necessary to meet projected Government of 
Venezuela domestic expenditure and foreign loans and grants?

    Answer.

                                    BOLIVARIAN REPUBLIC OF VENEZUELA BUDGETS
                                                   (1999-2006)
----------------------------------------------------------------------------------------------------------------
                                                                                                      Oil income
               Year                     GDP       Budget (%      Budget     Oil income   Oil income     (% of
                                                     GDP)      (billions)    (% GDP)     (billions)    budget)
----------------------------------------------------------------------------------------------------------------
1999..............................       $103.3         19.8        $20.5          7.3         $7.5         36.9
2000..............................       $121.3         21.8        $26.4         10.6        $12.9         48.6
2001..............................       $126.2         25.1        $31.7          9.9        $12.5         39.4
2002..............................        $95.4         26.1        $24.9         10.9        $10.4         41.8
2003..............................        $82.8         27.8        $23.0         11.8         $9.8         42.4
2004..............................       $109.2         26.5        $28.9         11.5        $12.6         43.4
2005..............................       $127.0         26.9        $34.2         14.1        $17.9         52.4
2006..............................       $174.7         33.8        $59.0         16.9        $29.5         50.0
----------------------------------------------------------------------------------------------------------------

    As indicated by the table above, approximately 50 percent of the 
Government of Venezuela budget is derived from oil sales (Venezuela 
does not export natural gas).
    The table demonstrates clearly that this level has increased in the 
past 8 years.
    In 2005, the Government of Venezuela created a parallel, or off-
budget National Development Fund (FONDEN), which to date has received 
over $27 billion from Central Bank reserves and in direct transfers 
from PDVSA. Information about the FONDEN accounts is very limited. 
Thus, the budgetary numbers above do not necessarily paint a complete 
picture of 2005 and 2006.
    It is difficult to set a number for future income which the 
Government of Venezuela needs to sustain its domestic fiscal policy 
much less its foreign loans and grants. While the Government of 
Venezuela has promised over $100 billion toward projects outside 
Venezuela since the beginning of 2005, it is very difficult to say what 
portion will actually be spent.
    Venezuelan oil production is not expected to rise in the near-term 
and most analysts predict that the price of the Venezuelan oil basket 
will range between $50-$60 per barrel in 2007. This may leave the 
government with the problem of stagnating revenues and increasing 
costs.
    Most analysts believe that the Government of Venezuela has 
approximately $30 billion in off-budget funds and another $25 billion 
in foreign exchange reserves although the lack of transparency of 
government accounts makes these only assumptions. These funds could 
serve to cushion Venezuelan Government expenditures for some time to 
come.
    A devaluation, while painful to ordinary Venezuelans, would also 
allow the Venezuelan Government to generate more bolivars for every 
dollar of oil revenue with which to meet domestic commitments.

    Question. Secretary Rice has spoken often of ``Transformational 
Diplomacy''; can you tell us what your vision is for the implementation 
of Transformational Diplomacy in Venezuela, and what specific steps you 
think you can take, while respecting the sovereign rights of the 
Government of Venezuela, and taking cognizance of the delicate 
situation which we find ourselves in regarding our relations with 
Venezuela?

    Answer. Our efforts in Venezuela have been anchored by an advocacy 
of the President's positive agenda for the hemisphere (consolidating 
democracy, promoting prosperity, investing in people, and promoting the 
democratic state). With many Venezuelan governmental institutions 
reluctant or unwilling to work directly with the United States 
Government, our approach has been to take our message directly to the 
Venezuelan people via the media, NGO's, the private sector, and 
educational institutions. We have used new mechanisms, including 
baseball diplomacy and, recently, a major cultural stage show featuring 
popular American dance in order to consistently remind the Venezuelan 
people that we remain a committed and reliable friend of the Venezuelan 
people and are seeking to maintain United States-Venezuelan ties, 
despite government hostility to the United States.
    We have also opened four American Corners in Venezuelan public 
institutions in provincial capitals and have launched a 
microscholarship program for young people to learn English.
    If confirmed, I will continue to seek new means to advance our 
public diplomacy goals including the opening of additional American 
Corners and the expansion of the scholarship program.

    Question. Please explain the Government of Venezuela's interest in 
closer relations with Hamas? Should this be cause for alarm? If so, 
why?

    Answer. In general, we have been disappointed in Venezuela's lack 
of cooperation in global antiterrorism efforts. Publicly, senior 
Government of Venezuela officials have expressed sympathy and moral 
support for Hamas, which is a Foreign Terrorist Organization (FTO) 
under United States law. The reasons for Venezuela's sympathies for 
Hamas are not fully clear, though Venezuela's ``anti-imperialist'' 
foreign policy may provide some basis.
    Certainly, this is cause for serious concern. Venezuela's 
increasing ties with Iran, a state sponsor of terrorism, was an 
important factor that led President Bush to determine in 2006 that 
Venezuela was not fully cooperative in United States antiterrorism 
efforts. Absent willingness by Venezuela to cooperate in deterring this 
common global threat, the United States Government will continue to 
scrutinize closely Venezuela relationships with FTOs such as Hamas.

    Question. Please explain the Government of Venezuela's interest in 
purchasing Russian submarines? What is the military justification for 
such a purchase? Please provide an assessment of neighboring countries' 
capabilities in this regard, and whether Government of Venezuela's 
acquisition of this capability would pose a threat that could lead to a 
regional arms race. How should the United States address this situation 
in terms of its arms sales policies to the region?

    Answer. President Chavez has stated repeatedly and as recently as 
June 21, his intention to purchase Russian submarines. The acquisition 
of advanced submarines could give Venezuela a military advantage in 
force projection over that of its neighbors, though this would depend 
to a great degree on the Venezuelans' ability to maintain and deploy 
such a complicated system and the nature of the specific subsystems and 
weapons with which the submarines Venezuela acquires are equipped. We 
have urged the Government of Venezuela to practice full transparency 
with its neighbors in its arms acquisitions.
    The United States Government has already responded to Venezuela's 
ambitious arms build-up by imposing a ban on all United States arms 
sales and services to Venezuela. Under this policy, we are also 
required to deny licenses to third countries that wish to export arms 
sales and services to Venezuela that involve United States munitions 
list equipment. We repeatedly have urged all major arms suppliers to 
practice restraint in their military sales or transfers to Venezuela 
given, in part, the deterioration of democratic conditions in Venezuela 
and the effect these acquisitions will have on regional stability.

    Question. There is much concern in the United States Senate for 
what occurs within Venezuela's borders, as domestic factors play an 
important role in defining Venezuela's intentions in the region and the 
world.
    The United States Senate stands firm, as was demonstrated by the 
overwhelming bipartisan support for a recent resolution passed by 
unanimous consent on May 24, 2007, and cited by Secretary of State, 
Condoleezza Rice, at the recent Organization of American States (OAS) 
Assembly on Panama earlier this month, rejecting the closure of RCTV 
(S. Res. 211).
    I introduced this resolution with Senator Dodd and one of its 
intentions was to highlight to the citizens of the United States the 
unfortunate deterioration of democracy in Venezuela. The resolution is 
proof that when it comes to United States policy toward Venezuela, 
there is one United States policy, from both aisles of the United 
States Congress and from both branches of our Government.
    Nevertheless, many transnational issues remain that present 
challenges to our interests and those of other countries in the region, 
from energy to narcotics and to security, especially. In these areas, 
threats have been made by the Government of Venezuela that raise 
questions regarding our overall policy approach to Venezuela.
    In this regard is there a ``red line'' in our relationship with 
Venezuela that if crossed would lead to serious consequences for the 
Government of Venezuela? Should there be one?

    Answer. Both President Bush and Secretary Rice have expressed 
concern over the erosion of democratic institutions in Venezuela. We 
have been firm in reminding Venezuela of its obligations to its 
citizens as a signatory to the Inter-American Democratic Charter and 
other international instruments. It was for this reason the Secretary 
called on OAS Secretary General Insulza to visit Venezuela to 
investigate the vulnerabilities to freedom of speech made evident by 
the Government of Venezuela's decision not to renew the RCTV license. 
The Secretary's decision also reflected increased concern from other 
hemispheric partners in the OAS.
    We will continue to take actions to protect our homeland from the 
scourge of drugs and terrorism and will continue to engage and consult 
closely with key allies in the region and beyond to determine 
appropriate steps required to protect democracy and security interests. 
Many countries, for instance, are affected by the drug flow through 
Venezuela--we are working with them to press Venezuela to take steps to 
disrupt trafficking organizations.
                                 ______
                                 

        Responses of Patrick Dennis Duddy to Questions Submitted
                    by Senator Joseph R. Biden, Jr.

    Question. What, in your view, are the most pressing human rights 
issues in Venezuela? What are the steps you expect to take--if 
confirmed--to promote human rights and democracy in Venezuela? What do 
you hope to accomplish through these actions?

    Answer. Freedom of expression is a fundamental human right and 
essential to democracy. Over the past few weeks, freedom of expression 
in Venezuela--press freedom in particular--has experienced a worrisome 
setback. The United States Senate, the Inter-American Commission on 
Human Rights, other governments, and countless international human 
rights nongovernmental organizations (NGOs) have expressed their 
concern over the May 27 closure of RCTV.
    This adds to our growing concerns about the concentration of power 
in Venezuela, the deterioration of checks and balances, and the erosion 
of respect for human rights and the rule of law.
    If confirmed, I will continue to seek to work with our hemispheric 
and European partners and through multilateral and international 
organizations to support the right of all Venezuelans to express their 
views freely.
    In addition, I will continue the work we are doing in Venezuela, as 
elsewhere, to strengthen civil society, political parties, labor 
unions, and the independent media that play an important role in the 
democratic process in any country. Our programs offer support to NGOs 
open to Venezuelans of every political persuasion.

    Question. If confirmed, what challenges will you face in Venezuela 
in advancing human rights and democracy in general?

    Answer. In Venezuela, as elsewhere, much of the embassy's work on 
human rights and democracy is accomplished through its programs with 
nongovernmental or-
ganizations (NGOs). Our programs work with NGOs that welcome 
participation from Venezuelans of all political persuasions. The 2006 
Country Report on Human Rights conditions in Venezuela reported that, 
although a wide variety of independent domestic and international human 
rights groups generally operated without government restriction, 
several domestic human rights NGOs received threats and intimidation by 
government representatives and supporters. More generally, NGOs are 
increasingly viewed with suspicion by some elements of the Government 
of Venezuela.
    Moreover, an ``international cooperation'' law under consideration 
by the National Assembly would restrict NGOs' ability to receive 
foreign funding and to operate independently. The nationalization of 
several private sector companies earlier this year eliminated another 
important source of funding, particularly for human rights NGOs.
    Beyond the threat that they may lose their funding, some NGOs 
increasingly worry that being associated with the United States would 
compromise them with the Government of Venezuela. We will continue to 
work with those who wish to work with us, but will be respectful of the 
decision that some may make not to do so.

    Question. In your new position, what steps will you take to ensure 
that promotion of human rights objectives will be an integral part of 
the U.S. Embassy's activities? If confirmed, what steps will you take 
to ensure that Foreign Service officers who engage in human rights 
activities are encouraged and professionally rewarded for superior 
service?

    Answer. The promotion of human rights is already an important 
embassy priority and is one that I will maintain if I am confirmed.
    If confirmed, I would stipulate that engagement on human rights 
issues would be a requirement in the annual work goals of the relevant 
embassy political and public diplomacy officers. I would ensure that 
the relevant embassy personnel have access to the appropriate training 
and professional development opportunities, whether through courses at 
the Foreign Service Institute or in venues such as the Bureau of 
Democracy, Human Rights and Labor's annual Human Rights officer 
conference.
    I would make it clear to all embassy personnel that advocacy for 
human rights and accurate and timely reporting on such issues is an 
important embassy reporting requirement. I would ensure that such 
issues would be addressed in the annual performance review of the 
relevant embassy officers. I would also work to ensure that truly 
exceptional performance receives the attention it merits, for example 
by nominating outstanding officers for Departmental awards that 
recognize their efforts.
    I would plan to meet regularly with the appropriate local 
interlocutors and the embassy personnel working on these issues to 
underline to them that this issue is important to me as chief of 
mission.

    Question. What are the most significant actions you have taken in 
your career to promote human rights and democracy? Why were they 
important? What was the impact of your actions?

    Answer. The promotion of human rights and democracy has played an 
important role in my career. Most recently I worked on restoring 
democracy and the rule of law, and diminishing the level of violence in 
Haiti. I played a personal role in advocating for human rights issues 
during the period of the interim government and I believe my 
intervention aided materially in the release of one high profile 
detainee for medical treatment.
    When assigned as the Consul General in Sao Paulo, I worked closely 
in support of the establishment of the Sao Paulo state Office on 
Trafficking in Persons, one of the first such offices ever supported at 
the subnational level. This office helped to establish combating human 
trafficking as an issue in which local and regional government has a 
legitimate role and responsibility.
    Earlier in my career, I was active in raising levels of concern 
about human rights issues in Paraguay as that country was working to 
complete its transition to democracy. I believe that United States 
attention to human rights there helped to establish progress in that 
arena as an important indicator of the country's over all progress in 
leaving behind the legacy of Paraguay's authoritarian past.
                                 ______
                                 

       Responses of William R. Brownfield to Questions Submitted
                    by Senator Joseph R. Biden, Jr.

    Question. What, in your view, are the most pressing human rights 
issues in Colombia? What are the steps you expect to take--if 
confirmed--to promote human rights and democracy in Colombia? What do 
you hope to accomplish through these actions?

    Answer. The persistence of a complex and violent armed conflict is 
the greatest obstacle to the advancement of human rights in Colombia, 
resulting in numerous homicides, kidnappings, and massive internal 
displacement of Colombian citizens. The majority of human rights abuses 
are carried out by illegal armed groups, principally the Revolutionary 
Armed Forces of Colombia (FARC), the National Liberation Army (ELN), 
and paramilitary organizations. Key to ending these abuses is weakening 
the control of illegal armed groups so that the state may bring the 
security and stability necessary to protect human rights and 
consolidate democracy.
    Four decades of violence has hindered the Colombian Government's 
ability to consolidate democracy and establish state presence 
throughout the country and has strained the government's resources. The 
government has made great strides in taking back swaths of territory 
from illegal armed groups, has successfully demobilized over 30,000 
paramilitary members, and continues vigorous operations against the 
FARC, ELN, emerging criminal groups, and the narcotrafficking industry 
that is their primary source of funding. However, major challenges 
remain in defeating Colombia's illegal armed groups.
    Throughout this conflict, there have also been allegations of human 
rights abuses by members of the armed forces. The United States has 
repeatedly raised its concerns over these reports, and the Colombian 
Government has responded positively, instituting changes to try to 
prevent these alleged abuses. It has also made changes in its judicial 
procedures to ensure civilian control over cases involving the military 
and a change in its criminal code and justice system that allows for 
cases to move much more quickly from arrest to verdict than under the 
old system. The Colombian Government also runs--with United States 
support--two protection programs that together total $34 million (2006 
budget) and provide protection to approximately 10,000 individuals. It 
has established a special labor sub-unit within the Prosecutor 
General's Office to prioritize the resolution of cases of violence 
against trade unionists. However, more remains to be done.
    Central to continued progress on human rights is maintaining a 
close and constructive relationship with the Government of Colombia. If 
confirmed, I will continue to work with the Colombian Government to 
improve respect for human rights within the military and to improve its 
capacity to stamp out the illegal armed groups that operate within its 
borders. United States programs will continue to focus on the promotion 
and protection of human rights; the prevention of human rights abuses; 
and increasing the capacity of the Colombian Government to provide the 
social services necessary to assist the internally displaced.
    Likewise, maintaining a strong, supportive relationship between the 
United States Embassy and human rights NGOs in Colombia is critical to 
ensuring continued progress on pressing human rights concerns. The work 
of these organizations is a vital part of Colombian democracy and, if 
confirmed, I will continue to work with the Colombian Government to 
ensure their safety.

    Question. If confirmed, what challenges will you face in Colombia 
in advancing human rights and democracy in general?

    Answer. The primary challenges to advancing human rights and 
consolidating democracy in Colombia continues to be the four-decade-old 
armed conflict with illegal armed groups financed by narcotics 
revenues, combined with a slow judicial system that has facilitated a 
culture of impunity.
    The majority of human rights abuses are carried out by illegal 
armed groups, principally the Revolutionary Armed Forces of Colombia 
(FARC), the National Liberation Army (ELN), and paramilitary 
organizations. These groups continue to hinder the consolidation of 
democracy in Colombia by preventing the state from establishing 
presence throughout its territory and bringing the services that 
accompany a democracy to its people. Until the influence of the illegal 
armed groups operating within Colombia's borders is diminished, 
advancing human rights and consolidating democracy will continue to be 
an arduous task.
    The Colombian Government, with United States support, continues to 
weaken the control of these organizations, but the task is not over. 
The FARC is weakened but not yet defeated. Additional support may be 
needed to ensure the Colombian Government maintains its momentum in 
defeating this organization. The Colombian Government is talking to the 
ELN about a possible demobilization, but the outcome remains to be 
seen. If an agreement it reached, the government will undoubtedly 
require international assistance to see it through.
    Over 30,000 paramilitary members have demobilized from over 35 
paramilitary groups, including the largest of these, the United Self-
Defense Forces of Colombia (AUC). However, the government faces the 
triple-headed challenge of (1) vigorously implementing the Justice and 
Peace Law, and thereby taking testimony from approximately 3,000 
demobilized paramilitaries eligible for benefits under the law and over 
60,000 victims; (2) reintegrating the demobilized into society and 
ensuring they do not return to a life of crime; and (3) combating the 
newly emerging criminal groups that are rushing to fill the vacuum left 
by the demobilization of these groups.
    In addition, Colombia's judicial system has been slow to adjudicate 
allegations of human rights abuses by Colombian military personnel. 
Decades of delayed response to allegations of such abuses and an almost 
zero percent conviction rate have fed a culture of impunity in 
Colombia. Recognizing this dilemma, Colombia began--and is in the 
middle of--a historic transition from an outmoded inquisitorial 
judicial system to a new oral accusatory criminal justice system, with 
the Prosecutor General's Office leading the charge. The changes are 
being introduced through a gradual four-phase regional process, which 
will be completed in 2008.
    The system enables cases to progress much faster from arrest to 
verdict than under the old inquisitorial system, with cases averaging 6 
to 18 months to resolve. Compared to an average of 3 to 5 years for 
resolution of cases under the old system, this is an average reduction 
of over 80 percent in the time that it takes to resolve criminal cases. 
The new system has also shown a 60 to 80 percent conviction rate, a 
vast improvement over the 0 to 3 percent conviction rate under the old 
system.
    The transparency of the new system brings with it an increased need 
for protection of witnesses, courtrooms, and judicial officers. 
Colombia's overburdened Prosecutor General's Office will need a great 
deal of international support to ensure it successfully completes this 
transition and to prevent old habits from carrying over into new 
practices.
    The office also faces the challenge of strengthening its Human 
Rights and Justice and Peace Units, and providing additional support to 
overburdened judges so that outstanding cases can be resolved. The 351-
person Human Rights Unit has within it a sub-unit to prioritize 204 
cases of violence against trade unionists. Created in October 2006, 
this sub-unit is an important step toward ending impunity in these 
cases. Similar prioritization needs to be given to resolve outstanding 
human rights cases. The 186-person Justice and Peace Unit faces the 
enormous task of implementing the justice side of the Justice and Peace 
Law. This entails taking voluntary confessions from 2,812 demobilized 
paramilitary members, receiving reports from and interviewing victims, 
and exhuming and identifying victims at massacre sites. In just over 
one year, with limited resources, through the 40 versiones libres 
(confessions from demobilized paramilitary leaders) it has taken to 
date, the unit has attained confessions for 200 murder cases and 
confirmed the locations of over 90 mass grave locations, which have 
resulted in locating over 704 victims (of which, 42 have been 
identified and 188 others have been preliminarily identified). After 
receiving information from over 60,000 victims, the unit estimates an 
additional 3,200 bodies have yet to be exhumed. Though the Colombian 
Congress approved an additional $600,000 in assistance for the unit on 
May 16, additional resources and personnel are greatly needed.
    As the Colombian Government tackles impunity in human rights cases 
and implements the Justice and Peace Law, it will also need to increase 
protection for victims, witnesses, and vulnerable groups to ensure that 
human rights are protected and justice is served. The Colombian 
Government runs--with United States support--two protection programs 
that together total $34 million (2006 budget) and provide protection to 
approximately 10,000 individuals. These programs are vital to 
preventing human rights abuses and more needs to be done to coordinate 
the two in order to ensure that vulnerable persons receive the 
protection they need.
    If confirmed, I will work closely with the Colombian Government and 
international partners--including NGOs and international 
organizations--to ensure these challenges are met and that respect for 
human rights and democracy are advanced throughout the process.

    Question. In your new position, what steps will you take to ensure 
that promotion of human rights objectives will be an integral part of 
the U.S. Embassy's activities? If confirmed, what steps will you take 
to ensure that Foreign Service officers who engage in human rights 
activities are encouraged and professionally rewarded for superior 
service.

    Answer. The promotion of human rights was at the center of United 
States Embassy activities in Bogota under Ambassador Patterson and 
Ambassador Wood. If confirmed, I will do all I can to ensure that the 
widely recognized improvements that occurred during their tenures will 
continue. We seek an end to the cycle of violence, respect for the 
human rights of all Colombians, especially vulnerable groups; expansion 
of protection programs; and an end to impunity.
    Human rights issues will be at the forefront of my agenda in 
meetings with Colombian Government officials at every level. In 
addition, I will continue the periodic meetings and consultations with 
Colombian and international human rights organizations as well as 
representatives of international organizations such as the Office of 
the High Commissioner for Human Rights in Bogota and the International 
Committee of the Red Cross. My door will be open, as will be the door 
of all key staff.
    In addition, I will certainly continue my practice of meeting often 
with embassy officers who work on human rights issues and to give them 
my full support. This includes making sure that all elements of the 
embassy understand the importance of our human rights concerns and are 
accurately reflecting them in our activities.
    I will also pay close attention to ensure that the formulation of 
our proposals for U.S. Government programs includes protection of human 
rights, justice sector reforms, humanitarian assistance to internally 
displaced persons, and attention to the situation of indigenous and 
Afro-Colombian communities.
    If confirmed, I will continue to mandate that the embassy adhere to 
Secretary Rice's 10 guiding NGO principles regarding the treatment by 
governments of nongovernmental organizations. In concordance with the 
Guiding Principles on Non-Governmental Organizations, we will continue 
to recognize that nongovernmental organizations are essential to the 
development and success of free societies and they play a vital role in 
ensuring accountable, democratic governments.
    Supporting human rights is a top strategic priority of the 
political section, USAID, NAS and the mission as a whole. If confirmed, 
ensuring that these mission elements have what they need to do their 
job--support Colombia's efforts to improve its human rights situation, 
advocate on behalf of our key human rights interests, and call 
attention to lapses and abuses--will be a top priority of mine. The 
embassy's designated ``Human rights officers'' generally work in the 
political section--coordinating closely with other offices and 
agencies--on portfolios that are among the mission's most substantive, 
interesting, and exciting. In that sense, the position generates the 
kinds of challenging professional opportunities that translate into 
recognition and advancement. I plan to make sure that that is and 
remains the case in Embassy Bogota. To that end, I would encourage the 
relevant embassy personnel to take advantage of opportunities for 
professional development and networking, such as the annual Human 
Rights Officer's Conference run by the Bureau of Democracy, Human 
Rights and Labor.
    In previous posts, I have always tried to recognize Foreign Service 
officers for superior service, either through their performance reviews 
or special awards, and intend to continue to do so. One way to 
recognize outstanding work by our human rights officers is to nominate 
them for the Annual Assistant Secretary's Award from the Bureau of 
Democracy, Human Rights and Labor for exceptional achievement in the 
field of democracy and human rights.

    Question. What are the most significant actions you have taken in 
your career to promote human rights and democracy? Why were they 
important? What was the impact of your actions?

    Answer. During my career, and especially as I moved into more 
senior positions, I have sought to ensure that the promotion of human 
rights objectives are an integral part of U.S. Embassy activities. In 
my many years of public service, I have always placed great emphasis on 
human rights. The following is a review of some of the actions I have 
taken in this area:

  <bullet> El Salvador (1981-1983): I worked to bring to justice the 
        murderers of four United States churchwomen, two AFL-CIO 
        advisers, and the head of the campesino (peasant farmer) union, 
        and several other labor leaders. I also initiated outreach and 
        programs with Nahuat indigenous communities in western El 
        Salvador.
  <bullet> Argentina (1986-1989): As human rights officer, I worked 
        with the Madres de Plaza de Mayo, Nobel Prize-Winner Perez 
        Ezquivel, and other NGO's to bring to account those who had 
        abused human rights during previous years of military rule.
  <bullet> Geneva (1995-1998): As Counselor for Humanitarian Affairs, I 
        worked with the U.N. and other international organizations to 
        bring initial international relief, support, and observation to 
        Bosnia (Srebenijna and Sarajevo), the Great Lakes region of 
        central Africa (Rwanda, Burundi, Zaire), and the Kurdish 
        provinces of northern Iraq, and West Africa.
  <bullet> Colombia (as Deputy Assistant Secretary, 1999-2001): 
        Established and initially led the quarterly United States 
        Government consultations with United States, Colombian, and 
        international NGO's on human rights, integrated human rights 
        programs into United States support for Plan Colombia, and 
        provided input for United States policy and operations. This 
        work earlier included consulting with NGOs and Congressional 
        staffers on establishment of a certification process that would 
        measure Colombia's human rights progress. While not perfect, 
        this process has contributed to the significant improvements we 
        have seen in Colombia since 2000.
  <bullet> Chile (2002-2004): As the United States Ambassador to Chile, 
        I established public affairs programs in support of Mapuche 
        indigenous communities in southern Chile.
  <bullet> Venezuela (2004-2007): Most recently, as the United States 
        Ambassador to Venezuela, I provided regular, systematic, and 
        public support for all human rights, civil society, free 
        speech, and democracy NGO's in Venezuela, including direct and 
        indirect funding for more than 20 such organizations. I 
        defended publicly all these NGO's, which brought a threat of 
        expulsion from the Venezuelan authorities. I visited most of 
        these NGO's in their offices, in the face of violent Chavista 
        mob attacks and protests. I also established support programs 
        for Venezuelan poor indigenous and Afro-Venezuelan communities 
        for education and health care.
                                 ______
                                 

       Responses of William R. Brownfield to Questions Submitted
                    by Senator Joseph R. Biden, Jr.

    Question. How would the Government of Colombia react if the United 
States Congress failed to ratify a Free Trade Agreement (FTA) between 
our two countries? What implications would the failure to ratify this 
agreement have for Colombia and for our greater interests in Latin 
America?

    Answer. Failure to approve this agreement would strain relations 
with the Colombian people, and would have ramifications for United 
States foreign policy interests throughout the region. The carefully 
negotiated agreement that we signed with Colombia is widely seen as a 
mutually beneficial trade pact that will expand economic and social 
opportunity, thereby helping to lock-in Colombia's hard won gains. If 
we fail to approve the agreement, it will cause others throughout the 
region to question our reliability and the sincerity of our commitment 
to the human and developmental goals that are the cornerstone of our 
policy in the region. As a result, we would suffer a tremendous setback 
in securing a prosperous and free hemisphere.
    The Colombian people have worked hard--and paid an enormous human 
price--to achieve a stable, democratic, transparent political system. 
They have vested their hopes in, and given their votes to, a President 
who is extending his government's authority throughout the country and 
seeking to deliver security, health care, economic opportunity, and 
education to all Colombians. Colombia embraces democratic governance 
and open markets as the path to economic opportunity and freedom for 
its people. It shares our belief that the trade agreement will 
contribute to the overall development and growth of its nation and to 
bring expanded opportunity to all sectors of society.
    The United States-Colombia Trade Promotion Agreement (CTPA) will 
solidify the social and economic reforms that have provided sustained 
growth over the past 5 years. It will develop a permanent base on which 
to boost trade, attract investment, create jobs, and further cut 
poverty. Trade-led growth creates higher-paying jobs, and workers in 
trading industries enjoy improved conditions and benefits. Prestigious 
Colombian academics and economists predict a minimum 3 percent GDP 
benefit from CTPA passage.

    Question. What are Colombia's largest export and import markets 
currently? What products? Would an FTA between the United States and 
Colombia change commercial flows for Colombia? How so?

    Answer. Colombia's largest export markets are the United States, 
Venezuela, Ecuador, Spain, and Peru. Major exports to the United States 
include: petroleum and petroleum products, coal, coffee, flowers, gold, 
bananas, and apparel.
    Colombia receives most of its imports from the United States, 
Mexico, China, Brazil, and Venezuela. Major imports from the United 
States are: corn, chemicals, aircraft and aircraft parts, wheat, 
machinery, and oils.
    According to the United States International Trade Commission 
(ITC), the United States-Colombia Trade Promotion Agreement (CTPA) 
``may have a small, positive effect on the United States economy.'' 
United States exports to Colombia will experience an estimated 13.7 
percent increase valued at $1.1 billion with full implementation of the 
TPA, and United States GDP is expected to increase by $2.5 billion 
(just under .05 percent). The ITC projects ``the TPA will provide 
annual benefits to U.S. consumers worth $419 million in the economy of 
2007.'' Because of tariff asymmetry (especially the tariff preferences 
currently provided to Colombian exports to the United States under the 
Andean Trade Preference Act), the commission report notes that ``the 
TPA is likely to result in a much greater increase in United States 
exports to Colombia'' than vice versa.

    Question. What United States products/markets stand to benefit from 
increased trade and lower tariffs with Colombia? What U.S. States 
produce these products?

    Answer. Under the CTPA, over 80 percent of United States exports of 
consumer and industrial products to Colombia will become duty-free 
immediately, with remaining tariffs phased out over 10 years. The 
phase-out of tariffs and quotas is predicted to create the largest 
increase by value in United States exports to Colombia in the areas of 
(1) chemical, rubber, and plastic products, and (2) machinery and 
equipment. The TPA will also lead to substantial increases in U.S. 
exports of motor vehicles and parts, electronic equipment, paper 
products, metal products, ferrous metals, and wheat.
    In addition, over half the value of current United States 
agricultural exports to Colombia will enter duty-free upon entry into 
force of the CTPA, including high quality beef, a variety of poultry 
products, soybean meal, cotton, wheat, whey, and most horticultural and 
processed food products. Furthermore, U.S. agricultural exporters will 
achieve new duty-free access through tariff-rate quotas, including on 
corn, rice, dairy products, and pet food.
    Colombia's top 10 trading partners among the 50 States--Texas, 
Florida, Louisiana, Illinois, Alabama, California, North Carolina, New 
Jersey, Pennsylvania, and Georgia--all exported $126 million or more in 
2006 to Colombia. All 10 States have at least one of the previously 
listed industries in their top five exports.
                                 ______
                                 

       Responses of Peter Michael McKinley to Questions Submitted
                     by Senator Christopher J. Dodd

    Question. Have you read the cable ref: 04 STATE 258893--Peace 
Corps--State Department Relations?

    Answer. Yes, I have read cable ref: 04 STATE 258893--Peace Corps--
State Department Relations.

    Question. Do you understand and agree to abide by the principles 
set forth in this cable?

    Answer. Yes, I understand and agree to abide by the principles set 
forth in this cable.

    Question. Specifically, do you understand and accept that ``the 
Peace Corps must remain substantially separate from the day-to-day 
conduct and concerns of our foreign policy'' and that ``the Peace 
Corps's role and its need for separation from the day-to-day activities 
of the mission are not comparable to those of other U.S. government 
agencies''?

    Answer. Yes, I understand and accept that ``the Peace Corps must 
remain substantially separate from the day-to-day conduct and concerns 
of our foreign policy'' and that ``the Peace Corps's role and its need 
for separation from the day-to-day activities of the mission are not 
comparable to those of other U.S. government agencies.''

    Question. Do you pledge, as Secretary Rice requests in 3.B of the 
cable, to exercise your Chief of Mission ``authorities so as to provide 
the Peace Corps with as much autonomy and flexibility in its day-to-day 
operations as possible, so long as this does not conflict with U.S. 
objectives and policies''?

    Answer. Yes, I pledge to exercise my Chief of Mission ``authorities 
so as to provide the Peace Corps with as much autonomy and flexibility 
in its day-to-day operations as possible, so long as this does not 
conflict with U.S. objectives and policies.''
                                 ______
                                 

      Responses of Peter Michael McKinley to Questions Submitted 
                      by Senator Richard G. Lugar

    Question. What are the major problems that Peru is facing?

    Answer. Peru faces a set of interrelated challenges. First and 
foremost is persistent poverty. Close to half of Peruvians, mostly in 
the southern highlands and the Amazonian lowlands, continue to live 
below the poverty line. The government's primary challenge is to expand 
the benefits of economic growth, both in the form of jobs and improved 
social services, to the regions where poverty is most heavily 
concentrated and to the country's poorest classes, who believe that the 
country's economic growth has failed to benefit them.
    This sense of alienation has fueled support for radical 
presidential candidates, buttressed the strength of political leaders 
who favor coca production, and provided the basis for an increasingly 
fragmented political landscape. The challenge is to consolidate Peru's 
democracy, increase social inclusion, and ``lock in'' and expand recent 
policy gains.
    Another major challenge facing Peru is security, particularly the 
scourge of narcotrafficking, which is complicated by the increasing 
internationalization of the drug trade and evidence of growing linkages 
between narcotraffickers and the terrorist remnants of Sendero Luminoso 
(the Shining Path) providing them protection and undoubtedly benefiting 
from drug trafficking revenues.

    Question. If confirmed, how will you establish goals for assistance 
in Peru?

    Answer. If confirmed, I will continue to use existing mechanisms, 
principally the Mission Strategic Plan (MSP), for defining and planning 
our foreign assistance goals. I have reviewed the goals in the most 
recent MSP for fiscal year 2009 and it is clear that they address the 
major challenges facing Peru. These goals are (1) improved governance 
and inclusion of marginalized citizens to strengthen support for 
democracy; (2) ensuring prosperity for all through trade and 
investment-led economic growth; (3) achieving peace and security; (4) 
investing the gains from economic growth in human development; (5) 
effective counterterrorism; and (6) fortifying the foundation of trust 
in United States leadership and support for Peru among the Peruvian 
public.
    If confirmed, I will continue to work closely with all members of 
the Country Team, drawing on the strengths and expertise of each agency 
at post, and will consult regularly with Congress and all interested 
agencies in Washington to define whether and how these goals should be 
revised as the situation in Peru progresses. Also, if confirmed, I will 
meet regularly with all elements of Peruvian society, including public 
officials, the private sector, civil society, and individual citizens 
around the country to determine how we can best work with Peruvians 
collaboratively to meet the country's ongoing challenges and design an 
appropriate foreign assistance response.

    Question. If confirmed, how will you coordinate United States 
bilateral assistance? How will you coordinate with multilateral 
organizations?

    Answer. If confirmed, I would continue to rely on the comprehensive 
system of interagency thematic group meetings among Embassy Lima staff 
on a weekly or biweekly basis to ensure that United States foreign 
policy objectives and assistance activities coincide. Under the 
leadership of the COM, the United States Mission in Peru uses 
interagency groups on counternarcotics, democracy, economic and 
commercial matters, political-military issues, and health and education 
to coordinate efforts of the various agencies at post.
    Regarding coordination with other donors, the Government of Peru, 
through an agency within its Ministry of Foreign Affairs, leads 
coordination efforts for both bilateral and multilateral assistance. 
The government's leadership in coordinating donors is the most 
effective way to promote the sustainability and efficiency of 
assistance efforts by ensuring that donor efforts fit within host 
country strategies and are not duplicative. In addition, members of the 
country team meet regularly with both bilateral and multilateral 
donors. If confirmed, I will ensure that these close coordination 
efforts continue.

    Question. If confirmed, how will you conduct oversight of foreign 
assistance?

    Answer. The best means of conducting oversight is to promote close 
collaboration among all United States Government agencies at post so 
that the broad variety of development programs implemented by our 
Embassy in Peru are integrated and have the greatest impact. 
Specifically, if confirmed, I will continue to use the structure of the 
five interagency thematic working groups in the areas of 
counternarcotics, democracy, economic and commercial matters, 
political-military, and health and education. Another important aspect 
of oversight that I will continue is frequent personal visits to the 
field by me and embassy officers to observe firsthand our understanding 
of political, social, and economic realities and conduct oversight of 
programs to see that they are administered within the parameters of 
pertinent law and regulation, and that they are achieving their stated 
goals.

    Question. If confirmed, how will you evaluate whether or not goals 
are being met? What will your monitoring mechanisms be?

    Answer. If confirmed, I would rely on a variety of existing 
mechanisms to measure progress toward goals and monitor implementation. 
Currently, weekly or biweekly interagency thematic meetings are used to 
ensure that U.S. foreign policy objectives and program activities 
coincide. This is an effective coordination and monitoring mechanism 
that I would continue, if confirmed.
    Second, our planning mechanisms establish precise, quantitative 
results we plan to achieve with assistance. Specifically, in the 
Mission Strategic Plan (MSP) we lay out up to two performance 
indicators per goal and establish targets for three fiscal years, 
currently 2007, 2008, and 2009. Actual results are reported on in 
subsequent MSPs and allow us to judge progress toward the goal and make 
mid-course corrections as needed.
    Finally, an extensive set of standard indicators in the Foreign 
Assistance Framework permits more precise target-setting and results 
measurement, specifically at the level of each activity in our foreign 
assistance portfolio.
                                 ______
                                 

      Responses of Peter Michael McKinley to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. What, in your view, are the most pressing human rights 
issues in Peru? What are the steps you expect to take--if confirmed--to 
promote human rights and democracy in Peru? What do you hope to 
accomplish through these actions?

    Answer. In general, Peru has a strong record on democracy and human 
rights. The Inter-American Democratic Charter was signed in Lima, Peru, 
on September 11, 2001. On the fifth anniversary of the Inter-American 
Democratic Charter, Peru submitted a voluntary report on its own 
implementation of the Charter. Freedom House ranks Peru 2 out of 7 on 
political rights and 3 out of 7 on civil liberties, with an overall 
status of ``free.'' Last year, Alan Garcia of the Popular Revolutionary 
Party Alliance (APRA) won the presidency in elections that were 
generally free, fair, and transparent. The government generally 
respected the human rights of its citizens, and continued efforts begun 
during the Toledo administration to expand and consolidate labor law 
and to prosecute those responsible for gross human rights violations. 
As the annual human rights report makes clear, however, there are a 
number of areas where the implementation and application of national 
laws requires stronger follow-up.
    Also, Peru still faces several challenges. The terrorist 
organization, Shining Path (Sendero Luminoso), continues to be 
responsible for killings, kidnappings, and other human rights abuses. 
In addition, prison and detention center conditions are poor, and in 
the past the media has faced attacks by local authorities and organized 
crime.
    If confirmed, I will ensure that the embassy continues its two-
pronged approach of promoting greater citizen participation in 
government decision making and improving service delivery. I will 
support USAID's work to strengthen the national legal framework for 
decentralization and train regional presidents, mayors, and their staff 
on the use of transparent financial and management systems to 
facilitate active citizen participation and greater accountability. If 
confirmed, I will work with USAID in order to provide technical 
assistance to political parties to increase their representativeness. 
USAID will also administer MCC funds aimed at complementing Government 
of Peru efforts to control corruption and strengthen systems to improve 
predictability in the administration of justice.

    Question. If confirmed, what challenges will you face in Peru in 
advancing human rights and democracy in general?

    Answer. If confirmed, the primary challenges to consolidating 
democracy in Peru will be building wider relationships with segments of 
the population who have yet to benefit from the country's strong 
economic growth and do not feel fully enfranchised, and reducing a 
level of poverty which has fueled support for radical political 
alternatives in an increasingly fragmented political landscape. In 
addition, Peru is dealing with a legacy of human rights abuses that are 
still working their way through the court systems. While exceptional 
rates of economic growth are providing the Government of Peru with a 
budget surplus, these funds must be used for systemic change to 
demonstrate that democracy can deliver to all citizens.
    I believe that civil society plays a vital role in strengthening 
respect for human rights. Last year, the Government of Peru enacted a 
law regulating NGOs that is vaguely written. NGOs are concerned that it 
could be applied selectively for political purposes. If confirmed, I 
will build on the strong lead of Ambassador Struble and our USAID 
Mission to urge the Government of Peru to ensure that NGOs enjoy the 
appropriate legal and regulatory freedom to carry out their important 
work.

    Question. In your new position, what steps will you take to ensure 
that promotion of human rights objectives will be an integral part of 
the U.S. Embassy's activities? If confirmed, what steps will you take 
to ensure that Foreign Service officers who engage in human rights 
activities are encouraged and professionally rewarded for superior 
service?

    Answer. Supporting human rights is a top strategic priority of the 
political section, USAID, NAS, and the mission as a whole. If 
confirmed, I will make it a priority to ensure that these mission 
elements have the support and recognition they need to do their job--
support Peru's efforts to improve its human rights situation, advocate 
on behalf of our key human rights interests, and call attention to 
lapses and abuses. The designated embassy ``human rights officer'' 
generally works in the political section--coordinating closely with 
other offices and agencies--on a portfolio that is among the mission's 
most substantive, interesting, and exciting. In that sense, the 
position generates the kinds of challenging professional opportunities 
that translate into recognition and advancement. I plan to make sure 
that that is and remains the case in Embassy Lima.
    If confirmed, I will ensure that the embassy adheres to Secretary 
Rice's 10 guiding NGO principles regarding the treatment by governments 
of nongovernmental organizations. In concordance with the Guiding 
Principles on Non-Governmental Organizations, we will continue to 
recognize that nongovernmental organizations are essential to the 
development and success of free societies and they play a vital role in 
ensuring accountable, democratic governments.

    Question. What are the most significant actions you have taken in 
your career to promote human rights and democracy? Why were they 
important? What was the impact of your actions?

    Answer. I have spent most of my career working on regions and 
countries in conflict or in post-conflict transition. The promotion of 
human rights and a democratic outcome have been central objectives of 
the United States in the work I did during the negotiations leading to 
Namibian independence and the withdrawal of Cuban troops in Angola in 
the late 1980s, during the U.N.-supervised peace process and elections 
in Mozambique in the mid-1990s; and in Uganda in the late 1990s where 
opening the political space for the opposition and consolidating 
democratic gains under President Museveni were important United States 
goals. In the earlier part of this decade, I was fortunate to have the 
opportunity to work with refugee programs in many parts of the world, 
to support programming for abused women and children in conflict 
situations, and to be part of the response to the crisis in Darfur and 
the first negotiations of a ceasefire.
    I have rarely evaluated my specific contributions outside the 
context of the many other people I have worked with, both inside and 
outside the State Department. Perhaps the most significant actions I 
took were as a member of small U.S. Government negotiating teams 
successfully responding to crises or conflicts causing widespread loss 
of life, devastation, and atrocities. As Angola/Namibia desk officer 
between 1987-1989, and as the sole Spanish and Portuguese speaker on 
Assistant Secretary Crocker's negotiating team, I supported talks which 
led to Namibia's independence, its emergence as a democracy, and the 
end of apartheid in that country. Namibia's independence also ended the 
long-running conflict which had caused the loss of thousands of lives. 
In Mozambique, I worked closely with my ambassador and the U.N. team to 
ensure that the country's first-ever democratic elections in 1994 were 
a success, to include personally helping convince the former insurgency 
movement not to pull out of the process during an election-eve crisis. 
The result has been more than a dozen years of peace, the return of 
more than 2 million refugees to their homes, and an emerging democracy.
    In Uganda, I personally and successfully lobbied to have additional 
funding provided to a hospital in northern Uganda that was servicing a 
displaced population of tens of thousands in the wake of the brutal 
Lord's Resistance Army insurgency. In both Mozambique and Uganda, as 
Deputy Chief of Mission, I worked with and supported nongovernmental 
organizations on capacity-building for emerging parliaments. In 
Washington, as the PRM Deputy Assistant Secretary responsible for 
African and European programs, I sought to increase funding for UNT-ICR 
and NGO programs specifically aimed at vulnerable populations of women 
and children, to include at camps in Kenya, Guinea, and Chechnya. 
Working with the Africa Bureau and USAID, I was a member of the team 
responding to the crisis in Darfur starting in late 2003, with trips to 
the border region with Chad, and produced personal recommendations for 
much greater resource commitment on the ground at a time when consensus 
on Darfur's tragedy was still forming. I also took over the United 
States negotiating team to the international talks in Ndjamena which 
produced the first ceasefire in Darfur in April 2004, but unfortunately 
the latter did not produce the desired results.
    Almost by definition, conflict resolution and post-conflict 
transitions cannot succeed without human rights and democracy as the 
core objectives and desired outcomes of our diplomatic efforts. It is 
also important to work with other interested governments, donors, 
international organizations, and NGOs and civil society. In my current 
position, I have been privileged to be part of the growing dialog with 
the European Union on how to promote democracy and human rights more 
widely in our joint efforts in Kosovo, Afghanistan, Sudan, and the 
Middle East.

 
                              NOMINATIONS

                              ----------                              


                        WEDNESDAY, JUNE 20, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
Ereli, Joseph Adam, to be Ambassador to the Kingdom of Bahrain
Norland, Richard Boyce, to be Ambassador to the Republic of 
        Uzbekistan
Patterson, Anne Woods, to be Ambassador to the Islamic Republic 
        of Pakistan
Powell, Nancy J., to be Ambassador to Nepal
Seche, Stephen A., to be Ambassador to the Republic of Yemen
                              ----------                              

    The committee met, pursuant to notice, at 2:35 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John Kerry 
presiding.
    Present: Senators Kerry and Feingold.

             OPENING STATEMENT OF HON. JOHN KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. Thank you. This hearing will come to order. 
I apologize to everybody for being a little late. We're in the 
middle of negotiations on the energy bill, that subject of CAFE 
standards, which we've been fighting about for as long as I've 
been here. So we're trying to see if we can get something done 
on that, and I apologize again for being late.
    Thank you all very much for being here. This hearing is to 
examine the nominations for ambassador of a number of career 
Foreign Service officers: the Honorable Anne Woods Patterson to 
be Ambassador to the Islamic Republic of Pakistan; the 
Honorable Nancy Powell, to be Ambassador to Nepal; Mr. Joseph 
Adam Ereli, to be Ambassador to the Kingdom of Bahrain; Mr. 
Richard Boyce Norland, to be Ambassador to the Republic of 
Uzbekistan; and Mr. Stephen A. Seche, to be Ambassador to the 
Republic of Yemen.
    I might add, having sat on these hearings for a long time 
now, it is really both refreshing and enormously reassuring to 
see so much experience at one time and so many people whose 
long careers have really, I think, prepared them all so 
effectively for these challenging missions. There isn't one 
mission here that isn't challenging in one way or the other.
    We thank your families also. I certainly personally 
understand the commitment and sacrifices involved in your 
service and we're very grateful to all of you for that, 
particularly those of you going places where it takes a real 
toll in a lot of different ways.
    So we welcome all of you here and we welcome any family 
members who have come to share this hearing with you.
    Let me just speak individually if I can for a moment. Ms. 
Patterson, thank you. I'm very glad we had a chance earlier to 
talk personally. I met with the foreign minister just the day 
before yesterday and we had a good meeting and discussed some 
of the subjects that you and I talked about.
    The position you've been nominated for, Ambassador to 
Pakistan, is a central one in terms of our current efforts in 
struggling with terrorism. Pakistan, needless to say, has been 
a key ally in the region and in the fight against terrorism. 
It's one of the most significant and complex relationships we 
have anywhere in the world. Recent developments there are 
obviously of great concern to many of us on the committee.
    Pakistan clearly has many contributions to make in the 
fight against terrorism and they have also made sacrifices in 
this effort. But we're also concerned about the current 
situation in the border region with Afghanistan, and 
particularly in North Waziristan, where the deal President 
Musharraf made with local tribal leaders has not worked out, as 
many predicted.
    Al-Qaeda has reportedly established a base of operations 
there and we know the direct threat that those bases can pose 
to us and to our allies. Most judgments are that Osama bin 
Laden and top al-Qaeda leaders are still likely hiding out 
somewhere in that region. And the Taliban has been using that 
area as a base from which to launch attacks against coalition 
forces and the Government of Afghanistan.
    So we need to continue discussing how Pakistan can address 
this problem and show greater accountability for the dollars 
that we're putting in there.
    Recent political developments are also troublesome. 
President Musharraf's refusal so far, though I trust that this 
will be resolved, but the question of his living up to his 
promise to relinquish his role as the chief of the military, 
his unwillingness yet, though I think this may also resolve 
itself, to allow former prime ministers Benazir Bhutto and 
Nawaz Sharif to return to the country for the upcoming 
elections, and the arrest of hundreds of political activists 
from opposition parties, have raised fundamental questions 
about the future of democracy.
    The President's dismissal of the chief justice of the 
Supreme Court resulted in widespread protests and has raised 
concerns about the rule of law. The temporary crackdown on the 
media could have a chilling effect on free press in the future. 
So we need to reinforce our commitment for both democracy, 
human rights, respect for the rule of law, and find a way--and 
this is your task--to balance all of that with the complicated 
mutuality that is needed in other endeavors.
    I know that Deputy Secretary Negroponte and the Assistant 
Secretary have been in Pakistan recently raising these concerns 
and I would be interested in hearing your views on them today.
    Bahrain has long been an ally of the United States. We have 
had a U.S. naval command there for nearly 60 years. The country 
now faces many of the challenges that we see unfolding across 
the region. It has a majority Shia population with Sunni 
leadership and we know that Iran has attempted to influence, to 
extend the influence that it's always had there. In fact, if 
you go back historically to its independence, that independence 
came about partly as a result of their efforts to separate 
themselves from Iran.
    They have made some significant progress in implementing 
democratic reforms and respecting freedom of religion, but more 
remains to be done. Given that their oil reserves might be 
exhausted in the next 15 years, they, needless to say, want to 
diversify their economy, and there are many, many reforms and 
quite a remarkable level of developments taking place there, as 
we all know. But it's a key as we try to bring stability to a 
chaotic region.
    Yemen also presents, similarly, significant challenges for 
American foreign policy. While it's the only republic in the 
region, it's also one of the poorest countries in the area, 
lacking its own oil resources particularly and other resources. 
And it has a very high population growth. In fact, some have 
suggested that Yemen is at real risk of becoming a failed state 
in the next decades.
    Even now, significant portions of Yemen are outside the 
control of government and potentially provide a haven for 
terrorists. We all remember that the USS Cole was attacked in 
the port of Aden.
    It is in the interest of both the United States and Yemen 
that we work together to find sustainable solutions to the 
challenges that we face.
    After nearly a decade of civil war and many years of 
autocratic rule, a place that most people have always thought 
of as rather peaceful, Nepal, finds itself at a critical point 
in its history. The United States and the international 
community need to help Nepal to restore and solidify their 
democracy. Key to this is moving forward with the process of 
integrating the Maoist opposition into the political process.
    Nepal faces a tough road ahead and we obviously need to 
give them the support they need to succeed. Our ambassador's 
relationship and leverage in that process will be critical.
    In Uzbekistan, one of the more powerful of the Central 
Asian former Soviet republics, we are faced with deteriorating 
relations with an increasingly brutal and repressive dictator 
in Islam Karimov. For a brief period after 9/11, we had a more 
cooperative relationship with Mr. Karimov, but subsequent human 
rights violations have led us to sever our military ties.
    We need to emphasize the need for genuine significant 
improvement in Uzbekistan's record on human rights, religious 
rights, press freedoms, NGO rights, and democratic reforms.
    So it's clear that each of you as ambassadors would be 
going to face some very immediate, complicated, and important 
challenges. And I know the members of this committee will be 
interested in how you're going to approach them, but also in 
the progress as we go along over the next year and a half or 
more.
    So we're slightly under the gun here, but I don't think 
this is going to be a prolonged hearing, the reason being that 
we have a meeting on Iraq at about 4:00, a little bit after 
4:00. So I suspect that it will not push us up against the 
wall, but I just wanted to sound that note of alarm.
    So this is the picture. It's an interesting group of 
places. This is actually enormously challenging when you put it 
all together, and it's not separate, either. It's all 
interconnected, which makes it all the more fascinating in 
terms of our larger interests and goals.
    So thank you again for being here. Why don't we get into 
your testimony. If I could ask you each summarize your 
testimony, and each of your testimonies will also be placed in 
the record in full and then we can have a dialog, which I think 
would be helpful.
    So Ambassador Patterson, if you'd lead off and we'll just 
run down the line. Thank you.

     STATEMENT OF HON. ANNE WOODS PATTERSON, NOMINEE TO BE 
         AMBASSADOR TO THE ISLAMIC REPUBLIC OF PAKISTAN

    Ms. Patterson. Thank you, Mr. Chairman. I'm honored to be 
here today as President Bush's nominee for Ambassador to 
Pakistan. I would like to thank the President and Secretary 
Rice for the confidence they have shown by nominating me to 
serve in this position. If confirmed, I look forward to working 
with this committee and Congress in furthering our goals in 
Pakistan. Allow me to summarize my written statement.
    U.S. relations with Pakistan were transformed after the 
September 11 attacks, when Pakistan made a commitment to stand 
with us against terrorism and extremism. I endorse the 9/11 
Commission's recommendation to comprehensively support the 
Pakistan Government in its struggle against extremists and am 
ready to assist Pakistan in its plan to enhance internal 
security, propel democratic reform, and improve relations with 
its neighbors.
    The United States must maintain and enhance Pakistan's 
cooperation in the war on terror and, if confirmed, it will be 
my most urgent task.
    Additionally, I am fully committed to encouraging a 
democratic transition by supporting free and fair elections. 
The Pakistani people deserve the same right we in the United 
States enjoy, the right to choose their leaders democratically. 
But we also know that democracy means more than just holding 
elections. It means building respect for the rule of law and 
reinforcing institutions such as a free press that are 
essential for democracy to flourish. Social and economic 
development programs play an instrumental part in nurturing 
democracy and we should step up our efforts to assist the 
Government of Pakistan in bettering the lives of its citizens, 
particularly in ungoverned parts of the country, so that 
terrorism and radicalism will not find fertile ground.
    These goals are not contradictory, but mutually 
reinforcing. We therefore have to move forward together with 
the Pakistanis on all fronts simultaneously.
    Pakistan's contribution to the war on terror has been 
significant. Since 2001 the Pakistani Government has arrested 
hundreds of terrorist suspects, turning over to the United 
States such senior al-Qaeda figures as Khalid Sheikh Mohammed, 
Ramzi bin al-Shibh, and Abu Zubaida. Eighty-five thousand 
Pakistani forces are stationed on the Afghan border and more 
than 450 members of Pakistan's security forces have sacrificed 
their lives in support of antiterror efforts.
    We are committed to supporting Pakistan's new strategy in 
the Federally Administered Tribal Areas with development 
assistance, appropriate aid to the military and police, and new 
measures to promote investment.
    If confirmed, I will work closely with the Department of 
Defense, the United States Congress, and our Pakistani and 
nongovernmental partners on these and other key issues, such as 
furthering legal protection for women and ethnic and religious 
minorities, and combating child labor and human trafficking. 
Similarly, I intend to actively pursue our public diplomacy 
efforts inside Pakistan to ensure that we reach out to 
Pakistani citizens.
    Mr. Chairman, Pakistan's good relations with neighboring 
states are also crucial to its progress toward a stable, 
peaceful, and prosperous democracy. If confirmed, I will 
continue to work with the Pakistani Government and my 
colleagues in Embassy Kabul to support efforts to build a 
stable Afghanistan. The joint statement issued by President 
Musharraf and President Karzai in Ankara this spring 
demonstrates growing cooperation between the two countries, but 
very serious tensions remain.
    With United States assistance, Pakistan is working to 
secure its border with Afghanistan to prevent the smuggling of 
arms, terrorists, and illegal drugs which are fueling the 
Taliban insurgency. The United States and NATO must continue to 
foster expanded Pakistan-Afghanistan bilateral dialog.
    On the eastern border, we remain ready to support and 
assist Pakistan and India's renewed commitment to the Indo-
Pakistani reconciliation. We recognize the progress made by the 
Pakistan Government in disabling the A.Q. Khan proliferation 
network and the steps taken to ensure that such a network 
cannot be reconstituted. However, we must continue to be 
vigilant and, if confirmed, I will remain engaged with Pakistan 
on this vital issue.
    Mr. Chairman, if confirmed I look forward to working with 
the Congress as we face the challenge of building a strong 
strategic partnership with Pakistan that reflects and protects 
these interests.
    Thank you.
    [The prepared statement of Ms. Patterson follows:]

    Prepared Statement of Hon. Anne Woods Patterson, Nominee to be 
             Ambassador to the Islamic Republic of Pakistan

    Thank you for this opportunity to appear before the committee. I am 
honored that the President and Secretary have expressed their 
confidence in me through this nomination.
    Mr. Chairman, if confirmed, I will do my best to advance the 
multiple and related United States goals in Pakistan. The United States 
must maintain and enhance Pakistan's invaluable cooperation in the war 
on terror and, if confirmed, it will be my most urgent task. It is my 
belief that these efforts will help prevent attacks on our homeland and 
on American and allied troops in Afghanistan, and reduce violence 
against civilians in Afghanistan and Pakistan. The United States must 
also encourage a democratic transition by supporting free and fair 
elections, respect for the rule of law and the systems that underpin 
it, and institutions such as a free press that are essential for 
democracy to survive and flourish. We should step up our efforts to 
assist the Government of Pakistan in bettering the lives of its 
citizens, particularly in ungoverned parts of the country, so that 
terrorism and radicalism will not find fertile ground.
    These goals are not contradictory but mutually reinforcing. In my 
previous assignments, I learned that criminals and insurgents cannot 
prosper if the government has a presence in the villages, provides the 
population with decent public services, and allows them a voice in 
their own future. We therefore have to move forward together with the 
Pakistanis on all fronts simultaneously.
    United States relations with Pakistan were dramatically transformed 
after the September 11 attacks, when Pakistan made a clear commitment 
to stand with us against terrorism and extremism. The 9/11 Commission 
recommended the United States Government ``support Pakistan's 
Government in its struggle against extremists with a comprehensive 
effort that extends from military aid to support for better education . 
. .'' As the commission recognized, we have a strong interest in the 
success of Pakistan's ambitious program to enhance internal security 
and propel democratic reform. We also have a strong interest in a 
Pakistan that is secure in its borders and at peace with its neighbors. 
I believe we have the right plan in place to work with Pakistan on all 
of these fronts. The challenge is to maintain the right balance and 
implement the plan quickly and effectively.
    There has been a lot of discussion about whether Pakistan can and 
should ``do more'' in the war on terror.
    Pakistan's contribution has been significant. Since 2001, the 
Pakistani Government has arrested hundreds of terrorist suspects, 
turning over to the United States such senior al-Qaeda figures as 
Khalid Sheikh Mohammed, Ramzi bin al Shibh, and Abu Zubaida. Eighty-
five thousand Pakistani forces are currently stationed on the rough 
terrain of the Afghanistan border, and more than 450 members of 
Pakistan's security forces have sacrificed their lives in support of 
antiterror efforts. Pakistani security operations in the tribal areas 
are disrupting terrorist activities in an area where terrorists 
previously felt secure. One unfortunate indicator of the insurgents' 
desperation to maintain their hold is the intimidation of the local 
population through targeting tribal leaders.
    In many of these offensives against militants, Pakistani troops are 
using equipment and training provided by the United States. This 
assistance has been crucial to bolstering Pakistan's antiterrorism 
capabilities, and by extension, our own. If confirmed, I will work 
closely with the Department of Defense (DOD), with our Pakistani 
counterparts, and with Congress to ensure that the Pakistani forces 
have the necessary training and equipment to conduct these operations 
appropriately and effectively.
    Also, much less frequently mentioned is Pakistani cooperation in 
facilitating the logistical support of United States and NATO forces 
deployed in neighboring Afghanistan. Most of our support for coalition 
forces in Afghanistan pass through Pakistan. Without Pakistani support 
and cooperation, we would face severe difficulties in supplying, 
reinforcing, and protecting our and allied troops defending the 
democratically elected Afghan Government.
    The Government of Pakistan is committed to improving living 
conditions and expanding governance in the Federally Administered 
Tribal Areas (FATA) and this past February, the State Department 
briefed you on the United States Government's multiyear plan to assist 
Pakistan in this effort. FATA has the worst social indicators in all of 
Pakistan, such as only a 3 percent female literacy rate. We believe 
this Pakistani strategy, supported by us and other international 
donors, will make these areas less hospitable to al-Qaeda, the Taliban, 
and other extremist groups, while improving the quality of life for the 
citizens in FATA.
    At the same time, I am under no illusions concerning the 
difficulties faced by the Pakistan Government in extending its writ 
into these territories or about al-Qaeda and Taliban activities in this 
area, and the level of commitment required to prevent them from finding 
safe-haven there. I give you my personal commitment that this will 
always be a top priority.
    Mr. Chairman, I also want to underscore to you and to the Pakistani 
people my firm commitment to fostering a fully functioning, sustainable 
democracy.
    Our partnership with the Pakistanis gives us an opportunity to 
support Pakistan's own efforts to become a modern, prosperous, 
democratic state, and a moderate voice in the Islamic world. This is 
the vision for Pakistan that President Musharraf has articulated. It is 
strongly in the United States' national interest that Pakistan succeeds 
in realizing this vision.
    President Musharraf has stated that he is committed to holding a 
free and fair election in the coming months. If confirmed, I intend to 
ensure that we are in position to assist Pakistan in this process and 
to help the Pakistani people strengthen their democratic institutions 
by participating in an open and honest electoral process. The Pakistani 
people deserve the same right we in the United States enjoy--the right 
to choose their leaders democratically.
    But we in the United States also know that democracy means more 
than just holding elections, although elections are certainly a 
necessary component. Democracy means a free and vibrant press, the 
right to free assembly, a fair and impartial criminal justice system, 
active civil society organizations, and broadly participative and 
responsive political parties. Throughout the world, it is U.S. 
Government policy to back democratic institutions with training, 
assistance, and moral support, and I will look to intensify these 
efforts in Pakistan.
    Social and economic development programs also play an instrumental 
role in nurturing democracy. United States development assistance in 
Pakistan is tailored to help build sustainable growth and improve 
living standards that promote the conditions for good governance, 
responsible citizenship, and foreign investment. In this context, our 
education programs are particularly important. The United States is 
supporting the Pakistani Government's efforts to upgrade public 
education, placing emphasis on improving the quality and affordability 
of Pakistan's public schools. This will allow parents of limited means 
to pursue educational opportunities for their children beyond 
religiously oriented madrassahs.
    I will also work closely with our Pakistani and nongovernmental 
partners on key issues such as furthering women's rights and legal 
protection for ethnic and religious minorities, and combating forced 
child labor and human trafficking. Women's health appears to be a 
particular challenge in Pakistan, and my previous posts have shown me 
that the rate of maternal mortality can be lowered significantly with 
properly trained rural health providers.
    Similarly, I intend to actively pursue our public diplomacy efforts 
inside Pakistan to ensure that we reach out to Pakistani citizens to 
share our own message, and help others understand American policies, 
views, and values. The Pakistanis have not always had such a clouded 
picture of the United States as today; rather very early reaction 
toward American assistance in the 1950s was very encouraging. Americans 
continue to be generous in their willingness to help and reach out to 
Pakistanis. I was impressed and moved by the Pakistani reaction to 
United States earthquake relief, where the immediate and overwhelming 
support of the U.S. military and the donations of private Americans 
saved many lives. Nothing could have been more effective in 
demonstrating American values and disseminating a message of friendship 
between our peoples.
    Mr. Chairman, Pakistan's good relations with neighboring states are 
also crucial to its progress toward a stable, peaceful, and prosperous 
democracy.
    I will continue to work with the Pakistani Government and my 
colleagues in Embassy Kabul to support efforts to build a stable 
Afghanistan. The joint statement issued by President Musharraf and 
President Karzai in Ankara this spring demonstrates growing cooperation 
between the two countries. But it is obvious that tensions remain. 
United States and NATO policies must continue to foster expanded 
Pakistan-Afghanistan bilateral dialog, stronger economic and trade 
ties, and deeper cooperation between Pakistani and Afghan border 
security forces. With United States assistance, Pakistan is working to 
secure its border with Afghanistan to prevent the smuggling of arms, 
terrorists, and illegal drugs which are fueling the Taliban insurgency.
    On the eastern border, we have been pleased to see renewed 
commitment to Indo-Pakistani reconciliation. Pakistan and India opened 
the fourth round of the Composite Dialog this past March, a process 
originally launched in 2004. We continue to be ready to support and 
assist this important endeavor.
    We also recognize the progress made by the Pakistan Government in 
disabling the A.Q. Khan proliferation network and steps taken to ensure 
that such a network cannot be reconstituted. During President Bush's 
visit to Pakistan in 2006, President Musharraf committed that Pakistan 
would take a leading role in international efforts to prevent the 
proliferation of weapons of mass destruction, their delivery systems, 
and related technology and expertise. We currently have a bilateral 
program through the Export Control and Related Border Security 
Assistance Program (EXBS) to help Pakistan bring its export controls in 
line with accepted international standards. In April, Pakistan 
established a Strategic Export Control Division within its Ministry of 
Foreign Affairs, and earlier this month, Pakistan joined the Global 
Initiative to Combat Nuclear Terrorism.
    We are gratified by these steps, however, we must continue to be 
vigilant and if confirmed, I will remain engaged with Pakistan on this 
issue of vital United States interest.
    Finally, I am determined and will work to ensure that the 
substantial resources the American people provide to Pakistan are 
utilized efficiently and effectively. I will also work hard to ensure 
that the dedicated American employees in Pakistan have good security 
and working conditions that faster fight morale.
    Mr. Chairman, if confirmed, I look forward to working with Congress 
as we face the challenge of continuing to build a strong, enduring 
strategic partnership with Pakistan that reflects and protects these 
interests.

    Senator Kerry. Thank you very much, Ambassador.
    Ambassador Powell, a little deja vu for you in all that?

              STATEMENT OF HON. NANCY J. POWELL, 
               NOMINEE TO BE AMBASSADOR TO NEPAL

    Ms. Powell. A little bit, sir.
    Mr. Chairman, I'm deeply honored to be----
    Senator Kerry. Tell me which country you're here for? 
[Laughter.]
    Ms. Powell [continuing]. As the President's nominee to 
serve as United States Ambassador to Nepal. I thank both 
President Bush and Secretary Rice for their confidence. If 
confirmed, I will have the privilege of returning to a region 
that has been the focus of much of my career and to an embassy 
where I spent my second tour in the Foreign Service. However, 
much has changed since then.
    Nepal is at a critical juncture in its history. Its 
Government and people are simultaneously working to end a 
devastating decade-long Maoist insurgency and to established 
sustained, multiparty democracy. They are also struggling to 
emerge from poverty and to address the issues of discrimination 
and inequality that have long plagued Nepal. Peace and 
democracy in Nepal would directly serve United States interests 
in stability and democracy in South Asia.
    The seven-party alliance and the Maoists, who together 
comprise the interim government, have agreed to a political 
road map that, if fully implemented, has the potential to 
deliver peace and democracy to Nepal. There has been much 
progress to date, but success is far from assured. Although the 
Maoists joined the government on April 1, they continue to 
violate commitments they have made in the course of the peace 
process. Unrest in the lowlands along the Indian border has 
further complicated efforts to restore law and order and the 
authority of the government throughout the country.
    The security vacuum and the political stalemate precluded 
free and fair constituent assembly elections from being held 
this month as originally planned. They are now expected in 
November or early December. In order to assure these polls are 
free and fair when they do take place, the government must 
urgently restore law and order throughout the country, complete 
the legislative and logistical groundwork for a well 
administered election, and reach out to disaffected groups to 
ensure their adequate representation and peaceful participation 
in the political process.
    If confirmed, I will continue our active support of Nepali 
efforts to these ends.
    Although democracy and stability are among our strongest 
interests in Nepal, they are far from the only ones. Nepal's 
magnificent art and architecture, as well as its scenery, 
continue to make it a favorite destination of American 
travelers and the provision of services to American citizens is 
a responsibility that comes ahead of all others. Also, 
achieving durable solutions for the 108,000 Bhutanese refugees 
in Nepal continues to be a United States priority. If 
confirmed, I look forward to working with the Government of 
Nepal to implement current plans for a voluntary resettlement 
program that would accommodate at least 60,000 of these 
refugees.
    I will also encourage the Government of Nepal to ensure 
that the rights of all Tibetan refugees resident in or 
transiting Nepal are respected.
    There remains room for improvement in Nepal's efforts to 
prevent and prosecute human trafficking and to ensure its 
security forces uphold the highest human rights standards. If 
confirmed, I look forward to working with the government on 
these issues as well.
    Foreign assistance is and will continue to be the most 
useful tool at our disposal to influence developments in Nepal 
along the full spectrum of our national interests there, from 
technical support intended to strengthen Nepal's nascent 
democratic institutions to health programs that improve the 
daily lives of many Nepalese, as well as humanitarian 
assistance for refugees and conflict victims and training for 
Nepal's military that is focused on improving its human rights 
record and working under civilian authority. Our aid provides a 
critical programmatic complement to our diplomacy. I take 
seriously the responsibility to ensure that American taxpayers 
receive high returns on their investment in Nepal.
    If confirmed, I look forward to consulting closely with 
you, Mr. Chairman, all members of the committee and your staffs 
throughout my tenure in Nepal. I appreciate the opportunity to 
speak before the committee today.
    Thank you.
    [The prepared statement of Ms. Powell follows:]

             Prepared Statement for Hon. Nancy J. Powell, 
                   Nominee to be Ambassador to Nepal

    Mr. Chairman and members of the committee, I am deeply honored to 
appear before you today as the President's nominee to serve as United 
States Ambassador to Nepal. I thank both President Bush and Secretary 
Rice for their confidence.
    If confirmed, I will have the privilege of returning to a region 
that has been the focus of much of my career, and to an embassy where I 
spent my second tour in the Foreign Service. In the 25 years since I 
left Nepal, I have had the good fortune to serve in a wide variety of 
diplomatic assignments, including as United States Ambassador to 
Uganda, Ghana, and Pakistan. If confirmed, I will rely on the 
experience I acquired in those postings, as well as in my most recent 
assignment as National Intelligence Officer for South Asia at the 
National Intelligence Council, to
advance United States' interests in Nepal.
    Nepal is at a critical juncture in its history. Its government and 
people are simultaneously working to end a devastating, decade-long 
Maoist insurgency and establish sustained, multiparty democracy. They 
are also struggling to emerge from poverty and to address the issues of 
discrimination and inequality that have long plagued Nepal. All of 
these efforts are eminently worthy of United States support, since 
peace and democracy in Nepal would directly serve United States' 
interests in stability and democracy in South Asia. If confirmed, I 
will ensure we continue to support the efforts of the Nepalese to bring 
peace, democracy, and development to their country.
    The Seven-Party Alliance and the Maoists, who together comprise the 
interim government, have agreed to a political roadmap that, if fully 
implemented, has the potential to deliver peace and democracy to Nepal. 
There has been much progress to date, but success is far from assured. 
Although the Maoists joined the government on April 1, they continue to 
engage in criminal behavior and otherwise violate commitments they have 
made in the course of the peace process. In addition, unrest in the 
Terai (the lowlands along the Indian border) has further complicated 
efforts to restore law and order, and the authority of the government, 
throughout the country. The security vacuum and the political stalemate 
in Kathmandu precluded free and fair constituent assembly elections 
from being held this month as originally planned; they are now expected 
in November or early December.
    In order to ensure the polls are free and fair when they do take 
place, the government must urgently restore law and order throughout 
the country, complete the legislative and logistical groundwork for 
swell-administered election, and reach out to disaffected ethnic groups 
to ensure their adequate representation and peaceful participation in 
the political process. If confirmed, I will continue our active support 
of Nepali efforts to these ends.
    Although democracy and stability are among our strongest interests 
in Nepal, they are far from the only ones. Nepal's magnificent 
architecture and art, as well as its scenery, continue to make it a 
favorite destination of American travelers, and the provision of 
services to Americans is a priority that comes ahead of all others. The 
protection of Americans abroad is not just a responsibility, but a 
privilege.
    Also, achieving durable solutions for the 108,000 Bhutanese 
refugees in Nepal continues to be a United States priority. If 
confirmed, I look forward to working with the Government of Nepal to 
implement current plans for a voluntary resettlement program that would 
accommodate at least 60,000 of these refugees. I will also encourage 
the Government of Nepal to ensure the rights of all Tibetan refugees 
resident in or transiting Nepal are respected. There remains room for 
improvement in Nepal's efforts to prevent and prosecute human 
trafficking and to ensure its security forces uphold the highest human 
rights standards. If confirmed, I look forward to working with the 
government on these issues as well. Foreign assistance is and will 
continue to be the most useful tool at our disposal to influence 
developments in Nepal along the full spectrum of our national interests 
there. From technical support intended to strengthen Nepal's nascent 
democratic institutions, to health programs that improve the daily 
lives of many Nepalese, to humanitarian assistance for refugees and 
conflict victims, to training for Nepal's military that is focused on 
improving its human rights record and working under civilian authority, 
our aid provides a critical programmatic complement to our diplomacy. 
If confirmed, I will ensure that American taxpayers continue to receive 
high returns on their investment in Nepal.
    If confirmed, I look forward to consulting closely with you, Mr. 
Chairman, all the members of the committee, and your staffs throughout 
my tenure in Nepal. I appreciate the opportunity to speak before the 
committee today, and would be happy to answer any questions you might 
have.

    Senator Kerry. Thank you very much. We appreciate it.
    Mr. Joseph Adam Ereli.

STATEMENT OF JOSEPH ADAM ERELI, NOMINEE TO BE AMBASSADOR TO THE 
                       KINGDOM OF BAHRAIN

    Mr. Ereli. Thank you, sir. It's an honor to be here, Mr. 
Chairman. I thank you and the members of the committee for this 
opportunity and, if confirmed, I look forward to working 
closely with you.
    Mr. Chairman, for over 50 years, as you said in your 
statement, the Kingdom of Bahrain and its leaders have been 
strong allies and close friends of the United States in a very 
dangerous neighborhood. They have stood with us in times of war 
and in times of peace. Their vision for the future of Bahrain 
and the region is one that we largely share--representative 
democracy, free trade, and security cooperation. My priorities, 
if confirmed as ambassador, would be to move our bilateral 
relationship forward in all three areas.
    Bahrain is a major non-NATO ally. It hosts the U.S. Fifth 
Fleet and U.S. Naval Forces Central Command headquarters. It 
sent air, ground, and naval assets to Kuwait in support of 
Operation Iraqi Freedom. Its naval vessels are serving beside 
ours in ongoing maritime operations in the Arabian Gulf.
    As an ally with a shared security vision for the region, we 
have an interest in helping Bahrain develop its defense 
capabilities and ensuring interoperability with our forces. An 
increasingly aggressive, assertive Iran makes this cooperation 
all the more important. If confirmed, sir, I will work closely 
with my Department of Defense colleagues to enhance Bahraini 
defense capabilities and their cooperation with our forces in 
confronting regional threats. If confirmed, I will also devote 
considerable attention to counterterrorism cooperation.
    The United States and Bahrain have a free trade agreement 
which entered into force a year ago. It has stimulated economic 
growth and is a positive model for other countries in the 
region. If confirmed, I will focus much of my effort on fully 
exploring the free trade agreement's potential for United 
States investment in Bahrain and two-way trade that benefits 
both our countries.
    Another important goal, sir, for the embassy and the United 
States in the coming years will be to strengthen support for 
democracy and democratic institutions in Bahrain. Bahrain has 
had two successful parliamentary elections since 2002. 
Political tendencies of all stripes have a voice in the affairs 
of their country. If confirmed, I will work to strengthen 
political pluralism, civil society, and the rule of law.
    Finally, Mr. Chairman, should I be confirmed I will have no 
higher priority than the safety and security of the dedicated 
men and women under my charge, both American and foreign 
national. They are bravely serving our country in difficult 
circumstances and I will do everything in my power to see that 
they have the resources and protection required to accomplish 
their mission on behalf of the American people.
    Thank you again, sir, for this opportunity and I'd be 
pleased to answer any questions you might have.
    [The prepared statement of Mr. Ereli follows:]

        Prepared Statement of Joseph Adam Ereli, Nominee to be 
                  Ambassador to the Kingdom of Bahrain

    Mr. Chairman, and members of the committee, it is an honor to be 
here today, Mr. Chairman. I thank you and the members of the committee 
for this opportunity. I am deeply humbled by the confidence that 
President Bush and Secretary Rice have shown in nominating me to be the 
next United States Ambassador to the Kingdom of Bahrain.
    As a Foreign Service officer, there is no higher calling than to 
serve your country as the President's representative and Chief of 
Mission. If confirmed, I will honor that trust by doing everything in 
my power to advance American interests and represent faithfully the 
values of our great Nation in this strategically vital region.
    Mr. Chairman, for over 50 years the Kingdom of Bahrain, its leaders 
and its people, have been strong allies and close friends in a very 
dangerous neighborhood. They have stood with us in times of war and 
peace. Their vision for the future of Bahrain and the region is one 
that we share: representative democracy, free trade, and security 
cooperation. My priorities, if confirmed as ambassador, will be to move 
our bilateral relationship forward in all three areas.
    In 2001, President Bush designated Bahrain a major non-NATO ally. 
This was in recognition of almost 50 years of close security 
cooperation and partnership, marked by its hosting the headquarters of 
the U.S. Fifth Fleet and the U.S. Naval Forces Central Command. Bahrain 
hosted the United States-led Multinational Interdiction Force that 
enforced the U.N. embargo on Iraq from 1991 to 2003. Bahrain deployed 
naval assets in support of Operation Enduring Freedom. It sent air, 
ground, and naval assets to Kuwait in support of Operation Iraqi 
Freedom. Its naval vessels are serving beside ours in ongoing maritime 
operations in the gulf.
    As an ally and partner with a shared security vision for the 
region, we have an interest in helping Bahrain develop its defense 
capabilities and ensuring interoperability with our forces. Access to 
Bahraini facilities, land, and airspace is critical to United States 
Operations in Iraq, Afghanistan, and the Horn of Africa. An 
increasingly aggressive, assertive Iran makes this cooperation with 
Bahrain and the rest of the gulf all the more important. If confirmed, 
I will work closely with my Department of Defense colleagues to enhance 
Bahraini defense capabilities and their cooperation with our forces in 
confronting regional threats.
    If confirmed, I will also devote considerable attention to 
counterterrorism cooperation. Bahrain has implemented new laws 
addressing terrorism and terror financing. Our priorities will be to 
strengthen Bahrain's ability to pursue and prosecute terror suspects 
and to enhance further Bahrain's capability to block sources of funding 
for terrorism and proliferation.
    Economically, Bahrain is among the most progressive countries in 
the region. The United States-Bahrain Free Trade Agreement (FTA), which 
entered into force in August 2006, has stimulated economic growth and 
is a positive model for other countries in the region. If confirmed, I 
will focus much of my effort on fully exploiting the FTA's potential 
for United States investment in Bahrain and two-way trade that benefits 
both our countries, particularly through active engagement with the 
private sector.
    Mr. Chairman, political reform and respect for human rights are 
critical to Bahrain's future stability and United States interests. 
Bahrain's leadership recognizes this and has been among the region's 
most progressive in introducing democratic reforms and strengthening 
the rule of law. In November and December 2006, Bahrain held 
parliamentary and municipal elections. Opposition groups that had 
boycotted Bahrain's 2002 elections fully participated. Two hundred and 
seven candidates competed for 40 seats. Seventy-two percent of eligible 
voters participated. Among those winning election was Bahrain's first 
elected female Member of Parliament.
    An important goal for the embassy in the coming years, will be to 
strengthen support for democracy and democratic institutions. In May 
2006, the government closed the office of the National Democratic 
Institute. If confirmed, I will work to support NDI and the multitude 
of other NGO's working in Bahrain to strengthen parliamentary 
institutions, civil society, and the rule of law.
    Finally, Mr Chairman, should I be confirmed as ambassador, I will 
have no higher priority than the safety and security of all American 
citizens in Bahrain, including the dedicated men and women, American 
and foreign nationals, under my charge. They are bravely serving in 
difficult circumstances, and I will do everything in my power to see 
that they have the resources and protection they need to do their work 
on behalf of the American people.
    Thank you again for this opportunity and I will be pleased to 
answer any questions you may have.

    Senator Kerry. Thank you very much. We appreciate it.
    Mr. Norland.

STATEMENT OF RICHARD BOYCE NORLAND, NOMINEE TO BE AMBASSADOR TO 
                   THE REPUBLIC OF UZBEKISTAN

    Mr. Norland. Mr. Chairman, thank you for the opportunity to 
appear before you here today. I am honored that the President 
has nominated me and I'm thankful to Secretary Rice for 
recommending me for the position of Ambassador to Uzbekistan. 
Thank you also for the opportunity to introduce my wife, Mary 
Hartnett, who has made it possible for me to serve for 2 years 
on an unaccompanied tour in Afghanistan and supported me 
throughout that, my son Daniel, who has just graduated from 
Boston University Law School. Our daughter Kate is overseas and 
can't be here.
    Senator, thank you also for coming to Kabul, where you will 
be remembered not only for taking risks and working hard, but 
also for being the only U.S. Senator to have a snowball fight 
with the embassy staff.
    Sir, at the heart of Central Asia, Uzbekistan is a country 
that presents great----
    Senator Kerry. Remember who won? [Laughter.]
    Mr. Norland. You were outnumbered.
    At the heart of Central Asia, Uzbekistan is a country that 
presents great challenges and great opportunities for the 
United States. The historical center of the famed Silk Road 
trade, the seat of the Emperor Tamerlane's empire, a 
traditional center of Islamic thought, and the core of former 
Soviet Central Asia, Uzbekistan has developed a very strong 
identity, which is reflected in its relationships with 
neighbors and with the United States.
    Mr. Chairman, as I'm sure the committee is aware, the close 
bilateral relationship we once enjoyed with Uzbekistan on 
security issues, particularly on Afghanistan, has been reduced 
significantly during the past few years. Concurrently, our 
concern about the state of democratic development and human 
rights in Uzbekistan, already great, has steadily increased 
with every report of actions taken against civil society, 
including press outlets, human rights activists, and 
nongovernmental organizations.
    I strongly believe that, despite the challenges of recent 
years, the United States can and should seek cooperation with 
Uzbekistan in areas integral to our common national security 
interests, particularly the fight against terrorism, the 
proliferation of weapons of mass destruction, and the narcotics 
trade.
    At the same time, Mr. Chairman, the policy which has 
consistently guided our engagement in Uzbekistan and which will 
bring true security to both Uzbekistan and the United States is 
multifaceted and balanced. Along with pursuing security 
cooperation, we will seek to promote greater respect for human 
rights and rule of law, real political reform, and the 
expansion of economic opportunity for Uzbek citizens.
    Mr. Chairman, if confirmed I look forward to drawing upon 
my experiences in the former Soviet Union and most recently as 
deputy chief of mission in neighboring Afghanistan to seek the 
reinvigoration of meaningful cooperation with the Government 
and the people of Uzbekistan, as was envisaged when we signed 
the 2002 declaration on the strategic partnership and 
cooperation framework.
    If confirmed by the Senate, I will focus on reversing the 
deteriorating human rights situation in Uzbekistan, including 
the decline in religious and press freedom. The acknowledged 
use of torture by the security services, for example, is not 
only a grave violation of human rights, but also undermines the 
government and the country's security. We must work with Uzbek 
authorities to put an end to this awful practice.
    Although not yet announced, Uzbekistan is likely to hold 
presidential elections before the end of the year that will 
determine the next phase of the country's history. If 
confirmed, I intend to work closely with the Government of 
Uzbekistan and international bodies such as the OSCE to 
underscore the Uzbek people's right to a free and fair 
election.
    Finally, Mr. Chairman, it is crucial that we continue 
efforts already underway to strengthen economic ties between 
Uzbekistan, its immediate neighbors, South Asia, and the United 
States. Uzbekistan can only be as strong and prosperous as the 
economic opportunities it provides its people and increasing 
these will only be achieved if the government adopts the 
difficult changes necessary to attract foreign investment, 
lower its trade barriers, and participate fully in the world 
economic community.
    Mr. Chairman, Uzbekistan and the United States do not enjoy 
the close partnership we once had, but Uzbekistan's strategic 
location, importance and potential require that we remain 
engaged and do our best to return the relationship to where it 
should be. Working with you and members of this body, along 
with our dedicated team of American and Uzbekistan 
professionals on the ground at Embassy Tashkent, I believe we 
can make progress in securing our interests and encouraging 
Uzbekistan to realize its full potential.
    Mr. Chairman, thank you again for this opportunity and I 
would be pleased to respond to any questions.
    [The prepared statement of Mr. Norland follows:]

         Prepared Statement of Richard Boyce Norland, Nominee 
             to be Ambassador to the Republic of Uzbekistan

    Mr. Chairman, members of the committee, thank you for the 
opportunity to appear before you here today. I am honored that the 
President has nominated me and am thankful to Secretary Rice for 
recommending me for the position of Ambassador to Uzbekistan.
    At the heart of Central Asia, Uzbekistan is a country that presents 
great challenges and great opportunities for the United States. The 
historical center of the famed Silk Road trade, the seat of the Emperor 
Tamerlane's empire, traditional center of Islamic thought, and the core 
of former Soviet Central Asia, Uzbekistan has developed a very strong 
identity, which is reflected in its relationships with neighbors and 
with the United States.
    Mr. Chairman, as I am sure the committee is aware, the close 
bilateral cooperation we once enjoyed with Uzbekistan on security 
issues, particularly on Afghanistan, has been reduced significantly 
during the past few years. Concurrently, our concern about the state of 
democratic development and human rights in Uzbekistan, already great, 
has steadily increased with every report of actions taken against civil 
society, including press outlets, human rights activists and 
nongovernmental organizations.
    I strongly believe that despite the challenges of recent years, the 
United States can and should seek cooperation with Uzbekistan in areas 
integral to our common national security interests--particularly the 
fight against terrorism, the proliferation of weapons of mass 
destruction, and the narcotics trade.
    At the same time, Mr. Chairman, the policy which has consistently 
guided our engagement in Uzbekistan, and which will bring true security 
to both Uzbekistan and the United States, is multifaceted and 
balanced--along with pursuing security cooperation, we will seek to 
promote greater respect for human rights and rule of law, real 
political reform, and the expansion of economic opportunity for Uzbek 
citizens.
    Mr. Chairman, if confirmed, I look forward to drawing upon my 
experiences in the former Soviet Union, and most recently, as Deputy 
Chief of Mission in neighboring Afghanistan, to seek the reinvigoration 
of meaningful cooperation with the Government and people of Uzbekistan 
as was envisioned when we signed the 2002 Declaration on the Strategic 
Partnership and Cooperation Framework. That declaration recognized the 
indivisibility of global and regional security as well as the 
importance of consistent implementation of democratic and market 
reforms ``as a necessary condition for ensuring political, social and 
economic stability, sustainable
development, prosperity, and national security.''
    I believe those words are even more relevant today than when 
written. In the space of a few years' time, we have witnessed a 
tightening of the political climate of Uzbekistan.
    Today, our efforts to promote long-term stability and security for 
partners in the region are being challenged by those who view with 
suspicion our message of prosperity and stability through reform.
    It is therefore, Mr. Chairman, my belief that bolstering 
Uzbekistan's independence and stability through genuine democratic 
reforms, increased trade links with neighbors in the region, and 
security cooperation, is more urgent now than at any time since the 
country's independence.
    If confirmed by the Senate, I will focus on reversing the 
deteriorating human rights situation in Uzbekistan, including the 
decline in religious and press freedom. The acknowledged use of torture 
by the security services, for example, is not only a grave violation of 
human rights, but also undermines the government and the country's 
security. We must work with Uzbek authorities to put an end to this 
awful practice.
    Although not yet announced, Uzbekistan is likely to hold 
Presidential elections before the end of the year that will determine 
the next phase of the country's history. If confirmed, I intend to work 
closely with the Government of Uzbekistan and international bodies such 
as the OSCE to underscore the Uzbek peoples' right to a free and fair 
election.
    Finally, Mr. Chairman, it is crucial that we continue efforts 
already underway to strengthen economic ties between Uzbekistan, its 
immediate neighbors, South Asia, and the United States. Uzbekistan can 
only be as strong and prosperous as the economic opportunities it 
provides its people; and increasing these will only be achieved if the 
government adopts the difficult changes necessary to attract foreign 
investment, lower its trade barriers, and participate fully in the 
world economic community.
    Mr. Chairman, Uzbekistan and the United States do not enjoy the 
close partnership we once had, but Uzbekistan's strategic location, 
importance, and potential require that we remain engaged and do our 
best to return the relationship to where it should be. Working with you 
and members of this body, along with our dedicated team of American and 
Uzbek professionals on the ground at Embassy Tashkent, I believe we can 
make progress in securing our interests and encouraging Uzbekistan to 
realize its full potential.
    Mr. Chairman and members of the committee, thank you for this 
opportunity, and I would be pleased to respond to any questions.

    Senator Kerry. Thank you very much.
    Mr. Seche, I'm proud to welcome you via the University of 
Massachusetts and the Berkshire Eagle.

STATEMENT OF STEPHEN A. SECHE, NOMINEE TO BE AMBASSADOR TO THE 
                       REPUBLIC OF YEMEN

    Mr. Seche. Thank you, sir.
    Senator Kerry. Good to have you here.
    Mr. Seche. Thank you very much, Mr. Chairman. Thank you for 
the opportunity to appear this afternoon. As each of my 
colleagues have noted, Mr. Chairman, I too am honored to appear 
before you today as President Bush's nominee to be the next 
United States Ambassador to the Republic of Yemen, and I am 
grateful for the trust and confidence President Bush and 
Secretary Rice have placed in me.
    If confirmed by the Senate, I can assure you that 
protecting embassy staff and the lives of all Americans in 
Yemen, as well as American facilities and other interests, will 
be my top priority.
    On May 2, following their meeting at the White House, 
President Bush and Yemeni President Saleh each spoke to the 
strength of the bilateral relationship. At the heart of that 
relationship is a shared desire to strengthen democracy, 
counter extremism, and provide economic opportunity and a 
stable future for the Yemeni people.
    Yemen and the United States have achieved important 
successes together in our common effort to eradicate terrorism. 
Successes to date include joint action against al-Qaeda cells 
and successful prosecution of the perpetrators of the October 
2000 terrorism attack on the USS Cole. This cooperation 
continues today and strengthening this partnership will be one 
of my principal priorities if I am confirmed by the Senate.
    We must be mindful at the same time, as you noted yourself, 
Senator, that Yemen is one of the world's poorest countries, 
suffering from high levels of population growth, unemployment, 
infant mortality, and chronic illiteracy. Over 40 percent of 
the population lives below the poverty line and nearly 50 
percent is under the age of 15. Oil production, which currently 
comprises two-thirds of government revenue, is expected to 
decline dramatically during the next 10 years.
    Our partnership therefore also must include assistance to 
help Yemen improve the lives of its citizens through 
comprehensive education, health care, agricultural development, 
and good governance. Our support for Yemen as it addresses 
these critical needs will in turn contribute to the advancement 
of U.S. interests in the country and more broadly in the 
region.
    Over the past 18 months, the Government of Yemen has 
undertaken significant democratic reforms. With major support 
from the United States, Yemen in September 2006 conducted 
presidential and local council elections that were judged to be 
open and genuinely competitive by international observers. 
Other significant reforms include passage of a much-needed 
anti-corruption law, judicial and civil service reforms, and 
the drafting of a new government procurement law.
    International donors, led by the Gulf States, responded to 
these reforms by pledging $4.7 billion towards Yemen's 
development in November of 2006. In February of this year, 
these achievements led to Yemen's reinstatement in the 
Millennium Challenge Corporation's threshold program.
    United States efforts in support of economic development 
will focus on combating the corruption endemic to nearly every 
level of Government in Yemen, through technical assistance to 
both government and NGOs that will encourage transparency and 
increase the confidence of international investors and donors.
    Mr. Chairman, over the course of a Foreign Service career 
that is now approaching three decades and has included 
assignments in eight different countries, I have tried to forge 
relationships that advance American interests by encouraging 
political stability, economic prosperity, and confidence that 
the United States can be relied up on as a partner and a 
friend. Nowhere is this issue of confidence more important 
today than in the Middle East. I believe that in Yemen, thanks 
to the persistence and professionalism of colleagues here in 
Washington and at our Embassy in Sana'a, we have made 
significant strides in recent years toward a relationship that 
has the potential to serve as a model for the region and the 
world.
    Finally, Mr. Chairman, I'd be remiss if I failed to 
publicly thank my wife Susan, my daughters Kate, Lucy, and 
Ariel for their love and forbearance in the face of the 
constant disruptions that they have endured in their own lives 
as I have pursued my career, and I'm pleased that, with the 
exception of Ariel, the women in my life are all here with me 
this afternoon.
    In closing, Mr. Chairman, I would like to take this 
opportunity to encourage members of Congress and your staff to 
visit Yemen for a firsthand look at the partnership we are 
building and to ensure that our efforts on the ground reflect 
the will of this body and the American people.
    Thank you very much.
    [The prepared statement of Mr. Seche follows:]

         Prepared Statement of Stephen A. Seche, Nominee to be 
                  Ambassador to the Republic of Yemen

    Mr. Chairman, and members of the committee, I am honored to appear 
before you today as President Bush's nominee to be the next United 
States Ambassador to the Republic of Yemen, and I am grateful for the 
trust and confidence President Bush and Secretary Rice have placed in 
me. If confirmed by the Senate, I can assure you that protecting 
embassy staff and the lives of all Americans in Yemen, as well as our 
facilities and other interests, will be my top priority.
    On May 2, following their meeting at the White House, President 
Bush and Yemeni President Saleh each spoke to the strength of the 
bilateral relationship. At the heart of that relationship is a shared 
desire to strengthen democracy, counter extremism, and provide economic 
opportunity and a stable future for the Yemeni people.
    Yemen and the United States have achieved important successes 
together in our common effort to eradicate terrorism. In the aftermath 
of the October 2000 attack on the USS Cole, and with renewed resolve 
after September 11, 2001, the United States undertook important steps 
in cooperation with President Saleh's government to help Yemen develop 
its counterterrorism capabilities. Successes to date include joint 
action against al-Qaeda cells and successful prosecution of the 
perpetrators of the October 2000 terrorist attack on the USS Cole. 
American assistance has helped build the capacity of the Yemeni 
security forces to apprehend, detain and try terrorists, as well as to 
defend its borders and territorial waters. We have also assisted in the 
professional development of the armed forces, including the Coast 
Guard, and have helped combat the flow of illicit arms through Yemeni 
territory. That cooperation continues today. Strengthening this 
valuable partnership will be one of my principal priorities, if I am 
confirmed by the Senate.
    We must be mindful at the same time that Yemen is one of the 
world's poorest countries, suffering from high levels of population 
growth, unemployment, infant mortality, and chronic illiteracy. Over 40 
percent of the population lives below the poverty line, and nearly 50 
percent is under the age of 15. Oil production, which currently 
comprises two-thirds of government revenue, is expected to decline 
dramatically during the next 10 years.
    Our partnership, therefore, also must include assistance to help 
Yemen improve the lives of its citizens through comprehensive 
education, health care, agricultural development, and good governance. 
Our support for Yemen as it addresses these critical needs will, in 
turn, contribute to the advancement of United States' interests in the 
country and, more broadly, in the region. If confirmed, I will ensure 
that United States assistance in these areas is used effectively, and 
will also work closely with other donors to ensure that foreign-
assistance pledges translate into sustained progress and a higher 
standard of living for the Yemeni people.
    Over the past 18 months, the Government of Yemen has undertaken 
significant democratic reforms. With major support from the United 
States, Yemen in September 2006 conducted Presidential and local 
council elections that were judged to be open and genuinely competitive 
by international observers. Other significant reforms include passage 
of a much-needed anticorruption law, judicial and civil service 
reforms, and the drafting of a new government procurement law. 
International donors, led by the gulf states, responded to these 
reforms by pledging $4.7 billion toward Yemen's development in November 
2006. In February of this year, these achievements led to Yemen's 
reinstatement in the Millennium Challenge Corporation Threshold 
Program.
    United States efforts in support of economic development will focus 
on combating the corruption endemic to nearly every level of government 
in Yemen, through technical assistance to both the government and NGOs 
that will encourage transparency and increase the confidence of 
international investors and donors. If I am confirmed, I will also 
continue our efforts to help the Yemeni Government undertake the 
measures required for World Trade Organization accession.
    I will, if confirmed, continue efforts to strengthen Yemen's 
internal security and counterterrorism capabilities. This includes 
assisting the Government of Yemen to take greater action against the 
proliferation of small arms and light weapons, increasing information-
sharing on terrorist activities, passing a comprehensive 
counterterrorism law, and continuing to cooperate with the Government 
of Yemen on matters relating to the return of Yemeni nationals 
currently detained at Guantanamo Bay.
    Mr. Chairman, over the course of a foreign-service career that is 
now approaching three decades and has included assignments in eight 
different countries, I have tried to forge relationships, both 
official--between governments--and informal--among people--that advance 
American interests by encouraging political stability, economic 
prosperity, and a level of confidence that the United States can be 
trusted as a reliable partner and friend. Nowhere is this issue of 
confidence more important today than in the Middle East. I believe that 
in Yemen--thanks to the persistence and professionalism of colleagues 
here in Washington and at our Embassy in Sana'a--we have made 
significant strides in recent years toward a relationship that has the 
potential to serve as a model for the region and the world. If 
confirmed, it would be my privilege to lead the U.S. Embassy as we 
build on these successes in the coming years.
    Finally, I would be remiss if I failed to publicly thank my wife, 
Susan, and my daughters for their love and forbearance in the face of 
the constant disruptions they have endured in their own lives for the 
sake of my career.
    In closing, Mr. Chairman, I would like to take this opportunity to 
encourage Members of Congress and their staff to visit Yemen for a 
firsthand look at the partnership we are building, and to ensure that 
our efforts on the ground reflect the will of this body and the 
American people.
    Thank you very much.

    Senator Kerry. Thank you very much, Mr. Seche, and thank 
you for your last comments.
    I neglected to say, does any other ambassador-designate 
have family here you want to introduce?
    Yes, Ambassador Patterson.
    Ms. Patterson. My husband David.
    Senator Kerry. What's that?
    Ms. Patterson. My husband David.
    Senator Kerry. Welcome. Glad to have you here.
    Ms. Patterson. He's a fellow Foreign Service officer.
    Senator Kerry. Terrific.
    Mr. Ereli. Sir, my wife Marina and stepdaughter Masha, who 
are former residents of Brookline, Massachusetts.
    Senator Kerry. Terrific judgment. [Laughter.]
    Mr. Ereli. And an employee of Newton Free Library.
    Senator Kerry. Beg your pardon?
    Mr. Ereli. An employee of Newton Free Library.
    Senator Kerry. Terrific. We share an alma mater.
    Ms. Powell. Mr. Chairman, I don't have my immediate family 
with me today, but I do have members of my Foreign Service 
family, and I appreciate their support today.
    Senator Kerry. Well, that's wonderful. Will they raise 
their hands? Where are they all? Thank you, all of you. Thank 
you all for your service.
    I couldn't help as I was looking through all of your 
curricula, to notice the astonishing the span of experience 
that's sitting here, the numbers of places you all have served 
in, from the Caribbean to Latin America to Canada, Saudi 
Arabia, Africa. It's really quite staggering. It's a great deal 
of experience and I hope it's going to be really well put to 
use.
    I know that some people in the Foreign Service can 
sometimes get a little bit frustrated at the bureaucracy and 
sometimes the unwillingness of Washington to listen. I believe 
these hearings ought to be more than pro forma sessions. We're 
going to ask some of the questions we need to about your 
countries, but I want to draw on that experience if I can and 
ask you to just be candid. And if you say anything too out 
there, we'll make sure the Secretary doesn't hear about it and 
we'll still follow through and get this done.
    In fact, sometimes I think that the experience that's on 
the ground in some of these countries just gets wasted. When I 
go out and visit, as some of my colleagues on the committee do, 
and we sit in the embassies and listen, it's a great education 
and you learn so much more than here. I think a lot of that 
experience sometimes doesn't make it all the way to where it 
ought to and get listened to enough.
    So, having said that, let me proceed to ask a few specific 
questions. Then I want to turn to my colleague, and then I'll 
come back and perhaps ask some of these others.
    But just to let you reflect on it a little bit, I want to 
get you beyond your countries. I want you to sharee with the 
committee for the record--you know, we're really tangled up in 
Iraq and we're tangled upon the Middle East, and Hamas is 
stronger and Hezbollah is stronger, and Iran is flexing its 
muscles. You know, we're sort of on the short end more than 
we've been or want to be and our leverage and credibility are 
at risk and at stake.
    I meet a lot of students nowadays who are traveling abroad 
and they tell me they tell people they're Canadian, not 
American. I see some heads nodding out there. I mean, it burns 
you up and it hurts, but it's a reality that people face. 
People tell me they flash their American passport, but they put 
it back in their pocket as fast as they can because they don't 
want to be identified, and so forth. And for business people 
it's got to cost nowadays.
    I want you to share with this committee, because you've 
spent a lot of time as junior officers, you've got friends in 
these countries, you hear what people are thinking and saying, 
I want you to share with the committee ultimately, and we'll 
come back to it, some of the things you think we ought to be 
doing to restore that confidence and to rebuild our credibility 
and to address some of these burning issues that are feeding 
insurgencies and feeding terrorism and allowing extreme radical 
religious zealots to try to somehow isolate us in a world where 
we should be isolating them.
    I think it's a very significant question for all of us to 
think about. And if we don't draw on your experience, shame on 
us; we're missing something important here.
    So that said, let me just turn to a few of these countries 
and listen to your views. Why don't I start with you, Mr. 
Seche, since we just ended with you. First of all, obviously 
people are concerned about al-Qaeda's operational structure in 
Yemen. The State Department's annual report suggests that it's 
been weakened and dispersed. But real concerns remain about the 
organization's attempts to reconstitute operational cells 
there, as the State Department says.
    Can you share with us what the portfolio is that you've 
been given or as you understand it and what you think you can 
do to enhance our situation on the ground there?
    Mr. Seche. I'd be happy to try. Thank you very much, 
Senator. I think that the counterterrorism portfolio, as you 
rightly point out, is among the most important I will have 
before me if confirmed by the Senate and if I get to serve as 
Ambassador to Yemen. There is no greater issue and no greater 
opportunity for cooperation between our two governments than 
this presents itself. Certainly, thus far we have seen 
President Saleh commit himself I think quite resolutely to 
efforts to eradicate terrorism through the arrest of al-Qaeda 
suspects, through stemming the flow of fighters to Iraq from 
Yemen, and by arresting the perpetrators of the Cole bombing.
    So there is some success being done there. There is also at 
the same time, again as you pointed out and as I tried to 
address in my statement, some very worrisome political, 
economic, and social indicators in the country that continue to 
create conditions that one might easily argue encourage young 
men to turn to extremism as a way to better their lives and 
gain goals they may feel otherwise are unattainable.
    Senator Kerry. You say you could easily argue it. Is it 
your judgment that it is or isn't a factor?
    Mr. Seche. In my judgment it is a factor. I certainly think 
in my experience I have seen these kind of----
    Senator Kerry. A significant factor?
    Mr. Seche. Sorry?
    Senator Kerry. A significant one?
    Mr. Seche. It depends to some extent on the individual, I 
think. But I don't think there's any way to argue against the 
fact----
    Senator Kerry. What do you think the other factors are?
    Mr. Seche. I think possibly there may be an argument to be 
made that there is a cultural element in certain people's 
lives, there's religious elements in certain people's lives. 
There are certainly economic aspects of extremism that I think 
we need to address as well. So I think it's a package, and I 
think that all of these elements together may create a certain 
kind of a corrosive mix, and we find this very much in some of 
the poorer countries in the region, and that is the most 
worrisome aspect in Yemen, as I say, and one reason why we need 
to address the internal conditions and make sure that Yemenis 
can find a road to prosperity and democracy that will give them 
the confidence that their needs will be met by their 
government.
    Senator Kerry. Can you share anything with the committee, 
do you have any view at this point from a distance, or have you 
been informed, about the rumors that President Saleh is 
grooming his son Ahmad for a succession?
    Mr. Seche. I've certainly heard the rumors, and I think 
that it's important for us as a government and certainly if I 
am confirmed and go to Yemen that will be one of my first 
tasks, to try to continue the efforts being made on the ground 
to ensure that a succession process is in place that will be 
democratic, that will be transparent, that'll be 
constitutionally viable, and that will leave the Yemeni people 
with full confidence that their will has been expressed at the 
polls.
    Senator Kerry. What do you think has been the impact of the 
increased American aid since the attacks of September 11?
    Mr. Seche. I think it's had a very positive impact. I think 
we have focused very smartly on the five governorates where the 
conditions are least propitious economically and politically 
and perhaps most volatile, and where the conditions are such 
that we might see the kind of extremism take root that we're 
trying to avoid. I think for that reason alone this sharp 
focus, the effort we've made in health care, education, 
economic reforms, transparency, anti-corruption, all of these 
are Yemeni society that need to be addressed, and I think 
identifying ourselves with these remedial steps is a very 
positive element in the relationship.
    Senator Kerry. What do you think is the top priority in 
terms of building the relationship and diminishing the impact 
of radical gains?
    Mr. Seche. I think we need to be seen as being absolutely 
true to our values. I think this is rule of law, all the 
constitutional guarantees we take for granted. We need to make 
sure that around the world people see us and say, yes, America 
can be trusted, can be relied upon to bring these values to 
bear in our own societies.
    Senator Kerry. And what do you think is the biggest craw 
that sticks in their throat with respect to that, and what 
perception is working against us in your judgment in Yemen?
    Mr. Seche. Well, I suspect that probably, conversely, the 
fact that there is an erosion of this confidence, there is a 
sense that we have not really proven to be true to our values 
in some sense. They look around and they see----
    Senator Kerry. Tell me in your judgment, what do you hear? 
What is the biggest evidence of that? Is it Guantanamo? Is it 
Abu Ghraib? Is it Iraq itself? Is it some particular thing, or 
a conglomerate of them?
    Mr. Seche. I think it's a basketful of issues. I think 
Guantanamo is one that strikes very closely and very personally 
to many Yemenis, and I think this is something that we need to 
resolve with as much dispatch as we can. I also think that 
Iraq, of course, has a very negative influence on people's 
opinions and perceptions of us, and I think the continued 
protracted inability to resolve the Israeli-Palestinian issue 
is another issue that has to be addressed.
    Senator Kerry. Share with us just very quickly, and then 
I'll ask you others, the prospects for improving Yemen's 
economic situation and this level of poverty?
    Mr. Seche. I think fundamentally what we need to do is 
address the issue of corruption. I think it's endemic in the 
government at all levels. I think it's a real impediment to 
investor and donor confidence. I think that people are using 
their own ability to get at wealth for their own personal gain. 
It tends to be a dispiriting element in a society and we need 
to address that as well.
    I think we've done very well with the aid we've been able 
to put in the country in very critical areas to ensure that we 
try to lift the boat up a little bit so that everybody can come 
home and float a little bit more safely to harbor.
    Senator Kerry. Thank you.
    Mr. Norland, did you enjoy Norway?
    Mr. Norland. I had the great fortune, sir, to be in Tromso, 
Norway, before anybody ever used the term ``American presence 
post,'' and it was a one-person post 250 miles north of the 
Arctic Circle, and it was a marvelous experience.
    Senator Kerry. It must have been. I hope somebody was there 
with you.
    Mr. Norland. My wife and kids.
    Senator Kerry. Terrific.
    Mr. Norland. Yes.
    Senator Kerry. Uzbekistan presents one of those tricky 
balances, as do a couple of the other places you all are going 
to represent, between advocating for human rights and democracy 
and the balance of getting day to day cooperation from people 
to fight terrorism. Give us your assessment of where that 
balance is and to what degree you judge Uzbekistan is in fact 
cooperating with our antiproliferation and antiterrorism 
efforts?
    Mr. Norland. Yes, Senator. I think, sadly, the balance has 
tilted toward a situation where, given a panoply of interests--
security, economic, cooperation, counternarcotics, human 
rights--the human rights part of that equation needs the most 
attention. We're in a situation where it cannot be business as 
usual. But I think that one of the ways to approach this is to 
go back to the idea that we share common interests, to try to 
persuade the Uzbek Government that in fact our interests in 
stability in the region, in peaceful succession, in resolving 
security and other issues, these are interests we share in 
common and it is very much in the Uzbek Government's interests 
to restore its proper standing in the international community 
with respect to human rights and rule of law.
    Senator Kerry. What do you think is the impact of 
Congress's prohibition on some assistance to Uzbekistan?
    Mr. Norland. I think that the role that Congress has played 
in that respect, the role that some of the--I won't say 
suspension--well, suspension or not doing business as usual in 
terms of some of the executive branch activities with 
Uzbekistan, have gotten their attention. Again, it's 
regrettable----
    Senator Kerry. When you say get their attention, there's 
still a pretty widespread understanding of torture and abuse 
and things like that. How do you leverage this sort of level of 
cooperation we need? If you start to get pushy on one, you 
could lose the other, can't you?
    Mr. Norland. You can, but I think there have been a couple 
of examples recently where the government has taken actions 
that show that perhaps our approach and condemnation by the 
international community has an impact. There were a couple of 
journalists who were first arrested, sentenced to long jail 
terms. There was an outcry by us, by the European Union, and 
those terms have been suspended and the journalists have been 
released.
    Now, granted this was after kind of a show trial type of 
confession on their part. It's not a solution to the problem. 
But I think what it sends--the signal it sends is that they 
can't be completely oblivious to what we think.
    Senator Kerry. Well, I have some more questions I want to 
get into. But I'll let my colleague have an opportunity here, 
and I thank him for coming here.

            STATEMENT OF HON. RUSSELL D. FEINGOLD, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Feingold. Mr. Chairman, thank you. Thank you for 
holding this hearing.
    I just have a couple of quick questions, but I congratulate 
all of you and you're all going to interesting posts. Mr. 
Chairman, I enjoyed listening to your questioning, particularly 
with regard to Yemen. It was an interesting conversation.
    Ms. Patterson, with regard to Pakistan, we had a chance to 
meet and I just want to follow up a little bit. Given your 
extensive history working on drug-related issues, I'm 
interested to hear your thoughts on how to best combat the 
major drug trafficking problems in Pakistan and along the 
border countries, especially since opium trafficking may be a 
major source of revenue, as we know, for many terrorist and 
insurgent groups operating out of Pakistan or along its 
borders.
    Ms. Patterson. Thank you, Senator Feingold. Actually it's a 
growing problem, and the spillover effect from Afghanistan is 
not only funding the Taliban, and our intelligence and 
information on that gets better by the day, but it's also 
increasing addiction very dramatically in Pakistan. I visited a 
treatment center run by a very impressive woman up in Peshawar. 
They had huge numbers of addicts that are not only native 
Pakistani citizens, but that come out of the refugee camps. 
There are still two million Afghan refugees in Pakistan.
    This is a problem that's going to have to have enormous 
cross-border cooperation. It's going to have to have enormous 
political will on both sides of the border. The Pakistani army 
has 85,000 troops on the border. We have--the bureau I work 
with now has funded border stations all along the border. That 
said, it's had little impact on the flow through Pakistan and 
into Iran, which also has an enormous addiction problem right 
now.
    We hope that with this new strategy in the FATA, the one 
the Pakistani Government has put forward and that we will 
support, that too will have an effect on drug trafficking. But 
I am certainly not optimistic in the short run, Senator.
    Senator Feingold. Can you tell me about the nature of the 
opium issue in Pakistan as opposed to Afghanistan?
    Ms. Patterson. Yes, sir. Pakistan actually has quite a good 
record against narcotics in terms of treatment and eradication 
and law enforcement. What's happening now is they're simply 
being overwhelmed with the flow from Afghanistan and they're 
not able to interdict it.
    Senator Feingold. This is opium----
    Ms. Patterson. Opium.
    Senator Feingold [continuing]. That's produced in 
Afghanistan?
    Ms. Patterson. In Afghanistan.
    Senator Feingold. And it flows to Pakistan?
    Ms. Patterson. It flows into Pakistan and a lot of it flows 
into Iran in the old Turkish Connection route. But Pakistan has 
done a pretty good job in recent years in controlling its own 
poppy problem. It just can't now control the flow in from 
Afghanistan.
    But the really scary thing from our standpoint is the 
funding of the Taliban.
    Senator Feingold. So the poppy production in Afghanistan is 
much greater than in Pakistan.
    Ms. Patterson. Vastly greater. I think Pakistan has a 
thousand hectares of poppy production, which is considered 
negligible by U.N. standards.
    Senator Feingold. Do you believe the drug eradication 
efforts in Colombia have been effective, and do you intend to 
implement similar practices in Pakistan?
    Ms. Patterson. Yes, sir, I do believe they've been 
effective. And I entirely realize that many in this Congress 
have a different view. But I firmly believe that if we had not 
taken this amount of coca in this case, cocaine products, off 
the market, we would have had a much more difficult problem in 
this country.
    When Plan Colombia began, we had so much narcotics coming 
in that it threatened to swamp our treatment programs with 
cheap dope. So I believe that the eradication has had an 
impact. I believe interdiction in Colombia had an impact in its 
not reaching the streets of the United States.
    And no, we have no intention to put in place such a program 
in Pakistan, nor would it be necessary. They have a very modest 
program.
    Senator Feingold. Okay. Do you think Pakistan is on the 
verge of a state of emergency being declared? And if Musharraf 
declares a state of emergency, how would we respond? What 
message is the administration sending with its unwavering 
support of President Musharraf?
    Ms. Patterson. Let me address the state of emergency first, 
Senator. After we spoke I went back and found more detail about 
this and both the Prime Minister Shaukat Aziz and President 
Musharraf have said that no state of emergency is intended or 
planned.
    I also found the most astonishing statement by Shaukit, 
that this would be the first time in the history of Pakistan 
that parliament would ever complete a full term. The 
administration, rest assured, is sending the right message on 
this. I would be fairly confident to predict that no state of 
emergency is going to be imposed. Our policy is to push for 
free and fair and transparent elections before February of 
2008, and if I'm confirmed I will pursue that vigorously.
    Senator Feingold. What about the unwavering support of 
Musharraf? What kind of message is that sending?
    Ms. Patterson. President Musharraf has been our friend. He 
is our friend. He has been in many respects a modernizer in 
Pakistan, certainly on issues like the economy and on issues 
like women's rights--actually a rather remarkable modernizer. I 
would not say we have unwavering support for Musharraf. I think 
we have pushed for elections. We pushed for institutional 
development in Pakistan. It's up to the electorate to decide 
the next steps. That's our policy and that's the policy I will 
pursue if I'm confirmed.
    Senator Feingold. What about his giving up his leadership 
of the army?
    Ms. Patterson. That's up to the people of Pakistan, 
Senator. And they have--if elections are free and fair and 
transparent, they will have several opportunities to address 
this. Certainly the electors can take this into account when 
they vote on him, and if they don't like the decision, his 
decision, they can vote for parties that have a different view.
    Senator Feingold. But we don't weigh in on the 
inappropriateness of him being both president and head of the 
army?
    Ms. Patterson. Let me state our policy very clearly, 
Senator. Our policy is to push for a civilian-elected 
government in Pakistan. But the timing of that is up to the 
Pakistanis.
    Senator Feingold. Thank you very much.
    Senator Kerry. Thank you very much, Senator Feingold, for 
an important round of questioning, and we appreciate your 
participation enormously.
    I'm going to come back to you in a moment, Ambassador 
Patterson. Let me just ask Ambassador Powell, if I can. In your 
judgment, does the interim government have enough legitimacy 
and lift to be able to pull off the assembly elections?
    Ms. Powell. They appear to be working very hard at making 
the necessary steps. They've taken a very important one this 
week in getting new legislation in that determined the kind of 
elections. They will have a mix of both ``first past the post'' 
and proportionate. They have one more piece of legislation they 
need to pass. They are certainly going to have to do much more 
on the law and order front in order to ensure that people 
aren't intimidated, that the campaigns can go forward in a 
reasonable manner.
    Senator Kerry. Assuming they did the law and order front, 
is it your judgment that the outcome--and there's I assume to 
be some kind of international observation for the legitimacy. 
Let's say it's signed off on. Do you think that internally 
within the country there will be an acceptance of an outcome?
    Ms. Powell. I think that's one of the major questions, 
particularly with the Nawas Party. They have committed 
themselves to the parliamentary system----
    Senator Kerry. How committed do you judge they really are?
    Ms. Powell. I think we will have a chance to see that. They 
have not shown 100 percent commitment, particularly with the 
founding of the Young Communist League. Intimidation, 
extortion, some of the kidnapping has been continuing. This has 
been recognized both by the U.S. Government representatives, by 
my predecessor, and also by the prime minister, by other 
political leaders.
    Senator Kerry. So it's your judgment or the State 
Department's conclusion that the likelihood is they may engage 
in coercive activities during the election?
    Ms. Powell. That certainly is one of the things that their 
pattern has shown so far. I believe that the international 
community, certainly the Nepali Government, is going to have to 
watch this and take steps to stop it.
    Senator Kerry. What impact do you believe street 
demonstrations would have on the election process?
    Ms. Powell. It's had a number of impacts already, certainly 
a very devastating impact on the economy. They've lost a number 
of work days. They do intimidate those who are opposed to the 
Maoist philosophy and this has served to form the debate in 
certain ways that have not been truly democratic.
    Senator Kerry. Can you comment on what the status of their 
weapons are at this point?
    Ms. Powell. They turned in approximately 3,000 weapons to 
the U.N. They are under lock and key in the camps. They are 
monitored by the U.N. It is not clear that that is the entire 
cache, but that has been----
    Senator Kerry. Is there any judgment at all about the 
relative quantity?
    Ms. Powell. I don't believe so. It was also matched by a 
similar quantity from the army being restored. My experience in 
South Asia is that even if they had locked up all those in 
their possession, it isn't that difficult to get new ones in 
the region.
    Senator Kerry. Therefore, what judgment, if any, is made 
about what they might resort to in the event they don't like 
the outcome of the election?
    Ms. Powell. I think there are two things that we'll need to 
watch for. One of them is making sure that the elections are as 
free and fair as they can be, so that there is no reason for 
groups, whether it's the Maoists or others, to reject the 
results. The international community is trying to work in a 
coordinated manner with the Government of Nepal to provide 
expertise, to provide assistance in the logistics and in the 
legal framework for those elections. There are a number of 
international bodies, including American ones, that are already 
committed to providing international observers, training Nepali 
observers to be in the more remote parts of the country, so 
that it can be documented on the conduct of the election, on 
the conduct of the various parties. I think all of those will 
go a long way. Strengthening the security forces so that they 
can deal with occasions of violence on election day, ensure 
that there is not an outbreak of violence after the elections.
    Senator Kerry. What's the anticipated date on the 
constituent assembly election?
    Ms. Powell. They are talking about a Nepali month in the 
fall between mid-November and mid-December.
    Senator Kerry. Is there a role that the United States and 
the international community can play that we aren't playing? Is 
there anything we should be doing in your judgment?
    Ms. Powell. I think we need to continue to work with the 
United Nations to make sure that the cantonments in which the 
Maoist fighters have been put are adequately staffed and taken 
care of. We need to look at what we can do to make sure that 
the people who are in those camps receive some kind of training 
that will allow them to rejoin society after having been part 
of a group that has not encouraged support for democratic 
ideals.
    I think those are key areas. Also the very, very important 
and practical aspects of the elections. They are going to need 
money. They are going to need logistics. Nepal is not an easy 
country to move around in, and to get the ballots out, to get 
the security forces out to the various regions will take a lot 
of funding and a lot of work on the logistics.
    Senator Kerry. Is there a current plan for that?
    Ms. Powell. I believe the U.N. is working hard on it. We 
certainly have advisers working with the election commission 
from IFES and others that the USAID has contracted to support 
the Nepali efforts.
    If confirmed, one of my first topics will be to look at our 
own plans and to see, both for the elections and then what 
happens the day after the elections. Are we prepared to be able 
to support the constituent assembly that is elected and how can 
we best do that?
    Senator Kerry. Is there a compromise of some kind that you 
believe could be attained at the ballot box that would 
sufficiently vest the Maoists so they don't resort to an armed 
struggle? That is, is there some frame of that that you have 
that you would articulate? Or do you think this has to be 
simply worked through and see what the outcome is?
    Ms. Powell. I think this one is going to take, first of 
all, a free and fair election where people have confidence that 
they have voted for those that they want. There is a certain 
amount of support for the Maoists and that also needs to be 
respected in an election.
    They have committed to this, although there are divisions, 
we believe, within the Maoists. We need to encourage those that 
are committed to the democratic process and to make sure that 
all forms, including the court system, that there are ways to 
encourage the ethnic groups and the others who feel 
disadvantaged that they have a role. Right now most of the 
violence is from those groups rather than from the Maoist 
groups.
    Senator Kerry. What role do you believe India has in this?
    Ms. Powell. They have a very important role to play. There 
are a large number of Nepali citizens who live and work in 
India. The border is relatively open. This has provided a free 
flow of ideas and goods. It's also permitted smuggling and 
other illegal activities to take place. They have enormous 
amounts of influence with the various political groups, 
including the Maoists, over the years. So they will continue to 
play a very important role.
    Senator Kerry. Do you believe that China has any ability to 
help?
    Ms. Powell. I do. They have, again, a long border with 
Nepal. They have rejected the idea that these are people that 
are somehow tied to their former leader and have spoken out in 
favor of the current peace process. I would hope that they 
would be engaged in promoting that.
    Senator Kerry. I assume this will be task number one for 
you the minute you set foot there, that you're going to focus 
on what we can do to be supportive without being viewed as 
interfering or managing it.
    Ms. Powell. It is. At the same time, I think our assistance 
and our support has been focused on both the short term, with a 
very, very heavy focus on the peace process and the elections, 
but also on our assistance to ensuring that the government can 
deliver services. We have concentrated over the years 
particularly on education and health, with the current focus on 
health, and that very much needs to continue. The average 
Nepali is struck by poverty, with a lack of opportunity for 
education. We need to continue to assist the government to 
address those needs.
    Senator Kerry. Is there any other challenge that the 
Committee ought to be thinking about to be helpful to you?
    Ms. Powell. I think the Nepalis, in particular, need to 
continue to look at trafficking. We have had a very, very 
positive response, I believe, on the offer to resettle some of 
the Bhutanese refugees, who have been in camps for 17 years, as 
a humanitarian gesture. We're going to continue to have to look 
at how to do that. It is not easy to implement. But we will 
continue to work on those issues as well.
    Senator Kerry. We wish you well in that.
    What about the strife in Terai?
    Ms. Powell. I think the security forces have not been 
deployed in a manner to assist the government in ensuring that 
there is law and order. There are a number of groups who have 
taken the position that the way to get the government's 
attention is to take to the street, to commit violent acts. 
This needs to be addressed in a way that they can have their 
grievances heard. There is a roundtable planned with the new 
minister for reconstruction and they will be--I think this is 
something that we need to encourage, that they address these 
needs, these grievances, more energetically and more quickly, 
so that they don't feel the need to go to the streets.
    Senator Kerry. I may come back and follow up on a couple of 
those issues. But let me first ask Joseph Adam Ereli a couple 
of things if I can.
    How would you describe the relationship right now between 
Bahrain, the Shiite community in Bahrain, and Iran?
    Mr. Ereli. I think there are similarities and differences. 
Obviously, the similarities of the coreligionists. But there 
are Shia who look to Qum for guidance in Iran, there are Shia--
in Bahrain there are Shia who look to Qum for guidance. There 
are Shia who look to Najaf for guidance. So it would be a 
mistake to assume just because they're Shia they share a 
sympathy and allegiance to Iran.
    I think you need to look, one needs to look beyond the 
surface religious affiliation and dig a little deeper to see 
where--how people think and where their allegiances lie. But I 
think, going beyond that, obviously Bahrain finds itself on the 
same religious fault line that Iraq does. It goes north to 
southeast to west, and Bahrain is squarely at the epicenter of 
it.
    Having said that, Bahrain has a long history of peaceful 
coexistence between religious communities.
    Senator Kerry. Are there any signs now of sectarian 
divisions growing?
    Mr. Ereli. Excuse me, sir?
    Senator Kerry. Are there any signs now of the spillover of 
the Iraqi divide, that sectarian violence spilling into 
Bahrain?
    Mr. Ereli. Not really.
    Senator Kerry. Or any Sunni-Shia----
    Mr. Ereli. Obviously, people are thinking about it and 
people are watching for it. But I have not in my consultations 
and my discussions heard anybody suggest that the kind of 
sectarian strife we're seeing in Iraq is spilling over into 
Bahrain.
    Senator Kerry. What level of middle class ``refugeeism'' is 
taking place in Bahrain out of Iraq?
    Mr. Ereli. Not the way, for instance, in Jordan. I would 
make an important--I would make one point, sir, is that the 
Bahraini leadership has been pretty farsighted in this in the 
sense that they have proactively incorporated or included 
prominent Shia into the cabinet. There are five Shia cabinet 
ministers in Bahrain, thereby giving that community, as I said 
in my opening statement, a voice in the affairs of their 
country. That's an important step and I think one that 
recognizes and puts its finger ahead of time on the issue that 
you raise in your question.
    Senator Kerry. What do you see as your biggest challenge?
    Mr. Ereli. There are several, sir. No. 1, I think when you 
talked about what can we do to restore confidence in a region 
and a world that is looking to America for I think consistency 
and leadership is--and this is very true in the Gulf and 
especially true in Bahrain--we have to stand by our friends. 
It's not--in these dangerous neighborhoods, being friends with 
the United States entails risks. And Bahrain has been one of 
the most steadfast and forward-leaning friends of the United 
States. It's not without risk, both domestically as well as 
with very big and brutal neighbors.
    So we need to stand by, we need to stand by our friends. We 
need to, as I said before, promote interoperability, promote 
cooperation with Bahrain in our regional efforts, both 
confronting Iran as well as promoting regional security 
cooperation with the other members of the GCC. That will serve 
as a strong signal to other states that there's a payoff to 
being a friend of the United States, that it's in their 
interest and it's in our mutual interest. I think that serves 
American national interests over the long run.
    Democratic development, human rights, sir, is a ball you 
can never take your eye off of. I think what we see in Bahrain 
as well as other countries in the region is that democratic 
development is not constant, it is not linear. There are 
setbacks. Even though a country can be committed to reform and 
political pluralism and respect for the rights of its citizens, 
there are always challenges to that commitment. There's always 
backsliding. As ambassador if confirmed, I would keep my eye on 
that ball. I would be engaged with the government constantly to 
help them move forward in the way that they have outlined. And 
I think, sir, the case of NDI is a good example of that.
    Senator Kerry. Just a few more questions if we can. 
Ambassador Patterson, what do you make of the dustup with the 
chief justice in Pakistan?
    Ms. Patterson. That is before the--the Supreme Court of 
Pakistan is reviewing that case right now. I think everyone 
would say that the acting Chief Justice is an honorable 
individual known for his integrity. The Supreme Court itself is 
well respected. They're going to review his reinstatement on a 
variety of substantive and procedural grounds, and the 
government has said that they will stand by that decision.
    On the issue itself, obviously it was most unfortunate. 
Certainly the violence that was associated with it is to be 
deplored. But it is before the courts of Pakistan now and they 
have a long and distinguished history.
    Senator Kerry. You're saying you have confidence that 
they'll resolve this appropriately?
    Ms. Patterson. Yes, we're confident, and we're confident 
that the government will stand behind the decision. Like courts 
everywhere else, it's hard to predict when they might make a 
decision.
    Senator Kerry. Do you base that at all on any reporting 
from Under Deputy Secretary Negroponte in his visit?
    Ms. Patterson. Certainly from his--I think the government's 
made public statements to that effect, and we've had quite a 
string of high-level visitors there, and the embassy's 
reporting.
    Senator Kerry. And that comes from that?
    Ms. Patterson. Yes, sir.
    Senator Kerry. Now, what is your assessment of the al-Qaeda 
presence in the tribal areas?
    Ms. Patterson. My assessment, sir, is that it's very 
alarming. When you've asked my colleagues here about their 
highest priority that has to be my highest priority, to do 
everything we possibly can to prevent an attack on either the 
United States or allied countries from that. But it is 
alarming.
    I think reconstitution or resurgence might be too strong a 
word, but they certainly are operating from Pakistan. And they 
operate across--fairly freely in a cross-border way, too.
    Senator Kerry. When I was in Kabul, I heard a lot from 
President Karzai about his view of what's happening there. Then 
obviously when I met with Musharraf also heard a lot. I gather 
the meeting between the two of them was not a good meeting on 
any interpretive level. So we have a difficulty in this 
relationship. It's hard to get control of that border under 
those circumstances, isn't it?
    Ms. Patterson. It's extremely difficult, sir.
    Senator Kerry. It sounds to me like a Taliban-al-Qaeda 
dream.
    Ms. Patterson. It's extremely difficult, not only because 
of the terrain, which is terrible, but also, and terribly 
difficult to control, but also, yes, because of the 
relationships. But we're working on that. And we're working on 
enhanced cross-border cooperation. Our embassies cooperate.
    I think the Pakistanis and the Afghans work better on the 
operational level than you might suspect. As we developed this 
new strategy, it will do things like put in place intelligence 
centers that can fuse the information that becomes available on 
the border. So we have some plans that I think are fairly 
convincing and impressive.
    Senator Kerry. I was going to ask you what steps you 
thought we could take in order to try to improve the situation. 
I trust those plans are in the making now?
    Ms. Patterson. Yes, sir, they're actually quite well 
developed, and they build on----
    Senator Kerry. Are they public in any way?
    Ms. Patterson. No. Certainly we can provide a briefing for 
you and your staff. I wouldn't call them public, but they're 
certainly available.
    Senator Kerry. Well, it's something we obviously want to 
try to follow up on. I don't think we need to explore it in a 
public session right now.
    I'll ask two questions, quickly. Kashmir, India--how do you 
interpret the current state of that dialog? There's been a lot 
of talk and a lot of discussion about how things are great and 
they're good, but on the other hand nothing's been resolved 
fundamentally. And there seems to be just a continued idea of 
having talks. Now, talk's better than what we had, I'm not 
dismissing it, but do you see any notion, any sense that they 
really could get a resolution on Kashmir?
    Ms. Patterson. I think, Senator, Mr. Chairman, I think 
relations are better than they have been in years. This dialog 
has continued. As you pointed out, at least it's not a hot 
situation right now. When I was talking to members of the 
committee staff in preparation for this hearing, they 
suggested, and I would tend to agree, that we, the United 
States Government, have been distracted--not distracted--have 
been very active elsewhere in the region, and that we might 
offer to play a more active role in that. I certainly took that 
on board.
    Senator Kerry. Finally, how do you interpret the radical 
Islamic movement in Pakistan and the balance between the scope 
that President Musharraf has to deal with that and the street, 
maintain the independence and sovereignty of his administration 
and the country, and still be our close ally in the war on 
terror?
    Ms. Patterson. Mr. Chairman, that sort of radical extremist 
or even the very conservative religious parties--and the two 
are of course not necessarily the same--they've not had a 
historically important role in Pakistan. They've never had more 
than 10 or 11 percent of the vote. I think what is alarming is 
the increase in Islamic extremism in the Northwest Frontier 
Province and in the FATA. There seems to be some impression 
that these people live very collegially with the tribes up 
there. That's not the case either. These tribal leaders have 
been killed by the hundreds. People have been intimidated and 
threatened. And as you know, there have been multiple 
assassination attempts against government--not only the 
president, but a wide range of ministers, including the 
minister of interior.
    So yes, it's a serious problem, but not one that I think 
cannot be controlled. In other words, Pakistan--and President 
Musharraf talks very eloquently about this in his book--
Pakistan largely speaking is a moderate and tolerant Islamic 
country.
    Senator Kerry. Well, Islam honestly speaking is a moderate 
and tolerant religion. But some people have hijacked it around 
a number of different distortions. We've got about 5 minutes to 
explore what I left out in the beginning. I'd just like each of 
you to share with me your experience. You're about to be 
Ambassador of the United States in a relatively troubled arena. 
You're going to have unprecedented levels of security. Your 
embassy personnel are working in barricaded fortresses and will 
have huge levels of security.
    What's your readout on what we need to do as a country to 
improve your ability to live, to represent us in a different 
status, to be in a different place in these relationships? 
Anybody want to take that first? I'm going to ask each of you. 
But share your experience. What do we need to do? What do you 
think would make the most difference? Is it simply solving 
Iraq? Is it bigger than Iraq? Is it something we're not doing 
well in terms of multilateralism, diplomacy overall? Is there a 
multiple message?
    What's your gut tell you when you go home at night some day 
after getting a cable from the State Department and you pound 
the wall and say, they don't understand? What do you think we 
ought to do? Mr. Norland?
    Mr. Norland. Well, maybe I'll speak as somebody whose 
father was in the Foreign Service and who grew up living partly 
overseas. I would say that there's both a policy function, but 
also kind of an ironic function of modern life that's at play 
here. We're under the illusion that in the age of the Internet 
and of jet travel that we understand the world better than we 
actually do. There really is no substitute, as you're 
suggesting in your question, for actually being on the ground 
and living with people in a foreign country, getting to know 
them, establishing family relationships that last maybe longer 
than just that tour.
    I think one of the challenges we have, as you suggested, is 
to overcome the security and other barriers that exist and 
really penetrate these societies and establish long-term 
relationships, both as diplomats, also through graduate student 
exchange programs and other kinds of exchange programs.
    From a policy perspective, as a policy function, I think as 
was said earlier, addressing the Israeli-Palestinian issue and 
applying perhaps a little more focus to multilateral diplomacy 
would probably also help restore our standing in the world.
    Mr. Seche. If I might follow up, and if Dick hadn't said it 
so well I would say exactly what he has just said. I think 
there's something important here. There will always be policies 
that create neuralgia between us and other peoples around the 
world. We will never avoid those kinds of controversies and 
disappointments. It may be Iraq, it may be something else 
tomorrow. We have to understand that and at that level where 
human interaction becomes the key to convincing people they can 
come back to a level of trust and confidence in us, that's 
where I think we need to do this. That is public diplomacy. 
That is relationships among people that will let us relate to 
them as individuals and convey to them what our values and our 
principles are. I think there are a lot of common bonds that 
can be forged in that manner.
    Senator Kerry. Ambassador Powell.
    Ms. Powell. I would add to that that it needs to work both 
ways. We need to be welcoming also of our foreign friends and 
find ways to process their visits to the United States. 
Particularly, I hope for education. I think the universities 
and the schools in America have been a tremendous area for 
improving understanding of America, for having people 
understand that, and I would hope that we can continue to do 
that, while at the same time we protect our borders and make 
them secure.
    I'm facing a situation in which the Peace Corps has had to 
terminate its program in Nepal. I truly believe the Peace Corps 
has had a tremendous influence around the world and would 
encourage additional programs like that where possible.
    Mr. Ereli. Sir, I come from a background in public affairs 
and public diplomacy and have spent a lot of time talking to 
people in the region for a number of years. One of the constant 
refrains you hear is: You know, it's not that we don't like 
America; it's we don't like its policies. Frankly, I've been 
hearing that refrain for 20 years.
    I think what's incumbent upon us as representatives of the 
United States is to represent and advocate and promote the 
values that have made this country the greatest country in the 
world. It is those values, sir, that the people of the region 
in every region I've been in largely share with us and largely 
seek to emulate. It's when they see us as somehow betraying 
those values or falling short of those values that we come in 
for the greatest criticism.
    So the task before us is to try to establish the mutual 
understanding and the relationships and the policy convergences 
that are based on values of freedom, of equality, of 
opportunity, and of the rule of law, and at the same time 
square them with what's going on in the world. That's not 
always an easy thing to do, but that's why we get paid the big 
bucks.
    The other point I would make is I would echo something that 
my current boss, Under Secretary Hughes, talks about quite 
often, which is the diplomacy of deeds. That is that the United 
States does an awful lot of good for the world that goes 
unrecognized. Our support, the President's support for AIDS 
funding; the actions we're taking on malaria; what we devote to 
educational exchanges and educational opportunities. These are 
acts that improve people's lives in a material way.
    Nothing helped us more, sir, than when we flew aid to the 
people of Pakistan after that earthquake. You saw a notable 
jump in attitudes towards the United States. I would just 
underscore the importance of the diplomacy of deeds and the 
importance of doing concrete things to improve people's lives 
that again provide material support and material expression to 
our values as a Nation.
    Senator Kerry. Ambassador Patterson, you get a by because 
I've just been given a message I've got an emergency meeting 
here on CAFE that I've got to get to right away.
    But I need to ask each and every one of you, is there any 
reason, is there anything that would act as a potential 
conflict of interest in the performance of your 
responsibilities as an ambassador that we should be aware of? 
Ambassador Patterson.
    Ms. Patterson. No, Mr. Chairman.
    Senator Kerry. Ambassador Powell.
    Ms. Powell. No, sir.
    Senator Kerry. Mr. Ereli.
    Mr. Ereli. No, sir.
    Senator Kerry. Mr. Norland.
    Mr. Norland. No, sir.
    Senator Kerry. Mr. Seche.
    Mr. Seche. No, sir.
    Senator Kerry. And is there any holding, asset or interest 
that any of you have that would potentially pose a conflict of 
interest in the performance of your responsibilities?
    Ambassador Patterson.
    Ms. Patterson. No, sir.
    Senator Kerry. Ambassador Powell.
    Ms. Powell. No, Mr. Chairman.
    Senator Kerry. Mr. Ereli.
    Mr. Ereli. No, sir.
    Senator Kerry. Mr. Norland.
    Mr. Norland. No, sir.
    Senator Kerry. Mr. Seche.
    Mr. Seche. None whatsoever.
    Senator Kerry. Great.
    Well, again let me repeat what I said at the outset: a 
tremendous amount of experience. You are all of you superbly 
qualified to go out there and undertake these responsibilities. 
We're going to try--I'm going to leave the record open until 
Monday only because I want to move, if we can, Wednesday or 
Thursday to a business meeting, which should allow us to have a 
vote on the floor of the Senate either Thursday night or Friday 
to get you all out there, which we need to do, particularly 
before we break for the Fourth of July recess, so you can all 
take the ``if I am confirmed'' out of your repertoire and get 
ready to be confirmed and go to work.
    We appreciate it again and look forward to seeing some of 
you, anyway. I'm not sure I'll get everywhere that you are, but 
I look forward to getting out there some time. Good luck. God 
bless. Thank you.
    We stand adjourned.
    [Whereupon, at 4:00 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


        Responses of Richard B. Norland to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. Before Islam Karimov severed military ties with the 
United States, the State Department was often at odds with the 
Department of Defense over the degree to which human rights, political 
liberties, and other core American values should be sublimated to the 
short-term goals of gaining occasional support for ongoing military 
operations. If confirmed, will you commit to make human rights, 
political liberties, and other core American values the centerpiece, 
rather than merely one factor in the equation, when determining United 
States policy toward Uzbekistan?

    Answer. Human rights and democracy have long been key underpinnings 
of United States policy toward Uzbekistan. During the period of close 
military ties with Uzbekistan, which began soon after the 9/11 attacks, 
we pursued a strategic partnership with Uzbekistan--as agreed to in our 
2002 bilateral Declaration on the Strategic Framework--which explicitly 
conditioned our relationship on improvements in Uzbekistan's human 
rights and democratic practices, among other areas.
    In 2004, when the Secretary of State could no longer certify that 
Uzbekistan was fulfilling these commitments, we severely restricted 
assistance, notably including both International Military Educational 
Training and Foreign Military Financing. While there is no question 
that the promise of Uzbekistan's support in the war on terror was of 
great importance to us, we have not and will not seek to secure this at 
the expense of human rights and basic freedoms.
    In fact, our conscious decision to repeatedly and persistently call 
for an international investigation into the violent events at Andijon 
in 2005, together with criticism and condemnation of Uzbekistan's human 
rights practices more generally, was a factor leading to the expulsion 
of United States military forces from Karshi-Khanabad air base and the 
overall chill in bilateral relations.
    Our critical task now is to rebuild and reshape the bilateral 
relationship, emphasizing to the Uzbeks that improving their human 
rights record is fundamental to progress in all spheres. Security, for 
example, will suffer if moderate Muslims cannot practice their faith 
and are pushed toward extremism by restrictive government practices. 
Likewise, the positive foreign investment climate needed to boost the 
Uzbek economy is undermined by Uzbekistan's poor human rights record. 
At the same time, we must make clear that security and economic 
cooperation, if conducted properly, can also play an important part in 
improving the overall human rights picture for the people of 
Uzbekistan. If confirmed, I will keep our Mission fully committed to 
the goal of ensuring that Uzbekistan observes international human 
rights standards.

    Question. What, in your view, are the most pressing human rights 
issues in Uzbekistan? What are the steps you expect to take--if 
confirmed--to promote human rights and democracy in Uzbekistan? What do 
you hope to accomplish through these actions?

    Answer. Democracy is severely undermined in Uzbekistan by a 
government that stifles debate and punishes those who challenge the 
status quo. Its human rights practices are rooted in its Soviet past, 
and include the use of torture to extract confessions, unjust 
imprisonments, life-threatening prison conditions, harassment and 
prosecution of journalists, human rights activists, religious groups, 
and other members of civil society.
    The United States must continue to emphasize to the Government of 
Uzbekistan that we value human rights and that we, along with other 
members of the international community, will continue to monitor the 
country's treatment of its citizens. If confirmed, I will engage in 
systematic diplomatic efforts to persuade Uzbekistan's current and 
emerging leaders that democracy and rule of law are essential to 
Uzbekistan's stability, economic prosperity, and the overall well-being 
of the Uzbek people. I intend to maintain our Mission's support for 
human rights defenders with training and material support to 
organizations and individuals. Our Mission will support domestic and 
international efforts to promote a free press and ensure that elections 
are free and fair. Where appropriate, I will also seek out 
opportunities to assist the Uzbek Government in improving its own 
practices in these areas through training, exchange programs, and 
persistent diplomacy. I would hope that these activities would 
facilitate improvements in human rights practices and promote stability 
and prosperity.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Uzbekistan in 
advancing human rights and democracy in general?

    Answer. The chief obstacles and challenges to advancing human 
rights stem from the Uzbek Government's decision to severely restrict 
relations with the United States, in part as a consequence of United 
States and international criticism in the aftermath of Andijon. 
Uzbekistan's Government continues to harass human rights activists and 
journalists and obstruct civil society organizations that cooperate 
with us. If confirmed, my principal challenge will be to establish 
effective working relationships between our Mission and all levels of 
government and society, and to use these relationships to persuade 
Uzbekistan that improved human rights is in the fundamental interest of 
both our countries.

    Question. In your new position, what steps will you take to ensure 
that promotion of human rights objectives will be an integral part of 
post activities? If confirmed, what steps will you take to ensure that 
Foreign Service officers who engage in human rights activities are 
encouraged and professionally rewarded for superior service?

    Answer. Our current team at Embassy Tashkent realizes that 
promoting human rights and democracy extends far beyond the portfolio 
of a single diplomat, or section of the embassy. Human rights issues 
are in one way or another the focus of all sections and agencies at the 
Mission. If confirmed, I would institutionalize briefings on the human 
rights situation in Uzbekistan for all members of the Mission team, and 
see to it that human rights issues and concerns were consistently 
included in all areas of our policy, including the design and content 
of any assistance program undertaken with the Uzbek Government.
    All Foreign Service officers are trained from the beginning of 
their careers on the importance of human rights diplomacy and programs. 
In addition, the State Department recognizes outstanding human rights 
officers with an annual Department-wide award. Human rights officers at 
Embassy Tashkent are regularly nominated for this award, and have won 
it three times in the last several years. If confirmed, I would ensure 
that officers at Embassy Tashkent continue to be recognized for 
outstanding work.

    Question. Will you commit to meeting regularly with nongovernmental 
organizations in the United States and in Uzbekistan who are working to 
promote human rights?

    Answer. Regrettably, because of actions taken by the Uzbek 
Government, the human rights community in Uzbekistan has dwindled to 
only a few international nongovernmental organizations and many 
individuals across the country working bravely to protect individual 
rights. Previous Ambassadors to Uzbekistan have made a regular practice 
of meeting with human rights activists and nongovernmental 
organizations working in this field. If confirmed, I would continue to 
make these meetings, which are a critical source of moral support to 
this community, a high priority. At the same time, we must bear in mind 
that interactions with the embassy have resulted in harm to several 
activists in the past. I would take care to work quietly with those who 
wish to do so. I would also make it a priority, before departing for 
Post, to meet with United States NGO's that are following the human 
rights situation in Uzbekistan, and to stay in touch with them 
throughout my tour.

    Question. What are the most significant actions you have taken in 
your career to promote human rights and democracy? Why were they 
important? What was the impact of your actions?

    Answer. In seeking to advance human rights in Uzbekistan, I will 
draw on strong support for human rights manifested throughout my 
career. In addition to the work I have carried out over the past 2 
years as Deputy Chief of Mission in Kabul, Afghanistan, where United 
States efforts alongside those of the international community are 
helping to prevent a resurgence of the brutal Taliban regime, I would 
cite the following three examples over the course of my career:

  <bullet> South Africa: As a desk officer on the South Africa Desk in 
        1983-1985, I looked for ways to ensure that United States 
        policy stood up to apartheid. I crafted remarks for Secretary 
        Shultz that drew the ire of the South African foreign minister 
        because of their outspoken criticism of apartheid. I personally 
        engaged with the Assistant Secretary for African Affairs in an 
        effort to ameliorate the policy of ``constructive engagement,'' 
        seen by many as appeasement of apartheid and soon overtaken by 
        the Comprehensive Antiapartheid Act. I used my influence to 
        help a deserving black South African get a visa to the United 
        States even when other factors worked against this.
  <bullet> Soviet Union: As a political officer in Moscow in 1988-1990, 
        during the waning days of the Soviet Union, I focused my 
        engagement and reporting on advancing United States-Soviet 
        cooperation in support of the Middle East peace process as well 
        as conflict resolution efforts underway in eastern and southern 
        Africa. I worked to expedite the departure of Soviet troops 
        from Afghanistan. Progress was made in all these areas, 
        tangibly improving human rights for millions of people, and I 
        feel I played a part in these efforts. In addition, as Soviet 
        authority crumbled, I was successful in persuading Russian 
        contacts that they had nothing to fear from the United States, 
        and bolstered them in their growing awareness that the demise 
        of Soviet Communism would spell a massive advance in human 
        rights on a global scale--which it did. I am proud to have 
        played a small part in this, very early and large-scale example 
        of Transformational Diplomacy.
  <bullet> Northern Ireland: I worked for 5 years on the Northern 
        Ireland peace process, three as political counselor in Dublin 
        (1995-1998) and two as a director for European affairs on the 
        National Security Council staff (1999-2001). I feel this was an 
        example of a successful peace process--one where the investment 
        of U.S. political capital (by both the executive and 
        legislative branches) paid off in terms of bringing the parties 
        to the negotiating table and keeping them focused on reaching a 
        solution. The success of United States, British, and Irish 
        diplomacy in this effort has paid off in terms of lives saved 
        and misery averted for hundreds of thousands of Catholics and 
        Protestants in Northern Ireland and the Republic of Ireland. I 
        am proud to have been part of the many-layered team that over 
        the years helped shepherd this process to a successful 
        conclusion. The trust I established with key players in the 
        Irish and British Governments and among the political parties 
        involved, including Sinn Fein and the loyalists, helped keep 
        them engaged and committed to the peace process during the 
        United States Presidential transition in 2001. The human rights 
        gains have been significant. Senior officials on all sides 
        would, I believe, concur in the assessment that I played a 
        helpful role in advancing this process.
                                 ______
                                 

       Responses of Anne Woods Patterson to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. Do you agree with the opinion expressed by Gen. James 
Jones at a Senate Foreign Relations Committee hearing on September 21, 
2006, that in the view of many United States military officers the 
Taliban central headquarters is located in or near the Pakistani city 
of Quetta?

    Answer. The border areas of Pakistan, including Baluchistan, are of 
great concern to the United States and the Government of Pakistan. 
Pakistan is stepping up security operations that are yielding results, 
including the death or capture of senior Taliban leaders like Mullah 
Dadullah Lang. Pakistan is also making efforts to extend the writ and 
benefits of government into areas along the border to eliminate 
territory from which the Taliban and other extremists may draw support. 
NATO military leaders tell us that these efforts are helping disrupt 
Taliban command and control. I believe that we have made good strides, 
but more needs to be done.
    We will continue to support Pakistan in their efforts: in 
governance, economics, development, education, security, and other 
areas. The Department can provide a classified briefing to you or your 
staff to further discuss the situation if needed.

    Question. Is it your understanding that the total amount of 
noncovert aid provided to the Government of Pakistan by the Government 
of the United States since 9/11 is approximately $10 billion?

    Answer. Yes, the U.S. Government has provided, in round numbers, 
about $10 billion in foreign assistance and coalition support funds.
    The amount provided to Pakistan by the Government of the United 
States since 2001 is approximately $5.6 billion. Of that, $5.1 billion 
has been directed toward socio-economic development, law enforcement, 
and foreign military financing. The Department of Defense has also 
provided Pakistan with $500 million in counterterrorism and 
counternarcotics training.
    In addition to the aid described above, the United States has 
provided Pakistan with approximately $4.9 billion since 2001 in the 
form of reimbursement for expenses incurred by the Government of 
Pakistan in its support of Operation Enduring Freedom.
    As I was preparing for the hearing, I realized that determining the 
precise amount provided to Pakistan was not easy. Some have implied 
that the United States Government has promoted this lack of clarity to 
obfuscate our assistance to Pakistan. This is simply false. The funding 
for Pakistan comes from different appropriations, is designated to 
different accounts with discrete legal authorities, is provided to 
different United States Government agencies, and is further complicated 
by continuing resolutions, wartime supplementals, and reprogramming. If 
confirmed, I will try to clear up this issue by describing our 
assistance programs on the embassy Web site as clearly and completely 
as possible.

    Question. Do you believe that the Government of Pakistan has made 
satisfactory efforts to dismantle the terrorist groups Lashkar-e Taiba 
and Jaish-e Muhammad? Are you satisfied with the lack of meaningful 
punishment given to the leaders of these groups: Hafez Saed and Maulana 
Azhar?

    Answer. The government of Pakistan has seen some successes in 
confronting these groups, having captured several senior terrorist 
leaders--particularly those from sectarian terrorist organizations that 
target victims based on their religion--and adopting policies that have 
dramatically reduced the cross-border movements of Kashmir related 
groups in the last year alone. But we must all do more, including 
Pakistan, if we are to successfully dismantle all terrorist groups in 
Pakistan and elsewhere.
    President Musharraf banned Lashkar-e Taiba, Jaish-e Muhammad, and 
other domestic terror groups in 2002, recognizing them as a threat not 
only to Pakistan's development but its domestic and regional security. 
Since then the Government of Pakistan has made considerable efforts to 
dismantle internal terrorist networks and to curb movements of these 
groups across its borders.
    If confirmed, I will continue to work with Pakistan not only to 
deepen our cooperation in combating al-Qaeda and the Taliban, but also 
to ensure that ultimately all terror groups, including groups 
attempting to resurface under new names, are subject to the same 
scrutiny, and to enhance their efforts to prosecute the leaders and key 
members of all terrorist organizations operating on Pakistani soil to 
the fullest extent of the law.

    Question. Do you believe there can be genuinely free and fair 
elections in Pakistan so long as the leaders of the two largest 
political parties remain barred from returning to the country?

    Answer. I believe that the absence or presence of individual 
politicians from Pakistan on its upcoming election day will not 
determine whether Pakistan has held a free and fair election.
    The credibility of Pakistan's upcoming parliamentary election will 
rest on the ability of Pakistani political parties to campaign and seek 
votes openly, the ability of Pakistani voters to vote for the political 
parties and candidates of their choice, and the ability of those 
political parties who emerge with a majority of the votes to form a 
democratic government reflecting the will of Pakistan's electorate.
    If confirmed, I will do everything possible to ensure that the U.S. 
Government supports free, fair, and transparent elections with the 
widest possible participation of political parties.

    Question. What specific metrics would you use to evaluate whether 
Pakistan's scheduled parliamentary elections can be judged free and 
fair?

    Answer. Elections will be free and fair if the parties can campaign 
and seek votes openly, if voters can vote for the party of his/her 
choice, if media is free to cover the electoral campaign and outcome, 
if voters can be sure that his/her vote will be properly counted, and 
if the political parties who win can form a democratic government.
    If confirmed, I will seek guidance from established international 
experts, such as the National Democratic Institute and the State 
Department's Bureau of Democracy, Human Rights and Labor bureau, to 
evaluate the electoral process and to suggest where U.S. Government 
assistance might most usefully be directed. I would also expect to be 
in regular contact with the Elections Commission and opposition parties 
to seek their views. USAID is already working with the International 
Foundation for Election Systems, UNDP, and the Asia Foundation to 
improve elections procedures; State's Department of Democracy, Human 
Rights, and Labor is providing assistance to local NGOs who will help 
political parties develop a code on conduct and will conduct basic 
voter education campaigns, particularly targeted at women.
    In my view, it is important that both international and domestic 
observers be available throughout the electoral process. For instance, 
there are real concerns about the registration process, which may have 
excluded millions of eligible voters. I have also learned in my 
previous assignments that there are lots of ways to steal elections, 
some very sophisticated and some fairly crude. International experts 
and domestic monitors on site throughout the process will reduce the 
chances of a fraudulent election.
    The U.S. Government has made clear that we expect to see a 
parliamentary election in 2007-2008 that meets broad international 
standards for transparency. I would expect to keep this committee and 
others in Congress closely informed about this process.

    Question. What, in your view, are the most pressing human rights 
issues in Pakistan? What are the steps you expect to take--if 
confirmed--to promote human rights and democracy in Pakistan? What do 
you hope to accomplish through these actions?

    Answer. Pakistan, a developing country with a population of over 
160 million, faces significant challenges in ensuring that the human 
rights of all of its citizens are not only legally protected, but 
practically enforced.
    As noted in the 2006 State Department Country Report on Human 
Rights and International Religious Freedom Report, current human rights 
concerns include treatment of Pakistani citizens by security forces, 
respect for the rights of women and religious minorities, child labor, 
trafficking in persons, arbitrary detentions, and hindrances on freedom 
of the press.
    The treatment of women in Pakistan, particularly in rural areas, 
does not accord with international human rights standards. Protection 
of the rights and safety of women and children is essential to 
Pakistan's social and economic development, and if confirmed, I plan to 
work with the Government of Pakistan closely to identify ways that the 
United States can help Pakistan improve in this area. The passage this 
year by Pakistan's National Assembly of the first significant women's 
rights legislation in decades is an indication that all of Pakistan's 
mainstream political parties recognize the importance of moving forward 
in this key area. Still, much remains to be done.
    It is also imperative for Pakistan's internal stability and its 
emergence as a full democracy that the rights of Pakistan's religious 
minorities be protected, and that religious minorities not be subject 
to discrimination. The Government of Pakistan has recently reached out 
to multifaith leaders at the national and local level in a series of 
interfaith dialogs; this is an initiative that we should encourage as a 
first step toward increasing the understanding and respect amongst 
Pakistan's faith communities that underpins freedom of religion.
    Arbitrary arrests, including of opposition political figures, are 
an issue in Pakistan. We have made it clear to the government that 
freedom of assembly is not only a basic democratic right, but also an 
essential component of free and fair elections. We have also made it 
clear that we expect candidates and campaigners from all parties, 
including the opposition, to have freedom and security of movement in 
this electoral season. We need to send a strong message on this issue, 
and will.
    We also track closely reports of disappearances, or detentions, in 
which families are unable to determine the welfare and whereabouts of 
their imprisoned relative. Transparency is a critical element of 
justice. The Government of Pakistan has legitimate and serious internal 
security concerns. But in addressing those concerns, Pakistan needs to 
balance the imperatives of security with respect for personal freedoms 
and the rule of law.
    Finally, it is important that the United States encourage fuller 
observance of political rights and encourage Pakistan's movement toward 
a civilian-led democracy. It is important that the considerable 
progress made by the Government of Pakistan in recent years toward 
ensuring freedom of the press and of assembly not be halted or eroded. 
I was relieved to see that, following objections from the local media 
community, the Government of Pakistan recently reversed an initiative 
to introduce legislation that could have negatively impacted press 
freedom in Pakistan.
    If confirmed, I will encourage long-term programs, such as female 
literacy, that will gradually improve human rights. The United States 
Government needs to concentrate on building up Pakistani civilian 
institutions apart from the military, including the media, political 
parties, the police, the civilian ministries, and civil society 
organizations.
    Pakistan has produced several globally-recognized leaders in the 
human rights field, leaders who have gained international prominence 
through work accomplished despite the hurdles described above, through 
the strength of their own convictions. I will work to ensure that we 
continue to identify and support such individuals, whose own work 
greatly increases Pakistan's capacity to ask and answer those questions 
of its own society.
    I believe we already have in place a number of projects to 
accomplish these objectives, through our assistance to build 
institutional capacity for government accountability and responsiveness 
to the needs and interests of Pakistani citizens. If confirmed, I will 
also carry the message to Islamabad that I believe Pakistan's record on 
issues such as freedom of the press and freedom of assembly to be key 
to the government's domestic as well as its international credibility.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Pakistan in 
advancing human rights and democracy in general?

    Answer. As I prepared for this confirmation hearing, almost every 
expert on Pakistan told me that literacy levels were an impediment to 
democracy and respect for human rights. Illiterate people are easily 
misled. Individual Pakistanis' access to information about their own 
government, their country, and the world beyond their borders is key 
not only to development, but also to the emergence of citizens who are 
well-informed about their rights and able to hold their government 
accountable.
    For that and other reasons, education remains a key target area of 
our development assistance to Pakistan. In 2007 we will directly 
contribute $60.7 million to Pakistan's education sector: $28.7 million 
in basic education and $32.0 million for higher education. Pakistan has 
acknowledged the need for increased commitment of its own resources to 
education and from 2001 to 2006 has significantly increased its 
spending in the education sector.
    Rigid, politicized interpretations of religious and cultural 
traditions are also challenges to implementation of international human 
rights standards. These traditions particularly influence the treatment 
of women and minorities in Pakistan. As in our Rule of Law programs in 
Afghanistan, we will support efforts to modernize these tribal and 
religious interpretations.
    As in many other countries in the world, striking the right balance 
between our security interests and rights of the individual in Pakistan 
will continue to be a challenge. If confirmed, I will do my best to 
maintain the proper balance in our relations with Pakistan.
    The long history of military rule and the relative importance of 
the military in Pakistani society will present a challenge in moving 
Pakistan toward a civilian-led democracy. Pakistan has a long history 
of an educated political elite and political parties but little 
experience with democratic transitions. Key to lessening the military 
role will be the strengthening of civilian institutions such as an 
independent judiciary, robust media, and domestic political parties, 
while persuading the military that politics is incompatible with a 
truly professional military.
    The United States Government also faces a challenge of 
communication on our ongoing dialog with Pakistan about the importance 
of ensuring respect for basic human rights. In many developing 
countries, legislation and initiatives designed to protect human rights 
are portrayed at the local level by self-interested actors as 
``foreign'' imports masking hidden agendas. If confirmed, I plan to 
continue our ongoing work with Pakistani human rights NGOs, civil 
society members, multifaith religious leaders, and local and national 
politicians who are able to advocate the important role respect for 
human rights--and for the institutions of democracy--plays in 
Pakistan's emergence as a stable and prosperous democracy.

    Question. In your new position, what steps will you take to ensure 
that promotion of human rights objectives will be an integral part of 
post activities? If confirmed, what steps will you take to ensure that 
Foreign Service officers who engage in human rights activities are 
encouraged and professionally rewarded for superior service?

    Answer. Responsibility for promoting respect for human rights is 
not restricted to any one section or function of a U.S. diplomatic 
mission. Just as protection of our basic rights and freedoms is 
inherent in the United States' system of government, promotion of these 
basic rights and freedoms internationally is inherent in every aspect 
of our diplomatic mission.
    Our strong material, technical, and advisory support for Pakistan's 
2007-2008 national election targets one key human right--the right of 
individuals to select a democratic and representative government freely 
and with confidence. This dedication of resources and attention does 
not, however, come at the expense of our continual and extensive 
engagement with Pakistani Governmental and nongovernmental actors on 
other key issues such as the legal protection and enforcement of 
women's rights, eradication of child labor, and respect for the rights 
of religious minorities.
    My experience in previous posts has made clear to me that the most 
important human rights messengers are often not the USAID human rights 
officer, important though he/she may be, but our intelligence, law 
enforcement, and military officials. Our military officers convey to 
their counterparts that a professional military does not participate in 
politics, while our intelligence and military officials reiterate to 
their counterparts that violations of human rights are not only wrong 
but counterproductive to their objectives. Our law enforcement 
officials teach professional techniques like forensic evidence 
collection to secure convictions, thus eliminating the perceived need 
to beat suspects to obtain confessions. Fortunately, the dedicated 
Americans serving in our embassies overseas seldom need prompting to 
convey these messages to their local counterparts.
    Our Embassy in Islamabad and our Consulates in Lahore, Karachi, and 
Peshawar are key diplomatic posts in our efforts to promote human 
rights, and the Department of State greatly respects the service of the 
officers who staff these critical Missions. If confirmed, I will work 
to ensure that officers engaged in the critical task of promoting 
respect for human rights and freedoms in Pakistan receive full credit 
and professional reward for their vital work.

    Question. Will you commit to meeting regularly with nongovernmental 
organizations in the United States and in Pakistan who are working to 
promote human rights?

    Answer. Absolutely.
    Our Office of Pakistan and Bangladesh Affairs in Washington, our 
Embassy in Islamabad, and our Consulates in Lahore, Peshawar, and 
Karachi have close and ongoing ties with domestic and international 
nongovernmental organizations working to promote human rights in 
Pakistan.
    If confirmed, I commit to strengthening those ties by participating 
personally in this ongoing dialog about how we--the international 
community, Pakistan's Government, and Pakistan's citizens--can better 
resource and increase our effectiveness in promoting the development of 
a fully-realized human rights regime that protects all Pakistani 
citizens.

    Question. What are the most significant actions you have taken in 
your career to promote human rights and democracy? Why were they 
important? What was the impact of your actions?

    Answer. During my tenure as Assistant Secretary for the Bureau of 
International Narcotics and Law Enforcement, virtually our entire 
effort was designed (and largely successful) in professionalizing 
police, prosecutors, and judges. This is basic to promoting human 
rights and the rule of law. Without professional police, societies 
revert to vigilante or paramilitary justice, which is almost impossible 
to roll back.
    I am particularly proud of the progress in the rule of law program 
in Afghanistan, including our significant support to the Afghan 
attorney general, an honest and dedicated official who is determined to 
root out corruption.
    I believe my leadership of our Embassy in Bogota and the 
interagency implementation of Plan Colombia programs played a role in 
sharp reduction of violence in that country. This was essential for 
broader improvements in human rights--although Colombia is still 
struggling to come to terms with its past--as government presence was 
restored throughout the countryside, military ties to paramilitaries 
were reduced, and the insurgents weakened throughout the country.
    Although Colombia still faces enormous human rights challenges, I 
believe the political and human rights of Colombians have greatly 
improved because of United States assistance.
    In my assignments in El Salvador and at USUN, I believe that human 
rights were an integral part of United States Government policy.
    If confirmed, promotion of human rights will be a key element of 
our policy and of my personal agenda. More than in any of my other 
posts, identifying the American Government with human rights will be 
particularly important in Pakistan where (unlike in Latin America) the 
population is more hostile to the United States and deeply skeptical of 
our motivations.
                                 ______
                                 

          Responses of Nancy J. Powell to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. In recent years, the United States has been regarded in 
Nepal (rightly or wrongly) as a force that is closely allied with the 
monarchy, implacably opposed to any role for the Maoists in the 
political process, and only supportive of democratic development to the 
extent that elections produce outcomes agreeable to American interests. 
What concrete steps would you take to reverse this widespread 
perception?

    Answer. If confirmed, I will lead a country team review of our 
current activities to ensure that our private and public diplomacy 
messages are unambiguous in our support and respect for the peace 
process and for free and fair constituent assembly elections. My 
initial schedule will provide numerous opportunities to reiterate this 
stance consistently and clearly and to highlight the extent of United 
States assistance to Nepal's emerging democratic institutions as well 
as our efforts to reach out to nongovernmental organizations and work 
with nonviolent civil society groups.

    Question. As the Maoists have steadily moved from the battlefield 
to the political arena, the United States has been considerably slower 
than the Nepali populace and outside regional actors, to welcome and 
support this transition. If confirmed, would you commit to a full-scale 
top-to-bottom review of U.S. policy toward the Maoists?

    Answer. As noted above, if confirmed, I will lead a nearly entirely 
new country team in a review of our democracy programs in Nepal with 
special focus on our ongoing support for the peace process and the 
upcoming constituent assembly elections. As part of that review, I plan 
to assess whether the current policy, which restricts contact with the 
Maoists to official business with those who are officials of the 
interim government, is serving U.S. interests effectively. I will share 
the results of that review with Washington policymakers along with 
reporting on Maoist compliance (or lack thereof) with basic democratic 
principles, especially respect for human rights and rule of law.

    Question. What, in your view, are the most pressing human rights 
issues in Nepal? What are the steps you expect to take--if confirmed--
to promote human rights and democracy in Nepal? What do you hope to 
accomplish through these actions?

    Answer. Nepal faces many simultaneous human rights challenges. The 
most urgent are increasing respect for the rule of law throughout the 
country and ensuring that the government addresses the expectations and 
needs of traditionally marginalized groups. Continued intimidation 
through extortion, kidnapping, and violence threatens to roll back the 
democratic progress that has been made and to prevent free and fair 
constituent assembly elections, leading to more violence.
    If confirmed, my immediate focus will be on support for free and 
fair elections in November, drawing on U.S. resources as well as 
cooperating with other members of the international community. We also 
need to pre-position assistance for the post-election period to be 
ready to help the new government establish quickly its governing 
authority and a transparent constitution-drafting process.
    If confirmed, I will also encourage the Government of Nepal to 
strengthen the National Human Rights Commission and to establish a 
truth and reconciliation mechanism that would allow conflict victims to 
air their grievances and seek redress from abusers in an organized, 
peaceful manner.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Nepal in advancing 
human rights and democracy in general?

    Answer. The biggest obstacles are the continuing Maoist lack of 
respect for basic democratic norms and the unmet expectations of 
marginalized groups who have resorted to violence as a means to 
emphasize their demands.
    Nepalis' lack of education, poverty, and limited experience with 
democratic governance will complicate efforts to improve the human 
rights situations. The limited capacity and resources of the security 
forces will challenge efforts to restore rule of law.

    Question. In your new position, what steps will you take to ensure 
that promotion of human rights objectives will be an integral part of 
post activities? If confirmed, what steps will you take to ensure that 
Foreign Service officers who engage in human rights activities are 
encouraged and professionally rewarded for superior service?

    Answer. Support for the establishment of sustained democracy is the 
No. 1 United States interest and priority in Nepal. Respect for human 
rights is at the very top of the agenda. Progress in these areas is 
vital to a successful democratic transition and regional stability. If 
I am confirmed, I will ensure that the promotion of human rights 
continues to be integrated into the activities of all personnel in the 
Mission, from our diplomacy with senior government and party officials, 
to the planning and administration of police and development assistance 
programs by State and USAID personnel, to the military training 
programs managed by the Office of Defense Cooperation.

    Question. Will you commit to meeting regularly with nongovernmental 
organizations in the United States and in Nepal who are working to 
promote human rights?

    Answer. If confirmed, I will meet regularly with nongovernmental 
organizations--both international and domestic--working to promote 
human rights in Nepal.

    Question. What are the most significant actions you have taken in 
your career to promote human rights and democracy? Why were they 
important? What was the impact of your actions?

    Answer. Beginning in 1980 in Kathmandu when I was named the 
Mission's human rights officer, I have been an active supporter of our 
human rights goals in all of the posts at which I have been privileged 
to serve. The means of expressing that support has changed with my 
responsibilities, but my interest and dedication have been unwavering.
    I am most proud of an effort undertaken under my supervision by 
junior officers in Dhaka, Bangladesh, in 1997, to address the 
trafficking of women and children in South Asia. The officers developed 
an interagency approach that included a USAID grant to develop programs 
to inform women of their rights, a public diplomacy campaign that 
distributed articles on prevention to law enforcement and other 
government officials, and an outreach effort to other diplomatic 
missions in Dhaka and United States missions in South Asia to encourage 
coordinated activities to halt the trafficking. The program served as a 
model for later programs throughout the region and led to the arrests 
of traffickers along the border with India. The program also provided 
me with a model for use at posts where I have been ambassador to 
encourage all members of the Mission to be involved in promoting human 
rights.
                                 ______
                                 

         Responses of Stephen A. Seche to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What was the 
impact of your actions?

    Answer. From 2002-2004, while serving as Deputy Chief of Mission 
and Charge d'Affaires of the United States Embassy in Damascus, I 
directed a robust mission-wide effort to publicly associate the United 
States Government with Syrian NGOs and individuals who were--and 
continue to be--working at considerable personal risk to affect 
important political reforms in that country.
    We met with them whenever possible, invited them to events at our 
homes, and made direct and forceful interventions with Syrian 
Government officials to encourage the development of an atmosphere in 
Syria in which their citizens could freely exercise their fundamental 
human rights of expression and association.
    We also worked closely with European and other allies with a 
presence in Damascus in order to ensure the message that political, 
economic, and social reforms must be undertaken was delivered clearly 
and repeatedly.

    Question. What are the most pressing human rights issues in Yemen? 
What are the most important steps you expect to take--if confirmed--to 
promote human rights and democracy in Yemen? What do you hope to 
accomplish through these actions?

    Answer. In recent years, the Government of Yemen has made a 
concerted effort to address human rights abuses, but significant human 
rights issues persist in some areas. These include limited press 
freedom and harassment of journalists, allegations of torture and poor 
prison conditions, prolonged pre-trial detention, pervasive corruption 
within the government and judiciary, and discrimination against women. 
In addition, Yemen's small Jewish community has recently been targeted 
and threatened by supporters of the al-Houthi group, and requires the 
continued protection and support of the Yemeni Government--for which 
the Government is to be commended.
    If confirmed, I plan to engage the host government and civil 
society actors to promote the strengthening of Yemen's human rights 
record and democratic and judicial reforms. I will also endeavor to use 
the annual reports on human rights, religious freedom, and trafficking 
in persons to encourage/press for progress in these areas.
    I hope these efforts will enable me to support women's human rights 
initiatives, advocate for freedom of the press, promote judicial 
reform, demonstrate U.S. support for civil society activists; and 
investigate reported cases of torture, prolonged pre-trial detention, 
and child trafficking.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Yemen in advancing 
human rights and democracy in general?

    Answer. Although the Government of Yemen has undertaken significant 
democratic reforms over the past 18 months, many of these reforms have 
not yet been fully implemented and reports of abuse continue, 
especially in the areas of women's rights, freedom of the press, 
torture, and police brutality. If confirmed, one of my key priorities 
will be to ensure that the Government of Yemen follows through on its 
democratic reforms and makes continued progress.
    Change comes slowly to Yemen and other traditional countries of the 
Middle East. If confirmed, I will also engage the government, other 
political actors, and civil society groups in order to promote respect 
for democracy, fight corruption, and work to promote the role of women 
in government.

    Question. In your new position, what steps will you take to ensure 
that promotion of human rights objectives will be an integral part of 
post activities? If confirmed, what steps will you take to ensure that 
Foreign Service officers who engage in human rights activities are 
encouraged and professionally rewarded for superior service?

    Answer. If confirmed, I will expect all members of my staff working 
directly with the various facets of Yemeni society to make the 
promotion of human rights a professional priority of their own. I would 
like to see language to that effect included in the annual work 
requirements of all embassy staff engaged on these issues. This formal 
identification of human rights and democratic development as a priority 
of the United States Mission to Yemen will enable me, my Deputy Chief 
of Mission, and appropriate section chiefs to recognize the 
accomplishments of individual officers and support their promotion 
based, at least in part, on their performance in this regard.

    Question. Will you commit to meeting regularly with nongovernmental 
organizations in the United States and in Yemen who are working to 
promote human rights?

    Answer. The United States Embassy in Sanaa has a robust program of 
supporting and promoting civil society in Yemen in general, and human 
rights NGOs in particular. If confirmed, I will continue this trend.
    Embassy officers frequently meet with the NGOs that we fund, as 
well as many others, in order to keep abreast of allegations of human 
rights abuses, and to update our annual human rights report. We raise 
human rights abuse allegations with the Minister of Human Rights and 
her staff, as well as with the Minister of Interior and the President 
when necessary. Embassy officers also correspond and meet with U.S.-
based human rights NGOs, including the Committee to Protect 
Journalists.
    Over the past year, we have expended more than $250,000 in Middle 
East Partnership Initiative (MEPI) funding to NGOs promoting human 
rights. The bulk of this money will go to NGOs that focus on increasing 
women's participation in electoral life. We are also funding one of 
Yemen's premier human rights NGOs--the HOOD organization to write a 
draft of the Judicial Authority Law.
    In addition to our small grants funding, the embassy has directed 
larger grants to NGOs focused on human rights, including through the 
Office of the Middle East Partnership Initiative (MEPI). Through MEPI, 
the United States has built a partnership between Italian, Turkish, and 
Yemeni human rights NGOs as part of the Democracy Assistance Dialog. 
The embassy has also actively supported the Department of Labor in its 
funding of organizations that fight child labor and trafficking in 
Yemen.

    Question. In November 2005, the Millennium Challenge Corporation 
(MCC) suspended Yemen from its participation in a Threshold Account on 
concerns about corruption. In February 2007, the MCC reinstated Yemen's 
eligibility to participate in the program. Please explain the 
anticorruption efforts of Yemen leading up to the MCC's February 2007 
decision on Yemen. How do you see your role in facilitating Yemen's 
anticorruption efforts?

    Answer. President Saleh focused his successful reelection campaign 
on reform issues, particularly government corruption. The result was an 
election judged to be open and competitive by international observers, 
with largely unfettered media coverage of opposition candidates.
    Since the election, Saleh has continued to invest his personal 
prestige in important reforms. For example, when the government's draft 
procurement law--written with assistance from U.S. Government-funded 
consultants and World Bank experts--was gutted by reform opponents, 
Saleh ordered the draft be returned to its original version and placed 
a front-page declaration in the government's newspapers ordering the 
law to be passed expeditiously.
    Since its suspension from the Millennium Challenge Corporation 
(MCC) Threshold Program in November 2005, the Republic of Yemen 
Government (ROYG) has undertaken the following specific efforts to 
combat corruption:

  <bullet> Reshuffled the cabinet (twice);
  <bullet> Empowered technocrats to shepherd major legislative and 
        regulatory changes through the Yemeni system;
  <bullet> Elected a National Supreme Anticorruption Authority (NSAA);
  <bullet> Passed anticorruption and the financial disclosure laws;
  <bullet> Drafted a procurement law;
  <bullet> Drafted a decentralization amendment law; and
  <bullet> Crafted a National Decentralization Strategy (to be 
        presented to cabinet in July 2007).

    If confirmed, I will work to with donors and the ROYG to implement 
anticorruption activities. Support from USAID has played, and will 
continue to play, a key role in providing guidance and technical 
assistance to the ROYG on its efforts to receive MCC assistance and 
combat corruption.

    Question. As one of the poorest countries in the world, what are 
the most pressing socioeconomic issues facing Yemen? What role can the 
United States play in addressing them?

    Answer. Yemen will face significant social and economic challenges 
over the next 10 years. Oil revenue and water resources are declining. 
Yemen's population of 20 million, nearly half of which is under the age 
of 15, is exploding. Unemployment, illiteracy, and infant mortality 
rates are all high.
    Ongoing United States assistance to Yemen helps to address these 
issues in several ways. By providing bilateral development assistance 
that builds schools, equips health clinics, and teaches women to read, 
we are helping Yemenis prepare to face these challenges. By 
coordinating with other international donors to ensure that foreign 
assistance pledges are targeted to meet the areas of greatest need, we 
are ensuring that each dollar of foreign aid is stretched as far as it 
can go. Finally, by encouraging the Government of Yemen to undertake 
significant political and economic reforms, we are encouraging economic 
growth and assisting the government to become more transparent, more 
efficient, and better able to respond to the needs of its population.
                                 ______
                                 

         Responses of Joseph Adam Ereli to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What was the 
impact of your actions?

    Answer. As Public Affairs Officer in Yemen from 1996-1998, I was 
particularly active in promoting democracy and human rights. I provided 
specialists to assist the Supreme Elections Commission prepare for 
Yemen's first multiparty parliamentary election. I helped bring the 
National Democratic Institute (NDI) to Yemen. I worked with the 
Government of Yemen to facilitate the opening of an NDI office there 
and developed programs to strengthen the institutional capabilities of 
the newly-elected Yemeni Parliament. In a precedent-setting initiative, 
I brought Yemeni intelligence and security officers to the embassy's 
English Language Institute and provided them with language training 
that had a heavy human rights and rule of law emphasis. The Assistant 
Secretary for the Bureau of Near Eastern Affairs at the time, Martin 
Indyk, recognized these efforts by awarding me a State Department 
Superior Honor Award.
    As State Department Deputy Spokesman, I aggressively used the 
podium to put America's rhetorical and diplomatic muscle behind 
democratic causes. Perhaps the most dramatic example of this was in 
November 2005, during the Orange Revolution in Ukraine. The regime was 
threatening to annul the results of a democratic election won by the 
opposition. In no small part due to very vocal and public warnings from 
Secretary Powell and the State Department, many of which I authored or 
conveyed, the Government of Ukraine backed off and there was a peaceful 
transfer of power.

    Question. What are the most pressing human rights issues in 
Bahrain? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Bahrain? What do 
you hope to accomplish through these actions?

    Answer. The most pressing human rights issues in Bahrain are 
strengthening democracy, the rule of law, protections against 
trafficking in persons, and support for civil society. Through the 
Middle East Partnership Initiative (MEPI), the United States Embassy in 
Bahrain is funding programs in these fields, which if confirmed, I will 
continue to support and seek to expand.
    In May 2006, the Government of Bahrain expelled the National 
Democratic Institute (NDI) Director in advance of the November 
parliamentary and municipal elections. The resumption of NDI activities 
is among my most immediate priorities, both for the important work that 
the institute has conducted in the country and the symbolic importance 
of NDI's return in terms of demonstrating the United States commitment 
to advancing democracy and human rights in Bahrain.
    Bahrain should take action to protect victims of trafficking in 
persons. It will be my immediate priority, if confirmed, to help the 
government enact--and implement--meaningful legislation that 
criminalizes this practice and provides for effective prosecution of 
those responsible for it. I will focus on this and other actions to 
help Bahrain move forward positively on the question of trafficking in 
persons.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Bahrain in 
advancing human rights and democracy in general?

    Answer. An issue of great sensitivity for Bahrain--and the United 
States--is internal stability and the prospect of sectarian conflict. 
The challenge before all of us is how to promote an inclusive, 
transparent, and participatory democracy in which both citizens and 
government play by the same rules: adherence to the principles of 
freedom of speech and peaceful dissent; tolerance of differences; and 
equality of all before the law. Helping Bahrain's leaders and people 
help to manage these different pressures will, I believe, be our 
greatest challenge.
    The most important thing that America can do to bring about 
positive changes in the human rights practices of other nations is for 
us to live our values and represent those to other countries. Winning 
the hearts and minds of the Bahrainis must include ``diplomacy of 
deeds.'' As the United States takes positive action around the world it 
is important that other countries, like Bahrain, are aware of those 
actions. Likewise, it is important for the United States to take 
concrete steps to improve people's lives. It is important to remember 
that Bahrain is a friend and ally to the United States and that human 
rights and democratic development are neither constant nor linear--
there are setbacks, backsliding, and challenges. Bahrain has 
continually risen to the challenges of human rights promotion and if 
confirmed, I will do my part to support them.

    Question. In your new position, what steps will you take to ensure 
that promotion of human rights objectives will be an integral part of 
post activities? If confirmed, what steps will you take to ensure that 
Foreign Service officers who engage in human rights activities are 
encouraged and professionally rewarded for superior service?

    Answer. I will also engage the Bahrainis in a dialog about human 
rights and what true respect for human rights entails. Highlighting the 
importance of NGO groups will also be a valuable asset in promoting 
respect for human rights in the country. Also, I would encourage 
participation in Human Rights Day (December 10) by hosting activities 
and programs at the embassy.
    I believe that human rights should not be relegated to its own 
section of activities--there should not be a human rights box. Rather, 
I believe that human rights are an integral part of everything else and 
as such they will be incorporated into my discussions on other topics 
and will remain a focal point of my activities. Bahrain is a key post 
for United States efforts in transformational diplomacy and if 
confirmed, I will work to lay the diplomatic foundations necessary to 
foster respect for human rights, equality, and respect for the rule of 
law.
    I will urge the continued support for invaluable human rights and 
democratic reform-related programming, much of which is funded through 
MEPI assistance. Embassy Manama currently supports the following 
programs:

  <bullet> The American Bar Association (ABA) is providing technical 
        assistance to the Bahraini Ministry of Justice, including in 
        the areas of judicial education and training, alternative 
        dispute resolution (ADR), court management and administration, 
        and development of a Bahraini Bar. The ABA also supports 
        programs aimed at reforming Bahraini family law and 
        strengthening networking opportunities for female legal 
        professionals.
  <bullet> The Bahrain Transparency Society (BTS) has undertaken a 
        series of activities focused on assessing and monitoring 
        Bahrain's electoral processes; raising public awareness of 
        electoral transparency; and training election monitors, efforts 
        which will help to encourage both human rights and democratic 
        reform in Bahrain.

    These programs are only a small sample of the extensive and broad 
ranging reform efforts supported by Embassy Manama. If confirmed, I 
will continue to work with these institutions, the Government of 
Bahrain, as well as international and domestic NGO's to support reform 
efforts in Bahrain.
    I have discussed with both the Bureaus of Near Eastern Affairs and 
Democracy Human Rights and Labor the possibility of additional funding 
and staff to expand the level of engagement and programming with 
Bahraini institutions and NGOs in the areas of human rights, 
representative government, and civic education. If confirmed, I will 
establish a Democratization Working Group in which officers from all 
sections of the embassy will have responsibilities for ensuring that 
this work is coordinated and effective. I will work with Department of 
State principals in Washington to ensure that officers engaged in the 
critical task of promoting respect for human rights and freedoms in 
Bahrain receive full credit and professional reward for their important 
work.

    Question. Will you commit to meeting regularly with nongovernmental 
organizations in the United States and in Bahrain who are working to 
promote human rights?

    Answer. Under my leadership, if confirmed, United States Embassy 
Manama will endeavor to strengthen support for democracy and democratic 
institutions within the Kingdom of Bahrain. I will work to support the 
efforts of United States-based NGOs, including the National Democratic 
Institute and American Bar Association, as well as the efforts of 
indigenous civil society organizations dedicated to the advancement of 
human rights and democracy in Bahrain. To support the latter, I will 
direct embassy political and public affairs officers to continue to 
engage with local NGOs. I will also direct them to continue to fully 
access all the means and resources at the embassy's disposal to support 
the efforts of local democracy promoters.
    If confirmed, I plan to begin opening the door to NGO dialog by 
participating in an Ambassador's NGO roundtable set up by the Bureau of 
Democracy Human Rights and Labor. The roundtable will bring together 
several NGO groups to participate in a dialog with me.

 
                              NOMINATIONS

                              ----------                              


                        THURSDAY, JUNE 21, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
English, Charles L., to be Ambassador to Bosnia and Herzegovina
Kennedy, J. Christian, to be Special Envoy for Holocaust Issues
Moore, Roderick W., to be Ambassador to the Republic of 
        Montenegro
Munter, Cameron, to be Ambassador to the Republic of Serbia
Withers, John L., III, to be Ambassador to the Republic of 
        Albania
                              ----------                              

    The committee met, pursuant to notice, at 2:01 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Barack Obama 
presiding.
    Present: Senators Obama, Nelson, and DeMint.

            OPENING STATEMENT OF HON. BARACK OBAMA,
                   U.S. SENATOR FROM ILLINOIS

    Senator Obama. The hearing will come to order. The Foreign 
Relations Committee is convening this confirmation hearing. We 
have Dr. John L. Withers II, to serve as Ambassador to the 
Republic of Albania; Mr. Charles Lewis English, to serve as 
Ambassador to Bosnia and Herzegovina; Dr. Cameron Munter, to 
serve as Ambassador to the Republic of Serbia; Mr. Roderick W. 
Moore, to serve as Ambassador to the Republic of Montenegro; 
and Mr. J. Christian Kennedy, for the rank of Ambassador during 
his tenure as Special Envoy for Holocaust Issues.
    Four of these posts are in Southeast Europe, a region that 
faces a dual challenge. As people of this region reconcile 
themselves with a troubled past, they must now chart a shared 
course toward a better future. If confirmed, these individuals 
will be called upon to build on the best traditions of American 
diplomacy to facilitate these countries' integration into the 
Euroatlantic community.
    With respect to Mr. Kennedy, the crimes he will try to 
rectify are not as recent as the genocide in Srebrenica, but 
the shadows they cast across Europe are every bit as dark. 
Finding justice for victims of the Holocaust remains a moral 
imperative, and I hope Mr. Kennedy will do everything in his 
power to right the wrongs stemming from that unconscionable 
era.
    I'm pleased that the administration has put forward five 
capable career Foreign Service officers to fill these 
positions. I welcome you all, and your families who are also 
with us here today.
    In the interest of time, I'll place my full statement in 
the record.
    [The prepared statement of Senator Obama follows:]

              Prepared Statement of Senator Barack Obama,
                       U.S. Senator From Illinois

    The hearing will come to order.
    The Foreign Relations Committee is convening this confirmation 
hearing on the following nominees:

  <bullet> Dr. John L. Withers II to serve as Ambassador to the 
        Republic of Albania;
  <bullet> Mr. Charles Lewis English to serve as Ambassador to Bosnia 
        and Herzegovina;
  <bullet> Dr. Cameron Munter to serve as Ambassador to the Republic of 
        Serbia;
  <bullet> Mr. Roderick W. Moore to serve as Ambassador to the Republic 
        of Montenegro; and
  <bullet> Mr. J. Christian Kennedy to serve as Special Envoy for 
        Holocaust Issues;

    Four of these posts are in Southeast Europe, a region that faces a 
dual challenge--as the people of this region reconcile themselves with 
a troubled past, they must now chart a shared course toward a better 
future. If confirmed, these individuals will be called upon build on 
the best traditions of American diplomacy to facilitate these 
countries' integration into the Euro-Atlantic community.
    With respect to Mr. Kennedy, the crimes he will try to rectify are 
not as recent as the genocide at Srebrenica, but the shadows they cast 
across Europe are every bit as dark. Finding justice for victims of the 
Holocaust remains a moral imperative, and I hope Mr. Kennedy will do 
everything in his power to right the wrongs stemming from that 
unconscionable era.
    I am pleased that the administration has put forward five capable, 
career Foreign Service officers to fill these positions. I welcome them 
and their families who are also with us here today.
    Let me now address some of the issues that some of the nominees 
will face, if confirmed.
                   special envoy for holocaust issues
    Mr. Kennedy, you have been serving as the Department's Special 
Envoy for Holocaust Issues for some 11 months now, so I know you have 
already been deeply engaged with the issues your office addresses. But 
I am pleased to have you come before the committee for confirmation, 
and I look forward to your testimony.
    As the Holocaust recedes in history, and the generation that 
survived it begins to pass on, it is incumbent on all of us to keep the 
torch of memory lit. But while those brave survivors are still with us, 
we have an obligation to help achieve a small measure of justice for 
them, where details of crimes against them and their families can be 
documented.
    I know you and your predecessors have been actively engaged in 
efforts to seek restitution for unpaid Holocaust-era insurance claims, 
to restore stolen works of art to their rightful owners, and to 
negotiate the settlements of other outstanding claims. I will be 
interested in hearing about these efforts, and also about where we 
stand on gaining access for survivors and researchers to the Bad 
Arolsen archive of Nazi records.
                                albania
    Dr. Withers, as you know, Albania has been an American ally since 
the fall of communism. Albania began working toward NATO membership in 
1993, it supported United States operations in Kosovo in 1999, and it 
has sent troops to both Afghanistan and Iraq.
    The transition from communism to democracy has not been easy for 
Albania. The country went through a terrible economic crisis in 1997, 
followed by a political crisis in 1998. Despite these problems, 
Albanians have managed to put themselves on the right track over the 
last decade. They have reformed their constitution and stabilized their 
economy. Growth is high, inflation is low, and unemployment is 
beginning to edge downward.
    Albania's progress deserves recognition, but more needs to be done. 
Albania is seeking membership in NATO and hopes, along with Croatia and 
Macedonia, to get a clear signal of support for its candidacy at the 
NATO summit in April 2008. Before that happens, however, it must 
consolidate the gains of recent years and stamp out the scourge of 
public and private corruption.
    Dr. Withers, if confirmed, you will be positioned to help shape 
these events, and with them Albania's future for decades to come. I 
will be interested in hearing your views on the United States-Albania 
relationship.
                         bosnia and herzegovina
    Mr. English, it has been almost 12 years since the signing of the 
Dayton Accords and key issues remain unresolved in Bosnia and 
Herzegovina. Differences between the ``Bosniak and Croat Federation of 
Bosnia and Herzegovina'' and the Serbian ``Republika Srpska'' continue 
to diminish the effectiveness of the central government and thwart the 
ambitions of the country as a whole. Failure to engage in 
constitutional reform--and particularly reform of the police services--
has put the process of accession to the European Union on hold. 
Resolving these key issues will be essential if Bosnia is to gain 
membership in NATO and the European Union.
    Despite the proliferation of new challenges around the globe, we 
cannot lose focus on Bosnia and Herzegovina. The European Union is 
planning to close down the office of its High Representative and to end 
the country's status as an international protectorate. If that process 
is managed well, Bosnia could emerge as a powerful example to the 
world--a largely Muslim, multiethnic country that went from civil war 
to European democracy in a single generation. If it fails, Bosnia could 
remain a hostage to the ethnic tensions that hijacked the region in the 
1990s.
    Mr. English, if confirmed, you will face the formidable challenge 
of ensuring robust United States and international engagement in the 
country while helping Bosnians of all ethnicities address the problems 
facing their country. I will be interested in hearing how you will face 
this challenge.
                               montenegro
    Mr. Moore, Montenegro is the latest addition to the family of 
European democracies. Since declaring sovereignty on June 3, 2006, 
Montenegro has worked energetically to make a place for itself in major 
international organizations. It joined the IMF and the World Bank in 
January of this year, and it has set its sights on membership in the 
European Union and NATO as well.
    Despite the country's early achievements, it still faces many of 
the hurdles familiar in new democracies. Montenegro successfully held 
legislative elections last November and yet it still has not agreed on 
a new constitution to replace the one that was drafted in 1992.
    In addition, Montenegro must find a new way to live together with 
Serbia as the two countries finish the process of moving apart. And it 
must also learn to adapt to a final status for Kosovo.
    Mr. Moore, if confirmed, you will participate in the consolidation 
of this new democracy in the Balkans. I will be interested in hearing 
your views on how we can help Montenegro complete this process.
                                 serbia
    Dr. Munter, Serbia has made significant progress since the end of 
Slobodan Milosevic's reign of terror. However, the country is still 
struggling to overcome its troubled past--both as it relates to Kosovo 
and its failure to deliver fugitives to the International Criminal 
Tribunal for the former Yugoslavia in The Hague. United Nations envoy 
Maarti Ahtisaari has offered a path forward on Kosovo. Prompt 
implementation of his recommendations is the best way for Serbia and 
Kosovo to ultimately realize the European future that their people 
deserve. However, Kosovo's independence will be traumatic for Serbia 
and pose a severe challenge for United States relations with the 
country.
    The United States' Ambassador to Serbia will have to nurture 
Serbia's democracy and our countries' bilateral relationship during the 
uncertain times ahead. I look forward to working with you on this 
undertaking and will be interested to hear from you about how you would 
address the challenges facing Serbia.
    With that, I now call on the distinguished ranking member of the 
European Affairs Subcommittee, Senator DeMint, for his opening 
statement.

    Senator Obama. Senator DeMint is not yet here, and so, what 
I'd like to do is to ask all the nominees to begin with their 
opening statement. When Senator DeMint arrives, we may 
interrupt your opening statements to allow him to make his 
statement.
    And if you would like to introduce your families, feel free 
to do so, because we know that they are signing on, as well, 
and should be congratulated and commended for their public 
service.
    My wife did not ask me to write that. [Laughter.]
    That was something I thought of all on my own. [Laughter.]
    Senator Obama. So, what I'd like to do is--let's start with 
Mr. Withers.

 STATEMENT OF DR. JOHN L. WITHERS II, NOMINEE TO BE AMBASSADOR 
                   TO THE REPUBLIC OF ALBANIA

    Dr. Withers. Mr. Chairman, let me begin by introducing my 
mother and my father, Dr. John Withers, Sr., who is soon to 
turn a youthful 91 years old, and my mother, Daisy Withers. My 
wife, who is a Foreign Service officer, is in Slovenia, where 
her duties as deputy chief of mission have kept her.
    Mr. Chairman, members of the committee, I'm privileged to 
be here today. I appreciate President Bush's and Secretary 
Rice's confidence in supporting me as their nominee as the next 
Ambassador to Albania. Should you confirm my nomination, I will 
do my utmost to advance our Nation's goals and to represent our 
country well. I also promise to work closely with this 
committee, its staff, and your congressional colleagues in 
pursuing our common objectives.
    Albania, Mr. Chairman, is a country determined to better 
itself. As President Bush, the first President of the United 
States to visit Albania while in office, said in Tirana 10 days 
ago, ``The Albanians are working hard to establish the 
institutions necessary for a democracy to survive.''
    Today, the United States and Albania are partners on the 
major issues of our time. Today, Albanian soldiers stand side 
by side with Americans in Iraq and Afghanistan and in the 
European Union stabilization force in Bosnia. Albania plays a 
positive leadership role on Kosovo and fully supports the 
Ahtisaari plan for Kosovo.
    Albania's cooperation with the United States on 
counterterrorism is second to none. It is the only country to 
date that has accepted Guantanamo detainees from third-world 
countries. Albania has also made steady progress in combating 
crime, trafficking, and corruption, although there is more work 
to be done in these areas. I am pleased to say that the United 
States sponsors programs aimed at assisting Albania in these 
areas.
    Albania now needs to extend these successes to its domestic 
political program. Although this young democracy has made 
important strides, its leaders and political parties must 
demonstrate maturity in the interest of their society, as a 
whole. This summer's presidential election by the parliament 
will provide Albania with an early opportunity to show that 
electoral reform is alive and well.
    Mr. Chairman, if confirmed, my first and foremost priority 
as Ambassador will be promoting United States interests in 
Albania while maintaining a solid partnership with the host 
country. I will support and work with the Albanian Government 
as it pursues its goals of NATO membership and a Balkans free 
and at peace.
    I will encourage our thriving development programs which 
seek to assist Albania toward a vibrant market economy. I will 
focus on increasing trade between the United States and 
Albania, and on assisting American companies interested in 
investing in, and bringing international commerce to this long 
isolated Balkan country.
    I promise to manage our Embassy responsibly, and, if 
confirmed, Mr. Chairman, I look forward to working closely with 
you, the members of the committee, and your congressional 
colleagues to make a difference in this vital region of the 
world.
    Thank you.
    [The prepared statement of Dr. Withers follows:]

      Prepared Statement of Dr. John L. Withers II, Nominee to be 
                 Ambassador to the Republic of Albania

    Mr. Chairman and members of the committee, I am privileged to 
appear before you today. President Bush has honored me as his nominee 
to be our country's next Ambassador to the Republic of Albania. I 
appreciate his and Secretary Rice's confidence in supporting me for 
this assignment, and hope to gain yours as you consider me for this 
important position. Should you see fit to confirm my nomination, I 
promise to validate your trust by doing my utmost to advance our 
Nation's goals in Albania and in the Balkans, and to represent our 
country well. I also promise to work closely with this committee, its 
staff, and your Congressional colleagues in pursuing our common 
objectives.
    Mr. Chairman, I am accompanied today by my parents, John and Daisy 
Withers, and by my dear friends and mentors, Ambassador Johnny and 
Angie Young. I am literally a child of the Foreign Service. My father, 
who will soon turn a youthful 91 years of age, made his career in the 
Foreign Service. My wife, Maryruth Coleman, whose duties as Deputy 
Chief of Mission at our Embassy in Slovenia keep her from being here 
today, and I have been diplomats for some 20 years. Mine was an 
upbringing in places as diverse as Laos, Ethiopia, Korea, and India, 
and a professional career in the Netherlands, Nigeria, Latvia, and 
Russia. No one knows better than I the vital work that our Nation does 
abroad nor has witnessed more closely the contributions that America 
makes to the world.
    Albania, Mr. Chairman, is a country determined to better itself. 
Despite decades of repression under the most tyrannical of 
dictatorships and the years of instability that ensued, the Albanian 
people strive to bring a bright future from a dark past. They, better 
than most of us, understand the value of the democracy, economic 
prosperity, and rule of law so long denied them. They, more than most, 
know the need for peace in a region so often beset by conflict. They, 
after so many years of enforced isolation, uniquely appreciate the 
importance of integrating their country and their region into the 
broader European and transatlantic communities. And they are, as 
President Bush, the first American President of the United States to 
visit Albania while in office, said in Tirana 10 days ago, ``working 
hard to establish the institutions necessary for a democracy to 
survive.''
    Today, the United States and Albania are partners on the major 
issues of our times. Today, Albanian soldiers stand side-by-side with 
Americans in Iraq and Afghanistan, and in the international European 
Union Force's (EUFOR) stabilization force in Bosnia. As Kosovo's long-
awaited final status determination approaches, Albania continues to 
play a positive leadership role by urging calm and restraint among the 
parties involved. The Government of Albania expressed immediate and 
full support for U.N. Commissioner Martti Ahtisaari's peace plan for 
Kosovo.
    Albania's cooperation with the United States on counterterrorism is 
second to none. The government has moved quickly to freeze terrorist 
assets and has been vigilant in monitoring foreign attempts to 
radicalize its domestic Muslim population. Albania must also be 
commended for granting political asylum in May 2006 to five ethnic 
Uighurs previously held at Guantanamo Bay and for admitting three 
additional detainees last fall. Albania is the only country, to date, 
that has accepted Guantanamo detainees from third countries.
    Albania has also made steady progress in combating organized crime, 
trafficking, and corruption. There is more to be done and these issues 
remain the country's most serious obstacles to economic and democratic 
development, but it is satisfying to note the recent progress. Albania 
has reduced cross-border crime through joint border monitoring programs 
with neighboring states, passed key legislation on witness protection 
and criminal asset seizure, mandated asset disclosure by government 
officials, and implemented the use of special investigative techniques 
in pursuing organized crime and corruption. I am pleased to say that 
the United States sponsors multiple programs aimed at assisting Albania 
in the struggle against crime and corruption that have helped bring 
Albania closer to fulfilling its Euro-Atlantic aspirations.
    Albania now needs to extend its successes in these areas--successes 
built on patient negotiation and open dialog--to its domestic political 
system. Although this young democracy has made important strides in 
establishing representative government, the lack of clear, consensus-
based rules and procedures for voting means its democratic institutions 
are not as robust as they should be. Albania's leaders and its 
political parties must all work together on this issue and demonstrate 
the maturity needed for the interest of their society as a whole. This 
summer's Presidential election by the Parliament will provide Albania 
with an early opportunity to show that electoral reform is alive and 
well.
    Mr. Chairman, the United States is committed to helping Albanians 
achieve the democracy, free market economy, and rule of law they so 
desire. Although Albania enjoys economic stability characterized by 
healthy growth, low inflation, and a budget deficit well within targets 
set by government and international institutions. It is still one of 
the poorest countries in Europe. Endemic corruption, a weak 
infrastructure, high business registration costs, and an unstable legal 
environment are serious deterrents to foreign and domestic investment. 
It is an encouraging sign that United States investment has recently 
increased in response to Albania's efforts to improve its business 
climate. Bechtel's $550 million highway project and Lockheed Martin's 
multimillion dollar coastal surveillance system are both positive 
examples of increased U.S. business engagement--a trend I hope to 
foster, if confirmed to this position.
    Mr. Chairman, if confirmed, my first and foremost priority as 
ambassador will be promoting United States interests in Albania while 
maintaining a solid partnership with the host country. I will strongly 
encourage the Albanian Government to continue its support of 
international efforts in Iraq, Afghanistan, and Bosnia, and persist in 
its good work in combating terrorism abroad and in countering extremism 
within its borders. I will continue our efforts to promote democracy 
and the rule of law in Albania, and work closely with the Albanian 
Government to sustain progress in the democratic institution building, 
electoral and judicial reforms, and anticorruption and antitrafficking 
programs that are so critical to the country's future. There would be 
no better way to demonstrate commitment to these changes than through 
several high profile apolitical arrests for crime and corruption. I 
will also encourage Albanian leaders to uphold freedom of speech for 
both an independent media and individual citizens, and to welcome the 
open exchange of ideas as a crucial component of democratic discourse. 
And I will maintain open lines of communication with all key political 
actors to encourage dialog and consensus in the name of doing what is 
right for the people of Albania as the hallmark of a mature democracy.
    If confirmed, I will support and work with the Albanian Government 
as it pursues its goal of NATO membership. Together, we will do all we 
can to help Albania be the best candidate it can be. Together, we must 
also work toward our shared goal of a Balkans free and at peace. I will 
encourage our thriving development programs which seek to assist 
Albania as it moves further away from the burdens of poverty and closer 
toward a vibrant market economy through the creation of sustainable 
economic growth. I will focus on increasing trade between the United 
States and Albania and on assisting American companies interested in 
investing in, and bringing international commerce to, this long-
isolated Balkan country.
    As Albania develops politically and economically, our embassy must 
also develop to meet changing circumstances. I promise to manage our 
Mission responsibly, focusing on the innovation, security, and enhanced 
quality of life necessary to attract a talented workforce and meet the 
needs of families who choose to serve in this rapidly transforming 
nation.
    In sum, Mr. Chairman, should my nomination be confirmed, I will do 
my utmost to maintain the distinguished record of service of the men 
and women who have held this position before me, especially my 
predecessor, Ambassador Marcie Ries, who contributed so outstandingly 
to bettering American-Albanian relations. I look forward to working 
closely with you, the members of the committee, and your Congressional 
colleagues to make a difference in this vital region of the world.

    Senator Obama. Thank you very much, Doctor.
    Mr. English.

 STATEMENT OF CHARLES L. ENGLISH, NOMINEE TO BE AMBASSADOR TO 
                     BOSNIA AND HERZEGOVINA

    Mr. English. Thank you very much, Mr. Chairman.
    May I also begin by introducing my wife, Patti Espey-
English, and my daughter, Catie. My son, Matt, unfortunately, 
was unable to be with us today. And I just want to thank them 
for all the help and support they've provided throughout my 
career.
    Mr. Chairman, I am very honored to be before you today as 
President Bush's nominee to be U.S. Ambassador to Bosnia and 
Herzegovina. I am deeply grateful for the trust and confidence 
that the President and Secretary Rice have placed in me. And, 
if confirmed, I will look forward to a close working 
relationship with this committee and with all of your 
colleagues in Congress to advance United States interests in 
Bosnia and Herzegovina.
    If you will allow, Mr. Chairman, I will summarize my 
statement and submit a full written version for the record.
    Just to note, Bosnia and Herzegovina has now been at peace 
for over a decade. Twelve years ago, some 60,000 NATO troops, 
including 20,000 Americans, deployed to secure the peace, and 
now fewer than 5,000 European Union troops remain. The Dayton 
Peace Accords are now nearly completely implemented, and 
enormous progress has been made. However, much more must be 
done before Bosnia and Herzegovina enjoys lasting stability.
    Broad reforms, including constitutional reform, will be 
needed for the country to advance toward Euroatlantic 
integration. Ratko Mladic and Radovan Karadzic, the architects 
of the genocide at Srebrenica, remain at large. They and the 
two other remaining fugitives from the International Criminal 
Tribunal for the former Yugoslavia must face justice.
    Unfortunately, and despite the urgent need for progress, 
Bosnian politics remains somewhat backward-looking, blocking 
consensus on critical issues, such as police reform, and 
preventing the conclusion of an--European Union Stabilization 
and Association Agreement. Our critical challenge lies in 
convincing Bosnia and Herzegovina's leaders to show leadership 
through compromise.
    Mr. Chairman, to conclude, if I am confirmed by the Senate, 
my highest priority will be furthering the values, goals, and 
security of the United States and its citizens. If confirmed, I 
will work in partnership with the leaders of Bosnia and 
Herzegovina to counter extremism and terrorism.
    If confirmed, I will promote the reforms Bosnia and 
Herzegovina needs to become a full member of the Euroatlantic 
family.
    Thank you, Mr. Chairman. I'm grateful for the opportunity 
to appear here today, and I await your questions, later.
    Thank you.
    [The prepared statement of Mr. English follows:]

        Prepared Statement of Charles L. English, Nominee to be 
                  Ambassador to Bosnia and Herzegovina

    Mr. Chairman and members of the committee, I am honored to be 
before you today as President Bush's nominee to be United States 
Ambassador to Bosnia and Herzegovina. I am deeply grateful for the 
trust and confidence that the President and Secretary Rice have placed 
in me, and if confirmed by the Senate, I will endeavor to serve my 
country with honor and dignity. If confirmed, I will look forward to a 
close working relationship with this committee and with all of your 
colleagues in Congress to advance United States' interests in Bosnia 
and Herzegovina and throughout Southeastern Europe.
    Mr. Chairman, my wife, Patti Espey-English, is here with me today. 
She has been a great source of support and strength for me throughout 
my career, and I would like to take the opportunity to acknowledge that 
fact here and to thank her for it. My children--Catie, who is here, and 
Matt, who could not be--have handled Foreign Service life with grace 
and humor and I would like to thank them also.
    Mr. Chairman, throughout the course of my career at the State 
Department, I have had numerous opportunities to further the values of 
the United States. Much of my work for the past 15 years has been 
focused on the Balkans and neighboring countries. I believe my 
experiences are relevant to the responsibilities I seek to assume in 
Bosnia and Herzegovina, if confirmed by the Senate. I served as 
Director of the State Department's Balkans office--the Office of South 
Central European Affairs--and as Deputy Chief of Mission in our Embassy 
in Zagreb, Croatia. In my various roles I have helped broker dialog 
between Serbian and Albanian leaders in Kosovo, in an effort to find 
compromise and avoid conflict there; pressed Balkan leaders to 
surrender indicted war criminals to the International Criminal Tribunal 
for the former Yugoslavia (ICTY); and worked with officials in the 
region to help refugees displaced by its wars return to their homes. As 
Counselor for Economic Affairs at our Embassy in Budapest in the early 
1990s, I aided successive post-Communist governments in Hungary in 
their efforts to privatize state-owned assets and advance reforms 
toward a market economy. I believe these efforts have prepared me to 
address, if confirmed, serious challenges still to be met in Bosnia and 
Herzegovina.
    Bosnia and Herzegovina has now been at peace for over a decade. The 
Dayton Peace Accords that ended the brutal 1992-1995 war are nearly 
completely implemented. The international community, under strong 
leadership from the United States, has helped the people of Bosnia and 
Herzegovina rebuild their institutions, infrastructure, economy, and 
society. Enormous progress has been made. Today Bosnia and Herzegovina 
protects its borders, fights terrorism, and combats domestic and 
transnational crime. Soldiers who fought each other 12 years ago now 
wear the same uniform, serve under the same flag, and report to a 
single Minister of Defense. This country that was once a threat to 
international stability is now a contributor to global security, with a 
multiethnic Explosive Ordinance Disposal unit serving with distinction 
alongside United States forces in Iraq. While just over a decade 
earlier NATO intervened to halt a brutal conflict, last November, NATO 
offered Bosnia and Herzegovina membership in Partnership for Peace, a 
first step toward Bosnia and Herzegovina's goal of achieving full 
membership in the Alliance.
    These reforms are the result of dedicated Bosnians of all 
ethnicities working to change their society with the support of the 
international community. In the dozen years since Dayton, much has been 
accomplished that, at the time, would have seemed impossible. However, 
much more must be done before Bosnia and Herzegovina enjoys lasting 
stability. Broad reforms, including constitutional reform, will be 
needed for the country to advance further towards Euro-Atlantic 
integration. Bosnia and Herzegovina need to make new efforts to combat 
high levels of joblessness, to reduce corruption, and to ensure that 
state institutions are fully staffed and functioning in a depoliticized 
and professional manner.
    Unfortunately, the legacies of war that remain embedded in the 
Bosnia and Herzegovina psychological landscape still must be addressed. 
Ratko Mladic and Radovan Karadzic, the two architects of the genocide 
at Srebrenica, remain at large. They and the two other remaining 
fugitives from the ICTY must face justice so that the people of 
Southeast Europe can truly put the past behind them.
    Despite the urgent need for reform and progress, Bosnian politics 
remains mired in the past. Zero-sum ethnic nationalism is the norm. 
Inflammatory rhetoric characterized the October 2006 Parliamentary 
election campaign and has yet to dissipate even now, some 9 months 
later, blocking consensus on urgent issues such as police reform and 
preventing the conclusion of an European Union Stabilization and 
Association Agreement. Our critical challenge lies in convincing Bosnia 
and Herzegovina's leaders to show leadership through compromise and 
coalition-building, rather than pursuing ethnic advantage through 
polemics and prejudice.
    The United States has invested great amounts of human, financial, 
and institutional resources to help rebuild and transform Bosnia and 
Herzegovina. We have seen dividends from those efforts. Twelve years 
after 60,000 NATO troops--including 20,000 Americans--deployed to 
secure the peace, fewer than 5,000 European Union troops remain. The 
international civilian presence also continues to evolve. The Office of 
the High Representative has downsized and is focused on concluding its 
core tasks of implementing Dayton. We hope to be in a position to 
return full sovereignty to the Bosnians by the summer of 2008 and 
replace the Office of the High Representative with a customary European 
Union mission to guide Bosnia and Herzegovina through the European 
Union integration process.
    Mr. Chairman, if confirmed, my highest priority will be furthering 
the values, goals, and security of the United States and its citizens, 
including all American personnel assigned in Bosnia and Herzegovina as 
well as private American citizens living, traveling, and doing business 
there. If confirmed, I will work in partnership with the leaders of 
Bosnia and Herzegovina to counter extremism and terrorism. If 
confirmed, I will guide the transformation of the international 
presence, while promoting the reforms Bosnia and Herzegovina need to 
fully transition to a stable, productive member of the Euro-Atlantic 
family of nations.
    Mr. Chairman, I am grateful for the opportunity to appear before 
this committee today. I look forward to answering your questions.
    Thank you.

    Senator Obama. Thank you, Mr. English.
    Mr. Kennedy.

  STATEMENT OF J. CHRISTIAN KENNEDY, NOMINEE FOR THE RANK OF 
  AMBASSADOR DURING HIS TENURE AS SPECIAL ENVOY FOR HOLOCAUST 
                             ISSUES

    Mr. Kennedy. Thank you very much, Mr. Chairman.
    Let me begin by introducing my wife, Luz Marina, who 
accompanies me today. Our three children could not be with us. 
Two of them are overseas, and one of them is not in town.
    Mr. Chairman, it is an honor to appear before you on behalf 
of my nomination for the rank of ambassador. I am very grateful 
to President Bush and Secretary Rice for nominating me for this 
title while I am serving as Special Envoy for Holocaust Issues.
    If the Senate confirms me for this rank, I will be better 
armed to pursue the objectives that our two branches of 
government and the American people care so deeply about: To 
help right past wrongs, to bring a measure of dignified justice 
to Holocaust survivors, and making sure that the world 
remembers the lessons of the Holocaust.
    My own professional contact with Holocaust issues began 
while I was consul general in the city of Poznan, Poland, 
shortly after the fall of the Berlin Wall. Since starting in 
August of this year, I have been, several times, to Poland 
again, as well as France, Germany, Austria, Slovenia, and 
Romania, all with the objective of pursuing property 
compensation or property restitution for Holocaust victims and 
their heirs.
    Financial restitution has also been a very important 
component of our work. We are in the process right now of 
transitioning the German Slave and Forced Labor Foundation, 
which has paid out nearly 5 billion euros to 1,600,000 victims, 
to a foundation that will focus on Holocaust remembrance and on 
tolerance education.
    Education is another major focus of our office. I am the 
delegate to the International Task Force on Holocaust 
Education, a 24-nation international organization that supports 
NGOs, universities, teachers, and academics.
    Remembrance is also one of the reasons why we have worked 
so hard on gaining greater access to archives for Holocaust 
survivors, and, to that end, we are in the process now of 
helping bring an electronic copy of the Holocaust archives at 
Bad Arolsen, Germany, to the Holocaust Museum. That is about 50 
million pages of documentation.
    In pursuing these goals of compensation, restitution, 
education, and remembrance as Special Envoy for Holocaust 
Issues, the rank of Ambassador will be especially valuable, if 
I am confirmed.
    In closing, I want to thank the members of the Senate 
Foreign Relations Committee for considering me for this unique 
position and high honor. If confirmed, I will continue to work 
diligently on helping Holocaust survivors and their families 
obtain the support and assistance they deserve.
    Thank you for this opportunity to describe my background 
and review, briefly, the work that I have been doing and the 
challenges that lie ahead. I look forward to your questions.
    Thank you, sir.
    [The prepared statement of Mr. Kennedy follows:]

  Prepared Statement of J. Christian Kennedy, Nominee for the Rank of 
   Ambassador During His Tenure as Special Envoy for Holocaust Issues

    Good afternoon, Mr. Chairman, members of the committee, ladies and 
gentlemen. It is an honor to appear before you on behalf of my 
nomination for the rank of Ambassador. I am very grateful to President 
Bush and Secretary Rice for nominating me for this title while serving 
as Special Envoy for Holocaust Issues. If the Senate confirms me for 
this rank, I will be better armed to continue to pursue the objectives 
that our two branches of Government and the American people share: To 
help right past wrongs, to bring a measure of dignified justice to 
Holocaust survivors and their families, and to making sure that we and 
the international community remember the lessons of the Holocaust.
    My own professional contact with Holocaust issues began while I was 
consul general in the city of Poznan, Poland, from 1990 to 1994, a tour 
that everyone in my family still looks back on with nostalgic fondness.
    My wife, Luz Marina, had learned Polish with me, and using this new 
language and her own great people skills, she helped establish two NGOs 
in Poznan. She's always created a positive legacy for the United States 
in each country where we have served during a 27-year career in the 
United States Foreign Service. Be that assignment in Poland or Mexico 
or Panama. Our three children, Mary Kathryn, Veronica, and Jack all 
attended different schools in Poznan. I thank all my family, and 
especially Luz Marina, for the support and love they've given me 
throughout these years.
    My father, Jack, was the Chairman of the Political Science 
Department at the University of Notre Dame for several years and taught 
there most of his professional life. From him I learned early on that a 
fascinating and complex world lay not just within the United States but 
also beyond our borders. My mother, Carol, taught me fairness is vital 
in human relations, and I learned from her enormous practicality about 
the need to get things done.
    Let me touch again on Poland where my prior experience has served 
me well in this assignment. Since starting in August 2006 as the 
Special Envoy for Holocaust Issues, I have traveled to Poland several 
times to meet with members of the parliament and government officials 
to urge that they take action on a draft private property compensation 
bill.
    Generally, a key focus of my office is encouraging foreign 
governments to return in kind or pay compensation for private property 
taken by the Nazis and their collaborators. In this regard, I have also 
worked with officials in France, Germany, Austria, Slovenia, Croatia, 
and Romania to push for concrete solutions for survivors and heirs. 
Besides real estate holdings, art looted during World War II has become 
a more frequent topic in Holocaust-era restitution. On this theme, I 
recently addressed an international gathering of experts and government 
officials in Potsdam, Germany.
    Financial property restitution has been another important focus for 
my colleagues and me. The German Foundation for Forced and Slave Labor 
has paid out nearly 5 billion euros to about 1.6 million victims of 
these heinous practices. As a member of this foundation's board of 
trustees, I look forward to working with my foreign counterparts and 
American NGOs on developing the structure of its successor 
organization. The new foundation, the Future Fund, will work in the 
areas of Holocaust remembrance and tolerance education.
    Education is another major focus of my office. I am the U.S. 
delegate to the Task Force for International Cooperation on Holocaust 
Education, Remembrance and Research. This international organization of 
24 countries provides a far-reaching platform for academics, 
researchers, teachers, and NGOs that work in making sure that the 
Holocaust is remembered and that it is taught in schools and 
universities throughout the world. Founded in 1998 by the United 
States, the U.K., and Sweden, it continues growing. Six new countries 
are in various stages of membership. Like my work on the United States 
Holocaust Memorial Museum Council, the Task Force provides a clear 
example of our country's commitment to honoring victims and survivors 
of this terrifyingly grim chapter in human history and to ensuring that 
its lessons are never forgotten.
    Remembrance has also driven the United States' leadership in making 
the archives of the International Tracing Service (ITS) more accessible 
to Holocaust survivors and heirs of victims. At the ITS International 
Council meeting in May, the 11 member states agreed to make an advance 
electronic copy available of the collection for countries that need to 
harmonize their national repository's computer system with the ITS 
data--in our case the U.S. Holocaust Memorial Museum. This will be the 
first time that ITS's archival data will be available outside of 
Germany, and we will continue to encourage the two countries that must 
still approve the provisions for greater accessibility to data for 
survivors.
    In pursuing these goals of compensation, restitution, education, 
and remembrance as Special Envoy for Holocaust Issues, the rank of 
Ambassador will be especially valuable, if I am confirmed. The rank 
would underscore clearly the importance that the U.S. Government and 
the American people place on acknowledging the horrors of the Holocaust 
and the respect and dignity owed to its survivors.
    In closing I want to thank the members of the Senate Foreign 
Relations Committee for considering me for this unique position and 
high honor. If confirmed, I will work diligently on helping Holocaust 
survivors and their families obtain the support and assistance they 
deserve. I will also strive to promote the study and understanding of 
the tragedy of the Holocaust and its bitter lessons.
    Thank you for the opportunity to explain my background and review 
briefly the work that I have been doing and the challenges that lie 
ahead. I look forward to your questions.

    Senator Obama. Thank you.
    Dr. Munter.

 STATEMENT OF DR. CAMERON MUNTER, NOMINEE TO BE AMBASSADOR TO 
                     THE REPUBLIC OF SERBIA

    Dr. Munter. Thank you.
    Please allow me to introduce my wife, Marilyn Wyatt, who's 
here behind me, my son, Daniel, my daughter, Anna. Anna and 
Marilyn will, if I am confirmed, accompany me to Belgrade.
    Mr. Chairman, I greatly appreciate the honor--the 
opportunity to appear before you as the President's nominee to 
be America's next Ambassador to Serbia. I'm honored that 
President Bush and Secretary Rice have expressed their 
confidence in me. And, if confirmed, I pledge to consult 
closely with this committee, with other Members of Congress, on 
the President's foreign policy agenda or Serbia and for the 
entire Balkans region.
    I, too, will summarize my statement for the record.
    My top priority, if confirmed, will be to protect the 
security and interests of the United States and its citizens, 
including all Americans in Serbia. I also look forward to 
working with the democratic government of the people--and the 
people of Serbia as they seek to overcome the difficulties of 
their recent history and complete their integration into a 
Europe, whole and free.
    Serbia has continued its progress away from the disasters 
of the Milosevic era. It is now led by a democratic coalition. 
Small ethnic populations have been accorded full representative 
status in parliament. Serbia's military services continue their 
positive reforms. Serbia's economy continues to grow at a 
healthy rate, and reforms underpin our efforts to bring 
stability and prosperity to the region.
    Successive governments in Belgrade have apprehended and 
transferred many war crimes indictees to The Hague, including 
facilitating, in recent weeks, two major arrests. Four ICTY 
indictees remain at large, including Ratko Mladic and Radovan 
Karadzic, so Serbia's work is not done on this key issue.
    Indeed, our own role in supporting and promoting a 
democratic transition in Serbia is far from complete. More 
needs to be done eliminating corruption, ensuring that 
privatization continues apace with transparent rules and no 
undue political interference. Our assistance efforts focus on 
these and other crucial tasks.
    Of course, the imminent resolution of Kosovo's status 
remains a great challenge, but we and our friends will face it. 
Kosovo's independence will bring stability to Serbia and to the 
region.
    American interests in Serbia are clear. We want a strong 
Serbia as our friend, working with us on a common agenda, 
integrated into the institutions of the West. The challenges 
for U.S. policy are equally apparent. We want to offer our 
friends in Serbia hope for a better future while expressing our 
expectations very clearly and very firmly. I look forward to 
these challenges and to serving American interests and American 
values if you confirm me.
    Thank you, again, for allowing me to appear in front of 
this committee, and I, also, look forward to your questions.
    [The prepared statement of Dr. Munter follows:]

        Prepared Statement of Dr. Cameron Munter, Nominee to be 
                  Ambassador to the Republic of Serbia

    Mr. Chairman and members of the committee, I greatly appreciate the 
opportunity to appear before you today on behalf of my nomination by 
the President to be our country's next Ambassador to Serbia. I am 
honored by President Bush's and Secretary Rice's expression of 
confidence. If confirmed, I look forward to consulting closely with 
this committee and other Members of Congress on the President's foreign 
policy agenda for Serbia and the entire Balkans region.
    Mr. Chairman and members, I believe that two decades in our 
country's diplomatic service have prepared me and my wife, Marilyn, for 
this challenge. Marilyn, our daughter Anna, and our son Daniel are here 
today to continue in what has been a family affair in the Foreign 
Service. My top priority, if confirmed, will be to protect the security 
and interests of the United States and our citizens, including all 
Americans in Serbia. I also look forward to working with the democratic 
government and the people of Serbia as they seek to overcome the 
difficulties of their recent history and complete their integration 
into a Europe whole and free.
    Since this committee presided over the nomination of my predecessor 
over 3 years ago, Serbia has continued its progress away from the 
disasters of the Milosevic era and toward integration with Euro-
Atlantic institutions. Having conducted free and fair Presidential 
elections in 2004 and Parliamentary elections in 2007, Serbia is now 
led by a new democratic coalition. Small, ethnic populations have been 
accorded full representative status in parliament and share in the 
balance of power Serbia has normalized diplomatic relations with its 
neighbors, exchanging high-level visits and pursuing regional trade 
liberalization. When faced with the separation of Montenegro from the 
State Union of Serbia and Montenegro last year, Serbia avoided the 
mistakes of the past and, along with the rest of the international 
community, welcomed Montenegro's return to independence. Serbia's 
military services continue apace with positive reforms, making notable 
progress in modernization, transparency, and civilian control that will 
help it move forward in NATO's Partnership for Peace.
    Serbia's economy continues to grow at a healthy rate. Continued 
economic reform is a top priority of the new government. Fostering a 
business environment that
creates jobs and encourages the growth of small and medium enterprises 
is key to addressing public dissatisfaction with the economy. 
Privatizations and institutional reforms have led to increases in 
foreign investment, bringing more jobs to Serbia, underpinning our 
efforts to bring stability and prosperity to the region. In the private 
sector, the United States is currently the second largest foreign 
investor in Serbia.
    Cooperation on war crimes continued over the last 3 years, albeit 
in short bursts. Successive governments in Belgrade have apprehended 
and transferred 17 war crimes indictees to The Hague. This includes 
facilitating the arrest 3 weeks ago of Zdravko Tolimir, a close 
associate of Ratko Mladic, and Sunday's arrest, in Montenegro, of 
Vlastimir Djordjevic, wanted not only by the Hague Tribunal but by 
Serbian courts on charges stemming from the execution of three 
Albanian-Americans in 1999. Due in part to a recent positive trend in 
ICTY cooperation, the European Union last week restarted negotiations 
with Serbia over its Stabilization and Association Agreement--a 
necessary step before beginning talks to join the European Union. Four 
ICTY indictees remain at large, including Mladic and Radovan Karadzic, 
so Serbia's work is not done on this issue.
    The United States plays a crucial role in Serbia in supporting and 
promoting a democratic transition, which is far from complete. 
Unreformed nationalist parties continue to wield considerable influence 
in the Parliament and regularly block needed reforms. The new 
constitution brings with it an ambitious legislative agenda that will 
be key in defining democratic standards and the rights of Serbia's 
citizens. More needs to be done in eliminating corruption and ensuring 
that privatization continues apace with transparent rules with and no 
undue political interference. The media, while generally free and 
independent, are overly sensationalist and often at the service of 
anti-reform interests who confuse and distort public debate. In short, 
serious challenges remain--the imminent resolution of Kosovo's status 
foremost among them, and finding durable solutions for refugees and 
internally displaced persons not the least of them. Many Serbs feel 
that, having overthrown Milosevic in 2000, they should not now be 
penalized for the mistakes of his rule. Independence for Kosovo, with 
its deep historical, cultural, and religious significance to Serbia--
and as a reminder of the bloody, painful disintegration of Yugoslavia--
will lead some Serbs to challenge all other aspects of our bilateral 
relationship as well as Serbia's relations with its neighbors and the 
rest of Europe.
    While understandable, such emotional responses serve no one, least 
of all the people of Serbia. In the end, the country will only be ready 
for integration into the community of democracies when it comes to 
terms with the unfortunate legacies of its past. When it comes to war 
criminals and even Kosovo, much of the population is more forward-
looking than public statements from Belgrade would indicate. I am 
optimistic that the decency and drive of the Serbian people, which have 
characterized our relations as friends and allies for 125 years, will 
prevail in the end; and that Serbia will indeed turn the corner and 
again look toward Europe.
    By fully and forthrightly dealing with the past, not only by 
ensuring justice to the victims of misguided nationalism, but also by 
providing recognition to all those in Serbia who struggled to bring 
freedom, democracy, and humanity to their country, Serbia can realize 
its historic role as a regional leader and constructive member of the 
Euro-Atlantic community.
    Mr. Chairman, members of the committee, American interests in 
Serbia are clear: We want a strong Serbia as our friend, working with 
us on a common agenda, integrated into the institutions of the West. 
The challenges for United States policy are equally apparent: Offering 
our friends in Serbia hope for a better future while expressing our 
expectations clearly and firmly. I look forward to these challenges, 
and to serving American interests and American values, if you confirm 
me.
    Thank you again for allowing me to appear before this committee 
today. I look forward to answering your questions.

    Senator Obama. Mr. Moore.

STATEMENT OF RODERICK W. MOORE, NOMINEE TO BE AMBASSADOR TO THE 
                     REPUBLIC OF MONTENEGRO

    Mr. Moore. Mr. Chairman, Senator, I, also, will provide a 
brief oral summary of the written statement which I've 
submitted for the record.
    I, also, am very honored to appear today before you as the 
President's nominee to be the first American Ambassador to the 
Republic of Montenegro, the world's newest independent state.
    Mr. Chairman, Senator, since its declaration of 
independence last year, Montenegro has already quickly 
established itself as a solid friend and partner of the United 
States. If I am confirmed, it would be a great honor to work 
with the talented team at our new Embassy in Podgorica to 
strengthen this partnership further.
    Mr. Chairman, it is in our national interest to maintain a 
vigorous partnership with Montenegro. Having navigated its way 
peacefully to independence, Montenegro has emerged onto the 
world stage as a dynamic democracy committed to the values we 
share with our Euroatlantic allies.
    Moreover, although it is small in size, Montenegro can play 
an outsized role in partnership with us on the global arena, 
including in the war on terror and as a potential member of 
NATO and the European Union.
    A prosperous and democratic Montenegro will also be a key 
ally in strengthening stability in historically unsettled 
Balkans, our top priority in this region. In this direction, 
Montenegro has committed itself to political and economic 
reform. It is zealously pursuing Euroatlantic integration and 
is building increasingly strong relationships with its 
neighbors. Montenegro is witnessing strong economic growth and 
a boom in tourism and real estate along its beautiful Adriatic 
Coast.
    Nevertheless, many challenges do lie ahead for Montenegro. 
Like other transition countries, its youthful democratic 
institutions are still fragile. Montenegro can do more to 
cement the rule of law and to fight corruption and organized 
crime. Montenegro could do more to accelerate broad based 
economic development and attract more American and other 
foreign investors.
    Although its ethnic groups peacefully coexist, Montenegro 
could do even more to become a model for multicultural harmony 
in a region too frequently divided along ethnic fault lines.
    Mr. Chairman, I am convinced that Montenegro's rich 
history, demonstrated friendship toward the United States, 
commitment to reform, and keen determination to integrate fully 
into the Euroatlantic community offer fertile ground for 
cultivating a strong bilateral relationship through successful 
transformational diplomacy. We have a tremendous opportunity at 
this early stage to root into this ground a strong friendship 
between the peoples of our two countries, a friendship that 
will bear fruit for many decades to come.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Moore follows:]

        Prepared Statement of Roderick W. Moore, Nominee to be 
                Ambassador to the Republic of Montenegro

    Mr. Chairman and members of the committee, I appreciate the 
opportunity to appear before you today on the occasion of my nomination 
by the President to be our country's first Ambassador to the Republic 
of Montenegro, the world's newest independent country.
    Mr. Chairman, since its declaration of independence last year, 
Montenegro has already quickly established itself as a solid friend and 
partner of the United States. If I am confirmed, it would be a great 
honor for me to work with the talented team at our Embassy in Podgorica 
to strengthen this partnership further. Having worked for over 15 years 
of my 20-year diplomatic career on issues related to Southeast Europe, 
I believe I could bring a wealth of relevant experience and energy to 
this task. In recent years, I have also had the opportunity to work 
extensively on issues directly involving Montenegro. Following my 
arrival in January 2004 as Deputy Chief of Mission in Belgrade, then 
the capital of the State Union of Serbia and Montenegro, I directly 
supervised the former United States Consulate in Podgorica, overseeing 
United States policy and management issues in Montenegro until 
Montenegro gained its independence last year.
    I am proud that the United States was among the first countries to 
recognize independent Montenegro and welcome it into the family of 
democratic nations. After all, the rich and complex history of our 
relationship with this remarkable country boasts deep roots. The 
Kingdom of Montenegro was well established as a nation-state by the 
late 1800s and the United States first established diplomatic relations 
with it just over 100 years ago. Although that official relationship 
ceased after the First World War, Americans and Montenegrins enjoyed 
strong ties until Montenegro again emerged as an independent state in 
2006. By way of example, in 1919, the United States posthumously 
awarded Montenegrin-born Sergeant James Mestrovich with the Medal of 
Honor for his heroic service to the United States armed forces in World 
War I. Sixty years later, in 1979, the United States Air Force 
airlifted 139 tons of supplies to Montenegro, stricken by a devastating 
earthquake.
    Mr. Chairman, we all know too well that the 1990s brought great 
tragedy to the peoples of the former Yugoslavia, a tragedy from which 
the countries that emerged from Yugoslavia are still healing. Although 
Montenegro is the republic of the former Yugoslavia that had the least 
conflict on its territory, its role as both protagonist and victim in 
the Yugoslav tragedy will no doubt be examined by historians for ages 
to come. There can be no doubt, however, that Montenegro played a key 
role in the latter stages of the Yugoslav crisis in helping the United 
States and its allies bring an end to that conflict and to the 
destructive policies of Slobodan Milosevic.
    Mr. Chairman, our relationship with Montenegro entered a historic 
new phase on August 15, 2006, with the restoration of bilateral 
diplomatic relations between our two countries for the first time since 
1918.
    Mr. Chairman, it is in our national interest to forge an even 
stronger partnership with newly-independent Montenegro and to help it 
become an important source of stability in the Balkans. Having 
navigated its way peacefully to independence--in a referendum judged 
free and fair by the international community--Montenegro has emerged 
onto the world stage as a dynamic democracy committed to the values we 
share with our Euro-Atlantic allies. Already a member of the United 
Nations and OSCE, Montenegro will almost certainly have the 
opportunity, if it so decides, to seek membership in NATO, the European 
Union, and other international organizations in the years to come. 
Although it is small in size, I am convinced that Montenegro can play 
an outsized role in partnership with us in the global arena.
    While Montenegro is on the right path, this young state is 
nevertheless still a society in transition. Many of its youthful, and 
still fragile, democratic institutions continue to be buffeted by 
challenges that grew out of the tumult of recent years. Like other 
transition countries in the region, Montenegro needs to do more to 
cement the rule of law. It needs to do more to fight corruption and 
organized crime. It needs to do more to reform and strengthen the 
judicial sector, steps that will build confidence in Montenegro's 
judicial processes and make the country even more attractive to United 
States and other foreign investors from a broader range of countries. 
It can do even more to strengthen interethnic bonds and to make itself 
a true model of multicultural harmony in a region that has too 
frequently been divided along ethnic fault lines. It can do more to 
accelerate broad-based economic development to ensure that all of its 
citizens have an equal stake in the success of independent Montenegro.
    Mr. Chairman, Montenegro faces challenges on the foreign policy 
front as well, particularly in its immediate neighborhood. The wars of 
the former Yugoslavia scarred and destabilized the region, leaving 
legacies that the new countries that emerged are still struggling to 
overcome. Montenegro is no exception, facing challenges in building new 
relationships with its neighbors--Croatia, Serbia, Bosnia and 
Herzegovina, and Albania. Montenegro, host to over 16,000 refugees from 
Kosovo, must also keep a watchful eye on developments in neighboring 
Kosovo, with which it shares a 40-mile-long border. More broadly, the 
wars, propaganda, and isolation of the 1990s have bequeathed public 
skepticism about the aims of NATO and the United States.
    Mr. Chairman, I am pleased to report that Montenegro has made great 
progress in meeting these challenges. A new government, elected in free 
and fair elections last year, has committed itself to reform and Euro-
Atlantic integration. Montenegro is rapidly transforming its economy 
and is witnessing strong GDP growth, a booming tourism sector along its 
beautiful Adriatic coast, and substantial foreign investment. In a 
region that has been racked by interethnic conflict, Montenegro's rich 
mix of ethnic groups peacefully coexists.
    Montenegro has already made great strides in building political, 
economic, and security links with its neighbors, including in areas 
such as antitrafficking and antismuggling. At the highest levels, its 
leaders regularly work with their counterparts in nearby states to 
resolve disputes peacefully and to seek new forms of cooperation. 
Montenegro has eagerly supported regional initiatives, even recently 
becoming the first country to ratify the Central European Free Trade 
Agreement (CEFTA), a free trade agreement that will open markets in the 
region to a degree unprecedented in history. Montenegro has established 
good cooperation with the ICTY and has agreed to work with other 
countries in the region in investigating and prosecuting war crimes and 
organized crime.
    The democratic leadership of independent Montenegro has also 
embarked on a zealous pursuit of Euro-Atlantic integration. Invited to 
join NATO's Partnership for Peace last November, Montenegro is moving 
swiftly ahead to strengthen its links with the Alliance. Likewise, it 
is moving full steam ahead toward closer association with the European 
Union, rapidly concluding talks on a Stability and Association 
Agreement earlier this year.
    Our nascent bilateral relationship with Montenegro also shows great 
potential. Already, our two countries have exchanged a series of high-
level visits, including separate visits to Montenegro last year by a 
senior delegation of U.S. Senators and by the U.S. Secretary of 
Defense. More recently, in early May, President Vujanovic conducted the 
highest-level visit to the United States by a Montenegrin official 
since the reestablishment of diplomatic relations. This visit 
significantly advanced, inter alia, our rapidly developing security 
relationship. In Washington, President Vujanovic signed with Secretary 
Rice a Status of Forces Agreement and committed to send military 
observers to Iraq or Afghanistan. Just before his visit, on April 19, 
Montenegro also became the 104th country to enter into an Article 98 
agreement with the United States.
    Mr. Chairman, we have a clear interest in ensuring that this new 
partner successfully carries out its political and economic reforms. 
The good news is that the United States has much to offer in helping 
this new country succeed. We have 17 years of experience in helping the 
new democracies of Central and Eastern Europe successfully implement 
political, economic, and military reforms. We have tremendous 
experience in helping these countries prepare themselves for membership 
in NATO, the European Union, and other institutions. Thanks to the 
Congress' continuing support for funding under the Support for East 
European Democracy (SEED) and other programs, we still have at our 
disposal substantial resources to help reformers in Montenegro overcome 
the challenges they face in building their post-communist society. If I 
am confirmed, I would be eager to bring fully to bear the experiences 
and resources of the United States to accelerate Montenegro's process 
of reform.
    Mr. Chairman, my experience in working on issues relating to 
Montenegro and other countries in the Balkans has left me convinced 
that Montenegro's rich history, demonstrated friendship toward the 
United States, and keen determination to integrate fully into the Euro-
Atlantic community combine to make it fertile ground for a success 
story in what Secretary Rice calls transformational diplomacy. With the 
appropriate resources, I believe that we have an outstanding window of 
opportunity at this early stage of our young relationship with 
Montenegro to deeply root into this fertile ground a friendship between 
the peoples of our two countries that will bear fruit for decades to 
come.
    If I am confirmed, I would work hard with my team at the embassy to 
use the tools provided by the Congress and the administration to help 
Montenegro develop into a prosperous and democratic source of stability 
in South Central Europe. I would work hard to stimulate the economic 
and judicial reforms that will consolidate democracy and open the doors 
for much greater U.S. trade and investment. I would work hard to help 
Montenegro combat the corruption and organized crime that sap its 
progress and undermine public confidence in its institutions.
    If confirmed, I would also invest great effort to build a 
partnership in which the United States and Montenegro work hand-in-hand 
in regional, European, and global fora to address challenges to 
international peace and security. I would work to strengthen our 
bilateral and multilateral security relationship and seek ways to 
support Montenegro's declared interest in participating more actively 
in the global war on terror. I would work hard to support the efforts 
of the Montenegrins themselves to strengthen their democratic 
institutions and pave the way for more rapid membership in Euro-
Atlantic institutions.
    Mr. Chairman, in short, we now have a rare opportunity to implement 
this vision, building our new relationship from the ground floor up. 
The goals I have laid out may sound lofty, but I believe that--with the 
appropriate amount of energy and attention--they are achievable.
    Thank you, Mr. Chairman.

    Senator Obama. Thank you very much, gentlemen.
    What I'd like to do before we start a round of questions is 
to allow Senator DeMint to offer greetings and an opening 
statement.

                 STATEMENT OF HON. JIM DeMINT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Thank you, Mr. Chairman.
    I apologize for missing some of your opening statements. I 
appreciate your willingness to serve at, really, a challenging 
time for the United States. Our image abroad is certainly 
tarnished, in some ways, and, despite our willingness to help 
so many countries, sometimes that help is very misunderstood. 
So, your potential positions are very important to us.
    I think, as we talk about spreading democracy and freedom 
abroad, I--as all of you know, that freedom involves much more 
than just the right to vote. And you have already referenced 
the importance of institutions and just the importance of rule 
of law and property and free enterprise and freedom of the 
press and freedom of religion, a lot of things that, in your 
positions, you'll need to encourage and help to guide. I think 
the big challenge we have as a world is trying to determine the 
difference between socialistic principles, which ultimately 
lead to big government and the dependency on government--things 
which often start out with good intentions, to help people, 
ultimately sap freedom, as we even find in our own country--
and--but to be able to direct a government in how to help its 
people and to help the poor and to provide healthcare in a way 
that ultimately promotes freedom is a challenge to us, and 
hopefully you can help these countries learn from our 
successes, as well as, perhaps, some of our failures.
    So, I'm very interested in supporting your nominations and 
hearing any additional ideas as we go through just a few 
questions, but I very much appreciate your willingness to serve 
our country, as well as the countries that you're looking at 
serving in.
    So, thank you, Mr. Chairman.
    Senator Obama. Thank you.
    I would--what we'll do is, I think I'll try to restrict 
myself to one question each--for each of you, and then Senator 
DeMint can ask his questions; and if any others join us, then 
we'll go with them.
    Let's start with you, Dr. Withers. You know, international 
observers have criticized Albania for failing to live up to 
democratic standards, which, as you know, is a prerequisite for 
NATO membership. What do you think the United States can and 
should do to help sustain Albanian democracy? And, you know, 
how ready do you think they are to join NATO, at this point?
    Dr. Withers. Well, thank you very much for that question, 
Senator.
    I believe that you must say, looking at Albania's difficult 
recent history and its long experience with the tyrannical 
regime of Enver Hoxha, that it has made important strides. 
There is a constitution. There is a parliamentary democracy. 
And the government is decided by elections, which, however, as 
you have said, have been flawed.
    But I believe that the progress is such that we have moved 
away from many of the more dysfunctional parts of their 
electoral system. What we need them now to do really falls into 
two things. The February 7 local elections did not meet 
international standards. The OSCE and other groups have set 
forth a series of reform recommendations, and we strongly urge 
the Albanians to take these recommendations to heart, to 
implement them, and to improve on the problems which they had 
recently.
    Another element of their political difficulty is bickering 
between the parties, between the government and the opposition, 
which has prevented the type of rapid forward movement that I 
think we all hope for. And I think that the Albanians should--
need to understand that they must begin to work in concordance 
for the larger interests of the society, as a whole. The 
presidential election, which will begin in just a few days, 
will give us a measure as to how seriously they have taken the 
advice of their friends to heart, and we hope that they can 
reach a consensus on the next president, and move forward in a 
smooth, fair, and internationally recognized manner.
    In terms of NATO, the Albanians, again, have made 
considerable progress. They have modernized the military. They 
have undertaken many measures in the rule-of-law area. They 
have taken such measures as a joint investigative unit, which 
brings their prosecutors and their police together to 
investigate crimes. They have adopted laws on witness 
protections, special investigations, and many, many other 
things that are aimed at rooting out the corruption, which is 
one of the poisons that could affect their NATO membership.
    We have made clear to the Albanian Government, as their 
friends and as their supporters, how important NATO is to us 
and how its standards are legitimately tough; and they must 
meet those standards, with our support, and with our help. If 
they undertake the measures that are required, they will be as 
strong a candidate as they can be, and we encourage them to 
take those steps.
    Senator Obama. Okay.
    Mr. English, you know, we've made tremendous progress in 
Bosnia and Herzegovina over the past decade, but obviously, the 
parties are still far from fully reconciled. There's still no 
integrated national police force, there are still issues with 
respect to the Republic of Srpska and Kosovo, and how we 
differentiate between those two situations. How do you see your 
role in a positive resolution in the antagonism between these 
two parts of the country?
    Mr. English. Thank you very much, Mr. Chairman. Thank you 
for the question.
    I--the United States--first of all, Bosnia and Herzegovina 
has no better friend in the world than the United States, and 
our position there is a critically important one. And, if 
confirmed, I pledge to continue the vigorous leadership efforts 
that my predecessors have brought to the office of Ambassador 
in Sarajevo.
    We do work with other partners in the international 
community very closely. As a matter of fact, our Deputy 
Assistant Secretary just came back from a meeting of the Peace 
Implementation Council in Sarajevo where many of these very 
critical issues were discussed, and where we worked with our 
European partners, in particular, to send a very strong message 
to the Bosnians, that they must put differences behind them and 
move forward. Bosnian politics, we've seen in the period since 
Dayton, are usually two steps forward and one-and-a-half steps 
back. And right now, unfortunately, they seem to be a bit on 
the back foot. Nationalist rhetoric is very strong. There is no 
sense of consensus for the way forward.
    If confirmed, I see my job, in terms of relating to the 
Bosnians, as going to them and helping to push them forward, 
helping them to understand that police reform is the path to 
Brussels. Brussels is the path to stability and prosperity for 
all citizens in Bosnia.
    And one thing that we've told them, in particular, to get 
to your comment on Republic of Srpska and Kosovo and 
Srebrenica, is that the--all the questions that relate to 
Bosnia's integrity were resolved at Dayton, and we will not 
permit a reopening of Dayton. Dayton established--Dayton was 
the answer to the borders of Bosnia and Herzegovina, and Dayton 
is the answer that we're going to stay with.
    If confirmed, Mr. Chairman, I will take a very firm and 
energetic approach to United States leadership in Sarajevo.
    Thank you.
    Senator Obama. Good.
    I'll take one more question, then I'll turn it over to 
Senator DeMint.
    But, before we do that, Senator Nelson, do you care to make 
an opening statement? Okay.
    For you, Mr. Kennedy, within the last few months, the 
International Commission on Holocaust Era Insurance Claims 
concluded its work to help survivors receive some compensation 
from insurance companies who had long refused to pay on 
policies held by those who perished during the Holocaust. How 
do you rate the success of ICHEIC's efforts? How many survivors 
received compensation, and in what amounts? I know that some 
have criticized ICHEIC for cutting off the process before all 
the claims had a chance to be adjudicated. Do you share that 
criticism? And are there steps that you think our Government 
can take to improve the process?
    Mr. Kennedy. Thank you very much for that question, Mr. 
Chairman. It goes right to the heart of a lot of things that 
we're trying to do in the Office of Holocaust Issues.
    If I could just put a little historical context on this. 
When ICHEIC was established, in 1997, and became largely a body 
controlled by State insurance commissioners, Holocaust 
survivors, NGOs, and the state of Israel, they began looking 
for a way to handle what was probably a large number of 
potential claims. Working with Yad Vashem, they came up with a 
list of about 500,000 possible policyholders who might have 
perished in the Holocaust. The process was then to publicize 
that list, notify people that there was a possibility of making 
a claim.
    The total number of claims that were processed--and these 
are, I'd emphasize, claims without documentation, or with very, 
very little documentation, so people were asking for something 
they couldn't prove but they suspected was there--the total 
number processed was about 92,000 claims out of that potential 
list of 500,000. Roughly 8,000 people received payments, 
ranging from $5,000 to $20,000. Most of these policies were 
initially rather small. They were written as burial policies or 
dowry policies; some cases, education policies for daughters. 
So, they--the initial amounts were not great, but the ICHEIC 
process, which was an individual claims process, located a lot 
of policies, was able to make specific payments on them.
    Another 40,000 people or so had a story that was credible, 
that had facts in it that matched up with a likely policy. And 
those people were paid about $1,000 each.
    The total payments were a little over $300 million. When 
they had processed all the policies that they felt were 
credible, Chairman Eagleburger, last March, announced that 
ICHEIC would be closing its doors.
    I hope that covers the issues you needed, Senator.
    Thank you.
    Senator Obama. Thank you.
    Senator DeMint, do you want to take a stab at a couple of 
questions?
    Senator DeMint. Thank you, Mr. Chairman.
    I'll start on the other side, since you worked on--starting 
on the right.
    I'd really just--maybe Mr. Moore and Dr. Munter, just a 
perspective of your role as Ambassadors, to Montenegro and 
Serbia. I've often heard, as I've talked to people I've worked 
with around the world in various countries, that sometimes our 
State Department, regardless of the administration, can do more 
harm than good in, maybe, trying to direct the affairs of other 
nations. I would guess that you would see your role as not only 
doing the bidding of whatever administration is in power, but 
understanding and listening and trying to direct the policy of 
the United States in a way that would best serve the country 
that you are in, as well as our own country here, back home.
    I would just be interested in your perspective of your role 
in how you would direct us and an administration to really 
understand other countries in a way that would help them--or 
help us work with them, rather than perhaps alienate them, 
which is apparently what we occasionally do. So, Mr. Moore--if 
that question makes any sense.
    Mr. Moore. Thank you, Senator. I fully understand the 
question. I appreciate it.
    I think the good news with Montenegro is that we actually 
have a win-win situation. I say that, because I think that 
success on the part of the Montenegrin people, and the 
Montenegrin institutions themselves, to reform and transition 
their society, equals foreign policy success for the United 
States. I think we're pushing in the same direction. And let me 
define that a little bit more clearly.
    It's my view that the United States can play an important 
role. We have 17 years of experience working with countries in 
Eastern Europe, former socialist countries, and we've gained a 
lot of experience and know-how, and we've applied, thanks to 
the generosity of the taxpayers and the Congress, a substantial 
amount of resources during these 17 years.
    But I think that we have more work to do, in terms of 
supporting the success of political and economic reforms. And 
what I mean by that is strengthening the economy of Montenegro, 
creating jobs in Montenegro, strengthening democratic 
institutions, strengthening rule of law, fighting corruption, 
and so forth. These are all issues which I think will help 
strengthen Montenegro and are in the interest of the United 
States, for two reasons, primarily--a successful Montenegro--a 
Montenegro which makes it through this transition and becomes a 
democratic and prosperous state in a region which has been 
traditionally unstable, unfortunately, over the last two 
decades or so--will be an important ally of ours in helping to 
export stability to other areas of this region.
    Second of all, a successful Montenegro, which does make it 
through this transition, also has the potential to be an 
important partner of the United States as we try to advance our 
agenda, both within the region of South Central Europe, in the 
Euroatlantic area, and globally, as well. Montenegro is--if it 
so decides, is a prospective member of the European Union and 
NATO. It's already a member of the United Nations and the OSCE.
    So, I think--again, to sum up, I think it's a win-win 
situation. I think we're all moving in the same direction.
    Senator DeMint. I thank you very much.
    Dr. Munter, really the same question.
    Dr. Munter. Thank you very much for the question, Senator, 
and I really appreciate it.
    I think that the points Rod made are universal, in the 
sense that we have spent a number of the years, for the last 17 
years in the transition countries in which many of us have 
served, gaining the experience we believe not only of giving 
our system--putting it forth as a model, but learning from 
these countries in transition what has worked and what has not. 
And I think this kind of partnership that is not only going out 
to speak, but also to listen, is a key part of our job. And I 
certainly pledge that, if confirmed, listening, as well as 
speaking, will be a central part of what I do.
    Specifically, I think we have to create a partnership that 
bases the focus of our relationship with Serbia, which is a 
much more troubled relationship at this point, on our common 
goals and our long-term goals, defining them in a way that we 
can understand that, no matter how the process works getting us 
there, that we agree integration into the West--integration 
into Western institutions, creating more effective markets, 
creating the institutions that allow for the rule of law--are 
something that we're all going to be working for, not so much 
because the Serbs are being told by the Americans how to do 
this, but that it's a partnership for us, as well, that they 
are also working with us to help us define how those 
partnerships work.
    In a broader sense, partnerships will be not only America, 
but this is a job for our European friends, as well. We'll work 
very closely with our European allies to make sure that this 
process of building the transition and setting of the long-term 
goals is a common one, not just something the Americans come up 
with, but that our European allies bear, in fact, a very large 
part of this burden, for this is, actual--after all, their 
backyard, and we want to work with them very closely.
    Ultimately, this will come down, in a specific sense, to 
our ability to practice what we preach in public diplomacy, to 
make sure that the way in which we get our message across, and 
the way in which we understand our colleagues there, is 
effective, that the entire Embassy is mobilized to get the 
message across to listen to what others are saying, so that we 
are effective in trying to put together a long-term plan that 
isn't swayed by what are clearly going to be some very 
difficult times that we will go through in the short term.
    Thank you.
    Senator DeMint. So, you're comfortable, as far as just the 
organization and philosophy of the State Department, that you 
can be a true ambassador in the sense--on behalf of the United 
States, as well as on behalf of Serbia to us, and that there 
really is a two-way system within our structure that you can 
help direct what we do. I mean, do people listen, back home?
    Dr. Munter. I would characterize it, Senator, as much more 
that--I'm working for America.
    Senator DeMint. Yeah.
    Dr. Munter. And there's no doubt about that. What is nice 
about working for America, in my opinion, is that we represent 
more than interests, we represent values that are universal. 
And--as best we can espouse those values with the help of the 
colleagues we're working with--I think that's where we get 
traction, rather than simply coming and saying that we 
represent something, in a vacuum.
    Senator DeMint. Great answer. Great answer.
    Mr. Chairman, I yield back to you.
    Senator Obama. Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    Mr. Kennedy, I want to follow up. In light of what you just 
testified about ICHEIC and Secretary Eagleburger, the issue has 
arisen, because of legislation filed over on the House side, 
that would go beyond the International Commission for Holocaust 
Era Insurance Claims Commission. And, since they have closed up 
shop, this legislation would require disclosure of Holocaust-
era policies by insurers, beyond the 500,000 that you 
mentioned. And it would also allow insurers to be sued in 
Federal court.
    The findings of that legislation, which I think is to be 
heard in a committee shortly in the House of Representatives, 
criticize ICHEIC for inadequate research and for limiting 
itself only to certain forms of insurance.
    What do you think about that?
    Mr. Kennedy. Thank you very much for that question, Senator 
Nelson.
    We have--the Department has been asked to comment on the 
draft legislation that you mentioned, and we are in the process 
of developing a coordinated position within the administration, 
and will certainly get back--I'll make sure that you're 
informed as soon as we have that coordinated position.
    Senator Nelson. Well, do you have an opinion, now that 
ICHEIC has closed up business, do you have an opinion about the 
finding in the bill that ICHEIC only paid out less than 5 
percent of the policies sold to Jews prior to World War II?
    Mr. Kennedy. Senator, the kinds of policies that ICHEIC 
looked at, I think--I'm not an insurance expert--would be 
called, probably, ``whole life policies,'' in a broad category, 
but they were very specialized kinds of policies. They were 
largely for burial, to ensure that the insuree was--would 
receive a proper burial, or to provide a dowry for a daughter. 
There are other kinds of insurance that ICHEIC did not deal 
with--casualty policies, for example. So, I really believe that 
the goal that ICHEIC set itself, it did a good job, it 
researched thoroughly, and it was an individualized claims 
process.
    Thank you, sir.
    Senator Nelson. So, you think, with what ICHEIC did and 
what it handled, that it did a reasonably good job.
    Mr. Kennedy. Yes, Senator, I think it basically did. It 
was--it's obviously sort of ``a glass half full, a glass half 
empty'' situation, about half the people whose claims could be 
processed received some kind of compensation. And these were 
difficult claims to process, in--to my understanding, because 
they--none of them had documents--almost none of them had 
documentation. This wasn't about processing claims where people 
had adequate documentation to make their claims.
    Senator Nelson. Well, the question now is, as a matter of 
Federal policy, should survivors be able to go into Federal 
court? What is your opinion on that?
    Mr. Kennedy. Well, sir, on that one, I'm going to have to 
defer to the process that we're engaged in now, within the 
administration, examining the proposed bill that's coming up in 
the House committee.
    Senator Nelson. So, basically, the administration is not 
ready to make a statement about whether or not this process 
ought to stop, or whether it ought to go forward and be 
facilitated in the Federal courts.
    Mr. Kennedy. I believe I received a copy of the bill 
yesterday afternoon, sir, or that was the first time I became 
aware of it, and we've tasked it out.
    Senator Nelson. Well, somebody is pretty slow, then, 
because that bill's been filed for a couple of months.
    Let me ask you--is this true? Now, this is a matter of what 
you've been dealing with, because you've been active as the 
Special Envoy for Holocaust Issues for--how long?
    Mr. Kennedy. Ten months, Senator.
    Senator Nelson. Okay. It's my understanding that the German 
Insurance Association has agreed that it would continue to 
accept claims, provided that they're filed directly with German 
companies. Is that true?
    Mr. Kennedy. My understanding is that the German companies 
are willing to process claims for which some documentation 
could be provided, that the work that ICHEIC did with 
undocumentable claims was a different story. But I certainly 
hope that people who have some documentation will follow up on 
this, because I think we ought to hold the companies to their 
statements that they are willing to process claims. But I 
believe--my understanding is that those claims would have to be 
processed with some kind of documentation.
    Senator Nelson. Does that hold for the Italian company, 
Generali, as well?
    Mr. Kennedy. Generali has told us the same, that they would 
process documentable claims. And, again, I certainly hope 
people who are not happy with the outcome of the class-action 
suit that's underway right now, if they feel they've got a 
claim that wasn't handled properly, that they would try to 
pursue a remedy.
    Senator Nelson. How about the Austrian companies?
    Mr. Kennedy. Well, again, you've got a willing--an 
indicated willingness to handle claims that can be, as my--as I 
understand it, can be documented, that the undocumentable 
claims period is over, because ICHEIC has finished that----
    Senator Nelson. So, all of them--German, Italian, and 
Austrian.
    Mr. Kennedy. That's my understanding, sir. But, of course, 
we're kind of moving into a new period of time here. ICHEIC 
finished its work about--well, a little over 2 months ago, on 
March 31 of this year.
    Senator Nelson. Well, you're the point man for Holocaust 
issues, so I would think that we would need to know what the 
policy of these companies is after ICHEIC has shut its doors. 
And, since it has shut its doors, what do you think ought to be 
done to assist survivors to be able to proceed with their 
claims that they feel that are unfulfilled?
    Mr. Kennedy. Well, my office would certainly be willing to 
work with survivor groups to help them get the information they 
need from the insurance companies to proceed. As I say, this 
is--we have a stated willingness from the insurance companies 
to proceed with documentable claims, and we're certainly 
willing to help in that regard. We're not going to drop the 
issue.
    Senator Nelson. When might I expect a reply from you as to 
the administration's position on this legislation?
    Mr. Kennedy. Well, I would hope, shortly, sir. I don't have 
an exact timeframe, but we would certainly try to do it in the 
next few days.
    Senator Nelson. Okay. Thank you very much, Mr. Kennedy.
    Mr. Kennedy. Thank you, sir.
    Senator Nelson. Thank you, Mr. Chairman.
    Senator Obama. I want to appreciate Senator Nelson for--or 
compliment Senator Nelson for raising some important issues. I 
think it's--these are issues that all of us share. Obviously, 
given the unprecedented nature of the Holocaust and the fact 
that survivors are aging, the sooner that we can get some 
resolution to some of these issues, the better. And I think all 
of us are going to share a deep interest in this. So, thank 
you, Senator Nelson, for raising it.
    Senator DeMint, do you have any further questions?
    Senator DeMint. No, Mr. Chairman.
    Senator Obama. If not, I'd like to thank all the nominees 
for testifying today and for their willingness to serve our 
countries in these important positions. I want to thank you for 
your past service, because, as career Foreign Service officers, 
you all have exemplary records and have done outstanding work. 
And, you know, we know that you're going to be working in some 
difficult areas, but we also are confident that you will be up 
to the task.
    So, we're going to keep the record open. We're going to--it 
will remain open through Friday, so that committee members can 
submit additional questions for the record. And I'd ask that 
the nominees respond expeditiously to those questions, should 
they arise.
    Senator Obama. With that, if no one has any additional 
comments, then this hearing is adjourned.
    Good luck.
    [Whereupon, at 2:52 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


Correction to Written Statement and Response of J. Christian Kennedy to 
           Question Submitted by Senator Joseph R. Biden, Jr.

    In my written statement for the Senate Foreign Relations Committee, 
I noted that two members of the International Commission of the 
International Tracing Service (ITS) still had not approved the 
procedures for greater access to the archives. Following my June 21 
confirmation hearing before the Senate Foreign Relations Committee, 
Senator Biden submitted a ``Question for the Record'' regarding the 
ITS. Based on the same information in my possession at the time, I 
mistakenly informed the Senator that 9 of the 11 signatories to the ITS 
agreement had already ratified the amended ITS protocols, leaving just 
France and Italy to do so.
    Since then I have received information from the Greek Embassy that 
Athens has not yet completed its ratification procedure. It expects to 
do so in coming weeks.
    I sincerely apologize to Senator Biden and other members of the 
Foreign Relations Committee for providing this incorrect information. I 
also would like to reassure the Senators that the Department remains 
steadfast in its efforts to press for expeditious ratification by the 
remaining three members of the International Commission of the ITS so 
that the amended protocols can enter into force as soon as possible.
                                 ______
                                 

       Responses of J. Christian Kennedy to Questions Submitted 
                        by Senator Norm Coleman

    Question. Could you describe the role of the State Department and 
in particular your office with respect to ICHEIC?

    Answer. As Special Envoy, I and my predecessors participated as 
observers on the board, not only as an advocate of the survivors but 
also with the responsibility to take appropriate steps to contribute to 
the success of ICHEIC. From the beginning, we have supported ICHEIC as 
an example of a forum for cooperative resolution of Holocaust-era 
claims. Within ICHEIC, we viewed our role as one that would facilitate 
resolution of issues and provide assistance. In this regard, we 
conducted demarches in European capitals advocating the opening of 
archives relating to insurance claims, and we sought to mediate any 
differences among ICHEIC participants, especially when they related to 
ICHEIC's interactions with entities created in Germany and Austria as a 
result of United States bilateral agreements.

    Question. What U.S. bilateral and or international agreements 
govern the restitution of Holocaust-era insurance policies? How do 
these agreements relate to ICHEIC?

    Answer. In July 2000 and January 2001, the United States entered 
into bilateral agreements with Germany and Austria, respectively, that 
include provisions relating to Holocaust-era insurance policies. The 
agreement with Germany led to the creation of the German Foundation 
``Remembrance, Responsibility, and the Future,'' which provided about 
half of ICHEIC's operating capital (about $275 million) out of funds 
dedicated for insurance claims and for humanitarian purposes to those 
with unpayable insurance policies. Similarly, the Austrian General 
Settlement Fund (GSF), established pursuant to our January 2001 
agreement with Austria, has earmarked $25 million for insurance claims. 
ICHEIC and the GSF concluded an agreement in December 2003 relating to 
payment procedures.
    ICHEIC concluded memoranda of understanding with American state 
insurance regulators, leading Jewish and survivor organizations, and 
European insurance companies, as well as with the German Insurance 
Association, although these are not binding international agreements.

    Question. How would you characterize the work of ICHEIC? How would 
you characterize the cooperation of the insurance companies? Have the 
insurance companies participating in ICHEIC disclosed all of their 
Holocaust-era policies? If not why not? What about non-ICHEIC 
participating insurance companies?

    Answer. ICHEIC's mandate was to identify and pay life insurance 
policies issued to Holocaust victims that were never paid to the 
beneficiaries. With ICHEIC's board consisting of representatives with 
disparate interests, finding a consensus on some issues took years 
rather than months. These issues included researching and identifying 
policyholders and establishing appropriate evidentiary and valuation 
standards. Nevertheless, what eventually emerged was a conviction among 
all parties in the process that the process worked as intended and 
provided meaningful compensation for unpaid life insurance policies 
from the Nazi period. And it only worked because at key moments all 
representatives, including insurance company representatives, were 
prepared to make pragmatic compromises on difficult issues.
    Regarding the disclosure of all Holocaust-era policies, ICHEIC 
published 500,000 names of likely insurance policyholders who were also 
Holocaust victims. The list of 500,000 names was produced with the 
cooperation of European insurance companies and foreign government 
archives, as well as the German Foundation ``Remembrance, 
Responsibility, and the Future'' and Yad Vashem, which was established 
by the Israeli Knesset to document the Holocaust. Yad Vashem has over 3 
million names of victims stored in its electronic database as well as 
an extensive collection of documents. We and ICHEIC's commissioners 
believed that this list was a cost-effective approach to identifying 
all of the relevant life insurance policyholders who were Nazi victims. 
At ICHEIC's concluding meeting in March 2007, the leaders of American 
and Israeli survivor and claims organizations represented on ICHEIC's 
board expressed great satisfaction with the results of ICHEIC's work.
    The Austrian General Settlement Fund employed its own researchers, 
and also used the ICHEIC list, to identify policyholders. Other funds 
in Europe had their own system for identifying policyholders and were 
able to take advantage of ICHEIC's research. The identification of 
names by insurance companies in cooperating nonmember companies in 
Belgium or the Netherlands was not an issue. The ICHEIC companies, and 
other companies in the countries cited above, issued the bulk of the 
life insurance policies in Europe.

    Question. How many survivors presently reside in the United States 
and overseas? How many of the current survivors and or heirs (both 
United States and foreign) have had their claims paid through ICHEIC? 
How many have not? What are the principle reasons why restitution has 
not been made to some survivors and their heirs?

    Answer. We are aware of one survey that estimated the total number 
of survivors worldwide to be just under 700,000 in the year 2003. If 
one assumes that 10 percent of survivors die every year, than the 
current number of survivors could be about 450,000 today. Using the 
same percentages for the country of residence of survivors as in the 
2003 study, one would estimate that there are 170,000 in Israel, 70,000 
in the United States, and about 210,000 in the rest of the world. This 
study, prepared by Ukeles Associates for ICHEIC, is available on the 
Claims Conference Web site (claimscon.org).
    We know that about 90,000 survivors or heirs filed claims and that 
48,000 of these were eligible for payments that totaled $300 million. 
Most of those applying for and receiving payments could provide no 
documentation beyond anecdotal information, yet ICHEIC was able to 
research their claims and submit them to insurers at no cost to the 
claimant. Even those with only credible stories and no documentation 
were eligible for a small payment. ICHEIC also made available an 
additional $169 million for social welfare and related projects.
    We estimate that $500 million have reached Holocaust survivors and 
heirs as payments for claims via ICHEIC and via related agreements. No 
compensation program involving 70- or 80-year-old claims could ever be 
perfect, but ICHEIC's efforts to honor unpaid life insurance policies 
was thorough and comprehensive.
    (A large category of ineligible claims applications came from 
countries in the former Soviet Union. Unfortunately, because no private 
sector insurance companies existed in that area, and therefore no 
insurance policies could be issued there during that time, a large 
number of claims applications from countries in the former Soviet Union 
were ineligible for payment.)

    Question. What is the status of ICHEIC's compliance with section 
704(a) of the fiscal year 2003 Foreign Relations Authorization Act 
(Public Law 107-228)?

    Answer. Section 704(a) is a reporting requirement directed at the 
United States Government not ICHEIC. The Department of State has 
provided all the information called for by the section that is 
available to it in its biannual reports to the Congress, but not all 
the information was available at the time of the most recent report, as 
has been the case in years past. Some information about ICHEIC, 
including statistics on claims and appeals, however, is publicly 
available on ICHEIC's Web site (www.icheic.org). Moreover, additional 
information can be found in ICHEIC's Final Report, which is available 
at the ICHEIC Web site and at www.naic.org.
    [Note: Section 704(a) requires, inter alia, a number of detailed 
questions. For example, whether the participating ICHEIC insurers 
provided claimants with a status report on their claim within 90 days 
and whether the appeals body of ICHEIC had the resources to fully 
investigate each claim. This section also requested information on the 
adequacy of independent audits and administrative expenses and whether 
the companies complied with ICHEIC evidentiary and valuation standards 
and provided policyholder lists. Most of these questions were addressed 
at the end of the ICHEIC process in its Final Report.]

    Question. What legal basis exists, if at all, for the preclusion of 
restitution-based lawsuits against insurance companies?

    Answer. Lawsuits face numerous legal hurdles. Some lawsuits against 
insurance companies concerning Holocaust-era claims were resolved 
through a negotiated settlement of class actions. Those settlements 
precluded future claims. Other lawsuits may be precluded by well-
established legal doctrines, such as statutes of limitations.
    United States executive agreements with Germany and Austria 
concerning Holocaust compensation did not preclude lawsuits against 
insurance companies or other companies. Rather, in consideration of the 
significant payments those countries agreed to make, the United States 
agreed to file statements of interest in suits against German and 
Austrian companies arising out of the Holocaust urging courts to 
dismiss on any available legal ground, noting continuing litigation 
would be contrary to United States foreign policy interests and that 
those companies should instead have ``legal peace.'' The United States 
has made these interests clear in numerous courts, all of which have 
dismissed litigation that would have undermined these important policy 
goals.
    We believe litigation would be acrimonious, expensive, and 
ultimately unsuccessful. In addition, it would cause significant 
problems for the foreign relations of the United States, especially 
with respect to countries with which we have bilateral agreements. We 
facilitated and supported ICHEIC and agreements with Germany and 
Austria on Holocaust-related claims because they provided for $500 
million for insurance claims on the basis of relaxed standards of 
proof, and without any legal costs to the claimants and without any of 
the litigation risks. They also provided $5.5 billion in payments for 
other losses or damages to Holocaust victims.

    Question. While ICHEIC has provided more than $306 million on 
Holocaust-era insurance policies to 48,000 survivors and their heirs, 
there are estimates that the value of unpaid policies is at least $17 
billion? How would you explain this difference?

    Answer. The $17 billion figure is well above the estimates we have 
seen in other studies and raises question about methodology and 
sources. We informally consulted with a historian at the U.S. Holocaust 
Memorial Museum about these estimates, and he was unaware of any data-
based and document-based study that produced estimates of comparable 
size for the insurance assets of the entire Jewish population of 
Europe.
    ICHEIC's Final Report (available at naic.org and at icheic.org) 
provides a realistic picture of the European insurance industry between 
World War I and World War II, as well as of compensation programs 
available to Holocaust survivors and heirs following the Second World 
War (pages 6 to 15 and pages 33 to 37 of the Final Report). In 
addition, there are other experts who have written on the overall 
wealth of the Jewish population of Europe, broken down by country of 
residence and category of wealth, and the estimates of these experts 
are substantially lower than those cited in the question. One useful 
study was prepared by Helen B. Junz, who wrote at the request of the 
Independent Committee of Eminent Persons chaired by former Federal 
Reserve Board Governor Paul Volcker. (See appendix S on page A-127.) We 
can provide a citation: http://www.crt-ii.org/ICEP/ICEP--Report--
Appendices--A-W.pdf.
    Additional sources of information are the ``Research Reports'' that 
can be found at the ``Document Center'' on ICHEIC's Web site. One of 
these reports identified 78,000 life insurance policies belonging to 
55,000 Jewish policyholders in Europe during the Nazi era. The 
policyholder lists came from noncompany files such as public archives 
and repositories, such as the Nazi regime's tax records and its Jewish 
property declarations.
    In this regard, it is important to keep in mind that ICHEIC's 
mandate was to pay unpaid life insurance policies on the basis of 
claims filed by survivors or heirs. It is conceivable that the 
estimates relating to the $17 billion in unpaid insurance policies 
include nonlife policies and policies where there are no survivors or 
heirs. For example, it could be based on the inclusion of property 
insurance (and possibly marine insurance) losses that have not been 
paid, but seeking to cover such losses would be problematic given the 
widespread destruction caused by military operations that took place 
during the Second World War and the typical exclusion of war-related 
damages in such policies.

    Question. With the ICHEIC process now completed, what recourse do 
survivors and their families have in the event they should come into 
possession of information relating to Holocaust-era insurance policies?

    Answer. If one has a claim involving an insurer that participated 
in ICHEIC, and that person could not file a claim before ICHEIC's 
closing dates of December 2003 and March 2004, then one can still file 
the claim directly with the insurance company that issued the policy. 
The German insurance association representative on ICHEIC's board 
stated that the association's members will continue to consider any 
Holocaust-era claim filed directly with a company.
    Statement of German Insurance Association: ``I believe that the 
process to work for a better future needs to continue, even as we hope 
that we have by now addressed all unresolved insurance policies from 
the Holocaust era. . . . Therefore let me assure you that our member 
companies intend to continue to address inquiries that are sent to a 
specific company and will honor legitimate claims.''
    There is also a way in which one can file a claim with the Italian 
insurer Generali under certain circumstance. More information is 
available at the claims settlement Web site: http://
www.nazierainsurancesettlement.com/?lang=en.
    [Note: The deadline for filing claims with Generali was also 
extended by the United States District Court for the Southern District 
of New York. The claims Web site states the following: ``Claims based 
on documents obtained from the [Bad Arolsen] archive must be submitted 
no later than six (6) months after the opening of the archive, but in 
no event later than June 30, 2008. If the archive is not opened by May 
1, 2008, the deadline for claims based on archival documents is 60 days 
after the opening, but no later than August 31, 2008.'']

    Question. Generally speaking, what sort of information is contained 
at the Arolsen Nazi archives? What can be reasonably expected about 
documents relating to insurance policies?

    Answer. The archive consists primarily of three major sections: 1) 
camps, transports, ghettos, and arrest records; 2) forced and slave 
labor records; 3) displaced person camp records.
    Approximately one quarter of the records deal with Holocaust 
victims. The remaining material covers non-Jewish forced laborers, 
political opponents, and other persons arrested, detained, or 
persecuted by Nazi authorities, and displaced persons. In addition, the 
ITS staff created a Central Name Index which consists of some 17.5 
million names on approximately 40 million index cards. Some entries are 
redundant. For example, the same name appears on multiple documents and 
on multiple cards.
    The files do not contain information on every survivor or every 
person who was victimized or killed. They only contain information on 
individuals whose names appeared on lists related to certain--not all--
ghettos and concentration camps, forced or slave labor camps, or 
displaced persons camps. The name of someone who fled the Nazis or was 
hidden is unlikely to appear in these records unless the individual was 
registered at a displaced persons camp following the war. Similarly, 
the name of someone killed on arrival at a camp and not registered 
would be unlikely to appear in camp records.
    There do not appear to be any collections at Arolsen that consist 
specifically of information about life insurance policies, although 
there may be some information within the archives. So far, the ITS 
staff has not encountered a significant number of such references, but 
the staff has not systematically looked for insurance information.
    A survivor or heir who wishes to pursue this matter should file a 
request for a search of ITS records with the Holocaust and War Victims 
Tracing Service, American Red Cross, 4700 Mount Hope Drive, Baltimore, 
Maryland 21215-3231.
                                 ______
                                 

        Response of J. Christian Kennedy to Question Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. Why do you believe the process of opening the ITS 
archives at Bad Arolsen has taken so long? Has the United States done 
enough to allow Holocaust survivors, their descendants, and academic 
researchers access to these documents? What lessons should we take away 
from the process?

    Answer. The International Tracing Service (ITS) is governed by an 
International Commission (IC) of 11 nations: the United States, Israel, 
the United Kingdom, France, Germany, Poland, the Netherlands, 
Luxembourg, Belgium, Italy, and Greece. The International Committee of 
the Red Cross manages the facility at Bad Arolsen.
    Beginning in 1943, the core function of the ITS was to aid in 
family reunification; it has more recently assisted with slave labor 
settlements. But as a backlog in answering requests for information 
increased, momentum among survivors and scholars started to grow to 
open up the archives to the public. The U.S. Department of State and 
the U.S. Holocaust Memorial Museum led the diplomatic charge in pushing 
for greater openness.
    For several years, however, a number of the other members on the 
International Commission and the ITS Director expressed concern that 
changes in procedures for accessing information would be inconsistent 
with European privacy practice and laws. Their opposition to changing 
the rules prevented action by the ITS to open the archives, despite 
intense pressure to do so.
    In April 2006, German Justice Minister Zypries declared her 
country's readiness to accept new access procedures while she was 
visiting the United States Holocaust Memorial Museum. She also called 
on the other member states of the ITS International Commission to do 
the same, thereby finally opening up the door for real negotiations.
    At its May 2006 meeting, the International Commission proposed 
draft protocols amending the 1955 Bonn Accords that have governed the 
ITS. By November 2006, all countries had signed the protocols and 
indicated their intention to move rapidly to ratify them. Early this 
year, the United States asked for an extraordinary meeting to assess 
and accelerate progress, which took place in The Hague in March 2007. 
The meeting emphasized the importance of rapid approval of the 
amendments by all IC member states and agreed to put on the agenda for 
the May 2007 annual meeting the authorization to the ITS administration 
to distribute an advance electronic copy of the Bad Arolsen data. The 
advance copy meant that repository institutions could harmonize ITS 
data with their computer systems while the full approval process took 
place.
    In addition to a series of demarches in Washington by the Office of 
Holocaust Issues at the State Department, Germany and the United States 
made joint demarches in the capitals of the ITS countries urging prompt 
approval of the amendments.
    By the time of the May annual meeting of the ITS International 
Commission, seven countries had finished their internal approval 
procedures. Also at this meeting the commission approved distribution 
of an advance copy and rules for access to the documents at Bad 
Arolsen. Since May, two more countries have approved their own internal 
procedures; only France and Italy still need to finalize the approval 
process. The State Department continues to press these countries to 
expedite their ratifications.
    United States leadership on this issue has been vital to advancing 
greater access to the Bad Arolsen data. American-German cooperation 
helped overcome significant hurdles to progress as well. It is also 
important to note that during these long negotiations, the American Red 
Cross' Holocaust and War Victims Tracing Center aided survivors and 
next of kin in accessing information. This center continues to operate 
today. American citizen survivors and heirs can gain access to ITS 
materials by writing to the Holocaust and War Victims Tracing Center, 
American Red Cross, 4700 Mount Hope Drive, Baltimore, Maryland 21215-
3231.
                                 ______
                                 

       Responses of J. Christian Kennedy to Questions Submitted 
                         by Senator Bill Nelson

    Question. What is your position on H.R. 1746, the legislation 
introduced in the House by Representative Ileana Ros-Lehtinen, to 
require disclosure of Holocaust-era policies by insurers and allow 
insurers to be sued in Federal court?

    Answer. We oppose H.R. 1746. The information requirements set forth 
in H.R. 1746 have largely been met by the International Commission on 
Holocaust Era Insurance Claims (ICHEIC). This was achieved through 
publication of 500,000 names of likely insurance policyholders who were 
also Holocaust victims. The participants in the ICHEIC process, 
including survivor organizations, did not believe that a list of names 
similar to that required by H.R. 1746 would add further benefit to 
Holocaust survivors or their heirs.
    ICHEIC has already achieved many of the objectives of the draft 
legislation. ICHEIC has paid $300 million to 48,000 claimants and made 
available $169 million in funds for social welfare projects. We 
estimate that $500 million has reached Holocaust survivors and heirs as 
payments for claims via ICHEIC and via related agreements involving 
other countries, such as the one with Austria, as well as through 
social projects. None of this would have been possible if the foreign 
governments and companies providing these payments believed they would 
be subject to continuing litigation in United States courts over 
Holocaust-era claims. In return for $6 billion in payments to Holocaust 
victims, including to holders of Holocaust-era insurance policies, the 
United States agreed, with respect to German and Austrian companies, 
that continuing litigation would be contrary to its foreign policy 
interests and that those companies should instead have ``legal peace.'' 
The United States has made these interests clear in numerous courts, 
all of which have dismissed litigation that would have undermined these 
important policy goals.
    The proposed legislation would take the opposite course. Its 
primary effect would be to enable and facilitate renewed litigation, 
even where the claims at issue had already been explicitly settled in 
U.S. courts. We believe such litigation would be acrimonious, 
expensive, and ultimately unsuccessful. In addition, it would cause 
significant problems for the foreign relations of the United States, 
especially with respect to countries with which we have bilateral 
agreements and which will see enactment of this legislation as a 
repudiation of such agreements. If such legislation is enacted, we 
expect it will be extremely difficult to achieve cooperation from other 
countries in their taking additional domestic steps on Holocaust 
restitution matters.

    Question. Do you think that it is a good idea, now that ICHEIC has 
concluded its work, for survivors and their families to sue for 
compensation on World War II era policies in Federal court?

    Answer. No. ICHEIC has already achieved many of the objectives of 
the draft legislation. ICHEIC has paid $300 million to 48,000 claimants 
and made available $169 million in funds for social welfare projects. 
We estimate that $500 million has reached Holocaust survivors and heirs 
as payments for claims via ICHEIC and via related agreements involving 
other countries, such as the one with Austria, as well as through 
social projects. None of this would have been possible if the foreign 
governments and companies providing these payments believed they would 
be subject to continuing litigation in United States courts over 
Holocaust-era claims. In return for $6 billion in payments to Holocaust 
victims, including to holders of Holocaust-era insurance policies, the 
United States agreed, with respect to German and Austrian companies, 
that continuing litigation would be contrary to its foreign policy 
interests and that those companies should instead have ``legal peace.'' 
The United States has made these interests clear in numerous courts, 
all of which have dismissed litigation that would have undermined these 
important policy goals.
    The proposed legislation would take the opposite course. Its 
primary effect would be to enable and facilitate renewed litigation, 
even where the claims at issue had already been explicitly settled in 
U.S. courts. We believe such litigation would be acrimonious, 
expensive, and ultimately unsuccessful. In addition, it would cause 
significant problems for the foreign relations of the United States, 
especially with respect to countries with which we have bilateral 
agreements and which will see enactment of this legislation as a 
repudiation of such agreements. If such legislation is enacted, we 
expect it will be extremely difficult to achieve cooperation from other 
countries in their taking additional domestic steps on Holocaust 
restitution matters.

    Question. Can you give me your assessment of the bill's disclosure 
and judicial review provisions in light of ICHEIC and the other efforts 
to address Holocaust insurance claims?

    Answer. See answers to previous questions.

    Question. How likely is it in your opinion that litigation that 
would be authorized under this bill would result in the actual payment 
of insurance benefits on Holocaust-era policies in a timely manner?

    Answer. We believe such litigation would be highly unlikely to be 
successful. Particularly in the case of insurance companies that issued 
policies in Europe to European citizens some 70 or 80 years ago, the 
legal hurdles for plaintiffs would be numerous and significant. There 
would also be objections from foreign governments, which would argue 
that bilateral agreements with the United States require the United 
States to oppose such lawsuits. In addition, lawsuits may take years in 
lower courts and on appeal, and can involve huge costs.

    Question. Findings in the bill state that the judicial review 
provisions of the bill would not be limited by any existing 
international agreements, court decisions, or settlement agreements 
(such as the Generali settlement). Do you agree or disagree with this 
statement?

    Answer. We believe that the provisions of the bill that facilitate 
lawsuits are in direct conflict with existing international agreements, 
court decisions, and settlement agreements. For example, agreements 
between the United States and Germany and the United States and Austria 
commit the United States to oppose litigation against companies from 
those countries over Holocaust-era claims. Many U.S. courts, including 
the Supreme Court, have recognized and given weight to U.S. policy 
interests in this regard. And there have been settlements of lawsuits 
involving Swiss companies and Generali (Italian) in our courts, and 
those settlements contemplate an end to litigation.

    Question. If the bill doesn't override the agreements, what kinds 
of claims would be left to pursue and are Federal lawsuits the way to 
pursue them?

    Answer. We support dialog, negotiation, and cooperation, not 
lawsuits, as the means to resolve matters relating to any Holocaust-era 
claims. If one has a claim involving an insurer that participated in 
ICHEIC, and that person could not file a claim before ICHEIC's closing 
dates of December 2003 and March 2004, then one can still file the 
claim directly with the insurance company that issued the policy. The 
German insurance association stated that its members will continue to 
consider any Holocaust-era claim filed directly with a company. In the 
case of Generali, one should go to the claims Web site for information 
on filing claims based on new archival research: http://
www.nazierainsurancesettlement.com/?lang=en.

    Question. Findings in H.R. 1746 criticize ICHEIC for inadequate 
research and for limiting itself to only certain forms of insurance. Do 
you agree with these findings? If not, why not?

    Answer. We disagree with those findings. ICHEIC's mission was 
determined by its commissioners, who were American state insurance 
regulators, leading Jewish survivor organizations and representatives 
from the state of Israel, as well as major European insurance 
companies. The commissioners decided to focus on identifying and paying 
claims on life insurance policies. It is understandable that other 
kinds of policies were not part of ICHEIC's mission. For example, the 
inclusion of property insurance (and possibly marine insurance) would 
have been problematic given the widespread destruction caused by 
military operations that took place during the World War II and the 
typical exclusion of war-related damages in such policies.
    ICHEIC established an extensive research apparatus for identifying 
claims so that a claimant could file a claim that was based on limited 
information, such as only the first and last name of the policyholder, 
and if possible also the dates of birth and residence of the 
policyholder. The list of 500,000 names was produced with the 
assistance of the German Foundation ``Remembrance, Responsibility, and 
the Future'' and Yad Vashem, which was established by the Israeli 
Knesset to document the Holocaust. Yad Vashem has over 3 million names 
of victims stored in its electronic database as well as an extensive 
collection of documents. The ICHEIC names list and other archival 
information was compiled using high technology, such as the Soundex 
system that uses phonetics to incorporate various spellings of names 
and places.
    In addition, ICHEIC sent out researchers to archives in 15 
countries throughout Europe, Israel, and the United States to compile 
evidence of insurance policies. These archives were located in 
insurance companies and in government records centers, and the 
researchers gathered evidence of nearly 80,000 life insurance policies. 
ICHEIC researchers also were able to develop a company-country matrix 
to track the transfer of policy liabilities from one company to the 
next, as one insurer went bankrupt or was sold and responsibility for 
paying the policy was taken over by another company.

    Question. One finding states that ICHEIC only paid out on less than 
5 percent of the policies sold to Jews at the beginning of World War 
II, and that the unpaid insurance theft actually is somewhere between 
$17 billion and $200 billion. Do you agree with that estimate? If not, 
why not?

    Answer. We have not seen the methodology of the authors of these 
studies used to arrive at such figures. The wide range reflected by 
these figures raises questions about methodology and sources for this 
data. We informally consulted with a historian at the U.S. Holocaust 
Memorial Museum about these estimates, and he was unaware of any 
serious study that produced comparable estimates for the insurance 
assets of the entire Jewish population of Europe.
    ICHEIC's Final Report (available at naic.org and at icheic.org) 
provides a realistic picture of the European insurance industry between 
World War I and World War II, as well as compensation programs 
available to Holocaust survivors and heirs following the World War II 
(pages 6 to 15 and pages 33 to 37 of the Final Report). The ICHEIC 
report does not support the large estimates of insurance losses cited 
in the question, and certainly not for losses in life insurance. In 
addition, there are other experts who have written on the overall 
wealth of the Jewish population of Europe, broken down by country of 
residence and category of wealth, and the estimates of these experts 
are lower than those cited in the question. One useful study was 
prepared by Helen B. Junz, who wrote at the request of the Independent 
Committee of Eminent Persons chaired by former Federal Reserve Board 
Governor Paul Volcker. (See Appendix S on page A-127.) We can provide a 
citation:http://www.crt-ii.org/ICEP/ICEP--Report--Appendices/A-W.pdf.
    ICHEIC's mandate was to process the claims of survivors and heirs 
for unpaid life insurance policies. European insurance companies 
cooperating with ICHEIC contributed the funds to pay claims that could 
be traced to a particular company and to establish humanitarian 
projects. The funds for the humanitarian and related projects were 
intended to honor the millions that perished in the Holocaust and to 
provide for needy survivors, including those who were ineligible to 
file a claim. In addition to paying $300 million for all claims, ICHEIC 
allocated an additional $169 million for humanitarian projects. At the 
outset, it was clear that this amount was never intended to cover the 
value of all insurance assets of those murdered in the Holocaust. 
Obtaining funds from European insurance companies to cover the 
insurance assets of all who perished in the Holocaust would not have 
been an achievable goal, and such a negotiation would have probably 
delayed further the possibility of elderly survivors receiving a 
measure of justice in their lifetimes.

    Question. My understanding is that the German Insurance Association 
agreed, at the conclusion of ICHEIC, to continue to accept insurance 
claims now and forever provided that they are filed directly with the 
German companies. Is it your understanding that the German insurance 
companies will continue to accept insurance claims and if so, will they 
do so under ICHEIC's evidentiary standards?

    Answer. German insurance companies through their association are 
committed to continuing to consider claims that are sent directly to 
the issuing company. However, the research apparatus of ICHEIC and the 
German Insurance Association will no longer be able to assist claimants 
in verifying a claim. At the concluding meeting of ICHEIC in late 
March, the Association representative did not address the issue of 
ICHEIC evidentiary standards (see his statement below). We intend to 
contact the association in the next few days and ask for a 
clarification of evidentiary standards.
    Statement of German Insurance Association: ``I believe that the 
process to work for a better future needs to continue, even as we hope 
that we have by now addressed all unresolved insurance policies from 
the Holocaust era. . . . Therefore let me assure you that our member 
companies intend to continue to address inquiries that are sent to a 
specific company and will honor legitimate claims.''

    Question. Generali also has extended the period during which it 
will accept claims. Do you know if they are doing so under the ICHEIC 
standards?

    Answer. Yes. We understand that, as part of a court settlement, 
Generali agreed to follow ICHEIC valuation and eligibility standards. 
One can obtain more information 
by going to Generali claims settlement Web site: http://
www.nazierainsurance-settlement.com/?lang=en.
    [Note: The deadline for filing claims with Generali was also 
extended by the United States District Court for the Southern District 
of New York. The claims Web site states the following: ``Claims based 
on documents obtained from the [Bad Arolsen] archive must be submitted 
no later than six (6) months after the opening of the archive, but in 
no event later than June 30, 2008. If the archive is not opened by May 
1, 2008, the deadline for claims based on archival documents is 60 days 
after the opening, but no later than August 31, 2008.'']

    Question. What is the State Department doing to use its diplomatic 
leverage to get insurance companies, such as the German Insurance 
Association, Generali, and the Austrian insurance companies, to make 
good on their willingness to accept claims and to do so under the 
ICHEIC standards?

    Answer. As an ICHEIC member company, Generali followed ICHEIC 
standards and paid all eligible claims. There was a separate issue 
involving the processing of claims by an Israeli subsidiary, the 
Generali Trust Fund (GTF), which failed to maintain ICHEIC processing 
standards. ICHEIC resolved the matter on its own by terminating its 
contract with the GTF and transferring the claims processing to 
Generali's in-house claims processing operation. In other words, this 
was a temporary problem that has been completely resolved. One can read 
a fuller description of the matter in ICHEIC's Final Report available 
at naic.org (pages 29-30 and 54-55).
    We understand that, as part of a court settlement, Generali agreed 
to follow ICHEIC valuation and eligibility standards. One can obtain 
more information by going to Generali claims settlement Web site:http:/
/www.nazierainsurancesettle-ment.com/?lang=en.
    Regarding the Austrian General Settlement Fund (GSF), an issue that 
has recently arisen is whether the GSF would cover claims on policies 
issued by Austrian subsidiaries outside the Austrian Republic's 
present-day territorial limits. ICHEIC believed that such claims were 
covered under its operating agreement with the GSF. Austrian officials 
cited the precise wording of the July 2001 agreement with the United 
States, indicating that the latter agreement explicitly excluded GSF 
payment of claims on policies issued by Austrian subsidiaries in such 
countries as the former Czechoslovakia and Hungary. Its reasoning was 
that the nonpayment of policies by such subsidiaries or affiliates was 
due to the actions of the post-war communist governments, which also 
confiscated the assets of the subsidiaries, and not the Nazi regime in 
Austria. At the request of ICHEIC Chairman Lawrence Eagleburger, the 
Department of State raised the matter with Austrian officials. As a 
result, we received a commitment that the GSF would take care to review 
each specific claim on a policy issued outside the present-day 
territory of Austria with the objective of determining whether 
nonpayment resulted from actions that occurred in Austria or outside of 
that country, and the GSF would pay the claim if actions within Austria 
led to nonpayment.
    As this proposal was not full satisfactory to Chairman Eagleburger, 
he raised the possibility of Austria reimbursing ICHEIC for the $4.5 
million in payments made on the claims from outside Austria. The ICHEIC 
Final Report (pages 48 and 49) notes that no such reimbursement was 
forthcoming and ICHEIC continues to hope that the $4.5 million will be 
made available to the Claims Conference, the entity responsible for 
disbursing ICHEIC's remaining humanitarian funds. In this regard, 
please refer also to the answer to the last question and response in 
this section.
    Even following the close down of ICHEIC, the Department of State's 
Office of Holocaust Issues remains in regular contact with governments 
and the insurance companies and will continue to encourage them to meet 
their commitments regarding the further review of individual claims.

    Question. What is your assessment of the humanitarian aid portion 
of ICHEIC?

    Answer. ICHEIC struck a reasonable balance in dividing the use of 
its funds from insurance companies between evidence-based claims, 
humanitarian claims, and humanitarian projects. Some claims did not 
meet evidentiary standards, despite ICHEIC's extensive research and its 
relaxed standards of proof of a policy's existence. Nevertheless, these 
claims could be paid from one of ICHEIC's two humanitarian claims 
programs: one to cover claimants who could provide only credible
anecdotal evidence; the other to pay evidence-based claims against East 
European insurance companies with no present-day successors. (Both 
humanitarian claims programs are covered on pages 46 to 48 of ICHEIC 
Final Report.) We regard both programs as successful.
    The ICHEIC report also refers to $169 million of its funds being 
allocated to humanitarian projects with the bulk of the funds 
administered by the Claims Conference. The issue among survivor 
organizations was which groups and countries to focus spending of the 
humanitarian funds. The consensus among survivor organizations and 
insurance regulators was to devote the bulk of payments to countries 
which lacked an adequate social safety net and also had a large 
population of destitute Holocaust survivors. Thus, a large portion went 
to the needy Jewish population in the former Soviet Union. However, 
there were also funds allocated to needy survivors in the United 
States.

    Question. A recent op-ed in the New York Times described the fact 
that there are Holocaust survivors who are financially destitute and 
even homeless. What is being done to assist them? Is humanitarian aid 
that was given out through ICHEIC being directed to help these 
survivors? What is your office doing to help direct aid to these 
survivors?

    Answer. ICHEIC discussed this issue at great length and concluded 
that most of the funds available for humanitarian purposes should be 
reserved for the benefit of needy Holocaust victims worldwide. ICHEIC's 
commissioners also believed strongly that it also was important to 
allocate a portion of the funds ``. . . to support the strengthening of 
Jewish culture and heritage in recognition that the Nazis attempted to 
eradicate Jewish culture as well as the Jewish people. . . .'' ICHEIC 
contracted with the Jewish Claims Conference to distribute $132 million 
in social welfare benefits, including health care and home-care 
services, for needy Jewish victims of Nazi persecution. Given the 
weakness or absence of a social safety net in many countries of the 
former Soviet Union and given that Eastern Europe was where the Nazis 
sought to eradicate Jewish culture, ICHEIC's humanitarian programs have 
focused on this area. However, a significant portion of funds for home 
care and for destitute survivors have also been spent in the United 
States. We recommend contacting the Claims Conference for details in 
this regard.
    As observers on ICHEIC's board, we spoke out in favor of ensuring 
that a portion of the humanitarian funds be allocated for needy 
survivors in the United States.

    Question. ICHEIC recently released its final report and that report 
contains a section on lessons learned. It is important to look at how 
ICHEIC worked so that future claims commissions can learn from the 
ICHEIC experience. What in your view are the most important lessons 
learned from the ICHEIC process and how can they be followed in the 
future?

    Answer. The most important lesson in such matters is to determine 
whether one should have an individualized claims process or a mass 
claims process, as this decision will determine the cost and the time 
involved to process claims.
    The ICHEIC process, similar to that for the Swiss bank claims 
settlement, researched each claim and created a vast research 
apparatus, including audits, to find policies which failed to name an 
insurance company. This step in turn led to the publication of a names 
list that was thoroughly vetted and a second research step to determine 
from company archives and state archives in Europe whether the claim 
had been paid in the past. The individualized process also created the 
need to establish a mechanism for valuing claims issued in different 
currencies, and addressing policy losses created by inflation and 
currency depreciation. There were also translation costs to deal with 
documents is over 20 languages. Given these requirements, it is 
understandable that the ICHEIC process faced some delays and was 
relatively costly. Administrative costs amounted to $95.5 million, 
compared to the $300 million paid in claims and $169 million in 
humanitarian projects.
    By contrast, some other Holocaust settlements involved lump-sum 
payments and required only a minimum of research or documentation to 
establish eligibility. The simpler, lump-sum payments processes often 
had the same level of payment for different levels of loss or 
suffering, but they also had lower administrative costs and made 
payments somewhat faster.
    The ICHEIC participants determined fairly early in the process that 
the processing of claims must be handled on an individual basis. This 
meant that the process depended also on finding a consensus among 
various board members with different interests: the European insurance 
companies that contributed the funds in exchange for legal protection 
from further claims; the American state insurance commissioners who 
were strong advocates for the victims and heirs; and, of course, the 
representatives of the survivors and the state of Israel. The United 
States participated as an observer on the board, not only as an 
advocate of the survivors but also had to view the decision of ICHEIC 
in the context of other agreements settling Holocaust claims.
    Thus, with ICHEIC's board consisting of representatives with 
disparate interests, finding a consensus on some issues took years 
rather than months. Nevertheless, what eventually emerged was a 
conviction among all parties in the process that the process worked as 
intended and provided meaningful compensation for unpaid life insurance 
policies from the Nazi period. And it only worked because at key 
moments all representatives were prepared to make pragmatic compromises 
on difficult issues.

    Question. In order to learn from the ICHEIC process, it is 
essential that members of the public have the information they need to 
assess ICHEIC. Are you doing everything you can to ensure that the 
records from ICHEIC are preserved and made available?

    Answer. ICHEIC has made an excellent decision to send to the U.S. 
Holocaust Memorial Museum its records for safekeeping relating to the 
92,000 claims filed and decisions regarding payment offers and 
payments. Following a reasonable period and in order to protect 
privacy, the documents will be open to historical research and the 
public. ICHEIC's decision documents will eventually also be stored at 
the Museum.
    The U.S. Holocaust Memorial Museum has also agreed to maintain 
indefinitely the ICHEIC Web site, which contains a valuable record of 
its key decisions as well a wealth of information relating to the 
claims process. ICHEIC's complete 66-page Final Report appears on the 
ICHEIC Web site and on the NAIC Web site. Thus, we will direct any 
interested party to these Web sites as part of our continuing efforts 
to educate the public about the ICHEIC process.
    The Special Envoy for Holocaust Issues and his staff are prepared 
to brief the staff of Senate and House members, and we will be 
available nation-wide for speaking tours and interviews with local 
media wherever there are Jewish communities seeking information about 
ICHEIC. It is important that the success of ICHEIC is well-known.

    Question. Now that ICHEIC has shut its doors, what more can and 
should be done to assist survivors who have yet to get a measure of 
justice. What is the State Department doing? What can we do here in 
Congress?

    Answer. Survivor organizations are in an extremely important 
position to recommend what the greatest continuing needs are for 
survivors. From what we are hearing, it appears that the greatest need 
remains health care, home care, and long-term care.
    In recent years, the Department of State has facilitated agreements 
with companies and governments that made available $8 billion in 
payments related to labor claims, personal injury, and property losses, 
including insurance. All of these agreements have been implemented or 
their implementation is nearing completion. These agreements involved 
Swiss banks, Germany, Austria, France, and European insurance 
companies.
    The one area which continues to require the high-level attention of 
the Department of State is compensation for property claims in the new 
democracies of Central and Eastern Europe, particularly in Poland, 
which had Europe's largest Jewish community. Poland, and many other 
countries in this area as well, have not yet implemented an effective 
compensation law to cover the confiscation of property during the Nazi 
occupation. The Special Envoy for Holocaust Issues has given this 
matter the highest priority.
    In contacts with counterparts, all branches of the government may 
want to consider how to emphasize the importance Americans place on 
this issue of fundamental fairness.

    Question. What is the status of the Austrian claims process?

    Answer. After a 4-year delay due to problems in obtaining a 
dismissal of certain lawsuits in United States courts, the $210 million 
Austrian General Settlement Fund (GSF) began making payments to 
claimants in January 2006. This fund was created pursuant to a January 
2001 agreement with Austria and covers compensation for property 
losses, as well as the physical return of some properties that were 
once confiscated from Holocaust victims and recently, through 
historical research, were found to be still in the Austrian 
Government's possession. The Austrian Fund anticipates making payments 
on about 20,000 claims and has processed about half of the claims to 
date. The GSF is expected to complete all payments by 2008.
    We should note that the Austrian labor fund of $330 million has 
completed its payments, as has the $150 million special fund for paying 
compensation to Jewish victims for household property, long-term 
apartment leases, and business leases and property. Moreover, the 
Austrian pension system has been paying nursing home benefits to 
Holocaust victims and Austrian Jewish emigres in the United States 
(benefits over 10 years from 2001 to 2010 are estimated to be some $112 
million).

    Question. Do you know if the Austrian claims process has paid 100 
cents on the dollar for the insurance claims that they have recognized? 
If not, how much have they been paying on the dollar for claims? Is 
that an adequate level of compensation in your opinion?

    Answer. The Austrian payments under the $210 million General 
Settlement Fund (GSF) are regrettably in the range of 10 to 15 percent 
on the dollar. This is due to several factors, including primarily the 
unexpected high value of claims.
    We have always taken the view that no level of payment can ever be 
adequate to compensate survivors for their suffering and losses during 
the Holocaust. The amount allocated to the GSF in 2001 was negotiated 
among survivor groups, attorneys, companies, and governments to ensure 
that the elderly victims of the Holocaust received a measure of justice 
in their lifetimes. Had this been the only Austrian Government 
compensation program, the payment amounts would cause much greater 
concern. But one must place the shortcomings of the GSF in the broader 
context of other recent Austrian programs listed below:

  <bullet> Austrian National Fund: $150 million to 30,000 victims;
  <bullet> Slave and Forced Labor Fund: $330 million;
  <bullet> Household and Business Tenancy Rights: $150 million to 
        23,000 victims; and
  <bullet> Nursing Home Care to former Austrian citizens residing 
        abroad: $112 million.

    We should also note that the GSF also provides for the physical 
return (in rem) of several valuable properties confiscated during the 
Nazi period and held by the government or public entities until 
historical research revealed their rightful owners. We will be able to 
provide more details on the value of these properties at a later date.
                                 ______
                                 

          Responses of Charles English to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. Please describe in detail what steps you plan to take, if 
confirmed, to support the work of the State Court of Bosnia-
Herzegovina? How will you work to facilitate construction of a state 
prison?

    Answer. Ensuring that the State Court of Bosnia and Herzegovina is 
a fully functional, depoliticized institution capable of efficiently 
rendering just and fair verdicts is a key policy priority for the 
administration. If confirmed, I will fully support all of the efforts 
already underway to build this institution's capacity, such as 
financial contributions, technical assistance, and the seconding of 
talented American judges and prosecutors to the court. I will also, if 
confirmed, seek to improve the court's performance and cement it as the 
institution capable of delivering domestic justice to perpetrators of 
war crimes, organized crime, terrorism, and other grave offenses. For 
example, the administration is working to enhance the state court's 
capacity by supporting the development of a prosecutorial strategy that 
emphasizes better case management and makes the process of case 
prioritization and selection more systematic and transparent. If 
confirmed, I will seek similar ways to advance the objectives we share 
with Bosnia and Herzegovina in this area.
    The recent escape of Radovan Stankovic, the first war crimes case 
transferred from the International Criminal Tribunal for the Former 
Yugoslavia and tried to completion in the Balkans, highlights Bosnia 
and Herzegovina's need for a state prison. The current proposal for a 
prison is quite expensive and no donors have stepped forward to pledge 
sufficient funds. If confirmed, I will encourage the Bosnians to find a 
way to lower the current 14.4 million Euro price tag without 
sacrificing security or safety. Additionally, if confirmed, I will work 
with Bosnian Government officials and members of the international 
community to develop a realistic and sustainable funding strategy.

    Question. What, in your view, are the most pressing human rights 
issues in Bosnia-Herzegovina? What are the steps you expect to take--if 
confirmed--to promote human rights and democracy in Bosnia and 
Herzegovina? What do you hope to accomplish through these actions?

    Answer. Despite considerable progress over the last 12 years, there 
are still significant human rights issues in Bosnia and Herzegovina. 
Annex 7 of the Dayton Accords, which mandates the safe and secure 
return of all displaced persons to their pre-war homes, has yet to be 
fully implemented. Bosnians who have returned to communities where they 
are not the ethnic or religious majority deserve acute attention. If 
confirmed, I will work hard to ensure that minority returnees are a 
fully integrated and thriving part of Bosnia and Herzegovina's 
multiethnic communities.
    Respect for religious freedom is another urgent issue. 
Unfortunately, incidents of crimes targeting minorities' religious 
symbols increased in the run-up to the October 2006 national elections. 
To address this, I will, if confirmed, work with the leaders of the 
four main religious communities in Bosnia and Herzegovina to promote 
reconciliation, mutual respect, and dialog. I will make clear that 
disrespecting religious property or symbols will not be tolerated by 
this administration or the international community. I will also support 
the full implementation of the State Law on Religious Freedom.
    Building the capacity of institutions in the law enforcement and 
judicial sectors, and specialty offices such as the Office of the State 
Antitrafficking Coordinator, will serve to further promote human rights 
and democracy in Bosnia and Herzegovina. These institutions serve as 
important deterrents to possible human rights violations and help to 
investigate, protect and bring justice to victims when violations do 
occur. If confirmed, I will oversee the development of these 
institutions, working closely with Bosnian leaders and international 
community partners to point out instances of human rights violations, 
hold the perpetrators accountable, and build institutional mechanisms 
to safeguard against future violations.

    Question. If confirmed, what challenges will you face in Bosnia-
Herzegovina in advancing human rights and democracy in general?

    Answer. Following the February 26, 2007 decision of the 
International Court of Justice in Bosnia v Serbia, political rhetoric 
in Bosnia and Herzegovina has seriously deteriorated. The court's 
finding that genocide occurred in Srebrenica, while at the same time 
finding that Serbia was not accountable for perpetrating genocide, has 
prompted a focus on the roles played by institutions within Bosnia's 
Republika Srpska entity, and has led to calls for drastic 
constitutional change that challenges the fundamental principles of 
Dayton. Reversing this climate of heightened nationalism and refocusing 
the public conversation on ways to improve the lives of victims and all 
Bosnian citizens will be my first significant challenge, if I am 
confirmed. The victims of the Srebrenica genocide should live safe, 
secure lives free from any fear that they might suffer such tragedy 
again. They should also be afforded economic opportunities to improve 
their lives. If confirmed, I will focus much effort on ensuring that 
the conversation in Bosnia and Herzegovina is a constructive dialog 
that addresses the horrors of the past while focusing on improving 
people's lives in the immediate future.
    Establishing accountability for past actions helps establish 
fundamental acceptance of the rule of law that reinforces all other 
reforms in Bosnia and Herzegovina. Toward that end, another significant 
challenge I will face, if confirmed, will be ensuring that the 
remaining fugitives from the International Criminal Tribunal for the 
Former Yugoslavia are captured and extradited to The Hague. Namely, 
Ratko Mladic and Radovan Karadzic, the architects of the Srebrenica 
genocide, must face international justice. The principles of individual 
accountability and no impunity for war crimes or serious violations of 
humanitarian law must be a core part of a just, democratic, and stable 
Bosnia and Herzegovina.

    Question. In your new position, what steps will you take to ensure 
that promotion of human rights objectives will be an integral part of 
the U.S. Embassy's activities? If confirmed, what steps will you take 
to ensure that Foreign Service officers who engage in human rights 
activities are encouraged and professionally rewarded for superior 
service?

    Answer. The promotion of human rights objectives under the Dayton 
Accords has been central to this administration's agenda in Bosnia and 
Herzegovina. If confirmed, I will ensure that the focus on human rights 
remains a key element of Embassy Sarajevo's work. Promoting American 
values and interests go hand-in-hand with promoting respect for human 
rights and a democratic society in Bosnia and Herzegovina. Much of the 
administration's reform agenda is aimed at creating a stable and just 
society that will permanently move Bosnia and Herzegovina away from the 
tragic past and toward the community of nations that embraces the 
United States' key democratic principles such as freedom of speech and 
the press, rule-of-law and respect for minority communities. If 
confirmed, I will use the many tools at my disposal to communicate to 
the leaders and public of Bosnia and Herzegovina the benefits of fully 
embracing democratic principles.
    Public diplomacy opportunities, such as U.S.-funded exchange 
programs, press and media outreach, American celebrity speakers, and 
civil society events will all provide opportunities to engage the local 
community in conversations about human rights, and to press for action 
on specific issues. If confirmed, I will lead the embassy community by 
example by constantly returning to human rights principles as 
guideposts for good policy and by being a vocal critic of any abuses.
    If confirmed, I will assure that officers who show commitment to 
using their diplomatic voice to encourage tolerance, accountability, 
transparency, and justice throughout the institutions and social fabric 
of Bosnia and Herzegovina receive recognition for their work. If 
confirmed, I will encourage officers to think creatively about how the 
administration can support local organizations and/or projects aimed at 
providing opportunities and voice to minority communities. If 
confirmed, I will work closely with my officers to identify a handful 
of immediate changes that, if enacted, would tangibly benefit Bosnian 
communities and would immediately demonstrate the administration's 
commitment to human rights.

    Question. What are the most significant actions you have taken in 
your career to promote human rights and democracy? Why were they 
important? What was the impact of your actions?

    Answer. My work over the past 15 years has largely been focused on 
countries in transition, and in particular on the Balkans. Promotion of 
human rights and democracy has been at the top of our policy agenda, 
and I have been active in promoting that agenda.
    While I was in Croatia from 1998 to 2001 as Deputy Chief of Mission 
(DCM) and as Charge d'Affaires, we sought to help Croatian society heal 
the wounds from Yugoslavia's bloody wars of secession and return the 
country to normalcy. Two items topped our agenda--promoting return of 
those displaced by the war, and holding accountable those charged with 
war crimes. I coordinated embassy assistance programs that helped 
refugees reclaim property and return to their homes. I pressed a 
sometimes reluctant Croatian Government to provide the same 
reconstruction assistance to the ethnic-Serb minority as they did for 
ethnic-Croat returnees. As Charge, I led the diplomatic community's 
concerted effort to push for equal justice for minorities seeking 
redress in Croatian courts. My public message to the Croatian people 
emphasized the need for reconciliation and respect for the rights of 
all citizens. I believe my contributions helped push the ``returns 
agenda'' toward completion, and thereby advanced Croatia's efforts to 
take its rightful place in Euro-Atlantic institutions.
    Full normalcy cannot be restored to the nations of the former 
Yugoslavia until those responsible for the terrible crimes committed in 
nearly a decade of war there are brought to justice. As Director of the 
State Department's Office of South Central European (i.e., Balkan) 
Affairs from 2003 to 2006, I met frequently with leaders in Belgrade, 
Sarajevo, Zagreb, and Pristina, and pressed them to cooperate fully 
with the International Criminal Tribunal for the former Yugoslavia 
(ICTY). As DCM and Charge in Croatia, I helped to promote a positive 
climate between the ICTY Prosecutor and the Croatian leadership.
    Restoring rule of law to these societies is a paramount concern. As 
Policy Director for the State Department's Bureau of International 
Narcotics and Law Enforcement Affairs from 1995 to 1998, I directed 
comprehensive programs aimed at building democratic police structures 
in countries emerging from war or other trauma. Our efforts supported 
the beginnings of such reform in Croatia and in Bosnia and Herzegovina.
    These are just a few examples of actions I have taken to promote 
human rights and democracy. If confirmed, I will continue to pursue a 
vigorous reform agenda in Bosnia and Herzegovina.
                                 ______
                                 

         Responses of Roderick W. Moore to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. Regarding United States assistance to Montenegro, the 
President's 2008 Congressional Budget Justification states that ``U.S. 
funding for democratic reform will decline relative to security and law 
enforcement assistance to help Europe's newest nation build capacity to 
secure its people and its borders.'' Can you comment on the priorities 
of the administration toward Montenegro? If confirmed as the first 
United States Ambassador to Europe's newest nation, what will be your 
top priority?

    Answer. Our top priority in Southeastern Europe is to achieve 
enduring stability in a region that has been racked too often by 
conflict. In achieving this, we can help integrate the countries of the 
Balkans into the President's vision of a Europe ``whole, free, and at 
peace.''
    If confirmed, my top priority will be to ensure that Montenegro 
succeeds with its political and economic transition and continues on 
the path toward full integration into the Euro-Atlantic community. A 
democratic and prosperous Montenegro that fully respects the rights of 
all its citizens and that meets the requirements for membership in NATO 
and the European Union will be a stable Montenegro that can also act as 
a reliable partner of the United States on regional and global issues.
    To achieve this success in Montenegro, the administration's top 
priorities are the promotion of equitable economic growth, 
strengthening the rule of law--including the promotion of human rights 
and democratic reform, and enhancing regional stability. Progress in 
all of these areas, including the strengthening of democratic 
institutions, is critical to success.
    Job creation and balanced economic development will build support 
for Montenegro's democracy and free market reforms. This is 
particularly true in the impoverished north, where opposition to 
Montenegrin independence was largely centered. Ensuring the north a 
greater economic stake in an independent Montenegro will be critical to 
long-term stability.
    Second, we must work with the Montenegrins to strengthen the rule 
of law and to fight corruption and organized crime. We have already 
spent millions of dollars in recent years to strengthen democratic 
institutions, and we intend to remain engaged in this sector. Although 
much has been accomplished in terms of democratic development, the 
judicial sector in particular remains weak and will continue to be a 
primary focus for our attention.
    Finally, it is in our interest to help Montenegro, as a potential 
future NATO ally, to reform its military and secure its borders. The 
Montenegrins have expressed their willingness to contribute forces to 
the war on terror, but require our help in building and transforming 
their military into a capable force. We are also working with the 
Montenegrin police to create a more professional and capable force, in 
order to combat corruption and organized crime and trafficking.

    Question. Rampant corruption remains a significant obstacle to the 
consolidation of democracy and the rule of law in Montenegro. How do 
you think this issue is best addressed?

    Answer. The United States has many tools at its disposal--and a 
great deal of experience in the region--in helping the new democracies 
of Central and Eastern Europe to combat corruption. If confirmed, my 
top priority in supporting Montenegrin efforts to fight corruption 
would be to apply those practices that have been successful elsewhere 
in ensuring that perpetrators of corrupt practices are investigated, 
prosecuted, and punished. I am convinced that firm enforcement of the 
law is the best deterrent against corrupt practices.
    Another key strategy in combating corruption in Montenegro is to 
increase transparency, particularly in how Montenegro's Government, at 
all levels, takes and
implements decisions. We will also encourage efforts to strengthen real 
checks and balances and to develop further the oversight role of the 
parliament. By helping develop strong civil society organizations, we 
can also ensure that they serve as an important check on government and 
play a key watchdog role. Judicial reform will also be important in the 
fight against corruption.
    Montenegro will have to improve its record of fighting corruption 
if it is to achieve its goal of membership in Euro-Atlantic 
institutions such as NATO and the European Union. These, and other 
organizations, will require concrete progress in this area.

    Question. Local authorities in Montenegro have been accused of 
torturing several United States citizens that are currently in custody 
of the Montenegrin Government. What steps has the embassy taken to 
investigate these allegations? If confirmed, what steps will you take 
as ambassador to assure these individuals receive a fair trial?

    Answer. I take these allegations very seriously, and, if I am 
confirmed, protecting the rights of American citizens in this, or any 
other case, will be a top priority of mine.
    In the case in question, the embassy formally requested ``a full 
and impartial investigation'' of alleged police abuses by Montenegrin 
authorities immediately after being authorized to do so by the 
prisoners. The results of the initial internal police investigation 
were inconclusive, but a subsequent investigation by the prosecutor's 
office continues. From the first days of the American citizens' 
detention, embassy staff have regularly visited the men in jail, and 
have assisted the detainees and their families who have sought to visit 
them in every permissible way. During the ongoing trial of the three 
American citizens, embassy observers have been present in the courtroom 
whenever the American citizens were being questioned by the presiding 
judge.
    If confirmed, the embassy and I will continue to stay in close 
contact with representatives of the accused American citizens in order 
to monitor the trial proceedings. I will also continue to send the 
message--something our Embassy in Podgorica has consistently done--that 
we expect our citizens to receive a fair trial.

    Question. What, in your view, are the most pressing human rights 
issues in Montenegro? What are the steps you expect to take--if 
confirmed--to promote human rights and democracy in Montenegro? What do 
you hope to accomplish through these actions?

    Answer. As the State Department has documented in the annual Human 
Rights Report, the most pressing human rights issues in Montenegro 
involve the justice system, including occasional abuse of suspects 
while in police custody, lengthy pre-trial detention and delayed 
trials, and corruption within the law enforcement agencies and the 
judiciary.
    To address these problems I would, if confirmed, support efforts to 
make Montenegro's law enforcement institutions more professional and 
competent; support the work of the independent human rights Ombudsman 
in Montenegro, and continue to support and strengthen civil society, 
which serves as an important watchdog over the police and justice 
system. If confirmed, I will work closely with the OSCE mission in 
Montenegro, which has programs in these areas that complement our 
efforts. If confirmed, I will also ensure that the embassy continues 
advocacy on this issue in public and in private, which has proved 
effective in drawing attention to deficiencies and encouraging better 
compliance with international norms.
    Although we cannot expect progress in all of these areas overnight, 
I firmly believe that Montenegro can--with continued United States and 
European Union assistance--achieve real progress in all of these areas 
and further the protection of human rights in Montenegro. My hope, if 
confirmed as ambassador, is to see steady progress in making the police 
and judiciary more professional and accountable, and much closer to 
western standards.
    If confirmed, I would also focus extensive energy on strengthening 
relations among Montenegro's rich mix of ethnic and national groups. As 
a diverse society, Montenegro has the potential to be a positive model 
for other ethnically-mixed countries in the region.

    Question. If confirmed, what challenges will you face in Montenegro 
in advancing human rights and democracy in general?

    Answer. If confirmed, I expect to face many of the same challenges 
I faced in some of my previous tours, such as in Belgrade, Zagreb, and 
Sofia. Promoting human rights and democracy can be a difficult, but 
enormously rewarding job, and it is one I have relished throughout my 
Foreign Service career.
    If confirmed, my main challenge in promoting human rights and 
democracy in Montenegro will likely be the fact that truly protecting 
human rights and promoting democratic development usually requires 
deep-seated changes in societal attitudes and mindsets. Simply passing 
legislation--although important--is not enough. Members of the 
government, parliament, and ordinary citizens must understand and 
embrace the need to advance and protect human rights and democratic 
norms.
    This is already happening in Montenegro, although more needs to be 
done. I am heartened that recent polling showed that the most respected 
public figure in Montenegro is a young woman who is the head of an NGO 
working to fight corruption. Montenegro has also had a series of 
elections and votes, including the May 2006 independence referendum, 
deemed to be free and fair by international and United States 
Government observers. The Montenegrin people's support for a Euro-
Atlantic future for Montenegro is also having a deep impact on 
Montenegrin society as Montenegrins increasingly embrace our commitment 
to human rights and democracy.

    Question. In your new position, what steps will you take to ensure 
that promotion of human rights objectives will be an integral part of 
the U.S. Embassy's activities? If confirmed, what steps will you take 
to ensure that Foreign Service officers who engage in human rights 
activities are encouraged and professionally rewarded for superior 
service?

    Answer. Promotion of human rights objectives is already an integral 
part of Embassy Podgorica's activities. More importantly, it is a core 
tenet of U.S. foreign policy and a central pillar of the values our 
country represents.
    If confirmed, I would certainly continue and strengthen this 
emphasis. After all, we cannot achieve the goal of supporting 
Montenegrin efforts to create a truly democratic and stable Montenegro 
without a genuine commitment on their part to human and civil rights. 
To make sure of this, I will make certain that the promotion of human 
rights has a central place in our yearly strategic planning process, 
when the embassy, through its Mission Strategic Plan, lays out its 
priorities for the coming years. Promotion of human rights and 
democracy is also the central focus of the embassy's Democracy 
Commission and is a central focus of our assistance to Montenegro.
    In terms of recognizing those Foreign Service officers who engage 
in the promotion of human rights, I feel strongly that for any Foreign 
Service officer to be successful, he or she must demonstrate a strong 
commitment to promoting human rights. This is something I have 
consistently strived for throughout my career, and if confirmed it is 
something I pledge to continue to push for as ambassador.

    Question. What are the most significant actions you have taken in 
your career to promote human rights and democracy? Why were they 
important? What was the impact of your actions?

    Answer. During the course of my career, I have had the opportunity 
to work extensively on human rights issues in a variety of countries 
facing significant human rights challenges.
    In my most recent post, Belgrade, I led a major effort to ensure 
that the perpetrators of the 1999 killings of three young American 
citizens--the Bytyqi brothers--be brought to justice. When I arrived at 
post in 2004, the Serbian-led investigation had stalled, and no arrests 
had been made. During the course of the next 3 years, I made dozens of 
public and private interventions to appeal for justice in the case, 
raising it to a high-level bilateral issue between our countries. I 
also worked extensively with the FBI, the Justice Department, and 
Serbian law enforcement officials to push for an aggressive 
investigation. Largely as a result of this pressure, six separate 
Serbian security officials have since been arrested, and one trial is 
ongoing.
    Also in Serbia, I launched a major effort to increase awareness 
among the Serbian population regarding war crimes committed by Serb 
forces during the wars of the 1990s. Widespread denial about Serb 
crimes distorts public attitudes toward important policy issues (e.g., 
cooperation with the Hague Tribunal; Kosovo; relations with neighboring 
states), undercutting our efforts to encourage a more constructive 
Serbian approach on key matters impeding its fuller integration into 
the Euro-Atlantic community. I made numerous nationally-covered 
speeches, some in conjunction with the 10th anniversary of the 
Srebrenica massacre, that contributed significantly to national debate 
on this topic. I also coordinated a United States Government effort to 
produce a nine-part, nationally-televised retrospective on Serb war 
crimes that attracted millions of viewers.
    As chief of the political section in Zagreb, Croatia, I devoted a 
substantial portion of my time promoting the return of refugees 
(primarily Serbs) forced from their homes as a result of actions taken 
by the Tudjman regime. I made dozens of visits to areas formerly 
occupied by Serbs (e.g., Krajina, Western, and Eastern Slavonia) to 
push local and national government officials to facilitate the return 
of refugees. In the embassy, I also played a central role in 
implementing the Refugee Return Assistance Program, a United States 
Government-funded project that provided incentives to selected 
municipalities that proved open to the return of displaced persons. On 
several occasions, I served as the embassy's chief negotiator in 
concluding formal agreements with the Croatian Government relating to 
the return of refugees and displaced persons.
    Moreover, as a junior political officer in Bulgaria in 1990, I 
extensively monitored efforts by communist authorities to establish 
unfair advantages over the nascent democratic opposition in the run-up 
to that country's first democratic elections. I also reported on and 
advocated for the rights of ethnic minorities (Pomaks, Turks, and Roma) 
to be fully enfranchised and worked extensively with representatives of 
those minorities on issues related to human rights in Bulgaria's new 
democracy.
                                 ______
                                 

          Responses of Cameron Munter to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. The President's 2008 Congressional Budget Justification 
states that ``Serbia's stability and reform are fundamental to the 
success of United States
foreign policy in the region.'' Yet 2008 requested funding for the 
country has been
reduced across the board, and significantly in areas critical to 
ensuring Serbia's stability and reform (for example ``governing justly 
and democratically'' and ``civil society''). Can you comment on this? 
If confirmed, how will you promote democratic reform in the country and 
what steps will you take to support Serbia's beleaguered civil society?

    Answer. For strategic and fiscal reasons, overall assistance to 
Southeastern Europe in 2008 will decline. However, funding for projects 
in Serbia is still at relatively high levels. Like many other of the 
``new'' democracies in Central and Eastern Europe, as Serbia moves 
closer to European integration and receives more European Union 
funding, United States assistance levels will decrease and eventually 
phase out. Nevertheless, there remain at present many opportunities for 
U.S. Government programs to promote the rule of law, fight corruption, 
strengthen institutions, and encourage economic growth, thus keeping 
Serbia on the path toward Euro-Atlantic integration. If confirmed, I 
intend to work closely with the United States Congress to ensure that 
our policy objectives are met and that our assistance is used 
appropriately to support United States interests in Serbia.
    If confirmed, I will reach out to United States-based civil society 
organizations before I depart for Belgrade, including the National 
Endowment for Democracy and other groups who have done so much to 
promote democracy in Serbia. Soon after my arrival in Serbia, I will 
endeavor to establish quickly a solid and productive working 
relationship with in-country civil society organizations and to 
maintain that relationship throughout the duration of my assignment. 
These NGOs will be key partners of the embassy in a common effort to 
deepen democratic values not only for those in Serbia, but for all 
persons throughout the Balkans.

    Question. The European Union recently reopened SAA talks with 
Serbia despite the fact that the two most wanted war criminals from the 
wars of the 1990s, Ratko Mladic and Radovan Karadzic, remain at large. 
What is your opinion of this decision? Does full cooperation with the 
ICTY remain a priority of the administration? If confirmed, how will 
you encourage the serving of justice for those responsible for war 
crimes while discouraging the further isolation of the country?

    Answer. Serbia's full compliance with its ICTY obligations remains 
a key goal of this administration. Until May of this year, the level of 
cooperation out of Belgrade since early 2005 was unsatisfactory. Since 
the formation of a new government in mid-May, cooperation appears to be 
improving. The administration's expectations are that compliance will 
improve and that the remaining indictees will be arrested and 
transferred to The Hague. That means the Serbian Government must do 
everything practicable to locate, arrest, and transfer fugitive 
indictees, as well as making witnesses and documentary evidence 
available to the Tribunal.
    While the European Union has restarted SAA talks with Serbia, 
European Union officials have made it clear that a conclusion of those 
talks and eventual European Union membership are contingent upon full 
cooperation with ICTY. The European Union has said that it will not 
sign the SAA until accused war criminal Ratko Mladic has been arrested 
and transferred to The Hague. Ultimately, however, this is a decision 
for the European Union.
    The administration also has refined our own approach on how to 
encourage Serbia to meet its obligations; if confirmed, I will do my 
part to further this goal.
    For example, the administration is currently working toward the 
establishment of mechanisms through which each of the four remaining 
ICTY fugitives will face justice regardless of ICTY's impending closure 
in 2010. This will send a clear signal that fugitives cannot out-wait 
justice.
    The administration is not waiting for the remaining fugitives to 
turn themselves in. Rather, it is actively encouraging their 
apprehension. The State Department has recently designated a regional 
liaison officer to assist with war crimes investigations and 
prosecutions. If confirmed, I will work to ensure that my embassy leads 
in this effort. I will stress, both in private and publicly, the 
importance to our shared future of ensuring that the indicted fugitives 
face justice.
    Cooperation with the Tribunal is the key to Serbia's future 
integration into the Euro-Atlantic community. The administration wants 
Serbia to become part of a united Europe, whole, free, and at peace. If 
confirmed, I will help design our assistance initiatives and outreach 
with the ultimate goal of Serbia's integration into Euro-Atlantic 
structures. While many reforms have been successfully implemented, 
Serbia simply cannot complete the process of integration without fully 
and openly facing up to its war crimes legacy. In the end, the desire 
of so many Serbs for Serbia to have a place in Europe, and even NATO, 
may be the biggest motivator of all.

    Question. What, in your view, are the most pressing human rights 
issues in Serbia? What are the steps you expect to take--if confirmed--
to promote human rights and democracy in Serbia? What do you hope to 
accomplish through these actions?

    Answer. The Serbian Government generally respects the human rights 
of its citizens; however, there are problems, including widespread 
corruption, failure to fully cooperate with the International Criminal 
Tribunal for the former Yugoslavia (ICTY) in The Hague, and attacks on 
religious and ethnic minorities, journalists, and human rights 
defenders.
    The administration is working to ensure that Serbia continues its 
efforts to commit to international human rights standards, including a 
fair and efficient judicial process, respect for ethnic and religious 
minorities, a free, independent, and professional media, and the 
elimination of trafficking in persons. To this end, if confirmed, I 
will continue to assist the government in reforming the judiciary and 
law enforcement through training and technical assistance to help build 
an institution capable of ensuring a functioning rule of law. The 
administration will maintain efforts to ensure that all persons 
displaced as a result of the conflicts in the region--of which Serbia 
hosts the largest percentage--have a real choice about their future. 
Since all minorities should be able to live in peace, if confirmed, I 
will continue efforts toward ethnic reconciliation to help the region 
move beyond the problems of the past, including working to improve 
cooperation with ICTY and the capacity for domestic war crimes 
adjudication. If confirmed, I will continue to encourage the government 
to address problematic aspects of a law on religion that discriminates 
against ``nontraditional'' religious groups, and to pass a law on 
associations that will comply with international standards regarding 
regulation of nongovernmental organizations. If confirmed, I will also 
continue to work with authorities in Serbia to help them more 
effectively combat trafficking in persons through protection, 
prevention, and prosecution.
    Ultimately, if confirmed, I will work to bring Serbia closer to 
integration into Euro-Atlantic institutions through United States 
assistance and continued active engagement on these important human 
rights concerns.

    Question. If confirmed, what challenges will you face in Serbia in 
advancing human rights and democracy in general?

    Answer. The Balkan region suffered significantly as a result of the 
events of the 1990s. Ethnic cleansing, armed conflict, the forced 
displacement of approximately 4 million people, and an internationally 
isolated criminal regime, left a legacy of loosely controlled borders, 
corruption, and weak rule of law structures. Today, serious 
institutional challenges remain, complicating Serbia's ability to 
reform the economy, meet the basic needs of its citizens, and combat 
organized criminal groups.
    Reversing the effects of this difficult legacy by helping to 
establish functioning democratic institutions capable of moving Serbia 
closer to Europe is the focus of the administration's efforts in 
Belgrade and throughout the region. While rooting out corruption, 
fighting crime, and moving beyond the ethnic hatreds of the past are 
hard work, they are necessary elements of ensuring a stable, 
democratic, and peaceful Balkan region.
    Political will in Serbia is key to advancing human rights and 
democracy in this country. While there has unquestionably been progress 
since the fall of Milosevic, there are still noticeable gaps in the 
government's commitment to protect and advance the rights of all its 
citizens--not just those of ethnic or religious minorities, but also 
the rights of those who oppose the government's approach to the 
question of Kosovo status. The new coalition government formed after 
January 2007 elections is a democratic one, but as the brief inclusion 
of radical elements into national-level government by the Prime 
Minister's party highlighted, the coalition may still be susceptible to 
pressure from nationalist parties and Milosevic-era rhetoric. The 
administration will need to push Serbia's leaders and continue to work 
with democratic parties to stand up against the nationalist agenda and 
to advance human rights.
    This is too important to do alone. If confirmed, I pledge to engage 
our European partners to join with us to advance our common human 
rights agenda.

    Question. In your new position, what steps will you take to ensure 
that promotion of human rights objectives will be an integral part of 
the U.S. Embassy's activities? If confirmed, what steps will you take 
to ensure that Foreign Service officers who engage in human rights 
activities are encouraged and professionally rewarded for superior 
service?

    Answer. The promotion of human rights and democracy is a core 
objective for our engagement in the Balkans. Like other embassies in 
the region, the United States diplomatic mission to Serbia has a 
Foreign Service officer whose portfolio is dedicated to monitoring and 
reporting on human rights, which includes our Country Report on Human 
Rights, International Religious Freedom Report, and Trafficking in 
Persons Report. This officer maintains close contact with human rights 
organizations in Serbia. If confirmed, I will assure that these duties 
are highlighted in this individual's performance requirements and 
ratings.
    In addition, if confirmed, I will make clear to my staff that human 
rights issues are the responsibility of every staff member, regardless 
of his/her formal work assignment. If confirmed, I will make certain 
that strong human rights performance is given emphasis in rating 
performance and in the awarding of special commendations.
    If confirmed, I pledge to you that the public stance of the 
embassy, including my own speeches and those of my colleagues, will 
highlight human rights issues consistently and clearly.

    Question. What are the most significant actions you have taken in 
your career to promote human rights and democracy? Why were they 
important? What was the impact of your actions?

    Answer. I have addressed human rights issues--and, I believe, made 
a difference--through the two decades of my Foreign Service career. Let 
me provide three examples:

  <bullet> In 1986-1988 in Warsaw, I served as the embassy's contact 
        for the still-illegal trade union Rural Solidarity. I assisted 
        in its efforts to promote democratic ideals and economic 
        freedom by helping activists with publicity and dissemination 
        of informational materials. By paying close attention to the 
        individuals and to the issues raised by Rural Solidarity, and 
        encouraging the Western press to do the same, I helped protect 
        Rural Solidarity activists from government retribution.
  <bullet> In 1997-1998, as chief of staff in the NATO Enlargement 
        Ratification Office, I worked closely with many Americans 
        (including the Senate NATO Observer Group) to ensure that 
        aspirants for NATO membership enshrine key elements of human 
        rights practices in legislation as a prerequisite for 
        consideration for accession to the Alliance. Thanks to this 
        effort, Czechs, Poles, and Hungarians have a high standard of 
        law governing anti-Semitism, discrimination against Roma, the 
        heritage of Nazi and Communist dictatorships, and relations 
        with neighbors.
  <bullet> In 2006, I volunteered to lead the first Provincial 
        Reconstruction Team in Iraq, in Mosul. At that time, Abu Ghraib 
        was shutting down, and Mosul's Baddush prison became the 
        largest in Iraq. Under my PRT's Rule of Law section, I created 
        a human rights subgroup that had as one of its tasks regular 
        civil-military visits to Baddush, often three to four times per 
        week, to ensure that the abuses associated with Abu Ghraib 
        would not be repeated at Baddush. In this, we were successful.

    I am proud of these and other actions I've taken in advancing human 
rights and democracy, and pledge to continue in a similar direction if 
confirmed to serve as Ambassador to Serbia.
                                 ______
                                 

      Responses of Dr. John L. Withers II to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. Albania has proved itself a loyal ally of the United 
States. However, its governments have not always lived up to 
international standards of democracy. In recent years local watchdog 
groups have expressed concerns about government encroachment on civil 
liberties in the fight against corruption. If confirmed, what steps 
will you take to promote such rights as freedom of speech and freedom 
of association? How would you react if you believe the Albanian 
Government is exerting inappropriate pressure on human rights groups 
and other civic associations?

    Answer. The United States Embassy maintains a constant and active 
engagement with human rights groups and civil society organizations in 
Albania dedicated to promoting freedom of speech and freedom of 
association. For example, the United States has supported the Citizen's 
Advocacy Office (CAO), which serves as a corruption watchdog and 
investigative unit, as well as the Albanian Coalition Against 
Corruption (ACAC), a civil society umbrella network including more than 
160 nongovernmental organizations dedicated to democratic freedoms.
    The Government of Albania knows that corruption threatens to derail 
achievement of its foreign policy ambitions, and it is addressing the 
problem. Albania has made several advances on its democratic agenda 
this year; however, the country's democratic institutions remain 
fragile. Media, the judiciary, and civil society are independent of 
government control, but do not provide effective checks and balances. A 
pervasive culture of corruption corrodes independent institutions, as 
well as political entities. Public awareness of the problem is growing, 
and Albanian citizens are becoming empowered to speak out against 
corruption. Of course, more progress needs to be made.
    Strengthening Albanian citizens' rights to the fundamental freedoms 
of expression and association is one of the administration's highest 
bilateral priorities, and figures prominently in our ongoing dialog 
with top Albanian politicians. If confirmed, I will continue the high-
level dialog we are engaged in with the Albanian Government in support 
of these freedoms. If there is evidence that the Albanian Government is 
exerting inappropriate pressure on human rights groups and other civic 
associations I will move quickly to call this to the Albanian 
Government's attention. If confirmed, I will likewise continue the 
Mission's support of human rights groups and civil society 
organizations dedicated to promoting freedom of speech and freedom of 
association.

    Question. What, in your view, are the most pressing human rights 
issues in Albania? What are the steps you expect to take--if 
confirmed--to promote human rights and democracy in Albania? What do 
you hope to accomplish through these actions?

    Answer. Although the Albanian Government generally respects the 
human rights of its citizens and is dedicated to the promotion of 
democracy, there remain significant problems in several areas. Albanian 
arrest and pre-trial detention conditions continue to be concerns, as 
well as police corruption and impunity. Societal violence and 
discrimination against women and children are a problem, as is 
trafficking in persons and discrimination against minority groups. 
Corruption and a weak rule of law have blocked the prosecution of those 
who have committed human rights offenses. The United States continues 
to stress to the Albanian Government that respect for human rights is 
an integral part of NATO and European Union accession standards, and 
that Albania must continue to improve its adherence to international 
human rights, democracy standards, and the rule of law, including the 
obligation to bring human rights abusers to justice.
    If confirmed, I would work to enhance the effectiveness of the 
criminal justice system to ensure that human rights abuses are not left 
unpunished. I would use Mission resources to mentor and train 
prosecutors, facilitate police reform by promoting legislative and 
policy changes, and boost civil participation by helping Albanian 
organizations gain more influence in policymaking and implementation. 
Furthermore, I would work to enhance the professionalism of the media 
in order to focus public scrutiny on government practices in the human 
rights area, fostering transparency and respect for law. Through these 
actions I would hope to focus both government and public attention on 
the issue of human rights violations, thereby facilitating change.

    Question. If confirmed, what challenges will you face in Albania in 
advancing human rights and democracy in general?

    Answer. If confirmed, the greatest challenges I would face in 
advancing human rights and democracy would be corruption, inconsistent 
prosecution, and a weak rule of law. Corruption among those involved in 
policing human rights abuses continues to present itself as a major 
obstacle in the battle against human trafficking, arbitrary arrests, 
and unlawful prison abuse. Similarly, a weak rule of law presents 
challenges in combating organized crime, a major driver of trafficking 
and other unlawful activities that violate human rights. If confirmed, 
I will continue the practice of my predecessors of raising concerns 
with senior government officials for the purpose of advancing human 
rights and democracy in Albania.

    Question. In your new position, what steps will you take to ensure 
that promotion of human rights objectives will be an integral part of 
the U.S. Embassy's activities? If confirmed, what steps will you take 
to ensure that Foreign Service officers who engage in human rights 
activities are encouraged and professionally rewarded for superior 
service?

    Answer. Promoting human rights is central to our overarching 
objective in Albania, which is to assist Albania in its mission to 
become a modern, democratic nation fully accepted by and integrated 
into Euro-Atlantic institutions. If confirmed, I would work to ensure 
that the promotion of human rights objectives will be an integral part 
of the U.S. Embassy's activities by making it clear that the human 
rights, including women's rights, religious rights and minority rights 
have a major place in the Mission's agenda. If confirmed, I will 
encourage officers to focus on these issues in both their official and 
unofficial interactions with Albanians and ensure that these topics are 
a key element of discussion and reporting. I will also encourage 
officers to travel throughout Albania to collect information on human 
rights abuses, as well as monitor progress in this area. If confirmed, 
I will acknowledge, advance, and give full consideration to Foreign 
Service officers who show energy and creativity in promoting U.S. human 
rights objectives.

    Question. What are the most significant actions you have taken in 
your career to promote human rights and democracy? Why were they 
important? What was the impact of your actions?

    Answer. As a political officer in Nigeria (1988-1990), I was deeply 
engaged in the processes that led that country to democracy after a 
decade of military rule, including serving as the embassy's point 
person in working with human rights organizations and fledgling 
political parties, and in reporting on Nigeria's Constituent Assembly 
as it drafted the new constitution. My assignment to Moscow in August 
1991 coincided with an historic moment: the collapse of the communist 
system, followed by the dissolution of the Soviet empire and the 
emergence of democratic Russia. I worked closely with Russia's emerging 
political parties and pro-democracy support groups such as NDI and IRI, 
and monitored reform efforts in city governments throughout Russia and 
in the Congress of People's Deputies. My focus as the Director of the 
State Department's Office of North Central European Affairs (which was 
responsible for the new democracies of Poland, Hungary, the Czech 
Republic, Romania, Slovenia, and Slovakia) was on the issues of 
political pluralism, economic restructuring, social integration, and 
commitment to individual liberties crucial to any nation intent on 
shedding its authoritarian past.
    Perhaps my most important achievements occurred in Latvia, where I 
served as Deputy Chief of Mission from 1997 to 2000. It was a country 
striving both to rejoin the international community through membership 
in such institutions as NATO and the European Union, and to cope with 
two crippling historical legacies: a massive, stateless Russian-
speaking minority and the Holocaust. I played a central role in the 
embassy's efforts to encourage Latvian social integration, including 
urging the Latvians to meet international standards on citizenship, 
education, and language protections for minorities. In addition, I took 
the lead on embassy initiatives on anti-Semitism, Jewish property 
restitution, and the formation of an international Historical 
Commission to examine Latvia's role in the Holocaust. My work in 
coordinating a joint effort by the Department of Justice's Office of 
Special Investigation, the Latvian Prosecutor General, foreign 
diplomatic missions, and international legal experts to extradite an 
accused Latvian war criminal from Australia earned me a commendation 
from the United States Attorney General.
                                 ______
                                 

      Responses of Dr. John L. Withers II to Questions Submitted 
                     by Senator Christopher J. Dodd

    Question. Have you read the cable ref: 04 STATE 258893--Peace 
Corps--State Department Relations?

    Answer. Yes, I have read the cable.

    Question. Do you understand and agree to abide by the principles 
set forth in this cable?

    Answer. I do understand and agree to abide by the principles set 
forth in the cable.

    Question. Specifically, do you understand and accept that ``the 
Peace Corps must remain substantially separate from the day-to-day 
conduct and concerns of our foreign policy'' and that ``the Peace 
Corps's role and its need for separation from the day-to-day activities 
of the mission are not comparable to those of other U.S. government 
agencies''?

    Answer. I understand and accept these important principles, which 
govern the relationship between U.S. missions and the Peace Corps.

    Question. Do you pledge, as Secretary Rice requests in 3.B of the 
cable, to exercise your Chief of Mission ``authorities so as to provide 
the Peace Corps with as much autonomy and flexibility in its day-to-day 
operations as possible, so long as this does not conflict with U.S. 
objectives and policies''?

    Answer. I pledge to exercise my authorities as Chief of Mission 
according to this guideline laid out by Secretary Rice as Departmental 
policy.

 
                              NOMINATIONS

                              ----------                              


                         TUESDAY, JULY 24, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
John, Eric G., to be Ambassador to the Kingdom of Thailand
Michalak, Michael W., to be Ambassador to the Socialist 
        Republic of Vietnam
                              ----------                              

    The committee met, pursuant to notice, at 10:03 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Barbara Boxer 
presiding.
    Present: Senators Boxer and Webb.

            OPENING STATEMENT OF HON. BARBARA BOXER,
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Good morning. The committee will come to 
order. Today the full Senate Foreign Relations Committee meets 
to consider two distinguished nominees for ambassadorial posts 
in Vietnam and Thailand. So we're actually sitting as the full 
committee.
    The reason we're starting so exactly on time is because we 
have votes scheduled shortly and it is my intention to complete 
this hearing. In my view these are two excellent nominees and 
there's no need for extended questioning. However, if for 
example Senator Webb wanted to come back and pursue a line of 
questioning, I would give him the gavel to do that.
    So, as chair of the Subcommittee on East Asian and Pacific 
Affairs, I'm very pleased to welcome our nominees, Michael 
Michalak and Eric John. Ambassador Michalak, the President's 
nominee to be ambassador to Vietnam, has served his country as 
a member of the Foreign Service for more than 30 years, most 
recently as the senior Foreign Official for Asia Pacific 
Economic Cooperation. Ambassador Michalak has extensive 
experience in Asia, having served in both Japan and China, and 
in a variety of posts in the Bureau of East Asian and Pacific 
Affairs.
    Eric John, the President's nominee to be ambassador to 
Thailand, has also served his country for more than two 
decades, most recently as Deputy Assistant Secretary of State 
for East Asian and Pacific Affairs. Prior to that, Mr. John 
served as political minister counselor at the United States 
Embassy in Seoul, Korea. Earlier in his career, Mr. John served 
at the United States Embassy in Thailand as part of the Orderly 
Departure Program.
    I've enjoyed working with Mr. John on matters relating to 
East Asia, including extrajudicial killings in the Philippines, 
a matter on which Mr. John testified before my subcommittee 
earlier this year.
    Thank you both for your service to your country. It goes 
without saying that Vietnam and Thailand are important nations 
in the Southeast Asian region. The United States relationship 
with Thailand is one of the oldest in Asia, dating back to the 
19th century. The United States relationship with Vietnam, 
essentially frozen after the Vietnam War, has improved 
significantly this past decade. In fact, the President of 
Vietnam recently concluded a high level visit to the United 
States, the first such visit since the end of the war.
    Our economic relationship with both countries has increased 
over time, and is poised to grow in the coming decades. Vietnam 
and Thailand share our commitment to continued development and 
security in the Asia Pacific region and beyond. In fact, 
Thailand has even contributed to United States efforts in 
Afghanistan.
    As you know, there are many here in Congress who want to 
see these relationships strengthened and our ties deepened. My 
own State of California is home to vibrant Vietnamese and Thai 
communities who want to see these relationships grow in a 
progressive and constructive fashion. But let's be clear. Both 
countries have their share of difficulties. Thailand was 
recently rocked by a bloodless coup that derailed its 
democratic system. While Thailand appears to be on track to 
restore the democratic process and hold elections, its future 
is far from certain.
    Thai officials may publicly assert that they are moveing to 
restore democracy, but there is evidence that the current Thai 
Government is silencing political opponents, taking over media 
outlets, and censoring Internet sites, particularly for those 
with opposing viewpoints. These are serious concerns that can't 
go unchecked. Thailand also needs to address corruption, which 
was a serious problem under the previous administration.
    Vietnam remains under the control of an authoritarian 
communist party that wants recognition as a powerful and 
prestigious member of the international community, but still 
refuses to afford its citizens the basic rights and freedoms 
that are associated with such stature. Individuals perceived as 
a threat to the communist party continue to be harassed and 
imprisoned. In fact, a wave of arrests occurred in the months 
preceding Vietnamese President Triet's recent trip to the 
United States, a crackdown that was so severe it jeopardized 
the entire visit.
    The Vietnamese Government ultimately released a number of 
important prisoners in advance of the visit, but not before 
serious questions were raised about Vietnam's commitment to 
improving its human rights record once and for all.
    So with that said, it looks like you both have your work 
cut out for you. I know that you are up to the test. And I look 
forward to hearing from both of you.
    At this time I would ask Senator Webb to make an opening 
statement and see if he can keep it to 5 minutes, and when 
Senator Murkowski comes in I will do the same. Go ahead, 
Senator Webb.

                 STATEMENT OF HON. JAMES WEBB,
                   U.S. SENATOR FROM VIRGINIA

    Senator Webb. Thank you, Mr. Chairman. I will keep my 
remarks very brief. I have had extensive opportunities over the 
past several decades to spend time in both of these countries. 
I have a great affection for the people of both of the 
countries. I've been able to sit down and have conversations 
with both of the nominees. I would have some questions at the 
appropriate time, but I would prefer to go ahead and move 
forward in the interest of time and proceed with their 
statements.
    Senator Boxer. Thank you very much, Senator.
    So why don't we start with Mr. John.

           STATEMENT OF ERIC G. JOHN, NOMINEE TO BE 
             AMBASSADOR TO THE KINGDOM OF THAILAND

    Mr. John. Thank you very much, Madam Senator. May I also 
introduce, take the opportunity to introduce my wife, Sofia, 
and my son, Adam, who was actually born in Bangkok when we were 
stationed there, and Nicole, our daughter.
    Senator Boxer. Why don't you stand up. We welcome you all. 
Thank you so much for coming.
    Now, if you can we'll go back to a 5-minute clock.
    Mr. John. Madam Chairman and Senator Webb, I am honored to 
appear today as the President's nominee to be Ambassador to the 
Kingdom of Thailand. I am deeply grateful to President Bush and 
Secretary Rice for their confidence in me. If confirmed, I will 
have the good fortune to represent the United States in a 
country that has long been one of our closest allies and 
partners. In nearly 175 years of diplomatic relations, the 
United States and Thailand have stood together in both good 
times and bad, to the benefit of both nations.
    The partnership between the United States and Thailand has 
brought important benefits to both sides. Thailand remains a 
close United States partner in promoting peace and security in 
Asia and in other parts of the world. The foundation of our 
alliance with Thailand does remain strong, but the coup that 
took place in September of last year represented a rare setback 
for the relationship. There is never a sufficient reason for a 
military overthrow of a duly elected government, and we 
immediately made that clear to the interim authorities. We 
scaled back senior level engagements and continuously 
emphasized our expectation that the new government would make 
speedy restoration of democracy its top priority. We also 
suspended a number of assistance programs pursuant to section 
508 of the Foreign Operations Appropriations Act.
    At the same time, we decided that our interests in the 
restoration of democracy and in preserving our long-term 
bilateral relationship would be best served by continued 
engagement with the interim government. We also have faith that 
the Thai people will not abide anything less than a speedy 
return to democracy and when that return comes it will be to 
the credit of the Thai people.
    We are confident we have correctly calibrated our response 
to the coup and believe Thailand has made steady progress to 
date toward restoring democracy. The government has essentially 
kept to its timetable for the political process, with the 
national referendum on the draft constitution scheduled for 
August 19 and national elections expected by the end of the 
year.
    If confirmed, I will continue to look for ways that we can 
address still existing weaknesses in Thailand's democratic 
structures, such as strengthening the judicial system, 
attacking corruption, and increasing voter participation.
    Ensuring a healthy economic relationship with Thailand is 
an imperative for the United States. Although our free trade 
agreement negotiations were suspended after the coup and trade 
promotion authority has lapsed, we need to find ways to 
reinvigorate this vital bilateral economic relationship. If 
confirmed, one of my immediate tasks will be to work with 
Thailand to address concerns about the deficiencies in its 
intellectual property rights protection regime that compelled 
us to add Thailand to our priority watch list this year. If 
confirmed, I will ensure that we engage the Thai Government 
constructively but firmly on the full spectrum of intellectual 
property issues.
    If confirmed, I also intend to continue the work I have 
undertaken in my capacity as Deputy Assistant Secretary to 
strengthen our ties with the Association of Southeast Asian 
Nations.
    Ensuring appropriate protection and assistance for refugees 
and asylum seekers in Thailand is a high priority for the 
United States Government. Thailand hosts more than 150,000 
Burmese refugees and several thousand asylum seekers from other 
countries, including Hmong Lao. The burden of assisting these 
vulnerable populations places a strain on the Thais' resources 
and their relationships with some of their neighbors. 
Significant humanitarian assistance provided by the United 
States and other countries helps to ease the strain, as does 
third country refugee resettlement, primarily to the United 
States.
    If confirmed, I also will have the privilege of leading one 
of our largest embassies in the world, including ensuring that 
both American citizens and foreign visa applicants receive the 
gold standard of treatment in consular services. I very much 
look forward to these opportunities.
    Madam Chairman, Senator Webb, I know you're on a tight 
schedule today, so I'll keep my opening remarks short, and I 
thank you for the opportunity to testify and will be happy to 
respond to questions at the appropriate time.
    [The prepared statement of Mr. John follows:]

           Prepared Statement of Eric G. John, Nominee to be 
                 Ambassador to the Kingdom of Thailand

    Madam Chairman and members of the committee, I am honored to appear 
before you today as the President's nominee to be Ambassador to the 
Kingdom of Thailand. I am deeply grateful to President Bush and 
Secretary Rice for their confidence in me.
    I am a career Foreign Service officer and have served 22 years of 
my career in the East Asia and Pacific Bureau (EAP). I have lived in 
Korea, Thailand, and Vietnam for a combined total of 14 years and speak 
Korean and Vietnamese. For the past 2 years, I have had the honor to 
serve our Nation as Deputy Assistant Secretary in EAP, overseeing our 
relations in Southeast Asia. East Asia is vital to our Nation's 
interest, and I hope to continue to help build our bonds with the 
region.
    If confirmed, I will have the good fortune to represent the United 
States in a country that has long been one of our closest allies and 
partners. In nearly 175 years of diplomatic relations, the United 
States and Thailand have stood together in both good times and bad, to 
the benefit of both nations.
    Ties between Thailand and the United States are multifaceted and 
run deep. From scientific collaboration to joint disaster relief 
operations, peacekeeping, and travel and tourism, United States-Thai 
interests are intertwined and enduring. Thailand was one of the first 
to offer aid to the United States after Hurricane Katrina and lent its 
air base in Utapao for United States troops to launch humanitarian aid 
to the thousands displaced after the 2004 Indian Ocean tsunami.
    The partnership between the United States and Thailand has brought 
other important benefits to the United States As a major non-NATO 
treaty ally of long standing, Thailand remains an important United 
States partner in promoting peace and security in Asia and in other 
parts of the world. Access granted by the Thai Government to facilities 
in Thailand is critical to executing our highest priority military 
operations, and the Thai have further supported those missions with 
their own personnel. Thailand also hosts major bilateral and 
multinational military exercises that are essential to maintaining our 
forces' readiness and interoperability with allies, and its troops have 
participated in international peacekeeping missions in Cambodia, East 
Timor, Afghanistan, Iraq, and soon in Darfur.
    The foundation of our alliance with Thailand remains strong, but 
the coup that took place in September 2006 represented a rare setback 
for the relationship. Our deeply held view is that there is never a 
sufficient reason or circumstance that justifies a military overthrow 
of a duly elected government, and we immediately made that clear to the 
interim authorities. We underscored our disappointment by scaling back 
senior-level engagement and continuously emphasized our expectation 
that the new government would make speedy restoration of democracy its 
top priority. We also suspended a number of assistance programs 
pursuant to section 508 of the Foreign Operations Appropriations Act.
    At the same time, we decided that our interests in restoration of 
democracy and in preserving a long-term bilateral relationship critical 
to achieving United States' goals in Asia and beyond would be best 
served by continued engagement with the interim government. We also 
have faith that the Thai people will not abide anything less than a 
speedy return to democracy, and when that return comes, it will be to 
the credit of the Thai people.
    We are confident we have correctly calibrated our response to the 
coup, and believe Thailand has made steady progress to date toward 
restoring democracy. The government has essentially kept to its 
timetable for the political process, with a national referendum on the 
draft constitution scheduled for August 19 and national elections 
expected by the end of the year. If confirmed, I will continue to look 
for ways we can address still-existing weaknesses in Thailand's 
democratic structures, such as strengthening the judicial system, 
attacking corruption, and increasing voter participation.
    A continuing U.S. policy goal is to remove barriers to increased 
bilateral trade and investment. Although our free trade agreement 
negotiations were suspended after the coup, and Trade Promotion 
Authority has lapsed, we need to find ways to reinvigorate this vital 
bilateral economic relationship. With two-way trade of over $30 billion 
in 2006 and United States companies' total investments in Thailand 
estimated at approximately $21 billion, ensuring a healthy economic 
relationship with Thailand is an imperative for the United States.
    We will need to address difficult issues directly with our ally and 
work to resolve them expediently. If confirmed, one of my immediate 
tasks will be to work with Thailand to address concerns about the 
deficiencies in its intellectual property rights protection regime that 
compelled us to add Thailand to our Priority Watch List this year. 
Piracy of music, movies, and software products has not been 
meaningfully addressed, and losses to our creative industries continue 
to climb. Thailand now has the second highest rate of movie piracy in 
the world after China. We also remain concerned about the lack of 
transparency in the Thai Government's decision earlier this year to 
issue compulsory licenses for three medications. If confirmed, I will 
ensure that we engage the Thai Government constructively but firmly on 
the full spectrum of intellectual property issues.
    Another of my priorities, if confirmed, will be to continue to 
coordinate closely United States and Thai efforts to facilitate a 
return to democracy in Burma. Although we share that goal, Thailand's 
approach to Burma differs from ours. The Thai Government shares a 
nearly 1,200 mile border with Burma and needs to engage with the junta 
to manage critical public health and border security issues. Bangkok 
does not support economic sanctions, but it has used its engagement to 
advocate for democratization. It can do more, though, and if confirmed, 
I will work with Thai officials to coordinate our endeavors to help 
speed a return to democracy in Burma.
    If confirmed, I also intend to continue the work I have undertaken 
in my capacity as Deputy Assistant Secretary to strengthen our ties 
with the Association of Southeast Asian Nations (ASEAN). ASEAN is an 
important regional organization in which Thailand and its neighbors 
work toward common goals. It is a significant vehicle for promoting and 
strengthening key shared values of democracy, free trade, and cultural 
exchange. I believe that a stronger ASEAN would build an even more 
successful Southeast Asia. If confirmed, I will work with the Thai on 
developing joint initiatives and other policies our two nations can 
implement to help ASEAN realize its potential.
    We also remain concerned about the Malay Muslim separatist 
insurgency in southern Thailand that has cost so many lives and 
endangers amity between the Buddhist and Muslim communities. The Thai 
Government has maintained a vigilant security posture in the region, 
but, at the same time, has adopted a conciliatory approach to begin 
addressing issues that have long fueled resentment against central Thai 
authority.
    Ensuring appropriate protection and assistance for refugees and 
asylum seekers in Thailand is a high priority for the United States 
Government. Though not a signatory to the 1951 U.N. Convention on the 
Status of Refugees or its 1967 Protocol, for several decades Thailand 
has hosted asylum seekers fleeing repression and persecution from 
countries in the region and elsewhere. Thailand hosts more than 150,000 
Burmese refugees and several thousand asylum seekers from other 
countries, including Hmong Lao. The burden of assisting these 
vulnerable populations places a strain on the Thais' resources and 
their relationships with some of their neighbors. Significant 
humanitarian assistance provided by the United States and other 
countries helps to ease the strain, as does third-country refugee 
resettlement, primarily to the United States.
    If confirmed, the continued care and protection of refugees and 
asylum seekers will be one of my priorities. In particular, I will 
encourage the Thai Government to accede to the Refugee Convention and 
to work closely and cooperatively with the United Nations High 
Commissioner for Refugees to ensure that refugees and asylum seekers in 
Thailand are protected and afforded the rights granted to them under 
international law.
    If confirmed, I also will have the privilege of leading one of our 
largest embassies in the world, including ensuring that both American 
citizens and foreign visa applicants receive the gold standard of 
treatment in consular services. I very much look forward to these 
opportunities.
    Madam Chairman, members of the committee, thank you again for the 
opportunity to testify today and for considering my nomination. I would 
be happy to respond to your questions.

    Senator Boxer. Thank you so much, Mr. John, and we will put 
the rest of your statement into the record if you have further 
comment.
    Mr. Michalak, welcome. If you can, speak to us for about 5 
minutes.

STATEMENT OF HON. MICHAEL W. MICHALAK, NOMINEE TO BE AMBASSADOR 
              TO THE SOCIALIST REPUBLIC OF VIETNAM

    Mr. Michalak. Thank you very much. Madam Chairman, Senator 
Webb, I too welcome the chance to sit before you as the 
President's nominee for Ambassador to Vietnam. I'm just coming 
from an assignment where I worked on the APEC, the Asia Pacific 
Economic Cooperation Forum. I think the 2 years that I spent 
there, the 2 years that we spent refocusing the agenda, 
providing more resources for that organization and 
strengthening the institution have prepared me somewhat for 
dealing with Vietnam. I say this because 2006 was the year of 
APEC in Vietnam and during that year I saw this country and its 
officers go from a rather tentative bureaucratic stance toward 
international relations to the end of that year, when they 
turned into some very self-confident and forthright 
spokespersons for their government.
    At this hearing I have already submitted my written remarks 
for the record and I think, Madam Chairman, that your remarks 
pretty much summarized exactly what I was saying in my own 
testimony. So what I'd like to do is maybe just touch on the 
three areas that I intend to focus on if confirmed and if I do 
go to Vietnam.
    One of the first areas that we need to work very carefully 
on is going to be actually the physical plant, the United 
States Embassy. It's somewhat of a disgrace. It's an old plant 
and we need to continue, finish up 6 years of negotiations with 
the Government of Vietnam to get a new embassy.
    Turning to more substantive issues, as you mentioned, Madam 
Chairman, human rights and the current performance of the 
Government of Vietnam certainly have cause for concern. I 
think, on the other hand, there is a good story to tell, 
particularly in the area of religious freedom, where treatment 
of various religious groups over the past 2, 3 years has 
changed considerably, including using diplomatic means to 
actually get Vietnam removed from the countries of particular 
concern list in that particular area.
    Economic development, as you correctly mentioned, is one of 
the spotlights, one of the highlights of our relationship with 
Vietnam, as one of the fastest growing economies within ASEAN 
and indeed second only to China in the entire Asian Pacific 
region. We think that there are tremendous opportunities there 
to improve not only the United States-Vietnam economic 
relationship, but to spill over into other areas of human 
endeavor, including social areas and even in human rights.
    Finally, Madam Chairman, what I'd like to do if confirmed 
is to work on education. I believe that the Government of 
Vietnam and the Government of the United States both share the 
value of improving the educational infrastructure within 
Vietnam. I think the Virginia--``the Virginia''; I'm thinking 
of Senator Webb there. The Vietnam Education Foundation and 
other organizations are working to send well over 100 graduate 
students per year, concentrated mostly in science and 
technology, to the United States for further study. If 
confirmed, when I get to Hanoi I'm going to try to double the 
number of students that we send from Vietnam to the United 
States.
    In conclusion, Madam Chairman, I think that our expanding 
ties with Vietnam in many areas are generating excitement and 
strengthening our engagement with this increasingly dynamic 
player in Southeast Asia would be one of my highest priorities. 
I hope to be the type of ambassador of which are country and 
the United States Senate can be proud, and I look forward at 
this time to answering all of your questions.
    Oh, I might mention one other thing. You did mention the 
fact that in your own, your own constituency, there are large 
Vietnamese-American communities. Earlier on, in discussion with 
both your staff and Senator Webb's staff I made it clear that I 
would be more than willing to try and sit down and talk with 
some of these folks and to hear their views on our 
relationship.
    So thank you very much.
    [The prepared statement of Mr. Michalak follows:]

         Prepared Statement of Hon. Michael W. Michalak to be 
            Ambassador to the Socialist Republic of Vietnam

    Thank you, Madam Chairman Boxer and members of the committee. It is 
a great honor for me to appear before this committee as the President's 
nominee to be the fourth Ambassador to the Socialist Republic of 
Vietnam since normalization of relations in 1995. I am grateful for the 
confidence and trust that President Bush and Secretary Rice have placed 
in me.
    As a member of the Foreign Service, I have extensive experience in 
Asia, including a significant amount of recent work in Vietnam. Most of 
my career in the State Department has been spent working on Japan and 
China with my last overseas assignment having been Deputy Chief of 
Mission in Japan, our most important bilateral partner in Asia. I 
believe my work in Asia and in the State Department has prepared me 
well for this assignment. If I am confirmed, I look forward to 
representing and vigorously advancing the interests of the United 
States in Vietnam.
    My first direct engagement with Vietnam occurred in 2006 when, as 
United States Ambassador for APEC, I led our delegation through 
Vietnam's year-long chairmanship of APEC. I visited the country at 
least five times during that year and worked closely with senior 
officials of the Government of Vietnam. Vietnam's performance was 
nothing short of spectacular. Over the course of 2006, we were able to 
forge an excellent relationship of trust and honesty. In fact, Vietnam 
hosted one of the most productive leaders' meetings ever.
    President Bush's November 2006 visit to Vietnam was a success both 
bilaterally and multilaterally and was reciprocated through President 
Triet's visit to Washington and several other United States cities last 
month. While these high-level exchanges served to advance ties and 
mutual understanding and overcome our legacy of mistrust, they also 
highlighted the complexities in our relationship and the challenges and 
opportunities we face to take relations to the next level. If 
confirmed, I will strive to ensure full normalization of relations and 
the creation of a true partnership between the people of our two great 
countries.
    Vietnam is clearly a country on the move, leading with its rapidly 
growing economy and burgeoning export sector; a new Asian Tiger if you 
will. Starting with the Doi Moi program in 1986, Vietnam has built 
tremendous momentum toward economic reform and opening to the world, 
culminating in its recent accession to the WTO and realizing Permanent 
Normal Trade Relations status with the United States. If confirmed, I 
can assure you that one of my highest priorities will be to work to 
ensure that Vietnam fulfills its WTO commitments and in the process 
provides increased market opportunities for United States goods and 
services.
    Vietnam is also emerging as a regional player. Vietnam has been 
identified by the Asian Grouping as its candidate for a nonpermanent 
seat on the U.N. Security Council in 2008, and its voice is being 
increasingly heard in ASEAN councils and beyond.
                   human rights and religious freedom
    The economic story in Vietnam deserves praise and encouragement, 
but it should not obscure our very real concerns over human rights and 
religious freedom there. Vietnam's record of respect for human rights 
and religious freedoms is decidedly mixed. While there have been 
improvements in religious freedoms over the past year, we have seen 
backsliding on human rights issues since last November.
    Promotion of human rights has been and will remain one of our 
highest priorities in Vietnam, as reaffirmed by President Bush to 
President Triet during their June 2007 meeting at the White House. 
Prior to President Triet's visit, the Government of Vietnam released 
three persons of concern to the United States: Phan Van Ban; former 
National Endowment for Democracy Fellow Le Quoc Quan; and Nguyen Vu 
Binh. Following the visit, labor activist Bui Kim Thanh was also 
released. While we welcome the release of these individuals, we 
continue to press for systemic human rights improvements in Vietnam. We 
need to build bridges between the Government of Vietnam and the full 
range of groups in the United States--veterans, Vietnamese-Americans, 
and human rights and business groups--to convince the Vietnamese that 
free speech and expression of views strengthens, not weakens, societies 
and economies. If confirmed, I will make advancing human rights one of 
my highest priorities.
    Vietnam made significant progress during the past year on advancing 
religious freedom, leading Secretary Rice to remove Vietnam as a 
``Country of Particular Concern'' last November. Vietnam instituted a 
new law on religion, including a ban on forced renunciations, 
registered hundreds of places of worship, allowed the majority of 
closed places of worship to reopen, began educating central, 
provincial, and local officials on how to implement the new law, and in 
some cases disciplined officials responsible for violations of 
religious freedom. Although Vietnam was taken off the ``CPC'' list, we 
still have work ahead of us to ensure full religious freedom for all 
Vietnamese. The Department of State, along with other government and 
NGO stakeholders, will continue to monitor and evaluate the situation 
and press for continued progress in this area.
    I am strongly committed to the idea that societies are enriched 
when people are allowed to worship freely and express themselves as 
they wish. Building on the excellent work of my predecessor, Ambassador 
Michael Marine, I will, if confirmed, vigorously push for continued 
expansion of the civil rights of Vietnamese citizens, as well as the 
release of all those in prison for peacefully expressing their 
political views. These include Father Nguyen Van Ly, lawyers Nguyen Van 
Dai and Le Thi Cong Nhan, and the leaders of the People's Democratic 
Party of Vietnam and the United Farmers Workers Organization.
                          economic integration
    One of the best ways to encourage expansion of civil rights and 
liberties is to ensure strong economic growth. The Vietnamese economy 
is undergoing a rapid and fundamental transformation due, in part, to 
the rapid growth of foreign investment and economic reforms undertaken 
to meet the requirements of WTO and our 2001 Bilateral Trade Agreement.
    The wholesale economic restructuring taking place in Vietnam, 
including new legislation on intellectual property rights, elimination 
of state supports, and reductions in tariff rates, has made its markets 
more attractive to United States companies. U.S. companies have 
responded vigorously, with two-way trade in goods as rocketing up from 
$1.5 billion in 2001 to $9.6 billion in 2006 and U.S. foreign direct 
investment increasing $639 million in 2006 alone. United States service 
providers and technology companies in particular are looking to 
Vietnam--providing capital, technology and management know how, as well 
as supporting Vietnam's efforts on education, environment, and 
combating trafficking in persons. I believe in leading by example, and 
our companies are excellent examples of how freedom and democracy can 
bring real gains to people across the entire economic and social 
spectrum.
    Nevertheless more work is still needed to liberalize Vietnam's 
financial sector and reduce the state's role in the economy. If 
confirmed, I will work to engage the Vietnamese on still-sensitive 
topics such as privatization, energy, intellectual property rights, 
environment, and labor. To continue the momentum of economic reform, we 
also need to help Vietnam redouble its efforts to promote transparency, 
legal reform, and good governance.
                               education
    Along with traditional economic development and improvement in 
human rights and religious freedoms, educational reform and development 
is a priority area that we believe could most benefit an emerging 
nation like Vietnam. We have extremely effective Fulbright and Humphrey 
exchange programs, and through the highly successful Fulbright Economic 
Teaching Program in Ho Chi Minh City, we train local government 
officials and business professionals annually on economics and public 
policy.
    The Government of Vietnam has explicitly stated that it looks to 
the United States, and our great colleges and universities, to train 
the next generation of Vietnamese leaders, scientists, educators, and 
engineers. One of my goals as ambassador, if confirmed, will be to 
double the number of university students from Vietnam in our colleges 
and universities over the next 3 years to help train Vietnam's leaders 
of the future.
    I will also work closely with the Vietnamese Government to 
establish a Peace Corps program in Vietnam, which I know is of special 
interest to many Members of the Senate, a number of whom have written 
to the Government of Vietnam in support of this proposal.
                          consequences of war
    Resolving the fates of the Americans lost during the Vietnam War 
remains an issue of continuing and profound importance. Our 
reengagement with Vietnam was founded on this effort and I am firmly 
committed to this mission, which embodies principles that remain 
critical to our men and women serving today. If confirmed, I will 
endeavor to work with the Vietnamese to move our already positive 
cooperation to a new level through both joint measures and enhanced 
unilateral efforts on their part.
    At the same time, the United States continues to approach other 
issues that relate to the consequences of war in a constructive manner. 
We have invested over $45 million since 1993 to help Vietnam clean up 
unexploded ordnance and landmines left from conflicts dating back to 
World War II. We continue to provide considerable humanitarian 
assistance, totaling over $43 million since 1989, to Vietnamese with 
disabilities regardless of cause. This year, the United States 
contributed $400,000 to assist the Government of Vietnam to develop a 
plan for environmental remediation at the Danang Airport, part of 
approximately $2 million the United States has provided since 2002 to 
increase Vietnam's capacity to deal with the environmental challenges 
posed by dioxin. The Congress also passed, and President Bush signed in 
May, supplemental legislation providing $3 million in assistance for 
remediation and health-related programs. The administration, in 
consultation with Congress, is now making final decisions on how and 
where best to spend these funds.
                       expanding our relationship
    We are also cooperating with Vietnam on global issues of high 
importance, particularly on global health issues such as HIV/AIDS and 
avian flu. I am convinced that health cooperation could be a model for 
United States-Vietnamese cooperation on other areas. If confirmed, I'll 
also look for ways to apply that model to encourage more robust 
engagement on law enforcement and military-to-military issues. Although 
United States-Vietnamese bilateral relations have expanded in numerous 
areas, bilateral military cooperation has developed at a slower pace 
and has gradually expanded to include search and rescue (SAR), medical 
programs, professional seminars, a nascent security assistance program, 
training, and even some environmental security issues. Law enforcement 
cooperation is also strengthening, and the United States encourages the 
Government of Vietnam to take the necessary implementation steps to 
provide meaningful assistance in drug trafficking/money laundering 
investigations. If Vietnam is elected to the Asia-Pacific Group's 
nonpermanent 2008-2009 seat on the United Nations Security Council, I 
will encourage Vietnam to contribute to regional stability, 
humanitarian initiatives, and possibly peacekeeping missions.
    Finally, if confirmed, the welfare and safety of American citizens 
traveling or working in Vietnam will always be my top priority. The 
United States mission in Vietnam will provide accurate and timely 
information on the risks that Americans will face in Vietnam. I hope to 
reenergize negotiations for a new Embassy that meets current security 
standards and provides a safe working environment for the United States 
mission.
                               conclusion
    In sum, Madam Chairman, our country's many ties to Vietnam and the 
excitement generated by its emergence as a young and dynamic player in 
Southeast Asia sparks enthusiasm for engagement. Just 12 years ago, we 
normalized relations, concentrating our cooperative efforts on dealing 
with the lasting effects of the Vietnam War, especially the fullest 
possible accounting for Americans still missing. Since then, our 
economic ties have deepened and we have engaged in important 
discussions on human rights and a host of other issues. At virtually 
all levels of government and society, the United States and Vietnam are 
seeing increased dialog and cooperation. I hope to be the type of 
Ambassador of which our country and especially the United States Senate 
can be proud.
    Thank you. I would welcome your comments and questions.

    Senator Boxer. Mr. Michalak, do you have any family with 
you today by chance? Would you like to introduce them?
    Mr. Michalak. Yes, let me introduce my wife, Yoshiko, and 
my daughter, Kay.
    Senator Boxer. Hi. Welcome, both of you. We're very happy 
you're here. I know the families are very proud of their dad 
and husband, and we're proud of them too.
    I'm going to ask Senator Webb to lead it off, knowing his 
deep interest in this area. Please go ahead, Senator.
    Senator Webb. Thank you, Madam Chairman. I may, if we're 
going 5 minutes, I may have a second round just to clarify.
    Senator Boxer. I think I'd like to give you 10 minutes so 
you can take your time, okay. 10 minutes.
    Senator Webb. Thank you very much.
    I do have long experience in the region in many different 
capacities and just returned, as both of you know, from a 
pretty brief trip, but a very interesting trip, where we were 
in both countries. And I've had the opportunity to sit down 
with each of the nominees and discuss issues. I'm obviously 
very inclined to support both of them and think they bring 
great experience to the table.
    A lot of people think that this is your entire career 
boiled down to 5-minute statements, but obviously there's an 
awful lot of work that goes into this before you sit here.
    Mr. John, you were mentioning about the recent turmoil in 
Thailand. I had the opportunity to discuss this with government 
people in Thailand from our government, and theirs, and also 
with a number of people that I've known for many, many years--
some of them are Americans who resided in Thailand for years, 
some of them are Thai--to try to get a true picture of the 
dynamic of that event and how we're going to move our way 
through it.
    As a starting point, I would like your thoughts, because 
you have extensive time in Thailand. How would you rank 
Thailand among other Southeast Asian nations in terms of the 
overall maturity of their political structures?
    Mr. John. It's unique in the sense that it's very much a 
constitutional monarchy and the king does play a very 
significant role in that structure. So in that sense it is 
different because the Thai people do look to the king for 
overall guidance. I mean, he sets the tone of the country.
    But when I referred in my statement to the U.S. Government 
placing a lot of confidence in this process in the Thai people, 
I very much meant that, in that international pressure was 
appropriate, but for the Thais to work their way through the 
coup and get back to a democratically elected government it 
really is up to the Thai people. And I think we've seen that 
the Thai people want very much to get back as quickly as 
possible to a democracy.
    I think the adherence to the timetable is more a tribute to 
the pressures and the demands that the Thais have put on the 
interim government to get back, to get a constitution, to get a 
democratically elected government in place, than anyone else. 
And in that sense, comparing it to other nations in Southeast 
Asia, I'd say Thailand is at the top with other democracies in 
terms of deep roots for commitment to democratization and 
maintaining a democracy.
    Senator Webb. I'm not trying to put words in anybody's 
mouth, but do you think it's fair to say that the Thai movement 
toward democracy was only partially interrupted by this coup? 
Is it fair to say that local elections still have remained as a 
function even after the coup?
    Mr. John. Yes, I'd say that--yes, the coup was a 
significant interruption, but I would define it as that, an 
interruption. And I think that people remain optimistic in 
Thailand and outside of Thailand that there is an end to this 
coup and that at the end of this coup there will be a 
government back in place that truly was elected and put in 
place by the Thai people.
    Senator Webb. My understanding of this coup is it did not 
interrupt local government. This was a coup of national 
offices.
    Mr. John. Right.
    Senator Webb. Not a total coup. To the extent that it 
existed beforehand, freedom of press, freedom of religion, 
freedom to speak out remained in place, which you don't always 
see in other countries in Southeast Asia. Is that fair to say?
    Mr. John. Yes, I think freedom of the press, freedom of 
expression has largely remained in place. I think Senator Boxer 
was correct that there have been disturbing interruptions, and 
nobody likes to see that. But the foundation of freedom of 
expression has remained throughout the coup and you'll see 
there are demonstrations against the coup, there are 
demonstrations for the coup. There's a very free debate in 
print, on television, and to a large degree I think it's been a 
very healthy debate that's gone on in Thailand. And in the end 
I hope it would strengthen democracy.
    Senator Webb. Well, it was certainly my impression that the 
repair of this unfortunate incident was well on its way in 
Thailand.
    Would you have any thoughts on the emerging relationship 
between Thailand and China?
    Mr. John. It's largely a--it is growing stronger and I 
think that it's largely healthy. I think we, all of us, feel 
comfortable if--if you look at a very stark difference, whether 
it's good or bad for China to have healthy relations with its 
neighbors, I think all of us would agree that it's good.
    The Thai economy in large degree benefits from a rising 
Chinese economy. So trade relations are strong. I think there 
are concerns about certain sectors or industries that might be 
threatened by Chinese economic growth. There are areas where I 
think that we need to be wary. Obviously, Chinese values and 
what they place an emphasis on in their relationships with 
other countries oftentimes is starkly different than what the 
United States places an emphasis on in our bilateral relations.
    Senator Webb. Ambassador Michalak, we had a pretty 
extensive discussion about the Vietnamese community in the 
United States and how it is unique in many ways among 
expatriate communities and immigrant communities because of the 
way that the Vietnam war ended. When the communists took over 
in China most of the Chinese who had opposed the communist 
takeover remained in Asia, particularly Taiwan, northern 
Thailand, et cetera, while a very, very large percentage of the 
Vietnamese who had stood with us--I think that's an important 
distinction that we lose when we talk about the history of the 
Vietnamese before 1975--ended up here in the United States, and 
that creates a great challenge, probably the greatest challenge 
in terms of community diplomacy, in building a bridge and 
repairing that damage as we all move to the future.
    I was very gratified to hear you indicate that you wanted 
to have discussions with the Vietnamese community here in the 
United States. I think it's too often not discussed as one of 
the key barriers for a full, totally full cultural 
normalization with Vietnam.
    I would ask you a question about a couple of incidents that 
happened outside the ambassador's residence earlier. The 
chairman, chairwoman, mentioned this in her opening statement. 
But I would sort of like your thoughts on this. This is a 
little bit of a disturbing situation. I've been contacted by a 
number of overseas Vietnamese, Vietnamese Americans, about the 
incident, because it was an action apparently of the Vietnamese 
Government itself intercepting individuals who had been invited 
to the ambassador's home.
    It's kind of a unique situation and I'm wondering about 
your thoughts on that and how you would be dealing with similar 
situations if they occur on your watch.
    Mr. Michalak. Well, Senator, yes, these kinds of incidents 
are absolutely unacceptable. I certainly would immediately call 
the highest level of the Vietnamese Government that I could get 
and protest in as strong a way as possible to try and change 
the situation. We have since been in touch with all of the 
women involved and we have managed to contact I believe three 
out of the five of them, and the other two were just 
unavailable at the time.
    I think since then the ambassador, sitting ambassador, has 
been able to meet with most of them and I think he is still 
seeking to meet with some of the other ones. But this kind of 
situation in general, I think, shows definitely an overreaction 
on the part of the Government of Vietnam. If confirmed, I think 
one of the things that I will try to do is to try again to 
encourage the government to look at how freedom of speech, 
freedom of expression, particularly political expression, are 
not disruptive and can in fact be constructive and be a 
positive force for societal growth within Vietnam.
    Senator Webb. Thank you for saying that. Just a final 
closing statement. My time is running out here. As I mentioned 
to you, I started going back to Vietnam in 1991 and spent a 
great deal of time from that period forward. It's been quite a 
journey for both of our countries, but also I think in terms of 
the Vietnam Government itself, moving from a government that 
was completely dominated by people who economically and 
politically had been trained in Eastern Europe and who step by 
step had been learning how to deal with other environments, 
other political environments.
    I am very optimistic when I see a number of the people who 
have moved through the system since those days. I think it's 
been a struggle, but I think we've laid the groundwork for a 
very strong and very important relationship, and I wish you 
well.
    Mr. Michalak. Thank you, Senator. The only other additional 
comment I might add to that is that I think you're absolutely 
right; if you look at some of the makeup of the new government, 
you're beginning to see people who have been educated overseas 
and the Vietnamese are looking to the United States to be the 
educators of an awful lot of the next generation of businessmen 
and government leaders.
    Senator Webb. There are also a lot of Vietnamese who have 
not had the opportunity to be educated--or who have not been 
educated overseas; they may not have wanted the opportunity to, 
but who have learned through the interactions that took place 
during normalization with western countries and seeing 
different points of view and just becoming more sophisticated 
in terms of a lot of nuance that wasn't there before.
    I will give you one example. Mr. Foke, who I had mentioned 
to you during our meeting, who I have known for 14 years now, 
since he was an economics minister down in Danang, who really 
is among this group of people who are looking for solutions 
based on mutual respect rather than the bitterness of history 
and those sorts of things. So I'm very optimistic that we can 
continue to make this relationship grow.
    Thank you very much.
    Senator Boxer. Thank you, Senator.
    I want to just welcome the Ambassador of Thailand serving 
in the United States, His Excellency Mr. Crit Garjana Gunjorn, 
and I invite him to stand up. We thank you, sir, for being 
here. We welcome you.
    I'd ask unanimous consent to place into the record an 
introduction of Eric John by Senator Lugar. It's very glowing--
I'm sure you'll be glad to know that--and I ask that it be 
placed into the record at this time. I'll give that to you to 
make sure that happens.
    [The statement from Senator Lugar appears at the end of 
this hearing, in the ``Additional Material Submitted for the 
Record'' section.]
    Senator Boxer. I want to ask a question about Thailand. 
Thailand's been a magnet for hundreds of thousands of refugees 
from throughout Southeast Asia, many of them Hmong. You may 
know we have a very large Hmong community in California. While 
Thailand has generally been cooperative in helping refugees, 
there have been a number of high profile incidents of forced 
deportations that have raised international concern.
    Last month the State Department expressed regret over the 
Thai Government's deportation to Laos of about 160 ethnic Hmong 
who had sought diplomatic asylum in Thailand. Specifically, 
State Department spokesman Sean McCormick said in a statement, 
and I quote: ``We urge the Thai Government to live up to its 
traditions and international standards and to ensure that those 
with a genuine claim to refugee status are not returned to an 
uncertain fate.''
    Just yesterday, the Bagh--the Bangkok Post--I almost said 
``Baghdad'' because I have Iraq on my brain 24-7. Yesterday the 
Bangkok Post reported that nearly 7,700 Hmong currently living 
in a makeshift camp in Thailand's Shabung Province will be 
deported to Laos, 7,700 Hmong. Mr. John, have you seen this 
report in the Bangkok Post? And if it's accurate, what is the 
United States planning to do to prevent it?
    Mr. John. I haven't seen that specific report, but we're 
aware of this refugee community of about 8,000. I have not--I 
am not aware of reports that they are going to be deported any 
time soon. But it's a serious issue that we have been following 
for quite a while.
    There are sort of three components, I think, to the refugee 
situation that we have to work on, and Thailand is one of those 
critical components. The first component I think we would all 
agree is that Laos needs to integrate, treat its ethnic Hmong 
better, give them equal rights, integrate them into the 
society, and that's something that our embassy is working on 
there, that we worked on here as well. And that's I think the 
foundation for the problem.
    The second, as you mentioned, is that we are working with 
the Thais so that they do not deport back to Laos refugees who 
have not been screened yet by a competent international 
organization such as UNHCR. And of course, the 7,700 or 8,000 
group that's in Shabung Province should not be returned if they 
are deemed refugees and have been screened as refugees, and at 
that point we would need to work with the Thai Government for 
third country resettlement.
    The third leg, I think, of this stool in working on the 
Hmong issue is to again work on the pull factor, and Thailand 
is very concerned that there's no end to this, and we need to 
be cognizant of those concerns, that, working with the Lao 
Government to make sure they're settled there back into Laos or 
that legitimate refugees can move on to third countries is 
something that's important.
    So, if I were confirmed, it's something I would work very 
closely with the Thai Government.
    Senator Boxer. Well, let me say, I want to show you the 
article because I think you need to take this to the folks 
there and whether this is true. We don't have a lot of time if 
this report is true--maybe you can talk to the ambassador about 
it on your way out the door. But I hope that you'll provide me 
with periodic updates on this and other issues related to human 
rights abuses against the Hmong, because these are good, decent 
people. Would you do that if confirmed? Would you give me 
regular updates?
    Mr. John. Absolutely. We owe a great debt as a Nation to 
the Hmong.
    Senator Boxer. We do, yes.
    Mr. John. And it's something that we take very seriously.
    Senator Boxer. Okay.
    Mr. Michalak, as you well know, the Vietnamese Government 
instituted a wave of crackdowns against democracy and human 
rights activists that began in 2006 and peaked in the spring of 
this year. A number of prominent activists were imprisoned, 
including Father Nguyen Van Ly and Le Quoc Quan, a lawyer who 
recently completed a fellowship with the National Endowment for 
Democracy here in Washington, DC.
    These arrests caused significant international outcry, 
particularly since they occurred in the run-up to the first 
visit to the United States by a Vietnamese head of state since 
the end of the Vietnam War. Many question why the crackdown 
occurred when it did and whether or not Vietnam is truly 
committed to ending its record of human rights abuses and fully 
integrating into the international community.
    First and foremost, can you explain why the crackdown 
occurred when it did? Was the Vietnamese Government trying to 
send some type of message? As ambassador how will you engage 
with the Government of Vietnam to improve its human rights 
record? And I would also ask--and this is the same question I 
asked of Mr. john--would you please make available to us on a 
regular basis how we are working to advance the cause of human 
rights in Vietnam?
    Mr. Michalak. Thank you very much, Madam Senator. Yes, I 
already wrote that down, periodic reports. Yes, be happy to do 
that.
    The number of people that you mentioned that were under 
detention, mainly Father Nguyen Van Ly--I think Le Quoc Quan 
has been released, the National Endowment fellow has been 
released, and I believe is now with, has been reunited with his 
family.
    But in general, as to why the crackdown occurred, there are 
several theories. Unfortunately, the inner workings of the 
Government of Vietnam are not as transparent as we would like, 
and if confirmed that's one of the things I would work on, is 
transparency and anticorruption there. But many have said that 
this is part of a general crackdown on dissidents prior to the 
May 20 elections to make sure that the elections went smoothly 
and in a stable fashion. Some people believe that it is after 
the--I guess ``outburst'' may be too strong a word, but the 
continued improved human rights situation that took place 
during 2006, there is some thought that certain hardliners 
within the government thought that the pendulum had swung too 
far toward freedom and liberalization, so they wanted to sort 
of again send a message that, yes, the central party still is 
in charge.
    I think that we have a multipronged way in which we want to 
deal with human rights in Vietnam and I certainly, if 
confirmed, will support that. We have a human rights dialog 
which is chaired by Assistant Secretary Lowencron and which 
last year set out a good work plan for the coming year. We have 
several programs which we use under our public diplomacy rubric 
where we actually teach journalists how to do investigative 
journalism and take steps to try and improve journalistic 
freedom. We also have under our improvement, development, 
economic development program programs to improve transparency, 
to improve anticorruption and good governance programs. We 
believe that these work not only within the economic sphere, 
but there is a significant spillover and demonstration effect 
that takes place in the human rights sphere as well.
    So I think in all of these programmatic fashions we can 
work to try to improve the situation there. On a personal 
level, I think that I personally would certainly take every 
opportunity that I can to work especially hard, particularly 
for the release of detainees like Father Ly, lawyers Nguyen Van 
Di and Li Thi Qong Yan, who also have been detained recently. I 
think President Bush, in his meeting with President Triet, also 
raised the issue and laid down a marker that we're going to 
continue to work for improvement in this situation over there, 
and if confirmed I'll certainly continue that effort.
    Thank you.
    Senator Boxer. Thank you, sir. I think obviously our hope, 
all of us, is that these detentions don't happen in the first 
place. I think a lot of nations around the world make a 
mistake, specifically the developing nations, when they think 
it shows strength to put your opponents in jail. It's the 
opposite. It's the opposite. I think we're never stronger as a 
country as the times that we're having vigorous debate, yes, in 
the Senate. A lot of people decry: It's mean. It's not mean. 
It's the way it has to be in a free society. If you feel 
strongly, it's an obligation.
    Now, obviously these things could be taken too far, but 
it's the right tone. And I think the message that you can give 
these countries is that if they want to be viewed as strong, 
then they should allow dissent through speech that doesn't hurt 
anybody else. Anything other than that makes them look weak, 
impotent, and not worthy of emulation. I do feel it's kind of a 
nuanced message, but I know both of you will be very fine at 
getting that message across.
    I don't have any other comments, but I know that Senator 
Webb wanted to make some closing comments, so I will call on 
him, and then we'll adjourn. We both feel that you should have 
a good confirmation process from here on out.
    Senator Webb.
    Senator Webb. Ambassador Michalak, I just wanted to add on 
something to what you said about the issue of human rights in 
Vietnam, because it's an issue that very rarely makes it to the 
national discourse and yet it's a key element of fully 
repairing our relations. That is the issue of the people who 
were with us during the war who remain inside Vietnam and their 
families. There has been a great deal of progress on this issue 
inside Vietnam, but we need to remember that a lot of the anger 
in the Vietnamese community here came about not simply because 
of the war, but because of what happened after 1975, where a 
million mostly South Vietnamese were put in reeducation camps--
240,000 of them stayed longer than 4 years, 56,000 of them died 
in the reeducation camps.
    When they came back--some of them stayed as long as 18 
years. They did it by rank, generally. I see Mr. John nodding. 
He was a big part of the processing of people out when they 
started processing a lot of them back here in the United 
States. But a lot of them remained.
    When I first was returning to Vietnam for visits, I can get 
around pretty well in Vietnamese and talk to people without 
having to have a government interpreter with me, and there 
basically was a situation where the people who had been with 
the South Vietnamese military and government, and in some cases 
intellectuals who had basically supported the cause of 
democracy, were precluded from working. Their families were 
kept--their children were kept out of advancement in schools. 
There were truly roadblocks.
    One of the things that I was working on for many years 
starting back in the early 1990s with this normalization 
process was trying to get a formula in place so that all 
Vietnamese could move forward together regardless of their past 
affiliations. This is not a negative shot at today. It's just 
trying to affirmatively deal as best we can with the 
consequences of history.
    As I said, my feelings from having returned to Vietnam many 
times is that the government has begun to do that. They've been 
listening to that call, but that it still really is a challenge 
to make sure that all the Vietnamese, the children of the 
people who were with the Vietnam Con Hua, are allowed the same 
access to these benefits that we are going to be bringing to 
Vietnam with our emphasis on trade and cultural exchanges and 
these sorts of things.
    So I would just express my hope that you'll keep your eye 
on that. And again, I wish both of you the best of luck in your 
new positions.
    Senator Boxer. Gentlemen, I made a mistake. There was one 
more point I wanted to raise with you, Mr. Michalak, because an 
issue that's been very important to me--and we actually set up 
a POW memorial in California, and it's a beautiful site in the 
San Bernadino area. So my constituents have great concerns 
about the POW-MIA recovery efforts in Vietnam.
    According to the CRS, there were 1381 Americans unaccounted 
for in Vietnam as of August 2005. While I understand Vietnamese 
cooperation on POW-MIA recovery efforts has improved since the 
normalization of relations, much work remains to be done. 
Families are still waiting for their loved ones to be brought 
home, and I understand that many families would like more 
searches along the coastline of Vietnam.
    If you're confirmed, can I get your commitment that you 
will work to ensure that POW-MIA recovery efforts are conducted 
in a robust fashion? Would you let me know if you need 
additional assistance to help you with this effort, because I 
can assure you on this committee you would have broad support?
    Mr. Michalak. Madam Chairman, absolutely. You have my 
assurance and you certainly have my commitment on trying to get 
the fullest accounting for all missing American service members 
as a result of the Vietnam War. That is one of the pillars upon 
which our reengagement with Vietnam began. If confirmed, I 
would certainly support that and certainly do everything that I 
can to try to get access to archives that we have not been able 
to do and to try to get permission to do some of these searches 
along the coast, which I know that we have been attempting, 
with some progress. But you're absolutely right; there is much 
more that can be done. And yes, I'll definitely do that.
    Senator Boxer. My hope is that you will be honest and let 
us know if you need any help in that regard, because we will 
get that help for you.
    Mr. Michalak. Yes, ma'am.
    Senator Boxer. If there's no other business to come before 
the committee, we stand adjourned, and we wish you well.
    [Whereupon, at 10:45 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


                Prepared Statement of Richard G. Lugar,
                       U.S. Senator From Indiana

    Chairman Boxer, today I am pleased to endorse the nomination of Mr. 
Eric G. John to serve as United States Ambassador to Thailand. A native 
of New Castle, IN, Mr. John has served with distinction since 2005 as 
Deputy Assistant Secretary of State in the Bureau of East Asian and 
Pacific Affairs. Previous postings include the United States Embassy in 
Seoul as Political Minister and Counselor, the Consulate General in Ho 
Chi Minh City, as Deputy Principal Officer, and the United States 
Embassy in Thailand, where Mr. John served as Vice Consul and Second 
Secretary of the Orderly Departure Program. Mr. John has received 
numerous awards for outstanding service in the Department of State.
    Senator Boxer, as you are aware, the Thailand-United States 
relationship is held in high regard by United States officials and the 
American people. However, in recent years, the situation has grown 
complex. Under the regime of former Prime Minister Thaksin, traditional 
democratic institutions, freedom of the press, and rule of law came 
under stress. On September 19, 2006, a military coup was orchestrated 
by the country's military leaders, who have continually promised since 
then to return the country to democratic rule.
    This is all to say that the next American Ambassador to Thailand 
will face a situation of special complexity. DAS John is particularly 
well-qualified to serve at this crucial time as the President's 
representative to the people of Thailand, who have long shown their 
commitment to democracy, and to promote sustained relations between our 
two countries.

 
 NOMINATION OF HON. HENRIETTA HOLSMAN FORE TO BE ADMINISTRATOR OF THE 
           UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

                              ----------                              


                         TUESDAY, JULY 24, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
Fore, Henrietta Holsman, to be Administrator of the U.S. Agency 
        for International Development
                              ----------                              

    The committee met, pursuant to notice, at 2:18 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez presiding.
    Present: Senators Menendez, Nelson, Casey, Lugar, Hagel, 
and Corker.
    Also Present: Senator Hutchison.

           OPENING STATEMENT OF HON. ROBERT MENENDEZ,
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. This hearing will come to order.
    Secretary Fore, let me welcome you to the committee, as 
well as on behalf of Senator Lugar, who I'm sure will be with 
us shortly, and our--the ranking member of the full committee, 
and Senator Hagel, the ranking member of the subcommittee.
    I know, Madam Secretary, that you know--that you have 
stated, in both past hearings and in writing to me, that you 
have made improving and expanding communications in 
consultation with Members of Congress one of your key goals. 
And I think you're to be commended for trying to forge a new 
alliance with Congress, and I want to thank you for and your 
staff for your responsiveness throughout this process.
    I'd also note that today's nomination hearing, of course, 
is only the first step in what may be a long journey. This 
hearing today provides members of the Foreign Relations 
Committee the opportunity to ask you key questions about USAID 
and the ``F'' process, as well as questions relating to your 
position as Under Secretary of Management.
    Obviously, how the nominee responds to the questions posed 
to her today, and questions submitted for the record, will help 
determine when and if the full committee schedules a vote on 
her nomination. Assuming that vote is scheduled and the nominee 
is voted out of committee, her nomination would then go before 
the entire Senate. So, I say, again, today's nomination is only 
the first step in that journey, but an important one.
    We've already had an entire hearing on the foreign 
assistance reform, or ``F'' process, so I'm not going to 
restate everything that we've already discussed in that 
hearing, but I want to reiterate that the administration's 
foreign assistance reform, in my view, is in need of serious 
reform, itself. Mr. Tobias created a top-down secretive process 
that continued the decimation of USAID, did not actually put 
all of U.S. foreign assistance under one umbrella, and tried to 
shift funding away from the long-term development goals like 
poverty alleviation.
    So, Madam Secretary, as I told you at our last hearing, I 
believe you had a window of opportunity to make some serious 
changes to the ``F'' process. In both your hearing and in the 
subsequent letter, I asked for commitments from you in many 
areas, including repairing morale at USAID, focusing on poverty 
alleviation, providing for real consultation on the ground, 
rethinking the shift of funds from development assistance to 
more flexible accounts. I'm not going into detail about your 
responses to my letter on each of these issues at this time, 
although I and my staff will be closely following how you 
handle each of them.
    I also know that you're aware that one of the most 
contentious issues we discussed was the possible closing of a 
number of USAID missions. Frankly, when it comes to the issues 
of closing USAID missions, I'm faced with a very strange 
situation. On the one hand, I have numerous experts and 
insiders coming to me, telling that there is a list of possible 
USAID missions to be closed. In fact, some of the USAID staff 
believe they were not going to certain USAID missions, because 
they were going to be closed, and outside organizations had 
been told that their projects were ending. On the other hand, 
USAID staff, in meetings with the Senate staff, have clearly 
stated that there was no list of USAID missions to be closed, 
and they have explained that there is only a, quote, 
``exercise'' carried out to take a look at the issue, and never 
a determination that any missions should be closed.
    I know, however, that this exercise did produce a list, 
which included Panama, Guyana, Namibia, Mongolia, Brazil, and 
Cyprus. USAID staff have promised us that there are no current 
plans to close these USAID missions during fiscal year 2008, 
and that the list I just read is not a list of missions to be 
closed. If you are confirmed, however, you may be faced with a 
decision about whether to close such missions, and let me be 
absolutely clear--at least for myself--I do not expect USAID to 
close any missions without intense consultations with Congress. 
An intense consultation with Congress does not mean that you 
come up here and tell us about the decision after you have made 
it.
    Now, for many years I have been talking about the 
importance of increasing minority representation at the State 
Department, especially in the Foreign Service. I believe we 
need to make the face of America to the world look like America 
at home, and I'd like to take a moment to commend my colleague, 
Senator Obama, for being a leader on this issue. I know he 
wanted to be here, and he will be submitting some statement and 
questions for the record in that regard.
    Finally, Madam Secretary, as I said in the beginning of my 
statement, this hearing is the beginning of a long process. 
Right now, although I appreciate your efforts to be responsive 
to the committee, I don't know whether or not I'll support your 
nomination. In making my determination, I plan to look closely 
at your responses to my questions and those of other members of 
this committee. I also would like to see a true commitment to 
fix the failing foreign assistance reform process.
    And, with those introductory words, let me turn to Senator 
Lugar, the ranking member of the full committee, for any 
remarks he may have.

              STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Thank you very much, Mr. Chairman.
    I join you in welcoming Henrietta Fore for her confirmation 
hearing before the committee today. I appreciate the presence 
of the distinguished Senator from Texas, Senator Hutchison, by 
her side.
    I appreciate, also, the cooperation shown to the committee 
throughout her tenure at the State Department by our nominee 
today. Ms. Fore is before the committee to be considered for 
confirmation as the Administrator of the U.S. Agency for 
International Development. She's already serving as the 
Director of U.S. Foreign Assistance at the State Department, a 
position created by Secretary Rice.
    If confirmed for this dual-hatted role, Ms. Fore will be 
tasked with overseeing and coordinating our Government's 
multifaceted outreach to countries where poverty and suffering 
create both a humanitarian imperative and a new security risk. 
Obviously, Secretary Rice has the highest regard for the 
nominee's abilities.
    She has also received a sterling endorsement from the 
Foreign Affairs Council, an umbrella group of 11 organizations 
that focus on foreign policy management. I ask that the letter 
written by the Council's president, Tom Boyatt, be inserted in 
the record.
    Senator Menendez. Without objection.
    Senator Lugar. I thank the Chair.
    [The information previously referred to appears at the end 
of this hearing in the Additional Material Submitted for the 
Record section.]
    Senator Lugar. Americans have long supported their 
Government's work to save lives and alleviate human misery. 
Since 9/11 and the harboring of terrorists in Afghanistan, we 
have acquired new insights into how failing states can provide 
fertile ground for nurturing global terrorism. This 
administration has taken on the challenge by making new 
commitments to international economic development. It has 
increased foreign aid spending and created new funding 
mechanisms. It has boosted America's focus on crises, such as 
the HIV/AIDS pandemic, that can set developing societies back 
decades. It is preparing a response capability to rush 
civilians and reconstruction expertise to countries devastated 
by conflict. And it has sought to promote good government, 
sound economic policies, and strong social programs focused on 
human development in all poor countries around the world.
    Secretary Rice's instinct to seek greater coordination and 
clarity in the new firmament of foreign assistance is on the 
mark. We need to meld new activities in a constructive way with 
our traditional approaches. We need to prioritize our goals and 
design our strategies in a way that is transparent to 
policymakers, legislators, and recipients, alike. We need to be 
able to measure, analyze, and assess outcomes so we can tell if 
we're making a difference.
    Every dollar of foreign assistance needs to count toward 
our hopes for a more peaceful and prosperous world.
    In the two key areas of USAID Administrator and director of 
the process of foreign aid coordination that Secretary Rice 
initiated a little more than a year ago, the Congress is 
looking for leadership that strikes the appropriate balance 
between the need for strategic direction from headquarters and 
the flexibility in the field to address the unique challenges 
posed by each recipient country.
    To inform our own views, I directed the Republican staff of 
the Senate Foreign Relations Committee to undertake a field-
based study of our foreign assistance efforts. Now ongoing, we 
are looking at assistance funded by the State Department, 
USAID, the Defense Department, and other agencies, in more than 
20 countries in Africa, Eastern Europe, and Latin America, and 
we're paying particular attention to the new coordination 
process to see how it is mirrored in the field. We're looking 
at USAID programs, section 1206 security assistance, Millennium 
Challenge Corporation, the Middle East Partnership Initiative, 
and the President's Emergency Plan for AIDS Relief, known as 
PEPFAR, as well as how programs run by such U.S. Government 
departments as Agriculture, Treasury, and Homeland Security are 
coordinated at the embassy level.
    In a previous staff report, ``Embassies as Command Posts in 
the Campaign Against Terror,'' it was recommended that the 
Secretary of State should insist that all security assistance, 
including section 1206 funding, be included under her authority 
in the new foreign assistance coordination process. Ms. Fore, 
the committee today will be interested in how you view your own 
role in making certain that our response to violent extremism 
is calibrated, supported by an appropriate mix of civilian and 
military foreign aid.
    I plan to share the findings of our current study with you 
as it's completed. I welcome you to the committee, and I look 
forward to your testimony.
    Thank you, Mr. Chairman.
    Senator Menendez. Thank you, Senator Lugar.
    Senator Hagel, would you care to make some remarks?

                 STATEMENT OF HON. CHUCK HAGEL,
                   U.S. SENATOR FROM NEBRASKA

    Senator Hagel. Mr. Chairman, thank you. I do have a 
statement, which I will ask to be submitted----
    Senator Menendez. Without objection, all of the members' 
statements will be submitted to the record.
    Senator Hagel [continuing]. For the record. Thank you.
    Senator Hagel. I add my welcome to Secretary Fore and to 
our distinguished colleague, the senior Senator from Texas. And 
I await Secretary Fore's testimony, and then I would be very 
pleased to pursue questions.
    Thank you.
    [The prepared statement of Senator Hagel follows:]

   Prepared Statement of Hon. Chuck Hagel, U.S. Senator From Nebraska

    Mr. Chairman, I join you in welcoming Secretary Fore back to the 
committee as the President's nominee to be USAID Administrator. [As the 
Chairman has noted,] if confirmed, Secretary Fore would also serve as 
the State Department's Director of U.S. Foreign Assistance--a position 
created by Secretary Rice to oversee long-needed and unfinished reform 
of U.S. foreign assistance programs.
    Since August 2005, Secretary Fore has served as the Under Secretary 
of State for Management, a position critical to the State Department's 
operations. In the last few years, the State Department has faced new, 
more difficult, and in many ways, unprecedented personnel and staffing 
challenges in Iraq, Afghanistan, and the growing number of 
unaccompanied posts around the world.
    Focused attention to the stewardship of the State Department and 
its Foreign and Civil Service employees must remain a top priority for 
Secretary Rice and her team. As USAID Director, Secretary Fore will 
need to devote considerable attention to the management of USAID's 
personnel.
    Before serving at the State Department, Secretary Fore held 
significant positions in government and the private sector, including 
Director of the U.S. Mint, and chairman and president of Stockton 
Products. She also served 4 years at USAID from 1989 to 1993, including 
as the Assistant Administrator for Private Enterprise and the Assistant 
Administrator for Asia.
    The dual-hatted position of USAID Administrator and Director of 
Foreign Assistance is one of the most vital foreign policy positions in 
the U.S. Government--and one of the most challenging. The 
responsibilities include the billions of dollars of U.S. taxpayers 
money that go to the core of our efforts to address many of the 
fundamental challenges of the 21st century--easing crushing poverty, 
creating economic opportunities, tackling corruption, rebuilding war-
torn societies, and fighting pandemic disease. Basic development and 
growth in economic opportunities for the billions who have not enjoyed 
the prosperity of the 20th century must remain a central tenet guiding 
our foreign assistance.
    This position is also charged with reforming America's foreign 
assistance system. I welcomed the Secretary's decision last year to 
conduct a fundamental overhaul of U.S. foreign assistance--a 
significant undertaking. While there have been changes, the results are 
mixed and the process has not enjoyed a satisfactory level of 
transparency. In a recent study by the Hudson Institute, it noted that 
the private sector devoted over $33 billion in assistance to developing 
countries in 2005, compared to about $28 billion in U.S. Government 
foreign assistance. Public-private partnership on assistance to 
developing countries enhances, rather than undermines, the 
effectiveness of the U.S. Government's foreign assistance programs. 
There should be more effective consultation between the public and 
private sectors and more effective harnessing of resources where 
possible.
    The war in Iraq has incurred an overwhelming cost to America's 
attention, leadership, and resources, which I believe has undermined 
our attention, resources, and efforts in Afghanistan. Secretary Fore, I 
will seek your commitment that United States assistance for Afghanistan 
will be among your top priorities. We cannot allow Afghanistan to slide 
backward. This area represents the real, central front in our war 
against al-Qaeda and terrorists.
    Finally, Madam Secretary, you cannot accomplish your 
responsibilities by relying on Washington-based advisors. Our field-
based diplomats, development specialists, and experts on the ground 
must play a central role in guiding our foreign assistance. You must be 
committed to seeking and welcoming their advice and recommendations.
    I would like to acknowledge your family--husband, Richard, and 
children, Jonathan, Jessica, Rebecca, and Richard--for their support 
and contributions.
    Mr. Chairman, thank you for holding this important nomination 
hearing. I look forward to questioning Secretary Fore, and to the 
committee's upcoming consideration of her nomination.
    Thank you.

    Senator Menendez. Thank you, Senator.
    Well, with that, I see that the senior Senator from Texas 
is here with you, Secretary Fore, so I would welcome the 
Senator's remarks on behalf of the nominee, and then we will 
turn to you, Madam Secretary. We'll ask to keep your opening 
statement to about 7 minutes. Your entire statement will be 
included in the record.
    And, with that, Senator Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON,
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Well, thank you, Mr. Chairman and the 
distinguished ranking member of the full committee, and Senator 
Hagel.
    I am very pleased to introduce to you Henrietta Holsman 
Fore for the position--the permanent position of Administrator 
of the USAID.
    She is highly qualified for this post, and I know all of 
you know her outstanding record in government service, and she 
is the Acting Administrator, right now.
    In 2005, she became the Under Secretary of State for 
Management, and, in that role, has been responsible for the 
people, resources, facilities, technology, and security at the 
Department of State. Prior to her service at the Department of 
State, she served as the 37th Director of the U.S. Mint in the 
Department of Treasury. She served as a presidential appointee 
at USAID back in 1989 to 1993, as Assistant Administrator for 
Private Enterprise and then as Assistant Administrator for 
Asia. During that period, she founded, and served as the first 
chairman of, the United States Asia Environmental Partnership, 
a coalition of business, government, and community 
organizations in the United States and 31 Asian nations. She 
also was a founder of the Financial Services Volunteer Corps.
    She has been recognized for achievements with the 
Department of Treasury's highest honor, the Alexander Hamilton 
Award. She also received her bachelor of arts degree in history 
from Wellesley and a master of science degree in public 
administration from the University of Northern Colorado. She 
studied international politics at Oxford and at Stanford 
University Graduate School of Business.
    She is married and lives in Washington, DC, and Nevada.
    Mr. Chairman, just on a personal note, I want to say that I 
have known Henrietta Holsman Fore since before she was in this 
administration. We are both members of an organization of women 
entrepreneurs called Committee of 200. She has been an 
outstanding entrepreneur. And I think you can see from her 
record that she has also tried to give back in public service. 
I recommend her highly. I've known her for a long time. And I 
know that she has the capability to manage, and she also has 
the heart to do the right thing for our country in USAID.
    I have traveled extensively in foreign countries where 
USAID can make a huge difference in the image of America and in 
the actual help that is given. And sometimes I find USAID is 
the best thing that we have going. And I know that she believes 
that, as well. And I want to make sure that we do keep it 
strong, that we keep it doing the right things and helping 
developing nations learn--the people of these nations learn how 
to become self-sufficient in their own right. And I hope that, 
while you have all of your questions, that are certainly 
legitimate, I hope that, in the end, you will see that she is a 
qualified nominee for this very important job for our country.
    Thank you.
    Senator Menendez. Thank you, Senator Hutchison.
    With that, Secretary Fore, the floor is yours.

  STATEMENT OF HON. HENRIETTA HOLSMAN FORE, NOMINEE TO BE THE 
  ADMINISTRATOR OF THE UNITED STATES AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Ms. Fore. Thank you very much, Chairman Menendez. Senator 
Lugar, Senator Hagel, it's good to see both of you.
    I appreciate this opportunity to appear before you today as 
the President's nominee to lead the United States Agency for 
International Development, USAID.
    As you are aware, I have served this administration proudly 
since 2001--as Senator Hutchison mentioned, first as the 37th 
Director of the United States Mint in the Department of 
Treasury, and, since August 2005, as Under Secretary of State 
for Management. Since May 7, 2007, I've served as Acting 
Administrator of USAID and Acting Director of United States 
Foreign Assistance in the Department of State.
    If I have the honor of being confirmed, I will be returning 
to an agency of remarkable and extraordinarily capable people, 
where I first served from 1989 to 1993. This committee has made 
it clear that we can, and must, use foreign assistance more 
effectively. You have also indicated that reform must be a 
substantially consultative process. I take this mandate 
seriously. In fact, the process began the day after I was 
nominated.
    I have spent much of the last 2\1/2\ months listening. The 
message that I have heard from Congressional Members, from your 
staffs, from our stakeholders in the humanitarian and 
development community, from educators and businesspeople, from 
our host countries and recipients of our assistance in the 
field, other U.S. foreign assistance implementors, from the 
Secretary of State, and, of course, from USAID itself, is a 
remarkably consistent one. They share with me a perception of 
foreign assistance importance in America--to America and the 
developing world, and they see USAID as central to the success 
of this Nation's development mission.
    In short, USAID's unique, long-term development focus is an 
invaluable instrument for U.S. foreign policy, for U.S. 
economic policy, and our Nation's humanitarian outreach. I am 
encouraged by this consensus, but I want to make clear that 
listening is not an end in itself. If confirmed, I intend to 
build on this consensus and use it as a basis for scaling up 
the Agency for International Development. For this, I will need 
your counsel, your guidance, and your support.
    I firmly believe that our people are our most important 
asset. If confirmed, I will support the Secretary's 
transformational diplomacy goal by ensuring that we have the 
people who can work on the complex tasks that the 21st century 
foreign assistance requires. With the active support and 
backing of Congress, we can stem the tide of declining numbers 
of USAID employees in our Foreign Service and in our civil 
service ranks. I will also upgrade skills and training for 
USAID's employees already in place, and will put in place a new 
capacity to work for America. We will increase our training and 
career development opportunities.
    The economic, political, social, and technological 
developments of recent years have brought with them a need for 
new nontraditional approaches that embrace transnational 
concerns involving a range of nontraditional and 
nongovernmental foreign assistance providers. To ensure that we 
are not working at cross-purposes, but for shared purposes, we 
will need to engage these new partners and stakeholders and 
prepare them for the challenges ahead. USAID needs employees 
with diverse backgrounds and broad substantive expertise. My 
goal is to hire, not just recruit, diverse employees. And, if 
confirmed, I will work hard to ensure a professional 
environment at USAID, where every employee feels valued.
    The United States leads as the largest donor country and 
with the largest private donor community in the world. USAID 
should be leading, both intellectually and programmatically. 
So, first and foremost, we must replenish our core workforce 
and our core skills.
    In recent years, Congress has appropriated less for our 
operating expenses than the agency has requested. And, as you 
know, OE is what makes our footprint in Washington and the 
field possible. If confirmed in the coming months, I will 
explore with you what options we might have to address our 2008 
OE stringency.
    I've asked USAID leadership to engage with me in analyzing 
how we might position USAID for the future by addressing the 
composition of our workforce and determining how the workforce 
might be more effectively repositioned, trained, and deployed. 
The Secretary and I believe that U.S. interests would be well-
served by a strong, well-trained, and well-deployed USAID. If 
confirmed, I intend to work very hard to find ways to achieve 
this result. I will engage the Congress in this issue as my 
first order of business.
    As we align and harmonize our administrative services at 
USAID and the Department of State, I will be asking Congress to 
consider new investments in information technology for USAID. 
The greater transparency and openness that I pledge requires 
modern information and communications systems at USAID and at 
the Department of State. Substantial investments will be 
required to bring USAID up to a level that will sustain our 
21st-century vision. The payoffs will be substantial. They will 
benefit the United States over the long run by increasing 
effectiveness and efficiency of our programs, enabling us to 
report to you with much greater detail and timeliness, and to 
integrate more closely with the programs of other United States 
Government agencies.
    Additionally, such investments will enable subsequent 
administrators to be more responsible stewards of the United 
States taxpayers' dollars. These people and these tools will 
help, each in their own way, to reach our aim, which is to 
significantly improve the human condition. Our foreign 
assistance programs save lives and lift individuals from 
poverty. We want to lift nations and their citizens to 
permanent prosperity. We want to create more donor nations. We 
want countries to build their own schools and train their own 
teachers. We want healthy young children, with bright futures 
ahead. We want to partner with public and private organizations 
and individuals throughout the world.
    In conclusion, if I have the honor of being confirmed by 
the Senate as Administrator of the United States Agency for 
International Development, it will be a pleasure to work with 
you once again in the service of our great country.
    Thank you.
    [The prepared statement of Ms. Fore follows:]

   Prepared Statement of Hon. Henrietta Holsman Fore, Nominee to be 
Administrator of the United States Agency for International Development

    Thank you, Chairman Menendez, Ranking Member Hagel and other 
members of the Foreign Relations Committee.
    I am honored to appear before you today as President Bush's nominee 
to lead the United States Agency for International Development as its 
Administrator. I am proud to have served in two other positions in this 
administration. From 2001 to 2005, I served as the 37th Director of the 
United States Mint in the Department of the Treasury. Since August 
2005, I have held the position of Under Secretary of State for 
Management.
    I have been Acting Administrator of USAID since May 7, and have 
been very active since then in preparing myself to lead the agency. If 
the Senate approves my nomination, it will mark a return to the agency 
for me, where I served from 1989--1993, as Assistant Administrator for 
Private Enterprise and as Assistant Administrator for Asia.
    Several weeks ago, I appeared before this committee and pledged to 
you a new openness in the Office of the Director of U.S. Foreign 
Assistance and at USAID. If I am confirmed as Administrator, I said 
that I would endeavor to improve communications, enhance collaboration, 
and bring greater simplification and transparency to decision making in 
foreign assistance and for the agency. I see USAID as the intellectual 
and operational leader of Foreign Assistance for the United States 
Government and with your assistance, will assemble the resources 
necessary for that leadership.
    Mr. Chairman and members of the committee, I have spent the last 
several weeks working to make good on this pledge. I began within the 
agency itself, the day after my nomination. On average, I spend about 
half of my day at USAID. Much of this time has been spent listening to 
the leadership and staff at USAID as well as doing ``walk throughs'' to 
speak with all my colleagues in the agency.
    I have also consulted extensively with the humanitarian and 
development assistance community here in Washington seeking their 
counsel on how USAID can better focus its resources to have the 
greatest impact on the challenge of poverty and instability around the 
world and to more effectively pursue opportunities for long-term 
development, spreading democracy, fostering economic growth, and 
investing in people through education and health.
    I also intend to be fully engaged in the United States and abroad 
in public diplomacy outreach efforts to build greater understanding of 
U.S. foreign assistance and the role it has played in building a more 
peaceful, prosperous world. In this regard, I was privileged to travel 
to Africa last week as part of the United States delegation to the 
African Growth and Opportunity Forum and to visit several USAID 
programs with our field staff.
    Outreach is important to helping build understanding of U.S. 
foreign policy here in this country and the role of USAID's development 
efforts around the world. There is no better public diplomacy for the 
United States than a diplomacy of deeds, providing effective foreign 
assistance through effective communications about these efforts to host 
country audiences.
    Finally--and most important--I pledge to improve communication with 
Congress. I will come to you earlier and more often, seeking your views 
on what we propose to do. I want to make sure that we answer your calls 
and provide full and timely answers to your questions. I will, if 
confirmed, consult fully with the Congress on the major issues facing 
the agency.
    The fiscal year 2008 budget is now in your hands and early next 
year we will be coming to you to present the President's request for 
fiscal year 2009. Should I be confirmed, I pledge to work with you to 
make our consultation closer and more effective.
    The Secretary's goal of transformational diplomacy is in the 
forefront as I consider the issues facing me, if I am confirmed. We are 
helping people to better their lives, to build their own nations, and 
to transform their futures. The administration's foreign assistance 
reform is critical to that goal in that it moves us toward a single, 
more coherent, and better integrated foreign assistance budget, making 
the best use of the resources that you appropriate for foreign 
assistance. It allows program and resource allocation decisions to be 
based on a comprehensive view of all accounts and resources flows.
    This committee has made it clear that we can, and must, use foreign 
assistance more effectively. You have also indicated that reform must 
be a substantially more consultative process. I agree and take this 
mandate seriously.
    During my tenure as Acting Administrator these past 2\1/2\ months, 
I have sounded out a number of ambassadors and mission directors for 
their views on how to strengthen U.S. foreign assistance and to make it 
more effective and visible in the countries they represent. I am 
soliciting similar suggestions from the field to make the voices of 
those who actually implement our programs more prominent in their 
formulation. I have charged the agency's Chief Operating Officer to 
convene a conference of mission directors in Washington, now 
tentatively scheduled for October. We are reviewing the after action 
report on the reform process to date and will be considering the 
suggestions of internal working groups in the agency that have been 
charged with adapting agency practices to better meet the Secretary of 
State's transformational diplomacy goals. I would like to underscore 
the fact that we are in the early stages of the reform process. I will 
work closely with you to strengthen and improve the process as we move 
forward.
    Much has changed since my last tour at USAID. The demise of the 
Soviet Union, the integration of global communications and markets, the 
growing menace of global terrorism, weapons of mass destruction and 
transnational crime, the surge of HIV/AIDS, and the threat of other 
infectious diseases--all these are hallmarks of a significantly altered 
21st century landscape for development.
    As the National Security Strategy underscores, the locus of our 
concerns has shifted from great power rivalries to failed and failing 
states. Americans now understand that security in their homeland 
depends, as never before, on bringing security, freedom, and 
opportunity to the underdeveloped regions of the world and to countries 
far beyond our borders.
    In short, the challenges that America now faces have significantly 
increased the importance of development to security and well-being. 
This in turn has prompted a rethinking and redesigning of foreign 
assistance mechanisms as well as unprecedented commitment of resources 
to foreign assistance, which has nearly tripled over the last 7 years. 
Development is now recognized as comparable in importance to diplomacy 
and defense as key to U.S. national security. In fact, foreign 
assistance is one of our most powerful assets. In addition to reducing 
poverty, foreign assistance shapes ``hearts and minds'' abroad and it 
shapes our quality of life and prosperity, here at home.
    Let me turn to our people. Our people and our partners around the 
world are now operating in more areas of conflict and unstable post-
conflict environments. This is far more demanding and difficult work, 
and more often we are working side-by-side with the military.
    USAID is staffed by remarkable and extraordinarily capable people, 
both here in Washington and in over 80 missions around the world. As 
Americans, we are well-served by the hard work and dedication of all 
these fine individuals who stand ready to respond to humanitarian 
emergencies anywhere they arise, and willingly accept personal hardship 
and separation from family in some of the most remote and deprived 
areas of the world.
    USAID boasts an impressive track record of success that has 
rightfully earned it a reputation as the world's premier development 
agency. In over 60 years of development and humanitarian work, it has 
been instrumental in dramatically reducing infant and child mortality, 
raising agricultural production through scientific innovation, spurring 
economic growth and helping build democracies. In those years we have 
created a great number of friends--from students to Government 
Ministers who have come to study and travel in the United States--and 
we have created a reserve of goodwill.
    If confirmed as Administrator, I intend to build on these 
successes. My goal is to reinvigorate USAID and to help build a 
platform for my successors which will position them to better meet the 
unprecedented challenges and opportunities of today's world.
    I am greatly encouraged by what I have heard in my ``listening 
tour.'' The message I have heard--from you in Congress as well as from 
your staffs, from our stakeholders in the humanitarian and development 
community in Washington, from educators and business people, from our 
host countries and the recipients of our assistance in the field, other 
government agencies within this administration, from the Secretary of 
State, and, of course, from within USAID itself--is a remarkably 
consistent one. Everyone I have consulted shares with me a perception 
of foreign assistance as more important than ever to the welfare of the 
world and to this Nation's security. And they see USAID as central to 
the success of this Nation's development mission. In.short, USAID is 
unique both in its reach and the flexibility of its programming. And it 
is a valuable instrument of U.S. foreign policy, U.S. economic policy, 
and our Nation's humanitarian outreach.
    I want to make clear that the ``listening mode'' I have adopted 
these last several weeks will continue. In this regard, I am encouraged 
by the consensus I have found. I also want to make clear that 
``listening'' is not an end in itself. It is my intention to build on 
the consensus I have found as the basis for an action plan for the 
agency. And for this I will need the counsel, guidance, and support of 
the Congress during the time I am Administrator, should I be confirmed, 
as well as the support of USAID's other key stakeholders.
    If a revitalized USAID is to make its contribution to the success 
of our foreign assistance mission and to this Nation's security, first 
and foremost, we will need to replenish a core workforce that has been 
dramatically reduced over the course of several decades.
    The trend lines in this regard are as disturbing and have reached a 
critically low level. In 1980, there were approximately 4,000 direct 
hires in the USAID workforce; today there are 2,000, managing 
comparable amounts of programming dollars.
    The reservoir of experienced personnel that existed a generation 
ago no longer exists. We have lost a cadre of development experts, 
versed in the myriad facets of foreign assistance, who are long-term, 
institutionally bound to the agency and closely identified with it. 
While today it is both common and appropriate for the agency to 
contract for much of the expertise to carry out its mission, current 
staffing levels are not adequate to lead and manage the programs and 
projects effectively. Moreover, that the agency faces the retirement 
bow wave common to much of the rest of the Federal Government, and that 
can only exacerbate these problems.
    In recent years, Congress has appropriated less for our operating 
expenses (OE) than the agency has requested. OE is what makes possible 
our ``footprint''--our people and where we deploy them. In the coming 
months, should I be confirmed, I will be exploring with you the 
implications of this OE situation. I can assure you that the agency is 
analyzing in detail how we might position USAID for the future by 
addressing the composition of our workforce and determining how it 
might be more effectively repositioned, trained, and deployed. I 
believe that U.S. interests would be well served by a strong, well-
trained, well-deployed USAID. I intend to work very hard to find ways 
to achieve that result, and, should I be confirmed, I would plan to 
engage the Congress as a first order of business on these and related 
matters.
    As we improve administrative services at USAID and the Department 
of State, I will also be asking Congress to consider significant new 
investments in the Information Technology at the agency's disposal. The 
greater transparency and openness that I am committed to requires a 
modern information systems architecture at USAID and the Department of 
State. That will take substantial investments and time, but will pay 
off dramatically over the long run by helping us manage our programs 
and activities much more efficiently and effectively.
    Last, you have asked me about morale at USAID and how I will 
address what is perceived to be a lingering problem there. I want you 
to know that I am a hands-on manager and will establish a very visible 
and accessible presence at the agency, should I be confirmed. I have 
already done so as an Acting Administrator. I believe in our USAID 
people and our programs. Our people are enormously dedicated and 
rightfully proud of the work they accomplish every day in small and 
large areas of the world. USAID needs employees with diverse 
backgrounds and broad substantive expertise. My goal is to hire, not 
just to recruit, diverse employees. If confirmed, I will work hard to 
ensure a professional environment at USAID where every employee feels 
valued.
    In conclusion, if I am confirmed by the Senate as Administrator of 
USAID, it will be an honor to work together with you once again in the 
service of our great country.

    Senator Menendez. Thank you, Madam Secretary, for your 
statement.
    We'll start off with 7-minute rounds, and then I'm sure 
there'll be other opportunities for further follow-up beyond 
that. And the Chair will recognize himself to start that 
conversation.
    Madam Secretary, the committee has learned that, on two 
occasions in the past 12 months, some 20 to 30 employees of AID 
received briefings by the Office of Political Affairs at the 
White House. One of those briefings was held at AID 
headquarters. One of these was at the old executive office 
building. And I understand that Senator Biden, the chairman of 
the full committee, wrote you a letter last week seeking 
additional information about these briefings.
    I'd like you to tell the committee what you know about 
these briefings.
    Ms. Fore. I know what I have read in the newspaper, and I 
have read the letter from Senator Biden.
    Senator Menendez. You know nothing independently of the 
newspaper or Senator Biden's letter?
    Ms. Fore. I was not present at either event, and, as you 
know, I have been only involved with USAID for approximately 
2\1/2\ months.
    Senator Menendez. So, you had no previous knowledge about 
this, either in your acting capacity or in your previous 
capacity in the role that you've had at the State Department, 
until now?
    Ms. Fore. I have been aware that a number of informational 
briefings have been taking place over the years, but I have not 
been aware of these two particular instances, and I was not 
present at either one.
    Senator Menendez. When you say ``informational briefings,'' 
these have been described by public accounts, as well as a copy 
that has been received by the committee of what the 
informational briefing was, and I think that the informational 
briefing could be described as nothing else as a political 
briefing. Is that what you're referring to as ``informational 
briefings''?
    Ms. Fore. I have not--I was not present at these briefings. 
I believe that they are informational briefings, and----
    Senator Menendez. Well, let's look at the information. But 
you did say you weren't at these two briefings, but you did say 
you were aware of what you describe as ``informational 
briefings.'' Have you ever been at any one of these 
informational briefings, outside of these two briefings?
    Ms. Fore. When I was at the Department of Treasury, the--
there were informational briefings for senior individuals in 
the Department of Treasury, and I was one of those individuals.
    Senator Menendez. And what was the centerpiece of that 
informational briefing the essence of politics, the political 
landscape in the country?
    Ms. Fore. Yes, it was the political landscape, to try to 
make sure that we were aware of issues that were relevant to 
legislation or activities that were going on that might better 
inform us, as individuals.
    Senator Menendez. Well, the memo that we have, that was 
used at these meetings, that--the two that you were not at--
talks about not legislation, but talks about ``race is 
extremely close,'' talks about ``split districts represented by 
Democrats,'' talks about ``Democrats having a precarious hold 
on power,'' talks about ``targeting House races in the year 
2008,'' talks about ``battle for the Senate,'' and talks about 
where there is a ``GOP defense'' and where there is a ``GOP 
offense,'' including my home State of New Jersey.
    Do you think it is appropriate, as you are up for the 
nomination of this Department, that AID employees be spending 
their time being briefed on the electoral landscape?
    Ms. Fore. I think it is important that we follow all 
regulations and appropriate legal procedures. And I would be 
very pleased, Senator, to relook at what our guidelines are in 
the U.S. Agency for International Development, because there 
are very strong guidelines about not being involved with 
political candidates and other activities, to make sure that 
our people are well briefed and really understand what the 
guidelines are.
    Senator Menendez. To the extent that you went to some of 
these briefings, how did the invitation get extended to you?
    Ms. Fore. I believe that the invitation would have come 
through our White House liaison. As you know, most departments 
have a White House liaison, and that would generally be how 
such invitations would come to us.
    Well, from my own view, I don't think that it is 
appropriate. I think it is a corruption of the process to have 
employees--and, I'm not sure, do you know whether the 20 to 30 
employees of AID that received briefings, were they all 
political appointees or were some of them civil servants? Have 
you looked at that yet, since Senator Biden sent you the 
letter?
    Ms. Fore. I have not yet looked at that, but we will look 
at that and respond.
    [Note. The information requested above appears at the end 
of this hearing in the ``Additional Material Submitted for the 
Record'' section.]
    Senator Menendez. Well, I hope that's a high priority for 
you, because it certainly, in my mind, is the inappropriate use 
of the time of the men and women of AID, to be being informed 
about where the battleground States are and which are targeted 
House races and which are targeted Senate races. I'm not quite 
sure how that promotes the development agenda abroad, the 
foreign policy agenda of the United States, to be using the 
time of USAID employees for the purposes of what is, in 
essence, a political strategy program. And, to me, that seem--
clearly seems a corruption of a process that we should and I 
would hope that, if you were to receive the approval of this 
committee, that you would have a strong opposition to. I heard 
you say you're going to look at the regulations. I would want 
the Assistant Secretary to be telling me, ``I will not be 
having my employees at USAID spending their time on the 
domestic politics and political landscape of the country. I'm 
going to have them developing the best programs to put 
America's best foot abroad, in a development context.''
    Ms. Fore. Well, Senator, I, too, would like to see our 
people spending their time on creating the best programs 
overseas for development and for foreign assistance, because 
that is their main mission, and that is what they are to spend 
their time on.
    Senator Menendez. Well, we look forward to your response to 
Senator Biden's letter.
    With that, let me recognize the distinguished ranking 
member, Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    For the 28 years I've served on the committee we've had 
Republicans and Democrats leadership, different 
administrations, and the age-old battle goes on as to how many 
of our ambassadors should be so-called political people, as 
opposed to Foreign Service. Ditto for under secretaries and 
others down the line. Roughly, in all administrations, a 
quarter to a third have been so-called political people. By 
that, it means many of them were vigorously involved in the 
election of whoever was elected President of the United States. 
Vigorously. Now, it's inconceivable these people never had a 
thought about partisan politics. They thought about it all the 
time, trying to elect whoever was going to be President--
probably didn't forget about it after they went out to their 
posts.
    Now, without trivializing the matter, I suspect it is not 
appropriate to have charts of candidates coming and going in an 
official function attributed to Karl Rove or anybody else. I 
would hope that the administration would cease and desist from 
that, but, likewise, the subsequent administrations would cease 
and desist from activities of that variety. Within this 
committee we've had members on both sides of the aisle who rant 
and rave about political appointees, who berate these poor 
souls who come before our committee, under that guise. Most of 
them, somehow or other, are confirmed, and many are 
distinguished in their service.
    But I hope--and I take the point of the Chairman today--
that you will not have any briefings, if you are confirmed, 
that have lists of candidates, either prospective or past, or 
political reminiscence on the job. There is a time and a place 
for that, and not inside the Department.
    Now, having said all that, let me ask you, What are your 
plans for the so-called ``F'' process? And I want to define ``F 
process,'' the reform effort that Mr. Tobias headed at the 
State Department to try to bring into the fore the foreign 
policy programs examined at the country level by those who were 
administering, those experiencing them. Can you give us some 
comment about that process and how you would forward it?
    Ms. Fore. Yes, thank you very much, Senator.
    I think it's been a very interesting time. This is a bold 
goal, to try to gather together all of the foreign assistance 
that we, as the United States Government, invest on behalf of 
the American people. And it is very complex. It is not easy. 
But we have begun. And I have spoken to Senator Menendez before 
about the fact that we're really at the beginning; we're not at 
the middle, and we're not at the end of this process.
    So, the first area that I began to look at was, How much 
was our involvement with the field? Because the field, in the 
end, is where all of our programs are carried out, it's where 
our implementing partners are doing their good work and 
reaching out and helping others to help themselves. And I do 
not think that we have involved the field enough. And in our 
after-action report, one of the key findings was that we needed 
to involve the field more.
    So, we've started involving the field more. We are now 
involving the field before the Secretary makes her decisions on 
country-level programs. We are now making sure that the field 
can make some choices, in terms of implementors of the programs 
in the field. And I've had very instructive discussions with 
our ambassadors and mission directors in the field on the 
things that they see that we should be working on, and how we 
could improve the process. I am hearing that our process, this 
year, for fiscal year 2009, is much improved. I would 
anticipate, for next year, that the process will be even more 
improved. But, starting with the field, that is where we began.
    Second, I very much want to streamline and simplify the 
process, and I would also like to get greater transparency into 
the system, for USAID, for State Department, and for 
implementing partners; everyone needs to be able to see into 
the system, so they know ways that they can improve it and how 
they can see themselves as a part of a larger whole in a 
country-development program.
    So, I think we have a good start, but there's much to do. 
This will be a continuing process. And, with your help and your 
counsel, I think we can leave this in even better shape in 18 
months' time.
    Senator Lugar. In this administration, there's been debate, 
among friends and critics, as to which has been paramount, 
counterterrorism efforts in the field or alleviation of extreme 
poverty. The two are not necessary exclusive, but some would 
charge that one has taken precedence over the other.
    What is your observation, at least initially, of what has 
been occurring in the field as people from the field come 
forward and give the testimony that you're encouraging?
    Ms. Fore. Yes, it's a very interesting question. It's one 
that has wide ramifications for how the United States policies 
are seen abroad, as well as how we invest our resources. There 
are many instances where counterterrorism, or the peace and 
security portfolio, is the most important area to attend to 
first, because, without some basis of security, it's very hard 
for people to begin lives that are at all normal. Their quality 
of life is very poor. And yet, one can never forget the 
humanitarian and development side. So, we are trying to find a 
balance. It is something that the new foreign assistance 
framework--the Secretary and I have been very committed to, to 
find a balance between these areas, but also to find a balance 
between short-term and long-term development needs, because 
they are all important.
    What we are hearing from the field is that some ambassadors 
and mission directors and implementors, nonprofit organizations 
in the field, feel very strongly that we should be doing more 
of this, or more of that. But, in the end, almost everyone, as 
we begin to talk at roundtables, begins to see that there has 
to be a very strong balance. But it is a difficult world. It is 
a less secure world. It is a world with many more countries in 
conflict and in post-conflict. And thus, it is the world that 
we have.
    Senator Lugar. Thank you very much for your answers.
    Thank you, Mr. Chairman.
    Senator Menendez. Thank you, Mr. Chairman.
    And we're going to alternate both sides, so I'd recognize 
Senator Nelson now.
    Senator Nelson. Good afternoon, Ms. Fore.
    We have talked privately about the passport fiasco that 
occurred under your watch. And I want to ask you a few 
questions about that with regard to how it will relate to your 
management capabilities with regard to this new position that 
you are nominated for.
    As you have heard me describe, Ms. Hardy was here, about a 
month ago, and there were a lot of frustrated Senators. And 
they expressed the frustration of thousands of the folks back 
home. There have been angry phone calls. It's forced the State 
Department to immediately try to react. And the State 
Department has had to divert resources. Do you consider this a 
management failure?
    Ms. Fore. Well, I consider it a challenge, and one that we 
must overcome, because we have American citizens, who are our 
customers, that need to have passports. And so, our job, our 
sole focus, is how to make sure that every American who comes 
forward and who applies for a passport gets it in a timely 
manner.
    Senator Nelson. Indeed, it's a challenge, but I'm trying to 
focus on the management. Now, Mrs. Hardy, who was here a month 
ago, she took the entire blame for this, and, as recently as, I 
think, yesterday, she, as Assistant Secretary, accepted--and I 
use her words--``complete responsibility,'' end of quote, for 
the passport fiasco. And what I would like to understand from 
you, since you were her boss, as Under Secretary for Management 
in the State Department, do you bear some of this 
responsibility?
    Ms. Fore. Yes. I think we all bear the responsibility 
whenever we are not able to meet the expectations of the 
American people. The good news, Senator, is that passports are 
much desired by the American public, and that we will be better 
off, as a Nation, with more Americans carrying passports.
    Senator Nelson. Well, share with the committee--what was 
your role in preparing for the excess demand for the passports 
under the new Western Hemisphere Travel Initiative?
    Ms. Fore. In looking forward to what sorts of demands that 
we thought that we would have, a group of advisors were 
gathered, in Consular Affairs, which included outside private 
consultants and individuals from private industry, from travel 
and tourism, and individuals who have been working in Consular 
Affairs, with decades of experience. And they gathered to think 
through and look forward, for the next 1 year, 5 years, what 
sorts of demand we could anticipate as a department. And their 
sense was that it was perhaps a 33 percent increase in demand. 
And then, all of us begin to work to try to gather the 
resources. These are both the contractors, the funds, the 
people, the training, and the raw materials, like passport 
books. We try to gather them, to be able to fulfill that 
estimate.
    The estimate was low. And what happened this spring, in 
January, February, March, and April, was that the requests, the 
applications, came in at double the rate that had been 
anticipated. It's unprecedented in history, and it just was not 
seen.
    So----
    Senator Nelson. The estimates, originally, for excess 
demand, were last fall. Why, for example, would you--as a 
manager overseeing Mrs. Hardy, why would you allow the outside 
contractor to go all the way until the month of May of this 
year in order to hire additional personnel to handle the 
backlog, when, in fact, it was known last fall?
    Ms. Fore. Senator Nelson, we have a number of contractors 
who are helping. We have contractors who work the call centers. 
We have contractors who are working the lockbox. We have a 
number of types of contractors who are by our side in manning 
the windows and doing much of the work for creating passports. 
And we tried to work with every one of these contractors to get 
the service and to make sure that they understood the 
increasing demands that we were seeing in this entire supply 
chain.
    So, I and others were on the phone talking to contractors, 
making sure that we were getting all of the authorities we 
needed to bring back retirees, to get volunteers, to put 
everyone to work, to get enough training programs going, 
because we have to do this thoughtfully; it is not something 
that we can do lightly. We bear a responsibility to do this 
properly and well----
    Senator Nelson. In this case----
    Ms. Fore [continuing]. But to gather these resources.
    Senator Nelson. In this case, there was only one 
contractor. It was Citibank that was the lockbox, and the ones 
that--it was way on up until May that they did not start hiring 
additional personnel, and they just got more and more behind 
the eight ball.
    Well, let me ask you--I have two remaining questions, and 
not much time left--how many Foreign Service officers have been 
brought home from their current post, or taken out of the 
Foreign Service Institute, to help process passports?
    Ms. Fore. Well, at this moment, we have 273 Foreign Service 
officers, who are volunteers, who are working around the 
country. We have another 350 Department employees, who are 
volunteering to work on the telephone task force. So, these 
could be customer service. We now have the ability to use our 
IT systems and remotely adjudicate renewals of passports, so 
they are staying in place, and they are in London and New Delhi 
and Chennai. So, we also have people who are offshore, our 
Foreign Service officers, U.S. citizens, who are remotely 
adjudicating passports.
    Senator Nelson. Well, taking them out of their existing 
jobs and having them meet this, has this had an effect upon our 
foreign diplomacy?
    Ms. Fore. Well, we are all working very hard. And, for most 
of us, we are working very long hours. You know we're working 
24 hours a day, 7 days a week, at our passport centers. So, for 
many of our people, they're working a full day, plus then they 
work another 4 hours on passports. So, everyone's trying to 
pitch in. I cannot tell you how hard everyone is working. They 
are just trying to make sure that there is not one American 
citizen that is without a passport and that--whose travel plans 
need to be delayed.
    Senator Nelson. And for the $60 expedited fee, are you 
going to make sure that those who did not get it expedited are 
going to have a refund of their money?
    Ms. Fore. Yes. We have several options for you on that, 
Senator, which maybe we can speak about with you later.
    Senator Menendez. Thank you.
    Senator Nelson. Well, I'd be just as happy to hear it now. 
I don't want to take the time----
    Ms. Fore. All right.
    Senator Nelson [continuing]. Of the committee members. 
Let's go on with you all, but, in the course of this hearing.
    Senator Menendez. All right. Thank you.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you. And welcome, again, 
Secretary Fore.
    Speaking of passports, as you no doubt saw in Sunday's 
Washington Post--rather significant story about a report that 
our Ambassador to Iraq, Ambassador Crocker, if I have this 
correct, sent you a cable, and, according to the paper, the 
cable urged the United States to offer United States immigrant 
visas to all Iraqi employees who worked for the United States 
Government in Iraq. You may know that this is part of a 
Kennedy-Hagel bill that is larger and more substantial than 
just the visas, but deals with Iraqi resettlement here in the 
United States, those who have assisted the United States 
Government over the last 5 years.
    I think this committee would be interested in your response 
to that story. What is the current status of Ambassador 
Crocker's cable, and anything else you can tell us about that 
issue?
    Ms. Fore. Thank you, Senator Hagel.
    We think this is a very important issue. There is a special 
responsibility that we bear for those brave Iraqi nationals who 
have been working by our side, and we feel it most acutely in 
USAID and Department of State and Department of Defense, 
because they are often by our sides. As you know, there is some 
legislation which allows us to have special immigrant visas for 
translators. And we certainly welcome legislation which would 
allow this to be broader, so that it could cover more of the 
Iraqi nationals who would like to be covered under the special 
immigrant visas.
    There is a second route that Assistant Secretary Ellen 
Sauerbrey has spoken about quite frequently and well, which is 
that of the refugee status. Our Bureau for Population, 
Refugees, and Migration has processed, and looked at, a number 
of opportunities and ways for Iraqi nationals to come to the 
United States.
    And there is a third area that we have worked on, which is 
for internally displaced persons, and ways that we, whether 
it's United States Agency for International Development, can 
help with Iraqi nationals who have moved to either the borders 
along Jordan or other countries, and ways that we can help in 
education or with humanitarian assistance for those 
individuals.
    But we do feel that there is a responsibility, and we 
certainly like to encourage legislation that would help these 
individuals.
    Senator Hagel. Well, if I read that story correctly--I've 
not seen the cables, incidentally--Ambassador Crocker is 
putting some rather significant urgency on this issue. And if I 
interpret at least the story correctly, without having read the 
cables--and, by the way, this is an issue he brought before 
this committee last week, and it's an issue he has discussed 
with me privately--I definitely got the sense that he felt that 
the State Department should be making this as a high a priority 
as there is, and doing something about it. So, what are we 
doing about it?
    Ms. Fore. Well, we, in the State Department, can't do 
everything alone; we just don't have enough authorities. So, 
all of the chief-of-mission authorities that he can exercise, 
he has, because we agree with him that he should have those 
authorities. So, he has those. We are looking to see if there 
are any additional authorities which he might be able to have, 
and we do not have a full answer on that, as yet.
    Senator Hagel. When will we have an answer?
    Ms. Fore. I would think, shortly.
    Senator Hagel. Well, I would like for you to get back to 
the committee on that. My vote may well hinge on that.
    Senator Hagel. I would like to know, also, how many Iraqis 
have we resettled in the United States?
    Ms. Fore. I don't know the answer to that question, sir.
    Senator Hagel. Well, the answer is about 60 or 70. Now, if 
this administration is putting this kind of urgency on this 
issue, and we are saying all the things, from the President on 
down, that we owe--just as you have said, Madam Secretary--we 
owe this to these good, faithful Iraqis who have supported us, 
at great risk. To your point, it seems we're not matching our 
words with our actions. And I would like a better answer to 
this question. And I would expect that. And certainly, my vote 
would very much depend on that, because there's a disconnect, 
in my mind, somewhere. If our Ambassador is saying one thing, 
in rather urgent tone--at least that's the way the story in the 
paper reflected it; and if I saw the cables, I might have a 
different interpretation--but is that your interpretation, that 
Ambassador Crocker was rather urgent and serious about this?
    Ms. Fore. Absolutely. And we feel that same urgency in the 
Department, which is why every chief-of-mission authority that 
we can give him, we have given him. What we are looking into 
whether there are additional authorities? Beyond that, we will 
need help from Congress.
    Senator Hagel. Well, why would he send it to you? The 
cable.
    Ms. Fore. Because I am Under Secretary of State for 
Management.
    Senator Hagel. For management. So, that tells me that we've 
got some bottleneck somewhere; to some extent, focused on what 
Senator Nelson was talking about. So, I will leave that issue 
where it is, and you know my sense of that.
    Let me move to the issue of Afghanistan. What's your 
assessment of our assistance programs in Afghanistan?
    Ms. Fore. I have not, as yet, visited to see the USAID 
programs within Afghanistan. I have visited Kabul to visit the 
embassy, and also have been out to a PRT in Panjshir. And my 
sense is that there is a strong sense of partnership, and that 
there is real progress.
    As I read my briefing papers on how we are faring in 
Afghanistan, there are some real successes in school, and 
attendance by girls in school in Afghanistan. There is also 
real success in building of roads, of irrigation; thus, of 
other livelihoods. There are successes in the north, in 
eradication of poppies. There are successes that can be found 
throughout the country. There are also some areas that are real 
challenges, and, I think, will need increasing attention by all 
of us, but I will look forward to taking a look on the ground 
and talking to the people and seeing how they feel about our 
foreign assistance programs with USAID, but also with our other 
foreign assistance entities.
    Senator Hagel. All right, just before--my time, I know, is 
up--but I would just make this last comment. On eradication of 
poppy, Madam Secretary, the poppy crop in Afghanistan is at a 
historical high. It was the largest poppy crop in the history 
of Afghanistan. So, I'm not sure you'd want to list that as a 
success story.
    Thank you.
    Senator Menendez. Thank you, Senator Hagel.
    Senator Casey.
    Senator Casey. Thank you, Mr. Chairman.
    And, Madam Under Secretary, I want to thank you for being 
here.
    I wanted to speak to a couple of things that pertain to 
recent reports in the press, as well as your jurisdiction, 
should you be confirmed, and some of the statements you made in 
your prepared remarks.
    I want to refer, just as a predicate, to a couple of 
things. First of all, a story I'm sure you've seen this Sunday 
in the Washington Post, that talks about--the headline is, 
``Hill Aid Groups, One Opaque System Replaces--Replaced 
Another.'' It talks about Secretary Rice asking, in 2005, 
quote, ``How much does the United States spend each year on 
promoting democracy overseas?'' Nine months later, I guess, she 
gets the answer of 1.2 billion. It goes on to talk about 23 
overlapping programs. The assertion in the article, that 
there's still--that one opaque system, as opposed to 
transparent, replaced another. At the beginning of about the 
fifth paragraph, ``Rice's foreign aid approach, sadly, bears 
the hallmarks of our failed early assistance efforts in Iraq,'' 
unquote, and it goes on from there.
    And I say that as a predicate. And I also say, as a 
predicate, I've got a chart here that was presented in this 
room--I believe it was this room, in another hearing not too 
long ago by Dr. Lael Brainard of the Brookings Institute. And 
what she has here, that it's hard to see, even when you're 
close, but she had a better copy of this--the headline on 
this--the title, I should say, is, ``U.S. Foreign Assistance 
Legislation Objectives and Organizations.'' And it's a mind-
numbing chart which is almost difficult to trace. It would take 
you hours, probably, to trace every line. So, it's a picture of 
what--unfortunately, what too many people who watch a hearing 
like this--too many people will follow the work of government, 
especially the Federal Government, are concerned about. And 
they have a right to be concerned, and a right--and a right to 
be disturbed by overlapping jurisdictions, wastes of money, 
bureaucracy that is not only confusing, but, in the end, is a 
barrier or an obstacle to getting, in this case, aid to 
countries and people that should get it, not to mention what it 
does in the context of our overall budget.
    And I'll quote a President, also--and I'll be done with my 
predicate in a second--quote, ``No objective supporter of 
foreign aid can be satisfied with the existing programs. 
Bureaucratically fragmented, awkward, and slow, its 
administration is diffused over a haphazard and irrational 
structure,'' unquote. Well, unfortunately, that wasn't made 
recently. The President was President Kennedy. It was in 1961. 
So, we haven't made much progress.
    But I ask you, in light of that--the predicate to my 
question, and in light of your testimony--I know you spoke, in 
your prepared remarks, about simplification and transparency, 
neither of which, I would argue, are possible, or in any way 
possible, if we don't do something about the maze that is these 
series of programs, initiatives, and objectives. And I'd ask 
you to outline for us--and supplement and amplify it for the 
record, if you need to--but tell us, as best you can, in the 
few short minutes, about what you're going to do, and what--the 
plans you have that are already developed to deal with this 
mess that is the overlapping set of lines that I just showed 
you in that chart.
    Ms. Fore. Senator Casey, it is, indeed, a very complex 
field. And your chart, with your set of lines, does show that 
it is fragmented and that it can often lead to one entity not 
understanding what another entity is doing. And that is within 
the United States Government, but it's also in the donor 
community at large with other countries. It's also with the 
private sector.
    So, what I would hope to do with the Director of U.S. 
Foreign Assistance portfolio is that we can gather, that we can 
focus, and that we can really place all of our assets of the 
United States Government in a country in areas that will have 
the greatest impact. It is something that is a challenge, 
something that Senator Lugar has spoken about in years prior. 
It remains a challenge. But I am committed to begin that 
process. It is a process that has now begun, on the budget 
side, where we gather all of the departments around a table and 
talk about countries and regions, so that you will see 
Department of Defense and Department of Treasury and Department 
of Commerce and USAID and HIV/AIDS, the PEPFAR program, and 
others around a table and talking about what the development 
programs should be. We also now have some beginnings of 
definitions for what is democracy, for example.
    And all of these are good starts, but we're just at the 
beginning of this process. And what I would hope to be able to 
do in coming months is to try to simplify this, but also to try 
to better coordinate that which currently exists so that we can 
really have a strong impact, and the best impact possible, for 
the American people, as well as for the people around the world 
that we are serving.
    Senator Casey. Thank you for your answer. I'd--I would ask 
you to--and I appreciate the answer, and I appreciate the 
commitment that you've made today, but I'd ask you also to 
submit for the record a game plan for this, and a rather 
detailed game plan, about how you're going to go about this. I 
realize it's difficult. Those of us who have been in 
government--I was in State Government--it's hard to break 
through, and it's important to identify where efficiencies are 
and where overlapping jurisdictions prevent us from reaching 
our goal. So, I'd ask you to supplement in--for the written--a 
written version of what you've said, and amplify it for the 
record.
    [The requested information appears at the end of this 
hearing in the ``Additional Material Submitted for the Record'' 
section.]
    Senator Casey. I'd also ask, Mr. Chairman, that the chart I 
just showed you--we'll submit a larger and more understandable 
and color version of that chart--I'd ask that that be submitted 
as part of the record.
    Senator Menendez. Without objection.
    Senator Casey. And, finally--I wanted to make one last 
point--the paragraph I talked--that I referred to, in the 
Washington Post story of this Sunday, talks about the failed 
early assistance efforts in Iraq, but here's something else 
that I think is very important with regard to transparency. And 
this is a challenge for you, not just in the context of going 
forward, but, of course, even in the context of your 
confirmation. It says that--and I'm picking up in the middle of 
a line--``. . . one opaque system has replaced another.'' And 
then it follows with these words, which I should have read 
before, quote, ``. . . with a small group of people deciding 
how (a) dollars are divvied up, what countries they reach, and 
who controls them,'' unquote. That's a recipe for, not just 
disaster in the erosion of confidence that the American people 
feel and that Congress would feel in the work that you're doing 
and will continue to do if you're confirmed, but I think that 
would be the wrong path to take, to have a small group of 
people who may be driven by ideology--or even if they're not--
if they're driven by narrow interests, to make these decisions. 
So, I would urge you to be a leader in the transparency which I 
think people have a right to expect, and I think that's going 
to be a key indicator of your stewardship, if you were to be 
confirmed.
    Thank you.
    Ms. Fore. Thank you, Senator Casey.
    Senator Menendez. Thank you, Senator Casey.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    Thank you for being here today, and for your service.
    Along with some of the things that have been mentioned 
coming up to your nomination, there have been other things, 
maybe some policy conflicts between your personal thoughts and 
those of the State Department. My assumption is that you would 
stay within the guidelines that are laid out in the State 
Department, and that's not an issue. Is that correct?
    Ms. Fore. Correct.
    Senator Corker. One of the things that--I know you've been 
having a 2-month listening tour, if you will, to kind of 
understand what's going on in the Department as you, hopefully, 
prepare to move ahead--Iraq, I'm sure, is a place you've spent 
a focused amount of time, because of its importance--and one of 
the things that I think has been most noticeable, and that is 
that our military has been absolutely outstanding in what they 
have done, and yet, we really have lacked so much progress on 
the civilian side in, really, coordinating with them properly, 
whether it's--and not, by the way, because people aren't 
committed and dedicated that are there, but certainly we've had 
trouble staffing the PRTs. There's a lot of categories there 
that we have not complemented properly. And I'd like for you to 
speak to that, because it seems to me that, from the standpoint 
of the things that are urgent for you to deal with, if 
confirmed, that has to be one of those, and I'd just love to 
hear you expand on that.
    Ms. Fore. Yes. Thank you, Senator Corker. It is, indeed. I 
am on a weekly call with our Iraq mission, because I do think 
it is so very important.
    Let me talk to you a little bit about PRT staffing. I think 
it is important that--as the military has done such an 
excellent job that we are sure that we are there with the 
civilian resources coming in behind them. We have been working 
on the civilian surge and we have done very well. I've just 
received a report this morning. Phase 1 ended March 31 and we 
have all of our individuals fully deployed, but phase 2 was to 
be completed August 31, putting 12 more technical experts that 
would go out to the field. And that has been readied 2 months 
early. So, that's good. That means that, for USAID, we are 
meeting the staffing goals for the PRTs. Phase 3 is coming 
along. With phase 2 already complete, we should be able to move 
quite quickly into phase 3.
    It's going to be very important that we have the right 
technical expertise in the PRTs; that they are cohesive units; 
that USAID and Department of State, as well as other agencies 
and DOD, work together in the field.
    Senator Corker. You know, I--just, sort of, building off 
Senator Casey's comments--I think all of us--and this certainly 
has nothing to do with you--but the sense that there's just 
this abyss, if you will, to deal with, as it relates to foreign 
aid, as it relates to so many things that we try to deal with 
in our foreign relations. Could you talk a little bit about 
just how those relationships seem internal to the organization, 
and what you might--whether it's with State or Defense--and how 
you see, if there's deficiencies there in the ability for you 
all to communicate and work together and actually get something 
done, what your thoughts are about improving that.
    Ms. Fore. Yes. It's a very interesting area, and it's a 
very important area for the United States. Our national 
security strategy lists diplomacy, development, and defense as 
the three legs of the stool. And it is very important that they 
be integrated and coordinated. We now have an Office of 
Military Affairs within the U.S. Agency for International 
Development, so that there is good liaison with the military--
within the Department of State, the same--so that we have links 
in with combatant commanders, we have links in with the field, 
that we begin to cross-train our people--it's one of the most 
important things--so that our people in USAID and State have a 
chance to train with the military, that we have a chance to 
train with each other, so that we understand how we can have 
more synergy as a trio.
    But it is a constant challenge. We have enormous goodwill. 
People are really trying to work hard on it. One of my areas of 
focus, as the Director of U.S. Foreign Assistance, is to think 
through how we can coordinate even better.
    The Reconstruction and Stabilization Teams that we have 
begun discussing, I think, are one of the ways that we can look 
at that, because it means that there are more civilians who can 
be mobilized on short notice, and that they are able to move 
out to the places they are needed. And that will be a very 
important new tool for all of us.
    Senator Corker. Moving back to Iraq, when you--looking at 
some of the difficulties that have been sustained, if you will, 
in trying to have appropriate personnel in place in civilian 
positions--has been more of the different types of 
responsibilities that are being taking on--taken on in Iraq, or 
has it been more the security, if you will, of the people--or 
the perceived security--in going to serve in that way?
    Ms. Fore. Well, more of our resources go toward security 
than, I think, any of us had originally planned. Security has 
become such an overwhelming need for us to plan for so that 
people can do their work. But we identify individuals based on 
their technical expertise. So, whether it is agriculture, or 
whether it is municipal election systems, or whether it is some 
other part of civil society, it is those technical skills that 
are the ones that we look for--engineering capacity, for 
instance. And that's how we then fill these positions in the 
PRTs.
    Once they are there, it is then our responsibility and our 
mission to be sure that they are able to do their jobs and that 
they have the tools that they need to do their jobs. But it is 
a constant challenge, in many of these posts, to have a secure 
enough environment so that they get their work done to the 
maximum extent possible.
    Senator Corker. Mr. Chairman, I see my time is expired.
    Thank you for your testimony.
    Senator Corker. Thank you, Senator Corker.
    We're going to start a second 7-minute round of questions.
    Let me--and I'll recognize myself--let me go back to where 
I left off with you, Madam Secretary. I appreciate Senator 
Lugar's comments about ambassadors who are political 
appointees. I didn't even reference those, although I don't 
believe, once you are an ambassador, that you should be using 
your time for the purposes of the political landscape. What I 
was referencing was the 20 to 30 employees of AID, who are not 
ambassadors, who clearly should not be spending their time at 
political briefings.
    In that respect, let me ask you two final questions. How 
many of these political briefings have you attended in your 
time in the administration?
    Ms. Fore. Let's see, when I was at the Department of 
Treasury, one, perhaps two.
    Senator Menendez. Is that the totality, in that and the 
present position?
    Ms. Fore. I believe so. I have not attended any in the 
Department of State.
    Senator Menendez. And who conducted those briefings?
    Ms. Fore. Individuals from the White House, whose names, at 
this moment, escape me.
    Senator Menendez. You don't remember any of the people who 
conducted them, they must not have been very impressive. 
[Laughter.]
    It wasn't Mr. Rove--I think you would have remembered him. 
[Laughter.]
    Ms. Fore. But, Senator, I could come back to you on that.
    Senator Menendez. I would love to see it, for the record.
    Ms. Fore. All right.
    Senator Menendez. Thank you very much.
    Second, let me change to a different issue. As I discuss in 
my statement, I'm deeply concerned about the possibilities of 
closing USAID missions. We have been assured that there are no 
plans to close the list of USAID missions that I mentioned in 
my opening statement in fiscal year 2008. Is that correct?
    Ms. Fore. That is also what I have been told.
    Senator Menendez. Can you tell us if there are any plans to 
close these or other missions in fiscal year 2009?
    Ms. Fore. I do not have any plans and I have been told that 
there are no other plans, to close missions in 2009.
    Senator Menendez. Okay.
    Ms. Fore. There are missions that open and close on a 
regular basis and I believe you know about the three that 
Congress had intended to close in Europe.
    Senator Menendez. Yeah, I am. Can you tell us, then, as we 
move forward, exactly what criteria you would use, if you were 
permanently given this position, in the context of closing 
missions?
    Ms. Fore. I've been thinking about this, but I do not yet 
have a complete answer, because I feel that it's very important 
for us to talk to our mission directors. We will have the 
mission directors coming in for a mission directors conference 
in the fall. And I would like to hear their thoughts on what 
criteria we should use as an agency.
    I also think that we should consider the notion of a good 
strategy for USAID. And I would like to do that with our 
leadership in USAID, as well as with the mission directors.
    One of the areas that is a constant challenge for us is our 
operational expense level. I know that people have struggled 
with it and they have come up with a number of possible ways to 
deal with it. One of them is to close missions, or to reduce 
missions, or to reposition our people. In the Department of 
State, I've been seeing the benefits from repositioning people 
and I think that that is an area that I would like to encourage 
at USAID. The world changes and we need to change with it. But 
that does not necessary mean that you close a mission. It means 
that you may change your profile, because our programs change 
from country to country, from year to year, and from decade to 
decade. So, I would like to consider, as part of those 
criteria, in those situations when we are drawing down the 
capacity of a mission, if we are bringing it up in other areas, 
as well as a better use of regional missions, because the 
regional capacity allows you to have technical skills and surge 
capacity so that you do not have to have every skill at every 
mission in every country.
    Senator Menendez. Well, but can you make a commitment to 
the committee, that, if confirmed, you would consult closely 
with Congress before closing any USAID mission?
    Ms. Fore. I would.
    Senator Menendez. Thank you.
    Let me turn to poverty alleviation. As you know, many of us 
believe this should be at the core of development assistance. 
And I asked you, in a letter, if you would commit to ensuring 
that the fiscal year 2009 budget process substantively 
implements the top-line goal of poverty alleviation. I 
appreciate your response to my question and your statement that 
poverty reduction is a part of the Secretary's transformation 
diplomacy and development initiatives. You also went on to say, 
quote, ``. . . that an appropriate balance must be struck among 
development objectives in order to bring about lasting change 
in a case-by-case basis, and I look forward to consulting with 
you and other members regarding that balance as we move 
forward.''
    Now, while I appreciate that comment, and that we have to 
strike a balance--that's obvious, I think--I'm also concerned 
that poverty alleviation will get lost in your calculations, 
particularly since it was only added to the transformational 
development goal after considerable urging from Congress and 
outside groups.
    So, my questions are these. Exactly what are you doing 
differently in the fiscal year 2009 budget process than in the 
2008 process to make sure that poverty alleviation is included, 
No. 1? And, No. 2, what--do you have specific metrics that are 
being used? Are you tracking what percentage of the funds for a 
specific region or a country are targeting poverty alleviation? 
And, No. 3, since the Secretary of State and your predecessor 
included poverty alleviation in the top-line goal for the 
``five by six'' strategic framework, it still remains unclear 
how this additional goal has since been integrated into the 
``F'' reform process and structure. Could you, with some 
explicit reference, clarify how poverty alleviation has, or is 
being, integrated into the ``F'' reform process, including the 
objective in country categories?
    Ms. Fore. Yes. Thank you, Senator.
    Having been at USAID before, I have a long-standing strong 
sense that poverty alleviation and poverty reduction are among 
the main purposes of the Agency for International Development. 
It's what people count on us for. That old saying that often 
proves so true, that, ``If you give a man a fish, you feed him 
for a day; if you teach him how to fish, you'll feed him for a 
lifetime,'' is part of that balance between short-term and 
long-term poverty reduction and alleviation. And this 2008 and 
2009 process made sure that people are now gathered around the 
table who support all of these interests. And I think that will 
be the most important asset that we bring to the budgeting 
process.
    The second part is that I've begun outreach to nonprofit 
organizations, and I've begun to hear the areas that they feel 
that they have not seen enough in the way of either funds or 
attention or policies, so that we are beginning to see the 
landscape of the things that we want to be sure we are 
including in these budgets. This is ongoing for the 2009 
process and we will try to weave as much of that in as possible 
in 2008. As you know, there is limited movement for 2008, but 
we will do our best to include these.
    In terms of how one can move forward in these areas, I 
would anticipate that we will find ways to make outreach 
ongoing. I don't feel that we have had as much involvement by 
our outside advisory groups, many of whom represent the best 
among the implementers of our poverty alleviation and poverty 
reduction portfolio. This ongoing dialog will lead to changing 
people's hearts and minds as well as changes in budgets and 
programs.
    So, I anticipate having more continuous, more regular 
meetings with all of our outside entities. And I think that 
that will help everyone. Some of this is just a training 
process, making sure that everyone sees all parts of 
development. It is not something that you can learn in a week, 
or that you can learn in a year. The best of our people have 
been serving for decades in the world of development, and we 
need to pass this information along. This is why I made my 
initial plea that we be able to begin to staff up and train 
people. We need the next generation to come along and carry 
this banner for poverty alleviation and reduction.
    Senator Menendez. I appreciate your answer. I want to 
follow up with you, but let me turn to Senator Lugar for----
    Senator Lugar. Well, thank you very much, Mr. Chairman.
    Madam Secretary, what comment could you make about section 
1206 funding--The train-and-equip security assistance that 
comes through the Pentagon? This arises, as you know, from the 
general desire of our country to become more involved in 
nation-building, but particularly on the security side. Some of 
the countries that we're trying to rebuild had extraordinary 
problems, and sometimes it was expedient for the Department of 
Defense, that had a much larger budget for this, simply to take 
things in its own hands and to move ahead, sometimes even 
without the knowledge of the ambassador of the country. Now, 
that became worrisome, at least in our oversight capacity. Our 
staff members went to embassies, and that report has been made 
public. And it was not to embarrass the Pentagon or the 
security people. Many did a very good job--but the need for at 
least the ambassador in the country to have cognizance of what 
was going on in the country, so that, as protests arose, or 
various other difficulties, is apparent.
    Now, we've had these fledgling efforts of our staff in 
oversight, but what I wanted to inquire of you was, as a part 
of your ``F'' process, of heading out to the embassies, 
interviewing the personnel involved, and so forth, will this 
section 1206 set of issues also be a part of your purview?
    Ms. Fore. Yes. And the very good part of section 1206, that 
the Secretary concurs in the use and the placement of these 
funds, they are very useful. They were used in Lebanon after 
the hostilities in reconstruction. And this has been a very 
powerful tool for integration and linkage between the 
Department of Defense and Department of State.
    Senator Lugar. Well, I appreciate that assurance, and we 
look forward to that result, as well as the composite of all of 
the results that you will have from those examinations.
    One of the issues that lies before, certainly, the 
committee and the administration is the continuation of the MCC 
program. The problem with the MCC program is that it has not 
expended very much money, in the judgment of many members--and 
the directors would point out, ``Just as well''--because, in 
the case of Millennium Challenge, the countries themselves try 
to determine what their priorities will be. There's a nation-
building, policy-building process, and that takes time for some 
countries that have not had experience in doing that, and it 
takes time for our administrators to make certain that the 
expenditures have some checks and balances, and are valid uses 
of American taxpayer money. Now, probably it's a good idea to 
have criteria such as we have for the MCC program, of 
democracy-building and human rights, the rights of women, and a 
number of things----
    Senator Menendez. Senator Lugar, if----
    Senator Lugar. Yes.
    Senator Menendez [continuing]. If I may just briefly 
interrupt you. On the floor right now there is a moment of 
silence being observed----
    Senator Lugar. Oh, yes.
    Senator Menendez [continuing]. For the officers, Chestnut 
and Gibson, who were killed in the line of duty defending the 
Capitol. If I may interrupt you for just one moment----
    Senator Lugar. Of course.
    Senator Menendez [continuing]. And I would ask the 
committee to observe a moment of silence, as well.
    [A moment of silence was observed.]
    Senator Menendez. Thank you very much.
    Senator Lugar. Thank you, Mr. Chairman, for reminding us of 
that very important time on the floor that we have observed now 
in the committee.
    In any event, the problem with the MCC, is that things have 
moved along slowly and the Congress has become impatient on 
occasion. Within this committee we've had debates. In what ways 
will you evaluate and help the Congress interpret the value of 
the program, which I think is considerable? But, if it is not, 
what kind of procedure can you have for giving us good counsel 
on MCC?
    Ms. Fore. Yes. This is an area I'm very interested in, 
because it is a very interesting new model for delivering 
foreign assistance.
    AID is a model, and the new GDA is a model, and the new 
Millennium Challenge Corporation is a model. And there are 
other models in other donor countries around the world. I would 
very much like to look at these models, see which are the most 
effective, which might hold great promise for the United 
States, and ways that we can improve this system.
    This is all exactly what we want to try to do with a 
Director of U.S. Foreign Assistance, because, if we can gather 
and focus our resources, as the United States, it will have 
greater impact. But we also should use the most effective and 
efficient models.
    So, I would love to get back to you on that, Senator Lugar.
    Senator Lugar. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Menendez. Thank you, Senator Lugar.
    Madam Secretary, let me just pick off--where I left off 
with you. And I appreciate what I think is part of the answer 
to my three-part question. Let me reiterate two parts.
    You talked about putting people around the table. Maybe you 
could tell me--when I asked you, ``What's different in the 2009 
budget process than in the 2008 budget process, to make sure 
that poverty elimination''--or alleviation, I should say--
hopefully, ultimately, alleviation--elimination--but 
``alleviation is achieved and included?'' You said, ``Putting 
people around the table.'' What exactly does that mean? What 
people? What level of individuals? And I appreciate the 
conversations you're having with NJOs--NGOs. I think those are 
perfect, and to be applauded. But what people are you putting 
around the table that are going to make a difference in the 
2009 budget process?
    Ms. Fore. There are interagency roundtables in the budget 
process itself for 2009. These include individuals at the 
senior level, but most often it is at a mid-level--who are 
talking by country, about the programs that their agency is 
carrying out; and thus, what sorts of synergies are possible 
between their programs. Let us say, for example, the Department 
of Education and a USAID program on education. We have enormous 
challenges in Africa, for instance. One would wish this to be 
well integrated. If these individuals, in their agencies, begin 
to talk and see what their programs are, there will be less 
duplication, less overlap, but there will also be more of a 
commitment to the issue that they are discussing. And these 
issues can deal with humanitarian assistance, maternal and 
child healthcare, the environment, agriculture. It can be on 
any number of issues, but they are all around a table and they 
are talking around a country program. So, how we integrate and 
mesh these country programs is what is being discussed.
    I think it is a very good model for sharing interagency 
knowledge and training and being able to build on each other's 
efforts, as well as for building on each other's budgets, 
because many of these programs are being funded separately out 
of separate committees in Congress.
    Senator Menendez. And as you do this interagency process, 
the question is, Are they actually required to look at poverty 
reduction? You know, you could have an interagency process that 
can look at a lot of different issues within the development 
assistance question. The question is, Are they actually being 
asked to look at poverty reduction, and are there any specific 
goals that they are trying to achieve?
    Ms. Fore. Yes. Every roundtable looks at poverty reduction. 
And they will look at it through a number of lenses. Take, for 
example, micro enterprise. They will all be discussing 
poverty--poverty reduction--because, as you know, the reduction 
of widespread poverty is one of the goals that is overarching 
for the entire foreign assistance process.
    Senator Menendez. Now, I asked you about metrics, and I 
didn't hear you respond to that. Do you have any metrics in 
mind, at this point, as to--in addition to--so, you have an 
interagency process which is supposedly going to actually look 
at poverty reduction, look at goals for poverty reduction, you 
have the outreach to the NGOs--that's good, okay--so, what are 
the metrics that we're going to be able to look at and judge 
by?
    Ms. Fore. The metrics that are currently used cover a 
range, so that, for example, in the use of the number of people 
in poverty--an economic measure will be used. One of the things 
that we have begun talking about with our nonprofit 
organization community, the community at large, is: Are we 
measuring the right things? Are we measuring results in the 
right way? Are we putting them into our programs in the best 
possible way? We have a number of studies and reports coming 
out of our advisory committees that I think will help inform 
this discussion, so that the metrics for getting the results 
that we wish in reducing and alleviating poverty will be there 
in years to come.
    Senator Menendez. Let me ask you--going to Senator Hagel's 
conversation with you about Ambassador Crocker's request, and 
it's also an interest that Senator Kennedy has expressed to 
me--can you provide us with a copy of Ambassador Crocker's 
cable to you?
    Ms. Fore. Yes, sir.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Menendez. Okay. And, in response to that, what were 
your instructions to the Consular Affairs Office on the cable? 
What was your instructions to them, in terms of--in pursuit of 
what was trying to be achieved in the cable?
    Ms. Fore. We consider this a top priority for the 
Department. So, it's not just the Bureau for Consular Affairs, 
it's also the Human Resources Department, as well as our legal 
office, that looks at what our capacities are and what we are 
able to give to a chief of mission. It is very important that 
we be sure that our ambassadors are armed with all of the 
authorities that they can have. But we cannot give away 
authorities we do not yet have, so this link with Congress is a 
very important part of this, if we are to make sure that we 
have the right authorities to delegate to our chiefs of 
mission.
    We've asked Consular Affairs to look at the special 
immigrant visa. As I mentioned, there is also the refugee 
question, so the Population, Refugee, and Migration Bureau is 
also looking at it.
    But, as a whole, we, as a Department, are looking at ways 
that we can help facilitate things for these Iraqi nationals 
who are working with us, for us, beside us, in ways that would 
be helpful for them and for their families.
    Senator Menendez. Well, we'll look forward to seeing the 
cable, as well.
    Senator Nelson asked me--he had to go to an Intelligence 
meeting, but he would like for the committee to hear your 
response to his expedited-fee issue. What is your plan to 
reimburse that to those individuals who paid, but got no 
expediting, at the end of the day?
    Ms. Fore. For individuals who have requested expedited 
service, and who have indicated when they are traveling, and 
for whom we did not return their passport within the timeframe 
that we had promised, if they apply to us, we would return 
their expedited fee. There are several options that we can 
discuss with Senator Nelson which might also help. He----
    Senator Menendez. But right now, your----
    Ms. Fore [continuing]. And his staff----
    Senator Menendez [continuing]. Your----
    Ms. Fore [continuing]. And his constituents.
    Senator Menendez. Right now, your plan is simply that, ``If 
you apply, you get the reimbursement; if not, you don't''?
    Ms. Fore. Yes, with the proviso that it has to be people 
that were using the expedited-fee process, and that they also 
have indicated that they were traveling. Many people who have 
used the expedited process did not have travel plans, so, if 
people did not indicate when they were traveling, then that 
was----
    Senator Menendez. But if you apply--but if you applied and 
paid an expedited fee, the whole purpose of paying an expedited 
fee is to have your application expedited, whether that was, in 
fact, because you were going to travel, or whether it was for 
whatever reason you chose to pay the expedited fee. If, in 
fact, you didn't get an expedited process, does the Department 
take the position that it should keep the money, even though it 
didn't provide the process--the expedited process that was paid 
for?
    Ms. Fore. Well, there are a number of options here, Senator 
Menendez. And so, what we----
    Senator Menendez. Are you pursuing those options, or are 
you----
    Ms. Fore. We're----
    Senator Menendez [continuing]. Are you just----
    Ms. Fore [continuing]. Considering them.
    Senator Menendez [continuing]. Thinking? You're considering 
them.
    Ms. Fore. Right.
    Senator Menendez. And can you tell us what those options 
are?
    Ms. Fore. Perhaps I could take that question and come back 
to you with those options?
    Senator Menendez. Okay, if you would--if you would submit 
the options in writing for the committee.
    Ms. Fore. Yes.
    Senator Menendez. Let me ask you two last questions, 
because I appreciate your forbearance of the committee. We're 
doing a little work here for others, as well, so--but these 
last two questions are questions I am particularly interested 
in.
    You know, when the administration proposed the creation of 
the Millennium Challenge Corporation, they promised that this 
initiative would be in addition to our current development 
programs. However, there is an emerging trend of cuts in aid to 
countries that have signed MCC compacts, as we have seen. And, 
in fact, all the MCC compact countries have had cuts in other 
USAID funding between fiscal year 2006 and fiscal year 2008's 
budget request, except for one. So, in light of the 
administration's pledge, which so many of us who supported MCC 
pointedly asked to make sure this was not supplantive, but in 
addition to, not to cut foreign aid at the expense of MCC, how 
do we explain these numbers? And I would urge you, before you 
answer, if our argument that we're going to hear is that we 
have increased the total foreign assistance budget, as well as 
MCC--but that doesn't answer the question on the impact of 
specific countries that have seen their development assistance 
cut while they have signed an MCC agreement.
    So, give me a sense of what is happening in this respect.
    Ms. Fore. In this past 2\1/2\ months, I've heard about 
this. And one of the issues, I believe, is the bridge between a 
USAID program and the MCC program. So, as an MCC program coming 
online or scaling up into full usage, the USAID programs are 
scheduled to link into this, or to dovetail into it. Sometimes, 
as the USAID programs are coming down, or their linkage is 
coming down, too soon, before the Millennium Challenge 
Corporation money and programs begin to come online. So, there 
can be a gap between the two. It's one that Ambassador 
Danilovich and I have begun to talk about. We are seeking ways 
that can bridge that gap so that there is a seamless process 
when USAID programs and other foreign assistance programs work 
in cooperation with MCC programs and they begin to add 
additional resources in the country.
    There is cooperation in trade capacity-building and other 
areas, but we need to be sure that this is integrated, and 
that's part of the challenge that we have. But it's one that we 
have identified and will look at.
    Senator Menendez. Well, we would love to see--if you would 
look at the realities of how this is taking place--I'd love to 
hear ``integration''--what's happening is that we've had 
``disintegration'' of those programs that were funded by USAID, 
and we see them--it's not that they were already on their 
natural downward curve because they were moving toward the 
fulfillment of their goals, it seems to me, from what I've been 
able to review; but, as the MCC monies were assigned into--and 
the monies began to flow, then we see a reduction of the USAID. 
That ends up not being additive, it being--it ends up being 
supplantive of those funds. That is not--that is not what I 
think Congress supported when it supported the MCC. So, you 
know, we'd like to see a response to that.
    Senator Menendez. Finally, I appreciate, in today's 
statement and in past conversations, that you have said that 
you are committed to sustaining and strengthening the State 
Department's minority recruiting efforts. And, in your written 
statement, you specifically discussed the need for hiring USAID 
employees with diverse backgrounds. I appreciate that.
    I know that there are those who have concerns about 
statements made in the past, and it relates to--this regard, 
but what I'm concerned is--in the actions, and here's where I 
want to go to. I'm not particularly impressed with the State 
Department's representation of minorities, in general. And I'm 
not impressed with it under your watch. And I have a particular 
concern, when I see that--when we finally make some 
improvement, particularly in the Senior Executive Service, that 
then we lose it.
    Minority employment in the senior executive service 
increased by 2.7 percent over the course of 6 years, from 2000 
to 2006, but, under your tenure, minority employment in the 
Senior Executive Service actually decreased by 2 percent in 
2005 and 2006, so we've virtually wiped out the increase that 
it took us 6 years to achieve. Many of us in Congress who have 
been--in my days in the other body, and continuing since last 
year here--have been saying--and you and I met and talked about 
this in your previous role--and so, what took 6 years to have a 
marginal gain in the Senior Executive Service has been erased. 
How do we claim that that is a management success?
    Ms. Fore. Well, I share your frustration, but also share 
your desire about this--that we be able to move forward 
positively and strongly in this area.
    Senator Menendez. But, Madam Secretary, if----
    Ms. Fore. It's----
    Senator Menendez [continuing]. I appreciate that--words, 
but the proof is in the pudding. If it took us 6 years to make 
a 2.7-percent increase, and we eliminate 2 percent of it in the 
scope of 1 year, boy, that's not powerful and positive and 
moving forward.
    Ms. Fore. Well, as you know, we are moving forward 
throughout the Federal Government. Approximately one-third of 
our workforce is eligible for retirement, so, when you are in 
the Senior Executive Service, or in the Senior Foreign Service, 
we lose people to retirement. And you know our systems within 
the Senior Foreign Service----
    Senator Menendez. Are you suggesting----
    Ms. Fore [continuing]. And the Senior----
    Senator Menendez [continuing]. All of that loss----
    Ms. Fore [continuing]. Executive Service----
    Senator Menendez [continuing]. Is because of retirement?
    Ms. Fore. Well, from the Senior Executive Service and the 
Senior Foreign Service, it's either for retirement or taking a 
position in another agency. But what we have put in place, sir, 
in this last year and a half, is a very strong program in 
recruiting, training, mentoring a diverse workforce. We are 
really reaching out everywhere to try to encourage both the 
recruitment, as well as the retention, of a diverse workforce. 
And sometimes these things take time. I know that they never 
occur fast enough. But it is important that we have an 
environment of inclusion. I think that, with our new Diversity 
Council, with our new Diversity Officer position, we really 
have a changed sense of commitment. And it starts at the top. 
It starts with Secretary Rice. It is certainly a commitment 
that I have, very strongly; the Director General, very 
strongly. I mean, we have----
    Senator Menendez. All right, but----
    Ms. Fore [continuing]. This as a----
    Senator Menendez [continuing]. If you have a----
    Ms. Fore [continuing]. Strong commitment----
    Senator Menendez. If you have a strong commitment, then let 
me ask you why it was that there was no minority promotion at 
all among the Senior Executive Service while you were there.
    Ms. Fore. I believe you are looking at the 2006 numbers, 
and the 2007 numbers, which is this fiscal year. We will 
actually have the data for you September 30.
    Senator Menendez. Okay. I look forward to those numbers, as 
does Senator Obama. I mean, we--you know, it is important, in a 
world which is ever more diverse, that the power of what comes 
through men and women who represent the fullness of America is 
represented in the Foreign Service and in the Senior Executive 
Service. And, in my view, this is the worst department of all 
of the departments of the Federal Government, in the reflection 
of those minorities in the service of any one of our Federal 
departments. It's got to change. It's got to change.
    And so, you know, I appreciate all he high-sounding words. 
The problem is, I don't see the concurrent actions to make it 
happen. And there are many of us who are disturbed that we 
continue to see this reality. And so, I hope that you're going 
to make, if you are given the opportunity, a action plan that 
is very aggressive, that is transparent to all of us, so that 
we can judge whether or not this is going to produce results, 
because, so far, it just simply has not. And that is simply not 
acceptable.
    Ms. Fore. I would look forward to having such an action 
plan and talking with you about it, Senator Menendez. This is 
an area that we share a strong commitment to.
    Thank you.
    Senator Menendez. Well, I appreciate the time that you have 
shared with the committee.
    There will be other questions. We will leave the record 
open for 2 days for all members to ask questions, so they may 
submit additional questions to the nominee. Of course, we ask 
you to respond to those as expeditiously as possible.
    Senator Menendez. And, seeing no other member before the 
committee, the hearing is adjourned.
    [Whereupon, at 4:03 p.m., the hearing was adjourned.]

              Additional Material Submitted for the Record


              Prepared Statement of Senator Barack Obama,
                       U.S. Senator From Illinois

    Mr. Chairman, thank you for holding this hearing on the nomination 
of Henrietta Holsman Fore to be Administrator of the U.S. Agency for 
International Development. I appreciate Ms. Fore's willingness to 
discuss her credentials for this important position and her goals for 
the agency if she is confirmed.
    In 2005, this committee considered Ms. Fore's nomination for the 
position of Under Secretary of State for Management. At the time, I 
expressed my serious concerns about disparaging remarks she made about 
minorities while she was a trustee at Wellesley College. I appreciated 
Ms. Fore's willingness to meet with me during that period to respond to 
my concerns.
    As a result of our conversations, I voted to approve her nomination 
in 2005, after receiving her assurances that she was committed to 
expanding diversity at the State Department. Now that she has been 
nominated to be Administrator of USAID, it is important to look 
carefully at her record over the last 2 years to see if she has 
followed through on these assurances.
    In June, Senator Menendez and I sent a letter to Ms. Fore asking 
for detailed information on recruitment, promotion, and retention of 
minority employees from 2005 to the present. We also asked Ms. Fore to 
demonstrate that she had taken tangible steps to recruit and promote 
minorities and that she has met with the Congressional Black Caucus and 
Congressional Hispanic Caucus to address their concerns.
    I am pleased that, according to her response, she has implemented a 
minority outreach strategy and has met several times with members of 
the Congressional Black Caucus and the Congressional Hispanic Caucus on 
minority recruitment and retention issues. I am also pleased to hear 
that she has created a position of Chief Diversity Officer at the State 
Department, with a mission to integrate diversity principles into the 
practices of all of the Department's operations.
    I have concerns, however, about the data on recruitment, promotion, 
and retention of minority employees provided by Ms. Fore. The data 
seems to show some progress in some areas, but in other areas, there 
has been no progress. Minorities have been hired during Ms. Fore's 
tenure, but the fraction of minority employees at State has decreased 
slightly instead of increasing. The overall promotion rate for African 
Americans and Hispanics decreased from 2005 to 2006. Between 2005 and 
2006, the number of African American employees in the SES decreased, 
and the number of Hispanic employees in the SES remained unchanged.
    I am interested in hearing more from Ms. Fore about her plan to 
promote diversity in her new position.
    I am also concerned about evidence that White House aides conducted 
political briefings for U.S. diplomats that included, among other 
things, analyses of congressional and gubernatorial races in this 
country. In one instance, according to press reporting, State 
Department officials attended a meeting at the White House at which 
political officials discussed key House races for 2002 and media 
segments that were deemed important for President Bush's reelection in 
2004.
    For the life of me, I cannot understand why the administration 
decided to invest taxpayer-funded resources and time in this clearly 
political effort.
    These types of briefings are an inappropriate politicization of the 
State Department, which should be carrying out its diplomatic mission 
without involvement in domestic political activities. I would like to 
know what Ms. Fore thinks about the appropriateness of these briefings 
and how she will ensure such briefings do not occur again at USAID if 
she is confirmed as the next administrator.
    In addition to promoting diversity in the workforce and ensuring 
proper conduct relative to political activities, the next Administrator 
of USAID will face a host of challenges in improving the agency's 
ability to carry out its critical mission. We need the world to know 
that we are fully committed to supporting economic growth, global 
health, and democracy. We need to ensure that people around the world 
can live with dignity and have an opportunity to make a better life. 
And because weak states and countries mired in poverty provide a 
breeding ground for disease, terrorism, and conflict, providing foreign 
assistance has a direct benefit from a national security standpoint.
    At a time when the global challenges facing the agency are 
daunting, there are reports that the capabilities of USAID are lagging, 
that the agency's technical expertise has eroded, and that the morale 
of its employees is low. It is essential that the new administrator 
provide the leadership necessary to rebuild the capabilities of the 
agency, hire and retain an exceptional and diverse workforce, and make 
a significant improvement in our ability to provide foreign assistance 
to those in need.
    I will be looking very carefully at Ms. Fore's qualifications for 
this critical position and her potential to make real improvements in 
the operations of the agency.
    Thank you.
                                 ______
                                 

     Endorsement Letter From the Foreign Affairs Council Submitted 
                      by Senator Richard G. Lugar

                                   Foreign Affairs Council,
                                      Washinton, DC, June 23, 2007.
Senator Richard G. Lugar,
Ranking Member, Senate Foreign Relations Committee, Washington, DC.
    Dear Senator Lugar: I am writing to inform you of the reasons why 
my colleagues and I on the Foreign Affairs Council (FAC) believe that 
Under Secretary Henrietta Fore has a mix of qualities and experience 
which uniquely qualify her to serve as Director of Foreign Assistance 
and USAID Administrator.
    The Council (FAC) is a non-partisan umbrella group of the CEO's of 
11 organizations concerned about the processes of diplomacy and the 
management of the people involved therein. We do not address foreign 
policy issues. We are dedicated to the most effective possible 
management of the Nation's foreign policy business of which foreign aid 
is an important part.
    The FAC has just issued its third biennial assessment of the 
Secretary of State's stewardship of the State Department from the 
management perspective. Given our interests and objectives, we have 
worked very closely since 2005 with Under Secretary of State for 
Management, Henrietta Fore, and have observed firsthand her management 
successes as outlined in our report. Ms. Fore's attributes include:

  <bullet> Years of experience in the Government and the private sector 
        enabling her to bring the best practices from both sectors to 
        bear on the problems;
  <bullet> Previous service in AID as an Assistant Administrator which 
        means she will ``land running'';
  <bullet> Intimate knowledge of the inner workings of the Department 
        of State and Foreign Service at the highest levels which is 
        critical to the implementation of development which--at the end 
        of the day--happens overseas;
  <bullet> The strong strategic sense necessary to put all of the 
        development pieces (AID, Millennium challenge Account, HIV--
        AIDS, Coordinator for Reconstruction & Stabilization, etc.) 
        into a coherent whole; and
  <bullet> Leadership qualities which have brought to the State 
        Department two (of only four) Presidential Awards for 
        Management Excellence, a second place ranking in the 2007 list 
        of best (Federal) places to work, and an additional 
        Presidential Award for retiree services.
    In addition to the above, Henrietta Fore has consistently 
demonstrated a genuine concern for all employees--protecting their 
interests and maximizing their potential. One of the FAC's member 
organizations, The Association of Black American Ambassadors, has 
strongly endorsed Secretary Fore in this regard.
    Senator Lugar, the next 2 years will be critical for U.S. 
development assistance. Subcommittee Chairman Menendez's recent 
hearings on foreign assistance, which you attended, have gotten the 
discussion off to a terrific start. The FAC will put the evolution of 
assistance at the center of our 2008 report and we hope to work with 
you in that effort. Given the need for strategy, structure, and 
implementation in U.S. development efforts, we believe Henrietta Fore 
has all of the necessary qualities and abilities to manage development 
with the same excellence she demonstrated as Under Secretary of State 
for Management.
    Thank you for your consideration in these matters.
            Warmest Personal Regards,
                                          Thomas D. Boyatt,
                                                         President.
                                 ______
                                 

         Responses of Henrietta H. Fore to Questions Submitted 
                          by Senator Jim Webb

    Question. Do you agree with the longstanding policy that CRSPs are 
long-term research programs that are designed for 10 years, with 
initial funding provided for 5 years and then a second 5 years if the 
5-year review, based on performance with respect to the cooperative 
agreement, is satisfactory?

    Answer. USAID's procurement policy is to award cooperative 
agreements for an initial 5 year period. In the case of agricultural 
research, USAID recognizes and appreciates the long-term nature of 
these programs. Therefore, when USAID awards a new CRSP to a 
university, the initial agency commitment is for 5 years. A 5-year 
extension is provided based on three criteria: (1) a record of good 
performance during the first 5-year period; (2) continued relevance of 
the CRSP subject area to the overall agency development priorities; and 
(3) the availability of agency funding.

    Question. Are you aware that it has been proposed within USAID that 
renewal of the Integrated Pest Management and Sustainable Agriculture 
and Natural Resource Management CRSPs would be based not on the 
performance goals specified in their cooperative agreements, but rather 
on the following:
    For IPM: How well the other CRSPs are addressing IPM.
    For SANREM: How well SANREM is addressing the goals of a proposed 
Soil, Water, and Ecosystem Services CRSP that did not exist when the 
SANREM CRSP research program was designed and implemented.
    Can you provide an explanation of what the renewal process for 
these CRSPs will actually entail, if not performance based on their 
current agreements?

    Answer. A 5-year renewal of all CRSPs will be based on three 
criteria: (1) a record of good performance during the first 5-year 
period; (2) continued relevance of the CRSP subject area to the overall 
agency development priorities; and (3) the availability of agency 
funding. External reviews of the CRSPs will be conducted to evaluate 
performance. The Integrated Pest Management (IPM) and Sustainable 
Agriculture and Natural Resources Management (SANREM) CRSPs' external 
reviews are scheduled for early 2008.
    In the case of the IPM CRSP, in addition to evaluating performance, 
the review will determine whether the new commodity-oriented CRSPs 
(peanut, sorghum, and pulses) have taken on substantial IPM issues 
related to their targeted commodities. The review will also inform 
USAID on the need for a stand alone IPM CRSP that broadly deals with 
IPM issues apart from the IPM activities of the commodity-oriented 
CRSPs.
    In the case of the SANREM CRSP, the review will only consider the 
performance of the CRSP. The review will not look at how well SANREM is 
addressing the goals of a proposed Soil, Water, and Ecosystem Services 
CRSP.

    Question. The USAID Web site pages listed below, describing the 
Revised CRSP Portfolio, currently indicate that the IPM and SANREM 
CRSPs are to be eliminated. Does the Web site reflect current USAID 
intentions concerning IPM and SANREM? If not, why has it not been 
changed?
    http://www.usaid.gov/our--work/agriculture/crsp/index.html#over
    http://www.usaid.gov/our--work/agriculture/crsp/major--changes.htm

    Answer. The information on the Web site was meant to document an 
evolving process of review and consideration of a CRSP portfolio, in 
consultation with the Board for International Food and Agricultural 
Development (BIFAD) that aligns with development needs. The current 
information needs to be updated to reflect more recent discussions and 
decisions, such as the evaluation process for IPM and SANREM discussed 
above, and it is a good reminder to update our Web site. To avoid 
further confusion the CRSP portfolio information on the Web site will 
be removed until it has been updated.
                                 ______
                                 

         Responses of Henrietta H. Fore to Questions Submitted 
                    by Senator Robert P. Casey, Jr.

    Question. Under Secretary Fore, on July 16 I, along with a number 
of other Senators, wrote to Secretary Rice in reference to the United 
States-Ukraine Foundation. We expressed our concerns over USAID funding 
for the Foundation and its programs. The Foundation, the longest 
serving American presence in Ukraine, is highly respected by all 
political factions in that country and has done fabulous work 
throughout the country. As a result, every year since 2000 Congress has 
expressed its support for the funding of the Foundation. Foreign 
Operations Appropriations Conference Reports and/or the reports of the 
respective Appropriations Committees have ``urged'' increased funding, 
``directed'' increased funding or in some other unequivocal way made it 
clear that Congress knows and has followed the Foundation's activities 
in Ukraine and had determined the funding for those programs needed to 
be continued, indeed, increased. Last year, the Senate report language 
for this fiscal year called for USAID to bring its level of funding for 
the Foundation to $10 million.
    And, yet, despite this clear expression of Congressional purpose 
and policy, USAID has cut the Foundation's budget each and every one of 
those years. In fact, I understand that USAID has told the Foundation 
that it will receive no further funds unless Congress either enacts a 
specific line item as part of its future Foreign Operations 
Appropriations Bills or a decision to fund the Foundation is made at 
the very top of this administration. Such actions exhibit an unsettling 
disregard for congressional intent.
    Under your stewardship of USAID, if confirmed, how do you intend to 
handle clear expressions of Congressional intent on funding and policy 
priorities relating to the United States-Ukraine Foundation?

    Answer. I am told that USAID has funded the United States-Ukraine 
Foundation (USUF) since July 1997, when USUF was awarded a 3-year, $7 
million noncompetitive grant. The original grant was extended several 
times and the total amount awarded to USUF by the time the grant ended 
on July 14, 2007 was $23,145,918. During the 10-year period of the 
grant, USAID's funding level in Ukraine dropped fourfold, from $163 
million in 1997 to $41 million in 2006. Nevertheless, USUF's average 
funding level has remained fairly consistent at about $2.3 million per 
year and has thus in recent years accounted for an increasingly larger 
percentage of the total USAID technical assistance budget.
    I am also told there is a good opportunity for USUF in our 
partnership programs. USAID recognizes the importance and value of 
Ukrainian Diaspora groups and we hope to continue benefiting from their 
participation in the USAID assistance program. We have encouraged USUF 
in writing to partner with USAID in the future through a new mechanism 
that specifically encourages Ukrainian-American organizations to apply 
for funding. This mechanism is the Annual Program Statement for Global 
Development Alliance (GDA) partnerships, issued on March 16, 2007. An 
explicit statement in that solicitation notes that USAID welcomes 
proposals from Diaspora groups. Since there are currently many active 
and experienced Ukrainian Diaspora groups, we expect to select a future 
program implementer via a competitive process.To date USUF has not 
submitted a proposal in response to the APS. The solicitation remains 
open until November 15, 2007, and USAID would welcome USUFs 
participation in this competition.
                                 ______
                                 

         Responses of Henrietta H. Fore to Questions Submitted 
                         by Senator Chuck Hagel

    Question. Do you believe that the executive branch can successfully 
develop a comprehensive, effective, transparent, and efficient country-
focused foreign assistance framework without changing the 1961 Foreign 
Assistance Act? If so, please describe how a ``reformed'' U.S. foreign 
assistance process would operate. If not, what legislative changes will 
you seek?

    Answer. The reforms that have been proposed so far--including the 
creation of the Director of U.S. Foreign Assistance--are an attempt to 
ensure that we make every effort within current statutory authorities 
to fulfill our responsibilities to maximize U.S. foreign assistance 
activities. With the reform process still in the early stages, we are 
taking time to review carefully, with input from a wide range of 
participants and stakeholders, what has been accomplished to date and 
how we might strengthen or adjust our processes. If as part of these 
ongoing assessments, we determine that successful reforms will require 
legislative changes, we will consult with you and other members of our 
authorizing committees to work together toward necessary change.

    Question. What will be the staffing structure and size of the 
Director of Foreign Assistance office? Will you bring in new staff into 
the ``F'' bureau? Who will be your key advisors on foreign assistance 
reform?

    Answer. To coordinate the entire gamut of activities associated 
with managing the approximate $25 billion foreign policy programs of 
the United States, I will have about 80 direct hires. I plan to have a 
very lean administrative support mechanism and will rely as much as 
possible on existing State Department support mechanisms to manage my 
office.
    I am pleased to inform you that Richard Greene will act as my 
Deputy in the Director's office. He is experienced and committed, and I 
believe you will find him to be very responsive. At USAID, Jim Kunder 
will be acting as my Deputy, and I am confident that you are familiar 
with his excellent work. In addition, my key advisors will be USAID 
Assistant Administrators, State Undersecretaries and Assistant 
Secretaries, and I will actively seek suggestions from colleagues at 
the Millennium Challenge Corporation (MCC), the President's Emergency 
Plan for AIDS Relief (PEPFAR), the National Security Council (NSC), the 
Office of Management and Budget (OMB), and, of course, Congress and the 
nongovernmental organization (NGO) community.

    Question. In response to my question, you stated that 80 percent of 
U.S. foreign assistance is under the direct control of the Director of 
Foreign Assistance. However, Dr. Radelet testified on the second panel 
that only 55 percent of U.S. foreign assistance is controlled by State 
or USAID. Please provide a breakdown of the amounts and percentages of 
U.S. foreign assistance that are under the direct control of State and/
or USAID, under ``policy guidance'' of State and/or USAID, and not 
under any type of control of State and/or USAID. How much U.S. foreign 
assistance is controlled by the Defense Department?

    Answer. Attached please find a summary chart of the fiscal year 
2008 International Affairs Request, which appears in the Congressional 
Budget Justification on pages 12 and 13. Section 1 of the chart, 
``Department of State and USAID Bilateral Economic Assistance,'' lists 
the accounts and programs under the approval authority of the Secretary 
of State, which amount to approximately 80 percent of the entire 
Foreign Operations request. The Director of U.S. Foreign Assistance and 
USAID Administrator has direct approval authority over roughly 60 
percent of all foreign assistance in the Foreign Operations request, 
and has robust coordinating authority over assistance provided under 
the Global HIV/AIDS (GHAI) and Millennium Challenge Corporation 
accounts (at which Corporation the Administrator serves on the Board).
    The Department of Defense is an important implementing partner of 
the Department of State, implementing both Foreign Military Financing 
and International Military Education and Training programs. The 
Department of Defense also implements programs with foreign partners 
that are authorized under Defense Authorization Acts using funds 
appropriated in the Defense Appropriations Acts. Some of those programs 
provide training and equipment for foreign forces, similar to that 
provided under the Department of State's foreign assistance 
authorities. Thus, for example, the Iraq Security Forces Fund and the 
Afghan Security Forces Fund are used to provide training and equipping 
to a range of security forces in those countries. Both of these 
authorities must be exercised with the concurrence of the Secretary of 
State. In addition, pursuant to section 1206 of the National Defense 
Authorization Act, the President is authorized to direct the 
Departments of Defense and State to jointly develop programs to build 
the capacity of foreign military forces to be funded from Department of 
Defense appropriations in an amount up to $300 million in this fiscal 
year. Likewise, pursuant to section 1207 of the same act, the 
Departments of State and Defense may concur on the provision of 
reconstruction and stabilization assistance to be funded through DoD 
appropriations up to $100 million per fiscal year. These authorities 
have proved effective in addressing rapidly evolving security 
situations. DoD has certain other authorities that they rely upon in 
specific circumstances to provide assistance to foreign countries in 
support of their mission, e.g., the Commanders Emergency Response Fund 
and authorities to respond to humanitarian emergencies.

    Question. Also in your testimony, you highlight ``detailed country-
level operations plans that describe how resources are being used'' and 
that such plans have been developed for 67 countries already. Will you 
make these plans available to this committee? Will these plans be 
available to the public?

    Answer. I am committed to providing as much information on our 
foreign assistance activities as possible to our oversight committees 
and Congressional partners. We are currently looking at ways to make 
the information obtained from the fiscal year 2007 Operational Plans as 
user friendly and available as we can. We are likewise exploring 
formats for future years' Operational Plans with an eye toward the same 
goal. In the meantime, if there is particular fiscal year 2007 country 
or other information that you would like to discuss, we would be happy 
to meet with you.
                                 ______
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
         Responses of Henrietta H. Fore to Questions Submitted 
                       by Senator Robert Menendez

    Question. Madam Secretary, during your nomination hearing on July 
24, 2007, you testified that, during your career with the current 
administration, you have attended one, or perhaps two, political 
briefing which took place during your tenure at the Department of 
Treasury.

  <bullet> What are the names and positions of the individual(s) who 
        conducted this briefing?
  <bullet> When were those briefings?
  <bullet> Exactly what was discussed at those briefings?

    Answer. There were two Treasury Senior Staff Retreats that I 
attended. The agenda for the Senior Staff Retreat on January 12, 2004, 
listed a 1-hour presentation entitled Political Overview and listed 
Barry Jackson, Deputy Assistant to the President and Deputy to the 
Senior Advisor, and Matt Schlapp, Deputy Assistant to the President and 
Director of Political Affairs as presenters. The agenda for the Senior 
Staff Retreat on January 4, 2005, listed a 45-minute presentation 
entitled Political Overview and listed Barry Jackson, Deputy Assistant 
to the President and Deputy to the Senior Advisor, and Matt Schlapp, 
Deputy Assistant to the President and Director of Political Affairs as 
presenters. My recollection is that the briefings were about the 
political landscape at the time.

    Question. During our question and answer period I asked you if you 
thought it was appropriate that USAID employees be spending their time 
being briefed on the electoral landscape. You responded that you would 
re-look at what your guidelines are in USAID, because, ``there are very 
strong guidelines about not being involved with political candidates 
and other activities.''

  <bullet> Did these briefings on the U.S. electoral landscape comply 
        with USAID and guidelines and Federal law?
  <bullet> Were the 20 to 30 employees of AID that received these 
        briefings all political appointees? Can you tell us what 
        positions they held?

    Can you commit to not holding such briefings if you are confirmed?

    Answer. As you know, the briefings for USAID staff were conducted 
prior to my appointment as Acting Administrator. I believe that those 
invited to the briefings were Presidential appointees confirmed by the 
Senate, administratively determined employees (the USAID equivalent of 
Schedule C), or Non-Career Senior Executive Service. The White House 
has expressed the view that it is appropriate for White House officials 
to provide informational briefings about the political landscape and 
its potential impact on our legislative relations to Federal agency 
appointees whose job it is to implement the President's policies.
    I certainly commit to reviewing and, if need be, revising, existing 
guidelines and policies at USAID, and to ensuring that any similar 
activities proposed to me are acceptable under all appropriate laws, 
regulations, and policies before I would approve them. I will also 
ensure that political appointees at USAID are thoroughly briefed by our 
Agency Ethics Officer on the Hatch Act and its requirements.

    Question. Madam Secretary, in your testimony, you discussed some of 
the barriers preventing Iraqis from gaining United States immigrant 
visas. You also said that you would be supportive of legislation that 
would expand the scope of current law to allow more Iraqi nationals to 
be allowed to enter the United States under special immigrant visas.

  <bullet> What legislative measures would you recommend to address 
        this issue?
  <bullet> Do you support the current legislative proposal introduced 
        by Senator Kennedy, S. 1651, the Refugee Crisis in Iraq Act?
  <bullet> In the meantime, what are you doing to respond to the 
        concerns expressed by Ambassador Crocker in his cable to you?

    Answer. In February of this year, we identified the issue of 
assisting Iraqis who work for the embassy as a top priority for the 
Department and as a matter of urgency. We took immediate steps to 
address the needs of those at risk in Iraq because of their association 
with the United States Government. We asked Congress to assist us in 
providing relief to these brave Iraqis by expanding the coverage of 
Special Immigrant Visas (SIVs) to include more of the Iraqi nationals 
who are serving the American people.
    Secretary Rice set up the interagency task force on Iraqi Refugees 
and Internally Displaced Persons led by Under Secretary Dobriansky, 
which continues to meet regularly. The interagency task force has a 
specific focus to address the humanitarian situation, including the 
needs of those at risk in Iraq because of their association with the 
United States Government. I have attended two such meetings and can 
assure you that those involved are dedicated to securing the best 
solution.
    The interagency task force drafted and cleared the administration's 
legislative proposal to provide a mechanism to lower, in 
``extraordinary circumstances,'' the years of service required for SIV 
eligibility under the Immigration and Nationality Act. Embassy Baghdad 
was consulted often during the drafting process and its 
recommendations, which included years of service, were integrated into 
the administration's SIV proposal.
    In April, we sent to Capitol Hill the legislative proposal as an 
administration position which allows SIVs for LE Staff who have served 
in ``extraordinary conditions'' as determined by the Secretary and have 
fewer than the minimum years of service otherwise required. Through 
meetings and briefings, we are working actively to get support in both 
the Senate and House to secure introduction, consideration, and passage 
of the proposal. We are working simultaneously to find a germane 
legislative vehicle for the legislative proposal or a sponsor to 
introduce it as a free standing bill. We are set to send another letter 
to all members regarding the urgency for the legislative proposal.
    While the United States Government agencies involved in the 
management of United States refugee and immigration programs overseas 
appreciate the support for the many Iraqis who have worked in support 
of American efforts in Iraq that is contained in the Refugee Crisis in 
Iraq Act introduced by Senators Kennedy and Smith, we believe the 
administration's SIV proposal is a more comprehensive and practical 
vehicle for addressing the dangers that local employees of the United 
States Government confront in a manner that will ensure continued 
effective operation of our diplomatic operations in Iraq and of our 
worldwide administration of the SIV program.
    The Department and Embassy Baghdad have communicated to LE staff 
the processes by which locally employed interpreters and translators 
under Chief of Mission authority can take immediate advantage of the 
Special Immigrant Visa opportunities offered by Public Law 110-36. 
Embassy Baghdad has also acted to accelerate the access of LE staff to 
the United States Refugee Admissions Program.
    The Department and the administration recognize that a solution 
must be secured to assist those LE staff in extraordinary conditions 
who are serving the American people. We very much appreciate your 
support and interest in this matter as we seek to partner with the Hill 
to implement the legislative changes that are required.

    Question. USAID funding to countries that have signed an MCC 
compact has decreased in every country except one. This is not what 
Congress supported when during the birth of the MCC we were promised it 
was to be additive and not replace USAID funds. You responded in the 
testimony to this discrepancy by saying that linkage issue where USAID 
programs were changing to close the gap between MCC and USAID. I fail 
to see how this is not replacing funds to USAID.
    In light of the administration's pledge to us to not cut foreign 
aid at the expense of MCC, how do you explain these numbers?

    Answer. As the attached table and chart indicate, the President's 
request for the three largest ``traditional assistance accounts--Child 
Survival and Health, Development Assistance and Economic Support Fund--
has risen from approximately $4.6 billion in fiscal year 2002 to some 
$5.9 billion in fiscal year 2008, an increase of nearly 30 percent. At 
the same time, the President's request for the Millennium Challenge 
Account has grown from zero in fiscal year 2003 to $3 billion in fiscal 
year 2006 and since. The total for these two categories has grown from 
the $4.6 billion of fiscal year 2002 to nearly $9 billion for fiscal 
year 2007 and 2008, a near doubling. This is an indicator of the 
administration's intentions.
    The Congress has modified these requests in a variety of ways, but 
in most of those fiscal years, appropriated less to overall foreign 
operations accounts than has been requested. We have had to adjust 
individual country programs in response to these and other 
Congressional changes, in an environment of limited resources.
    It is not appropriate, however, to conclude that in no individual 
country will ``traditional'' assistance programs remain unchanged when 
that country signs an MCC Compact. Countries develop at different rates 
and in unique patterns. Some may require emphasis on economic growth 
programs, some on investing in people, some on infrastructure, still 
others on good governance, and still others on security or rule of law. 
These complex requirements change over time in each country, and the 
goal of our assistance efforts needs to be the most effective possible 
mix of programs given each country's unique circumstances. I would 
emphasize, however, that it is not the policy of the administration to 
automatically reduce ``traditional'' assistance flows when countries 
begin MCC Compacts.

 
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                        Requests
                     Development funding                      ------------------------------------------------------------------------------------------
                                                                 FY 2002      FY 2003      FY 2004      FY 2005      FY 2006      FY 2007      FY 2008
--------------------------------------------------------------------------------------------------------------------------------------------------------
Child Support and Health Programs (CSH)......................    1,011,000    1,374,000    1,495,000    1,420,000    1,251,500    1,433,000    1,564,279
Development Programs (DA)....................................    1,325,000    1,365,500    1,345,000    1,329,000    1,103,233    1,282,000    1,041,248
Economic Support Fund (ESF)..................................    2,269,400    2,290,000    2,535,000    2,511,500    3,036,375    3,214,470    3,319,567
--------------------------------------------------------------------------------------------------------------------------------------------------------
      Subtotal...............................................    4,605,400    5,029,500    5,375,000    5,260,500    5,391,108    5,929,470    5,925,094
Millenium Challenge Account (MCC)............................            0            0    1,300,000    2,500,000    3,000,000    3,000,000    3,000,333
--------------------------------------------------------------------------------------------------------------------------------------------------------
      Total..................................................    4,605,400    5,029,500    6,675,000    7,760,500    8,391,108    8,929,108    8,925,094
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                    GRAPH INFORMATION
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                   2002         2003         2004         2005         2006         2007         2008
--------------------------------------------------------------------------------------------------------------------------------------------------------
      Subtotal*..............................................    4,605,400    5,029,500    5,375,000    5,260,500    5,391,108    5,929,470    5,925,094
      Total**................................................    4,605,400    5,029,500    6,675,000    7,760,500    8,391,108    8,929,470    8,925,094
--------------------------------------------------------------------------------------------------------------------------------------------------------

                                                                                                                                             [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                                                                                                                             
    Question. As soon as they're available, please provide the numbers 
for the minority recruitment data for the Senior Executive Service and 
the Foreign Service for fiscal year 2007.

    Answer. Through July 31, 2007, the Department has hired one 
minority at the Senior Executive Service (SES) level. In addition, one 
minority employee was promoted into the SES after participating as the 
Department's only nominee in OPM's 2006 SES Candidate Program. There 
have been a total of seven promotions into the SES in fiscal year 2007.
    To date in fiscal year 2007, minorities have comprised 14.1 percent 
of Foreign Service Generalist new hires and 19.6 percent of Foreign 
Service Specialist new hires. These percentages may underestimate 
actual minority hiring in fiscal year 2007, as we have seen an increase 
in the number of new hires who choose not to self-identify their racial 
or ethnic status. In addition, the percentage of minority registrants 
for the Foreign Service Written Exam (FSWE) increased from 34.2 percent 
in 2005 to 36.3 percent in April 2006, the second highest percentage of 
minorities registering for the exam since 1980. Registration for the 
September 2007 Foreign Service Officer Test, the only offering in 
fiscal year 2007, is currently underway at this time and we will not 
have statistics on minority registrants until registration is closed in 
September.

    Question. As I said in my statement, I do not support the idea of 
development attaches or development counselors if they are used as a 
way to demote USAID Mission Directors. In your letter to me, you said 
that the concept was going to be used for countries that could manage 
and finance their own development process but ``may not yet have the 
capacity or experience to put together partnerships that bring together 
host country government, private sector, and other public or private 
donor interests to address development issues.''
    Which current USAID missions are on the list to lose their Mission 
Director and receive a mission attache or development counselor?

    Answer. The concept of using a development counselor builds on the 
recognized value of USAID to not only provide a formal voice on country 
development issues and manage appropriated funds, but also to 
facilitate partnerships between host country governments, the private 
sector, NGOs, and other public and private donors. USAID's thinking has 
been that the placement of development counselor might be appropriate 
in situations where USAID's experience and capabilities in facilitating 
partnerships will enhance the United States Government's engagement 
within a country. Generally, this would be in countries that do not 
receive bilateral USAID funding or in which USAID manages limited 
development programming with support provided from another location 
(e.g., a regional center or platform). We have not reached any 
decisions to replace Mission Directors with development counselors. Our 
consideration of how the ``development counselor'' concept would affect 
current USAID roles or staffing, if at all, will continue and we look 
forward to consulting with you on this once our concept has been 
further refined.

    Question. How much control over the money would these development 
counselors have compared to mission directors?

    Answer. The amount of control over funds will be addressed and 
determined as we continue to refine and discuss the concept. Factors to 
consider would include size and orientation of the program, development 
goals and objectives, and availability of regional support.

    Question. How is a ``development counselor'' not simply a demotion 
for the USAID Mission Director?

    Answer. We do not envision the concept involving a ``demotion'' of 
a mission director to a development counselor, but rather the placement 
of a development counselor in countries in which we have programs but 
do not currently have a resident USAID direct hire, or in countries 
where we no longer have an active development program. For example, as 
we close out USAID programs in Eastern Europe, a development counselor 
could be placed on the United States Embassy country team for the 
purpose of advising the United States Ambassador on ongoing country 
development issues, coordinating with other donors, and facilitating 
public private partnerships. There are no plans to replace Mission 
Directors with Development Counselors in any country where we have a 
Mission.

    Question. Freedom House recently released an analysis of the 
administration's fiscal year 2008 budget request for Democracy and 
Human Rights. I am deeply concerned over the administration's proposed 
decreases of 9 percent in funding for human rights and 7 percent for 
civil society in the fiscal year 2008 budget request.
    Can you explain why these funds were cut? What was the rationale?

    Answer. The administration is committed to enhancing democracy and 
the rule of law as part of our foreign assistance efforts. The fiscal 
year 2008 budget request reflects an overall increase in democracy and 
governance programs of $215 million or 17 percent over fiscal year 2006 
levels. From fiscal year 2006 to fiscal year 2008, this increase was 
focused in an additional 33 percent for Rule of Law and Human Rights 
and an additional 46 percent for Good Governance.
    The fiscal year 2008 request is based on an assessment of needs and 
opportunities to advance and consolidate democratic progress in 
specific priority countries. An interagency team determined funding 
levels through a country-driven process which prioritized areas most 
critical to promoting and sustaining long-term country progress--a 
process which naturally required making tough trade-offs in a resource-
constrained environment. The Department's fiscal year 2008 request thus 
reflects significant increases for countries with the potential to 
serve as democratic lynchpins for regional stability. The largest 
increases were targeted at strengthening government capacity and rule 
of law in Iraq and Afghanistan.
    While funding for Civil Society and Political Competition did 
decrease overall, the fiscal year 2008 request includes a significant 
increase in these areas for key restrictive countries, including large 
increases for Cuba ($32 million) and Iran ($75 million). Other 
countries with increases for Civil Society include Bolivia, Pakistan, 
Sudan, Yemen, Nigeria, and Democratic Republic of Congo. Countries with 
increases for Political Competition and Consensus Building included 
Afghanistan, Bangladesh, Indonesia, Kosovo, Liberia, and Sudan.
    Funding for Human Rights as an element under the broader area of 
Rule of Law and Human Rights decreased 9 percent from fiscal year 2006 
to fiscal year 2008. However, human rights funding increased in the 
restrictive and rebuilding country category, and held steady overall 
for the developing country category.

    Question. After receiving reports that USAID was supporting 
programs in occupied Cyprus without consultation with the Government of 
the Republic of Cyprus, the Senate Appropriations Committee included in 
its fiscal year 2006 report the following: ``The committee is concerned 
that funds made available for bicommunal projects on Cyprus have been 
obligated without appropriate notification and participation of the 
Government of Cyprus. The committee believes that if such funds are to 
improve the prospect for peaceful reunification of the island, they 
must be allocated transparently and in full consultation with the 
Government of Cyprus and other interested parties.''
    In this year's fiscal year 2008 report, the Appropriations 
Committee again expressed concern with the lack of transparency and 
consultation: ``The committee is aware of concerns that some projects 
on Cyprus have been funded without advance consultation with the 
Government of Cyprus. The committee recommends that such consultation 
occur whenever practicable in the interest of transparency in the 
allocation of funds.''
    How will you engage and consult with the Government of the Republic 
of Cyprus as Congress directed? What will you do to address the 
concerns expressed by Congress?

    Answer. The United States Government is committed to consultation 
and transparency with the Government of Cyprus on the United States 
Government foreign assistance program for Cyprus, in accord with the 
fiscal year 2006 and fiscal year 2008 Senate Appropriations Committee 
reports. Since 2005, Embassy Nicosia has made it a priority to increase 
the frequency and breadth of consultations. The Ambassador, Deputy 
Chief of Mission, Public Affairs Officer, and USAID Representative have 
had numerous meetings with Government of Cyprus officials to discuss 
United States Government foreign assistance in Cyprus. Concerns 
expressed by Government of Cyprus officials at these meetings have been 
taken into account in our programs. For example, United States 
Government foreign assistance programs are highly sensitive to 
recognition, property issues, and contractor office locations, all of 
which have been raised as concerns by Government of Cyprus officials in 
our consultations. These are examples of productive results of our 
consultations with the Government of Cyprus.
    Unfortunately, Government of Cyprus officials do not always accept 
consultation meetings sought by embassy officials and have indicated 
that they are not satisfied with the detailed information provided by 
USAID and its partners on the island. In fact, the Government of Cyprus 
has increasingly sought to exercise control over our projects directed 
at the Turkish Cypriot community. Acceding to such Government of Cyprus 
demands would effectively undo the basic premise of over 30 years of 
bicommunal programming in Cyprus and clearly would discourage Turkish 
Cypriots from participating in our programs, which would defeat the 
intent of the United States Government. To summarize, we seek and 
welcome consultations with the Government of Cyprus and other 
interested parties. However, the U.S. Government cannot allow any 
foreign government to control U.S. assistance programs, in accord with 
the instructions in the fiscal year 2008 Senate Appropriations 
Committee Report, which stated: ``The committee understands that United 
States assistance does not go to the Government of Cyprus, but rather 
to private and nongovernmental organizations, and therefore the 
committee intends that with respect to the provision of such 
assistance, the organizations implementing such assistance and the 
specific nature of that assistance shall not be subject to the prior 
approval of any foreign government.''
                                 ______
                                 

         Responses of Henrietta H. Fore to Questions Submitted 
                      by Senator Richard G. Lugar

    Question. In your testimony you note: In 1980, there were 
approximately 4,000 direct hires in the USAID workforce; today there 
are 2,000, managing comparable amounts of programming dollars.
    Please provide for the record the number of direct hires at each 
USAID bilateral mission as of July 24. Please note the number of 
personal service contracts working at these same missions. Finally, 
please provide the dollar value currently managed by each mission based 
on fiscal year 2007 dollars figures.

    Answer. The attached table contains the information on the staffing 
levels for each country by the categories requested with the 
information verified for the end of September 2006. USAID is in the 
process of converting to a new comprehensive personnel tracking system 
for each country by each employee type. The country disaggregated data 
will be available shortly. The dollars managed are for the fiscal year 
2008 Congressional Budget Justification levels broken out by country, 
and include not only funds appropriated to USAID, but funds managed by 
USAID on behalf of MCC, PEPFAR, the State and Agriculture Departments, 
and other agencies of the U.S. Government.

            MISSIONS, FUNDING, FSOS AND PSCS AS OF 9/30/2006
             [PSCs include all nondirect hire U.S. citizens]
------------------------------------------------------------------------
                                   Total FY 08
     Region/Organization unit      CBJ program      FSO       PSCs/other
                                     funding
------------------------------------------------------------------------
      Total......................  $10,613,910        755.0        530.0
------------------------------------------------------------------------
AFR  Angola......................       25,786            4            0
AFR  Benin.......................       10,360            4            2
AFR  Botswana (RCSA).............       79,000           13           10
AFR  Burkina Faso................        4,675            0            0
AFR  Burundi.....................       27,977            0            0
AFR  Cameroon....................        1,000            0            0
AFR  Cape Verde..................           --            0            0
AFR  Chad........................        5,200            0            0
AFR  Comoros.....................           --            0            0
AFR  Cote d'Ivoire...............       96,000            0            0
AFR  Democratic Republic of the         71,088            7            7
 Congo...........................
AFR  Djibouti....................        3,240            0            0
AFR  Equatorial Guinea...........           --            0            0
AFR  Ethiopia....................      443,346           16            8
AFR  Gabon.......................           --            0            0
AFR  Gambia......................           --            0            0
AFR  Ghana.......................       38,994           15            9
AFR  Guinea......................       13,969            5            7
AFR  Guinea Bissau...............          600            0            0
AFR  Kenya.......................      489,124            9           12
AFR  Kenya (REDSO-ESA)...........       24,320           17           19
AFR  Lesotho.....................        7,500            0            0
AFR  Liberia.....................       90,838            5            1
AFR  Madagascar..................       32,213            5            5
AFR  Malawi......................       59,277           10            6
AFR  Mali........................       28,399           11            4
AFR  Mauritania..................        6,520            0            0
AFR  Mauritius...................          190            0            0
AFR  Mozambique..................      271,180           13            7
AFR  Namibia.....................       92,775            5            4
AFR  Niger.......................       18,405            0            0
AFR  Nigeria.....................      509,770           16            8
AFR  Rwanda......................      120,530            7            7
AFR  Sao Tome....................           --            0            0
AFR  Senegal.....................       33,303           12            5
AFR  Seychelles..................           --            0            0
AFR  Sierra Leone................       15,983            0            0
AFR  Somalia.....................       10,000            0            0
AFR  South Africa................      533,809           22            9
AFR  Sudan.......................      600,913           12            3
AFR  Swaziland...................        7,500            0            0
AFR  Tanzania....................      256,604           14            4
AFR  Togo........................          120            0            0
AFR  Uganda......................      312,138           13           16
AFR  West African Regional              40,100            5           15
 Program (WARP)..................
AFR  Zambia......................      315,409           10            5
AFR  Zimbabwe....................       21,010            7            4
ANE  Afghanistan.................    1,016,513           26           51
ANE  Bangladesh..................      106,218           15            8
ANE  Burma.......................        4,630            0            0
ANE  Cambodia....................       37,421            8            7
ANE  China.......................        9,290            0            0
ANE  East Timor..................        8,640            2            2
ANE  Egypt.......................      415,000           29           17
ANE  India.......................       71,005           17            8
ANE  Indonesia...................      152,083           27            7
ANE  Iraq........................    1,070,000           19           20
ANE  Israel......................           --            0           --
ANE  Jordan......................      284,751           16            6
ANE  Laos........................        1,521            0            0
ANE  Lebanon.....................       40,688            1            0
ANE  Mongolia....................        6,200            2            1
ANE  Morocco.....................       21,500            3            4
ANE  Nepal.......................       20,636            7           10
ANE  Pakistan....................      440,418           11            2
ANE  Philippines.................       66,106           16            6
ANE  Regional Development               20,400           15           16
 Mission--Asia...................
ANE  Sri Lanka...................        1,703            4            8
ANE  Thailand....................        1,040            0            0
ANE  Vietnam.....................       93,400            0            0
ANE  West Bank and Gaza..........       73,500           18           10
ANE  Yemen.......................       12,833            2            0
E&E  Albania.....................       15,865            4            8
E&E  Armenia.....................       34,965            6            8
E&E  Azerbaijan..................       17,698            0            0
E&E  Belarus.....................        9,999            0            0
E&E  Bosnia and Herzegovina......       22,900            5            5
E&E  Bulgaria....................           --            3            3
E&E  Croatia.....................           --            2            3
E&E  Cyprus......................       11,000            1            0
E&E  Georgia.....................       50,381           13           10
E&E  Hungary (RSC)...............       21,204            7           12
E&E  Ireland.....................        1,000            0            0
E&E  Kazakhstan..................       14,397           21           14
E&E  Kosevo......................      151,246            4            4
E&E  Kyrgyzstan..................       23,790            0            0
E&E  Macedonia...................       18,665            5            6
E&E  Moldova.....................       11,814            0            0
E&E  Montenegro..................        7,572            0            0
E&E  Poland......................           --            0            0
E&E  Romania.....................           --            5            3
E&E  Russia......................       49,872           19            4
E&E  Serbia......................       51,300            6           11
E&E  Slovakia....................           --            0            0
E&E  Tajikistan..................       26,880            0            0
E&E  Turkey......................          850            0            0
E&E  Turkmenistan................        5,466            0            0
E&E  Ukraine.....................       70,430           20            4
E&E  Uzbekistan..................        8,460            0            0
LAC  Argentina...................           --            0            0
LAC  Belize......................          200            0            0
LAC  Bolivia.....................      106,745           10            3
LAC  Brazil......................        2,947            2            2
LAC  Caribbean Regional Program..        9,062            0            0
LAC  Central America Regional           10,700            0            0
 Program.........................
LAC   Chile......................           --            0            0
LAC  Colombia....................      506,468           10            9
LAC  Costa Rica..................           --            0            0
LAC  Cuba........................       45,700            0            0
LAC  Dominican Republic..........       28,542           13            4
LAC  Ecuador.....................       19,988            4            5
LAC  El Salvador.................       17,449           15            5
LAC  Guatemala...................       43,826           11            4
LAC  Guyana......................       23,393            1            3
LAC  Haiti.......................      203,196           15            7
LAC  Honduras....................       35,149           10            6
LAC  Jamaica.....................        8,536            9            8
LAC  Mexico......................       14,768            4           10
LAC  Nicaragua...................       25,579            9            3
LAC  Panama......................          976            2            0
LAC  Paraguay....................        5,985            3            0
LAC  Peru........................       89,786           21            6
LAC  South America Regional......        1,500            0            0
LAC  Uruguay.....................           --            0            0
LAC  Venezuela...................        3,000            0            0
------------------------------------------------------------------------
AFR  Summary.....................    4,719,164          257          177
ANE  Summary.....................    4,065,496          238          183
E&E  Summary.....................      625,755          121           95
LAC  Summary.....................    1,203,495          139           75
------------------------------------------------------------------------

    Question. As a follow-up to the question regarding the number of 
officers who are being pulled away from their current assignments to 
adjudicate passports, please provide the committee with a list of those 
currently serving in this temporary capacity and any that have been 
identified by: Foreign Service/Civil Service or Presidential Management 
Fellow, Grade of the Individual, Current Location (Main State/FSI/
Overseas Post), Current/Onward Assignment, Date of Assignment to 
Passport Office, Which Office, Duration of their temporary assignment.

    Answer. We have provided the information requested in the attached 
a spreadsheet listing the status, assignment, and grade of the officers 
assisting with passport adjudication along with the length of their 
respective passport assignments. Some of the WAE (When Actually 
Employed re-employed annuitants) personnel have open-ended assignments 
or are working intermittently in Washington. We have noted precise 
assignments when available. Those listed as ``ELOs'' are entry level 
officers who are doing passport adjudication full-time. The ELOs' 
onward post of assignment is listed, and in many, but not every case, 
their arrival at the post of assignment will be delayed by the length 
of their passport assignment. In Washington, 363 Department volunteers 
have self-scheduled for intermittent 4-hour adjudication shifts.
    Furthermore, 271 other employees (including Civil Service, Foreign 
Service Specialists, WAEs, CA contractors, and Eligible Family Members 
currently employed by the Department) have been assigned full-time to 
customer service details in various agencies. These details range from 
3 to 8 weeks. Additionally, 337 have voluntarily scheduled themselves 
for customer service work and another 324 for shifts on the Passport 
Phone Task Force. (Note that volunteers for the Customer Service and 
Passport Phone Task Force may overlap). These are primarily after duty 
hours and weekend hours.

 
----------------------------------------------------------------------------------------------------------------
            Status                    Office             Grade              Agency             Start       Weeks
----------------------------------------------------------------------------------------------------------------
Advanced Consular.............  .................  FO-03............  Washington.......  10-Jul..........      3
Advanced Consular.............  .................  FS-01............  New Orleans......  9-Jul...........      4
Advanced Consular.............  .................  FS-01............  New Orleans......  9-Jul...........      3
Advanced Consular.............  .................  FS-03............  New Orleans......  10-Jul..........      3
Advanced Consular.............  .................  FS-03............  New Orleans......  10-Jul..........      2
Advanced Consular.............  .................  FS-03............  New Orleans......  10-Jul..........      3
Advanced Consular.............  .................  FS-03............  New Orleans......  16-Jul..........      2
Advanced Consular.............  .................  FS-03............  New Orleans......  10-Jul..........      4
Advanced Consular.............  .................  FS-03............  New Orleans......  11-Jul..........      3
Advanced Consular.............  .................  FS-03............  New Orleans......  10-Jul..........      3
Advanced Consular.............  .................  FS-03............  Washington.......  10-Jul..........      3
Advanced Consular.............  .................  FS-03............  Washington.......  10-Jul..........      3
Advanced Consular.............  .................  FS-04............  New Orleans......  9-Jul...........      3
Advanced Consular.............  .................  FS-04............  New Orleans......  10-Jul..........      3
Advanced Consular.............  .................  FS-04............  Portsmouth.......  11-Jul..........      3
Advanced Consular.............  .................  GS-11............  New Orleans......  9-Jul...........      3
Advanced Consular.............  .................  GS-11............  New Orleans......  9-Jul...........      3
Civil Service.................  AF/S.............  GS-08............  Portsmouth.......  8-Jul...........      4
Civil Service.................  CA/FPP...........  GS-13............  Philadelphia.....  27-Aug..........      2
Civil Service.................  CA/FPP...........  GS-14............  Portsmouth.......  19-Aug..........      2
Civil Service.................  CA/PPT...........  GS-13............  New Orleans......  15-Jul..........      2
Civil Service.................  CA/VO/L/A........  GS-13............  Seattle..........  4-Aug...........      2
Civil Service.................  EB/ESC...........  GS-08............  New Orleans......  4-Aug...........      4
Civil Service.................  EB/IFD...........  FS-03............  Los Angeles......  6-Aug...........      4
Civil Service.................  EUR/AGS..........  FS-03............  Portsmouth.......  26-Aug..........      1
Civil Service.................  IIP..............  FS-03............  Los Angeles......  4-Aug...........      4
Civil Service.................  IIP/AF...........  FP-04............  Los Angeles......  4-Aug...........      4
Civil Service.................  INR/GGI..........  GS-12............  Chicago..........  3-Sep...........      4
Civil Service.................  NEA/SCA/EX.......  GS-09............  Portsmouth.......  5-Aug...........      4
Civil Service.................  Nogales..........  GS-11............  Portsmouth.......  8-Jul...........      4
Civil Service.................  PRM/MCE..........  GS-11............  Portsmouth.......  4-Aug...........      4
Civil Service.................  RM/GFS...........  GS-09............  Charleston.......  23-Jul..........      1
Civil Service.................  S................  GS-11............  Houston..........  5-Aug...........      6
Civil Service.................  S-EX-IRM.........  GS-13............  New Orleans......  16-Jul..........      2
Civil Service.................  Tijuana..........  GS-11............  Portsmouth.......  5-Aug...........      4
Domestic......................  HR/REE...........  FE-MC............  Washington.......  15-Aug..........      4
Domestic......................  HR/REE...........  FE-OC............  Washington.......  23-Jul..........      4
Domestic Foreign Service......  AF...............  FS-02............  Portsmouth.......  8-Jul...........      4
Domestic Foreign Service......  CA/CST...........  FS-01............  New Orleans......  4-Aug...........      4
Domestic Foreign Service......  CA/FPP...........  FP-04............  Washington.......  11-Jul..........      4
Domestic Foreign Service......  EAP/MTS..........  FS-03............  Washington.......  9-Jul...........      1
Domestic Foreign Service......  EUR/SE...........  FP-04............  Honolulu.........  27-Aug..........      1
Domestic Foreign Service......  HR/REE...........  FE-MC............  Washington.......  14-Jul; 21-Jul..      1
Domestic Foreign Service......  M................  FO-02............  New Orleans......  14-Jul..........      2
Domestic Foreign Service......  OBO..............  FS-02............  Philadelphia.....  4-Aug...........      4
Domestic Foreign Service......  OBO..............  FS-02............  Portsmouth.......  5-Aug...........      4
Domestic Foreign Service......  OES..............  FS-02............  Portsmouth.......  4-Aug...........      4
Domestic Foreign Service......  OES..............  FS-03............  San Francisco....  4-Aug...........      4
Domestic Foreign Service......  OES/ENV..........  FO-02............  New Orleans......  4-Aug...........      4
Domestic Foreign Service......  PD...............  FP-04............  Boston...........  25-Jul..........      3
Domestic Foreign Service......  PM/WRA...........  FS-02............  Portsmouth.......  5-Aug...........      4
Domestic Foreign Service......  PPT deployment...  FP-05............  Colorado.........  8-Jul...........      8
Domestic Foreign Service......  S/ES.............  FE-MC............  Washington.......  13-Aug..........      8
Domestic Foreign Service......  S/ES-S...........  FS-03............  Portsmouth.......  8-Jul...........      4
Domestic Foreign Service......  S/ES-X...........  FS-02............  Washington.......  6-Aug...........      4
Domestic Foreign Service......  Training.........  FS-02............  Chicago..........  12-Aug..........      2
Domestic Foreign Service......  Training.........  FS-02............  Houston..........  22-Jul..........      1
Domestic Foreign Service......  Training.........  FS-03............  New Orleans......  4-Aug...........      4
Domestic Foreign Service......  Training.........  FS-04............  New York.........  29-Aug..........      1
Domestic Foreign Service......  Training.........  FS-02............  Seattle..........  16-Jul..........      1
ELO...........................  Abu Dhabi........  FP-04............  New York.........  5-Aug...........      6
ELO...........................  Abuja............  FP-05............  Washington.......  22-Aug..........      6
ELO...........................  Accra............  FP-04............  New Orleans......  9-Sep...........      8
ELO...........................  Accra............  FP-04............  Washington.......  30-Jul..........      8
ELO...........................  Addis Ababa......  FP-05............  New Orleans......  3-Sep...........      8
ELO...........................  Amsterdam........  FP-04............  Washington.......  13-Aug..........      8
ELO...........................  Ankara...........  FP-04............  Washington.......  13-Aug..........      8
ELO...........................  Athens...........  FP-04............  Portsmouth.......  29-Jul..........      4
ELO...........................  Athens...........  FP-04............  Washington.......  25-Jul..........      4
ELO...........................  Bangkok..........  FP-04............  New Orleans......  30-Sep..........      7
ELO...........................  Beijing..........  FP-05............  Washington.......  13-Aug..........      7
ELO...........................  Beirut...........  FP-05............  Washington.......  6-Aug...........      7
ELO...........................  Beirut...........  FS-03............  Washington.......  15-Oct..........      8
ELO...........................  Berlin...........  FP-04............  Washington.......  20-Aug..........      4
ELO...........................  Berlin...........  FP-05............  Washington.......  13-Aug..........      7
ELO...........................  Bogota...........  FP-04............  Miami............  30-Sep..........      7
ELO...........................  Bogota...........  FP-04............  Portsmouth.......  14-Oct..........      5
ELO...........................  Bogota...........  FP-05............  Washington.......  16-Jul..........      5
ELO...........................  Bogota...........  FP-05............  Washington.......  23-Jul..........      6
ELO...........................  Bridgetown.......  FP-04............  Washington.......  23-Jul..........      7
ELO...........................  Bridgetown.......  FP-05............  Houston..........  4-Sep...........      8
ELO...........................  Bucharest........  FP-04............  Portsmouth.......  10-Sep..........      7
ELO...........................  Bucharest........  FP-04............  Washington.......  20-Aug..........      7
ELO...........................  Canberra.........  FP-04............  Los Angeles......  16-Sep..........      8
ELO...........................  Canberra.........  FP-04............  Seattle..........  14-Oct..........      8
ELO...........................  Caracas..........  FP-04............  Washington.......  23-Jul..........      5
ELO...........................  Caracas..........  FP-05............  Washington.......  2-Aug...........      5
ELO...........................  Caracas..........  FS-03............  Washington.......  20-Aug..........      8
ELO...........................  Chengdu..........  FP-04............  Washington.......  2-Aug...........      8
ELO...........................  Chennai..........  FP-04............  Washington.......  2-Aug...........      8
ELO...........................  Ciudad Juarez....  FP-04............  Washington.......  16-Jul..........      8
ELO...........................  Ciudad Juarez....  FP-04............  Washington.......  22-Aug..........      7
ELO...........................  Ciudad Juarez....  FP-04............  Washington.......  20-Aug..........      7
ELO...........................  Ciudad Juarez....  FP-04............  Washington.......  23-Jul..........      8
ELO...........................  Ciudad Juarez....  FP-04............  Washington.......  10-Jul..........      7
ELO...........................  Ciudad Juarez....  FP-04............  Houston..........  8-Oct...........      7
ELO...........................  Ciudad Juarez....  FP-05............  Washington.......  20-Aug..........      7
ELO...........................  Copenhagen.......  FP-04............  Washington.......  13-Aug..........      6
ELO...........................  Dakar............  FP-04............  Washington.......  10-Jul..........      7
ELO...........................  Dakar............  FP-04............  Washington.......  30-Jul..........      8
ELO...........................  Dar es Salaam....  FP-04............  Houston..........  3-Sep...........      8
ELO...........................  Dhaka............  FP-04............  Washington.......  2-Aug...........      8
ELO...........................  Dhaka............  FP-04............  Washington.......  4-Sep...........      4
ELO...........................  Djibouti.........  FP-05............  Washington.......  4-Sep...........      7
ELO...........................  Djibouti.........  FP-06............  Washington.......  6-Aug...........      7
ELO...........................  Doha.............  FP-04............  Los Angeles......  5-Aug...........      4
ELO...........................  EUR/RPM..........  FP-04............  Washington.......  6-Aug...........      4
ELO...........................  Geneva...........  FP-04............  Washington.......  30-Jul..........      4
ELO...........................  Georgetown.......  FP-05............  Washington.......  22-Aug..........      7
ELO...........................  Guangzhou........  FP-05............  Washington.......  16-Jul..........      7
ELO...........................  Guatemala........  FP-04............  New Orleans......  29-Jul..........      8
ELO...........................  Guayaquil........  FP-05............  Washington.......  30-Jul..........      8
ELO...........................  HCMC.............  FP-04............  Washington.......  20-Aug..........      7
ELO...........................  Hong Kong........  FP-05............  Washington.......  20-Aug..........      2
ELO...........................  INR..............  FP-04............  Washington.......  24-Sep..........      2
ELO...........................  Iraq Desk........  FP-05............  New Orleans......  22-Jul..........      6
ELO...........................  Islamabad........  FP-04............  Washington.......  10-Jul..........      6
ELO...........................  Islamabad........  FP-04............  Washington.......  30-Jul..........      6
ELO...........................  Islamabad........  FP-05............  Washington.......  27-Aug..........      4
ELO...........................  Islamabad........  FP-05............  Washington.......  13-Aug..........      8
ELO...........................  Jakarta..........  FP-04............  Washington.......  9-Aug...........      7
ELO...........................  Jakarta..........  FP-04............  Washington.......  13-Aug..........      1
ELO...........................  Jakarta..........  FP-04............  Washington.......  30-Jul..........      7
ELO...........................  Jakarta..........  FP-04............  Washington.......  13-Aug..........      0
ELO...........................  Jerusalem........  FP-04............  Washington.......  2-Aug...........      7
ELO...........................  Jerusalem........  FP-04............  Washington.......  2-Aug...........      7
ELO...........................  Jerusalem........  FP-05............  Washington.......  17-Sep..........      8
ELO...........................  Johannesburg.....  FP-04............  Washington.......  26-Sep..........      8
ELO...........................  Johannesburg.....  FP-05............  Washington.......  13-Aug..........      7
ELO...........................  Kampala..........  FP-04............  Washington.......  4-Sep...........      7
ELO...........................  Kampala..........  FP-04............  Washington.......  4-Sep...........      5
ELO...........................  Kampala..........  FP-04............  Washington.......  13-Aug..........      5
ELO...........................  Kampala..........  FP-05............  Washington.......  22-Aug..........      2
ELO...........................  Kathmandu........  FP-05............  Washington.......  16-Jul..........      8
ELO...........................  Kathmandu........  FP-05............  Washington.......  24-Jul..........      7
ELO...........................  Khartoum.........  FP-05............  Washington.......  13-Aug..........      6
ELO...........................  Kinshasa.........  FP-04............  Washington.......  20-Aug..........      7
ELO...........................  Kuala Lumpur.....  FP-04............  Seattle..........  13-Aug..........      7
ELO...........................  Kuwait...........  FP-04............  Washington.......  24-Jul..........      7
ELO...........................  Kyiv.............  FP-04............  Washington.......  13-Aug..........      4
ELO...........................  Kyiv.............  FP-04............  Washington.......  4-Sep...........      4
ELO...........................  Kyiv.............  FP-04............  Washington.......  30-Jul..........      7
ELO...........................  Kyiv.............  FP-04............  Washington.......  13-Aug..........      3
ELO...........................  La Paz...........  FP-06............  New Orleans......  12-Aug..........      8
ELO...........................  Lagos............  FP-04............  New York.........  22-Jul..........      9
ELO...........................  Lagos............  FP-04............  Washington.......  4-Sep...........      9
ELO...........................  Lagos............  FP-05............  Washington.......  16-Jul..........      8
ELO...........................  Lagos............  FP-06............  New Orleans......  5-Aug...........      8
ELO...........................  Lima.............  FP-04............  Washington.......  4-Sep...........      8
ELO...........................  Lima.............  FP-04............  Washington.......  18-Jul..........      7
ELO...........................  Lima.............  FP-05............  New Orleans......  28-Jul..........      6
ELO...........................  Lima.............  FP-05............  Washington.......  11-Jul..........      6
ELO...........................  London...........  FP-04............  Washington.......  24-Sep..........      8
ELO...........................  Madrid...........  FP-06............  Washington.......  20-Aug..........      4
ELO...........................  Managua..........  FP-04............  Los Angeles......  9-Sep...........      7
ELO...........................  Managua..........  FP-04............  Washington.......  3-Sep...........      7
ELO...........................  Manama...........  FP-05............  Washington.......  27-Aug..........      4
ELO...........................  Maputo...........  FP-04............  Washington.......  9-Oct...........      7
ELO...........................  Mexico City......  FP-04............  New Orleans......  16-Sep..........      8
ELO...........................  Mexico City......  FP-04............  Washington.......  11-Jul..........      8
ELO...........................  Mexico City......  FP-04............  Washington.......  13-Aug..........      7
ELO...........................  Mexico City......  FP-05............  Washington.......  6-Aug...........      8
ELO...........................  Mexico City......  FP-06............  Washington.......  20-Aug..........      8
ELO...........................  Minsk............  FP-06............  Washington.......  30-Jul..........      7
ELO...........................  Monrovia.........  FP-05............  Washington.......  23-Jul..........      4
ELO...........................  Monterrey........  FP-05............  Washington.......  2-Aug...........      7
ELO...........................  Moscow...........  FP-05............  Washington.......  11-Jul..........      8
ELO...........................  Mumbai...........  FP-04............  Washington.......  13-Aug..........      7
ELO...........................  Mumbai...........  FP-04............  Washington.......  13-Aug..........      7
ELO...........................  Mumbai...........  FP-04............  Washington.......  26-Jul..........      8
ELO...........................  Mumbai...........  FP-05............  San Francisco....  16-Sep..........      5
ELO...........................  Mumbai...........  FP-06............  New Orleans......  3-Sep...........      8
ELO...........................  Nairobi..........  FP-04............  Washington.......  17-Sep..........      8
ELO...........................  Nairobi..........  FP-04............  Washington.......  27-Aug..........      6
ELO...........................  Nairobi..........  FP-05............  Washington.......  6-Aug...........      8
ELO...........................  NEA/I............  FP-05............  Washington.......  16-Jul..........      4
ELO...........................  NEA/I............  FP-06............  Washington.......  4-Sep...........      1
ELO...........................  New Delhi........  FP-04............  Washington.......  6-Aug...........      8
ELO...........................  New Delhi........  FP-04............  Washington.......  20-Aug..........      8
ELO...........................  New Delhi........  FP-04............  Washington.......  23-Jul..........      2
ELO...........................  Nogales..........  FP-06............  New Orleans......  14-Oct..........      5
ELO...........................  Nuevo Laredo.....  FP-04............  Washington.......  21-Sep..........      5
ELO...........................  Nuevo Laredo.....  FP-05............  New Orleans......  23-Jul..........      7
ELO...........................  Onward Pending...  FP-04............  Washington.......  11-Jul..........      7
ELO...........................  Ottawa...........  FP-04............  Washington.......  6-Aug...........      9
ELO...........................  Ottawa...........  FP-05............  Washington.......  23-Jul..........      6
ELO...........................  Panama...........  FP-04............  Portsmouth.......  19-Aug..........      8
ELO...........................  Panama...........  FP-05............  Washington.......  16-Jul..........      8
ELO...........................  Paris............  FP-04............  Washington.......  4-Sep...........      6
ELO...........................  Port of Spain....  FP-04............  Washington.......  6-Aug...........      7
ELO...........................  Port of Spain....  FP-04............  Washington.......  2-Oct...........      8
ELO...........................  Quito............  FP-05............  Los Angeles......  3-Sep...........      8
ELO...........................  Riga.............  FP-04............  Washington.......  2-Aug...........      8
ELO...........................  Rio de Janiero...  FP-04............  Washington.......  16-Jul..........      4
ELO...........................  Rio de Janiero...  FP-05............  Washington.......  16-Jul..........      6
ELO...........................  Riyadh...........  FP-04............  Washington.......  11-Jul..........      6
ELO...........................  Riyadh...........  FP-04............  Washington.......  1-Sep...........      6
ELO...........................  Riyadh...........  FP-05............  Washington.......  2-Aug...........      4
ELO...........................  Riyadh...........  FP-05............  Washington.......  30-Jul..........      4
ELO...........................  Riyadh...........  FP-05............  Washington.......  30-Jul..........      3
ELO...........................  S/CRS............  FP-04............  Washington.......  10-Sep..........      4
ELO...........................  San Jose.........  FP-04............  San Francisco....  4-Sep...........      8
ELO...........................  San Jose.........  FP-04............  Washington.......  4-Sep...........      8
ELO...........................  San Salvador.....  FP-04............  Los Angeles......  26-Aug..........      8
ELO...........................  San Salvador.....  FP-05............  Washington.......  2-Aug...........      8
ELO...........................  Sanaa............  FP-04............  New Orleans......  22-Sep..........      5
ELO...........................  Santo Domingo....  FP-04............  Miami............  16-Sep..........      3
ELO...........................  Santo Domingo....  FP-04............  Portsmouth.......  19-Aug..........      8
ELO...........................  Santo Domingo....  FP-05............  Washington.......  16-Jul..........      8
ELO...........................  Santo Domingo....  FP-05............  Washington.......  16-Jul..........      6
ELO...........................  Sao Paulo........  FP-04............  Los Angeles......  16-Jul..........      7
ELO...........................  Sao Paulo........  FP-04............  Washington.......  16-Jul..........      7
ELO...........................  Sao Paulo........  FP-04............  Washington.......  16-Jul..........      6
ELO...........................  Sao Paulo........  FP-04............  Washington.......  16-Jul..........      6
ELO...........................  Sarajevo.........  FP-04............  Portsmouth.......  29-Jul..........      7
ELO...........................  Seoul............  FP-05............  San Francisco....  2-Sep...........      8
ELO...........................  Seoul............  FP-05............  Washington.......  2-Aug...........      8
ELO...........................  Singapore........  FP-05............  San Francisco....  19-Aug..........      8
ELO...........................  Sofia............  FP-04............  Washington.......  13-Aug..........      8
ELO...........................  Surabaya.........  FP-04............  Washington.......  23-Jul..........      3
ELO...........................  Sydney...........  FP-04............  Washington.......  23-Oct..........      4
ELO...........................  Sydney...........  FP-04............  Washington.......  24-Sep..........      3
ELO...........................  Taipei...........  FP-04............  Los Angeles......  13-Aug..........      8
ELO...........................  Tallinn..........  FP-04............  Washington.......  30-Jul..........      8
ELO...........................  Tegucigalpa......  FP-04............  Washington.......  16-Jul..........      3
ELO...........................  Tegucigalpa......  FP-04............  Washington.......  16-Jul..........      7
ELO...........................  Tel Aviv.........  FP-04............  Washington.......  13-Aug..........      6
ELO...........................  Tijuana..........  FP-04............  San Francisco....  22-Aug..........      7
ELO...........................  Training.........  FP-06............  San Francisco....  16-Sep..........      5
ELO...........................  Training.........  FP-06............  Washington.......  13-Aug..........      5
ELO...........................  Vancouver........  FP-04............  Washington.......  17-Sep..........      2
ELO...........................  Vatican..........  FP-04............  Washington.......  27-Aug..........      7
ELO...........................  Vatican..........  FP-04............  Washington.......  13-Aug..........      7
ELO...........................  Vienna...........  FP-05............  Washington.......  20-Aug..........      3
ELO...........................  Sao Paulo........  FP-04............  San Francisco....  12-Aug..........      8
Overseas Foreign Service......  (End of tour)      FS-02............  Houston..........  5-Aug...........      4
                                 Kabul.
Overseas Foreign Service......  (End of tour)      FS-04............  Los Angeles......  4-Aug...........      4
                                 Kabul.
Overseas Foreign Service......  Abidjan..........  FP-5.............  New Orleans......  10-Aug..........      3
Overseas Foreign Service......  Abidjan..........  FS-03............  Washington.......  19-Jul..........     --
Overseas Foreign Service......  Accra............  FP-03............  Portsmouth.......  5-Aug...........      4
Overseas Foreign Service......  Amsterdam........  FS-01............  Portsmouth.......  4-Aug...........      4
Overseas Foreign Service......  Amsterdam........  FS-04............  Portsmouth.......  22-Jul..........      4
Overseas Foreign Service......  Antananarivo.....  FS-04............  Washington.......  8-Jul...........      4
Overseas Foreign Service......  APP Toulouse.....  FS-03............  Portsmouth.......  13-Aug..........      3
Overseas Foreign Service......  Athens...........  FP-04............  Portsmouth.......  5-Aug...........      4
Overseas Foreign Service......  Azerbaijan.......  FP-04............  Portsmouth.......  16-Sep..........      3
Overseas Foreign Service......  Beijing..........  FP-04............  Los Angeles......  16-Aug..........      3
Overseas Foreign Service......  Berlin...........  FE-MC............  New Orleans......  4-Aug...........      4
Overseas Foreign Service......  Buenos Aires.....  FS-04............  San Francisco....  23-Sep..........      6
Overseas Foreign Service......  Cairo............  FP-05............  Washington.......  24-Aug..........      6
Overseas Foreign Service......  Ciudad Juarez....  FP-04............  Portsmouth.......  5-Aug...........      4
Overseas Foreign Service......  Ciudad Juarez....  FP-04............  Portsmouth.......  8-Jul...........      4
Overseas Foreign Service......  Dar es Salaam....  FS-02............  Boston...........  17-Jul..........      1
Overseas Foreign Service......  Frankfurt........  FE-OC............  New Orleans......  12-Aug..........      4
Overseas Foreign Service......  Frankfurt........  FS-03............  Portsmouth.......  8-Jul...........      4
Overseas Foreign Service......  Geneva...........  FP-05............  Seattle..........  4-Aug...........      4
Overseas Foreign Service......  Guadalajara......  FP-04............  Portsmouth.......  5-Aug...........      4
Overseas Foreign Service......  Guadalajara......  FP-05............  Portsmouth.......  9-Jul...........      3
Overseas Foreign Service......  Guangzhou........  FP-04............  Chicago..........  6-Jul...........      1
Overseas Foreign Service......  Guatemala........  FP-05............  Portsmouth.......  5-Aug...........      3
Overseas Foreign Service......  Guatemala........  FP-05............  Portsmouth.......  5-Aug...........      4
Overseas Foreign Service......  Guayaquil........  FP-04............  Portsmouth.......  4-Aug...........      4
Overseas Foreign Service......  Hanoi............  FA-MC............  Portsmouth.......  13-Aug..........      6
Overseas Foreign Service......  Harare...........  FS-04............  Portsmouth.......  5-Aug...........      4
Overseas Foreign Service......  Hermosillo.......  FP-04............  Portsmouth.......  5-Aug...........      4
Overseas Foreign Service......  Hermosillo.......  FP-04............  Portsmouth.......  8-Jul...........      4
Overseas Foreign Service......  Ho Chi Minh City.  FP-03............  Washington.......  5-Aug...........      4
Overseas Foreign Service......  Ho Chi Minh City.  FS-02............  Chicago..........  17-Sep..........      3
Overseas Foreign Service......  Ho Chi Minh City.  FS-03............  Washington.......  23-Jul; 6A......      3
Overseas Foreign Service......  Home Leave.......  FP-03............  Washington.......  12-Jul..........      4
Overseas Foreign Service......  Home Leave.......  FP-04............  Los Angeles......  2-Jul...........      2
Overseas Foreign Service......  Hong Kong........  FP-04............  Philadelphia.....  4-Aug...........      4
Overseas Foreign Service......  Jakarta..........  FP-04............  Washington.......  5-Aug...........      4
Overseas Foreign Service......  Jakarta (R&R)....  FS-02............  Seattle..........  4-Aug...........      4
Overseas Foreign Service......  Johannesburg.....  FP-04............  Washington.......  13-Jul..........      3
Overseas Foreign Service......  Kinshasa.........  FO-03............  New Orleans......  26-Aug..........      4
Overseas Foreign Service......  Kinshasa.........  FS-03............  Washington.......  19-Jul..........      4
Overseas Foreign Service......  Kuwait...........  FP-01............  Washington.......  30-Jul..........      2
Overseas Foreign Service......  Kyiv.............  FS-04............  Chicago..........  16-Aug..........      4
Overseas Foreign Service......  La Paz...........  FS-03............  Washington.......  26-Jul..........      2
Overseas Foreign Service......  London...........  FP-05............  Washington.......  26-Jul..........      2
Overseas Foreign Service......  Manila...........  FP-04............  Portsmouth.......  4-Aug...........      4
Overseas Foreign Service......  Melbourne........  FS-02............  Washington.......  16-Jul..........      4
Overseas Foreign Service......  Melbourne........  FS-02............  Washington.......  2-Jul...........      1
Overseas Foreign Service......  Mexico City......  FP-04............  Portsmouth.......  16-Jul..........      3
Overseas Foreign Service......  Mexico City......  FP-05............  Portsmouth.......  4-Aug...........      4
Overseas Foreign Service......  Monterrey........  FP-02............  Portsmouth.......  8-Jul...........      4
Overseas Foreign Service......  Monterrey........  FP-04............  Portsmouth.......  31-Jul..........      2
Overseas Foreign Service......  Moscow...........  FP-04............  Portsmouth.......  8-Jul...........      4
Overseas Foreign Service......  Munich...........  FP-04............  Houston..........  5-Aug...........      4
Overseas Foreign Service......  Nairobi..........  FP-04............  Washington.......  28-Jul..........      4
Overseas Foreign Service......  Nassau...........  FS-02............  Washington.......  5-Aug...........      1
Overseas Foreign Service......  New Delhi........  FS-01............  Philadelphia.....  4-Aug...........      4
Overseas Foreign Service......  Nogales..........  FP-04............  Portsmouth.......  5-Aug...........      4
Overseas Foreign Service......  Panama...........  FP-04............  Washington.......  21-Jul..........      4
Overseas Foreign Service......  Paris............  FE-MC............  Colorado.........  6-Aug...........      8
Overseas Foreign Service......  RCO Frankfurt....  FS-01............  Portsmouth.......  2-Jul...........      3
Overseas Foreign Service......  RCO Frankfurt....  FS-02............  Portsmouth.......  13-Aug..........      3
Overseas Foreign Service......  RCO Johannesburg.  FS-03............  Chicago..........  11-Jul..........      4
Overseas Foreign Service......  Seoul (R&R)......  FP-04............  Seattle..........  20-Aug..........      4
Overseas Foreign Service......  Singapore........  FS-02............  Portsmouth.......  5-Aug...........      4
Overseas Foreign Service......  Singapore........  FS-04............  San Francisco....  6-Aug...........      4
Overseas Foreign Service......  Skopje...........  FS-04............  Portsmouth.......  5-Aug...........      4
Overseas Foreign Service......  Surabaya.........  FP-03............  Washington.......  9-Aug...........      4
Overseas Foreign Service......  Taipei (R&R).....  FP-02............  Miami............  23-Jul..........      1
Overseas Foreign Service......  Tegucigalpa......  FP-07............  Portsmouth.......  8-Jul...........      4
Overseas Foreign Service......  Tel Aviv.........  FP-04............  Washington.......  30-Jul..........      4
Overseas Foreign Service......  Tijuana..........  FS-02............  Seattle..........  30-Jul..........      4
Overseas Foreign Service......  Tokyo............  FP-04............  Portsmouth.......  5-Aug...........      4
Overseas Foreign Service......  Tokyo............  FP-04............  Washington.......  3-Jul...........      4
Overseas Foreign Service......  Tunis............  FP-09............  Portsmouth.......  8-Jul...........      4
Overseas Foreign Service......  Vienna...........  FS-02............  Portsmouth.......  8-Jul...........      4
Overseas Foreign Service......  Warsaw...........  FP-04............  Washington.......  26-Aug..........      1
Overseas Foreign Service......  Warsaw...........  FP-07............  Portsmouth.......  4-Aug...........      3
Overseas Foreign Service......  Warsaw...........  FS-04............  Portsmouth.......  4-Aug...........      4
Overseas Foreign Service......  Yaounde..........  FS-04............  Portsmouth.......  8-Jul...........      4
Overseas Foreign Service......  Yerevan..........  FS-02............  Washington.......  10-Aug..........      4
PMF/CEP.......................  A................  GS-09............  Portsmouth.......  12-Aug..........      5
PMF/CEP.......................  A/EX/HRD.........  GS-09............  New Orleans......  15-Jul..........      8
PMF/CEP.......................  A/EX/HRD.........  GS-09............  Washington.......  23-Jul..........      8
PMF/CEP.......................  EX/PTS...........  GS-09............  Washington.......  16-Jul..........      2
PMF/CEP.......................  A/ISS/IPS........  GS-12............  Portsmouth.......  16-Jul..........      7
PMF/CEP.......................  AC...............  GS-11............  Portsmouth.......  13-Aug..........      7
PMF/CEP.......................  AF...............  GS-11............  Washington.......  23-Jul..........      7
PMF/CEP.......................  AF/E.............  GS-09............  Washington.......  22-Jul..........      8
PMF/CEP.......................  AF/E.............  GS-12............  Washington.......  16-Jul..........      8
PMF/CEP.......................  AF/SPG...........  GS-09............  New Orleans......  16-Sep..........      8
PMF/CEP.......................  AF/SPG...........  GS-11............  Washington.......  23-Jul..........      8
PMF/CEP.......................  AF/W.............  GS-12............  Washington.......  23-Jul..........      7
PMF/CEP.......................  CA/OCS...........  GS-12............  Los Angeles......  30-Jul..........      7
PMF/CEP.......................  CA/VO/L/A........  GS-12............  Portsmouth.......  16-Jul..........      7
PMF/CEP.......................  Colombo..........  GS-09............  Seattle..........  6-Aug...........      7
PMF/CEP.......................  DRL..............  GS-07............  Washington.......  30-Jul..........      7
PMF/CEP.......................  DRL..............  GS-12............  Portsmouth.......  27-Aug..........      2
PMF/CEP.......................  DRL..............  GS-12............  Washington.......  16-Sep..........      2
PMF/CEP.......................  DRL/AE...........  GS-12............  Portsmouth.......  30-Jul..........      3
PMF/CEP.......................  DRL/AW...........  GS-12............  Portsmouth.......  22-Jul..........      8
PMF/CEP.......................  DRI/INF..........  GS-12............  New Orleans......  16-Jul..........      8
PMF/CEP.......................  DRL/MLGA.........  ?................  Washington.......  30-Jul..........      8
PMF/CEP.......................  DRL/MLGA.........  GS-11............  Portsmouth.......  15-Jul..........      5
PMF/CEP.......................  DRL/MLGA.........  GS-11............  Portsmouth.......  7-Aug...........      7
PMF/CEP.......................  DRL/NESCA........  GS-07............  San Francisco....  19-Aug..........      7
PMF/CEP.......................  DRL/NESCA........  GS-09............  Chicago..........  30-Jul..........      7
PMF/CEP.......................  DRL/NESCA........  GS-09............  New Orleans......  29-Jul..........      8
PMF/CEP.......................  DRL/P............  GS-11............  Portsmouth.......  22-Jul..........      8
PMF/CEP.......................  DRL/P............  GS-11............  Portsmouth.......  22-Jul..........      8
PMF/CEP.......................  DRL/SCA..........  GS-09............  New Orleans......  15-Jul..........      8
PMF/CEP.......................  DS/IP/OPO........  GS-11............  Portsmouth.......  16-Jul..........      8
PMF/CEP.......................  DS/MGT/HRM.......  GS-09............  Los Angeles......  15-Jul..........      7
PMF/CEP.......................  DS/MGT/HRM.......  GS-09............  Washington.......  24-Jul..........      7
PMF/CEP.......................  DS/MGT/HRM.......  GS-09............  Washington.......  23-Jul..........      7
PMF/CEP.......................  DS/T/TPS.........  GS-11............  Washington.......  30-Jul..........      7
PMF/CEP.......................  EAP..............  GS-11............  Portsmouth.......  30-Sep..........      5
PMF/CEP.......................  EAP..............  GS-11............  Washington.......  4-Sep...........      5
PMF/CEP.......................  EAP..............  GS-11............  Washington.......  10-Sep..........      3
PMF/CEP.......................  EAP/CM...........  GS-11............  Boston...........  16-Jul..........      7
PMF/CEP.......................  EAP/CM...........  GS-11............  San Francisco....  16-Jul..........      7
PMF/CEP.......................  EAP/EP...........  GS-09............  Portsmouth.......  9-Sep...........      8
PMF/CEP.......................  EAP/EX...........  GS-07............  New Orleans......  22-Jul..........      8
PMF/CEP.......................  EAP/FO...........  GS-09............  Portsmouth.......  15-Jul..........      8
PMF/CEP.......................  EAP/K............  GS-09............  Washington.......  23-Jul..........      8
PMF/CEP.......................  EAP/K............  GS-11............  Washington.......  30-Jul..........      8
PMF/CEP.......................  EAP/K............  GS-12............  Washington.......  30-Jul..........      7
PMF/CEP.......................  EAP/P, EAP/AWP...  GS-09............  New Orleans......  16-Jul..........      7
PMF/CEP.......................  EAP/RSP..........  GS-09............  Washington.......  12-Aug..........      7
PMF/CEP.......................  EB...............  GS-11............  Portsmouth.......  14-Aug..........      4
PMF/CEP.......................  ECA..............  GS-11............  Washington.......  21-Aug..........      4
PMF/CEP.......................  ECA/A/E..........  GS-11............  New Orleans......  22-Jul..........      7
PMF/CEP.......................  ECA/PCE..........  GS-09............  Washington.......  23-Jul..........      7
PMF/CEP.......................  ECA-IIP/EX/BF....  GS-11............  New Orleans......  15-Jul..........      8
PMF/CEP.......................  ECA-IIP/EX/BF....  GS-11............  Washington.......  16-Jul..........      8
PMF/CEP.......................  EEB..............  GS-09............  New Orleans......  15-Jul..........      2
PMF/CEP.......................  EEB..............  GS-09............  Washington.......  22-Sep..........      2
PMF/CEP.......................  EEB..............  GS-11............  New Orleans......  15-Jul..........      8
PMF/CEP.......................  EEB/IPE..........  GS-11............  New Orleans......  15-Jul..........      8
PMF/CEP.......................  EEB/TPP..........  GS-09............  New Orleans......  15-Aug..........      6
PMF/CEP.......................  EEB/TPP/MTA......  GS-09............  New Orleans......  2-Aug...........      7
PMF/CEP.......................  EUR/ACE..........  GS-12............  New Orleans......  22-Jul..........      8
PMF/CEP.......................  EUR/NB...........  GS-09............  Portsmouth.......  16-Jul..........      3
PMF/CEP.......................  EUR/NB...........  GS-09............  Washington.......  13-Aug..........      3
PMF/CEP.......................  EUR/PPD..........  GS-12............  Los Angeles......  30-Jul..........      7
PMF/CEP.......................  EUR/PRA..........  GS-09............  Portsmouth.......  14-Jul..........      8
PMF/CEP.......................  EUR/RPM..........  GS-12............  Washington.......  23-Jul..........      8
PMF/CEP.......................  EUR/RUS..........  GS-11............  New Orleans......  9-Aug...........      7
PMF/CEP.......................  EUR/SCE..........  GS-12............  Portsmouth.......  22-Jul..........      8
PMF/CEP.......................  F................  GS-11............  Portsmouth.......  16-Jul..........      7
PMF/CEP.......................  F................  GS-11............  Washington.......  16-Jul..........      7
PMF/CEP.......................  G/TIP............  GS-11............  Houston..........  22-Jul..........      8
PMF/CEP.......................  G/TIP............  GS-11............  New Orleans......  22-Jul..........      5
PMF/CEP.......................  G/TIP............  GS-11............  Washington.......  23-Jul..........      5
PMF/CEP.......................  H................  GS-07............  San Francisco....  23-Jul..........      9
PMF/CEP.......................  H/EX.............  GS-12............  Portsmouth.......  17-Sep..........      7
PMF/CEP.......................  HR/CSP...........  GS-09............  Portsmouth.......  15-Jul..........      8
PMF/CEP.......................  HR/ER............  GS-07............  New Orleans......  15-Jul..........      8
PMF/CEP.......................  HR/ER............  GS-09............  Portsmouth.......  15-Jul..........      8
PMF/CEP.......................  HR/ER............  GS-09............  Washington.......  23-Jul..........      8
PMF/CEP.......................  HR/REE...........  FP-04............  Washington.......  27-Aug..........      7
PMF/CEP.......................  HR/REE...........  GS-07............  Portsmouth.......  20-Aug..........      5
PMF/CEP.......................  HR/REE...........  GS-12............  San Francisco....  22-Jul..........      5
PMF/CEP.......................  HR/REE/REC.......  GS-07............  Washington.......  23-Jul..........      3
PMF/CEP.......................  HR/RMA...........  GS-12............  New Orleans......  30-Jul..........      7
PMF/CEP.......................  IIP/NEA-SCA......  GS-09............  Washington.......  13-Aug..........      7
PMF/CEP.......................  IIP/P............  GS-09............  Washington.......  16-Jul..........      8
PMF/CEP.......................  INL..............  GS-11............  New Orleans......  9-Sep...........      2
PMF/CEP.......................  INL..............  GS-11............  Washington.......  9-Sep...........      2
PMF/CEP.......................  INL..............  GS-12............  Portsmouth.......  14-Aug..........      5
PMF/CEP.......................  INL/AAE..........  GS-12............  Washington.......  23-Jul..........      5
PMF/CEP.......................  IN/LAP...........  GS-09............  Portsmouth.......  22-Jul..........      8
PMF/CEP.......................  IN/LAP...........  GS-09............  Washington.......  13-Aug..........      8
PMF/CEP.......................  IN/LAP...........  GS-11............  New Orleans......  16-Jul..........      7
PMF/CEP.......................  INL/CIV..........  GS-09............  Portsmouth.......  6-Aug...........      8
PMF/CEP.......................  IN/I.............  GS-09............  Washington.......  29-Oct..........      8
PMF/CEP.......................  INL/LP...........  GS-11............  Washington.......  30-Jul..........      8
PMF/CEP.......................  INL/LP...........  GS-11............  Washington.......  6-Aug...........      9
PMF/CEP.......................  INL/LP...........  GS-12............  Portsmouth.......  23-Jul..........      2
PMF/CEP.......................  INR..............  GS-12............  Washington.......  26-Jul..........      2
PMF/CEP.......................  INR/INC..........  GS-12............  Portsmouth.......  22-Jul..........      8
PMF/CEP.......................  INR/IRE..........  GS-12............  San Francisco....  29-Jul..........      8
PMF/CEP.......................  INR/NESA.........  GS-11............  Washington.......  16-Jul..........      8
PMF/CEP.......................  INR/R/EUR........  GS-11............  Portsmouth.......  22-Jul..........      8
PMF/CEP.......................  INR/R/EUR........  GS-12............  Washington.......  23-Jul..........      8
PMF/CEP.......................  INR/TNC..........  GS-09............  Washington.......  23-Jul..........      7
PMF/CEP.......................  IO/MPR...........  GS-12............  San Francisco....  4-Aug...........      7
PMF/CEP.......................  IO/OIC...........  GS-11............  New Orleans......  22-Jul..........      8
PMF/CEP.......................  IO/PSC...........  GS-09............  New Orleans......  16-Jul..........      7
PMF/CEP.......................  IO/RHS...........  GS-12............  New Orleans......  16-Jul..........      7
PMF/CEP.......................  IO/UNP...........  GS-11............  Portsmouth.......  16-Jul..........      8
PMF/CEP.......................  IRM/OPS/MSO......  GS-05............  New Orleans......  15-Jul..........      8
PMF/CEP.......................  ISN..............  GS-11............  Washington.......  11-Sep..........      8
PMF/CEP.......................  ISN..............  GS-12............  Portsmouth.......  18-Sep..........      2
PMF/CEP.......................  ISN/CATR.........  GS-11............  Washington.......  16-Jul..........      2
PMF/CEP.......................  ISN/CPI..........  GS-12............  Portsmouth.......  30-Jul..........      7
PMF/CEP.......................  ISN/CTR..........  GS-12............  Portsmouth.......  23-Jul..........      6
PMF/CEP.......................  ISN/RA...........  GS-09............  Portsmouth.......  15-Jul..........      8
PMF/CEP.......................  ISN/RA...........  GS-09............  Portsmouth.......  16-Jul..........      7
PMF/CEP.......................  ISN/RA...........  GS-11............  Portsmouth.......  23-Jul..........      5
PMF/CEP.......................  ISN/RA...........  GS-12............  Washington.......  23-Jul..........      5
PMF/CEP.......................  ISN/WMDT.........  GS-09............  Portsmouth.......  22-Jul..........      8
PMF/CEP.......................  ISN/WMDT.........  GS-11............  Washington.......  6-Aug...........      8
PMF/CEP.......................  ISN/WMDT.........  GS-12............  New York.........  30-Jul..........      7
PMF/CEP.......................  L................  GS-07............  Washington.......  4-Sep...........      7
PMF/CEP.......................  L................  GS-11............  New Orleans......  29-Jul..........      8
PMF/CEP.......................  L/AN, L/T........  GS-07............  New Orleans......  15-Jul..........      8
PMF/CEP.......................  L/CA, L/EMP......  GS-11............  Portsmouth.......  6-Aug...........      8
PMF/CEP.......................  L/CA, L/WHA......  GS-07............  New Orleans......  15-Jul..........      8
PMF/CEP.......................  L/DL.............  GS-09............  New Orleans......  15-Jul..........      8
PMF/CEP.......................  L/HRR............  GS-07............  New Orleans......  16-Jul..........      7
PMF/CEP.......................  L/HRR, L/LEI.....  GS-07............  New Orleans......  15-Jul..........      8
PMF/CEP.......................  L/LFA, L/PM......  GS-07............  Washington.......  23-Jul..........      8
PMF/CEP.......................  L/NPV............  GS-07............  New Orleans......  15-Jul..........      8
PMF/CEP.......................  L/WHA............  GS-07............  New Orleans......  30-Jul..........      4
PMF/CEP.......................  M/P..............  GS-09............  New Orleans......  16-Jul..........      7
PMF/CEP.......................  NEA..............  GS-09............  Portsmouth.......  4-Sep...........      4
PMF/CEP.......................  NEA/ELA..........  GS-09............  Washington.......  16-Jul..........      4
PMF/CEP.......................  NEA/I............  GS-11............  Portsmouth.......  16-Jul..........      7
PMF/CEP.......................  NEA/I............  GS-12............  Washington.......  16-Jul..........      7
PMF/CEP.......................  NEA/IPA..........  GS-09............  Portsmouth.......  22-Jul..........      2
PMF/CEP.......................  NEA/PI...........  GS-12............  Washington.......  8-Oct...........      2
PMF/CEP.......................  NEA/PI...........  GS-12............  Washington.......  21-Jul..........      6
PMF/CEP.......................  NEA/RA...........  GS-09............  New York.........  22-Jul..........      8
PMF/CEP.......................  OBO/HR...........  GS-05............  New Orleans......  15-Jul..........      8
PMF/CEP.......................  OBO/PE/MEB.......  GS-11............  New York.........  26-Aug..........      8
PMF/CEP.......................  OES..............  GS-07............  Portsmouth.......  15-Jul..........      8
PMF/CEP.......................  OES..............  GS-07............  Portsmouth.......  15-Jul..........      8
PMF/CEP.......................  OES..............  GS-07............  Washington.......  16-Jul..........      8
PMF/CEP.......................  OES..............  GS-11............  Portsmouth.......  23-Sep..........      4
PMF/CEP.......................  OES/EGC..........  GS-09............  New Orleans......  16-Jul..........      7
PMF/CEP.......................  OES/EGC..........  GS-09............  New Orleans......  22-Jul..........      8
PMF/CEP.......................  OES/ENV..........  GS-09............  New Orleans......  6-Aug...........      8
PMF/CEP.......................  OES/ETC..........  GS-11............  Washington.......  30-Jul..........      8
PMF/CEP.......................  OES/IHB..........  GS-09............  New Orleans......  22-Jul..........      8
PMF/CEP.......................  OES/STC..........  GS-07............  Washington.......  16-Jul..........      8
PMF/CEP.......................  OES/STC..........  GS-11............  Washington.......  16-Jul..........      8
PMF/CEP.......................  PA...............  GS-11............  Washington.......  20-Aug..........      7
PMF/CEP.......................  PA/FO............  GS-09............  New Orleans......  15-Jul..........      8
PMF/CEP.......................  PA/RMO...........  GS-11............  Portsmouth.......  16-Jul..........      5
PMF/CEP.......................  PA/RMO...........  GS-12............  Portsmouth.......  25-Jul..........      8
PMF/CEP.......................  PIU/RSAT.........  GS-11............  Washington.......  16-Jul..........      8
PMF/CEP.......................  PM/DTC...........  GS-09............  New Orleans......  16-Jul..........      7
PMF/CEP.......................  PM/PPA...........  GS-12............  Portsmouth.......  22-Jul..........      8
PMF/CEP.......................  PM/RSAT..........  GS-09............  Portsmouth.......  7-Aug...........      7
PMF/CEP.......................  PM/RSAT..........  GS-11............  Washington.......  23-Jul..........      7
PMF/CEP.......................  PM/WRA...........  GS-09............  New Orleans......  22-Jul..........      8
PMF/CEP.......................  PRF/AFR..........  GS-11............  Washington.......  30-Jul..........      8
PMF/CEP.......................  PRM..............  GS-09............  New Orleans......  29-Jul..........      8
PMF/CEP.......................  PRM/ANE..........  GS-11............  Portsmouth.......  20-Aug..........      8
PMF/CEP.......................  PRM/MCE..........  GS-12............  Portsmouth.......  30-Jul..........      7
PMF/CEP.......................  PRM/PRP..........  GS-11............  New Orleans......  22-Jul..........      6
PMF/CEP.......................  PRM/PRP..........  GS-11............  New Orleans......  15-Jul..........      8
PMF/CEP.......................  PRM/PRP..........  GS-12............  New Orleans......  20-Aug..........      8
PMF/CEP.......................  RM/BP............  GS-09............  New Orleans......  16-Jul..........      7
PMF/CEP.......................  RM/BP............  GS-09............  Portsmouth.......  15-Jul..........      8
PMF/CEP.......................  RM/BP............  GS-09............  Washington.......  10-Sep..........      8
PMF/CEP.......................  S................  GS-12............  Portsmouth.......  10-Sep..........      3
PMF/CEP.......................  S................  GS-12............  Washington.......  13-Aug..........      3
PMF/CEP.......................  S/CRS............  GS-11............  Portsmouth.......  13-Aug..........      4
PMF/CEP.......................  S/CRS............  GS-11............  Washington.......  10-Sep..........      4
PMF/CEP.......................  S/CRS............  GS-11............  Washington.......  30-Jul..........      2
PMF/CEP.......................  S/CT.............  GS-12............  Washington.......  30-Jul..........      2
PMF/CEP.......................  S/ES-S...........  GS-07............  San Francisco....  23-Jul..........      8
PMF/CEP.......................  S/GAC............  GS-12............  Portsmouth.......  23-Jul..........      4
PMF/CEP.......................  S/GAC............  GS-12............  Washington.......  23-Jul..........      4
PMF/CEP.......................  S/I..............  GS-12............  Portsmouth.......  16-Jul..........      7
PMF/CEP.......................  S/OCR............  GS-09............  Portsmouth.......  6-Aug...........      6
PMF/CEP.......................  S/OCR............  GS-09............  Washington.......  30-Jul..........      6
PMF/CEP.......................  S/WCI............  GS-09............  New Orleans......  16-Jul..........      7
PMF/CEP.......................  S/WCI............  GS-09............  New Orleans......  22-Jul..........      8
PMF/CEP.......................  SCA..............  GS-09............  Chicago..........  23-Jul..........      7
PMF/CEP.......................  SCA..............  GS-11............  New Orleans......  21-Aug..........      6
PMF/CEP.......................  SCA/A............  GS-12............  Washington.......  7-Sep...........      6
PMF/CEP.......................  SCA/A............  GS-12............  Washington.......  16-Jul..........      4
PMF/CEP.......................  SCA/CEM..........  GS-09............  Washington.......  23-Jul..........      4
PMF/CEP.......................  SCA/INS..........  GS-09............  Portsmouth.......  22-Jul..........      8
PMF/CEP.......................  SCA/PPD..........  GS-09............  New Orleans......  16-Jul..........      7
PMF/CEP.......................  SCA/RAO..........  GS-11............  New Orleans......  22-Jul..........      2
PMF/CEP.......................  USAID/GC.........  GS-09............  New York.........  30-Jul..........      7
PMF/CEP.......................  VCl/CCA..........  GS-07............  New Orleans......  15-Jul..........      8
PMF/CEP.......................  VCl/FO...........  GS-09............  Portsmouth.......  30-Jul..........      7
PMF/CEP.......................  WHA/AND..........  GS-09............  New York.........  15-Jul..........      8
PMF/CEP.......................  WHA/CAR..........  GS-11............  Washington.......  6-Aug...........      8
PMF/CEP.......................  WHA/CCA..........  GS-09............  New Orleans......  15-Jul..........      8
PMF/CEP.......................  WHA/CEN..........  GS-11............  New Orleans......  22-Jul..........      8
PMF/CEP.......................  WHA/CEN..........  GS-12............  New Orleans......  6-Aug...........      8
PMF/CEP.......................  WHA/EX...........  GS-07............  Portsmouth.......  16-Jul..........      7
PMF/CEP.......................  WHA/PDA..........  GS-09............  New Orleans......  22-Jul..........      8
PMF/CEP.......................  WHA/USOA.........  GS-12............  Washington.......  23-Jul..........      8
PMF/CEP.......................  WHA/USOAS........  GS-11............  Portsmouth.......  23-Jul..........      2
R&R...........................  .................  FS-03............  Washington.......  20-Aug..........      2
WAE...........................  CA...............  GS-13............  Houston..........  5-Aug...........      6
WAE...........................  CA...............  GS-13............  Houston..........  15-Aug..........      4
WAE...........................  CA...............  GS-13............  Houston..........  5-Aug...........      6
WAE...........................  CA...............  GS-13............  Houston..........  5-Aug...........      4
WAE...........................  CA...............  GS-13............  Houston..........  5-Aug...........      6
WAE...........................  CA...............  GS-13............  Houston..........  19-Aug..........      6
WAE...........................  CA...............  GS-13............  Portsmouth.......  8-Jul; 8-Aug....      6
WAE...........................  CA...............  GS-13............  Portsmouth.......  8-Jul...........      8
WAE...........................  CA...............  GS-13............  Portsmouth.......  8-Jul...........      4
WAE...........................  CA...............  GS-13............  Portsmouth.......  5-Aug...........      4
WAE...........................  CA...............  GS-13............  Portsmouth.......  8-Jul...........      4
WAE...........................  CA...............  GS-13............  Portsmouth.......  7/16/2007.......      2
WAE...........................  CA...............  GS-13............  Portsmouth.......  8-Jul...........      4
WAE...........................  CA...............  GS-13............  Portsmouth.......  5-Aug...........      4
WAE...........................  CA...............  GS-13............  Portsmouth.......  5-Aug...........      4
WAE...........................  CA...............  GS-13............  Portsmouth.......  5-Aug...........      4
WAE...........................  CA...............  GS-13............  Seattle..........  18-Sep..........      4
WAE...........................  CA...............  GS-13............  Seattle..........  22-Jul..........      *
WAE...........................  CA/FO............  GS-14............  Portsmouth.......  28-Jul..........      2
WAE...........................  DS...............  GS-13............  Portsmouth.......  15-Jul..........      7
WAE...........................  DS...............  GS-13............  Washington.......  7/25/2007.......      *
WAE...........................  INL..............  GS-13............  Washington.......  26-Jul..........      *
WAE...........................  NEA..............  GS-13............  San Francisco....  7/23/2007.......      *
WAE...........................  NEA..............  GS-13............  San Francisco....  26-Aug..........      9
WAE...........................  NEA..............  GS-13............  Washington.......  23-Jul..........      9
WAE...........................  NEA..............  GS-13............  Washington.......  17-Jul..........      4
WAE...........................  OIG..............  GS-14............  San Francisco....  12-Jul..........      2
WAE...........................  WHA..............  GS-13............  Washington.......  30-Jul..........      3
WAE...........................  WHA..............  GS-13............  Washington.......  23-Jul..........      2
----------------------------------------------------------------------------------------------------------------
* Indefinite.

    Question. The so-called ``F process'' through which the Secretary 
intends to provide strategic direction and priorities for our multiple 
foreign aid programs has been met by considerable resistance. The 
loudest complaints have centered on the lack of transparency of the 
process but the unspoken complaint is that a number of actors--certain 
bureaucrats, congressional earmarkers, NGOs, and others--have lost some 
of their say over how individual pots of money will be spent. What can 
or should be done to overcome such resistance?

    Answer. The past year's budget process focused on looking at the 
full picture of funding and programs going into a particular country or 
region. This brought additional understanding to a wider group of 
actors about what the U.S. Government is trying to accomplish in a 
particular country or region and the interests and resources each were 
contributing. However, this also brought a new set of challenges. Many 
programs have supporters--some with vested interests--whether they be 
in the field, within the Department of State or USAID, in Congress, or 
in the NGO community. Within a constrained budget environment there is 
never sufficient funding for all programs that everyone would like to 
do in a country or might be nice to do in a country, nor is there 
enough funding to continue all projects in the same levels in all 
countries. Real, strategic choices have to be made.
    One of the goals of establishing the Director of U.S. Foreign 
Assistance and the reform process is to make it clear what we seek to 
accomplish in a country using foreign assistance, not just to identify 
worthwhile programs to fund. By establishing these strategic goals, we 
can then identify which programs, out of a myriad of worthwhile 
programs, are most likely to accomplish our foreign assistance goals. I 
would therefore argue that it is better for the U.S. Government and 
other stakeholders and partners to understand the full picture of what 
the U.S. Government is achieving in a country rather than only focusing 
on their own programs; often not realizing how they are impacting other 
sectors and the overall objectives. It is beneficial to make the tough 
decisions to ensure that our foreign assistance funding is coordinated, 
coherent, and used to the maximum impact. I believe that with the 
intensive consultations that I have embarked on, and will continue to 
do, we will be able to move forward taking all of this into 
consideration.

    Question. As you may know, there are many of us who believe that 
decisions on foreign assistance fall within the realm of foreign policy 
and should be made by the Secretary of State. Do you intend to include 
section 1206 funding, train-and-equip security assistance from DoD, in 
the ``F process'' deliberations?

    Answer. Pursuant to section 1206 of the National Defense 
Authorization Act, the President is authorized to direct the 
Departments of Defense and State to jointly develop programs to build 
the capacity of foreign military forces to be funded from Department of 
Defense appropriations in an amount up to $300 million in this fiscal 
year. This authority has proved effective in addressing rapidly 
evolving security situations.
    Senator, this is a new authority and we are still working with the 
Department of Defense (DoD) on the best way to coordinate and plan. Our 
understanding of Congressional intent of the section 1206 authority is 
that it is to provide supplementary urgent funds (outside of the normal 
budget cycle) and not replace normal programming. Therefore, it is a 
challenge to incorporate the section 1206 authority in the planning 
stages of the budget preparation, but we must be including it in our 
thinking the 1206 authority as a possibility in emerging situations. 
The authority requires that all funding proposals be jointly developed 
by DoD and the State Department. Staff in the Office of the Director of 
U.S. Foreign Assistance are involved in this joint development process 
along with the other key stakeholder bureaus in the Department. This 
joint development process ensures that the Secretary's foreign policy 
views are incorporated into the decision process.

    Question. We should expect to see some shifting of funding as 
countries develop and can begin to take responsibility for pockets of 
extreme poverty that may still exist despite economic progress. U.S. 
foreign assistance cannot be seen by recipient countries or those 
working in them as an entitlement and it would be good to see more not 
fewer graduates. How do you judge when a country is ready to 
``graduate'' from U.S. assistance? As funding has increased to the 
Middle East and northern Africa, for example, some funding to countries 
in Latin America (Bolivia, Ecuador, and Peru) and Europe and Eurasia 
has decreased. Is this a function of a finite budget or has a 
conclusion been reached that the countries with aid cuts in these 
regions are graduating from U.S. foreign assistance?

    Answer. We closely monitor the composition and type of U.S. 
assistance provided to ensure it is carefully matched to a country's 
needs and our shared interests. ``Graduation'' should be viewed in the 
context of becoming, to use the terminology in the Foreign Assistance 
Framework, a Sustaining Partner country. For example, Slovenia is a 
``Sustaining Partner'' country where U.S. assistance is provided to 
support NATO interoperability and to help position Slovenia to 
participate in international peacekeeping missions. But, since Slovenia 
performs well against the economic and democratic measures we monitor, 
it does not need and does not receive substantial foreign assistance. 
South Africa is another example. Despite 28 successive quarters of 
economic growth and well-developed financial, legal and transport 
systems, South Africa has been unable to realize fully its capacity, 
due largely to a range of social issues (most prominently, high rates 
of HIV/AIDS). Our assistance to this sustaining partner is therefore 
targeted to that specific obstacle to success, with the largest 
proportion of U.S. funds directed to combat HIV/AIDS and tuberculosis.
    In Europe and Eurasia, development assistance is provided under the 
Support for Eastern European Democracy (SEED) Act and FREEDOM Support 
Act (FSA), which address the transition goals of helping post-Communist 
states become stable, market-oriented democracies. While some of the 
decline in development assistance funding for Europe and Eurasia can be 
attributed to critical needs in other regions of the world, more 
notably, we are also able to lower SEED and FSA assistance to the 
region due to the success of sustained efforts since 1989. Eleven SEED 
countries have graduated from dependence on development assistance, and 
now only receive security assistance (Foreign Military Financing and 
International Military Education Training). Of these, 10 have joined 
the European Union (E.U.) and North Atlantic Treaty Organization 
(NATO), and the only exception, Croatia, is on track to join both 
organizations. The remaining six SEED recipients appear headed toward 
eventual NATO and E.U. accession, although it may take a decade or more 
in some cases. SEED programs are directed toward joining these Euro-
Atlantic institutions, which will go hand in hand with graduation from 
U.S. assistance. In Eurasia, FSA assistance has played a substantial 
role in supporting reform, dramatically illustrated by the democratic 
breakthroughs in 2003-2005. For Russia, Kazakhstan, and Azerbaijan, 
U.S. funding has been reduced in acknowledgement of the increasing 
energy wealth these countries can bring to bear in addressing their 
development challenges. Nevertheless, progress across Eurasia has been 
uneven and a number of difficult challenges remain to completing FSA's 
transition goals, most notably in democratic reform, that will 
necessitate the continuation of development assistance to the region 
for the foreseeable future.
    Similarly, in the Western Hemisphere region, of 26 bilateral 
country programs in Latin America, over half (14) are either in the 
Transforming or Sustaining Partnership categories. Using a strategic 
country based approach, we gave priority to key anchor states in the 
region--notably Colombia and Haiti--where strategic and development 
interests are most salient. Colombia, Haiti, Peru, Bolivia, and Ecuador 
account for more than 71 percent of the United States assistance 
resources request for the Western Hemisphere in fiscal year 2008.
    In short, a range of factors affects graduation, well as the degree 
and timing of graduation, and the concomitant shifting of U.S. foreign 
assistance recourses.
    There is no doubt that we are working in a constrained budget 
environment. Tough choices have to be made and fair and appropriate 
rationales were developed for making those choices.

    Question. The Centers for Disease Control and Prevention serves as 
a partnering technical agency in collaboration with USAID in many areas 
of global health programs. Please describe how this works. How would 
you describe the relationship between USAID and CDC? How can we ensure 
that these collaborations, including work on PEPFAR, the Presidential 
Malaria Initiative, and the focus on TB, are best taking advantage of 
each agency's strengths?

    Answer. I am told that USAID has a strong relationship with CDC 
that capitalizes on the independent strengths of each agency.
    In PEPFAR, both agencies serve as Deputy Principals of the PEPFAR 
implementation committee. As a disease control and prevention agency, 
CDC focuses primarily on clinical and laboratory delivery. As a 
development agency, USAID focuses primarily on service delivery outside 
of the clinic, including community outreach, prevention, orphans, and 
sustainability.
    In the President's Malaria Initiative, USAID and CDC interact at 
both the country level and at headquarters, under the direction of a 
White House appointed coordinator based at USAID and a deputy 
coordinator detailed to USAID from HHS. Both USAID and CDC have put 
considerable effort into making this partnership productive, to the 
benefit of the recipient countries. Each recipient country is staffed 
by a team that includes one CDC and one USAID technical advisor, 
supported by short-term technical assistance from both Atlanta and 
Washington. Annual country plans are jointly developed by these 
interagency teams.
    In TB, USAID and CDC have been working closely together over many 
years and have an extraordinarily good working relationship, which 
ensures that U.S. Government resources for TB and TB/HIV are used in 
the most effective and efficient manner possible. The agencies have 
worked together to outline the roles and responsibilities for each 
agency, with USAID taking the lead on international TB, and CDC leading 
on domestic TB.
                                 ______
                                 

         Responses of Henrietta H. Fore to Questions Submitted 
                     by Senator Russell D. Feingold

    Question. I have been a long-time supporter of the Cooperative 
Association of States for Scholarships (CASS) program, which has a 
pending application for a new cooperative agreement. While I understand 
that a decision on the application may not be forthcoming soon, could 
you please advise as to when a decision will be made on the agreement? 
Are there budgetary barriers that are preventing a decision from being 
made?

    Answer. USAID has received an unsolicited proposal for the amount 
of $50 million to extend funding for CASS another 5 years beyond fiscal 
year 2007. The CASS program has been in effect for over 20 years; 
generally it is USAID policy that assistance awards to U.S. 
organizations should not be extended beyond 10 years from the original 
award without full and open competition. Therefore, should resources be 
made available, USAID policy would favor an award based on open 
competition.

    Question. I applaud the administration for recognizing the 
critically important role basic education plays in reducing widespread 
poverty as well as in the achievement of all transformational diplomacy 
goals. However, of the 52 countries with existing basic education 
programs, 22 countries are seeing cuts to basic education in the 
administration's fiscal year 2008 request; and an additional seven 
countries' basic education budgets are being zeroed out (East Timor, 
Guinea, India, Madagascar, Mexico, Nepal, and South Africa). Please 
explain the justification for zeroing out basic education in these 
seven countries. Why does the administration's fiscal year 2008 request 
eliminate basic education funds to India, which is home to over 1/3 of 
the world's illiterate people, and a country where 4.6 million children 
do not have access to school?

    Answer. Funding for basic education has increased more than 
fivefold since fiscal year 2000, from less than $100 million to more 
than $500 million. As a founding member of the Education for All--Fast 
Track Initiative and as a signatory to the Development Assistance 
Committee of the Organization for Economic Cooperation and Development 
Agreement on Aid Effectiveness, the United States is committed to 
aligning its assistance with that of other donors in support of 
country-driven education strategies. The decision making process used 
to determine the fiscal year 2008 funding request for basic education 
involved country teams in Washington and the field. These teams are 
knowledgeable about each country's mix of donors and what U.S. 
Government assistance is required to stimulate and sustain 
transformational development, including whether U.S. Government 
resources would best be used to support basic education or for other 
high priority programs in the country.
    Our evaluation, based upon suggestions from experts in Washington 
and in the field is that basic education funds have been spread too 
thin in some cases. Better and more strategic results may be achieved 
by supporting more robust programming but in doing so we will need to 
focus on fewer countries. Under this approach, we will focus our 
technical attention on fewer countries but will have greater resources 
to leverage host country commitment to change. For instance, basic 
education programs were prioritized in Indonesia to provide a positive 
alternative in basic education in the world's most populous Muslim 
nation (increased $19 million from fiscal year 2006).
    Overall, USAID feels that our requested fiscal year 2008 budget 
will not be detrimental to lasting transformational change in these 
seven countries, and in each case there was a sound rationale for the 
decision, often based on the local will and capacity to help their own 
education system. We certainly want to maximize our investments to-
date, and we will actively work toward this in each of these countries.
    In the case of India, this is precisely the type of difficult 
question that we have focused on in designing our foreign assistance 
reforms and in trying to make the most strategic use of limited 
resources. We recognize that India does have significant education 
needs. Because of the large population size, limited foreign assistance 
resources, and extreme and growing needs in health, we determined that 
focusing the majority of United States foreign assistance in the health 
sector will have a greater impact reducing poverty and transforming 
India than spreading limited resources across many sectors. According 
to the Millennium Challenge Corporation indicators, India has improved 
in education this year, while health indicators have declined. 
Therefore, over 90 percent of the fiscal year 2008 request for India 
will be used to integrate health services and nutrition to improve 
survival of children and their mothers, stem global disease threats, 
and help India manage the growth of its rapidly increasing population.
    In line with the administration's commitment to basic education, 
the President announced a new initiative on basic education which will 
provide $525 million over 5 years to educate an additional 4 million 
children. The initiative would provide approximately $425 million for 
additional basic education activities to help partner countries meet 
concrete needs identified through the Fast Track Initiative process and 
$100 million for a new Communities of Opportunity program that will 
provide after school language and skills training for at-risk youth in 
the 8-14 age group.

    Question. The U.S. Government currently funds basic education 
programs in 25 African countries. Why does the administration's fiscal 
year 2008 request cut or eliminate funds for basic education programs 
for 13 of these 25 African countries?

    Answer. The administration's total basic education request for 
Africa for fiscal year 2008 of $155.6 million represents a $26.5 
million (21 percent) increase over the fiscal year 2007 request. This 
request demonstrates our commitment to basic education as a critical 
component of the U.S. Government's transformational diplomacy goal of 
building strong democratic states equipped to meet the needs of their 
people, reduce widespread poverty, and engage responsibly in the 
international community.
    The fiscal year 2008 budget was built on an assessment of where 
assistance could be most effective given the overall strengths and 
challenges associated with a country rather than a more fragmented 
sector approach. Resources were prioritized to the interventions that 
would serve as critical levers for development. In some countries, 
therefore, country portfolios were realigned to provide additional 
funding in support of other objectives, including, in some countries in 
Africa, activities relating to strengthening democracy and governance.
    Notably, the fiscal year 2008 request contains $100 million for 
President Bush's Africa Education Initiative (AEI), a $600 million 
multi-year initiative that focuses on increasing access to quality 
basic education in Africa through scholarships, textbooks, and teacher 
training programs. This $100 million request represents a $45 million 
(82 percent) increase over AEI funds provided in fiscal year 2006.

    Question. Both the President and Congress have indicated through 
budget and appropriation commitments their interest in supporting 
education for African and other developing countries. At the same time, 
however, the commitment to funding a strong education officer staff in 
USAID missions and at central and regional headquarters education 
offices seems to be decreasing. How will you address the need for more 
staff in both the field and headquarters in education?

    Answer. USAID recognizes the education staffing shortage and will 
announce very soon the recruitment of 10 Foreign Service officers in 
the education sector who will be placed in regional offices and 
missions over the next 2 years. Additional education officers for high 
priority education countries and at USAID headquarters are part of a 
proposal that would complement the increased budget and appropriation 
commitments from the President and Congress.

    Question. President Bush recently spoke about the importance of 
basic education in the developing world, identifying education as one 
of the top 3 priorities for U.S. foreign assistance and acknowledging 
its vital role in achieving sustainable development and global 
stability. How will you ensure that basic education remains a priority 
throughout the structural reorganization of U.S. foreign assistance?

    Answer. Education is an important driver for poverty reduction, 
social empowerment, and gender equality, and the administration has 
made significant strides in expanding the amount of foreign assistance 
resources devoted to basic education programs in particular, and 
targeting these resources effectively. In fiscal year 2008, the 
President's budget requested $535 million for basic education programs, 
up from $126 million in fiscal year 2001. In fiscal year 2006, the 
United States provided $521 million.
    Currently, most of USAID's basic education programs support teacher 
training, scholarships, textbook distribution, and policy reforms. 
These metric-focused efforts have helped to address financial obstacles 
to schooling and availability of quality instruction. Empirical 
evidence illustrates that school enrollment, performance, and the 
development of employable skills are tied to a range of factors. This 
demands a more comprehensive approach. On May 31, 2007, the President 
announced an Expanded Education Program for the world's poorest 
targeting up to 4 million more children. This initiative will build 
upon existing efforts with a bold and innovative plan to: (1) provide 
an additional 4 million children with accountable and quality basic 
education; (2) deliver technical training for 100,000 at-risk youth; 
and (3) coordinate with child health programs that impact educational 
attainment.
    The President's initiative would provide approximately $525 million 
over 5 years--roughly $425 million for additional basic education 
activities to help partner countries meet concrete needs identified 
through the Fast Track Initiative process and $100 million for a new 
Communities of Opportunity program that will provide after school 
language and skills training for at-risk youth in the 8-14 age group. 
Additionally, the administration will establish a new high-level 
position--located at the U.S. Agency for International Development--for 
international basic education programs to carry out this initiative and 
improve program coordination and support greater policy coherence at 
the global level across U.S. Government agencies.
    As a founding member of the Education for All--Fast Track 
Initiative and as a signatory to the Development Assistance Committee 
of the Organization for Economic Cooperation and Development Agreement 
on Aid Effectiveness, the United States is committed to aligning its 
assistance with that of other donors in support of country-driven 
education strategies. The decision making process used to determine the 
fiscal year 2008 funding request for basic education involved country 
teams in Washington and the field. The goal of this country-focused 
process was to determine the appropriate U.S. Government assistance in 
each sector, including education, required to stimulate and sustain 
transformational development in that country.
    The Office of the Director of U.S. Foreign Assistance provides 
coordination and guidance to all foreign assistance delivered through 
all agencies and entities of the U.S. Government through the 
Operational Plan process. Operational Plans provide a comprehensive, 
interagency picture of all foreign assistance resources planned for 
implementation in-country and the utilization of those resources in 
support of transformational diplomacy. Developed by the Country Team 
under the leadership of the Ambassador, the Operational Plans ensure 
that all U.S. foreign assistance resources in that country are 
coordinated, appropriately linked to foreign policy objectives, and 
supportive of an integrated country strategy. They strengthen the link 
between funding, activities, and results and collect standardized data 
about foreign assistance programs.

    Question. In that speech the President also announced a new 
initiative on basic education which will provide $525 million dollars 
over 5 years to educate an additional 4 million children. What 
countries will receive funds through this new initiative? How are they 
selected?

    Answer. No countries have been selected yet as we are still 
finalizing the criteria for country eligibility. While the criteria 
have not been finalized, some proposed criteria include: (a) 
demonstrated country need; (b) the availability of any Fast Track 
Initiative endorsed plan; (c) Millennium Challenge Account program 
eligibility to help guard against corruption; and (d) country 
commitment to improving education quality. We anticipate making a 
significant budget request to Congress for this new program fiscal year 
2009. In addition, we anticipate reprogramming $14 million in fiscal 
year 2008 funds for this program.

    Question. What types of basic education programs will be funded 
under this initiative?

    Answer. The types of basic education programs to be funded under 
this initiative will be tailored to each country's specific needs based 
on an assessment. The overall focus will be on supporting a 
comprehensive, systematic approach to improving education. Activities 
could include teacher training, education finance and governance, 
effective measurement of student achievement, education management 
information systems and public-private partnerships.

    Question. It is now early August and USAID still does not have an 
approved budget for fiscal year 2007. Country level programs have been 
unable to make decisions and have delayed program activities. What has 
been the impact of the delay in finalizing the budget on program 
activities?

    Answer. As you know, once we receive our appropriation from 
Congress, we provide a notification to Congress as to how the funding 
will be allocated by country and account. Prior to submitting such a 
notification, the Department engages in intensive consultations with 
Congress. Due to the delayed passage of the Continuing Resolution, 
these consultations began later than expected.
    After productive and intensive consultations, we reached agreement 
with the appropriations committees on final fiscal year 2007 budget 
levels for countries and specific programs during the week of July 23. 
Operating year budgets are considered final once this agreement is 
reached. I am transmitting the 653(a) Report summarizing the 
allocations to Congress and money is moving rapidly to the field.
    Over the course of this fiscal year, we made partial funding 
available to the field, after appropriate notification to Congress. I 
recognize, however, that not releasing the full appropriation has been 
a challenge for our field missions especially with regard to 
negotiating implementing mechanisms. I am fully engaged in this matter 
and believe we are now in a position to ensure that programs are moving 
forward in the most expeditious manner possible. We shall aim to have 
funds to the field much earlier next year. If you or your staff would 
like us to provide a briefing on the 653(a) final levels, we would be 
more than happy to do so.

    Question. Why was USAID management contemplating cutting back 
operating expenses and shutting down some USAID offices in Africa 
despite the President's stated commitment to Africa? Would new offices 
be opened or would the funding be absorbed by existing programs? What 
is the status of this possible cutback?

    Answer. The fiscal year 2008 USAID budget request is our bare 
minimum requirement for operating in an overall scarce budget 
environment. The USAID budget is a reflection of the many competing 
demands on taxpayer resources.
    USAID operates in some of the most difficult circumstances in the 
world and adequate resources are critical to implementing successful 
programs. USAID has been reviewing its budget and structure to ensure 
that operations are appropriately funded to continue its mission and 
support our national security interests abroad.
    USAID currently anticipates no additional mission closings beyond 
what has been planned for several years. These include several Eastern 
European missions that are phasing out (Bulgaria, Croatia, and Romania) 
and the Botswana regional mission, which is relocating into the 
Pretoria regional mission.

    Question. How do you intend to proceed with the ``F'' process when 
most Hill committees are working on appropriations using the old 
standard methods?

    Answer. Since its establishment in June 2006, the Office of the 
Director of U.S. Foreign Assistance has developed new, integrated 
strategic planning, budget planning, program planning, and results 
monitoring tools. These tools are designed to provide senior leadership 
with the necessary information to assess progress and trade-offs, and 
improve decision making that supports policy goals, including our goal 
of achieving transformational diplomacy.
    We think it is valuable to look at all the resources going to a 
country rather than considering each account in isolation. At the same 
time, we utilize the account structure established by our 
appropriations act. Thus, in the fiscal year 2008 Congressional Budget 
Justification we requested funds both by account and in the context of 
the Foreign Assistance Framework. Our objective is to ensure that the 
process we establish can accomplish both the goal of creating a 
strategic view of foreign assistance in a country while working within 
the account structure of our appropriations acts.
    We are at the beginning of this important reform process, not in 
the middle and not at the end. There are many aspects of the foreign 
assistance apparatus that have to be carefully examined; for example, 
whether the current authorities and account structures are equipped to 
meet the evolving needs of a post 9-11 world. I am committed to fully 
engaging with our committees in a collaborative manner regarding 
further steps and improvements to the foreign assistance process and 
our reform efforts.
                                 ______
                                 

                    Responses of Henrietta H. Fore 
               to Questions Submitted by Various Senators

    Question from Senator Hagel. What are you doing to answer the 
concerns raised by Ambassador Crocker in his cable about United States 
Government Iraqi employees?

    Answer. In February of this year, we identified the issue of 
assisting Iraqis who work for the embassy as a top priority for the 
Department and as matter of urgency. We took immediate steps to address 
the needs of those at risk in Iraq because of their association with 
the U.S. Government. We asked Congress to assist us in providing relief 
to these brave Iraqis by expanding the coverage of special immigrant 
visas (SIVs) which would enable us to include more of the Iraqi 
nationals who are serving the American people.
    Secretary Rice set up the interagency task force on Iraqi Refugees 
and Internally Displaced Persons led by Under Secretary Dobriansky, 
which continues to meet regularly. The interagency task force has a 
specific focus to address the humanitarian situation, including the 
needs of those at risk in Iraq because of their association with the 
U.S. Government. I have attended two such meetings and can assure you 
that those involved are dedicated to securing the best solution.
    The interagency task force drafted and cleared the administration's 
legislative proposal to provide a mechanism to lower, in extraordinary 
conditions, the years of service required for Special Immigrant Visa 
eligibility under the Immigration and Nationality Act. Embassy Baghdad 
was consulted often during the drafting process and its 
recommendations, which included years of service, were integrated into 
the administration's SIV proposal.
    In April, we sent to Capitol Hill the legislative proposal as an 
administration position which allows SIVs for LE Staff who have served 
in extraordinary conditions as determined by the Secretary and have 
fewer than the minimum years of service otherwise required. Through 
meetings and briefings, we are working actively to get support in both 
the House of Representatives and the Senate and to secure introduction 
and consideration of the proposal. We are working simultaneously to 
find a germane legislative vehicle for the legislative proposal or a 
sponsor to introduce it as a free standing bill. We are set to send 
another letter to all members regarding the urgency for the legislative 
proposal.
    The Department and Embassy Baghdad have communicated to LE Staff 
the processes by which locally employed interpreters and translators 
under Chief of Mission authority can take immediate advantage of the 
Special Immigrant Visa opportunities offered by Public Law 110-36. 
Embassy Baghdad has also acted to accelerate the access of LE Staff to 
the U.S. Refugee Admissions Program.
    The Department and the administration recognize that a solution 
must be secured to assist those LE Staff in extraordinary conditions 
who are serving the American people.

    Question from Senator Casey. Submit a detailed game plan on 
simplifying and making more transparent the foreign assistance process 
and dealing with the mess of overlapping jurisdictions?

    Answer. Senator, clearly there is a great deal of work to be done 
to ensure that our foreign assistance dollars are used efficiently and 
to the maximum impact. To work toward accomplishing these goals, 
Secretary Rice has established umbrella leadership for foreign 
assistance resources under a new position of the Director of U.S. 
Foreign Assistance, which is at the rank of Deputy Secretary of State. 
And to more fully align the foreign assistance activities carried out 
by the Department of State and USAID and demonstrate that we are 
responsible stewards of taxpayer dollars, she has appointed the 
Administrator of USAID to serve concurrently in this position. The 
USAID Administrator and the Director of U.S. Foreign Assistance has 
direct approval authority over roughly 60 percent of all foreign 
assistance in the Foreign Operations request, and has robust 
coordinating authority over assistance provided under the Global HIV/
AIDS (GHAI) and Millennium Challenge Corporation (MCC) accounts which 
includes 80 percent of all foreign assistance. Additionally, the USAID 
Administrator serves on the Board of the MCC.
    Since its establishment in June 2006, the Office of the Director of 
U.S. Foreign Assistance has developed new, integrated strategic 
planning, budget planning, program planning, and results monitoring 
tools. These tools are designed to provide senior leadership with the 
necessary information to assess progress and trade-offs, and improve 
decision making that supports policy goals, including our goal of 
achieving transformational diplomacy.
    While all these steps have led to improvements, clearly much 
remains to be done. If I am confirmed, I will engage in transparent and 
simplified detailed strategic planning which will outline improvements 
and next steps needed in the reform process. I have listed some of the 
key issues I plan to address and a corresponding tentative timeline.

  <bullet> I will work to consult closely and on a regular basis with 
        key stakeholders such as Congress, NGOs, and the foreign aid 
        and development community. I have already started this as I 
        indicated in my testimony and I plan to continue this during my 
        time as administrator, if confirmed. I strongly believe that 
        robust communication, transparency, and buy-in to the 
        Secretary's foreign assistance reforms are essential to its 
        success.
  <bullet> I will streamline the budget process over the next 6 months. 
        We are working to ensure that the budget process includes 
        regional and functional viewpoints as well as participation 
        from other U.S. Government agencies such as the Millennium 
        Challenge Corporation and the Department of Defense. 
        Additionally, we are formalizing field suggestions throughout 
        the process and reducing the number of decision points in the 
        budget process to relieve staff requirements. I am also working 
        to establish clear guidelines on communication with the field 
        and USAID and state bureaus to ensure transparency. To help me 
        in doing this, I will be holding a series of conferences with 
        USAID Mission Directors starting in October.
  <bullet> Over the next 8 months, I will work to improve the 
        Operational Plan process so that it is less labor intensive 
        while still capturing the key data. Operational Plans are 
        integrated interagency implementation plans for foreign 
        assistance funding. Operational Plans are intended to 
        strengthen the link between funding, activities, and results, 
        and collect standardized data about foreign assistance 
        programs. This data provides a basis for comparing and 
        evaluating country, program, and partner progress in helping to 
        achieve the transformational diplomacy goal.
  <bullet> Over the next year, I will improve the core foreign 
        assistance data systems. Through upgrading and enhancing the 
        key budget and planning data systems we will be able to ensure 
        that the systems are user-friendly, accessible, reliable, and 
        flexible.
  <bullet> Within the next 6 to 12 months, I will launch a strategic 
        review to look at how we can ensure full coordination with 
        agencies other than the Department of State and all of the 
        foreign assistance programs and dollars they manage.
  <bullet> Finally, over the next 3 to 6 months I will develop options 
        for ensuring increased field involvement in the reform process 
        to enable our foreign assistance to remain field driven and 
        needs based. This will involve developing additional input 
        points throughout the budget process and starting all budget 
        discussions with field input.

    I appreciate your and the committee's interest in helping us to 
ensure that we have the appropriate tools in place which will improve 
our foreign assistance decision making and effectiveness. The reforms 
proposed so far, including the creation of the Director of U.S. Foreign 
Assistance position, are vital steps to ensure that we make every 
effort within statutory authorities to provide assistance strategically 
and effectively. Together with the Secretary, we will continue to 
evaluate the process and look to make improvements to the process and 
our reform efforts, as I mentioned in my testimony. I look forward to 
engaging with all stakeholders as we identify additional changes and 
improvements that will maximize the use of the foreign assistance 
dollars appropriated by Congress. Again, I very much welcome the 
opportunity to work with Congress on this and other matters relating to 
the foreign assistance reform going forward, and, if confirmed I would 
plan to come back to the committee periodically with more detailed 
discussion of our plans and progress.

    Question from Senator Menendez. Who conducted the one or two 
political briefings you attended at Treasury?

    Answer. There were two Treasury Senior Staff Retreats that I 
attended. The agenda for the Senior Staff Retreat on January 12, 2004, 
listed a 1-hour presentation entitled Political Overview and listed 
Barry Jackson, Deputy Assistant to the President and Deputy to the 
Senior Advisor, and Matt Schlapp, Deputy Assistant to the President and 
Director of Political Affairs as presenters. The agenda for the Senior 
Staff Retreat on January 4, 2005, listed a 45-minute presentation 
entitled Political Overview and listed Barry Jackson, Deputy Assistant 
to the President and Deputy to the Senior Advisor, and Matt Schlapp, 
Deputy Assistant to the President and Director of Political Affairs as 
presenters.

    Question from Senator Lugar. What will you weigh in on as you take 
a look . . . giving us good counsel on MCC?

    Answer. Among the more important innovations that Millennium 
Challenge Corporation (MCC) has brought to the table is a greater 
capacity to concentrate resources toward the specific areas that have 
the greatest leverage in a country's growth agenda. In my view, the 
focus on country progress and country ownership is an essential element 
of the MCC model; the focus on country progress is also a corner stone 
of the foreign assistance reform. However, MCC is in a unique role to 
focus significant resources on the highest priority requirements for 
each country's growth and development. This is an essential tool in the 
U.S. Government's foreign assistance portfolio. I would like to take a 
thoughtful look at the advantages and disadvantages of the existing 
foreign assistance models.
    Second, MCC's emphasis on measuring outcomes is important in the 
delivery of foreign assistance, and something on which we need to focus 
to improve the quality and quantity of our results both at MCC and in 
the rest of our foreign assistance portfolio.
    Third, I would note that I am particularly interested in the 
fundamental linkage of MCC--USAID collaboration. The MCC is starting to 
build its capacity in the field in order to oversee implementation, and 
measure and evaluate results. In many cases, the MCC leans on USAID, 
whose capacities are stretched thin, while the MCC is still in the 
process of building. I want to explore opportunities for synergy and 
not duplication in our closer collaboration. There are others, and as I 
learn more about the issues and opportunities we face, I will look 
forward to consulting closely with you and others in the Congress on 
the best way forward.

    Question from Senator Menendez. Submit the options (about refunding 
expedite fees) in writing for the committee.

    Answer. After we examined several options to determine when and if 
to provide refunds for certain expedited applications, I determined 
that the most effective policy would be to continue to have applicants 
apply for refunds when they have reason to believe that they did not 
receive expedited service. The State Department will then address each 
refund request carefully on a case-by-case basis.
    As of July 18, 2007, a total of 3,829,913 expedited passport 
requests have been received and acted upon in calendar year 2007; our 
passport agencies and passport centers have issued 2,716,448 expedited 
passports, 71 percent within 3 business days of receiving the 
applications. A total of 3,286,751 passports (86 percent) were likely 
to have been in customers' hands within 3 weeks of them having applied, 
the period outlined on the State Department Passport Web site.
    A total of 543,162 expedited passports out of 3,829,913, 
approximately 14 percent, were not processed within 3 weeks. Even then, 
these individuals still received expedited treatment and most had their 
passports in hand by the date they specifically requested on their 
application. In the face of unprecedented demand (more than 40 percent 
increase over last year), those who requested expedited service did 
receive priority over the millions of other Americans who applied for 
passports at the same time. The expedited applications were 
automatically given a higher priority in the queue; these individuals 
received much faster service than the applicant who did not pay for 
expedited service and whose wait climbed at one point to twelve weeks. 
To further ensure expedited service, the Department has been paying for 
expedited passports to be mailed via FEDEX and has not, unlike past 
practice, asked customers to cover this additional cost.
    In reaching the conclusion to refund on a case-by-case basis, there 
were several options.
    The first would be to issue no refunds at all given the 
unprecedented demand. This option did not merit consideration.
    The second would have been to refund the fee paid by every 
applicant who requested expedited passport service, regardless of how 
fast the requester received the passport. We do not believe that 
providing a blanket refund automatically to all applicants would be 
either appropriate or equitable.
    A third option is to provide refunds to applicants who did not 
receive their passports by the date they requested on their 
application. The Passport staff was constantly re-sorting and queuing 
applicants in order to provide those with the greatest/earliest need 
the fastest service. Thus, while some applications were not processed 
within 3 days, the passport was still received prior to the date the 
applicant requested.
    A fourth option could be to have those who paid the fee and believe 
they did not receive expedited service request a refund. Our Web site 
already contains instructions on how to apply for a refund via e-mail. 
We will review each request thoroughly and provide timely refunds to 
those who meet the requirements.
                                 ______
                                 

         Responses of Henrietta H. Fore to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. I understand that during your first few weeks as Acting 
Administrator and Acting Director of Foreign Assistance you reviewed 
the strengths and weaknesses of the ``F'' reform process to date.
    (a) What are some of the lessons learned about this process to 
date?
    (b) How will the change in leadership at the F Bureau affect the 
plans that Ambassador Tobias put in motion?
    (c) Do you plan to follow the timelines he laid out? If not, how 
will they differ?

    Answer. During my tenure as Acting Administrator these past 2\1/2\ 
months, I have sounded out a number of ambassadors and mission 
directors for their views on how to strengthen U.S. foreign assistance 
to make it more effective and visible in the countries they represent. 
I am soliciting suggestions from the field to make the voices of those 
who actually implement our programs more prominent in their 
formulation. We are reviewing the After Action Report on the fiscal 
year 2008 budget formulation process and will be considering the 
suggestions of internal working groups in the agency that have been 
charged with adapting agency practices to better meet the Secretary of 
State's transformational diplomacy goal. I would like to underscore the 
fact that we are in the early stages of the reform process. I will work 
closely with you to strengthen and improve the process as we move 
forward.
    Through my listening tour, I have taken away several key lessons 
and corresponding improvements that I think need to be made. First and 
foremost is that we must increase and regularize consultations with key 
stakeholders and increase collaboration and buy-in to the Secretary's 
reform. Second, we must streamline the budget process, while also 
increasing field involvement and transparency. Third, we must improve 
the Operational Plan process to be more effective and to make it less 
labor intensive while still collecting the necessary data. Fourth, our 
budgetary and financial systems must be strengthened to allow them to 
be user-friendly and flexible. And finally, communication and 
transparency must be enhanced. I take this as a serious mandate, and if 
confirmed, I assure you that my active listening tour will not end.
    What I hope to do is capitalize on and reinforce what appears to be 
working and make changes to those elements which are not proving 
useful. I am particularly interested in simplifying the processes, 
making them more effective for all stakeholders, and considering 
attendant timelines in that regard.

    Question. I understand there are plans to reformulate the process 
and the Strategic Framework. Please discuss what changes are being 
contemplated and what we can expect to unfold.

    Answer. The Secretary and I believe that as we increase the 
quantity of our foreign assistance, which is critically important, we 
must also work to improve its quality. This is a driving factor behind 
her foreign assistance reform initiative. In my role as Acting Director 
of U.S. Foreign Assistance, I am charged with helping the Secretary to 
identify and realize new means to constantly improve our foreign 
assistance programs and activities. Having assumed this role but a 
short while ago, one of the first things I am doing is to listen to 
people's concerns and to consult with stakeholders about what we might 
improve. I will take all the ideas and suggestions I have received 
under advisement and continue to gather more as I think about the best 
ways to move forward. I want to reiterate that we are only at the 
beginning of the reform process, and I do intend to make changes taking 
into account what I have heard from all our stakeholders. I am 
especially interested in any thoughts and suggestions you might have 
about the reforms, including the processes and tools, and I would seek 
an opportunity to consult with you before making any significant 
changes.

    Question. The State Department conducted an after-action review 
following the development of the fiscal year 2008 budget that solicited 
input from personnel at USAID, the State Department, the Millennium 
Challenge Corporation, and other Federal departments and agencies. 
Please outline the findings of this review, and your plans for 
responding to the identified weaknesses.

    Answer. With a view toward improving the fiscal year 2009 process, 
an After Action Review (AAR) was conducted of the new budget 
formulation process. AAR sessions were attended by a mix of people from 
State and USAID regional and functional bureaus, including both working 
and senior-level individuals. It was especially important that the 
field's views were heard, therefore, mini-AAR sessions were held with 
at least one USAID mission and one embassy representative from every 
region of the world. Feedback was also solicited from key stakeholders 
such as the Department of Defense, Department of Justice, the 
Millennium Challenge Corporation, and Congressional staff and members 
of the NGO community. This feedback was incorporated into a number of 
recommended changes to the fiscal year 2009 budget process to make the 
use of foreign assistance resources more transparent, efficient and 
effective.
    Refined Roles: In an effort to formalize the field's input, as well 
as to empower them at the beginning of the budget process, the fiscal 
year 2009 process began with the Mission Strategic Plans (MSP), a joint 
State-USAID field submission of budget and allocation levels down to 
the program element. Washington direction will remain at the strategic, 
or program area level, with the field making necessary adjustments to 
program elements throughout the budget request process. This is an 
essential change in my view, as it gives the field a very prominent and 
defined role in formulating their budget request.
    Strategy Development: In recognition that country strategies should 
guide strategic budgeting and consensus building, each MSP includes 
brief country strategies. Additionally, early in the process, regional 
assistance strategy sessions and functional roundtables were held to 
ensure that everyone agrees on the strategic direction for that region/
functional area.
    Initial Budget Levels: In an effort to minimize the last minute 
changes that often need to be made, the fiscal year 2009 budget process 
will incorporate into initial budget guidance levels consideration of 
likely Congressional and Presidential priorities identified through 
regional assistance strategy sessions and functional roundtables.
    Efficiency: While we don't want to compromise participation and 
transparency, there was concern over the staff time requirements 
involved in setting the fiscal year 2008 budget. Therefore, in fiscal 
year 2009 we will reduce the number of decision points in the budget 
process and improve overall coordination in F. I am currently looking 
at ways the F organizational structure can be improved so as to 
maximize coordination with all relevant parties.
    Communication: I am working to establish clear guidelines on 
communication with the field and the bureaus here in Washington through 
weekly updates, and the distribution of the fiscal year 2009 timeline 
including responsibilities and tasks. Additionally, to further increase 
transparency, I am working on ways to communicate to the bureaus as 
changes are made throughout the allocation process and in the budget 
negotiations with the Office of Management and Budget.

    Question. An ongoing criticism has been that USAID missions were 
not adequately involved during the budget writing process, and that it 
was a Washington-driven exercise. Before Ambassador Tobias' departure, 
he had stated that field staff would be involved to a greater extent in 
the future. To what extent will you implement this commitment?

    Answer. This is a commitment I fully intend to carry out. During my 
tenure as acting administrator these past 2\1/2\ months, I have 
consulted a number of ambassadors and mission directors for their views 
on how to strengthen U.S. foreign assistance to make it more effective 
and visible in the countries they represent. I am soliciting 
suggestions from the field to make the voices of those who actually 
implement USAID programs more prominent in their formulation. I have 
charged the agency's Chief Operating Officer to convene a conference of 
mission directors in Washington, now tentatively scheduled for October.
    With a view toward improving the fiscal year 2009 process, an After 
Action Review (AAR) was conducted of the new budget formulation 
process. AAR sessions were attended by a mix of people from State and 
USAID regional and functional bureaus, including both working and 
senior-level individuals. It was especially important that the field's 
views were heard, therefore, mini-AAR sessions were held with at least 
one USAID mission and one embassy representative from every region of 
the world.
    In an effort to formalize the field's input, as well as to empower 
them at the beginning of the budget process, the fiscal year 2009 
process will begin with the Mission Strategic Plans (MSP), a joint 
State-USAID field submission of budget and allocation levels down to 
the program element. Washington direction will remain at the strategic, 
or program area level, with the field making necessary adjustments to 
programs elements throughout the budget request process. This is an 
essential change in my view, as it gives the field a very prominent and 
defined role in formulating their budget request.

    Question. I understand that AID mission staff have observed that 
the F process reduces their flexibility to transfer funds from one 
activity to another without the USAID Administrator's approval. 
Previously, such decisions could be made by the USAID Mission Director. 
Why is this level of oversight needed?

    Answer. In my time as Acting Administrator, I have worked to ensure 
that we are respecting long standing criteria regarding levels and 
amounts for programs and activities that can be transferred by the 
field without further approval from the Office of the Director of U.S. 
Foreign Assistance. I have done this to make certain that the 
appropriate balance between the field and Washington is maintained.
    The important balance I refer to is the one between ensuring fiscal 
integrity and accountability of taxpayer funds and overall coherence of 
foreign assistance programming while permitting the field to respond 
rapidly to programming needs especially near the end of the fiscal 
year. Many USAID programs are subject to cross-cutting earmarks and the 
independent decisions of mission directors moving funds can result in 
our inability to fund programs at earmarked levels. That said, we are 
working to provide mission directors with sufficient flexibility to 
reprogram funds to address the realities in the field while ensuring 
our ability to meet Congressional and administration priorities.

    Question. How do you plan to coordinate foreign aid programs 
outside the DFA's jurisdiction, such as the Millennium Challenge 
Corporation and the Coordinator for the President's Emergency Plan for 
AIDS Relief (PEPFAR)? To what degree will State and USAID programs 
complement MCC and PEPFAR programs?

    Answer. The Office of the Director of U.S. Foreign Assistance 
provides coordination and guidance to all foreign assistance delivered 
through all agencies and entities of the U.S. Government through the 
operational plan process. Operational plans provide a comprehensive, 
interagency picture of all foreign assistance resources planned for 
implementation in-country and the utilization of those resources in 
support of transformational diplomacy. Developed by the country team 
under the leadership of the ambassador, the operational plans ensure 
that all U.S. foreign assistance resources in that country are 
coordinated, appropriately linked to foreign policy objectives, and 
supportive of an integrated country strategy. They strengthen the link 
between funding, activities, and results, and collect standardized data 
about foreign assistance programs. In fiscal year 2008, all recipient 
countries will complete operational plans. In fiscal year 2007, our 
pilot year, a total of 67 countries submitted integrated operational 
plans.
    As you know, the U.S. Leadership Against HIV/AIDS, Tuberculosis, 
and Malaria Act (Public Law 108-25), enacted in 2003, provides the U.S. 
Global AIDS Coordinator with primary responsibility for the oversight 
and coordination of all resources and activities of the U.S. Government 
to combat the HIV/AIDS pandemic. The Director of U.S. Foreign 
Assistance was subsequently established by the Secretary to make every 
effort within existing statutory authority to ensure that U.S. 
assistance writ large was programmed in support of our foreign policy 
goals. The Director's responsibilities accordingly include providing 
overall coordination and guidance to U.S. foreign assistance delivered 
through other agencies and entities of the U.S. Government, including 
the Office of the U.S. Global AIDS Coordinator.
    The Millennium Challenge Act of 2003 established the Millennium 
Challenge Corporation (MCC) (Sec. 604) as an independent entity with 
its own board of directors. The Secretary of State and the 
Administrator of USAID sit on that board. In addition to the 
Secretary's authorities as a member of the MCC board, the Foreign 
Assistance Act directs that the Secretary of State shall be responsible 
for the continuous supervision and general direction of economic 
assistance to ensure that such programs are integrated and the foreign 
policy of the United States is best served. In building the fiscal year 
2009 budget, therefore, we are receiving input from MCC about projected 
expenditures in countries in which we are working. In MCC threshold and 
compact countries, teams considered proposed U.S. Government resources 
in light of the specific gaps and obstacles impeding country progress, 
as well as how best to coordinate these resources in such a way as to 
both facilitate the success of MCC programs and to amplify results. For 
example, in the fiscal year 2008 request for Ghana, we shifted funds to 
enhance the capacity of local government as the responsible party for 
implementing the MCC compact program. In El Salvador, State/USAID funds 
increased for programs to strengthen specific obstacles impeding 
country progress--the rule of law and justice sector, and other 
programs to address gang-related violence. In Honduras, economic growth 
funds actually increased overall, particularly in trade and investment 
and private sector competitiveness to complement MCC program.

    Question. What do you think is an appropriate division of labor 
between the U.S. military and civilian agencies, particularly USAID, in 
development activities? Under what circumstances, if any, do you think 
that the U.S. military should take the lead in economic and political 
development activities? What sorts of mechanisms are there to 
coordinate activities where the U.S. military and USAID are involved? 
What further mechanisms might be useful? Do you believe DoD will, or 
should, maintain a role in foreign assistance after the completion of 
military action?

    Answer. Wherever possible, U.S. development assistance should be 
carried out by civilian agencies. But exceptions to this rule can and 
do arise, as we are witnessing in Afghanistan and Iraq. Where there is 
active combat, or in extremely insecure environments, the security 
situation may not permit the exclusive deployment of civilian 
personnel. In these highly threatening environments, the presence of 
civilians depends on adequate force protection (provided by the 
military or by private security contractors) to enable their work on 
the ground. The support systems required to effectively staff missions, 
and meet the personal security requirements of our officers in hostile 
environments, is a significant strain on USAID resources.
    The unique division of labor between civilian-led and military-
assisted missions (or vice versa) is often environmentally dependent. 
The greater the threat of violent conflict or armed hostilities, the 
higher the likelihood that the military will have a role to play in 
ensuring economic and political stability. As we move along the 
continuum of conflict, from hostile to permissive environments, the 
military may play a less significant role. With relatively limited 
human resources, in proportion to the scope of the stabilizing mission 
we are pursuing in many of these insecure countries, whenever 
practicable civilian agencies have opted to yield operational control 
to the military in areas beyond our reach, while either continuing to 
maintain or enhancing intellectual control of the development space.
    In those circumstances where the civilian agencies are 
significantly stretched by the human and financial requirements of 
operating in high-threat environments, the military may take on 
additional responsibilities to facilitate economic and political 
development.
    In hostile environments, USAID staff often serve alongside military 
personnel on integrated civil-military platforms such as the Provincial 
Reconstruction Team (PRT) construct in Afghanistan and Iraq. In 
concept, these constructs allow for synchronization of civilian and 
military activities. Synchronizing various quick impact resource 
streams, such as DoD's Commanders Emergency Response Program (CERP) 
funds and USAID's quick impact funds to further security, economic, and 
political goals is one example of successful civil-military 
coordination. At a minimum, USAID officers seek to ensure that 
military-led and resourced activities are conceived and implemented in 
a way that furthers the country's economic and social development, and 
that the activities are aligned with and complement national 
development strategies. The transferability or sustainability of CERP-
like funds as control begins to shift from military to civilian 
leadership and control is an ongoing challenge.
    There is an emerging institutionalization of collaboration 
frameworks in the U.S. Government. USAID has begun working with the 
various regional Combatant Commands to develop a system for 
synchronizing their respective theater security cooperation plans with 
USAID's operational plans.
    What we could practically use now is a new framework that dictates 
civilian-military coordination of all foreign assistance engagements 
from the national to the tactical level. Theater security cooperation 
guidance and foreign assistance guidance should be published and 
promulgated simultaneously. Country plans and theater security 
cooperation plans should be produced and executed in concert. In the 
field, activity coordination is orchestrated by the country team, 
chaired by the ambassador. The EUCOM initiated Trans-Sahel 
Counterterrorism Partnership is one recent example of such cooperation 
and collaboration which will eventually lead to a better understanding 
of each others' planning systems and procedures.
    As you know, we now have an office within USAID, staffed with 
Foreign Service officers and military liaison officers, with a mission 
to institutionalize the USAID-DoD relationship through formalized 
training and education programs and collaborative policy development 
that will ultimately lead to a process that mitigates the current 
challenges to unified planning and implementation.
    USAID has developed memoranda of understanding governing the 
placement of USAID Senior Development Advisors in the U.S. Central 
Command, Special Operations Command, and European Command, and 
memoranda with other Combatant Commands are currently being negotiated. 
Four Combatant Commands have placed Military Liaison Officers with 
USAID, as well. These officer exchanges have proven invaluable in 
coordinating civilian-military activities, training and joint planning 
exercises.
    Once military objectives have been achieved in a given conflict, we 
believe that DoD should continue to support and sustain foreign 
assistance efforts in whichever way may be appropriate, to include the 
development of a civilian-controlled security sector. These activities 
however should be limited to the security sector and should not expand 
into traditional civilian development activities. But adequacy of 
funding on the civilian side remains a challenge.

    Question. Does USAID have enough people to carry out its mission? 
If not, what measures do you expect to take to address shortfalls in 
personnel?

    Answer. USAID's staffing situation is facing a crisis. This is to 
due to impending retirements and to lack of funds to recruit new 
officers. The impending retirements is a predicament similar to that 
facing the U.S. Government as a whole; years of restricted hiring at or 
under attrition and an anticipated wave of retirements as the ``baby 
boomer'' generation approaches retirement age has had a negative impact 
on USAID's ability to carry out its mission. This generation carries 
enormous experience and expertise that will take decades to replace. 
Unfortunately, we have been hiring under attrition. However, we will be 
proactive, hoping to make the case by launching a robust junior officer 
program and putting in place a comprehensive recruitment/hiring/
training/mentoring/assignment program that will effectively double the 
size of the Foreign Service staff (from 1,100 to 2,200) in the fiscal 
year 2009-2011 timeframe. This will be a very important start. These 
projections assume that we obtain sufficient funds and staff to lay the 
necessary groundwork to begin to implement a hiring plan from fiscal 
year 2008 and beyond.

    Question. Please describe what steps you would take to ensure that 
the agency is able to recruit top-level staff. Please also discuss what 
steps are needed to provide opportunities for rising junior officers, 
improve morale, and increase junior officer and overall staff retention 
rates.

    Answer. While we expect to bring on board most of our FSOs through 
junior-level entry programs (as required by the Foreign Service Act), 
we recognize that a certain percentage of hiring will have to take 
place at the higher levels, as well. We expect to address the quality 
of life for staff at both levels through expanded training, mentoring, 
and assignment opportunities, which will complement our outreach 
recruitment, and targeting minority-serving institutions to increase 
the diversity of the applicant pool. If our budgets for these 
activities can increase, we can ensure the matching of increased 
overseas positions in our USAID missions. By ensuring adequate 
positions overseas and placement of our junior officers in assignments 
that will allow them to both build a solid base as well as learn the 
intricacies of USAID's business, we hope to quickly grow a cadre of 
young officers able to take on increasing levels of responsibility. 
This will be important in improving morale of the workforce as well as 
overall retention rates.

    Question. Please describe opportunities for foreign language 
training for USAID personnel. Do USAID Foreign Service officers have 
access to the same language training opportunities as Foreign Service 
officers from the State Department? How does the agency determine which 
officers qualify for language training? If confirmed, would you seek to 
increase training opportunities for staff?

    Answer. I do not believe our training, including language training, 
has been reflective of the demands of our work. Foreign language USAID 
language training is linked to the requirement for professional level 
competency in a foreign language for career tenure. This policy is the 
same as with the State Department. Many overseas positions are 
``language-designated'' and competency requirements are established by 
the missions themselves, in consultation with the geographic bureau and 
the Office of Human Resources. If employees are assigned to language-
designated positions, they are enrolled in appropriate language 
programs until the required proficiency is achieved.
    Most USAID language training is done at the Foreign Service 
Institute, although online training is also widely available. Underway 
now is an initiative to expand Arabic competency in USAID's staff.
    I would like to review language proficiency requirements for all 
overseas positions, and to review the funding situation. This training 
cycle can be greatly improved if we can achieve a training float of 10-
20 percent and funding necessary to ensure we give our officers the 
language training they would need to effectively carry out their jobs.

    Question. What do you regard as your three most significant 
management challenges at USAID?

    Answer. At present, I believe we have four significant management 
challenges: the need to increase, train, and reposition our staffing; 
to streamline our procurement; secure and improve the quality of life 
in our facilities around the world; and invest in technology to bring 
the agency into the 21st Century and onto shared U.S. Government 
platforms.
    As program dollars have increased over the last two decades, our 
direct hire staff numbers have significantly declined from over 7,000 
in the 1970s to just over 2,000 today. Human resource reforms are vital 
to transforming the delivery of USAID assistance and we must right size 
our overseas presence and headquarters support. In addition, we must 
ensure we have the right people on staff. We must be able to access the 
technical and professional talent that is required to carry out 
transformational diplomacy. We will focus on enhanced recruitment 
processes, increased staff training, and improved staff retention 
measures. We must also position our people in the right places.
    Second, the management challenge of streamlining procurement and 
grants remains for our agency a great challenge.
    The third management challenge facing USAID is the need to provide 
adequate and secure overseas facilities. Secure facilities will protect 
our people and vital records. We must continue to move forward with 
efforts to secure our facilities and co-locate at the new embassy 
compounds, and improve the quality of life for our people.
    Our fourth management challenge is the need to invest in improved 
systems, equipment, and knowledge management to allow USAID to 
accurately account for and report on the use of taxpayer dollars. We 
must ensure that our investments in technology continue so that we can 
both effectively manage our programs and clearly explain our programs 
and their impacts to the Congress and the American people. We must, 
without doubt, find effective and near-term solutions to integration 
with the Department of State and Director of Foreign Assistance 
technology.

    Question. Until the fiscal year 2008 budget request, USAID annually 
submitted a budget justification document that included program 
notifications for every country with sectoral funding breakdowns and 
detailed descriptions of proposed project activities. Under the new 
``F'' process, budget requests are combined with the State 
Department's, generalized by objective rather than by agency, and there 
is little or no substantive detail on proposed projects. What is your 
view of this new method of budget request? Do you think the interests 
of USAID are well-served by not having your own Congressional 
presentation document with which to inform Congress of your activities?

    Answer. In February 2007, the President submitted the very first 
joint State-USAID International Affairs Congressional Budget 
Justification (CBJ) to Congress that was on time, focused, strategic, 
and prioritized to shared foreign assistance objectives. The fiscal 
year 2008 CBJ is unique in a number of ways, both as a matter of 
structure and substance. In terms of structure, it was significantly 
revised based on consultations with Congress, and provides easier 
referencing. For example, it begins with a full layout of all State and 
USAID bilateral assistance, by account, then breaks the request down by 
region and finally offers a series of user-friendly tables with 
accounts and sectors. This CBJ has account comparative information 
including introductory statements identify the purpose of funds; a 
``snapshot'' of fund allocation outlining top funding priorities; and a 
statement of changes which compares fiscal year 2008 to fiscal year 
2006 by account. There is also a complete explanation of the context 
and purpose of the fiscal year 2008 budget. The CBJ carries an overview 
section which identifies the strategic principles upon which the budget 
was based; summarizes regional priorities; and analyzes macro-level 
budget information for State and USAID bilateral assistance. The 
revised format addressed a number of the key criticisms levied on 
earlier CBJs. The new format, in combination with a number of other 
foreign assistance reforms should facilitate improved oversight.
    With all State and USAID resources directed towards any given 
country now requested and justified together, reviewers can see how all 
U.S. Government accounts and programs in the 150 account are working 
together to further transformational diplomacy. For example, in the 
fiscal year 2008 CBJ, country narratives included a discussion on 
Millennium Challenge Corporation programs as they related to the 
requested assistance programs. Next year, we hope to be able to include 
additional information from other U.S. Government agencies expending 
their own resources in these countries. With budget information 
presented both by funding account and by program, reviewers can make 
comparisons to previous CBJs and understand support for various 
programs from different funding accounts. As an additional new feature, 
each country and program narrative highlighted key changes in fiscal 
year 2008. With the new operational plans submitted by field missions 
and operating bureaus, more programmatic detail than was found in 
previous CBJs is now available to reviewers, including detail on 
management of various programs.
    USAID staff fully participates in the interagency working group 
guiding the development and improvement of the CBJ and the notification 
process, and participates in consultations with Congress. USAID 
interests remain well served by integration. We are reviewing all 
formats to ensure they are user friendly and will seek continuous 
improvements for fiscal year 2009 and after.

    Question. Under the reform process, annual operational plans are 
being written for every country that receives U.S. assistance. The 
level of detail previously provided in the above-mentioned 
Congressional budget request is reportedly provided now in the 
operational plans, but State's F Bureau has said these will not be made 
public. To what extent will these plans be made available to Congress 
or the public?

    Answer. I am committed to providing as much information on our 
foreign assistance activities as possible to our oversight committees 
and Congressional partners. We are currently looking at ways to make 
the information obtained from the fiscal year 2007 operational plans as 
user friendly and available as we can. However, the plans themselves 
contain predecisional and procurement sensitive information that cannot 
be disseminated widely. We are therefore exploring formats for future 
years' operational plans with an eye toward making some information 
more readily and widely available. In the meantime, if there is 
particular fiscal year 2007 country or other information that you would 
like to discuss, we would be happy to meet with you.

    Question. Overall, how does the agency determine the proper balance 
between shorter-term foreign policy objectives and longer-term 
development considerations when allocating resources? How is this 
trade-off managed when formulating an assistance program, for example, 
for strategically-important countries such as Pakistan?

    Answer. With proper focus and coordination, we can achieve both our 
development and diplomatic objectives without sacrificing the principle 
of long-term development for shorter term objectives. In the past, 
there was a perception that development policy and foreign policy 
objectives were entirely separate and typically at odds. Poverty 
reduction, good governance, and capacity building for sustainable long-
term success are long-held development goals. Foreign policy goals also 
now recognize that lasting peace and prosperity cannot be achieved 
unless we expand opportunities for all citizens of the global community 
to live hopeful and prosperous lives. A driving purpose behind the 
establishment of the Office of the Director of U.S. Foreign Assistance 
was to strengthen the U.S. commitment to long-term development. One of 
the key principles of foreign assistance reform has been to ensure that 
State/USAID resources support shared goals, and that our planning, 
budgeting, management, and implementation processes for foreign 
assistance capitalize on the respective strengths of State and USAID.
    In Pakistan, the U.S. Government aims to help Pakistan become a 
moderate, stable, democratic country, at peace with itself and its 
neighbors, while reducing the appeal of violent extremism. This 
strategy benefits both long-term and short-term development goals. Over 
the long term, the United States is focused on strengthening the 
education system, improving health care for families, promoting 
economic growth and opportunities, and building accountability in 
governance. Over the short term, we have used U.S. assistance to 
respond to immediate needs from the 2005 earthquake and threats in the 
war on terrorism.
    More generally, as evidence of the Secretary's commitment to long-
term development, you will find that 51 percent of the fiscal year 2008 
request for Department of State and USAID program assistance resources 
is concentrated in rebuilding and developing countries.

    Question. Are we on track to meet the President's goal of doubling 
aid to Africa by 2010? How will our programs address what many see as 
Africa's limited aid absorption capacity? How would you ensure that 
increased U.S. aid to Africa results in qualitative development 
improvements?

    Answer. Taking into consideration all United States Government 
funding, including the President's Emergency Plan for AIDS Relief 
(PEPFAR) and the Millennium Challenge Account, and assuming large 
increases in fiscal year 2009 and fiscal year 2010, we can double aid 
to Africa by 2010. Relying heavily on PEPFAR to achieve a doubling of 
aid to Africa, however, tilts our program toward investing in people, 
primarily in the health sector, rather than the more broad-based 
assistance that is necessary to help lift African countries from 
poverty.
    In Africa, the United States Government works with a broad range of 
partners: host country governments in which there is adequate capacity; 
civil society, nonprofit, and faith-based organizations; and 
contractors and grantees in every sector to ensure that our funds are 
effectively utilized.
    In each country, we ensure that development results are achieved by 
relying on our field staff, who are most familiar with conditions on 
the ground. They design programs whose aim is to move countries along 
the development continuum, which typically involves programming in a 
variety of sectors, including economic growth, democracy and 
governance, education, and health.

    Question. Please comment on how USAID plans to work with countries 
to mitigate the present and future impact of climate change in the 
developing world. What will USAID do to help countries implement 
international conventions, such as those dealing with desertification 
and climate change?

    Answer. Economic development and economic resilience are 
fundamental to efforts aimed at addressing climate change and 
desertification in developing countries. Many developing countries are 
dependent upon climate sensitive economic sectors for employment and 
growth: agriculture and forestry, fishing, and tourism; there are 
pressures on food security in many countries already. At USAID, we 
recognize that specific activities to support economic development can 
contribute to reducing emissions and increasing resilience to a 
changing environment. Actions to promote sustainable forest management 
both reduce emissions and increase resilience to climate change.
    USAID's programs include actions to address implementation of these 
two international conventions (such as improved agricultural 
productivity, sustainable forest management, integrated coastal zone 
management, revegetation of degraded lands, and access to environmental 
data and decision support tools) in its bilateral development 
assistance efforts. In turn, USAID also applies the lessons learned 
from these development assistance efforts into the evolution of the 
international conventions.
    For example, USAID has developed a Climate Change Adaptation 
Guidance Manual that will enable project planners to understand the 
potential impacts of climate change and to build resilience into 
development projects. The Adaptation Guidance Manual provides a step 
wise process for evaluation of climate change impacts applicable in the 
field; including a primer on climate-related risks, a framework for 
determining if a specific project is vulnerable, and guidance on 
interventions to increase project resilience. USAID is developing a 
map-based tool to facilitate the assessment step in adapting projects 
to climate change. This simple interface will include detailed data and 
projections in the background to ease assessment and adaptation.
    In Central America, USAID and partners support SERVIR, (an acronym 
in Spanish for Regional Visualization and Monitoring System), a hub to 
collect and process climate information, test new and innovative tools, 
and then apply that information to development problems such as weather 
prediction, fire monitoring, red tides, and disaster response. USAID 
has recently begun an enhancement effort to be able to apply the SERVIR 
model to other regions to support climate resilient development.
    Another example of a development program that promotes resilience 
to climate variability and climate change is the Famine Early Warning 
System Network (FEWS NET). This system is the product of collaboration 
among U.S. Government Agencies (USAID, NASA, USGS, USDA, NOAA) and 
local, regional, and international partners, and provides early warning 
and vulnerability information on emerging or evolving food security 
issues. Professionals in the United States and Africa monitor remotely-
sensed and ground-based data on meteorological, crop, and rangeland 
conditions to identify early indications of potential threats to food 
security. Operating in 27 countries in Africa, Asia, and South America, 
the program provides decision makers with the information to respond 
effectively to drought and food insecurity.
    Furthermore, applied agriculture research will help the vital 
agriculture sector in developing countries to adapt to climate change 
and desertification. USAID is a major donor to the Consultative Group 
on International Agriculture Research (CGIAR), which is developing heat 
and drought tolerant varieties of cereal crops, improving natural 
resource management and soil protection in semi-arid, sub-humid, and 
high-rainfall agriculture ecosystems through conservation agriculture 
and agroforestry.

  <bullet> Drought tolerant maize and rice developed through both 
        biotechnology and conventional breeding hold enormous promise 
        for achieving economic growth and insulation from shocks (e.g., 
        droughts, floods) in developing countries in South Asia and 
        Africa.
  <bullet> Improving productivity mitigates the impacts of agriculture 
        on tropical forests and biodiversity by providing alternatives 
        to clearing tropical forests, which reduces emissions and helps 
        adaptation.
  <bullet> The CGIAR is helping Middle East countries through 
        development and deployment of drought- and salinity-tolerant 
        crops and more strategic management of land and water resources 
        in countries such as Sudan, Syria, Iraq, Pakistan, Afghanistan, 
        and Yemen.

    To address desertification, USAID's Global Livestock Collaborative 
Research Support Program ``GOBI FORAGE'' is applying forage and animal 
monitoring technology to pastoral communities in Mongolia. The project 
addresses rural business development by adapting proven monitoring 
technologies so that they can be used by Mongolia's livestock 
producers. These technologies provide timely information on forage 
conditions to increase lead time for making risk mitigation decisions 
by herder groups and policy makers. Nutritional profiling to assess and 
manage livestock performance are being integrated with the forage 
monitoring technology via other funding sources (Mercy Corps and USDA) 
to enable herders to make business decisions that enhance profitability 
within an array of livestock enterprises. Formation of herder alliances 
for marketing is also being pursued in collaboration with Mercy Corps.

    Question. At present, there is no high-level leadership accountable 
for gender analysis within the new foreign assistance structure which 
would have responsibility for ensuring that gender analysis is fully 
integrated into foreign strategies and country operational plans, as 
well as to ensure that specific strategies are directed to improving 
women's status. Can you tell us how the F Bureau intends to remedy this 
problem? Could you please outline the concrete steps the F bureau will 
take to ensure that gender analysis will be incorporated throughout all 
stages of country program planning, project implementation, and 
monitoring and evaluation?

    Answer. The contributions that women make to the economic, social, 
and political lives of their nations, communities, families, and the 
next generation make them key actors in effective development, and we 
are committed to recognizing and encouraging their inclusion in our 
assistance activities. I am personally interested in encouraging this 
area.
    Promoting a stronger and more productive role for women in 
development is a priority which demands a broad and flexible approach. 
The Office of the Director of U.S. Foreign Assistance has taken a 
number of steps to ensure that gender is considered at each stage of 
the assistance process. To that end, staff consulted with gender-based 
advocacy groups in the NGO community about the appropriate integration 
of gender considerations into our planning and practices. The Foreign 
Assistance Framework definitions, used to account for and evaluate 
programs and activities, correspondingly highlight women and girls 
distinctively where possible and appropriate. For example, one program 
element on justice systems addresses whether innovations toward 
equitable access to the justice system are specifically in place for 
women. With regard to monitoring and evaluation overall, people-level 
indicators are being disaggregated, to the extent possible, by sex, to 
best track the inclusion of women and girls in foreign assistance 
programs.

    Question. I understand that, under the new reforms, USAID planning 
and implementation is conducted primarily on a country level. How does 
that affect planning and budgeting for important programs that often 
have a regional or global focus, such as environmental or human rights 
and democracy programs?

    Answer. With a view toward improving the fiscal year 2009 process, 
we conducted an After Action Review (AAR) of the new budget formulation 
process. In response to AAR feedback, we are making a number of changes 
to the fiscal year 2009 process. In advance of setting initial guidance 
levels by country and by global/regional program, roundtables are held 
by objective to provide an opportunity for functional experts to 
highlight priorities and needs, and to provide input helpful to 
determining whether programs should be funded out of country, regional, 
and/or global budgets. In addition to each country submitting a mission 
strategic plan (MSP) budget and narrative, global bureaus and regional 
missions will be asked to submit a budget and narrative for their 
proposed programs. Each of these inputs will feed into budget setting 
and allocation. Functional bureaus which are champions for such cross-
cutting issues as the environment, human rights, and democracy will 
participate in regional strategy sessions, assistance working groups, 
and senior reviews.

    Question. When disasters require immediate emergency relief, the 
administration may fund pledges by depleting most worldwide disaster 
accounts. However, these resources need to be replenished so as not to 
curtail U.S. capacity to respond to other emergencies. Please 
prioritize the current top humanitarian crises. What are your views on 
the major trends in the humanitarian area? Is the agency adequately 
funding and emphasizing disaster mitigation and prevention instruments 
that will forestall many humanitarian disasters from occurring? What 
percentage of the agency's humanitarian resources is dedicated towards 
prevention-related programming?

    Answer. The top humanitarian crises are focused primarily on 
internally displaced persons (IDPs) who are victims of natural 
disasters and internal national conflicts. The top recipients, in 
priority, of humanitarian assistance from USAID for on-going crises so 
far in fiscal year 2007 are Sudan, Iraq, Somalia, and Congo.
                                 trends
Continued Increase in Internally Displaced Persons (IDPs)
    While refugees have crossed an international border and live 
outside of their own country, the internally displaced are fleeing 
within their own country. The number of refugees in the world has been 
falling steadily since the beginning of the 1990s when it was about 18 
million, but the number of internally displaced people has increased 
exponentially. At present approximately 12 million people are living as 
refugees while between 20 and 25 million are internally displaced. The 
major reasons for this are conflict and attempts at ethnic cleansing. 
As an example, while the crisis in Darfur has generated 234,000 
refugees it has created 2.2 million internally displaced persons. (If 
the many people who are internally displaced following natural 
disasters such as flooding or earthquakes are included in the total 
figure, the estimated number of internally displaced people is higher.)
    The two groups, refugees and internally displaced people, share 
many similarities. Both have been forced to leave their homes, and 
their welfare depends to a high degree on assistance from the 
international community. While well-established frameworks exist for 
international protection and assistance in the case of refugees, the 
internally displaced are in principle dependent on the will and ability 
of their own governments to respect and enforce their rights.
Protection and the USAID IDP Policy
    Among international donors, USAID is at the forefront of the 
humanitarian community's effort to place greater emphasis on protection 
across all levels of relief planning and implementation. Vulnerable 
populations--including women, children, widows, elderly, disabled, and 
displaced persons--often bear a heavy burden in natural disasters and 
complex emergencies, having lost family and community support 
structures and burdened with the effects of poverty and low social 
status. In insecure environments, women and girls in particular are at 
risk of sexual exploitation and abuse. Since USAID adopted an agency-
wide policy for IDPs in 2004, USAID has worked with the U.N. and Non-
Governmental Organization (NGO) partners to implement and strengthen 
protection activities for vulnerable populations in emergencies. The 
United States was the first donor government to have a policy on IDPs.
Increasing Food Insecurity
    Related to food aid, the frequency and magnitude of major food 
crises is increasing due to growing chronic vulnerability. Devastating 
wars, civil strife and natural disasters have often brought in their 
wake food problems. But over the last 5 to 10 years, we have seen a 
significant increase in the numbers of people who are affected by these 
events, who face total destitution, a loss of household assets and 
livelihoods, and a chronic exposure to even the most minor of these 
shocks. Droughts in Africa are becoming more frequent. Where they used 
to come once every 10 or 20 years, they have recently begun appearing 
several times in a 10-year period, and more recently still, once in 
every 2 or 3 years. Emergency food aid needs are increasing and 
becoming less predictable, due to the fact that conflict and natural 
disasters regularly afflict and undermine the survival of a growing 
number of destitute and chronically food insecure people, who are often 
subsistence farmers, or herders and pastoralists. Despite all that is 
being done to win the war on hunger, the number of chronically 
malnourished people in the world continues to rise and stands at more 
than 850 million today. While the prevalence of undernourishment has 
fallen in 30 developing countries since the early 1990s, poverty and 
conflict have contributed to its growth elsewhere. Hunger-related 
deaths currently run to more than 25,000 each day.
Security of Humanitarian Assistance Workers
    Another major trend with respect to security is a shift in the 
paradigm used by aid organizations to protect their staff and programs. 
Traditionally, aid organizations have relied on the ``acceptance'' 
model, whereby they rely on local populations who understand and 
appreciate their activities to provide a level of protection against 
attack. Organizations are increasingly adopting additional defensive 
measures to augment their acceptance strategies. Examples include 
strengthened security management capacity and protocols, more attention 
to properly equipping and training humanitarian personnel, and enhanced 
physical security.
    USAID continues to be a leader in initiatives to systematically 
assist NGO and U.N. agencies to enhance their capacity to address 
security challenges. Examples include funding a Security Coordinator 
shared by NGOs, security training, support to the U.N. to strengthen 
their ability to support NGO security in the field, and requiring 
safety and security plans in grant proposals.
New Technologies To Save Lives
    USAID is supporting innovative approaches to assist those affected 
by disasters. For example, malnutrition kills thousands of children 
either directly or indirectly through disease each year. USAID is 
leading a trend in treating malnourished children through home 
therapeutic care. Therapeutic home care is called community management 
of acute malnutrition. With the use of community management of acute 
malnutrition, thousands more malnourished children will be able to be 
reached.
Disaster Risk Reduction/Prevention
    Among international donors, there are increased efforts to identify 
natural hazards and reduce risks in areas that are prone to recurring 
disasters. Worldwide, USAID is engaged in efforts with the 
international community to identify and reduce risks of recurring 
hazards such as floods, drought, volcanoes, and earthquakes.
    USAID believes that disaster preparedness and planning provide a 
high benefit/cost ratio for areas which have recurrent natural 
disasters. Currently, USAID provides for capacity building, 
preparedness, and planning activities to disaster prone countries as 
contingencies allow. The majority of these programs are in the Asia and 
Latin America region. USAID is working with NGOs and local institutions 
in Africa as well. Historically, USAID's Office of Foreign Disaster 
Assistance has funded capacity building and preparedness activities at 
a level of about 10 to 15 percent of core International Disaster and 
Famine Assistance funds. In addition, some P.L. 480 Title programs have 
disaster and mitigation components. For example, in Ethiopia, USAID has 
worked closely with other donors and the Ethiopian Government to help 
develop and implement a national Productive Safety Net Program targeted 
at 8 million vulnerable individuals to reduce current food security 
while building assets so as to reduce chronic food insecurity.
    In order to better utilize our finite resources, USAID's Office of 
Food for Peace has a new strategy that encompasses both emergency and 
nonemergency programs within one strategic objective to reduce food 
insecurity in vulnerable populations. The target groups under the new 
strategy are populations at risk of food insecurity because of their 
physiological status, socioeconomic status or physical security and/or 
people whose ability to cope has been temporarily overcome by a shock, 
disaster or setback. In addition, over the past 4 years, USAID has used 
the resources available under the Famine Fund to support innovative 
investments targeted to the root causes of famine.

    Question. Why, as the SIGIR has reported, did USAID have only one 
contracting officer and one technical officer to oversee 20 Iraq 
projects worth $1.4 billion? What is USAID doing to ensure adequate 
oversight of its Iraq activities?

    Answer. USAID believes it had adequate staff to fulfill its 
responsibilities to manage the contract and ensure accountability. 
USAID had assembled a team of 23 professionals tasked with monitoring 
Bechtel's activities and providing recommendations to both the contract 
officer and the cognizant technical officer--far more than the two 
referred to in the audit report. This team was composed of United 
States expatriates, local Iraqi engineers, and staff from the United 
States Army Corps of Engineers (USACE) who were co-located with USAID.
    Bechtel's contract required that it provide USAID with weekly and 
monthly progress reports on each job order, with detailed information 
on their status and financial implications. USAID personnel reviewed 
these detailed reports vigorously. USAID also maintained a schedule of 
weekly monitoring trips to the field sites despite the security 
challenges. The Defense Contract Auditing Agency (DCAA) questioned less 
than 1 percent of Bechtel's costs on its completed audit.
    USAID agrees with SIGIR that there are a number of valuable lessons 
that can be drawn from USAID's experiences managing the Bechtel 
contract. As SIGIR states them in the report, USAID has no argument, in 
principle, with any of these three ``lessons learned'' which states 
that strong contract administration and adequate staffing are critical 
to success, that a clear understanding and review of costs are 
important to contract management and that minimizing support costs 
makes more money available for reconstruction.

    Question. One problem faced by the Provincial Reconstruction Teams 
(PRTs) in Iraq has been staffing them with experts in agriculture, 
local government, and economics--the types of skills that USAID 
normally provides. What is the current status of USAID staffing of the 
PRTs? Is USAID responsible for providing these specialized technical 
skills? If so, what is being done to ensure that current deficiencies 
are addressed?

    Answer. USAID has completed Phase I and II of its commitments for 
the civilian surge 2 months ahead of schedule and has already proceeded 
to recruit and deploy PRT staff for Phase III originally scheduled for 
December 2007.
    USAID PRT staff currently comprise of 10 USAID senior Foreign 
Service officers, 12 technical experts, and 20 technical specialists in 
local governance and economic development, all on the ground in Iraq. 
We will reach our commitment to provide a total of 55 experts and 
senior staff for the PRTs well before the end of the year deadline.
    USAID has been very fortunate in attracting a cadre of very 
talented development professionals to work in Iraq. USAID draws on a 
number of sources for its staffing: our cadre of Foreign Service 
officers, the civil service staff from Washington, missions around the 
world, a large pool of retired USAID employees, and experts from the 
private sector willing and able to contribute to our efforts. As people 
leave Iraq, we recruit through our internal assignment process, through 
appeals to other USAID missions, and through public solicitations for 
services. The interest in our programs is strong, as demonstrated by 
the number of applications we receive for each position advertised.

    Question. What role did you have in planning for implementation of 
the Western Hemisphere Travel Initiative? Why do you think the 
Department was unprepared for the volume of passport applications that 
resulted?

    Answer. In my role as Under Secretary for Management, I followed 
planning for implementation of the Western Hemisphere Travel Initiative 
(WHTI), and ensured that the Bureau of Consular Affairs (CA) had the 
resources necessary to meet the challenge.
    Long before I began my current position in the summer of 2005, CA 
had begun preparing for an anticipated increase in passport demand that 
would result from provisions included in the Intelligence Reform and 
Terrorism Prevention Act passed in December 2004. To better analyze the 
likely demand, CA held consultations with the Department of Homeland 
Security (DHS) and other Federal agencies, analyzed our historical data 
and projections, and requested a study by an independent management 
consulting firm. Based on that analysis and review, we predicted that 
we would receive approximately 16.2 million passport applications in 
fiscal year 2007. Through 2005 and 2006, we steadily expanded our 
capacity to process applications and issue passports. We hired over 
2,500 employees in passport services in less than 3 years. Those 
include passport adjudicators, fraud prevention managers, line 
supervisors, and the contractors who perform nongovernmental support 
functions. We opened a fourteenth public counter passport agency in 
Denver in 2005 and expanded the physical capacity of our agencies in 
Boston, Chicago, Houston, New Orleans, and Seattle. Our two large 
passport production centers in New Hampshire and South Carolina ramped 
up and increased their hours dramatically. Today they work three shifts 
per day. We also added additional shifts at several of the other 
passport agencies. Finally, in March 2007, we opened a third large 
facility in Arkansas, which will be able to print 10 million passports 
per year.
    We projected we would receive 16.2 million passport applications in 
the course of fiscal year 2007, but we are now on pace to receive 
approximately 17.5 million--almost a million and a half more than we 
projected. This experienced group did not predict the record-setting, 
compressed demand that began last January, when applications increased 
dramatically in a very short time frame. In the final months before 
WHTI implementation in December 2006, we received approximately 1 
million applications. Then receipts spiked sharply: 1.8 million in 
January, 1.7 million in February, 2 million in March-5.5 million 
applications in a very short period of time. This is approximately 
double any historical levels experienced. Our receipts far exceeded our 
ability to keep pace with them in the traditional timeframe. As a 
result, our average processing time lengthened from 6 weeks in December 
to 10 to 12 weeks. We are at 9 to 10 weeks today.

    Question. When were you first alerted to the significant increase 
in passport applications and the fact that processing times were 
increasing? What measures did you take in response?

    Answer. I followed planning and implementation of WHTI, and, when 
processing times had increased to ten weeks, Secretary Rice and I 
worked to meet the current challenge. Secretary Rice contacted DHS 
Secretary Chertoff to work out the modalities of the flexible 
accommodation for re-entry into the United States. In addition, Deputy 
Secretary Negroponte and I on several occasions have publicly exhorted 
Department employees to volunteer for passport task force duty.
    The root of our current situation is the workload that built up 
when 5.5 million applications arrived within about 10 weeks. This far 
exceeded our ability to keep pace within our traditional timeframe. 
Average processing time lengthened from 6 weeks in December, to 12 
weeks in late spring.
    I was personally involved in the efforts to manage this 
unanticipated workload to help CA work on every part of our supply 
chain. I made calls to OPM and secured approval to waive restrictions 
that impeded the return of civil service annuitants to help process the 
work. I have had numerous conversations with our partners at Citibank 
and at AT&T to ensure that, at the highest level of their 
organizations, the urgent need to address the problem was clearly 
communicated. I personally engaged the Public Printer last year to 
request extra shifts to allow GPO to meet our need for a higher volume 
of passport books. Within the Department I took every step needed to 
ensure that CA had the funding and support it needed to hire, train, 
and rapidly expand workspace for new employees.
    The Department is committed to return to a predictable 6-week 
process while maintaining the security needs of our nation. Over the 
past several months we have brought on hundreds of extra passport 
adjudicators and passport staff, set up around-the-clock operations at 
passport processing centers, and added telephone lines to respond to 
passport queries. The statistics of the past month are positive, and we 
expect to meet our objective of returning to normal processing time for 
routine applications (6-8 weeks) in September.

    Question. What do you regard as your top three achievements as 
Under Secretary?

    Answer. The three achievements that I am most proud of are the 
technology gains the management team has brought to the personnel of 
the Department at home and overseas, the successful Global 
Repositioning launch and continuation, and the new Foreign Service 
selection process. All of these initiatives reflect our future, and 
they are the strong foundations on which we will build our future.
    On the technology gains, we have worked hard to bring the 
Department of State into the 21st Century so our people can access 
information they need and communicate anytime and from any where. 
Technology is essential to how American diplomacy will operate 
worldwide in the 21st Century. One innovative way to expand our 
presence is what we call a Virtual Presence Post, or VPP. A VPP is more 
than just a Web site, it is a tool for mobilizing available diplomatic 
resources (travel by mission officers, programs, media, and technology) 
to build our engagement with a target community where we have no 
permanent facilities. To date we have established 40 VPPs worldwide, 
with more than 20 more currently in the planning phase.
    In addition, because diplomacy entails travel and mobility 24/7/365 
in a global enterprise, our vision is to provide full, reliable access 
to all needed knowledge and computing resources at anytime from 
anywhere in the world. Today over 8,000 Department employees are mobile 
computing users, able to access our global unclassified network via 
standard end-user devices such as laptop computers and Personal Digital 
Assistants. This is a number that is increasing daily. Two years ago, 
only a handful had access to these mobile computing tools.
    We are also taking advantage of technology in our training program. 
Distance learning allows us to provide cost effective, just-in-time 
training to our workforce, anywhere/anytime training in 24 time zones. 
In the past 4 years the number of distance learning completions has 
grown from 1,697 in 2002 to over 11,000 in 2006--a more than fivefold 
increase. This number will grow even more in 2007.
    Second, global repositioning of personnel is at the heart of 
Secretary Rice's bold Transformational Diplomacy initiative. The post 
cold war world we live in is changing rapidly and we must confront new 
global challenges at an accelerated pace. In particular, transnational 
threats such as terrorism, disease, climate change, international 
criminal cartels, drug trafficking and trafficking in persons have 
become important elements of international relations.
    Global repositioning is a comprehensive, long-term plan for a 
phased repositioning of more personnel and resources to our posts 
overseas; once fully implemented it will change 10 percent of our 
overseas presence. We have begun the phases of global repositioning out 
of the resources we currently have and thus far we have shifted largely 
from Washington and Europe 285 positions, 82 percent of which are core 
diplomatic positions. About half of the overseas positions are 
distributed throughout East and South Central Asia, principally in 
China and India, but there were also significant increases for the Near 
East, African, and Latin American regions. These positions focus on 
transformational issues such as nonproliferation, counterterrorism, 
democracy-building, and getting the United States message out to local 
Muslim communities.
    Our repositioning plans include positions for a number of American 
Presence Posts, which are one person posts with only a few local 
employees and located in important cities outside national capitals. 
These smaller posts allow the Foreign Service officer to communicate 
closely with people of the host nation and get involved with carrying 
the American message to local regions and communities.
    Third, the Department of State has inaugurated an improved process 
for selecting Foreign Service officers who staff our embassies around 
the world. The process is now a year round multi-step recruiting system 
that evaluates the total person through a streamlined online written 
exam, personal evaluations, and interviews, thus retaining or even 
raising current high recruitment standards that will help us bring in 
new officers quickly and eliminate the 1-2 year waiting period. The 
first online exams under this new system will take place in September.
    To begin the registration process, the candidates go online and 
fill out an application form that gathers basic personal data, 
including education and employment history. The second part of the 
online registration is the personal narrative, in which candidates 
respond to six questions, each linked to one of the competencies 
necessary to perform Foreign Service work. The competencies are 
leadership skills, managerial skills, interpersonal skills, 
communications skills, intellectual skills, and substantive knowledge.
    After completing registration, candidates will be authorized to 
schedule a Foreign Service Officer Test appointment on a first-come, 
first-served basis according to when their registration package was 
received. The test will be computer-based and administered at proctored 
test sites across the country. The nature and difficulty of test 
questions remain unchanged from the pencil-and-paper test of past 
years, and the test still includes a written essay. The test will be 
given four times a year beginning this September.
    Consideration of the candidates who pass the written exam will be 
carried out by the qualifications evaluation panel (Panel). Complete 
files of each candidate that include their application form, responses 
to the personal narrative questions, written test score, and essay 
scores, will be reviewed and evaluated by panel to determine which 
candidates will be invited to the oral assessment. The oral assessment 
process will remain unchanged.
    We anticipate these changes will bring in the rich diversity of 
America which is a requirement in our new global engagement. We also 
anticipate those changes will bring the speed and modernization 
necessary for top recruiting in today's world.
    Last, I would like to add one more accomplishment that gives me 
immense personal satisfaction. I am very proud of the dedicated women 
and men of the Department who worked around the clock at home and 
overseas and assisted 15,000 Americans to depart safely and without 
injury from Lebanon last summer in the wake of accelerated tensions 
that resulted in conflict. We did not lose one American and, in fact, 
we gained a brand new one in the process, born on board a ship. The 
Bureau of Consular Affairs, teamed up with a number of Department 
functional and regional bureaus, and the Department of Defense to 
successfully transport our citizens home to safety and their loved 
ones.

    Question. What do you regard as the top three issues where you have 
failed to complete or fulfil the objectives you set out? In your 
judgment, why did these efforts fall short?

    Answer. The three things on which I have been working hard to 
accomplish, but we have not yet completed are getting Foreign Service 
pay reform passed, closing the shortfall in resources for State 
Department operations, and ending the passport backlog.
    On Foreign Service pay reform, the State Department and I 
personally made a strong effort within the administration to have the 
funding included in our fiscal year 2007 budget request (and now again 
in our fiscal year 2008 budget request) and to get the authorization 
language approved. We worked closely with other agencies, Senate and 
House staffers, and the American Foreign Service Association for months 
in 2006 to reach a proposal acceptable to Congress, the administration, 
and AFSA.
    However, despite this effort, we were unable to get the pay reform 
authorizing legislation passed late last year. We are trying again this 
year, and I very much hope we can achieve this goal. The officers of 
the State Department, USAID, and the other foreign affairs agencies 
below the senior level who now take, in effect, an 18.6 percent pay cut 
when serving overseas deserve better, especially given the difficult 
and dangerous conditions in which many of them work.
    One of my top goals has been to get the necessary resources for 
State Department operations, in particular for staffing aimed to 
support Secretary Rice's Transformational Diplomacy initiative and 
related training, especially in critical languages such as Arabic, 
Chinese, and Farsi. The Department needs the resources requested by the 
President to pursue diplomatic solutions to challenging national 
security issues around the world. Moreover, our diplomatic platform--
which supports more than 70,000 United States Government employees from 
more than 40 agencies at over 260 posts worldwide carrying out 
America's diplomatic and foreign assistance mission--must be properly 
staffed, fully trained, and adequately supported with the critical 
infrastructure, including IT, personal security, and secure facilities 
required to get the job done.
    We have not successfully convinced Congress how essential this 
funding is. The annual appropriation for the Department's principal 
operating account--Diplomatic & Consular Programs (D&CP)--has been 
underfunded, relative to the President's request, by more than one-half 
billion dollars altogether over the past 4 years, including the last 2 
years while I have been Under Secretary. This--plus annual inflation 
and exchange rate losses--has had a significant impact on the 
Department's operations worldwide.
    Third, this year we have not fulfilled our promises to American 
citizens to provide them with passports within the traditional 6 to 8 
week standard. In fact, our average processing time had doubled to 
about twice that. The Bureau of Consular Affairs, based on 
consultations with other United States Government agencies and a study 
by an outside management consultant, began preparing for an expected 
increase due to the provisions of the Intelligence Reform and Terrorism 
Prevention Act which was passed in December 2004. Since becoming Under 
Secretary in August 2005, I have followed the planning and 
implementation of the Western Hemisphere Travel Initiative and our 
preparation to deal with the expected increase in passport demand. Many 
steps have been taken over the past 2\1/2\ years to deal with what was 
projected to be a 33 percent increase over fiscal year 2006, including 
hiring over 2,500 employees in passport services, adding to our 
physical capacity, and increasing the hours of work substantially. 
Nevertheless, with an increase for fiscal year 2007 now projected at 45 
percent and a large spike in applications in the first 3 months of this 
calendar year--double any historical levels experienced for that 
period--our passport offices were unable to keep up with the surge of 
applications and have seen a substantial backlog develop. We have been 
taking many steps to get passport processing time back to our 
traditional standards, and we are now seeing good progress toward that 
goal.

    Question. What are the most pressing human rights issues on which 
you think USAID should work? What are the most important steps you 
expect to take to promote human rights and democracy? What do you hope 
to accomplish through these actions?

    Answer. USAID's democracy and governance programs address four 
global democracy challenges: promoting freedom and political 
competition in authoritarian states; preventing or addressing 
democratic backsliding; assisting governments in consolidating 
democracies; and strengthening democratic legitimacy and stability in 
conflict and post-conflict states. Human rights is a key component to 
addressing these challenges, especially in authoritarian states where 
the state regularly denies its citizens' fundamental rights like 
personal security, freedom of expression, and the right to dissent. 
Therefore, human rights is addressed throughout the USAID portfolio. In 
the more narrow sense, $90.3 million was spent in fiscal year 2006 to 
support a wide variety of human rights activities: public awareness 
campaigns; civic education, promoting tolerance and religious freedom; 
increasing access to justice for women, the poor, indigenous groups and 
the disabled; reducing government repression of nongovernmental 
organizations; increasing the sustainability of human rights 
organizations and improving their ability to monitor, report and 
advocate against abuses; providing legal defense for human rights 
defenders and victims of human rights abuses; caring for victims of 
torture; training the judiciary to respect human rights; and combating 
violence against women and children.
    The specific steps that USAID will take to promote democracy depend 
on the context of the countries in which we work. The same is true of 
human rights, as human rights protections are only as strong as a 
nation's political institutions as a whole. Political change happens at 
the country level, so USAID democracy programs are strategically 
designed to address the most significant impediments to democratic 
progress.
    In authoritarian states, this would mean a focus on supporting 
civil society, independent media, and democratic political movements. 
For example, in Egypt, USAID is building the management capacity of 
human rights organizations, helping civil society organizations 
campaign for greater freedom, strengthening independent media, 
promoting freedom of expression, and facilitating dialog on opening the 
political system to independent, democratic political parties.
    In consolidating democracies, the bulk of the assistance would be 
geared to strengthening democratic government institutions like the 
courts, parliaments, and local governments. In Albania, for example, 
USAID is promoting judicial inspectorates as a means for courts to 
check abuses of power and working to deter official corruption by 
professionalizing and reforming prosecutorial units. USAID also is 
facilitating local government decentralization and anticorruption 
reforms to improve government accountability.
    In complex emergencies and post-conflict settings, an urgent 
concern is the protection of civilians against targeted violence. In 
Darfur, USAID is combating the widespread use of rape as a weapon of 
war through programs to improve physical safety, monitor and 
investigate violations, hold perpetrators accountable through the 
justice system, and address the root causes of the violence.
    Internally displaced persons (IDPs) are often particularly 
vulnerable to human rights abuses. USAID supports a wide range of 
programs for IDPs<plus-minus> and other highly vulnerable groups 
including combating sexual exploitation and abuse, protecting children, 
delivering counseling and health services to survivors of violence, and 
conducting training and advocacy. In order to address human rights 
issues at the onset of a complex crisis, USAID's Disaster Assistance 
Response Teams (DARTs) include Protection Officers alongside the 
traditional humanitarian relief specialists. In cases where widespread 
human rights abuses threaten to derail critical transitions toward 
peace or democracy, USAID offers rapid, short-term, flexible assistance 
to promote security and respect for human rights and the rule of law, 
and to help transitioning societies establish accountability for past 
or ongoing atrocities.
    In post-conflict settings, reconstruction and the development of 
basic governance would also be a priority. In Afghanistan, USAID, in 
cooperation with other United States Government agencies, is 
strengthening nascent democratic institutions at the national and 
subnational levels including the executive branch, Parliament, the 
judicial and correctional systems, the police, and civil society. Some 
programs are linking the formal justice sector with informal customary 
justice systems, and improving justice at the provincial level. Other 
programs focus on stabilizing the country and integrating conflict 
mitigation, peace, and reconciliation initiatives into rural 
reconstruction programs.
    Like democracy programs, the specific results we hope to achieve 
depends on the country context. Most generally, we aim for broad 
democratic progress of the type that is measured by Freedom House, but 
our specific programs are often more narrowly focused. Democratic 
development is often a long-term process because success means 
challenging powerful entrenched interests in the countries were we are 
working. However, a recently completed study by Vanderbilt University 
has shown that every $10 million of USAID Democracy and Governance 
funding produces a fivefold increase in the amount of democratic change 
in a given country, in any given year, as measured by the Freedom House 
Scale. Rapid change is the exception, rather than the rule. However, 
USAID is able to directly impact the long-term democratic progress in 
countries where we work. The work that USAID does is complemented by 
others within the U.S Government, such as Department of the State 
Bureaus of Democracy, Human Rights and Labor, and International 
Narcotics and Law Enforcement. USAID also closely coordinates its 
democracy work with bilateral and multilateral donors.

    Question. If confirmed, how will you assure that providing long-
term assistance in the areas of democracy and governance continues to 
be an organizational priority in all regions where USAID works? What 
will you do to advance and expand the mission of the Office of 
Democracy and Governance?

    Answer. Since the second inaugural address and the launch of the 
Freedom Agenda, the promotion of democracy and governance has been a 
top priority of the United States. Subsequently the National Security 
Strategy of the United States and Secretary Rice's Transformation 
Diplomacy Goal both highlighted the importance of democracy. USAID is a 
vital part of the successful implementation of the National Security 
Strategy and Transformational Diplomacy, so I will ensure that USAID 
will continue to support democracy and governance for those reasons. 
Moreover, experience has shown that USAID's broader development goals 
such as poverty reduction, basic education, etc., will not succeed 
without functioning and accountable governments in the countries we 
work. Therefore, we will try to not just focus on country or regional 
budgets, but also provide adequate program and operating resources for 
democracy programs. As of 2005, USAID had approximately 400 democracy 
staff worldwide and we currently manage approximately 75 percent of all 
U.S. Government democracy assistance coordinated by F. The total fiscal 
year 2008 request for democracy and governance is 17 percent greater 
than the fiscal year 2006 actual appropriation. Moreover, USAID 
constantly seeks to innovate in its democracy work. USAID was the first 
donor to focus on corruption, which is now acknowledged as perhaps the 
central development issue for democratic and economic governance. We 
are now beginning to expand our work in security sector reform and 
community policing. USAID also is managing large Millennium Challenge 
Corporation threshold programs. Finally, USAID is leveraging its 
democracy work by building elements of democracy into the work done in 
other sectors, with a particular focus on transparency, accountability, 
and participatory government.
    Central to the success of USAID democracy promotion efforts is a 
strong Office of Democracy and Governance. This Office is charged with 
providing technical support to USAID missions and embassies with the 
design, measurement, and implementation of democracy programs; 
conducting cutting edge research; training and development of the USAID 
democracy cadre; and managing global democracy programs. The staff of 
the Democracy and Governance Office have played a vital role in the 
development of the U.S. Foreign Assistance Framework, as well as with 
the establishment of country-level democracy strategies and budgets. I 
am fully committed to ensuring that the office receives all of the 
resources it needs to do its job and I will continue to rely on this 
office to inform the decisions I make as both administrator, if 
confirmed, and Director of Foreign Assistance.
                                 ______
                                 

         Responses of Henrietta H. Fore to Questions Submitted 
                         by Senator Bill Nelson

                          passport processing
    Question. In response to Questions for the Record from her June 19 
testimony before the Foreign Relations Committee about refunding the 
expediting fee to passport applicants who applied for expedited 
passports but did not receive expedited service, Assistant Secretary 
Maura Harty assured the committee that: ``The Department is currently 
reviewing procedures to refund expedite fees. We are evaluating the 
best process for returning funds to applicants. We anticipate we will 
be able to publicize the new procedures on our Web site in the next 
several days. Everyone who requests expedited service had their 
application moved to the front of the line. Regrettably, that did not 
always result in completion in the stated timeframe. As our Web site 
states, anyone who paid the expedited fee and does not believe they 
received expedited service can apply for a refund.''
    Despite Ms. Harty's response to my question, the Department has 
still not publicized new procedures for refunding the expedited fee. 
You testified to the committee that you have ``several options'' for 
refunding these fees.

  <bullet> What options is the Department considering for processing 
        the refund?
  <bullet> How and when will the Department choose which option to 
        implement?
  <bullet> Why, despite Assistant Secretary Harty's testimony that this 
        would happen within several days of the passport hearing, has 
        the Department not yet publicized new procedures for processing 
        refunds?

    Answer. After we examined several options to determine when and if 
to provide refunds for certain expedited applications, I determined 
that the most effective policy would be to continue to have applicants 
apply for refunds when they have reason to believe that they did not 
receive expedited service. The State Department will then address each 
refund request carefully on a case-by-case basis.
    As of July 18, 2007, a total of 3,829,913 expedited passport 
requests have been received and acted upon in calendar year 2007; our 
passport agencies and passport centers have issued 2,716,448 expedited 
passports, 71 percent within 3 business days of receiving the 
applications. A total of 3,286,751 passports (86 percent) were likely 
to have been in customers' hands within 3 weeks of them having applied, 
the period outlined on the State Department Passport Web site.
    A total of 543,162 expedited passports out of 3,829,913, 
approximately 14 percent, were not processed within 3 weeks. Even then, 
these individuals still received expedited treatment and most had their 
passports in hand by the date they specifically requested on their 
application. In the face of unprecedented demand (more than 40 percent 
increase over last year), those who requested expedited service did 
receive priority over the millions of other Americans who applied for 
passports at the same time. The expedited applications were 
automatically given a higher priority in the queue; these individuals 
received much faster service than the applicant who did not pay for 
expedited service and whose wait climbed at one point to 12 weeks.
    To further ensure expedited service, the Department has been paying 
for expedited passports to be mailed via FEDEX and has not, unlike past 
practice, asked customers to cover this additional cost.
    In reaching the conclusion to refund on a case-by-case basis, there 
were several options.
    The first would be to issue no refunds at all given the 
unprecedented demand. This option did not merit consideration.
    The second would have been to refund the fee paid by every 
applicant who requested expedited passport service, regardless of how 
fast the requester received the passport. We do not believe that 
providing a blanket refund automatically to all applicants would be 
either appropriate or equitable.
    A third option is to provide refunds to applicants who did not 
receive their passports by the date they requested on their 
application. The Passport staff was constantly re-sorting and queuing 
applicants in order to provide those with the greatest/earliest need 
the fastest service. Thus, while some applications were not processed 
within 3 days, the passport was still received prior to the date the 
applicant requested.
    A fourth option could be to have those who paid the fee and believe 
they did not receive expedited service request a refund. Our Web site 
already contains instructions on how to apply for a refund via e-mail. 
We will review each request thoroughly and provide timely refunds to 
those who meet the requirements.

       cooperative association of states for scholarships (cass)
    Question. The Cooperative Association of States for Scholarships 
(CASS) has operated--with USAID support--for over 20 years bringing 
students from the Caribbean, Central America, and Mexico to study at a 
network of United States community colleges and other postsecondary 
institutions. The program includes three institutions in Florida 
(Hillsborough Community College, Florida Community College, and the 
University of South Florida) with which I am very familiar. Foreign 
students receive technical training in fields particularly relevant to 
the development needs of their home countries.
    Last November, USAID received from the Center for Intercultural 
Education and Development, a proposal for a new 5-year cooperative 
agreement for the program's continued operation. As I understand it, 
because of the lead time necessary to work with USAID missions to 
identify quality candidates in the various countries and to proceed 
with selection and placement at U. S. institutions, renewal needs to be 
complete by the fall to avoid unnecessary costs associated with 
entering a close-down mode and then restarting.
    Could you provide me your insights as to the status of the CASS 
renewal proposal?

    Answer. USAID has received an unsolicited proposal for the amount 
of $50 million to extend funding for CASS another 5 years beyond fiscal 
year 2007. While CASS has been an outstanding program, the global need 
for educational support demands that the United States invest its 
education resources elsewhere. Even within Latin America and the 
Caribbean, competing and higher strategic priorities in the region, 
such as Colombia, Haiti, CAFTA-DR directives, Cuba, and the Andean 
program absorb our limited resources. Further, the CASS program has 
been in effect for over 20 years; generally it is USAID policy that 
assistance awards to U.S. organizations should not be extended beyond 
10 years from the original award without full and open competition. 
Therefore, even if resources were made available, USAID policy would 
favor an award based on open competition.

              improving usaid's capacity and effectiveness
    Question. We recognize that USAID has constraints on the number of 
technical staff as a result of its OE budget, yet we also recognize 
that lack of sufficient technical staff is one of the key drivers of 
the over-use of umbrella contracts and for-profit contractors . . . 
with the result that contractors manage programs that USAID does not 
have the staff capacity to manage directly. We understand USAID 
provided an estimate of the number of technical staff it would need in 
order to reduce its dependency on contractors.
    How can we use the opportunity presented by the larger issue of 
restructuring to remedy USAIDs overdependence on inexperienced 
contractors?

    Answer. This is an excellent question that reflects one of the real 
challenges to our reduced operating budgets. USAID determined, based on 
information contained in the 2004 Annual Report, that the best 
performing project had a ratio of $1.3 million of funding per USAID 
permanent technical staff. On the other hand, average performing 
projects had a ratio of over $3 million per person.
    USAID is moving to reposition and assign Foreign Service officers 
to understaffed missions and missions in strategically important 
countries as well as to better utilize regional platforms based on the 
principles of USAID's Workforce Planning Model. While this will not 
alleviate the broader concern of insufficient staff to completely 
reduce involvement by contractors, it will better position the USAID 
talent pool to meet the critical management and leadership needs of the 
foreign assistance program.

    Question. Microcredit has helped millions of very poor people move 
out of severe poverty. Microenterprise legislation passed in 2004 
required that USAID ensure that at least 50 percent of microenterprise 
funding benefits the very poor (people living on less than $1 a day). 
The law mandates that USAID create, or certify, poverty-measurement 
tools in order to ensure this allocation of resources. I am pleased to 
learn that USAID has certified some poverty-measurement tools in the 
beginning of this year and is working to certify more.
    Can you please tell me how you will work to make certain that USAID 
successfully implements the Microenterprise Results and Accountability 
Act of 2004?

    Answer. Since passage of the legislation, USAID has been working 
vigorously to develop and certify accurate, practical, and low-cost 
poverty assessment tools, in consultation with both technical 
specialists and microenterprise organizations. USAID has now certified 
poverty assessment tools for 17 countries, and is on the verge of 
issuing guidance to all USAID-funded microenterprise organizations in 
those countries and to the USAID Missions that will help coordinate 
their efforts. All affected organizations will report the results of 
their poverty assessments through the Microenterprise Results Reporting 
system, with which they are already familiar.
    Country coverage will be expanded as additional tools become 
available. One emerging challenge is that many countries do not publish 
the household survey data needed to calibrate poverty assessment tools. 
Developing tools for those countries will require USAID to collect its 
own household survey data--a much more expensive and time-consuming 
proposition than analyzing existing data.
    USAID has also conducted four intensive training sessions in the 
use of the tools--one for U.S.-based microenterprise networks, and the 
remainder in Africa, Latin America, and Asia. Through the FIELD-Support 
cooperative agreement, USAID will sponsor training in October at the 
SEEP annual conference in the Washington, DC, for implementing 
partners. Further, USAID is developing an Internet-based training 
program, which will be free and accessible worldwide. This Internet-
based training will be added to the Internet-based help desk providing 
assistance to partners in English and Spanish.
    By requiring our partner organizations to use the certified poverty 
assessment tools, USAID will obtain a clear idea of how effective our 
programs have been at targeting individuals who are very poor. Based on 
those results, USAID will then be able to consider what programs have 
best been able to achieve our goals and what programmatic changes, if 
any, may be needed.

    Question. Also, can you please discuss how USAID might translate 
such poverty-measurement tools into its other programs in order to help 
track and ensure that appropriated development funds reach the very 
poor?

    Answer. USAID has already considered the application of poverty 
assessment tools to other programs and will continue to look for cases 
in which the benefits of doing so outweigh the costs. Poverty 
assessment tools may well be applicable in certain humanitarian relief 
or social protection programs, in which food or commodities are 
distributed directly to households. In such cases, poverty assessment 
tools might be useful to verify that program benefits are reaching the 
intended households. In contrast, poverty assessment tools may be less 
useful as a means to target program resources: targeting such benefits 
on the basis of answers to survey questions raises considerable risk of 
misreporting, thereby undermining the reliability and integrity of the 
results of the poverty assessment tools.
    I should also like to point out that, in addition to poverty 
assessment tools, USAID is actively working with its partners to 
develop broader measures of social performance. Social performance 
provides a holistic means to support USAID's efforts to reach the poor. 
Social performance considers not only the poverty level of clients, but 
also how well products are designed to meet the needs of the poor, how 
well organizations reach out to communities, and if staff members of 
partner organizations are well trained to serve poor and very poor 
clients. Social performance measures are broadly applicable both for 
microenterprise programs and for programs of other types.
                                 ______
                                 

         Responses of Harrietta H. Fore to Questions Submitted 
                        by Senator Barack Obama

    Question. I am concerned about evidence that White House aides 
conducted political briefings for U.S. diplomats that included, among 
other things, analyses of Congressional and gubernatorial races in this 
country. In one instance, according to press reporting, State 
Department officials attended a meeting at the White House at which 
political officials discussed key House races for 2002 and media 
segments that were deemed inportant for President Bush's reelection in 
2004.

What do you think about the appropriateness of these political 
        briefings?
How will you ensure such briefings do not occur again at USAID if you 
        are confirmed as the next administrator?

    Answer. As you know, the briefings for USAID staff were conducted 
prior to my appointment as acting administrator. The White House has 
expressed the view that it is appropriate for White House officials to 
provide informational briefings about the political landscape and its 
potential impact on our legislative relations to Federal agency 
appointees whose job it is to implement the President's policies.
    I certainly commit to reviewing and, if need be, revising, existing 
guidelines and policies at USAID, and to ensuring that any similar 
activities proposed to me are acceptable under all appropriate laws, 
regulations, and policies before I would approve them. I will also 
ensure that political appointees at USAID are thoroughly briefed by our 
agency ethics officer on the Hatch Act and it's requirements.

 
                              NOMINATIONS

                              ----------                              


                      WEDNESDAY, SEPTEMBER 5, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
Brinker, Nancy Goodman, to be Chief of Protocol
Kimmitt, Mark, to be Assistant Secretary of State for 
        Political-Military Affairs
Siegel, Ned L., to be Ambassador to the Commonwealth of the 
        Bahamas
Thomas, Harry K., Jr., to be Director General of the Foreign 
        Service
                              ----------                              

    The committee met, pursuant to notice, at 10:05 a.m., in 
room SD-423, Dirksen Senate Office Building, Hon. Bill Nelson 
presiding.
    Present: Senators Nelson, Casey, Coleman, Corker, and 
Isakson.
    Also present: Senators Warner, Hutchison, and Martinez.

             OPENING STATEMENT OF HON. BILL NELSON,
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Good morning. In the interest of time, I'm 
going to enter the opening statement into the record, and I 
would turn to Senator Coleman.

                STATEMENT OF HON. NORM COLEMAN,
                  U.S. SENATOR FROM MINNESOTA

    Senator Coleman. Thank you, Mr. Chairman. I just, very 
briefly, I know two of the individuals here very well and I 
know of the third. These are--they're all extraordinary 
candidates. Ned Siegel has been a friend of mine for many 
years. He is--he's an extraordinary community citizen, he's a 
man of great integrity. I think it's wonderful that he's 
willing to serve. And, I wholeheartedly endorse and support the 
President's nomination. I hope it moves forward quickly.
    Ambassador Brinker, I've also known. She is an 
extraordinary, just an extraordinary individual who has already 
given great service to this country at the highest level and 
I'm thrilled that she's willing to continue to do so.
    So, Mr. Chairman, I know we have a large panel and a lot of 
work to be done, but I just want to give my wholehearted 
endorsement and support for these two individuals who I know, 
and then, by reputation, General Kimmitt. This is a tremendous 
panel put together and I hope these nominations move forward 
very quickly and that they are confirmed by the full Senate.
    Thank you, Mr. Chairman.
    Senator Nelson. Thank you, Senator.
    I'm going to call on our colleagues for their statement. 
I'm going to call on you in order of seniority and then if you 
would like to be excused, that will enable you to go ahead and 
attend to the duties of the Senate and the House.
    So, Senator Warner, why don't we start with you?

               STATEMENT OF HON. JOHN W. WARNER,
                   U.S. SENATOR FROM VIRGINIA

    Senator Warner. Well, thank you, Chairman Nelson, Senators 
Coleman and Corker.
    I believe Tom Lantos has about 2 years on my 29. Let's 
check it out. How long you been here, Tom?
    Mr. Lantos. I would yield to you. [Laughter.]
    Senator Warner. All right. If you say so.
    Mr. Chairman and colleagues on the committee and all in 
attendance, these are joyous occasions. And, I've had well over 
100 opportunities to come before my colleagues and place my 
credibility against a nominee of a President, Democrat as well 
as Republican. But this is a most unusual one.
    I first would like to say that this fine man I've known for 
many years, as well as his family. And, I'd like to ask the 
Chair if he could take a minute to introduce his family and 
then I'll abbreviate my remarks.
    General Kimmett. Senator, thank you. I'd like to introduce 
the guests that I brought today, the members of my family. My 
wife, Cathy, my brother, Jay, my sister, Judy, all who have 
had, in some way or another, a significant association with the 
United States Senate. All----
    Senator Warner. I will deal with that. [Laughter.]
    You can stand down now.
    General Kimmett. Thank you very much. [Laughter.]
    Roger.
    Senator Warner. Years ago when I came here, Mark's father, 
Stan, after a 26-year career in the military, rising through 
the ranks from a draftee Private to Colonel and fighting in 
both World War II and Korea, went on to spend 15 years serving 
the United States Senate. First as Secretary for the majority 
under Mike Mansfield and then as Secretary of the Senate until 
1981.
    And, having had brief tours of service myself, both in 
World War II, at the end, and in Korea, we formed a very strong 
friendship. And, he was a remarkable individual, remarkable. 
And, those of us that were privileged to serve with him here in 
this institution remember him with great fondness.
    And then, the nominee's mother, Eunice, served in World War 
II as a Red Cross volunteer in France and occupied Germany in 
1945 and 1946. His brother, Bob, graduated from West Point in 
1969, served a combat tour in Vietnam, went on to serve on the 
staff of the National Security Counsel, as General Counsel to 
the Department of Treasury, Undersecretary of State for Policy, 
United States Ambassador to Germany, and currently Deputy 
Secretary, United States Treasury.
    His sister, Kathy, worked for the National Park Service in 
Washington, DC, and for Senator John Melcher in Billings, MT. 
His brother, Jay, graduated from West Point in 1972, served 
overseas tours in Korea and Hawaii, and retired as a Lieutenant 
Colonel in the Army. His sister, Mary, served 15 years with the 
National Park Service and is currently a Physician Assistant, 
having returned from serving as a Physician Assistant to United 
States troops and families in Bamberg, Germany. His sister, 
Judy, served 30 years in support of the U.S. Senate, working 
for the Sergeant of Arms and Senators Rockefeller, Kerry, and 
Carper, and currently serves as Deputy Chief of Staff to 
Senator Frank Lautenberg.
    Mark's wife, Cathy, has served 31 years as a full-time 
elementary school teacher, including teaching military 
dependants in Germany and Belgium.
    Now, we really don't have to know much about this nominee. 
His family speaks for the integrity, which was given him by his 
distinguished mother and father and his siblings.
    So, I'd like to say from the outset, that most of my 
statement can go into the record. Nevertheless, the nominee's a 
life-long Virginian. He attended grade school and high school 
in Virginia, left Virginia for West Point in 1972, graduating 
in 1976. His 30-year military career included service in 
Bosnia, Germany, Belgium, and a combat tour in Iraq from 2003 
to 2004. Upon retirement from the Army, he returned to reside 
in Arlington, VA, and currently serves as Deputy Assistant 
Secretary of Defense for the Middle East. And, in that capacity 
and his previous capacities, I have met and worked with the 
nominee on a number of occasions.
    I particularly recall when he served with General Abizaid, 
CENTCOM, and more recently during many meetings I've had at the 
Pentagon here in the last couple of years with the intelligence 
briefings.
    He has absolutely the proven qualifications to move on to 
his new position. So I would like, at this point, to simply 
conclude, ask that the balance of my statement be placed into 
the record.
    And we as Americans are grateful to you, General, and your 
family for all the service they've done. Good luck, you're on 
your own. [Laughter.]
    Senator Nelson. Thank you, Senator Warner.
    Congressman Lantos.

                 STATEMENT OF HON. TOM LANTOS,
              U.S. REPRESENTATIVE FROM CALIFORNIA

    Mr. Lantos. With your permission, Mr. Chairman, I'd like to 
yield to Senator Hutchison.
    Senator Nelson. Well, you--we're going by seniority, so we 
would certainly invite you for your comments.
    Senator Hutchison. Be my guest. Since I don't have all the 
seniority, I can't order people around like Senator Warner. So, 
I would just say, please proceed.
    Mr. Lantos. Thanks very much.
    Mr. Chairman, members of the committee, I believe this is 
the first time that the Democratic Chairman of the House 
Foreign Affairs Committee is eagerly and happily here to 
endorse the nomination of a very distinguished Republican.
    Nancy Brinker is an extraordinary human being. My wife, 
Annette, and I have had the pleasure of watching her firsthand 
during a very difficult period of Hungarian-American relations, 
perform magnificently as the American Ambassador to Budapest. 
It was a complex, difficult, very impressive assignment, and 
she discharged it magnificently.
    Her achievements in the private sector are well known to 
all of us. She has created an organization, global in scope, in 
honor of her sister who lost her life at a very early age to 
cancer. And, this organization has provided millions of people 
across the globe help and hope. I don't think the President 
could have picked anybody better qualified and more suited to 
the very difficult task that she's about to undertake. And, as 
a Democrat, I am proud to support this nomination and I look 
forward, with total confidence, that we she will discharge this 
new responsibility magnificently.
    Thank you.
    Senator Nelson. Thank you, Congressman.
    Senator Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON,
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you very much, Mr. Chairman.
    I, too, am here to introduce Nancy Brinker, who is my 
lifelong friend. I so appreciate Congressman Lantos coming over 
and making this gesture and I know that Ambassador Brinker 
relied on Congressman Lantos for advice and counsel throughout 
her term as Ambassador to Hungary. So, I so appreciate his 
endorsement of her.
    I want to say about Nancy Brinker, that she is a dynamo, a 
powerhouse, someone who never takes ``no'' for an answer. I was 
in her living room in 1982 when she started the process of 
fulfilling the promise to her dying sister, Susan G. Komen, 
that she would do everything in her power to end this disease. 
And, Nancy had a few of her friends in her living room and 
said, ``We're going to start a foundation and we're going to 
raise money for breast cancer research.''
    Since that time in 1982, the Susan G. Komen For The Cure 
has a network of over 75,000 volunteers, 100 staff members, 
affiliate groups in 120 cities in the United States and three 
in other countries, including Hungary. And, they have raised $1 
billion for breast cancer research. That really shows you the 
organizational skills of Nancy Brinker.
    She has served on Government panels under three U.S. 
Presidents. And of course, President Bush appointed her to be 
U.S. Ambassador to Hungary. I think she did a great job there 
and showed her diplomatic skills in that post. And, I can tell 
you, she has an instinct for the diplomatic. I know that she 
will do this job so well. She's organized, which you certainly 
need as Chief of Protocol. She has attention to detail, which 
you must have when dealing with foreign visitors of all 
countries that will come here. And, she will be a superb 
representative of the United States of America, which of 
course, is the role that she will serve in the State 
Department.
    So, all of those things I think show that she is the best 
person for this job. And, I hope that we will have an 
expeditious confirmation hearing.
    Thank you, Mr. Chairman.
    Senator Nelson. Thank you, Senator Hutchison.
    Senator Martinez.

                STATEMENT OF HON. MEL MARTINEZ,
                   U.S. SENATOR FROM FLORIDA

    Senator Martinez. Mr. Chairman, thank you very much. I am--
find myself in an unusual position of being on the wrong side 
of the aisle. I'm not sure why this was chosen to be today, but 
I'm delighted to be here.
    I'm very proud to be here to--I just want to make sure my 
friend, Ned Siegel, didn't think something had transpired. 
[Laughter.]
    But I'm here, very proud and honored to have the 
opportunity to present to the committee a good friend and a 
great Floridian, Ned Siegel.
    Ned is someone who has distinguished himself in his 
professional life as a law clerk, an attorney, and one of our 
most successful and distinguished developers in the State of 
Florida. I know, that in addition to that, he's also had a 
great calling for public service. He has offered himself and 
from time to time has answered the call to duty.
    He served Governor Bush, when the Governor called on him. 
He also had the opportunity to serve President Bush and this 
administration when he served on the Board of Directors of the 
Overseas Private Investment Corporation, OPIC, which does a 
terrific job of helping United States businesses invest 
overseas.
    President Bush also appointed Mr. Siegel to serve in a 
diplomatic role at the United States mission to the United 
Nations, where he served as a senior advisor.
    As the Chair knows, Florida and the Bahamas are 
interlinked. We're very connected. It's a very important post 
for us and Florida, to have an Ambassador to the Bahamas that 
be a Floridian, that be one of us, that understands our State, 
but also understands the very special relationship between our 
State and the nation of the Bahamas.
    We have issues, whether it be tourism, economic development 
and cooperation, or drug interdiction, issues of migrants that 
we have to deal with. All of which are very, very important. 
And, I know that in the past we've had a close working 
relationship, you and I, with our Ambassadors to the Bahamas.
    I believe Mr. Siegel is the right man for the job. I'm 
delighted that the President chose to appoint him. And, I look 
forward to his swift confirmation so that we can have him 
serving us in this very important post, in Nassau. I look 
forward to his confirmation and working with him as our 
ambassador.
    Mr. Chairman, if I might just take an additional moment to 
join the Nancy Brinker fan club. Ms. Brinker, we sort of claim 
her in Florida, too. I know the Senator from Texas proudly 
talked to her about being a Texan, but we think of Ambassador 
Brinker as a Floridian, and we're extremely proud of all that 
she's done and look forward to her service in this new post 
where I know she'll distinguish herself, as well.
    General, I'm sorry, but I don't have anything else to add 
on your nomination, but I'm sure it will go well as well, and 
congratulations and thank you for serving.
    With that, Mr. Chairman, I thank you for the opportunity to 
address the committee.
    Senator Nelson. Thank you, Senator Martinez.
    Now, Mr. Thomas, if you would join the folks at the table. 
We're going to do something a little different today. Because 
of the length that has been consumed by the Senators and the 
Congressman, I am going to have your statements entered into 
the record, so that that will be--your written statement will 
be--a part of the official record and we're going to turn right 
to questions. So, I would turn to Senator Coleman.
    Senator Coleman. Thank you--thank you, Mr. Chairman. Have 
the nominees had a chance, Mr. Siegel, did you have a chance to 
introduce your family? Could you do that, that would----
    Senator Nelson. Yes. Any of you who have family that you 
would like to introduce, please go ahead.
    Mr. Siegel.
    Mr. Siegel. Senator, I would like to introduce my life 
partner and wife of 31 years, Stephanie, who, has given her 
support and love and the ability to make sure that I see things 
correctly. She is sitting right behind over there. Thank you 
very much.
    Senator Nelson. Thank you.
    Ms. Brinker. And, Senator, I would like to introduce my 
son, Eric Brinker, who is just an amazing young man and has 
always been there for me. Thank you Eric.
    Senator Nelson. Mr. Thomas.
    Mr. Thomas. Yes, Senator. I'd like to introduce my wife, 
Erica Smith Thomas, a musician, and my mother, Mrs. Hildonia 
McCleary Thomas, a retired school teacher and social worker, 
and my first cousin, Ray Boyd, who has been my guide and mentor 
and is a Senior Executive Service Member of the Department of 
Defense.
    Senator Nelson. Welcome to all the members of the family. 
This is a proud day for you and it's an important in the lives 
of your loved ones. It's an important day in the conduct of the 
business of the United States.
    Senator Coleman.
    Senator Coleman. Thank you very much, Mr. Chairman. And 
again, I think this is an extraordinary panel of nominees and I 
welcome Ambassador Thomas--thank you for being part of this. 
This is a good group.
    For the audience, if there are not a lot of folks here, it 
usually there are not a lot of problems, so that's a very good 
thing, by the way. But this is an extraordinary group here.
    Let me turn to Mr. Siegel. I just have a couple questions 
for a couple of the nominees. I think far too often we are--I 
shouldn't say ignore, but don't reflect enough--on the 
importance of the Caribbean, in terms of our relationship with 
our neighbors in the hemisphere. And, I'm hopeful Mr. Siegel, 
should you be confirmed, and I would hope that would happen 
quickly, that we'll have a chance to work together to kind of 
raise the level of the relationship.
    One area of concern that I do have has to do with energy 
and with Venezuela. Clearly, our Caribbean neighbors have 
energy needs. I believe the Bahamas was signatory of the Petro 
Carib agreement with Venezuela. I don't think they have 
received oil under it, but I'd be interested in your 
reflections on whether their participation in that would have 
any impact on the United States-Bahamian relations?
    Mr. Siegel. Senator, to answer the question specifically, 
the Bahamas did, in fact, sign Petro Carib, but in fact, have 
rescinded that agreement. It's important to work with, if 
confirmed, the Bahamas in looking for alternative energy 
sources. They are dependent upon oil. Their economy is such, 
that to continue to grow in its investments and its trade, to 
look at alternative energy sources. And, I think they 
understand that a required economic platform will be required.
    So, I look forward to working with them to look for 
alternative energy sources. And, to answer your question again 
specifically, they have not followed and have rejected the 
Venezuelan influence.
    Senator Coleman. Thank you.
    In addition to our personal relationship, and I'll state 
publicly a friendship with you and your family for many years, 
we also had a chance to work together professionally. I served 
as a delegate to the United Nations, as Senate representative, 
and you served as a advisor to the U.N. mission. How has this 
experience helped you to be prepared for this new opportunity 
that you have?
    Mr. Siegel. Senator, that's a wonderful question, because 
it gives me the opportunity to share with you that that 
experience truly gave me the ability to understand what it 
meant to engage and listen to the needs of foreign countries. 
Being involved in the Security Council vote between Venezuela 
and Guatemala. The ability to reach out to other missions and 
listen to their concerns, gave me the ability to understand 
what it was or what it is, to how to interact in initiatives 
and strategies on multidimensional and bilateral relationships. 
That experience, I think, will serve me well as I deal with the 
Government of the Bahamas.
    Senator Coleman. I would hope, not a question here, but 
that in this capacity, should you be confirmed, that you would 
work with the Senate on the issue of continuing to push U.N. 
reform. It remains a high priority and it would be very helpful 
if our Caribbean neighbors were involved, working with us to 
ensure greater accountability and transparency in the United 
Nations.
    Mr. Siegel. Senator, I agree with that. If I just can add, 
the Bahamas was one of the few Caribbean countries that voted 
with us in the vote with Guatemala.
    Also, I think we see a change in 2006 in the new 
government, to vote more in our, aligned with our human rights 
issues than they have in the past and in alignment with the 
NAM, the Non-Aligned Movement countries and CARICOM.
    Senator Coleman. Let us continue to work on that.
    General Kimmitt, just two more questions, one for you. I've 
been very much concerned about the role of IMET. It's been a 
tremendous tool. We've got some new security assistance 
authorities out there. Could you reflect on the role of IMET? 
Does it remain a useful tool?
    General Kimmett. Senator, it really does. As you take a 
look at the relationships that we build with nations around the 
world, one of the primary methods that we do that, is through 
our IMET program. We take a look at nations as they send their 
officers back to our countries. They not only learn subjects of 
military applicability, but they get an opportunity to see what 
the United States is all about.
    These are young officers, in many cases, who we have 
identified as having significant potential in our relationships 
in the future. We take a look at the relationships that have 
been fostered over the years, and frankly, in those years where 
we have not brought students from different countries back to 
the States, and the difficulties we have with those nations.
    So, if confirmed, I will continue to be a strong proponent 
for the IMET program, and do everything in my capacity to 
improve that program over the years.
    Senator Coleman. Thank you, and a last question.
    Ambassador Brinker, in your opening statement which I 
read--you talked about the difference in lives of other people, 
other cultures, you can make if you can reach out to them, and 
you go on to say that your experience as a foreign Ambassador 
has prepared you for the position that the President has now 
entrusted you to undertake.
    Would you just briefly, for the record, articulate how that 
has prepared you?
    Ms. Brinker. Senator, thank you. The opportunity to serve 
overseas, I think, and live in another country always adds 
another dimension in understanding the greatness of our 
country, and at the same time, all that we can do to create 
better relationships, better bilateral relationships.
    I'm very excited, if confirmed, to take on this role, 
because I feel that there are many, many opportunities to 
develop friendships--deeper, more lasting--and enhance the 
relationships we already have with other countries. By being 
personally engaged with the diplomatic community, by doing a 
lot of outreach, introducing, where I can, what they would like 
to hear and know about our country--both in the business 
community, the professional communities, education, healthcare, 
and certainly the NGO community. And anything I can do to 
expend the base of knowledge that the diplomatic community has, 
serving in our country.
    Senator Coleman. I think you're extraordinarily well-
prepared for this position to which you've been nominated.
    Thank you, Mr. Chairman.
    Senator Nelson. Senator Corker, you have a time problem and 
wanted to make a statement?
    Senator Corker. Yes, sir, Mr. Chairman, and I thank you for 
that courtesy. I just want to thank the four nominees for 
offering themselves. We are very, very fortunate to have people 
of your backgrounds willing to do what you do. I thank you for 
coming before our committee, and I thank you for what you're 
getting ready to do again for our country.
    Thank you very much.
    Senator Nelson. Senator Casey.
    Senator Casey. Thank you, Mr. Chairman. I want to thank 
everyone who's with us today, the four nominees, and reiterate 
what's already been said about your service, your commitment to 
service, your presence here today, and your commitment to 
continue to serve our country.
    I wanted to direct my questions to General Kimmitt, as well 
as Mr. Thomas, but I did want to say to Mr. Siegel, we 
appreciate the fact that you're here with us today. You had a 
great introduction by Senator Martinez, and we appreciate the 
fact that you're serving.
    And, to Ambassador Brinker, we're grateful to your service. 
And I have to add a personal note--we get to do this once in a 
while. Where the Susan G. Komen Foundation that you founded, in 
honor of your sister--as I heard the testimony from Senator 
Hutchison, has 120 chapters, I guess, across the country. One 
of them is in my home area of Northeastern Pennsylvania, and as 
a young lawyer, I drew up the incorporation papers for that, 
and I'm proud to say that I played a small role.
    But I have to say, to give you a sense of how successful 
you've been, and how successful the Foundation has been. I live 
in a county, my home county of about a little more than 200,000 
people, and we've had thousands--literally thousands--of 
runners and walkers every September. And, I think per capita--
I've said this to people without being able to prove it--I 
think per capita, it might be the biggest race in the country. 
But, if not, probably in the top 10 per capita.
    So, we're proud of that, and we're proud of what you've 
done for the whole country in your public service, but in 
particular, if I can, personally highlight the work on breast 
cancer. Thank you.
    Ms. Brinker. Thank you, Senator. I appreciate that very 
much. Thank you for your help.
    Senator Casey. Thank you.
    First of all, General Kimmitt, I wanted to focus my 
questions at the role that the bureau plays. The Bureau of 
Political and Military Affairs. Just in terms of highlighting, 
PM as it's sometimes called--Political/Military Affairs--has 
important roles in four strategic areas--I want to make sure 
I'm right about this--counterterrorism, regional stability, 
humanitarian response, as well as homeland security. Is that 
correct?
    General Kimmett. Yes, Senator, it is. Less of a impact on 
homeland security than in the other three areas, but you are 
correct.
    Senator Casey. Thank you, and I know if we had more time, 
you'd be able to develop this more in your, in an opening 
statement, which I know will be part of the record.
    I want to ask you two or three questions. First of all, a 
question about the Portable Surface-to-Air Missiles, known by 
the acronym MANPADS. As you know, and as so many of us know, 
they continue to pose, I should say, a serious terrorist threat 
to civilian aircraft around the world. We saw that--we saw a 
version of that, I should say--in the report by the Associated 
Press, when a couple of members of the United States Senate 
were leaving Baghdad. It may not be the same technology, but 
the same threat that is out there.
    There's been a concern raised over the years about the 
funding of programs in this area, in particular, that the 
funding of these programs has been limited to millions of 
dollars per year, instead of more than that.
    Fiscal year 2008, the administration requested nearly $45 
million for destruction of small arms light weapons, including 
the so-called MANPADS, which present a direct threat--as you 
well know--to homeland security. I guess I'd ask you about the 
funding levels, whether or not you're satisfied that with the 
current level of funding to buy back or destroy excess MANPADS? 
Do you believe that more can and should be done in this regard?
    General Kimmett. Senator, I would agree with you that the 
threat that MANPADS have around the world, not simply in this 
country, but anywhere where our troops operate, where our 
civilians operate as well, continues to be a threat. That is 
one of the questions that I have asked the PM Bureau to look 
at. They have assured me that they have, not only the capacity, 
but the energy to increase this program if properly resourced.
    So if, in fact, there is an opportunity to expand the 
budget and the resources placed against that, the PM Bureau can 
certainly take good use of those resources, and expand this 
program.
    Senator Casey. Thank you, and I guess as a way of follow-
up, in terms of your work upon confirmation--how do you think 
our government should measure, measure progress in dealing with 
these small arms and light weapons? And if confirmed, how would 
you measure--in particular--the Bureau's progress in destroying 
these? If you can outline that, I think that helps us in terms 
of evaluating the role that you'll play.
    General Kimmett. Senator, as you know, PM Bureau has worked 
with over 25 countries up to this point, they've destroyed over 
21,000 MANPADS, 90 million rounds of ammunition. But that--
first of all, I think we need to understand what the net amount 
of product is out there. I'm not certain from my own 
intelligence briefings, that we certainly have a good feel for 
what's out there.
    But part of this is diplomacy--working with those 
countries, where those MANPADS exist, making sure that those 
countries are is--as concerned about the problem as we are.
    Number two, if additional resources were to be made 
available, making sure that those resources are working with 
the right people, the right organizations to get these out of 
public domain. Some of the metrics, I think, are the right 
metrics--sheer numbers, 90,000--90 million rounds of 
ammunition, 21,000 MANPADS--that's a huge number.
    But, I think it's, it's only going to reach the numbers 
that we really want to reach if we have those countries that 
we're working with, have as equal a concern about the fact that 
these present a threat--not only to American interests, but 
their interests as well. So, part of the way we would measure 
it would be, how many of the countries are actively 
participating along with us, how many of the countries are 
acquiescing, and how many countries are preventing us from 
working with them? Those would be the metrics I'd be interested 
in.
    Senator Casey. Could you restate those numbers, in terms of 
what the estimate is?
    General Kimmett. Yes, sir. Since 2002, PM assesses that 
they have been responsible for destroying 90 million rounds of 
ammunition, and 21,000 Man-Portable Air Defense devices.
    Senator Casey. Twenty-one thousand. Is there any way, I 
mean, is there a resource that your bureau--or any bureau or 
office in our government can turn to for any kind of inventory, 
or an estimate----
    General Kimmett. Senator----
    Senator Casey [continuing]. Of how many that are still out 
there?
    General Kimmett [continuing]. Senator, Jane's is typically 
a good source for approximate numbers. Our intelligence 
services are the ones that can give us more specific numbers.
    Senator Casey. Do you think, if we've destroyed--you're 
saying we've destroyed 21,000 since 2002, is there any 
estimate--that's not classified--that's out there now? Are we 
talking about tens of thousands of these? Or thousands? Is 
there any ballpark figure you can give that's not classified?
    General Kimmett. Senator, let me take that question for the 
record, and we'll get an answer back to you.
    Senator Casey. Thank you.
    And I know I'm a little bit over time, but I'll just 
quickly ask Mr. Thomas a question. The first one being a very 
important question about what undergraduate institution did you 
attend?
    Mr. Thomas. College of the Holy Cross.
    Senator Casey. Thank you. I did, too. [Laughter.]
    Senator Casey. We both believe, of course, it's the number 
one higher education institution in the United States of 
America, is that right?
    Mr. Thomas. Without a doubt, Senator.
    Senator Casey. We have a great sense of agreement here.
    Just very quickly, I know I'm over, I will try to get one 
question in. And this is something that all of us, as 
Americans, are deeply concerned about.
    A series of articles recently in USAToday, as well as a 
recent hearing in the House Foreign Affairs Subcommittee on 
Near East, South and Central Asian Affairs, raised the issue of 
foreign service personnel suffering from post-traumatic stress 
disorder, especially after tours in Iraq. I'd ask you, Mr. 
Thomas, about how you plan to overcome concerns that--and 
obviously they're understandable concerns, that foreign service 
personnel would have, that their careers would be negatively 
affected, if they come forward to seek help for a very real 
concern that they have about their own lives?
    Mr. Thomas. Thank you for that question, Senator. The 
Secretary and all of us are concerned about the health of all 
of our employees.
    According to a recent survey that we conducted, about 2 
percent of those who served in Iraq and Afghanistan believe 
they have PTSD. Perhaps another 15 percent have it, but require 
a diagnosis.
    To assist these officers, we've mandated a high-stress 
assessment health brief for people who've served in Iraq and 
Afghanistan, so that no one would have fear of being tarnished.
    We're also looking at a Deployment Stress-Management 
Program that would look to assist people before they go out. 
Senator, that has yet to be funded, but we hope that we'll be 
able to do that. We're also work with their families. We have a 
coffee klatch program one Sunday each month. If confirmed, I 
hope to attend one in October or November. We have a program to 
assist children--because they're often concerned when their 
family members are overseas--where we try to assist their 
children. So, we have a comprehensive program to assist our 
officers, and we'll look to do more, sir.
    Senator Casey. Thank you very much.
    I'm over, I'm sorry. Thank you, Mr. Chairman.
    Senator Nelson. That's an excellent question, because no 
matter where you are in a theater, the old battlefield lines 
don't apply to the battlefield of today. In addition to PTSD, 
what we are finding is that traumatic brain injury manifests 
itself--not necessarily immediately but later. So, any State 
Department personnel, for that matter--any U.S. personnel--
because we have these provisional teams that have many, across 
many different agencies--if they're within the proximity of a 
blast, the traumatic brain injury may not manifest itself right 
away, it may be later on. So that, Mr. Thomas, you're going to 
have to look out for as well. In addition to the PTSD.
    Mr. Thomas. Well, Senator, we wholeheartedly agree with 
you. And we have--working with our medical staff--we're in the 
process of developing a program. We understand that 3 to 5 
years hence, people might be affected. We're working closely 
with the Department of Labor and the Department of Defense to 
have a comprehensive program where we can assist these 
Americans. Whether they're affected today, 3, 5, or 20 years 
from now, so----
    Senator Nelson. Well, one thing you may consider--we have 
very good TBI facilities, but it's in the veteran's healthcare 
system. Now, the question is, how could you access that for 
nonmilitary personnel?
    Mr. Thomas. Sir, that's something I'll have to get back to 
you on, but we will clearly investigate that.
    Senator Isakson.
    Senator Isakson. Let me, on that subject, just as Senator 
Casey's question is a great question.
    Just last Tuesday, I held a field hearing at the Augusta 
Veteran's Hospital in Augusta, GA, where they had the first 
seamless transition from DoD to the VA for a wounded warrior, 
and where a lot of the PTSD and traumatic brain injury patients 
from the Southern Region come. And your statement is so 
correct, because I met a young lady--Sergeant Harris--who was 
in Iraq, suffered a brain injury. She was let out of the 
military because of her injury, went to the VA hospital, and 
they cured the injury, and she went back in the military.
    So, there are tremendous breakthroughs being done at the VA 
treating both PTSD and traumatic brain injury, and we should 
look to find some way for the State Department to be able to 
access the experience that those soldier were having in the 
Veterans Administration.
    Senator Nelson. And there's a good example on traumatic 
brain injury, if you can identify it quickly enough, you can 
treat it. The real problem is, when it's not identified, and 
the person goes on and on, then it's very difficult.
    Senator Isakson. And the Wounded Warrior amendments and 
bill that we did, did a great job of broadening the number of 
people who can identify PTSD in soldiers for the purpose of 
referrals like optometrists, and ophthalmologists, and people 
like that, who can sometimes recognize the symptom that might 
have been missed in just a pure medical hospital.
    Ambassador Thomas, first of all, of all of the things that 
have impressed me, being a member of Congress and the Senate, 
nothing has impressed me more than the dedication of the 
Foreign Service officers of this country. And every place that 
I have traveled, I have seen the remarkable sacrifice that they 
make, and the passion that they have for their business, and I 
know that includes you, as well.
    So, congratulations to you on this nomination, and on the 
job you've done.
    Mr. Thomas. Thank you, Senator.
    Senator Isakson. I have one question of you. In 2002, 6 
months after the 9/11 attack, I went to Ethiopia and Egypt, to 
follow up on NGO contractors using foreign aid of the United 
States in the education area, because we learned, post-9/11, 
that some of our foreign aid had actually gone to schools that 
wouldn't allow Muslim women to go to school. And part of the 
whole mission was to be sure the NGOs and the people receiving 
benefit understood that our money was conditional upon men and 
women receiving education. Which leads me to my question--what 
role do the foreign service officers perform in ensuring that 
U.S. foreign aid that goes to NGOs is used in precisely the way 
we, as America, would want it to be used?
    Mr. Thomas. Senator, thank you for that question. We work 
very closely with USAID and other agencies to make sure that 
all of our foreign assistance adheres to American law. And we 
are very committed to ensuring that boys and girls--in whatever 
society--have the opportunity to go to school.
    I was Ambassador to Bangladesh, where we had several 
programs to obtain scholarships for poor boys and girls. We 
worked in boys and girls madrassas, also educating them. And I 
do not believe that it was a lone program. I'm sure that these 
programs are replicated throughout our embassies.
    Senator Isakson. Well, the reason I ask the question is, I 
have been supportive of our foreign aid programs, because I 
think--invested, in the right way, that money can bring 
tremendous benefits, in terms of understanding America better, 
by raising the education level, and the standard of living of 
people in foreign countries. But my constituents and I are 
steadfastly opposed to that money getting in the wrong hands. 
Which is why it's so important to have a good flow of 
information back from the field to the State Department or to 
USAID, if we, in fact, find out that some of it is being spent 
less than judiciously.
    Mr. Thomas. We 100 percent agree with you, Senator.
    Senator Isakson. General Kimmitt--one quick question for 
you, I was in Kosovo in January, after the initial incursion of 
the United States back in 1999 or 2000. I know there was a 
tremendous problem with land mines left in Kosovo and people 
dying.
    Would your job, in terms of political military affairs have 
anything to do with the removal of those, or efforts to remove 
those?
    General Kimmett. Senator, the PM Bureau does, in fact, 
involve itself with humanitarian mine--de-mining operations. 
And, to my recollection, Kosovo was one of the first countries, 
very quickly after the war, after the conflict--I served in 
that conflict, as well--to declare itself landmine free, to the 
point where it is, they are no longer a threat to the local 
Kosovars.
    Senator Isakson. Well, that's important, because when I was 
there early on, there were a lot of innocent people losing 
their lives in the field, because of the land mines spread 
across the countryside.
    Congratulations on your appointment, as well, and that's 
all of the questions I have, Mr. Chairman.
    Senator Nelson. Thank you, Senator.
    Well, I'll start with you, Mr. Thomas. As we go around to 
see our embassies, the new construction standards of set-backs 
and so forth, I was struck by Ambassador Crocker, our 
Ambassador in Iraq having stated recently that sometimes 
diplomats are not able to do their jobs because of the security 
requirements in place. It is what it is, we have to protect our 
people.
    Why don't you share for the committee, what you think is an 
appropriate balance between ensuring that the diplomats and 
their families are safe, and them being able to do their jobs.
    Mr. Thomas. Thank you very much, Senator. We do agree that 
the safety of our diplomats and their families must be 
paramount. However, we also agree with Ambassador Crocker that 
our people must get out into the streets and villages and talk 
with people and assess the situation. That is very much part of 
Secretary Rice's vision of Transformational Diplomacy, that we 
do go out.
    We advise all of our ambassadors to work very closely with 
their regional security officers to, on a daily basis, assess 
the security situation, and then make a decision whether their 
people should be able to go out into the streets and villages.
    Senator Nelson. It's just extraordinary, some the security 
requirements. For example, perhaps the highest security outside 
of Iraq and Afghanistan, that we have for a United States 
Ambassador is Lebanon. A huge security package, that envelopes 
the ambassador, at all times. On the other hand, you go to a 
country, for example, from which I just returned--Vietnam--the 
necessity of security is a lot less there. Same in Thailand, 
same in Malaysia. Needless to say in Hong Kong, same thing.
    So, and yet, the constant threat of an ambassador, and an 
ambassador's family, as a representative of the United States, 
that ambassador is a target, no matter where they are.
    Mr. Thomas. Senator, I'd like to give an example of when I 
served in Bangladesh at all times, in terms of vehicles, police 
and resident security. I did not let that deter me from going 
out into villages, into streets.
    But, what I also did was take advantage of the talented 
Foreign Service, and civil service, and locally-employed staff 
that we had, where I had them go to libraries, go to villages, 
go to hospitals, and appear on television. I think that what we 
must do is take advantage--not only of the ambassador--but of 
everybody who belongs to that mission, to go out and reach the 
people. We even took our embassy, twice a year, on the road to 
different villages, where we set up all aspects of the embassy, 
including the Peace Corps, to show what we were doing. And I 
think that's what we have to do while we still assess security.
    Senator Nelson. The call is out for the need for personnel 
in Iraq in the State Department. Is that need being met 
voluntarily?
    Mr. Thomas. Yes, sir. We have met that need every year, 
through volunteers. We have not had to go to directed or 
identified assignments. We salute the brave men and women who 
have volunteered to serve in Iraq and Afghanistan.
    Senator Nelson. So, there's not a shortage that is needed 
in Iraq? Because of the lack of volunteers?
    Mr. Thomas. Not to date, sir. However, if that did come, 
and we had to identify or direct assignments, we would do that. 
But we have not had to. In fact, among our junior officers, we 
have more junior officers applying to serve in Iraq and 
Afghanistan then we have spaces for junior officers.
    Senator Nelson. What about the drain on personnel, since 
there's been a call out among consular officials to come in and 
help with the passport fiasco?
    Mr. Thomas. Well, Senator, I think we all need to 
participate. And, what I did--when I left my job as Executive 
Secretary--I spent 2 weeks adjudicating passports--a few blocks 
from here. I wasn't the only one. Former Ambassador Mike Marine 
of Vietnam, and several other senior officers pitched in. And 
last week, I spent time in London, doing consular work, 
adjudicating passports, and assisting American citizens.
    So, we were able to meet that challenge through the great 
efforts of our civil servants, Foreign Service officers. Even 
retirees came out to assist us. And we're very proud that we're 
at 1.3 million passports and are meeting the requirements and 
the needs of the American citizens.
    Senator Nelson. One point three million?
    Mr. Thomas. One point three million requests.
    Senator Nelson. Requests?
    Mr. Thomas. Yes.
    Senator Nelson. How many in backlog?
    Mr. Thomas. That's 1.3 million in backlog.
    Senator Nelson. In backlog?
    Mr. Thomas. Yes.
    Senator Nelson. And when do you think that's going to be 
cleared?
    Mr. Thomas. Well, we hope by September 30, that we are down 
to our normal 4-6 week window.
    Senator Nelson. And how many is that?
    Mr. Thomas. That would be probably about 1 million. If we 
can--if we're at a million, we can probably get people their 
passports in 4 to 6 weeks. But really, Senator, when I was 
working there, we were--people were working overtime, unpaid, 
to meet this need. And if you had an extraordinary need, where 
you needed to travel immediately, or within a day, we were 
meeting that, in August.
    Senator Nelson. And you're familiar with this because of 
your previous position?
    Mr. Thomas. I'm familiar with this because, as a Foreign 
Service officer, I did consular work 20 years ago. But having 
spent the last 3 weeks working in passports, I learned much 
more than I had remembered.
    Senator Nelson. Refresh the committee's memory here. You 
worked in the past 3 weeks in passports, why?
    Mr. Thomas. I thought it was important that a senior 
officer who had been the Special Assistant to the Secretary 
show that we all need to volunteer and pitch in. But again, 
Senator, I was not the only one. We had many senior officers, 
ambassadors, and retirees who pitched in.
    Because we believe that the State Department, we're often 
the front line of defense against terrorism, but this is 
something that we can show that we can do for the average 
American, and we wanted to meet that need.
    Senator Nelson. Well, that's admirable on your part, to 
have pitched in like that. It's almost too bad you had to pitch 
in like that. Do you have any thoughts about why we got 
ourselves in the mess that we got ourselves in?
    Mr. Thomas. Well, Senator--we estimated that we would need 
a slight increase over last year, and we had a tremendous 
increase over last year. And we know the history. But the 
important thing to us, sir, is that we have met that, and we're 
working to ensure that this does not happen again. We've opened 
new passport centers in Arkansas and expanded our facilities in 
Florida and New Hampshire. We've hired new adjudicators. So, we 
are confident that we will not have to go through this again, 
sir.
    Senator Nelson. I can certainly speak for all of the 
members of this committee in hoping that you are correct on 
that, because of the cries of anguish of our constituents, with 
regard to passports.
    I have checked with consular officials around the globe, 
and I find that they feel very sanguine, very supportive of 
Mrs. Hardy, who is the head of that--I don't remember the 
title, but----
    Mr. Thomas. Consular Affairs, sir.
    Senator Nelson [continuing]. Consular Affairs. And they 
feel that she has done a great job. Do you know her?
    Mr. Thomas. Yes, sir. In fact, we're long-time colleagues, 
but I had lunch with her yesterday to report on my 2 weeks 
working here and my 1 week in London, to give her an 
assessment. And I told her that she really is a true hero to 
the people that work for her. She inspires them on a daily 
basis. And I was very much impressed by the work we were doing 
here and in London.
    Senator Nelson. She has appeared in front of this committee 
and places the blame on herself for not anticipating the extra 
surge in the passports. Do you think that's fair to her?
    Mr. Thomas. Sir, it's not for me to assess blame or damage. 
I think the important thing is that Assistant Secretary Hardy 
has led the effort to meet the needs and requirements of the 
American people in terms of the passports.
    Senator Nelson. Except that it's the responsibility of this 
committee in its oversight capacity, to make sure that this 
never happens again. And, it's interesting to this committee 
that she places the blame on herself and no one above her in 
the chain of command will take any responsibility for the 
passport fiasco having occurred. Does that strike you as odd?
    Mr. Thomas. I think it's selfless, sir, that she has 
decided to assess the blame to herself. The Secretary of State 
is responsible for everything that happens in the State 
Department. And, Secretary Rice has been very supportive of all 
of our efforts to meet these needs.
    Senator Nelson. Well, I don't want to put you on the spot 
too much, but she has a boss, who is the Assistant Secretary 
for Administration of the State Department, a Mrs. Henrietta 
Fore.
    Mr. Thomas. Undersecretary for Management, sir.
    Senator Nelson. Okay, Management.
    Mr. Thomas. Yes.
    Senator Nelson. Mrs. Hardy reports to her?
    Mr. Thomas. Yes, sir.
    Senator Nelson. Mrs. Fore does not take any responsibility. 
She has stated that to this committee. Do you think that's fair 
to put it on Ms. Hardy?
    Mr. Thomas. Sir, I can not assess Undersecretary Fore's 
opinion. I think that this is a State Department-wide 
challenge. Just like last year when we met the effort to get 
people out of Lebanon, when I worked very closely with 
Ambassador Hardy and Undersecretary Fore to get 15,000 
Americans out of Lebanon. That was a State Department response. 
This too, assisting Americans with passports, is a State 
Department response, not an individual person or an individual 
bureau's response or duty, sir.
    Senator Nelson. I appreciate your forthrightness in 
answering these questions. I can tell you the sentiment of this 
committee is that, some of us who have served in the military, 
is that the captain of the ship is responsible for everything 
that happens on that ship. And members of this committee do not 
like the fact that Mrs. Hardy has been the one who has had to 
assume all of the blame. Enough said of that.
    Let me ask you about--we've got a tremendous number of 
retirements that are coming in the Foreign Service. It looks 
like, that in May, between January and May of this year, the 
retirement office of the Department of State processed a total 
of 238 Foreign Service retirements, which was an increase of 54 
percent over the same period last year. Do you have a sense 
about these kinds of figures? Are they correct?
    Mr. Thomas. Senator, I think those figures are incorrect. I 
think they mean Foreign Service, they are combining Foreign 
Service and civil service retirements. We did have slightly 
over a hundred Foreign Services officers retire. We projected 
it at 22 percent, and it was about 23 percent. And, this was--
these people who were retiring were people who met their time 
and class. Foreign Service, just like the military, has an up 
or out system. If you do not get promoted, you are 
congratulated and you must retire. And the great bulk of people 
who are retiring now are the people who have served to the full 
Colonel equivalent level. And, their time is up.
    Senator Nelson. Your predecessor, Ambassador Staples, has 
been saying that he is noting the changing nature of what it 
means to be a Foreign Service officer and I'll quote, ``Be 
prepared to spend more time in more difficult posts with higher 
differentials, including perhaps those with danger pay or that 
require them to be separated from their families.'' Give us 
your view about what the career of a Foreign Service officer 
will be like in the future, where there may be tours that are 
hardship tours and danger posts and family separations.
    Mr. Thomas. Senator, Secretary Rice likes to refer to those 
of us who spent the majority of our careers in tough places as 
her Hell-hole gang. Well today, perhaps 70 percent of the 
Foreign Service is her Hell-hole gang, because 70 percent are 
serving in hardship tours. More than 750 are at unaccompanied 
posts.
    We live in a post-9/11 world, and what we want to ensure 
now is that everyone not only serves at hardship posts, but has 
the opportunity to serve at other posts. We believe that if you 
do one of every three tours at a hardship post, then everyone 
will serve at hardship posts and other posts. We want and we're 
committed to a fair and transparent system that takes advantage 
of everyone's talents in all posts.
    As I said previously, sir. We are very concerned about 
families. We have many programs to assist families who are, 
whose spouses are at unaccompanied posts and we're going to 
continue to make them more robust.
    Senator Nelson. Will the hardship post be a requirement for 
promotion in the Foreign Service?
    Mr. Thomas. Sir, it will be a requirement to serve at 
hardship posts to enter the Senior Foreign Service. But 
practically now, it's almost impossible to come out of junior 
officer orientation without having to serve at a hardship post 
in one of your first two assignments.
    Senator Nelson. And, is the ratio, that you mentioned just 
a moment ago, three to one. Is that rule of thumb in the 
Foreign Service?
    Mr. Thomas. We believe that that will have to be the new 
rule of thumb, one out of--one out of three, to ensure that 
everyone has the opportunity to serve in hardship and 
nonhardship posts. However sir, there are people--have 
colleagues--who prefer only serving in hardship posts because 
that is where their passion is. They are very much interested 
in the Horn of Africa or China or Central America. And, we will 
not discourage these people from serving in the tours where 
they're--in the places where they're interested.
    Senator Nelson. It's been this Senator's experience that we 
really have some extraordinary talent that is serving us in the 
Foreign Service. The career Foreign Service people have been 
exceptional. That I have had the pleasure of getting to know 
and visiting in their posts scattered around the world. So, the 
kind of quality that you're getting, I think if fairly self 
evident. And, congratulations to you and I hope that continues.
    Mr. Thomas. Thank you very much, Senator.
    Senator Nelson. Thank you, Mr. Thomas.
    Mr. Thomas. Thank you.
    Senator Nelson. General, let me ask you, the President is 
signing a Defense Trade Cooperation Treaty with Australia. This 
committee was not informed of the negotiations. And, that 
negotiations which he, I think, is just signing or has just 
signed. This committee was not informed until yesterday after 
the press stories appeared. Now, you're going to be heading up 
a bureau that is responsible for those negotiations. Do you 
have any comment about that?
    General Kimmett. Senator, I will ensure that, to the extent 
possible within the PM Bureau, that there will be ongoing and 
active consultation with this committee, with the United States 
Senate, with regards to these types of consultations in the 
future.
    Senator Nelson. That's the way it's supposed to work and it 
hasn't been working that way. And, it's the obligation of this 
committee to point that out to you and to thank you for the 
commitment that you just made. Thank you.
    Foreign military financing--in the budget request for 2008, 
there is a proposed sharp cut in the foreign military financing 
for countries in the Western Hemisphere. The administration in 
the western hemisphere has only sought FMF for Columbia and El 
Salvador. And, those are all at levels less than fiscal year 
2007. And, it's proposed to zero out FMF for all other 
countries in the region of the Western Hemisphere. What do you 
think about that?
    General Kimmett. Senator, I don't and am not as familiar 
with the FMF for the Western Hemisphere as I am with the region 
that I currently deal with, which is the Middle East. And, I 
take a look at those same arguments for countries such as 
Bahrain, which hosts our Fifth Fleet, that are such a critical 
supporter of United States policies and United States 
operations. I made those same arguments about the country of 
Bahrain, but this is a matter of the administration dealing 
with those highest priority items, those highest priority 
countries. And, in the Western Hemisphere the determination was 
made that the significant return on our investment, with 
regards to Plan Colombia as well as to reward, probably one of 
our strongest western hemisphere coalition partners inside of 
Iraq, that that's where the priorities would be placed.
    So, it is a matter of prioritization. I know these 
decisions aren't taken lightly at the State Department nor 
within the interagency. We would all like to have more 
resources for every country that is a benefit to the United 
States, but I think, at the end of the day, it is a matter 
prioritization and rewarding those countries that not only need 
the most help, but those that have offered the most help to us 
as well.
    Senator Nelson. I'm going to enter in the record a table 
that will show in the Western Hemisphere what is the 2006 
actual funding, what was the 2007 request, and what was the 
2007 appropriated amount for foreign military financing in the 
Western Hemisphere, and then what was the 2008 request by the 
administration.
    Senator Nelson. And just to give you an idea: Argentina, 
$40,000, this is 2007, Bahamas, $80,000, Belize, $175,000, 
Bolivia, $25,000, Chile, $500,000, Dominican Republic, 
$725,000, Eastern Caribbean, $990,000, Ecuador, $25,000, 
Guyana, $75,000, Haiti, $990,000, Honduras, $675,000, Jamaica, 
$500,000, Nicaragua, $500,000, Panama, $775,000, Peru, $25,000, 
Surinam, $80,000. And everyone of those are zeroed out. And 
only Colombia at a level of $78 million, it's a drop from $85 
million and El Salvador, $4,800,000, a drop from $7.2 million, 
in an area of the world that we are increasingly having some 
problems.
    So, I would--it's one of the areas where we have the most 
drug trafficking and the threat of terrorism. What's happening 
is terrorism is coming out of Arabia into Africa, primarily 
through the Horn of Africa, moving across the Sahel and Sahara 
and is now being introduced into Latin America. Do you have any 
comments?
    General Kimmett. Senator, all I would say is that--that 
particularly at DoD and now in my potential future job at 
State, we have spent, I've spent many, many hours, days working 
on the issue of counterterrorism and the spread of a number of 
these groups. We are concerned about the trans-Sahel area in 
particular, the Horn of Africa, and, as you note, in the 
Western Hemisphere as well.
    And I pledge to you that in this next job I will be mindful 
of the responsibilities, not only for the source countries of 
terrorism, but also those countries as well, that could 
potentially be fertile ground, ungoverned spaces, perhaps 
responsible places that might be prone to this type of 
extremist ideology and the effects on the nation's security as 
a result.
    Senator Nelson. Well, at the same time the administration 
is seeking to conclude a new 10-year $30 billion military 
assistance agreement with Israel, a 10-year $13 billion 
military assistance agreement with Egypt, and Secretary Burns 
has stated, that for the Gulf States of Saudi Arabia, Bahrain, 
Kuwait, Oman, Qatar, and the U.A.E., that the administration, 
after having informal discussions with those countries, wants 
formal negotiations on the size and structure of new, major 
arms sales. What do you think that those military sales will 
serve in political and military purposes?
    General Kimmett. Senator, thank you for that question. I 
would note the distinguishing between foreign military sales, 
which most of that program will encompass, and for military 
financing, which would only affect the country of Bahrain, and 
possibly Oman. But I think we all are aware of the growing 
influence of Iran as a hegemonic player in the region. Its 
attempts to use all of its elements of national power, ranging 
from terrorism to a developing nuclear program, as a way to 
extend their influence in the region.
    It remains our view at the Department of Defense that the 
growth of the Iranian, the expansionism of the Iranian 
influence in the region should not go unchallenged, that this 
should not solely be the responsibility of the United States, 
but the active participation of those countries in the region 
to help themselves, to stand, to deter, to contain Iran, is the 
best method by which we can ensure that Iran, in the future if 
we can not completely eliminate Iran as a threat, at least is 
not able to extend its capabilities, it's capacities and 
influence into the countries of such significance as those that 
you have noted.
    Senator Nelson. In your experience as a military officer--
so you think that there are gaps in security that these arms 
sales will fill for those countries in the Gulf region?
    General Kimmett. Senator, yes I do. I take a look at the 
across-the-border review that was conducted by our own United 
States Air Force. That across-the-board review identified gaps 
in the Saudi capability, which are being addressed with the 
proposed Saudi arms sales package. As we have worked at CENTCOM 
and a number of the institutions that I have worked with, 
Department of Defense, the intent has been to make these 
countries in the region capable of self-defense and capable of 
standing--to be contributors to regional stability, not 
necessarily either affected by instability or causes of 
instability themselves.
    You take, for example, Lebanon recently--their victory over 
Fatah Islam at the Nahr el-Bared Camp, I think is--is a 
significant victory that is not very well reported. This is a 
country, the only Arab democracy in the region that has stood 
up against an al-Qaeda threat and is not negotiated itself into 
a position where that organization could continue to 
perpetuate.
    The Lebanese Armed Forces made a very, very tough decision 
recently, that they were going to fight this threat to the end. 
And, as we saw over the past couple of days, they have ended up 
eliminating, they have not only treated the cancer, but they 
have ensured that it does not metastasize. That was done in 
many ways through United States assistance, 1206 in particular, 
where we have been able to give the Lebanese Armed Forces 
additional capability, so that they stood up to this threat 
themselves.
    That wasn't just Lebanese soldiers that defeated Fatah 
Islam, it was also United States sniper rifles, it was United 
States artillery, it was--it was tank ammunition provided by a 
number of countries in the region. These countries can 
contribute to their own defense, they can hold back this 
scourge of extremism, if they're given the capacity, if they're 
given the confidence, if they're given the training.
    And, with regards to the arms sales packages that you 
referred to earlier, that is a larger example of helping these 
countries help themselves.
    Senator Nelson. Thank you, General.
    Mr. Siegel, you're going to the Bahamas and we've had an 
extraordinarily successful Bahamian-United States cooperation 
on drug smuggling. Do you think this new Bahamian Government 
will be able to continue to cooperate in the antidrug efforts?
    Mr. Siegel. Senator, thank you for asking that question, 
because the operation between the Bahamian Government and the 
United States has been a close operational partner in the drug 
counternarcotic initiative.
    To answer your question specifically, the Bahamas and the 
new government recently has shown a desire to increase its 
defense force spending in its base in Great Inagua, not only to 
support the maritime initiatives and also the OPAT initiatives, 
but also to reach out to Haiti and Haiti National Police to try 
to bring them into the process in combating the narcotics 
issue.
    So, the relationship that we share with the Bahamas only 
grows, and if confirmed, I look forward to working with the 
government, because preventing narcotics from reaching this 
soil is very much interdicting it on the 50- yardline in the 
Bahamas, as opposed on our goal line here when it reaches the 
shores of Florida, Senator.
    Senator Nelson. As you know, the Army is insisting that it 
removed the Blackhawk helicopters that are headquartered at 
Georgetown. Do you think that's going to undermine the progress 
that we've had in the antismuggling?
    Mr. Siegel. Senator, as of yesterday, I'm glad to report 
that next week the DEA and the Department of Defense 
representatives will meet in Georgetown to finalize plans to 
have the DEA Aviation Division, to assume the U.S. Army's role 
as a rotary wing provider at the Hawknest facility. In fact, 
the three helicopters that have been redeployed to Iraq, there 
has been an understanding and agreement and not a hiatus 
provided. There will not be a step missed in the prevention and 
OPAT's operations. Three Bell-412 helicopters, and one long-
range surveillance platform, with DoD funding, will be in place 
at the end of this month.
    Also--it also has been decided, that come October 2009, the 
DEA will provide--as those helicopters leave--three additional 
helicopters will be provided. So, Senator, as you know, you 
have yourself been very, very active in making sure that DEA 
and the Department of Defense work together to make this 
possible. And, I would like to thank you for your assistance 
and help, so that when I do, if confirmed, arrive in Bahamas, 
we can work closely and have the infrastructure continued in 
place to fight this war against narcotics.
    Senator Nelson. Well, that's welcome news. You have just 
brought us some new news, because until what you just stated 
that was decided yesterday, there was going to be a gap in the 
period of time in which they shut down the three Blackhawk 
helicopters, until you could get the new DEA helicopters in to 
replace them. And, you're saying a decision was made yesterday, 
that there will be no time gap?
    Mr. Siegel. That's true, Senator. I was told, as of 
yesterday, there was a meeting September 10 in the Hawknest 
facility in Georgetown. And, that the transference will be of a 
timely nature. So, no gap will, in fact, occur.
    Senator Nelson. Well, that is certainly welcome news, 
because of covering--the ability that we've had in the northern 
Bahamas, the central Bahamas, and the southern to cover all of 
that vastness of space with Coast Guard helicopters, Blackhawk 
Army helicopters, and DEA helicopters, have diminished the drug 
trade, substantially. And, our concern was that there was going 
to be this huge gap in the middle.
    Mr. Siegel. Yes, correct, Senator. And, to add to the 
arsenal, Southern Command's Operation Enduring Friendship, at 
the end of this year in December, will provide $2.5 million of 
equipment and communications training, personnel, maintenance, 
and four go-fast boats for maritime to support the air efforts, 
which only adds to the ability to interdict drugs.
    Senator, if I may, I was given, also, recent OPAT 
statistics to date, which are very--quite impressive of the 
operation. And to date, 427 pounds of marijuana have been 
interdicted, along with 193 plants, 190 kilos of cocaine, so 
far, this year have been interdicted, and 32 drug arrests, as a 
result of OPAT, have occurred. So, your point, Senator, is well 
taken that the necessity of these helicopters are integral in 
the continued fight against drugs that we, at the embassy, work 
with the Bahamian Government.
    Senator Nelson. That is good news. Thank you for bringing 
that to the committee.
    Mr. Siegel. Thank you, Senator.
    Senator Nelson. We--the Bahamian Government has a real 
problem in Haitian out-migration. And, they've been trying to 
repatriate as many as they pick up. You want to give us some of 
your comments on the, how the Bahamian Government would cope 
with this large migrant population?
    Mr. Siegel. Senator, the facts are pretty staggering. It 
costs the Bahamian Government approximately $1.5 million a year 
to expatriate migrants. Close to 5,000 migrants, a majority of 
them Haitian, are interdicted every year at sea. It's also 
interesting to note, that in a population of 300,000 people in 
Bahama, 20 percent, 50,000 to 60,000 are of Haitian 
nationality, some legal, some illegal.
    The strain that it does put on the Bahamian Government is 
real. We work closely with the Bahamian Government because the 
Bahamian Government is a transit point, not for these illegal 
migrants to land in the Bahamas, but also with the ultimate 
goal, to reach the shores of America. I think that, again--
Enduring Friendship, the Southern Command's involvement in 
providing go-fast boats--we will be working, and if confirmed, 
one of my roles will be to work with the Bahamian Government to 
try to outlaw, the way other governments and we have, the 
wooden sloops that provide for these illegal migrants trying to 
arrive on the shores of the Bahamas. So, it is a constant 
situation, Senator, that needs to be worked and looked at and 
continued diplomacy. And, I look forward to doing that if I'm 
confirmed.
    Senator Nelson. Well, I'm sure you're going to be confirmed 
and, as I am sure that all of you are going to be confirmed. 
And, I wish you well.
    I might note, as I have shared with you privately, that we 
had one of our best ambassadors that we've ever had to the 
Bahamas and your immediate predecessor, John Rood of 
Jacksonville. And, he succeeded one of the worst ambassadors 
that we have ever had, that the State Department had to request 
his resignation.
    And so, the good news is that there is a very good taste in 
the mouth of the Bahamians about the United States 
representation, as a result of Ambassador Rood. And, I am sure 
that's going to be the same case with you, Mr. Siegel.
    Mr. Siegel. Thank you, Senator.
    Senator Nelson. Ms. Brinker, thank you for being so 
patient. You had wanted to make some comments about diplomatic 
immunity. That, as among the responsibilities of the Chief of 
Protocol, is your determination of the eligibility of 
diplomatic immunity.
    When those issues of diplomatic immunity come to the 
attention of the public, it's often because some visiting 
diplomat has transgressed the law, some way. And, then 
diplomatic is invoked, sot that they don't have to go in front 
of the American jurisprudence system. You want to share with 
us, in your opinion, who is covered by the diplomatic immunity, 
and does it extend to their families?
    Ms. Brinker. It generally, it covers the diplomatic 
community in Washington, Senator, as you know, with the 
ambassador, the first, second--the deputy--the first, second, 
and third officer and their families. However, let me say that 
this is a subject that, if confirmed, I will be spending a lot 
of time, since it's a very serious subject. And, I believe that 
we've just circulated some important documents to the different 
embassies. Diplomatic immunity is not meant, as you know, so 
that people can avoid the law. It's simply meant--it was simply 
meant to be offered to people to do their--be able to do their 
jobs. And, in the Vienna Convention, a hundred other countries 
feel adamantly, as we do, that foreign diplomats, though 
they're not subject to U.S. criminal or civil jurisdiction, 
these are opportunities and privileges extended to individuals, 
not for their personal benefit or to shield them from 
obligation as a law.
    And, by the time a charge of whatever a diplomat, 
unfortunately, might do reaches a level of the Office of 
Protocol, you know, and if we hear from the prosecutors that, 
but for immunity, they would be charged. This is when we ask to 
waive the immunity by the host--their host country.
    Now, if the country refuses to do this, then we often ask 
the offending diplomat to leave. Diplomatic--full diplomatic 
immunity is not, of course, given to a lot of service personnel 
or down the line or to consular officers in different cities. 
But we take it very seriously and want very much for people to 
understand the laws that govern our land as we try to respect 
the laws that govern their countries, as we serve overseas.
    Senator Nelson. The flipside of that. When have we 
requested diplomatic immunity for our Foreign Service officers 
in other countries?
    Ms. Brinker. On a case-by-case basis. And, I can certainly 
give you the back-up of that over the last several years.
    Ms. Brinker. But, you know, it's handled by the Office of 
Legal Affairs in the State Department on a case-by-case basis.
    Senator Nelson. Okay. For the record, if you could provide 
that to the Committee.
    Ms. Brinker. Yes.
    Senator Nelson. I think that would round out this subject 
matter and be very helpful. And, you might also give the 
circumstances where the sending country has waived the right--
--
    Ms. Brinker. Yes.
    Senator Nelson [continuing]. Of diplomatic immunity. And, 
that would be good information in the repository of this 
committee.
    Let me ask you--Blair House will be under your 
jurisdiction. Is that right?
    Ms. Brinker. That's correct.
    Senator Nelson. What does managing Blair House involve?
    Ms. Brinker. There is a very able, able staff of 13, who 
manages, really a complex historical--it is almost very close 
to being a museum. It is a--it is a President's guest house. 
And, it is a 200-year-old house, which does not have a 
recurring budget, Senator, which often faces the problem, the 
staff does, of keeping up this really magnificent historical 
property. And it is done at a very, very low cost. In other 
words, a visiting dignitary--and this is, of course, one of the 
high points of the visit for many visiting dignitaries--to stay 
there, staff, all meals included, all services included, 
probably equals about $250 a day, which is almost unheard of in 
a hotel setting in Washington, to be able to have that kind of 
atmosphere and experience.
    And I just think that, though there is a private endowment 
in place, often times Blair House staff is faced with having to 
go to many different sources to keep the paint from peeling. 
And, I find that disturbing. The needs aren't that huge that 
there shouldn't be some recurring budget. And, I have to 
commend Randy Baumgarten and his staff at the Blair House for 
doing such a fine job of maintaining this residence.
    Senator Nelson. It was restored in the 1980s.
    Ms. Brinker. Right.
    Senator Nelson. What is its condition today?
    Ms. Brinker. It's--they do an absolutely outstanding job of 
keeping it in presentable condition, but frankly, it is going 
to be facing, at least in the next few years, significant--
significant repair and refurbishment in some of the outdated 
equipment that is there. And, it's heavily used. There were 
several hundred visits there last year, several, you know, 
thousands of meals served over the last few years. Every time 
there's a change in visit, it requires a movement of furniture, 
sometimes it requires heavy use on carpeting and--and the 
facilities. So, it does require, it is going to require quite a 
bit more support in the future. And, I would be happy to also 
give that to you, Senator. We've created a small paper, which 
we feel should be viewed by your committee. I think you'd be 
very interested to see it.
    Senator Nelson. And what you might also do is come forth 
with a plan----
    Ms. Brinker. Okay.
    Senator Nelson [continuing]. Of renovation and the needed 
annual maintenance that will be supplied by the private sector 
that, you said there's a Foundation, and what, in your plan, 
would be required by the Federal Government budget.
    Ms. Brinker. I'd be happy to.
    Senator Nelson. Because it is a national treasure and we 
want to make sure that we keep it.
    Ms. Brinker. Yes, Senator, I'm planning a--if I'm 
confirmed--we're planning on being able to host several, sort 
of, events, talks, meetings with our international and 
diplomatic community. And it's an important setting in which to 
do that. Thank you.
    Senator Nelson. Tell us about your position as Protocol 
officer. What's the proper observance of protocol? Why do we 
need a protocol officer?
    Ms. Brinker. The Protocol, the Chief of Protocol supports 
the President, Vice President, First Lady, Secretary of State, 
as needed, in all official functions that have to do with 
ceremony, visits--visits to the United States by key leaders, 
Prime Ministers, Presidents. And also supports the--as 
mentioned--the Blair House and the large, rather diplomatic 
affairs division, which is responsible for all the 
credentialing of foreign officers who come here. And keeping 
track of an ever-expanding, Senator, foreign community.
    There are a 150,000 diplomats living in the United States. 
And Diplomatic Affairs is responsible for tracking all of them, 
issuing identity cards, making sure that their arrival in the 
United States is secure and goes with a very--in a smooth way. 
And increasingly, this is becoming a difficult, an ever-more 
difficult job as the mission expands and as the resources of 
the office have not in several years.
    Senator Nelson. How does the President have time to receive 
every ambassador when he presents--he or she presents--their 
credentials?
    Ms. Brinker. That's our job. And we group the ambassadors 
into credentialing ceremonies to make it more--more palatable, 
certainly, and time-efficient for the President. We work very 
hard to make sure that each arriving ambassador has separate 
reception at the State Department, and provide for as many 
ceremonial opportunities, as well as visitations for the--for 
the diplomatic community.
    And again, using a, almost a time-motion study to make sure 
that that happens. As I said earlier, if confirmed, I'd like 
very much like to see the diplomatic community even brought 
into more of our official events and opportunities to visit 
with more of our members, more of the Congressional members and 
key leaders and individuals in the United States.
    Senator Nelson. Well, thank you to all of you. Do any of 
you have any questions of us?
    [No response.]
    Senator Nelson. Well, thank you for a most substantive 
hearing. The meeting is adjourned.
    [Whereupon, at 11:37 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record

  Responses of Brigadier General Mark Kimmitt to Questions Submitted 
                     by Senator Russell D. Feingold

    Question. The United States' arms export controls are widely 
regarded as some of the most rigorous in the world, and the United 
States is often held up as an example for other countries to follow. 
Our failure to keep track of the small arms we provided to security 
forces in Iraq has not only increased the likelihood of diversion of 
United States weapons to terrorists and insurgents but has also 
undermined this reputation. If confirmed, what steps will you take to 
prevent problems like this recurring? Do your plans include a 
comprehensive, systematic overview of current controls--including end-
use monitoring and restrictions--on all U.S. arms exports and export 
programs?

    Answer. We are proud of our record on export controls and share 
your concerns over reports of the loss of weapons transferred to Iraq. 
Under the International Traffic in Arms Regulations (ITAR) and the Arms 
Export Control Act (AECA), all export authorizations are subject to 
restrictions against any re-export, retransfer, or change in end-use. 
The Blue Lantern program is used to perform postshipment end-use checks 
to confirm that no unauthorized changes in end-use have occurred. PM, 
along with several other bureaus in the Department, is supporting the 
Department of Defense Inspector General's efforts to ensure 
accountability of weapons provided to our friends and allies in Iraq, 
and we will quickly act on any recommendations they identify regarding 
the Department's export control procedures for Iraq.

    Question. Preventing the misuse and diversion of U.S. weapons and 
military equipment is a critically important part of your mission. Do 
you think that the end-use monitoring currently performed by the State 
Department is adequate? If so, how did you arrive at this conclusion? 
If not, what do you plan to do to strengthen these controls?

    Answer. The Department and the PM Bureau have done an exceptional 
job managing the Blue Lantern end-use monitoring program. Initiated 
over 20 years ago, Blue Lantern was the first program in the world to 
routinely check end-use of defense exports. The office that manages 
Blue Lantern is regularly called upon to brief the program to foreign 
governments, international organizations, and defense industry 
symposia. In the last 3 years, the Blue Lantern program has greatly 
increased both the number and quality of end-use checks. Since 2004, 
the number of new Blue Lantern checks per annum has increased over 75 
percent, and the annual number of unfavorable cases--indicating better 
targeting of checks--has hit record highs 3 years in a row. Although we 
could always do more with more resources, it is important to note that 
the vast majority of defense trade is wholly legitimate and only a 
small fraction of defense licenses warrant end-use monitoring.

    Question. As Assistant Secretary for Political-Military Affairs, 
one of your main tasks will be to oversee U.S. efforts to help foreign 
governments build up their military forces, police, and other internal 
security forces to ``combat terrorism and enhance stability.'' As you 
know, the Foreign Assistance Act of 1961 gives the Department of State 
primacy over how and when to provide military assistance to foreign 
governments. However, in recent years the Department of Defense has 
assumed a larger role in this area. A December 2006 report by the 
majority staff of the Senate Foreign Relations Committee concluded that 
this trend risks ``weakening the Secretary of State's primacy in 
setting the agenda for U.S. relations with foreign countries,'' and 
cautioned that ``some foreign officials question what appears to be to 
them a new emphasis by the United States on military approaches to 
problems that are not seen as lending themselves to military 
solutions.'' As Assistant Secretary of State for PM you will be placed 
right in the center of this debate. Do you see the growing role of the 
Pentagon in providing military assistance, as witnessed by programs 
such as 1206 assistance, as a threat to the primacy of the State 
Department in setting the agenda for U.S. relations with foreign 
countries?

    Answer. The State Department welcomed the Congress's authorization 
of 1206 and other similar Defense Department-funded military assistance 
programs as important assets in our efforts to increase the capacities 
of key international military partners in our common struggle against 
terrorism. Since the authorization's inception, it has met key United 
States foreign policy objectives such as improving the capability of 
the Lebanese Armed Forces to respond to terrorist threats; expanding 
our southeast Asian partners' abilities to secure their strategically 
important waterways; and equipping key nations in Africa's Trans-Sahel 
to battle violent extremists emerging in their midst.
    Although 1206-funded programs draw on Defense Department resources, 
funding the programs requires the Secretary of State's full 
concurrence. This requirement ensures the programs' complete fidelity 
to U.S. foreign policy objectives. In practice, this has meant close 
coordination between U.S. Ambassadors and Combatant Commanders in the 
field, as well as between the Departments of State and Defense in 
Washington. This collaboration has produced programs that closely match 
the military needs of our partners to the over-arching goals of U.S. 
foreign policy.
    If confirmed, I pledge to continue the State Department's efforts 
to ensure that 1206 and other similar programs are consistent with U.S. 
foreign policy goals, as the State Department determines them.

    Question. What are the proper roles of the Departments of Defense 
and State, respectively, in building the capacity of foreign military 
forces? What is the role of the ambassador or chief of mission?

    Answer. Our security assistance programs are among the most 
valuable foreign policy tools we have for building partner capacity. 
Given that the vast majority of our security assistance funding is 
traditionally implemented by the Department of Defense (DoD), as well 
as our shared strategic interest in building partner capacity, DoD 
should continue to play an important advisory role in security 
assistance policy. However, security assistance policy, as an integral 
element of U.S. foreign policy, remains the responsibility of the 
Secretary of State. The Bureau of Political-Military Affairs will 
continue to serve as the primary interface between DoD and the 
Department of State. Our ambassadors have an important role to play in 
making recommendations as to which countries should receive military 
assistance as well as in providing oversight over the execution of 
programs, end-use monitoring and human rights vetting.

    Question. Do you believe that the Foreign Assistance Act provides 
enough flexibility in the area of capacity-building? Would some 
revisions be helpful? If so, in what areas?

    Answer. There are several targeted revisions that the State 
Department has requested that would improve security assistance 
authorities and permit greater flexibility in building the capacity of 
important international partners in our battle with terrorism. For 
example, the State Department supports amending certain sections of the 
Foreign Assistance Act of 1961 to allow the provision of peacekeeping 
operations (PKO) funds to law enforcement units such as gendarme forces 
to supplement military peacekeepers in peace support operations. The 
State Department has also requested an amendment to section 506 
drawdown authority to increase the annual drawdown limit, expand the 
purposes for which drawdowns are authorized, and allow the Department 
of Defense (DoD) to drawdown funds to procure new defense articles and 
services (vice having to rely on DoD stocks). This would enable quicker 
and more substantial responses to emergent capacity building needs.

    Question. When military assistance is granted through traditional 
areas, your division of the State Department and DoD perform checks to 
ensure that weapons provided to foreign governments are used in 
accordance with any transfer agreement. Who performs end-use checks in 
military equipment granted through 1206 assistance?

    Answer. All countries receiving assistance through section 1206 
authority must enter into an end-use and re-transfer agreement with the 
United States pursuant to section 505 of the Foreign Assistance Act. 
This agreement commits the recipient government to use equipment/
training in a manner that is consistent with the purposes for which 
such assistance was furnished. In addition, the 505 agreement provides 
assurances that the recipient government will safeguard the equipment 
and technology, and allows for end-use inspections of U.S.-origin 
defense equipment. As with all assistance provided through the foreign 
military sales system, end-use monitoring will be conducted as needed 
by the United States Government under the auspices of the Golden Sentry 
program.
                                 ______
                                 

   Response of Brigadier General Mark Kimmett to Question Submitted 
                    by Senator Robert P. Casey, Jr.

    Question. How many MANPADS have been produced worldwide?

    Answer. We estimate that over 1,000,000 MANPADS have been produced 
worldwide since the 1960s. Many of those already have been expended or 
destroyed because of technical obsolescence. Of the remaining systems, 
we assess that the majority are properly accounted for or safeguarded, 
but unfortunately a substantial number still remain in weak or loosely 
secured state stockpiles. Where we can, we work with countries to 
destroy surplus systems and to improve the security of those retained 
for legitimate national security. We also work on a multilateral basis, 
such as through the Wassenaar Arrangement, Organization of American 
States (OAS), and Asia-Pacific Economic Cooperation (APEC), to 
strengthen MANPADS control guidelines.
    A still smaller, but significant number of MANPADS are outside of 
national controls, either already in terrorist and insurgent hands or 
on the international black market. These are obviously our top 
priority. The number of these unregulated MANPADS is classified, but 
has been carefully considered in interagency planning activities.
    To date the Department has helped destroy over 21,000 foreign-held 
MANPADS and has commitments from other states to destroy another 6,500.
                                 ______
                                 

  Responses of Brigadier General Mark Kimmett to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. What are your views on the proper relationship between 
the Department of Defense and the Department of State in determining 
security assistance policy and in approving particular programs and 
operations?

    Answer. Our security assistance programs are among the most 
valuable foreign policy tools we have for building partner capacity. 
Given that the vast majority of our security assistance funding is 
implemented by the Department of Defense (DoD), as well as our shared 
strategic interest in building partner capacity, DoD should continue to 
play an important advisory role in security assistance policy. However, 
security assistance policy, as an integral element of U.S. foreign 
policy, remains the responsibility of the Secretary of State. The 
Bureau of Political-Military Affairs will continue to serve as the 
primary interface between DoD and the Office of the Director of Foreign 
Assistance.

    Question. Given the need to coordinate diplomatic and military 
activities, how are responsibilities best apportioned? As Assistant 
Secretary, what will be your role in that, as you see it?

    Answer. I believe my role will be to continue the inroads my 
predecessors have made in recent years, where the Departments of State 
and Defense have benefited from unparalleled cooperation and 
coordination on diplomatic and military activities. The Bureau of 
Political-Military Affairs engages the Department of Defense (DoD) on 
political-military policy issues and coordinates strategic and 
operational political-military planning between DoD, State, and often 
USAID. The Bureau coordinates State's input to DoD planning efforts to 
ensure they fully consider and are consonant with U.S. foreign policy 
objectives. The Bureau coordinated State's unprecedented participation 
in DoD's 2006 Quadrennial Defense Review as well as the ongoing 
development of DoD's new Guidance for Employment of the Force and the 
Defense Planning Scenarios. The Bureau also continues to lead the 
whole-of-government Interagency Counterinsurgency Initiative.

    Question. What steps do you plan to take to improve the planning 
and coordination of security assistance programs, so that funds are 
used most effectively and so that foreign policy concerns and 
objectives are taken into account in the planning and implementation of 
these programs?

    Answer. Security assistance remains first and foremost a foreign 
policy tool. Therefore, foreign policy concerns and objectives take 
primacy in the planning and implementation of all foreign assistance 
programs, including security assistance. The State Department has made 
significant reforms regarding all aspects of foreign assistance, most 
notably with the creation of a new Director of Foreign Assistance. The 
Director of Foreign Assistance relies heavily on the expertise of 
functional bureaus such as the Bureau of Political-Military Affairs for 
guidance on how best to achieve our national security goals through 
foreign assistance. Additionally, the Bureau of Political-Military 
Affairs, as the principal departmental link with the Department of 
Defense, helps facilitate an interdepartmental dialog through which the 
advice of our principal partner in security assistance can be 
considered. If confirmed I will ensure that the Bureau of Political-
Military Affairs continues to work closely with the Director of Foreign 
Assistance, as well as other State bureaus and the Department of 
Defense, in achieving our common goal of enhancing peace and security.

    Question. You have served 30 years on active duty in the military 
and another year as a civilian official at the Department of Defense. 
What key insights or practices will you take from those experiences in 
managing interagency relations at the Bureau of Political-Military 
Affairs? What, if any, major challenges do you anticipate in 
representing the State Department in interagency discussions on 
security assistance and other matters?

    Answer. I believe strongly that State and the Department of Defense 
(DoD) need to continue to strive to improve the ways in which we 
communicate and coordinate political-military activities and policies. 
These two departments, along with the rest of the interagency, must 
operate as one team in their service to the American people in creating 
a stable and secure international environment that is hospitable to 
American interests and values. The current program through which senior 
officials in both State and the Department of Defense serve exchange 
tours goes a long way in facilitating a closer relationship by 
providing senior foreign policy and military policy advice at the most 
senior levels of departmental leadership. Additionally, we currently 
have a robust personnel exchange program between mid-level active duty 
military and State Department officers, and I would look to expand it 
to provide a greater reservoir of interagency experience in both 
departments. One of the principal goals I will set for the Bureau of 
Political-Military Affairs is to leverage new interagency planning and 
security assistance initiatives to better coordinate the complementary 
capabilities and resources that are needed to address the diverse 
threats and opportunities we face as a nation.

    Question. What actions do you anticipate taking to fulfill Acting 
Assistant Secretary Mull's July 26, 2007 pledge to improve the 
interagency jurisdictional dispute mechanism for export control 
classification?

    Answer. I understand that Acting Assistant Secretary Mull has taken 
steps to energize an existing working-level group that reviews and 
discusses disputed cases and will establish a Deputy Assistant 
Secretary-level group to convene and resolve commodity jurisdiction 
cases that rise to that level. I pledge to review these processes to 
ensure that timelines, established in long-standing guidance issued by 
the National Security Council, are met.

    Question. What administrative or organizational improvements, if 
any, do you plan to make in the current Directorate of Defense Trade 
Controls or bureau front-office structure regarding defense trade 
licensing?

    Answer. It is my understanding the PM Bureau is in the process of 
delayering the Bureau's management hierarchy, to include restructuring 
the Directorate of Defense Trade Control's Management Office and adding 
to the responsibilities of the Deputy Assistant for Defense Trade 
Controls. I also understand that the Bureau has instituted a series of 
process reforms in the Defense Trade area, which have resulted 
initially in more efficient processing and a reduction in the overall 
backlog. If confirmed, I intend to review these efforts and determine 
what additional actions should be taken to optimize the defense trade 
licensing process. The ultimate goal will be to ensure that the 
Directorate of Defense Trade Controls is configured and equipped to get 
the job done.

    Question. What steps do you think need to be taken to reduce the 
backlog of cases pending before the Directorate of Defense Trade 
Controls?

    Answer. I understand the importance to U.S. national security and 
foreign policy interests of efficiently adjudicating license 
applications to export defense articles and services from the United 
States. The PM Bureau is experiencing an annual 8 percent increase in 
license applications and went through a period of short staffing in 
2006 that led to a backlog of some 10,000 nonadjudicated license 
applications. I understand this staffing shortfall has been largely 
addressed and the Bureau has instituted a series of measures, including 
the streamlining of referrals to DoD and a mandatory management review 
of cases over 45 and 90 days, to reduce the backlog, which now stands 
at 6,000 cases. The implementation of the Defense Trade treaties with 
the United Kingdom and Australia, should the Senate provide its advice 
and consent, also will reduce the number of license applications to the 
Bureau. If confirmed, I will make further reforms to the licensing 
process a priority.

    Question. Are staffing levels in the Directorate of Defense Trade 
Controls appropriate, given that they are at such low levels relative 
to other agencies with similar responsibilities and fewer licenses to 
process? Would higher numbers of full-time employees better enable the 
directorate to meet its licensing processing goals and ensure the best 
protection possible of U.S. national security equities to commercial 
arms sales?

    Answer. The Department recognizes the disparity between agencies 
with export licensing responsibilities and I understand is making 
progress toward reducing the number of license applications per 
licensing officer inline with Congressional mandates. For the first 
time in several years the Directorate has fully manned its military 
billets and continues to fill all civil service positions. If 
confirmed, I will make the best use of available resources to meet 
license processing goals, while protecting U.S. national security 
equities.

    Question. Does the Directorate of Defense Trade Controls have 
sufficient financial resources to carry out its mission?
    Should exporters pay greater license fees to increase the resources 
available to the directorate to process all or particularly time-
sensitive cases? Or would that give undue influence to those exporters 
with the resources to subsidize State Department operations?
    Should exporters assume, or be required to assume, a greater burden 
in inquiring about end users (and end uses) prior to the export of a 
defense article or defense service?

    Answer. The Directorate of Defense Trade Controls is currently 
about 40 percent self-financed through the collection of registration 
fees. If confirmed, I intend to explore if the Directorate can benefit 
from increasing their level of self-financing and, if so, how best to 
collect additional fees (e.g., instituting a fee for license 
applications or changing the structure of fees paid by registrants). As 
the Department of State is charged with the regulation of defense trade 
to protect our national security and foreign policy interests, any fee 
collection process implemented must be equitable and transparent. We 
cannot institute a fee collection process that unfairly benefits one 
exporter over another.
    Knowing the end user and end use of an export is a fundamental 
obligation of an exporter and is essential to the Department's review 
and consideration of any export application request. The International 
Traffic in Arms Regulations currently requires all parties to an export 
to be identified in the export application and this obligation is 
underscored in the regulations which explicitly make exporters 
responsible for the use and disposition of any exported defense 
article. Exporters have long understood this obligation and routinely 
perform due diligence on their defense trade partners and on their 
exports. The Department also plays a key role in this process by 
bringing to bear information from various sources, including classified 
information, to vet all the parties to an export application prior to 
approval. This vetting is done by screening applications against a 
watchlist of ineligible, unreliable, or suspicious parties. This 
watchlist includes information gathered from classified and other 
reporting not generally available to companies and private parties.

    Question. The Bureau of Political-Military Affairs has expanded 
widely its use of private contractors to train foreign militaries and 
carry out other missions, and it has approved the transfer of arms 
directly to such private contractors. What are your views regarding the 
advantages and risks associated with this trend?

    Answer. Broader policy questions regarding the expanded use of 
private contractors to train foreign militaries and to carry out other 
missions would be better addressed by the Department of Defense. 
Pursuant to the provisions of the Arms Export Control Act, PM Bureau 
must approve any exports of military equipment needed to support these 
contractors. In deciding whether to approve such exports, the PM Bureau 
consults closely with DoD and other interested agencies to ensure that 
they are in keeping with U.S. foreign policy.
    With regard to its own limited use of contractors engaged in 
demining operations in Afghanistan and Iraq, the PM Bureau has required 
its contractors to take adequate measures to safeguard personnel and 
protect property. In support of this effort, the PM Bureau has 
authorized the procurement of weapons and military equipment by the 
Department of State for use by the contractors. Through the contract, 
these weapons are considered government furnished equipment and are the 
property of the Department of State, to be used by the contractors in 
the performance of the contract and returned to the U.S. Government at 
the end of the contract.

    Question. Earlier this year, the executive branch amended the 
International Traffic in Arms Regulations to permit more radiation-
hardened computer chips to be sold to, or manufactured in, countries 
like China. The justification was that chips for commercial 
applications were becoming more radiation-hardened, like it or not, and 
that maintaining existing controls would only damage the 
competitiveness of U.S. firms. The Defense Department said that 
although more capable chips might be usable in spacecraft, they would 
still be behind the standards for U.S. space-qualified systems. Members 
of this committee warned that the new policy might help other countries 
to build space-based or nuclear systems, even if they were second-rate. 
The executive branch said that wasn't a problem yet, but that the 
regulation on rad-hardened chips might have to be amended again in a 
few years. So this issue could emerge again on your watch.
    What are your views on the risks posed as computer chips get more 
capable and more radiation-hardened?
    What steps will you take to address this concern before industry 
comes back with a new request to ease the ITAR regulations on 
radiation-hardened chips?

    Answer. It is my understanding that the revision in the parameters 
of the ITAR reflected the fact that improved chip design, shrinking 
size, and the use of new materials in their manufacture resulted in 
improved radiation tolerance as well. Chips designed for civilian uses 
such as cell phones and laptop computers were approaching ITAR 
thresholds for radiation hardness that signified military application. 
Had the administration not acted, the end result would have been 
control of commercial chips as military items, with a significant 
impact on the next generation of consumer electronics. The interagency, 
including DoD space and missile experts, looked at this problem and 
proposed the revisions that were ultimately published.
    I understand that the recent revisions on radiation-hardened chips 
is considered by all to be an interim solution. The review of the 
United States Munitions List is ongoing, and administration experts 
continue to examine the question of appropriate controls for radiation-
hardened chips as well as other technologies. If confirmed, I will 
ensure that our review and any proposed solutions will take into 
account the possible use of radiation-hardened chips by our strategic 
competitors.

    Question. If you are confirmed as Assistant Secretary of State for 
Political-Military Affairs, you will be responsible for U.S. transfers 
of weapons or of weapons-relevant technology to other countries. Will 
you divest any holdings you or your wife may have in companies that 
manufacture weapons or computer chips?

    Answer. Yes. If I am confirmed, I have agreed to divest my holdings 
in certain companies where it was determined there would be a 
substantial likelihood of a conflict of interest with my duties as the 
Assistant Secretary of State for Political-Military Affairs. These 
included companies that manufacture weapons or computer chips. I also 
agreed to provide appropriate officials in the Department of State with 
a list of those interests that I may acquire in order to support my 
efforts to avoid conflicts of interest.

    Question. The United States has recently signed defense trade 
treaties with the United Kingdom and Australia. What other countries 
have expressed interest in negotiating such treaties, and what answers 
have they received? What other defense trade negotiations are in 
progress, have been approved in the C-175 process (11 FAM 724), or are 
awaiting such approval?

    Answer. To my knowledge, no other country has sought negotiation of 
a treaty similar to those signed with the United Kingdom and Australia. 
I am not aware of any plans to negotiate further treaties; no 
negotiations are in progress, and there are no other proposed treaties 
at any stage in the Circular 175 process.

    Question. The Bureau for Political-Military Affairs is responsible 
for liaison with the Department of Defense, and one important aspect of 
that liaison is planning and implementing disaster relief efforts when 
there is a major earthquake, tsunami, or hurricane. The United States 
is famous for the extent and the efficiency of its humanitarian 
efforts, but we are rarely the first country to provide assistance. 
Sometimes weeks go by, before significant U.S. help begins to arrive.
    Why is U.S. assistance often so slow to get started? Are our 
logistical resources stretched too thin? Are there bureaucratic 
roadblocks to quick, effective action, in either the Departments of 
Defense or State?
    If you are confirmed as Assistant Secretary, what will you do to 
improve U.S. disaster response performance?

    Answer. The Bureau of Political-Military Affairs is one of several 
coordinating agencies involved in determining the level of U.S. 
Government assistance to nations following humanitarian disasters. 
USAID's Office of Foreign Disaster Assistance (OFDA) and DoD also have 
a major role in the assessment and response.
    There is a process to obtain U.S. Government assistance. Following 
a disaster, the U.S. Government, through its embassy country team, 
works directly with the affected nation. The ambassador has authority 
to make an immediate disaster declaration and can make an offer of 
financial assistance.
    Additionally, USAID provides assessment teams to determine if 
local, nongovernment organizations, and international organization 
contributions are insufficient for disaster relief. In cases of slow-
onset natural disasters such as the approach of hurricanes, the U.S. 
Government is able to place assessment/response teams in multiple 
countries in advance of the disaster.
    If the assessment team and the host nation determine additional 
assistance is required either due to the overwhelming nature of the 
event or if the required assistance is unique to the military, the 
ambassador works closely with USAID, the State Department, and the 
Department of Defense to identify the needs and ensure the flow of U.S. 
Government assistance is immediate and rapid. USAID has authorities to 
provide assistance and, as appropriate, identifies whether DoD 
assistance is required.
    While this process may sound complicated, in fact the communication 
between the embassy, USAID, and the Departments of State and Defense 
begins immediately, or in some cases even before the disaster's onset. 
The Bureau of Political-Military Affairs' role is to facilitate the 
request for disaster assistance between agencies.
    In consultation with our colleagues at USAID, and as an 
illustrative example of my points, I have included a timeline of the 
ongoing response to the aftermath of Hurricane Felix in Central 
America. My understanding is that the response to Hurricane Felix 
occurred while USAID was also responding to the effects of Peru's 
devastating earthquake.
    In response to the second part of the question, I believe there are 
no roadblocks or delays to the U.S. Government's foreign disaster 
response. I hope to use my position as Assistant Secretary for 
Political-Military Affairs to ensure that communications lines among 
DOS, DoD, and USAID remain open and clear as to intent (U.S. Government 
interest) and timeliness of a U.S. Government response.
                       hurricane felix timeline:
    Prior to the hurricane season:

  <bullet> USAID pre-positioned approximately $45,000 in relief 
        supplies with the Nicaraguan Red Cross to respond to emergency 
        needs.

    August 31:

  <bullet> Tropical depression six formed in the Atlantic Ocean. The 
        U.S. National Hurricane Center began issuing public advisories 
        at 5 p.m. Atlantic Standard Time. USAID/OFDA began monitoring 
        the storm.
    September 1:

  <bullet> Tropical depression six reached tropical storm, and then 
        hurricane strength.

    September 2:

  <bullet> USAID/OFDA began sending out regular hurricane update emails 
        on Hurricane Felix.

    September 3:

  <bullet> USAID pre-positioned 23 disaster response specialists 
        Nicaragua, Honduras, Guatemala, El Salvador, Belize, and Mexico 
        in advance of Hurricane Felix. Some of these disaster 
        specialists were repositioned from their previous deployment to 
        respond to Hurricane Dean.

    September 4:

  <bullet> After making landfall on September 4 as a category five 
        hurricane, Felix moved inland over northeastern Nicaragua and 
        Honduras.
  <bullet> USAID/OFDA provided $75,000 to support emergency 
        preparedness activities in Nicaragua, Belize, and Honduras.

    September 5:

  <bullet> On September 5, the hurricane severely impacted Honduras and 
        Nicaragua, and resulted in heavy rainfall in Guatemala and 
        Belize.
  <bullet> On September 5, U.S. Ambassador Paul A. Trivelli declared a 
        disaster due to the effects of the hurricane. In response, 
        USAID/OFDA provided $150,000 to support the local procurement 
        and transportation of emergency relief supplies to affected 
        populations.

    September 6:

  <bullet> On September 6, the first of two USAID/OFDA first relief 
        flights arrived in Puerto Cabezas, Nicaragua, with 120 rolls of 
        plastic sheeting, 1,500 blankets, and 1,536 hygiene kits.
  <bullet> On September 6, a member of the USAID emergency team 
        traveled to three municipalities in Cortes Department, 
        Honduras, as part of a joint assessment mission with U.N. 
        staff.

    September 7:

  <bullet> In coordination with the Nicaraguan Red Cross, USAID 
        emergency teams are conducting assessments of four of the most 
        affected communities in Nicaragua on September 7. The teams are 
        reaching the impacted areas via U.S. Department of Defense 
        (DOD) helicopters, which will return to the assessed areas with 
        relief supplies.
  <bullet> A second relief flight, carrying 120 rolls of plastic 
        sheeting, 1,500 blankets, and 1,536 hygiene kits, is scheduled 
        to arrive in Nicaragua on September 7. The initial distribution 
        of the USAID/OFDA relief supplies will begin on September 7 in 
        Sandy Bay and surrounding communities.
  <bullet> On September 7, DOD aircraft delivered essential supplies, 
        including a water purification system, and provided air support 
        for USAID/OFDA assessments of the affected areas. DOD is also 
        assisting with search and rescue efforts for Nicaraguan 
        fishermen who are missing due to the hurricane.
                                 ______
                                 

  Responses of Brigadier General Mark Kimmett to Questions Submitted 
                        by Senator Barack Obama

    (Military assistance programs have traditionally been funded in the 
Department of State and Foreign Operations budget and overseen by the 
Political-Military Affairs Department of the State Department. But 
section 1206 of the fiscal year 2006 National Defense Authorization Act 
authorized the Secretary of Defense, with the concurrence of the 
Secretary of State, to equip, supply, or train foreign country military 
forces to build their capacity to conduct counterterrorism operations 
or participate in or support stability operations in which the U.S. 
military also participates.)
    Question. In your view, should the statutory restrictions on 
military assistance programs included in the Foreign Assistance 
Authorization Act or the State Department and Foreign Operations 
Appropriations apply to the program authorized in section 1206?

    Answer. Section 1206, by its terms, incorporates other statutory 
restrictions as assistance cannot be provided if it is otherwise 
prohibited by any provision of law. Thus, the Department of State 
currently applies statutory restrictions on military assistance 
programs to programs executed under section 1206 authority. Since 
section 1206 is designed to be a flexible tool to respond to meet 
urgent or emergent requirements, the administration has sought more 
flexibility, such as the ability to waive certain restrictions when 
provision of section 1206 assistance would be in the national security 
interests of the United States. Clearly, where such assistance would 
not support our foreign policy goals for the country, it would not be 
provided.

    Question. If you are confirmed, will Political-Military Affairs 
apply such restrictions to the program authorized by section 1206?

    Answer. Since application of these restrictions is required under 
the law, the Department of State, working with the Department of 
Defense, will continue to apply such restrictions to programs executed 
under section 1206 authority.

    Question. Please explain the procedures Political-Military Affairs 
currently follows to ensure that individuals or units trained and 
equipped in the program authorized in section 1206 meet statutory 
requirements for the respect of human rights.

    Answer. Section 1206 includes provisions that effectively require 
that the assistance be provided consistent with other requirements of 
law. Accordingly, we apply the Leahy amendment requirements set out in 
the annual Foreign Operations Appropriations Acts to the provision of 
section 1206 assistance. The State Department takes its 
responsibilities under the Leahy amendment very seriously. Diplomatic 
posts overseas are fully informed about the legislative requirement 
that foreign security units receiving training or assistance must be 
vetted. The embassy begins the process by reviewing its files and 
databases on units and/or individuals for human rights violations. The 
embassy then cables the regional bureau at the State Department 
providing its search results and requesting a similar review of the 
Department's files and databases. Information on the unit and/or 
individual is circulated for review by appropriate personnel in the 
Department, including the Bureau of Democracy, Human Rights, and Labor 
(DRL); Intelligence and Research (INR); and Political-Military Affairs 
(PM). If no credible derogatory information is found, the regional 
bureau sends a reply cable to Post indicting that the training or 
assistance may proceed.

    Question. Do you believe those steps are adequate?

    Answer. The Department began human rights vetting 10 years ago as a 
way of implementing the Leahy amendment which was first added to the 
Foreign Operations Appropriations Act at that time. Since then the 
process has been refined and improved; currently the Department vets 
over thousands of names every year, and those numbers continue to 
increase. The Department has established a working group which meets 
frequently on Leahy issues, and the Office of the Inspector General 
regularly inspects Leahy vetting procedures at posts. Nonetheless, the 
Department continues to look for ways to improve the vetting process, 
particularly in chaotic and violent environments.

    Question. Knowing what you know about this program authorized in 
section 1206, do you believe that other Military Assistance Programs--
including those not overseen or administered by Political-Military 
Affairs, like the training and equipping of Iraqi Security Forces--have 
effective procedures for ensuring that individuals trained and equipped 
with taxpayer resources meet certain minimum standards as they relate 
to respect for human rights?

    Answer. In accordance with the Leahy amendment, the Department of 
State is responsible for ensuring that where there is credible evidence 
that a unit of security forces has committed gross human rights 
violations, that unit does not receive training or assistance. The 
State Department applies the Leahy amendment, which has been annually 
reenacted for many years in the Foreign Operations, Export Financing, 
and Related Programs Appropriations Act (FOAA), to security assistance 
programs for military forces funded by Foreign Military Financing 
(FMF), International Military Education and Training (IMET), 
Peacekeeping Operations (PKO), and certain Nonproliferation, Anti-
terrorism, Demining and Related Programs (NADR) funds. The State 
Department also applies the Leahy amendment to comparable training and 
equipping programs for national military forces under section 1206, 
which is funded with DoD funds. A modified version of the Leahy 
amendment found in the FOAA is also found in the Defense Appropriations 
Act and applies to DoD-funded training programs. While dynamic 
operational environments pose additional challenges to vetting, the 
goal remains unchanged in implementing Leahy such that no security 
assistance will be provided to any units of military security forces 
where there is credible evidence that the unit has committed gross 
violations of human rights.
                                 ______
                                 

  Prepared Statement of Nancy Goodman Brinker, Nominee to be Chief of 
   Protocol, and To Have the Rank of Ambassador During Her Tenure of 
                                Service

    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before you today as the President's nominee to 
serve as Chief of Protocol of the United States. I'm grateful to the 
President and Secretary Rice for the confidence and trust they have 
placed in me by nominating me for this position.
    I thank Senator Kay Bailey Hutchison for her gracious introduction 
and support and Congressman Tom Lantos for his support during this 
nomination process. I am proud today to be joined by my son, Eric 
Brinker, from Peoria, IL--as well as by close friends and colleagues.
    It was my privilege to appear before this committee 6 years ago, 
and I thank the members and the Senate for their support of my 
nomination as U.S. Ambassador to the Republic of Hungary. I am honored 
and excited by the opportunity to return to public service and to work 
on issues important to the United States and the diplomatic community.
    During my time in Hungary, we were able to advance a broad range of 
United States security and economic interests. We promoted United 
States trade and investment in Hungary, built significant cultural ties 
between the United States and Hungarian communities and worked with the 
Hungarians on the war on terror in the wake of 9/11.
    Specific successes include expanded security cooperation, 
development of a closure strategy for the Hungarian Fund, resolving 
commerce transparency issues, and for the first time, holding a 
conference on the trafficking and exploitation of workers that health 
ministers from the neighboring Balkan States attended.
    Following my assignment to Budapest, I returned to the Susan G. 
Komen for the Cure, which is named in memory of my sister, and is the 
world's largest breast cancer foundation. As its founder, I understand 
the challenge of leading and coordinating complex organizations.
    Another challenge that I have taken on is promoting ``medical 
diplomacy'' for the State Department. This effort focuses on the global 
breast cancer and women's health movements from Eastern Europe to the 
Middle East. In this position, I have witnessed the ability of our 
Nation to strengthen bilateral relations by connecting with local 
communities.
    Throughout these three decades of experiences, Mr. Chairman, I have 
learned a simple truth that, if confirmed, will guide my service as 
Chief of Protocol: You can make a difference in the lives of people 
from other races, religions, or cultures if you simply reach out to 
them with respect, learn their needs, and share the lessons of your own 
experience and then support them in theirs.
    This truth and my experience have prepared me for the position that 
the President has entrusted me to undertake.
    The Office of the Chief of Protocol advises, assists, and supports 
the President, the Vice President, and the Secretary of State on 
official matters of diplomatic procedure. During this administration, 
the Visits Division has supported over 2,300 visits by foreign 
dignitaries. This division also plans and executes Presidential 
delegations abroad to represent the President at events. In addition, 
the Chief of Protocol accompanies the President on official visits 
overseas.
    The ceremonials division arranges official ceremonies and events 
for the Secretary of State, organizes the participation of the 
diplomatic corps in special events, and maintains the order of 
precedence of the United States, coordinating over 130 ceremonial 
events this fiscal year.
    A vital part of the office of the Chief of Protocol is handled by 
the Diplomatic Affairs division, which oversees the credentialing of 
foreign bilateral ambassadors to the United States and accreditation of 
foreign government personnel posted here. If confirmed, I look forward 
to serving the President as a liaison to the 184 ambassadors accredited 
to our country. Protocol is also the action office for matters relating 
to diplomatic and consular immunities.
    The office also manages Blair House, the President's guest house. 
All of this is accomplished by a staff of 63 people, comprised of civil 
and Foreign Service officers, as well as political appointees.
    President Bush and Secretary Rice have highlighted transformational 
diplomacy as part of the White House's global democracy agenda. I 
therefore see this assignment as an opportunity to help our foreign 
dignitaries experience the full fabric of American society, beyond 
traditional diplomatic circles, and in doing so strengthening the 
mutual understanding between the people of the United States and the 
people of the world.
    Mr. Chairman, members of the committee, thank you again for the 
opportunity to appear before you today and for your consideration of my 
nomination. If confirmed, I look forward to working with you and your 
staffs to advance our agenda with the diplomatic community.
                                 ______
                                 

       Responses of Nancy Goodman Brinker to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. What are your top priorities for this position, if 
confirmed? At the end of the Bush administration, what do you hope to 
be able to report that you have accomplished?

    Answer. If confirmed, I hope to strengthen and achieve mutual 
understanding between the people of the United States and the people of 
the world by helping our guests experience the rich foundation, 
culture, and history of America, beyond traditional diplomatic circles. 
I would like to bring together leaders in business, education, 
government, cultural organizations, and not-for-profit organizations to 
help advance the principles of diplomacy.
    Through personal contact with visiting foreign leaders and the 
diplomatic community throughout the United States, I plan to achieve a 
better understanding between the American people and our international 
community which I hope can have a positive impact on bilateral ties.

    Question. I am concerned about allegations of abuse or mistreatment 
of workers present in the United States under A-3 and G-5 visas. 
Diplomats have failed to provide promised compensation to such worker, 
and in some cases have physically abused or mistreated these workers. 
Are you familiar with this issue? Do you have any views on what 
measures the Department might take, consistent with U.S. obligations on 
diplomatic immunity, to strengthen protection for such workers?

    Answer. I am aware of this issue and wish to confirm that the 
Department of State takes this matter very seriously. As the United 
States seeks to be a leader in the global effort to combat trafficking 
in persons, we are deeply concerned by these reported abuses, some of 
which also suggest the possibility of trafficking. We are working to 
ensure the fair and humane treatment of all domestic workers who come 
to the United States, including those employed by persons with full 
immunity. It is essential for all members of the diplomatic community 
to fully respect U.S. laws. Not only is the welfare of the domestic 
workers of great concern, but our effectiveness in addressing problems 
like this, domestically, has the potential to affect the authority with 
which we speak globally.
    The Department recently transmitted a circular diplomatic note to 
all missions emphasizing the importance of providing fair treatment to 
domestic workers and requiring the registration of all foreign domestic 
workers assigned to mission personnel. Given the gravity of the 
allegations, we are also exploring other possible approaches.
    While serving as the United States Ambassador to Hungary, one of 
the successes of my tenure was that we held, for the first time, a 
conference on trafficking and exploitation of workers that was attended 
by health ministers from the neighboring Balkan States. If confirmed, 
it is my intention to bring together the Chiefs of Mission here in 
Washington to underscore the fact that the Department takes this matter 
seriously and to explain our policy and practice in cases that are 
brought to our attention.
                                 ______
                                 

       Responses of Nancy Goodman Brinker to Questions Submitted 
                      by Senator Richard G. Lugar

    Question. Is there a ``Buy American'' rule in place regarding gifts 
that are given to foreign dignitaries? If not, please explain how gifts 
are selected. What is the average annual total amount spent for such 
gifts?

    Answer. There is no official ``Buy American'' rule in place 
regarding gifts. Members of this administration generally choose to 
purchase products that have been designed, crafted, and manufactured in 
the United States, when possible.
    The Office of the Chief of Protocol, which is responsible for 
foreign gifting on behalf of the President and First Lady, the Vice 
President and spouse, and the Secretary of State, offers various gift 
options on the occasion of visits by foreign dignitaries or officials, 
foreign trips, special events, and Presidential delegations. The 
principal makes the choice from the options provided.
    The average yearly amount spent on gifts is approximately $500,000. 
This amount includes special order gifts as well as the amount spent 
for the purchase of standard gifts maintained by Protocol for use 
during the ordinary course of official interaction with foreign 
visitors.

    Question. In your responses to Senator Nelson, you mentioned issues 
related to the funding of the cost of Blair House operations. Please 
provide a more detailed breakdown of the costs and funding sources used 
to cover the costs for both maintenance and accommodations.

    Answer. Thank you, Senator Lugar, for the opportunity to respond to 
your question.
    Blair House is currently maintained using funds available from the 
Department of State, the General Services Administration, and a not-
for-profit 501(3)C organization, the Blair House Restoration Fund. The 
Department of State currently spends approximately $1.3 million 
annually in operations and maintenance costs and small-scale capitol 
improvements and repairs. Annual payments to GSA are approximately 
$960,000 annually of which a portion is also utilized to fund 
maintenance costs. Blair House Restoration Fund provides approximately 
$250,000 exclusively for use to repair and refurbish decorative 
elements of Blair House.
    The expenses of visits by foreign chiefs of state or heads of 
government are paid through the Department of State allocation known as 
the Emergencies in Diplomatic and Consular Affairs (K Fund) which 
reports directly to Congress on an annual basis with an itemized 
accounting of expenses that includes the cost of guests at Blair House. 
Recent examples include: In 2006 Blair House hosted a record number of 
25 world leaders over a period of 75 days at a cost of $395,725.07. In 
2005, Blair House hosted 18 world leaders in a period of 50 days at a 
total cost of $285,453.42.
    If confirmed, I plan to seek a complete and full evaluation of 
Blair House funding, maintenance, and operating costs. There must be a 
comprehensive maintenance and repair plan to avoid an increase in 
building deficiencies and unanticipated mechanical and electrical 
failures. A band-aid approach to operations is risky and short-sighted, 
putting the structure itself at risk and creating uncomfortable or even 
hazardous conditions for visitors and guests.
    Some of the building systems and parts of the infrastructure of the 
Blair House have been renovated or repaired, but many of the piecemeal 
upgrades are no longer viable and new problems are developing as the 
building continues to age and settle.
                                 ______
                                 

       Responses of Nancy Goodman Brinker to Questions Submitted 
                         by Senator Bill Nelson

    Question. Please describe circumstances where sending governments 
have waived the immunity of their diplomats?

    Answer. Immunities are provided to diplomats in order to ensure the 
efficient performance of diplomatic missions in the representation of 
states. Sending states typically consider on a case-by-case basis 
requests to waive the immunities of diplomats. While there are many 
instances in which states do not waive diplomats' immunities, there are 
also instances in which they do. In a few very serious incidents such 
as vehicular manslaughter in Washington in 1997, and an earlier 
homicide in Florida in 1989, the sending states granted requests by the 
Department of State to waive the diplomatic immunity of their mission 
members. In these cases, the individual stood trial and was sentenced 
in accordance with the laws of the jurisdiction.
    In some lesser criminal incidents sending states often have not 
waived their diplomat's immunities. They have occasionally, with 
prosecutors' agreement, participated in diversionary programs, for 
example counseling. For driving offenses, if a sending state does not 
waive a diplomat's immunities and permit the diplomat to appear in 
court or otherwise reach an agreement with a prosecutor, the Department 
of State imposes points on the diplomat's driver license (issued by the 
Department of State) and will suspend or revoke a license as 
appropriate.

    Question. When have we requested waiver of immunity for our persons 
overseas?

    Answer. We receive requests from host governments to waive immunity 
for U.S. Government personnel in criminal and civil cases very rarely. 
The only recent case was Russia requesting, in 1998, that we waive 
immunity for the Consul General in Vladivostok who was involved in an 
auto accident resulting in a young man becoming a quadriplegic. In 
response, we asked Russia to provide more details about the charges 
that would be brought and the evidence indicating our employee was at 
fault. Russia did not respond and so we did not waive or refuse to 
waive immunity.
    This is not to suggest that we have never waived immunity for our 
overseas employee, but we do so without a formal request from the host 
State. A common example is a request from local prosecutors for a DEA 
or other law enforcement agency to testify in a criminal prosecution 
(which happens almost once a month). All of our accredited embassy and 
consular personnel have testimonial and jurisdictional immunity 
regarding their official acts. This immunity must be (and almost always 
is to assist prosecutions) waived before the individual can subject him 
or herself to the jurisdiction of the local court.
    Similarly, our employees sometimes receive notification that they 
are the subject of proceedings in local criminal or civil courts. 
Because they are members of a diplomatic or consular mission, they all 
have immunity from civil and criminal jurisdiction for official acts. 
Diplomatic agents have complete criminal and civil immunity for any 
conduct, while members of an embassy's administrative and technical 
staff have criminal immunity for all off-duty acts. In response to 
these notices of litigation, the embassies are instructed to prepare a 
diplomatic note either asserting or waiving immunity. The notes and 
original documents are transmitted to the Ministry of Foreign Affairs. 
Generally speaking, we do not waive immunity for foreign court 
litigation against our employees or their family members (when they are 
covered by immunity). On average, an assertion of immunity takes place 
about once a month.
    There have been two recent occasions where we have waived criminal 
immunity for a covered individual without formal requests from the host 
State. In both, our ambassadors weighed in strongly urging that the 
immunity be waived. One case involved drunk driving where the embassy 
had issued clear guidance precluding such behavior. The other involved 
an embassy dependent who'd gotten into a fight along with several 
military dependents. Since the military dependents had no immunity in 
that situation, the ambassador felt that it was unfair that the embassy 
dependent (who had been equally involved in the altercation) was not 
punished. In both cases, immunity from criminal jurisdiction for 
adjudication of guilt was waived and the issue of whether execution of 
a criminal sentence (i.e., jail or fine) would be permitted was 
reserved. In both cases, however, there were plea agreements so no 
further waivers were issued.

    Question. What is the condition of Blair House today? Can you send 
me a paper on Blair House?

    Answer. Thank you, Senator Nelson, for the opportunity to inform 
you of the condition of Blair House. Because of its age, Blair House 
needs significant reconditioning in order to function properly as the 
President's official guest house for visiting foreign dignitaries. 
Extraordinary efforts have been put into keeping this historical house 
looking as good as it does, but sustained annual support is required.
    What today is known as Blair House is actually four private 19th 
century residences that have been combined and interconnected to 
operate as one unit. In addition, a new wing was added to the complex 
in the 1980s. The oldest home was completed in 1824, another in 1859, 
and two others in 1860. The Federal Government purchased the earliest 
homes in 1942 and 1943 to create a guest house for the Nations 
distinguished foreign guests. The two later homes were added to the 
complex in 1970. The entire facility was renovated between 1982 and 
1988. Seven million dollars were allocated from Congress for structural 
work and an additional $7 million were raised privately to cover 
decorative expenses. Today, the facility contains approximately 70,000 
square feet--a full 5,000 square feet larger than the executive 
mansion.

    Question. I would like you to send me a renovation plan and needed 
annual maintenance supplied by private sector and what is required by 
the Federal budget.

    Answer. Thank you, Senator Nelson, for the opportunity to provide a 
renovation plan and report which outlines details needed for annual 
maintenance. If confirmed, I plan to seek a complete and full 
evaluation of Blair House funding, maintenance, and operating costs. 
There must be a comprehensive maintenance and repair plan to avoid an 
increase in building deficiencies and unanticipated mechanical and 
electrical failures. A band-aid approach to operations is risky and 
short-sighted, putting the structure itself at risk and creating 
uncomfortable or even hazardous conditions for visitors and guests.
    Some of the building systems and parts of the infrastructure of the 
Blair House have been renovated or repaired, but many of the piecemeal 
upgrades are no longer viable and new problems are developing as the 
building continues to age and settle.
    Blair House is currently maintained using funds available from the 
Department of State, the General Services Administration, and a not-
for-profit 501(3)C organization, the Blair House Restoration Fund. The 
Department of State currently spends approximately $1.3 million 
annually in operations and maintenance costs and small-scale capitol 
improvements and repairs. Annual payments to GSA are approximately 
$960,000 annually, of which a portion is also utilized to fund 
maintenance costs. Blair House Restoration Fund provides approximately 
$250,000 exclusively for use to repair and refurbish decorative 
elements of Blair House.
                                 ______
                                 

          Prepared Statement of Ned L. Siegel, Nominee to be 
             Ambassador to the Commonwealth of the Bahamas

    Mr. Chairman and members of the committee, I am honored to come 
before you as the President's nominee to serve as the Ambassador of the 
United States of America to the Commonwealth of the Bahamas. I want to 
thank President Bush and Secretary Rice for their confidence and 
support in nominating me for this position. I also wish to thank the 
members of the Senate and, in particular, this committee, for the 
opportunity to come before you today.
    I would like to introduce and acknowledge my family members who are 
here with me today--my wife and partner in life for 31 years, 
Stephanie. I am also honored to have my brother, Marc, and my nephew, 
Robert, joining us. I have been extremely fortunate to have had the 
love and support of my family in all of my endeavors, and I realize I 
would not be here today without them.Over the years, I have had the 
opportunity to visit the Bahamas to celebrate various special family 
occasions. I have always considered the Bahamas as a special place, and 
my family and I have many fond memories of the Bahamas over the years. 
If confirmed, I look forward to creating many, many new ones.
    The opportunity to appear before you today in this exceptional 
process can only be described as a privilege. This is not my first time 
to appear before a Senate confirmation committee, but I would like to 
share with the members of this committee my qualifications to serve as 
the United States ambassador to the Commonwealth of the Bahamas.
    From 1999 to 2004, I served as an appointee to the Board of 
Directors of Enterprise Florida, Inc. (EFI), a public-private 
partnership that acts as Florida's primary organization for statewide 
economic development. The mission of EFI is ``to diversify Florida's 
economy and create better-paying jobs for its citizens by supporting, 
attracting, and helping create business in innovative, high-growth 
industries.'' I traveled to Israel on the Governor's Trade Mission in 
1999 and worked throughout my tenure to bring Israeli companies to 
Florida.
    In 2003, I was nominated by the President and appointed to serve as 
a member of the board of directors of the Overseas Private Investment 
Corporation, a position I currently hold. Throughout my tenure as an 
OPIC director, I have been able to evaluate and approve projects that 
mobilized U.S. capital to provide people in developing countries with 
first-time access to credit for new small businesses and low- and 
moderate-income housing. These efforts have had a tangible effect on 
job creation and economic growth, helping to lift people from poverty--
all carried out in cooperation with the private sector.
    In September of 2006, I was again honored by the President to serve 
as a Public Delegate to the U.S. Mission to the United Nations and as a 
United States Representative to the 61st General Assembly. This was a 
unique opportunity to serve at an exceptional time in our efforts to 
build international support for U.S. policies through the United 
Nations. Through my experience at the U.N., I gained a greater 
appreciation for the strategy and preparation necessary to advance U.S. 
interests on the world stage. I also experienced firsthand the 
tremendous impact that small countries can have through their ITN votes 
on the United States' ability to carry out its foreign policy and 
enhance our national security. Without a doubt, my time as a delegate 
to the United Nations provided me an opportunity to gain exposure to 
the conduct of our Nation's international affairs at the highest level, 
and thereby to sharpen my own diplomatic skills.
    Through my experiences at Enterprise Florida, OPIC, and the United 
Nations, I have acquired a broad knowledge of the political 
sensitivities of promoting sustainable investment while advancing U.S. 
foreign policy and development initiatives. That knowledge, coupled 
with my extensive business experience has prepared me to serve 
effectively as the United States Ambassador to the Commonwealth of the 
Bahamas, should I be confirmed.
    The United States and the Bahamas enjoy a close and productive 
bilateral partnership built on all four pillars of the President's 
Western Hemisphere Strategy: bolstering security, strengthening 
democracy, promoting prosperity, and investing in people. Our shared 
interests, common commitment to the rule of law, and geographic 
proximity make the Bahamas one of our closest operational partners in 
the Western Hemisphere.
    The Bahamian public is broadly committed to the values that we as 
Americans hold dear--democratic governance, the rule of law, and 
respect for human rights. These shared values provide a firm foundation 
to build a productive partnership, but it is up to the embassy to 
ensure that our message is heard and our actions are understood. If 
confirmed, my embassy team will step up efforts to explain, promote, 
and defend U.S. policies and actions in order to build support for U.S. 
strategic goals in the region: We will focus our outreach efforts to 
support our counterdrug and crime efforts, promote greater public 
awareness of HIV/AIDS, encourage a stronger Bahamian international role 
on human rights and democracy, and promote improved education.
    Should I be confirmed, I will work to improve the United States' 
vital, cutting edge efforts to combat international crime, drugs, and 
illegal migration. We will do this by maintaining full U.S. support for 
Operation Bahamas Turks and Caicos in a coordinated multinational, 
multi-agency effort to combat international drug trafficking into and 
through the Bahamas. As a result of OPBAT's success, we have 
dramatically reduced the percentage of cocaine destined for the United 
States that flows through the Bahamas from a high of 70 percent in the 
1980s to the current level of less than 10 percent.
    Working together, the Royal Bahamas Defense Force and the U.S. 
Coast Guard monitor Bahamian and international waters for illegal 
migration. Our Comprehensive Maritime Agreement (CMA) allows Bahamian 
officials to ride on U.S. vessels while they patrol in order to be in 
position to authorize the boarding of vessels in Bahamian waters to 
pursue illegal migrant and drug traffickers. Our efforts to combat 
narcotics trafficking and shut down illegal migration also serve to 
close off pathways that could be used by terrorists. Last year alone, 
the United States and the Bahamas together interdicted 5,762 illegal 
migrants.
    Second, I will ensure that Embassy Nassau's Consular Section 
continues to provide first-rate assistance to United States Citizens in 
the Bahamas and the Turks and Caicos Islands--a protectorate of the 
United Kingdom, over which we have consular jurisdiction. Over 4 
million United States citizens travel to or reside in the Bahamas every 
year, and I will work to expand outreach programs that educate both 
Bahamians and United States residents residing or visiting within the 
Bahamas so they have the information, services, and protection they 
need to live, conduct business, or travel between our countries. To 
protect the most vulnerable, we will intensify our dialog with Bahamian 
authorities on sexual assault cases and work with police to prevent 
assaults, care for victims, and ensure effective prosecutions.
    Third, I will work to further improve United States efforts to work 
with the Bahamians to prevent and respond to terrorism. Cruise ships, 
vacation resorts, passenger jets, and commercial shipping vessels could 
all become potential terrorist targets if not secured and screened. The 
Freeport Container Port is one of the largest in the world and one of 
the closest foreign ports to the United States. In 2004, the United 
States signed a Memorandum of Understanding with the Bahamas to include 
Freeport in the United States Megaports Initiative to screen United 
States-bound cargo for radiological materials. In 2006, a Memorandum of 
Understanding for a Container Security Initiative (CSI) was concluded. 
Through CSI, over 90 percent of the cargo moving through Freeport--one 
of the 25 busiest transshipment ports to the United States--will be 
screened and suspicious containers will be segregated and searched. To 
expand our joint efforts to combat the threat of proliferation of 
weapons of mass destruction, we will seek to conclude a Proliferation 
Security Initiative (PSI) Ship Boarding Agreement. The Bahamas has the 
third largest ship registry in the world, and their participation in 
PSI is vital to its success.
    Finally, should I be confirmed, I am looking forward to using my 
business experience and acumen to promote the prosperity that is 
essential to the Bahamas' continued stability and its ability to take 
on greater responsibilities as a multidimensional partner for the 
United States. The Bahamas has the highest per capita income in CARICOM 
and its consumer market is attuned to United States products. Over 80 
percent of Bahamian imports come from the United States, but 
competitors such as China and Brazil are working to increase their 
market shares. My embassy team will seek to increase United States 
trade and investment in the Bahamas by linking Bahamian importers to 
United States suppliers, fostering Bahamian business development, and 
promoting United States-Bahamian business connections, including 
through our outstanding National Guard State Partnership Program with 
the State of Rhode Island. We will continue to work with the Bahamas to 
promote energy diversification and sustainable tourism, fishing, and 
agriculture. The embassy will continue to promote legal and regulatory 
changes that will promote sustainable development, an important goal of 
United States policy.
    Our relationship with the Bahamas is strong and vibrant. The 
Bahamas will continue to be an active partner in our efforts to stem 
the flow of illegal narcotics, prevent illegal migration, ensure the 
safety and security of American citizens abroad, combat potential 
terrorism, and promote prosperity and security in our hemisphere. 
Should I be confirmed, I look forward to building new areas of 
cooperation with one of our closest neighbors and to deepening one of 
our closest bilateral partnerships in the hemisphere.
    Throughout my life, the same threads have woven the successes in my 
family life, my business life, and my philanthropic service life--those 
common threads being the ability to assess and understand situations, 
and to listen and manage people to achieve acceptable and positive 
results.
    Thank you for the opportunity to appear before you today, and if 
confirmed, I look forward to working with you as the United States 
Ambassador to the Commonwealth of the Bahamas. I would be pleased to 
answer any questions you may have.
                                 ______
                                 

  Prepared Statement of Brigadier General Mark Kimmitt, Nominee to be 
      Assistant Secretary of State for Political-Military Affairs

    Mr. Chairman and members of the committee, thank you for holding 
this hearing today. I am deeply honored to have been nominated by 
President Bush and Secretary of State Rice to serve as the Assistant 
Secretary of State for Political-Military Affairs and I wish to thank 
you for the opportunity to appear before you today.
                             the pm mission
    At this particular time in our Nation's history, I am honored to 
have been offered the opportunity to lead an organization that plays a 
critical role in our foreign policy and national security. With the 
mission of integrating diplomacy and military power to foster a stable 
and secure international environment, the Bureau of Political-Military 
Affairs serves not only as the primary bridge between the Departments 
of State and Defense on operational military matters, but also as an 
interface between two of our most important instruments of national 
power. As a career Army officer with service in peace and war, I fully 
appreciate the paramount importance of skillfully coordinating the use 
of these two instruments to meet the challenges facing American 
interests around the world.
    In the few minutes that I have, I would like comment on some of the 
ways in which the Bureau of Political-Military Affairs is helping to 
meet the challenges we face. In broad terms, the Political-Military 
Affairs Bureau provides policy direction in the areas of international 
and regional security, security assistance, military operations and 
exercises, defense strategy and policy, and defense trade--all of which 
involve the integration of diplomacy and military power. These can be 
further categorized into three major areas of responsibility: 
counterterrorism, regional stability, and humanitarian assistance to 
victims of conflict.
                            counterterrorism
    In meeting its counterterrorism responsibilities, the PM Bureau is 
playing a key role in the war on terror in several ways. First, the 
Bureau provides diplomatic support and foreign policy guidance to U.S. 
military forces for military and humanitarian operations and maritime 
threat response. PM also negotiates base access agreements and provides 
legal protections to our soldiers, sailors, Marines, and airmen through 
the negotiation of Status of Forces and Article 98 agreements. To 
expedite this diplomatic support, the Bureau maintains a 24/7 
operations center designed to facilitate communications between 
commanders in the field and the State Department and other agencies 
here in Washington. PM also enhances coordination and communication 
between State and military commanders through its Foreign Policy 
Advisors (POLAD) program which currently has 21 senior State Department 
officers assigned to the four Service Chiefs, the Combatant Commanders, 
and other senior commanders in the field. Efforts are underway to 
expand this program in the next several years.
    PM also plays a key role in coordinating the participation of other 
countries in coalitions such as Operation Enduring Freedom and 
Operation Iraqi Freedom. After initially working to enlist the 
participation of other countries, the PM Bureau now maintains regular 
contact with troop contributing governments to ensure that they are 
kept abreast of operational matters and that their needs for logistical 
support are met.
    In the policy realm, PM is working closely with the Department of 
Defense to better coordinate our national military strategy through its 
work in the Quadrennial Defense Review process and similar high-level 
defense planning efforts. One particularly noteworthy development in 
this regard is PM's Counterinsurgency or COIN Initiative which seeks to 
do for the civilian side of the Federal Government what General 
Petraeus has done for the military--to craft counterinsurgency working 
documents for use by State, USAID, Agriculture, and other nonmilitary 
agencies.
    A final aspect of PM's counterterrorism efforts that I will discuss 
is the Bureau's program to keep excess small arms and light weapons, to 
include man-portable air defense systems or MANPADS, out of the hands 
of terrorists and insurgents who would threaten U.S. interests and 
destabilize other parts of the world. Since its inception in 2002, PM's 
Small Arms/Light Weapons Destruction Program has destroyed over 1 
million weapons, 90 million rounds of ammunition, and over 21,000 
MANPADS in over 25 countries. The Bureau, working with the Defense 
Threat Reduction Agency (DTRA) has also assisted countries in properly 
securing their stocks of weapons and ammunition to keep them from 
inadvertently falling into the wrong hands. If confirmed, I will seek 
to further expand this very important program.
                           regional stability
    The Small Arms/Light Weapons Destruction Program also contributes 
directly to PM's second major area of responsibility, regional 
stability. In addition to eliminating weapons that could be used to 
create unrest, the PM Bureau promotes stability around the world by 
fostering effective defense relationships.
    Each year PM conducts high-level regional security discussions with 
friends and allies that address a variety of security-related issues of 
mutual interest including military assistance, combined training, and, 
when appropriate, the basing of U.S. military forces. In the past year, 
these discussions have enhanced important relationships in South 
America, Europe, and Asia.
    Another key component of PM's regional security role is the Gulf 
Security Dialog (GSD), a regional security coordination mechanism with 
the Gulf Cooperation Council (GCC) states. This dialog, co-lead by the 
PM Bureau and the Office of the Secretary of Defense, is a reflection 
of our broader commitment to Gulf security and is part of our larger 
strategy to deal with the interconnected conflicts in the Middle East. 
The GSD addresses conventional as well as nonconventional, 
asymmetrical, and terrorist threats to Gulf security. To counter these 
threats, the GSD is focused on six distinct, yet interconnected 
pillars: regional security, enhanced defense capabilities and 
cooperation, critical energy infrastructure protection, 
counterterrorism, counterproliferation, and developing a shared 
assessment on Iraq. If confirmed, I will continue this fruitful dialog 
and other efforts with our Gulf partners to improve Gulf security under 
each of the six pillars.
    Related PM efforts to promote regional stability through security 
dialogs with friends and allies include its management of nearly $5 
billion in security assistance. This funding, which includes the 
Foreign Military Financing (FMF), the International Military Education 
and Training (IMET), and the Peacekeeping Operations (PKO) programs, 
provides resources necessary to ensure that our partners are equipped 
and trained to work toward common security goals. They also deepen our 
military-to-military relationships as well as increasing understanding 
and cooperation.
    One program that is funded under the PKO program that I would like 
to highlight is the Global Peace Operations Initiative (GPOI), which 
seeks to increase the number of properly trained and equipped 
peacekeepers available for peace support operations around the world. 
GPOI's goals include training 75,000 additional peacekeepers, providing 
transportation and logistics support for peace operations, and, in 
partnership with the Government of Italy, establishing an international 
training center for gendarmes to help fill the security gap between 
military forces and civilian police. This program is an important means 
of offsetting the need for U.S. military support for peace operations 
and if confirmed, I will make it one of my priorities.
    Finally, PM promotes regional stability and builds the partnership 
capacity of our allies through its regulation of U.S. defense trade. 
Through its export licensing, end-use monitoring, and compliance 
programs, the Bureau plays a key role providing the military hardware 
necessary for our allies to fight the war on terror, while ensuring 
that U.S. defense equipment and technologies do not fall into the wrong 
hands. This is no small task as the volume of license applications 
submitted for adjudication is growing 8 percent annually and is 
expected to reach 80,000 at the end of fiscal year 2007. Although 
processing the growing number of applications is of great importance, 
equally so are the PM Bureau's efforts to monitor the end use of 
exported military equipment. Through its ``Blue Lantern'' program, PM 
checks the bona fides of potential recipients and makes sure that 
defense equipment that is exported is used only for approved purposes. 
PM also supports the efforts of Federal law enforcement agencies in 
criminal actions initiated pursuant to the Arms Export Control Act and 
the International Traffic in Arms Regulations. If confirmed, I will 
make it a priority to meet these responsibilities fully.
             humanitarian assistance to victims of conflict
    PM's third major area of responsibility is the provision of 
humanitarian assistance to victims of conflict. Since 1993, PM has been 
responsible for the management of U.S. humanitarian mine action 
programs around the world and since that time has committed over $1 
billion to assist in the removal of landmines in over 40 countries. In 
addition to removing landmines that threaten the well-being and 
livelihood of millions, these funds have been used to educate children 
as to the dangers of landmines and to assist landmine victims.
    I am pleased to say that this is an area in which we are truly 
making a difference. Landmine casualties are decreasing and several 
countries have been declared landmine ``impact free''--a designation 
that means they are no longer suffering social and economic dislocation 
due to landmines. This is a program we can all be proud of and one that 
if confirmed, I will be most happy to provide leadership to.
                               conclusion
    In conclusion, while I have only touched of a portion of PM's many 
responsibilities, I think they attest to the important contributions 
that the Bureau is making to our national security and to the 
furthering American foreign policy objectives.
    Given the magnitude of these responsibilities, I am truly honored 
to have been nominated by the President and Secretary Rice to lead the 
Bureau of Political-Military Affairs.
    If confirmed, I will do my utmost to demonstrate to the President 
and the Secretary--and to the more than 300 men and women who serve in 
the PM Bureau--that their trust in me was fully justified.
    Thank you and I look forward to answering your questions.
                                 ______
                                 

       Prepared Statement of Harry K. Thomas, Jr., Nominee to be 
                Director General of the Foreign Service

    Mr. Chairman, members of the committee, I appreciate the 
opportunity to appear before you today.
    I would like to introduce my wife, Ericka Smith-Thomas, a musician, 
and my mother, Mrs. Hildonia Thomas, a retired social worker and 
teacher. Our daughter, Casey, is away at Guilford College.
    I would like to express my sincere appreciation to President Bush 
for nominating me as Director General of the Foreign Service and 
Director of Human Resources at the Department of State. I am grateful 
for the confidence that the President and Secretary Rice have shown in 
selecting me for this position. I must also thank Father Brooks, his 
fellow Jesuits, and my College of the Holy Cross professors who first 
opened my eyes to the importance of global issues.
    I have traveled a long way from the Harlem of my birth to this day, 
as has our great country, which has given me the opportunity to appear 
before you today seeking, if confirmed, the opportunity to take charge 
of human resources for the world's finest diplomatic service. The State 
Department's primary mission is to take care of American citizens and 
American interests abroad, and I welcome the opportunity to help 
prepare our employees to do so.
    Mr. Chairman, if confirmed, I will continue Secretary Rice's and 
former Director General Staples' work to implement transformational 
diplomacy. We are transforming our overseas presence to meet 21st 
century demands. We are stressing the efficient management of our team 
of employees. We are sending officers beyond foreign capitals to run 
one person American presence posts and opening American corner 
libraries in rural villages and urban areas alike to give people a 
chance to learn about America and become more educated. We are taking 
advantage of new technologies with virtual presence posts, training and 
development opportunities for our worldwide workforce via digital video 
conference, and ``Diplopedia,'' our version of wikipedia.
    We have introduced an improved Foreign Service selection process, 
including a shorter, computer-based exam that will be offered several 
times a year. The new process will allow us to consider applicants' 
leadership and foreign language skills, as well as global work and 
study experience, and should reduce the time it takes to bring on new 
hires. We expect to have nearly 20,000 registrants for this examination 
annually and are very proud that we are the number one choice in the 
public sector for college students seeking to serve our country.
    Today's State Department employees are eager to serve our country. 
Many work in hazardous and challenging environments. Over 25 percent of 
the Foreign Service has served in Iraq or Afghanistan. A number of 
civil service employees have also stepped forward. More than 750 of our 
overseas jobs are at unaccompanied posts. And some of our colleagues 
have made the ultimate sacrifice in service of our Nation. We are 
offering and expanding the counseling available to employees before and 
after they serve in dangerous environments. We must ensure that spouses 
and children receive full support. We must have safe and secure 
facilities for our employees.
    We recognize the importance of a modernized performance-based pay 
system that compensates fairly our men and women working abroad and 
will ask your help, Mr. Chairman, in authorizing this system.
    Mr. Chairman, I share the Secretary's commitment to a diverse and 
merit-based State Department. The Department has made tremendous 
strides during my 23 years of service, but we can and must continue 
with aggressive recruitment, development, and retention strategies. If 
confirmed, I will work toward that goal.
    In conclusion, Mr. Chairman, I am humbled and honored to have the 
opportunity to appear before you and the members of the committee. I 
ask for your assistance and support in ensuring that we are able to 
safeguard American citizens, defend our ideals and values, and manage 
the Department's greatest resource: our civil service, Foreign Service 
national, and Foreign Service specialist and generalist corps.
    And, if confirmed, I look forward to helping the Secretary make 
certain that we are prepared for future opportunities and trials.
    Thank you.
                                 ______
                                 

       Responses of Harry K. Thomas, Jr., to Questions Submitted 
                      by Senator Richard G. Lugar

    Question. What are your top three priorities for this position? By 
the end of the Bush administration, what do you hope to be able to 
report that you have accomplished?

    Answer. If confirmed, I plan to continue the efforts of the 
Secretary, other senior Department of State officials, and my 
predecessors to ensure that the Department is prepared to take on the 
challenges of our critical foreign policy mission in the 21st century. 
Ongoing issues, such as addressing the Department's personnel 
shortages, ensuring adequate training and development for all State 
employees, and securing critical legislative changes, including Foreign 
Service pay modernization, are critical to maintaining the Department's 
operational readiness.
    In addition to pursuing these ongoing challenges, one of my top 
priorities as the Director General will be to continue the Secretary's 
commitment to a diverse and merit-based State Department. The 
Department has made tremendous strides during my 23 years of service, 
but we can and must continue with aggressive recruitment, development, 
and retention strategies. I plan to work closely with the Office of 
Recruitment, Employment, and Examination, as well as the Office of 
Civil Rights, toward that goal.
    I would also like to expand the opportunities for civil service 
employees at the Department of State. I hope to do more to support, 
develop, and take full advantage of the skills and capabilities of the 
8,500 civil service employees who form the backbone of the Department's 
domestic operations. I plan to meet with the Office of Personnel 
Management, as well as to expand existing initiatives within the 
Department, to see what more can be done for civil service employees 
during my tenure as the Director General.
    My third priority would be to improve the customer service provided 
by the Bureau of Human Resources to all State Department personnel. I 
hope to take advantage of online capabilities and other technology to 
simplify and speed up check-in/check-out procedures for transferring 
employees, eliminate unnecessary paperwork, and consolidate operations, 
as needed, to better serve our internal customers.
    If I am confirmed as the Director General, I look forward to 
pursuing these three priorities within the scope of my greater mission 
of managing the Department's greatest resource: our civil service, 
Foreign Service national, Foreign Service specialist and generalist 
corps, and eligible family members.

    Question. What measures is the Department taking to address the 
shortfall of officers at the mid-levels? Are these measures sufficient 
to fill staffing gaps? If not, what measures will you consider 
recommending to address these gaps?

    Answer. The Department will continue to deal with staffing 
shortfalls by eliminating or not filling some less critical positions, 
considering ``stretch'' assignments on a case-by-case basis, seeking 
qualified civil service volunteers and eligible family members to fill 
vacant Foreign Service positions, and waiving language requirements for 
certain assignments. In conjunction with the third phase of the global 
repositioning exercise in fiscal year 2007, we eliminated several 
domestic Foreign Service and civil service positions to provide a small 
number of positions for language training. This small increase 
notwithstanding, the Department will continue to be faced with the 
choice between not training sufficient numbers of Foreign Service 
officers in our most critical needs languages, such as Arabic, or 
continuing to increase our language training enrollments and leaving 
more vacancies at overseas and domestic locations.
    Of particular concern is the potential for overseas vacancies at a 
time when the Department is striving to increase its overseas presence 
and more actively engage nongovernmental organizations, foreign media, 
and host country populations outside of capital cities. The 
Department's fiscal year 2008 budget request emphasized positions to 
meet increased overseas mission requirements, not in place of our 
global repositioning initiatives, but in addition to what has been 
repositioned to our most strategic locations.
    The Department is also faced with the critical task of fully 
implementing the Secretary's vision of enhanced U.S. Government 
civilian capacity to act in situations of reconstruction and 
stabilization following natural or manmade crises. Without resources 
dedicated to this endeavor, the Department will be limited in its 
ability to lead, coordinate, and institutionalize the U.S. Government's 
capacity to prevent or prepare for post-conflict situations, and help 
societies in transition.

    Question. Where do you believe are the most significant gaps, in 
terms of capabilities, in the Foreign Service? What should be done to 
close these gaps?

    Answer. The Department faces structural personnel deficits, as well 
as shortages of officers with particular language capabilities. Our 
most significant structural deficit is at the FO-02 level in the public 
diplomacy and management cones. The total deficit at the FO-02 level is 
210 officers. This structural deficit is largely due to underhiring at 
USIA in the 1990s prior to the merger with the Department of State. As 
the new Foreign Service personnel hired under the Diplomatic Readiness 
Initiative in 2002-2004 work their way through the system, the gap 
between positions and available officers should narrow significantly. 
In the meantime, the Department is encouraging officers from other 
cones to consider public diplomacy and management positions, utilizing 
qualified civil service employees and eligible family members to fill 
vacant Foreign Service positions, eliminating some domestic Foreign 
Service positions so that officers can serve overseas in these 
positions, and leaving some less critical positions vacant.
    The Department is also working to address training shortfalls, 
particularly of Foreign Service personnel with proficiency in 
particular languages. Increasing demands since 9/11, as well as the 
lack of an adequate training complement, have stymied the Department's 
ability to train personnel, particularly at the pace that additional 
language-designated positions have been created overseas. Since 2001, 
the number of language designated positions that require proficiency in 
critical needs languages, including Arabic, Chinese, Farsi, and Korean, 
which are often the hardest to teach and can require upwards of 2 years 
to gain working proficiency, have increased by 170 percent. There has 
not, however, been a concurrent increase in the Department's training 
complement. The Department's fiscal year 2008 budget request included 
94 new Foreign Service positions specifically for training, and while 
many will be devoted to foreign language training we must also train to 
meet the other requirements of transformational diplomacy. The 
increasing need for training will also be taken into consideration as 
we develop the Department's fiscal year 2009 budget request.

    Question. A recent inspection report of the Bureau of Human 
Resources by the State Department Inspector General concludes that the 
``civil service system may not be adequate to meet the needs of the 
Department. It fails to develop the knowledge, skills and abilities of 
Civil Service employees to the best advantage of the employees and the 
Department . . . The Department needs a domestically based service that 
can develop personnel who can manage global political, military, 
economic, and social issues and provide administrative support to the 
Department.''
    (a) Do you agree with this assessment by the Inspector General? If 
so, what measures would you propose in response?
    (b) The report recommended a high-level external review on the 
future of the civil service. Do you know if that recommendation has 
been accepted by the Under Secretary for Management?

    Answer. If confirmed as Director General, one of my priorities will 
be to expand the opportunities for civil service employees at the 
Department of State. I hope to do more to support, develop, and take 
full advantage of the skills and capabilities of the 8500 civil service 
employees who form the backbone of the Department's domestic 
operations. Working together with the Under Secretary for Management 
and within the context of other management reforms underway at the 
Department, I plan to meet with the Office of Personnel Management to 
see what more can be done to best utilize the Department's civil 
service corps.
    The Department has a number of new and ongoing initiatives aimed at 
developing the knowledge, skills, and abilities of our civil service 
workforce. Some examples of these initiatives include:

  <bullet> Civil Service Mid-level Rotational Program.--This program is 
        designed to provide developmental assignments for Department of 
        State civil service employees at the GS-12 and GS-13 grade 
        level in order to broaden their skills, increase their 
        knowledge, and enhance their personal and professional growth. 
        The program, started as a pilot in 2007, will be expanded in 
        2008.
  <bullet> Training Continuum for Civil Service Employees.--The 
        Department's Foreign Service Institute has recently updated and 
        expanded training and professional development guidelines by 
        job series. The continuum addresses required, recommended, and 
        suggested individual development needs at the basic, 
        intermediate, and advanced level.
  <bullet> SES Development Program.--The Department is offering an SES 
        training program to highly skilled, high performing GS-14 and 
        GS-15 employees. Upon completion of the 1 to 2 year 
        individually-designed training program, the graduates will be 
        noncompetitively eligible for SES positions as they become 
        available.
  <bullet> Civil Service Mentoring Program.--Now in its fifth year, the 
        civil service mentoring program includes formal mentoring 
        partnerships and situational mentoring on an as needed basis. 
        To date, 1,681 employees have participated.
  <bullet> Career Entry Program (CEP).--The Department's version of the 
        Federal Intern Program actively addresses hiring and employee 
        development specific to mission-critical occupations as 
        determined by the Domestic Staffing Model (DSM). The 2-year 
        structured career ladder program is designed to fast-track high 
        potential employees to address future staffing needs.
  <bullet> Upward Mobility Program (UPMO).--This program has just 
        undergone a major policy and guideline review to address 
        employee develop needs at the GS 7-9 levels. A shorter version 
        of the CEP program, UPMO also represents a career-ladder 
        program with specific training and experiential requirements to 
        qualify and advance employees specific to a job series.
  <bullet> Career Development Resource Center (CDRC).--The CDRC 
        provides comprehensive career development services to help 
        individuals make effective career decisions and improve on-the-
        job performance. The services offered by the CDRC include 
        confidential career counseling, assistance with planning and 
        implementing Individual Development Plans (IDP), assessment and 
        interpretation of interests, skills and abilities, help in 
        negotiating change and barriers to career success, group 
        workshops on career related topics, and customized 
        presentations for bureaus and employee groups.
  <bullet> Civil Service Excursions.--Civil service employees have the 
        opportunity to bid on and serve in vacant Foreign Service 
        positions overseas. These excursion assignments, often at 
        dangerous and difficult posts including Iraq and Afghanistan, 
        broaden the participants' view of the State Department's 
        mission and benefit the Department by filling positions that 
        might otherwise have been left vacant.

    If confirmed as the Director General, I plan to closely monitor 
these initiatives and expand or revise them, as necessary, to ensure 
they are most effectively serving the Department and the civil service.

    Question. Some 2,000 Foreign Service members have volunteered to 
serve in dangerous jobs in Iraq since 2003, but the size of the U.S. 
Mission there appears to be straining the Foreign Service personnel 
system. Do you expect that, in future years, the Department will run 
short of volunteers? If so, what measures would be taken? Do you expect 
that it will be necessary to use directed assignments? Are there other 
alternatives?

    Answer. To date, the Department has relied on volunteers to staff 
positions in Iraq. We are grateful to the dedicated men and women who, 
in the finest tradition of the Foreign Service and the Department in 
general, are committed to serving the needs of America and have 
answered the call to serve in Iraq. The Department cannot, however, 
sustain current levels of Iraq staffing over many years within our 
current personnel and assignments structure without asking employees to 
serve multiple tours or directing assignments. The challenge of 
staffing more than 250 1-year Foreign Service positions in Iraq with 
our relatively small corps of Foreign Service generalists and 
specialists is further exacerbated by the Department's structural 
personnel shortages in the Foreign Service mid-levels and among Arabic 
speakers.
    To meet the challenge of staffing Iraq, we will continue to review 
the incentives for service in Iraq, including a new initiative to link 
some assignments in Iraq to onward assignments elsewhere, offer 
opportunities to qualified civil service employees and eligible family 
members to fill vacant Foreign Service positions, and, depending on 
which positions do not attract volunteers, we may also be able to 
utilize shorter-term employees hired under 5 U.S.C. 3161. If and when 
we run out of volunteers for positions in Iraq or elsewhere, we are 
prepared to direct assignments.

    Question. What have been the effects of the requirements to staff 
Iraq and Afghanistan on United States diplomatic posts elsewhere, both 
in terms of personnel and the resultant impacts on mission objectives?

    Answer. We are doing all we that we can to maintain operational 
readiness at all of our missions around the world and effectively carry 
out the Department's critical foreign policy mission. We are proud of 
our success to date, including our ability to staff Iraq and 
Afghanistan, but we also acknowledge that, despite our best efforts, 
the Department's staffing needs exceed our current resources. The 
recent reports from the GAO, the Foreign Affairs Council, CSIS, and 
other groups have highlighted the Department's deficit of mid-level 
Foreign Service officers and the need for an adequate training float.
    The requirement to staff missions in Iraq and Afghanistan is just 
one aspect of the personnel issues facing the Department. We must also 
balance our changing needs and requirements with the limited number of 
positions set aside for training and determine when it is in the 
Department's long-term interest to leave some positions temporarily 
vacant to allow for training or to fill other higher priority jobs. At 
the same time, we are realigning our personnel resources around the 
world to better reflect emerging policy priorities and reach population 
centers beyond foreign capitals. These challenges, as well as the 
increasing number of positions at unaccompanied and limited accompanied 
posts, have required that we adapt our assignments processes, 
prioritize positions, and fill some Foreign Service positions with 
qualified civil service employees and eligible family members. While 
there are some vacancies overseas and domestically, we feel that our 
efforts and planning to date have enabled our missions to continue to 
maintain operational readiness and implement the Department's critical 
priorities around the world.

       Responses of Harry K. Thomas, Jr. to Questions Submitted 
                      by Senator Richard G. Lugar

    Question. The Department recently introduced changes to the exam 
process for Foreign Service generalists. Along with the performance on 
the examination, an applicant's educational background and work 
experience, including overseas experience, will be taken into account.
    What aspect of the recent McKinsey study led the Department to 
conclude that it needed to alter the Foreign Service exam process?
    At what point in the process is a candidate's resume examined? How 
will you guard against politicization of the process--political jobs 
held, knowledge of influential people, etc?

    Answer. Although McKinsey found the Department's use of a written 
test and an oral assessment to be best practices for identifying 
candidates with the greatest potential, their study recommended that we 
make our Foreign Service selection process faster and more accessible. 
For this reason we have put the Foreign Service selection process 
online and will be offering the test four times a year.
    More importantly, McKinsey recommended we adopt more of a ``Total 
Candidate'' approach, a best practice used by many other employers, in 
our Foreign Service selection process. This approach uses a structured 
resume to explore candidates' full range of knowledge, skills, and 
abilities. Our new process retains the best-practice elements of a 
merit-based test and an oral assessment, and introduces the application 
form and personal narrative, our equivalent of a structured resume, and 
the new qualifications review panels to review them. The result is that 
we now will look at many facets of candidates, not just test scores, to 
decide who advances to the orals.
    Candidates' resumes--that is, the information conveyed in 
candidates' application forms and personal narratives--are examined 
after candidates pass the Foreign Service Officer Test (FSOT) and the 
essay. To assess this information, we have established the 
Qualifications Evaluation Panels (QEPs). There are several QEPs, each 
consisting of three career Foreign Service officers from the mid- and 
senior ranks. The QEPs will evaluate the information in the application 
forms (principally education and work history) and the personal 
narratives (principally qualifying experience and skills), along with 
candidates' FSOT Test scores and scores in critically needed languages. 
By thus evaluating much more information than test scores alone, the 
QEP will be better able to identify the most promising candidates to 
invite to the orals. As the result of four pilots monitored by an 
outside expert, we have a well-structured QEP system that exceeds 
benchmark standards for reliability.
    QEP members are drawn from the same group of FSOs that conduct the 
oral assessment, and they will carry out their duties with the same 
insulation from outside influence that has always applied to the oral 
assessment process. As an added precaution, QEP members are expressly 
forbidden to communicate with persons outside the QEP about candidates 
and are instructed to report any attempts to communicate about 
candidates to the Director of the Board of Examiners.

    Question. (a) Please provide the total FTE, by grade, for each 
fiscal year since fiscal year 2000 for both FS and GS.
    (b) Please provide for the committee a list of the total FS and GS 
personnel working for each fiscal year from fiscal year 2000, by grade.
    (c) For each year, please provide the number, by grade, of FS and 
GS who departed (this can combine retirement, resignation, time in 
class, and termination) since fiscal year 2000.
    (d) For each year, please provide the number, by grade, of FS and 
GS who were hired since fiscal year 2000.

    Answer. Notes:

  <bullet> The data in the following charts reflect totals at the end 
        of each fiscal year, except fiscal year 2007 (which is as of 7/
        31/07).
  <bullet> Civil service totals include General Schedule as well as 
        other equivalent pay plans (including EX, AD, WG, etc.). 
        Political appointees are included in the civil service 
        personnel totals, except when on limited noncareer Foreign 
        Service appointments.
    (a) Number of Foreign Service and civil service positions:

                                                                     FOREIGN SERVICE
--------------------------------------------------------------------------------------------------------------------------------------------------------
                              Class                                 FY2000     FY2001     FY2002     FY2003     FY2004     FY2005     FY2006     FY2007
--------------------------------------------------------------------------------------------------------------------------------------------------------
FECM............................................................         37         48         46         41         42         41         42         43
FEMC............................................................        393        389        394        410        417        416        418        424
FEOC............................................................        457        462        475        487        513        518        547        553
FS01............................................................      1,114      1,142      1,177      1,209      1,249      1,286      1,347      1,359
FS02............................................................      2,048      2,099      2,196      2,283      2,401      2,448      2,521      2,518
FS03............................................................      2,262      2,219      2,305      2,388      2,442      2,545      2,669      2,682
FS04............................................................      1,679      1,781      2,222      2,446      2,657      2,756      2,775      2,823
FS05............................................................        792        817        836        841        859        862        801        797
FS06............................................................        418        397        397        407        418        418        407        412
FS07............................................................         96         90         80         78         75         87         88         79
FS08............................................................         --          1         --         --         --         --         --         --
FS09............................................................         --         --         --         --         --         --          2         --
F* 00...........................................................         27         11          8          6         12          8          6          6
      Total.....................................................      9,323      9,456     10,136     10,596     11,085     11,385     11,623     11,696
--------------------------------------------------------------------------------------------------------------------------------------------------------
The F* 00 grade level includes positions that are at various grades for training and overcomplement.


                                                                      CIVIL SERVICE
--------------------------------------------------------------------------------------------------------------------------------------------------------
                              Class                                 FY2000     FY2001     FY2002     FY2003     FY2004     FY2005     FY2006     FY2007
--------------------------------------------------------------------------------------------------------------------------------------------------------
SES.............................................................        252        235        241        247        242        253        258        248
GS 15...........................................................        712        706        734        769        785        838        893        900
GS 14...........................................................        904        976      1,032      1,121      1,169      1,284      1,375      1,422
GS 13...........................................................      1,544      1,657        768      1,889        968      2,077      2,168      2,155
GS 12...........................................................      1,145      1,176      1,258      1,345      1,436      1,493      1,511      1,541
GS 11...........................................................      1,052      1,082      1,183      1,235      1,301      1,258      1,351      1,258
GS 10...........................................................         64         64         56         50         44         46         48         41
GS 09...........................................................        859        896        928        847        805        846        868        911
GS 08...........................................................        424        397        366        382        357        342        352        327
GS 07...........................................................        792        735        722        729        733        694        788        835
GS 06...........................................................        311        269        260        231        219        171        151        138
GS 05...........................................................        242        202        207        165        130        114        123        181
GS 04...........................................................         61         51         51         41         27         20         26         19
GS 03...........................................................         49         45         20         15         15         12         16         12
GS 02...........................................................         34         43          5          6          3          1          4          2
GS 01...........................................................         28          3          1          2          1         --          6          2
AD05*...........................................................         --         --         --         --        257        308        359        475
      Total.....................................................      8,473      8,537      8,832      9,074      9,493      9,757     10,297     10,467
--------------------------------------------------------------------------------------------------------------------------------------------------------
*AD05 includes positions in the Iraq Transition and Assistance Office (ITAO).

    (b) Number of Foreign Service and civil service employees:

                                                                     FOREIGN SERVICE
--------------------------------------------------------------------------------------------------------------------------------------------------------
                              Class                                 FY2000     FY2001     FY2002     FY2003     FY2004     FY2005     FY2006     FY2007
--------------------------------------------------------------------------------------------------------------------------------------------------------
FECM............................................................         92         55         83         33         29         28         27         28
FEMC............................................................        329        361        358        424        438        425        439        438
FEOC............................................................        459        463        470        463        468        480        477        504
FS01............................................................      1,147      1,123      1,142      1,154      1,173      1,209      1,245      1,297
FS02............................................................      1,853      1,930      1,960      2,005      2,040      2,069      2,054      2,122
FS03............................................................      1,882      1,788      1,876      1,888      1,929      1,983      2,193      2,476
FS04............................................................      1,563      1,912      2,256      2,501      2,883      3,268      3,239      3,134
FS05............................................................      1,250      1,028      1,322      1,276      1,077      1,020        921
FS06............................................................        484        563        871        661        612        569        576        531
FS07............................................................        197        102        102        127        139        130        126         89
FS08............................................................         27          1          1          1         --          1          2
      Total.....................................................      9,283      9,326     10,089     10,579     10,988     11,238     11,397     11,542
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                      CIVIL SERVICE
--------------------------------------------------------------------------------------------------------------------------------------------------------
                              Class                                 FY2000     FY2001     FY2002     FY2003     FY2004     FY2005     FY2006     FY2007
--------------------------------------------------------------------------------------------------------------------------------------------------------
SES.............................................................        212        167        198        201        212        208        214        205
GS 15...........................................................        617        595        650        679        680        715        736        788
GS 14...........................................................        757        808        884        967      1,015      1,078      1,151      1,220
GS 13...........................................................      1,264      1,340      1,491      1,621      1,700      1,771      1,849      1,806
GS 12...........................................................        931        961      1,043      1,114      1,169      1,250      1,234      1,273
GS 11...........................................................        892        906      1,034      1,090      1,125      1,069      1,092      1,090
GS 10...........................................................         52         52         49         45         36         41         39         37
GS 09...........................................................        712        745        734        700        665        698        660        767
GS 08...........................................................        375        343        317        335        317        299        292        267
GS 07...........................................................        620        588        559        599        594        574        642        680
GS 06...........................................................        243        204        185        185        162        139        113        100
GS 05...........................................................        188        149        159        130        102         98        100        153
GS 04...........................................................         43         43         41         43         37         24         28         33
GS 03...........................................................         35         26         19         18         16         10         11         11
GS 02...........................................................         14         14          4          3          1          1          1          1
GS 01...........................................................          3          2          1          1         --         --         --         --
AD05*...........................................................         --         --         --         --         --        117        108        139
      Total.....................................................      6,958      6,943      7,368      7,731      7,831      8,092      8,270      8,570
--------------------------------------------------------------------------------------------------------------------------------------------------------
*AD05 includes positions in the Iraq Transition and Assistance Office (ITAO).

    (c) Number of Foreign Service and civil service employees who 
departed:
    [Note. Includes employees who departed due to resignation, 
retirement, removal, death, and termination.]

                                                                     FOREIGN SERVICE
--------------------------------------------------------------------------------------------------------------------------------------------------------
                              Class                                 FY2000     FY2001     FY2002     FY2003     FY2004     FY2005     FY2006     FY2007
--------------------------------------------------------------------------------------------------------------------------------------------------------
FECM............................................................          6         63          6         10          6          7          5          2
FEMC............................................................         31         35         43         29         49         68         61         35
FEOC............................................................         22         29         31         31         37         46         46         18
FS01............................................................         76         72         63         82         90        110         93         44
FS02............................................................         67         81         93         70         85         96        103         56
FS03............................................................         88        101         71         87         79        101         78         45
FS04............................................................         88        118        113        128        149        155        213        104
FS05............................................................         40         42         35         33         56         67         56         17
FS06............................................................         21         22         18         21         24         21         25         20
FS07............................................................          8          6          0          5          5          2          1          1
FS08............................................................          1          1          0          0          0          0          0          0
      Total.....................................................        448        570        473        496        580        673        681        342
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                      CIVIL SERVICE
--------------------------------------------------------------------------------------------------------------------------------------------------------
                              Class                                 FY2000     FY2001     FY2002     FY2003     FY2004     FY2005     FY2006     FY2007
--------------------------------------------------------------------------------------------------------------------------------------------------------
SES.............................................................         16         84         14         29         17         43         30         19
GS15............................................................         23         76         40         57         71         77         78         41
GS14............................................................         37         58         43         55         64         89         82         69
GS13............................................................         44         90         63         95        114        161        121        108
GS12............................................................         27         48         55         56         98        105        101         61
GS11............................................................         34         52         33         48         64         71         86         34
GS10............................................................          2          4          4          2          5          5          4          2
GS09............................................................         31         48         38         38         52         47         61         28
GS08............................................................         17         12         16         13         23         14         18         18
GS07............................................................         21         38         31         29         48         42         42         27
GS06............................................................         11         13         16         12         14         20         14          7
GS05............................................................         18         14          6         15          9         11          7         10
GS04............................................................          7          2          2          6          3          3          1          1
GS03............................................................          5          1          3          1          2          1          1          0
GS02............................................................          0          1          3          0          1          0          0          0
GS01............................................................          0          0          0          0          1          0          0          0
AD05*...........................................................          0          0          0          0          0          0         76         35
      Total.....................................................        293        541        367        456        586        689        722        460
--------------------------------------------------------------------------------------------------------------------------------------------------------
*AD05 includes positions in the Iraq Transition and Assistance Office (ITAO).

    (d) Number of Foreign Service and civil service employees hired:

                                                                     FOREIGN SERVICE
--------------------------------------------------------------------------------------------------------------------------------------------------------
                              Class                                 FY2000     FY2001     FY2002     FY2003     FY2004     FY2005     FY2006     FY2007
--------------------------------------------------------------------------------------------------------------------------------------------------------
FECM............................................................         14         --         25         --          1         --          1         --
FEMC............................................................         32         17          3          4         21         16         24          9
FEOC............................................................         89          1          2          1          2          1          2         --
FS01............................................................        201         11         14          4         22         11         11         13
FS02............................................................        224         16         13         13         13          7          6          3
FS03............................................................        176         38         70         62         51         26         32         23
FS04............................................................        128        448        217        296        322        261        224        159
FS05............................................................        289         14        377        343        282        259        255         95
FS06............................................................        145         36        437        221        255        171        202        103
FS07............................................................         38          6         45         64         73         71         51         19
FS08............................................................          8         --         --         --         --         --         --         --
      Total.....................................................      1,344        587      1,203      1,008      1,042        823        424
--------------------------------------------------------------------------------------------------------------------------------------------------------
Categories above include personnel on limited noncareer appointments (LNAs).


                                                                      CIVIL SERVICE
--------------------------------------------------------------------------------------------------------------------------------------------------------
                              Class                                 FY2000     FY2001     FY2002     FY2003     FY2004     FY2005     FY2006     FY2007
--------------------------------------------------------------------------------------------------------------------------------------------------------
SES.............................................................         24         31         27         13         16         26         22          8
GS15............................................................         98         26         55         45         51         41         46         39
GS14............................................................        147         56         44         55         49         66         78         47
GS13............................................................        348        130        143        119        107        141        128         76
GS12............................................................        191         75        133        126        121        126        102         66
GS11............................................................        109         57         76         55         59         60         59         54
GS10............................................................          7         --          4          1         --          3          2         --
GS09............................................................        177         33        100        102         76        104         87         58
GS08............................................................         73         11         14         20          4          9         14          8
GS07............................................................        126         38         91        126        120        126        211        169
GS06............................................................         60          5         32         22         16         21          6         10
GS05............................................................         55          8         27         28         12         13         33         49
GS04............................................................          5          1          2          6         14          2          7          8
GS03............................................................          1          1          1          1          1         --          2         --
GS02............................................................          1         --         --         --         --         --         --          1
GS01............................................................          3         --         --         --         --         --         --         --
AD05*...........................................................         --         --         --         --         --         99         58         73
      Total.....................................................      1,425        472        749        719        646        837        855        666
--------------------------------------------------------------------------------------------------------------------------------------------------------
*AD05 includes positions in the Iraq Transition and Assistance Office (ITAO).

    Question. What is the current representation of minorities in the 
Foreign Service? What initiatives is the Department undertaking to 
address this issue?

    Answer. The breakdown of Foreign Service generalists and 
specialists, as of May 31, 2007, is as follows:

 
------------------------------------------------------------------------
                                          Foreign Service Employees
                                   -------------------------------------
                                          Number           Percentage
------------------------------------------------------------------------
White.............................              9,457               82.2
African American..................                764                6.6
Hispanic..........................                611                5.3
American Indian...................                 38                0.3
Asian.............................                633                5.5
      Total.......................             11,503                100
------------------------------------------------------------------------
Note. Employees who did not identify a racial category (less than 50
  employees) were not included in any category.

    If confirmed, I will continue the Department's efforts to attract 
the most talented, diverse applicants to our exciting foreign affairs 
career opportunities. The Department's Strategic Recruitment Plan is 
modeled on successful recruitment efforts of private industry and the 
public sector. It seeks to achieve the long-term objectives of a 
workforce that meets the Department's skill needs and that represents 
America's rich diversity. One important focus of the plan is aggressive 
minority recruitment and outreach.
    Key elements of our minority outreach strategy are the 17 diplomats 
in residence (DIRs), senior Foreign Service officers assigned to 
university and college campuses throughout the United States. We also 
have 10 full-time DC-based recruiters who cover every region of the 
country. The mandate of DIRs and recruiters includes recruiting, 
informing, and mentoring potential applicants for Foreign Service and 
civil service employment at the Department of State. Of the 10 
recruiters, one is a full-time Hispanic Recruitment Coordinator and 
another is a full-time African American Recruitment Coordinator.
    At the core of our minority recruitment and outreach are 59 
targeted schools, 10 targeted professional organizations, and 41 
targeted constituency organizations with which the DIRs and recruiters 
work on a regular basis to find minority candidates with the knowledge, 
skills, and abilities that the Department is seeking. DIRs and 
recruiters conduct active programs to develop and present workshops 
regarding employment, internship, and fellowship opportunities to 
minority students and professionals throughout the United States. DIRs 
and recruiters attend approximately 800 recruiting events every year, 
in addition to hundreds of one-on-one personal contacts via e-mail, 
telephone, and office meetings.
    Working with the Minority Professional Network (MPN), the 
Department of State conducted special State Department networking 
nights in major metropolitan areas including Los Angeles, Anaheim, 
Atlanta, Chicago, Raleigh, San Diego, San Antonio, and Miami. The 
networking nights are often on the margins of conferences such as the 
National Society of Hispanic MBAs and the National Black MBA 
conferences. Through leveraging MPN and U.S. Department of State 
relationships with local partner organizations, these cost-effective 
turnkey events resulted in media recognition and interviews.
    The State Department works with the Hispanic Association of 
Colleges and Universities (HACU), the National Association for Equal 
Opportunity in Higher Education (NAFEO) and the American Indian Science 
and Engineering Society (AISES), to provide opportunities for summer 
interns in Washington or in one of the embassies and consulates 
overseas. This is a unique opportunity for students interested in 
international careers to obtain hands-on experience. Two needs-based 
student fellowship programs, the Pickering and Rangel programs, have 
also been important sources of minority recruitment for the Foreign 
Service.

    Question. What specific changes have been made at FSI to address 
the new skills highlighted in the Secretary's Transformational 
Diplomacy proposals?

    Answer. Training is key to the success of the Secretary's 
Transformational Diplomacy (TD) framework. The Foreign Service 
Institute (FSI) has developed a variety of stand-alone courses and 
seminars to support that framework and has incorporated TD themes 
throughout its curriculum. Examples include:
                   transformational diplomacy courses
  <bullet> FSI developed a new online course, ``Transformational 
        Diplomacy Overview,'' to help employees at every level 
        understand what TD means and how they can practice it. To date, 
        345 employees have completed the course.
  <bullet> All Orientation Division courses (generalist, specialist, 
        and civil service orientation courses and Washington 
        Tradecraft) include specific sessions on transformational 
        diplomacy. Senior level speakers (including the Deputy 
        Secretary and the Under Secretary for Political Affairs) and 
        subject matter experts are urged to include practical 
        references to and examples of transformational diplomacy in 
        their presentations. Secretary Rice explained her vision of 
        transformational diplomacy in February 2007 to all three 
        orientation classes (generalists, specialists, and civil 
        service). The text and/or video recording of that speech have 
        been presented to each subsequent orientation class.
  <bullet> The Political/Economic Tradecraft course is a 3-week course 
        that trains about 275 new Foreign Service officers per year. In 
        line with transformational diplomacy themes, the course 
        includes skill-building sessions on public speaking, public 
        diplomacy, trafficking in persons, human rights, commercial 
        advocacy, environmental issues, working with the military, and 
        working with nongovernmental organizations. A full-day exercise 
        featuring transformational diplomacy best practices has been 
        added to each of the 10-12 annual offerings of this course. The 
        exercise provides many specific ideas for ways officers can 
        implement TD initiatives related to democracy promotion, 
        political-military roles, counterterrorism, economic 
        development, foreign assistance, conflict analysis, and 
        stabilization and reconstruction work.
                          leadership training
  <bullet> All levels of FSI's mandatory leadership training courses--
        from mid-grades through senior levels, including new 
        ambassadors and Deputy Chiefs of Mission--now incorporate 
        discussions of transformational diplomacy. These discussions 
        are built around the skills that leaders use to build teams and 
        produce results and about how the leadership challenges we face 
        today differ from those of the past.
                        american presence posts
  <bullet> FSI has developed a 3-week training program for American 
        Presence Post (APP) officers. Expanding the number of APP posts 
        is a core TD priority of the Secretary and this course focuses 
        on the responsibilities and skills needed to set up and 
        effectively function in an APP.
                       foreign language training
  <bullet> Language proficiency is critical to successful 
        transformational diplomacy. Language enrollments at FSI 
        continue to increase, including a record-breaking 565 in the 
        September 2007 intake.
  <bullet> FSI has undertaken a broad range of initiatives to enhance 
        Arabic and other language training in support of 
        transformational diplomacy. These include: A pilot program of 
        internships with Arabic satellite media (our first student 
        interned with a pan-Arab television station in Dubai in June 
        2005); Arabic media workshops have been held in Tunis for 
        advanced Arabic students as part of their training program and 
        special training workshops held for officers from Arabic-
        speaking posts throughout the region. Both target on-camera and 
        ``ambush'' interview skills; Spanish-language media workshop 
        provided to five outgoing DCMs at the conclusion of the July 
        2007 DCM course; A Spanish-language media training workshop is 
        scheduled to be held in Mexico City from Sept. 18-20, 2007 for 
        all principal officers currently serving in Mexico, and another 
        workshop for several WHA region Public Affairs Officers is 
        planned for January 2008. We are exploring expanding this model 
        to other languages such as French, Russian, and Chinese;FSI has 
        added 14 additional distance learning language courses in seven 
        languages since 2004. A total of 27 courses in 13 languages are 
        currently available online. FSI has increased opportunities for 
        advanced language training, including ``Beyond-3'' training in 
        Chinese, Arabic, Japanese, and Korean.
                            public diplomacy
  <bullet> Public Diplomacy training courses are constantly updated to 
        keep pace with transformational diplomacy and to reflect the 
        Department's current priorities and initiatives. FSI has added 
        new courses on ``Advocacy through the Media'' and ``Engaging 
        Foreign Audiences,'' and included PD modules in the new-hire 
        Foreign Service officer orientation, the ambassadorial and DCM/
        principal officers seminars, plus seven other tradecraft 
        courses (political, economic, consular, administrative 
        management, information management, APP and PRT).
                        interagency cooperation
  <bullet> FSI's new National Security Executive Leadership Seminar, 
        which includes participants from the State Department and other 
        foreign affairs agencies, builds the kind of networking skills 
        that are a central aspect of transformational diplomacy.
  <bullet> Transformational diplomacy seminars also bring together 
        leaders from across the interagency community to apply 
        transformational leadership skills to specific policy 
        challenges that affect fundamental American interests. Policy 
        topics have included democracy building, fighting corruption, 
        and countering pandemic disease. Nine such seminars have been 
        held thus far, with over 180 State and other agency 
        participants. Five seminars are planned for the next fiscal 
        year.
                    reconstruction and stabilization
  <bullet> FSI also has developed a slate of nine reconstruction and 
        stabilization courses, intended for interagency audiences, 
        focusing on how the U.S. Government can better respond to 
        global situations of instability and conflict.
                           foreign assistance
  <bullet> As a key element in reaching our transformational diplomacy 
        goals, more State officers and employees overseas are being 
        required to assume responsibility for designing, implementing, 
        and managing a wide range of foreign assistance awards at their 
        embassies. A new FSI course on Managing Foreign Assistance 
        Awards Overseas directly supports transformational diplomacy in 
        its effort to give officers the skills they need to better 
        align our assistance awards with our foreign policy priorities.
                                 ______
                                 

            Response of Harry Thomas to Question Submitted 
                         by Senator Bill Nelson

    Question. How can the Department of State work to access military 
facilities, the ones for veterans, to get treatment and information on 
PTSD?

    Answer. The Department of State's Office of Medical Services (MED) 
has had excellent experiences working with the Uniformed Services 
University of Health Sciences on PTSD and other issues. MED is 
currently in discussions with them about further assistance in the form 
of educational materials and training. The Department will continue to 
explore other options for cooperation and collaboration with the 
Department of Defense (DOD) and the Department of Veterans Affairs (VA) 
to better support State Department employees who may be experiencing 
Post Traumatic Stress Disorder or Traumatic Brain Injuries. Legislative 
changes would be required to allow nonveteran State Department 
employees to access DOD or VA medical facilities.

 
 NOMINATION OF CHRISTOPHER F. EGAN TO BE REPRESENTATIVE OF THE UNITED 
  STATES OF AMERICA TO THE ORGANIZATION FOR ECONOMIC COOPERATION AND 
                DEVELOPMENT, WITH THE RANK OF AMBASSADOR

                              ----------                              


                      TUESDAY, SEPTEMBER 18, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
Egan, Christopher F., to be Representative of the United States 
        to the Organization for Economic Cooperation and 
        Development, with the rank of Ambassador
                              ----------                              

    The committee met, pursuant to notice, at 2:43 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez presiding.
    Present: Senators Menendez, Kerry, and Sununu.

           OPENING STATEMENT OF HON. ROBERT MENENDEZ,
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. This hearing of the Senate Foreign 
Relations Committee will now come to order.
    Today, the committee meets to consider the nomination of 
Mr. Christopher Egan. The President has nominated Mr. Egan to 
be the United States Representative to the Organization for 
Economic Cooperation and Development, with the rank of 
Ambassador.
    Mr. Egan, I want to congratulate you on your nomination, 
and welcome your family and friends who may be with you today.
    I also want to welcome our colleague Senator Sununu, who 
will be introducing Mr. Egan shortly. And I believe there are 
others, as well, who would like to join in the voices of 
support for the nominee.
    Let me start off, before I recognize myself for an opening 
statement, Senator Kennedy asked me, on the floor while we were 
voting, to ask unanimous consent to enter his statement in 
support of Mr. Egan into the record. Without objection, so 
ordered.
    [The prepared statement of Senator Kennedy appears at the 
end of this hearing in the ``Additional Material Submitted for 
the Record'' section.]
    Senator Menendez. Certainly, it is a glowing statement. 
And, while I won't read it all, it certainly says, among other 
things, that he is impressed with your ability, your commitment 
to service, and you--he believes you have the personal and 
collaborative skills necessary for this position, and cites 
your great work in the private sector and your career and 
relationships in the great State of Massachusetts, and is 
strongly supportive of the nominee.
    With that, let me recognize myself for an opening 
statement, and then we'll turn to the introduction of the 
nominee. And if there are any members who come in, in between, 
we'll try to recognize them, as well.
    Mr. Egan, you have been nominated to serve as the U.S. 
Representative to the OECD. If confirmed, you'll have the 
challenge of working with 30 market-oriented democracies from 
North America, Europe, and the Pacific Rim. The democracies of 
the OECD amounts--account, I should say--for approximately 59 
percent of the world's GDP, 76 percent of world trade, and 54 
percent of the world's energy consumption. And, though it is 
less visible than some of its global counterparts, the OECD 
plays a very important role in an increasingly globalized 
world. Clearly, this position is much more than a nice 
apartment in Paris, it represents the best of United States-
European cooperation and partnership, with its origin as that 
of an organization that carried out the Marshall Plan after 
World War II. That plan showed the best of the American spirit, 
our willingness to help our allies devastated by war, and our 
commitment to build new democracies and economies in our 
vanquished enemies. As it evolved the organization took on new 
challenges, expanding from working in Europe to working around 
the globe.
    I believe it's imperative that the OECD continue this 
expansion, opening its door to the developing world and other 
countries. For example, right now Mexico is the only Latin 
American country in the OECD, but Chile has just been invited 
to join, and Brazil was invited to enhance its engagement with 
the OECD, with hopes of membership in the future. I certainly 
hope we see more Latin American countries joining in the OECD. 
It is in the national interests of the United States to see 
Latin America continue on a democratic path, with strong market 
economies and economic growth.
    The United States has always been a leader at the OECD, 
from the days of the Marshall Plan to today. We are the largest 
contributor to the organization and a key voice on issues from 
trade to economic policies. So, if you are confirmed, you will 
become the leading U.S. voice on a wide range of issues, 
including the promotion of trade and investment, the efficient 
use of resources, and the higher sustainable economic growth we 
seek.
    We look forward to hearing your plan for how the United 
States should use its influence with the OECD to improve the 
work of the organization and advance our own national 
interests. The issues that my subcommittee handles overlap with 
the work of the OECD. If you are confirmed, I hope that we will 
have a positive working relationship so we can address some of 
the issues I've just raised.
    I know you've had a successful career in the private 
sector, and this would be your first experience in the public 
sector. This hearing will provide an opportunity to not only 
examine your past experience, but to learn more about your 
goals and vision for the OECD.
    You have been nominated for a crucial position, a position 
that demands multilateral solutions to crucial international 
problems, a position that requires an articulate U.S. voice on 
complex issues, a position which represents the best of United 
States-European cooperation, and which could, once again, 
represent the best of the American spirit.
    With that, and seeing no other members before the committee 
now, let me recognize Senator Sununu to introduce Mr. Egan.

               STATEMENT OF HON. JOHN E. SUNUNU,
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Sununu. Thank you very much, Mr. Chairman.
    It is a great pleasure to be here to introduce Christopher 
Egan at his nomination to be Representative of the United 
States to the Organization for Economic Cooperation and 
Development. As you noted in your opening statement, the OECD 
is a unique forum, including--or comprised of 30 market 
democracies working together to address economic, social, and 
governance challenges of globalization, as well as to help 
chart the groundwork for increasing prosperity, not just in 
those countries, but around the world. And I'd like to join 
with you, as a member of the Foreign Relations Committee, in 
emphasizing the value and the importance and opportunity of 
expanding that membership to include additional countries from 
Latin America.
    I've known Chris very well for 7 years, and I strongly 
believe that his educational background and the breadth of his 
experience will serve him extremely well in this important 
role. He's one of the founders of Carruth Capital, one of New 
England's top 10 commercial real estate investment and 
development firms. As you mentioned, he has great private-
sector experience, but he also has been very active in the 
community in a number of roles that probably are best described 
as public service. Notably, he's currently a member of the 
board of directors of the Fallon Community Health Plan, a not-
for-profit organization that provides health insurance for over 
170,000 Massachusetts residents. He chairs the board's finance 
committee, which oversees investment strategy for the $230 
million operating fund account. He's also served as a board 
member of MassDevelopment, the State of Massachusetts Finance 
and Economic Development Authority, and has been a trustee of 
UMASS Memorial Healthcare, the largest healthcare provider in 
central Massachusetts.
    Finally, Chris and his wife, Jean, have also founded and 
direct Break the Cycle of Poverty, a nonprofit foundation 
dedicated to lifting families out of poverty by focusing on 
education.
    Finally, I'd like to mention--and there's a little bit of 
bias here--personal bias, as I am the only engineer in the 
United States Senate--Chris holds a bachelor of science degree 
in electrical engineering from the University of Massachusetts, 
and I continue in my----
    Senator Menendez. That explains it all to me now. 
[Laughter.]
    Senator Sununu [continuing]. I continue----
    Senator Menendez. I didn't know that, but it----
    Senator Sununu [continuing]. At my lonely, but very 
important, effort to expand the power of engineers around the 
world.
    Chris understands organizational management. He understands 
economic development. He understands the importance of strong 
diplomatic and economic ties with our key trading partners. 
He'll bring energy, focus, and a little bit of youth to this 
very important role. And I'm confident that, if he's confirmed, 
Chris will make an outstanding Ambassador of the United States 
to the OECD.
    Thank you very much, Mr. Chairman, for this time, for this 
hearing, and I hope my Senate colleagues--and not just those 
from Massachusetts, Senators Kennedy and Senators Kerry, who 
have been terrific friends of the Egan family--I hope all of 
our Senate colleagues can support this nomination.
    Thank you, Mr. Chairman.
    Senator Menendez. Thank you, Senator Sununu.
    And I know Senator Kerry has told me he wants to be here, 
as well, and will be making a statement when he comes.
    But, to move things along, in view of--in view of that 
there's no other members here, Mr. Egan, I invite you to give 
your opening statement to the committee. I'm pleased to have 
you recognize any of your family members who may be here with 
you today. We ask that you keep your statement to about 7 
minutes, and we will include your entire statement for the 
record, without objection.
    Mr. Egan.

STATEMENT OF CHRISTOPHER F. EGAN, NOMINEE TO BE REPRESENTATIVE 
    OF THE UNITED STATES OF AMERICA TO THE ORGANIZATION FOR 
    ECONOMIC COOPERATION AND DEVELOPMENT, WITH THE RANK OF 
                           AMBASSADOR

    Mr. Egan. Thank you, Mr. Chairman and members of the 
committee. I'm honored to be here before this distinguished 
committee today to be President Bush's nominee to represent the 
OECD.
    I'd like to pause here, introduce my friends and family. 
With me is my beautiful wife, Jean, my--two of my three 
children, Mary Catherine, who's 5, and Christopher, who's 3. 
Mr. Chairman, forgive me, our third child, little Michael, who 
is 18 months old, couldn't make the hearing. He had a very 
important nap to attend to, sir, and it's best if he has that 
nap, sir. Also is my mother and father, Ambassador Richard and 
Maureen Egan, are nice enough to be here today. And my lovely 
sister and my brother-in-law, Catherine and Rod Walkey, with 
their beautiful daughter, Isabel.
    I also want to thank a lot of my friends from Boston who 
came down here, plus a lot of my colleagues from the Kennedy 
School of Government that decided to join me today. I really 
feel surrounded and welcome by Red Sox nation here this 
afternoon.
    Senator Menendez. As a Yankees fan, the Chair won't hold 
that against you. [Laughter.]
    Mr. Egan. Thank you, Mr. Chairman.
    As a son who helped his family build the largest company in 
Massachusetts, and as an entrepreneur who built a successful 
company of my own, I feel I have the leadership and negotiating 
skills, if confirmed, to represent and advance the United 
States interests at the OECD. I believe my service as a board 
member at MassDevelopment, my home State's Finance and Economic 
Development Authority, and as a founder and board member of the 
I-495/Arc of Innovation, a public-private partnership to foster 
environmentally smart economic development in central 
Massachusetts, has prepared me in a significant measure for the 
duties I hope to undertake.
    The work my wife and I do with Break the Cycle of Poverty, 
the foundation we started and direct, has done much to educate 
economically challenged individuals and families so that they 
can elevate themselves from poverty.
    The OECD is particularly valuable to the United States as a 
forum for working with our major partners to promote effective 
polices across a range of economic and social issues that 
confront us all. Through the OECD and its affiliates, like the 
International Energy Agency, the IEA, the United States and 
other members strengthen corporate governance principles, 
environmental standards, development of energy efficient 
technologies and guidelines to safeguard the public in the 
development of cutting-edge science and technology. The OECD is 
of particular value, as well, in areas that require 
multilateral cooperation to solve transnational problems, like 
antibribery convention, the model tax convention, and 
agreements on export credits and capital markets.
    Mr. Chairman and members of the committee, I share the 
President's commitment to the great work of the OECD, and 
understand its role in promoting economic growth and better 
governance. America's prosperity and national security are 
enhanced by the efforts of the OECD to advance these goals and 
to integrate emerging market economies into a strong and 
healthy global economy.
    Mr. Chairman, the United States has turned to the OECD 
repeatedly for accurate and reliable data on numerous topics 
for best practices in combating, say, counterfeit goods, and as 
locus for dialog with countries from the Middle East on 
reforming public governance.
    Mr. Chairman, in my discussion to date with officials 
throughout the administration, I have gained a sense of United 
States priorities for the OECD, and I am committed to support, 
if confirmed, the critical work ahead, which includes bringing 
more countries into compliance with the OECD antibribery 
convention, which has been so important in leveling the playing 
field of our U.S. companies abroad. We also seek to strengthen 
economic growth through the OECD's expert economic research and 
analysis. Other priority work includes promoting electronic 
commerce, fostering good governance, and working on sensible 
trade policy.
    Let me also cite three key objectives I will focus on, if 
confirmed by the Senate.
    First, an outreach to other major economies. The United 
States and a number of fellow OECD members believe the future 
and long-term relevance of the organization depends on reaching 
out beyond the OECD's current membership of advanced 
industrialized countries. To that effect, the members 
authorized a program of enhanced engagement with Brazil, China, 
India, Indonesia, and South Africa to steer them toward better 
policies and practices and invite them to undertake the 
disciplines that underpin our shared prosperity. If confirmed, 
I will work to move that engagement forward with those vital 
and emerging economies.
    Second, the enlargement of the organization. Mr. Chairman, 
the OECD Ministerial Council decided, in May, to invite Russia, 
Israel, Slovenia, Estonia, and, as you mentioned, sir, Chile, 
to the--to begin discussions leading to membership. Our 
representatives at the OECD made clear that the United States 
is concerned about Russia's readiness to join the organization, 
in terms of its government's commitment to democracy and to 
maintaining an open-market economy. However, the United States 
and other member countries were willing to begin the process 
that would advance Russian reforms. And, if confirmed, sir, I 
will work, together with other OECD members who share our 
concerns, to maintain the OECD's high standards of like-
mindedness and help set clear benchmarks for all five candidate 
countries, including Russia, on their paths toward membership.
    And, third, reform the organization's financial structure. 
The United States is the largest computer--contributor to the 
OECD, as you mentioned, sir, covering almost 25 percent of its 
costs. The financial structure has its roots in a period when 
Europe was recovering from war, but today's--all members are 
well off. So, in a sense, a few large companies--countries, 
like the United States, are effectively subsidizing the few--
the many European countries and other countries.
    The United States is working to negotiate a fair scale of 
contributions in which all members will cover the costs of 
their own participation. And, in May, the members agreed, in 
principle, that each member should cover most, if not all, 
their costs. And, sir, if confirmed, I will work to see that 
agreement implemented.
    Mr. Chairman, these are some of the important challenges 
facing the OECD. But, coming from a background in business, I 
am interested in the management aspects of the organization. 
The United States has worked hard in recent years to push 
through reforms in the way that the OECD makes decisions, sets 
priorities, allocates its budgets, and audits its own 
performance. With my real estate development experience, I can 
appreciate, for example, that the project to renovate its 
existing facility and build a new OECD conference center in 
Paris is on schedule, within budget, and due for completion in 
2009. As these reforms are being successfully implemented, the 
OECD is becoming a model among international organizations. 
But, of course, there's a lot more that needs to be done. And, 
if confirmed, I look forward to ensuring that our work on 
strengthening good management of the OECD stays on track.
    Mr. Chairman, I look forward, if confirmed, to representing 
the United States in this key industrial--international 
organization. It helps ensure our economic well-being and 
security. I am humbled to be before you today, and I am 
grateful for the confidence President Bush has placed in me. I 
look forward to continued consultations with, and advice from, 
this committee and its staff, both here in Washington and from 
congressional delegations we will certainly welcome to--in 
Paris.
    I am pleased to answer any questions that you and the 
members of the committee have.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Egan follows:]

Prepared Statement of Christopher F. Egan, Nominee to be Representative 
   of the United States of America to the Organization for Economic 
        Cooperation and Development, With the Rank of Ambassador

    Thank you, Mr. Chairman and members of the committee. I am honored 
to appear before this distinguished committee today as President Bush's 
nominee to represent the United States at the Organization for Economic 
Cooperation and Development, the OECD. I am grateful for the confidence 
and trust that the President and Secretary Rice have placed in me.
    As a son who helped his family build the largest company in 
Massachusetts, and as an entrepreneur who has built a successful 
company of my own, I feel I have the leadership and negotiating skills, 
if confirmed, to represent and advance U.S. interests at the OECD.
    I believe my service as a board member at MassDevelopment, my home 
State's finance and economic development authority, and as a founder 
and board member of the I-495/Arc of Innovation, a public-private 
partnership to foster smart, environmentally friendly economic 
development in central Massachusetts, has prepared me in significant 
measure for the duties I hope to undertake. The work my wife and I do 
with Break the Cycle of Poverty, the foundation we started and direct, 
has done much to educate economically challenged individuals and 
families so that they can elevate themselves from poverty.
    The OECD began as a successor to the Marshall Plan, the economic 
counterpart to NATO, to promote democracy and market economies in 
Europe. The Marshall Plan, which celebrated its 60th anniversary this 
year, was rooted in a magnificent act of American generosity. In 1947, 
Europe lay in ruins, and through Secretary George Marshall's vision, 
over $13.3 billion, over 4 years, poured into offering Europe a hand 
up, not a hand out.
    Today, the OECD is comprised of 30 advanced economies from North 
America, the Pacific Rim, and Europe. The United States administration 
has been encouraging the OECD's outreach to the emerging economies in 
Asia, Latin America, and Africa to advance the principles of open 
markets and good governance that the organization promotes among its 
members.
    The OECD is particularly valuable to the United States as a forum 
for working with our major partners to promote effective policies 
across the range of economic and social issues that confront us all. 
Through the OECD and its affiliates like the International Energy 
Agency, the United States and other members strengthen corporate 
governance principles, environmental standards, development of energy-
efficient technologies, and guidelines to safeguard the public in the 
development of cutting-edge science and technology. The OECD also 
affords an opportunity to collaborate in areas that require 
multilateral cooperation to solve transnational problems such as the 
antibribery convention, the model tax convention, and agreements on 
export credits, open investment regimes, and capital markets.
    Mr. Chairman and members of the committee, I share the President's 
commitment to the great work of the OECD, and understand its role in 
promoting economic growth and better governance. America's prosperity 
and national security are enhanced by the efforts of the OECD to 
advance these goals and to integrate emerging market economies into a 
strong and healthy global economy. The United States has turned to the 
OECD repeatedly for accurate and reliable data on numerous topics (for 
example, how much our economy could benefit if transatlantic trade 
barriers were reduced), for best practices in combating counterfeit 
goods, and as the locus for dialog with countries from the Middle East 
on reforming public governance.
    Mr. Chairman, in my discussion to date with officials throughout 
the administration, I have gained a sense of U.S. priorities for the 
OECD that I am committed to support, if confirmed. The critical work 
ahead includes bringing more countries into compliance with the OECD 
Anti-Bribery Convention, which has been so important in leveling the 
playing field for our U.S. companies abroad. We also seek to strengthen 
economic growth through the OECD's expert economic research and 
analysis. Other priority work includes promoting electronic commerce, 
fostering good governance, and working on sensible trade policy.
    Let me also cite three key objectives that I will focus on, if 
confirmed by the Senate:

  <bullet> First, outreach to other major economies. The United States. 
        and a number of fellow OECD members believe the future and 
        long-term relevance of the organization depends on reaching out 
        beyond the OECD's current membership of advanced industrialized 
        economies. To that effect, the members authorized a program of 
        enhanced engagement with Brazil, China, India, Indonesia, and 
        South Africa, to steer them toward better policies and 
        practices and invite them to undertake the disciplines that 
        underpin our shared prosperity. If confirmed, I will work to 
        move that engagement forward with those vital and emerging 
        economies.
  <bullet> Second, enlargement of the organization. The OECD 
        Ministerial Council decided in May to invite Russia, Chile, 
        Israel, Slovenia, and Estonia to begin discussions leading to 
        OECD membership. Our representatives at the OECD made clear 
        that the United States is concerned about Russia's readiness to 
        join the organization, in terms of its government's commitment 
        to democracy and to maintaining an open, market economy. 
        However, the United States and other member countries were 
        willing to begin a process that would advance Russian reforms. 
        If confirmed, I will work together with other OECD members who 
        share our concerns, to maintain the OECD's high standards of 
        like-mindedness and help set clear benchmarks for all five 
        candidate countries, including Russia, on their paths toward 
        membership.
  <bullet> And third, reform of the organization's financial structure. 
        The United States is the largest contributor to the OECD, 
        covering almost 25 percent of its costs. The financial 
        structure has its roots in a period when Europe was recovering 
        from war, but today, the members are all well off, and many 
        members are effectively ``subsidized'' by us and a few other 
        large contributors. The United States is working to negotiate a 
        fairer scale of contributions, in which all members will cover 
        the costs of their participation. In May, the members agreed in 
        principle that each member should cover ``most, if not all'' of 
        its costs. If confirmed, I will work to see that agreement 
        implemented.

    Mr. Chairman, these are some of the important challenges facing the 
OECD. But coming from a background in business, I am also interested in 
the management aspects of the organization. The United States has 
worked hard in recent years to push through reforms in the way that the 
OECD makes decisions, sets priorities, allocates its budget, and audits 
its own performance. With my 13 years of business experience, I can 
appreciate, for example, that the project to renovate its existing 
facilities and build a new OECD conference center in Paris is on 
schedule, within budget, and due for completion in 2009. As these 
reforms are being successfully implemented, the OECD is becoming a 
model among international organizations. But of course there's a lot 
more that needs to be done, and if confirmed, I look forward to 
ensuring that our work on strengthening good management of the OECD 
stays on track.
    Mr. Chairman, I look forward, if confirmed, to representing the 
United States of America in this key international organization that 
helps ensure our economic well being and security. I am humbled to be 
before you today, and I am grateful for the confidence President Bush 
has placed in me.
    If confirmed, I look forward to continued consultations with and 
advice from this committee and its staff, both here in Washington and 
from the congressional delegations we will certainly welcome to Paris.
    I am pleased to answer any questions that you and the members of 
the committee have. Thank you.

    Senator Menendez. Thank you for your statement and we 
welcome your family here today.
    Let me start off with a 7-minute round, then we'll see if--
I know Senator Kerry is on his way here, and we'll acknowledge 
him when he arrives, after the first 7 minutes. So, let me 
start off with some questions that I think are important. And 
you've touched upon some of them in your statement.
    This is a large international organization. It is complex, 
in terms of its entrenched bureaucracies, and the countries 
with which you will be dealing with have widely varying 
interests. In recognition of that, and some of even your stated 
goals about reforming the financial structure, we don't always 
get our way, even though we are the largest contributor. The 
question is, what, in your background, you believe will assist 
you--prepares you to meet that challenge? And, second, how do 
you plan on using diplomacy or persuasion to further U.S. 
interests within the organization?
    Mr. Egan. Thank you, Senator.
    In regard to my background, my over 20 years of private-
sector experience, building my own company, I've learned the 
negotiate--negotiation--skills of negotiation and diplomacy to 
help build a leading real estate commercial in New England. 
Also in my background is working within the government as a 
board of MassDevelopment, Commonwealth of Massachusetts 
Economic Development Organization, we had to--we had to use not 
only the--we had to work with the legislature, but also with 
private developers, to accomplish the goals of economic 
development set forth by the Speaker of the House and the 
Governor.
    Also, in regard to my background is starting as one of the 
founding members of the Arc of Innovation, 495 Initiative, 
which was a quasi-public-private. On the board, we had elected 
officials and business leaders to spur smart economically 
developed--smart economic development projects in central 
Massachusetts.
    In regard to the U.S. Government's agenda through the OECD, 
that is my No. 1 goal. Using diplomacy, it is my goal to help 
accomplish the United States objectives. There are many 
members, other than the United States, sir, that look to reform 
the financial structure of the OECD. And, if nominated, sir, 
I'm going to continue the efforts to work with those groups, 
those countries, in order to reform the financial structure of 
the OECD.
    Sir, I am happy to report, though, in the last ministerial 
at the OECD in May, the entire ministerial agreed that the 
financial structure of the OECD needs to be reformed. So, we're 
off to a very good start. And, if confirmed, sir, I'm going to 
continue that good work and look for the conclusion of that 
project.
    Senator Menendez. How do you build common cause with the 
United States position with other countries? When we say, 
``Well, we're going to use diplomacy,'' how do you go about 
creating common cause? You cited some of your personal 
experiences, your professional experiences, back in 
Massachusetts. Why don't you give me examples of how you get 
people to do, sometimes, what is in their interests, but they 
don't necessarily feel it is in their best interests, and 
sometimes to get people to do what is not necessarily, from 
their point of view, in their interests, but is necessary for 
the organization. Give me a sense of how you would go about it. 
Recognizing you do not have a diplomatic career in--as your 
background, but give me a sense of how you bring people into 
common cause.
    Mr. Egan. Thank you, sir.
    That's where personal relationships come in. The OECD is 
more like a club where 30 ambassadors representing the member 
states are there. There's only 30 ambassadors. My wife and I 
are--I will personally meet and develop a personal relationship 
with each one of those ambassadors. The Secretary General, 
Guirra, is also a very major factor at the OECD. He has been--
he--Guirra has the strong support of the United States 
Government, and the current ambassador, Morella, at the OECD, 
is a good supporter of him. Using our relationship with Guirra 
and the major--some other major countries within the OECD, I 
plan to create allies and a sense of collegialness in order to 
help promote the United States agenda throughout the OECD.
    Senator Menendez. Well, one of the things I'd like to hear 
your views on as you try to do that is, looking at the OECD as 
a--it's clearly a strong proponent of increasing world economic 
growth and welfare, and best supported by a free and open flow 
of goods, services, and capital, and it's a leading proponent 
of free trade, open markets, and globalization, which, 
generally, I think we all are. The question, however, for some 
of us, is, how does an organization like the OECD balance the 
economic impact of globalization, particularly how free trade 
impacts poor and rural populations in developing countries? And 
so, my question to you--and I see that, from your background, 
you and your wife's foundation and the Break the Cycle of 
Poverty, this is a--this is a noble concern of yours. The 
question is, how do you make sure that the OECD is not pursuing 
trade policies at the expense of the poorest and least-
developed countries? And how do we protect poor, and often 
rural, populations in the process of doing that? And, for 
someone who's very interested in Latin America, one of Latin 
America's greatest challenges is the disparity of wealth, which 
is huge. How don't we--how do we go about not exacerbating that 
in the pursuit of our policies?
    Mr. Egan. Thank you, Mr. Chairman.
    From my consultations with State Department and with U.S. 
Government agencies that work with the OECD, I've learned--a 
very important committee at the OECD is called the Development 
Assistance Committee, the DAC. The OECD is an incredibly 
economic think tank that is open to any country who wants to 
read its information and learn from it. Not only are there 30 
countries that make up the OECD, but the OECD shares its 
expertise with more than 30--with more than 70 other countries.
    The Development Assistance Committee assists developing 
countries and evaluates best practices, and prepares guidelines 
and toolkits on issues like poverty. For example, aid foreign 
assistance is giving to emerging countries--Latin America, and 
other emerging nations--through the OECD and through the 
Development Assistance Committee, it is studied on what is more 
effective, how aid is spent, and what the tangible results are. 
And the important thing about the OECD is, in terms of--it's 
able to compare and contrast what one country does versus what 
another country does, and what is more successful. In Africa, 
the OECD is doing incredible work studying how aid is given in 
Africa and how best--what results happen from it, what 
strategies worked well, and what strategies didn't.
    As you know, Mr. Chairman, the OECD is not, itself, an aid 
organization, does not have funds in which to give out to it, 
but it does have an incredible peer-review process, and, 
through the Development Assistance Committee, it is able to see 
what programs are working well in developing worlds, what 
programs aren't working well, and to share that knowledge, sir, 
not only online, through an incredible Web site that our 
current ambassador, Connie Morella, helped spearhead, but 
through over nearly 300 working groups and other bodies at work 
in the OECD.
    Senator Menendez. So, will you have as one of your 
concerns, as our ambassador there, looking at how--as we pursue 
our policies, how do we deal with the question of our policies' 
effect on the whole question of poverty and on this disparity 
of wealth and not exacerbating it?
    Mr. Egan. Yes, sir. Yes. It is a big concern of the U.S. 
Government. And the U.S. Government, in terms of its national 
security, a prosperous and economic world is a safe world. And 
the OECD is a unique forum in which best practices of economic 
policy can be discussed, debated, and refined. That information 
is shared with the policy leaders, not only of our 30 member 
countries, but of any country willing to participate within the 
OECD--not as full members, sir, but as participants of the 
committees.
    Senator Menendez. Thank you. I have one or two other 
questions, but let me turn to someone who is a Boston Red Sox 
fan--[Laughter.]
    Senator Menendez.--Senator Kerry.
    Mr. Egan. Thank you.
    Senator Kerry: Mr. Chairman, you're suffering a miserable 
misfortunate life not to be a Boston Red Sox fan. [Laughter.]
    Senator Kerry. I apologize for being late--I wanted to come 
by to support the nomination of Chris Egan to be our U.S. 
Representative to the OECD. And I'd just emphasize a couple of 
things, if I may, quickly.
    First of all, the OECD, as we all know, is an 
extraordinarily important organization, formed after President 
Truman had the foresight to commit to the Marshall Plan, and 
the then-Economic Cooperation Initiative was transitioned, in 
1961, into the OECD, and it's been, really, the principal forum 
for the United States--and mostly what are called developed 
countries--to advance issues of sustainability, transparency, 
economic, peace, and so forth. So, it is a major forum, and, I 
think, today, is playing an important role on a host of trade 
issues, as well as the larger challenge of global climate 
change, which is very much front and center to it.
    It now stretches from North America to Europe to the 
Pacific Rim, and it has 30 countries in it, which is a pretty 
large forum. So, you'll have a major scope of responsibility as 
you undertake this job, Mr. Egan. And we, on this committee, 
obviously care enormously, as I think you know, because of the 
role it can play to promote peace and stability and bring 
countries together to have an important dialog on a lot of 
issues of significance to us.
    We appreciate your qualifications--UMASS grad and Kennedy 
School grad, and, I think, most significantly, frankly, the 
private-sector experience that you've had, building a strong 
real estate company, Carruth Realty, one of the strongest in 
our State. And I think those qualifications will give you 
important credentials in talking to people about these kinds of 
economic development issues.
    So, in addition to your being an avid sailor and a Red Sox 
fan and all those important qualifications for living in 
Massachusetts, we're going to be glad that you're out there 
representing the country. And I see that you've got the best 
side of your life with you here----those three kids and your 
wife here. So, we're delighted. I assume they're yours.
    Mr. Egan. Two out of three are.
    Senator Kerry [continuing]. Have any children that don't 
belong to you, or----
    [Laughter.]
    Mr. Egan. Mary Catherine, in the pink, and Christopher, in 
the necktie, and my niece, Isabel, in the blue, sir.
    Senator Kerry. Well, we're delighted to welcome them here, 
and happy to have 'em. I see we've got a tired one here 
already. Wait'll she travels with you.
    Let me just take one moment, also, Mr. Chairman, to clarify 
something, because I want it to be an important part of the 
record.
    The delay in proceeding to Mr. Egan's nomination had 
absolutely nothing to do with Mr. Egan's personal 
qualifications or appropriateness of the nomination, it had to 
do with a, sort of, breach of relationship, if you will, and 
understanding between this committee--the full committee. And I 
agreed with the Chairman and with other members of the 
committee who felt very strongly that a recess appointment, 
after the formal withdrawal of a nomination, which nomination 
was about to be voted on and defeated, and the purposes of 
withdrawing it was to avoid that, and, after statements to the 
effect that there would be no recess appointment, to have made 
that appointment was fundamentally a constitutional challenge 
to the authority of this committee and to how it might have 
proceeded under normal circumstances.
    That has now been worked out with the administration. We're 
glad it's been worked out with the administration. And so, we 
proceed appropriately.
    But I wanted to emphasize, importantly, that your 
nomination, and some others, became, regrettably, tied up in 
the effort to try to clarify that constitutional point, which 
I, and we all here, think is an important one.
    So, we thank you for your patience, and I'm sorry for 
anybody who's been caught up in that, unfortunately. But I 
think we have now worked it out. I just noticed--is your father 
here?
    Mr. Egan. Ambassador Egan and my mother, Maureen, are here.
    Senator Kerry. That's what I thought. I'm delighted to see 
you here, Mr. Ambassador. Thank you. Good to see someone else 
following in the footsteps. The apple doesn't fall far from the 
tree. And so, we're proud and grateful for your service, as 
well.
    So, thank you for taking time to go away from private 
sector for a while and serve the country. We appreciate it. And 
I'm pleased to support your nomination.
    Thank you, Mr. Chairman. I have a few questions. I assume 
you're going to leave the record open--they're very simple, 
straightforward, but it would good, for the record, just to 
have some answers to them. We'll submit them in writing.
    Mr. Egan. Thank you very much, sir.
    Senator Kerry. Thanks.
    [The information previously referred to appears at the end 
of this hearing in the ``Additional Material Submitted for the 
Record'' section.]
    Senator Menendez. Thank you, Senator Kerry.
    I have one or two more questions, and then we'll have the 
record open for any member who wishes to ask questions, and get 
your responses as soon as possible.
    And I want to echo Senator Kerry's remarks, as the chairman 
of the subcommittee made it very clear to me that he was 
supportive of your nomination, but the broader issue was 
involved, and so he's made that clear to me from the very 
beginning, and I just want to echo what he had to say.
    I have just two other lines of questioning that I would 
love to hear your thinking about. And you touched upon them in 
your opening statement. The OECD has five priority areas that 
they've identified for study and emphasis: trade and investment 
liberalization, public--excuse me--policy reform and 
development, managing new and evolving technologies, public 
governance, and social protection. That's what they've 
established as their five priority areas for study and 
emphasis. Of those, what areas do you believe are the highest 
priority for the United States? And how can the United States 
best influence the priorities of the OECD in achieving the 
goals and objectives that are important to the United States 
within those goals?
    Mr. Egan. Thank you, Senator.
    As you know, sir, the OECD is a unique forum where like-
minded countries can get together and talk about what's 
important for economic development. In terms of the United 
States and how I feel about the United States, and we all do, 
is our economic and national security. And, through the OECD, 
trade--as you know, trade--global trade is very important to 
the United States. It's just, sir, that every--seems like every 
U.S. agency sends the best and brightest people through the 
OECD to work on the best policies, whether it's the Food and 
Drug Administration, Department of Education, Department of 
Labor--any agency could get their--the best economic policy 
ideas to not only help the United States and the OECD member 
countries, but also the world.
    So, if you ask me, sir, in terms of what the U.S. 
Government's priorities are on that, you know, I've been 
briefed, sir, on all the issues, and they seem to important to 
us. I'd have to say, sir, from my edification as what's gone on 
in the last 2\1/2\ months, it's the trade. But in my brief 
tenure at the OECD, if confirmed, sir, the pressing issues are 
to increase the membership of the OECD and make sure that all 
countries joining the OECD are like-minded and believe in the 
rule of law and democracy, and also to reach out, sir, to the 
impoverished nations, or the emerging economies, and make sure 
that they understand the--how countries who join the OECD 
became successful, the economic priorities and the rule of law 
that made the OECD countries so successful in this world.
    Senator Menendez. Well, I----
    Mr. Egan. Those are my----
    Senator Menendez [continuing]. I appreciate that answer. I 
gather, from what I hear you say, trade and liberalization--
investment liberalization is No. 1.
    Mr. Egan. Yes.
    Senator Menendez. I really would urge you to spend some 
time, as our representative, should you be confirmed, on the 
public governance and social protection aspects of those five 
priorities. Part of our challenges in security is social 
unrest, and people have social unrest because their desires, 
hopes and dreams, and aspirations are frustrated. And public 
governance is critical in many parts of the world to being able 
to fulfill--to act in a way in which they hope to work to 
fulfill the hopes and dreams and aspirations of their people 
that create the social protection, and, I would broaden that to 
the opportunities to move people in a better direction. So, I 
hope that you'll move those upward----
    Mr. Egan. Okay.
    Senator Menendez [continuing]. As your--as part of your 
focus in those five priority areas.
    The last question, at least for the purposes of asking, 
although there'll be some submitted for the record, is--the 
agency you're going to go to is comprised of 30 different 
countries. They're classified as developed economies, as you 
talked about. Some have been invited to open discussions for 
membership, others have agreed to begin a process that 
potentially could open membership--Brazil, China, India, 
Indonesia, and South Africa. The question, for me, is: should 
the OECD adopt a different set of criteria for membership for 
such developing countries as Russia, China, and India? And what 
objective should the agency have as its main goal in broadening 
its membership?
    Mr. Egan. Thank you--thank you, Mr. Chairman.
    What makes the OECD relevant is the fact that it's made up 
of a group of nations that are like-minded, and to--the U.S. 
Government's policy and thinking on this matter is, if you 
allow exceptions to that rule, you let people in who don't 
believe in the rule of law, aren't market-based economies, and 
the organization quickly will become irrelevant.
    Sir, if I'm confirmed by the Senate, I will continue to 
work the U.S. Government's policy and the other members of the 
OECD to continue to keep the OECD relevant, in terms of its 
like-mindedness. So, for certain exemptions for, for example, 
Russia, no, sir. I would think that every country joining the 
OECD should have the same high standards as the current nations 
that belong to it.
    Thank you.
    Senator Menendez. So, I take your words of ``like-
mindedness'' to be translated to ``the criteria should not 
differ.''
    Mr. Egan. Yes.
    Senator Menendez. Okay. Very good.
    And our objective in broadening its membership should be 
what, exactly?
    Mr. Egan. The membership--to broaden the number of nations 
that belong to the OECD, sir?
    Senator Menendez. Right.
    Mr. Egan. In the past--even currently, sir--the OECD has 
seemed to be in--a Eurocentric organization. But, as other 
countries throughout the world have become developed and 
believe in free trade and our democracies and rule of law, 
they've joined the organization. It doesn't matter where you 
are on the planet anymore with the OECD. The U.S. Government's 
thinking is that if you are like-minded, such as--you know, all 
the way to Korea, Australia, New Zealand--it doesn't have to be 
Europeancentric anymore, which is what it was in the roots, 
when the Marshall Plan first kicked in, in the late 1940s. So, 
to be allowed access into the OECD, sir, it could be anywhere 
on the planet, which is why I'm happy to see Chile being--
looking to join the OECD in the near future, which is why 
Brazil, in terms of enhanced engagement, a very, very important 
emerging economy.
    Senator Menendez. Okay.
    Let me thank the nominee--seeing no other members at the 
hearing, at this point--for testifying today, for his 
willingness to serve the country in an important position.
    The record will remain open for 2 days so that the 
committee members may submit additional questions to the 
nominee. I ask that the nominee respond expeditiously to these 
questions, should there be some. And I'm sure, as you've heard, 
there will be some.
    [The information previously referred to appears at the end 
of this hearing in the ``Additional Material Submitted for the 
Record''section.]
    Senator Menendez. Without that--without any other member 
seeking to ask questions, if no one has any additional 
comments, the hearing is adjourned.
    [Whereupon, at 3:23 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


             Prepared Statement of Hon. Edward M. Kennedy,
                    U.S. Senator From Massachusetts

    Thank you, Mr. Chairman. It's a privilege to be here to introduce 
Christopher Egan of Massachusetts, the President's nominee to be our 
Ambassador and Permanent Representative to the Organization for 
Economic Co-operation and Development.
    The OECD is an organization created in the finest of the American 
internationalist tradition. Its goal is to promote economic progress 
and development throughout the world. It's an outgrowth of the Marshall 
Plan, which transformed Western Europe after the devastation of World 
War II, and helped rebuild the economy of an entire continent.
    Today, OECD has 30 member nations, many of which are among the most 
economically advanced in the world. Membership is granted only for 
those nations that aspire to building strong democracies, establishing 
market economies, and improving the standard of living of their people.
    OECD will undoubtedly have an essential role in the coming decades, 
as all nations wrestle with the challenges and opportunities of the new 
global economy. How we engage--or choose not to engage--other nations 
will have enormous implications for our own economic health and well-
being.
    Working with other nations to establish cooperative approaches to 
trade, environmental standards, science and technology, and openness in 
government is essential for the United States, and for every nation 
that aspires to leadership in the 21st century.
    It's an honor to support Chris Egan's nomination to be our 
ambassador to this important international organization. I'm confident 
he will serve our Nation well at OECD.
    An able son of Massachusetts, Chris is an entrepreneur who's helped 
to build a very successful business, Carruth Capital, in our State. 
He's a graduate of our flagship University of Massachusetts at Amherst, 
and recently earned a master's degree in public administration at 
Harvard's Kennedy School of Government.
    He began his career working side-by-side with his father, Richard 
Egan, at the famous EMC Corporation, which helped teach him how to 
build and maintain enduring institutions.
    I'm impressed with Chris's ability and his commitment to service, 
and I believe he has the personal and collaborative skills needed for 
this position.
    I know how excited he is at the prospect of serving his country at 
OECD and how deeply he feels that the United States must provide strong 
leadership in international development. He's ready to begin tomorrow, 
and to bring some of that Red Sox fighting spirit to OECD.
    I'm delighted to support his nomination, and I'd also like to 
acknowledge his wife, Jean, and his three wonderful children who are 
here today as well--Mary, Christopher, and Michael. I've been assured 
they haven't missed any important classes by being here, and that 
they're ready to start making new friends in Paris. I wish them all 
well in this impressive new experience.
    Thank you very much, Mr. Chairman.
                                 ______
                                 

        Responses of Christopher F. Egan to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. What are your thoughts about the policy role the OECD can 
play toward promoting and facilitating economic growth and poverty 
reduction in developing countries? Some have suggested that the African 
Growth and Opportunity Act (AGOA) should expand beyond the United 
States and be adopted by the OECD as a whole. Do you believe this idea, 
or other similar proposals, have merit?

    Answer. AGOA has achieved considerable success, and I believe it is 
a worthy model for other donor countries to adopt. Restrictive rules of 
origin employed in some other countries' programs fail to provide the 
broad scope of market access that AGOA does. Broader trade preferences 
would provide additional incentives for Africa to integrate itself into 
the world economy.
    The OECD's Development Assistance Committee (DAC) is already 
carrying out an important role as a coordinating body for international 
assistance policy. The United States works closely with the DAC to 
develop and promote best practices.
    The OECD hosts the G-8 Africa Partnership Forum (APF) Support Unit 
and also provides support to the New Partnership for Africa's 
Development (NEPAD) through a Mutual Review Mechanism.
    The international community is making progress. According to a 
joint report by the WTO and the OECD, the amount of trade-related 
technical assistance and capacity building)--to help developing and 
least-developed countries to participate more efficiently in 
international trade--has increased by 50 percent since the Doha 
Ministerial Declaration in November 2001.

    Question. What are other ways the OECD can positively affect and 
support developing countries? For example, what role can OECD play in 
fostering improved donor coordination on the ground, using a model such 
as the Three Ones approach on HIV/AIDS and global health?

    Answer. The OECD is advancing donor coordination through the Paris 
Declaration endorsed in March 2005 by over 100 countries and agencies, 
including donors and recipients, and is hosting an international 
partnership to encourage and monitor its implementation. The Paris 
Declaration embodies the ``Three Ones'' logic in its principles, which 
encourage donor harmonization and alignment with country needs and 
policy, stress country ownership of the development process, mutual 
accountability, and results.
    The OECD Development Assistance Committee (DAC) affords a useful 
venue for the United States and other donor countries to review best 
practices and discuss ways to strengthen donor coordination. The DAC 
conducts periodic assessments to review donor coordination performance 
on the ground. These assessments also identify good practice and 
provide a framework for gauging progress, which is then disseminated 
throughout the DAC member network. In addition the DAC is engaged in 
pilot efforts in developing countries to improve country capacity to 
manage donor coordination and to improve country administrative systems 
in ways that will justify greater donor reliance on those systems.
    The United States is working with other donors to ensure that aid 
empowers recipients and is used effectively, and to improve donor 
coordination. When donor coordination efforts are successful, it is 
nearly always due in large part to U.S. leadership.

    Question. The 2006 DAC peer review of U.S. foreign assistance 
provided many recommendations on ways to improve the effectiveness of 
the U.S. aid program, ranging from how the United States can more 
effectively implement the Paris Declaration principles to better 
coordination of the three pillars of U.S. foreign policy (defense, 
diplomacy, development). What are the main lessons that you take out of 
the peer review? Which recommendations will you prioritize if confirmed 
as ambassador to the OECD?

    Answer. The primary lesson I draw from the 2006 DAC Peer review is 
that the long-established OECD practice of conducting peer reviews is a 
valuable exercise that provides timely feedback to the member being 
reviewed. The DAC Peer Review was done at the time the Millennium 
Challenge Corporation (MCC) was focusing on accelerating the 
implementation of its compacts. The Peer Review encouraged broader 
replication of MCC lessons and offered some useful suggestions of how 
MCC could work more closely with other donors. It also reviewed the 
initial reforms launched by the newly created Office of the Director of 
Foreign Assistance and the unified foreign assistance budget. The Peer 
Review stimulated interagency discussion of the foreign assistance 
reforms and encouraged broader coordination around the new foreign 
assistance framework. The Office of the Director of Foreign Assistance 
has already addressed one of the main recommendations of the Peer 
Review--making poverty reduction a more explicit aim of the strategic 
framework. That has been implemented and is reflected in the revised 
framework. More effective aid is at the core of current U.S. reforms of 
foreign assistance so the Peer Review's recommendations on this score 
were especially timely.
    The responsibility for following through on the DAC peer review 
recommendations rests with the Director of Foreign Assistance and the 
USAID Administrator, along with other agencies delivering U.S. 
assistance. As U.S. Ambassador to the OECD, I will have the 
opportunity, with my staff, to support OECD and U.S. preparations for 
the third High-Level Forum on Aid Effectiveness to be held in Accra, 
Ghana, September 2-4, 2008, which will take stock of the progress made 
so far in implementing the Paris Declaration and identify an action 
agenda for further implementation. This forum will be an opportune time 
for the United States to show how it has reformed and made its foreign 
aid more effective.

 
                              NOMINATIONS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 19, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
Boulware, Mark M., to be Ambassador to the Islamic Republic of 
        Mauritania
McGee, James D., to be Ambassador to the Republic of Zimbabwe
McMullen, Ronald K., to be Ambassador to the State of Eritrea
Nigro, Louis J., to be Ambassador to the Republic of Chad
Sanders, Robin R., to be Ambassador to the Federal Republic of 
        Nigeria
Wells, Barry L., to be Ambassador to the Republic of The Gambia
                              ----------                              

    The committee met, pursuant to notice, at 9:32 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Russell D. 
Feingold presiding.
    Present: Senator Feingold.

         OPENING STATEMENT OF HON. RUSSELL D. FEINGOLD,
                  U.S. SENATOR FROM WISCONSIN

    Senator Feingold. Good morning and thank you for coming. 
I'm Senator Russ Feingold, Chairman of the subcommittee. As a 
freshman Senator in 1992, I had the opportunity to sit on the 
Senate Foreign Relations Committee, and some people said to me 
that I would, ``Probably get stuck with the Africa 
Subcommittee.'' This insinuation, of course, was that work 
concerning the continent was, in some people's minds, not 
interesting or important.
    I disagreed and became determined to take advantage of 
membership on this subcommittee to make the case that the 
United States must become more aware of, and engage with, the 
48 countries of sub-Saharan Africa.
    These diverse countries offer some of the world's most 
daunting challenges from terrorism and endemic corruption to 
humanitarian emergencies and the AIDS epidemic, as well as a 
wealth of possibilities from natural resource development and 
economic growth to new tourism destinations and democratic 
progress. In my 15 years on the subcommittee, I've advocated a 
more active U.S. role in addressing these challenges and 
developing these possibilities. Some progress has been made, 
but obviously much more remains to be done.
    Some of you may have gotten similar advice when you 
received your first Foreign Service posting to an African 
country or even your present nomination, but I hope that you 
also embraced the opportunity to advance broad U.S. interests 
and objectives in this increasingly critical part of the world. 
I know that each of you rose to the challenge, because you're 
here today. You've chosen to represent the United States 
Government's ideals, interests, and citizens as ambassadors to 
a wide-range of African nations.
    If confirmed, each of you will become not only the in-
country hands of the United States working to implement U.S. 
policy, but also the eyes and ears of our Government, myself 
included, who will rely upon you to keep us informed of 
developments on the ground and what role we here in Washington 
can and should play. This is a significant responsibility, 
particularly when many of the countries you are headed to are 
mired in conflicts that have implications beyond their own 
nation's borders.
    On our first panel, we will hear from the nominees to 
Nigeria, the Gambia, and Mauritania, an increasingly strategic 
part of the world, particularly in terms of energy and 
security. I look forward to hearing from Ambassador Renee 
Sanders, Mr. Barry Wells, and Mr. Mark Boulware, respectively, 
about their priorities and plans for addressing both the 
obstacles and opportunities each will face, if confirmed, to 
serve as ambassadors to these countries.
    On our second panel, we will have three individuals who 
have proven themselves willing and able to lead U.S. missions 
in several of the world's most challenging posts. Ambassador 
James McGee has been nominated to serve in Zimbabwe, Mr. Ron 
McMullen to Eritrea, and Mr. Louis Nigro, Jr. to Chad.
    I admire all six of you for embracing these 
responsibilities and I want to thank you all for being here 
this morning. At this time, I wouldd like to invite our first 
panel of nominees to present their statements. We will begin 
with the Honorable Robin Sanders.

STATEMENT OF HON. ROBIN R. SANDERS, NOMINEE TO BE AMBASSADOR TO 
                THE FEDERAL REPUBLIC OF NIGERIA

    Ms. Sanders. Good morning, Mr. Chairman. Mr. Chairman and 
members of the committee, I am deeply honored today to appear 
before you as the President's nominee to be the United States 
Ambassador to the Federal Republic of Nigeria.
    I grew up in a family that underscored the importance of 
public service. My father is a veteran of two wars. I come from 
a long line of family members who are principals and teachers, 
and who have worked for other U.S. Government agencies, such as 
a my aunt. They are all here with me today.
    Given that my historical U.S. ancestry, like many African-
Americans, links back to Africa, Nigeria's future and the 
quality of life of its people are important to me.
    With that backdrop, Mr. Chairman, and if confirmed to serve 
the people of the United States of America, this nomination is 
truly a blending of everything I am--personally and 
professionally.
    The people of Nigeria and the people of the United States 
of America are connected in many, many ways. The Nigerian 
people want good governance, rule of law, and respect for 
global human values. They desire an evolving democracy that 
advances these goals and they see us as partners in this 
effort. Mr. Chairman, we are partners, we must be partners, and 
we should continue to be partners with the Nigerian people on 
these issues.
    Turning to the immediate policy issues, the Nigerian 
elections were deeply, deeply flawed and we were highly 
disappointed, as were the Nigerian people. But the Nigerian 
people are giving this administration a chance; they are 
watching it more closely, expecting greater things, and more 
results, so that the elections of the past are not the mark of 
Nigeria's future.
    We also need to watch, be engaged, but also wait to see if 
this new Nigerian Government lives up to what it is saying. We 
are encouraged, however, by the steps taken thus far by this 
administration and will continue to urge President Yar' Adua to 
allow the tribunals to complete their work unimpeded.
    Our post-election priorities are election reform, 
democracy, and human rights, and having a partnership with 
stewardship, meaning a propitious engagement on all of these 
fronts, including the rule of law, transparency, and poverty 
alleviation.
    I have not yet had the opportunity to meet President Yar' 
Adua. From what I have read and heard about him and many of his 
actions to date indicate that he is interested in 
reestablishing Nigeria's progress on political, economic, and 
governance issues, addressing the problems in the delta, and 
most importantly, election reform, so that flawed elections do 
not happen again. Not only is he the first college-educated 
President of this nation of incredibly talented and diverse 
people, but he has voiced his recognition of the challenges at 
hand, challenges that must be addressed in order for Nigeria to 
move forward and truly become an active member of the 
communities of democracies. We must work with President Yar' 
Adua and his administration as partners to achieve these goals 
for the Nigerian people.
    If confirmed, I will be dedicated, along with the 
interagency team of Americans and Nigerian staff already there, 
to a partnership with stewardship that works toward realizing 
the aspirations of this nation of 140 million people for a 
better quality of life, a life which respects global human 
values, and a life that has an enabling environment with 
policies and programs that provide the framework for the 
Nigerian people to thrive.
    Mr. Chairman and members of the committee, I stand ready 
and welcome the opportunity to respond to any questions that 
you may have. Thank you very much.
    [The prepared statement of Ms. Sanders follows:]

      Prepared Statement of Hon. Robin R. Sanders, Nominee to be 
             Ambassador to the Federal Republic of Nigeria

    Mr. Chairman, members of the committee, good morning.
    I am deeply honored today to appear before you as the President's 
nominee to be the United States Ambassador to the Federal Republic of 
Nigeria.
    Every now and again, one has the remarkable opportunity to be a 
part of a profession that makes one proud to get up each day. That is 
how I have felt every day of my Foreign Service career. I grew up in a 
family that underscored the importance of public service. My father is 
a veteran of two wars, and I come from a long line of family members 
who are principals and teachers, including my younger sister, and 
family members who have worked for other U.S. Government agencies, such 
as my aunt. They are all here with me today.
    Given my ancestral links to Africa, Nigeria's future and the 
quality of life of its people are important to me.
    With that backdrop Mr. Chairman, and if confirmed to serve the 
people of the United States of America, this nomination is truly a 
blending of everything that I am personally and professionally.
    The people of Nigeria and the people of the United States of 
America are connected in many ways. The Nigerian people want good 
governance, rule of law, and respect for global human values. They 
desire an evolving democracy that advances these life goals and they 
see us as partners in these efforts. Mr. Chairman, we are--and must 
continue to be--partners with them in this regard. The Nigerian 
elections were deeply flawed, and we were highly disappointed, as were 
the Nigerian people. They themselves have spoken out on the deeply 
flawed elections. But the Nigerian people are giving this new 
administration a chance; they are watching it more closely, expecting 
even greater things and more results from it so that this past election 
is not a harbinger of a bleak future for Nigeria. We are encouraged by 
the steps taken thus far by President Yar'Adua's administration. We 
will continue to press him to allow the electoral tribunals to complete 
their work unimpeded and to reform dramatically the electoral 
commission so flawed elections do not happen again. I believe our role 
is to have a ``partnership with stewardship,'' meaning a ``propitious 
engagement'' on all democracy and human rights fronts in support of the 
Nigerian people.
    While I have not yet met President Yar'Adua, what I have read and 
heard about his actions to date indicates that he is interested in 
reestablishing Nigeria's progress on political and governance reforms. 
Yar'Adua has voiced his recognition of the challenges at hand including 
the development and security needs of the Niger Delta; alleviating 
poverty; combating corruption; improving the educational and health 
care sectors, particularly in regard to HIV/AIDS; and instituting 
election reform.
    These are all significant issues that must be addressed in order 
for Nigeria to move forward and truly become an active member of the 
community of democracies and a true regional leader. We must work with 
the Yar'Adua administration as partners to achieve these goals for the 
Nigerian people.
    If confirmed, I will be dedicated, along with the interagency team 
of American and Nigerian staff at our embassy, to a ``partnership with 
stewardship'' that works toward realizing the aspirations of this 
nation of 140 million for a better quality of life in an environment 
that respects global human values and has policies and programs that 
enable the people of Nigeria to thrive.
    Mr. Chairman, and members of the committee, I stand ready, and I 
welcome the opportunity to respond to any questions you may have. Thank 
you very much.

    Senator Feingold. Thank you, Ambassador. The Nigerian 
elections were a real setback, in my view, and I appreciate 
your words. So I just want you to be aware of how disappointed 
I was and I think others were in the way that was conducted.
    Mr. Wells.

 STATEMENT OF BARRY L. WELLS, NOMINEE TO BE AMBASSADOR TO THE 
                     REPUBLIC OF THE GAMBIA

    Mr. Wells. Thank you, Mr. Chairman. I'm honored to appear 
before you today. I wish to express my gratitude to the 
President and the Secretary of State for the trust and the 
confidence they've placed in me as their nominee for Ambassador 
to the Republic of the Gambia.
    I come from a family that has proudly served our Nation in 
the uniforms of our military services and in civilian agencies, 
including my wife, Winsome, and daughter, Judy Ann, who joined 
me here today.
    I've been----
    Senator Feingold. Welcome to all the guests of the 
Ambassador and Mr. Wells and everybody. I appreciate your being 
here.
    Mr. Wells. Thank you.
    I've enjoyed a career that has provided me the opportunity 
to serve at both the local and the Federal levels. And, if 
confirmed, I will be honored to accept the responsibility to 
represent the interests of our Nation, as U.S. Ambassador.
    The Gambia has a history, despite troubling recent 
developments of multiparty democracy. Presidential elections in 
2001 and 2006 and legislative elections in January of this year 
were judged as free and fair, although with some shortcomings. 
I believe that firm and positive engagement with the Government 
of the Gambia will produce further progress on both democracy 
and development fronts.
    Trafficking in persons in the Gambia remains a problem, but 
the Government of the Gambia has taken significant steps to 
address the issue. The Gambian National Assembly has just 
passed a comprehensive antitrafficking law that meets 
international standards. Passage of this law, in addition to 
the law in 2005 outlying child trafficking, and the 
establishment of a victim shelter in 2006, show willingness to 
engage with us on this issue. In order to foster continued 
progress, if confirmed, I will work with the Gambia in its 
efforts to enforce its new legislation and to rescue and 
rehabilitate victims.
    Prior to June 2006, the Gambia was a Millennium Challenge 
Account-eligible country. The Gambia's eligibility was 
suspended in response to what the MCC Board of Directors saw as 
a troubling pattern of deterioration in 8 of the 16 indicators, 
most notably in the area of political rights. If confirmed, I 
intend to engage the host government to reinitiate discussions 
centered on improving these indicators, with a view that moving 
The Gambia back toward MCC eligibility will ultimately benefit 
its people.
    As well, continued engagement with Gambian authorities on 
human rights, particularly in the areas of press freedom and 
civil liberties will constitute a central piece of our 
bilateral relationship. In addition, the U.S. Embassy must work 
to continue to help the government and the private sector to 
facilitate exports of food, textiles, garments, and other 
commodities to the United States under the Africa Growth and 
Opportunity Act. The Gambia has been AGOA-eligible since 2003 
and the government and the people are very interested in the 
great opportunities for trade this excellent program offers. 
But more engagement is needed to help them take--make efficient 
use of these opportunities.
    The Gambia has benefited from an active Peace Corps 
presence since 1967. Approximately 118 volunteers serve in 
health, agriforestry, and education sectors. Peace Corps is a 
central component of our person-to-person diplomacy and will 
remain a cornerstone of United States development assistance 
within the Gambia. The Gambia has been cooperative in the 
global war on terror and this plays a positive role in regional 
peace efforts. The Gambia is currently a contributor to the 
United States mission in the Sudan. Continued cooperation 
against terrorism and in support of regional stability will be 
another important focus of our diplomatic efforts in the 
Gambia.
    Thank you, Mr. Chairman, for you abiding interest in 
America's relations with Africa and for holding this hearing. 
If confirmed, I look forward to working with the committee and 
other Members of Congress to advance the interest, United 
States interests in the Gambia, and I would be pleased to 
answer any questions.
    [The prepared statement of Mr. Wells follows:]

          Prepared Statement of Barry L. Wells, Nominee to be 
                Ambassador to the Republic of The Gambia

    Mr. Chairman and members of the committee, I am honored to appear 
before you today. I wish to express my gratitude to the President and 
to the Secretary of State for the trust and confidence they have placed 
in me as their nominee for Ambassador to the Republic of The Gambia.
    I come from a family that has proudly served our Nation--in the 
uniforms of our military service and in civilian capacities. I have 
enjoyed a career that has provided me the opportunity to serve at both 
local and Federal levels of government. My interest and involvement in 
the international arena dates back 30 years when as an associate 
professor at Howard University School of Social Work I was instrumental 
in establishing summer field placements for graduate students with the 
University of the West Indies in Jamaica. I subsequently served as 
Country Director for the U.S. Peace Corps in Belize followed by a tour 
in Jamaica. Those experiences as an American serving our Nation abroad 
were some of the most rewarding of my career, and shaped the continuing 
interest I have to this day in working on behalf of our national 
interests in other nations. For the last 19 years at the Department of 
State, I have continued to dedicate myself to that end. I believe these 
experiences have well prepared me to carry out the responsibilities of 
a United States ambassador.
    The Gambia has a rich and remarkable history. A diverse set of 
linguistic, ethnic, and cultural groups have coexisted with minimum 
tension within The Gambia's borders since independence. The Gambia has 
a history, despite troubling recent developments, of multiparty 
democracy. Presidential elections in 2001 and 2006, and legislative 
elections in January of this year were judged as free and fair, 
although with some shortcomings. The Gambian Government continues to 
make progress on government transparency, and has directed national 
resources toward health, education, and other endeavors that better the 
lives of The Gambian population at large. I believe that firm and 
positive engagement with the Government of The Gambia will produce 
further progress on both the democracy and development fronts.
    Trafficking in persons in The Gambia remains a problem, but the 
Government of The Gambia has taken significant steps to address the 
issue. The Gambian National Assembly has just passed a comprehensive 
antitrafficking law that meets international standards. Passage of this 
law, in addition to recent steps such as passage of a law against child 
trafficking in 2005 and the establishment of a victim shelter in 2006, 
show a willingness to engage with us on this issue. In order to foster 
continued progress, I will work with The Gambia in its efforts to 
enforce its new legislation and rescue and rehabilitate victims.
    Prior to June 2006, The Gambia was a Millennium Challenge Account 
(MCA) eligible country. The Gambia's eligibility was suspended in 
response to what the MCC Board of Directors saw as a troubling pattern 
of deterioration in 8 of the 16 indicators, most notably in the area of 
political rights. Joint efforts on the part of the U.S. Mission and the 
host government to reinitiate discussions centered on improving these 
indicators, with a view that moving The Gambia back toward MCA 
eligibility would go far to improve our bilateral relationship as well 
as increase the prospects for The Gambia's continued economic 
development. Continued engagement with Gambian authorities on human 
rights, particularly in the areas of press freedom and civil liberties 
will constitute a central piece of our bilateral relationship.
    In addition, the U.S. Embassy in Banjul must continue to work with 
the government and the private sector to facilitate exports of seafood, 
textiles and garments, and other commodities to the United States under 
the African Growth and Opportunity Act (AGOA). The Gambia has been 
AGOA-eligible since 2003 and the government and people are very 
interested in the great opportunities for trade created by this 
excellent program, but more engagement is needed to help them make 
efficient use of these opportunities.
    The Gambia, a moderate majority-Muslim nation, has been cooperative 
in the global war on terror, and has played a positive role in regional 
peace efforts. The Gambia is currently a contributor to the U.N. 
Mission in the Sudan. Continued cooperation against terrorism and in 
support of regional stability will be another important focus of our 
diplomatic efforts in The Gambia. The Gambia has benefited from an 
active Peace Corps presence since 1967. Approximately 118 volunteers 
serve in health, agro-forestry, and education sectors. Peace Corps 
works in cooperation with the Government of The Gambia and regularly 
reassesses its programming strategy in order to ensure that programs 
are in line with the domestic development strategy. In recent years, 
volunteers have focused on training primary and secondary school 
teachers in the use of information technology; coordinating 
international donor and community initiatives on deforestation, 
agricultural diversification, and improvement of The Gambia's natural 
resource base; and working with village-level health authorities to 
promote immunizations, malaria prevention, HIV/AIDS education, and 
child nutrition and growth monitoring. The Peace Corps is the central 
component of our person-to-person diplomacy and will remain a 
cornerstone of United States development assistance within The Gambia.
    Thank you, Mr. Chairman and members of the committee for your 
abiding interest in America's relations with Africa and for holding 
this hearing. If confirmed, I look forward to working with the 
committee and other Members of Congress to advance United States 
interests in The Gambia. I would be pleased to answer your questions. 
Thank you.

    Senator Feingold. Thank you very much, Mr. Wells.
    Mr. Boulware.

STATEMENT OF MARK M. BOULWARE, NOMINEE TO BE AMBASSADOR TO THE 
                 ISLAMIC REPUBLIC OF MAURITANIA

    Mr. Boulware. Thank you, Mr. Chairman. Mr. Chairman and 
members of the committee, it's an honor to appear before you 
today as President Bush's nominee to serve as United States 
Ambassador to the Islamic Republic of Mauritania. I thank the 
President and Secretary Rice for the confidence and trust 
they've shown by nominating me for this position.
    Let me also introduce my wife, Nora Jean Boulware, who has 
been a full and tireless partner during my 32 years of public 
service. And I'd also like to acknowledge the presence of our 
nephew, Lieutenant Lance Beckley.
    Bridging the Sahel and the Sahara, Mauritania faces a 
cruelly challenging environment. Ethnic tensions have at times 
exploded into violence, as they did in April 1989. As I saw 
firsthand while posted in the Gambia, ethnic violence in 
Mauritania and in Senegal, followed by reciprocal expulsions, 
displaced hundreds of thousands, including many Afro-
Mauritanians, who were expelled from their own country.
    The United States has always responded generously to the 
humanitarian needs of the Mauritanian people, and we continue 
to do so. This year, for example, we are providing about $7.5 
million in food aid. The Peace Corps is carrying on a 
tradition, nearly 40-year tradition, of doing exceptional 
grassroots development under the most austere conditions 
imaginable. If confirmed, I would work to ensure the continued 
success of these invaluable programs.
    The United States has also responded to assist Mauritania 
and its neighbors through the Trans-Sahara Counterterrorism 
Partnership, a program designed to confront this threat through 
an integrated approach linking counterterrorism assistance, 
development, and public diplomacy. To manage this program I 
will, if confirmed, draw on my experience as a U.S. Army 
officer and a Foreign Service officer, who has both studied and 
taught at senior military schools and who managed political 
military programs in Cameroon, El Salvador, and Brazil.
    Mr. Chairman and members of the committee, Mauritania's 
decision to take a constructive approach in dealing with the 
Arab-Israeli conflict and its recognition of Israel in 2000, 
relieved a long-standing irritant in our relationship. 
Mauritania remains one of only three Arab League members to 
recognize Israel.
    Mauritania, Mr. Chairman, turned an exciting new page in 
its history last March when the transitional military junta 
made good on its promise to establish democracy. This, the 
world's newest democracy, under the leadership of President 
Abdallahi has moved boldly to address problems facing the 
country. Perhaps most dramatically, his government has acted, 
not merely to declare again that slavery is illegal, but for 
the first time in Mauritania's history, to make it a criminal 
offense punishable by imprisonment. It has added penalties for 
government officials who fail to implement the law. These 
strong actions address concerns that have historically tempered 
improvement in our bilateral relations.
    Mr. Chairman and members of the committee, as it moves to 
meet these monumental challenges, this new government looks to 
the United States for concrete support. The security 
relationship is important and we should maintain it. Mauritania 
also seeks our help in building democratic institutions, 
establishing the rule of law, and above all, promoting economic 
development. The success of democracy in a developing country 
that is both Arab and African is indeed important to our 
interests.
    If confirmed, I would work to bring appropriate resources 
to bear, including restoring a modest USAID presence so that 
multiple assistance programs are informed by genuine 
development expertise. I would also work with the Millennium 
Challenge Corporation to lay out a road map for Mauritania to 
achieve threshold status as quickly as possible.
    Finally, I'm keenly aware of the Chief of Mission's 
responsibility for the safety and welfare of all Americans and 
U.S. Government employees. If confirmed, Mauritania would be my 
tenth overseas hardship posting. I understand the obligation to 
ensure the fair treatment and high morale of mission staff and 
family members.
    Mr. Chairman and members of the committee, I look forward, 
if confirmed, to working with you, your distinguished 
colleagues, and members of your staffs to advance our agenda 
with Mauritania. I would be happy to answer any questions you 
might have.
    [The prepared statement of Mr. Boulware follows:]

         Prepared Statement of Mark M. Boulware, Nominee to be 
            Ambassador to the Islamic Republic of Mauritania

    Mr. Chairman and members of the committee, it is an honor to appear 
before you today as President Bush's nominee to serve as United States 
Ambassador to the Islamic Republic of Mauritania. I thank President 
Bush and Secretary Rice for the confidence and trust they have shown by 
nominating me for this position.
    I would also like to introduce my wife, Nora Jean Boulware, who has 
been a full and tireless partner during my 32 years of public service. 
Mauritania is a fascinatingly diverse country with a rich history, but 
it has not been a place from which we were accustomed to receive good 
news. Bridging the northern reaches of the Sahel and the heart of the 
Sahara, Mauritania faces a cruelly challenging natural environment. 
Less than 1 percent of the land is arable, and large segments of the 
population are vulnerable to desertification and to cyclical droughts 
that can quickly lead to critical levels of malnutrition.
    Beyond hardship and suffering, such conditions worsen economic and 
ethnic tensions that have, at times, exploded into violence as was the 
case with the terrible events of April 1989 when news of a minor 
episode on the Senegal border produced spontaneous acts of violence 
against both foreign black Africans and Afro-Mauritanians inside 
Mauritania, as well as attacks on Mauritanians in Senegal. As I 
witnessed firsthand while posted in The Gambia, ethnic violence 
followed by reciprocal expulsions displaced hundreds of thousands, 
including a substantial number of Afro-Mauritanians who were expelled 
from their own country.
    The challenges of a harsh climate and geography, sparse natural 
resources, and an uneasy ethnic mix would be daunting for any 
government, but the unbroken string of authoritarian governments that 
ruled Mauritania since independence were incapable of making meaningful 
progress in dealing with Mauritania's internal problems. Meanwhile, in 
the neighboring Maghreb, an Algerian terrorist group found a new lease 
on life as well as regional ambitions as an al-Qaeda franchise. This 
group, calling itself al-Qaeda in the Islamic Maghreb, attacked a 
Mauritanian military outpost in June 2005, killing 17 soldiers. It 
still represents an active threat to stability in the region and to 
Mauritania, specifically.
    The United States has always responded generously to the 
humanitarian needs of the Mauritania people and we continue to do so. 
This year, for example, we are providing about $7.5 million in Public 
Law 480 title II food aid.
    The Peace Corps is carrying on a nearly 40-year tradition in 
Mauritania of doing exceptional grass roots development work under some 
of the most austere conditions imaginable. If confirmed, I would work 
to ensure the continued success of these invaluable programs.
    The United States has also responded to assist Mauritania and its 
neighbors through the Trans-Sahara Counter-Terrorism Partnership 
(TSCTP), a program designed to confront the threat in the Sahel through 
an integrated approach linking counterterrorism assistance, targeted 
development assistance, and public diplomacy outreach to prevent 
terrorist groups from using Mauritania or its neighbors as a safe 
haven. In managing this complex program, I will, if confirmed, draw on 
my long experience with the military as a U.S. Army officer and as a 
Foreign Service officer who has both studied and taught at senior 
military schools and who managed political-military programs in 
Cameroon, El Salvador, and Brazil.
    Mr. Chairman and members of the committee, Mauritania's decision to 
take a moderate and constructive approach in dealing with the Arab-
Israeli conflict relieved a long-standing irritant in our relationship. 
That decision took concrete form with Mauritania's recognition of 
Israel in 2000. Mauritania remains only one of three Arab League 
members to recognize Israel.
    Notwithstanding these improving fundamentals in the United States-
Mauritanian relationship, we were quite skeptical when a coup brought 
to power a military junta that promised a transition to democracy. We 
strongly urged a prompt return to constitutional government via free 
and fair elections and suspended most forms of assistance.
    Mauritania turned an exciting new page in its history in March of 
this year when the transitional military junta did indeed make good on 
its promise to establish democracy. That democracy, now the world's 
newest, under the leadership of President Sidi Ould Cheikh Abdallahi, 
has moved boldly to address the problems facing the country. Working 
closely with Parliament, he has acted to increase transparency and 
accountability in the management of public resources, particularly 
those deriving from new and modest, but potentially growing, oil 
revenues. His government is working with the United Nations and Senegal 
to return expelled Afro-Mauritanians, thereby correcting an historical 
injustice while eliminating an obstacle to closer relations with an 
important neighbor. Perhaps most dramatically, his government has acted 
not merely to declare again that slavery is illegal, but for the first 
time in Mauritania's history to make it a criminal offense punishable 
by imprisonment. It has added penalties for government officials who 
fail to implement the law. These strong actions address concerns that 
have historically tempered any significant improvement in our bilateral 
relations.
    Mr. Chairman and members of the committee, as it moves to meet 
these monumental challenges, this new government looks to the United 
States for concrete support for a democratic Mauritania. The security 
dimension of our relationship is an important one and we should 
certainly maintain our robust security assistance. Mauritania also 
seeks our assistance in building democratic institutions and mechanisms 
of good governance, establishing the rule of law, and, above all, 
promoting economic development.
    The success of this new democracy in a developing country that is 
both Arab and African is indeed important to our interests. If 
confirmed, my job would be to work with all of the relevant agencies of 
government to bring appropriate resources to bear. This would include, 
in particular, working to restore a modest USAID presence, so that 
multiple development and assistance programs are rational, sustainable, 
and informed by genuine development expertise. It would also include 
working with the Millennium Challenge Corporation to lay out a clear 
roadmap for the Mauritanian Government to achieve threshold status as 
quickly as possible. I will also work with the Mauritanians to help 
them take full advantage of the opportunities offered by AGOA.
    Finally, let me note that I am keenly aware of the often difficult 
conditions of service for our personnel in Mauritania as well as the 
Chief of Mission's personal responsibility for the safety and welfare 
of all Americans and United States Government employees in country. If 
confirmed, Mauritania would be my tenth overseas posting to a hardship 
assignment. I understand very well an ambassador's obligation to ensure 
the well-being, fair treatment, and high morale of mission staff and 
family members. If confirmed, I pledge to play such a role.
    Mr. Chairman and members of the committee, I look forward, if 
confirmed, to working with you, your distinguished colleagues, and 
members of your staffs to advance our agenda with Mauritania. I would 
be happy to answer any questions you might have.

    Senator Feingold. Thank you very much. I regret that we 
only have time to ask a few questions. I certainly do not want 
it to reflect a lack of interest in learning more because these 
are all important posts, in particular with regard to Nigeria. 
There are many issues that I'd like to pursue, but we need 
these posts filled and we do have a vote at 10:45, so I can 
only ask a couple of questions of each of you, but I look 
forward to future opportunities to continue our interactions.
    Ambassador Sanders, the recent elections in Nigeria failed 
in large part because of deep patterns of corruption and 
political violence and impunity that purvade Nigeria's 
political system. Beyond the obvious issue of electoral reform, 
what should the United States be doing to press the Nigerian 
Government into addressing these underlying issues in a 
meaningful way?
    Ms. Sanders. I understand your concern, Senator, and we 
have the same concerns. In addition to election reform, we are 
looking at urging the Nigerian Government to focus on the 
underlying causes, such as rule of law, transparency, 
democracy, and human rights. We have several activities that 
are ongoing that we will look to strengthen during that period. 
First and foremost, there seems to be a commitment from the 
Yar'Adua government to look at these issues. He has announced 
several things that encourage us, particularly looking at 
fiscal responsibility. He has a Fiscal Responsibility Act that 
he is not only hoping for the Federal Government, but certainly 
for the states to support.
    On the corruption issue specifically, Nigeria is certainly 
146 on the transparency international list of 163 countries, so 
corruption is a key issue. We have several programs that we 
will continue. I'd like to highlight two of them quickly for 
you. The Nigerians have established a commission called the 
Economic and Financial Crimes Commission. It, to date, has 
recovered $5 billion in illicit funds, $500,000 of that has 
gone back to American citizens, and there's another $1 million 
in the pipeline to come back to American citizens.
    They have also had 150 convictions that include one former 
governor. And the resources of the United States have been a 
part of that. We have helped them with money laundering 
techniques and counterfeit techniques. We provided training to 
the Financial Crimes Commission in a lot of areas. Treasury has 
sent technical assistance representatives out there to help 
them improve their ability to catch kingpins, to identify money 
trails, and to certainly help with setting up cases for 
convictions.
    The other interesting thing that they have done is the Drug 
and Law Enforcement Agency--their version of the Drug 
Enforcement Agency. They have also fired people for corruption 
and for smuggling. We are getting ready to put in place a 
series of x-ray machines and sensors. We have programs with all 
the law enforcement agencies, as well as the military, because 
they play a role in security there. We're retraining, not only 
on techniques and law enforcement principles, but we're also 
including a human rights component in what we are providing in 
the training.
    Senator Feingold. Thank you, Ambassador.
    Last week, militants in the Niger Delta kidnapped 11 State 
officials, alleging that the governor had reneged on an 
agreement to pay them for helping rig the April election. 
Hundreds of foreign oil workers and Nigerians have been 
kidnapped, including three young children and the elderly 
mother of a local politician. How will you work with national 
and local governments to stop these violent practices and to 
encourage greater attention and political will from the central 
government toward addressing the economic, environmental, and 
political conditions underlying the escalating unrest in the 
Niger Delta?
    Ms. Sanders. Currently, Senator, we have a Gulf of Guinea 
Energy and Security Initiative. It is a framework for dialog 
with the Nigerians and the oil majors regarding energy issues 
and security issues. We have programs now that help and train 
security in the riverine area of the Niger Delta. We are 
working on the underlying issues, in terms of development, 
looking at exchange programs that bring disparate groups 
together so they have an understanding of respect for diversity 
and they understand the need for civic responsibility, as well 
as focusing on some of the economic issues. We're looking at 
offering agricultural incentive programs, income generating 
programs like we do in other places in Nigeria. Because without 
addressing the underlying causes of the problems in the Delta, 
the problems will continue. So, we have an active ongoing 
dialog with the Nigerian Government, with the oil majors, and 
with other civil society and a local government organizations 
in the Delta to address some of these underlying issues.
    The last person that was kidnapped was released in early 
August, and there have not been any kidnappings since then. But 
the security and welfare of Americans are very much high on my 
agenda, and as we move forward in the Delta, we will ensure 
that their security is paramount in terms of what we do in the 
Delta, in protecting our people.
    Senator Feingold. Thank you very much, Ambassador.
    Mr. Wells, you emphasized your proven leadership skills, 
but you've never served in a United States Embassy and have no 
real experience in Africa. Why do you believe you're qualified 
to manage the Embassy in Banjoul? If confirmed, how do you plan 
to gain credibility among your staff and diplomatic 
counterparts from other embassies and with Gambian officials?
    Mr. Wells. Thank you, Mr. Chairman, and an excellent 
question.
    I've had the opportunity in my 20-year career at the 
Department of State, in addition to having served as a Peace 
Corps Director for two tours overseas, to be involved in a 
number of change initiatives and development of leaders, 
including ambassadors and deputy chiefs of mission. I think 
leadership of a chief of mission requires several things, one 
of which is certainly a knowledge of the interest of our 
country and our citizens. Second, an awareness of the resources 
available to us to accomplish those ends.
    And finally, I think the ability to articulate a vision 
that is both motivating and is results-driven, in order to 
provide your team with a sense that accomplishment is possible 
under that kind of a leadership.
    I believe that my experiences, both with the Peace Corps 
and the State Department and other venues have well prepared me 
to accomplish that.
    Senator Feingold. Thank you. I think you alluded to this 
next subject, but if you could comment some more. Since the 
alleged coup attempt on March 2006, the Jammeh government has 
engaged in a number of practices that raise serious human 
rights concerns, including the harassment of journalists. 
Nearly a dozen journalists are in jail and many others are in 
exile, while countless unsolved murders of supporters of the 
President are suspected of responsibility contribute to an 
almost permanent climate of fear. It's no wonder that The 
Gambia is ranked 149th out of 168 countries on Reporters 
Without Borders annual Press Freedom Index. What measures will 
you take to restore personal security to media professionals 
and press freedom to the citizens of the Gambia?
    Mr. Wells. Thank you, Mr. Chairman. We, as a matter of 
necessity, must continue to engage the Government of the Gambia 
on these issues. First and foremost, I think it is essential 
that we continue our efforts to promote dialog, to support 
National Democratic Institute programs, to engage the 
legislature in their own efforts to monitor elections, and to 
provide seminars on civil military relationships. In addition, 
I think we need to exercise the leverage that we may have, in 
terms of assisting in additional economic development efforts. 
The loss of the MCC eligibility, for example, and the potential 
to regain that opportunity, may bode well as some leverage to 
gain President Jammeh's confidence in our ability to assist 
them in moving forward.
    Senator Feingold. Thank you very much, sir.
    And now, Mr. Boulware, Mauritania has a long history of 
corruption in the public sector. The recently elected 
government is taking a number of positive reforms toward 
transparency in the oil sector. What concrete steps is the 
United States taking to, first, encourage the anticorruption 
reforms, and second ensure that these reforms will be 
implemented and enforced?
    Mr. Boulware. Certainly we're working with the government 
to continually engage them on the issue of corruption, and we 
do applaud the strong moves that the government has made, in 
terms of working with transparency and oil revenues. They're 
working closely, not only with the United States, but with the 
IMF and the World Bank to address these issues.
    If confirmed, I will continue to seek ways in which we can 
bolster their capacity to govern justly and honestly. I think, 
ultimately, that's one of the limiting factors, is that the 
capacity to pool trained and qualified individuals is not as 
deep as it might be in some other places. And, that's an area 
where I think we can--we could reinforce that.
    Senator Feingold. I thank you. I thank all of you very 
much, and I wish you well as we go forward through the 
confirmation process, and of course ultimately, assuming 
everything goes well, with you new posts. Thank you very much.
    I dismiss this panel and ask the second panel to come 
forward.
    Thank you very much and appreciate this panel coming 
forward. Let's begin with the statement of Ambassador McGee.

 STATEMENT OF HON. JAMES D. McGEE, NOMINEE TO BE AMBASSADOR TO 
                    THE REPUBLIC OF ZIMBABWE

    Mr. McGee. Thank you, Mr. Chairman. It's an honor and a 
privilege for me to appear before you today as President Bush's 
nominee to be Ambassador to the Republic of Zimbabwe. I 
appreciate the confidence that the President and Secretary Rice 
have in me by putting my name forth for another ambassadorship. 
If confirmed, I look forward to working with the 
administration, this committee, and Congress in advancing 
United States interests and in helping our efforts to put 
Zimbabwe back on the path of democracy and economic prosperity.
    Although Zimbabwe once enjoyed a sound economy and vibrant 
democratic institutions, the country today is suffering under 
authoritarian misrule. The government continues to commit 
unspeakable human rights abuses, while enforcing policies that 
have produced economic collapse, food shortages, and the 
destruction of a once strong judicial, financial, and 
educational institutions. Regional stability is threatened as 
the people of Zimbabwe flee their rapidly deteriorating country 
for neighboring countries.
    If confirmed, Mr. Chairman, I would continue our 
Government's efforts in assisting the people of Zimbabwe in 
their pursuit of a democratically elected government that 
respects human rights and the rule of law. Such a government 
could promote the welfare of its people by implementing the 
economic reforms needed to bring prosperity to Zimbabwe and 
contribute to regional growth and stability.
    Mr. Chairman, it must be stated, that while the prospects 
for democratic transformation in Zimbabwe are very challenging, 
we remain strongly committed to facilitating peaceful change. 
Our goal must be that the presidential and parliamentary 
elections take place as scheduled for next year and meet 
international standards.
    However, unless the Government of Zimbabwe quickly 
establishes conditions for a free and fair election and 
rigorously implements a level playing field, the presidential 
and parliamentary elections scheduled for next year, will not 
reflect the will of the Zimbabwean people. It is imperative 
that there be a substantial period of time for all candidates 
to campaign on a level playing field.
    I feel that we in the United States must continue our 
efforts. Abandoning the people of Zimbabwe to the worst affects 
of their government's misrule, is not in America's interest. It 
is essential, now more that ever, for the United States to 
continue to support its support for civil society and pro-
democratic elements in Zimbabwe. We need to play a major in 
ensuring that these organizations survive the current 
repression, to participate in Zimbabwe's eventually recovery.
    We must also continue our humanitarian assistance to the 
Zimbabwean people and ensure that it reaches the people in 
need. Resolution of Zimbabwe's political and economic crisis 
would stem the flow of migrants seeking a better life outside 
of the country. It would restore Zimbabwe's contribution to 
regional economic growth, enable the country to feed itself, 
rather than depending on international handouts. Would a 
democratic and prosperous Zimbabwe, SADC, the Southern African 
Development Community, would be in a stronger--would be a 
stronger instrument of regional economic development, providing 
opportunities for African growth and for United States private 
investment.
    Mr. Chairman, Zimbabwe is at an increasingly difficult 
point in its history. I welcome the opportunity to take on the 
challenge that will be faced by the next United States 
Ambassador to Zimbabwe. If confirmed, I will do my best to 
protect Americans and American interests, while working to help 
the people of Zimbabwe restore their country to a democratic 
and prosperous member of the international community.
    Thank you, Mr. Chairman, for this opportunity to appear 
before you today and I'm happy to answer any questions that you 
may have.
    [The prepared statement of Mr. McGee follows:]

       Prepared Statement of Hon. James D. McGee, Nominee to be 
                 Ambassador to the Republic of Zimbabwe

    Mr. Chairman, members of the committee, it is an honor and a 
privilege for me to appear before you today as President Bush's nominee 
to be Ambassador to the Republic of Zimbabwe. I appreciate the 
confidence that the President and Secretary Rice have in me by putting 
my name forward for your consideration. If confirmed, I look forward to 
working with the administration, this committee, and the Congress in 
advancing United States interests and in helping our efforts to put 
Zimbabwe back on the path of democracy and economic prosperity.
    Although Zimbabwe once enjoyed a sound economy and vibrant 
democratic institutions, the country today is suffering under 
authoritarian misrule. The government continues to commit unspeakable 
human rights abuses while enforcing policies that have produced 
economic collapse, food shortages, and the destruction of once strong 
judicial, financial, health, and educational institutions. Regional 
stability is threatened as the people of Zimbabwe flee their rapidly 
disintegrating country to neighboring countries.
    If confirmed, I would continue our government's efforts in 
assisting the people of Zimbabwe in their pursuit of a democratically 
elected government that respects human rights and the rule of law. Such 
a government could promote the welfare of its people by implementing 
the economic reforms needed to bring prosperity to Zimbabwe and 
contribute to regional growth and stability.
    In undertaking this assignment, I would call on my years of 
experience in Africa and elsewhere, representing the United States and 
working to promote democratic values. During my 26 years in the Foreign 
Service, I have served as Ambassador to Swaziland, Madagascar, and the 
Comoros. In these and other assignments, I sought to strengthen our 
bilateral relations while advancing U.S. interests by pressing for 
democratic reforms. I worked closely with pro-democracy civil society 
organizations in Swaziland to help write and eventually enact the first 
constitution that country had seen in over 30 years. In Madagascar, I 
helped the country to prepare for and implement successfully free and 
fair elections following the election crisis of 2001. I would work 
diligently to strengthen pro-democracy organizations in Zimbabwe. I 
strongly believe that there is a deep reservoir of democratic 
knowledge, capacity, and desire in Zimbabwe that needs continuing 
support to challenge the government to enact democratic reforms and to 
keep hope alive that change is possible.
    Mr. Chairman, it must be stated that while the prospects for 
democratic transformation in Zimbabwe are very challenging, we remain 
strongly committed to facilitating peaceful change. Our goal must be 
that the presidential and parliamentary elections take place as 
scheduled for next year and meet international standards. However, 
unless the Government of Zimbabwe quickly establishes conditions for a 
free and fair election and rigorously implements a level playing field, 
the presidential and parliamentary elections scheduled for next year 
will not reflect the will of the Zimbabwean people. It is imperative 
that there be a substantial period of time for all candidates to 
campaign on a level playing field.
    Still, we must continue our efforts. Abandoning the people of 
Zimbabwe to the worst effects of their government's misrule is not in 
America's interests. Returning Zimbabwe to a democratic state with a 
strong economy is necessary to promote regional stability and economic 
growth. Therefore, we must use the tools at our disposal to achieve the 
results we seek. The Zimbabwe Democracy and Economic Recovery Act and 
our targeted sanctions program have increased the pressure on those 
individuals that have undermined democracy and prosperity. We are 
working with like-minded members of the international community to 
increase this pressure. We must continue to lend our support to 
regional efforts to pressure the Government of Zimbabwe to enact needed 
reforms. The United States strongly supports the Southern African 
Development Community's (SADC) initiative to resolve the political and 
economic crisis, but the Government of Zimbabwe continues its 
repression and intimidation of civil society, religious organizations, 
businesspeople, and political groups. It is essential now more than 
ever for the United States to continue its support for civil society 
and pro-democratic elements in Zimbabwe. We need to play a major role 
in ensuring that these organizations survive the current repression to 
participate in Zimbabwe's eventual recovery.
    We must also continue our humanitarian assistance to the Zimbabwean 
people and ensure that it reaches the people in need. In fiscal year 
2007, United States food aid amounted to over $170 million. Today the 
United States is helping to feed nearly one-in-five Zimbabweans. 
Nonfood aid humanitarian assistance is approximately $5.1 million, and 
HIV/AIDS programs were increased to $31 million in fiscal year 2007. 
This funding is helping to deliver antiretroviral treatment to 40,000 
Zimbabweans. These actions demonstrate the generosity and compassion of 
the American people.
    Resolution of Zimbabwe's political and economic crisis would stem 
the flow of migrants seeking a better life outside Zimbabwe. It would 
restore Zimbabwe's contribution to regional economic growth and enable 
the country to feed itself, rather than depending on international 
handouts. With a democratic and prosperous Zimbabwe, SADC could be a 
stronger instrument of regional economic development providing 
opportunities for African growth and for United States private 
investment.
    Zimbabwe is at an increasingly difficult point in its history. I 
welcome the opportunity to take on the challenges that will be faced by 
the next United States Ambassador to Zimbabwe. If confirmed, I will do 
my best to protect Americans and American interests while working to 
help the people of Zimbabwe restore their country to a democratic and 
prosperous member of the international community.
    Mr. Chairman and members of the committee, I thank you for this 
opportunity to appear before you today. I am happy to answer any 
questions you might have.

    Senator Feingold. Thank you, Ambassador. I appreciated the 
strength and candor of your statement. The situation in 
Zimbabwe is one of the biggest disappointments that I've 
witnessed in 15 years, when so many other countries in Africa 
have had real positive development. So it is enormously 
important that that signal be sent and that, of course, that 
you follow through with what you said you were going to do with 
regard to this very challenging post.
    Dr. McMullen

 STATEMENT OF DR. RONALD K. McMULLEN, NOMINEE TO BE AMBASSADOR 
                    TO THE STATE OF ERITREA

    Dr. McMullen. Mr. Chairman, thank you for the opportunity 
to appear before you hear today. I'm honored that President 
Bush is nominating me for the position of Ambassador to 
Eritrea, and I'm grateful to Secretary Rice for her confidence 
and trust.
    With the Chairman's indulgence, I'd like to acknowledge the 
presence of my wife, Jane, and our son, Owen, another son--
excuse me, Wyatt, is here--Owen is in Australia and could not 
be here today.
    Over the years as an American diplomat, I've developed a 
deep appreciation for the hardships and sacrifices faced by 
Foreign Service families around the world. The support I have 
received from my wife and sons has been invaluable. They have 
made important contributions, in their own right, to enhancing 
Americas standing abroad. Mr. Chairman, if confirmed, I will 
work to promote U.S. interests, drawing on nearly 25 years of 
diplomatic service, much of it in hardship posts in the 
developing world.
    As Deputy Chief of Mission in Rangoon, Burma, I strongly 
supported persecuted ethnic minority groups and the oppressed 
democratic movement, headed by Nobel Peace Lauriat, Augn San 
Suu Kyi, while maintaining a relationship with the ruling 
Hunta. If confirmed by the Senate, I will do my best to advance 
America's multiple goals in Eritrea amid a very difficult 
environment.
    Eritrea once cooperated with the United States on regional 
stability in the Horn of Africa. The cooperation was important 
and appreciated. Today, the unresolved border dispute between 
Eritrea and Ethiopia poses a threat to regional stability. A 
repeat of the bloody 1998 to 2000 war would be ruinous to all 
involved and would undermine a number of U.S. objectives in the 
region and beyond. Reports of air train support for militant 
extremists in Somalia, including some with alleged links to 
terrorism, are very concerning. If confirmed, I will work to 
advance our national interest to reestablish cooperation with 
Eritrea on these issues and to ensure that the message of 
strong U.S. opposition to terrorism and its sponsors is 
consistently and unambiguously sent to all.
    Mr. Chairman, we have grave concerns about human rights 
issues in Eritrea, including democracy, rule of law, freedom of 
the press, and religious freedoms. If confirmed, I will seek to 
promote greater respect for human rights, the establishment of 
democratic political cultures, and conditions conducive to 
addressing the country's diverse human development needs.
    I strongly believe that the national interest of both the 
United States and the state of Eritrea would benefit from a 
return to a more cooperative bilateral relationship that 
characterized the early years of Eritrean independence. If 
confirmed, I will ensure that we undertake a strong public 
outreach program, emphasizing mutual respect, shared interest, 
and obligations in our common humanity.
    Finally, Mr. Chairman, while the United States and Eritrea 
do not enjoy a close cooperative relationship, as we have in 
the past, Eritrea's strategic Red Sea location, its active 
regional role, and its economic and human potential require us 
to remain engaged. Working with you and other members of 
Congress, in conjunction with the dedicate employees of Embassy 
Asmara, I trust we can move toward achieving key American 
objectives, while encouraging Eritrea to realize its 
considerable potential.
    Thank you for the opportunity to appear before you today. I 
look forward to answering any questions you may have.
    [The prepared statement of Dr. McMullen follows:]

      Prepared Statement of Dr. Ronald K. McMullen, Nominee to be 
                   Ambassador to the State of Eritrea

    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before you here today. I am honored that 
President Bush has nominated me for the position of Ambassador to 
Eritrea and am grateful to Secretary Rice for her confidence and trust.
    With the Chairman's indulgence, I would like to acknowledge the 
presence of my wife, Jane, and our son, Wyatt. Our son, Owen, who is 
studying in Australia, could not be with us here today. During nearly 
25 years as a career diplomat, I have developed a deep appreciation of 
the hardships and sacrifices faced by Foreign Service families around 
the world. The support I have received from my wife and sons has been 
invaluable; they have also made important contributions to enhancing 
America's standing abroad.
    Mr. Chairman, if confirmed, I will work to promote U.S. interests, 
drawing on nearly 25 years of diplomatic service, much of it hardship 
posts in the developing world, and in particular on my experience as 
Deputy Chief of Mission in Rangoon. In Burma I strongly supported 
persecuted ethnic minorities and the oppressed democratic movement 
headed by Nobel Peace Laureate Aung San Suu Kyi, while maintaining a 
working relationship with the ruling junta.
    If confirmed by the Senate, I will do my best to advance America's 
multiple goals in Eritrea amid a very challenging environment. The 
cooperative bilateral relationship we once enjoyed with Eritrea has 
grown strained over the last decade.
    Eritrea once cooperated with the United States on regional 
stability in the Horn of Africa. This cooperation was important and 
appreciated. However, the unresolved border dispute between Eritrea and 
Ethiopia poses a threat to regional stability; a repeat of the bloody 
1998-2000 war would be ruinous to all involved and would undermine a 
number of United States objectives in the region and beyond. Reports of 
Eritrean support for militant extremists in Somalia, including 
individuals and groups with links to designated terrorists, are very 
concerning. If I am confirmed, I will work to advance our national 
interests, to reestablish cooperation with Eritrea on these issues, and 
to ensure that the message of strong United States opposition to 
terrorism and its sponsors is consistently and unambiguously sent to 
all.
    Mr. Chairman and members of the committee, we have grave concerns 
about human rights issues in Eritrea, including democracy, rule of law, 
freedom of the press, and religious freedoms. Thousands of individuals 
have been imprisoned, including two Eritrean employees of the United 
States Embassy detained since 2001. Several thousand prisoners of 
conscience are being held without charge in indefinite and 
incommunicado detention. If confirmed, I will seek to promote greater 
respect for human rights, the establishment of a democratic political 
culture, and conditions conducive to addressing the country's diverse 
human development needs.
    I strongly believe that the national interests of both the United 
States and the State of Eritrea would benefit from a return to the more 
cooperative bilateral relationship that characterized the early years 
of Eritrean independence. If confirmed, I will ensure that we undertake 
a strong public outreach program emphasizing mutual respect, shared 
interests and obligations, and our common humanity.
    Finally, Mr. Chairman, while the United States and Eritrea do not 
enjoy the close cooperative relationship of the past, Eritrea's 
strategic Red Sea location, its active regional role, and its economic 
and human potential require us to remain engaged. Working with you and 
other Members of Congress, in conjunction with the dedicated employees 
of Embassy Asmara, I trust that we can move toward achieving key 
American objectives while encouraging Eritrea to realize its 
considerable potential.
    Thank you for this opportunity to appear before you today. I look 
forward to answering any questions you may have.

    Senator Feingold. Dr. McMullen, I appreciated your 
statement very much.
    And Dr. Nigro.

 STATEMENT OF DR. LOUIS J. NIGRO, NOMINEE TO BE AMBASSADOR TO 
                      THE REPUBLIC OF CHAD

    Dr. Nigro. Mr. Chairman, thank you. I'm deeply honored to 
appear before you today. I thank President Bush and Secretary 
Rice for entrusting me with this important responsibility. If 
confirmed by the Senate, I would work with the committee and 
others in Congress to advance the interest of the United States 
in Chad and its troubled region.
    Mr. Chairman, permit me to introduce to you my wife, Tarja, 
my brother, Robert, and his wife, Anita, who are here with me 
today before you.
    Senator Feingold. Welcome to all of you.
    Dr. Nigro. Thank you.
    My wife and I met in Chad, where I served from 1988 to 1990 
and we were married in Haiti in 1994 while serving in our 
embassy there. She has been an essential part of my Foreign 
Service career. Without her love, support, and counsel I could 
not be here before you today.
    Mr. Chairman, United States interests in Chad have expanded 
considerably in the past few years. Chad today is the scene of 
a humanitarian crisis of epic proportions. In eastern Chad, 
Darfur refugees and Chadian displaced persons flee violence in 
their homelands, while refugees from the Central African 
Republic seek safety in southern Chad. The country's vast 
spaces and porous borders leave it vulnerable to infiltration 
by terrorists. And Chad is now home to the largest--largest 
single United States private sector investment in sub-Saharan 
Africa, the Cameroon-Chad oil pipeline project.
    Mr. Chairman, the United States has three key strategic 
goals in Chad. First, to maintain adequate levels of protection 
and assistance to all Sudanese and Central African refugees and 
displaced Chadians, and to encourage Chad to contribute to a 
durable solution to the Darfur conflict. Second, to strengthen 
Chad's capacity to deal with terrorist threats. And third, to 
support Chad's political evolution to democratic governance 
that respects human rights and upholds the rule of law.
    This last is essential. A more democratic, and therefore 
more stable Chad, would be a more effective partner in 
addressing regional problems, including the Darfur conflict, 
chronic instability in the Central African Republic, and 
foreign terrorist threats.
    There is much I hope to accomplish in Chad, if the Senate 
confirms--were to confirm my nomination. First and foremost, I 
would commit myself to ensuring the continued safety and 
welfare of the American community there. Second, I would 
reinforce our efforts on the ground to provide humanitarian 
relief to refugees and displaced persons and to expedite the 
deployment of peacekeeping forces to protect them and the 
humanitarian workers assisting them. Third, I would focus the 
embassy's work in support of multilateral efforts to restore 
peace and stability in Chad and in the region, to permit all 
refugees and displaced persons to return to their homes safely. 
Fourth, I would maintain bilateral and multilateral cooperation 
on counterterrorism efforts. And finally, I would continue our 
efforts to promote democracy, human rights, and the rule of 
law, while helping Chad to deliver better health, educational, 
and other social services to its people, and promoting 
increased trade, investment, and economic growth.
    With these as my goals, should the Senate decide to confirm 
my nomination, I would hope to help Chad to be more secure, 
more prosperous, and more democratic, as well as a more 
effective partner for the United States in the region.
    Mr. Chairman, I thank you for this opportunity to appear 
before you and I welcome any questions you might have.
    [The prepared statement of Dr. Nigro follows:]

        Prepared Statement of Dr. Louis J. Nigro, Nominee to be 
                   Ambassador to the Republic of Chad

    Mr. Chairman and members of the committee, I am honored to appear 
before you today as the President's nominee to be the next Ambassador 
of the United States of America to the Republic of Chad. I thank 
President Bush and Secretary Rice for entrusting me with this important 
responsibility. If confirmed by the Senate, I will work with the 
committee and others in Congress to advance the interests of the United 
States in Chad and the region.
    Joining me here today are my wife, Tarja, my brother, Robert, and 
his wife, Anita. My wife and I met in Chad where I served in 1988-1990; 
we were married in Haiti 1994 while serving there. She has been an 
essential part of my Foreign Service career; without her love, support, 
and counsel, I could not be here before you today.
    Since joining the Foreign Service in 1980, besides my service in 
Chad and Haiti, I have served overseas in Guinea, Cuba, the Holy See, 
and the Bahamas, as well as in Washington in the Department of State's 
Policy Planning Council and Operations Center, and in the offices of 
Western European Affairs and of Canadian Affairs. I have also 
represented the Department of State at the U.S. Army War College and as 
Diplomat in Residence at the University of Houston.
    Mr. Chairman, the Republic of Chad is situated in the heart of 
Africa and shares borders with six other countries, including Sudan, 
Libya, and the Central African Republic. Chad affects and is affected 
by events in all of its neighbors. Most of its estimated 10 million 
people--who form a rich mosaic of languages, religions, and ethnic 
groups--are herders or farmers, suffering levels of poverty, 
illiteracy, disease, and infant mortality that are among the highest in 
the world.
    Chad, for many years, was synonymous with isolation and civil 
disorder. The USAID Mission was closed in 1995; the Peace Corps 
suspended operations indefinitely in 2006. But United States interests 
in Chad have expanded considerably in the past several years. Chad, 
today, is the scene of a humanitarian crisis of epic proportions. In 
Eastern Chad, Darfur refugees and Chadian displaced persons flee 
violence in their homelands while refugees from the Central African 
Republic seek safety in southern Chad. The country's vast spaces and 
porous borders leave it vulnerable to infiltration by terrorists. And 
Chad is now home to the largest single United States private-sector 
investment in sub-Saharan Africa, the Exxon/Mobil-managed Cameroon-Chad 
oil pipeline project; Chad and the World Bank have agreed to an 
innovative system for monitoring and managing the revenues it produces.
    Mr. Chairman, the United States has three key strategic goals in 
Chad. First, to maintain adequate levels of protection and assistance 
to the hundreds of thousands of Sudanese and Central African refugees 
and displaced Chadians, and to encourage Chad to contribute to a 
durable solution to the Darfur conflict. Second, to strengthen Chad's 
capacity to deal with terrorist threats. And third, to support Chad's 
political evolution to democratic governance that respects human rights 
and upholds the rule of law. This last is essential. A more democratic 
Chad would be a more stable and more effective partner in addressing 
regional problems, including the Darfur conflict, chronic instability 
in the Central African Republic, and foreign terrorist threats.
    There is much I hope to accomplish in Chad, if the Senate decides 
to confirm my nomination as ambassador. First and foremost, I would 
commit myself to ensuring the continued safety and welfare of the 
American community. Second, working closely with my counterparts in the 
region and beyond, I would reinforce our efforts on the ground to 
provide humanitarian relief to refugees and displaced persons and to 
expedite the deployment of peacekeeping forces to protect them and the 
humanitarian workers assisting them. Third, I would focus the embassy's 
work in support of multilateral efforts to restore peace and stability 
in Chad and in the region, to permit the refugees and displaced persons 
to return home safely. Fourth, I would maintain bilateral and 
multilateral cooperation on counterterrorism efforts. Finally, I would 
continue our efforts to promote democracy, human rights, and the rule 
of law, while helping Chad to deliver better health, educational, and 
other social services to its people and promoting increased trade, 
investment, and economic growth.
    With these as my goals, should the Senate confirm my nomination, I 
would hope to help Chad to be more secure, more prosperous, and more 
democratic--and therefore a more effective partner for the United 
States in the region.
    Mr. Chairman, members of the committee, I thank you for the 
opportunity to appear before you, and I welcome any questions you may 
have.

    Senator Feingold. Thank you, Doctor.
    None of these are easy posts. They are tough and they are 
also very interesting and complex. I spent a fair amount of 
time in each of these countries and I certainly believe that 
each is very important, not only to security and issues within 
the region, but to the security of the United States. So I 
again thank you for your willingness to serve.
    Ambassador McGee, the reality is that the United States has 
little positive influence with President Mugabe. Which nations 
or organizations do you think have the most weight in Harare 
and how can the United States actively engage with an affect 
their messages to the Zimbabwean Government?
    Mr. McGee. Thank you, Mr. Chairman. I think that the 
regional platforms in southern Africa, such as the Southern 
Africa Developing Community, has tremendous amount of weight. 
They have influence, but unfortunately I do not believe that 
they've brought all of this influence to bear on the situation 
in Zimbabwe. I think it's incumbent upon the United States 
Government to continue to work with groups, such as SADC, to 
improve civil societies ability in Zimbabwe to prepare for the 
upcoming elections.
    SADC has done this before. I can't say that they've done an 
excellent job on it. President Imbeke in South Africa has taken 
on a leadership role and to date, that leadership role still 
remains uncertain in our mind on how effective it has been. I 
do believe that we should continue to reach out to these 
organizations, as well as civil society elements within 
Zimbabwe to prepare the country for the upcoming elections.
    Senator Feingold. I too have had some concerns about the 
strength of SADCs approach with regard to Zimbabwe and 
appreciate your saying that. As you know, your predecessor, 
Ambassador Christopher Dell, was known for his persistent 
public criticism of the Government of Zimbabwe. Do you think 
that this was effective, and how would your approach resemble 
and how would it differ from that of Ambassador Dell?
    Mr. McGee. I think Ambassador Dell's approach was 
absolutely necessary. The excesses of the Government of 
Zimbabwe had to be made known to the international community. 
And the fact that Ambassador Dell was willing, at a very 
personal price, to continue to put these excesses front and 
center reflects his long history of service to--and excellent 
service--to the United States Government. I think he was very 
effective in what he did.
    My approach, if confirmed Mr. Senator, would be somewhat 
different. I believe that we still need to continue to make 
certain that any excesses are presented so that the 
international community is aware of them. At the same time, I 
think that we need to develop contacts within the existing 
government, looking for the day that there is regime, peaceful 
regime change within Zimbabwe. I think that we need to reach 
out and make certain that we do have interlocutors--that we 
have people that we can deal with in a new representative 
Government within Zimbabwe. And to that end, if confirmed by 
the Senate, I will work diligently to establish those types of 
contacts, looking for the day that we will have a government in 
Zimbabwe that's representative of the people of Zimbabwe.
    Senator Feingold. Thank you, Ambassador.
    Dr. McMullen, a humanitarian crisis is unfolding in the 
Somali region of Ethiopia as the Ethiopian military intensifies 
its offensive against the Ogaden National Liberation Front 
rebels, which the Ethiopian Government claims is being backed 
by Eritrea. This crisis is linked to the simmering conflict in 
Somalia, which many say is a proxy war between Ethiopia and 
Eritrea. As United States Ambassador to Eritrea, what approach 
and specific measure would you use to manage the escalating 
tensions between Ethiopia and Eritrea, at a time when the 
United States views the Ethiopians as an ally in the war on 
terror, and essential to ensure minimal stability in Somalia, 
but also, considering that Ethiopian troops are being accused 
of committing horrendous human rights abuses in both Somalia 
and in Southeastern Ethiopia.
    Dr. McMullen. It's a--the Horn of Africa right now is a 
very tangled web. And Eritrea has long had a practice of 
supporting opposition groups in the region, insurgent groups as 
well. They've done so in Ethiopia, in southern Sudan, in 
Darfur, eastern Sudan, where they were--played a key role in 
the recent eastern Sudan peace accord, also in Somalia.
    Now, we need to make sure that they understand there's a 
clear distinction from the United States, between supporting 
opposition groups and being a state-sponsor of terrorism. Some 
of our concerns and public officials comments recently about 
reports of support for Islamic--the Islamic Courts in Somalia, 
other more extreme groups with alleged links to terrorist 
groups is something that is very concerning. One of my jobs is 
to make sure that the message of American opposition to 
terrorism and supporters of terrorism is loud and clear. And 
that should Eritrea decide to go that route, they do so with 
their eyes wide open.
    Now, the border with Ethiopia, the bloody terrible war from 
1998 to 2000, could reignite, and we hope to work closely with 
the other witnesses to the Algiers agreement that ended the 
2000 war. That's the United States, Algeria, the African Union, 
European Union, and the United Nations, to help find ways to 
have both parties, Ethiopia and Eritrea, meet their obligations 
under that peace accord. We are strongly supportive of 
Secretary General Ban Ki Moon's offer of--to work, to develop 
mechanisms that will help build confidence between the two 
parties and lead to an implementation of the Algiers Accord, 
which right now both sides are not fulfilling their 
obligations. So, we hope that the border tensions can be 
diffused and we'll be very clear in our opposition to sponsors 
of terrorism and terrorism acts in the Horn.
    Senator Feingold. Thank you. Doctor, in September 2004, 
Eritrea was designated as a ``Country of Particular Concern'' 
under the International Religious Freedom Act.
    Dr. McMullen. Yes.
    Senator Feingold. What has been the impact of this 
designation on United States relations with Eritrea and on 
United States interests in the region?
    Dr. McMullen. The designation of being a country of 
particular concern brings with it the possibility of sanctions. 
The United States has imposed sanctions on Eritrea, in terms of 
some defense sales. Right now we have been working on the 
International Freedom of Religion's report. The Embassy in 
Asmara is one of the key sources of information about that. We 
are concerned, not only about the--right now the Government of 
Eritrea allows four religions or denominations to practice 
religion there. There are others who are seeking to become 
registered, and even those four registered denominations or 
religions find that their freedom to operate and to worship as 
they wish are being imposed and encroached upon by the 
Government of Eritrea. As, if confirmed as ambassador, I will 
meet with religious leaders of all varieties in Eritrea and 
with government leaders in Eritrea, to continue to make them 
aware of our strong interest and support for international 
religious freedoms.
    Senator Feingold. Thank you very much, Doctor.
    Dr. Nigro, while much attention has been focused on the 
refugees from Darfur and eastern Chad, instability in Chad 
itself is longstanding and worsening. In fact, in addition to 
230,000 refugees from Darfur living in eastern Chad, there are 
now 180,000 Chadians who have been displaced from the internal 
conflict. There are currently no peace negotiations being 
conducted that include all armed opposition groups and there 
are no mechanisms in place to address and resolve the inter-
ethnic conflict that has caused much of this internal 
displacement. What would you do as ambassador to work toward a 
comprehensive peace in Chad and what incentives would you 
offer--or consider offering--to all parties?
    Dr. Nigro. Thank you, Mr. Chairman. This is of course an 
important subject. If confirmed as Ambassador to Chad, I would 
continue to encourage all Chadians to engage in dialog aimed at 
bringing about political stability in Chad. Specifically, there 
are three paths to this end that are being pursued. Just last 
month, the Government of Chad, the ruling party, and most of 
the opposition parties agreed to an electoral reform program 
that could lead to free, fair, and credible legislative and 
communal elections in 2009. This would be an excellent first 
step on Chad's evolution toward sustainable democracy.
    Also, we support fully the idea of a European Union-United 
Nations joint peacekeeping operation in eastern Chad, which 
would be aimed at protecting the refugees and displaced persons 
and would have the side-effect, the additional effect of 
reducing tensions in the region.
    And finally, we support the African Union and United 
Nations-sponsored Darfur peace talks that should resume next 
month, as a way of reducing tensions in the area and giving 
Chad a chance to work more seriously on a transition to 
democracy.
    Senator Feingold. Doctor, in 2006 the Chadian Government 
substantially changed its much-heralded petroleum revenue law, 
which was designed to ensure a high-level of antipoverty 
spending. According to the IMF, Chad is now spending around 12 
percent of its gross domestic product on the military, which 
makes it nearly impossible that the government will meet its 
target of spending 70 percent of its revenues on poverty-
reduction activities. In your position as ambassador, how would 
you work to see that oil revenues are spent efficiently towards 
poverty reduction in Chad?
    Dr. Nigro. Thank you. If confirmed, I would work in at 
least two areas with the goal of encouraging Chad to do just 
that. Chad and the World Bank are still working under their 
agreement for levels of government spending--70 percent on 
poverty reductuio sectors, and 30 percent on all other sectors. 
Now, the Chadians have not met that fully, but they are working 
toward it. So, we would encourage the World Bank and Chad to 
continue collaborating seriously under this agreement, as a way 
of helping the Chadians arrive at a reasonable level of 
spending in both sectors.
    Second, I would urge the Chadians to arrive at full 
participation in the Extractive Industries Transparency 
Initiative. They've gone part of the way. They need to go all 
the way to be able to access the assistance and the support 
that they would need to ensure that their petroleum revenues 
are managed in a responsible way and in conformity with 
recognized international standards.
    Senator Feingold. Thank you, Doctor.
    I want to again apologize for the necessarily limited time 
we had for this hearing today, and I again encourage you as you 
go forward. The only other thing I want to say is, having just 
returned from a trip to the Democratic Republic of Congo, where 
we went to Northern Uganda, what you people do with the support 
of your families and staff is a tremendous contribution to our 
country. The places many of you are going are very challenging, 
so I sincerely wish you the best.
    So thank you again , and I look forward to working with you 
as this process continues.
    That concludes the hearing.
    [Whereupon, at 10:23 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


       Responses of Hon. Robin R. Sanders to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. What, in your view, are the most pressing human rights 
issues in Nigeria? What are the steps you expect to take--if 
confirmed--to promote human rights and democracy in Nigeria? What do 
you hope to accomplish through these actions?

    Answer. There are several areas of concern regarding human rights 
in Nigeria. They range from addressing unequal treatment and violence 
against women; improving prison conditions and the welfare of children, 
particularly trafficking in persons; fostering respect and appreciation 
for the strength that diversity brings to a nation; and better civil-
military/police relations throughout the country so that the population 
does not feel intimidated.
    If confirmed, I would seek to work with the United States 
Government interagency team at the United States Mission in Nigeria, 
the private sector, and NGOs to not only partner with the Nigerian 
Government and encourage its leadership and visibility on these issues, 
but also to provide United States stewardship and expertise in 
addressing the key issues noted above through dialog and programs.
    On the democracy front--human rights and good governance to me are 
pillars of this--improving the rule of law, combating corruption, and 
increasing transparency with regard to the use of Nigeria's strategic 
resources are key challenges. If confirmed, I will work with ``U.S. 
Team Nigeria'' and a range of stakeholders on these issues. It will be 
important to ensure the new government's commitment to addressing these 
issues from both a policy and programmatic perspective, and for the 
United States to have a fluid approach to our activities that includes 
capacity building in key sectors, particularly justice, election 
reform, anticorruption, education, and health. All of these things must 
work in concert with good Nigerian Government leadership in order for 
Nigeria's evolving democracy to progress.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous responses? What challenges will you face in Nigeria in 
advancing human rights and democracy in general?

    Answer. Nigeria and its people are in a phase where the new 
government is finding its footing in a range of sectors connected to 
better and just governance and improved human rights. The legacy 
inherited by the new government includes such major challenges as high 
unemployment, rampant poverty, health issues (HIV/AIDS, malaria), poor 
education, security challenges, and a crumpling infrastructure. Our 
``partnership with stewardship'' and our ``propitious engagement'' will 
aim to assist Nigeria in addressing these fundamental challenges to 
improved human rights, economic growth and development, and a better 
way of life for the Nigerian people. If confirmed, I believe that our 
current operations plan which has specific focus on these areas will 
play a key role in supporting the government's efforts to move the 
nation forward.

    Question. In your new position, what steps will you take to ensure 
that promotion of human rights objectives will be an integral part of 
the U.S. Embassy's activities? If confirmed, what steps will you take 
to ensure that Foreign Service officers who engage in human rights 
activities are encouraged and professionally rewarded for superior 
service?

    Answer. If confirmed, I will ensure that all employees of Mission 
Nigeria (Abuja and Lagos) promote not only the importance of, but also 
respect for, human rights. I see human rights issues as the core of a 
democratic society. I will not only encourage a human rights focus in 
what we say but also in what we do outwardly as well as within the 
Mission itself (among our own employees).
    One of the things I hope to do--if confirmed--is develop an 
``embassy on the road'' type activity where officers get out of the 
Mission and travel throughout the country to talk about U.S. values and 
human rights at the people-to-people level, not just with the 
government at the policy level. We need to do both. I believe in 
recognizing and highlighting superior service and certainly will do so 
in the area of human rights. I will provide leadership in ensuring that 
all are recognized for their important contributions toward advancing 
our human rights objectives in Nigeria.

    Question. What are the most significant actions you have taken in 
your career to promote human rights and democracy? Why were they 
important? What was the impact of your actions?

    Answer. In virtually every assignment as a Foreign Service officer, 
I have been involved in promoting democracy and human rights. My 
engagement has ranged from the very personal to the policy level.
    In my 28 years in the Foreign Service, I have mostly worked in 
countries in transition--fragile or nascent democracies that were 
addressing human rights, rule of law, and struggling with the 
principles of freedom of speech and association. In particular, in the 
Republic of Congo (ROC)--a post conflict country--I worked with the 
NGOs, academics, women's groups, and journalists on civil-military/
police relations (training and workshops); respect for ethnic diversity 
(programs for at-risk pygmy to breakdown stereotypes via ethnically 
diverse ``school garden projects''); participatory democracy 
(strengthening the capacity of the national assembly); and, encouraging 
dialog and inclusion of the opposition. In addition to working in the 
war-torn Pool Region of ROC, which in many ways is similar to the Niger 
Delta, Embassy Brazzaville focused on community and grassroots 
organizations to help restart microenterprise programs; design 
excombatant training and education programs for youth, young women, and 
child soldiers; and workshops on freedoms of speech and association. In 
other posts such as Namibia and Senegal, we developed activities that 
highlighted respect for ethnic diversity; the importance of an 
independent judiciary and media; and the role of a robust national 
assembly. In all cases, the groundwork we laid played a role in where 
these countries are today.

    Question. Oil companies operating in Nigeria have been severely 
criticized for alleged environmental destruction resulting from their 
operations. At the same time, immense oil profits from the Niger Delta 
region have certainly not flowed back in to the people living there. If 
confirmed, what steps would you take as ambassador to promote 
environmentally sustainable development and the equitable distribution 
of resources and to help Nigeria avoid the ``resource curse''?

    Answer. The environmental problems and lack of equitable 
distribution of resources in the Niger River Delta are amplified by 
poor infrastructure, lack of transparency in allocating oil revenue for 
development by local governments, poor education, high unemployment, 
security issues, and criminality. The Delta's wetlands face serious 
environmental problems, but there are few modern empirical studies that 
fully document and detail the damage. Since oil majors have made some 
progress in preventing accidents, pipeline sabotage has emerged as the 
significant cause of environmental damage. Many of the oil companies do 
provide resources to state governments for development under the 
umbrella of the Niger Delta Development Corporation (NOGG), but there 
are transparency issues within NDCC as to how these funds are used. We 
will continue to push for transparency in this area.
    In addition, the United States regularly meets Nigeria and its 
international partners, including the oil majors. In fact, there is a 
framework for dialog called the ``Gulf of Guinea Energy and Security 
Initiative,'' under which we are discussing various ways to bring our 
``partnership with stewardship'' to these issues. For example, we have 
offered to provide training to strengthen customs enforcement and 
border security, raised the need for improved transparency in state and 
local budgets so that more resources can be directed to Niger 
development, and USAID is looking at options for addressing 
agricultural challenges in the region. We will continue to offer 
programs under this framework to address both these issues. We also are 
cooperating with the Government of Nigeria on coastal surveillance and 
on ``train and equip'' programs for a Nigerian riverine unit that could 
address fisheries violations, oil theft, piracy, smuggling, narcotics 
trafficking, and environmental damage from unauthorized pipeline 
tapping. We encourage U.S. private sector partnerships in the Delta to 
focus on profitable agricultural livelihoods, technology transfer, 
constructive use of currently ``flared'' natural gas, creating more 
domestic refining capacity, developing biofuels for domestic use, 
building greater public access to telecommunications networks and 
health care, and curbing oil theft. From the United States Government 
side, both Ex-IM and TDA are focused on providing their products to 
address both the ``flared gas,'' refining, and waste management issues.
    Nigeria's federal government has an important role to play in 
addressing the challenges in the Delta, but we believe that the support 
of the powerful and well-resourced state governors is the key to any 
durable solution. USAID has worked with the governors and legislatures 
of several states to improve coordination, accountability, on 
development funding on poverty alleviation programs, and to projects to 
address agriculture challenges in the region with the hope of expanding 
some of its income generating projects to the area. These initiatives 
now must be implemented and incorporated into a regional strategy. 
There remains a widespread lack of transparency of budgets, 
particularly at the state and local level. The federal government must 
establish and empower more effective auditing and inspector general 
functions. Overall, Nigeria needs to radically refocus its efforts to 
use oil revenues in a transformative way to promote development and 
address poverty, and by all indications the new government has taken 
some steps in that direction by seeking to put in policies to address 
these revenues. Continued use of oil revenues to build patronage and 
personal wealth is a recipe for serious instability in the country. 
Consequently, we are funding participation by local Non-Government 
Organizations (NGOs) in Nigeria's Extractive Industries Transparency 
Initiative (EITI) to promote transparency in the oil sector. Nigeria is 
the only country in the EITI that has to date invited NGOs in as 
stakeholders in this process.
    If confirmed, I will continue to press the Nigerian federal and 
state governments, as well as the oil majors, to follow through on 
these efforts, particularly under the framework of the ``Gulf of Guinea 
Initiative,'' and further cooperate with us through its Economic and 
Financial Crimes Commission and other institutions, to combat 
corruption, smuggling, and other illegal acts.

    Question. Sadly, corruption is almost a hallmark of business and 
government in Nigeria. At the same time, HIV/AIDS has hit Nigeria with 
massive force: an estimated 3 million Nigerians are HIV positive. 
Through PEPFAR, United States assistance to Nigeria to help fight HIV/
AIDS has dramatically increased in recent years, from $163.6 million in 
fiscal year 2006 to $304 million in fiscal year 2007, and will likely 
climb still higher next year. If confirmed as ambassador, what do you 
envision would be the particular challenges of fighting HIV/AIDS in a 
country so known for corruption? How would you address those challenges 
and others associated with managing such a large program?

    Answer. The potential impact of HIV/AIDS is indeed a major security 
and health issue both for the country and the region as a whole. Issues 
of governance and accountability in Nigeria create specific challenges 
in the fight against HIV/AIDS in programming with either public or NGO 
sectors. The management of U.S. Government PEPFAR assistance on the 
ground is highly cognizant of this challenge and has a solid strategy 
to ensure accountability and results.
    Although they coordinate many of their activities with the 
Government of Nigeria to ensure that there is a link with country's 
national HIV/AIDS plan, the Departments of State (DOS) and Defense 
(DoD), the U.S. Agency for International Development (USAID), and the 
Centers for Disease Control (CDC) generally do not fund the Government 
of Nigeria directly, but rather have almost all of their funds going 
primarily through international implementing partners either via 
contracts or cooperative agreement grants.
    There are some limited exceptions. During fiscal year 2007, DoD 
provided $100,000 to the Nigerian Ministry of Defense for HIV/AIDS 
activities.
    In fiscal year 2008, CDC is planning to issue a Request for 
Applications that would make available significant resources to the 
Ministry of Health's National AIDS program. The U.S. Government 
supports institutional capacity-building within the Government of 
Nigeria to improve its systems for greater transparency and 
accountability.
    United States Government PEPFAR programming decisions are run 
through the interagency United States Government Nigeria Country Team 
for management and strategy development, which ensures that there is 
full transparency and communications regarding the selection of 
implementers and in the funding allocations, and types of programs to 
ensure they are in line with our goals and objectives for PEPFAR 
resources. Of note, the interagency United States Government team in 
Nigeria most recently won the PEPFAR ``Best Program'' award for their 
effectiveness in advancing the goals and objectives of PEPFAR.
    It is critical to the success of the PEPFAR program that partners 
implementing HIV/AIDS programs adequately meet the management 
standards, including financial management standards, set by the U.S. 
Government. While it is PEPFAR policy worldwide to engage with and 
expand the capacity of local organizations, there is a dearth of local 
organizations in Nigeria that can meet these high standards. The United 
States Government has engaged with local and international partners to 
strengthen the management capacity of Nigerian civil society 
organizations. U.S. Government agencies generally conduct comprehensive 
and extensive pre-award surveys for all local partners, as well as 
direct monitoring and supervision by cognizant technical officers with 
regular and in-depth site visits to ensure that expenditures match 
activities and results on the ground.
    Given the security situation in the Niger River Delta, PEPFAR funds 
are not being used directly there. However, the United States continues 
to engage with the Government of Nigeria on addressing the challenges 
in the Delta.
    U.S. Government funding decisions and programmatic initiatives are 
shared with other key bilateral and multilateral donors to ensure that 
proposed activities are additive and harmonized with other donor-funded 
efforts. The U.S. Government team is actively involved in several 
initiatives to expand the breadth of donor coordination, with both CDC 
and USAID sitting on the Development Partners Group for HIV/AIDS whose 
mandate is to maximize efficiencies in donor funding for the HIV 
response.
                                 ______
                                 

          Responses of Barry L. Wells to Questions Submitted 
                     by Senator Christopher J. Dodd

    Question. Have you read the cable ref: 04 STATE 258893--Peace 
Corps--State Department Relations?

    Answer. Yes.

    Question. Do you understand and agree to abide by the principles 
set forth in this cable?

    Answer. I fully understand and agree to abide by the principles set 
forth in this cable in order that the Peace Corps may maintain its 
independent posture from the concerns and strategy of our foreign 
policy.

    Question. Specifically, do you understand and accept that ``the 
Peace Corps must remain substantially separate from the day-to-day 
conduct and concerns of our foreign policy'' and that ``the Peace 
Corps' role and its need for separation from the day-to-day activities 
of the mission are not comparable to those of other U.S. Government 
agencies''?

    Answer. I fully understand and accept that ``the Peace Corps must 
remain substantially separate from the day-to-day conduct and concerns 
of our foreign policy'' and that ``the Peace Corps' role and its need 
for separation from the day-to-day activities of the mission are not 
comparable to those of other U.S. Government agencies.''

    Question. Do you pledge, as Secretary Rice requests in 3.B of the 
cable, to exercise your chief of mission ``authorities so as to provide 
the Peace Corps with as much autonomy and flexibility in its day-to-day 
operations as possible, so long as this does not conflict with U.S. 
objectives and policies''?

    Answer. Per Secretary Rice's requests in 3.B of the cable, I pledge 
to exercise my chief of mission ``authorities so as to provide the 
Peace Corps with as much autonomy and flexibility in its day-to-day 
operations as possible, so long as this does not conflict with U.S. 
objectives and policies.'' Autonomy and flexibility are essential to 
the Peace Corps' ability to work effectively at the grassroots level, 
and the U.S. Mission under my leadership, if confirmed, will not 
interfere with the day-to-day operations of the Peace Corps so long as 
they do not conflict with U.S. foreign policy objectives and policies. 
I believe my experience as a Peace Corps country director and as a 
State Department employee will help me understand and follow the 
guidelines if I am confirmed as ambassador.
                                 ______
                                 

          Responses of Barry L. Wells to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. What, in your view, are the most pressing human rights 
issues in The Gambia? What are the steps you expect to take--if 
confirmed--to promote human rights and democracy in The Gambia? What do 
you hope to accomplish through these actions?

    Answer. The recent deterioration of press freedom and political 
rights are the most pressing human rights issues in The Gambia. The 
negative human rights trend has been particularly evident since the 
failed coup in March 2006, as authorities have cracked down on the 
media and other forms of public dissent. Many of the suspects arrested 
for participation in this plot have received hefty sentences, and the 
fairness of their trials and respect for their rights remains 
questionable. Press freedom in The Gambia has deteriorated 
significantly in recent months. Several journalists have been arrested 
arbitrarily, and the Committee to Protect Journalists ranked The Gambia 
as the No. 1 country for press freedom deterioration in May 2007.
    If confirmed as United States Ambassador to The Gambia, I will 
ensure that engagement with the Jammeh government on these slippages 
remains a central priority of the United States Mission. I will pay 
close attention to developments in this area and continually stress to 
the Government of The Gambia (GOTG), at both ministerial and working 
levels, that press freedom, civil liberties, and transparency are 
essential pieces of functional multiethnic state. To promote human 
rights within the government and amongst the population at large, I 
will use all of the diplomatic tools available. I will encourage the 
GOTG to improve its human rights and civil liberties records in order 
to reestablish Millennium Challenge Account eligibility. I will 
encourage democracy assistance by organizations such as the National 
Democratic Institute and the International Republican Institute utilize 
other available funds to support trainings for journalists. It is my 
hope that as a result of these actions, the GOTG will make measurable 
progress toward respecting the political rights of its citizens and 
nurturing an independent press.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous responses? What challenges will you face in The Gambia in 
advancing human rights and democracy in general? Gambia appears to be 
engaged in a downward slide in terms of increasing human rights abuses, 
restrictions on political rights and liberties, and corruption. If 
confirmed as ambassador, how would you seek to reverse this downward 
trajectory or respond to it if it continues?

    Answer. Lack of resources, training, and institutional capacity in 
The Gambia limit our ability to address human rights in The Gambia. The 
United States and other donor nations have programs in place to assist 
in overcoming these challenges. The U.S. Embassy works with both 
national and international NGOs that monitor press freedom and seek to 
improve institutional capacity. If confirmed, I will continue this 
cooperation.
    Another potential obstacle to addressing the recent decline of The 
Gambia's human rights record is an adverse reaction by the Jammeh 
government. If confirmed as ambassador I will engage the Gambian 
Government on human rights in the most sensitive of possible manners. I 
will emphasize that The Gambia is a sovereign state but at the same 
time, I will urge the GOTG to increase government transparency and to 
protect its peoples' political and press rights as a means of 
furthering its legitimacy and resultant long-term stability. On a 
personal level, I will seek to mend the United States' tense 
relationship with President Jammeh while making clear that the U.S. 
Government holds human rights and government transparency in the 
highest regard.

    Question. In your new position, what steps will you take to ensure 
that promotion of human rights objectives will be an integral part of 
the U.S. Embassy's activities? If confirmed, what steps will you take 
to ensure that Foreign Service officers who engage in human rights 
activities are encouraged and professionally rewarded for superior 
service?

    Answer. Promoting democracy and human rights in The Gambia is a top 
priority for the country team in Banjul. Promoting human rights is a 
key element of the job description of several country team members. 
Their efforts to promote human rights are evaluated in the annual 
review process, and I will recommend awards for those embassy staff who 
have performed in an exemplary manner.

    Question. What are the most significant actions you have taken in 
your career to promote human rights and democracy? Why were they 
important? What was the impact of your actions?

    Answer. For the last 17 years I have been a member of the Board of 
Directors of the National Multi-Cultural Institute (NMCI) which is 
dedicated to promoting human rights and cultural awareness. A core 
agenda for NMCI has been bringing attention to and the eradication of 
human slavery. As part of NMCI's semiannual conferences, a 2-day 
workshop is dedicated to antislavery issues--``Cultural Considerations 
in Assisting Victims of Slavery.'' Under board leadership, NMCI has 
also established one of the most comprehensive Web site search engines 
on resources related to human trafficking. I personally moderated a 
panel discussion on ending trafficking at one of our semiannual 
conferences. I believe my efforts on behalf of victims of slavery have 
brought much needed attention to this inhumane practice.

    Question. Please explain, in what manner has the Jammeh government 
``provided steadfast, tangible support for the global war on 
terrorism,'' as reported by the Bush administration in its fiscal year 
2008 budget request? If confirmed as ambassador, how would you seek to 
strengthen this relationship and to balance security interests and 
concerns about human rights and democratization?

    Answer. The Government of The Gambia has, over the last several 
years, cooperated closely with United States security, law enforcement, 
and intelligence agencies to guard against the spread of extremism in 
The Gambia and to ensure that The Gambia does not become either a 
recruiting ground or a transit zone for international terrorist 
organizations.
    If confirmed, I would seek to continue this cooperation, and help 
to strengthen The Gambia's technical ability to both control its own 
borders and prevent the flow of funds to terrorist organizations.
    I firmly believe that, in the long run, stable democracies are our 
best and most dependable allies in the war on terror. Promotion of 
human rights and democratization is thus a long-term investment in our 
own security. Conversely, security is necessary for democracy and human 
rights to flourish. I therefore see our security and human rights goals 
as complementary, rather than in competition, and believe we can pursue 
both simultaneously in The Gambia.
                                 ______
                                 

        Responses of Hon. James D. McGee to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. What, in your view are the most pressing human rights 
issues in Zimbabwe? What are the steps you expect to take--if 
confirmed--to promote human rights and democracy in Zimbabwe? What do 
you hope to accomplish through these actions?

    Answer. The Government of Zimbabwe has engaged in a systematic 
campaign of violence and intimidation against the democratic 
opposition, labor unions, university students, and others, coupled with 
the use of repressive legislation, designed to abridge freedom of 
assembly, freedom of speech, political organization, and access to the 
media. Government security forces have engaged in killings, abductions, 
torture, beating, and unlawful arrests and detention. With much of the 
population facing critical food shortages, the government has also used 
food distribution to manipulate support for the ruling party.
    If confirmed, I would speak out against regime injustices and work 
diligently to support and strengthen pro-democracy civil society 
organizations. I would also work to identify additional members of the 
regime responsible for developing and implementing Zimbabwe's 
antidemocratic policies and coordinate with Washington to isolate them 
by including them on the list of regime supporters subject to U.S. 
economic and travel sanctions.
    I would also urge the Southern African Development Community (SADC) 
to seek an end to the Government of Zimbabwe's political repression and 
violence, and to ensure that conditions are put in place to allow a 
free and fair election to take place in Zimbabwe in 2008.
    In taking these steps, I would hope to increase United States and 
international pressure on the Government of Zimbabwe to implement the 
reforms needed to conform to internationally recognized human rights 
standards.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous responses? What challenges will you face in Zimbabwe in 
advancing human rights and democracy in general? Please explain your 
understanding of why the administration's fiscal year 2008 
Congressional Budget Justification for Zimbabwe does not include funds 
for human rights or rule of law programs, given the systematic 
violation of human rights by the Government of Zimbabwe and its 
apparent lack of respect for the rule of law?

    Answer. The biggest obstacle to addressing human rights issues in 
Zimbabwe is the Mugabe regime's determination to stay in power, 
regardless that Zimbabweans are suffering and the economy is dying. The 
authoritarian Mugabe government's dominant control of the political 
process and the impunity with which its security forces suppress 
efforts to promote democracy are challenges that must be faced in 
advancing human rights and democracy in Zimbabwe.
    The administration's fiscal year 2008 Congressional Budget 
Justification (CBJ) includes funds to promote human rights and the rule 
of law through the work of partners within Zimbabwean civil society.

    Question. In your new position, what steps will you take to ensure 
that promotion of human rights objectives will be an integral part of 
the U.S. Embassy's activities? If confirmed, what steps will you take 
to ensure that Foreign Service officers who engage in human rights 
activities are encouraged and professionally rewarded for superior 
service?

    Answer. The United States plays a crucial role in advancing human 
rights throughout the world. If confirmed, the advancement of human 
rights in Zimbabwe would be one of the top priorities of my tenure. I 
would lead the Mission's work on human rights by speaking out and 
engaging with the country's civil society community on human rights 
issues. To the extent possible I would encourage Government of Zimbabwe 
and Zimbabwe African National Union-Patriotic Front (ZANU-PF) officials 
to urge the implementation of needed reforms. I would encourage my 
staff to engage on human rights issues by ensuring that addressing 
human rights is included in the work requirement statements of 
appropriate Foreign Service officers (FSO) and stressing the importance 
of that work in employee-supervisor counseling sessions. I would note 
the accomplishments in the field of human rights in annual FSO 
personnel evaluations and would look for opportunities to nominate for 
Department of State and Mission awards those officers who excel in 
promoting human rights.

    Question. What are the most significant actions you have taken in 
your career to promote human rights and democracy? Why were they 
important? What was the impact of your actions?

    Answer. During my 26 years in the Foreign Service, I have 
consistently sought to advance U.S. interests by pressing for human 
rights and democratic reforms. The most significant actions were in 
Swaziland and Madagascar, where I had the honor of serving as United 
States Ambassador. In Swaziland, I worked closely with pro-democracy 
civil society organizations to help write, and eventually enact, the 
first constitution that country had seen in over 30 years. This effort 
was an important achievement in a country that has a deeply ingrained 
traditional society, ruled by an absolute monarch. The new 
constitution, while largely confirming the king's authority, 
specifically delineated some basic rights for the people.
    In Madagascar, I helped the country prepare for and successfully 
implement free and fair elections following the election crisis of 
2001.
    These elections have proven to be an important event in the 
country's democratic development.
    In each case, the advance of democracy has strengthened U.S. 
relations with those countries and improved the lives of the people.

    Question. In your statement before the committee, you offered a 
forceful condemnation of the Zimbabwean Government's economic policies 
and political repression. If confirmed as ambassador, what would you do 
to monitor and seek to improve the economic and humanitarian plight of 
the people of Zimbabwe, given a limited range of available tools?

    Answer. If confirmed, I would place special importance on 
monitoring the accelerating economic collapse and humanitarian tragedy 
wrought by the Mugabe regime's politically inspired policies. With both 
Zimbabwean and multilateral interlocutors, I would press publicly and 
privately for the political and economic reforms needed to restore 
democracy and economic prosperity.
    As ambassador, I would seek to ensure that United States programs 
providing humanitarian assistance and HIV/AIDS treatment were sustained 
with strong support and sufficient resources in an effort to relieve 
the suffering of those left vulnerable by the Government of Zimbabwe's 
misguided policies and poor governance. I would pay particular 
attention to the delivery of legal, medical, and psycho-social 
assistance to human rights defenders and members of civil society who 
have suffered abuse and torture at the hands of the government.

    Question. In your opinion, what are the most important steps that 
the international community should take within the coming months to 
promote a greater chance at free and fair elections in Zimbabwe in 2008 
or, at least, to provide a broader foundation for democratization as a 
whole in the country?

    Answer. I believe the international community should strongly 
support the Southern African Development Community's (SADC) efforts to 
resolve the political and economic issues confronting Zimbabwe.
    The international community must impress upon SADC and the Mugabe 
regime the fact that the next elections will not be accepted unless a 
level playing field is established, and the Government of Zimbabwe 
rigorously implements the reforms that result from the SADC talks 
between the ruling and opposition parties. International monitoring of 
the pre-election electoral environment, as well as election-day voting 
will be critical to certifying the legitimacy of the upcoming 
elections.
    In the meantime, the international community should lend its weight 
to supporting democratic elements in Zimbabwe and pressing the 
Government of Zimbabwe to end regime-sponsored violence against its 
critics.
                                 ______
                                 

         Responses of Mark M. Boulware to Questions Submitted 
                     by Senator Christopher J. Dodd

    Question. Have you read the cable ref: 04 STATE 258893--Peace Corp-
State Department Relations?

    Answer. Yes, I have.

    Question. Do you understand and agree to abide by the principles 
set forth in this cable?

    Answer. Yes, I understand and agree to abide by the principles in 
this cable that guide the Department's dealings with the Peace Corps.

    Question. Specifically, do you understand and accept that ``the 
Peace Corps must remain substantially separate from the day-to-day 
conduct and concerns of our foreign policy'' and that ``the Peace 
Corps's role and its need for separation from the day-to-day activities 
of the mission are not comparable to those of other U.S. government 
agencies''?

    Answer. Yes. I understand and accept this.

    Question. Do you pledge, as Secretary Rice requests in 3.B of the 
cable, to exercise our chief of mission ``authorities so as to provide 
the Peace Corps with as much autonomy and flexibility in its day-to-day 
operations as possible, so long as this does not conflict with U.S. 
objectives and policies''?

    Answer. Yes, I pledge to do so.
                                 ______
                                 

         Responses of Mark M. Boulware to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. What, in your view, are the most pressing human rights 
issues in Mauritania? What are the steps you expect to take--if 
confirmed--to promote human rights and democracy in Mauritania? What do 
you hope to accomplish through these actions?

    Answer. President Abdallahi has already begun to address the two 
most pressing human rights issues--the eradication of slavery and the 
repatriation of Mauritanian citizens unjustly expelled from their own 
country. The United States is contributing $500,000 to the United 
Nations High Commissioner for Refugees (UNHCR) to assist with the 
repatriation effort and, if confirmed, I would work to ensure the 
success of this project.
    The Government of Mauritania's decision to criminalize slavery is a 
welcome move and an imperative first step. Criminalization is a 
necessary tool for instances of outright slavery but is less useful for 
addressing passively accepted hereditary servile relationships based on 
caste. In order to make real progress in establishing equality, 
educational outreach will be required to erode the traditional myth 
that dependency relationships are the natural order. Additionally, it 
is essential that viable economic alternatives exist both for those 
trapped in servitude and those grown dependent upon the exploitation of 
others. If confirmed, I would use the tools of public diplomacy to 
assist the government in its efforts to educate the people. I see our 
development assistance as a necessary component to promote economic 
growth.
    Democracy itself is the most powerful tool for the promotion of 
human rights. The former regime of President Taya had a poor human 
rights record. Succeeding governments have attempted to improve respect 
for human rights generally in the country. The recently elected 
government has generally created a more tolerant atmosphere in 
Mauritania. Parliamentary elections in 2006 coupled with the 
Presidential elections in March, have created a situation where 
numerous parties are
becoming involved in the political process. Recognized and unrecognized 
political parties and NGOs are operating freely. Freedom of expression 
has generally been respected. Most political prisoners (primarily 
Islamic radicals) have been released, although prisoners charged with 
suspected terrorist ties remain incarcerated.
    Consolidating Mauritania's new democracy will require both robust 
economic growth and the development and strengthening of mechanisms of 
good governance. If confirmed, I will work with all of the appropriate 
agencies of the U.S. government to bring the necessary human and 
financial resources to bear in support of these objectives. I believe 
that through these actions the United States can contribute to the 
long-term flourishing of democracy in Mauritania while also assuring 
that it remains resistant to extremism and the destabilizing efforts of 
terrorists.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous responses? What challenges will you face in Mauritania in 
advancing human rights and democracy in general?

    Answer. As noted above, the hereditary dependency relationships 
that give rise to the worst abuses of human rights are rooted in 
longstanding tradition reinforced by economic hardship. Convincing 
Mauritanians to break with these traditions will be a significant 
challenge to the new government and those who seek to assist it in this 
historic endeavor. As Americans, we have considerable experience in 
dealing with similar problems. If confirmed I would seek opportunities 
to share that experience in order to help Mauritania chart a course 
toward genuine equality, social and political inclusion, and economic 
opportunity. Advocacy and education alone, however, will not be 
sufficient to end dependency relationships and their attendant abuses 
unless there are viable economic alternatives. For that reason, 
achieving sustainable economic growth is an imperative but difficult 
challenge.
    Drought, desertification, sparse resources, and a generally low 
level of education are complicating factors that must be addressed.

    Question. In your new position, what steps will you take to ensure 
that promotion of human rights objectives will be an integral part of 
the U.S. Embassy's activities? If confirmed, what steps will you take 
to ensure that Foreign Service officers who engage in human rights 
activities are encouraged and professionally rewarded for superior 
service?

    Answer. If confirmed, I would ensure that the entire mission 
understands that democratization and promoting human rights are key 
priorities on our agenda in Mauritania and are essential elements in 
our effort to counter terrorism in the Sahel. I would spearhead a 
robust public diplomacy effort to raise these issues in public forums 
to mirror our similarly themed engagement with the government and civil 
society. I would ensure that these goals are clearly articulated and 
included in the work requirements statements of officers engaged in 
human rights activities. If confirmed, I would use counseling, 
evaluation, and recommendation of awards for outstanding performers to 
promote active engagement on human rights and the promotion of 
democracy.

    Question. What are the most significant actions you have taken in 
your career to promote human rights and democracy? Why were they 
important? What was the impact of your actions?

    Answer. As Deputy Chief of Mission in Cameroon and El Salvador and 
as Consul General in Rio de Janeiro, I had significant responsibilities 
for the promotion of human rights and democracy. I monitored the 
developments relating to human rights and oversaw human rights 
reporting, frequently engaging host governments, political parties, and 
representatives of civil society on these issues.
    In Cameroon, for example, I organized the embassy's comprehensive 
election observation program for legislative and presidential 
elections. These efforts demonstrated the strong U.S. interest in 
democratization and helped to preserve political space for opposition 
parties. When the editor of an opposition newspaper was jailed, I made 
a public visit to the newspaper's office to underscore U.S. concerns. I 
maintained personal relationships with the principal opposition party 
leaders to learn of their concerns and to demonstrate U.S. support for 
political inclusion. I managed our use of democracy funding to foster 
emerging civil society groups such as a young journalists association 
and an NGO advocating for the rights of the handicapped.
    In El Salvador, I coordinated efforts to foster mature and 
productive relations between the party in power and opposition parties 
composed of former rebels. I worked closely with USAID to strengthen 
the professionalism of the legislative branch and to build 
infrastructure for effective outreach to constituents. I oversaw the 
implementation of programs to support workers' rights in the garment 
industry, personally calling on the manager of one factory to 
underscore U.S. concerns about anti-union activities.
    In Rio de Janeiro, I worked closely with public diplomacy 
colleagues to address issues of racial inequality by sharing U.S. 
experience with this challenge through a robust speakers program. The 
U.S. Consulate collaborated with the Library of Congress and a local 
university to highlight the achievements of Afro-Brazilians. Working 
with the Motion Picture Association and local artists, we sponsored an 
African American/Afro Brazilian film festival.
    These activities and others were important for a number of reasons, 
not least among them the goal of ensuring that foreign publics knew 
that the United States stood squarely on the side of freedom, 
democracy, and respect for human rights. Similarly, foreign governments 
and officials knew that our close monitoring of these issues ensured 
that lapses or abuses would not go unnoticed and would affect our 
bilateral relations.
    While my actions were not always as completely transformative as I 
might have hoped, I believe that their impact was nonetheless 
significant and useful. Although elections in Cameroon were seriously 
flawed, our active engagement helped to deter some abuses and helped to 
preserve some political space for opposition parties and candidates. 
Similarly, our very close monitoring of workers' rights in El Salvador 
and our active engagement with employers and the host government 
contributed to concrete improvements in working conditions. Our efforts 
in Brazil contributed significantly to the initiation of a public 
dialog about racial equality and inclusion and subsequent policy 
decisions to promote affirmative action.

    Question. Mauritania is a country with a deep and ongoing history 
of ethnic and social segregation, discrimination, and even slavery. If 
confirmed as ambassador, how would you seek to promote social, 
political, and economic inclusion and the elimination of the caste 
system?

    Answer. In addition to the enforcement of laws criminalizing 
slavery, educational outreach, and economic development are essential 
tools for the effective promotion of social, political, and economic 
inclusion. If confirmed, I would draw on my experience in Brazil of 
sharing America's history of successfully confronting similar issues in 
our own national development. I would seek to set a positive personal 
example by reaching out to all segments of Mauritanian society to 
ensure that all activities of the Mission demonstrate the kind of 
inclusion that we want to promote. I would continue and seek to 
increase our support for girls' education. Above all, I would seek to 
bolster the efforts of the Mauritanian Government to ensure that 
democracy brings meaningful improvement to the lives of all 
Mauritanians.

    Question. What are the key steps that Mauritania must take to 
consolidate its reportedly successful democratic transition? How can 
the United States most effectively support this process?

    Answer. The successful March elections mark the first time since 
independence that a regime has been brought to power by free and fair 
elections. Mauritania is in the midst of what looks to be one of the 
most successful democratic transitions in recent African history.
    Consolidating democracy in a country where four of the last six 
governments were brought to power by military coups will require 
working to ensure that the military understands its proper role in a 
democracy and is subordinate to civilian authority. Political party 
development is important to democratic consolidation as is the 
development of responsive and transparent government. Democracy also 
requires a judicial system that is not only independent but also 
capable, and a press that is both free and responsible.
    The United States can effectively support all of these objectives. 
The emergence of a still small but real terrorist threat in the 
subregion provides the military with a legitimate role in defense of 
the nation. Our military engagement under the Trans Sahara 
Counterterrorism Partnership provides the United States with the means 
to assist Mauritania's military in playing that role while 
simultaneously providing complementary training to promote respect for 
human rights and subordination to civilian leadership. Moreover, the 
growing development component of the partnership will increasingly 
provide the United States with the means not only to assist Mauritania 
in building the institutions that are essential to good governance but 
to promote sustainable economic growth as well.
                                 ______
                                 

      Responses of Dr. Ronald K. McMullen to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. What, in your view, are the most pressing human rights 
issues in Eritrea? What are the steps you expect to take--if 
confirmed--to promote human rights and democracy in Eritrea? What do 
you hope to accomplish through these actions?

    Answer. The Government of Eritrea's human rights record is abysmal 
and getting worse. Fourteen years after independence, national 
elections have yet to be held, and the constitution has never been 
implemented. The government has severely restricted civil liberties, 
and arbitrary arrest, detention, and torture are serious problems. 
Security forces detain and arrest parents and spouses of individuals 
who have evaded national service or fled the country, despite the lack 
of a legal basis for such action. Religious freedoms are restricted, 
and the United States has annually designated Eritrea as a Country of 
Particular Concern since 2004 and has imposed sanctions accordingly.
    If confirmed, I will ensure that human rights remain a fundamental 
focus and an essential element in all of our activities. I will raise 
these issues in frequent discussions with Eritrean authorities, the 
press, opinion makers, and civil society. Public diplomacy efforts 
offer a mechanism to raise the profile of human rights issues and 
stress the importance the United States places on human rights in 
Eritrea. Despite tight government control of all media outlets in 
Eritrea, external media and the Internet still provide mechanisms for 
disseminating our human rights messages within the country. I will also 
seek out opportunities to engage Eritrean Government officials on a 
broad spectrum of human rights issues. If confirmed, I will work 
diligently to persuade key officials that upholding international 
standards of human rights is in the best interest of the country and 
the government.
    If confirmed, I will also seek to build bridges to the islands of 
civil society allowed to function in this single-party state and engage 
the Eritrean public, private, and official spheres on human rights 
issues. Religious leaders, teachers, the business community, and 
farmers' cooperatives play a key role in the lives of many Eritreans. 
If confirmed, I will work to persuade Eritrean officials to adhere to 
their commitments under the Vienna Convention and allow American 
diplomats to travel outside Asmara to visit churches, mosques, schools, 
hospitals, prisons, police stations, military facilities, businesses, 
civic associations, and farm cooperatives to listen and to send the 
message that the United States is committed to working with those who 
seek to promote international standards of human rights in Eritrea.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous responses? What challenges will you face in Eritrea in 
advancing human rights and democracy in general?

    Answer. There are numerous serious obstacles to addressing specific 
human rights concerns in Eritrea. The travel restrictions imposed by 
the Eritrean Government on embassy staff make it very difficult to move 
about the country and meet with people from different regions and 
backgrounds. Eritrean nationals may not leave the country without 
permission from their government, making free participation at 
workshops, seminars, or educational activities difficult. Individuals 
can be pressed into national service for decades on end, with little 
warning or compensation. All land and most productive assets are state 
controlled.
    If confirmed, I face the prospect of being declared ``Persona Non 
Grata'' by Eritrean officials for the vigorous pursuit of human rights 
objectives, as do all American members of Embassy Asmara. The embassy's 
Eritrean employees face even more imposing obstacles, including arrest 
and imprisonment. The arrest of locally engaged staff, such as the two 
Foreign Service nationals detained since 2001, may intimidate and 
discourage some staff members from vigorously pursuing our strong human 
rights agenda and may cause potential contacts to avoid meeting with 
us.
    When Americans are arrested or in trouble in Eritrea, the 
Government of Eritrea rarely informs the embassy and rarely allows 
access to American citizens, particularly if the American citizen has 
some family or historic tie to Eritrea or the region. The lack of press 
and other media freedoms means that local news is state-controlled and 
often anti-American. In short, the Eritrean Government's draconian 
controls on all aspects of society make our efforts to promote human 
rights extremely difficult--and all the more important.

    Question. In your new position, what steps will you take to ensure 
that promotion of human rights objectives will be an integral part of 
the U.S. Embassy's activities? If confirmed, what steps will you take 
to ensure that Foreign Service officers who engage in human rights 
activities are encouraged and professionally rewarded for superior 
service?

    Answer. Upon my arrival in Asmara, if confirmed, my first country 
team meeting will include a request for a detailed briefing on Mission 
activities in support of our human rights objectives and an invitation 
to a brainstorming session on how we, as a team, could better achieve 
these goals. Further, I will ensure that each officer's Work 
Requirements Statement includes the promotion of human rights, as 
appropriate. If confirmed, I will insist that a sizeable portion of our 
discretionary funding is available for public diplomacy, travel, and 
other activities that directly support human rights goals. Likewise, 
these goals will be included in the Mission Strategic Plan and other 
important planning documents. The timely completion of a comprehensive 
Human Rights Report will be one of my top priorities. I believe in the 
old adage, ``an organization becomes what it rewards.'' If confirmed, I 
will ensure that the embassy's awards committee is informed of the high 
value I place on the vigorous promotion of human rights.

    Question. What are the most significant actions you have taken in 
your career to promote human rights and democracy? Why were they 
important? What was the impact of your actions?

    Answer. While serving as Deputy Chief of Mission for 3 years in 
Rangoon, Burma, I was personally involved in numerous activities to 
promote human rights and democracy in that Orwellian society. Working 
with oppressed ethnic minorities, religious leaders, former political 
prisoners, and members of Burma's hard-pressed democracy movement, I 
provided life-sustaining assistance, hope, and a clear signal of 
American commitment to democracy in Burma. I had very close personal 
and professional relations with key leaders of Aung San Suu Kyi's 
National League for Democracy. I met with leaders of the Democracy 1988 
generation and ethnic minority groups struggling for their rights. Many 
of these activities I undertook without the knowledge or consent of the 
junta. Some of those with whom I interacted would be sent to prison 
should the details of these activities be made public. I would be 
willing to provide details in a classified briefing if desired.
    A couple of nonsensitive incidents can be made public without 
repercussion. When the junta decided to build a military-owned condo 
complex on the site of a large cemetery, family members were given just 
48 hours to exhume and move the remains of their loved ones. I went to 
the cemetery to express my outrage, personally paid the exhumation 
expenses for a number of families, and listened to the life stories of 
many of those being exhumed--a large number of whom were from the 
oppressed Karen ethnic minority group. Many of the families expressed 
gratitude for my presence and moral support.
    I also supported Rangoon's Free Muslim Hospital, an impoverished 
facility that provided service to Rangoon's destitute of all religions 
and was the caregiver of first and last resort for many sick former 
political prisoners, including Buddhist monks imprisoned for their 
anti-junta activities. I gave excess medicines and supplies from the 
embassy's medical unit whenever possible. After one Fourth of July 
celebration, I brought two vans full of floral bouquets (donated to the 
Independence Day reception by other embassies and companies) and 
distributed them to patients in the Muslim Free Hospital. Many 
destitute young mothers and elderly patients in the hospice ward seemed 
particularly grateful. This also angered the junta, and their press 
lackeys speculated for days about this strange act of American goodwill 
to the dregs of Burmese society in a Muslim hospital.
    While serving as Charge d'Affaires in Suva, Fiji, I played a role 
in keeping that country from descending into a racial civil war. During 
an armed take-over of parliament that lasted 58 days, an American 
reporter was seized by armed rebels inside Parliament. Using local 
contacts, I obtained the cell phone number of the rebels spokesman and 
persuaded him to release the American journalist within 20 minutes. A 
few days later, after receiving a call for help, I drove an embassy car 
around rebel and military roadblocks, through a ditch, and over a rugby 
field to evacuate two American missionary families who were trapped 
when a bloody firefight broke near their homes.
    Several months later, when the subsequent government agreed to a 
U.N.-monitored election to resolve fundamental issues, powerful chiefs 
of the central highlands threatened to disrupt the elections. I went on 
a week-long trip to call on many of the powerful chiefs to convince 
them that this was against their best interests. I drank gallons of 
kava--a traditional drink made from the ground root of a pepper plant--
as I persuaded the chiefs not to disrupt the elections. The Foreign 
Service Institute now uses this experience in a training segment called 
``Kava Diplomacy.''

    Question. Bilateral relations between the United States and Eritrea 
are currently very poor. U.S. Assistant Secretary of State for African 
Affairs, Jendayi Frazer, has indicated that the United States 
Government is considering designating Eritrea as a ``state sponsor of 
terrorism'' for its alleged support of al-Qaeda-linked Islamist 
militants in Somalia. How do these developments shape your approach to 
preparing for a potential post as Ambassador to Eritrea?

    Answer. As I prepare for a potential posting to Eritrea, I will 
continue to meet with United States officials who can offer insights on 
Eritrea's actions in the region and on the potential impact of 
designating Eritrea a state sponsor of terrorism.
    To date, the United States has not designated Eritrea a state 
sponsor of terrorism, but we are very concerned about its support for 
armed opposition groups, some with reported links to terrorism. We will 
continue to monitor Eritrea's behavior and interaction with suspect 
groups. Eritrea's actions have contributed to instability in the 
region, and it is critical for Eritrea to understand that there are 
consequences to this policy. If confirmed, I will seek to influence the 
Eritrean Government on counterterrorism, democratization, and human 
rights, despite uncertain prospects for immediate Eritrean policy 
change. Along with my team at Embassy Asmara, I will monitor and assess 
developments, provide advice on effective means to engage the Eritrean 
people and leadership, and ensure that the message of strong United 
States opposition to terrorism and its sponsors is understood by all. 
In the event that Eritrea takes overt and explicit action to reverse 
its past practices, I will, if confirmed, seek an appropriate, renewed 
bilateral relationship with robust engagement to advance American 
objectives in the Eritrea and the region.

    Question. Tensions over the Ethiopian-Eritrean border dispute are 
again rising alarmingly. In your opinion, how can the United States 
most effectively assist efforts to prevent such tensions from 
escalating into direct conflict?

    Answer. We, along with the other witnesses to the Algiers Agreement 
(Algeria, African Union, European Union, United Nations, and United 
States) and other interested actors, have been encouraging both parties 
to agree to resume cooperation with the Eritrea-Ethiopia Boundary 
Commission (EEBC). We are disappointed that no progress was made at the 
September 6-7 meeting of the EEBC. We are also urging the parties to 
accept the offer of U.N. Secretary General Ban Kimoon to engage with 
them to help lessen tensions along the border and move toward 
normalized relations.
    We will continue to stress to the parties that the boundary impasse 
is a potential flashpoint that could further destabilize the entire 
region. Close cooperation with other governments and international 
institutions is essential to this effort.
                                 ______
                                 

         Responses of Dr. Louis J. Nigro to Questions Submitted
                    by Senator Joseph R. Biden, Jr.

    Question. What, in your view, are the most pressing human rights 
issues in Chad? What are the steps you expect to take--if confirmed--to 
promote human rights and democracy in Chad? What do you hope to 
accomplish through these actions?

    Answer. Chad's human rights record remains poor. The root cause of 
most of Chad's human rights deficiencies is lack of democratic 
governance with credible elections, alternation in power, and respect 
for the rule of law. If confirmed as ambassador, I would continue to 
urge all Chadians to engage in dialog to address political grievances; 
work with the European Union and the United Nations to encourage the 
Government of Chad to adhere to its electoral reform agreement with 
opposition parties; focus limited mission assistance resources on 
activities that support credible legislative and communal elections in 
2009; and work closely with Chadian human rights groups and lend 
support wherever possible and as resources allow to help build their 
capacity. I would also work with the European Union and United Nations 
to encourage Chad's full support for deployment of a multilateral 
peacekeeping operation to protect Darfur refugees and Chadian displaced 
persons in eastern Chad, and other vulnerable populations in 
northeastern Central African Republic, as soon as possible, which would 
reduce tensions and include measures to professionalize Chadian police 
forces.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Chad in advancing 
human rights and democracy in general?

    Answer. Chad has no history of peaceful and democratic political 
change; every leader since independence has come to power through force 
and none has demonstrated sufficient commitment to enforcing respect 
for human rights or the rule of law. Chad's sharp ethnic and regional 
diversities have not contributed to the development of a tradition of 
peaceful and legal conflict resolution. Chad's human rights record 
remains poor, as our Human Rights Report makes clear. The only durable 
solution to Chad's human rights deficiencies is a democratically 
elected government--executive and legislature--that takes human rights 
and respect for the constitution and the rule of law seriously and that 
denies impunity to official and nonofficial law breakers.
    If confirmed as ambassador, I would work with all Chadian parties 
to increase awareness of human rights, to facilitate a level political 
playing field, and to convince all parties that a democratically 
elected government that rules in the interests of all Chad's people is 
the only hope for increased respect for human rights, social peace, and 
sustainable development in Chad. I would encourage all Chadians to 
engage in dialog to address political grievances and, in particular, I 
would work with the European Union and the United Nations to help the 
Government of Chad to adhere to its electoral reform agreement with 
opposition parties, which could lead to credible legislative and 
communal elections in 2009, the essential first step on the road to 
democratic governance.

    Question. In your new position, what steps will you take to ensure 
that promotion of human rights objectives will be an integral part of 
the U.S. Embassy's activities? If confirmed, what steps will you take 
to ensure that Foreign Service officers who engage in human rights 
activities are encouraged and professionally rewarded for superior 
service?

    Answer. Embassy N'Djamena is a small mission with one officer 
specifically charged with analyzing and reporting on human rights in 
Chad. However, one of the major interests of the Mission under my 
direction would be the promotion of human rights. If confirmed, I will 
nominate for awards those officers who qualify for them and who oversee 
self-help, civil society, and public diplomacy projects that promote 
human rights and democracy.

    Question. What are the most significant actions you have taken in 
your career to promote human rights and democracy? Why were they 
important? What was the impact of your actions?

    Answer. I have served in a number of countries where promotion of 
human rights and democracy was a key element in our policy. In Cuba, as 
Deputy Chief of Mission (DCM), I supervised our human rights and public 
diplomacy programs, which was important because the former offered 
assistance and support to Cuban dissidents struggling against a 
totalitarian regime and the latter sought to deny a monopoly of 
information to that same regime. Our assistance and support helped to 
make the dissidents more effective and to increase scrutiny of the 
regime's repression. We also were able to provide a continuous stream 
of accurate and unbiased information and diverse opinion to the Cuban 
people.
    In Guinea, as DCM, I met regularly with opposition party leaders 
and human rights activists, and I managed our monitoring of 
presidential elections, which was important to demonstrate to the 
Government of Guinea that the United States did not seek regional 
stability at the price of stifled democracy and disregard for human 
rights and the rule of law there. We succeeded in encouraging continued 
participation in the electoral process on the part of the opposition 
and in focusing international attention on the Guinean elections.
    In Haiti, as political counselor, I participated in efforts to 
resolve the political crisis created by the military overthrow of the 
legitimate President, which was important because the military junta 
ruled with impunity and presided over massive human rights abuses. Our 
efforts resulted in eventual multilateral military action to force the 
military junta to step down and led to return of the legitimate 
President to power under the constitution.

    Question. Chad is the site of both internal and external 
displacement crises: hundreds of thousands of refugees from Darfur and 
the Central African Republic have crossed into Chad and large numbers 
of Chadians have been internally displaced or crossed into Darfur. If 
confirmed as ambassador, what role would you seek to play in resolving 
this regional humanitarian, military, and political crisis?

    Answer. If confirmed as ambassador, I would work with the European 
Union and the United Nations to encourage Chad's full support for 
deployment of a multilateral peacekeeping operation to protect Darfur 
refugees and internally displaced Chadians in eastern Chad, and other 
vulnerable populations in northeastern Central African Republic, as 
soon as possible. I would also continue to focus the work of the 
embassy on the provision of humanitarian assistance to at-risk 
populations in Chad. I would also continue to encourage the 
normalization of Chad-Sudan relations and urge Chad to deny support for 
Darfur rebel groups on its territory.
    I would as well continue to advocate full Chadian Government 
support for a Darfur Peace Agreement supported by all the stakeholders 
involved in the Darfur crisis as the only hope for a durable solution 
to the refugee crisis in eastern Chad. Finally, I would continue our 
policy of engaging President Deby and other political players on the 
need for inclusive democracy in Chad.

    Question. As it seeks to develop its oil sector, can Chad avoid the 
``resource curse?'' If confirmed as ambassador, what steps would you 
take to help the government promote sustainable development that will 
benefit the Chadian people?

    Answer. Chad's innovative Oil Revenue Management Agreement with the 
World Bank provides an opportunity for it to avoid the ``resource 
curse,'' by the terms of which it is committed to spending 70 percent 
of its royalties investing in its people and on social and economic 
development. If confirmed as ambassador, I would work with the World 
Bank, the IMF, and other lenders to help Chad to implement fully and 
faithfully this agreement. I would also urge Chad to meet all the 
benchmarks for full participation in the Extractive Industries 
Transparency Initiative (EITI). Additionally, I would work with the 
World Bank and the International Monetary Fund (IMF) to assist the 
Chadian Government to make doing business in Chad easier, faster, and 
safer, in order to attract trade and investment beyond the oil sector.

 
                              NOMINATIONS

                              ----------                              


                      TUESDAY, SEPTEMBER 25, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
Fannin, P. Robert, to be Ambassador to the Dominican Republic
Johnson, David T., to be Assistant Secretary of State for 
        International Narcotics and Law Enforcement Affairs
Simons, Paul E., to be Ambassador to the Republic of Chile
                              ----------                              

    The committee met, pursuant to notice, at 2:40 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Benjamin 
Cardin presiding.
    Present: Senators Cardin, Menendez, Corker, and Vitter.
    Also present: Senator Kyl.

           OPENING STATEMENT OF HON. BENJAMIN CARDIN,
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Today the committee meets to consider the 
nominations of three individuals for key leadership positions 
in the administration. The President has nominated David 
Johnson to be the Assistant Secretary of State for 
International Narcotics and Law Enforcement Affairs, Robert 
Fannin to be Ambassador to the Dominican Republic, and Paul 
Simons to be the Ambassador to the Republic of Chile.
    I want to congratulate all of you on your nominations, I 
want to thank you for your public service, and I want to extend 
a warm welcome, not only to you, but to your families. And I 
know this is a family effort, and the sacrifice made by the 
members of the family, and we welcome all of you to the 
committee.
    It's also nice to have Senator Kyl with us today, our 
colleague and distinguished member from Arizona. He will be 
introducing Mr. Fannin.
    First let me, let me take this time to commend you for your 
dedication to public service, and your willingness to sacrifice 
so much to represent our country in a senior administrative 
position, and the two ambassadorships.
    Mr. Johnson, you have been nominated for a very important 
and difficult assignment--the State Department's Bureau for 
International Narcotics and Law Enforcement must monitor a 
broad range of problems, old and new. Whether it's preventing 
international narcotics trafficking, or trafficking in people, 
international organized crime groups must be deterred from 
crossing international borders to violate human rights and 
international law.
    As the U.S. Ambassador to the OSCE mission, you already 
have had a breadth of experience and contacts, and your 
nomination seems to be a good fit. It's good to see you again, 
and I enjoyed working with you when you were in the OSCE, and I 
held a position in the House on the OSCE Helsinki Commission.
    Mr. Fannin, I'm happy to see that you're joined by my 
colleague, Senator Kyl, as the United States and the Dominican 
Republic maintain a very good economic and political relation. 
The small Caribbean nation contributed 300 troops to the 
Coalition Force in Iraq until May of 2004. This participation 
demonstrates the Dominican Republic's commitment to maintaining 
strong ties with the United States.
    Nevertheless, there are challenges. Venezuela's desire to 
play a stronger role in the region is worrisome. Bolstered by 
the petro-dollars and grant ambition, Venezuela's leadership 
would benefit from a strategic regional relationship with the 
Dominican Republic.
    Illegal immigration and corruption are two issues the 
United States has sought improvements on from the Dominican 
Republic Government. With your background as a highly-respected 
and skilled lawyer, it appears that you are well-suited to have 
a positive impact in the Dominican Republic, and I look forward 
to your testimony.
    Following, Mr. Simons, you have the distinction of being 
nominated to one of Latin America's great economic and 
political success stories. Thirty years ago, few could have 
known Chile would have undergone such a miraculous turnaround. 
Chile has reduced its poverty rate from 39 percent to 14 
percent. Chile has been invited to discuss membership in the 
Organization for Economic Cooperation and Development.
    Chile has graduated to a middle-income country, and does 
not receive economic assistance from the United States. The 
only notable assistance Chile received recently from Washington 
was a small grant to help facilitate Chile's military 
participation in the U.N. stabilization mission, Haiti, an 
assistance to aid in international law enforcement and 
counterterrorism and counternarcotics efforts.
    Also, Mr. Simons, I appreciate you taking the time out of 
your schedule last week to pay a courtesy visit to our staff. I 
thank you and I look forward to your testimony.
    Before I recognize Senator Kyl, let me recognize Senator 
Corker for an opening statement.

                 STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Thank you, Mr. Chairman. It's customary 
here in the Senate that we give opening statements, I rarely do 
that. And I just want to say to Senator Kyl, who I know had to 
wait a few minutes for me to get here, that I'm putting us 
right back on time by not making one.
    I want to thank you for coming today, and thank all of you 
for your public service. I look forward to a great hearing, and 
thank you for putting yourselves forward to represent our 
country in this way.
    Senator Cardin. Senator Menendez.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman. I look forward 
to today's hearing. By someone who has spent 15 years both in 
the House, and now here in the Senate focused on our 
relationships abroad, but particularly as it relates to Latin 
America, I'm looking forward to hearing from our two nominees 
for the Dominican Republic and Chile--two very different 
countries, with a very different set of challenges, and 
important in our hemispheric policy.
    I've had the opportunity to speak with Mr. Fannin 
yesterday, so we had a little sense of what he's thinking 
about, I look forward to speaking with Mr. Simons. And, of 
course, Mr. Johnson, on the whole question of international 
narcotics and law enforcement, that's far beyond this 
hemisphere, but nonetheless a good part of the hemisphere's 
challenges are intertwined with that, and I look forward to 
hearing some of his remarks.
    And I'll save the bulk of my time, Mr. Chairman, for the 
questions.
    Senator Cardin. Senator Kyl, it's a pleasure to have you on 
our committee.

                  STATEMENT OF HON. JON KYL, 
                   U.S. SENATOR FROM ARIZONA

    Senator Kyl. Thank you very much, Mr. Chairman. I do 
appreciate the opportunity to introduce my friend, Bob Fannin, 
to you. And with your indulgence, I'd like to begin by reading 
a very short letter from our colleague, Senator McCain, ask 
that that be inserted in the record, and then I'll make some 
brief concluding remarks.
    Senator Cardin. Without objection.
    Senator Kyl. Thank you.
    Senator Kyl. He says, ``To the committee, thank you for 
holding today's hearing. I would like to express my strong 
support for the swift confirmation of Mr. Robert Fannin as 
United States Ambassador to the Dominican Republic.
    ``I've been privileged to know Bob for over 25 years, and I 
can personally attest that he is a natural leader, a man of 
integrity and a true patriot. I commend the President for 
nominating such an outstanding candidate for this important 
post.
    ``Bob has a long history of service to Arizona and our 
Nation. From his early days as an officer of the United States 
Air Force, to his current position as a respected attorney in 
Phoenix, Bob has distinguished himself as a leader in both 
civic and business communities.
    ``He's served on the boards of local charitable 
organizations, financial institutions, and played an essential 
role in the region's economic development through his 
involvement with the Arizona Chamber of Commerce.
    ``His professionalism, thoughtfulness, and experience will 
make him an effective diplomat and a wonderful representative 
of the United States abroad. I have every confidence that, if 
confirmed, Bob Fannin will contribute immensely to the 
continuation of our warm relations with the Dominican Republic.
    ``I urge the committee's expeditious action in moving this 
nomination to the full Senate, and ask all of my colleagues to 
support his prompt confirmation.''
    Mr. Chairman, my colleague, John McCain--I can not say 
better than his statement, why I believe Bob Fannin would make 
an excellent Ambassador to the Dominican Republic.
    Let me just add two things, however. I've known Bob for 
well over 30 years, and we've worked together in a variety of 
civic and community and even political activities in the 
community. I know of no one--Democrat or Republican--that does 
not respect Bob Fannin.
    He follows a tradition of service. His father served as 
Governor of the State of Arizona from 1958 to 1964, and served 
in this body, as a Member of the United States Senate from 1964 
to 1976. I don't know of anybody that didn't respect his 
father, Paul Fannin, during his service here in the United 
States Senate. Because they are both highly decent, respectful 
of others' positions, and--as Senator McCain said--natural 
leaders.
    So, I am confident that as he serves, representing our 
Nation in the Dominican Republic, our friends there will see 
him the same way that we've seen him in the State of Arizona--
as someone who is enjoyable to be with, who you can trust 
completely, who will always give it to you straight, who will 
work very hard on matters of mutual interest, and who--at the 
end of the day--you know that you were glad you were able to 
work with. He will represent our country very, very well. And I 
know this, as I said, from over 30 years of personal experience 
in working with my friend, Bob Fannin.
    And, a final note, his wife, Lisa, is here. She is a 
prominent surgeon, recently--sort of--retired in Phoenix. But, 
she has served at the Barrow Neurological Institute in 
Phoenix--one of the finest neurological institutions in the 
country. And Bob, among his many activities in serving as 
charities, is emeritus on the board, and was chairman of the 
board of the Barrow Neurological Institute.
    So, his experience in the community goes far beyond policy 
involvement, but to the eleemosynary activities that are so 
important to a community, as well.
    Thank you, and I thank all three of you for being here. 
Having been in your position before, it is very important that 
Senators take the time to learn about our nominees for various 
positions. And I respect the fact that all three of you are 
here today doing this. Thank you.
    Senator Cardin. Well, Senator Kyl, we appreciate you being 
here, and your willingness to help, as far as expediting this 
nomination. Thank you very much.
    Senator Kyl. Thank you.
    Senator Cardin. We will now hear from the nominees, first 
starting with David Johnson.

  STATEMENT OF HON. DAVID T. JOHNSON, NOMINEE TO BE ASSISTANT 
    SECRETARY OF STATE FOR INTERNATIONAL NARCOTICS AND LAW 
                      ENFORCEMENT AFFAIRS

    Mr. Johnson. Thank you, Mr. Chairman.
    Mr. Chairman, it's a privilege to appear before the 
committee today, as the President's nominee as Assistant 
Secretary of State for International Narcotics and Law 
Enforcement. I'm honored by the confidence placed in me by the 
President and the Secretary.
    Mr. Chairman, no one arrives at any good point in their 
life without a great deal of help and encouragement from 
others, and I've been blessed by much more of that than I 
deserve.
    I'm joined today by my mother, Dixie Johnson, without whom, 
literally, none of this would have been possible. And, I'm also 
joined by my wife, Scarlett Swan, with whom I share a wonderful 
life, three children, and a partnership both at home and 
abroad. Without her, none of it would have been worthwhile.
    I also wish to thank my colleagues and mentors in the State 
Department in the Foreign Service, as well as throughout our 
Government. Ours is a collegial profession. No one accomplishes 
anything themselves, and I wish to acknowledge their 
friendship, their patience, and their patriotism.
    Mr. Chairman, the portfolio I've been nominated to 
discharge is unique in our Nation's government, or indeed, in 
any government. What began in the 1970s as an effort to 
confront a prospect that narcotics from outside our borders 
could undermine our own society has grown and it has changed. 
And what once was a very difficult, but narrowly-focused 
effort, has mushroomed for two reasons.
    First, as the instruments of international commerce, 
communication, and transportation have grown, so have the 
opportunities grown to undermine our society, and to 
destabilize friendly, as well as unfriendly, governments.
    Second, we've come fully to recognize that ungoverned and 
ill-governed territories are a threat, not just to their own 
citizens, but to ours as well.
    The State Department's Bureau that, if confirmed, I will 
lead, has unique skills, talents, and resources to address 
these threats; to help contain them, and to give our partners 
abroad the wherewithal to help keep Americans secure by working 
with us.
    Our challenge is to spend our Nation's treasure wisely in 
both senses of that thought--to be prudent and economical in 
the programs we craft, and the efforts we undertake, but also 
to ensure that we stay ahead of the problems of narcotics, 
crime, and ill-governed and ungoverned societies, so as to 
limit the threats which Americans face.
    You and your colleagues have entrusted us with significant 
resources, but also given us significant challenges. The almost 
$4 billion in taxpayer funds for which, if confirmed, I will be 
responsible, is an extraordinary sum. But the challenges these 
monies must address are daunting.
    First, we face a continued threat to American society from 
uncontrolled narcotics, as well as the chemicals to make 
synthetic drugs. While Plan Colombia has shown what our 
resources can do when combined with a partner's political will, 
much remains to be done in Colombia, as well as elsewhere in 
Latin America, where problems continue.
    Second, we are working along with allies and partners, to 
help provide Afghanistan and Iraq with the civilian police that 
can give these war-torn countries the security needed to 
establish the rule of law. And, in the case of Afghanistan, 
also to deal with a troubling narcotics problem that, if 
unaddressed, could undermine every success we've had there.
    Third, we face a threat to ourselves, our allies, and our 
partners from the uncontrolled growth of public corruption, 
organized crime, and elicit trade in people and in goods. These 
threats often bound together with terrorism in the same 
criminal enterprise, may pose the greatest long-term challenge 
to our society.
    In none of these efforts are we working alone. Our partners 
in the law enforcement community, as well as our diplomatic and 
military partners, confront the same issues, and are working 
with us to deal with them. These are long-term threats, 
sometimes easily ignored in the short-term, but very costly if 
left unmet. If confirmed, it will be my task to lead an 
extraordinary group of men and women to confront them, with the 
goal of making our country safer, and its future more secure.
    Mr. Chairman, I've been fortunate in my diplomatic career 
to have been a manager of people and resources quite early. But 
nothing compares in scope to the challenge which, if confirmed, 
you will entrust me in this position. If I am confirmed, I will 
make myself available to this committee, to your colleagues in 
both Houses, and your staffs, soliciting your views and 
support.
    I'm grateful for your patience in hearing this statement, 
and I look forward to your questions. Thank you.
    [The prepared statement of Mr. Johnson follows:]

 Prepared Statement of Hon. David T. Johnson, Nominee to be Assistant 
  Secretary of State for International Narcotics and Law Enforcement 
                                Affairs

    Mr. Chairman, members of the committee, it is a privilege to appear 
before you as the President's nominee as Assistant Secretary of State 
for International Narcotics and Law Enforcement Affairs. The position 
for which I have been nominated is one of significant responsibility, 
and I am honored by the confidence placed in me by President Bush and 
Secretary Rice.
    Mr. Chairman, no one arrives at any good point in their life 
without a great deal of help and encouragement from others, and I have 
been blessed by much more of that than I deserve. I am joined today by 
my mother, Dixie Johnson, without whom, literally, none of this would 
have been possible. And I am also joined by my wife, Scarlett Swan, 
with whom I share a wonderful life, three children, and a partnership 
both at home and abroad. Without her, none of it would have been 
worthwhile. I also wish to thank my colleagues and mentors in the State 
Department and the Foreign Service. Ours is a collegial profession. No 
one accomplishes anything by themselves. And I want to acknowledge 
their friendship, their patience, and their patriotism. It has been my 
privilege to have worked with them in my more than 30 years as a public 
servant.
    The next several years are certain to be a challenging period for 
the Department and for the Bureau I have been nominated to lead. In 
addition to the ever-evolving threats of drug trafficking and 
international organized crime, the Bureau for International Narcotics 
and Law Enforcement Affairs (INL) is playing an increasingly important 
role in stabilizing post-conflict societies, particularly in Iraq and 
Afghanistan, through criminal justice sector development. Continued 
high levels of drug production and trafficking in Latin America and in 
Afghanistan will continue to warrant United States attention and 
support, and INL remains in the forefront of efforts to confront these 
threats. If I am confirmed by the Senate, I will seek to build upon the 
successes of my predecessors while also bringing a fresh perspective to 
these challenges to see where improvements might be made.
    INL's core mission is to combat international narcotics production 
and trafficking, reduce international crime and terrorism, and 
strengthen international criminal justice institutions. To accomplish 
these goals, INL relies on a broad range of bilateral, regional, and 
global assistance programs designed to strengthen the law enforcement 
capacity of foreign governments. INL also works through the U.N. and 
other international organizations to set international standards for 
combating drugs, crime, and terrorism and develop programs and to 
implement these standards.
    To carry out its mission and meet these challenges, INL supports 
programs at 80 posts. The Bureau maintains a domestic staff of 188 
direct hire and an additional 54 Foreign Service officers and 428 
foreign service nationals overseas. INL also employs approximately 
4,600 contract employees supporting domestic and overseas operations, 
including aviation support and international peacekeeping operations. 
In keeping with its increased responsibilities over the past decade, 
INL's budget has grown from $130 million in the mid-1990s to over $2.6 
billion in fiscal year 2007, largely due to pressing demands for 
criminal justice programs in Iraq and Afghanistan and new 
counternarcotics challenges in Afghanistan.
    In addition to bilateral programs, the Bureau also supports four 
regional International Law Enforcement Academies around the world, as 
well as a specialized facility in Roswell, New Mexico, that provides 
advanced training for mid-level and senior foreign law enforcement 
officials. Applying U.S. and international standards, U.S. law 
enforcement agencies such as DEA, the FBI, and the Secret Service, as 
well as state and local law enforcement as needed, provide training 
keyed to address regional issues and problems.
    INL maintains an aviation fleet of 295 rotary and fixed-wing 
aircraft operating in seven countries (Colombia, Bolivia, Peru, 
Ecuador, Mexico, Pakistan, and Afghanistan) that assist foreign 
government counternarcotics, counterterrorism, and border security 
efforts in support of United States' objectives. INL has recently 
implemented numerous changes to improve the management of this fleet in 
terms of standardized policies and procedures, planning, budget 
formulation and transparency, and use of best business practices.
    The Bureau works closely with a broad range of other United States 
Government agencies that have expertise and interests in these areas, 
including the Office of National Drug Control Policy, the Departments 
of Justice, including FBI and DEA; Defense; Homeland Security, 
including the Coast Guard, Customs and Border Protection, Immigration 
and Customs Enforcement and the Secret Service; Treasury, and Commerce; 
and our Nation's intelligence community.
      combating narcotics and terrorism in the western hemisphere
    U.S. counternarcotics assistance in the Western Hemisphere is 
focused on confronting drug production at its source. Targeting 
resources at the initial stages of the drug trafficking chain reduces 
the amount of drugs that enter the system, allowing enforcement and 
treatment efforts to be more effective. Through Plan Colombia, and 
subsequently the Andean Counterdrug Initiative (ACI), we have employed 
a comprehensive regional approach of eradication, interdiction, 
alternative development, extradition, and judicial reform.
    The greatest focus of these efforts has been and remains Colombia--
the source for approximately 90 percent of the cocaine consumed the 
United States. Prior to Plan Colombia, Colombia was under siege by 
major narcoterrorist organizations and some believe it was in danger of 
becoming a failed state. Car bombs, kidnappings, and political murders 
were a daily occurrence as these illegally armed groups openly defied 
the government in many areas of the country, including in some key 
cities. In 2001, rapidly growing coca and opium poppy cultivation in 
Colombia reached an all-time high.
    Since that time, Colombia has achieved remarkable progress. Public 
safety has greatly improved, with kidnappings, massacres, and murders 
down significantly. For the first time ever, the Colombian Government 
has established a functioning security and police presence in each of 
its 1,099 municipalities or country seats. Colombia's economy, which 
was so battered during the 1990s, is now growing at a healthy rate and 
attracting foreign investment. The Colombian people are now more 
optimistic about a lasting peace in their country, and the paramilitary 
AUC, which has been responsible for drug trafficking and human rights 
abuses, has been largely disarmed and demobilized. Clearly the American 
taxpayers' investment in Colombia is paying significant dividends.
    A key component of INL's efforts in Colombia is eradication. In 
2006, manual and aerial eradication programs in Colombia covered over 
200,000 hectares of coca, thereby preventing about 320 metric tons of 
cocaine from reaching the United States, Europe, and other parts of 
Latin America. Coupled with the seizure of 178 metric tons of cocaine, 
our joint efforts have taken about $850 million in 1 year alone out of 
the hands of drug trafficking organizations, including the AUC and the 
FARC. Recent intelligence indicates that the FARC's drug profits may 
have fallen by about 25 percent from 2003 to 2005 because Colombian 
security operations, bolstered by Plan Colombia, have increased their 
costs of doing business.
    Despite this marked progress, major challenges remain. Coca growers 
have embarked on an aggressive replanting campaign to counter 
eradication. The United States and Colombia are looking now at 
strategic, technological, and legal changes to address the resilience 
of coca cultivation. Another goal is having Colombia take greater 
responsibility of the counternarcotics programs. As Colombia has 
doubled the share of GDP devoted to security over the past few years, 
it has also begun to take responsibility for some key programs. 
Training and maintaining sufficient numbers of qualified Colombian 
pilots and mechanics key to successful nationalization--has proved 
difficult for a variety of reasons. Our challenge will be to ensure 
that eventual reductions in United States assistance are gradual and 
closely coordinated with Colombia, so that the overall level of effort 
is maintained as needed.
    Colombia's Government continues to address human rights abuses and 
impunity and has made considerable progress in this area. If confirmed, 
I will continue to make these issues a priority and will work to see 
that those who commit serious abuses or are involved in drug 
trafficking are held accountable, and the rights of victims and their 
families are protected.
    We remain concerned about increased coca cultivation in Bolivia and 
the corresponding increase of cocaine production by criminal 
traffickers. As the President indicated in the annual ``Major's List'' 
determination this month, Bolivia's cooperation in interdiction and 
voluntary eradication are not enough to counter this trend. We will 
continue to urge Bolivian authorities to make the reduction and 
eventual elimination of excess coca crops its highest priority.
    Coca cultivation is also increasing in Peru, where remaining 
members of the former Shining Path terrorist group continues to support 
coca growers and drug traffickers leading to violent resistance to 
counternarcotics efforts. Despite these increases, cultivation in both 
Bolivia and Peru remains below the highpoint of the mid-1990s, when 
these countries were the world's primary producers.
    INL is also working with countries that are heavily impacted by 
cocaine that originates in Colombia, Peru, and Bolivia. By some 
measures, Brazil is the world's second-largest consumer of cocaine. 
Much of this consumption is driven by violent gangs that traffic in 
drugs and weapons, and terrorize cities such as Rio de Janeiro and Sao 
Paulo. INL is beginning to work directly with states and cities in 
Brazil to enable them to combat these gangs more effectively on the 
streets and in prisons.
    Counternarcotics cooperation with Venezuela has declined 
significantly under the regime of President Chavez. Venezuela's role as 
a transit zone for cocaine trafficking, particularly to Europe via West 
Africa, is growing, and Venezuela is, and has been, a conduit for arms 
and other equipment destined for antigovernment groups operating in 
Colombia. Evidence also suggests Mexican drug cartels are exploiting 
Venezuela as a transshipment point for Colombian cocaine. Poor border 
enforcement has permitted some of these groups to operate with impunity 
from inside Venezuela. For these reasons, the President determined that 
Venezuela had ``failed demonstrably'' to adhere to its obligations 
under international and bilateral drug control agreements for the third 
consecutive year.
    Mexico is a major transit and source country for illicit drugs. 
Roughly 90 percent of South American cocaine reaching the United States 
market transits Mexico. Mexico is also a source and transit zone for 
the majority of marijuana, heroin, and methamphetamine consumed in the 
United States.
    Our law enforcement cooperation with Mexico is well integrated, and 
President Calderon has taken unprecedented actions against organized 
crime networks. Since January, the Government of Mexico has deployed 
joint law enforcement/military antidrug operations in 10 key states in 
Mexico, extradited 64 fugitives to date, already ahead of last year's 
record figure of 63, and taken strong measures to root out corruption 
and to reform the federal police. We have initiated a series of expert-
level discussions with the Government of Mexico to follow up on a 
commitment made by President Bush to President Calderon to improve 
bilateral cooperation concerning public security, law enforcement, 
border security, and counternarcotics. This is an historic opportunity 
to confront criminal organizations that work across our border and 
through the region. As a strategy is finalized, we intend to stay in 
close contact with Congress and this committee.
    The nations of Central America are also struggling with drug 
trafficking and associated gang-related crime, corruption, and 
insecurity. In July of this year, the Department announced the Strategy 
To Combat Criminal Gangs from Central America and Mexico. Under this 
comprehensive strategy, the United States will work with partner 
countries to combat transnational and other gangs that commit crimes in 
Central America, Mexico, and the United States. It will help prevent 
youth--beginning with children as young as 9 years old--from entering 
gangs and strengthen enforcement against gang-related violence and 
other crimes.
    In Haiti, INL is supporting U.N. efforts to transform the Haitian 
National Police into an institution capable of ensuring stability, 
public security, and human rights, and working with the entire justice 
sector to promote the rule of law. To combat the corrosive effects of 
drug trafficking through Haiti, the Bureau is providing equipment and 
technical assistance to improve the capacity of Haitian law enforcement 
to conduct drug interdiction operations and to investigate and 
prosecute traffickers and money launderers.
             building stability and democracy in south asia
    Building stability and democracy in South Asia is one of the 
President's highest priorities. The United States has embarked on an 
ambitious and historic mission to ensure that Afghanistan is never 
again a haven for terrorists or a source of regional instability or 
repression against its citizens. Combating the drug trade and standing 
up a professional civilian police force in Afghanistan are critical 
elements of this mission. Although very little Afghan heroin reaches 
the United States, the drug trade has undermined virtually every aspect 
of the Government of Afghanistan's drive to build political stability, 
economic growth, rule of law, and its capacity to address internal 
security problems. Proceeds from narcotrafficking are fueling the 
insurgency and corruption that undercut international reconstruction 
efforts. In order to lock in Afghan progress against these threats, a 
national police force is essential to secure the rule of law.
    The United States has committed itself to a major, multi-year 
counternarcotics effort in which INL plays a leading role. This effort 
centers on a five-pillar program designed to attack the drug trade on 
several fronts and at several levels.
     These pillars include:

          (1) A public information campaign emphasizing the social and 
        health threat posed by the drug trade.
          (2) An alternative development pillar to establish viable, 
        licit economic alternatives to poppy cultivation.
          (3) An eradication pillar that focuses on reducing poppy 
        cultivation by providing both incentives for farmers not to 
        plant and disincentives for those who do.
          (4) An interdiction pillar that aims at destroying labs, 
        seizing precursors and refined drugs, and arresting high value 
        targets.
          (5) Law enforcement and justice sector reform to build an 
        effective police, corrections, and court system capable of 
        delivering justice and rule of law.

    This five-pillar program is in its third year and has struggled in 
an environment of significant insurgency. The results, thus far, have 
been mixed, with some localized success. We have seen declining poppy 
cultivation in the northern half of the country, where central 
government authority is strong, that could make the region virtually 
free of poppy by 2009. This is a major turnaround for an area that has 
been a traditional source of opium poppy.
    At the same time, there has been a tremendous surge in cultivation 
in the southern province of Helmand, where the insurgency is strong and 
government authority weak, and the rest of southern Afghanistan that 
more than offsets the successes in the north.
    If Helmand were a separate country, it would be the world's second 
largest producer of opium poppy, after Afghanistan itself. Contrary to 
the myth that poppy is grown by poor farmers with no other economic 
choices, Helmand is Afghanistan's richest province, and receives more 
United States foreign assistance than any other. Much of the poppy 
farming there is new in the last couple of years and carried out by 
larger growers who are relatively well off. The illegal activities of 
these relatively wealthy individuals must be confronted by Afghan 
authorities and the international community with greater determination, 
including through forced eradication where necessary.
    To better address changing trends in cultivation, the security 
situation, the political climate, and requirements of economic 
development, the United States has made adjustments in strategy which 
will be carried out over the next several weeks and months. These 
refinements to the current strategy include three main elements. First, 
we aim to dramatically and simultaneously increase the scope of both 
the incentive of development assistance and the disincentives of 
stepped up interdiction, eradication, and law enforcement, including 
expansion and improvement of the Good Performers Initiative. Second, 
working with our NATO allies, we intend to improve coordination of 
counternarcotics and counterinsurgency information sharing and 
operations. Finally, we must develop consistent, sustained political 
will for the counternarcotics effort among the Afghan Government, our 
allies, and international civilian and military organizations. This 
will include working with the international community on a coordinated 
strategy to ensure that government officials in Kabul and the provinces 
appoint strong, law abiding officials and remove weak or corrupt ones 
to carry out interdiction and eradication programs.
    In Afghanistan, it is important to differentiate between our long- 
and short-term goals. Based on the experiences of states such as 
Thailand and Laos, we will need staying power to achieve the goal of an 
Afghanistan free from all opium poppy cultivation. This long-term 
effort must be broken down into incremental steps. For the short- to 
medium-term, if we can succeed in reducing the cultivation of poppy to 
a more manageable level that would be less of a threat to the Afghan 
Government, that would be a genuine, if incremental, victory. I believe 
that within the next 2 years, it is possible to move from uncontrolled 
cultivation in Afghanistan to a situation where the drug economy could 
be a more manageable problem.
    To achieve this reduction, we must achieve greater success in 
eradicating poppy crops. This is an essential prerequisite in order to 
achieve effective results with our sustainable livelihood assistance. 
Until Afghan poppy growers are convinced that they face the credible 
threat of forced eradication, they will not embrace legal alternatives. 
Based on surveys that it has conducted, the U.N. estimates that the 
eradication threshold we need to reach in order to successfully 
convince growers to abandon poppy cultivation is 25 percent of the 
overall crop. Currently, we are achieving an eradication rate of 
approximately 10 percent or less. This needs to improve, and in order 
for this to happen, the Afghan Government and our other international 
partners need to demonstrate greater political commitment toward 
pursuing forced eradication.
    Eradication is an essential component of the strategy, but it must 
be accompanied by economic and institutional development to achieve 
sustainable results. The opium trade is deeply embedded in Afghan 
society and dominates a small economy with only limited economic 
options. Institutional development--critical for establishing rule of 
law--is also at a low level following two decades of civil war and 
Taliban rule. This is in contrast to Colombia, where cocaine 
trafficking is of more recent vintage and plays a relatively smaller 
role in its more diversified economy and where justice sector and 
related institutions are more resilient.
    In cooperation with DOD, INL has helped train more than 81,000 
Afghan National Police (ANP) to date. ANP training includes selected 
specialized training initiatives, such as literacy, domestic violence, 
and anticorruption, in addition to the basic training program. In the 
near future, INL intends to focus more heavily on the development of 
advanced capabilities such as criminal investigative skills, records 
management, computer skills, internal affairs, professional 
responsibility, intelligence gathering and analysis, and 
counternarcotics skills.
    I am confident that we can achieve our goals in Afghanistan. We 
know that a comprehensive, long-term approach can and does work, as it 
has elsewhere in Southeast Asia and in Latin America. Afghanistan is 
not more predetermined to becoming a failed state with a narco-economy 
than Colombia was in the late 1990s. Colombia is now a stable democracy 
with a thriving economy and a strong state presence across its 
territory; Afghanistan can achieve similar progress, given sufficient 
political commitment, international support, and time.
    Next door to Afghanistan, Pakistan is playing an increasingly 
important role as a front line state in the war against both terrorism 
and the drug trade. Pakistan is a major transit zone for Afghan opium. 
Its 1,500-mile border with Afghanistan remains open to cross-border 
movement and operations by Afghan insurgents and other armed groups and 
uncontrolled areas along the border serve as sanctuaries for those 
groups.
    To help secure Pakistan's border region, INL is helping open up 
inaccessible areas through road projects and by providing vehicles and 
aviation support to increase mobility, monitoring, and interdiction by 
border and other police. INL programs are also helping to modernize and 
professionalize the Pakistani national police, including the 
development of a national database of terrorists, traffickers, and 
other criminals. In this respect, our counternarcotics program is 
directly assisting counterterrorism efforts in Pakistan.
                            stabilizing iraq
    INL is playing an important role in the stabilization of Iraq 
through assisting in the development and enhancement of Iraq's criminal 
justice sector. Establishing an effective criminal justice system in 
which the Iraqi people have confidence is essential to providing the 
Iraqis a reliable alternative to militias, sectarian groups, and other 
extra-governmental forces to resolve disputes. INL is providing support 
to all aspects of the criminal justice system--police, justice sector, 
and corrections.
    In support of Central Command's Civilian Police Assistance Training 
Team (CPATT) efforts to develop and professionalize the Iraqi police, 
INL is providing close to 1,000 International Police Advisors who, 
under the Coalition Forces' direction, train, assess, and mentor Iraqi 
police personnel, including border police.
    INL is working with United States Government interagency partners 
to develop and strengthen the Iraqi justice sector by training judges, 
investigators, and court personnel, to help the Iraqis secure their 
judges and courts, to improve coordination among police, courts, and 
prisons, and to help the Government of Iraq strengthen legislation 
governing the judiciary and criminal codes. INL's support for an FBI-
led interagency Major Crimes Task Force is helping Iraqis investigate 
and process the most serious, high-profile cases such as the murder of 
the Chief Justice's son and attacks on Coalition and Iraqi security 
forces.
    Since 2004, INL has also implemented a program to professionalize 
the administration of prisons in Iraq and help ensure that prisoners 
are held securely and humanely. Several thousand Iraqi Corrections 
Service personnel have been trained and mentored through this program. 
The Bureau is also funding and managing a large prison construction 
program that will increase Iraq's prison capacity by over 6,500 beds 
over the next 2 years. Stepped up security efforts are straining 
existing Iraqi corrections capacities and our challenge over the coming 
months will be to help the Iraqis manage this growth.
    Iraq's security situation seriously complicates implementation of 
INL programs, but tangible progress is being made. Helping Iraqis 
create a system that is sufficiently effective and fair, and inspires 
trust so citizens turn to it instead of militias and other destructive 
actors, is essential to stabilizing the country and securing our 
national interests. If I am confirmed, this challenge will be among my 
foremost priorities.
                     inl efforts in the middle east
    Following a spate of destabilizing terrorist assassinations in 
2005-2006, Lebanon sought United States assistance to strengthen its 
security forces. The INL program there, which includes training and 
other technical support for Lebanon's Internal Security Force is 
designed to bolster efforts by the democratically elected government to 
establish full sovereignty within its borders.
    INL will soon begin implementation of a program designed to help 
moderates within the Palestinian Authority enforce law and order, and 
stability in the West Bank. Through this program, the United States 
will provide nonlethal equipment, police training, and construction or 
rehabilitation of police training facilities, and will support 
institutional strengthening of the Ministry of Interior, which oversees 
security forces. As with other INL programs, this program will include 
a significant and meaningful vetting process to screen participants and 
exclude any with possible terrorist ties or human rights violations.
                    the threat from synthetic drugs
    The Department shares the strong concern of Congress about the 
growing threat of synthetic drugs, particularly of methamphetamine. 
These drugs offer enormous potential profits to drug trafficking 
organizations, and unlike coca or opium poppy, their production is not 
easily contained to specific areas. Recent history shows us that when 
faced with law enforcement or regulatory pressure in one country, 
producers and traffickers can quickly adapt to new to find new 
precursor chemical supplies, new production sites, and new smuggling 
routes. Methamphetamine, in particular, is distinct from other illicit 
drugs because its production requires no specialized skill or training, 
and instructions on how to produce it are easily available on the 
Internet. This is a true global challenge, and INL is committed to 
working aggressively in both bilateral and multilateral settings to 
enhance international chemical control regimes to prevent the illegal 
diversion of chemicals needed to produce methamphetamine.
    Most of the methamphetamine consumed in the United States today is 
controlled by Mexican drug trafficking organizations producing the drug 
in ``superlabs.'' Smaller amounts are produced here in ``small toxic 
labs,'' but these have been declining in recent years due in large part 
to U.S. efforts to control the sale of those pharmaceuticals and 
chemicals that can be used to produce methamphetamine.
    Because Mexico is the principal foreign supplier of methamphetamine 
to the United States, INL is working with Mexico to strengthen border 
security and enhance counterdrug operations, including providing 
specialized mobile equipment and establishing a Chemical Response Team 
to detect and raid drug labs and lead investigations into chemical 
diversion. With a growing methamphetamine abuse problem of its own, 
Mexico has taken this problem very seriously and has recently announced 
that it will take the unprecedented step of banning all methamphetamine 
precursors, pseudoephedrine, and ephedrine, beginning in January 2008. 
This is an unprecedented step, and shows Mexico's commitment to address 
this issue.
    INL has been working closely with multilateral organizations, 
including the U.N. and OAS, to make international chemical controls a 
priority. In 2006, the U.N. Commission on Narcotic Drugs adopted a 
U.S.-sponsored resolution requesting that states provide the 
International Narcotics Control Board (INCB) with estimates of their 
domestic, legitimate requirements for chemicals precursors that can 
also be used for the manufacture of synthetic drugs. Over 100 countries 
did so in 2006, establishing a new baseline that allows exporting and 
importing countries to quickly check whether the chemicals and 
quantities proposed in commercial transactions would indicate possible 
diversion. These checks enable authorities to determine whether further 
law enforcement scrutiny is warranted. To help the INCB carry out this 
reporting responsibility, INL has doubled its annual financial 
contribution to the organization since 2006.
    In March 2007, the Department issued its first report under the 
2006 Combat Methamphetamine Epidemic Act (CMEA) identifying the major 
importers and exporters of ephedrine and pseudoephedrine coupled with a 
Presidential determination backed by sanctions on whether such 
countries are fully cooperating with the United States on 
counternarcotics. The CMEA has helped focus international attention on 
this issue, and is a valuable tool in confronting this challenge.
                     managing inl responsibilities
    INL's global responsibilities have grown substantially over the 
last several years. The Bureau's overall budget has grown from 
approximately $130 million in the mid-1990s to over $2.6 billion in 
fiscal year 2007, including supplemental funding. INL is also 
responsible for managing programs funded by the Department of Defense 
for police training in Iraq and Afghanistan. This dramatic expansion 
has presented INL with certain challenges in ensuring that our 
management and oversight controls are equal to the scope of our program 
work. INL has already devoted considerable effort to right-sizing and 
reorganizing our staffing to better reflect the priorities of the 
Bureau's expanding mission. In this effort, our work has been guided by 
inspections by the OIG, GAO, and the Special Inspector General for Iraq 
Reconstruction. INL has benefited from this input as well as from the 
concerns and recommendations expressed by Members of Congress and their 
staffs. I believe that the Bureau is well on its way to meeting the 
expectations of both Congress and the public. If confirmed, I fully 
intend to continue this reform process and ensure that we have the 
personnel and oversight mechanisms in place to fulfill our mission.
    The greatest challenge facing INL have been the enormous growth of 
its programs in Afghanistan and Iraq. Last year, INL increased staffing 
for program, contract and asset management in both countries. 
Concurrently, INL also established a United States-based contract 
management support group that provides additional contract oversight 
and technical support. This dual effort has resulted in contract 
savings, cost avoidance and recapturing contract expenditures. More 
recently, the Bureau also established a separate Iraq office to focus 
specifically on civilian police operations and rule of law programs for 
that priority country. With the support of the Department, INL has been 
steadily increasing its full-time staffing to meet the requirements of 
these programs, and this is a process that, if confirmed, I will take a 
very direct interest in continuing. We need to find the best people 
available to manage these high-priority initiatives, and we need to 
place them where they are most needed--both overseas and here in 
Washington.
    INL has also improved its financial and asset management by 
establishing and implementing an improved financial reporting tool; 
conducting its own program reviews, audits, investigations, and 
verifications; improving field support and training; and placing 
greater focus on outputs and metrics to better align the Bureau's 
financial resources with its program performance. As a result, INL is 
implementing and standardizing improvements for ensuring strong 
management controls.
    Finally, as noted by GAO, INL revamped the Bureau's aviation 
management by centralizing all aviation planning, reporting, and 
administrative responsibilities, leading to a more transparent resource 
decision making process.
    These are the kind of efforts that, if confirmed, I will continue 
and build on to ensure that the extensive resources under the Bureau's 
responsibility are managed appropriately.
                               conclusion
    Again, I would like to thank you for the opportunity to appear 
before the committee today. If confirmed, I look forward to working 
with Congress to address these diverse challenges that directly impact 
us here at home. Please be assured that I will strive to keep you fully 
informed of our progress and our setbacks, and I certainly welcome your 
thoughts and advice. I look forward to answering any questions you may 
have.

    Senator Cardin. Thank you, Mr. Johnson.
    Mr. Fannin. Yes, please, and also if you would introduce 
your family, we would appreciate that.

         STATEMENT OF P. ROBERT FANNIN, NOMINEE TO BE 
              AMBASSADOR TO THE DOMINICAN REPUBLIC

    Mr. Fannin. Mr. Chairman, thank you.
    Mr. Chairman, I would like to thank Senator Kyl for his 
introduction, and I'd also like to introduce my wife, Dr. Lisa 
Fannin, and my son Paul, and his wife, Sharon, who have been 
very supportive during this process.
    Mr. Chairman, and members of the committee, I'm honored to 
be the President's nominee to be the next United States 
Ambassador to the Dominican Republic. I would like to express 
my gratitude to President Bush and Secretary Rice for the 
confidence they have shown in me.
    Mr. Chairman, I see this nomination as a unique opportunity 
to serve my country. I come from a family which deeply values 
and respects the call to public service. My father's service as 
Governor of Arizona and United States Senator inspired all of 
his children. I have sought to follow his example with my own 
dedication to public service.
    The Dominican Republic and United States have a special 
relationship with economic, cultural, and social ties that are 
strong and growing. Indeed, only last week, President Fernandez 
had a very cordial meeting with Deputy Secretary John 
Negroponte at the State Department.
    Dominican-Americans in the United States are a growing, 
thriving community. The ties of music, baseball, art, and 
literature bring our two countries closer every year. We face 
the challenges of the world together, a fact never more clear 
than when some 41 persons of Dominican descent lost their lives 
on September 11, 2001.
    Many persons of Dominican descent proudly serve in our 
Armed Forces. Approximately 100,000 Americans live in the 
Dominican Republic. Over a million Americans visited the 
Dominican Republic in 2006. If confirmed, one of my chief 
priorities will be the well-being and security of both official 
and nonofficial Americans in the Dominican Republic.
    I hope to utilize the leadership skills I have learned as a 
military officer, as chairman of many nonprofit organizations, 
as a leader promoting intelligent economic development, and as 
a managing partner of a law firm. I would use these leadership 
skills to bring together the many agencies of the U.S. Embassy 
into one cohesive country team.
    My experience as a lawyer would provide me with the 
background to assist in the implementation of many reforms in 
progress in the Dominican Republic. These include programs 
promoting a more transparent, accountable, and effective 
judicial system. My experience in the law and military would 
help me work effectively with the United States and Dominican 
military, intelligence, and law enforcement agencies in the 
areas of anticorruption, counterterrorism, counternarcotics, 
countertrafficking in persons, extradition, illegal migration, 
legal migration, and others.
    Mr. Chairman, I recognize that as the United States 
Ambassador to the Dominican Republic, I would have the duty to 
promote and protect America's values and interests. America has 
a paramount interest in promoting social justice in this 
hemisphere. If confirmed, I will work to advance the cause of 
social justice in the Dominican Republic. This would include 
the continuation of our Government's cooperation with the 
Dominican Republic in the areas of education, healthcare, 
housing, economic freedom, human rights, good governance, and 
democracy. As Senator Kyl mentioned, I'm particularly 
interested in the health sector because my wife is a physician 
and a board member of a health-related nonprofit, and a 
philanthropic foundation.
    I hope to use my experience in the banking industry--
including serving as an officer and as a director of two major 
financial institutions--to assist with the implementation of 
the Central American Free Trade Agreement in the Dominican 
Republic, CAFTA-DR. My experience as an officer and a board 
member of Chambers of Commerce would also be very helpful in 
the areas of trade and economic development.
    I would also work to assist United States businesses in the 
Dominican Republic, in particular, by encouraging Dominican 
efforts--through CAFTA-DR framework--to create and enforce laws 
and regulations that are pro-business, and pro-investment. I 
would work to resolve existing commercial and investment 
disputes involving U.S. interests. I would encourage stronger 
Dominican support for intellectual property rights, 
particularly in light of Dominican efforts to attract high-tech 
investment.
    At the same time, I recognize that growth in the economy 
and trade would mean little, if not accompanied by improvement 
in the lives of all of the people. Economic liberty must not 
mean that business rules at the expense of the poor, the 
middle-class, and of the environment. If confirmed, I would 
work to maximize the benefits of our development assistance, 
targeting labor rights and the environment.
    I appreciate this opportunity to appear before you, Senator 
Cardin and this esteemed committee. If confirmed, I hope to 
work with you and your colleagues on the committee and in the 
Congress, on a full range of issues. I am looking forward to 
your questions. Thank you very much.
    [The prepared statement of Mr. Fannin follows:]

         Prepared Statement of P. Robert Fannin, Nominee to be 
                  Ambassador to the Dominican Republic

    Mr. Chairman and members of the committee, I am honored to be the 
President's nominee for the next United States Ambassador to the 
Dominican Republic. I would like to express my gratitude to President 
Bush and Secretary Rice for the confidence they have shown in me.
    I would like to thank Senator Kyl for introducing me. I would also 
like to introduce my wife, Dr. Lisa Fannin, my son, Paul, and his wife, 
Sharon, who have been very supportive during this entire process.
    Mr. Chairman, I see this nomination as a unique opportunity to 
serve my country. I come from a family which deeply values and respects 
the call to public service. My father's service as Governor of Arizona 
and U.S Senator inspired all of his children. I have sought to follow 
his example with my own dedication to public service.
    The Dominican Republic and the United States have a special 
relationship with economic, cultural, and social ties that are strong 
and growing. Indeed, only last week, President Fernandez had a very 
cordial meeting with Deputy Secretary John Negroponte at the Department 
of State. Dominican Americans in the United States are a growing, 
thriving community. The ties of music, baseball, art, and literature 
bring our two countries closer every year. We face the challenges of 
the world together, a fact never more clear than when some 41 persons 
of Dominican descent lost their lives on September 11, 2001. Many 
persons of Dominican descent proudly serve in our Armed Forces. 
Approximately 100,000 Americans live in the Dominican Republic. Over a 
million Americans visited the Dominican Republic in 2006. If confirmed, 
one of my chief priorities will be the well-being and security of both 
official and nonofficial Americans in the Dominican Republic.
    I hope to utilize the leadership skills I have learned as a 
military officer, as a chairman of many nonprofit organizations, as a 
leader promoting intelligent economic development, and as a managing 
partner of a law firm. I would use these leadership skills to bring 
together the many agencies of a U.S. Embassy into one cohesive country 
team. My experience as a lawyer would provide me with the background to 
assist in the implementation of many reforms in progress in the 
Dominican Republic. These include programs promoting a more 
transparent, accountable, and effective judicial system. My experience 
in the law and military would help me work effectively with United 
States and Dominican military, intelligence, and law enforcement 
agencies in the areas of anticorruption, counterterrorism, 
counternarcotics, countertrafficking in persons, extradition, illegal 
migration, legal migration and others.
    Mr. Chairman, I recognize that as the United States Ambassador to 
the Dominican Republic, I would have the duty to promote and protect 
America's values and interests.
    America has a paramount interest in promoting social justice in 
this hemisphere. If confirmed, I will work to advance the cause of 
social justice in the Dominican Republic. This would include the 
continuation of our Government's cooperation with the Dominican 
Republic in the areas of education, health care, housing, economic 
freedom, human rights, good governance, and democracy. I am 
particularly interested in the health sector because my wife is a 
physician and board member of a health related nonprofit corporation 
and a philanthropic foundation.
    I hope to use my experience in the banking industry, including 
serving as an officer and as a director of two major financial 
institutions, to assist with the implementation of the Central America 
Free Trade Agreement in the Dominican Republic, CAFTA-DR. My experience 
as an officer and board member of chambers of commerce would also be 
helpful in the areas of trade and economic development.
    I would also work to assist United States businesses in the 
Dominican Republic, in particular by encouraging Dominican efforts 
through the CAFTA-DR framework to create and enforce laws and 
regulations that are pro-business and pro-investment. I would work to 
resolve existing commercial and investment disputes involving United 
States' interests. I would encourage stronger Dominican support for 
intellectual property rights, particularly in light of Dominican 
efforts to attract hi-tech investment.
    At the same time, I recognize that growth in the economy and trade 
would mean little if not accompanied by improvement in the lives of all 
the people. Economic liberty must not mean that business rules at the 
expense of the poor, of the middle class, and of the environment. If 
confirmed, I would work to maximize the benefits of our development 
assistance targeting labor rights and the environment.
    I appreciate this opportunity to appear before Senator Cardin and 
this esteemed committee. I hope to work with you and your colleagues on 
the committee and in the Congress on a full range of issues. I also 
look forward to answering any questions you may have.
    Thank you.

    Senator Cardin. Thank you, Mr. Fannin.
    We'll now hear from Mr. Simons.

          STATEMENT OF PAUL E. SIMONS, NOMINEE TO BE 
              AMBASSADOR TO THE REPUBLIC OF CHILE

    Mr. Simons. Thank you very much. Mr. Chairman, members of 
the committee, it is an honor to appear, once again, before 
this committee on this occasion, as the President's nominee to 
be our next Ambassador to Chile.
    I'd like to introduce my wife, Victoria, who is with us 
today. We are very much a multicultural family, with very 
strong Latin roots. Victoria is originally from Colombia, while 
our daughters, Andrea and Camila, were born in Ecuador. All 
three have been my most stalwart supporters, interrupting 
careers and studies to serve our country. All of us look 
forward to representing United States interests in Chile, if I 
am confirmed.
    Mr. Chairman, this is an exciting moment to be considered 
for a leadership role in United States-Chile relations. As you, 
yourself, pointed out in your opening statement, Chile is a 
notable success story in the hemisphere, and our bilateral 
relationship is particularly strong across three principal 
areas.
    Politically, Chile is a thriving democracy with resilient 
institutions, and a proven record of support for democratic 
principles. Economically, Chile's record of trade-driven growth 
is generating concrete benefits for its own citizens--as you 
pointed out, Mr. Chairman, the decline in the poverty rate--as 
well as opportunities for United States companies, under our 
bilateral free trade agreement. And, our security relationship, 
finally, is very solid, with bilateral military cooperation 
among the very best in the hemisphere.
    Mr. Chairman, we are fortunate to have a valued partner in 
Chile to work with, to promote our shared vision of democracy 
and free markets in this hemisphere.
    I'd like to lay out three priority areas which, if 
confirmed, I would propose as major themes to pursue.
    First, providing strong leadership to the United States' 
community in Chile, from residents and tourists, to American 
businesses. My experience in Israel reinforced the importance 
of uniting the American community, while much of my 30-year 
professional career has been spent advancing United States 
business interests around the globe.
    Second, broadening and deepening our bilateral partnership. 
Building on our very successful bilateral free trade agreement, 
and our new education initiative, I would look for ways to 
deepen our links with Chile across the range of issues--from 
energy to environmental cooperation, from innovation, to law 
enforcement.
    Third, working with Chile on broader hemispheric and global 
challenges where we share common interests. Drawing on my 
background in multilateral diplomacy, I would hope to find ways 
to work with our partners in Chile to share their successful 
experiences with economic and political freedom with a broader 
regional and global audience.
    Mr. Chairman, let me conclude by thanking President Bush 
and Secretary Rice for their vote of confidence in proposing my 
candidacy for this position. If confirmed, I pledge to work 
closely with you, the members of this committee, and other 
members of Congress to deepen the very strong partnership the 
United States enjoys with Chile.
    Thank you.
    [The prepared statement of Mr. Simons follows:]

          Prepared Statement of Paul E. Simons, Nominee to be 
                  Ambassador to the Republic of Chile

    Mr. Chairman, members of the committee, it is an honor to appear 
once again before this committee, on this occasion as President Bush's 
nominee to serve as our next Ambassador to Chile.
    Let me introduce my wife, Victoria, who is with us today. We are a 
multicultural family with strong Latin roots--Victoria is originally 
from Colombia, while our daughters, Andrea and Camila, were born in 
Ecuador. All three have been my most stalwart supporters, interrupting 
careers and studies to serve our country. All of us look forward to 
representing United States interests in Chile if I am confirmed.
    Mr. Chairman, this is an exciting moment to be considered for a 
leadership role in United States-Chile relations. Our bilateral 
relationship is particularly strong across three principal areas:

  <bullet> Politically, Chile is a thriving democracy, with resilient 
        political institutions and a proven record of support for 
        democratic principles in the Organization of American States 
        and other multilateral fora.
  <bullet> Economically, Chile's record of trade-driven growth is 
        generating concrete benefits for its citizens and opportunities 
        for United States companies. Poverty has been cut by more than 
        two-thirds in the last 15 years, while two-way trade with the 
        United States has increased by over 150 percent in the 3 years 
        that our bilateral Free Trade Agreement has been in effect. 
        Continuing these successful economic policies will help Chile 
        meet the remaining economic and social challenges it is 
        currently looking to address.
  <bullet> Our security relationship is very solid, with bilateral 
        military cooperation among the best in the hemisphere. Chile 
        supports a number of important security initiatives, from the 
        Proliferation Security Initiative to peacekeeping in Haiti.

    Mr. Chairman, we are fortunate to have a valued partner in Chile to 
work with us to promote our shared vision of democracy and free markets 
in this hemisphere. I would like to lay out three priority areas which, 
if confirmed, I would propose as major themes to pursue:
    First, providing strong leadership to the United States' community 
in Chile. During my tenure in Israel, the American community bonded 
closely to sustain morale during a challenging period. If confirmed, I 
intend to provide equally active leadership to the resident American 
community in Chile and quality consular support to United States 
residents and visitors there.
    That leadership would extend as well to strengthening bilateral 
business ties--a natural fit for me, as much of my 25-year Foreign 
Service career has been spent advancing U.S. business interests around 
the globe. I am a firm believer in working with the U.S. private sector 
to introduce American corporate values and innovation to our partners 
around the world.
    Second, broadening and deepening our bilateral partnership. 
Building on our successful bilateral free trade agreement, I would look 
for ways to deepen our links across the range of issues, from energy to 
environmental cooperation, innovation, and law enforcement. Chile and 
the United States have already launched an innovative educational 
exchange program that could well be a model for cooperation in other 
sectors. Drawing on my policy experience, I would hope to develop 
creative tools to deepen our cooperation, working with our Chilean 
partners, United States agencies, and our respective private sectors.
    Third, working with Chile on broader hemispheric and global 
challenges where we share common interests. Chile is an active member 
of the Asia Pacific Economic Cooperation forum and is a candidate 
country for entry into the Organization for Economic Cooperation and 
Development. Drawing on my own multilateral background, I would hope to 
find ways to draw Chile into sharing its successful experiences with 
economic and political freedom to a broader global audience.
    Mr. Chairman, let me conclude by thanking President Bush and 
Secretary Rice for their vote of confidence in proposing my candidacy 
for this position. If confirmed, I pledge to continue to work closely 
with you, the members of this committee, and other Members of Congress 
to deepen the very strong partnership the United States enjoys with 
Chile.

    Senator Cardin. Once again, let me thank all three of you 
for your willingness to come forward, and for your testimony 
today.
    Mr. Johnson, if I might start with you. We had a chance to 
work together when you were at OSCE, and I appreciated the 
relationship that we had. I thought it was always one of trust 
and mutual respect, and I thank you for that service.
    I want to talk to you about two countries that you 
mentioned in regard to our war on drugs--one being Colombia, 
and the other being Afghanistan. You mentioned both in your 
statement. In Colombia, we've spent $5 billion alone--90 
percent of the cocaine coming into the United States is 
estimated to come in from Colombia. And, our objective of Plan 
Colombia was to reduce coca cultivations by 50 percent, and we 
have not reached those goals.
    So, I guess my question to you is, how do you intend to try 
to refocus our efforts, to have a successful program in 
Colombia to stop the cocaine coming into the United States--
reduce it?
    Mr. Johnson. Thank you, Mr. Chairman. You're quite 
correct--the American taxpayers invested significant sums in 
Colombia, and the Colombians themselves in the plan that we 
developed, have invested even more.
    While the goal that we set for ourselves has clearly not 
been met, I think that we also should recognize just how far 
Colombia has come during this period of time. It's a different 
place than it was when President Clinton proposed Plan Colombia 
back in the late 1990s, and it's in significant measure because 
of the monies that have been put forward by our taxpayers and 
the programs that have been undertaken by my predecessors.
    I think it's--where we are focused now as we look forward, 
is to try to work with the Government of Colombia to make this 
more of a national program--to have them take over, take it 
over piece by piece, and in a manner where it can be sustained 
by them, and be taken on as their own program, if you will. 
But, I think that we're going to have to have a pretty long 
time horizon for that, it's not something that we can do, 
effectively, over the course of a very short time.
    We're working with the Colombians on this, we have a very 
seasoned and senior diplomat whose project is to come to terms 
with this issue, and to make a recommendation about how we can 
recast things. But, I think we also shouldn't forget, while we 
haven't had as much of a success in terms of the elimination of 
the cocaine trade from Colombia as we would have liked to, it's 
been significantly cut over what it otherwise would have been.
    Where we would have, I think we can do things forward is 
that the traffickers themselves have adapted. They've changed 
the way they've done business, they've changed where they've 
tried to grow, and so I think, working with the Colombians, 
we're going to have to have a--if I could borrow a phrase from 
Toyota--a kind of a continuous product improvement, so that we 
can adapt as well, and do better than we have in the past.
    Senator Cardin. Well, was the plan objective right to 
reduce cultivation by 50 percent? Is that doable?
    Mr. Johnson. I think, I would hesitate to issue a quantity. 
I think that we can do better than we have in the past, I think 
we can work more effectively with the Colombians--taking 
nothing from all of the hard work that's been done before--but 
I think we can learn from what we've done by adapting further. 
But I think that we also have to be modest in what we can, in 
fact, achieve. This is a very difficult problem. And a very--in 
a place that's hard to work.
    Senator Cardin. You're suggesting that we have to be 
flexible to modify the plan strategies as those who are 
participating in drug trafficking are adjusting toward our 
strategies to try to counter them? Is that what you're 
basically--?
    Mr. Johnson. I think we can make some adjustments. I think 
that we can be even more effective than we have been in the 
past. I'm not sure that the measure of 50 percent is--was 
necessarily the correct one to aim at. But, what we would like 
to do is be more effective in curtailing the amount that's 
grown, and more effective in the interdiction effort.
    And really, what this plan is all about, is not just 
interdicting drugs, or stopping them from being grown, an 
eradication program, it's about extending the writ of the 
Colombian Government further into its own country, and where 
people are more secure, where we can help provide the security 
that is needed, the alternative development programs that we 
have, and can take hold. And I think that's the kind of 
traction that we need, as we look into the future.
    Senator Cardin. Let me quickly turn to Afghanistan. We had 
a hearing in this committee on Afghanistan, and the poppy crop, 
and the failures of our policy, to date, to eliminate the poppy 
trade coming in from Afghanistan. At that time, there were many 
issues that were raised in our committee, including economic 
opportunity for the people of Afghanistan. I'm wondering how 
high of a priority Afghanistan will have. Obviously, this is a 
country that has incredible importance to the United States 
efforts. And the poppy crop is obviously one of the areas that 
are preventing us from achieving our objectives in that 
country. You'll have a key role, I hope, to play in a strategy 
to deal with that problem. Could you elaborate a little bit 
more as to how you intend to make this a priority?
    Mr. Johnson. Mr. Chairman, as you mentioned, we have just 
come forward over the course of the last several months, where 
an invigorated program in Afghanistan, one that has multiple 
prongs, if you will, public information, alternative 
development, which is the key I believe, that you were 
referring to there, in terms of providing a livelihood for 
people who might otherwise be in the drug trade.
    But it also has to have a law enforcement element, which we 
are developing, as well. As well as elimination and 
eradication. The U.N. estimates that in order to really deter 
individuals from wanting to grow poppy, we're going to have to 
make them believe that about a quarter of their crop is at 
risk, and we have not reached that level yet.
    But I think what we've found in Afghanistan is that 
security is the key here. In the provinces in Afghanistan, 
which are relatively secure, a significant number of them are 
poppy-free. Where violence is more prevalent--particularly in 
the South--that's the area which has had the burgeoning poppy 
growth over the course of the last couple of years. So, I think 
it's going to require a combined effort on the counternarcotics 
side, as well as the security side. I think one of the things 
we've learned over time in Afghanistan, in particular, is that 
if you can't create security on the ground, none of these 
programs can really be successful.
    And so we have to work in close partnership with our 
military, as well as the NATO operation, there on the ground. I 
think this is going to--can be a successful program, but it's 
going to require a great deal of patience, and a lot of work in 
a broad array, not just focused exclusively on eradication, but 
having that element as part of it.
    Senator Cardin. Thank you.
    Senator Corker.
    Senator Corker. I appreciate our Chairman asking the 
questions he did about Afghanistan and Colombia, and obviously 
those are the two areas where there's been--how that drug trade 
going unhampered, if you will, but continuing to flourish, as 
it is today. How that affects us as a country, overall, and 
affects those two countries themselves, as they continue to 
evolve?
    Mr. Johnson. Senator, I think I speak with a little more 
confidence about Afghanistan, because it's an area that I've 
worked on before. And I think that it represented a different 
kind of threat to us than Colombia does. The threat of the 
narcotics trade in Afghanistan is really a threat to the 
stability that we are trying to promote there. The narcotics 
themselves are largely destined for other parts of the world--
the heroine on the streets that is sold in the United States, 
largely, does not come from Afghanistan. That's a threat to its 
neighbors, to the Russian Federation, as well as to Europe, 
more than it is us in terms of a direct narcotics threat.
    But if we're unsuccessful, if we do not address narcotics 
in Afghanistan, the efforts that we have undertaken there to 
create a stable environment for a government to grow won't take 
hold. The money that sloshes around, the opportunities for 
corruption, the money that flows in the direction of the 
insurgency, will just be too much to overcome without 
addressing this problem, as well.
    So, I think when we're talking about Afghanistan, we're 
talking largely from our selfish point of view about a 
stability issue that we have to address.
    In terms of Colombia, there is an element of stability 
threat there, because I think that the level of violence, the 
threat to the government itself in Colombia that has been in 
significant measure addressed over the course of the last 7 
years, genuinely threatened that government, genuinely 
threatened to make Colombia a place where people could not live 
in safety.
    But it is also a direct threat to the health of Americans, 
with cocaine, with coca flowing out of that country, across the 
Caribbean, or up into Mexico, and into the United States. So, 
it is both a crime and a social and health threat, to the 
United States, as well as one potentially of stability. But, I 
think that when we are looking at Colombia today, we have to 
recognize that the progress that we've made over the last 
several years, has put it in a much different category. You 
cannot even, you know, think about Afghanistan and Colombia in 
the same pocket, in terms of the stability of the State and the 
institutions there.
    Afghanistan--one of the first countries on the planet--the 
literacy rate, maybe 20, 25 percent, 30 years of war, and 
Colombia, a significant threat from the narcotics area from a 
group of insurgents on the left and the right, but not in the 
same category, I believe, as Afghanistan.
    Thank you.
    Senator Corker. Thank you.
    Mr. Fannin, I enjoyed hearing about your background. And, 
it's obviously very diverse and seems most applicable to the 
changes that are taking place in the Dominican Republic with 
CAFTA. And I wondered if you might address how you see the 
Dominican Republic adapting to these changes, some of the 
things that you think you'll be focused on when you first hit 
the ground there?
    Mr. Fannin. Thank you, Senator. I appreciate the question, 
because I think one of the things that I can help with is the 
implementation of CAFTA. The--most importantly, I think the 
laws and the regulations that are required by CAFTA to improve 
the economic system in the Dominican Republic are very 
important, and still there needs to be a lot of work done to 
enact those laws and regulations. And it would be my--if 
confirmed--it would be my job and I hope to have that 
opportunity to ensure that those laws are passed, the 
regulations are passed, and that the United States companies 
have the opportunity to take the full benefit of those laws, 
and that Dominican companies share in those same benefits in 
terms of transparency, accountability, and the like that is 
necessary to have a better economy.
    As I was mentioning to Senator Menendez yesterday, many 
investors in the Dominican Republic have complained that there 
are laws or rules that are unclear, and lacking in enforcement. 
And it would be my job, as a lawyer, I think, to help with that 
situation and others. But I think I can be a value in that 
regard as a lawyer, and as a person who has led an economic 
development in Arizona. Same kind of thing--attracting 
businesses, and I hope I can use that experience as well.
    Senator Corker. Now, I know you haven't, aren't there yet, 
and hopefully will be there very soon, but have you sensed, 
like in our country, when we enact new trade agreements, 
there's always concern about loss of jobs and concern about how 
it affects the economy, based on the limited research you've 
done prior to being there--is there that same type of dilemma, 
if you will, that exists there, on the ground, in the Dominican 
Republic?
    Mr. Fannin. Well, Senator, I think that from what I've read 
in the newspapers and some of the reports I've seen, there have 
been some complaints about the loss of jobs in certain areas. 
On the other hand, there is a lot of excitement and hope that 
all of the new technology, efficiencies, and so forth, that 
inure because of CAFTA, it will be far more a spread of 
benefits, more efficiency, more accountability, laws that 
American--other, not just American companies, U.S. companies, 
but people from all over the world--will seek to do business in 
that country, and thus improve their situation, not only in the 
major urban areas, but in the rural areas.
    Senator Corker. Mr. Simons, Chile is one of our major 
trading partners, and yet only 15 percent of their exports make 
their way into our country. I know they have a strong 
relationship with China and I'm wondering if there's, there are 
any issues there that you see on the horizon that are affecting 
our lack of trade, if you will, with them, or their growth in 
trade with China in a way that, somehow, creates a rub, if you 
will, with their own country?
    Mr. Simons. Thank you, Senator Corker.
    Let me say just a couple of words about how Chile has 
approached the trade issue worldwide.
    Chile has entered into free trade agreements with virtually 
all its major trading partners, and has been willing to expose 
its economy to the benefits and vagaries of free trade, and has 
benefited substantially. Chile's total trade is running 
something on the order of 65 percent of GDP, if you add imports 
and exports, it's a very high reliance on trade. So, Chile 
itself is very comfortable and confident that it can succeed on 
the trade front.
    With respect to the U.S. FTA, I think we've done quite well 
with the bilateral free trade agreement in the 3\1/2\ years 
it's been in existence. We've had total trade increase by about 
150 percent, and during that period U.S. exports also have gone 
up by about 150 percent--from about $3 billion a year to about 
$7 billion last year--and I think that's a significant 
increase.
    Chile is our fifth largest trading partner in the 
hemisphere. So, we've seen good growth on the United States 
export side, and this has been very positive, I think, for 
United States' businesses.
    We're also making some inroads. Our market share in Chile 
is going up after many years of decline as a result of the FTA.
    Now, with respect to China, China clearly has a voracious 
appetite for inputs of all sorts--raw material inputs, energy 
inputs, copper inputs from Chile--and China is now the major 
importer of Chilean copper. But, of course, China needs that 
copper to fuel its economy, its economic growth. I think it's 
natural that China would become a larger purchaser of Chilean 
copper, and I think it's to be expected that two-way trade with 
China will increase.
    But I think it's important that the United States maintains 
its market share, and that we get our businesses down there 
competing effectively, using the tools that we have under the 
bilateral FTA. And, if confirmed, I will be pushing very hard--
I have a background with the business sector, I served in the 
private sector, and I've done a lot of work helping U.S. 
businesses over the years, and I would pledge to continue and 
intensify that, if confirmed.
    Senator Corker. Thank you.
    Thank you, Mr. Chairman.
    Senator Cardin. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman. I want to thank 
all of the gentlemen who are here before us for their 
willingness to serve, and their families for their willingness 
to have what is also a degree of sacrifice in some respects, in 
terms of moving and being displaced, and sometimes interceding 
in their own professional lives. So, we appreciate their 
sacrifices, as well.
    Let me start with you, Mr. Fannin. I appreciate your 
opening statement. I think it reflects a lot of the things we 
talked about yesterday, and I appreciate, obviously, you 
listened well, and that's a good sign of an ambassador who 
starts out by--if you can do it here, you can do it in the 
Dominican Republic, so I appreciate your statement, 
incorporating some of the things.
    And I just want to say, I know from our conversation 
yesterday you have not been able to visit the country yet, and 
are stopped from doing so until you get through this process. 
You're going to be able to go to a--if you are successful, 
which I believe you will be--a great country with an incredibly 
warm and hardworking people. From a historic city in Santo 
Domingo, to a great places like Cenemal which has a 
mountainside that leads to a bay where there is a whaling 
season, to Santiago, which was the first capitol of the 
Dominican Republic and is the heart of tobacco growing, to 
Punta Cana which must have been still how Columbus discovered 
it, except for all of the hotels that are being added to the 
area, and where most Americans go to travel.
    So, it's an idyllic place. And yet, it has some very 
significant challenges. And so, I heard your statement, and I 
hope that you will add to your portfolio while you are there--
certainly the economic component is very important to us, as it 
is to the Dominicans. But I hope that there are two other 
items, one which you did touch upon, and I appreciate that.
    I just want to say, you know, it was President Bush who 
declared the Dominican Republic last year as one of the four 
major drug transit countries in the hemisphere. And our own 
United States Joint Inter-Agency Task Force South said that the 
number of drug-smuggling flights from Venezuela to Haiti and 
the Dominican Republic increased by 167 percent. A hundred and 
sixty-seven percent, between the years 2005 and 2006.
    So, I hope that as part of your portfolio you're going to 
continue to press this issue with President Fernandez. I think 
it's in their interests, obviously such transiting is corrosive 
in their own society, but certainly it's a concern to us in our 
own country.
    And the flip side of that is Transparency International 
2006 Corruption Perception Index, which listed Dominican 
Republic as ``rampant.'' I know of U.S. companies that have 
provided services, products or investments, and who arbitrarily 
and capriciously have seen either their nonpayment, or 
interference in their investments. It's bad for the Dominican 
Republic, because it sends the wrong message about the ability 
and the desirability of United States companies to go and make 
investments, and certainly to lend services.
    So, I hope that that will be also part of your portfolio. 
Can I expect you to include that, as well as the economic 
aspects?
    Mr. Fannin. Yes, sir. You sure can.
    Senator Menendez. Thank you.
    Mr. Simons, you're going to a great country, as well, as 
I'm sure you know. And I listened to the three points that you 
talked about--I agree with you. The third point on economic and 
political freedoms and using Chile as a place that is an 
example of that at a time in which we are challenged within the 
hemisphere. I believe that is true, except that Chile, under 
President Bachelet has been hailed as a modern leftist 
government, but recent protests do not bode well for the future 
of her administration, at least as it would seem now.
    I'm wondering what your view is, given the success story 
that Chile has been--what explains for the unrest within Chile? 
And in that context, how will we be able to get the Chileans to 
play a role that is more significant in the hemisphere, 
particularly with Chavez being a next-door neighbor with a lot 
of--trying to--exert a lot of influence in the hemisphere that 
I personally don't believe is in our national interest.
    Mr. Simons. Thank you, Senator Menendez, it's a very 
thoughtful question. With respect to----
    Senator Menendez. I only ask thoughtful questions. 
[Laughter.]
    No, I'm just kidding. Thanks for the compliment.
    Mr. Simons. With respect to President Bachelet's internal 
situation, I would just point out that Chile is a strong, 
vibrant democracy, it's had four successful changes of 
government in the past 17 years, and as it has matured, in any 
kind of open democracy with free expression, you have people 
that are speaking out and expressing their views. And so you 
have poll numbers that fluctuate.
    But, we have had an excellent relationship with the 
Bachelet administration across a broad range of areas, and the 
fact that Chile is a vibrant democracy, I think, helps us work 
with the Chileans.
    Now, with respect to Venezuela, I think you point out 
rightly, Venezuelan relations are a challenge for many of our 
friends in this hemisphere. President Bachelet has, herself, 
used the expression, ``A different path''--Chile is pursuing a 
different path. It's a path that involves freedom of 
expression, political pluralism, obviously a different economic 
path.
    Undersecretary Hughes in the State Department has used the 
expression, ``diplomacy of deeds.'' She's charged many of us 
career officers with pursuing that. And to some extent, Chile 
is pursuing a diplomacy of deeds in the hemisphere--is showing 
what the results are of this different path.
    And so, I think this is something that, if confirmed, I 
would work to encourage Chile to do, pursue this path, and to 
find ways to demonstrate that this different path yields 
improved results for the publics of Chile, and other countries. 
So, I would definitely work on that.
    Senator Menendez. I appreciate that. I don't mean for my 
comments to be misunderstood on President Bachelet. I actually 
think she's doing a good job, but it's within the success that 
Chile has had economically and politically, opening up, that 
you see these protests, and you wonder--what are the 
underpinnings of that? Outside of the--little bit of the 
transportation fiasco that they had there for awhile.
    It is--if one chalks it up strictly to the fulfillment of 
democracy, that's great. But I'm, you know, I'm concerned that 
there are other underpinnings, and you know, we'd look forward 
to, as you get on the ground, getting a sense from you whether 
it's strictly the fulfillment of democracy, and a boisterous 
democracy, or whether there are other issues there that are 
involved, as well.
    Finally, Mr. Johnson, let me--I have the toughest questions 
for you. But then, you have one of the toughest assignments 
here, and I recognize that.
    I have been, since my House days, a strong supporter of 
Plan Colombia. But I have to be honest with you, my support 
is--I am increasingly becoming skeptical of that support. I 
look at the results of the Office of National Drug Control 
Policy's 2006 government survey of cultivation in Colombia that 
indicates that statistically there was no change in the amount 
of coca being grown between 2005 and 2006.
    In a recent briefing before the Senate, we were told the 
startling fact that, ``70 percent of fields that have been 
reconstituted within 6 months of spraying, according to the 
State Department's most recent verification mission.'' I think 
that's a pretty serious problem. If we're going through all of 
this effort, and that after we spray a field, 70 percent is 
reconstituted in some way, shape, or form, makes me wonder 
about the nature of our policy there.
    And then, when I look at that, I put that on the side for a 
minute, I'm going to let you answer all of this in a holistic 
way--then I understand the administration is in the midst of 
some negotiations with Mexico about a cross-border efforts on 
drug gangs that operate on both sides of the United States-
Mexico border. I'd love to know where we're headed there, 
because the administration ought to come to this Congress to 
ask for that money. This is a key issue, but what's that policy 
going to be, and I don't know if you know what it is at this 
point, or what you think it should be from your experiences, 
but I'd like to hear that.
    And last, Guatemala. You know, the--sort of like the sexy 
parts of this are Colombians, the Andean Region, Afghanistan, 
and others, but I am concerned that we are not looking at 
Guatemala. From what I understand, entire swaths of the country 
are run by drug traffickers. Not only do they control the area 
where they transit their planes, they try to control the 
people. They do everything from pay for a deala la huela, to 
soccer fields, they try to buy the government off at the local 
level, and I feel that often Guatemala is forgotten in our 
discussion of the hemisphere, particularly when we see crime 
and violence levels that are startling, a judicial system that 
is weak, and impunity remaining a serious problem.
    So I'd like you to give me--because none of these things, 
this is like Jell-O in my mind. You push it in one place, it 
pops out in another, when it's within the hemisphere--and so 
I'd like to hear your views on all of that.
    Mr. Johnson. Thank you, Senator.
    First of all, when you started out with the first question, 
you said some kind things about our families, and it reminded 
me that I had neglected to note that my son, Andrew is with us 
today, and--but my daughters, Carrie and Rachel, couldn't make 
it, they're in school----
    Senator Menendez. We'll correct the record. [Laughter.]
    Mr. Johnson. I need to correct the record so I can go home 
tonight.
    Senator Menendez. You can go home. [Laughter.]
    Mr. Johnson. With respect to those very difficult questions 
that you raise, eradication of coca is not like poppy. When you 
knock down a poppy field, whether you do it manually or 
chemically, it's done for the year. The coca can be 
reconstituted more easily, you can grow multiple crops a year, 
so I'm not sure how to balance the 70 percent reconstitution 
against the art of the possible, but I would note that as part 
of the issue that we're dealing with. And that while--if you 
can grow multiple crops in a single year, if you--some of the 
counting rules have to be rethought there just a little bit.
    But our main goal there remains not just to spray crops, or 
to manually eliminate them for its own purpose, we want to 
extend the writ of the Colombian Government. And, I think your 
support and the support of your colleagues over the last 
several years for the resources for Plan Colombia and now its 
successor, have been key in essentially making Colombia a 
different place than it was when Undersecretary Pickering would 
come up here and testify on behalf of Plan Colombia. This is 
a--I think we shouldn't over-do the challenge we--I mean, we 
shouldn't underestimate how far we've come here, even though 
the statistics are very, very difficult.
    I also feel a little bit, when I'm looking at these 
statistics, like someone who is trying to deal with financial 
statements where the rules have been changed, where the way 
that we've estimated this has changed during the period of 
time. Now, that says one thing in terms of what you're trying 
to do. But, if you're the investor, what you're asking yourself 
are, which rules are correct? I mean, am I making money, or am 
I not? Are we eliminating this problem, or are we not? And I 
think we've made some progress there, but I think that we still 
have a long way to go.
    And so, as you consider where you wish to be as a 
legislator on the future appropriations for Colombia, I think 
that I'm going to have to be asking for your generosity to 
continue. Because I think it remains in the selfish interest of 
our country. But, I think it is still with--not just 
legitimate, but it's the thing you ought to do, to push us to 
see if we can craft better, more effective ways to confront 
this problem, always bearing in mind that what we're trying to 
do is deal with the problem itself, rather than the accounting, 
perhaps, that we may be focused on here.
    In the case of Mexico--I understand that sometime, perhaps, 
as early as later this week there may be some further 
information on this issue. I know that the State Department has 
been working during the course of the summer with the Mexican 
authorities to try to come up with a program which will, 
indeed, be effective. I'm not in a position to announce that, 
if you will.
    But the question that I think that you are raising is to 
whether this will be a good idea, whether we will be effective 
here. I think it's--it is appropriate to reflect on the new 
situation politically we're faced with in Mexico, with 
President Calderon, and his very clear determination to make a 
difference in his country.
    I think it is in our own interest to take advantage of this 
opportunity and to see if we can find ways to work together. 
Because this--anything going on in Mexico, particularly in this 
case, because it is, these are issues that are really on the 
border--affect our citizens quite quickly and quite clearly. So 
working together to see if we can craft a program which is in 
our own interest and in the interest of the people of Mexico, I 
think, makes a great deal of sense.
    With respect to Guatemala, you are quite right that our 
efforts in this, in the Caribbean Basin, are going to have 
potential for displacement if we push the balloon in one 
direction that has the potential, at least, for popping out 
someplace else.
    And so, I think if you--as we work on the initiative for 
Mexico, it will be combined with one for all of Central 
America, so that we can address this in a more complete manner.
    Thank you.
    Senator Menendez. Thank you, Mr. Chairman.
    Senator Cardin. Thank you. Mr. Fannin, if you need someone 
to promote domestic, Dominican Republic for investment by 
United States companies, you might want to take Senator 
Menendez with you. It seems like he has a good understanding of 
the Dominican Republic.
    Mr. Fannin. Yes, sir, Senator, I agree. Thank you very 
much.
    Senator Cardin. I have one or two more questions, if I 
might.
    You talked about the CAFTA-DR free trade agreement, and we 
have--we are the major trading partner for the Dominican 
Republic, and it's somewhat balanced. The trade agreement has 
not been confirmed yet by the Dominican Republic, there appears 
to be some concerns locally about revenue loss and other 
issues.
    I was very encouraged by your comments and your statement 
about working to implement the CAFTA-DR agreements including 
dealing with labor and environmental issues. I'm just 
interested in your commitment or understanding as to where the 
Dominicans are in the enactment of the necessary laws to 
implement the free trade agreement?
    Mr. Fannin. Mr. Chairman, I think that there are--I 
couldn't give you a percentage, because I am not knowledgeable 
as to what has--all of the things that have passed in terms of 
regulations and laws. I do know that there has been an effort 
to cooperate with the efforts of USAID, in terms of those 
things that we talked about earlier that are really important 
to business. One, that we would have people who are trained 
judges, trained prosecutors, public defenders--people where we 
have a reliable judicial system.
    In fact, I think one of the people that I talked to 
indicate that there still needs to be some things done to get 
the full benefit of this, in terms of the enactment of 
regulations and laws. I couldn't tell you exactly what those 
things are, but I know there is a real effort on the part of 
the government and President Fernandez to make it work. And his 
conversations with the Deputy Secretary recently, I know that 
was mentioned--he wants to do everything he can to make it 
work, and is working hard on that.
    Senator Cardin. Let me just, you--I think you mentioned 
this in your statement, but let me just underscore it. We have 
tried to monitor, very carefully, corruption issues within 
countries that we have business with, and the Dominican 
Republic has not ranked very well in fighting public 
corruption.
    Unfortunately, in too many countries they think it's 
somewhat of a way of existence. And, I think that the U.S. 
presence, through the ambassador, can play a very important 
role in making it clear that a country that intends to continue 
progress must fight public corruption--all corruption--but 
clearly needs to deal with it within the governmental sector.
    Mr. Fannin. Mr. Chairman, I hope--if confirmed--to be very 
much a part of trying to help with that situation. I think 
that's the thing that Senator Menendez talked about drugs and 
corruption are really problems--serious problems. And as Mr. 
Johnson was saying, the impact on our country from the drugs 
being transited through there, really has a lot to do with the 
corruption--the money that's available that comes through for 
the transiting of drugs through the country.
    So, I would do--I use my legal background--to make sure 
that they are doing what they're supposed to be doing, in terms 
of the training of prosecutors and judges, in providing them 
with the technical systems to ensure that those who violate the 
law are, in fact, prosecuted. And effectively prosecuted.
    Senator Cardin. I would add also, the independence of the 
judiciary, which is critical if you're going to fight public 
corruption issues.
    Mr. Fannin. Yes, Mr. Chairman.
    Senator Cardin. Thank you.
    Mr. Simons, I want to come back to the free trade agreement 
with Chile for just one moment. Chile has been--had a growing 
economy, so we do expect that there would be increased economic 
activity between the United States and Chile. We've seen that--
I'm not sure I would credit all of it to the free trade 
agreement--but clearly the free trade agreements opened up 
opportunities, there's no question about that.
    At the same time, as you point out, Asia--particularly 
China--has been very aggressive in its relationships with 
Chile. Seems to me that we need to increase our attention to 
Chile, as far as Chilean trade is concerned, and that the 
competition--particularly with Chile being so aggressive 
internationally--is one that could be a challenge to the United 
States. I would appreciate your views on that.
    Mr. Simons. Thank you, Mr. Chairman.
    I think I agree with everything that you've said. The free 
trade agreement, our bilateral free trade agreement, does 
provide us a unique platform to bring different kinds of 
American businesses down to Chile. We have a very strong 
investment chapter, for example, of our free trade agreement, 
that provides features that are commonly found in bilateral 
investment treaties.
    We have strong intellectual property rights provisions of 
the FTA that we're working with the Chileans to get 
implemented. This is an area where we need to devote some more 
work.
    And, we have openings in our agricultural sector, for 
additional exports there. And, I think, services is a very 
interesting area, as well. As you pointed out in your opening 
remarks, Mr. Chairman, Chile has now reached middle income 
status, but it's still realized, largely, on the export of 
primary products, and it does some processing of those primary 
products and sells them abroad.
    But, to take the next leap, to leap into the knowledge-
based kind of society where our services, exports, will be a 
lot more competitive is something that we need to work on 
together. I think the free trade agreement provides us a 
platform to do that. And clearly, this is an area where we have 
a competitive advantage over the Chinese or others.
    So, I think we need to look at the sectors in which we have 
comparative advantage, and work closely with the business 
community. I agree, Washington needs to pay attention to Chile. 
It would be terrific if we could get some visits from Members 
of Congress, as well. If confirmed I would love to see that, 
and your staffs.
    But, I agree with you, and it will definitely be an issue 
of priority, attention to me, if confirmed.
    Senator Cardin. Thank you.
    Mr. Johnson, I've got to put my Helsinki hat on just for a 
moment, and ask you about trafficking of human beings. As you 
know, the United States took the leadership in sensitizing the 
international community to our collective responsibility to 
stop the trafficking of people. And that comes under some of 
your work, and I just wanted to make sure that that will remain 
a very high priority, in working to combat trafficking.
    Mr. Johnson. Mr. Chairman, it certainly will. That's a 
multipronged effort in the United States Government, and one 
where I think our greatest contribution in the Bureau that I 
will lead, since the primary responsibility for the center on 
that, I think, is going to shift from us to the Bureau of 
Diplomatic Security in the next few months--is to help them and 
to help the other elements here, to work with finding out where 
these organizations are, and where the trafficking in persons 
is--fits with trafficking in other illicit products, in 
particular, narcotics--so that we can attack this together.
    So that will very much remain something that I am 
interested in, and working on, if I am confirmed.
    Senator Cardin. I just want to make sure that any transfer 
of responsibility is not to diminish the importance of the 
issues, but to work more effectively to combat it, and continue 
U.S. international leadership in that area.
    Mr. Johnson. Sir, I'll do my best to do so.
    Senator Cardin. Thank you.
    Senator Corker.
    Senator Corker. Mr. Chairman, I think we have three 
excellent candidates, I really think the questioning has been 
very good. I appreciate you having this meeting, and I want to 
thank their families for being here in support of them. I know 
it means a lot to all of us when that occurs, and for their 
sacrifices. And I hope we have a very speedy approval process 
so that these men can begin some great work on behalf of our 
country.
    Senator Cardin. Well, Senator Corker, I'm going to agree. 
I've been through several confirmation hearings, and normally 
you get somewhat prepared, recorded replies. I was impressed by 
all three of you, and the depth of your knowledge of the 
subjects, and your commitment to the priorities of your post. 
And, I thank you very much for your candor here today, they're 
extremely difficult assignments, all three, with real 
challenges and opportunities, and we thank you very much for 
being willing and prepared to serve your country.
    The record will remain open for 2 days, so the committee 
members may submit additional questions for the record. I've 
asked that each nominee respond quickly to those questions, if 
they are submitted, so that we can move forward on the 
confirmation process as quickly as possible.
    If there's nothing further, the committee will stand 
adjourned. Thank you all very much.
    [Whereupon, at 3:46 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


       Responses of Hon. David T. Johnson to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. You have never worked in the INL Bureau, and you have 
never served in a country that is a major drug producer or transit 
country. What qualifies you for this position? Have you ever 
administered programs overseas of this size and scope?

    Answer. During my almost 30 years in the Foreign Service, I have 
held several positions with responsibility for significant resources--
both human and monetary. That is particularly the case with my 
assignments over the last 10 years--United States Ambassador to the 
OSCE, Coordinator for Afghanistan, and Charge and Deputy Chief of 
Mission in London.
    London's 800-plus person Embassy engages in almost every aspect of 
American policy, including our multiple joint efforts with the United 
Kingdom in Latin America, Afghanistan, and Iraq, where INL's programs 
are working to advance American interests. During my tenure there, I 
worked directly on every one of them. As Coordinator for Afghanistan, I 
worked to ensure that INL programs were properly executed by the 
interagency community and fully integrated into our overall national 
and multinational efforts. The large-scale efforts INL is now 
supporting in Afghanistan date their beginnings to this period.
    As U.S. Ambassador to the OSCE, I played a key, personal role in 
the integration of INL programs into that organization's significant 
conflict prevention and post-conflict reconstruction efforts in the 
Balkans, the Caucasus, and Central Asia. The OSCE Police School in 
Kosovo is the international community's most successful police training 
effort. The OSCE Senior Police Advisor program provides emerging 
democracies with advice and training on modern, service-focused 
policing. And the OSCE has integrated police training and advice into 
most of the OSCE Missions. All of these initiatives were driven by the 
United States with firm, personal backing from me.
    Finally, my first Foreign Service assignment, on the United States-
Mexican border at Ciudad Juarez, gave me a firm grounding in the 
extraordinary challenges and opportunities that arise from our border 
relationship, especially the challenges of cross-border crime and 
narcotics trafficking. It is a grounding one never forgets.

    Question. What are your top three objectives, if confirmed? A year 
from now, what do you hope to be able to report that you have 
accomplished?

    Answer. If confirmed in this position, I will strive to achieve the 
following top objectives:

  <bullet> An effectively crafted, effectively implemented program of 
        cooperative law enforcement and counternarcotics with Mexico 
        that enhances Mexico's ability to confront narcotics-related 
        violence and trafficking within Mexico and along our shared 
        border and strengthens Mexican ability to cooperate more 
        effectively with United States, state, and local law 
        enforcement agencies working along that border.
  <bullet> In Colombia and Afghanistan, measurably lowering the 
        quantity of narcotics available for market and, in the case of 
        Colombia, placing ever greater levels of responsibility in the 
        hands of the Colombians.
  <bullet> Developing and supporting civilian law enforcement and 
        justice sector reform programs--both large, as in Iraq and 
        Afghanistan and smaller, as in Lebanon and Kosovo--that provide 
        both greater value for the taxpayer's dollar and a more 
        effective partner in providing public safety in ungoverned or 
        inadequately governed territories.

    Reaching these objectives will require sustained, long-term 
approaches, some of which are already underway. Within the next year, 
if confirmed, I would like to be able to report the following near-term 
accomplishments:* A more effective counternarcotics program in 
Afghanistan, including an improved eradication effort in Helmand and 
other southern provinces in Afghanistan, that will slow or even halt 
the rapid growth in opium poppy cultivation there in recent years.

  <bullet> In Colombia, continued reductions in the level of civil 
        violence and consequent increases in public safety as a result 
        of United States counterdrug and counterterrorism support for 
        Colombia over recent years. I would also like to report that 
        nationalization efforts have begun to reduce the need for U.S. 
        financial support for certain aspects of aviation programs as 
        described in the answer to question No. 4.
  <bullet> Enhanced law enforcement and counternarcotics cooperation 
        with Mexico. President Calderon has stated his commitment to 
        continue the close cooperation between Mexican and United 
        States law enforcement agencies begun under his predecessor. 
        Over the next year, I hope to see this enhanced cooperation 
        beginning to pay dividends through improved security along our 
        shared border and further progress in our ongoing programs to 
        modernize and professionalize the Mexican federal police and 
        court systems.
  <bullet> To ensure that INL can manage its increasing 
        responsibilities around the world, if confirmed, I plan over 
        the first several months to complete the restructuring of the 
        Bureau begun by my predecessor, to expand the Bureau's new web-
        based local financial system to include more posts, and to 
        continue to strengthen oversight mechanisms, especially for 
        larger programs such as the civilian police programs in Iraq 
        and Afghanistan and the INL aviation program.

    Question. In April 2007, the administration submitted a report to 
Congress on the next phase of assistance to Colombia. This report 
suggests that United States assistance to Colombia will continue at 
substantial levels, though slowly decrease between fiscal year 2007 and 
2013. Do you think that the strategy it outlines takes the right 
approach, and if so, why?

    Answer. The strategy outlined in the administration's report was 
one based on continued support for the accomplishment of United States' 
goals and the development of a sustainable nationalization of our 
programs in Colombia. This is the right approach and one that also 
recognizes the need to reduce United States funding in Colombia, while 
guaranteeing the sustainability of the successes in this important 
bilateral program with a key regional partner. Much has been 
accomplished in Colombia in the areas of counternarcotics, 
governability, democracy, and progress in human rights, economic 
development, and counterterrorism. We cannot afford to let this 
progress be reversed by withdrawing support too quickly.
    INL is in the process of reviewing its programs in Colombia and our 
nationalization efforts to ensure that we are on the right track. If 
adjustments are necessary, I look forward to working to strike an 
appropriate balance.

    Question. For several years, the United States has worked with 
Colombia toward the objective of having that government manage and 
operate its aerial eradication and other counterdrug programs. Why have 
we not yet achieved this goal and when can we expect to meet it?

    Answer. Every year the Colombian Government has taken over 
additional responsibilities for its counternarcotics programs, and we 
are actively accelerating this process. Since the beginning of Plan 
Colombia the Government of Colombia has invested over $7 billion in its 
fight against narcoterrorism and for control of its territory. However, 
nationalization of complex aviation programs that are, in effect, only 
5 years old is challenging. For example, it takes 4 years to select and 
train a pilot to command a helicopter, and even longer for a master 
helicopter mechanic. The administration's plan is to have successfully 
completed nationalization by 2013 and to reduce the annual United 
States Government investment accordingly, as outlined in the April 2006 
Report to Congress on United States Assistance Programs in Colombia and 
Plans to Transfer Responsibilities to Colombia. In the time since that 
report was submitted, we have made further progress in nationalization. 
For instance, we are moving forward on the nationalization of the 
program for the protection of the Cano Limon pipeline and the Air 
Bridge Denial program. We are also in discussions for Colombia to 
assume counternarcotics fuel costs beginning in April 2008. In the area 
of aviation support, K-MAX helicopters are being returned to the United 
States as of October 2007 and the Government of Colombia will assume 
complete support for 13 selected Colombian National Police aircraft in 
March 2008. Also under discussion is whether to withdraw or hand over 
the UH-1N helicopters presently under the Colombian Army program in 
April 2008. Possible reductions in funding from the amounts projected 
in that report, and a subsequent one sent to the Congress in April 
2007, may mean additional adjustments to our plans.

    Question. The 2007 U.N. Office on Drugs and Crime World Drug Report 
indicates that Afghanistan's share of global opium poppy cultivation 
grew by 59 percent in 2006. Did the United States and other coalition 
partners in Afghanistan wait too long to address the drug problem after 
removing the Taliban from power? What do you see as the major obstacles 
to achieving any meaningful reduction in drug cultivation, and what can 
be done to remove those obstacles?

    Answer. Ever since coalition forces overthrew the Taliban, the 
United States has worked with the United Kingdom, which assumed the 
lead in counternarcotics in Afghanistan, and with other coalition 
partners to address this difficult problem. Since then, there have been 
setbacks as well as gains in this effort. In the past year, the number 
of poppy-free provinces increased from 6 to 13, poppy production in the 
center and north of Afghanistan is rapidly decreasing, and the Afghan 
Eradication Force and the provincial governors eradicated 19,047 
hectares of poppy, 24 percent more than last year.
    Unfortunately, the gains in the north have been more than offset by 
setbacks in the southern and eastern provinces, where the security 
situation is the principal obstacle to lowering drug cultivation. For 
example, more than half of all poppy cultivation is in Helmand 
province, where the security situation makes most nonmilitary 
activities impossible. The United States counternarcotics strategy for 
Afghanistan is an interagency effort specifically designed to confront 
opium production in the current security environment.
    Improved counternarcotics-counterinsurgency coordination along with 
a plan to conduct forced eradication in areas where negotiated 
eradication has been unsuccessful will help us to overcome the problems 
presented by the lack of security, especially in Helmand. Forced 
eradication is necessary in some areas where farmers believe the 
Taliban will protect their fields. In addition to improving the speed 
and efficiency of eradication, forced eradication will allow us to go 
after the wealthiest farmers who are profiting the most from poppy and 
send a signal to poor farmers that eradication is performed equitably. 
Additionally, the Good Performers Initiative is designed to incentivize 
provincial leaders by rewarding provinces that are poppy free or have 
made significant reductions in poppy cultivation. We must also improve 
Afghanistan's ability to take down high-level traffickers to 
demonstrate that our effort is not exclusively focused on eradicating 
drug crops and that anyone along the supply chain is vulnerable to 
prosecution.

    Question. A recent joint report of the Inspectors General of the 
Departments of State and Defense (issued July 2007) found that the 
``priority granted to counternarcotics and concomitant responsibilities 
of various United States Government elements is not sufficiently clear 
and specific. Interlocutors, both in Washington and Afghanistan, were 
unable to point to a clear, overarching strategy.'' The report 
recommended that the State Department take the lead in developing a 
policy document on roles and responsibilities, a recommendation with 
which INL disagreed. Have you reviewed this report? What is your view 
about this recommendation?

    Answer. INL concurred in part with the Inspectors General 
recommendation in its July 2007 report but disagreed as to rank-
ordering priorities. In January of this year, when we received 
information that the 2007 poppy harvest would likely exceed the 
previous year's record high, Office of National Drug Control Policy 
Director John Walters and Deputy Secretary of State John Negroponte, 
asked that an interagency group be convened to evaluate all aspects of 
the counternarcotics strategy and to propose recommendations to achieve 
better results. As a result, a high-level interagency group, comprised 
of the Departments of State, Defense, Justice, Agriculture, and 
Treasury; the Drug Enforcement Administration; the Office of National 
Drug Control Policy; and the U.S. Agency for International Development, 
labored over many months to ensure long-term success, while looking for 
ideas to also achieve successes in the short-term. The President also 
appointed a Coordinator for Counternarcotics and Justice Reform with 
the rank of ambassador to oversee this effort, and in July 2007, the 
interagency U.S. Counternarcotics Strategy for Afghanistan was adopted 
as United States policy.
    This document provides greater guidance with regard to respective 
United States Government roles and responsibilities. However, providing 
a precise rank-ordering of the priority of counternarcotics vis-a-vis 
other U.S. objectives is complicated by the interrelated nature of our 
top four policy priorities in Afghanistan--democracy building, 
counterinsurgency, counternarcotics, and rule of law. For example, 
there is mounting evidence of the linkage between the insurgency and 
narcotics trafficking. The counternarcotics/counterinsurgency nexus 
also feeds corruption and diminishes democratic governance, 
illustrating the interconnectedness of these issues. In this context, 
seeking to assign a rank-order priority to objectives would undermine 
current efforts to integrate United States Government activities in a 
way that is most productive and cost-beneficial, and best advances our 
policy interests.

    Question. In August, the State Department issued a new 
counternarcotics strategy for Afghanistan. What is new about this 
strategy? Why, in your judgment, will it make a difference?

    Answer. There are three significant pieces of the updated 
counternarcotics strategy that will make a difference both in the near- 
and long-term in Afghanistan. An enhanced ``carrots and sticks'' 
approach will dramatically increase development assistance to provide 
incentives for licit development while simultaneously amplifying the 
scope and intensity of both interdiction and eradication operations. 
The Good Performers Initiative will provide development assistance to 
provinces that have made dramatic reductions in poppy cultivation or 
that are poppy-free. The United States has committed $35 million 
dollars so far to this effort. The strategy also seeks to improve 
counternarcotics and counterinsurgency planning and operations in a 
manner not previously accomplished, with a particular emphasis on 
integrating drug interdiction into the counterinsurgency mission. 
Finally, the strategy encourages sustained political will for 
counternarcotics efforts among the Afghan Government, our allies, and 
international civilian/military organizations, and strengthens public 
information efforts at the grassroots level.
    I believe the refined strategy will certainly improve the 
coordination of our overall counternarcotics efforts and is likely to 
make a positive impact as many of these elements have already proven 
successful in parts of Afghanistan.

    Question. It has been reported that the United States Government 
and the Mexican Government are in discussions about a substantial 
package of assistance by the United States to help Mexico's 
counternarcotics efforts, as well as the countries of Central America. 
Is such a package in development? When do you expect that it will be 
announced? What level of funding, and what types of assistance, do you 
expect will be requested?

    Answer. The Governments of the United States and Mexico are 
discussing cooperative steps to address what President Bush described 
as a ``common problem on our shared border''--drug and other illegal 
trafficking, and the violence associated with it. We are also 
considering the best way to support the countries of Central America in 
confronting the transnational threats we share, including narcotics 
trafficking, organized crime, and criminal gangs.
    President Bush first discussed security cooperation with then 
President-elect Calderon in November 2006. These discussions continued 
during the President's visit to the region in March 2007, as outlined 
in the joint United States-Mexico Communique of March 2007. In May, the 
Government of Mexico approached the United States with suggested areas 
for greater cooperation, and technical experts from both governments 
subsequently began meeting to define needs and areas where we might 
usefully work together. At the North American Leaders' Summit in 
Montebello, Canada, on August 20-21, Presidents Bush and Calderon 
agreed to address the drug trafficking and narcotics-related violence 
affecting both countries. Separately, in August, the member countries 
of the Central American System for Integration (SICA) held internal 
discussions about developing their own regional strategy to combat 
crime. United States Embassies in Central America have also advised on 
the types of projects that could assist the Central American initiative 
and support our policy goals.
    Our continuing discussions with the Governments of Mexico and 
Central American countries are focusing on three broad areas: 
counternarcotics and border security; public security and law 
enforcement; and strengthening institutions and rule of law. Possible 
areas of joint work could include strengthening Mexico's southern 
border, enhanced computer and database networks to make Mexico's law 
enforcement agencies more efficient and transparent, and measures to 
professionalize Mexico's federal law enforcement personnel. The 
administration is also considering programs that would help law 
enforcement and court institutions to ensure due process, transparency, 
proper oversight, responsiveness to citizen complaints, and protection 
of human rights. For Central America, a number of options are being 
considered, including the provision of tools, training, and technical 
expertise.
    The nature and extent of cooperation with Mexico and Central 
America have not been finalized, so no official announcement has been 
scheduled. The administration is assessing how to fund any resulting 
programs in a fiscally responsible manner as well as which accounts 
might be appropriate to execute these programs. The administration 
intends to continue its dialog with the Congress as the outlines of our 
proposed cooperative effort take shape. I look forward to providing 
additional details to you and your staff as soon as possible.

    Question. INL funds and supports several International Law 
Enforcement Academies (ILEAs) around the globe. What is the utility of 
these academies? What have they accomplished?

    Answer. The ILEAs help advance U.S. interests through international 
cooperation while promoting social, political, and economic stability 
by combating crime. To date, ILEAs have trained over 21,000 officials 
from over 75 countries. They have promoted unprecedented law 
enforcement cooperation with U.S. and regional counterparts and have 
enhanced the technical expertise of investigators in practically every 
corner of the world. The primary purpose of the ILEAs is to build 
strong institutions and bring order and stability to emerging 
democracies and countries afflicted by endemic criminal problems. To 
accomplish these goals, ILEA graduates have either directed or been 
instrumental in a wide range of effective actions, such as:

  <bullet> Enactment of new laws and regulations.
  <bullet> Changes in curricula at national academies.
  <bullet> Enhancements in land border and airport security.
  <bullet> Identification of terrorist groups and sympathizers.
  <bullet> Improvement in community relations.
  <bullet> Changes in methods and procedures regarding human rights and 
        fair treatment of the public.
  <bullet> Effective measures against organized crime.
  <bullet> Improvement of cooperation with U.S. authorities.
  <bullet> Creation of task forces and other specialized groups.
  <bullet> Participation in transnational investigations.
  <bullet> Apprehension and successful prosecution of notorious 
        criminal figures.
  <bullet> Seizures of drugs, firearms, explosives, and dangerous 
        materials.
  <bullet> Prevention of human trafficking and child exploitation.

    Listed below are a few of the many accomplishments of ILEA 
graduates worldwide:

  <bullet> Philippines--Seized a major methamphetamine super lab using 
        techniques learned at ILEA Bangkok.
  <bullet> Malawi--Thwarted a terrorist event as a result of having 
        developed sophisticated explosives investigatory skills at ILEA 
        Gaborone.
  <bullet> Georgia-Participated in and greatly contributed to the 
        successful American-Georgian investigation concerning the 
        assassination attempt on President Bush during a visit to 
        Georgia in 2005. The perpetrator was arrested and convicted, 
        and the investigation was instrumental in the interdiction and 
        seizure of smuggled highly enriched uranium in Georgia.
  <bullet> Ukraine--Set up the first witness protection program in the 
        country.
  <bullet> Nicaragua--Formed the core group of a specialized vetted 
        unit of law enforcement and prosecutors working on an 
        anticorruption and money laundering task force.
  <bullet> Lesotho--Conducted several high-profile arrests at ports of 
        entry for suspected money laundering.
  <bullet> Tanzania--Replicated the training received at ILEA Gaborone 
        to instruct 100 park rangers and 20 other officers involved the 
        in protection of wildlife and natural resources.
  <bullet> Hungary--Established an unprecedented United States-
        Hungarian cooperative task force targeting international 
        organized crime.
  <bullet> Mozambique--Started the development of an antiterrorism task 
        force within the Ministry of Interior.
  <bullet> El Salvador--Worked with Mexican counterparts to capture and 
        prosecute two Salvadoran murder suspects who had kidnapped two 
        young girls in San Salvador. The suspects were detained in 
        Mexico and extradited to El Salvador.

    Question. A State Department Inspector General report (an 
inspection report of INL, issued in 2005) noted that the ILEA graduate 
facility in Roswell, NM, has ``trained only about a quarter of the 
number of students envisioned in the original 5-year cooperative 
agreement (with the New Mexico Institute of Mining and Technology).'' 
Why has that ILEA fallen short in its efforts?

    Answer. The International Law Enforcement Academy (ILEA) in 
Roswell, NM, is administered pursuant to an agreement between INL and 
the New Mexico Institute of Mining and Technology (NMT). NMT is the 
primary entity in an effort involving a consortium of subcontractors, 
including Sam Houston State University, Eastern New Mexico University-
Roswell, New Mexico Tech Energetic Materials Research and Testing 
Center, and the University of New Mexico Survey Research Center.
    Original plans for ILEA-Roswell were optimistic. The Request for 
Proposal (RFP) for ILEA-Roswell, published August 16, 2000, in the 
Federal Register, specified that 12, 4-week classes of 50 students (600 
students per year) would be conducted during the initial year of 
operation. Planned program expansion in the second year of ILEA-Roswell 
operation envisioned that two simultaneous classes held concurrently 
would increase the number of students to 100 per class (1,200 students 
per year). Unfortunately, ILEA-Roswell expenses have strained the 
resources made available to support the program and has resulted in an 
agreement modification to reduce the number classes to 10, 4-week 
classes of 35 students (350 per year).

    Question. INL programs have grown substantially in the last decade. 
In fiscal year 1996, just over a decade ago, INL's programs totaled 
about $115 million. A State Department Inspector General report (an 
inspection report of INL, issued in 2005), stated that procurement 
officials in the Bureau of Administration do not believe that INL has 
sufficient managers to administer its programs, and that ``most INL 
program managers are inexperienced and not well informed about 
government contracting requirements.'' Have you reviewed the staffing 
and experience of program managers in INL? Does the bureau have the 
personnel necessary to manage these programs and oversee the many 
contractors involved in implementing them?

    Answer. INL increased its domestic staffing by 35 personnel 
subsequent to the 2005 OIG inspection report. The personnel increases 
focused on improving INL's program, resource, and contract management. 
In 2006, INL established an Afghanistan, Iraq, and Jordan contract 
management support group located in the United States and, working with 
Embassies Baghdad and Kabul, increased program and contract management 
staffing at these posts by a total of 20 personnel. Within the past 
year, INL increased the number of in-country contract officer's 
representatives by 10. INL continues to hire specialists to strengthen 
program and contract management efforts for both overseas and domestic 
operations. In addition, personnel involved in contract management are 
required to take the Department's contract officer's representative 
course. I believe that INL has made significant progress in improving 
its program and contract management functions. The Department's Office 
of the Inspector General and the Special Inspector General for Iraq 
Reconstruction have also noted the improvements made in their reports.
    If confirmed, I will continue efforts to improve INL's program and 
contract management operations.
                                 ______
                                 

         Responses of P. Robert Fannin to Questions Submitted 
                     by Senator Christopher J. Dodd

    Question. Have you read the cable ref: 04 STATE 258893--Peace 
Corps-State Department Relations?

    Answer. Yes, I have read 04 STATE 258893.

    Question. Do you understand and agree to abide by the principles 
set forth in this cable?

    Answer. Yes, I understand the content of this cable and, if 
confirmed as Ambassador to the Dominican Republic, will execute United 
States policy as requested and directed by the Secretary of State.

    Question. Specifically, do you understand and accept that ``the 
Peace Corps must remain substantially separate from the day-to-day 
conduct and concerns of our foreign policy'' and that ``the Peace 
Corps's role and its need for separation from the day-to-day activities 
of the mission are not comparable to those of other U.S. Government 
agencies''?

    Answer. Yes, I understand, and if confirmed will execute all 
applicable U.S. policy with regard to the Peace Corps.

    Question. Do you pledge, as Secretary Rice requests in 3.B of the 
cable, to exercise your chief of mission ``authorities so as to provide 
the Peace Corps with as much autonomy and flexibility in its day-to-day 
operations as possible, so long as this does not conflict with U.S. 
objectives and policies''?

    Answer. Yes, if confirmed I will exercise my chief of mission 
authorities as requested and directed by the Secretary of State.
                                 ______
                                 

          Responses of Paul E. Simons to Questions Submitted 
                      by Senator Richard G. Lugar

    Question. The United States-Chile Free Trade Agreement (FTA) has 
been in force for over a year. By most accounts, it has been of major 
benefit to both countries, increasing bilateral trade by 30 percent in 
2006. The United States remains Chile's No. 1 trading partner with two-
way trade in merchandise topping US $8 billion. The FTA also encourages 
foreign investment in Chile, another component of Chile's economic 
success.
    How will you improve upon this FTA's success? Describe the outreach 
activities you would lead in order to introduce Chilean business 
officials to investment opportunities in the United States. Describe 
the outreach activities you would lead in order to introduce United 
States business officials to investment opportunities in Chile.

    Answer. In the 3 years since it has been in place, our bilateral 
Free Trade Agreement with Chile has been successful in helping to 
expand two-way trade between our countries. If confirmed, I will 
endeavor to ensure a level playing field for United States firms and 
investors already doing business in Chile. I will place a high priority 
on expanding United States Government engagement with the business 
sectors in both Chile and the United States, working with my strong 
Embassy team. I am planning to counsel United States firms regarding 
the advantages and new opportunities for American products and services 
in Chile as a result of the FTA. I intend to deepen our work with the 
already active United States Chamber of Commerce chapter in Chile, as 
well as local Chilean chambers, in order to leverage and expand our 
outreach to increase both trade and investment flows. If confirmed, I 
will encourage more bilateral trade missions between Chile and the 
United States. I also hope to lead and participate in targeted 
``Ambassador Tours'' to key United States cities, both individually as 
well as with my colleagues from other United States Embassies in Latin 
America. Regarding investment in the United States, I want to work 
proactively with individual states, as appropriate, also developing 
relationships with state offices in Chile and other parts of the 
Southern Cone. If confirmed, I will lend the embassy's support in 
welcoming individual and sectoral investment missions from the United 
States to Chile, as well as working to disseminate details of 
individual investment opportunities in Chile throughout the United 
States.

    Question. Some aspects of the FTA with Chile are still below 
expectations. In the area of intellectual property, differences of 
interpretation have arisen between the Chilean Government and 
Washington regarding the fulfillment of some commitments, and some in 
Santiago have expressed disappointment regarding access to the United 
States Government procurement market. If confirmed, what initiatives 
will you pursue to address these concerns?

    Answer. United States Government agencies, including the 
Departments of State, Commerce, and Treasury, and the Office of the 
U.S. Trade Representative (USTR), are working through our Embassy in 
Santiago to encourage Chile to improve its protection of intellectual 
property rights (IPR), including by fully implementing its FTA 
intellectual property commitments. In January 2007, United States 
agencies placed Chile on the Priority Watch List as a result of the 
2007 Section 301 Review Process, in recognition of weaknesses in 
Chile's patent protection and copyright regimes. Currently, our Embassy 
in Santiago is engaged in a close dialog with the Chilean Government as 
well as with stakeholders in the private sector, media, and academic 
circles on intellectual property issues. The embassy has sponsored 
seminars and training on IPR issues and has coordinated closely with 
U.S. companies and sectors most directly affected by IPR violations. 
The Department of State also approved $200,000 in fiscal year 2007 
funding to provide IPR law enforcement training to Chilean border and 
customs enforcement officials. Along with Commerce and USTR, we are 
also working with Chile to ensure antipiracy legislation before the 
Chilean Congress is in keeping with Chile's obligations under our 
bilateral FTA.
    If confirmed, I will intensify these efforts and seek to enhance 
the constructive dialog we have with Chile on IPR by drawing in United 
States private sector and Chilean stakeholders. Drawing on my 
experience with this issue in previous assignments in Ecuador and 
Israel, I will look for opportunities to deepen public outreach on 
intellectual property issues, highlighting its importance to Chile's 
efforts to build a knowledge-based economy. I will also reach out to 
partners such as the European Union and Japan, which also have FTAs 
with Chile and similar concerns about its IPR protections.
    As for accessing the United States Government procurement market, 
if confirmed, I will work with our team in the embassy to ensure that 
Chilean companies have the same transparent opportunities to access our 
official procurement procedures as do United States companies. In this 
regard, I will work with our embassy team and Chilean authorities to 
improve Chilean companies' understanding of the United States 
Government procurement market and their preparation to participate in 
it.

    Question. Chile is nearly ready to announce its decision on which 
digital television standard it would choose--the Japanese, European, or 
American one. Officials at Chile's Telecommunications Sub-Secretary 
have stated that they are waiting for final test and consultant reports 
and hoped to announce the decision sometime in November or December 
2007.
    President Michelle Bachelet said recently the standard chosen would 
be the one that best fits the country's needs and allows the best 
access to viewers of nonpaid broadcast television. How does the U.S. 
meet those standards better than its competitors?

    Answer. Working closely with the industry association representing 
the companies behind the Advanced Television Systems Committee (ATSC) 
digital television broadcast standard, the United States Embassy in 
Santiago, in cooperation with the Departments of State and Commerce, 
has been actively working to promote selection of ATSC by the Chilean 
Government for over a year. As you noted, Chile is currently evaluating 
the three competing standards--ATSC, Europe's DVB, and Japan's ISDB. 
The European standard is considered the ATSC's main competitor in 
Chile, as Japan has had limited success in promoting its standard, with 
the important exception of Brazil.
    Chile's Government has consistently noted that ``social'' 
considerations will factor into its decision making process on digital 
television. The ATSC Standard fully meets this consideration by 
providing much better picture quality via high-definition television, 
plus a much greater quantity of program options and a limitless variety 
of new information services. These new services can help bridge the 
digital divide by delivering health care, education, training, 
government information, and the most popular Internet content to the 
poorest segments of society, including people who may never own a 
personal computer.
    The ATSC Standard meets Chile's social objectives better than the 
competing standards from Europe and Japan, because the ATSC system can 
reach many more viewers with the same transmitted power. ATSC also 
delivers a substantially higher data payload, which translates directly 
into a greater quantity, and higher quality, of services.
    Of course, certain costs associated with any country's termination 
of analog television broadcasts and beginning digital-only broadcasts 
are unavoidable, irrespective of which standard is chosen. In addition 
to broadcasters having to purchase and install new studio and 
transmission equipment, consumers also need to adapt by buying either 
new digital television sets or a set-top converter that will enable 
them to continue using their existing analog TV sets. One of the 
Chilean Government's primary concerns has been the cost to consumers, 
particularly the poor, as they transition from analog to digital.
    The ATSC Standard offers the lowest prices both for integrated 
digital televisions and digital set-top converters, because of the 
economies of scale that flow from using the same standard that is 
already widely deployed in North America and South Korea. This is 
demonstrated regularly in the United States as prices for new digital 
televisions continue to drop. Thirty to forty million ATSC digital 
converter boxes are expected to be sold in 2008 in the United States, 
ensuring the availability of low-cost converters ($50 or less) in 
Chile.
    While there are very real economic costs associated with 
transitioning to digital television, the choice of the broadcast 
standard can have important consequences in terms of minimizing those 
costs. In addition to the economies of scale argument, the ATSC 
standard also requires less powerful transmitters and much less energy 
than its competitors to deliver larger amounts of data to wider or 
remote geographical areas. The European and Japanese standards both 
require transmitters that are four times more powerful than ATSC to 
achieve the same coverage area, increasing the acquisition and 
operating cost for broadcasters.
    In summary, the ATSC standard offers Chile a world-class television 
system with full access to high-definition television, multiple 
programs of standard-definition television, and new information 
services, including interactive services. It provides the lowest cost 
solution for both consumers and broadcasters, while fully meeting the 
Chilean Government's objectives for social inclusion. Especially 
important for developing countries, ATSC has the greatest reach, 
ensuring that even people in isolated areas can benefit from the new 
services and superior performance provided by digital television.

    Question. Chile has limited domestic energy resources and is 
heavily dependent on imports for its energy needs. Chile currently 
imports almost two thirds of its primary energy consumption. In 2005 
Chile imported 98 percent of its oil, 96 percent of its coal, and 75 
percent of its natural gas. As a result, it is extremely vulnerable to 
the volatility of international prices and/or supply interruptions.
    Please explain what role the United States can play, working in 
concert with the Chilean Government and private sector in both 
countries, to help insulate Chile from risks posed by its heavy energy 
import dependence.

    Answer. Like many other countries around the world, Chile faces 
substantial challenges identifying and securing the energy resources 
necessary to support its remarkable record of economic growth. As noted 
in the question, Chile is heavily dependent on imported fuels to 
support both its transportation, as well as its power generation needs.
    A strong interagency team in Washington works closely together on a 
variety of international energy challenges. For the past 4 years, I 
have had the privilege of working as a member of that team. It includes 
officials from the Departments of State, Energy, Commerce, Treasury, 
Agriculture, Environmental Protection Administration, and the U.S. 
Trade and Development Agency, with overall coordination provided by the 
National Security Council. I have also worked closely with the 
International Energy Agency and the Asia Pacific Economic Cooperation 
forum, multilateral bodies which handle energy issues, as well as with 
U.S. private sector firms and think tanks active on international 
energy issues.
    If confirmed, I would hope to draw on that body of experience to 
identify areas of cooperation that the United States could pursue, 
either bilaterally, multilaterally, or through our respective private 
sectors, to advance energy sector cooperation. Among the areas we might 
explore for further work are energy efficiency, renewable energy 
(including wind, solar, and geothermal power), liquefied natural gas 
infrastructure, biofuels, clean coal technologies, nuclear energy, and 
other energy technologies.

    Question. Chile's Government is implementing an ambitious Energy 
Security Action Plan that seeks to diversify Chile's energy matrix and 
encourage efficient use of energy. This effort pays particular 
attention to biofuels and renewable fuel options. In April 2007, I 
wrote to Assistant Secretary of State for the Western Hemisphere, 
Thomas Shannon, to encourage closer ties with Chile regarding biofuels 
and other energy concerns. A delegation of United States Government 
officials recently signed a biofuels research and development 
cooperation agreement with Chile.
    If confirmed, how will you seek to ensure successful cooperation on 
energy issues between the United States and Chile? What will be your 
primary areas of focus for such cooperation? Do you believe that energy 
cooperation with Chile should be central in United States foreign 
policy to that country?

    Answer. President Bachelet has recognized Chile's need to improve 
its energy security. Earlier this year, she announced that Energy 
Minister Tokman would be responsible for implementing an ``energy 
security plan.''
    If confirmed, I would draw on the expertise of the U.S. energy-
policy community to identify areas of potential cooperation in the 
energy sector, through some combination of bilateral, multilateral, and 
private sector initiatives. On the transportation side, potential areas 
of cooperation include energy efficiency and biofuels. With respect to 
power generation, some areas we might explore include energy 
efficiency, renewable energy (including wind, solar, and geothermal 
power), liquefied natural gas infrastructure, nuclear energy, clean 
coal technologies, and other energy technologies.

    Question. Your duties as Deputy Assistant Secretary (DAS) for 
Energy, Sanctions and Commodities covered a wide range of issues, 
including energy. As DAS of State for Energy, Sanctions and 
Commodities, what percentage of your time do you estimate was spent on 
energy issues? What were your primary responsibilities? Last year 
Secretary Rice created an International Energy Coordinator. Please 
describe how that position affected operations of your office.

    Answer. As Deputy Assistant Secretary for Energy, Sanctions and 
Commodities for the past 4 years, I have divided my time among three 
principal issues: energy, sanctions, and conflict diamonds. While the 
workload has fluctuated considerably during this period, on balance, I 
spend approximately two thirds of my time on energy issues, with the 
remainder devoted to sanctions and diamonds.
    My primary responsibilities on the energy front include managing 
the U.S. relationship with the International Energy Agency, including 
serving on the IEA Governing Board and as chairman of the principal 
policy committee of the IEA, the Standing Group on Long-Term 
Cooperation. I am also heavily involved with United States-China energy 
issues, G-8 energy policy, the opening of Libya to United States energy 
investment, and energy policy issues with Russia, Venezuela, and 
Ecuador, among other countries.
    On the sanctions front, my office is responsible for coordinating 
the State Department's role in the interagency terrorist financing 
policy process, and we have primary responsibility for implementation 
of the Iran Sanctions Act. On conflict diamonds, I lead the interagency 
delegation to the annual Kimberley Process plenary meetings and 
coordinate interagency policy.
    The EEB energy office works very closely and productively with the 
newly created position of International Energy Coordinator; areas of 
particular coordination include biofuels, other new energy 
technologies, and innovative public/private partnerships.

    Question. Earlier this year, Secretary Rice signed an MOU 
(Memorandum of Understanding) on biofuels cooperation with her 
Brazilian counterpart, and President Bush announced the initiatives 
with the President of Brazil.
    What role do you believe that cooperation on biofuels and other 
energy security issues can have on improving United States relations 
with countries of the Western Hemisphere and standing amongst the 
general public?
    What role do you believe that Chile should play in the United 
States-Brazil led biofuels initiative?
    What impact would reducing or removing current United States import 
restrictions on biofuels have on United States relations with Chile and 
other nations of the Western Hemisphere?

    Answer. Cooperation on biofuels has already had an important, 
positive influence on U.S. relations with countries of the Western 
Hemisphere. Biofuels cooperation demonstrates our desire to work with 
other governments that share institutional, democratic values toward 
the improvement of the daily lives of people in our hemisphere. Our 
partnership with Brazil is recognition of that nation's important role 
in the hemisphere and its innovative record in the area of renewable 
energy. Additionally, our work to help develop viable biofuels 
industries in specific countries in the Western Hemisphere--the 
Dominican Republic, El Salvador, Haiti, and St. Kitts and Nevis--
reflects our interest in promoting economic development and energy 
diversification.
    While Chile is not a target country of our biofuels initiative with 
Brazil, that initiative has the potential to benefit Chile. The 
initiative has three parts: (1) helping target countries establish 
biofuels industries for domestic consumption; (2) research and 
development of cellulosic ethanol technology; and (3) harmonizing 
international standards for ethanol. Our efforts on research and 
development should benefit Chile and other countries over time by 
bringing down the costs of cellulosic ethanol production, a development 
of potential value to Chile given its prospects for developing a 
cellulosic ethanol industry. The international standards harmonization 
efforts should also assist all countries interested in biofuels 
production and trade.
    While Brazil would clearly welcome the removal of import 
restrictions on biofuels, such action would have minimal impact on 
Chile, which currently is not a biofuels producer.
    If confirmed, I would plan to explore with United States agencies 
and the Chilean Government other concrete steps we could take to 
strengthen bilateral cooperation on biofuels with Chile.

    Question. Chile has become an important transshipment country for 
cocaine destined for Europe; economic prosperity and increasing trade 
have made Chile more attractive to traffickers seeking to launder drug 
profits, especially through the Iquique Free Trade Zone.
    If confirmed, how will you work with the relevant Chilean 
authorities to improve controls on money laundering and tracking and 
halting the importation of precursor chemicals for the manufacture of 
cocaine, especially those passed on to Bolivia? Should the United 
States Government consider developing a major cooperative agreement 
with the Chilean Government centered on stemming the transit of drugs 
through the north of Chile? Should the United States Government enter 
into talks with the Chilean Government regarding establishing a Drug 
Enforcement Administration (DEA) office in Chile?

    Answer. Antinarcotics cooperation with Chile is strong. DEA's 
office in Chile works closely with the two national police agencies and 
with prosecutors nationwide. DEA cooperation with the investigative 
police's money laundering unit recently led to the disruption and 
dismantlement in Chile and the United States of a money laundering 
ring.
    Chile is aware of the increase in drugs flowing through its 
northern border. DEA has helped establish a multiagency Chilean law 
enforcement initiative in Arica, Chile's northernmost city. Chile's 
investigative police, coast guard, and customs agents now work together 
to fight land and sea shipments of drugs. If confirmed, I will pursue 
increased cooperation between Government of Chile law enforcement 
agencies and members of the embassy's law enforcement community, and 
support Government of Chile efforts to improve interagency cooperation.
    State Department International Narcotics and Law Enforcement (INL) 
funding has been used to train police, prosecutors, and members of 
Chile's Financial Intelligence Unit in anti-money laundering efforts. 
INL funding has also provided needed equipment to counternarcotics 
police. The training and professionalism of Chilean law enforcement are 
commendable. However, resources are insufficient to expand 
investigative initiatives. The issue of cooperation with Chilean 
authorities to improve anti-money laundering efforts is discussed in 
the answer to Question 10.
    All companies exporting precursor chemicals must register with the 
Government of Chile. Chile's police investigate all exports of 
precursor chemicals to Bolivia, and pass on real-time intelligence on 
suspicious shipments to Bolivian police that have been DEA-vetted. Both 
Chilean police forces participate in DEA-sponsored enforcement 
initiatives to coordinate monitoring of precursor chemicals all over 
South America. The embassy continues to emphasize and develop 
communication between Chilean and Bolivian police.
    The Government of Chile has recently begun formulating a national 
security plan. One focus of this plan is securing Chile's northern 
borders from drugs and increasing interagency cooperation in 
counternarcotics efforts. The Government of Chile has been in regular 
communication with the embassy (State, FBI and DEA) about their plan.

    Question. In 2005, Peru's Congress voted to unilaterally redraw the 
maritime boundary with Chile, claiming more than 10,000 square miles of 
ocean space now under Chilean control. Chile claims the disputed area 
quoting a 1929 treaty, whereas Peru says the treaty established land 
limits but not maritime boundaries. In June 2007, Peruvian President 
Alan Garcia declared that he would take Peru's case to the 
International Criminal Court at The Hague, and relations have 
deteriorated since. Early last month, Peru published an official map 
with the new marine boundary, provoking a diplomatic protest from 
Chile. The Atacama border dispute was a border dispute between Chile 
and Bolivia in the 1800s which ended in Chilean annexation of all of 
the Bolivian Coast and the southern tip of Bolivia's ally Peru during 
the War of the Pacific 1879-1883.
    Over a century later, for some, these border disputes remain 
unresolved. What should the United States Government position be 
regarding these border issues (Peru and Bolivia)? Should the United 
States mediate if the situation deteriorates?

    Answer. The United States Government first and foremost considers 
these border disputes between Chile and Peru and Chile and Bolivia as 
matters to be resolved between those respective nations.
    Fortunately, we have seen on the part of all three nations a 
willingness to discuss the issues cordially and frankly and in 
accordance with international law and practice. This reflects the good 
relations extant between Chile and Peru and Chile and Bolivia, 
respectively.
    While we do not seek a role in mediating these disputes, the United 
States' good offices are always available to our friends.

    Question. Reports submitted to the United States Congress by 
relevant United States Government agencies highlight an increase of 
activity to support Islamic terrorist groups in the tri-border region 
of South America (Argentina, Brazil, and Paraguay). This support is 
happening mostly in the form of money laundering and transfers to and 
from regions overseas.
    Is cooperation between the United States and Chile regarding 
international terrorism satisfactory? Are Chilean laws and financial 
sector monitoring sufficiently strong to insulate it from being used by 
terrorist groups to launder money and transfer money to and from 
regions overseas? In what areas can you work with the Chilean 
Government to help strengthen their response to terrorist threats?

    Answer. Cooperation between the United States and Chile on money 
laundering, including that related to international terrorism, is 
excellent. Chile's relative geographical isolation and reputation for 
probity have for some time lessened Chile's vulnerability to money 
laundering, drugs, and terrorism. But its integration into the global 
economy has changed that, and the Government of Chile has come to 
recognize these new threats. Many United States Government agencies 
work with Chilean law enforcement, prosecutors, judges, financial 
intelligence unit (FIU), and government officials to combat these 
crimes.
    A few examples:
    Chile has a special unit, the Grupo de Operaciones Especializadas 
(GOPE), a 300-person unit of the Carabineros police force, which serves 
as Chile's primary counterterrorist reaction force. GOPE participates 
each year in Exercise Fuerzas Comando, a SOUTHCOM-sponsored special 
operations seminar designed to refine the tactics, techniques, and 
procedures used by special operations counterterrorism forces.
    The State Department and the U.S. Drug Enforcement Administration 
(DEA) run regular seminars to train police officials in 
counternarcotics investigative techniques. A unit trained by one of 
these seminars produced Chile's first-ever arrest for trafficking crack 
cocaine.
    Inside the judicial system itself, the State Department and 
Treasury Department have trained police, prosecutors, and members of 
Chile's FIU in how to develop and successfully prosecute complex money 
laundering cases. Prosecutions of money laundering have increased in 
the last year.
    The United States Government continually shares information about 
criminal activity with appropriate authorities within the Chilean 
Government. In sum, Chile has shown itself to be a reliable partner 
interested in working with us to address these global challenges.
    The embassy cooperates with Chilean police and prosecutors in 
monitoring possible terrorist finance activity, and is currently 
examining with the Chileans the possibility of prosecuting one of these 
cases.
    With regard to financial sector monitoring, Chile passed anti-money 
laundering laws in December 2003 and August 2006, but we believe there 
is still room for improvement. The FIU, prosecutors, and police are 
hindered in investigations by Chile's strict bank secrecy laws. Draft 
legislation that would facilitate lifting bank secrecy for the FIU and 
public prosecutors is currently sitting in Chile's lower house of 
Congress. If confirmed, I will emphasize to the Government of Chile the 
importance of enacting legislation that fully meets international 
standards and doing everything possible to facilitate investigations. 
Terrorist financing legislation appears to be solid, but has yet to be 
tested.
    We have a positive and constructive relationship with Chile's 
Treasury Department, Central Bank, and Financial Intelligence Unit. 
Chile's FIU requires additional institutional support and capacity-
building to be more effective. Additionally, nonbank financial 
institutions, such as money exchange houses and legal cash couriers, 
currently do not fall under the supervision of any regulatory body for 
compliance with anti-money laundering and counterterrorist financing 
standards.
    Our next area of focus will be the judiciary. Police and 
prosecutors have benefited from United States Government training in 
the last 2 years, but are finding that many judges have an insufficient 
understanding of these relatively new crimes to effectively adjudicate 
cases. Additional training of judges in financial crimes would 
strengthen Chile's ability to protect itself from being used by drug 
traffickers and terrorist financiers.

    Question. The potential onslaught of the increase in sea level that 
is expected to result from a global warming of the atmosphere is of 
chief concern to countries with long coast lines like Chile. In what 
areas could the United States work with the Chilean Government jointly 
in this regard?
    Do you believe that the United States should encourage Chile to 
participate in negotiations under the United Nations Framework 
Convention on Climate Change with the intent of agreeing to binding 
agreements to limit greenhouse gas emissions?

    Answer. In association with the United States-Chile Free Trade 
Agreement (FTA), we negotiated an Environmental Cooperation Agreement 
(ECA) that established a framework for United States-Chile cooperation 
on environmental issues. Under the FTA and ECA, we have worked with 
Chile on a number of projects that could help combat climate change. 
For example, we have worked together to promote the development and use 
of clean energy. In addition, the 2007-2008 ECA Work Plan calls for us 
to consult with Chile on approaches to clean energy. Under the umbrella 
of the ECA Work Plan, the U.S. Trade and Development Agency has funded 
a ``reverse trade mission'' on geothermal power for a delegation of 
Chilean officials from the private and public sectors. The group will 
be in the United States September 28-October 1, meeting with U.S. 
Government officials as well as U.S. company representatives. Other 
specific activities contemplated in the plan include promoting other 
renewable energy opportunities and sharing prospective policy, 
regulatory, and financial models for the adoption of renewable energy 
technologies. Additionally, the plan calls for binational consultations 
on ways to improve energy efficiency in selected industry and 
construction sectors; exploration of establishment of a program on 
appliance standards and labeling; and support for the Clean Fuels 
Partnership initiative to help reduce pollution in the transport 
sector.

    Question. Chile and the United States enjoy an excellent 
relationship. Today, more than ever, our countries work together on a 
range of important issues, not the least of which is promoting free 
trade. In that regard, Chile is a noteworthy success story. 
Nevertheless, political relationships and cooperation between our two 
countries could be deeper--Chile's coalition government did not support 
Guatemala's candidacy to be a member of the Security Council of the 
United Nations over Venezuela and does not support United States 
efforts to condemn human rights abuses committed by the Cuban 
Government.
    What are your suggestions to deepen political ties between our two 
countries? Is there interest in the United States Government to award 
Chile with Major Non-NATO Ally status? If so, if confirmed, what 
initiatives will you develop to meet this objective?

    Answer. Since President Bush's meeting with President Bachelet in 
the White House in June 2006, the United States and Chile have 
exchanged several high-level visits designed to deepen consultations on 
a wide range of bilateral and multilateral issues, including promotion 
of democracy, human rights, regional security, nonproliferation, free 
trade, energy, science and technology and, most recently, education. In 
this context, we have boosted military exchanges and exercises, and 
strengthened consultations between senior-level officials at the State 
Department, Defense Department, and U.S. Southern Command and their 
Chilean counterparts.
    Chile and the United States share a common vision on the importance 
of working in multilateral fora. Chile has a proven record of support 
for democratic principles in the Organization of American States and is 
an active participant in the Community of Democracies, which it chaired 
in 2005.
    We have a vigorous military-to-military relationship with Chile, 
which includes several annual exercises and bilateral agreements. 
Secretary Gates is planning to visit Chile in early October to further 
that relationship. There is no current proposal on Major Non-NATO Ally 
(MNNA) status; however, we are not opposed to pursuing MNNA if it is in 
the best interests of both the United States and Chile.
    If confirmed, I will work with the administration, Congress, and 
the Chilean Government to identify additional opportunities for 
cooperation in the political and security spheres.

    Question. Chile and the United States enjoy an excellent 
relationship, but in recent times the United States's image in Chile 
has suffered.
    Different ambassadors have taken interest in promoting activities 
to advance understanding between our two countries. Ambassador Craig 
Kelly promoted Little League baseball in Chile during his tenure with 
positive results. If confirmed, in addition to the traditional issues 
that make up our foreign policies to Chile, what new initiatives will 
you pursue to enhance the United States's image by means of public 
diplomacy?

    Answer. As the question indicates, the overall relationship between 
Chile and the United States is excellent. Surveys indicate that the 
majority of Chileans consider the United States to be the country's 
most important partner in economics, trade, defense, security, and 
other areas. The United States is the country of choice for Chileans 
who pursue academic and research programs (particularly at the graduate 
level), and the United States is a very popular destination for 
Chileans who can afford recreational travel. American films, 
television, and other media are immensely popular in Chile. 
Nevertheless, some aspects of United States politics, culture, society, 
and values are not as well understood in Chile as they might be, which 
underlines the need for effective public diplomacy activities that will 
bring the ambassador, other embassy officials, and visitors from the 
United States into direct contact with a variety of audiences 
throughout Chile.
    I believe it is important that our public diplomacy programs in 
Chile reach a broad variety of audiences--from influential policymakers 
in Santiago to young people, men, and women from diverse cultural 
groups, and those in economically disadvantaged communities throughout 
the country.
    If confirmed, I will look for ways to work with embassy staff and 
visitors to reach out to diverse audiences in Chile with a positive 
message of United States engagement. In this regard, I would expect to 
draw on a variety of existing and new exchange initiatives, including 
our flagship Fulbright academic exchange program, our bilateral 
environmental agreement, various English language teaching programs, 
our active network of 10 Binational Centers, and 5 American Corners, 
and sports diplomacy programs. One of the most promising developments 
in this area is our new Equal Opportunity Scholarship program with 
Chile, which will support doctoral study in the United States by a 
diverse group of up to 100 Chilean students annually, in fields 
addressing Chile's priority national needs. Participating students will 
come from all walks of life and from all parts of Chile; they will be 
placed in a wide range of United States' universities with high-quality 
graduate programs in their fields, including science and technology, 
public policy, education, environmental studies, and public health.
                                 ______
                                 

       Responses of Hon. David T. Johnson to Questions Submitted 
                      by Senator Richard G. Lugar

    Question. It has been reported that the United States Government, 
the Mexican and Central American Governments are in discussions about a 
bilateral cooperation program of assistance by the United States to 
help Mexican and Central American counternarcotics efforts. Is such a 
package in development? When did dialog on the Mexico/Central America 
aid package begin? Please give specific dates. What are the aid 
package's components? When do you expect that it will be announced? 
What level of funding, and what types of assistance (what accounts), do 
you expect will be requested?

    Answer. The Governments of the United States and Mexico are 
discussing cooperative steps to address what President Bush described 
as a ``common problem on our shared border''--drug and other illegal 
trafficking, and the violence associated with it. We are also 
considering the best way to support the countries of Central America 
confront the transnational threats we share, including narcotics 
trafficking, organized crime, and criminal gangs.
    President Bush first discussed security cooperation with then 
President-elect Calderon in November 2006. These discussions continued 
during the President's visit to the region in March 2007, as outlined 
in the joint United States-Mexico Communique of March 2007. In May, the 
Government of Mexico approached the United States with suggested areas 
for greater cooperation, and technical experts from both governments 
subsequently began meeting to define needs and areas where we might 
usefully work together. At the North American Leaders' Summit in 
Montebello, Canada, on August 20-21, Presidents Bush and Calderon 
agreed to address the drug trafficking and narcotics-related violence 
affecting both countries. Separately, in August, the member countries 
of the Central American System for Integration (SICA) held internal 
discussions about developing their own regional strategy to combat 
crime. United States embassies in Central America have also advised on 
the types of projects that could assist the Central American initiative 
and support our policy goals.
    Our continuing discussions with the Governments of Mexico and 
Central American countries are focusing on three broad areas: 
counternarcotics and border security; public security and law 
enforcement; and strengthening institutions and rule of law. Possible 
areas of joint work could include strengthening Mexico's southern 
border, enhanced computer and database networks to make Mexico's law 
enforcement agencies more efficient and transparent, and measures to 
professionalize Mexico's federal law enforcement personnel. The 
administration is also considering programs that would help law 
enforcement and court institutions to ensure due process, transparency, 
proper oversight, responsiveness to citizen complaints, and protection 
of human rights. For Central America, a number of options are being 
considered, including the provision of tools, training, and technical 
expertise.
    The nature and extent of cooperation with Mexico and Central 
America have not been finalized, so no official announcement has been 
scheduled. The administration is assessing how to fund any resulting 
programs in a fiscally responsible manner as well as which accounts 
might be appropriate to execute these programs. The administration 
intends to continue its exchange with the Congress as the outlines of 
our proposed cooperative effort take shape. I look forward to providing 
additional details to you and your staff as soon as possible.

 
                              NOMINATIONS

                              ----------                              


                       WEDNESDAY, OCTOBER 3, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
Mathieu, Gail D., to be Ambassador to the Republic of Namibia
Mozena, Dan, to be Ambassador to the Republic of Angola
Reddick, Eunice S., to be Ambassador to the Gabonese Republic, 
        and to serve concurrently and without additional 
        compensation as Ambassador to the Democratic Republic 
        of Sao Tome and Principe
Steiger, William R., to be Ambassador to the Republic of 
        Mozambique
                              ----------                              

    The committee met, pursuant to notice, at 9:03 a.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Russell D. 
Feingold, presiding.
    Present: Senator Feingold.

         OPENING STATEMENT OF HON. RUSSELL D. FEINGOLD,
                  U.S. SENATOR FROM WISCONSIN

    Senator Feingold. I call the committee to order, and thank 
you very much, everyone, for being here.
    In the past 6 months, more than a dozen distinguished 
individuals have appeared before this committee to discuss 
their nominations to be U.S. Ambassadors to African countries. 
Some were on their way to countries that regularly make 
headlines, albeit usually buried far back in the world section, 
and usually for the wrong reasons, like Nigeria and Zimbabwe 
and Chad, while others move their lives and their families to 
places that a lot of people would have trouble finding on a 
map, like the Gambia, Swaziland, or Comoros. Each of these 
positions was important, and the same is true for today's 
nominees, who make up the last four of this year's Foreign 
Service rotation.
    Despite five coups since independence in 1975, the people 
of Sao Tome and Principe have established a relatively 
functional multiparty democracy that is working to overcome 
internal political divisions. On my way to Kinshasa this 
summer, I made a brief overnight stop in Sao Tome. I was able 
to meet with the foreign minister, with whom I discussed 
regional and maritime security implications in the Gulf of 
Guinea, a relevant and timely issue, to say the least. So, Ms. 
Reddick, I look forward to discussing your nomination to be 
Ambassador to Gabon and Sao Tome and Principe. And I assume you 
already know that when you go to Sao Tome, the sign says, 
``Welcome to Sao Tome, and Don't Forget Principe.'' That's what 
it actually says on the sign.
    Just down the coast is one of Africa's largest countries, 
an unfortunate example of the so-called ``resource curse,'' 
which enjoyed a 14 percent GDP growth last year, while more 
than 40 percent of its population struggles to survive on less 
than one dollar a day. When Mr. Dan Mozena was sent to 
neighboring Zambia for his Foreign Service tour in 1982, Angola 
was embroiled in a full-blown civil war. When he returned as 
Deputy Chief of Mission in 2001, Mr. Mozena was a witness to 
the final resolution of this conflict and the extensive healing 
and reconstruction that followed. So, I look forward to hearing 
how Mr. Mozena, if confirmed, will apply lessons learned from 
those previous tours to help address the problems and 
possibilities that Angola faces today.
    Angola's southern neighbor, Namibia, is noted for having 
one of the lowest levels of corruption on the continent. It 
also has some of the world's greatest income inequality. This 
will present a challenge for Ambassador Gail Dennise Mathieu, 
if confirmed as United States Ambassador to Namibia. Her most 
recent overseas posting, as Ambassador to Niger, the world's 
poorest country, will surely be useful for devising innovative 
ways the United States can contribute to enhanced development 
and more even distribution of Namibia's resources.
    On the opposite coast, Mozambique is recovering, with 
notable success, from the devastations of civil war, natural 
disasters, and the HIV/AIDS epidemic, thanks, in part, to 
assistance from the United States. The country has received 
more than $350 million in United States funding as a focus 
country for the President's Emergency Plan for AIDS Relief, is 
home to USAID and Peace Corps programs, and recently accepted a 
Millennium Challenge Compact worth $507 million designed to 
reduce poverty in Mozambique by promoting sustainable economic 
growth. If confirmed, Dr. William Steiger will have the 
responsibility to oversee the use of these funds and ensure 
that they contribute to the objectives for which they were 
intended. Dr. Steiger's 6 years of experience as the director 
of the Office of Global Health Affairs at the Department of 
Health and Human Services, would be very useful in this regard.
    I'd also like to point out that we have two nominees today 
with ties to my home State of Wisconsin. Of course, Dr. Steiger 
is a native Wisconsinite, and served as education policy 
advisor for Wisconsin's Governor Tommy Thompson in the 1990s. 
Dr. Steiger's father, whom I remember well, was a respected 
member of the Wisconsin State Assembly before a very 
distinguished tenure as a Member of the United States House of 
Representatives for 11 years.
    Although not originally from Wisconsin, Mr. Dan Mozena 
earned his master's of public affairs at my alma mater, the 
University of Wisconsin at Madison. Football team is 5-0, and 
fifth in the Nation, just for the record. [Laughter.]
    It is nice to have our State so well represented here this 
morning.
    At confirmation hearings, I'm consistently struck by how 
professional, knowledgeable, committed, and enthusiastic the 
nominees are. It is when I encounter diplomats in their posts, 
however, that I am really able to appreciate that individual 
and collective contribution to the achievement of critical U.S. 
objectives on the continent.
    So, I'd like to thank each of you for not just accepting, 
but embracing the responsibilities of serving as United States 
foreign ambassadors. I'd like to thank you for coming here 
today, and extend a warm welcome to your families and friends 
who have come with you. I know that these people play a very 
important role in enabling you to do your jobs well, so they 
also deserve recognition, and I'm glad they're here. And, when 
you make your remarks, if you want to introduce anybody--family 
or friends--please do.
    So, I now invite each of you to deliver your testimony, 
beginning with Ms. Reddick, to be followed by some questions 
about your priorities and plans, if confirmed to these 
positions.
    Ms. Reddick, you may proceed.

STATEMENT OF EUNICE S. REDDICK, NOMINEE TO BE AMBASSADOR TO THE 
   GABONESE REPUBLIC, AND TO SERVE CONCURRENTLY AND WITHOUT 
    ADDITIONAL COMPENSATION AS AMBASSADOR TO THE DEMOCRATIC 
               REPUBLIC OF SAO TOME AND PRINCIPE

    Ms. Reddick. Mr. Chairman, I am honored to appear before 
you today. I wish to express my gratitude to the President and 
to Secretary Rice for the trust and confidence they have placed 
in me as their nominee for Ambassador to the Gabonese Republic 
and the Democratic Republic of Sao Tome and Principe.
    If confirmed, I look forward to working with you and other 
Members of Congress to advance the interests and values of the 
American people in Gabon and Sao Tome and Principe.
    I would like to take this time to introduce my husband, 
Marc Wall, who recently returned from Chad, where he served as 
Chief of Mission, my daughter, Sarah, and son, Gregory.
    Senator Feingold. Well, I remember the Ambassador when I 
went to Chad, now that I look at him. Welcome.
    Ms. Reddick. Gabon is one of Africa's most stable 
countries, and it has been a helpful partner to the United 
States in the central Africa region, and Africa as a whole, and 
in multilateral bodies such as the U.N. United States military 
engagement with Gabon, which has developed in several areas, is 
crucial to promote the security of the strategic Gulf of Guinea 
region. If confirmed, I will work closely with the Gabonese 
civilian and military leadership, our military, notably the new 
Africa Command, to ensure our relations with Gabon help 
contribute to a safe and secure Gulf of Guinea region.
    Gabon is one of sub-Saharan Africa's most prosperous 
nations. Although oil earnings have given Gabon one of the 
highest per capita GDPs in sub-Saharan Africa, income 
distribution is extremely skewed, and 60 to 70 percent of 
Gabonese live below the poverty line. Transparency, 
accountability, and corruption must be addressed if Gabon is to 
surmount its economic challenges.
    To increase economic opportunity for its citizens, Gabon 
has taken steps to move from a petroleum-based economy to a 
diversified economy. If confirmed, I will support Gabon's 
economic diversification efforts by encouraging good, 
transparent governance, sound economic management, and private 
sector-led development. I will encourage greater us of measures 
provided under the Africa Growth and Opportunity Act to 
increase Gabon's trade with the United States and spur American 
investment in Gabon. I will also support Gabon's efforts for 
environmentally responsible management of its rich and diverse 
forest resources.
    Let me now turn to the other country to which I am 
nominated to serve as ambassador. The island state of Sao Tome 
and Principe is the second-smallest and one of the poorest 
countries in Africa. Nevertheless, as you mentioned earlier, it 
is a vibrant multiparty democracy, and, since the democratic 
reforms of the early 1990s, has had a history of free and fair 
elections. Sao Tome and Principe is now at the threshold of a 
dramatic change, with prospects for development of oil 
resources. Carefully managed, impending oil revenues could 
build infrastructure and reduce poverty. Mismanaged, an oil 
boom could threaten Sao Tome and Principe's young democracy, 
security, and stability. The United States is committed to 
assisting Sao Tome and Principe to improve institutional 
capacity needed to reduce poverty and stimulate economic 
growth. If confirmed, I will support the recently approved 
Millennium Challenge Corporation threshold program for Sao Tome 
and Principe and other efforts to improve economic performance 
and efficiency. I will support U.S. business interests and find 
ways to encourage U.S. investment. I will also work with the 
government and the donor community to ensure that Sao Tome and 
Principe is prepared to invest oil revenues wisely in the 
country's development and its people.
    If confirmed as ambassador, no goal will be more important 
than protecting the lives, interests, and welfare of Americans 
living and traveling in Gabon, in Sao Tome and Principe. In 
addition, I will work with the leadership and peoples of the 
two nations to foster stability throughout the region, support 
good governance and democratization, and increase economic 
prosperity.
    Mr. Chairman, if confirmed I look forward to serving as our 
next Ambassador to the Gabonese Republic and the Democratic 
Republic of Sao Tome and Principe. I would be pleased to 
respond to any questions you might have.
    Thank you.
    [The prepared statement of Ms. Reddick follows:]

 Prepared Statement of Eunice S. Reddick, Nominee to be Ambassador to 
the Gabonese Republic, and To Serve Concurrently and Without Additional 
 Compensation as Ambassador to the Democratic Republic of Sao Tome and 
                                Principe

    Mr. Chairman and members of the committee, I am honored to appear 
before you today. I wish to express my gratitude to President Bush and 
to Secretary Rice for the trust and confidence they have placed in me 
as their nominee for Ambassador to the Gabonese Republic and the 
Democratic Republic of Sao Tome and Principe. If confirmed, I look 
forward to working with you and other Members of Congress to advance 
the interests and values of the American people in Gabon and Sao Tome 
and Principe.
    I would like to take this time to introduce my husband, Marc Wall, 
who recently returned from Chad where he served as Chief of Mission, my 
daughter Sarah, and son Gregory.
    Gabon is one of Africa's most stable countries despite its location 
in a volatile region. When nearby conflicts have threatened the safety 
of American citizens, Gabon has provided safe haven for evacuees. Gabon 
has been a helpful partner to the United States in the Central Africa 
region, in Africa as a whole, and in multilateral fora such as the U.N. 
President Bongo's seniority among African leaders and his knowledge of 
regional issues have allowed him to play an important role in attempts 
to resolve regional conflicts. The United States has trained Gabonese 
forces under the African Contingency Operations Training Assistance 
(ACOTA) program, and today Gabon leads the peacekeeping forces in the 
Central African Republic, providing the majority of deployed forces 
there. Members of the Gabonese armed forces receive professional 
training under the International Military Education and Training (IMET) 
programs. To promote the security of the strategic Gulf of Guinea 
region, origin of a growing share of United States oil imports, Unitedf 
States military engagement with Gabon has developed in several areas, 
including training exercises, ship visits, and high-level exchanges. If 
confirmed, I will work closely with the Gabonese civilian and military 
leadership, our European Command and the new Africa Command to ensure 
our relations with Gabon help contribute to a safe and secure Gulf of 
Guinea region.
    President Bongo has held office since 1967, and in December 2005 he 
was reelected for a new 7-year term. Although the 2005 Presidential 
election was marred by irregularities, legislative elections in 
December 2006, in which the ruling Gabonese Democratic Party (PDG) won 
two-thirds of the seats, were deemed free and fair by independent 
observers. However, a single party--the PDG--has remained in power 
since 1968, and democratic institutions, particularly civil society, 
remain weak. There are some restrictions on press freedoms, and the 
legal and judicial system is weak and susceptible to government 
influence. Of particular concern is trafficking in persons, and child 
labor resulting from trafficking. Gabon has taken steps to address the 
problem of trafficking of children from neighboring African countries, 
such as arresting alleged traffickers and providing facilities for 
victimized children, but more must be done to combat this problem. The 
United States has worked with Gabon on this issue mainly via a 
regional, Department of Labor-funded project. If confirmed, I will 
continue to engage the government to do more to halt child trafficking; 
I will also continue to engage leaders from government, opposition 
parties, and civil society to increase respect for human rights issues, 
and further strengthen democratization.
    Gabon is one of sub-Saharan Africa's most prosperous nations, 
thanks to its oil wealth. Oil accounts for 77 percent of Gabon's 
exports, 56 prcent of government revenues, and 45 percent of GDP. 
Although oil earnings have given Gabon one of the highest per capita 
GDPs in sub-Saharan Africa, income distribution is extremely skewed. 
Gabon's ranking on human development indicators is not commensurate 
with its per capita GDP ranking. Recent high oil prices have increased 
production, but oil production and revenues are expected to continue 
their gradual decline. To increase economic opportunity for its 
citizens, Gabon must move from a single-resource petroleum-based 
economy to a diversified economy driven by the private sector and 
focused on poverty reduction. There is the potential for economic 
diversification and growth in ecotourism, natural gas, fishing and 
aquaculture, timber, minerals, and palm oil production. However, 
diversification efforts will face significant challenges in terms of 
the lack of skilled laborers, and the lack of infrastructure.
    Transparency, accountability, and corruption must be addressed if 
Gabon is to surmount its economic challenges. Although much work 
remains to be done regarding implementation, the Government of Gabon 
has publicly committed itself to the principles and criteria of the 
Extractive Industries Transparency Initiative (EITI), which leverages 
multi-stakeholder partnerships to encourage governments and companies 
to publish what they pay and what they receive in relation to 
extractive industries. We hope that Gabon will take full advantage of 
its new 3-year program approved by the International Monetary Fund to 
move ahead with necessary economic reforms. If confirmed, I will 
support Gabon's economic diversification efforts by encouraging good, 
transparent governance; sound economic management; and private-sector 
led development. I will also encourage greater use of measures provided 
under the African Growth and Opportunity Act (AGOA) to increase Gabon's 
trade with the United States and spur American investment in Gabon.
    Nearly 85 percent of Gabon is covered by forests with rich and 
diversified resources. In 2002, President Bongo set aside 10 percent of 
Gabon's territory to create a national park system, but the nation's 
continued commitment to environmentally responsible management requires 
support. Gabon seeks to develop ecotourism as part of its economic 
diversification strategy. However, high raw material prices have 
spurred interest in exploration and resource extraction in many new 
areas, and these sometimes generate conflicts with conservation 
projects. Continued political and financial support from the United 
States and continued engagement by international NGOs will be required 
to sustain progress in this area. In 2002, the United States launched 
the Congo Basin Forest Partnership at the World Summit on Sustainable 
Development, recognizing the importance of the world's second largest 
tropical forest. Since then, the United States has worked closely with 
Gabon and five other countries of the Congo Basin, other donor 
countries, private sector entities, and NGOs to help conserve and 
sustainably manage the Congo Basin forests. The United States 
Government-funded Central African Regional Program for the Environment 
(CARPE) plays a pivotal role in implementing United States Government 
programs on the ground. If confirmed, I will continue to support this 
important work.
    Let me now turn to the other country to which I am nominated to 
serve as ambassador. Sao Tome and Principe is an island state located 
off the west coast of Africa. It is the second smallest and one of the 
poorest countries in Africa. Nevertheless, it is a vibrant, multiparty 
democracy and since the democratic reforms of the early 1990s has had a 
history of free and fair elections. A coup attempt in July 2003 and a 
near collapse of the government in 2005 challenged the country's 
fragile democracy, but successful presidential and legislative 
elections in 2006 created a foundation for long-term stability.
    Sao Tome's economy historically centered on cocoa exports, but 
production today is weak and the government depends heavily on foreign 
donors to meet its obligations. Despite scarce resources, the 
government has done a relatively good job of meeting its people's 
needs, and Sao Tome and Principe ranks as a ``medium human 
development'' country in the U.N. index.
    Sao Tome and Principe is now at the threshold of a dramatic change 
with prospects for development of oil resources. Carefully managed, 
impending oil revenues could build infrastructure, fund education and 
training, and reduce poverty. Mismanaged, an oil boom could threaten 
Sao Tome and Principe's young democracy, security, and stability.
    The country is already experiencing the impact of oil money through 
multi-million dollar oil contract signature bonuses that have recently 
been agreed. Corruption presents a growing threat in this environment. 
To address this threat, the Government of Sao Tome and Principe has 
adopted an exemplary oil revenue management law designed to combat 
corruption and promote the sound management of oil revenues. In 
addition, the Government of Sao Tome and Principe has publicly 
committed itself to the principles and criteria of EITI. Furthermore, 
in January 2005, Sao Tome and Principe set a new standard among EITI-
committed countries when the government signed a production-sharing 
contract with three oil companies that included a clause on 
transparency that makes specific mention of the EITI principles. U.S. 
oil companies have already established a presence and are investing in 
the development of Sao Tome and Principe's potential offshore petroleum 
resource.
    The prospect of oil wealth is increasing expectations among the 
nation's citizens, but production is not expected for at least another 
5 years. Whether or not oil revenues flow in the future, broad and 
sustainable development requires the creation of a business climate 
that can attract private investment. Today, high taxes, poor public 
services, and onerous business regulations compound the disincentives 
inherent in Sao Tome and Principe's small market size, with a 
population of less than 200,000 people.
    The United States is committed to assisting Sao Tome and Principe 
to improve institutional capacity needed to reduce poverty and 
stimulate economic growth. On September 12, the Board of Directors of 
the Millennium Challenge Corporation (MCC) approved a 2-year, $8.66 
million Threshold program to help the Government of Sao Tome and 
Principe to increase revenues through improved tax and customs 
administration and enforcement as well as to reduce the time and costs 
associated with starting a business. The MCC Threshold program will 
complement a World Bank-funded project to enhance public expenditure 
management.
    If confirmed, I will support the MCC program, and other efforts to 
improve economic performance and efficiency. I will support U.S. 
business interests and find ways to encourage U.S. investment. I will 
also work with the government and the donor community to ensure that 
Sao Tome and Principe is prepared to invest oil revenues wisely in the 
country's development and its people.
    The United States is engaged in increasing the capacity of the 
security forces of Sao Tome and Principe with an emphasis on maritime 
security forces in the Gulf of Guinea. We are working together closely 
to help develop a Coast Guard. Sao Tome and Principe welcomes our ship 
visits, and participates in high-level military exchange programs and 
training exercises. The purpose of these programs is to enhance the 
professionalism of the Sao Tome and Principe armed forces.
    Since the early 1990s, Sao Tome has been the home of a $50 million 
transmitting facility for Voice of America. The island's location makes 
it ideal for transmitting and relaying programs over long distances.
    If confirmed as ambassador, no goal will be more important than 
protecting the lives, interests, and welfare of Americans living and 
traveling in Gabon, and Sao Tome, and Principe. In addition, I will 
work with the leadership and peoples of the two nations to foster 
stability throughout the region, support good governance and 
democratization, and increase economic prosperity. While terrorists 
have not focused on either country, I will work with both governments 
to seek to deter and prevent terrorist activities and maintain 
counterterrorism cooperation.
    Mr. Chairman and members of the committee, if confirmed, I look 
forward to serving as our next Ambassador to the Gabonese Republic and 
the Democratic Republic of Sao Tome and Principe. I would be pleased to 
respond to any questions you might have.
    Thank you.

    Senator Feingold. Thank you very much, Ms. Reddick.
    Ambassador Mathieu.

     STATEMENT OF HON. GAIL DENISE MATHIEU, NOMINEE TO BE 
             AMBASSADOR TO THE REPUBLIC OF NAMIBIA

    Ambassador Mathieu. Mr. Chairman, I am pleased and honored 
to appear before you today as President Bush's nominee to serve 
as Ambassador to the Republic of Namibia. I sincerely 
appreciate the confidence that the President and Secretary Rice 
have shown in me by putting forth my name for your 
consideration. I am here this morning with my husband, Erick.
    Senator Feingold. Welcome.
    Ambassador Mathieu. Mr. Chairman, during my assignments 
over the past 10 years, I have been committed to strengthening 
democratic processes, advancing economic development, trade, 
and investment, and building law enforcement and security 
cooperation in Africa. If confirmed, I will continue this work 
with dedication.
    Since independence from apartheid South Africa in 1990, 
Namibia has pursued a path of democracy and free-market 
economics. As Namibia struggles to address multiple challenges, 
unexpected events and historical ties could lead it down a very 
different path in the future. Sustained well-tailored American 
engagement will help ensure that Namibia remains on a positive 
course.
    Today, I would like to focus on three areas where the 
United States can play a critical role in the success of 
Namibia's future.
    First, I am pleased to note that funding for Namibia under 
the President's Emergency Plan for AIDS Relief, also known as 
PEPFAR, is projected to grow to $104 million, up from $91 
million in fiscal year 2007. Namibia's estimated HIV/AIDS 
prevalence rate of 19.7 percent dramatically undermines 
economic growth and social progress. If confirmed as 
ambassador, I will ensure that all mission activities are 
complementary and mutually reinforcing in order to maximize the 
effective use of PEPFAR funds, as well as other available 
resources, for the prevention, care, and treatment of HIV/AIDS.
    Second, it's in our interest to promote economic growth to 
help Namibia reach its full potential as a stable partner for 
the United States and the region. Conclusion of the Millennium 
Challenge Corporation Compact Agreement currently under 
negotiation could lead to the investment of approximately $275 
million that will positively transform the Namibian 
agricultural, tourism, and educational sectors.
    Namibia has seized some opportunities offered by the 
African Growth and Opportunity Act, and, if confirmed, I will 
work to assist Namibia diversify its exports and derive even 
greater benefits. I would also focus on activities to advance 
the empowerment of women in an effort to accelerate Namibia's 
economic development.
    Third, it's essential that Namibia, a maturing democracy, 
consolidate its democratic gains and ensure that economic 
development takes root in a society that is justly ruled. If 
given the opportunity of leading our mission in Windhoek, I 
will work to foster free and fair elections, good governance, 
and continued respect for human rights.
    Mr. Chairman, if confirmed, I will use every opportunity to 
strengthen United States-Namibia cooperation, roll back the 
pandemic of HIV/AIDS, bolster democratic institutions, and 
promote economic prosperity, including opportunities for 
American businesses. I will also fully commit myself to the 
protection of American citizens and interests in Namibia.
    Thank you for inviting me to appear before you today, Mr. 
Chairman, and I would be happy to answer any questions you may 
have.
    [The prepared statement of Ambassador Mathieu follows:]

       Prepared Statement of Gail Denise Mathieu, Nominee to be 
                 Ambassador to the Republic of Namibia

    Mr. Chairman and members of the committee, I am pleased and honored 
to appear before you today as President Bush's nominee to serve as 
Ambassador to the Republic of Namibia. I sincerely appreciate the 
confidence in me that the President and Secretary Rice have shown by 
putting forth my name for your consideration.
    I am here this morning with my husband, Erick.
    Mr. Chairman, During my assignments over the past 10 years as U.S. 
Ambassador to the Republic of Niger, Deputy Chief of Mission in Accra, 
and Deputy Director of West African Affairs, I was committed to 
strengthening democratic processes; advancing economic development, 
trade, and investment; and building cooperation on law enforcement and 
security matters in Africa. If confirmed, I will continue this work 
with dedication.
    Since independence from apartheid South Africa in 1990, Namibia has 
pursued a path of democracy and free market economics. As Namibia 
struggles to address multiple challenges, unexpected events and 
historical ties could lead it down a very different path in the future. 
While our cooperative efforts and assistance programs are essential, 
our diplomatic skills are also needed to keep Namibia's doors open to 
the United States and our interests. Sustained and well-tailored 
American engagement will help ensure that Namibia remains on a positive 
course.
    Today, I would like to focus on three areas where the United States 
can play a critical role in the success of Namibia's future. First, I 
am pleased to note that funding for Namibia under the President's 
Emergency Plan for SIDS Relief, also known as PEPFAR, is projected to 
grow to $104 million, up from $91 million in fiscal year 2007. This 
funding will continue to support Namibia's own efforts to mitigate the 
suffering and enormous cost to society caused by the HIV/AIDS pandemic. 
Namibia has an estimated 19.7 percent HIV/AIDS prevalence rate, one of 
the highest in the world, which dramatically undermines economic growth 
and social progress. While tuberculosis is the leading direct cause of 
death in Namibia, an estimated 60 percent of TB patients are co-
infected with HIV/AIDS. If confirmed as ambassador, I will ensure that 
all mission activities are complementary and mutually reinforcing in 
order to maximize the effective utilization of PEPFAR funds and other 
available resources, for the prevention, care, and treatment of HIV/
AIDS.
    Second, it is in our interest to promote economic growth to help 
Namibia reach its full potential as a stable partner for the United 
States and the region.
    Conclusion of a Millennium Challenge Corporation compact agreement, 
currently under negotiation, could lead to the investment of 
approximately $275 million that would positively transform the Namibian 
agricultural, tourism, and educational sectors. Namibia has seized some 
opportunities offered by the African Growth and Opportunity Act, and if 
confirmed, I would work to assist Namibia diversify its exports and 
derive even greater benefits. I would also focus on activities to 
advance the empowerment of women in an effort to accelerate Namibia's 
economic development.
    Third, it is essential that Namibia, a maturing democracy, 
consolidate its democratic gains and ensure that economic development 
takes root in a society that is justly ruled. The current government 
has expanded the political space for civil society to participate in 
shaping public policy and deterring corruption. If given the 
opportunity of leading our mission in Windhoek, I would work to foster 
future free and fair elections, good governance, and continued respect 
for human rights. A strong democracy in Namibia would serve as a 
regional model.
    Mr. Chairman and members of the committee, if confirmed, I will use 
every opportunity to strengthen United States-Namibia cooperation, roll 
back the pandemic of HIV/AIDS, bolster democratic institutions, and 
promote economic prosperity, including opportunities for American 
businesses. I will also fully commit myself to the protection of 
American citizens and interests in Namibia.
    Thank you for inviting me to appear before you today. I would be 
happy to answer any questions you may have.

    Senator Feingold. Thank you very much, Ms. Mathieu.
    And now, Mr. Mozena.

            STATEMENT OF DAN MOZENA, NOMINEE TO BE 
              AMBASSADOR TO THE REPUBLIC OF ANGOLA

    Mr. Mozena. Good morning, Mr. Chairman.
    I am honored to appear today as the President's nominee as 
United States Ambassador to Angola. I am grateful to the 
President and Secretary Rice for their confidence in me. If 
confirmed, I look forward to working with you and your staff to 
advance United States' interests in Angola.
    If I may, I wish to introduce my wife, Grace----
    Senator Feingold. Welcome to you.
    Mr. Mozena [continuing]. My daughter, Anne, who's here from 
Milwaukee, my cousin, Sean Coleman, and also Mahmud, my friend 
from Bangladesh, who's taking advantage of his presence in 
Washington to see American democracy in action.
    Senator Feingold. Welcome to all of you.
    Mr. Mozena. For the past 36 years, Grace and I have 
journeyed far from our roots in rural Dubuque County, Iowa, 
where I was raised on a dairy farm and where we both attended 
one-room country schools. We began our public service as Peace 
Corps volunteers in then-Zaire, helping villagers raise 
chickens more successfully. That experience made clear that the 
capital city might not be representative of the country. Thus, 
at each posting--Zambia, Zaire, India, Pakistan, Bangladesh--I 
sought to understand the country beyond the capital. If 
confirmed, I will work hard to know Angola beyond Luanda.
    As director of Southern African Affairs, I visited Angola 
and I worked from the Washington perspective to further our 
interests there. If confirmed, I will continue these efforts.
    United States relations with Angola are good, and 
improving. Angola matters to American interests. A stable, 
democratic Angola is essential to stability in central and 
southern Africa. Its military can help keep the peace on a 
troubled continent. Angola is an important supplier of oil. It 
could also be a major food exporter in a food-insecure region. 
If confirmed, I would foster dynamic trade and investment links 
between our countries.
    Ending over four decades of conflict in 2002, Angola has 
achieved much: resettling over 400,000 refugees, reintegrating 
former soldiers into society, and removing thousands of land 
mines. Angola's GDP grew, as you rightly noted, at a very high 
rate in 2006. The budget is in surplus; reserves are growing; 
inflation is down from triple-digit figures only a few years 
ago to 12 percent today.
    Nonetheless, much remains to be done. Angola ranks near the 
bottom of social and development indicators. The people of 
Angola are not benefiting from the nation's wealth. Thanks to 
high oil prices and increasing oil production, Angola has 
money, but money alone does not build a country. Corruption 
remains a challenge as Angola seeks to bolster the institutions 
of good governance.
    Angolan President dos Santos announced legislative and 
Presidential elections in 2008 and 2009, respectively. The 
country has registered 8 million of its citizens to vote, 
paving the way toward elections that could signal Angola's 
emergence as a democracy. If confirmed, Mr. Chairman, I would 
promote democracy, respect for human rights, and good 
governance. I would work to jumpstart agriculture, bolster 
Angolan peacekeeping capacity, and fight HIV/AIDS and malaria.
    In my comments for the record, I have expanded on these 
challenges.
    There are no quick fixes. Perseverance is needed to help 
Angola build institutions and human capabilities. Mr. Chairman, 
should I be confirmed, I will work hard to build a strong, 
bilateral relationship with Angola for the betterment of both 
America and Angola.
    Thank you, Mr. Chairman, for this opportunity to address 
you, and I look forward to answering any questions you may 
have.
    [The prepared statement of Mr. Mozena follows:]

            Prepared Statement of Dan Mozena, Nominee to be 
                  Ambassador to the Republic of Angola

    Mr. Chairman, members of the committee, I am honored to appear 
before you today as the President's nominee to serve as United States 
Ambassador to Angola. I am grateful to President Bush and Secretary 
Rice for their confidence in me. If confirmed, I look forward to 
working with you and your staff to advance United States interests in 
Angola, especially in the promotion of a stable, democratic, and 
transparent Angola that uses its rich resources to better the lives of 
its citizens.
    If I may, I wish to introduce my wife, Grace, and my daughter, 
Anne. For the past 36 years, Grace and I have been on a journey that 
has taken us far from our roots in rural Dubuque County, Iowa, where I 
was raised on a dairy farm and where we both attended one-room country 
schools.
    Grace and I began our careers of public service as Peace Corps 
volunteers in what was then called Zaire, where we helped village 
farmers develop better methods of raising chickens. Although Peace 
Corps life in remote Zaire was far removed from the world of diplomacy, 
those experiences taught us that life in developing country capitals is 
hardly representative of the situation in the nation as a whole. Thus, 
at each of my postings--Zambia, Zaire, India, Pakistan, and 
Bangladesh--I reached out to know and understand the host country 
beyond the capital city. If confirmed, I will work hard to know Angola 
beyond Luanda. My most recent assignment as Director of the Office of 
Southern African Affairs enabled me to work from a Washington 
perspective to further our interests in Angola. As Director, I visited 
Angola to see firsthand the challenges Angola faces and our role in 
helping the Angolan people have hope for a brighter future. If 
confirmed, I will continue these efforts.
    United States relations with Angola are good and improving. Angola 
matters to United States interests. A stable, democratic Angola is 
essential to stability in central and southern Africa. Its effective 
military has great potential to provide forces for peacekeeping in 
Africa. It is an important supplier of oil, and it has potential to 
become a major food exporter in a region that is often food insecure. 
Angola can be a more dynamic partner for United States trade and 
investment, and if confirmed I would seek to bolster trade and 
investment links between our countries.
    Since the end of four decades of war in 2002, Angola has achieved 
much: bringing home and resettling over 400,000 war refugees; disarming 
and reintegrating former soldiers into Angolan society; and removing 
thousands of land mines, thus restoring vital transportation routes and 
reopening rich farm land. Angola's GDP grew at a rate of 19.5 percent 
in 2006; the budget is in surplus, and reserves are growing. Inflation 
is down from triple digits only a few years ago to 12 percent today.
    Nonetheless, much remains to be done. Despite its wealth, Angola 
ranks near the bottom of most social and development indicators. Angola 
must address this disparity to ensure its people benefit from the 
nation's natural wealth. Angolan President Jose Eduardo dos Santos 
publicly announced legislative and Presidential elections in 2008 and 
2009, respectively. The country also just concluded a successful 
electoral registration campaign in which over 8 million citizens 
registered, paving the way for elections. Free and fair elections would 
signal Angola's emergence as a democracy and bolster its claims to 
regional leadership.
    Thanks to high oil prices and increasing oil production, Angola has 
financial resources, but money alone does not build a country after 
decades of war and centuries of colonization. Corruption remains a 
challenge as Angola seeks to build and strengthen the institutions 
essential to good governance. If confirmed, I would use modest levels 
of United States assistance to help create greater capacity within the 
Angolan Government, civil society, and private sector to consolidate 
democracy, respect for human rights, and good governance. I would also 
use this assistance to jumpstart agriculture and other non-oil sectors 
of the economy, bolster Angolan readiness to conduct peacekeeping and 
humanitarian operations, and defeat the diseases that limit Angola in 
utilizing its best resource--its people.
    I believe the United States can play an important role in 
facilitating Angola's successful transition to democracy before and 
after elections. Before elections, we should continue our work 
strengthening civil society's ability to organize and participate fully 
in local and national decision-making. We should help political parties 
build their capacity to ensure full, vigorous consideration of the 
issues important to Angolans. We should provide requested technical 
assistance to Angolan authorities to assist them in ensuring that 
national elections take place over a vast and diverse territory, and 
are free and fair. Democratic transitions do not end with elections, of 
course, so we should continue to foster the growth of a vibrant 
independent media and civil society. Both are essential to fostering 
government institutions that are responsive and accountable to their 
people.
    Democracy's enduring success must be complemented by broad-based 
economic growth. Angola's mineral wealth is finite, employs few people, 
and will not create long-term opportunities for the next generation.
    Instead, a better future for Angola lies in a return to its former 
proud status as a breadbasket of Africa. The United States is already 
helping promote the growth of the agricultural sector through an 
innovative public-private partnership. If confirmed, I would deepen 
this partnership.
    Angola seeks to be a regional leader in southern and central Africa 
and the Gulf of Guinea. It could assist in peace support operations on 
the continent. Because we share many security interests, such as in the 
Gulf of Guinea, if confirmed, I would work closely with the Department 
of Defense and others to improve our military-to-military cooperation 
and Angola's maritime security.
    Angola's success in tackling the challenges of democratic 
transition, broad-based economic growth, and continental leadership 
depends upon the health and well being of its people. If confirmed, I 
would work hard to realize the President's goal of reducing malaria 
deaths among Angolan children by half before 2010. Malaria is the 
number one killer of Angolan children under 5, but with a sustained 
effort toward education, prevention, and treatment, we can help Angola 
beat it, and indeed we are already achieving notable success. A more 
ominous and rising threat is HIV/AIDS. This disease has ravaged much of 
southern Africa, but, until now, has largely spared Angola due to the 
severing of commercial and transportation links during Angola's 27-year 
civil war. However, with the country finally at peace, those links are 
being reestablished rapidly, and thus we must act preemptively to help 
Angola avoid the scourge of double-digit HIV/AIDS infection rates 
present in most of its neighbors. Already, rates of HIV/AIDS are three 
to four times higher in border areas than in central Angola.
    Contemplating these challenges, I see few quick fixes. We will need 
patience and perseverance in helping Angola build institutions and 
human capabilities. Our view must be long-term in order to be effective 
as we help Angola join the international community of democracies.
    Mr. Chairman, members of the committee, should I be confirmed, I 
will work hard to build a strong, mutually beneficial relationship with 
Angola for the betterment of Americans and Angolans. Thank you for this 
opportunity to address you. I look forward to answering any questions 
you might have.

    Senator Feingold. Thank you, Mr. Mozena.
    As we turn to Mr. Steiger, let me just say I noted the 
presence in the room, previously, of Congressman Petri, who 
succeeded Mr. Steiger's father, I believe, with the untimely 
loss of Mr. Steiger's father, who was a superb Congressman. And 
I want to say that Congressman Petri has been a distinguished 
and very independent Congressman in the Wisconsin tradition, 
and I am sure he was here to lend his support to the nomination 
of Mr. Steiger.
    Mr. Steiger.

        STATEMENT OF WILLIAM R. STEIGER, NOMINEE TO BE 
            AMBASSADOR TO THE REPUBLIC OF MOZAMBIQUE

    Dr. Steiger. Thank you very much, Mr. Chairman.
    I can say, I think, without fear of contradiction, that I'm 
probably the most pleased of the four nominees at this table to 
be here this morning, and I want to thank you for your efforts 
to make that possible.
    It's a great privilege and an honor to appear before you as 
you consider my nomination to serve as Ambassador to the 
Republic of Mozambique. I am most grateful for the President's 
nomination, for the support of Secretary Rice, and I want to 
thank you and the committee for granting me this hearing.
    I'd also like to thank former Secretary Tommy Thompson and 
current Secretary Mike Leavitt for their personal and 
professional support in this process. And I'd like to recognize 
a number of my friends and staff who are here with me, behind 
me. And I do greatly appreciate, as you pointed out, that 
Congressman Petri, from the 6th District of Wisconsin, who did, 
indeed, succeed my father in the House of Representatives, 
stopped by to lend his support, as well.
    If confirmed by the Senate, Mr. Chairman, I look forward to 
working with this committee and the many others in Congress who 
are interested in Mozambique's progress. Ever since the United 
States helped broker the 1992 Peace Accords that ended 16 years 
of civil war, relations between our two countries have been 
excellent. Now our relationship is even closer and more robust, 
as demonstrated by the June 2007 visit of First Lady Laura 
Bush, then the signing of a Millennium Challenge Compact in 
July, and, finally, the August visit of Health and Human 
Services Secretary Leavitt. That staff members from this very 
committee have visited Mozambique in recent weeks further 
emphasizes the increasing importance and dynamics of our 
relationship.
    The past 15 years, Mr. Chairman, have seen real democratic 
advancement in Mozambique. The country is a functioning 
multiparty democracy that has provincial elections planned for 
January of next year, to be followed by municipal elections and 
then Presidential and legislative balloting in 2009. Recent 
elections in Mozambique have been judged as generally free and 
fair by international observers, and, if confirmed, I pledge to 
help ensure that future elections are transparent and open to 
all political parties so Mozambique can secure and enjoy a 
position among the world's democracies.
    Additionally, Mozambique has enjoyed remarkable economic 
growth in the past decade by pursuing policies that have earned 
it the respect and support of international financial 
institutions. Despite remaining one of the world's poorest 
countries, Mozambique's gross domestic product per capita has 
more than tripled since 1992. If confirmed, I will work to 
encourage an open and favorable business climate necessary to 
attract foreign direct investment and to encourage responsible 
economic stewardship that will bring further prosperity.
    Although, Mr. Chairman, Mozambique has enjoyed political 
and economic improvement, it must also aggressively address the 
devastating reality of HIV/AIDS and other infectious diseases. 
Nationwide, HIV prevalence is now greater than 16 percent 
within the adult population, and it is extremely troubling that 
the number of new infections each year still appears to be 
increasing. Malaria also takes a huge economic and human toll 
in Mozambique. And, for those reasons, helping the country 
fight AIDS, malaria, and tuberculosis are among the U.S. 
Government's highest priorities.
    Mozambique is currently one of only two nations in the 
world, along with Tanzania, that is a focus country for both 
the President's Emergency Plan for AIDS Relief and the 
President's Malaria Initiative, and has also signed an MCC 
Compact. Because of the size of these investments, the United 
States is the largest bilateral donor to Mozambique, and 
Mozambique is among the top recipients of United States 
Government assistance in Africa, and one of the top 10 
recipients of United States assistance around the globe.
    Since the year 2000, Mr. Chairman, I have gained much 
experience coordinating our international programs and policies 
at HHS, and such experience has provided me with the knowledge 
and insight to advocate for our Government's goals in 
Mozambique, while helping to fortify and expand the successes 
we've already achieved. My service on the Interagency Steering 
Groups for the President's Malaria Initiative and the 
President's Emergency Plan, as well as my time as the United 
States Representative on the Board of Directors of the Global 
Fund to fight AIDS, tuberculosis, and malaria, have given me an 
intimate understanding and knowledge of our largest investments 
in Mozambique and the challenges associated in realizing them.
    Finally, Mr. Chairman, my fluency in Portuguese will enable 
me to interface with Mozambicans on a more personal level than 
a non-Lusophone, although I'm sure my Brazilian accent will be 
the source of a lot of good-natured humor at my expense.
    If confirmed, in addition to those top priorities, I will 
work diligently with the Mozambican Government on the 
transnational and regional issues most important to the United 
States; among them, human trafficking remains a serious problem 
in Mozambique, and, if confirmed, I will advocate for the legal 
and administrative reforms necessary for the government to 
address this challenge.
    Mr. Chairman, if confirmed by the Senate, I will maintain a 
sense of perspective on our excellent bilateral relationship 
with the Government of Mozambique and its international 
relations, while continuing to rigorously press our national 
interests in health, economic opportunity, democracy, and the 
preservation of human dignity.
    Thank you, again, for this opportunity to address you. I'd 
be pleased to answer any question you and your colleagues might 
have, and I look forward to your assistance, and that of your 
staff, in helping to find takers for my Packers season tickets, 
if I am confirmed.
    Senator Feingold. That's a little more challenging than I 
can handle. [Laughter.]
    [The prepared statement of Dr. Steiger follows:]

      Prepared Statement of Dr. William R. Steiger, Nominee to be 
                Ambassador to the Republic of Mozambique

    Chairman Biden, Ranking Member Lugar, and distinguished members of 
this committee, it is a privilege and an honor to appear before you 
today as you consider my nomination to serve as Ambassador to the 
Republic of Mozambique. I am grateful for President Bush's 
nomination,and for the support of Secretary Rice, and I want to thank 
the committee for granting me this hearing.
    If confirmed by the Senate, I look forward to working with this 
committee and the many others in Congress who are interested in 
Mozambique's progress. Ever since the United States helped broker the 
1992 peace accords that ended 16 years of civil war, relations between 
our two countries have been excellent. Now our relationship is even 
closer and more robust, as demonstrated by the June 2007 visit of First 
Lady Laura Bush, then thesigning of a Millennium Challenge Compact in 
July, and, finally, the August visit of Health and Human Services 
Secretary Leavitt. That staff members from this very committee have 
visited Mozambique in recent weeks further emphasizes the increasing 
importance and dynamics of United States-Mozambique relations.
    The past 15 years have seen real democratic advancement in 
Mozambique. The country a multiparty democracy under the constitution 
of 1990, and in 1994 Mozambique held its first democratic elections. 
Provincial elections are planned for January 2008, to be followed by 
municipal elections, and then Presidential and legislative elections in 
2009. Recent elections in Mozambique have been judged as generally free 
and fair by the Carter Center and international observers, and if 
confirmed I pledge to help ensure future elections are transparent and 
open to all political parties, so that Mozambique can secure and enjoy 
a position among the world's functioning democracies.
    Additionally, Mozambique has enjoyed remarkable economic growth by 
pursuing policies that have earned it the respect and support of 
international financial institutions. Despite remaining one of the 
world's poorest countries, Mozambique's gross domestic product per 
capita has more than tripled since the conclusion of the peace accords. 
If confirmed, I will work to encourage an open and favorable business 
climate necessary to attract foreign direct investment and responsible 
economic stewardship that will being further prosperity to the country.
    Although Mozambique has enjoyed political and economic improvement, 
it must aggressively address the devastating reality of HIV/AIDS and 
other infectious diseases. Nationwide, HIV prevalence is now greater 
than 16 percent within Mozambique's adult population. It is extremely 
troubling that the number of new infections each year still appears to 
be increasing.
    Malaria also takes a huge economic and human toll in Mozambique. 
The disease is responsible for an estimated 40 percent of all 
outpatient visits to health facilities and for some 60 percent of 
admissions to hospital of children. There are as many as 6 million 
cases of malaria each year in Mozambique--a country with a population 
of just under 20 million.
    Helping Mozambique fight the HIV/AIDS pandemic, malaria, and 
tuberculosis are among the United States Government's highest 
priorities. Mozambique is currently one of only two nations in the 
world that is a focus county for both the President's Emergency Plan 
for AIDS Relief and the President's Malaria Initiative (PMI) and has 
also signed a Millennium Challenge Compact. Mozambique's MCC compact 
includes a $204 million water/sanitation project over 5 years, aimed at 
providing fresh drinking water and curbing the incidence of malaria, 
and also includes a 5-year $176 million project for road construction 
and rehabilitation. Because the MCC and our Mozambican partners realize 
that improved roadways mean greater movements of people, the road 
construction and rehabilitation project will also develop HIV/AIDS 
awareness programs along heavily traveled routes to educate people in 
disease prevention. In brief, because of the size of these investments, 
the United States is the largest bilateral donor to Mozambique. 
Mozambique is among the top recipients of United States Government 
assistance in Africa, and is also one of the top 10 recipients of 
United States assistance worldwide.
    Mr. Chairman, since 2000, I have gained much experience 
coordinating our international programs and policies at the U.S. 
Department of Health and Human Services. Such experience has provided 
me with the knowledge and insight to advocate for our Government's 
goals in Mozambique while helping fortify and expand the successes 
we've already achieved through our considerable efforts. My service on 
the interagency steering groups for the President's Emergency Plan for 
AIDS Relief and the President's Malaria Initiative, as well as my time 
as the U.S. Representative on the Board of Directors of the Global Fund 
to Fight AIDS, Tuberculosis, and Malaria, have given me an intimate 
understanding and knowledge of Mozambique while continuing to 
vigorously press our national interests. Thank you again for this 
opportunity to address you. I would be pleased to answer any questions 
you and your colleagues might have.

    Senator Feingold. Thank you, Mr. Steiger.
    Thanks, all.
    As we turn to the questions, let me just say--and I know 
you'll have the same experience--when you've actually visited 
one of these countries, it stays with you for life, and it 
turns out that I had been to Namibia, Mozambique, Angola twice; 
I have not been to Gabon, but, as I indicated, I've been to Sao 
Tome. So, my interest in these places is genuine, and I want 
you to know that, as you proceed, I am very interested in 
learning from you about these places, should you go through 
this whole process and achieve these posts.
    Ms. Reddick, Gabon hosts a United States Cooperative 
Security location and participates in the African Contingency 
Operations Training and Assistance Program, ACOTA. EUCOM is 
active in Sao Tome and Principe, with projects to bolster 
coastal and maritime security, and both countries receive 
United States military training. What does this bilateral 
cooperation entail, and what positive effect has it had for 
security in Gabon and Sao Tome, the region, and the United 
States?
    Ms. Reddick. Yes, Mr. Chairman, we have very good relations 
with both countries, Sao Tome, Principe, and Gabon, in terms of 
our security strategic interests in the region; and I mean the 
central Africa region and also the Gulf of Guinea region.
    You mentioned the ACOTA program, the African Contingency 
Operations Training Assistance program. We have been able to 
train peacekeepers that Gabon has deployed regionally. Gabonese 
military now lead the peacekeeping operation in Central African 
Republic. So, we've been able to assist Gabon in taking on the 
responsibility in assisting and maintaining the peace and 
stability of the region.
    We have also provided training, through our Navy resources, 
actually on the waters of the Gulf of Guinea, both Sao Tome and 
Principe, and Gabon have taken advantage of that training, 
which, again, allows them to improve their capacity to secure 
the region. So, it's a valuable partnership for us. The Gulf of 
Guinea is a strategic area, because of the oil resources. We're 
almost at the point of the Gulf of Guinea region providing 
about 15 percent of the United States' oil supply.
    So, this is an area of close cooperation. And, if 
confirmed, I look forward to continuing that in a dialog with 
the military and civilian leadership in both countries, in 
conjunction with our military. Again, the new Africa Command 
has just been stood up. But, I think, for--it will still 
include, to a certain degree, the European Command.
    Senator Feingold. On that issue--I mean, using this as a 
specific example, as well as a broader point--what would be 
your role, as ambassador, in coordinating with United States 
and Gabonese military personnel involved in these programs?
    Ms. Reddick. I expect to be engaged at the highest level. 
We have a defense attache and, of course, our embassy officers, 
who will be engaged in a dialog at the working level, but I 
think it's going to be very important to maintain those 
contacts at the highest levels of both governments.
    Senator Feingold. I'm pleased to hear you say that, because 
I think the Chief of Mission authority is extremely important, 
and should be preserved while we pursue other important 
interests of the United States.
    As I mentioned in my opening statement, I've spent a little 
time in Sao Tome, and learned, during my recent stay, of our 
efforts to bolster their maritime capacity. Can you say a bit 
about these efforts and how you see them fitting into the 
larger Gulf of Guinea security effort?
    Ms. Reddick. Through programs such as IMET, the IMET 
program has trained military in both countries. In San Tome and 
Principe, our efforts focus on improving the professionalism of 
the small military, working at a very basic level, and also on 
improving the capacity of Sao Tome and Principe to patrol its 
coasts. We are also providing some assistance to the Government 
of Sao Tome and Principe to be able to monitor its waters, to 
know what's happening there, where are the ships and what 
they're doing. Again, it's a very basic level, at this point. 
But our assistance is very important for Sao Tome and will 
contribute to our ability to shore up the capacity of the 
governments in the Gulf of Guinea region to monitor its waters 
and to know what's happening. There are problems with illegal 
fishing, smuggling, and it's certainly of concern to the 
governments in the region, and to the United States, as well.
    Senator Feingold. China is a major investor in the volatile 
extractive industries in both Gabon and Sao Tome. Drawing on 
your knowledge of these countries, and perhaps your previous 
posting in Beijing, what is your perspective on China's 
involvement in, and impact on, these two countries?
    Ms. Reddick. China has brought economic interests, in 
Gabon, in particular, in the extractive industries, fishing, 
aquaculture, timber, and wood. The Chinese oil company, 
Sinopec, has rights to explore near a protected area--Loanga 
National Park. And this is of concern. Again, it's important 
for Gabon, which has set aside 10 percent of its land for 
national forests, to be able to protect those forests. On the 
other hand, it wants to be able to diversify beyond oil and 
forest products--timber, wood--could provide needed revenue in 
another sector. But it's going to be a delicate balance, so it 
will be important to monitor what companies like Sinopec are 
doing in or near a protected area. Again, that's an area of 
concern. I know the organizations such as World Wildlife Fund, 
the World Conservation Society, are also engaged in a dialog 
that the U.S. Government is participating in, along with other 
donors. So, with China's large needs for resources, you know, 
sometimes that could come into conflict with other interests, 
such as forest conservation.
    I think it's going to be important to make sure that 
governments like Sao Tome and Principe and Gabon, that have 
laws that protect its resources and encourage environmentally 
sound investment, not only ensure these laws are implemented, 
but also respected by the commercial interests that come into 
both countries. And, if confirmed, I expect to be part of this 
dialog with NGOs and the governments. I also hope that we can 
include the Chinese into this dialog concerning environmentally 
sound commercial enterprises in the two countries.
    Senator Feingold. Thank you for your answers, Ms. Reddick.
    Ms. Mathieu, the Legal Assistance Center has reported that 
rapes more than doubled between independence in 1990 and 2005 
in Namibia. Civil society organizations have termed the high 
level of child rape a national emergency. What will you do to 
press for education on gender-based violence, as well as police 
and justice-sector reform in Namibia?
    Ambassador Mathieu. Mr. Chairman, since independence, 
Namibia generally has maintained a good human rights record, 
but the issue of child abuse and sexual abuse against women 
remains a very serious concern. Using the resources at the 
embassy, if confirmed, for example, our public diplomacy tools, 
we will try to raise public awareness of this issue, and we 
will also work with civil society and nongovernmental 
organizations, as well as advocate with the government to 
implement programs that would provide protection and shelter 
for these children; and, again, raise public awareness. And I 
would ensure, if confirmed, that the entire mission would be 
involved in this effort.
    Senator Feingold. Let me switch to the relationship between 
Namibia and Zimbabwe. What explains the close relationship 
between these two governments? And what concerns, if any, does 
this relationship raise for the United States?
    Ambassador Mathieu. Mr. Chairman, due to historical ties, 
the Government of Namibia continues to publicly support the 
Government of Zimbabwe. But Namibia has taken a very different 
path within its own country, particularly with regard to land 
reform. Namibia is following a constitutional path, ensuring 
that all farmers have been compensated for land, either 
purchased outright or either taken by eminent domain or, as 
they call it, expropriation. I believe that this, if 
continued--and certainly if I were confirmed, I would encourage 
the Government of Namibia to follow this course of action--that 
this could serve as a model for the region and for Zimbabwe. 
Also, if confirmed, I would encourage the government to take a 
more active stance against the actions and policies in 
Zimbabwe.
    Senator Feingold. Thank you, Ambassador.
    Mr. Mozena, Angola was the first country that I spent any 
real time in, in Africa, in 1994, and I was just struck by how 
richly endowed it is with oil and diamonds and gold and timber 
and other natural resources, despite the enormous tragedy that 
I witnessed then and when I returned in 1999. Last year, Angola 
recorded 14 percent GDP growth, largely due to oil exports. 
Unfortunately, the World Bank has identified major problems in 
the management of Angola's oil sector: a general lack of fiscal 
transparency and the fact that the government maintains off-
budget financing through the National Oil Company, Sonangol, in 
violation of Angola's own financial legislation. What actions 
will you take to ensure that the Angolan Government implements 
concrete measures and policies to bring about greater 
transparency in the oil sector and in the management of oil 
revenues?
    Mr. Mozena. Mr. Chairman, first, with your indulgence, 
earlier I failed to mention the two people who helped so much 
in preparing me to come here. And I would like to do that. And 
that would be Angola desk officers, Matt Shields and Chris 
Karber.
    Thank you.
    Senator Feingold. Duly noted.
    Mr. Mozena. Your question really gets to the nub of the 
issue in Angola. Why is such a rich country filled with people 
who are so poor? Corruption is a key part of that, as you 
rightly point out.
    Some progress has been made in Angola in increasing 
transparency. I'm pleased that our Government has played an 
important part in those measures. For example, the government 
now has engaged the World Bank's integrated financial systems 
process, which tracks, transparently, the flow of the oil 
revenues. That is now visible. You can now go online, and you 
can see transactions, you can see revenues coming in. The 
bidding process--the most recent bidding process in Angola was 
fully transparent. It was quite impressive. These are all 
positive steps. But there's so much more to do.
    And you cited what I would have cited as a major concern, 
and that is that the oil company, Sonangol, is still engaged in 
quasifiscal activities. And, as ambassador, I will deepen 
United States efforts and those of international organizations, 
and those of other donors, to work aggressively with the 
Government of Angola to bring ever-greater transparency, to 
shine the light in the corners. If Angola wants to succeed in 
creating a stable democracy, its people have to benefit from 
its rich wealth. And that is in the interest of the Government 
of Angola, and I will work with that government to help them 
better appreciate that reality.
    Senator Feingold. Thank you. And how do you plan to work 
with the various domestic and international human rights 
advocates on key issues facing Angolan nationals, including 
police brutality, forced evictions, and threats to freedom of 
association and freedom of the press?
    Mr. Mozena. Mr. Chairman, in our annual Human Rights 
Report, we have spoken to the human rights situation in Angola. 
It remains poor. There have been areas of progress. There have 
been increased prosecutions of police. A human rights ombudsman 
has just been activated. The number of police violations is 
down. They've announced a new campaign of zero tolerance toward 
domestic violence, which I intend to engage on personally, 
should I be confirmed. These are improvements.
    Nonetheless, the situation there is serious, in terms of 
human rights abuses. We have very active programs right now--
I'm very proud of these programs--working with human rights 
organizations to improve their ability to monitor and report on 
the human rights situations, especially in the Lundas, the 
diamond-producing area where there have been serious human 
rights problems, and in Cabinda, as well. I think those are 
concrete measures that will shed more light on what is going 
on, and I certainly intend, if confirmed, to deepen those 
efforts.
    Senator Feingold. In particular, will you be encouraging 
the authorities to clarify, publicly, the legitimacy of 
independent NGOs in Angola?
    Mr. Mozena. Yes. You may recall that, earlier this year, 
there was an incident involving an international NGO, Global 
Witness. I think incidents such as that are unfortunate, and 
they show the need for the Government of Angola to understand 
better the key role that NGOs play--domestic NGOs, 
international NGOs--the key role that they play in a democracy, 
and I intend to work toward that end.
    Senator Feingold. Thank you, sir, for your answers.
    Dr. Steiger, as I know you're aware, some questions 
relating to your service at HHS have come to the attention of 
the Senate Foreign Relations Committee. And the committee staff 
are looking into these issues. But I wanted to give you a 
chance today to address them now, on the record.
    On July 29, 2007, the Washington Post reported on a draft 
Call to Action on global health issues that then-Surgeon 
General Dr. Carmona commissioned on 2006, but was never 
released. The article alleges that you had some role in 
preventing its publication because the report did not promote 
the Bush administration's policies. What was your role in this 
matter? And, if you were involved, what concerns did you have 
with regard to the draft that Dr. Carmona had produced?
    Dr. Steiger. Thank you, Mr. Chairman. I really appreciate 
the opportunity that you've given me to speak to this issue 
here in this forum.
    As you know, I have supplied members of the staff with six 
binders full of materials for them to review concerning this 
and other questions that they have about my time at HHS.
    I have to say, Mr. Chairman, that no one was more surprised 
or disappointed with the Surgeon General's recent statements 
than I was. I believed we had quite a good relationship, and I 
took him at his word when he said, in his farewell e-mail to 
the members--fellow members of the Commission Corps at the 
Public Health Service, that he had operated in his term without 
any political interference.
    On the question, more specifically, of the draft Call to 
Action, a couple of things, Mr. Chairman. First, it is 
important to realize what a Call to Action is, and what it 
isn't. It's not a full peer-reviewed Surgeon General's report. 
The reports that the Surgeons General put out are, as I 
suggest, reviewed very rigorously by scientific peers in a 
process much akin to the publication of scientific and 
technical articles, and they are meta-analyses of scientific 
and technical data on an important scientific or medical or 
public health question that breaks new ground and draws new 
conclusions. Calls to Action are policy documents informed by 
the best possible science, but, nevertheless, not subject to 
peer review. They are, however, as all publications are in the 
Department, subject to an interagency clearance process, and 
the draft that the Surgeon General prepared of his Call to 
Action--an idea, by the way, which I supported vigorously from 
the very beginning of the Surgeon General's term--went into an 
interagency clearance process that suggested that it, as a 
document, had serious flaws, factual errors, a weak--weaknesses 
in technical depth and breadth, and that is was not ready for 
publication. And that was the consensus of 10 of our operating 
and staff divisions, including the National Institutes of 
Health and the Food and Drug Administration.
    In fact, Mr. Chairman, by June of 2006, the Surgeon General 
himself recognized that that draft was not ready for prime 
time. And I have in front of me an e-mail from the Surgeon 
General, dated June 12 of last year, which suggests that it 
needed more work. He said, ``Normally, these Calls to Action 
are expected to have revisions and may take a few drafts. In 
this case, more input may be needed.'' He says, further, that 
his staff is ``passionate about moving this forward when it is 
ready,'' the last four words, in capital letters.
    So, Mr. Chairman, the normal processes of review of these 
kinds of documents brought to light significant technical and 
factual flaws in the Surgeon General's draft, and that is what 
prevented publication of that document at the time last year. 
My understanding, though, is that there are elements within our 
Department, particularly the National Institutes of Health and 
others--and I stand ready to do what I did with the Surgeon 
General, and provide my staff to help out in this process, 
should the new Surgeon General wish it--that, if confirmed, the 
new Surgeon General would have an opportunity to revisit this 
document, and perhaps publish it at a later date.
    Senator Feingold. Thank you, Mr. Steiger.
    Also in 2004, I understand the Department of HHS limited 
the number of scientists who traveled to the International AIDS 
Conference in Bangkok. Press reports say the number was 50, as 
compared to 236 at the 2002 conference, although documents you 
submitted to the committee show the number may be higher than 
50. Nonetheless, the result of the limitation, at least 
according to the information you sent to the committee, was 
that accepted presentations by HHS scientists were withdrawn, 
including presentations on testing options for measuring HIV 
incidents and advancing HIV prevention and care in the Asian 
context. I don't really want to get into all the exact numbers, 
as I am sure there was a reason these limitations were imposed, 
including saving the taxpayers money, something that I and the 
people of Wisconsin are very supportive of. Nonetheless, Dr. 
Steiger, could you explain what led you to make this decision, 
and particularly given that the travel restrictions included 
U.S. scientists who had, presumably, relevant presentations to 
make?
    Dr. Steiger. Thank you, Mr. Chairman. Again, I appreciate 
your question and your commentary.
    I think, if you or your staff were listening, this morning, 
to National Public Radio, you heard another--yet another story 
about travel abuses in the Federal Government, and calls for 
further scrutiny of international travel expenditures. And I'm 
proud to say that we, at HHS, have never been involved in one 
of those stories, since 2001. This particular one, I believe, 
involved the Department of Agriculture.
    So, our policy, Mr. Chairman, on international travel and 
on examining very closely the number of delegates or scientists 
or other staff who go to any international meeting, is based on 
balancing the interests of presenting our work in public health 
and science with the best possible value for money for the 
taxpayer.
    In the case of the conference in Bangkok, and similar ones 
that have been put on by the International AIDS Society, I do 
wish to stress that they are not the only places that our 
scientists go to present their work, and, in fact, are not even 
the most important ones, and that much of the work that our 
technical experts consider to be their most cutting-edge and 
their most important, they choose to reserve for other meetings 
that are really the heart of the scientific interchange on HIV/
AIDS, and they have chosen, as Laurie Garrett suggests in a 
column that she wrote after the--during the Bangkok Conference 
in 2004, to present that work at other places, because they 
found that the value of those particular meetings, sponsored by 
the International AIDS Society, has been eroding over time.
    So, we made a decision, in consultation, Mr. Chairman, with 
our interagency partners, including the State Department and 
the Office of the Global AIDS Coordinator, to limit our 
participation to a number, around 50, in order for us to strike 
that balance, and that our scientists and others would have 
other opportunities to present their work, as they did. And we 
now believe that the annual Implementers Meeting, organized by 
the Office of the Global AIDS Coordinator and sponsored by a 
number of international organizations, is, in fact, the premier 
place to present exactly the kind of work that you suggested.
    Senator Feingold. Thank you for your candor, Dr. Steiger.
    And now I'd like to just spend a minute or two on more 
substantive issues relating to your nomination to be United 
States Ambassador to Mozambique.
    President Armando Guebuza promised to fight corruption, but 
Transparency International has given Mozambique progressively 
worse ratings. And a USAID-funded study clearly indicated that 
the average Mozambican feels the impact of corruption most when 
dealing with public service providers. How would you maintain 
the beneficial relationship we have with Mozambique, while, 
frankly, pressuring them to tackle corruption more 
aggressively?
    Dr. Steiger. Thanks, Mr. Chairman.
    Corruption does remain a major concern in Mozambique. As 
in--as you have pointed out, international observers are--and 
Mozambiquans themselves--are increasingly worried about it. So, 
if confirmed, this would be one of our major areas of 
interchange with the government at the embassy in Maputo, 
without a doubt.
    We, as you know, spend an extraordinary amount of money--of 
United States taxpayer money through our foreign assistance 
programs in Mozambique. If we--depending on how well the 
Millennium Challenge Corporation implementation goes this next 
year, we could be spending as much as $300 million a year on 
foreign assistance. And, as I say, we're the top donor there, 
and Mozambique has jumped into the top 10 recipients of aid 
from the United States around the world.
    We do fund government institutions, and we also fund a 
large number of nongovernmental institutions. And in all cases, 
we must be ever vigilant about the possibility of corruption. 
But what I think is most important is making sure that--not 
just at the central government level, but down at the village 
level, where people are receiving health and education and 
other social services from the government and other partners--
that corruption is not affecting the implementation of our 
major programs there at that level.
    And one of the challenges we face in Mozambique, as you 
know, on this and every issue, is the inability of the United 
States Government, given the great geographic size of the 
country and understandable budgetary constraints, to be 
everywhere in that country, watching what's going on. So, in 
connection with fighting corruption and other things, I would, 
if confirmed, encourage and find creative ways for our embassy 
personnel to be out in the field more, so that we had better 
eyes and ears about what--and a better read about what's going 
on, on the ground.
    Senator Feingold. When G-8 countries and the IMF canceled 
Mozambique's debt in 2005, the president of Mozambique promised 
the savings would be used for education, for getting water to 
the population, and for improving health services. Instead, his 
government has been pursuing capital-intensive showpiece mega-
projects. How would you use your leverage as U.S. Ambassador to 
encourage more government attention and resources for social 
infrastructure and programs?
    Dr. Steiger. Thanks, Mr. Chairman.
    You're absolutely right, this is not a new story, as you 
know, in Africa, but it's one that is recently--has recently 
come to light in Mozambique, as you say, because of the debt 
relief.
    If confirmed, I would make a great priority on pushing the 
government toward being transparent and open in its own 
investments, and increasing its investments in the social 
sector; in health and education, in particular. Mozambique has 
not, like many of its neighbors, met the 2001 Abuja target that 
governments agreed to in 2001 to increase the spending of their 
own domestic budgets--the share of their own domestic budgets 
spent on healthcare to 15 percent. They're not close yet. That 
would be part of our goal.
    In addition, we would have to work at the embassy with all 
of the other major donors because, even though we're the 
largest, every major foreign assistance provider in the world 
has a presence in Mozambique, and some of them are quite 
significant--the Europeans, the Japanese, the Chinese, as you 
referred to earlier. And all of us, as a donor community, not 
just the United States, need to work together, to send those 
messages about the importance of transparency, getting rid of 
corruption, and increasing the domestic social investments from 
the government itself.
    Senator Feingold. Thank you very much, Dr. Steiger.
    Thank you all. I wish you all well as this nomination and 
confirmation process goes forward. And, should you be 
confirmed, I, of course, wish all the best to you and your 
families in your new posts.
    The hearing is concluded.
    [Whereupon, at 9:55 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


      Responses of Dr. William R. Steiger to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. What, in your view, are the most pressing human rights 
issues in Mozambique? What are the steps you expect to take--if 
confirmed--to promote human rights and democracy in Mozambique? What do 
you hope to accomplish through these actions?

    Answer. The strong Mozambican law enforcement response to a major 
surge in crime in 2007 has led to accusations of abuse on the part of 
police and other security forces, including allegations of torture and 
unlawful killings. Separately, prison conditions in Mozambique are 
harsh. An understaffed and inadequately trained judiciary system has 
resulted in cases of arbitrary arrests and detention, and in lengthy 
pre-trial detentions. There continue to be occasional reports of the 
harassment of journalists in Mozambique, many of whom practice some 
form of self censorship. In addition, societal problems such as 
domestic violence, discrimination against women, the abuse and 
exploitation of children, trafficking in women and children, and 
discrimination against persons with HIV/AIDS remain widespread 
problems.
    If confirmed, I would increase our dialog with Mozambican 
Government Ministries and the Parliament, to reiterate the U.S. 
Government's commitment to human rights and remind the Guebuza 
administration that United States lawmakers pay attention to the issue 
when considering how much aid a country receives. I would undertake 
outreach activities to the dedicated Mozambican civil society groups 
that focus on human rights issues, such as the Mozambican Human Rights 
League, by speaking publicly on the issue, as well as by hosting and 
attending roundtable discussions and working groups. I would also 
continue to support other organizations in Mozambique that are working 
on human rights, democracy, and civic participation through the 
embassy's small Democracy and Human Rights Fund grants.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous responses? What challenges will you face in Mozambique in 
advancing human rights and democracy, in general?

    Answer. Many of the above-named human rights concerns share a 
common cause--lack of resources. Most of the problems with the 
Mozambican police and security forces, the prison system, and the 
judiciary stem from a general shortage of trained/qualified personnel 
(police officers, prison guards, judges, and judicial workers), and an 
overall lack of funding directed at these problems.
    Another big challenge to overcome is precedent. Before 
independence, colonial authorities used ruthless tactics to control and 
subdue the population; in some cases, Mozambican police inherited these 
tactics, and have not completely evolved their procedures to 
incorporate respect for human rights into their everyday practices. 
Providing sporadic training to officers, prison workers, and judges on 
human rights is not enough--there needs to be constant, reinforcing 
engagement.
    If confirmed, one of my first goals as ambassador in the area of 
human rights would be to press for the Mozambican Parliament to pass 
pending legislation to criminalize human trafficking, which has been a 
goal of the embassy and the office to monitor and combat trafficking in 
persons at the United States Department of State for some time. The 
State Department's annual Trafficking in Persons Report this year has 
placed Mozambique on the Tier Two Watch List, which reflects concerns 
that the Government in Maputo is not paying sufficient attention to the 
well-documented trafficking problem.
    Changing long-held Mozambican social practices and traditions in 
the areas of child labor, trafficking in persons, domestic violence, 
and discrimination against persons with HIV/AIDS, however, is another 
challenge. Because half of Mozambique's adult population is illiterate, 
and the majority of Mozambicans live in rural areas, without regular 
access to information and news sources, achieving behavioral changes in 
these areas is extremely difficult.

    Question. If confirmed in your new position, what steps will you 
take to ensure that promotion of human rights objectives will be an 
integral part of the U.S. Embassy's activities? If confirmed, what 
steps will you take to ensure that Foreign Service officers who engage 
in human rights activities are encouraged and professionally rewarded 
for superior service?

    Answer. If confirmed, I would begin an initiative right away to 
make the subject of human rights part of every discussion I have with 
Mozambican Government officials, so they know the United States 
Government is taking the issue of fundamental human freedoms in their 
country seriously. Ambassadors should not be discussing human rights in 
earnest only once a year, following the release of the U.S. Department 
of State's annual Human Rights and Trafficking in Persons Reports, but 
rather should make the matter a focal point of our ongoing, everyday 
bilateral agenda with countries around the world. I would also work 
more closely with the public affairs section of the Embassy in Maputo 
to ensure that, when we host a luncheon or roundtable on human rights, 
or when we provide grants to nongovernmental organizations that focus 
on human rights, the Mozambican public knows about these efforts.
    If confirmed, I would make sure that embassy officers engaged in 
human rights reporting receive the full support of the Mission, and are 
duly rewarded for superior performance through the embassy awards 
program and their yearly evaluations.

    Question. What are the most significant actions you have taken in 
your career to promote human rights and democracy? Why were they 
important? What was the impact of your actions?

    Answer. Throughout my time at the U.S. Department of Health and 
Human Services, I have played a role in promoting human life, dignity, 
and fundamental freedoms in international fora, and in our bilateral 
relationships. I was the lead HHS representative on the U.S. Government 
negotiating teams for the United Nations General Assembly Special 
Sessions on HIV/AIDS (in 2001, and its follow-up in 2006) and on 
Children (in 2002), which produced groundbreaking documents that 
promoted human rights. Over the course of 2005 and 2006, I managed the 
participation of HHS staff, under the leadership of the U.S. Department 
of State, in the negotiations that produced the Convention on the 
Rights of Persons with Disabilities, which should encourage developing 
countries to raise their standards of legal protection for the disabled 
to the levels we have afforded them here in the United States.
    I have also supported Secretaries Thompson and Leavitt as they 
carried out an aggressive agenda to combat human trafficking, a 
violation of human rights that is tantamount to modern-day slavery. I 
have been an active participant in the Senior Policy Operating Group 
that manages the inter-agency implementation of the Trafficking Victims 
Protection Act of 2000 and its reauthorization, and have planned and 
executed anti-trafficking events for both Secretaries on their overseas 
trips, including in Ukraine, Cambodia, and Mozambique.

    Question. Mozambique is, of course, one of 15 focus countries under 
the President's Emergency Program for AIDS Relief (PEPFAR). How can 
PEPFAR be most effectively integrated in the country team environment? 
The PEPFAR budget in the country has rapidly climbed from estimated $34 
million in fiscal year 2004 to $162 million in fiscal year 2007 and is 
expected to climb substantially higher in 2008. What are the challenges 
in managing such a significant scale-up? Please evaluate the success of 
PEPFAR's efforts in Mozambique to date. What are the particular 
challenges in combating HIV/AIDS and other health problems in the 
country?

    Answer. The President's emergency plan in Mozambique has been very 
successful to date, and is a testament to the commitment of the in-
country emergency plan team, the host government's efforts to fight 
HIV/AIDS, and the presence of strong, nongovernmental and faith-based 
implementing partners. As of August 2007, more than 75,000 persons were 
receiving anti-retroviral therapy (ART) in Mozambique through the 
President's Emergency Plan; the country will likely achieve its 
emergency plan phase I treatment target of 123,000 persons on ART by 
September 2009, and will come close to meeting its own national 
treatment targets. The Government of Mozambique has now made ART freely 
available in all 128 districts in the country, a remarkable achievement 
that stems, in large part, from strong emergency plan support, as the 
United States provides direct financing to 103 of the 198 sites that 
currently offer ART. Mozambique is also on track to achieve HIV-related 
care targets in nearly all emergency plan program areas.
    In addition, upstream (indirect) emergency plan support to the 
Mozambican Ministry of Health and Women and Social Action, the National 
AIDS Council and other agencies in the government helps ensure a 
comprehensive, national response. This indirect emergency plan support 
includes substantial funding for training, physical infrastructure, the 
procurement of medicine and supplies, and the strengthening of 
distribution systems.
    There are several challenges to the rapid scale-up of the emergency 
plan in Mozambique, however. Three pressing issues I should highlight 
are the following: (1) ensuring the adequate staffing of U.S. 
Government departments and agencies and implementing partners to 
support the expansion of the emergency plan; (2) ensuring close 
communication between U.S. Government staff, with the host government, 
and with other donors; and (3) the paucity of physical infrastructure 
and human resources in Mozambique.
    As the principal for the U.S. Department of Health and Human 
Services on the Policy and Strategy Group for the President's Emergency 
Plan for AIDS Relief, I have been intimately involved in 
conceptualizing and defining ``Staffing for Results,'' a priority 
initiative under the emergency plan for 2007. ``Staffing for Results'' 
seeks to ensure that, as U.S. Government country teams on the ground in 
an emergency plan define their priority areas of intervention, they 
optimally align the staffing and skills across all U.S. Government 
departments and agencies that are supporting HIV/AIDS in the country in 
a way that ensures the most effective implementation of these 
priorities. This ``One U.S. Government'' approach is particularly 
important for ensuring the clear and effective management of partners 
as the emergency plan scales up with expanded budgets. The United 
States Embassy in Maputo is currently putting into practice two 
components of ``Staffing for Results'': restructuring its cross-agency 
emergency plan team to create a more effective, efficient, cross-agency 
implementation of the program; and, better integrating this structure 
into the embassy overall, and aligning it with other U.S. Government 
priorities, including the President's Malaria Initiative and the 
Millennium Challenge Corporation Compact with Mozambique.
    The Mozambique interagency emergency plan team includes active 
participation from all agencies at post: the U.S. Departments of 
Defense; HHS; State; Peace Corps; and the U.S. Agency for International 
Development (USAID). The team won the Emergency Plan Spirit Award 
during the first 2 years of implementation of the program, and has 
continued strong, interagency collaboration, despite staffing turnover 
in recent years. New coordination structures recently implemented in 
Maputo include: (1) the establishment of a full-time emergency plan 
coordinator position; (2) weekly meetings between the front office and 
the principals of each U.S. Government emergency plan implementing 
department or agency at post; and (3) regular interagency emergency 
plan task force meetings, in addition to strong technical working 
groups. These different fora and groups assist the team to reflect 
upon, discuss, and make recommendations on the overall vision, 
strategy, and major programmatic directions for the emergency plan in 
Mozambique. In addition, the interagency emergency plan team in Maputo 
organizes both regular meetings and ad hoc retreats with partner 
agencies in-country; the next team retreat is scheduled for January 
2008.
    Mozambique is a country with very limited physical infrastructure 
and human resources. It has one of the lowest ratios of health care 
workers (doctors, nurses, pharmacists, laboratory technicians) to 
population in the world. In addition, the World Health Organization 
estimates that less than 50 percent of the population in Mozambique has 
access to health facilities. Mozambique has a high burden of many 
infectious diseases (malaria and tuberculosis) in addition to HIV/AIDS. 
All of these realities make the implementation of the President's 
Emergency Plan for AIDS Relief in Mozambique more difficult, but the 
emergency plan strategy and country operational plans managed by the 
United States Government team in Maputo contain elements to address 
infrastructure deficits.
    A key activity in this regard is the training of health care 
workers (especially community health workers, care extenders, 
technicians, and the equivalent of physician assistants) in an effort 
to get around the shortage of doctors and nurses through ``task-
shifting,'' or appropriately training and supervising lay people to 
perform many aspects of basic medical care.
    The emergency plan has also helped to finance the education of 
students at the Catholic University of Beira, the first medical school 
to open in Mozambique since independence. Innovative ``twinning'' 
relationships funded by the emergency plan with institutions in Brazil 
and the United States have contributed to the training of local health 
workers and laboratory technicians, as well. Emergency plan funds have 
also helped in the renovation and refurbishment of medical facilities 
across Mozambique, including hospitals, clinics, and laboratories.

    Question. What are the most positive and the most challenging 
aspects of the bilateral relationship between the United States and 
Mozambique? What would be your chief goals as Ambassador to Mozambique?

    Answer. Mozambique and the United States have had a close and 
positive relationship since the United States helped broker the peace 
accords in the early 1990s, and we have only strengthened that 
relationship further in the intervening years, as reflected by the 
recent visit to Mozambique of First Lady Laura Bush and United States 
Secretary of Health and Human Services, Mike Leavitt. Additionally, in 
July of this year in Washington, we signed a $507 million MCC compact 
with Mozambique, an event attended by Mozambique's President Armando 
Guebuza. The MCC compact underscores the United States Government's 
commitment to alleviating poverty in Mozambique through promoting just 
governance, investing in people, and economic growth. The United States 
is the largest bilateral donor to Mozambique, and Mozambique has now 
become one of the largest recipients of United States foreign 
assistance on the African continent.
    However, the investment climate for United States and other foreign 
investors in Mozambique is less than ideal, and as I have noted above, 
there are many human rights concerns. If confirmed, I would work to 
ensure Mozambique continues on the path towards becoming a vibrant, 
multiparty democracy that aggressively addresses the health challenges 
of AIDS, tuberculosis, and malaria, that has an energetic and free 
press, and that has an ever-improving environment for doing business.
                                 ______
                                 

      Responses of Dr. William R. Steiger to Questions Submitted 
                     by Senator Christopher J. Dodd

    Question. Have you read the cable ref: 04 STATE 258893--Peace 
Corps-State Department Relations?

    Answer. I have read 04 STATE 258893, as well as 07 STATE 78240, 
dated June 6, 2007, which both concern relations between Peace Corps 
and the U.S. Department of State.

    Question. Do you understand and agree to abide by the principles 
set forth in this cable?

    Answer. Yes, I understand and agree to abide by the principles set 
forth in 04 STATE 258893 and 07 STATE 78240.

    Question. Specifically, do you understand and accept that ``the 
Peace Corps must remain substantially separate from the day-to-day 
conduct and concerns of our foreign policy'' and that ``the Peace 
Corps's role and its need for separation from the day-to-day activities 
of the mission are not comparable to those of other U.S. government 
agencies''?

    Answer. I fully understand that Peace Corps activities must remain 
substantially separate from the day-to-day conduct and concerns of our 
foreign policy. I also understand the mission of Peace Corps is not 
comparable to other government agencies. However, where Peace Corps 
itself has agreed to establish linkages with other U.S. Government-
funded programs, such as the Emergency Plan for AIDS Relief, I will 
endeavor, if confirmed, to support those ties. The Peace Corps 
implements Emergency Plan programs in 9 of the 15 Emergency Plan focus 
countries, including Mozambique. Peace Corps posts in these countries 
are using Emergency Plan resources to enhance their HIV/AIDS 
programming and in-country training; field additional Crisis Corps and 
Peace Corps volunteers specifically in support of Emergency Plan goals; 
and provide targeted support for community-initiated projects. As I saw 
during a visit to the CAPRISA site in rural KwaZulu Natal Province in 
the Republic of South Africa on a trip led by Secretary of Health and 
Human Services Mike Leavitt this summer, Peace Corps volunteers who 
work with the Emergency Plan provide long-term capacity development 
support to nongovernmental, community-based, and faith-based 
organizations, with particular emphasis on ensuring that community-
initiated projects and programs provide comprehensive support to people 
who are living with and affected by HIV/AIDS. Peace Corps volunteers 
also aim to develop the necessary management and programmatic expertise 
at organizations that are recipients and beneficiaries of Emergency 
Plan financing to ensure long-lasting support, particularly in rural 
communities.

    Question. Do you pledge, as Secretary Rice requests in 3.B of the 
cable, to exercise your Chief of Mission ``authorities so as to provide 
the Peace Corps with as much autonomy and flexibility in its day-to-day 
operations as possible, so long as this does not conflict with U.S. 
objectives and policies''?

    Answer. If confirmed, I pledge to exercise my Chief of Mission 
authorities to provide Peace Corps with as much autonomy and 
flexibility in its day-to-day operations as possible, so long as this 
does not conflict with U.S. objectives and policies.
                                 ______
                                 

       Responses of Hon. Gail D. Mathieu to Questions Submitted 
                     by Senator Christopher J. Dodd

    Question. Have you read the cable ref: 04 STATE 258893--Peace 
Corps-State Department Relations?

    Answer. I have read 04 STATE 258893, as well as STATE 78240 dated 
June 6, 2007--Peace Corps-State Department Relations.

    Question. Do you understand and agree to abide by the principles 
set forth in this cable?

    Answer. Yes, I understand and agree to abide by the principles set 
forth in 04 STATE 258893 and 07 STATE 78240--Peace Corps-State 
Department Relations.

    Question. Specifically, do you understand and accept that ``the 
Peace Corps must remain substantially separate from the day-to-day 
conduct and concerns of our foreign policy'' and that ``the Peace 
Corps's role and its need for separation from the day-to-day activities 
of the mission are not comparable to those of other U.S. Government 
agencies''?

    Answer. Yes, I fully understand that Peace Corps activities must 
remain substantially separate from the day-to-day conduct and concerns 
of our foreign policy. I also understand that the mission of Peace 
Corps is not comparable to those of other government agencies. In 
coordination with other government agencies, the Peace Corps plays a 
key role in planning and implementing activities under the President's 
Emergency Plan for AIDS Relief (PEPFAR) as well as participating in 
activities to improve Namibia's basic education system.

    Question. Do you pledge, as Secretary Rice requests in 3.B of the 
cable, to exercise your Chief of Mission ``authorities so as to provide 
the Peace Corps with as much autonomy and flexibility in its day-to-day 
operations as possible, so long as this does not conflict with U.S. 
objectives and policies''?

    Answer. I pledge to exercise my Chief of Mission authorities, if 
confirmed, to provide Peace Corps with as much autonomy and flexibility 
in its day-to-day operations as possible, so long as this does not 
conflict with U.S. objectives and policies.

 
                              NOMINATIONS

                              ----------                              


                      WEDNESDAY, OCTOBER 17, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
Obsitnik, Vincent, to be Ambassador to the Slovak Republic
Speckhard, Daniel V., to be Ambassador to Greece
Stephenson, Thomas F., to be Ambassador to the Portuguese 
        Republic
                              ----------                              

    The committee met, pursuant to notice, at 2:36 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert P. 
Casey, presiding.
    Present: Senators Casey, Feingold, Menendez, and DeMint.

        OPENING STATEMENT OF HON. ROBERT P. CASEY, JR.,
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Casey. This Committee on Foreign Relations will 
come to order.
    The committee today will consider the nominations for three 
key U.S. Ambassadorships in Europe. President Bush has 
nominated the Honorable Daniel Speckhard to be Ambassador to 
Greece, Mr. Thomas Stephenson to be the Ambassador to Portugal, 
and Mr. Vincent Obsitnik to be the Ambassador to Slovakia.
    I want to congratulate all of you on your nominations, and 
express the gratitude of the Senate at your willingness to 
engage in public service on behalf of the Nation.
    The relationship that we have--the Trans-Atlantic 
relationship, while somewhat neglected, in my judgment, in 
recent years--remains paramount to our national security 
interests.
    Greece, Portugal, and Slovakia are all NATO allies, and 
NATO continues to bind the United States together with its 
partners in Europe, and still constitutes the most important 
alliance for the United States. NATO today plays a crucial role 
in supporting our objectives in Afghanistan for a 
representative government that can exert sovereign control, and 
ensure that al-Qaeda never again uses its territory as a 
launching pad for terrorist activities and acts.
    NATO, along with the European Union, continues to 
facilitate the consolidation of democratic reforms, and 
economic prosperity in Eastern Europe, one of the last areas of 
the world where regard for America remains very strong. We 
stand together with our European allies against any effort by 
Russia to intimidate its neighbors or otherwise engage in 
hostile acts.
    So, there's a broad agenda for the United States and Europe 
to undertake together in a spirit of cooperation and 
partnership.
    And, of course, Greece, Portugal, and Slovakia will play 
crucial roles in the evolution of the Trans-Atlantic Alliance 
in coming years. So, it is especially important that the United 
States be represented by our finest public servants in Athens, 
Lisbon, and Bratislava.
    Greece, of course, remains central to hopes for political 
and economic stability in the Balkans, especially as the talks 
on Kosovo's final status come to a conclusion at the end of 
this year. While the Greek Government will not always agree 
with aspects--or every aspect of American foreign policy, our 
two nations share cherished democratic values and retain a 
common heritage of liberty and freedom. Three million Americans 
call Greece their ancestral home.
    The Honorable Daniel Speckhard, the nominee to be the 
Ambassador to Greece, has cultivated a distinguished civil 
service career in the United States Government that dates back 
to 1982; from 1997 to 2000, he ably represented the United 
States as Ambassador to Belarus, even as relations between the 
two nations deteriorated over antidemocratic behavior of the 
Lukashenko regime.
    From 2000 to 2005, he served in a vital leadership position 
within the NATO Alliance, as Deputy Assistant Secretary General 
for Political Affairs, and the Director of Policy Planning.
    For 2 years--for the past 2 years, I should say--Ambassador 
Speckhard has served in an especially important position in 
Baghdad, first as Director of the Iraq Reconstruction 
Management office, and more recently, as Deputy Chief of 
Mission at our embassy. He is an accomplished public servant, 
and I'm grateful he's been nominated for this vital position in 
Athens.
    Next, Portugal has long been a steadfast ally to the United 
States. Portugal's contributions to NATO-led peacekeeping 
operations in the Balkans and Afghanistan have been 
significant, especially in light of the modest size of its 
military. The American air base in the Azores Islands remains 
essential to our military deployments around the world.
    As a current holder of the rotating presidency of the 
European Union, Portugal has maintained its 500-year-old 
tradition of leadership as the center of the trans-Atlantic 
relations.
    The nominee who's with us today for the post of Ambassador 
to Portugal, Mr. Thomas Stephenson, is an accomplished venture 
capitalist, and investment banker. For the past 19 years, he's 
been a prominent member of the business community in Silicone 
Valley as a venture capitalist there. He has served on, I 
should say, dozens of private and public corporate boards, 
including the Hoover Institution, and the Woodrow Wilson 
Center.
    Although this position would represent his first 
opportunity for government service, Mr. Stephenson has shown an 
admirable commitment to public service through his community 
and volunteer activities.
    Finally, Slovakia is a recent addition to NATO, having only 
entered the alliance in 2004. Today, Slovakia is governed by a 
ruling coalition that is quite outspoken in its criticism of 
United States foreign policy. The United States and Slovakia 
must continue to cooperate on a range of issues, ranging from 
energy security in Central and Eastern Europe, to the final 
status of Kosovo.
    My home State of Pennsylvania happens to be one of those 
States that can boast the largest population of Slovak-
Americans in the United States, and I might add, so is our 
nominee.
    Mr. Vincent Obsitnik can speak the language, possesses a 
special understanding of the Slovak culture, he's an equally 
qualified to make an immediate and positive impact on popular 
perceptions in Slovakia of the United States and the actions we 
undertake, and he's a graduate of the United States Naval 
Academy, and a veteran submariner. His post-naval career saw 
him become a senior executive in the information and 
telecommunications systems industry.
    And with Americans dying in combat in foreign lands today, 
and our international prestige, in my judgment, at an all-time 
low--this country demands capable representatives to advocate 
for our interests overseas. And I speak to each of you when I 
say this, as well: If you are confirmed for your respective 
positions, I trust you'll dedicate yourselves fully to your 
positions, even as this administration enters its final months 
in power.
    I look forward to hearing your views, and how you intend to 
serve as ambassadors of our great Nation.
    At this time, I will turn to my colleague, Senator 
Feingold, for his introduction, and then I'll go back to 
Senator DeMint when he's here, and also Senator Menendez.

               STATEMENT OF HON. RUSS FEINGOLD, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Feingold. Thank you very much, Senator Casey, for 
chairing this hearing and thanks to all of the witnesses for 
your willingness to serve the U.S. Government overseas. These 
are challenging positions, and I have great admiration for 
those who are willing to spend years abroad, serving as the 
eyes and ears--and sometimes mouth--of the U.S. Government.
    Senator Casey, I'm especially pleased to be here today to 
introduce Ambassador Dan Speckhard, the nominee for the 
position of Ambassador to Greece. As I'm sure you will know 
from his resume, Ambassador Speckhard and I share a number of 
commonalities--we are both Wisconsinites, we share the same 
great alma mater, and we believe we can serve U.S. citizens by 
working in the Federal Government.
    Ambassador Speckhard--it's good to see you again.
    Mr. Chairman, I had the opportunity to meet with the 
Ambassador when I traveled to Iraq in 2006, when he was taking 
on a very challenging responsibility involving the 
reconstruction of Iraq. As always, I was pleased to encounter a 
Wisconsinite so far from home. But I was even more pleased to 
know the Ambassador was following a long and proud tradition of 
Wisconsinites committing their lives to public service, and I 
could tell from his presentation how, not only dedicated and 
capable he was, and is.
    Senator Casey, I don't know whether you've ever visited 
Wisconsin, but if you have, your time was more than likely in 
Madison or Milwaukee. Well, the Ambassador, here, grew up in 
Wausau, a north-central town that is a little bit less known 
than those other two cities. Wausau is not only one of the most 
scenic towns in our State; it is also vibrant, and eclectic 
members of the Wausau community strongly believe in the 
importance of community service, and understand the impact 
world affairs plays in their day-to-day life. I am proud that 
the Wausau community has generated such a committed and 
dedicated public servant.
    Given his long history with the Department of State serving 
in a range of offices and embassies, I am confident that 
Ambassador Speckhard will dutifully and effectively represent 
our interests in Greece.
    Thank you, Ambassador, for your ongoing commitment to 
public service. I would also like to thank your family--and I 
see your wife, Ann--for the sacrifices they have made to 
support you and your career.
    So, Mr. Chairman, thank you again for chairing this 
hearing, and thank you to all the nominees here today. I wish 
you all the best of luck.
    Senator Casey. Thank you, Senator Feingold, and I 
appreciate that introduction. I haven't been to Wisconsin yet, 
but I apparently have to get there now. [Laughter.]
    Thank you.
    Senator Menendez.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Mr. Chairman, I appreciate all of our 
nominees coming before the committee, I appreciate their 
willingness to serve, and I'm looking forward to the question 
and answer session. I have several questions, particularly to 
Ambassador Speckhard, who I had the privilege of meeting the 
other day.
    United States-Greece relationships are something I've 
followed for the last 15 years in the Congress, I think it's an 
important post, particularly what's happening in the Balkans, 
our relationships with Turkey, a whole series of issues there, 
so I look forward to some of his answers.
    As well as Ambassador Stephenson--we have a very large 
Portuguese-American community in New Jersey who have done 
exemplary things, and Portugal has played a very constructive 
role in Europe for us, and with us, so they're both very 
important assignments, as well as, of course, Mr. Obsitnik, who 
is going to be the Ambassador to the Slovak Republic.
    But those are two interest points, and I'll have an 
opportunity to ask questions at that time.
    Senator Casey. Thank you, Senator.
    We'll turn to our nominees now, and I'd ask you to deliver 
your statements in the order you were introduced, so I guess 
we're going right to left, if I'm correct. And I'd encourage 
you to keep your remarks as brief as you can, and succinct, so 
we can move to questions. If you're summarizing your statement, 
of course, the full text of your statement will be included in 
the hearing record.
    But, I have to say, because of where you sit today, I know 
this is a very proud moment for each of you, and I would hope 
that, if you're able to do it, when you're making your 
statements today that you would introduce your family in 
whatever way is suitable for you. Because it's an important day 
for you and your families we want to make sure that we give you 
that opportunity, or a reminder--I've been in places where I 
should have introduced my family and didn't, so----
    [Laughter.]
    Senator Casey. If you want to take that as part of your 
statement, we'd certainly encourage that.
    Ambassador.

            STATEMENT OF HON. DANIEL V. SPECKHARD, 
               NOMINEE TO BE AMBASSADOR TO GREECE

    Mr. Speckhard. Thank you, Mr. Chairman and distinguished 
Senators. It's an honor to appear before you as the President's 
nominee for the United States Ambassador to the Hellenic 
Republic.
    I would like to thank Senator Feingold for his generous 
introduction, and taking the time to be here today. I'm proud 
to be a fellow Wisconsinite and appreciate the personal 
devotion and attention that he's given to representing our 
State, and I'm proud to be a colleague in that respect.
    I would like to introduce--and thank you for the reminder--
my wife, Ann, who is sitting here behind me, and she's with me 
here today. And, unfortunately, my children--Leah, Jessica, and 
Daniel, who weren't able to be here--because they have made a 
lot of personal sacrifices to support me in my public service 
career, most notably over the last 2 years when I was in Iraq, 
and was not able to live with them. Ann carried much of the 
burden of the family during that period, and has done so, 
actually, during much of my public service career.
    So, any small contribution that I've been able to make to 
public service, and to my country, really starts with the 
support they've given me.
    Mr. Chairman, I'm humbled that the President and Secretary 
Rice have placed their confidence in me for this important 
post. If confirmed, I will put all of my energy towards 
strengthening our relations with Greece, and working together 
to promote regional stability and tackle global problems.
    I believe my career has helped me prepare for this 
important assignment. For 25 years as a public servant, and 
nearly a decade of that overseas as Ambassador of Belarus, 
Deputy Chief of Mission to Iraq, and a Senior Official at NATO, 
I have honed my diplomatic and leadership skills. And, I've 
worked closely during those periods with Greek diplomats and 
have spent time working on trying to promote stability in the 
Balkans, and consolidating democracy across Europe. And I think 
that experience will put me in a good starting point to begin 
work, if confirmed, in Athens.
    Our partnership with Greece stems from our close ties that 
our nations share as allies and members of the Euro-Atlantic 
community, and from the millions of Americans who can trace 
their ancestry to the Hellenic Republic. Both Greeks and 
Americans share a common heritage, based on a belief in values 
such as liberty, freedom, and equality. We have stood together 
with the Hellenic Republic time and time again to defend those 
values across the globe.
    As we look to the future, the Balkans in particular, 
require continued attention to ensure peace, economic 
transformation, and integration of all of the countries into 
the region, and Euro-Atlantic institutions.
    The unresolved nature of the future status of Kosovo 
remains a barrier to development of the region, and in the 
coming months it will be critical to see a resolution as 
envisaged by the special U.N. Envoy Antisaari.
    As an anchor in the region, Greece has an important 
interest in seeing this resolved. Greece is one of the largest 
investors in Balkan economies, and its leadership will be 
crucial to seeing history there unfold on a positive course.
    If confirmed, I will work closely with the Government of 
Greece to increase our cooperation to bring stability to this 
critically-important region.
    Greece also has an important interest and role to play in 
bringing diversified sources of energy to the European market. 
The United States wholeheartedly supports these efforts to 
diversify and to introduce true market competition to this 
vital economic sector.
    Development of the Turkey-Greece-Italy pipeline is a 
significant step in that direction, and as well as a sign of 
the improved relations between Greece and Turkey. Both 
countries recognize the vital interests they share. Greece's 
support for closer bilateral relations with Turkey, as well as 
its support for Turkey's integration into the European Union, 
is further recognition of their common interests.
    By bridging the divides that are left between those two 
countries, the conditions can be created to solve other 
longstanding problems. In the case of Cyprus, I hope a just and 
lasting resolution and settlement acceptable to majorities in 
both communities, can be achieved through the efforts of 
Cypriots, and the support of the international community.
    Greece's location at the crossroads of Asia, the Middle 
East, the Balkans and Europe, along with its preeminent global 
shipping industry, make it a crucial ally in combating 
terrorism, and trafficking in persons. It is also well-situated 
to be an important partner in the international communities' 
effort to curb the proliferation of weapons of mass destruction 
and to fight trafficking in drugs and illicit arms.
    But cooperation should not be limited to regional or global 
matters. My family and I were deeply saddened, along with our 
fellow Americans, while watching the wildfires ravage Greece. 
I'm pleased that the United States provided $1.9 million to 
assist the Government of Greece, and improving firefighting 
capabilities, meet humanitarian needs, and for rehabilitation 
and reforestation efforts.
    If confirmed, I look forward to working closely with the 
Greek Government, other United States agencies, Congress and 
the Greek-American community in strengthening our cooperation 
in what is a common threat and challenge for both our 
countries.
    I would like to close, Mr. Chairman, by mentioning the 
important role that Greek-Americans play, both in our own 
country's history, and in ensuring that our relationship with 
the Hellenic Republic is strong. In my career as a diplomat, 
I've come to realize that nothing is more important, or 
effective, in presenting the best face of America than the 
personal ties and connections that private Americans establish 
every day on their own.
    Mr. Chairman, it's been an honor to appear before you 
today, and if confirmed, I want to assure you that I look 
forward to working with you, members of the committee and the 
Congress in representing my fellow Americans as the Ambassador 
to Hellenic Republic.
    Thank you, and I welcome any questions.
    [The prepared statement of Mr. Speckhard follows:]

            Prepared Statement of Hon. Daniel V. Speckhard, 
                   Nominee to be Ambassador to Greece

    Mr. Chairman and distinguished Senators, it is an honor to appear 
before you today as the President's nominee for the United States 
Ambassador to the Hellenic Republic. I am humbled that President Bush 
and Secretary Rice have placed their confidence in me for this 
important post. I look forward to earning the confidence of this 
committee and the Senate as you fulfill your important responsibilities 
as part of our democratic system. If confirmed, I will put all of my 
energy and experience toward strengthening our relations with Greece 
and working together to promote regional stability and tackle some of 
the global problems that we face together.
    Mr. Chairman, as you know Greece is a strategic partner of the 
United States. Our partnership stems from the close ties our nations 
share as members of the Euro-Atlantic community, as NATO allies, and 
from the millions of Americans whose ancestry can be traced back to the 
Hellenic Republic. Both Greek and American people share a common 
heritage, based on a belief in values such as liberty, freedom, and 
equality. The concept of democracy originated in Ancient Greece and the 
ideals the Ancient Greeks embodied profoundly influenced the founders 
of our great Nation. Since then, we have stood together with the 
Hellenic Republic time and time again to defend democracy across the 
globe: in both world wars, on the Korean Peninsula and in the Balkans. 
Today the Greek people are allied with us in combating terrorism, 
including in Afghanistan where they have contributed troops and 
resources.
    While humbled by the prospect of representing our country, I 
believe my career has helped prepare me for this important assignment. 
I have spent 25 years as a public servant--nearly a decade of that 
overseas. As Ambassador to Belarus, the Deputy Chief of Mission in 
Iraq, and a senior official at NATO, I have honed my diplomatic and 
leadership skills in both bilateral and multilateral affairs. At NATO, 
I worked closely with senior Greek diplomats to promote stability in 
the Balkans and strengthen and consolidate democracy across Europe as 
part of NATO's Partnership for Peace program and NATO enlargement. This 
experience provides a good basis to begin my work in Athens should the 
Senate confirm me in this position.
    Our country's relationship with Greece clearly is important for our 
interest in stability in Southern and South Central Europe. The 
Balkans, in particular, require continued attention in the coming years 
to ensure peace, economic transformation, and integration of all 
countries in the region into Euro-Atlantic institutions. The unresolved 
nature of the future status of Kosovo remains a barrier to the 
development of the region, and in the coming months it will be critical 
to see a resolution as envisaged by the U.N. Special Envoy, Maarti 
Ahtisaari. As an anchor in the region, Greece has an important interest 
in seeing this resolved. Greece is one of the largest investors in 
Balkan economies, and its leadership will be crucial to seeing history 
there unfold on a positive course. If confirmed, I will work closely 
with the Government of Greece to increase our cooperation to bring 
stability to this critically important region.
    Greece also has an important interest and role to play in bringing 
diversified sources of energy to the European market. The United States 
wholeheartedly supports these efforts to diversify, and to introduce 
true market competition to this vital economic sector.
    The inauguration of the Turkey-Greece-Italy Pipeline (TGI) between 
Greece and Turkey will allow Caspian gas to be directly transported to 
the European market via a new, diversified route. It is a positive step 
in the development of relations between Greece and Turkey, reflecting 
the constructive relations they have developed in recent years. By 
recognizing the vital interests they share in the 21st century and 
displaying strong political will, the Government of Greece has 
supported closer bilateral relations with Turkey as well as championing 
Turkey's integration with the European Union. If confirmed, I will 
strongly support Greece as it continues to increase its engagement with 
Turkey.
    By bridging the divides that are left between these two countries, 
we can create the conditions in the region to resolve other, 
longstanding problems. In the case of Cyprus, I hope a just and lasting 
settlement, acceptable to majorities in both communities, can be 
achieved through the efforts of Cypriots and the support of the 
international community.
    I also look forward to working with Greek officials on issues of 
global importance which threaten the safety and well being of all. 
Greece's location at the crossroads of Asia, the Middle East, the 
Balkans, and Europe, along with its preeminent global shipping 
industry, make it a crucial ally in combating both terrorism and 
trafficking in persons. Greece is also well situated to be an important 
partner in the international community's efforts to curb the 
proliferation of weapons of mass destruction, and to fight trafficking 
in drugs and illicit arms. These are some of the greatest challenges of 
our world today, requiring diligence and significant effort from all 
countries.
    In the same vein, the stability and health of the environment and 
the challenge of climate change will become increasingly important in 
the next few years. Greece's natural beauty is well known the world 
over, and to ensure it remains a treasure for Greeks and all those who 
visit, we need to work together to find new and creative ways to 
sustain the soundness of global and local environments alike.
    Cooperation on issues should not be limited to regional or global 
matters though. The recent, devastating wildfires that ravaged Greece 
remind us that natural disasters can strike anywhere and at any time. 
As a good partner and friend, I am happy to say that the United States 
has provided over $1.9 million in assistance, including cash donations 
to the Hellenic Red Cross, nonperishable commodities, and funding for a 
team of experts to provide technical assistance and build the 
foundation for robust cooperation in the future. I have met with the 
members of the Office of Foreign Disaster Assistance and United States 
Forest Service who traveled to Greece to offer technical assistance to 
their Greek counterparts. The team's message to me was clear: Greek 
firefighters are some of the best in the world, and they performed 
admirably under rigorous conditions. Our common experience in dealing 
with forest fires and the similarity between the landscapes in Greece 
and the western United States means that there is a great benefit to 
continued cooperation and mutual support. My hope is that the 
constructive dialog between Greek and American firefighting and burned-
area experts, initiated as a result of this tragedy, continues to 
deepen as Greece begins to focus on vital reconstruction, 
reforestation, and rehabilitation.
    In that vein, I would like to mention the important role that 
Greek-Americans play, both in our own country's history and in ensuring 
that our relationship with the Hellenic Republic is so strong. In my 
career as a diplomat I have come to realize that no matter what we, in 
our capacity as public servants, do to represent this great country, 
nothing is more effective at presenting the best face of America than 
the personal ties and connections Americans establish every day on 
their own. I would note the beneficial role Greek-Americans have played 
by contributing to all sectors of our own society, and the continuing 
role they play in strengthening relations between the United States and 
Greece.
    Mr. Chairman, it has been an honor to appear before you today, and 
it would be a privilege to represent my fellow Americans as the United 
States Ambassador to the Hellenic Republic.
    Thank you again and I welcome any questions.

    Senator Casey. Thank you, sir.
    Mr. Stephenson.

       STATEMENT OF THOMAS F. STEPHENSON, NOMINEE TO BE 
             AMBASSADOR TO THE PORTUGUESE REPUBLIC

    Mr. Stephenson. Mr. Chairman, members of the committee, 
thank you. I would like to introduce my wife, Barbara, and my 
son, Alexander, who will be going with me to Portugal, who are 
very excited about the prospect, and doing it as a family.
    I am honored to appear before you today as the President's 
nominee to be the next Ambassador to Portugal. I want to 
express my deep appreciation to President Bush and Secretary 
Rice for the trust and confidence they have placed in me to 
perform this important job. If confirmed, I will work hard to 
promote and defend American interests in Portugal.
    In some ways, I have been preparing to be an ambassador for 
many years. I am an avid student of foreign policy, and have 
had the great advantage of being actively involved at the 
Hoover Institution for some time. Frequent exposure to, 
interaction with, and in some cases, close friendships with 
many Hoover Fellows, have provided me with a wonderful 
opportunity to learn from some of the brightest minds in their 
fields.
    I feel particularly fortunate to be close to former 
Secretary Shultz, and current Secretary Condoleezza Rice, and 
have had the great opportunity to learn about and see through 
their eyes, so many of the important issues of the day. In 
addition, several outstanding economists and former 
administration officials now at Hoover have had a huge impact 
on my understanding of both domestic and international economic 
issues. I'm currently working with Secretary Shultz to mobilize 
an energy task force at Hoover that will explore all aspects of 
what we hope will be a comprehensive and coherent set of 
recommendations for policy makers.
    Portugal and its fellow European Union members are 
wrestling with many of the same complex energy and climate 
issues that we face in this country, and I hope to be better 
able to contribute in various ways to that important dialog, as 
a result of my engagement with the Hoover Energy Taskforce. I'm 
also hopeful that my almost 40 years in the venture capital 
business, working mostly with technology companies, will enable 
me to make a meaningful contribution as an ambassador for 
United States business and commercial interests in Portugal.
    Portugal and the United States share a long tradition of 
close political and cultural ties. Uniquely placed on the far 
western edge of Continental Europe, Portugal has demonstrated 
in word and action, its solid commitment to the trans-Atlantic 
relationship. Portugal has personnel serving in Afghanistan, 
Lebanon, the Balkans, Timor-Leste, and Iraq. In addition, 
thousands of United States aircraft annually transit Portugal's 
largest airbase in the Azores, in support of our armed forces 
around the world.
    Portugal has been an outstanding partner in the war on 
terror, and collaborates actively with us, as a member of the 
Proliferation Security Initiative, the Container Security 
Initiative, and the Global Initiative to Combat Nuclear 
Terrorism.
    Last month, Portugal ratified the United States-European 
Union Extradition and Mutual Legal Assistance agreements. These 
agreements will markedly improve our counterterrorism and law 
enforcement cooperation.
    I come before you during an opportune time in our bilateral 
relationship. Portugal's 6-month European Union presidency, 
Lisbon has traditionally exhibited its strongest influence over 
the European Union agenda when it serves in this capacity. If 
confirmed, I will use the time remaining in Portugal's 
presidency--and afterwards--to continue the outstanding work of 
Ambassador Hoffman and his embassy--his U.S. Embassy team, to 
promote our interests in Lisbon, both bilaterally, and in the 
European Union context.
    We congratulate Portugal on the excellent work it is doing 
as European Union president--it is no easy task. In holding the 
European Union presidency, Portugal is working hard to help 
resolve the situation in Kosovo, and bring long-term stability 
to this volatile region. It also widely recognizes that some of 
the European Union's biggest foreign policy concerns are along 
its southern and southeastern borders, which are threatened by 
radical Islam and poverty. The Portuguese are reaching out to 
develop a strategic partnership with Africa, and strengthen 
European Union ties with Brazil, India, China, Russia, and 
Ukraine, through high-profile summits.
    With the European Union, Lisbon's primary goal is to secure 
endorsement of a final text of the European Union treaty by 
December.
    Both before, and during, its presidency, Portugal has kept 
open the lines of communication. Prime Minister Socrates' 
meeting with President Bush in September maintained this 
excellent record of close collaboration.
    As United States Ambassador to Portugal, I will continue to 
deepen and broaden our dialog.
    Mr. Chairman, members of the Committee, thank you for the 
opportunity to appear before you today. If confirmed, I look 
forward to working with you and your colleagues in Congress to 
serve the American people, and advance our national interests 
overseas. I look forward to answering any questions you may 
have.
    Thank you.
    [The prepared statement of Mr. Stephenson follows:]

       Prepared Statement of Thomas F. Stephenson, Nominee to be 
                 Ambassador to the Portuguese Republic

    Mr. Chairman, members of the committee, I am honored to appear 
before you today as the President's nominee to be the next United 
States Ambassador to Portugal. I want to express my deep appreciation 
to President Bush and Secretary Rice for the trust and confidence they 
have placed in me to perform this important job. If confirmed, I will 
work hard to promote and defend American interests in Portugal.
    In some ways, I have been preparing to be an ambassador for many 
years. I am an avid student of foreign policy and have had the great 
advantage of being actively involved at the Hoover Institution for some 
time. Frequent exposure to, interaction with, and, in some cases, close 
friendships with many Hoover fellows have provided me with a wonderful 
opportunity to learn from some of the brightest minds in their fields. 
I feel particularly fortunate to be close to former Secretary George 
Shultz and current Secretary Condoleezza Rice, and have had the great 
opportunity to learn about and see through their eyes so many of the 
important issues of the day. Outstanding economists and former 
administration officials have had a huge impact on my understanding of 
both domestic and international economic issues.
    I am currently working with Secretary Shultz to mobilize an Energy 
Task Force at Hoover that will explore all aspects of what we hope will 
be a comprehensive and coherent set of recommendations for 
policymakers. Portugal and its fellow European Union members are 
wrestling with many of the same complex energy and climate change 
issues that we face in this country, and I hope to be better able to 
contribute in various ways to that important dialog as a result of my 
engagement with the Hoover Energy Task Force. I am also hopeful that my 
almost 40 years in the venture capital business, working mostly with 
technology companies, will enable me to make a meaningful contribution 
as an ambassador for United States business and commercial interests in 
Portugal.
    Portugal and the United States share a long tradition of close 
political and cultural ties. Uniquely placed on the far western edge of 
continental Europe, Portugal has demonstrated in word and action its 
solid commitment to the transatlantic relationship. Portugal has 
personnel serving in Afghanistan, Lebanon, the Balkans, Timor-Leste, 
and Iraq. In addition, thousands of United States aircraft annually 
transit Portugal's Lajes Air Base in the Azores in support of our Armed 
Forces around the world. Portugal has been an outstanding partner in 
the war on terror and collaborates actively with us as a member of the 
Proliferation Security Initiative, the Container Security Initiative, 
and the Global Initiative to Combat Nuclear Terrorism. Last month, 
Portugal ratified the United States-European Union Extradition and 
Mutual Legal Assistance Agreements. These agreements will markedly 
improve our counterterrorism and law enforcement cooperation.
    I come before you during an opportune time in our bilateral 
relationship: Portugal's 6-month European Union Presidency. Lisbon has 
traditionally exhibited its strongest influence over the European Union 
agenda when it serves in this capacity. If confirmed, I will use the 
time remaining in Portugal's Presidency--and afterwards--to continue 
the outstanding work of Ambassador Hoffman and his United States 
Embassy team to promote our interests in Lisbon, both bilaterally and 
in the European Union context.
        1We congratulate Portugal on the excellent work it is doing as 
        European Union President. It is no easy task. In holding the 
        European Union Presidency, Portugal is working hard to help 
        resolve the situation in Kosovo and bring long-term stability 
        to this volatile region. It also wisely recognizes that some of 
        the European Union's biggest foreign policy concerns are along 
        its southern and southeastern borders, which are threatened by 
        radical Islam and poverty. The Portuguese are reaching out to 
        develop a strategic partnership with Africa, and strengthen 
        European Union ties with Brazil, India, China, Russia, and 
        Ukraine through high-profile summits. Within the European 
        Union, Lisbon's primary goal is to secure endorsement of a 
        final text of a new European Union ``treaty'' by December.
    Both before and during its Presidency, Portugal has kept open the 
lines of communication with us. Prime Minister Socrates' meeting with 
President Bush in September maintained this excellent record of close 
collaboration. As United States Ambassador to Portugal, I will continue 
to deepen and broaden our dialog.
    Mr. Chairman, members of the committee, thank you for the 
opportunity to appear before you today. If confirmed, I look forward to 
working with you and your colleagues in Congress to serve the American 
people and advance our national interests overseas. I look forward to 
answering any questions you may have.

         STATEMENT OF VINCENT OBSITNIK, NOMINEE TO BE 
               AMBASSADOR TO THE SLOVAK REPUBLIC

    Mr. Obsitnik. Thank you, Senator Casey, Mr. Chairman, 
members of the committee, thank you for the honor to appear 
before you, as President Bush's nominee to represent the United 
States in Slovakia.
    I would also like to express my appreciation to the 
President and Secretary Rice for the confidence they have 
showed in me, by putting my nomination forward.
    With me today is my wife, Anna Marie, whom I would also 
like to thank for her support and encouragement throughout our 
over-46 years of marriage and the raising of our four sons, who 
are not here because they are out making a living. Without 
doubt, but with some humility, I would like to say that I have 
been privileged to live the American dream, and I'd like to 
take a minute just to address that.
    Although I was born in Slovakia, my roots go back to 
Western Pennsylvania. My grandparents immigrated there in the 
late 1890s, where my father was born in 1901. A year later, his 
parents returned to Slovakia, where he grew up and married. My 
parents then decided that America was the country in which they 
wanted to live and raise their family, and in March 1938, 2 
months after I was born, we immigrated to the United States. I 
give great credit to my parents for the wisdom of this 
decision, so that I could appear before you today, especially 
back at that time in 1938, of approaching crisis and war in 
Europe.
    We settled in Nanty-Glo, Pennsylvania, where my father 
worked as a coal miner. In 1946, we moved to Lilton, New 
Jersey, where I graduated from high school, after which I 
received an appointment to the U.S. Naval Academy which was, 
for me, a life changing experience.
    After graduating from the Academy, I had the honor of 
serving in the U.S. Navy for 5 years as an officer, and my time 
in the Navy taught me about service, and the true meaning of 
duty, honor, and country.
    After serving the Navy, I went out to have successful 
corporate careers with the IBM, Unisys, and Lilton/PRC 
Corporations, after which I established my own consulting firm. 
At these corporations, I was involved with providing electronic 
systems for our armed forces during the cold war, and also had 
international responsibilities in manufacturing and marketing.
    As you can see, I truly have lived the American dream from 
an early age and throughout my career. I believe that my 
personal background and professional experience have prepared 
me well for the duties of United States Ambassador to Slovakia, 
should I be confirmed by the Senate.
    Mr. Chairman, the United States-Slovak relationship is a 
strong one that has weathered challenges over the years, but 
continues to move forward on a range of key issues of 
importance to the United States. It is a relationship that is 
also enriched by generations of Slovak-Americans, and the 
enduring ties they maintain with their land of origin.
    United States-Slovak relations are defined, to a large 
extent, by our common membership in NATO, and by the fact that 
Slovakia is part of the European Union. One of our key 
challenges, however, is to underscore to the government and the 
people of Slovakia, that as allies with shared values and 
thriving democracies, our national interests do coincide.
    The United States-Slovak relationship does have its 
challenges. A new leftist coalition government in Slovakia has 
taken slightly different directions than the previous 
government. Our foreign policy, in particular, the Iraq war, 
has caused disagreement, and Slovaks are increasingly looking 
to travel and study in the European Union, rather than the 
United States.
    Despite our differences, however, I believe that the United 
States and Slovakia can and must work together on our 
disagreements, thus maintaining our strong relationship.
    If confirmed, my No. 1 priority will be to foster and 
sustain such a relationship, by reaching out personally to the 
Slovak Government and people, to explain the United States' 
perspective, to promote United States policy interests, to 
remind the young people of our common history and the support 
that we provided to the Slovak people during Communism, and to 
ensure that--above all--American goodwill is understood.
    In addition, I will continue to support our embassy's 
efforts to expand academic, scientific, and cultural exchanges, 
all of which will serve to bring our people closer together.
    Slovakia has been a proud European Union and NATO member 
since 2004, with all that this implies with privilege and 
obligation. It has approximately 525 troops deployed overseas 
in NATO, European Union, and U.N. missions. Slovakia has joined 
us and sacrificed with us in the war on terror. Its troops have 
been deployed in Iraq, Afghanistan, and in Kosovo.
    If confirmed, one of my top priorities will be to continue 
strong Slovak and United States cooperation in the fight 
against terror, and to encourage the Slovak Government to 
further deepen its commitment to NATO by increasing its 
participation in NATO missions, particularly in Afghanistan.
    And, I'd just like to add that we've just received a cable 
this morning from our Embassy in Bratislava, and apparently the 
Slovak Government, under Prime Minister Fico, has agreed, and 
decided to increase their participation substantially in 
Afghanistan, which still must be approved by their parliament, 
so that is a step in the right direction.
    One of the difficult issues that affect United States and 
Slovak relations is admission to the visa waiver program. 
Slovakia is working constructively to meet the list of 
requirements that will enable us to join the visa waiver 
program.
    Should I be confirmed, one of my top priorities will be to 
assist the efforts of the Slovak Government to meet these 
standards as soon as possible. In my public outreach, I will 
reinforce the administration's commitment to facilitating 
travel between our two countries while, however, maintaining 
the security of international travel. Such a development, I'm 
convinced, will enhance understanding between our peoples, and 
serve our bilateral relations.
    On the economic front, Slovakia's economy is the fastest-
growing in Europe, with a growth rate of 9.4 percent in the 
second quarter of 2007. Economic reforms and a corresponding 
influx of foreign investment have led to impressive growth. A 
dramatic decrease in unemployment, and a healthy macroeconomy 
that has put Slovakia on target to adopt the Euro on January 1, 
2009.
    Despite these positive developments, corruption continues 
to be a problem, and just recently, the embassy cohosted an 
anticorruption conference that was opened by the Prime Minister 
of Slovakia, Mr. Robert Fico. If confirmed, I will continue to 
work diligently with our Slovak partners on anticorruption 
initiatives and efforts, to benefit not only the people of 
Slovakia, but also American businesses.
    There are, today, approximately 120 United States companies 
with investments, and/or sales offices in Slovakia, and it is 
estimated that United States investments total more than $3 
billion. There are various efforts underway to deepen our 
economic cooperation, and just last month, Commerce Assistant 
Secretary Hernandez led a trade mission on renewable energy and 
alternative fuels to Slovakia, and other countries in Central 
Europe.
    If confirmed, I will work to increase opportunities for 
U.S. companies, and further expand our trading and investment 
relationship, resulting in benefits to both our peoples.
    Mr. Chairman, if confirmed, I look forward to pursuing 
these and other goals, to leading an embassy that represents 
the finest values of the United States, and do everything that 
I can to increase the friendship, warmth, and strength of our 
ties with Slovakia.
    I thank you again for this opportunity to appear before 
you.
    [The prepared statement of Mr. Obsitnik follows:]

         Prepared Statement of Vincent Obsitnik, Nominee to be 
                   Ambassador to the Slovak Republic

    Mr. Chairman, members of the committee, thank you for the honor to 
appear before you as President Bush's nominee to represent the United 
States in Slovakia. I would also like to express my appreciation to the 
President and Secretary Rice for the confidence they have shown in me 
by putting my nomination forward. With me today is my wife, Annemarie, 
whom I would also like to thank for her support and encouragement 
throughout our over 46 years of marriage and the raising of our four 
sons.
    Without doubt but with humility, I would like to say that I have 
been privileged to live the American dream. Although I was born in 
Slovakia, my roots go back to western Pennsylvania. My grandparents 
immigrated there in the late 1890s, where my father was born in 1901. A 
year later, his parents returned to Slovakia, where he grew up and 
married. My parents then decided that America was the country in which 
they wanted to live and raise their family and, in March 1938, 2 months 
after I was born, we immigrated to the United States. I give great 
credit to my parents for the wisdom of this decision, especially at a 
time of approaching crisis and war in Europe.
    We settled in Nanty-Glo, PA, where my father worked as a coal 
miner. In 1946, we moved to Linden, NJ, where I graduated from high 
school. I then received an appointment to the U.S. Naval Academy which 
was, for me, a life-changing experience. After graduating from the 
Academy, I had the honor of serving in the U.S. Navy for 5 years as an 
officer. My time in the Navy taught me about service and the true 
meaning of duty, honor, and country.
    After serving in the Navy, I went on to have successful corporate 
careers with the IBM, Unisys, and Litton/PRC Corporations, after which 
I established my own consulting firm. At these corporations, I was 
involved with providing electronic systems for our Armed Forces during 
the cold war and also had international responsibilities in 
manufacturing and marketing.
    As you can see, I truly have lived the American dream from an early 
age and throughout my career. I believe that my personal background and 
professional experience have prepared me well for the duties of United 
States Ambassador to Slovakia, should I be confirmed by the Senate.
    Mr. Chairman, the United States-Slovak relationship is a strong one 
that has weathered challenges over the years but continues to move 
forward on a range of key issues of importance to the United States. It 
is a relationship that is also enriched by generations of Slovak-
Americans and the enduring ties they maintain with their land of 
origin.
    United States-Slovak relations are defined to a large extent by our 
common membership in NATO and by the fact that Slovakia is part of the 
European Union. One of our key challenges is to underscore to the 
Government and people of Slovakia that, as allies with shared values 
and thriving democracies, our national interests coincide. The United 
States-Slovak relationship does have its challenges: a new leftist 
coalition government in Slovakia has taken slightly different 
directions than the previous government; our foreign policy, in 
particular the Iraq war, has caused disagreement; and Slovaks are 
increasingly looking to travel and study in the European Union, rather 
than the United States. Despite our differences, I believe that the 
United States and Slovakia can and must work together on our 
disagreements, thus maintaining our strong relationship.
    If confirmed, my No. 1 priority will be to foster and sustain such 
a relationship by reaching out personally to the Slovak Government and 
people to explain the United States' perspective, to promote the United 
States' policy interests, remind young people of our common history and 
the support that we provided to the Slovak people during Communism, and 
to ensure that American goodwill is understood. In addition, I will 
continue to support our embassy's efforts to expand academic, 
scientific, and cultural exchanges, all of which will serve to bring 
our peoples closer together.
    Slovakia has been a proud European Union and NATO member since 
2004, with all that this implies in privilege and obligation. It has 
approximately 525 troops deployed overseas in NATO, European Union, and 
U.N. missions. Slovakia has joined us and sacrificed with us in the war 
on terror. Its troops have been deployed in Iraq, Afghanistan, and in 
Kosovo. If confirmed, one of my top priorities will be to continue 
strong Slovak and United States cooperation in the fight against terror 
and to encourage the Slovak Government to further deepen its commitment 
to NATO by increasing its participation in NATO missions, particularly 
in Afghanistan.
    One of the difficult issues that affect United States-Slovak 
relations is admission to the Visa Waiver Program. Slovakia is working 
constructively to meet the list of requirements that will enable it to 
join the Visa Waiver Program. Should I be confirmed, one of my top 
priorities will be to assist the efforts of the Slovak Government to 
met VWP standards as soon as possible. In my public outreach, I will 
reinforce the administration's commitment to facilitating travel 
between our two countries, while maintaining the security of 
international travel. Such a development will enhance understanding 
between our peoples and serve our bilateral relations.
    Mr. Chairman, Slovakia has a unique set of experiences in 
democratization and economic reform that its vibrant and talented NGO 
community is now sharing with countries in transition, from Ukraine to 
Belarus to Cuba and the Balkans. Consistent with our transformational 
diplomacy goals, we will continue to support the NGO community in 
Slovakia by offering diplomatic support, grants, and other resources to 
the extent United States Government funds are available.
    On the economic front, Slovakia's economy is the fastest growing in 
Europe with a growth rate of 9.4 percent in the second quarter of 2007. 
Economic reforms and a corresponding influx of foreign investment have 
led to impressive growth, a dramatic decrease in unemployment, and a 
healthy macroeconomy that has put Slovakia on target to adopt the euro 
on January 1, 2009. Despite these positive developments, corruption 
continues to be a problem. Just recently the Embassy cohosted an 
anticorruption conference that was opened by the Prime Minister of 
Slovakia, Mr. Robert Fico. If confirmed, I will continue to work 
diligently with our Slovak partners on anticorruption initiatives and 
efforts, to benefit not only the people of Slovakia but also American 
businesses.
    Slovakia's strong economy presents many opportunities for United 
States businesses. There are approximately 120 United States companies 
with investments and/or sales offices in Slovakia and it is estimated 
that United States investment totals more than $3 billion. There are 
various efforts underway to deepen our economic cooperation. Just last 
month, Commerce Assistant Secretary Hernandez led a trade mission on 
Renewable Energy and Alternative Fuels to Slovakia and other countries 
in Central Europe. If confirmed, I will work to increase opportunities 
for U.S. companies, and further expand our trading and investment 
relationship, resulting in benefits to both our peoples.
    Mr. Chairman, if confirmed, I look forward to pursuing these and 
other goals, to leading an embassy that represents the finest values of 
the United States, and to doing everything I can to increase the 
friendship, warmth, and strength of our ties with Slovakia. I thank you 
again for this opportunity to appear before you.

    Senator Casey. Thank you, sir, very much. I appreciate all 
of the statements that were made.
    I'll turn now to my colleague, Senator DeMint, who is the 
ranking member of the European Affairs Subcommittee of the 
Committee on Foreign Relations.

                 STATEMENT OF HON. JIM DeMINT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Thank you, Mr. Chairman, and I want to 
thank all three of you for your willingness to serve our 
country in this way, and I know it involves sacrifices of your 
family, and we very much appreciate it. And I, frankly, heard 
what I wanted to hear today. I appreciate the mention of 
American interest--I think there's sometimes a perception that, 
because the United States is the largest and most powerful 
country that--whether it's our State Department or trade 
office, we tend to give more than we get back.I21And, to know 
that--while building good relationships, and supporting other 
countries, that your job is to represent American interests in 
these countries, is very important.
    I also appreciate the emphasis on economic ties--that we 
know that many times government gets in the way of good 
relations, but businesses--doing business together and people 
doing business together, often is the best way to grow that 
relationship and it's probably a true statement that when 
products cross borders, armies don't have to. So, I appreciate 
the emphasis on economic ties, and hopefully you can--as 
ambassadors--be a part of facilitating a growing trade. It's a 
way to create a win-win situation for both countries.
    I think if I have a question of the three of you, and I've 
only had a chance to meet with Mr. Speckhard about this--around 
the world, we found out in person as we visit other countries 
and we hear the perception of the United States is not as 
positive as we would like, on many fronts, particularly in 
Europe.
    And I would just maybe ask each of you to briefly, just 
comment on things we need to do in each of your respective 
countries that might help develop the respect of other 
countries and cooperation and maybe in addition to what we're 
already doing.

                Prepared Statement of Hon. Jim DeMint, 
                    U.S. Senator From South Carolina

    Mr. Chairman, thank you for holding this hearing today and 
moving the process forward on these important nominations.
    Nominees, good afternoon to all of you, I appreciate you 
being here today and for your willingness to serve our Nation 
as ambassadors. I know the role of an ambassador is daunting; I 
am humbled by your desire to serve, and your families' support 
to go through this process.
    Without a doubt, there are many challenges and 
opportunities in Europe and each of the countries you have been 
nominated to lay at the crossroads on many of these issues. You 
will be in very crucial positions to help foster the trans-
Atlantic relationship. Your willingness to listen and be 
passionate advocates is crucial.
    Despite the diplomatic issues and political posturing that 
occurs in the international arena, economic relations are 
always an undercurrent that makes progress possible.
    Often European leaders express how the United States and 
Europe share a common set of values. I agree with them; we have 
a long history of common values that include the ideals of 
freedom and economic opportunity.
    European societies and their economies currently face many 
hurdles that we may face in the future. There are lessons we 
can learn from them, but also ideas we can share. The ideas of 
free markets and free societies can unleash creative solutions.
    I believe the three countries we are discussing today have 
incredible potential to grow and be even more productive. 
However, it requires a willingness to draft policies that 
unleash their people and trust what they are capable of.
    Mr. Obsitnik, the structural reforms and economic success 
of Slovakia is something to be applauded. However, it will be 
important that they know economic freedom cannot be separated 
from other freedoms. And that the road to success is not 
through the welfare state.
    Maintaining a similar path of reform in Portugal is just as 
important. And with their leadership of the European Union 
right now, Mr. Stephjenson, you will be in a unique position to 
advocate for issues including Sudan and Western Sahara.
    Mr. Speckard, as you know, recent developments in the 
region will put even more importance on the United States-Greek 
relationship. You will have important matters to address the 
second you arrive. I found our discussion a couple weeks ago 
very enlightening and believe you will do well.
    As ambassadors, it is important you share and advocate the 
values that serve as the foundation to our prosperity. With 
your influence, Europe can be an even larger driving force in 
the world economically and socially and that would benefit 
everyone.
    I also hope you will spend more of your time outside of the 
embassy and government offices in Brarislava, Lisbon, and 
Athens than inside. American culture is loved in Europe, but 
the same is not always true of American policy. However, the 
two cannot be conveniently separated.
    And successful diplomacy is no longer an activity just 
between heads of state, but between the people of each nation. 
If you are committed to fostering even stronger relations and 
be successful American advocates, you will need to deliver your 
messages to the Slovak, Portuguese, and Greek public directly.
    I look forward to working with each of you.

    And, I'll start with Mr. Speckhard, and just a brief 
comment would be helpful.
    Mr. Speckhard. Thank you, Senator. I think we did have a 
chance to talk before, and wanted to emphasize, again, that I 
think one of the most important things I can do, if confirmed 
as ambassador, is to try to start changing some of those 
perceptions, which have been a legacy of some of the more 
modern history between our country and Greece and, I think 
don't actually fairly reflect some of the fundamental values 
that we share.
    So, I guess, to be real brief, I would focus on trying to 
move the understanding between our countries beyond just the 
foreign policy issue of the day, or the particular problem or 
challenge that we face, that we have different perspectives on 
how to address, and try to get our attention back to the 
fundamental relationship, and what is in common between our 
countries, which are some of those common values, and the 
strength of the U.S. system in, sort of, dealing with issues in 
a democratic fashion, which we share a lot with them.
    And I would focus, in particular, on the young generation--
there and here--in terms of building that dialog, because I do 
believe that in Greece, that's where, oftentimes, change 
starts. And I think that's where you have the most opportunity 
to start--generating new thinking.
    Thank you.
    Senator DeMint. Excellent, excellent.
    Mr. Stephenson.
    Mr. Stephenson. Senator, our current Ambassador, Ambassador 
Hoffman, I know has focused very much on outreach for----
    Senator DeMint. Is your microphone on?
    Mr. Stephenson. Sorry. Thank you. Ambassador Hoffman, our 
current Ambassador, I know has placed a lot of emphasis on 
reaching out to a cross-section of communities within the 
Portuguese community, specifically students. He's had a number 
of programs at the embassy where he's gone out, given a lot of 
speeches to a lot of different groups, worked with some of the 
charitable institutions in Portugal, worked with a number of 
the, strictly the small business groups, and with a number of 
minorities, as well.
    He's particularly focused on an outreach to the Muslim 
community. There are 35,000 or 40,000 Muslims in Portugal, and 
he specifically has reached out to them.
    So, it's an important part of his agenda, and I certainly 
hope to be able to build on the efforts that he's made to 
create an openness and a perception, a different kind of 
perception on the part of the Portuguese people about what a 
wonderful country and what a wonderful people we are, and how 
we reach out and will try and help all those we can.
    Thank you.
    Senator DeMint. Thank you.
    Mr. Obsitnik.
    Mr. Obsitnik. Yes, thank you, Senator. I think that in 
addition to all the efforts that are currently ongoing in the 
embassy to reach out to the Slovak people, of which there are a 
number of efforts in place. I think, if confirmed by the 
Senate, that my ability to go there, given my background, given 
my ability to speak the language, should give me some leverage 
to meet people very aggressively, very directly, which I plan 
to do. I plan to be, if confirmed, very visible in the country, 
to explain United States policy, to make them understand that 
our policy really is for the benefit of Slovakia, as well. It's 
not, we're not looking there to take anything out of there for 
our own interests. We're there to serve the--to work with that 
country.
    So I think, with my unique background, I can add a lot to 
that and add to all the efforts that are currently going on in 
the embassy with the, such things as public diplomacy, ensuring 
that all people in the embassy get out and have contacts with 
the local people, to make sure that they understand America at 
every level.
    Senator DeMint. I thank you all.
    And Mr. Chairman, I'm very satisfied with my answers, so 
I'll yield the rest of my time.
    Senator Casey. Senator, thank you very much.
    I wanted to move into a round of more questions. And I, 
we'll try to limit ourselves to 10 minutes on each round. I'll 
start and turn it over to Senator Menendez and Senator DeMint 
for any questions they might have.
    Mr. Speckhard, I think I'll start with you. Just in terms 
of the--some of this is redundant ground that you've plowed a 
little bit today already--but the relationship between the 
United States and Greece today. We've seen some evidence, I 
guess,--which has been referred to before--as some anti-
Americanism. What's your sense of that, generally, the 
relationship itself, but also that particular concern that we 
have?
    Mr. Speckhard. Thank you, Senator. I do think that it 
reflects some of the recent history between our two countries. 
And it has its roots there, which are, from the Greek 
perspective, understandable, and sometimes there are also 
differences, honest differences of opinion over foreign policy 
approaches and problem solving.
    At the same time, I think that's sort of a latent anti-
Americanism, that needs to be addressed again. Because if you 
look at our interest, both the long-term ones and the values 
that I talked about earlier, in terms of common values on 
democracy, liberty, freedom, and so forth, and then you compare 
it with also our real interest today, in terms of stability in 
the Balkans, the stability or insecurity of the international 
community, and against the threat of terrorism, global 
challenges, energy issues, and so forth, we really do share 
common challenges and common interests.
    So, my sense is that if we can start improving the dialog 
and having people take a step back and saying, ``Why do they 
think that and how much of that is due to a particular approach 
to a particular problem, and how much of that is something more 
significant?'' we'll find that perhaps we can bridge some of 
that gap.
    So, I hope over the three years, that I can make, start to 
make a turn in that particular challenge with our Greek 
partners.
    Senator Casey. And just in terms of your own experience, 
especially as a diplomat, but also your work with NATO, what in 
your experience do you think will help you deal with that--that 
kind of fundamental question, about how our two countries 
relate to each other?
    Mr. Speckhard. Well, I think being a diplomat, the starting 
point has to be to understand the arguments and views of the 
other partner that you're dealing with. And so, having worked 
in NATO, I've had an opportunity to understand the views of the 
Greek Government many times. And more generally, I've come to 
understand that once I understand where they're coming from, 
I'm a better--better presenter of the U.S. interests and the 
U.S. position on issues. And then I can find, oftentimes, more 
common ground than one would have thought at the beginning of 
the process.
    We do have very strong interests that are common in the 
Balkans. We have some differences on some specific issues, but 
the fundamental issues in the Balkans are the same. We have 
common interest in the broader region more generally, and in 
the Middle East, where Greece is really at the front lines of 
some problems that are emanating from that area.
    And so, again working together with them on that issue, I 
think, is one we're going to find a lot of common ground, even 
if sometimes we disagree on the approaches.
    So, my experience, I think, will help me to develop that as 
I go along, when I get to Athens.
    Senator Casey. I may have a chance to come back to you 
about energy dependence on Russia and also the question of 
Kosovo, but I'll move on because I'm going to try to get, in 
this round, to each of our nominees.
    Mr. Stephenson, I guess one of the concerns that we all 
have, beyond just the fundamental concern we have about 
terrorism, is how we relate to, interact with, work with, and 
establish working relationships with countries around the world 
to combat the worldwide threat of terrorism.
    What's your sense of where that relationship is with 
Portugal now, in terms of our cooperation on terrorism? And if 
it's not where it ought to be, what steps do you think we need 
to take and what steps would you take to try to strengthen or 
develop that relationship? Just on the question of terrorism.
    Mr. Stephenson. Senator, my sense is that the--the 
relationship with regard to those issues with Portugal is 
outstanding. They are, as I mentioned in my remarks, a 
signatory to most of the critical agreements that we have 
around the world today, dealing with various elements of 
security and terrorism and so forth.
    Portugal is arguably one of our best friends and most loyal 
allies and supporters in Europe. They have been very 
responsive, overall, to everything that we have asked of them. 
They have budgetary constraints that are a constant hurdle or 
obstacle for them to do all the things we'd like them to do. 
But I think that there is very little that we have asked them 
to do, that they haven't taken a lot of the initial steps.
    There will always be ways to improve that. Our relationship 
with the--with this government are excellent, hope to be able 
to build on the dialog that Ambassador Hoffman has helped 
create with this--with this government. I have every reason to 
believe that they will continue to be responsive, whether it's 
drug enforcement issues, whether it's port security, or whether 
it's illegal transportation of human beings.
    The whole list of issues that are high on our agenda have 
been very--we've had excellent response from the Portuguese 
Government.
    Senator Casey. I know that from the reports we all see from 
Europe, over many, many months now, many years actually, the 
last several years especially, that several countries have had 
trouble just within their own population, with regard to 
Islamic extremism. We've seen it in Spain and Great Britain and 
others. What's your sense of that within Portugal? Do you think 
they're having similar problems when it comes to Islamic 
extremism, or have they dealt with it in a way that's been more 
effective, or do you think there's still a significant problem 
there?
    Mr. Stephenson. Senator, I think they start from a better 
situation, certainly than their neighbors to the east. There is 
not as large an Islamic or a radical population in Portugal as 
there is in Spain. There has been, in recent months, some 
concerns that some of the Basque elements in Spain, have sought 
refuge and are using Portugal as a--as a base to stay away from 
some of the threats that they face in Spain. So, I think it 
something that we have to continue and they have to continue to 
be diligent on, but I think if you compare Portugal--not only 
with Spain, but some of its other neighbors in Europe--I think 
the situation is much less dire today than it is in many other 
countries.
    Senator Casey. Thank you. And I want to try to come back 
too.
    But Mr. Obsitnik, we're--talking earlier, and your 
testimony referred to it and others have as well, the 
membership in the European Union for Slovakia and how that's 
impacted their economy. Can you comment on that, with regard to 
just the economic impact and how you think that's proceeding?
    Mr. Obsitnik. I think the economic impact from joining the 
European Union has been tremendously positive. There's no 
question about that. I--it's opened up markets to them that 
were not there before. They're a member of the European Union 
family of nations and they're working cooperatively together. 
It's done nothing but help--help that economy.
    Senator Casey. And I know you had tremendous experience as 
a naval officer, and in addition to your own experience as a 
citizen and as a business person, what do you point to in your 
own employment history or your life history that you think will 
help you be an effective Ambassador to Slovakia? Beyond the 
obvious ties of your ancestry.
    Mr. Obsitnik. Right. Well beyond the fact that I know the 
country well, I know the people, I know the history. In my 
career, I've had the good fortune of dealing with the 
international community in South America and the Far East and 
the responsibility I had with IBM International Manufacturing. 
We've been involved with countries that were developing and we 
negotiated with them, relative to what we wanted to do, in 
terms of putting manufacturing operations there, developing our 
business there. So, that experience, I think, has been 
tremendous and gives me a good sense of understanding what 
developing countries need and what directions they need to go 
in.
    Relative to my experience working with IBM during the cold 
war years, I think I picked up a good sense of the geopolitics 
of the world, in terms of the threat, in terms of responses 
by--by the America to that threat. And I think it will help me 
very well to explain our foreign policy and our point of view 
to the Slovak people.
    Senator Casey. And I have to, before--I've got 10 seconds--
but I'll just say, I wasn't aware of your roots in Western 
Pennsylvania. I think you mentioned in your opening, Nanty-Glo, 
Pennsylvania?
    Mr. Obsitnik. Nanty-Glo, yes sir.
    Senator Casey. Cambria County, right?
    Mr. Obsitnik. Cambria County, yes sir.
    Senator Casey. And I--how long did you live there?
    Mr. Obsitnik. We lived there about 8 years, 1938-1946. And 
then the great garden state of New Jersey attracted us away. 
[Laughter.]
    Senator Casey. Well, as I turn to Senator Menendez for his 
questions, I have to ask you today--your confirmation will not 
be dependent upon this--but I'd ask you to come back to Nanty-
Glo, Pennsylvania, if you can.
    Thank you.
    Mr. Obsitnik. I will.
    Senator Casey. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    And, Mr. Obsitnik, I see you're covering all of the bases, 
are there any other members that you've lived in the States 
here? [Laughter.]
    But, we're glad to see you've had success.
    Ambassador Speckhard, I have several questions for you. 
First, the Balkans: would you agree with me that it's still a 
place where we've made progress? It's still a place of 
instability, a challenge for us?
    Mr. Speckhard. I would, Senator.
    Senator Menendez. And, would you agree with me that NATO is 
particularly--from your experience at NATO--is particularly 
important to us, both in a security context, as well as 
stability in the Balkans, and throughout Europe?
    Mr. Speckhard. I would, Senator.
    Senator Menendez. And, with that as a premise, you're going 
to a country which I think is incredibly important in both of 
those contexts. There is--I think it's fair to say, there is 
probably no other country that invests more in the Balkans, 
than Greece. And, at the same time is part of NATO.
    And so, if the Balkans is a place of instability and a 
challenge to the United States as one of its foreign policy 
challenges, and if NATO is very important to us for both 
security purposes and stability in Europe, and particularly the 
Balkans, then part of my challenge of understanding 
administration policy and an assignment that you're going to 
have, is puzzling.
    And that's with the whole issue of Skopje, and the position 
the administration has taken, in November of 2004, to refer to 
FYROM as the Republic of Macedonia which, in essence, 
undermined the whole process of the Nimetz Proposal. And has 
placed a very serious issue forward for the United States and 
its relationships with Greece, and certainly with Greece's own 
national view, as to what is in their national interests.
    How do you see yourself, as the nominee to be the United 
States Ambassador to Greece, playing a role in this regard, and 
what do you believe that role will be?
    Mr. Speckhard. Well, thank you, Senator. I agree with you 
on all of those points in terms of the importance of the 
Balkans and the stability there, the challenges that remain, 
the importance of NATO as an institution that can help--and, I 
would add, the European Union, as well, in terms of promoting 
stability there.
    I do understand the concerns of the Government of Greece, 
and the people of Greece, in terms of their desire to both be a 
stabilizing force in the region, as well as to protect some of 
their cultural patrimony, which they have such a rich 
background in.
    So, in terms of the starting point on this particular 
issue, I would take where we are today as the starting point, 
and the issues that we're facing. I think the first point would 
be to help try to facilitate and promote direct dialog between 
the parties involved, and the name dispute. That is, in fact, 
part of the basis of the 1995 interim accord that was worked 
out between those two countries, in terms of the importance of 
direct dialog, and not looking to others to try to find the 
solution.
    At the same time I would emphasize the importance to the 
Greek Government of finding a solution, while not doing 
anything to destabilize the situation in the Balkans, and I 
think that's why the administration has placed an important 
emphasis on the process of moving towards membership for the 
countries--in NATO--for the countries in the Balkan region. 
That there is a sense that membership in NATO in the future is 
a way to solidify that stability. That it's actually in 
Greece's interests, probably, as much as anyone's, that their 
neighboring countries become part of NATO, because in that 
way----
    Senator Menendez. But you understand that you are going in 
as have been given a challenge right off the bat. Because we 
are trying to promote the NIMITS proposal, and then we 
undermine that by having our government unilaterally call 
Skopje and FYROM the Republic of Macedonia.
    This would be like if some people describe this as emotion, 
I think it's far beyond emotion, I think there are legitimate 
issues here. This would be like the United States facing 
Mexico, describing in its classrooms large swaths of the United 
States belonging to Mexico. Or, for that fact, Canada. That's 
what happens in FYROM. Where large swaths of Greece are taught 
in Skopje as being part of what they consider Macedonia, their 
country.
    Now, if I was living next door to that country, I'd have a 
real concern. I'd have a real concern if what you're teaching 
the next generation of FYROM schoolchildren is, in essence, an 
expansionist view, as you want me to vote--me, a country--to 
vote to let you into NATO, and to give you certain privileges 
and power, by virtue of doing so.
    So, I know you didn't devise this policy, so my purpose 
here is by, via your nomination, to send a message to the State 
Department, that I think we're on a perilous course here.
    President Karamanlis has not said that Greece will use its 
veto in NATO, but I've got to be honest with you, from my--as 
part of the Hellenic caucus in the House for 13 years, and the 
House International Relations Committee, I've spent a fair 
amount of time here in the Senate on United States-Greek 
relations. I have to be very honest with you--my sense of 
talking to members of their parliament, talking to their 
foreign ministers, talking to their ambassadors, talking to a 
wide cross-section of Greek society, it would be very hard for 
Greece to just simply accept FYROM into NATO without some 
accommodation on those names.
    And, I think that's going to be an enormous challenge for 
you. I hope that you will tell the Department that there are 
Members of Congress who feel this way.
    Mr. Stephenson, I know that you, various times in your 
testimony, cited the Hoover Institution as background. One of--
the Mission Statement of the Hoover Institution, among other 
things, says ``Ours is a system where the Federal Government 
should undertake no governmental, societal, or economic action, 
except where local government or the people cannot undertake it 
by themselves.''
    And, I'm just wondering--it's considered a very 
influential, conservative think tank on foreign policy--I 
understand the private sector aspects of this--but you do know 
that you're going to a government--to a country whose 
government has a ruling socialist government. And you, I hope, 
are bringing an open mind. Because economic questions are one 
thing, but certainly the U.S. Ambassador has many other roles 
to play beyond the economic engagement between our respective 
countries.
    Mr. Stephenson. I'm well aware of that, Senator, and the 
overall views of the Hoover Institution may not necessarily be 
what mine are on certain issues. My particular focus and 
interests at the Hoover Institution have been in the areas of 
foreign policy, on economics on a worldwide basis, and 
particularly, in the energy area in recent years.
    But, I am fully aware of the current government in 
Portugal. I have no philosophical problems or worries about my 
ability to work with them on a reasonable basis, and what my 
views of what the role of government are on a spectrum that's 
not the area of Hoover activity that I happen to be 
particularly interested or focused upon.
    Senator Menendez. I appreciate that answer.
    Mr. Speckhard, let me go back to--in addition to the FYROM 
issue, and the NATO enlargement issue, that Greece is going to 
play a very important role in--Greece is involved, obviously, 
in the Aegean, the United States relationships in that part of 
the world, with Turkey--which right now is strained for a 
variety of reasons--but also the relationship between Greece 
and Turkey, the issue of Cyprus and the reunification of Cyprus 
are important issues. I'd like to hear your perspectives on 
that part--clearly there has been a historical basis under 
which our U.S. Ambassadors to those countries have all 
interplayed with each other because of the interrelationship of 
these issues. I'd like to hear how you'll approach that, should 
you be successful in your nomination.
    Mr. Speckhard. Thank you, Mr. Senator. I'm actually looking 
forward to the opportunity to support Greece, as it tries to 
improve, to further its relations with Turkey, and as it also 
plays an important role in the issue related to Cyprus.
    I think the elections that recently took place, both in 
Greece and Turkey, do provide an opportunity for renewed 
momentum in the Greek/Turkish relationship. It allows them, in 
both countries, to set aside or diminish some of the effect of 
domestic politics, in terms of the bilateral relationship, and 
work toward the interests of both their communities.
    I am pleased that what I've seen over the last few years is 
improved mechanisms for dialog, and diffusing of potential 
crises when they occur. I think NATO, again, is a key point, as 
you mentioned earlier, in that framework for how you resolve 
things between Greece and Turkey, as allies they've committed 
themselves to resolve disputes peacefully.
    And, I guess, as an ambassador, I would be working closely 
with my counterparts in Ankara and Nicosia, to make sure that 
we're talking and working together in a mutually reinforcing 
way to allow the parties involved to have the most progress 
possible. I really see this as centering in Ankara and Athens, 
in terms of their bilateral relationship, and in Nicosia in 
terms of Cyprus, and think that the success is going to come 
from there, and the United States really can only play a 
helping and facilitating role when asked.
    But, I'm going to be ready to do that, and I look forward 
to acting very energetically in that.
    Senator Menendez. Mr. Chairman, I have one final question 
and then I'll wrap up.
    Do you foresee the, Greece being able, for example, to 
support Turkey's entrance into the European Union without a 
solution of the Cyprus question?
    Mr. Speckhard. I would hate to speculate on that at this 
point. What I can say, is that Greece has been one of the most, 
as you know Senator, proactive supporters of Turkey's 
aspirations into the European Union, with recognition that 
Turkey needs to take additional steps to meet the criteria. I 
think that's been very helpful to that bilateral relationship, 
it's very helpful to the region, and it's a very enlightened 
policy on their part.
    I think in part, how this all plays out, is that if they 
make progress on some of the bilateral issues, I think it will 
facilitate and help promote a resolution of the Cyprus issue. 
And vice versa, even in spite of some of the challenges that 
remain, they can, as well, work to support the Cypriots find a 
solution to their challenges.
    So, my sense is that if we work on all fronts 
simultaneously, they will help each other and you'll get to 
success sooner than if there's some conditions involved in this 
process.
    Senator Menendez. Well, Mr. Chairman, I appreciate your 
answers. I think we should have a before and after picture, 
before your assignment there and after your assignment there.
    Between the FYROM issue, the NATO enlargement issue, the 
issue of the cross-border Aegean issue, and the issue of 
Cyprus, that's a full plate and I find it very difficult for 
the Greek Government, at the end of the day, to deal with the 
FYROM issue, because it has, within its own country, a very 
significant part of Greek citizens who consider themselves 
Macedonians.
    And second, for Greek Cypriots to believe that the Greek 
Government will not stand by them in an effort to reunify the 
country. So this assignment is very, very important and that's 
why I've pursued these questions with you, to get a sense of 
understanding administration policy, where you'll be on it.
    Thank you, Mr. Chairman, for the opportunity.
    Senator Casey. Thank you, Senator Menendez.
    I have a few more and I'm sure we can wrap up soon.
    Mr. Ambassador, I wanted to ask you about the question I 
left on the table but didn't have a chance to ask you, and 
that's the energy question as it pertains to Russia, and 
especially in light of the pipeline deal. What's your sense of 
how our administration in America views that--the relationship 
between Greece and Russia as it pertains to energy and the 
recent deal that's been entered into? And how do you perceive 
that yourself? I guess I'm looking for both what the 
administration thinks and whether or not you have a difference 
of opinion on that or not.
    Mr. Speckhard. Thanks, Mr. Chairman. I think the starting 
point is that the United States actually welcomes the close 
ties between Greece and Russia on the energy sector. I think 
there's an understanding that, both for Greece and the European 
Union in general, the importance of Greek, of--excuse me--of 
Russian energy supplies is critical to the economic success of 
Greece and the European Union at large.
    So, we welcome the development of those ties, the 
development of the strengthening of the gas produced, and 
developed for those markets, and the ties between Russia that 
make that happen.
    Where sometimes we have a view that we try to make sure is 
understood, is that our sense is that the best way for Greece 
and the European Union to be successful in their economic 
future, is to ensure that they have diversified energy 
supplies. So, while it's important for them to have Russian 
supplies, it's important, as well, that those supplies are 
diversified beyond Russia, and that there are other producing 
states that also should be able to contribute to the needs and 
demands of the European Union and Greece.
    So, the key point for Greece as they move forward, is to 
ensure that economic deals they conclude on the energy sector 
side, are done in a transparent way, and in a fair, market-
based way, because that will be, in the long term, in their 
interest, and in the European Union's interest.
    But there is no attempt on our part to try to develop a 
zero-sum game, in this respect. We feel that the market is 
large enough, and the needs are great enough, that there should 
be plenty of room for multiple suppliers and multiples routes.
    Senator Casey. And just, by way of follow-up, how would you 
characterize the Bush administration's response to that deal, I 
mean, in a word or two?
    Mr. Speckhard. I think, our sense is that it's important 
that this is done, as I said earlier, in a transparent way, and 
that we understand that it's going to be done, as it carries 
forward, in a market-based way. That there is some concern 
that, if this is done in any other way, it could jeopardize 
existing opportunities that, on a fair basis, perhaps would do 
better.
    Senator Casey. So, you think the administration is 
concerned mostly about how it's implemented, as opposed to the 
relationship itself? I just want to----
    Mr. Speckhard. Absolutely, you know, absolutely. I honestly 
believe that the issue here is not the relationship. We 
recognize the importance of the Greece-Russia relationship in 
the energy sector, and it's a good one in the context of what 
the interests of Greece are, and the European Union. Our 
concern is that it does not become a monopolistic relationship. 
And, I think that would not be in the interest of Greece, or 
the European Union, and we think there's plenty of room for 
Russia, as well as other suppliers. So, this should not be seen 
as a competition between the United States and Russia, but, in 
fact, a regular market-oriented type of approach to ensuring 
diversified supplies of energy.
    Senator Casey. Thank you, and I know we're almost out of 
time, but I wanted to first of all, let everyone know that the 
record will be open, and it'll be open, actually for 2 days. 
Committee members can submit additional questions for the 
record.
    I'd ask each nominee for your help in responding in as 
prompt a way as possible to these questions. I may have others, 
and I'm sure members of the committee who are not here today 
will have questions.
    But, I mostly want to express our gratitude for, not just 
your testimony today, and your willingness to go through this 
process, but especially for your willingness to commit yourself 
to public service. In some cases, continued public service, and 
in other cases, beyond military and other civic engagement that 
you've had.
    But this is a particularly notable and distinctive--and, I 
think important, kind of public service. And it comes at a time 
where we live in an increasingly more dangerous world, which 
both makes the service all that more admirable, but at the same 
time heightens or increases the responsibility that each of you 
will have if you're confirmed. And, I appreciate that and 
recognize that, and appreciate the commitment that you are 
making individually, and that your families are making and, in 
some cases, have already made.
    Thank you very much.
    Unless there's any additional comments, this hearing is 
adjourned.
    [Whereupon, at 3:36 p.m., the hearing was adjourned.]

 
                              NOMINATIONS

                              ----------                              


                       TUESDAY, OCTOBER 30, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
Heath, Daniel D., to be U.S. Alternate Executive Director of 
        the International Monetary Fund
Kennedy, Patrick F., to be Under Secretary of State for 
        Management
Mulvaney, Sean R., to be Assistant Administrator for Management 
        of the U.S. Agency for International Development
                              ----------                              

    The committee met, pursuant to notice, at 2:40 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez presiding.
    Present: Senators Menendez and Lugar.

           OPENING STATEMENT OF HON. ROBERT MENENDEZ,
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez.: The hearing of the Committee on Foreign 
Relations will now come to order. Today, the committee meets to 
consider the nomination of Mr. Patrick Kennedy to be the 
Undersecretary of Management at the State Department, Mr. Sean 
R. Mulvaney to be the Assistant Administrator for Management at 
USAID, and Mr. Daniel D. Heath to be the U.S. Alternate 
Executive Director to the International Monetary Fund. We 
welcome them, as well as any of their family members and 
friends who have accompanied them.
    I'll start off with an opening statement, and then 
recognize the distinguished ranking member of the full 
committee, and ask unanimous consent on behalf of Senator Hagel 
to have his opening statement be included in the record, which 
without objection will be included.
    [Note. The prepared statement of Senator Hagel appears in 
the ``Additional Material Submitted for the Record'' section at 
the end of this hearing.]
    Senator Menendez. The United States plays a crucial role in 
promoting development and alleviating poverty around the world. 
USAID, the State Department, and the IMF make a significant 
contribution to this work, and each nominee before us will play 
a key role in these organizations. We look forward to the 
witnesses' testimony in hearing how they will contribute to 
these missions.
    We are at a decisive moment for the future of USAID as an 
agency. I strongly believe that this year may very well make or 
break USAID. The Foreign Assistance Reform Process, or as it is 
known as the F Process, has been in place for over a year, but 
as I said in a hearing I chaired on June 12 to examine this 
issue, this new foreign assistance process is, in my view, 
flawed, and may be in serious trouble.
    As I stated then, if USAID and State simply move full speed 
ahead and make only minor changes around the edges, then the 
administration will have significant problems with Congress.
    Tragically, one of the consequences of this reform process 
has been the decimation of USAID resources as its funding, 
role, and mission have been reduced. As a result, USAID faces 
serious morale problems and questions about its future. And 
this, in turn, cripples our ability to expand democracy and 
improve the lives of the citizens of the developing world. 
Again, as I've said before, I refuse to preside over a slow 
death of USAID.
    It's important to note that USAID has been, is, and should 
continue to be the backbone of our foreign assistance. AIDS 
mission dates back to the Marshall Plan reconstruction of 
Europe after World War II. In 1961, the Foreign Assistance Act 
was signed into law, and USAID was created. It is the one 
agency inside the United States Government that was designed 
with development and fighting poverty around the world as its 
core mission. And, at a time when international development and 
U.S. credibility are so needed, it does not make sense to take 
money, power, control, and expertise away from this agency. 
What is needed to revitalize the mission and health of USAID is 
strong leadership.
    That's why, Mr. Mulvaney, your nomination today is so 
important for the future of the USAID as you and I have had 
that conversation. I hope you're prepared to make some hard 
decisions, along with Henrietta Fore, who has been before the 
committee, and to work to make sure that the expertise that 
USAID does have, is valued and fully utilized. And, we look 
forward to discussing today how you would try to accomplish 
this.
    Mr. Kennedy, there is no question that you'll be assuming a 
large amount of responsibility. Simply put, you'll be 
responsible for overseeing the people, financial resources, 
training, information technology, and security of the 
Department of State in support of our foreign policy 
objectives, and as recent years have documented, and there will 
be no shortage of challenges. We look forward to hearing your 
assessment of them, as well, as you come before the committee 
in this nomination and how you might very well proceed to 
tackle them, should you achieve the success of being confirmed.
    And as we talk about America's role in international 
development, we should recognize that our foreign assistance 
also extends to supporting multinational institutions that will 
improve the economies of other countries, and direct the aid 
and development.
    That's why I believe that America must continue to play a 
strong role in the major development banks and multilateral 
financial institutions that work toward this goal. In this 
hearing, we look forward to specifically discussing the work of 
the International Monetary Fund.
    In the interest of time, I'll leave specific issues for the 
questioning, and with that, I'm proud to recognize the 
distinguished ranking member of the full committee, Senator 
Lugar.

              STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman, I 
thank Chairman Biden for scheduling this timely hearing. I 
thank you especially for your eagerness and willingness to 
chair it. These hearings are extremely important--one of the 
features about the Foreign Relations Committee not often known 
as in the last Congress, this committee had more hearings than 
any other committee in the Senate. And it was largely because 
we had the scope of the whole world, but likewise, because we 
have so many distinguished nominees.
    From the roles that you are fulfilling, each of our 
ambassadors to other countries abroad, a lot of international 
groups that we name members to--that's why these hearings are 
especially important, because they offer an opportunity for 
you, as witnesses, to make statements to clarify your own 
intentions, with regard to the offices that you seek, and it 
gives an audience and a forum to the groups that you're talking 
about, today, three very important ones: the Department, USAID, 
and the International Monetary Fund.
    And so, it's a privilege to be a part of the hearing. I 
look forward to the testimony. And I thank you, again, Mr. 
Chairman.
    Senator Menendez. Thank you, Senator Lugar.
    We will now hear the testimony of our nominees, we'd love 
to have you introduce family members that may be in attendance, 
and when you start your testimony, please do so. In the 
interest of time, we ask you to keep your statement to about 5 
minutes. Without objection, your full statements will be 
included in the record.
    And with that, Mr. Kennedy, you may proceed with your 
opening statement.

      STATEMENT OF HON. PATRICK F. KENNEDY, NOMINEE TO BE 
             UNDERSECRETARY OF STATE FOR MANAGEMENT

    Mr. Kennedy. Thank you very much, Mr. Chairman, Senator 
Lugar.
    I'd like to introduce my wife, Mary Elizabeth Swope, who is 
a retired State Department Foreign Service officer, who joins 
me today.
    Mr. Chairman, it's a distinct honor to appear before you 
today, as President Bush's nominee to be Undersecretary of 
State for Management. I want to thank the President and 
Secretary Rice for the confidence they have placed in me.
    As a career Foreign Service officer who has worked in the 
administrative and management field for over 35 years, I regard 
this as a unique opportunity to serve our Nation. Over the 
years, my service at the Department of State and on loan to the 
Department of Defense and the Office of the Director of 
National Intelligence, has given me perspective on the many and 
varied challenges that America faces internationally.
    Also, working and living abroad as part of a Foreign 
Service couple, I know well what it takes for our Foreign 
Service colleagues to live and work in foreign cultures, have 
assignments in different countries, and experience the changing 
profile of American diplomats over the last three decades.
    As a management officer, and as Assistant Secretary of 
State for administration, I worked on the full spectrum of 
management issues needed to support our diplomatic presence 
around the world, and--I can tell you sincerely--serving our 
country is a privilege in any capacity, and a career in the 
State Department is one of the best opportunities there is.
    If confirmed, I look forward to working on the numerous 
challenges that lie ahead. I believe the State Department can 
meet those challenges only by working with the Congress, and 
other U.S. Government agencies.
    I believe wholeheartedly that we cannot implement 
successful foreign policy without addressing the management and 
infrastructure issues on which it depends.
    It is often said that an institution's major asset is its 
people, and I think this is no where more true than with the 
Department of State.
    With a few important exceptions, we are not a programmatic 
agency. The Department advances the U.S. national interests 
through policy formulation and execution, public diplomacy 
outreach, consular support, and management services. We serve 
the American people through the men and women of the Civil and 
Foreign services, and our foreign national colleagues abroad.
    They're our most powerful and scarcest resource, 
representing the United States abroad is an honor and a 
challenge in today's international environment. To do it well, 
our people must be deployed, recruited, trained, provisioned, 
and safeguarded. They must be sent to those assignments and 
posts where they can make the maximum contribution, including 
some of the most dangerous places on earth. They must be 
trained in languages and professional skills so that they can 
perform their diplomatic and consular roles effectively. They 
must be provided with the proper tools and best possible 
support to operate at peak efficiency, and they must have safe 
and secure facilities from which to operate.
    I want to underline my strong commitment to recruiting, 
developing, and retaining a highly skilled workforce 
representative of America's diversity. To recruit the people 
the country needs, the Department must continually expand its 
outreach to all parts of American society. We cannot afford, 
and morally must not leave any stone unturned in seeking out 
the people that we need to advance our national interests.
    Our Civil and Foreign Services provide a dynamic workforce 
to accomplish the Department's missions in 170 countries 
abroad, and at the United Nations and also around the United 
States.
    I am pleased today that the Department fully participates 
in the President's Management Fellows program, and has 
developed its own Career Entry Program to bring in and set on 
the right track, the next generation of Civil Service 
employees. The Department has also begun an innovative program 
to provide Civil Service rotational opportunities.
    The Foreign Service continues to recruit entry-level 
personnel from around the country. They must also receive 
additional training, especially in hard languages, and in 
working with other agencies on various national security issues 
that face our country.
    The National Foreign Affairs Training Center is critical to 
fully developing the skills we need for our entire workforce. 
Among the many training opportunities offered are leadership 
and management training at the entry, mid- and senior levels, 
which provides employees with essential skills throughout their 
careers. And we must look forward to ways to leverage the 
significant skills that family members bring when they 
accompany employees overseas.
    There are enormous challenges ahead, and we are not a 
perfect organization. Just recently, the surge in passport 
applications resulted in unacceptable waiting times for the 
American people we serve. Systemic changes have been made to 
forestall that happening again. The extremely dedicated and 
competent employees who worked incredible hours to reduce the 
backlog of applications are now being supplemented by 
additional staff and additional facilities. The Department also 
benefited from numerous other employees and retirees who were 
mobilized.
    We can never lose sight of the fact that there are always 
new and better ways to carry out our responsibilities--these 
must be constantly pursued, and it is equally important that we 
engage in contact and vigorous oversight and accountability. 
There will always be missteps, but if we are honest and 
forthright, and display the dedication that has been the 
hallmark of the Department, we can catch problems early, and 
fix them.
    The American people have entrusted the State Department 
with many responsibilities in carrying out our diplomatic 
mission. Accomplishing them requires the full commitment of all 
of our employees, and also requires the continuing support of 
the Congress, particularly our committees of jurisdiction.
    If confirmed, I pledge to lead the Department's management 
team in carrying out our assigned tasks. I will take it as the 
number one goal to provide the Secretary of State with the 
management advice and management support she needs.
    Thank you very much, sir.
    [The prepared statement of Mr. Kennedy follows:]

            Prepared Statement of Hon. Patrick F. Kennedy, 
         Nominee to be Under Secretary of State for Management

    Thank you, Mr. Chairman and other members of the Foreign Relations 
Committee.
    It is a distinct honor to appear before you as President Bush's 
nominee to be Under Secretary of State for Management. I want to thank 
the President and Secretary Rice for the confidence they have placed in 
me. As a career Foreign Service officer who has worked in the 
administrative and management fields for almost 35 years, I regard this 
as a unique opportunity to serve our Nation.
    Over the years, my service at the Department of State, and on loan 
to the Department of Defense and the Office of the Director of National 
Intelligence, has given me perspective on the many and varied 
challenges that America faces internationally.
    Also, working and living abroad as part of a Foreign Service 
couple, I know well what it takes for our Foreign Service colleagues to 
live and work in foreign cultures, have assignments in different 
countries, and experience the changing profile of American diplomats 
over three decades of service.
    As a management officer and as Assistant Secretary of 
Administration, I worked on the full spectrum of management services 
needed to support our diplomatic presence around the world. In all of 
this, I can tell you sincerely that serving our country is a privilege 
in any capacity and that a career in the State Department is one of the 
best opportunities there is.
    If confirmed, I look forward to working on the numerous challenges 
that lie ahead; but I believe that the Department of State can meet 
those challenges only by working with the Congress and other U.S. 
Government agencies. I believe wholeheartedly that we cannot implement 
successful foreign policy without addressing the management and 
infrastructure issues on which it depends.
    It is often said that an institution's major asset is its people, 
and I think that is nowhere more true than with the Department of 
State. With a few important exceptions, we are not a programmatic 
agency.
    The Department of State advances the U.S. national interest through 
policy formulation and execution, public diplomacy outreach, consular 
support, and management services. We serve the American people through 
the men and women of the Civil and Foreign Services, and our foreign 
national colleagues abroad.
    They are our most powerful, and scarcest, resource. Representing 
the United States of America abroad is an honor and a challenge in 
today's international environment. To do it well, our people must be 
deployed, trained, provisioned, and safeguarded.
    They must be sent to those assignments and posts where they can 
make the maximum contribution, including some of the most dangerous 
places on earth.
    They must be trained in languages and professional skills so that 
they can perform their diplomatic and consular roles effectively on 
behalf of the President and the American people.
    They must be provided with the proper tools and best possible 
support to operate at peak efficiency.
    And they must have safe and secure facilities from which to 
operate.
    I want to underline my commitment to recruiting, developing, and 
retaining a highly skilled workforce representative of America's 
diversity. To recruit the people the country needs, the Department must 
continually expand its outreach to all parts of American society. We 
cannot afford--and morally must not--leave any stone unturned in 
seeking out the people that we need to advance our national interests.
    Our Civil and Foreign Services provide a dynamic workforce to 
accomplish the Department's mission; in addition to our diplomatic 
presence in over 170 countries abroad and at the United Nations, they 
are also deployed around the United States in passport agencies, visa 
offices, diplomatic security field offices, and dispatch agencies.
    I am pleased that the Department fully participates in the 
Presidential Management Fellows Program and has developed its own 
Career Management Entry Program to bring in, and set on the right 
track, the next generation of Civil Service employees. The Department 
has also begun an innovative program to offer rotational opportunities 
to Civil Service employees.
    The Foreign Service continues to recruit entry- level officers from 
all around the country. They must also receive additional training, 
especially in hard languages and in working with other agencies on 
various national security issues facing our country.
    The National Foreign Affairs Training Center is critical to fully 
developing the skills we need for our entire workforce--Civil Service, 
Foreign Service, and Foreign Service Nationals. Among the many training 
opportunities offered, our leadership and management training at the 
entry, middle, and senior levels provides employees with essential 
skills throughout their careers.
    And we must look for ways to leverage the significant skills that 
family members bring when they accompany employees overseas.
    There are enormous challenges ahead and we are not a perfect 
organization. Just recently, the surge in passport applications 
resulted in unacceptable waiting times for the American people we 
serve. Systemic changes have been made to forestall that happening 
again. The extremely competent and dedicated employees who worked 
incredible hours to reduce the backlog of applications are now being 
supplemented by additional staff and additional facilities. The 
Department has also benefited from numerous other employees and 
retirees who were mobilized from all over the United States and 
overseas, to complete the mission of getting us back to the timely 
processing of passports.
    We can never lose sight of the fact that there are always new and 
better ways to carry out our responsibilities. These must be constantly 
pursued. And it is equally important that we engage in contact and 
vigorous oversight and accountability.
    There will always be missteps, but if we are honest and forthright, 
and display the dedication that has been the hallmark of the 
Department, we can catch problems early and fix them.
    The American people have entrusted the Department of State with 
many responsibilities in carrying out our diplomatic mission.
    Accomplishing them requires the full commitment of all our 
employees and it also requires the continuing support of the Congress, 
particularly our committees of jurisdiction.
    If confirmed, I pledge to lead the Department's management team in 
carrying out our assigned tasks in support of American diplomacy 
throughout the world. I would take it as my No. 1 goal to provide the 
Secretary of State with the management advice and management support 
she needs.

    Senator Menendez. Thank you, Mr. Kennedy.
    Mr. Mulvaney.

    STATEMENT OF SEAN R. MULVANEY, NOMINEE TO BE ASSISTANT 
 ADMINISTRATOR FOR MANAGEMENT OF THE UNITED STATES AGENCY FOR 
                   INTERNATIONAL DEVELOPMENT

    Mr. Mulvaney. Mr. Chairman, Ranking Member Senator Lugar, 
thank you for the opportunity to appear before the committee.
    On July 16, 2007, President Bush nominated me for the 
position of Assistant Administrator for Management of USAID. I 
am honored by his confidence in me, and am appreciative of the 
support that has been given me, during the nomination process.
    I appreciate this opportunity to appear before you, Senator 
Menendez, and this esteemed committee. If confirmed, I hope to 
work with you and your colleagues on the committee and in the 
Congress, on a full range of issues. I am looking forward to 
your questions. Thank you very much.
    At this time, I would like to recognize and acknowledge my 
family for their support. Without their love and encouragement, 
I wouldn't be here today.
    This is my wife, Susan, my daughters, Kate and Rachel, and 
my sisters, Sue and Lisa, are here today. My mother was unable 
to attend. I'd also like to recognize and thank my deceased 
father.
    As a former staff member in the House of Representatives, I 
understand the importance of this hearing, and the role it 
plays in our constitutional process. If confirmed by your 
committee, I pledge my best in helping the agency modernize, to 
keep it the world's premier development agency.
    In his National Security Strategy of 2002, the President 
stated that including the world's poor in an expanding circle 
of development and opportunity is one of the top priorities of 
U.S. international policy. Since then, the President and the 
Congress have nearly tripled the resources allocated to 
development. Secretary Rice has reaffirmed the President's 
desire to elevate development as a foreign policy objective. It 
now plays a key role in our national security architecture as 
part of the three D's--defense, diplomacy, and development.
    The humanitarian and development mission of USAID has, and 
will continue to be, a moral imperative of this country. Post-
9/11, it is also a national security imperative.
    If confirmed as Assistant Administrator for Management, I 
will hold a position that is critical to the functioning of 
USAID, because the management bureau provides the tools with 
which our development professionals work. The position oversees 
6 major operational units that include financial management, 
acquisition and assistance, information technology, overseas 
management support, administrative services, management, 
policy, budget, and performance.
    Generally speaking, the position and the Bureau are 
responsible for strengthening and maintaining agency management 
systems. The management function is so critical because every 
other operational unit within the agency relies on it, as a 
service provider, an enabler, and a facilitator in the pursuit 
of U.S. foreign assistance objectives.
    Without good logistical support, USAID's efforts would be 
stymied, as it tries to catalyze the full range of America's 
public and private capabilities, and the resources it allocates 
to development.
    If confirmed for this position, I see myself as playing a 
small but pivotal role to improve the lives of countless 
individuals, by improving the management practices of the 
agency.
    I can assure you that I am energized and I'm exhilarated by 
the tasks that lie before me, and the opportunity to bring my 
professional experience to bear in the service of my country.
    In my professional career to date, I have had a set of 
experiences that have drawn upon many different skills. I 
worked on Capitol Hill for 10 years, in several positions 
covering a range of office, committee, and leadership 
functions, with a focus on foreign policy, international 
economic policy, budget, and appropriations.
    Five of these years were dedicated to assisting a former 
Chairman of the House Appropriations Subcommittee on Foreign 
Assistance. That experience enabled me to build a solid 
knowledge of the U.S. foreign assistance process and 
development practice.
    I also developed a clear understanding of executive branch 
operations, and the special role that Congress plays in the 
design and implementation of U.S. development policy abroad.
    As a complement to this public policy experience, I 
obtained a master's degree from Thunderbird, the American 
Graduate School for International Management. I've also worked 
in brand management for a worldwide consumer products and 
pharmaceutical firm, Glaxo Smithkline.
    The combination of my public policy experience, 
particularly in the legislative area of foreign assistance, as 
well as my private sector management experience, I believe has 
prepared me for the serious responsibilities I would assume as 
Assistant Administrator for Management.
    Should the Senate choose to confirm me for this position, 
it would be an honor to serve side-by-side with the roughly 
8,000 dedicated USAID employees who--at great risk and personal 
sacrifice--answer the development challenges around the world. 
I will endeavor to serve them with the same distinction and 
purpose that they serve the American people.
    In closing, I would like this committee to know that, if 
confirmed, I intend to make myself fully available. I'd like to 
consult with interested staff and members on the management 
challenges that the agency faces, or any proposed decisions 
that it would take. This is part of my own personal policy of 
pursuing communications with all major stakeholders interested 
in improving the management of the agency.
    Mr. Chairman, this concludes my statement for the 
committee, and I welcome any questions at the appropriate time.
    [The prepared statement of Mr. Mulvaney follows:]

    Prepared Statement of Sean R. Mulvaney, Nominee to be Assistant 
     Administrator of Management for the United States Agency for 
                       International Development

    Mr. Chairman, Ranking Member Senator Lugar, and other Senators of 
the Senate Foreign Relations Committee, thank you for the opportunity 
to appear before you this afternoon. I respectfully request that my 
remarks be included in the record.
    On July 16, 2007, President Bush nominated me for the position of 
Assistant Administrator for Management at the U.S. Agency for 
International Development. I am honored by his confidence in me and am 
appreciative of the support that has been given me during the 
nomination process.
    At this time, I would like to acknowledge and thank my family for 
their support. Without their love and encouragement, I would not be 
here. I would like to recognize my wife, Susan, and our two lovely 
daughters, Kate and Rachel, as well as my sisters, Sue and Lisa, who 
are all here today. I would also like to thank my mother, Kay Mulvaney, 
who was unable to attend, and my deceased father, James.
    As a former staff member in the House of Representatives, I 
understand the importance of this hearing and the role it plays in our 
constitutional process. If confirmed by your committee, I pledge my 
best in helping the agency modernize to keep it the world's premier 
development agency.
    In his National Security Strategy of 2002, the President stated 
that ``including the world's poor in an expanding circle of 
development--and opportunity--is one of the top priorities of U.S. 
international policy.'' Since then, he has nearly tripled the resources 
allocated to development initiatives. Secretary Rice has reaffirmed his 
mandate to elevate development. It now plays a key role in our national 
security architecture as part of the three ``D's''--defense, diplomacy, 
and development--and is vital to her vision of ``transformational 
diplomacy.''
    The humanitarian and development mission of this country has been 
and will be continue to be a moral imperative of this country. Post 9/
11, it is also a national security imperative.
    If confirmed as Assistant Administrator for Management, I will hold 
a position that is critical to the functioning of USAID because it 
provides the tools with which our development professionals work. It 
oversees six major operational units that include Financial Management, 
Acquisitions and Assistance, Information Technology, Administrative 
Services, Overseas Management Staff, and Management Policy, Budget, and 
Performance. Generally speaking, the Bureau is responsible for 
strengthening and maintaining agency management systems.
    The management function is integral to every other operational unit 
within the agency. It is a service provider, an enabler, and a 
facilitator in the pursuit of U.S. foreign assistance objectives to 
advance democracy, prosperity, and human well-being in the world's 
developing countries. Every other operational unit of the agency is a 
customer of the Management Bureau. Without good logistical support, 
USAID is stymied in its efforts to catalyze the full range of America's 
public and private capabilities and the resources it allocates to the 
cause of development.
    If confirmed for this position, I see myself as playing a small but 
pivotal role in helping to improve the lives of countless individuals 
by improving the management practices of USAID. I can assure you that I 
am energized and exhilarated by the tasks that lie before me and the 
opportunity to bring my professional experience to bear in the service 
of my country.
    In my professional career to date, I have had a set of experiences 
that have drawn upon many different skills. I worked on Capitol Hill 
for 10 years in several positions covering a range of office, 
committee, and leadership functions with a focus on foreign policy, 
international economic policy, appropriations, and budgeting.
    Five of these years were dedicated to assisting a former chairman 
of the House Appropriations Subcommittee on State Department and 
Foreign Operations. That experience enabled me to build a solid 
knowledge of the U.S. foreign assistance process and development 
practice. I also developed a clear understanding of executive branch 
operations and the special role that Congress plays in the design and 
implementation of U.S. development policy abroad.
    As a complement to this public policy experience, I obtained a 
masters degree from Thunderbird, the American Graduate School for 
International Management. I also worked in brand management for a 
worldwide consumer products and pharmaceutical firm, Glaxo Smithkline. 
The combination of broad public policy experience, particularly in the 
legislative area of U.S. foreign assistance, as well as my private 
sector management experience, has prepared me for the serious 
responsibilities I would assume as Assistant Administrator of 
Management at USAID.
    Should the Senate choose to confirm me for this position, it would 
be an honor to serve side by side with the roughly 8,000 dedicated 
USAID employees who at great risk and personal sacrifice answer the 
development challenges around the world. I will endeavor to serve them 
with the same distinction and purpose that they serve the American 
people.
    In closing, I want this committee to know that, if confirmed, I 
intend to make myself fully available to consult with interested staff 
and members on management challenges at USAID and proposed decisions. 
This is part of a personal policy of mine to pursue communications with 
all major stakeholders interested in improving the management of the 
agency.
    Mr. Chairman, this concludes my statement before the committee. I 
now welcome any questions that you and the other Senators here today 
may have for me.
    Thank you.

    Senator Menendez. Well, thank you very much.
    Kate and Rachel decided when you started to speak to pay 
attention, so you must have a lot of influence there.
    Let me turn to Mr. Heath now, for your opening statement.

   STATEMENT OF DANIEL D. HEATH, NOMINEE TO BE UNITED STATES 
 ALTERNATIVE EXECUTIVE DIRECTOR OF THE INTERNATIONAL MONETARY 
                              FUND

    Mr. Heath. Chairman Menendez, Ranking Member Lugar, thank 
you for the opportunity to appear before you today. I am 
honored that President Bush has nominated me to serve as the 
United States Alternate Executive Director at the International 
Monetary Fund, and if confirmed, I pledge to work with this 
committee, the full Congress, Secretary Paulson, and the rest 
of the administration in furthering U.S. international economic 
policy goals, and the well-being of the American people.
    I want to thank my wife, Jane Allman Heath, and our sons, 
Jared, Ken, and Nathan, who are here today a couple of rows 
back. I want to thank them for their support of my commitment 
to public service.
    Unable to be present in person today, unfortunately, are 
Jane's parents, Charles and Gwen Allman, who have become 
parents to me, as well.
    For much of the past 6 years, I have served as Associate 
Director of the White House National Economic Council. In this 
capacity, it has been my privilege to promote policies leading 
to economic growth and stability for the good of all Americans. 
Throughout my previous roles in Federal Government and in the 
private sector in Europe, I worked to expand international 
trade and investment of benefit to our country.
    If confirmed, I look forward to bringing my skills, 
knowledge, and experience to help pursue policies that are a 
priority for the United States.
    As you know, the IMF is entering a new period, one that's 
marked by new leaders, recent credit market turbulence, and the 
growing strength of emerging market countries. Its mandate to 
promote international monetary cooperation and to expand job-
creating trade will require the IMF to intensify its own 
leadership toward transparency in public policy for market-
based reforms that will generate sustained growth, and on 
fiscal and monetary policies that strengthen government 
accounts and reduce the risk of crises.
    With its near-global membership, and effective U.S. 
guidance, I believe the IMF is well-positioned to set standards 
in these important areas. The United States strongly supports 
recent IMF decisions to better assess countries' economic 
policies, including exchange rate activities. And, if 
confirmed, I look forward to working with my colleagues and 
with this committee to implement these vital reforms.
    Mr. Chairman, dedicated administration officials and 
Congressional leaders, over many years, have helped to expand 
economic opportunity in the United States through domestic 
policies, and the policy fundamentals for economic growth and 
stability in other countries.
    There are new challenges now to global economic 
performance. And, if confirmed, I will demonstrate enthusiasm 
and good judgment in doing my part to improve IMF policies and 
practices that are needed in our time.
    I'm grateful to have the privilege of your considering my 
nomination. I'd be pleased to answer any questions, thank you.
    [The prepared statement of Mr. Heath follows:]

  Prepared Statement of Daniel D. Heath, Nominee to be United States 
    Alternate Executive Director of the International Monetary Fund

    Chairman Menendez, Ranking Member Hagel, and members of the 
committee, thank you for the opportunity to appear before you today. I 
am honored that President Bush has nominated me to serve as the United 
States Alternate Executive Director at the International Monetary Fund, 
and if confirmed, I pledge to work with this committee, the full 
Congress, Secretary Paulson, and the rest of the administration in 
furthering U.S. international economic policy goals and the well-being 
of the American people.
    First, I would like to thank my wife, Jane, and our sons for their 
support of my commitment to public service. For much of the past 6 
years I served as Associate Director of the National Economic Council. 
In this capacity, it has been my privilege to promote policies leading 
to economic growth and stability for the good of all Americans. 
Throughout my previous roles in Federal Government and the private 
sector in Europe, I worked to expand international trade and investment 
of benefit to our country. If confirmed, I look forward to bringing my 
skills, knowledge, and experience to help pursue policies that are a 
priority for the United States.
    As you know, the IMF is entering a new period, marked by new 
leaders, credit market turbulence, and strength of emerging market 
countries. Its mandate to promote international monetary cooperation 
and expand job-creating trade will require the IMF to intensify its own 
leadership toward transparency in public policy, market-based reforms 
to generate sustained growth, and fiscal and monetary policies that 
strengthen government accounts and reduce the risk of crisis. With its 
near global membership, and effective U.S. guidance, the IMF is well-
positioned to set standards in these important areas. The United States 
strongly supports recent IMF decisions to better assess countries' 
economic policies, including exchange rate activities. If confirmed, I 
look forward to working with my colleagues to implement these vital 
reforms.
    Mr. Chairman, dedicated administration officials, and Congressional 
leaders over many years have helped to expand economic opportunity in 
the United States through domestic policies and the policy fundamentals 
for economic growth and stability in other countries. There are new 
challenges to global economic performance, and if confirmed, I will 
demonstrate enthusiasm and good judgment in doing my part to improve 
IMF policies and practices needed in our time.
    I am grateful to have the privilege of your considering my 
nomination. I would be pleased to answer any questions.
    Thank you.

    Senator Menendez. Thank you very much. We welcome your 
families, as well. We understand the sacrifices that are 
engaged, not only for those who serve, but also for their 
families. And, so we appreciate them being with you, and they 
all look great--I'm sure they'll look different on Halloween, 
but they all look great today.
    Let's start with 7-minute rounds, and I'll recognize 
myself.
    Mr. Kennedy, first of all, I've had several people tell me 
of your distinguished service, so the questions go toward the 
position you're going to be taking more than--I understand that 
you're not necessarily at the heart of these issues, but you 
will be dealing with these issues. So, I want to get a sense of 
how you'll be dealing with them, as you approach the 
positions--I want to create under why these questions come to 
you.
    I read with interest the Washington Post article that 
talked about FSO forced assignments. That has not happened 
since 1969, as far as directed assignments. I'm wondering why 
is it that, I mean, obviously this is a tough theatre, so it's 
understandable, why is it that, having not seen those direct 
assignments in the Foreign Service since 1969, we're seeing 
them now, and do you believe that continued forced assignments 
in the future are something that's going to be more 
commonplace?
    If you would put your microphone on.
    Mr. Kennedy. Thank you very much, Mr. Chairman.
    Since 2003, the State Department has been dispatching 
people to Iraq, first as individuals on loan to the Department 
of Defense under the Coalition Provisional Authority and then 
since 2004, as part of the American Embassy there. And the 
number of people we have had serving in Iraq continues to grow 
every year.
    This year we will be adding close to 50 additional Foreign 
Service personnel to serve, not only in Baghdad, but on the 
Provincial Reconstruction Teams, as well. And, I think we have 
reached the point, sir, where the number of people who simply 
have it as their first choice on their Foreign Service 
assignment list, no longer keeps pace with the demands of the 
State Department diplomatic surge, which is mirroring the 
military's own surge.
    And so, we have a process that--as you note, sir--has been 
in place for many years, and has been clarified, and I believe 
that State Department people will step up, once we go through 
the identification process, and I think it is logical, sir, 
that since we're serving 1-year terms, that this might happen 
again next year. But I have every confidence that when the 
individuals who are identified in this process will serve well 
and honorably.
    Senator Menendez. Well, I don't doubt they'll serve well 
and honorably, but they're serving not as their choice. And so, 
the question is, do you believe that, in fact, this is--what I 
gathered from your answer was that this is a result of growth? 
Is it a result of growth only? Do you believe this is a one-
time set of circumstances? Or do you believe that this may be a 
continuing set of circumstances?
    Mr. Kennedy. I think, sir, that if it is the national 
policy to continue to deploy 250 or more Foreign Service 
personnel in Iraq every year, that it is possible that we would 
have to use directed assignments again next year, yes, sir.
    Senator Menendez. Let me ask you about diplomatic security, 
it's one of the areas that you will have jurisdiction over. 
Certainly, recent reports regarding activities in Iraq of the 
private security contracting firm Blackwater, USA, have been 
covered extensively in the news. In my mind, the incident 
points to a larger management issue.
    As the government seeks to privatize U.S. Government 
activities and control personnel costs, contractors have often 
been turned to to deal with those responsibilities. The 
Secretary's panel on personnel protective services in Iraq 
recommended that, ``When the FBI investigation into the 
September 16 shooting incident involving Blackwater is 
completed, the United States Embassy in Iraq should submit its 
recommendation as to whether the continued services of the 
contractor involved is consistent with the accomplishment of 
the overall United States mission in Iraq.''
    Now, that statement, which I'm quoting, is that a reference 
to Blackwater itself? Do we believe that Blackwater's presence 
in Iraq ultimately would be curtailed? Is additional 
contracting staff needed to monitor and audit these contracts?
    Mr. Kennedy. I thank you very much, Mr. Chairman. That 
statement is a reference to Blackwater. I was a member of the 
panel, and participated in the review in Iraq, at the 
Secretary's direction, and in the writing of that report.
    The four members of the panel felt that since there was an 
ongoing investigation by the Department of Justice and the 
Federal Bureau of Investigation, it would be inappropriate for 
us to prejudge the result of that investigation, but should the 
results of the investigation go in one direction, we called 
upon the United States Ambassador to make a recommendation to 
the Secretary, whether or not we should, at that point, change 
contractors or not.
    Senator Menendez. Okay. Go ahead.
    Mr. Kennedy. Going to the second point, one of the points 
that the panel was very strong on in its long series of 
recommendations is we thought that we had in place various 
policies and procedures that were relatively robust. At the 
same time, you can always improve a policy or procedure. One 
has to keep an open mind in looking at those things.
    But the most important issue was that we had to increase 
oversight and accountability. We simply did not have enough 
special agents--Federal officers in the Diplomatic Security 
Service, to accompany each convoy which was moving someone with 
State Department personnel, and therefore, one of the 
recommendations that we made was that additional special agents 
should be deployed. The Secretary has accepted that 
recommendation, and those agents are either in Iraq now, or 
more are being moved there, as we speak, literally.
    And, therefore, we will have significantly increased 
oversight and accountability by placing a diplomatic security 
special agent as the agent in charge on every move that takes 
place by one of our contractors.
    Senator Menendez. Well, talking about oversight, today's 
article talks about the possibility that the FBI investigation 
into the Blackwater incident may have been compromised, because 
guards received immunity for statements that they made to State 
Department officials investigating the incident. Now, it seems 
to me that how we act in terms of giving immunity grants to 
individuals, and the process under which we give immunity 
grants to individuals, if it is as reported, shows that either 
it's procedurally flawed or substantially problematic.
    Mr. Kennedy. When the Secretary took steps after the 
incident on September 16, she--after talking with the Prime 
Minister of Iraq--set three parallel channels moving. One is a 
joint United States-Iraq Commission to look at issues there.
    The second is an investigation which the FBI is heading 
now, to look into the facts on the ground of the specific 
incident and whether or not there was any activity involved 
which would be a violation of law.
    The third action that she took was to commission a panel, 
of which I was a part, to review the processes that we use--the 
oversight and accountability. Our groups was specifically 
walled off from looking at the specifics of the investigation 
that the FBI was involved in. We did not wish to do anything 
that would potentially render a prosecution more difficult.
    And so, I can only tell you, sir, that the investigation by 
the FBI is still ongoing, but I did not participate in that 
investigation.
    Senator Menendez. My time is up, but I don't want to leave 
this dangling, so I'll just take one more minute here, and then 
I'll turn to Senator Lugar.
    Is there a clearly-defined process under which a person of 
Protective Services ultimately are told when they can and when 
they cannot offer grants of immunity, and is there a chain of 
command that is well-established, as well as documented, in 
terms of standard operating procedures.
    Mr. Kennedy. Senator, can I get that answer for you for the 
record? Because my responsibilities, to date, have not involved 
that. But, I can assure you that, should I be confirmed by this 
committee, that is an issue that I would find within my 
jurisdiction to immediately address, because the Secretary does 
seek to ensure that there is the utmost accountability and 
control and responsibility for the State Department for the 
actions that take place under its jurisdiction.
    Senator Menendez. We'll look forward to your written 
answers. Clearly, this is a field you will be dealing with.
    Mr. Kennedy. Yes, sir.
    [The information referred to above follows:]

                                  U.S. Department of State,
                                  Washington, DC, October 31, 2007.
Hon. Robert Menendez,
Chairman, Subcommittee on International Development and Foreign 
        Assistance, Economic Affairs, and International Environmental 
        Protection,Committee on Foreign Relations,
U.S. Senate, Washington, DC.
    Dear Mr. Chairman: I am writing in response to questions you posed 
to Ambassador Patrick Kennedy at his October 30 confirmation hearing. 
You asked for information about news accounts that the Department of 
State has promised employees of Blackwater USA immunity from 
prosecution in connection with a September 16 incident in Baghdad.
    The Department of State is not in a position to immunize 
individuals from Federal criminal prosecution. The kinds of statements 
that the press is writing about would provide limited protection that 
does not preclude prosecution. The Department would not have asked FBI 
to investigate this case unless we and they thought that they could 
investigate the case and potentially prosecute individuals if 
warranted. I have attached a statement issued by the Department of 
Justice confirming that Blackwater employees have not been given 
immunity from prosecution and that the FBI's criminal investigation of 
this matter continues.
    Without regard to whether particular statements may be used in a 
criminal proceeding, cases like the one currently under investigation 
are complex given that the applicability of U.S. criminal law to the 
activities of private security contractors overseas is not always clear 
and may depend on the facts at issue in any particular case. The 
administration is currently working with the Congress on legislation to 
ensure that we have the laws we need to hold private security 
contractors overseas accountable where appropriate.
            Sincerely,
                                        Jeffrey T. Bergner,
                           Assistant Secretary Legislative Affairs.
Attachment: As stated.
 statement by justice department spokesman dean boyd on the blackwater 
                             investigation
    ``The Justice Department and the FBI cannot discuss the facts of 
the Blackwater case, which is under active investigation. However, any 
suggestion that the Blackwater employees in question have been given 
immunity from federal criminal prosecution is inaccurate. The Justice 
Department and the FBI continue the criminal investigation of this 
matter knowing that this investigation involves a number of complex 
issues. We are unable to comment further at this time.''

    Senator Menendez. If you are confirmed, and I have real 
concerns that the immunity claims that I understand that 
arrests, apparently are called ``Garrity Warnings,'' and 
``Calkine Warnings'' both named for Federal court cases from 
the 1960s and 1970s that recognize the special circumstances of 
Government employees in criminal cases involving their jobs.
    And it seems to me that we have to, you know, we want to 
promote the rule of law throughout the world, and it starts 
with observing it at home, so that, in fact, you can hold that 
standard to the rest of the world. But, if we have a process 
that allows immunity grants to be given without the appropriate 
authorities, including the appropriate law enforcement 
authorities being advised before that grant is given, then we 
are giving immunity to people that ultimately may very well, 
and should be, subject to prosecution. And that is 
fundamentally wrong.
    Mr. Kennedy. I----
    Senator Menendez. Though I know as you go into this, I know 
that you don't have this job now, but the reason I'm raising 
these questions now is, you may very well have this job, and 
this is not going to be, unfortunately, in my concern, an 
isolated incident and how we proceed in the future is going to 
be very important.
    Mr. Kennedy. Senator, I absolutely agree. In addition to 
providing information in writing, I believe that we could 
arrange for a representative of the Department of Justice, 
which has control of this investigation at the moment, to call 
upon you or one of your counsels to review the material that 
they are in charge of.
    Senator Menendez. I appreciate that.
    Mr. Kennedy. And I fully agree that responsibility and 
accountability and the rule of law are paramount.
    Senator Menendez. I appreciate that, I don't want the other 
nominees to think I don't care about them. I will return to you 
after Senator Lugar.
    Senator Lugar.
    Senator Lugar. Well, thank you very much, Mr. Chairman.
    Just following through on the accountability side of, sort 
of, past business with your predecessor, what is the latest 
information regarding passport production numbers? How many new 
adjudicators have you hired, and what is the current backlog, 
if there is one?
    Mr. Kennedy. Thank you very much, Senator Lugar.
    There is no backlog at the moment. The normal waiting time 
for a passport has historically been approximately 6 weeks. We 
believe we are actually under that number. I check the figures 
every Friday, and on Friday, the number of applications in-
process were around 500,000, and we are moving through those 
with regularity.
    We've done some spot-checking, and people are telling us 
they are receiving their passports in as little as 2 and 3 
weeks.
    We have been able to accomplish this partially because 
we've already brought on board some 300 new employees, and we 
believe we will hit 500 by the end of the calendar year. These 
are adjudication personnel, because Senator, there's a two-part 
process for a passport: physical production of the book, and 
the adjudicator who takes a governmental act to say, ``You are 
who you say you are, and the documents you represent establish 
that you are an American citizen.''
    We have capacity to produce over 25 million passports, 
including a new facility we just opened in Arkansas, which will 
have the ability to produce 10 million passport books a year. 
So, we have the physical capacity to print the books. What we 
were short on, Senator--and it was our failing, absolutely our 
failing--we did not have enough human adjudicators to do that. 
We mobilized State Department personnel, retirees, other 
officers, and we have 300 new people, and are heading for 500.
    So, we believe we have addressed this systemically with new 
production facilities and new personnel, but we will, however, 
monitor it weekly to make sure we don't see any adverse trends.
    Senator Lugar. Well, I'm sure the American people 
appreciate that good report. I trust that these employees are 
sustainable, that is, this is not a so-called surge capacity 
that may tailor off, but that you're geared up now, both in the 
production side, the Arkansas plant, for example, plus the 
human side, adjudicators.
    Are you in touch, do you believe, coordinating with the 
Department of Homeland Defense or others who may--in the course 
of their affairs, plus some of us--bring up new requirements 
for various Americans to have passports, or to have other 
documentation so that, if these early warning signals come 
along, you're in a position to surge prior to the avalanche 
hitting you?
    Mr. Kennedy. Absolutely, Senator. The individuals we are 
hiring now are permanent, full-time employees. We negotiated an 
arrangement with the Office of Management and Budget that 
permitted the State Department to retain additional fees that 
citizens were paying for their passports, and made the 
appropriate notifications to the Congress. With these 
additional fees, we were able to add to our physical plant, and 
add the additional personnel.
    Our Assistant Secretary for Consular Affairs is in daily 
contact with the Department of Homeland Security, and should I 
be confirmed, I know the Undersecretary at DHS well, and my 
plan would be to establish full and open communications with 
him so that if there are any changes that they feel necessary, 
to make sure that we have secure borders, that the State 
Department has the time and is well-positioned to respond to 
those new requirements.
    Senator Lugar. Excellent.
    Let me ask, what is the role that the Office of the 
Coordinator of Reconstruction and Stabilization should play in 
post-conflict stabilizations and reconstruction, and do you 
anticipate more budget resources being requested by the 
Department for this function?
    Mr. Kennedy. Senator, I think you've touched on a very 
important area. The State Department has, essentially, no surge 
capacity inherent to it. When we need to surge, we take people 
from within the Department and shift them from one important 
mission to what is, at that moment, a higher mission.
    We need to establish a reserve corps--not exactly 
equivalent to the National Guard or the military reserves--but 
we need that inherent capability.
    CRS, the Coordinator for Reconstruction and Stabilization, 
is now working with other Government agencies, and we are 
awaiting final passage of authorizing legislation which we 
welcome. It will formalize this. We have set aside funds in the 
supplemental that was passed last year that covers fiscal years 
2007 and 2008, so those funds are still available, and we will 
be seeking additional funds to turn this into a permanently 
staffed ``on-call'' mechanism, staffed by professionals in 
fields as diverse as agronomy and veterinary sciences and law 
enforcement, so that we would be prepared to work with our 
colleagues at AID and at other agencies, and deploy those 
personnel to regions in need.
    Senator Lugar. Well, that's good news, also. As you know, 
many members of this committee are very strongly supportive of 
this, and feel that this is a requirement for United States 
diplomacy when, in fact, we may have taken the position in the 
past, we're not going to do nation-building, but now we're 
doing a lot of nation-building. And the personnel resources to 
do this aren't there. So, the surge capacity, or what have you, 
is required, but I appreciate the progress reports, and your 
cognizance of this.
    One final question, and that is--what is the status of the 
Department's embassy construction program at this time? These 
come along from time to time, but how many new embassies have 
been replaced, and how many remain to be replaced, or to be 
built to begin with? And when will the program end? Do you have 
any flow chart of embassy-building?
    Mr. Kennedy. Senator, let me get you a complete flow chart 
for the record, but I am pleased to report that, to date, we 
have completed 53 embassies, there are another 37 which are in 
the process of design or construction, and we plan 11 more 
construction awards this year.
    [The information referred to above follows:]

department of state, bureau of overseas buildings operations--status of 
            embassy construction program, november 14, 2007
    After the 1998 East African embassy bombings, the Department was 
faced with an unprecedented challenge of having to replace 
approximately 195 embassy facilities as a result of security concerns.
    Since 2001, the Bureau of Overseas Buildings Operations has:

  <bullet> Built 53 new facilities with 37 more underway; see attached 
        list.
  <bullet> Moved nearly 15,000 United States Government employees to 
        safer facilities.
  <bullet> 11 more construction contract awards are planned for fiscal 
        year 2008.

    As of October 2007, OBO manages $ 5.1 billion in construction 
projects compared with $ 0.7 billion at the beginning of fiscal year 
2001. The typical project delivery time has been reduced from 4 to 5 
years to approximately 2 years. The Department is very appreciative of 
the Congressional support we have received for the program.
    OBO has two New Embassy/Consulate Compound (NEC) construction 
programs--the Capital Security Construction Program and the Strategic 
Capital Construction Program. The Capital Security Construction Program 
is restricted by Congress to projects on a list of 80 (in bands of 20) 
of the most vulnerable posts. The Strategic Capital Construction 
Program involves projects not primarily undertaken for security reasons 
and not on the ``Top 80 list'' (e.g., a functional requirement or 
structural deficiencies). However, the Strategic program follows the 
same discipline and oversight as the Capital Security program.
    NEC construction is funded by:

  <bullet> Congressional appropriations for the Department of State's 
        Embassy Security, Construction, and Maintenance Account.-
  <bullet> Capital Security Cost-Sharing Program (levy on other 
        agencies occupying U.S. facilities on a per capita basis).
  <bullet> Proceeds from the sale of excess property and/or 
        underutilized property holdings.

    The Capital Security Cost-Sharing (CSCS) Program was developed in 
2001-2002 in accordance with the President's Management Agenda 
Initiative on Rightsizing and the 1999 Report of the Overseas Presence 
Advisory Panel, and was included in the President's fiscal year 2004 
and fiscal year 2005 budgets. Fiscal year 2005 was the first year that 
the Department and other agencies contributed to the CSCS Program.
    The Department, with OMB oversight, manages the Program, which will 
generate a total of $17.5 billion over the 14 years from fiscal year 
2005 through fiscal year 2018 (beginning with a 5-year phase-in period) 
to fund approximately 150 NECs in the Capital Security Construction 
Program. The time to construct these 150 NECs is reduced from 26 to 14 
years with CSCS in place (compared to the pace of construction under 
pre-CSCS budget levels).
OBO Capital Construction Projects
    Completed since 2001: Kampala NEC, Doha NEC, Lima USAID (Annex), 
Bogota USAID/NAS (Annex), Tunis NEC, Dar es Salaam NEC, Dar es Salaam 
(USAID), Nairobi NEC, Zagreb NEC, Istanbul NEC, Sao Paulo NAB, Abu 
Dhabi NEC, Kabul ARG CMP, Baghdad IOB (Supplemental), Dili IOB, Sofia 
NEC, Yerevan NEC, Abidjan NEC, Luanda NEC (Strategic/Asset Mgt), 
Frankfurt NAB, Abuja NEC, Cape Town NEC, Phnom Penh NEC, Kabul NEC 
(Strategic/Asset Mgt), Kabul Cafeteria, Tbilisi NEC, Tashkent NEC, 
Yaounde NEC, Dushanbe NEC (Strategic/Asset Mgt), Conakry NEC, Tirana 
Annex, Phnom Penh USAID, Kampala USAID, Nairobi USAID, Bamako NEC, 
Astana NEC, Conakry USAID, Freetown NEC, Belmopan NEC, Lome NEC, 
Bridgetown NAB, Kingston NEC, Accra NEC, Athens Annex, Bogota Annex, 
Kathmandu NEC, Kathmandu USAID, Panama City NEC, Managua NEC, Rangoon 
NEC, Algiers NEC, Managua USAID, Accra USAID.

    In Design or Construction: Bamako USAID, Baghdad NEC 
(Supplemental), Kingston USAID, Port-Au-Prince NEC, Ciudad Juarez NEC, 
Berlin NEC (Strategic/Asset Mgt), Taipei (Strategic/Asset Mgt) 
(design), Kigali NEC, Mumbai NEC, Quito NEC, Skopje NEC, Skopje NOX, 
Beijing NEC, Khartoum NEC, Khartoum NOX, Jerusalem Annex, Djibouti NEC, 
Libreville NEC, Surabaya NEC, Abuja NOX, Tbilisi NOX, Johannesburg NEC, 
Suva NEC, Koror NOB (Strategic), Kolonia NOB (Strategic), Guangzhou NEC 
(design), Brazzaville NEC, Karachi NEC, Addis Ababa NEC, Antananarivo 
NEC, Jeddah NEC, Manila NOX, Ouagadougou NEC, Riga NEC, Sarajevo NEC, 
Tijuana NEC, Valletta NEC.

NEC-New Embassy/Consulate Compound
NOX-New Office Annex
USAID-USAID Annex Bldg.
NOB-New Office Bldg.
NAB-Newly Acquired Bldg.
IOB-Interim Office Bldg.

    We believe this program will probably run out to as late as 
2018, because we were starting from a very, very low base. When 
I was the Assistant Secretary of State for Administration, we 
had funds to construct one new embassy a year. And it requires 
a major effort when you have 160 embassies and approximately 
100 consulates, many of them not in the best condition, unsafe, 
and not prepared to deal with the volumes and the concerns that 
we have in the modern world, as you referenced earlier.
    This construction program has very much benefited from the 
support of our oversight committees, which have been tremendous 
in giving us direct appropriations, and also in getting for us, 
in effect, fees from other Government agencies which occupy our 
facilities, so it's the support you have given us have enabled 
us to construct 53 and be working on 37 more.
    Senator Lugar. Thank you, Mr. Chairman.
    Senator Menendez. Thank you, Senator.
    Let me return to Mr. Kennedy for a second round, here. I 
heard your answers to Senator Lugar about the passport issue, 
and am I to understand from your answers that you believe that 
systemic changes have been now put in place that makes the 
possibility of reliving the fiasco that we have, unlikely?
    Mr. Kennedy. Senator, I'm glad you added the word 
``unlikely'' at the end of it. If confirmed, this would be my 
responsibility, but I jokingly and seriously say I can only 
ever offer a 99 percent guarantee. But, following the surge, I 
was charged by the Secretary and the Deputy Secretary, and the 
Under Secretary for Management with assembling a State 
Department task force, and I have looked into this very, very 
deeply, and was part of the working group that mobilized the 
personnel to do it.
    I believe with the production capacity that we now have, 
which is probably 25 million, with the additional personnel 
that we're hiring, with additional checks we have put into 
place at various points along the line, and with the ability to 
potentially bring on more personnel, including remobilized 
personnel from within the Department, I believe that I can 
offer you a very solid guarantee, that barring some incredibly 
unforeseen circumstance, there will not be a repeat of this.
    Senator Menendez. And, in that context, then, you would say 
to me the Department is ready for the next phase of the Western 
Hemisphere Initiative?
    Mr. Kennedy. We are building to that, yes sir, we are 
building to that phase right now. We have the production 
capacity, and we plan to expand the production capacity. 
Because as the Assistant Secretary for Consular Affairs looks 
out into the future, they see the demand for passports over the 
next 5 years rising to as possibly as many as 30 million a 
year. So, we have brought back out of retirement a senior 
retired Foreign Service officer whose specialty is management 
and administration in regard to buildings, and he has now been 
detailed to the Bureau of Consular Affairs, and is looking to 
see what additional facility capacity we need to put into place 
to keep us ahead, well ahead of that growth curve, sir.
    Senator Menendez. One last question to you, as you approach 
this position. For 15 years, 13 in the House, on the House 
International Relations Committee, and now having had the 
privilege of sitting on this committee, I have a real issue--I 
appreciated very much in your opening statement, the comments 
you made about having a workforce that is as diverse as America 
is, but I still believe that--this is going back over several 
administration's now--one of the worst Departments in the 
Federal Government--particularly as it relates to Latinos in 
the Foreign Service and senior executive management ranks--is 
the State Department.
    And every time we broach this issue, you know, we talk a 
lot about recruitment, and recruitment is great, I actually got 
into law several provisions to give the Department the money 
for recruitment. The problem is that recruitment, in and of 
itself, doesn't solve the problem. When you want to get weeded 
out from the Department, you're told by panels that you either 
cannot communicate effectively, or cannot write effectively. 
And I understand both skills, but I think they're subjective at 
the end of the day.
    And so, I hope that in your new position that you'll work 
toward--and I understand there is a timeframe here that, up 
until a new administration, but you may very well be there 
after that new administration--I hope that you will work with 
us to try to truly diversify the Foreign Service and the senior 
executive management, because in a country that increasingly 
has a large number of Americans of Hispanic descent, it does 
not represent that at the Department. Something I'd like to see 
you work with us on.
    Mr. Kennedy. Senator, I fully agree. If I look at the 
numbers, the numbers are wrong. We have to improve them. You're 
right, we have to do the right kind of recruitment, you have to 
spread your net widely, you have to also offer training once 
you do have people in the service.
    If confirmed, one of the things that I have in the back of 
my mind, which I might bring to the front, very quickly, is I 
don't think that we cast a wide enough net, we have 17 
diplomats and residents arrayed around the country, numbers of 
them at Hispanic and Historically Black Universities, but I 
don't think that we have fully tapped our potential for 
recruiting--major colleges and universities employ their 
alumni, who are spread all over the country, to be their best 
recruiters.
    I think that the State Department should seriously 
consider, and this was something that I'm very interested in 
doing, tapping the network of retired Foreign Service officers 
who live in every State in the union, and using them as, in 
effect, deputized recruiters to go to every college and every 
university, and not just certain ones to make sure that we are 
taking every option and every opportunity to get the diversity 
and get the people we need.
    Senator Menendez. Well, thank you. I appreciate your 
answer, it's very forthright. I look forward to working with 
you.
    Mr. Mulvaney, let me ask you, with reference--you and I 
have had some discussions about the position that you'll have, 
and it's a very important one at a critical time, in my view, 
for USAID--I heard your opening statement and I appreciated 
some of the things that you included in there. How do you think 
that reduced resources have affected USAID's ability to carry 
out its mission?
    And, while you're dealing with that reality, I would hope 
that if you are confirmed in this position that you will be 
engaged with members of the committee and members of the 
Congress, who are concerned about the future of USAID, about 
its mission, about being the premier entity that has been at 
the forefront of development assistance in the world on behalf 
of the United States and putting that side of America's face 
out there throughout the world.
    And, including the AID mission in the budget process that's 
so critical--could I hear your views on that? It's a lot, but 
I've talked to you about it before, I'd like to hear your view 
on the record, if I may.
    Mr. Mulvaney. Let me start out by addressing the three 
issues you mentioned, and I'll try to go through each one of 
them that I internalized.
    First, how has declined resources impacted the ability of 
the agency to implement its development programs and its 
mission? I would say that the agency has been running on scarce 
OE for a number of years. And this situation has created a 
number of challenges on the ground.
    One can look at the growth in programmatic funds that the 
agency has had to implement, and it's been dramatic since 2001. 
When I first started in 2001, I think the figures were around 
$7 or $8 billion, and we're almost at a doubling of that, $13 
billion in terms of what the agency actually implements, all 
spigots, all programs around the world, in over 150 countries. 
Its regular OE budget has more or less remained the same, its 
staffing levels have, more or less, remained the same. It has 
desperately tried to backfill attrition as people retire, so 
it's been a struggle to maintain the quality of our development 
programs.
    But, I think the agency is committed to doing more with 
less, to trying to be more efficient. That's not to say that, 
perhaps in the future, more resources couldn't be used to help 
revitalize the agency, and I think the senior leadership is 
committed to that goal.
    In second point, you talked about morale at the agency, and 
how it has suffered in recent years. And the importance of 
maintaining it as the premier development agency--I'm aware of 
this issue, and it is serious. What I can add to improve it is 
an approach. While serving the President, and being a part of 
an administration team I would essentially play a strong role 
in listening to the career Foreign Service officer, and the 
career civil service, becoming an advocate for the equities of 
the agency, within an overall administration framework.
    I would make it clear to the staff that I'm present to 
facilitate their work, and my sense of public service is not 
only to the American taxpayer, but my sense of public service 
is also to the rank and file of the agency.
    Your last point was on the budget process--and I assume 
that the motivation of your question relates to making sure 
that the long-term development objective is front and center in 
the DFA framework as things go forward.
    My sense of the agency is that, in the senior leadership of 
the agency, and the Director of Foreign Assistance, his 
office--her office, now--is that they understand that, the 
rollout of the DFA framework did not go well. Congress was 
upset about a number of actions that were taken. A number of 
external stakeholders, NGOs, and think-tanks were also not 
happy, and I think the senior leadership is committed to making 
changes to that process after hearing Congressional concerns.
    To the extent I play a role in that process, I will carry 
your concerns to them, and try to help the agency think about 
it. My portfolio is different, though, from the actual 
programmatic decisions.
    Senator Menendez. Senator Lugar.
    Senator Lugar. Mr. Chairman, let me just follow along your 
question. You've just responded, Mr. Mulvaney, that there has 
been considerable consternation about, as you say, the roll-out 
of the Director of Foreign Assistance and that creation. And 
the morale problems, at least that some have reported to us, 
seem to come from personnel at USAID who have been affected in 
this roll-out situation.
    When we have hearings on the Millennium Challenge Program, 
many members refer to the old days. The old days were USAID, we 
had appropriations annually for a list of countries. Things 
happened, money went out, and sometimes there were oversight 
situations in which all that was accomplished was now precisely 
what had been hoped for, or there were malfeasance in 
countries--all sorts of difficulties.
    Now comes along Millennium Challenge and 15 criteria for 
receiving funds, including what some have said is a rather 
laborious process of democracy-building within the potential 
recipient, people making decisions as to how the money ought to 
be spent, whether for infrastructure of roads, or water supply 
for the people or whatever, which sometimes takes time. So, as 
a result, criticism has come that not much money is being 
spent. That a lot of time is going by, some feel the terms of 
members the House and the Senate may go by before something 
occurs there, oversight is rather difficult.
    Now, if that is difficult for us to contemplate, it must be 
very difficult for the career employees who are involved in 
this process, as different criteria, different expectations 
occur--how would you estimate the success of this process, of 
working through the Millennium Challenge criteria and programs 
which, at the end of the day many people do contend is probably 
a good idea for countries to take responsibility for 
decisionmaking, take responsibility to fight corruption, so 
that even after we've deemed that a road should be built, in 
fact, if it isn't built and the money is out in a Swiss bank 
that, for some reason nothing occurs--I just ask you, as a 
professional in this, trying as you say, to listen to, not to 
salve the wounds of the process, but in this coming year, 
really, try to meld together all of this--what do you have in 
mind? Do you have any action points that you can share with us?
    Mr. Mulvaney. Senator, thank you very much for the 
question, I understand your concern.
    The portfolio, I would assume, is actually more in the back 
room of the foreign assistance process, it's not the front-line 
policy process. So, a lot of the decisions, ideas, and points 
that you make wouldn't actually relate to the position I would 
fulfill, but I will share a couple of thoughts with you, in the 
spirit of trying to answer your question.
    My own view of the MCC, and I think it's shared by other 
folks, is that it was not a replacement of traditional core 
accounts of U.S. foreign assistance, particularly those 
accounts administered by USAID. The intention of the MCC was to 
be an incremental spigot of ODA that would have a number of 
characteristics that would incorporate lessons learned in 
development, which is an imperfect process, as we all know.
    Some of those characteristics were that the MCC would be 
non-earmarked money. It wouldn't be tied aid, and it would be 
flexible, in the sense of being able to work with developing 
countries, allowing for the principle of local ownership to be 
incorporated into compacts.
    The existence of the MCC has, I think, impacted agency 
morale. The agency views the MCC a bit enviously, to be frank. 
They would like to have some of those same flexibilities. But, 
one thing I would point out is that, AID is the backbone of the 
U.S. foreign assistance architecture. There's no substitute for 
it. We need it and it can't go away. The MCC, to my knowledge, 
as a staffer in the process, helping the institutions in the 
House and Senate contemplate how that would fit in a niche of 
U.S. foreign assistance policy--the intent of that institution 
was that it would only operate in a limited number of 
countries--20, 25, some of the better performers--but AID 
operates in over 150 countries. It has a direct, higher 
presence in 75 or 80.
    Let me stop there, and see if I answered your question, 
sir.
    Senator Lugar. Well, that's very helpful, and obviously, 
this is, sort of, an essay-type exam in which you could go on 
through several chapters. But, I think that's thoughtful. The 
backroom, essentially, the difference between the numbers--25 
as opposed to 160--sort of the backbone stability give, I 
think, a good outline of sort of where you're headed, and some 
counts you might give.
    Let me just ask one more question, and that is, we talked 
to Mr. Kennedy about the building of embassies, and the 
question often arises--should the new U.S. embassies include 
the USAID missions in the embassies? Obviously, historically, 
several of the missions have not been in embassies. Some have 
argued that's good, some have argued that's not so good. What 
is your general judgment, and for that matter, if you can't 
make a general judgment, what are the facts, in terms of 
embassy planning that you will have to deal with as you counsel 
USAID officials?
    Mr. Mulvaney. Senator, thank you for the question, it's an 
important one. I will be assuming this position in a continuum 
of decisions that have gone on before me. It was Secretary 
Powell and Deputy Secretary Armitage that made the initial 
decisions about having new embassy compounds constructed, and 
having co-location between the State Department and USAID. 
There is no doubt that these co-locations into new embassy 
compounds that are going to be affecting the delivery model of 
USAID, because in many countries around the world, they have 
had separate missions, and now they are going to be co-located.
    I think the agency and the State Department are committed 
to a good faith effort, though. To the extent that there is co-
location, and perhaps a consolidation of administrative 
services that serve both State and AID, there must there must 
be an importance placed on the objectives of efficiency, cost 
savings, and respect for each organization's different but 
complimentary mission. And, if those aren't achieved, that 
there's an objective of security for all U.S. Government 
personnel serving in these compounds.
    I will be assuming this post and working as a team member 
with my colleague here who is at the table, if I'm confirmed. 
So, I hope I answered your question, sir.
    Senator Lugar. Yes, thank you very much.
    Mr. Chairman.
    Senator Menendez. Thank you, Senator. I have one final 
round of questions, and I don't want you to think that Senator 
Lugar and I actually choreographed this tag-team, but when he 
raises something that is of interest that I had, I want to 
raise it, follow-on.
    In his questions to you, Mr. Mulvaney, about the Millennium 
Challenge Account, if I understand correctly, you actually led 
the final negotiations of a staff agreement with the executive 
branch, establishing the President's new development assistance 
initiative, known to us now as the Millennium Challenge 
Corporation, when you served as an advisor to then-Congressman 
Colby.
    Now, one of the--ironically, one of the programs that's cut 
into the sovereignty--not just about money--but the sovereignty 
of AID, is the Millennium Challenge Account and, in fact, an 
overwhelming majority of countries that have received MCC 
monies have seen their own USAID funds slashed.
    Now, I really, my ears perked up when you said--in response 
to Senator Lugar--this is not meant to be a replacement, and 
certainly those of us who supported the MCC believed it to be 
additive, not as a replacement. So, I'm glad to hear that 
that's your framework of mind, as well.
    But, can we have a better coordination between AID and MCC? 
It just seems to me that we're missing out on some 
opportunities here, I'd like to hear your insights on that.
    Mr. Mulvaney. A couple of thoughts--and again, this is 
beyond my portfolio that I would be confirmed for, so these are 
all my own personal views. Interagency coordination in foreign 
assistance has been a very difficult process and challenge from 
the Congressional viewpoint--and I haven't been in the 
executive branch--but in the design of the MCC, one of the 
things that Congress created was an Interagency Board that 
would provide oversight over those foreign assistance programs, 
and that includes Department of Treasury, State, USAID, and 
USTR.
    And that board structure was intended to enhance 
interagency coordination, AID being on the board, particularly, 
would give it the opportunity to interact with the MCC at a 
very high level, so that there would be coordination.
    Can there be better coordination? I think we always can see 
better coordination as a possibility.
    You raised a point about bilateral funding levels of, say, 
the agency, where MCC countries have compacts. I would say this 
point was one that was left open as to what would be the 
interface of USAID in that particular country, if it would 
change, if it would be modified to the extent that the agency 
would pivot and focus on potentially non-MCC-type programs. It 
was an open question, largely because the administration did 
not have a clear blueprint on how it was going to implement the 
MCC. So, it was an area that was destined for further 
Congressional oversight and interaction.
    Senator Menendez. Well, that's a good cause for me and the 
subcommittee to do some of that. I appreciate that insight, 
because we have, I believe that those of us that supported MCC 
believe that, in fact, what has happened is that it has become 
a replacement versus additive, in its totality of its nature.
    And the coordination, have a USAID sit on the board, that's 
one thing. But, when we have missions in-country, that are then 
also having an MCC compact, that's the type of coordination I'd 
like to see us more succeed.
    Mr. Heath, I didn't want you to think you were out there 
all by yourself. At the--I know you were saying, ``Wow, I'm 
going to get away with it.'' [Laughter.]
    But, I was impressed with your answers privately, I just 
want to go one or two things with you publicly.
    The United States is the single-largest country contributor 
the IMF, with cumulative contributions of over $55 billion to 
the quota of the organization, so this is a very significant 
position.
    I'd like to hear from you, what do you believe are the top 
three priorities of the Office of the U.S. Executive Director 
in the year ahead, since that, as the alternate you will may--
you will be called upon to cast your vote or advocate policies 
there, I'd like to hear what you believe are the three top 
priorities we should be pursuing?
    Mr. Heath. Thank you, Senator. The priorities for the 
Executive Director's office certainly touch on all of the 
disparate issues now that are coming at the IMF.
    For my own view, I would believe the first priority is on 
exchange rate surveillance. I strongly support the Executive 
Board's decision to incorporate exchange rate surveillance 
activities in its Article 4 consultations, the decision of June 
2007, and it is vital to implement this decision in a firm 
manner.
    This issue of exchange rate surveillance is an old one, in 
fact, for the IMF, something they've grappled with for about a 
generation, and I think the time is certainly overdue for firm 
action in this area.
    Second one, I would say, was the reform of the IMF 
governance. We are witnessing in the current turbulence in 
credit markets, the emergence of emerging market countries as a 
stabilizing force, and as a group accounting for more than half 
of global growth, it's only appropriate, in fact, vital, that 
these emerging market countries assume leadership and 
responsible positions in the global community of finance, and 
certainly having representative positions in the IMF would 
reinforce that.
    Finally, a third priority would be the integration of 
capital markets and financial markets analysis into the 
surveillance, Article 4 surveillance, and indeed, the full 
range of work done by the IMF. Again, we have seen, the latest 
turbulence in the market, a need for more profound or deeper 
examination of capital markets, of their functionings and how 
they affect players around the world.
    Ironically, this latest crisis emanated from the most 
sophisticated economy in the world, that is, the United States 
economy, when others are looking for low-income countries to 
generate crises, it comes from an unexpected quarter. And so, 
it underscores the importance of integrating much more serious 
and profound analysis and examination of capital and financial 
markets into the work of the IMF.
    And, if confirmed, those would be the areas I would be 
keenest on.
    Senator Menendez. When you speak about reform of 
governance, can you give me a sense of what you mean by that?
    Mr. Heath. The emerging market countries certainly should 
have a larger voice and a larger vote. One of the analyses that 
impressed me was a simple one of comparing the voting power of 
China, Brazil, and India with Italy, the Netherlands, and 
Belgium. I found that the former countries had 19 percent less 
voting power than the latter countries, even though the former 
countries have GDP four times that of the latter group of 
countries.
    We are expecting emerging market countries to be 
responsible players in the International Monetary System, it's 
important that they have the vote and responsibility to support 
the institutions that now are residing with other high-income 
countries.
    Senator Menendez. Two other questions--do you believe the 
IMF has a role in promoting and facilitating economic 
development?
    Mr. Heath. Yes, I do. And, as we enjoyed in a conversation 
last week, the importance of fundamental policies, macro-
economic policies as preconditions for growth is important to 
that kind of growth, within the United States and in low-income 
neighborhoods in the United States, as well as around the 
globe.
    The primary responsibility of the IMF, of course, is macro-
stability, and encouraging growth through that kind of 
stability, as well as through sound debt management and 
strengthened macro-economic institutions.
    So, I believe its role is distinct from that of the World 
Bank and the recent commission by Pedro Moran, underscores the 
need for collaboration, but a distinct role where the World 
Bank has, really, the tools for a long-term development 
finance, whereas the IMF, while it has loan facilities for 
short-term needs and balance of payments needs, really has the 
expertise and mandate to encourage macro-stability in those 
countries as a fundamental for growth.
    Senator Menendez. Finally, debt relief has been at the 
forefront of the development debate for many years. The IMF has 
participated, starting in 1996 in the heavily indebted poor 
country initiative.
    Now, there are some who believe that this has not had the 
success that they think it should have. What do you believe are 
the success and failures of that program, and how do we make 
sure that debt relief promotes economic growth and poverty 
reduction?
    Mr. Heath. The most recent round of debt relief involving 
the multilateral debt relief initiative, which, I think was 
from 2005, joined the earlier initiative of the heavily 
indebted poor countries, the HIPC initiative, and are strongly 
supported by the administration. The debt workouts that--and 
policy changes, I think--that accompany the forgiveness of debt 
strikes me as someone who's not intimate with the details not 
being in the position nonetheless, as the weak part of the 
program, and would require much more attention, I think, than 
they've been receiving.
    It's important, not only that countries work, be free of 
debt, but operate in such a way that they don't return to an 
indebted situation. So, it requires building institutions, the 
technical assistance necessary to create stability and the 
economic power, the depth of financial markets to avoid 
returning to that situation.
    Senator Menendez. In other words it's not just the relief, 
it's the structure of the relief?
    Mr. Heath. Yes, sir.
    Senator Menendez. Thank you.
    Senator Lugar?
    Senator Lugar. Thank you, Mr. Chairman.
    Mr. Heath, you've raised, I think, some very sophisticated 
points that, undoubtedly you've already made in consultation 
with your colleagues at the IMF, or will shortly.
    But, I just want to reiterate some, and gain further 
comment from you, because I don't think it's well understood in 
this country, quite apart from, on the board of the IMF, the 
extraordinary change is that you exemplified in the contrast of 
three countries, and their contribution to world economy, as 
opposed to three that are underrepresented, and the 
disproportion is staggering and growing.
    Now, without offering investment advice, either one of us, 
the fact is that so-called emerging funds, mutual funds, as 
opposed even to international mutual funds, as opposed to, say, 
something based on the Dow Jones of our basic countries, have 
extraordinarily different returns, not only in this year, but, 
say for the past 5 years.
    And so many investors who note this arithmetically are 
aware of it, but on the other hand they don't ponder, why is 
this so? How can this be sustained, this separation that is 
growing very large with the Dow Jones being our companies, as 
opposed to some that are represented clearly by emerging 
markets. But, it used to be part of the clientele of the IMF.
    Now, this leads many questions, why haven't IMF--is that 
part of world history ???passe??? And, obviously you would 
respond, as you have, if not so, then you have experts there, 
an extraordinary talent pool of people delving into current 
problems in the world that still include debts of many 
countries--a situation in which, even as we describe, the rich 
becoming much richer, the poor really may be at the bottom of 
the heap.
    And some of these countries are afflicted by problems of 
HIV/AIDS and malaria and tuberculosis, problems of agricultural 
failure that come up in this committee, or some of our other 
committees, in other words, huge, huge problems that don't 
necessarily affect the IMF, but they do in the sense of debt or 
interrelationships, those budgets, those countries with others.
    I'm just curious, as you take a look at your 
responsibilities, the advice you will get from our country--how 
receptive is the current leadership of the IMF? Or others who 
have responsibilities, or are sitting around the table? May not 
be officers, but nevertheless, certainly large shareholders, to 
these kind of changes? Do you feel that there is a fairly 
universal recognition of what we're talking about today, in 
terms of the changes that sovereign funds bring, for example, 
as opposed to the kind of capital the IMF or the World Bank or 
others used to dispense?
    Mr. Heath. Well, thank you Senator Lugar for that question. 
It gets to the heart of everything, I suppose. And I would like 
to actually return and--after, if confirmed, in such a job, I 
could give a better assessment of the receptivity of leadership 
there, or in other countries to change, but certainly for some 
of the reasons you mentioned, it strikes me as, there is a high 
level of receptivity. I do think that the surprise of the 
current credit market turmoil that--as I mentioned before--
coming from a most sophisticated of markets, and not the least 
sophisticated, is something that catches the attention of 
people around the world.
    In the emerging markets stock performance that you 
mentioned, now I see talk of bubbles in Chinese housing and 
other asset markets. So, it's prudent for people to pay 
attention, not only on the extraordinary up side, but what 
dangers are inherent in that kind of rapid growth.
    Generally, these support the notion of caution about 
imbalances around the world, financial imbalances, and an 
orderly unwinding of these imbalances. The new leadership at 
the IMF, Monsieur Strauss Caan begins in a couple of days, has 
indicated a receptivity to a number of reform proposals, not 
only in the governance of the IMF, but looking beyond that to 
the role.
    And that's going to be the real test for the IMF is, does 
it really step up to a new type of leadership that the world, 
in some sense, wants in dealing with vulnerabilities and crises 
and avoiding them, or is it going to be passive and more or 
less a think tank with a lot of expertise that offers advice, 
but no urgency about implementation? I think that's the key of 
the emerging market issue--are the players invested enough in 
the organization, so not only can they discuss policy, but make 
deals that stick.
    Senator Lugar. This intrigues me, just to ask this 
question. For example, some have pointed out that one of the 
reasons why the emerging market banking systems are doing so 
well comparatively during this system, is that perhaps they 
were not so ``sophisticated.'' We can drive these subprime 
loans, package them in all sorts of attractive packages, flog 
them off around the world to other sophisticated bankers, who 
now have them in their portfolio, as the triggers are going 
off, and explosions occurring unexpected, here and there and, 
in other words, many of the so-called emerging markets were not 
receptive of this, maybe were not considered so sophisticated, 
thus do not have all of these time bombs sitting around in 
their safes every day, wondering what will happen to the rest 
of their economies.
    Could the IMF, in an ideal situation, be a counselor to 
banking systems throughout the world? Maybe they wouldn't have 
spotted our sophisticated subprime loans, and the packages, and 
all of the fallout, but maybe some might have been bright 
enough to do so. That is, to understand, as you say, these 
imbalances in the world. Imbalances that are further 
exacerbated when this type of thing with the subprime business 
in the United States causes explosions all over the world, not 
just with regard to our own economy.
    And, I'm wondering if this is a potential role for the 
sophisticated people who were sitting around the table, maybe 
dealing with other problems in the world at a different point, 
but now realizing that these imbalances themselves could throw 
things awry and create great suffering, as huge recessions 
occurred in various parts of the world, simultaneously, trade 
dried up, credit situations, ditto--that is the kind of thing, 
I think, that worries many of us, I'm sure you as a 
professional in this situation. What do you see as the 
possibilities here of a role for the IMF?
    Mr. Heath. Yes, Senator, I think you've explained very well 
the possibility here for a high-level coordinating function for 
work already being done, perhaps by the Bank of International 
Settlements or other bodies, but there certainly has, is no 
parallel to the IMF's credibility in this area. And, I would be 
interested in pursuing that, or helping to define that emerging 
role for the IMF.
    It's bound to be significant in, not only highlighting 
concerns as they've done, but as I say, actually making efforts 
to reach agreements on activity, actions that should be taken 
by member states.
    Senator Lugar. I appreciate that.
    Mr. Chairman, as a point of personal privilege, I would 
compliment you on pointing out the responsiveness of the 
daughters of Mr. Mulvaney when he was testifying, which was 
exemplary.
    I would like to also add, that the sons of Mr. Heath, when 
they were introduced, stood proud and straight and they looked 
like candidates for public service if I ever saw them. 
[Laughter.]
    Mr. Heath. Senator Lugar, their grandfather is a graduate 
of Purdue University and takes an active interest in the next 
generation of Purdue University students.
    Senator Lugar. Great Hoosier roots, I knew it. That's 
great.
    Senator Menendez. If you had said that at the beginning, 
you would have saved yourself all of the questions that were--
--
    [Laughter.]
    Senator Menendez. Thank you, Senator Lugar.
    Well, we appreciate, this is refreshing to hear some rather 
straightforward answers to questions. The administration would 
be well-served to send more people like you up here to give us 
straightforward answers to some questions.
    With that, I understand that it is Chairman Biden's desire 
to move these nominations quickly. However, the record will 
remain open until 6 p.m. this evening, so that committee 
members may submit additional questions to the nominees, I 
myself have a few, but in the fairness of time, here, we'll 
submit it for the record. We ask the nominees to respond 
expeditiously to these questions.
    If no one has any additional comments, the hearing is 
adjourned.
    [Whereupon, at 3:54 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


                Prepared Statement of Hon. Chuck Hagel, 
                       U.S. Senator from Nebraska

    Mr. Chairman, the Senate Foreign Relations Committee meets today to 
consider the President's nominees for three important positions--Mr. 
Sean R. Mulvaney to be the Assistant Administrator for Management of 
the U.S. Agency for International Development (USAID), Mr. Daniel D. 
Heath to be the Alternate Executive Director of the International 
Monetary Fund, and Patrick Kennedy to be Under Secretary of State for 
Management.
    Sean Mulvaney has been nominated to be the Assistant Administrator 
for Management at the United States Agency for International 
Development (USAID).
    Endemic global poverty remains one of the biggest challenges we 
face in the world today. It is in America's national interest to help 
developing countries to achieve stable and effective economic, 
political, and social institutions in order to reduce poverty and ease 
the strain of human despair. Foreign assistance is central to our 
efforts to address the fundamental challenge posed by poverty in our 
world, and USAID will continue to play the lead role in this effort for 
the United States.
    USAID faces a number of internal challenges over the course of the 
next several years, including long-needed foreign assistance reform and 
the continuing need to make the agency's financial management and 
administration as transparent and efficient as possible. Recruiting and 
sustaining USAID professional staff will be a key priority and one that 
requires closer attention. Contracting oversight will also require 
close examination, particularly in light of recent developments in Iraq 
and elsewhere. The role of the Assistant Administrator for Management 
of USAID is integral in addressing these issues.
    Mr. Mulvaney has a strong management and administrative background, 
with degrees from Washington University in St. Louis and the 
Thunderbird School of Global Management. Notably, from 2005 to 2007, 
Mr. Mulvaney handled budget, appropriations, and U.S. trade policy as 
an Assistant to the Speaker for Policy in the U.S. House of 
Representatives. As adviser to House Foreign Operations Appropriations 
Subcommittee Chair, Congressman Jim Kolbe, Mr. Mulvaney helped in the 
development and negotiation of a number of important appropriations 
bills and programs including the Millennium Challenge Corporation.
    Mr. Mulvaney will need to ensure the integrity of the agency's 
administrative and management operations in a rapidly changing and 
highly complex international environment.
    We are also here to consider the nomination of Mr. Daniel Heath to 
be U.S. Alternate Executive Director of the International Monetary Fund 
(IMF).
    Today, we live in a globally interconnected society underpinned by 
a global economy. The IMF plays an important role in the stability and 
prosperity of that economy.
    The mission of the IMF is to promote economic growth, international 
financial cooperation, and economic order. The organization will face a 
number of challenging issues over the next several years, including 
internal institutional and structural reform, the possibility of 
deteriorating finances, a new IMF Managing Director, and a rapidly 
growing developing world. The organization will need a strong, steady 
U.S. presence in order to navigate these difficult challenges.
    The United States. is the IMF's largest contributor, with 
substantial influence on the body's decisionmaking. As the primary U.S. 
representative at the IMF, the office of the U.S. Executive Director 
has a very influential and important role to play in the stability and 
growth of the global economy. The Alternate Director must have a 
comprehensive knowledge and understanding of international economic and 
financial issues, represent U.S. interests abroad, and be able to 
collaborate and cooperate with each of the other 184 IMF member 
countries--as well as America's own Treasury Department and other U.S. 
Government officers and agencies.
    Mr. Heath will bring a strong record of government, academic, and 
business experience to this important position. Heath has served on the 
National Economic Council at the White House as Associate Director for 
nearly 6 years. He also served at the Office of Management and Budget 
for over a decade as a Senior Economist. Heath has also served as the 
Director of Economics at Oxford Analytica, an influential international 
consulting firm.
    Finally, the committee will consider the nomination of Patrick 
Kennedy to be the Under Secretary of State for Management.
    This is a vital position to effective and efficient operations at 
the State Department. With State Department officials posting in 
embassies and consulates spanning the globe and several thousand 
employees in Washington, DC, the Under Secretary for Management must be 
highly experienced in administration and committed to these challenging 
tasks.
    Contracting oversight will be an immediate task that Ambassador 
Kennedy will have to address. Our reliance on contractors has led to 
deep problems, with foreign policy implications, particularly in Iraq.
    Ambassador Kennedy is not new to this job, having served as acting 
Under Secretary for Management from 1996 to 1997. Since that time, he 
has served in several top management positions, including as Director 
of Management Policy at the State Department, as Acting Chief of Staff 
at the Office of the Director of National Intelligence, and as Chief of 
Staff of the Transition Office in Baghdad.
    The committee looks forward to hearing the testimony of Mr. 
Mulvaney, Mr. Heath, and Mr. Kennedy. I believe that each of the 
nominees is qualified and deserves speedy consideration by the 
committee. I wish all three of these professionals continued success 
and look forward to working with them at this critical time in our 
country's history.
    Thank you.
                                 ______
                                 

        Responses of Patrick F. Kennedy to Questions Submitted 
                     by Senator Russell D. Feingold

    Question. Secretary Gates has recently stated that, at the moment, 
State Department security contractor methods and the United States 
military's effort to protect the Iraqi population are at odds. Do you 
agree with this assessment and, if so, what will you do to address this 
serious problem?

    Answer. The utilization of security contractors is essential to the 
Department of State's ongoing diplomatic and reconstruction efforts in 
Iraq. Without security contractors, the Department would simply not be 
able to interact with our counterparts in the Iraqi Government and 
population in furtherance of our critical mission and obligations to 
our Iraqi partners. That being said, the Deputy Secretaries of State 
and Defense have agreed to implement all of the recommendations in the 
Report of the Secretary of State's Panel on Protective Security 
Services in Iraq which involve both Departments. This follows on 
Secretary Rice's previous decision to implement all of the panel's 
recommendations which were solely State Department responsibilities. A 
number of these steps were intended specifically to better coordinate 
our security measures with MNF-I operations.
    Additionally, the Deputy Secretaries established a working group 
with three teams to implement those recommendations and recommend any 
further necessary steps. Meetings have already begun on ways to 
increase coordination and oversight. The deputy secretaries and 
secretaries will continue to be actively involved on this issue.

    Question. Has the Department of State conducted a legal analysis of 
whether the excessive use of force, if committed by private security 
contractors, could be prosecuted under the War Crimes Act? If so, 
please provide that analysis. If a private security contractor in Iraq 
acted with reckless disregard of civilian life and that conduct 
resulted in the death of a civilian who was not participating in 
hostilities, would this be a violation of Common Article 3 of the 
Geneva Conventions covered by the War Crimes Act?

    Answer. Private security contractors hired by the Department of 
State in Iraq are civilians. They are not civilians accompanying the 
U.S. armed forces, nor are they participating in armed conflict. Their 
primary mission is to protect diplomats from harm, not to engage in 
combat operations. Indeed, the individuals they are protecting are 
generally civilians, not military officials. The ordinary duties of 
these security contractors therefore are generally governed by any 
relevant agreements between the United States and the host country 
related to their activities and by applicable U.S. and host country 
rules governing law enforcement-type activities (as the Secret Service 
presumably would be when protecting the President overseas), rather 
than by the laws of armed conflict, including the Geneva Conventions 
and their Common Article 3. If one of the Department's private security 
contractors committed a serious crime, the Department of State would 
refer the matter to the Department of Justice which would evaluate, 
among other provisions, whether the contractor had violated the War 
Crimes Act.
    The Department of State has not conducted a formal legal analysis 
of whether the excessive use of force, if committed by private security 
contractors hired by the Department, could be prosecuted under the War 
Crimes Act.

    Question. U.S. military commanders have complained that contractors 
have fired unaimed shots to clear their way in Baghdad. One of the 
changes you suggested to the rules for the use of force is that all 
shots must be aimed shots. Do unaimed shots in urban areas violate the 
Geneva Conventions?

    Answer. A basic principle of the law of international armed 
conflict is that combatants are to distinguish between combatants and 
noncombatants and between military objectives and civilian objects when 
carrying out an attack. Whether unaimed shots by a combatant in urban 
areas violate this principle depends on the specific facts and 
circumstances prevailing at the time.
    In making the specific recommendation, the review panel had been 
comparing Department of State policies and procedures with those of the 
Department of Defense. The panel found that the State Department's 
written guidelines for when to use force were robust and more detailed 
than those of the Department of Defense. However, the panel found that 
DOD's rules on how to use force were more clearly written, and thus 
recommended that DOD's language be added.

    Question. To date, both the State Department and the Defense 
Department have relied on a self-reporting system to ensure oversight 
of contractors' actions. U.S. officials have stated that they do not 
think that all incidents are reported. Self-reports from two of the 
three State Department security contractors, DynCorp and Blackwater, 
both average around one shooting a week. Has the Department conducted 
an analysis of whether these shootings were justified? If so, please 
provide any reports that the Department prepared. What percentage of 
those incidents involved unaimed shots or aimed shots conducted without 
sufficient prior warning?

    Answer. Personal Security Specialist (PSS) contractors working 
under the WPPS contract are required to immediately report operational 
incidents of weapons discharges, attacks, serious injury, or death. 
Contractors are also required to report incidents of a negative nature, 
including incidents that would reflect negatively on the United States, 
the State Department, RSO, or the contractor. Each post has a Chief of 
Mission approved post specific Mission Firearms Policy that includes 
reporting requirements for weapons discharges. The RSO, Contracting 
Officer, and the program office receive such notifications 
simultaneously.
    Significant incidents involving security contractor personnel are 
reviewed by the RSO and by relevant management and oversight offices 
within the Department to ensure that specific use-of-force incidents 
are consistent with Department policies. Incidents of security 
personnel misconduct are addressed through procedures in accordance 
with our contractual arrangements.
    The addition of a State Department special agent to every movement 
will improve leadership and oversight, and not require us to rely on 
self-reporting by the contractor.
    The WPPS base contract and guard contracts require all security 
personnel to follow the Mission Firearms Policy of the post to which 
they are assigned. Any use of force by security personnel in the course 
of operations must comply with this policy.
    Embassy Mission Firearms Policies are defensive in nature, while at 
the same time taking into account specific circumstances surrounding 
our security operations in an active war or high-threat zone. The 
Mission Firearms Policy is founded upon the Department of State's 
respect for the paramount value of all human life, and our commitment 
to take all reasonable steps to prevent the need to use deadly force. 
Accordingly, the touchstone of the policy is necessity; deadly force 
can only be used in situations where there is no safe alternative to 
using such force, and without which the security personnel and the 
individuals they are charged with protecting would face imminent and 
grave danger.
    In Iraq, nine personnel have been removed from the Worldwide 
Personal Protective Services (WPPS) program for shootings not in 
accordance with the rules of engagement in the Mission Firearms Policy. 
Based on a program office review, two individuals that had been removed 
from the WPPS program after a 2005 incident were declared eligible to 
return to WPPS, although they have not returned to date. One incident, 
which occurred on December 24, 2006, in Iraq, is under review by the 
Justice Department. The September 16, 2007, incident in Iraq is 
currently under investigation.
    One individual, employed in Iraq by Triple Canopy Inc. under the 
Baghdad Embassy Security Force contract, was removed due to the 
discharge of a weapon. The incident occurred on November 7, 2005, and 
involved a third country national guard who, during an indirect fire 
attack, discharged his weapon at a vehicle from which the guard 
believed an RPG had been fired. There were no injuries as a result of 
this incident.
    DOS is currently conducting a comprehensive review of all use-of-
force incidents in Iraq. As this process is ongoing, the Department 
will provide you with an update once that review is complete.

    Question. I understand that the reports provided by the contractors 
are reviewed by State Department management. In the past, what has kept 
contractors from reporting that all of the shootings were justified if 
in fact some were not justified?

    Answer. Personal Security Specialist (PSS) contractors working 
under the WPPS contract are required to immediately report operational 
incidents of weapons discharges, attacks, serious injury, or death. 
Contractors are also required to report incidents of a negative nature, 
including incidents that would reflect negatively on the United States, 
the State Department, RSO, or the contractor. Each post has a Chief of 
Mission approved post-specific Mission Firearms Policy that includes 
reporting requirements for weapons discharges. The RSO, contracting 
officer, and the program office receive such notifications 
simultaneously.
    Significant incidents involving security contractor personnel are 
reviewed by the RSO and by relevant management and oversight offices 
within the Department to ensure that specific use-of-force incidents 
are consistent with Department policies. Incidents of security 
personnel misconduct are addressed through procedures in accordance 
with our contractual arrangements.
    The addition of a State Department special agent to every movement 
will ensure that any shooting is reported.

    Question. In your view, if there is no independent oversight of the 
activities of private security contractors in the field, will their 
behavior change?

    Answer. The Secretary's decision to implement the coordination and 
oversight recommendations, such as the addition of DS agents to 
motorcades, vehicle cameras, and the establishment of the Embassy Joint 
Incident Review Board, will ensure the highest level of accountability 
for the Department's protective security contractors.
    The Department of State and Department of Defense have already 
initiated a series of meetings to increase coordination and to enhance 
current contractor methods as appropriate. Moreover, the Embassy in 
Baghdad and the Iraqi Prime Minister's office have established a joint 
Government of Iraq and United States Government Commission of Inquiry 
to examine issues of security and safety related to United States 
Government-affiliated protective security operations and to make joint 
policy recommendations.

    Question. Pursuant to your recommendations to the Secretary, will 
the RSO staff accompanying the security details have command control 
over the security details?

    Answer. Pursuant to the Secretary's mandate following the September 
16 incident, a diplomatic security special agent is currently serving 
as the agent in charge (AIC) of all protective security details (PSD) 
for Chief of Mission personnel and has command control over the 
security detail.

    Question. If so, will this include command over the contractor 
helicopters that overfly some of these convoys?

    Answer. RSO air assets are currently under command control of the 
Regional Security Office's (RSO) Tactical Operations Center (TOC). If 
assistance from air assets is required, the AIC will request support 
from the TOC.
    The diplomatic security special agent in charge of the TOC will 
then authorize air support.

    Question. What are the rules for the use of force for contractors 
operating those helicopters?

    Answer. The rules for the use of force outlined in the RSO Baghdad 
Mission Firearms policy apply to all personnel under Chief of Mission 
authority, to include RSO air assets.

    Question. You did not recommend that State Department security 
personnel accompany the advance teams that clear the route ahead of the 
motorcade, correct? If so, that means at least half of the movements of 
private security details will not be accompanied, correct?

    Answer. Pursuant to the Secretary's mandate following the September 
16 incident, a diplomatic security special agent is currently serving 
as the agent in charge of all protective security details for Chief of 
Mission personnel and has command control over the security detail. 
This includes the advance teams, principal's motorcade, and the 
tactical support teams (TST). As a result, all movement phases of 
protective security details are being accompanied by DS agents.

    Question. Of the over 300 incident reports since January 2005, how 
many were filed by advance teams?

    Answer. DOS is currently conducting a comprehensive review of all 
use-of-force incidents in Iraq. As this process is ongoing, the 
Department will provide you with an update once that review is 
complete.

    Question. Is it correct that, during the September 16 incident, the 
Blackwater advance team members were among those that fired their 
weapons?

    Answer. At this time, the Department of State cannot comment on any 
aspect of the ongoing Department of Justice investigation and review of 
the facts surrounding the events of the September 16 incident.
    In addition, my mandate to study the operations of security 
contractors in Iraq did not include investigating the September 16 
incident.

    Question. Will the Department continue to rely on the self-reports 
of advance teams since those teams will not be accompanied by DSS 
personnel?

    Answer. Pursuant to the Secretary's mandate, a diplomatic security 
special agent is currently serving as the agent in charge of all 
protective security details for Chief of Mission personnel and has 
command control over the security detail. This includes the advance 
teams, principal's motorcade, and the tactical support teams. As a 
result, all movement phases of protective security details are being 
accompanied by DOS agents.

    Question. What about subcontractors at any level who provide 
security for State Department contractors?

    Answer. At this time, the application of oversight policies to 
State Department and Defense Department subcontractors is under review 
by the joint Department of State and Department of Defense working 
groups.

    Question. Will the recommendation to have DSS employees accompany 
all motorcades apply to USAID security details and details for other 
civilian personnel under Chief of Mission authority?

    Answer. All personnel, including USAID and civilian personnel, 
under Chief of Mission authority are required by Mission policy to 
travel with a regional security office protective security detail.

    Question. Does it apply to State Department subcontractors at all 
levels? If not, how many subcontractors will not be covered by this 
requirement?

    Answer. At this time, the application of this policy to State 
Department subcontractors is not being considered. DS does not have the 
manpower or resource requirements to establish and sustain such a 
requirement.

    Question. How many employees are there in Iraq under Chief of 
Mission authority?

    Answer. As of October 26, 2007, there are 1,183 authorized U.S. 
positions and 196 locally employed staff in Iraq.

    Question. how many security details do they require on a daily 
basis?

    Answer. There are 49 total protective security details (PSDs) 
currently operating in Iraq: Baghdad--34 PSDs; Basrah/Tallil--5 PSDs; 
Al-Hillah--5 PSDs; and Kirkuk/Erbil--5 PSDs. PSD missions are 
configured based upon such factors as the venue, threat environment, 
and may include the deployment of an advance team, principal's 
motorcade, tactical support team, and explosive detection dog (EDD K-9) 
teams.

    Question. I commend you for recommending that the Embassy Joint 
Incident Review team include employees of Federal agencies other than 
the Department of State. This makes sense given the fact that as 
protectees of contractors, State Department employees have a conflict 
of interest when they investigate their wrongdoing. Indeed, the 
Associated Press reported that one of the witnesses at the Nisoor 
shooting said that State Department personnel ``tried to intimidate him 
into changing his story'' and that his account was consistent with 
other accounts that the initial State Department investigation appeared 
to be an attempt to ``vindicate the Blackwater guards.'' Has the State 
Department investigated these allegations? If so, what conclusions did 
the Department reach?

    Answer. At this time, the Department of State cannot comment on any 
aspect of the ongoing Department of Justice investigation and review of 
the facts surrounding the events of the September 16 incident. In 
addition, my mandate to study the operations of security contractors in 
Iraq did not include investigating the September 16 incident.

    Question. Has the State Department permitted private security 
contractors to remove employees who have allegedly used excessive force 
from Iraq?

    Answer. In Iraq, nine personnel have been terminated from the WPPS 
program and one individual from the BESF contract, for shootings not in 
accordance with the rules of engagement in the Mission Firearms Policy. 
In each case, the personnel left post, as the contractual basis and 
purpose for their remaining in Iraq had ended. Incidents of security 
personnel misconduct, to include their termination and removal from 
post, are addressed through procedures in accordance with our 
contractual arrangements.

    Question. There has been press indicating that State Department 
employees investigating the September 16 incident may have conducted 
their investigation in a manner that may make it harder to prosecute 
contractors involved in that incident and/or offered those contractors 
immunity. Did any State Department employees offer any Blackwater 
employees immunity? Did they coordinate with the Department of Justice 
before doing so? Do State Department employees have authority to offer 
immunity to individuals alleged to have engaged in wrongdoing?
    Answer. The Department of State is not in a position to immunize 
individuals from Federal criminal prosecution. The kinds of statements 
about which the press has written would provide limited protection that 
does not preclude prosecution. The Department of State would not have 
asked FBI to investigate this case unless we and they thought that they 
could investigate the case and potentially prosecute individuals if 
warranted. The Department of Justice has issued a public statement 
confirming that Blackwater employees have not been given immunity from 
prosecution and that the FBI's criminal investigation of this matter 
continues.

    Question. Your panel recommended the use of ``go teams'' to 
investigate any shooting incident and to promptly offer ``appropriate 
condolences and compensation.'' This could create a conflict of 
interest. Why shouldn't these functions be delegated to separate 
entities?

    Answer. The report's recommendation is for the ``go team'' to work 
with counterparts designated by the Government of Iraq to identify 
potential individuals affected by an incident and to initiate the 
``appropriate condolences and compensation'' process. This process 
would not be in conflict with the other investigative responsibilities 
of the ``Go Teams.'' The payment of such compensation is not indicative 
of fault and is in accordance with traditional Iraqi norms and cultural 
expectations. The Department's program is modeled on the Department of 
Defense's claims and condolence payment program currently administered 
in Iraq.

    Question. Please describe the training in evidence collection and 
crime scene protocols that State Department personnel charged with 
overseeing private security contractors receive.

    Answer. Diplomatic Security Service (DSS) special agents receive 
crime scene preservation/management and evidence collection training. 
This training is provided at the Federal Law Enforcement Training 
Center (FLETC), during DSS Basic Special Agent Course (BSAC) training 
and again in the DSS Basic Regional Security Officer (BRSO) training 
prior to deployment abroad. The training is broken down into the 
following subject areas:
FLETC

  <bullet> Fingerprint Lecture
  <bullet> Rolled Fingerprint Lab
  <bullet> Video Techniques Lecture
  <bullet> Video Techniques Lab
  <bullet> Basic Physical Evidence Collection Lecture
  <bullet> Basic Physical Evidence Collection Lab
  <bullet> Digital Photography Lecture
  <bullet> Photography Lab

BSAC

  <bullet> Evidence Database Lecture

BRSO

  <bullet> Crime Scene Management

    The evidence collection and crime scene management training is part 
of the FLETC, DSS basic agent, and basic RSO training courses. Although 
this training provides an excellent overview of the crime scene and 
evidence collection fields of study, it is not a substitute for the 
expertise that forensic scientists and/or crime scene technicians 
utilize in processing crime scenes. Additionally, it should be noted 
that the current security situation in Iraq can make it problematic to 
properly secure a crime scene in accordance with established practice 
in the United States.

    Question. Would you agree that any Iraqi families who lost loved 
ones as a result of the wrongful use of force are entitled to know that 
the perpetrator was tried for any wrongdoing, not just monetary 
compensation?

    Answer. The Department of State strongly supports efforts to 
provide greater legal accountability for unlawful acts its security 
contractors may commit abroad. The applicability of U.S. criminal law 
to the activities of private security contractors overseas is not 
always clear and may depend on the facts at issue in any particular 
case. The administration is currently working with the Congress on 
legislation to clarify any ambiguities and expand the coverage of U.S. 
criminal laws so that we have the laws we need to hold private 
contractors overseas accountable where appropriate.

    Question. Does the Department support elimination of the immunity 
created by CPA Order 17?

    Answer. CPA Order 17 (Revised) currently gives private security 
contractors for diplomatic missions, including for U.S. missions, 
immunity from Iraqi legal process with respect to acts performed 
pursuant to the terms and conditions of their contracts. The U.S. 
military operating in Iraq, and U.S. Government contractors working on 
reconstruction, humanitarian, and development projects also receive 
immunity under this order.
    One of the principal recommendations of the Secretary of State's 
panel on personal protective services in Iraq was that the U.S. 
Government (State and Defense) determine how to commence discussions 
with the Government of Iraq on a new regulatory framework for private 
security contractors. The panel found that CPA Order 17 and Memorandum 
17, which provide this framework, need to be updated or replaced.
    We are already engaging with the Government of Iraq on this issue. 
The U.S.-Iraqi Joint Commission, co-chaired by the U.S. Deputy Chief of 
Mission and the Iraqi Minister of Defense, is examining issues of 
safety and security related to U.S. Government-affiliated personal 
security detail operations in Iraq. Its work includes examination of 
the impact of CPA Order 17 on such operations. More broadly, as the 
United States and Iraq engage in discussions on their long-term 
strategic relationship, we expect to address how to update or replace 
many of CPA Order 17's provisions, including its provisions on 
jurisdictional immunities. We have seen reports that the Maliki 
government has a legislative proposal to reformulate the Iraqi 
regulatory framework for private security contractors, but have not yet 
reviewed a draft.

    Question. Are any steps under consideration to bring greater 
control and coordination over the operations of private security 
contractors in Iraq other than those on the WPPS contract and those on 
DOD contracts--including many who are providing security to contractors 
and NGOs on DOS (including USAID) contracts? Is there any reason to 
believe there is any lesser need to control and coordinate their 
operations than those of the WPPS contractors?

    Answer. As advised in the response to your first question, the 
Department of State and Department of Defense have already initiated a 
series of meetings to increase coordination and to enhance current 
contractor methods as appropriate. This process will also include a 
review of those policies and a determination on their appropriate 
applicability to State Department subcontractors.

    Question. Are any similar steps being taken in Afghanistan for WPPS 
contractor operations there? If so, what is the status of 
implementation? If not, why are these good ideas for Iraq but not 
Afghanistan?

    Answer. The Secretary's decision to implement coordination and 
oversight recommendations, such as the addition of DOS agents to 
motorcades, vehicle cameras, and the establishment of the Embassy Joint 
Incident Review Board, is currently focused on ongoing WPPS contractor 
operations in Iraq. Enhancements in Iraq will be evaluated and 
considered for deployment to WPPS contractors operating in Afghanistan 
and other countries as appropriate.
                                 ______
                                 

         Responses of Sean R. Mulvaney to Questions Submitted 
                      by Senator Richard G. Lugar

    Question. Is the USAID operating expense budget roughly the same 
now as it was in 2001? If no, please clarify.

    Answer. Yes. The fiscal year 2001 (inflation adjusted to 2005 
dollars) OE level as compared to the fiscal year 2007 enacted level for 
the OE fund is:

  <bullet> Fiscal year 2001 OE = $589,000,000.
  <bullet> Fiscal year 2007 OE Appropriation = $626,832,000.

    The difference between 2001 and 2007 OE dollars = $37,832,000. This 
is approximately a 6 percent increase over 2001 dollars and is 
attributed to annual payroll adjustments.
    Amounts do not include Office of Inspector General or the Capital 
Investment Fund.

    Question. Is it correct that USAID program funds were about $7-8 
billion in 2001 and are about $13 billion now? What does the $13 
billion figure include? Specifically, does it include some PEPFAR 
programs and MCC Threshold programs?

    Answer. Yes, it is correct. In fiscal year 2001, USAID managed 
approximately $7.362 billion of program funds. In fiscal year 2007, 
USAID estimates that it managed approximately $12.772 billion of 
program funds.
    The $12.772 billion figure includes PEPFAR funds of approximately 
$1.3 billion and MCC programs. These figures are based on total dollars 
obligated.
                                 ______
                                 

         Responses of Sean R. Mulvaney to Questions Submitted 
                       by Senator Robert Menendez

    Question. It is critical that USAID is able to recruit and retain 
the highest-caliber personnel if it is to carry out its mission and 
fulfill its development objectives. As you know, attrition rates at the 
agency are extremely high. Please describe what steps you would take to 
ensure that the agency is able to recruit top-level staff. Please also 
discuss what steps are needed to provide opportunities for rising 
junior officers, improve morale, and increase junior officer and 
overall staff retention rates.

    Answer. Over the past few years, attrition for the Foreign Service 
and Civil Service has been around 7 percent per year, with over 82 
percent of Foreign Service attrition and 33 percent of Civil Service 
attrition due to retirement. These levels are commensurate with other 
similar U.S. Government agencies.
    USAID has traditionally attracted very high quality candidates. 
Over the past many years, however, agency budgets have seriously 
constrained hiring Foreign Service officers above attrition, as well as 
Civil Service hiring in critical areas such as procurement, even as the 
size and scope of our programs have increased dramatically. If 
confirmed, I am committed to helping USAID reverse this trend by 
targeting resources to meet the Foreign Service and Civil Service 
recruitment needs of the agency.
    USAID values all of its employees and has strived to provide 
professional growth opportunities for its entire staff to avoid any 
increase in attrition. We greatly appreciate the flexibility Congress 
granted USAID to more rapidly assign our junior officers overseas and 
we intend to continue to use it to the fullest extent possible. 
Training is understood to be of utmost importance. In fiscal year 2007, 
USAID doubled the training budget for staff development focusing 
efforts on technical and leadership skill enhancement. I am committed 
to sustaining our focus on increased training for staff, including 
additional foreign language training.

    Question. At USAID field missions, administrative staff complains 
that the State Department and USAID have very different needs and that 
consolidation programs fail to address these differences.

  <bullet> What administrative requirements of USAID are not shared by 
        State?
  <bullet> How do these differences make consolidation difficult for 
        USAID?
  <bullet> Will consolidation efforts impede USAID activities in any 
        way?

    Answer. USAID and State negotiated 15 administrative support 
functions (warehouse management, expendable supplies, leasing, motor 
pool, property maintenance, customs and shipping, reproduction 
services, administrative procurement, mail, messenger and pouch 
services, Foreign Service National (FSN) payroll and FSN initiatives, 
cashiering, recruitment, the Eligible Family Member program, and 
language training) that would be subject to consolidation, and further 
agreed that functions that are unique to supporting USAID operations 
would not be subject to consolidation. USAID does not share hiring and 
classification authority for all staffing actions, and will continue to 
perform its non-ICASS equivalent HR functions. USAID technical and 
program management, legal advisory support, procurement, grant-making 
and financial management activities that support programmatic USAID 
functions and staff are not subject to consolidation with State.
    Integration of Information Technology (IT) systems and services to 
support the consolidation initiative is a significant challenge. State 
and USAID have made considerable progress in developing and deploying 
an IT solution to enable the use of shared IT applications to support 
the consolidated administrative support services. The IT solution has 
provided the enabling environment to eliminate redundancies through the 
use of standardized applications. Uniform use of these applications in 
the coming year will be a significant accomplishment of the 
consolidation initiative.
    Consolidation of overlapping services is a sound objective. 
Nonetheless, the consolidation of these 15 administrative services will 
require ICASS in many instances to change its service standards to meet 
USAID's business requirements as the implementing United States 
Government agency for foreign assistance. Providing the necessary 
administrative support to USAID's activities while ensuring cost 
effectiveness, efficiency, and quality of services will be a continuing 
challenge for ICASS.

 
                              NOMINATIONS

                              ----------                              


                      WEDNESDAY, DECEMBER 19, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
Glendon, Mary Ann, to be Ambassador to the Holy See
Larson, Charles W., Jr., to be Ambassador to the Republic of 
        Latvia
                              ----------                              

    The committee met, pursuant to notice, at 9:29 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert P. 
Casey, Jr. presiding.
    Present: Senator Casey.
    Also present: Senators Harkin and Grassley.

        OPENING STATEMENT OF HON. ROBERT P. CASEY, JR.,
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Casey. Thank you very much, ladies and gentlemen. 
The Committee on Foreign Relations will come to order to 
consider nominations for two important diplomatic posts. The 
President of the United States has asked that Mary Ann Glendon 
serve as United States Ambassador to the Holy See, and that 
Charles Larson represent the United States as Ambassador to 
Latvia. And I want to welcome Professor Glendon and Mr. Larson 
here, and if you have family here, and others, we welcome them, 
as well.
    And I know that Senator Tom Harkin--I refer to him as 
Chairman Harkin, we're on--we serve together, but he's done a 
wonderful job in a number of posts that affect people's lives, 
but he and I just came through the process of having the Farm 
bill voted on by the United States Senate, and as the Chairman 
of the Agriculture, Nutrition, and Forestry Committee, he's 
done a wonderful job on a very difficult piece of legislation. 
Not to mention, some of the people, like me, he has to deal 
with in that process. He has served so honorably over many 
years in the United States Senate, we're honored to have him 
here.
    And I guess I just wanted to provide some background, but I 
wanted to make sure that we're--I was cognizant of Senator 
Harkin's time and his schedule.
    Senator, I'm just asking you if you're--do you have--how 
much time do you have to----
    A couple of minutes, okay.
    Maybe we'll do, instead of providing some background, maybe 
I'll just go right to you.

                 STATEMENT OF HON. TOM HARKIN,
                     U.S. SENATOR FROM IOWA

    Senator Harkin. I'd appreciate that, very much.
    Senator Casey. And you can provide your statement or 
testimony, and then we'll move forward.
    Senator Harkin. Well, thank you very much, Mr. Chairman. 
And I appreciate, first of all, your expediting this hearing 
for these two candidates--one of whom I know, the other one I 
don't, but I congratulate her for her position, and for 
expediting this, and hopefully we can get the full committee to 
further expedite it.
    Mr. Chairman, first of all, thank you for your kind words 
on the Farm bill. That was a long exercise, and I want to 
personally thank you for all of the good work that you did on 
the committee and helping us pull it together and finally get 
it through, and hopefully we'll get it done here sometime in 
January, as we get through the conference committee.
    But I just wanted to be here this morning to introduce to 
you, Mr. Chairman, and to the committee--through you to the 
committee--Chuck Larson, the President's nominee to be our next 
Ambassador to Latvia.
    I've known Chuck Larson and his father for quite some time, 
His father served as the U.S. District Attorney in the 1980s, 
first under President Reagan, then under President Bush, and 
then there was a hey, this there, for the 1990s, and then his 
dad came back again as District Attorney under President Bush.
    And I can just tell you--so Chuck comes from a family of 
really dedicated public service--people that are interested in 
public service, and Chuck himself has taken up that himself.
    He served--graduated from the University of Northern Iowa 
when he was a member of the legislature, member of the House, 
Iowa House for a long time, I think, from 1993 to 2003, a 
member of the Iowa House. He chaired the Judiciary Committee 
and, in fact, had pushed through one of the toughest 
antimethamphetamine laws anywhere in the Nation, and we've had 
a real problem with that in Iowa, and Chuck did a great job in 
leading the charge on that.
    He also chaired the Iowa House Economic Development 
Committee, making Iowa a more competitive environment to 
attract and retain some high-paying jobs.
    Now then, from 2003 to 2007 he served in the Iowa Senate, 
and served as chairman of the Iowa Republican Party from 2001 
to 2005. Again, to show you his dedication to public service, 
while he was a State Senator he was also in the Army Reserves, 
and served for a year in Iraq during Operation Iraqi Freedom. 
Was awarded the Bronze Star for meritorious service in combat, 
and the combat action badge. He was stationed in LSA, Anaconda 
in the heart of the Sunni Triangle, in charge of the command's 
legal affairs and spearheaded its humanitarian missions.
    As I've stated earlier, I've known Chuck Larson for over, 
well over a decade--more than that. He is a qualified public 
servant, and I urge this committee to report his nomination 
with a positive recommendation.
    And if I just might add, parenthetically, Mr. Chairman, you 
see I have some, I have perhaps some personal interest in this 
also. You see, Chuck Larson is a very active, dedicated 
Republican, served as chair of the Republican Party. I happen 
to be up next year, I figure if he's in Latvia, I might have a 
better time of it next year. [Laughter.]
    But he's served with distinction as chair of the Republican 
Party, and I can say this--he's landed a few blows on me in the 
past, but they were always, as I always say, in-bounds and 
between the goal posts--which is the way political contests 
ought to be conducted. And he's done so in his own political 
career in Iowa, the same way.
    So, I just have no hesitation at all in endorsing him--
great family, great person, great father, good family, two 
kids, and I can't think of a better representative of what we 
stand for in America, to represent us abroad than Chuck Larson, 
so I just give him my wholehearted support for this. And we'll 
get him to Latvia so he's not around Iowa next year. 
[Laughter.]
    Thanks, Chuck.
    Senator Casey. Mr. Chairman, we want to thank you for being 
here, especially today when it's rather quiet in the Capital 
after a late night, and we were passing legislation late into 
the evening last night, actually almost into the early morning, 
and it's another sign of Chairman Harkin's dedication that he's 
here at all this morning, not heading back like some others 
are. And we're just grateful that you're taking the time to be 
here.
    Thank you, Mr. Chairman, I appreciate it very much.
    Senator Casey. Thank you, Senator.
    Senator Harkin. See you later.
    Mr. Larson. Thank you, sir. Have a great Christmas and New 
Year.
    Senator Harkin. Hopefully we can get this thing done in a 
hurry.
    Senator Casey. I, first of all, wanted to formally welcome 
both Professor Glendon and Mr. Larson to the hearing today. I 
think, speaking about both of you--and I'll try to speak about 
each of you individually, but together you both provide a whole 
broad range of experience that you bring to this hearing and to 
this confirmation process that spans all kinds of life 
experience, subject matter expertise and experience in public 
affairs and public policy. So, we're grateful that you've 
demonstrated the willingness to put yourself forward to be 
confirmed and to serve the United States Government and the 
people of our country.
    And I know you look forward to, even, the challenges that 
you'll be confronting, not just the challenge of the 
confirmation process, but the challenge of serving. And I know 
you see that as both and opportunity for meeting challenges, 
but also as an opportunity for meeting challenges, but also an 
opportunity to render capable and effective and competent 
public service.
    I wanted to start with the Ambassador of the Holy See, that 
position, Professor Glendon. I think as the seat of the 
Catholic Church we know that the Holy See is unique among 
diplomatic postings around the world. Its influence reaches 
into the lives of over a billion individuals worldwide, who 
look to the Vatican for spiritual guidance, including one out 
of every four Americans. As a Roman Catholic, I am one of those 
of every four Americans.
    Worldwide, the Catholic Church has been at the forefront of 
efforts to promote human rights, to protect human dignity, and 
to provide humanitarian assistance across the world.
    The Church, I think, has challenged people of all faiths to 
care about and to fight for the least, the last, and the lost 
in our society, and of course that goes for the world over. We 
know that under the leadership--just by way of important 
examples--under the leadership of Pope John Paul II, the Holy 
See played a particularly significant role in ending decades of 
Communist rule in Eastern Europe. And although our Government 
over the years, and I think even at present, doesn't always 
agree with the Church on every issue, I think when you talk 
about the priorities I just mentioned--whether it's the role 
played by the church in ending communism, the role in Eastern 
Europe, the role it plays in human rights and human dignity or 
the work that it does on humanitarian causes around the globe--
I think on those priorities, the Vatican has been an invaluable 
partner for the United States of America, and we expect that to 
continue.
    Professor Glendon, I think based upon your own experience, 
just your resume alone, you're well-prepared to continue that 
long and cooperative relationship between the United States and 
the Holy See.
    Due to your extensive past work on behalf of the Catholic 
Church, and your experience and expertise in domestic and 
international law, you are already well-acquainted with many of 
the issues that you'll confront as ambassador.
    You've gained wide respect as a legal scholar of the first 
order. I'm a lawyer--I've never been accused of being a legal 
scholar--but I have great respect and regard for those in our 
legal circles who have that capacity.
    But, I think, in addition to the academic underpinning of 
your experience, you've been honored as an advocate, and I 
think you've been honored as a servant. And, of course, by 
taking on the responsibility of putting yourself forward as a 
candidate, a nominee to be an ambassador, you're, of course, 
amplifying and enlarging and public service that is so 
important in the United States today.
    I want to recognize in a personal way the work that you did 
with my father, when he was the governor of Pennsylvania and 
thereafter, he remained active as an advocate in the nonprofit 
world after he left his 8 years as governor, but I personally 
want to thank you for the way that you worked with him, and the 
respect that you accorded him.
    And I know that he had high regard for you, as I mentioned 
a couple of moments ago, as a lawyer. He was a really, really 
good lawyer, and had great respect for good lawyers. But he 
also, I think, respected your integrity and your honesty and 
your commitment to principle.
    Like him, you've never shied away from taking tough stands. 
You've been honest about where you stand, and I think he was a 
great example of that, on a whole range of public policy 
matters going back, in his case, going back a couple of decades 
in public office.
    He was a someone--if I can just add a personal note here--
probably the only person in, I think, certainly the history of 
Pennsylvania, but maybe the history of any other State, who ran 
for governor of Pennsylvania in four different decades. Not all 
of those successful, but he had a great determination and a 
great identification with the underdog. And I think if--the 
church, when it's at its best--in this country, and worldwide, 
does that when it's focused on the underdog, the person who 
doesn't have a voice, or at least doesn't have power.
    So, we're grateful for that personal connect that you made 
to him, and I'm especially grateful.
    I think your work as ambassador would probably require that 
you draw upon those skills and that experience and that passion 
that you bring, and that you have brought to your work. So, 
we're grateful for your presence here today and looking forward 
to your testimony.
    Mr. Larson, I want to thank you for your willingness to 
serve. It doesn't happen very often that a United States 
Senator from the other party gives the kind of testimony that 
Senator Harkin just gave on your behalf, and I think that 
speaks volumes about both of you. It doesn't happen enough in 
Washington, and usually when it happens there is no coverage of 
it--or limited coverage.
    But I've been a witness, and those of us here today are 
bearing witness to that kind of--not just bipartisanship, but I 
think an affirmative statement about your qualifications.
    The country of Latvia is one of the many countries in the 
world--as we were speaking about the Vatican--benefit from the 
Vatican's efforts to roll back the Iron Curtain. This country 
has amassed--Latvia has amassed--an impressive list of 
accomplishments even more recently, since reestablishing its 
independence from the Soviet Union, joining NATO and the 
European Union. It's been at the forefront of regional efforts 
to promote democracy--so important across the world--and its 
economic growth rate is the envy of Western Europe.
    Latvia has also been an important security partner for the 
United States of America, and has currently almost 100 troops 
serving in Afghanistan.
    Despite these achievements, Latvians face considerable 
challenges, as you know. Like other countries in the region, it 
struggles with corruption, the problem of energy dependence on 
Russia, and the successful integration of a large Russian 
minority.
    Resolving these issues won't be easy, and the people of 
Latvia deserve our support as they work to meet these 
challenges.
    Mr. Larson, your past experience as a prosecutor--and dare 
I say it, a politician, which I think actually is a good 
qualification, despite what we read in newspapers sometimes--
and also as a soldier will be valuable preparation for 
representing our country, the United States of America, as an 
Ambassador to Latvia. The legal, political, and security 
challenges facing Latvia's young democracy will draw upon all 
of your varied professional stills, and we thank you for your 
willingness to serve.
    And I would say to both of our nominees today, both of your 
nominations come at a critical time in the history of American 
diplomacy. Now, more than ever, the United States needs 
ambassadors who exemplify the principles that made our Nation 
great, and still make it great. Providing that type of 
representation in the Holy See, and in Latvia, will require all 
of your energy, creativity, and determination, but I'm 
confident that both of you are up to that task.
    We'll turn to our nominees at this moment, and I ask you 
both to deliver your statements in the order you were 
introduced, Professor Glendon, you can start. And if you can be 
somewhat brief and succinct, that would be helpful, and if you 
feel the need to summarize your testimony, please know that the 
text of your full statement will be included in the hearing 
record.
    And I know that this--and we probably don't do this 
enough--this is not just a day for the particular United States 
Senate committee, or just a day for the discussion about a 
confirmation--this is a personal moment, and an important 
personal moment in your life, so if you have family or friends 
that you'd want to introduce--I'm glad the room isn't full of 
hundreds that we have to introduce, but if you have someone or 
a group of individuals you'd like to introduce, certainly we'd 
welcome your using that, your time to present them at this 
time.
    So, at this time, Professor Glendon, the floor is yours.

         STATEMENT OF MARY ANN GLENDON, NOMINEE TO BE 
                   AMBASSADOR TO THE HOLY SEE

    Ms. Glendon. Thank you, Mr. Chairman. Thank you for this 
hearing. It's a real honor and a privilege to be before you 
today as you consider my nomination to serve as the U.S. 
Ambassador to the Holy See and I will try to be brief.
    My hope is, if I am confirmed by the Senate, that my 30 
years of experience in a variety of international settings 
could aid me in promoting American interests and the American 
image, the best of American values with the Holy See.
    Most of my legal work, my research, and my pro bono 
activity have, as it happens, been concentrated in areas that 
are common interest to the Holy See and the United States, and 
so if I were confirmed, I would expect to be vigorously 
involved in the collaboration that already exists between the 
United States and the Holy See on such issues as human rights, 
religious freedom, trafficking in human persons, development 
and alleviation of hunger, disease, and poverty.
    From the beginning of my legal career--which was quite a 
long time ago--I've been engaged in cross-national dialogs. I 
studied European law at the University of Brussels and interned 
at what was then the European Common Market, now the European 
Union, and since then I've had leadership roles in many 
organizations that are dedicated to improving international 
relations.
    I'd just mention three experiences, in particular, that 
seem to be relevant to the Holy See post. I was elected the 
President of the UNESCO-sponsored International Association for 
Legal Science by a multinational membership, a worldwide 
membership. I was a member of the Board of Directors of the 
Southern Africa Legal Assistance Program, which during the 
apartheid era, provided scholarships and other kinds of aid to 
aspiring African lawyers, and I'm a member of the Pontifical 
Academy of Social Sciences, a group whose members are drawn 
from five continents and a variety of religious backgrounds--
I've been their President since 2004. And currently, I'm 
involved with Harvard Law School's efforts to internationalize 
its curriculum.
    In all of those capacities, I have organized many 
international conferences here and abroad, and I would hope 
that that sort of activity would be part of the work of the 
Ambassador to the Holy See.
    Among my writings relevant to the post, I will mention just 
one, my history of the Universal Declaration of Human Rights, 
which is a diplomatic history and a biography of Eleanor 
Roosevelt, covering the years when she chaired the Human Rights 
Commission and represented the United States in the United 
Nations.
    I would also like to mention that my participation in the 
Pontifical Academy of Social Sciences, my pro bono work for the 
Catholic Church has, I believe, given me a certain insight and 
understanding of the Holy See that should be helpful to me in 
advocating for our Government, and help to fortify the 
cooperation that has already been achieved.
    Mr. Chairman, the Holy See is a vital partner for the 
United States. It's a vital partner because of its global reach 
and impact, its presence in areas that are of concern to the 
United States that affect U.S. interests and the U.S. image 
abroad. The Holy See is actively engaged on five continents in 
humanitarian work, as you said, Mr. Chairman, for the least, 
the lost and the last, for the defense of human dignity and for 
the promotion of dialog among diverse faiths and cultures.
    Its concerns in those areas form a natural alliance with 
many of our policies, and if confirmed, I would work vigorously 
to develop those areas for our mutual benefit.
    I believe that Pope Benedict's forthcoming visit to the 
United States in April will provide an excellent opportunity 
for us to develop our mutual interests, and explore new areas 
of cooperation.
    In sum, Mr. Chairman, if I were confirmed, I would devote 
my best efforts to building on the relationship that already 
exists, reinforcing those ties. It would be a privilege to be 
entrusted with that responsibility, to carry on the work of 
Ambassador Rooney, and the other fine representatives that have 
served the United States at the Holy See since we began 
diplomatic relations in 1984.
    And finally, Mr. Chairman, I would look forward to working 
with you and with your colleagues in Congress to serve the 
American people and to advance our national interests abroad. 
And I would be very pleased to answer any questions that you 
have.
    [The prepared statement of Ms. Glendon follows:]

         Prepared Statement of Mary Ann Glendon, Nominee to be 
                       Ambassador to the Holy See

    Mr. Chairman, and members of this distinguished committee, it is an 
honor to appear before you today as you consider my nomination to serve 
as United States Ambassador to the Holy See. I am grateful for 
President Bush's nomination, and for the support of Secretary Rice.
    If confirmed by the Senate, my hope is that my experience in a 
variety of international settings will aid me in promoting American 
interests with the Holy See. Most of my legal work, academic writing, 
and pro bono activity has concentrated in areas where the United States 
and the Holy See have common concerns. If confirmed, I would expect to 
be vigorously involved in the collaboration that has already been 
established on a range of issues, such as human rights, religious 
freedom, trafficking in human persons, development, and the fight 
against hunger, disease and poverty.
    For many years, my work in international legal studies has engaged 
me in cross-national dialogs in those areas. After studying European 
civil law at the University of Brussels, I worked as a press liaison in 
the headquarters of the European Common Market, now the European Union. 
Over the course of my academic career, I have had leadership roles in 
many organizations dedicated to improving international relations.
    Three experiences in particular that I would mention are the 
UNESCO-sponsored International Association for Legal Studies (to which 
I was elected president by a multinational membership), the board of 
directors of the Southern Africa Legal Assistance Program (which aided 
aspiring African lawyers in the apartheid years), and the Pontifical 
Academy of Social Sciences (a group whose members are drawn from five 
continents and from a variety of religious backgrounds). Currently, I 
have been closely involved with Harvard Law School's efforts to adapt 
its curriculum to the needs of students who will be practicing law in 
increasingly globalized environments.
    An important part of representing our country as ambassador is 
bringing people together on matters of common interest to the United 
States and the Holy See. I have been the principal organizer of 
numerous international conferences over the past 20 years for Harvard 
Law School, for the International Association of Legal Science, and for 
the Pontifical Academy of Social Sciences.
    Among my writings on subjects relevant to the post for which I have 
been nominated, I would mention especially my history of the Universal 
Declaration of Human Rights, a book that combines diplomatic history 
with a biography of Eleanor Roosevelt covering the years when she 
represented the United States in the United Nations.
    I would also like to mention that since 1994, when I was appointed 
to the Pontifical Academy of Social Science, I have acquired a 
knowledge and understanding of the Holy See that will aid me in 
advocating for our Government, while helping to fortify and expand the 
cooperation that has already been achieved.
    Mr. Chairman, the Holy See is actively engaged on every continent 
in the defense of peace, justice, and human rights. Because of this 
global perspective, the Holy See is a vital partner for the United 
States.
    The Vatican is committed to defending fundamental human rights, 
promoting human dignity, and working to advance dialog among people of 
differing faiths, races, and ethnicities. These priorities create a 
natural alignment with our policies that, if confirmed, I intend to 
exploit to its fullest potential in our mutual benefit.
    The Pontiff's visit to the United States next April will provide an 
excellent opportunity to expand areas of cooperation and explore new 
ones. President Bush and Pope Benedict met in Rome in the summer of 
2006 and this visit will deepen the tie between the two leaders.
    If confirmed, I would devote my best efforts to build relations at 
all levels and deepen the ties that have existed between the United 
States and the Holy See ever since formal diplomatic relations were 
established in 1984. It would be a privilege and an honor to be 
entrusted with the responsibility of carrying forward the fine work of 
Ambassador Rooney and all the other U.S. representatives who have 
served so ably in that post.
    Mr. Chairman, Embassy Vatican is at the front lines of this 
important shared agenda. Though few in numbers, its outstanding staff 
does excellent work on a modest budget. If confirmed, I will work with 
them to move forward our current priority issues and seek new areas in 
which to engage the Vatican.
    Mr. Chairman, if confirmed, I look forward to working with you and 
your colleagues in Congress to serve the American people and advance 
our national interests. I would be pleased to answer any questions you 
may have.

    Senator Casey. Professor, thank you very much, I appreciate 
your testimony.
    Mr. Larson.

       STATEMENT OF HON. CHARLES W. LARSON, JR., NOMINEE 
           TO BE AMBASSADOR TO THE REPUBLIC OF LATVIA

    Mr. Larson. Thank you, Mr. Chairman. And I, first, want to 
thank you for the time you've taken on the eve of the holiday 
and the New Year after a very long session, which I can 
appreciate from my service in the legislature, so I'm very, 
very thankful. I also want to thank the Senate Foreign 
Relations Committee staff for their hard work in organizing 
today's hearing, and Senator Harkin, for his kind words. This 
has been a tremendous experience and I only have the highest 
regard and compliments for Senator Harkin and his staff--they 
have literally bent over backward to assist me, and without 
their support, I recognize that this hearing would not be 
occurring on such short notice.
    I'm deeply honored to appear before you today as President 
Bush's nominee to be the next United States Ambassador to the 
Republic of Latvia. I'm grateful to President Bush and 
Secretary Rice for the confidence and trust they have placed in 
me, and if confirmed, I pledge to maintain that trust by 
working to advance and defend American interests in Latvia, 
while deepening the ties between our two nations.
    For 14 years, I served the citizens of Iowa as a 
representative, as well as a Senator in the Iowa legislature. 
Through that experience, I learned the importance of being 
responsive to the legitimate needs of the people.
    As State representative, I had the opportunity to chair 
several committees. My work as chair of the House Judiciary 
Committee increased my appreciation for the essential role of 
the rule of law, and the importance that it plays in a 
democratic nation.
    As chairman of the House Economic Development Committee, I 
participated in a mission to Japan, South Korea, and Hong Kong, 
and witnessed the importance of trade in strengthening 
relationships between nations. My respect and appreciation for 
cultures outside of the United States began in my youth, when I 
lived in Saudi Arabia for 2 years, and further developed when I 
spent a year in France.
    In 2004, I deployed to Iraq as a citizen-soldier with the 
United States Army, serving as the Command Judge Advocate for 
an engineer and aviation command for 1 year.
    In addition to my military justice duties, I spearheaded 
our command's humanitarian mission, working with Iraqis to 
build 12 new schools, 3 city halls, and to distribute more than 
$100,000 in school and medical supplies to approximately 17,000 
Iraqi children.
    Through this work, a bond of trust developed between the 
Iraqis and American forces, and a foundation was laid to 
develop some of the key elements of democracy at the lowest 
level.
    My experience in Iraq ingrained in me the critical 
importance of security and counterterrorism, as well. The 
welfare and protection of American citizens will continue to be 
one of my key priorities, if confirmed.
    Overall, my legislative and cross-cultural experiences have 
taught me the importance of diplomacy, strengthening political 
and economic ties with other nations, and of achieving results 
by moderation, tact and compromise. It is in that knowledge 
that I will apply to my position, if confirmed as United States 
Ambassador to Latvia.
    Since regaining its independence is 1991, Latvia has 
rapidly moved away from the political economic structures and 
sociocultural patterns of the former Soviet Union. Today, 
Latvia fully embraces democratic and open market principles. 
It's a member of the IMF, the World Bank, the Organization on 
Security and Cooperation in Europe, and in 2004 Latvia 
officially joined the European Union and the North Atlantic 
Treaty Organization, and in 2006 it hosted NATO's summit in its 
capital of Riga.
    As a NATO ally, Latvia has stood shoulder-to-shoulder with 
us in the war on terrorism. This country of 2.3 million has 
deployed more than 10 percent of its national armed forces to 
coalition and NATO peacekeeping missions abroad. Having 
supported the liberation of Iraq for several years, Latvia has 
now shifted its deployment focus to Afghanistan, where it plans 
to increase its deployments from the current 98 soldiers to 200 
by October 2008, with no caveat.
    In addition to using its troops to promote democracy in the 
world, Latvia provides developmental assistance and expertise 
to other countries of the former Soviet Union, as they work to 
build their own democratic states. Latvia's microfinance 
projects provide economic assistance to Georgia, Moldova, 
Belarus, and Ukraine. Latvia also funds projects to transfer to 
these countries the knowledge it gained from the political 
reforms it undertook in order to accede to NATO and the 
European Union.
    If confirmed, I will work to support and encourage 
continued robust Latvian engagement in the fight against 
terror, and the promotion of freedom worldwide.
    Latvia still has to work to overcome the legacy of World 
War II and the Soviet rule, particularly in promoting social 
integration, historical reconciliation and the rule of law.
    Almost 29 percent of Latvian's residents are ethnic 
Russians, and a large portion of them are noncitizens. The 
Latvian Government has been making an effort to achieve a more 
complete social integration of this minority population. 
Latvia's policies on minority language, education, 
naturalization and citizenship requirements for voting are 
consistent with international norms.
    I hope to use my position as ambassador to support the 
government in outreach efforts, not only with the Russian 
community, but all minority interests.
    Latvia is also making progress in coming to terms with the 
horrors of the Holocaust. The Latvian Historical Commission, 
under sponsorship of the Government of Latvia has promoted 
Holocaust awareness throughout all elements of society. 
Although the restitution of Jewish property has been 
substantially completed, approximately 200 communal and 
heirless private properties have yet to be compensated for. If 
confirmed, I will work with the government and the local Jewish 
community to further address Holocaust legacy and property 
restitution issues.
    Latvia continues to take steps toward strengthening the 
rule of law, and increasing transparency. Latvia similarly has 
taken important steps to ensure a productive relationship with 
neighboring Russia, including forming an intergovernmental 
commission with Russia to address bilateral issues. Today, the 
two countries exchanged the instruments of ratification on a 
historic treaty, delineating their common border, in fact that 
occurred yesterday with very, very positive comment.
    Mr. Chairman, members of this committee, I know the high 
importance each of you place on service to the United States of 
American. I, too, place a high value on service to our country, 
whether as a citizen-soldier, or as an ambassador.
    If you confirm my nomination, I pledge to dedicate myself 
to promoting the ideals of the United States, while protecting 
and developing our relationship with Latvia. Thank you for 
granting me the honor of appearing before you today, I'm 
pleased to answer any questions.
    [The prepared statement of Mr. Larson follows:]

      Prepared Statement of Hon. Charles W. Larson, Nominee to be 
                  Ambassador to the Republic of Latvia

    Mr. Chairman, members of the committee, I am deeply honored to 
appear before you today as President Bush's nominee to be the next 
United States Ambassador to the Republic of Latvia. I am grateful to 
President Bush and Secretary Rice for the confidence and trust they 
have placed in me. If confirmed, I pledge to maintain that trust by 
working to advance and defend American interests in Latvia while 
deepening the ties between our two nations.
    For 14 years, I served the citizens of Iowa as a representative as 
well as a Senator in the State legislature. Through this experience I 
learned the importance of being responsive to the legitimate needs of 
the people. As a State representative, I had the opportunity to chair 
several committees. My work on the House Judiciary Committee increased 
my appreciation for the essential role the rule of law plays in a 
democratic nation. As chairman of the House Economic Development 
Committee, I participated in a mission to Japan, South Korea, and Hong 
Kong, and witnessed the importance of trade in strengthening the 
relationships between nations.
    My respect and appreciation for cultures outside the United States 
began in my youth, when I lived with my family in Saudi Arabia for 2 
years and further developed when I studied in France for a year.
    In 2004, I deployed to Iraq as a citizen soldier with the United 
States Army, serving as the command judge advocate for an engineer and 
aviation command for 1 year. In addition to my military justice duties, 
I spearheaded our command's humanitarian mission, working with Iraqis 
to build 12 schools, 3 city halls, and to distribute more than $100,000 
worth of donated school supplies to approximately 17,000 Iraqi school 
children. Through this work, a bond of trust developed between the 
Iraqis and American forces and a foundation was laid to develop some of 
the key elements of democracy at the local level.
    My experience in Iraq ingrained in me the critical importance of 
security and countering terrorism, as well. The welfare and protection 
of American citizens will continue to be one of my key priorities.
    Overall, my legislative and cross-cultural experiences have taught 
me the importance of diplomacy, of strengthening political and economic 
ties with other nations, and of achieving results by moderation, tact, 
and compromise.
    It is that knowledge that I will apply to my position as United 
States Ambassador to Latvia. Since regaining its independence in 1991, 
Latvia has rapidly moved away from the political-economic structures 
and sociocultural patterns of the former Soviet Union. Today, Latvia 
fully embraces democratic and open market principles. It is a member of 
the International Monetary Fund, the World Bank, and the Organization 
on Security and Cooperation in Europe. In 2004, Latvia officially 
joined the European Union (EU) and the North Atlantic Treaty 
Organization (NATO), and in 2006 it hosted the NATO Summit in its 
capital, Riga.
    As a NATO Ally Latvia has stood shoulder-to-shoulder with us in the 
war on terrorism. This country of 2.3 million people has deployed more 
than 10 percent of its national armed forces to coalition and NATO 
peacekeeping missions abroad. Having supported the liberation of Iraq 
for several years, Latvia has now shifted its deployment focus to 
Afghanistan, where it plans to increase its deployment from the current 
98 troops to 200 by October 2008, with no caveats.
    In addition to using its troops to promote democracy in the world, 
Latvia provides development assistance and expertise to other countries 
of the former Soviet Union as they work to build their own democratic 
states. Latvia's microfinance projects provide economic assistance to 
Georgia, Moldova, Belarus, and Ukraine. Latvia also funds projects to 
transfer to these countries the knowledge it gained from the political 
reforms it undertook in order to accede to NATO and the European Union. 
If confirmed, I will work to support and encourage continued robust 
Latvian engagement in the fight against terror and the promotion of 
freedom worldwide.
    Latvia still has work to do to overcome the legacy of World War II 
and Soviet rule, particularly in promoting social integration, 
historical reconciliation, and the rule of law. Almost 29 percent of 
Latvia's residents are ethnic Russians, and a large portion of them are 
noncitizens. The Latvian Government has been making an effort to 
achieve a more complete social integration of this minority population. 
Latvia's policies on minority language education, naturalization, and 
citizenship requirements for voting are consistent with international 
norms. I hope to use my position as ambassador to support the 
Government in its outreach efforts with not only the Russian community 
but all minorities.
    Latvia is also making progress in coming to terms with the horrors 
of the Holocaust. The Latvian Historical Commission, under sponsorship 
of the Government of Latvia, has promoted Holocaust awareness 
throughout all elements of society. Although the restitution of Jewish 
property has been substantially completed, approximately 200 communal 
and heirless private properties have yet to be compensated for. If 
confirmed, I will work with the Government and the local Jewish 
community to further address Holocaust legacy and property restitution 
issues.
    Latvia continues to take steps toward strengthening the rule of law 
and increasing transparency. Latvia similarly has taken important steps 
to ensure a productive relationship with neighboring Russia, including 
forming an intergovernmental commission with Russia to address 
bilateral issues. Today, the two countries exchange the instruments of 
ratification of a historic treaty delineating their common border.
    Mr. Chairman, members of this committee, I know the high importance 
that each of you places on service to the United States of America. I 
too place a high value on service to our country, whether as a citizen 
soldier or as an ambassador. If you confirm my nomination, I pledge to 
dedicate myself to promoting the ideals of the United States while 
protecting and developing our relationship with Latvia.
    Thank you for granting me the honor of appearing before you today. 
I am pleased to answer any questions.

    Senator Casey. Thank you, Mr. Larson. We'll start the round 
of questions now. The rounds normally at a hearing like this go 
per Senator, 7 minutes or even 10 minutes, but usually about 7 
minutes. I don't want to alarm you, though, I'm not going to 
multiply 7 by every chair here, so--I have some discretion 
today as chairman, but also as the lone Senator sitting here, 
so I might have some--a couple of questions beyond the 10 
minutes, but I'm grateful for your testimony.
    I guess I'll start, Professor Glendon, with you. A couple 
of questions. One would be--we live in a world now where, 
because of what we're seeing playing out not only in the Middle 
East, but especially there and across the world, conflicts that 
have some of their origin in religious differences, in fact, 
sometimes even disputes--violent disputes--about the meaning of 
one, tenets of one particular religion, we're seeing that all 
of the time.
    And I guess, in light of the conflict, but also just in 
terms of the integrity of our debates about these issues, I 
wanted to ask you about--I guess, one or two questions about 
how you'd assess the Holy See's kind of broader relationship 
with the Muslim world. I know it's an expansive question but it 
becomes very important, because I think the Holy See becomes--
not an arbiter, but becomes an important player in those kinds 
of situations where you have not just countries competing for 
power or resources, but also when it comes to relationships, or 
the kind of ecumenical efforts that we try to make, not only in 
this country but as a world leader.
    But, I guess, I want to get your just, general sense of the 
relationship between the Holy See and the Muslim world.
    Ms. Glendon. I'd start by recalling that the Holy See has 
had a long, long experience with dialog with the Muslim world. 
It's a dialog that's had its phases and its ups and downs. But, 
at the present time, that dialog has been marked by a very 
intensive search by the Holy See for discussion partners who 
are open to the idea of meeting on the plane of reason--this 
has been a particular mark of the Pontificate of Benedict that 
he looking for persons who can advance their religiously 
grounded viewpoints in a manner that is intelligible to all men 
and women of goodwill.
    The present state of affairs with the Muslim dialog, I 
believe, is that in December, Benedict extended an invitation, 
or proposed a conference between Holy See and Muslim 
representatives in response, I believe, to a letter that 138 
Muslim leaders sent to him, and that process certainly affords 
some hope of achieving agreement on some very basic things, 
such as religion is never, ever an excuse for violence.
    Senator Casey. And I know there were some questions raised 
recently about the--Pope Benedict had made several statements 
that cast doubt on whether he would welcome Turkey's entry into 
the European Union, what's your understanding of the Vatican's 
current position on that, and anything else you'd want to add 
about how you see that issue?
    Ms. Glendon. My understanding is that the Holy See is very 
concerned about religious freedom, and of course, the European 
Union is committed to certain basic standards of religious 
freedom, and I believe the Holy See's position is that 
countries should meet those standards, or show significant 
progress toward meeting those standards.
    Senator Casey. And I guess I also wanted to get your sense 
of--when you make a list of some of the challenges the world 
faces, virtually, you can't point to one that the Holy See is 
not involved in or making efforts to try to improve the 
condition of human dignity or the condition of people that are 
suffering. And, this is a very difficult question to answer 
succinctly, but I would ask you if you could kind of highlight 
or even rank--when you look at the globe and you look at the 
challenges that so many people face, whether it's poverty or 
AIDS or violence, go down the list--what do you think is the 
most challenging for the Holy See and how do you see your role 
in helping this country relate to what the Holy See needs to 
focus on in terms of those--the biggest challenges, when we 
think of poverty or the others I mentioned?
    Ms. Glendon. Well, that's a really challenging question, 
Mr. Chairman--
    Senator Casey. It could take a couple of hours.
    Ms. Glendon. In view of your indication you'd like a brief 
response, I will refer to the Pope's World Day of Peace 
message, the text of which was just issued.
    And he highlighted three concerns, and I would expect that 
these would be the same concerns that he will bring to the 
United States when he visits here in April, and they were, of 
course, peace--as you would expect in a World Day of Peace 
message. Concern for the environment, climate change, and the 
third--something that has always and everywhere been at the 
heart of the Church--the concern for poverty, disease, lack of 
development.
    The Holy See, I think, in its interventions on occasions 
like the World Day of Peace or the speech that the Pope is 
likely to give at the United Nations--it is constantly calling 
the developed world to be attentive to be attentive to what you 
referred to as the least, the last and the lost, and that's a 
major theme in the World Day of Peace message.
    As for what the United States Embassy could do, I think 
those areas are all areas where--they are three of the many 
areas where the Holy See and the United States share common 
concerns and have already established cooperative 
relationships.
    My own view is that in 2008, an excellent way of our 
highlighting those concerns and achieving something fairly 
important in--not only in the relationship between the two 
entities, but to advance the issues, in general, is 2008 
happens to be the 60th anniversary, both of the Genocide 
Convention, and the Universal Declaration of Human Rights, and 
it would seem to me that that provides the occasion for the 
United States and the Holy See to join forces in advances their 
own commitment, and promulgating the principles that underlie 
those two documents.
    Senator Casey. Thank you very much, and I may come back to 
you.
    I'm going to move to Mr. Larson about some questions about 
Latvia--one of the issues that I mentioned in some of my 
opening comments was the issue of corruption. If you could 
speak to your knowledge of that and efforts underway, if any, 
to address that--because we, any democracy faces that in the 
early, in the infancy of a democracy, but even, as we know here 
in the United States, even very well developed, in our case a 
republic that has had centuries of development now, more than 
two at least, we still have that problem here--local 
governments, State government, and even the Federal 
Government--what's your sense of that, and what's your sense of 
kind of a mission that you'll have to try to impact it 
positively?
    Mr. Larson. That's an excellent question, Senator, and as 
you know, the foundation of a democracy is the rule of law, and 
having confidence in the government, and I can tell you that 
many of the emerging democracies in Eastern Europe, or even in 
Iraq--one of the greatest problems we were confronted with was 
the rule of law and stopping corruption.
    Latvia has worked very aggressively, the have an Office of 
Anti-Corruption that is investigating and trying to root it 
out. There have been many reforms put in place in the 1990s to 
help combat that, and if confirmed as ambassador, I will work 
to leverage resources, technical assistance that we have here 
in the United States from the Department of Treasury, FBI, and 
the Department of Justice to assist them in their 
investigations to provide that the technical assistance that 
could be key in building the cases and key to success in 
developing the rule of law is to prosecute and to root it out, 
and to help set an example that will give confidence to the 
people of a nation and their government.
    Senator Casey. You mentioned Treasury, FBI--who's the 
third?
    Mr. Larson. The Department of Justice, Treasury.
    Senator Casey. Okay, and I want to get back to that, but I 
know we have, who just came in the room, Senator Grassley, who 
I think may want to provide some testimony.
    Thank you, Senator, appreciate you being here.
    Sure, we're honored to have Senator Grassley here who, as 
a--in my case as a first-year Senator you have to do your best 
not just to learn where the hearing rooms are and what to do 
every day, but you have to try to learn from those who have 
been here ahead of you, and he's been a great inspiration to a 
lot of people here, even those who have been here longer than I 
have. And we've worked together on a number of issues, and 
whether it's in the Agriculture Committee, I've watched his 
work for many years in the Finance Committee, so we're grateful 
for his presence here, and his testimony.
    Thank you, Senator.

               STATEMENT OF HON. CHUCK GRASSLEY,
                     U.S. SENATOR FROM IOWA

    Senator Grassley. You know, many times since I've been in 
Congress, I've had and opportunity to introduce many Iowans to 
the Senate and to various committees of the Senate, and even 
this committee, but very seldom can I say I've introduced 
people who are friends of mine. I hope they've all been 
friends, but I mean a real friend, and Chuck Larson's an 
example of a real friend--both personally as well as 
politically, and so I'm glad to be here to introduce him and 
have that special relationship with him.
    I want to commend you and the committee for considering 
Chuck Larson for this ambassadorship, and of course, holding a 
hearing at this late stage to fill this position in Latvia is 
very important, because Latvia--even though a new country, 
well, relatively new in the sense of not being out of the 
Soviet Bloc very long, and you held this hearing so early 
because this just came before the Senate on November 30, so 
thank you.
    You'll find out as ambassador or anything else he's done 
that Chuck Larson is an intelligent, accomplished leader, first 
being elected to the Iowa General Assembly in 1992, and I told 
him at that time--his mother was campaigning for him--if he 
wins this because his mother is working so hard for him, 
because I know how that is, my mother worked hard for me when I 
was first running for the Iowa House of Representatives half a 
century ago.
    While in the Iowa House, he served as chairman of the 
Judiciary Committee, and chairman of the Economic Development 
Committee, and then he was elected to the United States Senate. 
And then while he was in the Senate, he was called into full-
time military service, because he had been in the military, 
going way back to 1987. He's currently a Major, as you know, 
from his BTA, and he had to miss sessions of the Senate because 
he served in Iraq. He was deployed for a year with the 332nd 
Engineering Group, he also happens to be a graduate of law 
school, and he has practiced law, and he has practiced law, and 
he's been a business man.
    Chuck Larson has served Iowa, then, not only as a State 
Senator and not only as a member of the military, but in a lot 
of specific ways, as well.
    So, I'm pleased that he's now been called by the President 
to serve his country once again, in this particular case, as an 
ambassador. I'm confident that my friend, Chuck Larson, will 
represent the United States well, and excel in this position 
just as he has throughout his career.
    So, Mr. Chairman and members of your committee, I want you 
to know that I strongly support this nomination, and I 
hopefully have the ability, since, you know, we're getting 
toward the end of one President's constitutionally limited term 
of office that we can get him approved so he can serve a full 
time over there for the rest of this President's term, and who 
knows, if our side of the aisle is lucky enough, he might be 
able to serve longer than one year.
    So, thank you very much for considering this, and thank you 
very much for wanting to serve.
    Mr. Larson. Thank you, Senator.
    Senator Grassley. And let me say congratulations to you, 
too, for your important nomination.
    Ms. Glendon. Thank you, Senator.
    Senator Grassley. You bet.
    Senator Casey. Senator, thank you very much, and we 
appreciate your presence here on a day when many are not, and 
we're grateful for your leadership and it's a great testament 
to this nominee and to the State of Iowa, that both of the 
United States Senators were here today to provide that 
testimony, so we're grateful. Thank you, Senator.
    Mr. Larson, I wanted to also explore the relationship, 
obviously, that I think many people have had concerns about and 
they're well-founded, the relation between Russia and Latvia, 
and in particular in the area of energy--gas and electricity 
and what that means in terms of political leverage.
    How concerned are you by Latvia's significant and really 
heavy dependence on Russia for its energy supplies, and how do 
you see that playing out in the time that you would serve, upon 
confirmation as ambassador?
    Mr. Larson. That's an excellent question and key to it is 
the development and improvement of the relations between Latvia 
and Russia. Yesterday, the Russian-Latvian border treaty was 
signed with very, very, positive comments by Foreign Minister 
Zavrov from Russia--he invited the President of Latvia to 
Russia next year. So, we're seeing, overall, not only positive 
comments, but improvements in relations.
    The two nations have developed an intergovernmental 
commission that's addressing approximately 10 issues right now 
that affect both of their communities.
    Latvia is working aggressively to diversify their sources 
of energy. They've received assistance and expanded their 
hydroelectric to provide approximately 25 percent of their 
needs, but you're correct, Mr. Chairman, the vast majority of 
their electrical needs is coming from Russia, natural gas, as 
well.
    They're exploring opportunities with Finland to expand 
electrical transmission from Finland, through Estonia to Latvia 
and Lithuania, and Poland, Lithuania, and Latvia are also 
investing in a new nuclear plant that will be based in 
Lithuania and provide expanded electrical transmission for 
them.
    So, I believe the key is for expanded diversification, and 
if confirmed, I will work with U.S. companies to help provide 
technical assistance, potential investment opportunities for 
U.S. companies, and additionally, I'll draw from my own State, 
where we have a very diversified renewable fuels agenda, and 
some of the leading experts in the Nation are in Iowa for 
biodiesel, ethanol, and what-not, and I know that they have a 
tremendous interest in Latvia, as well.
    I guess, I want to ask you a follow-up on the use of the--
in place now, an intergovernmental committee?
    Mr. Larson. There's a commission----
    Senator Casey. Oh, commission, sorry.
    Mr. Larson [continuing]. Made up of representatives from 
both countries, yes, sir.
    Senator Casey. Can you tell me more about that?
    Mr. Larson. It's a bilateral commission that has about 10 
issues underway that they're actively working on----
    Senator Casey. Representation from Russia?
    Mr. Larson. Both Latvia and Russia, yes sir.
    Senator Casey. And, but you fell confident that they are on 
a path where they have a--at least a plan or a strategy to 
diversify, sufficient to diminish or reduce that dependence?
    Mr. Larson. I believe that they are actively pursuing that 
plan right now, from an electrical transmission perspective 
with Finland, and also from a more expanded source of energy, 
with a plan to, in Lithuania, to provide nuclear energy.
    Senator Casey. You mentioned in your testimony the, 
obviously, the horrific history--the world history, really--
with regard to the Holocaust, but in particular, in Latvia, the 
attempt to raise both awareness, but also the property 
restitution issues it's surrounding. Can you tell us more about 
that just in terms of where it is now, and how you see it 
developing?
    Mr. Larson. There's great education that needs to be done. 
When I served in the Iowa Senate, I spearheaded an effort to 
bring part of the traveling Holocaust Museum to Iowa, because I 
recognized that not every Iowan would have the opportunity to 
visit the museum and learn. And at the crux of the issue is 
that the best way to ensure that we do not experience, as a 
society, another Holocaust, is education. And that's where the 
Latvian Government is proactively working to educate the people 
about what occurred, and to help ensure that it does not happen 
again.
    There remains some tension, tension I think would be 
appropriate, that we see in many European countries regarding 
anti-Semitism. And so, more work needs to be done.
    Additionally, although the vast majority of the private 
property issues have been resolved, as far as restitution, 
there is still approximately 200 communal properties, or 
heirless properties that I mentioned, where restitution has not 
been made. And as ambassador I will--if confirmed--will do two 
things in this area, and I'll work very closely with the local 
Jewish community to help encourage expanded education, and then 
second, that the issue of communal property must be resolved.
    Senator Casey. And there's still a good bit of work to be 
done there?
    Mr. Larson. There is, there is.
    Senator Casey. Thank you. I'm going to go back to Professor 
Glendon, and maybe go back to Mr. Larson, as well.
    Professor, one issue that obviously has consumed a lot of 
our time in the Senate, and the same is true of the House, 
which is as it should be, is the war, the war in Iraq. And I 
know that there's a--upon confirmation, you'd be in a--maybe 
not a unique position, but an easy position in terms of what 
the Holy See has said about the war and what the 
administration's position is on the war. How do you see that 
playing out and how do you--not just with regard to that issue, 
but how do you approach those issues, where you see--at a 
minimum, a tension, and in some cases there may be issues where 
there's a direct conflict. How do you--how do you resolve those 
kinds of disputes or tensions?
    Ms. Glendon. Well, let me start by saying that it seems to 
me that leaving aside the Holy See's well-known opposition to 
our invasion of Iraq that in the period of time since then it 
certainly has supported our goals of achieving a peaceful, 
religion-respecting, free society in Iraq. And the Holy See has 
a presence in Iraq that could, in fact, it has access, I think, 
in the capillaries of the society to keep a sense of what's 
going on that could be very beneficial for us to get in touch 
with.
    So, I think that despite the initial conflict over the 
entry into the situation, the Holy See can be a reliable and 
valuable partner in working our way through toward some kind of 
peaceful outcome.
    Senator Casey. Your broad experience as a lawyer, I think, 
should come in handy when you deal with issues like that.
    And, I guess I'd ask you what--in terms of your own 
experience as a lawyer, as an advocate, as someone who's 
weighed in on public policy, what do you think your most--this 
is probably not a question anybody wants to answer--but what do 
you think is going to be your most difficult challenge upon 
confirmation?
    Ms. Glendon. I think the most difficult challenge, frankly, 
arises from the short period of time that these ambassadorial 
appointments are likely to last, and I have given a good deal 
of thought to what could be accomplished in a short period of 
time. It seems to me that it's fortuitous that we have these 
two anniversaries that I mentioned--the Genocide Convention, 
and of the Human Rights Declaration--it seems to me that in 
itself would provide a couple of project that would enable us 
to explain and defend American positions, and to lift up 
American values, in a way that if it could impress the Holy See 
it could, through the Holy See, influence the image of the 
United States everywhere that there are Catholics--all over the 
world--but also especially in Europe, where I think that the 
image of the United States needs some improvement.
    Senator Casey. And I know that you're anticipating the 
visit by Pope Benedict here, in the United States, and I'm not 
asking you to provide an itinerary--but how does that work in 
terms of your involvement? How much of your time has to be 
devoted to helping that journey be well-planned or executed, or 
is that of--I'm just curious as to your involvement in that, 
because it's a--I can't even begin to imagine how difficult it 
is to--for those who were charged with that responsibility to 
set up that itinerary and make it go smoothly, but I just 
didn't know the role you have to play in that, or--if any.
    Ms. Glendon. Well, frankly, I'm not sure what exactly the 
role I would have to play would be, but I would expect it to be 
the first thing that the new ambassador would have to attend 
to. And I would hope that--you were kind enough to mention my 
background as an advocate--I would hope that I would be able to 
be helpful in translating from one frame of reference to 
another, I think I would be able to ease communication between 
the two entities.
    Senator Casey. Well, thank you, I appreciate that, and I 
don't envy those who are planning that kind of a trip, with the 
detail and the work that goes into that kind of a trip must be 
overwhelming, so we wish them all the luck in the world.
    I guess, one more Professor, I was going down a list, and I 
don't want to--we can't cover everything today, but there was 
one other that I had--oh, with regard to the Peoples Republic 
of China, I guess there's some speculation that the Vatican 
might reestablish diplomatic relations with China--do you have 
any sense of that, yet? Or do you think, is it too early in 
your consideration of that, or your information about that to 
comment, but what do you know about that? The likelihood of 
that happening, if any? Or, what's your sense of that?
    Ms. Glendon. I think the most significant thing is that 
these conversations are taking place, and that there does seem 
some disposition on the part of China to discuss the question 
of the status of the most neuralgic question concerning the 
internal government as a church, the appointment of bishops--I 
would expect the negotiation process to be protracted, the 
questions are difficult, and I do believe that the Holy See is 
much more interested in religious freedom in China, than it is 
in establishing diplomatic relations, and that some progress--a 
good deal of progress--would have to be made on the religious 
freedom front before a change was made on the diplomatic front.
    Senator Casey. Thank you. I know we're a little tight on 
time, but Mr. Larson, I guess my last question pertains 
principally to the issue in Latvia, not just in terms of how 
it's dealing with Russia as it relates to energy policy and 
diversification, but just generally, how would you characterize 
that relationship now, even beyond the issue of energy? Where, 
you can't pick up an American newspaper without reading yet 
another story about what's happening in Russia, specifically as 
it pertains to Mr. Putin and what his intentions are, 
especially in light of a close ally of his now, being on a path 
to assume power.
    And there's real concern, frankly, in this country, for a 
lot of reasons. Not just because of things he has said and 
intentions he seems to have in mind, but what it does for that 
region, and stability and the relationship between our two 
countries.
    And, I guess as Ambassador to Latvia, you'd be dealing with 
some of those same concerns, and some of those--weighing those 
considerations when you're ambassador to that country on behalf 
of the United States and you have to deal with the Kremlin, and 
you've got to deal with the leadership in Russia, and how do 
you see that relationship now, both between Latvia and Russia, 
but also how the United States handles that?
    Mr. Larson. That's an excellent question. I would describe 
it, Mr. Chairman, that it's improving, and as Foreign Minister 
Zavrov said, we cannot turn a blind eye to the historical 
challenges we've had in the past, and he just made that comment 
yesterday.
    And I think it fairly sums up the growing warmth between 
the relationships or the growing improvement in their 
relations. As I mentioned, yesterday we saw a very positive 
sign that they signed the Latvian-Russian Border treaty; Russia 
also more recently, last week, suspended their participation in 
the Conventional Forces Europe treaty and yesterday they said 
that they would be willing to return to the table to continue 
those discussions.
    On the Intergovernmental Commission, we're seeing continued 
dialog as these two nations work to iron out a number of issues 
that nations would face that border each other. So, I would 
describe it, clearly, as improving and if confirmed, as United 
States Ambassador, I would work with the Latvian Government to 
encourage that continued dialog and improvement of relations, 
and building relations across borders.
    Senator Casey. We especially appreciate your service to the 
country in Iraq, and there are few people, I think that have 
the combination of government service, and service in a current 
or recent conflict, so I think both sets of experience in 
addition to other life experience should serve you well.
    But, we're grateful, and we're thinking at this holiday 
season about those who are still serving in Iraq and 
Afghanistan and around the world, but we're wanting to note as 
other shave here, your service.
    Mr. Larson. Thank you.
    Senator Casey. Unless there are other comments that either 
of you would like to make, you could certainly amplify the 
record by way of written followup or statement if you wanted 
to. I may have questions that I submit for the record, other 
members of the committee might, to amplify what we talked 
about, but we're particularly grateful for your presence here 
today and your willingness to serve the people of the United 
States and also the diplomatic posts, the areas of the world 
you'd be serving in upon confirmation, so we're grateful.
    Unless either of you have anything else, I'd ask that we--I 
make my own motion to adjourn this hearing, but thank you very 
much.
    Mr. Larson. Thank you.
    Ms. Glendon. Thank you very much, Mr. Chairman.
    [Whereupon, at 10:33 a.m., the hearing was adjourned.]

                                    

      

</pre></body></html>
